<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-394]
[From the U.S. Government Printing Office]


                                                 S. Hrg. 110-394, Pt. 1
 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 3001

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2009 FOR MILITARY 
ACTIVITIES OF THE DEPARTMENT OF DEFENSE, FOR MILITARY CONSTRUCTION, AND 
   FOR DEFENSE ACTIVITIES OF THE DEPARTMENT OF ENERGY, TO PRESCRIBE 
    PERSONNEL STRENGTHS FOR SUCH FISCAL YEAR, AND FOR OTHER PURPOSES

                               __________

                                 PART 1

                            MILITARY POSTURE
                   POSTURE OF THE UNITED STATES ARMY
                   POSTURE OF THE UNITED STATES NAVY
UNITED STATES CENTRAL COMMAND AND THE UNITED STATES SPECIAL OPERATIONS 
                                COMMAND
                 POSTURE OF THE UNITED STATES AIR FORCE
   UNITED STATES SOUTHERN COMMAND AND UNITED STATES NORTHERN COMMAND
      UNITED STATES PACIFIC COMMAND AND UNITED STATES FORCES KOREA

                               __________

              FEBRUARY 6, 26, 28; MARCH 4, 5, 6, 11, 2008


         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE

42-629 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
                            Military Posture
                            february 6, 2008

                                                                   Page

Gates, Hon. Robert M., Secretary of Defense; Accompanied by Hon. 
  Tina W. Jonas, Under Secretary of Defense-Comptroller..........     6
Mullen, ADM Michael G., USN, Chairman, Joint Chiefs of Staff.....    13

                   Posture of the United States Army
                           february 26, 2008

Geren, Hon. Preston M. ``Pete'', III, Secretary of the Army......   103
Casey, GEN George W., Jr., USA, Chief of Staff, Army.............   115

                   Posture of the United States Navy
                           february 28, 2008

Winter, Hon. Donald C., Secretary of the Navy....................   180
Roughead, ADM Gary, USN, Chief of Naval Operations...............   196
Conway, Gen. James T., USMC, Commandant of the Marine Corps......   231

United States Central Command and the United States Special Operations 
                                Command
                             march 4, 2008

Fallon, ADM William J., USN, Commander, United States Central 
  Command........................................................   327
Olson, ADM Eric T., USN, Commander, United States Special 
  Operations Command.............................................   340

                 Posture of the United States Air Force
                             march 5, 2008

Wynne, Hon. Michael W., Secretary of the Air Force...............   400
Moseley, Gen. T. Michael, USAF, Chief of Staff, United States Air 
  Force..........................................................   419

   United States Southern Command and United States Northern Command
                             march 6, 2008

Renuart, Gen. Victor E., Jr., USAF, Commander, North American 
  Aerospace Defense Command and U.S. Northern Command............   495
Stavridis, ADM James G., USN, Commander, U.S. Southern Command...   509

      United States Pacific Command and United States Forces Korea
                             march 11, 2008

Keating, ADM Timothy J., USN, Commander, United States Pacific 
  Command........................................................   572
Bell, GEN Burwell B., III, USA, Commander, United Nations Command 
  and Republic of Korea/United States Combined Forces Command; 
  Commander, United States Forces Korea..........................   588


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                                ----------                              


                      WEDNESDAY, FEBRUARY 6, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                            MILITARY POSTURE

    The committee met, pursuant to notice, at 9:31 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, Reed, 
Akaka, Bill Nelson, E. Benjamin Nelson, Pryor, Webb, Warner, 
Inhofe, Sessions, Collins, Chambliss, Dole, Cornyn, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; Leah C. Brewer, nominations and hearings clerk; and 
Mary J. Kyle, legislative clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Madelyn R. Creedon, counsel; 
Gabriella Eisen, counsel; Evelyn N. Farkas, professional staff 
member; Richard W. Fieldhouse, professional staff member; 
Creighton Greene, professional staff member; Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Peter K. 
Levine, general counsel; Thomas K. McConnell, professional 
staff member; Michael J. McCord, professional staff member; 
William G.P. Monahan, counsel; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; Lucian L. Niemeyer, 
professional staff member; Lynn F. Rusten, professional staff 
member; Robert M. Soofer, professional staff member; Sean G. 
Stackley, professional staff member; Kristine L. Svinicki, 
professional staff member; Diana G. Tabler, professional staff 
member; Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Jessica L. Kingston, Benjamin L. 
Rubin, and Brian F. Sebold.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge, assistant to Senator Akaka; Christopher Caple and 
Caroline Tess, assistants to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum and Todd Stiefler, assistants 
to Senator Sessions; Mark J. Winter, assistant to Senator 
Collins; Clyde A. Taylor IV, assistant to Senator Chambliss; 
Lindsey Neas, assistant to Senator Dole; David Hanke, assistant 
to Senator Cornyn; John L. Goetchius and Brian W. Walsh, 
assistants to Senator Martinez; and Erskine W. Wells III, 
assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to receive testimony from the Secretary of 
Defense, Robert M. Gates, and the Chairman of the Joint Chiefs 
of Staff (JCS), Admiral Michael J. Mullen. Joining them is 
Comptroller of the Department of Defense (DOD), Tina Jonas. Our 
witnesses are here to present the President's fiscal year 2009 
budget request for DOD, including both the so-called base 
budget and the additional bridge fund requested for operations 
in Iraq and Afghanistan for just the first part of fiscal year 
2009.
    I want to start by welcoming if he is here, but he is not, 
but I will welcome him anyway, a new member of our committee, 
Senator Wicker. We're glad to have him and I will want him to 
know that I have it on unassailable authority from a former 
colleague of his, a member of the House of Representatives who 
I have known for over 70 years, my brother, that he will make a 
fine addition to this committee.
    First some thanks to our witnesses for their service and 
the very positive way that you have worked with this committee. 
We very much appreciate the relationships which have been 
created and which are so important.
    I know our witnesses would agree that our first thanks will 
go to the men and women serving in our military. We are all 
truly grateful for their professionalism and dedication to our 
country and for the sacrifices that they and their families 
make.
    Last year this committee on a bipartisan basis compiled a 
record of accomplishment that we can be very proud of. First, 
we enacted the historic Wounded Warrior Act which will improve 
the health care and benefits of recovering veterans and service 
members and their families. Our law will vastly improve the 
coordination between the DOD and Department of Veterans Affairs 
(VA). It will end the confusing and conflict system of 
disability determinations that have existed for too long 
between the DOD and the VA.
    We also enacted legislation that requires private security 
contractors operating in combat zones in Iraq and Afghanistan 
to comply with orders and directives from military commanders 
and with DOD rules relative to the use of force. Our 
legislation established a commission on wartime contracting in 
Iraq and Afghanistan to investigate Federal agency contracting 
for reconstruction, logistics support, and security functions 
in those countries. We established a new Special Inspector 
General (IG) for Afghanistan reconstruction to provide 
oversight and address contracting abuses. We extended the term 
of the Special IG for Iraq Reconstruction (SIGIR).
    We enacted the far-reaching Acquisition Improvement and 
Accountability Act, which tightened the rules for DOD 
acquisition of major weapons systems, subsystems, and 
components, to reduce the risk of contract overpricing, cost 
overruns, and failure to meet contract schedules and 
performance requirements.
    We legislated a defense acquisition workforce development 
fund to ensure that DOD has enough skilled people to 
effectively manage its contracts; and we strengthened statutory 
protections for whistleblowers.
    We established a chief management officer for the DOD and 
each of the military departments to ensure continuous top level 
attention to DOD management problems.
    I'm highlighting what we achieved last year in areas of 
oversight and accountability because we are here today to talk 
about a request for over half a trillion dollars of taxpayer 
funds for the DOD for the next fiscal year, excluding the cost 
of Iraq and Afghanistan, and possibility exceeding $700 billion 
when you include the full cost of those wars next year. We are 
jointly responsible with the President for how those funds are 
spent.
    Last year's actions to strengthen oversight and 
accountability were necessary, but they're not sufficient. The 
DOD faces huge problems in its acquisition system. Over the 
last few years we've seen an alarming lack of acquisition 
planning, the excessive use of time and materials contracts, 
undefinitized contracts, and other open-ended commitments of 
DOD funds. These problems have been particularly acute in 
Afghanistan and Iraq, but they are in no way limited to those 
two countries.
    The Government Accountability Office (GAO) has reported 
that cost growth on seven of DOD's largest acquisition programs 
ranged from 26 to 188 percent. In a period of just 5 years, the 
GAO told us, the cost of DOD's top five weapons systems 
programs had almost doubled, growing from $290 billion to $550 
billion.
    The reforms that we adopted last year, now signed into law, 
are an important step towards addressing problems in DOD's 
acquisition programs. But it will take years of work by DOD and 
close oversight by Congress to make sure that we get the job 
done.
    Many other challenges lie ahead. We have an Army and a 
Marine Corps which are way overstretched. The stress on our 
forces from operations in Iraq and Afghanistan continues to 
build. The media reports that there is a strong possibility 
that General Petraeus will recommend that force levels in Iraq 
remain at the pre-surge level of approximately 130,000 troops 
for some unspecified period of time once the five surge 
brigades complete their redeployment this summer.
    Meanwhile, our Army troops continue to face multiple tours 
of 15-month duration, with only 12 months or less at home 
between rotations, and Marines also see more time deployed than 
at home. These levels of deployment without adequate rest for 
the troops and repair and replacement of equipment simply 
cannot be sustained.
    Over the past year, 30,000 additional troops have helped 
produce a welcome lessening of violence in Iraq and a lower 
U.S. casualty rate. But the purpose of the surge as stated by 
the President has not been achieved. That purpose, again as 
stated by the President, was to ``provide enough space so that 
the Iraqi Government can meet certain benchmarks or certain 
requirements for a unity government.''
    But the Department of State (DOS) reported to us as 
recently as November 21, 2007, that ``Senior military 
commanders now portray the intransigence of Iraq's Shiite-
dominated government as the key threat facing the U.S. effort 
in Iraq, rather than al Qaeda terrorists, Sunni insurgents, or 
Iranian-backed militias.''
    The military progress on the ground was achieved with huge 
sacrifice and brilliance. We cannot accept that that sacrifice 
will be squandered by Iraqi leadership continuing to fail to 
achieve the key political benchmarks that they set for 
themselves long ago, in particular amending the constitution, 
passing a hydrocarbons law that fairly shares Iraq's oil wealth 
with all citizens, passing a provincial powers act, and 
conducting provincial elections.
    The value of the new de-Baathification law, if it is a law, 
despite the constitution of Iraq saying that it isn't because 
it failed to get the unanimous approval by the presidency 
council required for it to become a law, the value will depend 
upon how it is implemented.
    For years, the Iraqi leaders have failed to seize the 
opportunity our brave troops gave them. It's long past the time 
that the Iraqi leaders hear a clear, simple message: We can't 
save them from themselves. It's in their hands, not ours, to 
create a nation by making the political compromises needed to 
end the conflict. That message is not the language of 
surrender. It's common sense, pragmatism, and the only 
realistic path to success.
    A critical priority for this and future budgets must be the 
war in Afghanistan. Unlike the war in Iraq, the connection 
between Afghanistan and the terrorist threat that manifested 
itself on September 11, and is clear, and American support for 
the Afghanistan mission remains strong. Unfortunately, as a 
number of reports issued recently made clear, the 
administration's strategy in Afghanistan is not yet producing 
the results that we all want.
    A report by the Afghanistan Study Group chaired by retired 
General Jim Jones and Ambassador Thomas Pickering, finds the 
Afghanistan mission is ``faltering.'' The report states that 
``violence, insecurity, and opium production have risen 
dramatically as Afghan confidence in their government and its 
international partners falls.''
    Last year was the deadliest year since 2001 for U.S. and 
coalition forces in Afghanistan. A separate report from the 
Atlantic Council states: ``Make no mistake, the North Atlantic 
Treaty Organization (NATO) is not winning in Afghanistan.''
    The United States has recently announced its decision to 
commit an additional 3,200 marines to Afghanistan, despite our 
already overstressed U.S. forces. Unfortunately, some of our 
allies have not demonstrated a similar commitment to providing 
troops and equipment which are needed for the Afghanistan 
mission.
    Finally, I'm disappointed that the budget request does not 
include a request for the full amount of the estimated 
expenditures in Iraq and Afghanistan for next year, as required 
by our law. While the monetary cost is not the most important 
part of the debate over Iraq or Afghanistan, it does need to be 
part of that debate and the citizens of our Nation have a right 
to know what those costs are projected to be.
    Again, with thanks to our witnesses, I turn to Senator 
Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you and all 
members of the committee in welcoming our witnesses today.
    Senator Levin and I have had quite a few years in the 
context of these hearings and I think the Gates-Mullen team is 
going to set new high records for cooperation between the 
civilian side and the military side of the DOD. I have watched 
each of you very carefully here in the past month or so and, 
Admiral Mullen, this is your first appearance as Chairman; and 
Mr. Secretary, you have a fine teammate there. You really have 
earned the respect and the admiration and the confidence, of 
not only the Congress of the United States, but indeed the men 
and women of the Armed Forces and their families, which is the 
bottom line why we're here today.
    So I wish you luck.
    I join my colleague in drawing your attention to that law. 
It was the National Defense Authorization Act for Fiscal Year 
2007. It was very explicit in requiring the full presentation 
of your expected costs in Iraq and Afghanistan. Nevertheless, 
I'm sure you have an explanation and we'll receive it.
    We are seeing signs of progress in Iraq, some progress in 
Afghanistan. But I think by any fair standard that level of 
progress to date is falling below the expectations that we had 
hoped here as a Nation. Senator Levin quite appropriately 
observed that the elected officials in Iraq are simply not 
exercising the full responsibility of the reins of sovereignty, 
and that puts our forces in a certain degree of continuing 
peril and risk. I would hope the administration and indeed the 
witnesses before us would do everything we can to expedite and 
get some reconciliation, because time and time again I think 
every single panel that's been up here in all these years, Mr. 
Chairman, has said there is no military solution for that 
problem; it has to be a political one.
    I also would be interested to know if you're beginning to 
lay plans as to how you convey a year hence this Department to 
a new administration and what steps you might take to lay that 
foundation, to have hopefully a seamless transition, Mr. 
Secretary, in your case to the successors who will come in. The 
Admiral hopefully will remain on. But I think we should begin 
to look at that at this time.
    I also join the chairman in recognizing the important work 
done by General Jones, Ambassador Pickering, the Atlantic 
Council, and the National Defense University that presented 
papers here to the Senate in the past week. I stayed throughout 
that hearing and found it extremely beneficial--a clear example 
of how the nongovernmental organizations (NGOs) are doing 
responsible work and making valuable contributions toward the 
problems that face us today.
    Dwell times, deployment lengths, terms of service in Iraq, 
these are high on our agenda and I do hope both of you give us 
your best views as to what period might we anticipate that the 
15-month tour can be reduced, hopefully to 12 and even beyond 
that if facts justify it. But the young men and women of the 
Armed Forces and their families all over the world are going to 
follow this hearing, and listen to what you have to say on that 
point.
    One of our most important duties each year is procurement 
and I point out that this committee, and indeed Congress, 
passed extensive acquisition reform last year. I urge you to 
bring to the attention of Congress how well that is working or, 
in the case it is not working to your satisfaction, to draw 
that to our attention.
    We also had as a committee chartered a commission to study 
the Reserve and National Guard. There were excellent 
individuals on that committee. They received mixed reviews in 
the press, but I would hope that that report did bring to your 
attention some necessary corrective measures and that you will 
spend some part of the time in your testimony addressing that.
    Ms. Jonas, thank you very much for year after year coming 
up here with all the figures. Now you have a little extra 
money. We're going to watch very carefully how you spend that 
money.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Secretary Gates?

   STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE; 
 ACCOMPANIED BY HON. TINA W. JONAS, UNDER SECRETARY OF DEFENSE-
                          COMPTROLLER

    Secretary Gates. Thank you, Mr. Chairman. Mr. Chairman, 
members of the committee: It is a pleasure to be here for my 
second and last posture statement. Let me first thank you for 
your continued support for our military these many years. I 
appreciate the opportunity today to discuss the President's 
fiscal year 2009 defense budget request.
    Before getting into the components of the request, I 
thought it might be useful to consider it quickly in light of 
the current strategic landscape, a landscape still being shaped 
by forces unleashed by the end of the Cold War nearly 2 decades 
ago. In recent years, old hatreds and conflicts have combined 
with new threats and forces of instability, challenges made 
more dangerous and prolific by modern technology, among them 
terrorism, extremism, and violent jihadism, ethnic, tribal, and 
sectarian conflict, proliferation of dangerous weapons and 
materials, failed and failing states, nations discontented with 
their role in the international order, and rising and resurgent 
powers whose future paths are uncertain.
    In light of this strategic environment, we must make the 
choices and investments necessary to protect the security, 
prosperity, and freedom of Americans for the next generation. 
The investment in defense spending being presented today is 
$515.4 billion, or about 4 percent of our gross domestic 
product (GDP) when combined with war costs. This compares to 
spending levels of 14 percent of GDP during the Korean War and 
9 percent during Vietnam.
    Our fiscal year 2009 request is a 7.5 percent increase, or 
$35.9 billion, over last year's enacted level. When accounting 
for inflation, this translates into a real increase of about 
5.5 percent. The difference consists of four main categories, 
which are outlined in more detail in my submitted statement. 
Overall, the budget includes $183.8 billion for overall 
strategic modernization, including $104 billion for procurement 
to sustain our Nation's technological advantage over current 
and future adversaries; $158.3 billion for operations, 
readiness, and support to maintain a skilled and agile fighting 
force; $149.4 billion to enhance quality-of-life for our men 
and women in uniform by providing the pay, benefits, 
healthcare, and other services earned by our All-Volunteer 
Force; and $20.5 billion to increase ground capabilities by 
growing the Army and the Marine Corps.
    This budget includes new funding for critical ongoing 
initiatives, such as global training and equipment to build the 
security capacity of partner nations, security and 
stabilization assistance, foreign language capabilities, and 
the new Africa Command (AFRICOM).
    In summary, this request provides the resources needed to 
respond to current threats while preparing for a range of 
conventional and irregular challenges that our Nation may face 
in the years ahead.
    In addition to the $515.4 billion base budget, our request 
includes $70 billion in emergency bridge funding that would 
cover war costs into the next calendar year. A more detailed 
request will be submitted later this year when the Department 
has a better picture of what level of funding will be needed.
    The National Defense Authorization Act for Fiscal Year 
2007, as you have pointed out, requires the DOD to provide an 
estimate of costs for the global war on terror. We would like 
to be responsive to the request. Indeed, I was responsive to a 
similar request last year. Some have alleged that the 
administration has taken this position in order to somehow hide 
the true costs of the war. Nothing could be further from the 
truth. DOD has been very open about what we know about our 
costs as well as what we don't know.
    So the challenge we face is that a realistic or meaningful 
estimate requires answers to questions that we don't yet know, 
such as when and if the DOD will receive the requested $102 
billion balance of the fiscal year 2008 supplemental war 
request and for how much, and what if any adjustments to troop 
levels in Iraq will result from the upcoming recommendations of 
General Petraeus, U.S. Central Command (CENTCOM), and the JCS.
    We should also keep in mind that nearly three-quarters of 
the fiscal year 2009 supplemental request will likely be spent 
in the next administration, thus making it even more difficult 
to make an accurate projection.
    I have worked hard during my time in this job to be 
responsive and transparent to this committee and to Congress. 
Nothing has changed. But while I would like to be in a position 
to give you a realistic estimate of what the DOD will need for 
fiscal year 2009 supplemental funds, I simply cannot at this 
point. There are too many significant variables in play.
    I can give you a number. I will give you a number if you 
wish. But I will tell you that the number will inevitably be 
wrong and perhaps significantly so. So I will be giving you 
precision without accuracy.
    As I mentioned earlier, Congress has yet to appropriate the 
remaining balance of the fiscal year 2008 war funding request, 
$102.5 billion. The delay is degrading our ability to operate 
and sustain the force at home and in the theater and is making 
it difficult to manage DOD in a way that is fiscally sound. The 
DOD, as I've said, is like the world's biggest supertanker: It 
cannot turn on a dime and it cannot be steered like a skiff.
    I urge approval of the fiscal year 2008 request as quickly 
as possible.
    Finally, I would like to thank the members of this 
committee for all you have done to support our troops as well 
as their families. I thank you specifically for your attention 
to and support of efforts to improve the treatment of wounded 
warriors over the past year.
    In visits to the combat theaters and military hospitals and 
in bases and posts at home and around the world, I continue to 
be amazed by the decency, resilience, and courage of our 
troops. Through the support of Congress and our Nation, these 
young men and women will prevail in the current conflicts and 
be prepared to confront the threats that they, their children, 
and our Nation may face in the future.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates follows:]
               Prepared Statement by Hon. Robert M. Gates
    Mr. Chairman and members of the committee: Thank you for your 
continued support of our military these many years. I appreciate the 
opportunity to discuss the President's fiscal year 2009 defense budget 
request.
    Before getting into the components of this request, I thought it 
useful to consider it in light of the current strategic landscape--a 
landscape still being shaped by forces unleashed by the end of the Cold 
War nearly two decades ago. In recent years old hatreds and conflicts 
have combined with new threats and forces of instability--challenges 
made more dangerous and prolific by modern technology. Among them:

        <bullet> Terrorism, extremism, and violent jihadism;
        <bullet> Ethnic, tribal, and sectarian conflict;
        <bullet> Proliferation of dangerous weapons and materials;
        <bullet> Failed and failing states;
        <bullet> Nations discontented with their role in the 
        international order; and
        <bullet> Rising and resurgent powers whose future paths are 
        uncertain.

    In light of this strategic environment, we must make the choices 
and investments necessary to protect the security, prosperity, and 
freedom of Americans for the next generation.
    The investment in defense spending being presented today is $515.4 
billion, or about 3.4 percent of our Gross Domestic Product. This 
request is a 7.5 percent increase--or $35.9 billion--over last year's 
enacted level. When accounting for inflation, this translates into a 
real increase of about 5\1/2\ percent.
    I also strongly support Secretary Rice's request for the 
international affairs funding. This request is vital to the Department 
of Defense (DOD); in the current strategic landscape, we need civilian 
expertise and robust engagement around the world to build goodwill, 
represent United States values and commitment to our partners, 
complement the contributions of our military, and set the long-term 
conditions for peace, prosperity, and an environment inhospitable to 
extremism.
          strategic modernization--future combat capabilities
    The fiscal year 2009 budget request provides $183.8 billion in 
strategic modernization to meet future threats, a 4.7 percent increase 
over the previously enacted level. This category includes more than 
$104 billon for procurement.
Joint Combat Capabilities
    The base budget provides $9.2 billion for ground capabilities, 
including more than 5,000 Humvees and 4,000 tactical vehicles. This 
request provides $3.6 billion to continue development of the Future 
Combat System, the Army's major modernization program.
    A total of $16.9 billion is allotted for maritime capabilities, 
with $14.2 billion for shipbuilding, including:

        <bullet> The DDG-1000, the next generation surface combatant;
        <bullet> Two littoral combat ships;
        <bullet> Two joint high speed vessels;
        <bullet> Two logistics ships; and
        <bullet> One Virginia-class submarine.

    The ships being built today must provide the capability and 
capacity to maintain the Navy's global presence and influence in the 
future. A fleet sized at 313 ships offers the agility required to meet 
a broadening array of operations and requirements with allies around 
the globe.
    To improve air capabilities, the budget includes $45.6 billion, a 
$4.9 billion increase over last year's enacted levels.
    This includes:

        <bullet> F/A 18 Hornet and E/A-18G Growler fighters;
        <bullet> F-35 Joint Strike Fighters;
        <bullet> F-22 Raptors
        <bullet> V-22 Ospreys;
        <bullet> Unmanned Aerial Vehicles; and
        <bullet> Recapitalization of various missiles and other 
        weapons.

    The Air Force's number one acquisition and recapitalization 
priority is the tanker fleet, specifically the KC-135, which is an 
average of 48.5 years old. This aircraft is increasingly expensive to 
maintain and less reliable to fly every day. The Air Force is 
proceeding with a traditional acquisition program for the KC-X, which 
will be able to refuel Air Force, Navy, and allied aircraft.
    Retirement of aging aircraft is a vital component of recapitalizing 
our air assets. I urge Congress to continue to authorize aircraft 
retirements, lifting restrictions from previous years to help the Air 
Force maintain readiness and perform missions more safely.
Space
    This request provides $10.7 billion to strengthen joint space-based 
capabilities in several categories, including:

        <bullet> Space-based infrared systems; and
        <bullet> Communications, environmental, Global Positioning 
        System, and Advanced Extremely High Frequency satellites.

    The Department's heavy reliance on space capabilities is clear to 
potential adversaries, some of whom are developing anti-satellite 
weapons. Protecting our assets in space is, therefore, a high priority. 
In the past, the Department has been slow to address this 
vulnerability, but we are ramping up to properly address this problem.
Research and Development
    As changes in this century's threat environment create strategic 
challenges--irregular warfare, weapons of mass destruction, disruptive 
technologies--this request places greater emphasis on basic research, 
which in recent years has not kept pace with other parts of the budget.
    This request for $11.5 billion will sustain ongoing science and 
technology research. Within this category, the fiscal year 2009 budget 
includes $1.7 billion for basic research initiatives. In total, I have 
directed an increase of about $1 billion over the next 5 years for 
fundamental, peer-reviewed basic research--a 2 percent increase in real 
annual growth.
Missile Defense
    The 2009 base budget provides $10.4 billion to continue developing, 
testing, and fielding a multi-layered system to protect the U.S. and 
its allies from tactical and strategic ballistic missile attack.
    The Missile Defense Agency has successfully fielded elements of the 
ballistic missile defense system since 2004. Today, for the first time 
in history, our Nation has an initial missile defense capability. In 
coming years, the Department seeks to grow this capability by testing 
against more complex and realistic scenarios, and by negotiating with 
like-minded nations. Since becoming the Secretary of Defense, I have 
been personally involved in ongoing discussions with Poland and the 
Czech Republic on hosting U.S. missile defense assets. I will continue 
to press for increased cooperation with our partners.
                   readiness, operations, and support
    The fiscal year 2009 request provides $158.3 billion, a 10.4 
percent increase over last year's enacted level, for operations and 
training, as well as facilities and base support. $68 billion of the 
request will maintain combat readiness, focused on next-to-deploy 
units. The budget invests in readiness measured in terms of tank miles 
driven per month, ship steaming days underway per quarter, and flying 
hours per month. Additionally, this request includes:

        <bullet> $33.1 billion for logistical, intelligence, and 
        service-wide support;
        <bullet> $32.6 billion for facility and base support;
        <bullet> $11.8 billion for equipment maintenance to accommodate 
        increased requirements, expanded scopes of work for repair and 
        refurbishment of equipment, and the transition of systems from 
        development to sustainment in the field;
        <bullet> $10.7 billion for training, recruiting, and retention 
        to ensure that the All-Volunteer Force has the right people 
        with the right skills; and
        <bullet> $2.2 billion for sealift efforts and commissary 
        support.

    The Department will continue investing in a number of critical 
initiatives that will have long-term implications for the readiness of 
our forces and the Nation's ability to meet future threats.
Global Train and Equip
    The global train and equip authority provides commanders a means to 
fill longstanding gaps in our ability to build the capacity and 
capabilities of partner nations. It allows the State and Defense 
Departments to act in months, rather than years, to help other 
countries build and sustain capable security forces. The program 
focuses on places where we are not at war, but where there are emerging 
threats and opportunities. It creates the opportunity to reduce stress 
on U.S. forces by decreasing the likelihood that troops will be used in 
the future. Combatant commanders consider this a vital tool in the war 
on terror beyond Afghanistan and Iraq. It has become a model of 
interagency cooperation between State and Defense--both in the field 
and in Washington, DC, Secretary Rice and I both fully support this 
authority. Its benefits will accrue to our successors in future 
administrations. The fiscal year 2009 base budget requests $500 
million, along with a request for $750 million in authority. I urge 
Congress to provide funding and permanent authority to meet enduring 
requirements.
Security and Stabilization Assistance
    The fiscal year 2009 budget invests $200 million in security and 
stabilization assistance along with a corresponding request to increase 
the authority. This authority will allow the Department to transfer up 
to $200 million to the State Department to facilitate whole-of-
government responses to stability and security missions--bringing 
civilian expertise to bear alongside our military. This would give 
Secretary Rice additional resources to address security challenges and 
defuse potential crises that might otherwise require the U.S. military 
to intervene.
Africa Command
    This request includes $389 million, or $246 million above 
previously enacted funds, to launch the new Africa Command, allowing 
the Department to have a more integrated approach than the existing 
arrangement dividing the continent up among three different regional 
commands. This new command will help:

        <bullet> Strengthen U.S. security cooperation with African 
        countries;
        <bullet> Train and equip our partners;
        <bullet> Improve health, education, and economic development; 
        and
        <bullet> Promote peace and stability.
Foreign Languages
    The fiscal year 2009 budget includes $586 million for the Defense 
Language Program, a $52.3 million increase from last year. Thus far, 
our approach to improving language skills is having an impact. 
Proficiency in Arabic has increased 82 percent since September 2001. 
Although the value of foreign languages and cultural proficiency is 
recognized by our Special Forces, these capabilities are essential for 
all forces preparing for irregular warfare, training and advising 
missions, humanitarian efforts, and security and stabilization 
operations.
                            quality of life
    The fiscal year 2009 request includes $149.4 billion in military 
pay, health care, housing, and quality of life for Service personnel 
and their families.
    The request provides for $107.8 billion in pay and benefits an 
increase of 9.8 percent over the fiscal year 2008 enacted level. This 
includes a pay raise of 3.4 percent for the military. Since 2001, 
military pay has increased by an average of 37 percent. For example, in 
fiscal year 2009, the average enlisted E-6 (Army Staff Sergeant) will 
see a pay increase of $1,289. The pay of the average O-3 (Army Captain 
or Navy Lieutenant) increases by $1,943 in fiscal year 2009.
Family Housing
    The budget request includes $3.2 billion that will construct new 
family housing, improve existing housing, eliminate inadequate housing 
overseas, operate and maintain government-owned housing, and fund the 
privatization of 12,324 additional homes. The Basic Allowance for 
Housing increases by 5.0 percent and the Basic Allowance for 
Subsistence increases by 3.8 percent.
Wounded Warriors
    We have a moral obligation to see that the superb lifesaving care 
that the wounded receive initially is matched by quality out-patient 
treatment. To provide world-class health care to all who are wounded, 
ill, or injured serving the Nation, the Department is taking action on 
the recommendations made by the President's Commission on Care for 
America's Returning Wounded Warriors. To do so, we have formed a senior 
oversight committee--chaired by the Deputy Secretaries of Defense and 
Veterans Affairs--to examine several key areas:

        <bullet> Case Management--integrate care management throughout 
        the life of the wounded, ill, or injured servicemember to 
        ensure they receive, as the President made clear, the ``right 
        care and benefits at the right time in the right place from the 
        right person'';
        <bullet> Disability and Compensation Systems--streamline the 
        disability evaluation system making it a single, supportive, 
        and transparent process;
        <bullet> DOD and VA Data Sharing--ensure appropriate 
        information is accessible and understandable between 
        departments; and
        <bullet> Traumatic Brain Injury (TBI)/Psychological Health 
        Issues--improve access and quality of care by reducing the 
        stigma associated with mental health care and establishing new 
        programs, such as a TBI registry.

    The Department has already approved new standards for all 
facilities housing the wounded and we have placed pay management teams 
at numerous sites to better educate troops and their families about 
pay, entitlements, and benefits.
    The budget requests $466 million to support construction of health 
care facilities at Bethesda and Fort Belvoir, as well as establish a 
Warrior Transition Unit at Bethesda. The transition unit will ensure 
the wounded receive optimum care, especially during the outpatient 
convalescent phase of recovery.
Future Health Care Issues
    In fiscal year 2009, DOD military healthcare costs are projected to 
be $42.8 billion in order to maintain benefits for 9.2 million eligible 
military members and their families, as well as retirees--more than 
double the level in 2001. By 2015, the Department's health care costs 
are projected to reach $64 billion, or 11.3 percent of the budget.
    Because of these concerns, the Department must also seek 
legislation to increase out-of-pocket health care expenses for retirees 
under age 65. The Department continues to believe that modest increases 
to TRICARE out-of-pocket costs for working-age military retirees are 
essential to make military health benefits affordable and sustainable 
for current and future retired servicemembers.
Global Posture
    The base budget requests $9.5 billion to continue U.S. Base 
Realignment and Closure (BRAC) efforts. For the approved fiscal year 
2005 BRAC recommendations, the budget fully funds 24 major 
realignments, 25 base closures, and 765 lesser actions. The Department 
is continuing to reposition U.S. forces at home and abroad in keeping 
with post-Cold War realities. Consequently, several units stationed 
overseas will be brought home. The Commander of European Command has 
requested that the Army activate two heavy brigade combat teams (BCTs) 
in Germany in 2008 and 2010 to support near-term security needs and 
allow time for construction in the United States.
                         increase ground forces
    Increasing the size of the Army and Marine Corps will relieve 
stress on the force and enable the Nation to meet its commitments at 
home and abroad. This growth in end strength is a continuation of 
growth that began last year and is expected to continue through fiscal 
year 2013.
U.S. Army
    The fiscal year 2009 base budget provides $15.5 billion to increase 
Army active end strength to 532,400, which includes an increase of 
7,000 over the fiscal year 2008 request. The Army request includes the 
cumulative cost of personnel added as part of a temporary increase in 
end strength after September 11, 2001--an increase which had previously 
been paid for in supplemental appropriations.
    The Army plans to grow its active ranks to 547,400 by fiscal year 
2012. In fiscal year 2009, the number of active Army BCTs will increase 
by 2 BCTs, from 40 to 42, with a goal of 48 BCTs by 2012.
    I am concerned that the percentage of new Army recruits with high 
school diplomas has declined in recent years. While still above the 
minimum standard established by Congress, we are watching these numbers 
closely, and are determined to grow the Army in a way that does not 
sacrifice the quality we have come to expect in the All-Volunteer 
Force.
U.S. Marine Corps
    The base budget seeks $5 billion to grow the Marine Corps' end 
strength to 194,000, an increase of 5,000 over the fiscal year 2008 
request. As with the Army, the Marine Corps' request includes the 
cumulative cost of personnel added after September 11, 2001. The Marine 
Corps' plans to increase end strength to 202,000 by fiscal year 2011, 
in order to achieve three balanced Marine Expeditionary Force units and 
to increase time at home station between deployments. This will enable 
the Corps to continue to be, as it has historically been a ``two-
fisted'' expeditionary force excelling at conventional warfare and 
counterinsurgency.
                              war funding
    In addition to the $515.4 billion base budget, our request includes 
$70 billion in emergency bridge funding that would cover war costs into 
the next calendar year. A more detailed request will be submitted later 
this year when the Department has a better picture of what level of 
funding will be needed.
    The National Defense Authorization Act for Fiscal Year 2007 
requires the DOD to provide an estimate of costs for the global war on 
terror. We would like to be responsive to this request. The challenge 
facing us is that a realistic estimate requires answers the Department 
does not currently have to several key questions, such as:

        <bullet> When and if the Department will receive the balance of 
        the fiscal year 2008 supplemental war request, and for how 
        much; and
        <bullet> What, if any, adjustments to troop levels in Iraq will 
        result from the upcoming recommendations of General Petraeus.

    We should also keep in mind that nearly three quarters of the 
fiscal year 2009 supplemental request will likely be spent in the next 
administration, thus making it even more difficult to make an accurate 
projection.
    In short, while I would like to be in a position to give you a 
realistic estimate of what the Department will need for fiscal year 
2009 supplemental funds, I simply cannot at this point. There are too 
many significant variables in play.
    As I mentioned earlier, Congress has yet to appropriate the 
remaining balance of the fiscal year 2008 war funding request, $102.5 
billion. Delay is degrading our ability to operate and sustain the 
force at home and in theater, and is making it difficult to manage this 
Department in a way that is fiscally sound. The DOD is like the world's 
biggest supertanker. It cannot turn on a dime and cannot be steered 
like a skiff. The consequences of not receiving the balance of this 
request may include:

        <bullet> Retarding daily efforts in support of Iraqi and Afghan 
        national security forces, to include training and equipping 
        efforts;
        <bullet> Halting our ability to pay military personnel and 
        continue operations; and
        <bullet> Limiting reset of equipment lost and damaged by 
        ongoing operations.

    I urge approval of the fiscal year 2008 global war on terror 
request as quickly as possible.
                               conclusion
    At this, my second and also last opportunity to present a budget 
before this committee, I thank the members of this committee for all 
you have done to support our troops as well as their families. In 
visits to the combat theaters, in military hospitals, and in bases and 
posts at home and around the world, I continue to be amazed by their 
decency, resiliency, and courage. Through the support of Congress and 
our Nation, these young men and women will prevail in the current 
conflicts and be prepared to confront the threats that they, their 
children, and our Nation may face in the future.

    Chairman Levin. Thank you.
    Admiral Mullen?

STATEMENT OF ADM MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    Admiral Mullen. Good morning, Mr. Chairman. Thank you, 
Senator Warner, distinguished members of this committee. Thanks 
for the opportunity to appear before you today. I'm honored to 
be here alongside Secretary Gates, a man whose leadership and 
insight I greatly respect and admire.
    We are here to discuss with you the President's fiscal year 
2009 budget submission and, more broadly, the state of our 
Armed Forces. Let me speak for a moment about the latter. The 
United States military remains the most powerful, most capable 
military on the face of the Earth. No other nation has or can 
field and put to sea the superb combat capabilities resident in 
our Army, Navy, Air Force, and Marine Corps.
    I say this not with false pride or arrogance. I say it with 
conviction, for it is an indisputable fact. This stands as 
testament, of course, to the brave, talented men and women who 
serve, Active-Duty, Reserve, National Guard, and civilian, as 
well as their families. I've been on record as saying that they 
are the finest I have ever seen. I meant it then, I mean it 
now. Each trip to the field, each visit to a base, each bedside 
I stand beside, only reaffirms that for me.
    I know you have also made such visits and can attest to the 
same. So I also believe our enormous strength speaks well of 
the hard work of this committee and Congress as a whole, as it 
does of the American people, who through you, their elected 
representatives, have invested heavily and wisely in their 
national defense.
    We are grateful. We will continue to need that support, 
for, however powerful we may be today, that power is not 
assured tomorrow. That is why the budget we are submitting this 
week includes more than $180 billion for strategic 
modernization, including $3.6 billion for the Army to continue 
to develop the Future Combat System (FCS), and another $3.5 
billion to procure 20 more F-22 fighters, and another $700 
million in research and development.
    That's why it calls for money to continue to build the next 
generation aircraft carrier and guided missile destroyer, 
increased spending on missile defense, as well as funding to 
complete the standup of AFRICOM. It's why we are asking for 
more than $20 billion to increase the size of the Army and the 
Marine Corps.
    Some have argued there isn't much new in this budget, no 
big surprises. Maybe so. Quite frankly, we ought to take a 
little bit of pride in that, because it says to me that we've 
looked pragmatically at all our requirements, that we did our 
homework, and that from a fiscal perspective we have a good 
handle on where we want to go.
    A reporter reminded me just the other day that investment 
budgets are really a type of strategy. If that's so, and I 
believe it is, this budget reveals great balance in our 
strategy for the future, a realization that, while we continue 
to fight and develop counterinsurgency warfare, we must also 
prepare for, build for, and train for a broad spectrum of 
traditional war-fighting missions.
    We are doing well in Iraq, no question. Violence is down, 
business is up, al Qaeda is clearly on the run. Ambassador 
Crocker and General Petraeus deserve a lot of credit. The surge 
of forces we sent them and their innovative application of 
counterinsurgency tactics have markedly improved security on 
the ground. As both men have made clear, this progress is 
tenuous and must be carefully watched. I understand their 
concerns as we keep bringing home the surge brigades. 
Conditions on the ground count.
    But tenuous, too, sir, are the long risks we are taking to 
our security commitments elsewhere in the world if we do not 
address the toll that ongoing combat operations are taking on 
our forces, our gear, our people, and their families. The well 
is deep, but it is not infinite. We must get Army deployments 
down to 12 months as soon as possible. People are tired. We 
must restore our Marine Corps expeditionary capabilities. They 
are dangerously on the wane. We must stay dominant at sea, in 
space, as well as in cyberspace. Others are beginning to pace 
us in the speed of war.
    We must do a better job identifying and treating not only 
the wounded we see, but the wounds we do not see. Too many of 
our returning warriors suffer in silence. I greatly appreciate 
the law that you put into effect last year specifically with 
respect to treating our wounded warriors.
    This budget allocates $41.6 billion to provide world-class 
care and quality-of-life for the entire force. We must honor 
military families by enhancing the government-issued (GI) 
benefits transferability, by broadening Federal hiring 
preferences for military spouses, and by expanding child care 
benefits in appreciation for their many sacrifices.
    We must continue to stay persistently engaged around the 
globe, building partner capacity, improving international and 
interagency cooperation, and fostering both security and 
stability.
    I urge Congress to enact the authorities in the joint DOS 
and DOD Building Global Partnerships Act. I was called to 
testify before the House Armed Services Committee a few weeks 
ago about our progress in Afghanistan. I told them then that we 
are seeing only mixed progress and that Afghanistan was by 
design an economy of force operation. I told them we do what we 
can there. I stand by those comments even as we prepare to send 
more than 3,000 marines over there and even as Secretary Gates 
continues to press our NATO allies for more support.
    The business of war, not unlike governing, is about 
choices. Military leaders must make hard decisions every day, 
choices that affect the outcome of major battles, whole 
nations, and the lives of potentially millions of people. As we 
head into this new year with fresh assessments of our progress 
in Iraq, a new push in Afghanistan, and a continued fight 
against violent extremists, as we consider the depth and 
breadth of traditional capabilities, we must improve. Please 
know that I and the Joint Chiefs remain committed to making 
informed choices, careful choices, and choices which preserve 
at all times and in all ways our ability to defend the American 
people.
    Thank you.
    [The prepared statement of Admiral Mullen follows:]
            Prepared Statement by ADM Michael G. Mullen, USN
    Chairman Levin, Senator McCain, and distinguished members of the 
committee, I am privileged to appear before you and report to you on 
the posture of the U.S. Armed Forces.
    Let me begin by recognizing and thanking our servicemembers and 
their families. The brave men and women who answer the noble call to 
defend our Nation and the spouses, children, and parents who support 
them are our most valuable national asset.
    Your Armed Forces, and their families, have faced the challenges of 
continuous combat for more than 6 years. Our men and women in uniform 
serve our Nation, accepting unwelcome separation from their loved ones, 
long hard work under difficult circumstances, and in some cases making 
the ultimate sacrifice.
    Military families are equally deserving of our gratitude. They bear 
the brunt of the loneliness, the uncertainty, and the grief that too 
often comes home when our Armed Forces are at war. Acknowledging the 
importance of their support, we must consider new initiatives such as 
transferring GI bill benefits to military spouses and children, 
military spouse employment support, expanded childcare and youth 
programs, and long-term comprehensive support of Wounded Warrior 
families.
    We must provide our servicemembers and their families with the 
leadership, the resources and the support required to defend the 
homeland, win the Long War, promote security, deter conflict, and win 
our Nation's wars.
                              introduction
    Over the past year, your Armed Forces have done much to improve the 
security environment. Operating globally alongside allies and partners, 
often in concert with the interagency and non-governmental 
organizations, they have successfully protected our Nation's vital 
interests: a homeland secure from catastrophic attack, assured access 
to strategic resources, a strong national and global economy, sustained 
military superiority and strategic endurance, and sustained global 
influence, leadership, and freedom of action.
    A diverse set of perils threaten those interests and demand 
sustained action. Those threats include the proliferation of nuclear 
weapons and technology, transnational terrorism and rising regional 
instability. Today, these challenges manifest themselves most clearly 
in the Middle East.
    We face additional challenges in other areas: a number of state 
actors who appear intent on undermining U.S. interests and regional 
stability, a growing global competition for scarce natural resources, 
the constant threat of natural disasters and pandemics, as well as 
increasing cyber and space threats. Our military is capable of 
responding to all threats to our vital national interests, but is 
significantly stressed while conducting combat operations in Iraq and 
Afghanistan and other operations worldwide as part of this 
multigenerational conflict against violent extremism. A decline in our 
strength or a gap in readiness will undermine the U.S. Armed Forces 
capability to complete its range of missions from combat overseas to 
providing civil support at home. That is why I believe we must reset, 
reconstitute, and revitalize our Armed Forces while balancing global 
risk.
    We do not--and should not--face these challenges alone. Today, more 
nations are free, peaceful, and prosperous than at almost any point in 
history. While each has its own heritage and interests, most share our 
desire for security and stability. Increasing free trade, regional 
security partnerships, treaties, international institutions, and 
military-to-military engagements and capacity building strengthen the 
bonds between us and other nations. Our engagement with allies and 
friends demonstrates our leadership and resolve to fulfill security 
commitments, and works toward the common good. Most often, it is by 
taking collective action--and not going it alone--that we increase our 
ability to protect our vital interests.
    With this context in mind, and in consultation with the Secretary 
of Defense, I have set three strategic priorities for our military. 
First, we need to increase stability and defend our vital national 
interests in the broader Middle East. Second, we must reset, 
reconstitute, and revitalize our Armed Forces. Third, we need to deter 
conflict and be prepared to defeat foes globally by rebalancing our 
strategic risk. Finally, to achieve our objectives in each of these 
areas we need to place increased emphasis not only on development of 
our own capabilities and the capacity of other agencies (State, U.S. 
Agency for International Development, Agriculture, Treasury, and 
Commerce and so forth), but also on building the capacity of our 
foreign partners to counter threats including terrorism and to promote 
regional stability.
     defend our vital national interests in the broader middle east
    Although our vital national interests are clearly global in nature, 
the broader Middle East is the epicenter of violent extremism. Too many 
countries suffer from burgeoning populations and stagnant economies, 
which have increased radicalization. State and non-state actors alike 
foment instability. Terrorists and insurgents are at war with 
governments in the region. The confrontational posture of Iranian 
leaders with respect to nuclear proliferation, the Israeli-Palestinian 
conflict, Sunni-Shia rivalries, the threat of terrorism, tensions in 
Pakistan, Hezbollah in Lebanon, political instability in the Maghreb, 
and the existence of al Qaeda and like-minded groups, all threaten 
regional stability and, ultimately, our vital national interests.
    My near-term focus remains combat operations in Iraq and 
Afghanistan. The surge of U.S. forces to Iraq, a well executed 
counterinsurgency strategy and an Iraqi population increasingly weary 
of violence, and willing to do something about it, have all combined to 
improve security conditions throughout much of the country. Violent 
activities against our forces and against the Iraqi people have 
substantially decreased. These reductions have come about because of 
the hard work of coalition and Iraqi security forces and the decisions 
of the Iraqi people and their leaders. Insurgent activity is down and 
al Qaeda in Iraq is on the run--although both remain dangerous. Much 
hard fighting remains for Iraqi and coalition forces before the job is 
done. Increased security has promoted reconciliation in some key 
provinces and the beginnings of national level reconciliation. We are 
working to secure a long-term security relationship with Iraq that will 
serve the mutual interests of both countries. As we continue to 
progress forward, congressional support of future warfunding will 
remain critical to success. An important component of that funding will 
go to building the capacity of increasingly capable Iraqi security 
forces.
    Security is a necessary condition but is not sufficient for 
achieving our strategic end-state in Iraq. Political, diplomatic and 
economic development together with expanded governance and the rule of 
law form the foundations that will underpin long-term stability and 
security in Iraq. We are making solid progress, but we still have a 
long way to go. I ask that Congress continue its support for increased 
interagency participation in Provincial Reconstruction Teams (PRTs), 
stability and reconstruction initiatives, U.S. business investment, 
Department of Defense (DOD) business transformation efforts, and good 
governance initiatives. I encourage your continued emphasis on the 
importance of achieving political and economic goals. Your visits with 
the Iraqi Government and other Iraqi political leaders support the 
efforts of American, coalition, and Iraqi forces.
    In Afghanistan we are seeing a growing insurgency, increasing 
violence, and a burgeoning drug trade fueled by widespread poppy 
cultivation. In response, more U.S. forces will deploy to Afghanistan. 
At the same time, the Afghan National Army and Police have increased in 
numbers and capability. The Afghan PRTs continue to aid the local 
populations, and President Hamid Karzai is reaching out to support the 
provinces. In the U.S. section of RC East, access to basic health care 
has more than doubled and provincial councils have become functioning 
entities active in development. North Atlantic Treaty Organization 
(NATO) forces provide a credible fighting force, but the alliance still 
faces difficulty meeting its force level commitments and some nations' 
forces in theater must be more operationally flexible. These challenges 
emphasize the importance of retaining U.S. freedom of action on a 
global scale. Just as in Iraq, your continued support for funding U.S. 
operations and efforts there, including PRTs, Afghanistan National 
Security Force development, and infrastructure development, is needed.
    In short, a stable Iraq and Afghanistan that are long-term partners 
and share our commitment to peace will be critical to achieving 
regional stability and security. This will require years, not months, 
and will require the support of the American people, our regional 
allies, and concerted action by the Iraqi and Afghan people and their 
leaders.
    I see daily reminders of other challenges in this part of the 
world. Recent irresponsible actions by Iran's Islamic Revolutionary 
Guard Corps in the Strait of Hormuz could have led to a crisis between 
our Nations. Restraint in our response does not signal lack of resolve 
or capability to defend ourselves against threats. Much more worrisome 
in the long-term, however, is Iran's hegemonic intent, their continued 
refusal to verifiably suspend uranium enrichment, their continued 
support of terrorism and the resultant instability these actions foster 
throughout the region.
    Al Qaeda safe havens in the under-governed regions of Pakistan, 
combined with the recent assassination of Benazir Bhutto, also 
contribute to regional instability. In my judgment, the most likely 
near term attack on the United States will come from al Qaeda via these 
safe havens. Continued congressional support for the legitimate 
Government of Pakistan braces this bulwark in the long war against 
violent extremism.
    Despite--or maybe because of--these diverse challenges, we are 
fortunate to enjoy the cooperation of many courageous partner nations 
in the region. A recent regional commitment to work toward an Israeli-
Palestinian peace accord is one example. We should not inadvertently 
signal ingratitude toward any of these nations. Foreign Military 
Financing (FMF) and International Military Education and Training 
(IMET) are programs that have the potential to have significant 
strategic repercussions. I therefore seek congressional support to 
ensure the Department of State's FMF and IMET programs remains fully 
funded.
    After three visits to the Middle East since becoming Chairman, I am 
more convinced than ever that we will not achieve regional security and 
stability unless we strengthen all instruments of international 
cooperation, regional partnerships, and national power. We need to 
ensure our plans sustain current gains and chart a course that both 
capitalize on lessons learned while focusing on future demands and 
dynamic conditions on the ground. Our forces must remain in theater as 
long as necessary to secure our vital interests and those of our 
partner nations, and they must operate with the full confidence and 
support of the American people and Congress.
             reset, reconstitute, and revitalize our forces
    To be successful in defeating our enemies and deterring potential 
foes, U.S. Armed Forces require talented people who are fully trained 
in their specialties and well equipped with warfighting systems. The 
pace of ongoing operations has prevented our forces from fully training 
for the full-spectrum of operations and impacts our ability to be ready 
to counter future threats. This lack of balance is unsustainable in the 
long-term. We must restore the balance and strategic depth required for 
national security. Continued operations without the requisite increase 
in national resources will further degrade our equipment, platforms, 
and people.
    Our Nation's servicemen and women--and their families--are the 
primary focus of my efforts to reset, reconstitute, and revitalize our 
forces. Caring for them is a critical consideration in every decision I 
make. Our All-Volunteer Force continues to meet the requirements and 
demands of national security, but with great sacrifice. This is the 
longest time that our All-Volunteer Force has been at war. Our 
servicemembers, in particular our ground forces and their families, are 
under significant strain. However, they remain dedicated, they are 
resilient and combat hardened, and they are taking the fight to our 
enemies. I do not take their service for granted and recognize that 
their resilience has limits. I am extremely concerned about the toll 
the current pace of operations is taking on them and on their families, 
on our equipment, and on our ability to respond to crises and 
contingencies beyond ongoing operations in Iraq and Afghanistan.
    The Secretary of Defense fixed and limited deployment cycles at 15 
months deployed/12 months home for the Army, 7 months deployed/7 months 
home for the Marines, and 1 year mobilization with 5 years back for the 
National Guard and Reserves. I strongly support his decision as it 
stabilized rotations and provided predictability. However, at our 
current force levels, we cannot sustain these cycles. Fifteen month 
deployments are too long. To preserve personal, operational, and family 
readiness, we must shift the Army's deployment cycle to 12 months 
deployed followed by 12 months at home and then as quickly as possible 
to 12 months deployed followed by 24 months at home. We must do the 
same for the Marine Corps by moving to 14 months at home for each 7 
month deployment. Therefore, the most important investment in the 
President's fiscal year 2009 budget is the commitment to expand our 
Army, Marine Corps, and Special Operations Forces. This continuation of 
the ``Grow the Force'' initiative is a long-term plan to restore the 
broad range of capabilities necessary to meet future challenges and 
restore a capacity for sustained action. This commitment encompasses 
nearly 33 percent of the total real growth of the DOD budget from 
fiscal year 2008 to 2009.
    Recruiters have a tough job during peacetime and it is made even 
more difficult now given the expansion of both the Army and the Marine 
Corps and the decrease in the propensity of key influencers to 
encourage potential recruits to enlist during this period of war. In 
spite of these challenges, our recruiters are doing exceptional work. 
The military departments met their recruiting goals for fiscal year 
2007 and remain on track for fiscal year 2008. We are also making sure 
we retain the people and the skills we need. The Services are using the 
full range of authorities given to them by Congress in the form of 
retention incentives, and I ask your continued support for these 
programs to sustain our combat-experienced force. Last year, the Army 
and Navy employed the Critical Skills Retention Bonus to retain mid-
career active duty officers who fill key positions. Likewise, the 
Services have offered bonuses to senior enlisted members of our Special 
Operations Forces. Investment in our people as our most important 
resource is vital. The cost of people continues to grow and we need to 
recognize this as we debate the right level of investment in defense.
    Retention challenges impact more than just our Active-Duty Forces. 
Though they met their recruiting and retention goals this last year, 
the Army Reserve and National Guard have experienced some shortages in 
company grade officers and mid-grade noncommissioned officers who lead 
our troops. We are overcoming these personnel shortfalls through 
enhanced incentives for Reserve and National Guard service, flexibility 
in terms of service requirements, competitive pay, and enhanced 
retirement benefits. These initiatives are important steps towards 
transitioning the Reserve components from a ``strategic Reserve'' role 
to part of the ``operational Reserve,'' creating the depth and staying 
power to respond to multiple global requirements, and maintaining our 
professional Guard and Reserve Force.
    Maintaining our professional Armed Forces, however, takes more than 
talented recruiters, attractive incentives, and competitive pay. We 
must understand our next generation of soldiers, sailors, marines, and 
airmen. Their affinity for technology and collaboration may 
revolutionize the way we fight. The willingness of future generations 
of Americans to serve is directly related to how they, and their role 
models, perceive the veterans of today are treated and appreciated. The 
All-Volunteer Force depends upon the trust and confidence of the 
American people in our institution; it depends on trust and confidence 
in our leaders; and, it depends upon trust and confidence that 
America's sons and daughters will be well-trained, well-equipped, and 
well-cared for in peace and in war.
    While all our servicemembers and their families have done their 
duty with great discipline and honor, one group in particular stands 
out: our returning Wounded Warriors and the parents, spouses and family 
members who care for them when they come home. As a Nation, we have an 
obligation to care for those who have borne the battle and who bear 
both the seen and unseen scars of war. Their sacrifices will not end 
following completion of their initial treatment. We should strive to 
provide only the finest medical and rehabilitative care for them and 
their families for the remainder of their lives.
    As leaders, we must ensure all our Wounded Warriors and their 
families receive the appropriate level of care, training, and financial 
support they need to become as self-sufficient and lead as normal a 
life as possible. Our support can mean the difference not just between 
life and death, but between a life of severe disability and one of 
manageable limitations. To the degree that we fail to care for them and 
their families, and enable their return to as normal a life as 
possible, we undermine the trust and confidence of the American people 
and ultimately put at risk the preservation of our professional All-
Volunteer Force.
    It is also imperative that we retain the experience of our combat 
hardened leaders. We live in a dangerous and unpredictable world and in 
a time of incredible change. I believe this change will accelerate, not 
slow down. Today's combat veterans are the ones that will take our 
military into the future. Their experience in fighting terrorists and 
insurgents as well as caring for those wounded on the fields of battle 
will enable us to better prepare for the challenges of tomorrow, but we 
cannot afford to lose their hard earned experience today.
    In addition to taking care of our people, we must repair, rebuild, 
and replace the equipment that has been destroyed, damaged, stressed, 
and worn out beyond economic repair after years of combat operations. 
As you are well aware, Service equipment has been used at higher rates 
and in harsher conditions than anticipated. In addition to the wear and 
tear experienced by our ground vehicles in Iraq and Afghanistan, our 
airframes and ships are aging beyond their intended service lives. 
Indeed since Operation Desert Storm, 17 years ago, the U.S. Air Force 
and U.S. Navy have flown near continuous combat missions over the 
Middle East and the Balkans. The impact of this usage is illustrated in 
the recent groundings of the oldest F-15 Eagle fighters, our repeated 
request to retire some of our C-130 Hercules and KC-135 Stratotankers, 
and the strains placed on our 29-year-old P-3 Orion reconnaissance 
aircraft.
    Despite usage levels sometimes five to six times above peacetime 
rates, and in the midst of extremely demanding environments, equipment 
readiness in theater remains high, well above the peacetime goals. Your 
support has been helpful in accomplishing this mark. However, this high 
in-theater equipment readiness comes with a price--namely the impact on 
the remainder of the Service equipment. For example, our ground forces 
borrow equipment from non-deploying units in order to equip deploying 
units. While our deploying units are fully resourced to meet the 
challenges of the fight that they are in, we must get ahead of this 
challenge.
    Our forces are relying upon the balance of funds requested in the 
fiscal year 2008 global war on terror request to accomplish equipment 
reset and to address readiness shortfalls. I urge Congress to quickly 
appropriate the remaining global war on terror request for fiscal year 
2008, as it is essential to have continued, predictable, and adequate 
funding for the repair and replacement of both operational and training 
equipment. I also ask for your continued support for our upcoming 
fiscal year 2009 global war on terror funding request.
    Revitalization includes force recapitalization, modernization, 
transformation, re-stationing, and repositioning, along with personnel 
and family support programs. A revitalized force creates a vital 
deterrent effect. Preventing future wars is as important as winning 
wars. Such prevention requires global presence and persistent 
engagement. A revitalized force provides the means to expand 
cooperative relationships with other nations and contribute to a global 
capacity to promote security and stability for the benefit of all. A 
revitalized force will also ensure that we remain prepared to meet our 
global responsibilities.
    Finally, a revitalized force is central to balancing global 
strategic risk. A revitalized force is a balanced total joint force, 
capable of operating across the spectrum of conflict. A balanced force 
possesses the capability and capacity to successfully conduct multiple 
simultaneous missions, in all domains, and at the required levels of 
organization, across the full range of military operations. A 
modernized, balanced total joint force is necessary if we are to 
successfully answer enduring and emerging challenges, and win our 
Nation's wars.
                properly balanced global strategic risk
    Beyond the Middle East, and in addition to revitalizing our forces, 
we must take a worldwide and long term view of our posture and its 
implications for global strategic risk. We have global security 
responsibilities across the range of military operations. The 
challenges in Asia to the vital interests of the U.S. and our allies 
are an example.
    We must be sized, shaped, and postured globally to leverage the 
opportunities for international cooperation and build the capacity of 
partners for stability, while at the same time, deterring, confronting 
and preparing for profound dangers of the future. I am concerned, as 
are the combatant commanders, that we do not have sufficient resources 
to meet all the needs. By working with other growing powers, and by 
helping emerging powers become constructive actors, we can ensure 
today's dynamic environment does not devolve into a prolonged state of 
conflict and disorder.
    The imbalance between our readiness for future global missions and 
the wars we are fighting today limits our capacity to respond to future 
contingencies, and offers potential adversaries, both state and non-
state, incentives to act. We must not allow the challenges of today to 
keep us from being prepared for the realities of tomorrow. There is 
risk that we will be unable to rapidly respond to future threats to our 
vital national interests.
    Funding by Congress is critical to restoring balance in the long 
term. But resources alone are not enough. We must think more 
creatively, more deeply, and more systematically about how to best use 
our resources. We have learned a great deal about how to leverage 
modern technology and interagency participation to counter terrorism--
those lessons can be shared with our partner nations, and applied to 
other security threats such as our Nation's counter narcotics efforts. 
Similarly, our new maritime strategy emphasizes the importance of 
leveraging other nation's capabilities. The growing interdependency of 
the community of nations will continue to offer similar opportunities. 
I support the United States' accession to the United Nations Law of the 
Sea Convention, and I believe that joining the Convention will 
strengthen our military's ability to conduct operations.
    Our enduring alliances and partnerships promote stability and 
security. The 27 nation NATO leads the effort to help extend security 
and stability inside Afghanistan. Australia and Japan have also made 
key contributions to operations in Afghanistan and Iraq. Another key 
ally, the Republic of Korea, has supported Operation Iraqi Freedom for 
the past 3 years--and continues to maintain a robust national 
commitment to security in Northeast Asia. Singapore and the Philippines 
work with us to counter international terrorist threats in Southeast 
Asia. Colombia's highly successful counterinsurgency struggle promotes 
stability in a critical region of South America. Our military to 
military relationships with Mexico and Canada are laying the ground 
work for greater Homeland Security. Enhancing our teamwork with our 
allies and partners is essential if we are to protect our shared 
interests.
    Persistent engagement and capacity building with allies and 
international partners is a key means of properly balancing global 
strategic risk. Persistent engagement consists of those cooperative 
activities that build partner capacity, provide humanitarian 
assistance, counter common threats, and safeguard the global commons. 
As I noted earlier, we need to fully fund our FMF and IMET programs and 
streamline the process for executing these and similar funds. Fostering 
and sustaining cooperative relationships with friends around the world 
contributes significantly to our shared security and global prosperity. 
Relationships take time to grow--and they require investment to stay 
strong.
    In many cases, other countries have significant competencies, 
relationships, and resources that can promote security and stability. 
One way to build relationships with other nations is to help them 
accomplish the goals they cannot achieve alone. Helping other nations 
overcome security problems within their borders by increasing stability 
and eliminating terrorist safe havens bolsters our security as it 
boosts theirs. Our Theater Security Cooperation programs also form a 
foundation for shared and interoperable response to contingencies. 
Regional Combatant Commands--such as U.S. Northern Command, U.S. 
Southern Command, and U.S. Africa Command--are being structured with 
interagency and international relationships in mind to boost our 
security and humanitarian assistance capabilities, and to foster long-
term U.S. military relationships with regional nations and security 
institutions.
    Legislation that increases the expeditionary capacity of civilian 
U.S. Government agencies is critical to rebalancing global strategic 
risk. Increasing the ability of the U.S. Government, as a whole, to 
deal with crises reduces the strain on our military forces. We need to 
empower the State Department to help other countries prevent and 
recover from conflict. I also fully endorse increased support for our 
intelligence agencies' global activities--upon which our Armed Forces 
depend. We additionally need to look at increasing the capacity of 
other U.S. Government agencies--such as the Justice and Agriculture 
Departments, which are otherwise oriented on domestic missions--to help 
contribute civil expertise that the military lacks in stabilization and 
capacity building missions overseas.
    Rebalancing strategic risk also means addressing capability gaps. 
The technology advantage that we have long enjoyed has eroded, with 
significant ramifications. Interruption of our access to cyberspace 
could substantively damage our national defense and civil society. 
Addressing this threat, the President's budget for fiscal year 2009 
includes funds to reduce our cyber vulnerabilities. Likewise, freedom 
of action in Space is vital to our economic, civil, and military well 
being. We need to increase our capacity to defend our access to that 
domain. We must also address shortfalls identified by our combatant 
commanders in our Intelligence, Surveillance, and Reconnaissance 
sensors and processing infrastructure.
    Fighting and winning wars is the main mission, but deterring them 
is always preferable. This is even more the case in deterring nuclear 
threats. We now face the prospect that nuclear weapons will be employed 
against us and our allies by non-state actors and rogue states. To 
defend our Nation and assure our allies, we must enhance our capability 
to rapidly locate and destroy targets globally. We seek to improve 
conventional prompt global strike capability, further develop global 
missile defense systems, and modernize our strategic weapons systems 
and infrastructure, to include developing a Reliable Replacement 
Warhead and a conventional ballistic missile. These components of our 
``New Triad,'' together with improved intelligence and planning 
systems, will help to ensure credible deterrence across a range of 
threats in the 21st century strategic environment.
                     building partnership capacity
    Building partnership capacity underpins all three of my strategic 
objectives and is an area that requires additional congressional 
support. Unfortunately, there are serious shortfalls in the U.S. 
Government's ability to build the capacity of foreign partners--both 
within and outside DOD. The Departments of State and Defense conducted 
a systematic review of gaps in authority and developed an omnibus bill 
called the Building Global Partnerships Act which was personally 
brokered by the Secretaries of State and Defense. I strongly urge 
Congress to enact all of these authorities.
    Foremost, DOD requires extension and expansion of its Global Train 
and Equip authority. Every single combatant commander cites this as 
DOD's most important authority to counter terrorism and to promote 
regional stability by building the capacity of partner military forces. 
These programs will not get funded or executed properly unless DOD 
funds them and collaborates with State on implementation. Over the past 
3 years, all combatant commanders, the former Chairman of the Joint 
Chiefs of Staff, the Commandant of the Coast Guard, the Secretary of 
Defense, and the Secretary of State have requested extension, 
expansion, and funding for these programs. Now is the time to make 
Global Train and Equip authority permanent, to increase the ceiling, 
and to provide annual baseline funding.
    The Commander's Emergency Response Program has been enormously 
successful in Iraq and Afghanistan, and other combatant commanders have 
requested this same authority to enhance prospects for mission success 
in other regions of the world. Our commanders in the field view this as 
a critical force protection tool that allows them to shape the 
operational environment so force is not required.
    Building the security capacity of our partners is important, but 
partners often need additional assistance to promote stability. 
Stabilization and reconstruction assistance authority allows DOD to 
transfer funds to the Department of State to provide assistance to aid 
foreign police forces, to improve governance, rule of law, economic 
development or essential services, and for humanitarian assistance. 
Stabilization and reconstruction assistance authority recently allowed 
DOD and State to enhance stability in Haiti, Somalia, Nepal, Trans-
Saharan Africa, Yemen, and Southeast Asia.
    We are in a new national security era that requires building new 
institutional capacity that does not currently exist. Most authorities 
to provide other broader forms of assistance reside at the Department 
of State, where patriotic foreign service officers and development 
professionals are doing everything they can with the force they have. 
But that force is woefully small relative to need. I support Secretary 
Rice's request for the Civilian Response Corps and ask Congress to 
enact quickly legislation authorizing its creation. I also strongly 
support the significant plus-up in people that the State Department and 
U.S. Agency for International Development are seeking in the 
President's 2009 budget as well as its request for increased foreign 
assistance funding. The increases that Secretary Rice is seeking in 
2009 are crucial to supporting our foreign policy goals; underfunding 
these activities undermine our national security. I would also support 
the reconstitution of the U.S. Information Agency or an equivalent 
functional entity to more effectively counter extremist ideology. 
Finally, I appreciate Congress' direction to study the national 
security interagency system, and will strongly support that effort.
                               conclusion
    The past year saw America's men and women in uniform continue to 
engage in combat in Iraq and Afghanistan, while they also provided 
humanitarian assistance, worked with partner nations, and stood guard 
around the globe. Our soldiers, sailors, airmen, marines, and our 
Nation's coastguardsmen are making a positive difference. They do so 
willingly and unflinchingly. Their valor and dedication are inspiring 
and they serve this Nation superbly. It is an honor to serve alongside 
them and my most solemn responsibility to represent them.
    The American Armed Forces have evolved throughout our Nation's 
history. During the 19th century, while our country was an emerging 
power, the norm for our military included service at either small army 
posts on the Nation's western frontier or single ship patrols off 
whaling stations in the Pacific. Throughout the twentieth century, our 
military fought--and deterred--large scale conflicts against powerful 
competitor nation-states, or their proxies, around the world. Today and 
for the foreseeable future, we are embarked on something new.
    Our military challenge is to protect and preserve the American way 
of life by promoting greater global security, stability, and trust--
building up the strength of our friends, defeating violent extremists, 
and deterring regional conflicts. Our strategic environment requires 
that we have a force that is ready for operations across the range of 
military missions.
    We have yet to fully institutionalize the lessons learned 
particularly as it applies to building the capacity of partners and 
reforming the interagency. America has undertaken a staggering array of 
tasks in the past 6 years: securing the homeland, fighting global 
terrorism, applying a new counterinsurgency doctrine, expanding 
governance and rebuilding armed forces in shattered countries, and 
increasing our capability and capacity to assist other nations through 
a variety of material aid programs and expeditionary teams. All of 
these efforts have seen successes and setbacks. They have come at 
considerable cost to our Nation's sons and daughters, and to the 
treasure of the American people. We must do more than just document our 
lessons learned. We must accept that the future will likely require 
sustained engagement and continued operations that will focus on 
interagency and international participation. We must go beyond 
pondering and push to embed these lessons into a truly reformed 
interagency. We need continued congressional support to make this 
imperative a reality.
    As for your Armed Forces, we need a total, joint, expeditionary 
force that is suited to irregular warfare against asymmetric threats as 
well as supporting civil authorities at home and abroad. We also need a 
large-scale total force capable of major combat operations against 
traditional nation-state foes. We cannot do it alone; our forces must 
be part of a more encompassing team that includes other Federal 
departments and partner nations. We must also recognize building 
international and interagency capability will take time. In the 
interim, our superb military men and women, and their families, will 
fill the leadership role demanded of them.
    All this takes sustained, robust investment and partnership. With 
your continuing help, our military will be ready for the challenges and 
opportunities ahead. Thank you for your unwavering support in time of 
war.

    Chairman Levin. Thank you, Admiral.
    We're going to do our best to get the Secretary and the 
Admiral out as close to noon as we can, so let's try a 7-minute 
first round.
    Mr. Secretary, you've indicated all the reasons why an 
estimate that you give us about war costs for 2009 would not, 
necessarily at least, turn out to be a realistic estimate, but 
that you are still willing to give us that estimate as the law 
requires, if we ask. So I'm asking. What is your estimate?
    Secretary Gates. A straight line projection, Mr. Chairman, 
of our current expenditures would probably put the full year 
cost in a strictly arithmetic approach at about $170 billion.
    Chairman Levin. The bridge funding in the budget is $70 
billion. That's included in the $170 billion.
    Secretary Gates. Yes, sir.
    Chairman Levin. So that means that the total if that 
estimate turned out to be accurate, that the total then would 
be the $515 billion base budget plus the $170 billion.
    Secretary Gates. Yes, sir.
    Chairman Levin. That would be a total then of $685 billion, 
does that sound right?
    Secretary Gates. Yes, sir. But as I indicated, I have no 
confidence in that figure. Part of the reason I've felt able to 
comply with the law last year was that I felt the assumptions 
that underpinned were fairly reliable and that we could have 
confidence in them. I think you saw the analysis that 
underpinned it and made it possible for us to do that. We just 
don't have that at this point and we will certainly provide it 
just as soon as we have it.
    Chairman Levin. Thank you.
    General Petraeus recently said that he thinks ``it would be 
prudent to do some period of assessment before deciding on 
further troop reductions after we get back to the 130,000 pre-
surge level in July.'' Do you agree with General Petraeus that 
we should have a period of waiting before we make any further 
decisions after we get back to the 130,000 pre-surge level?
    Secretary Gates. I have not discussed this with General 
Petraeus. I have made clear to him that I believed his 
recommendation should be based on his view of the situation on 
the ground in Iraq. I have tried to structure the decision 
process this time around as I did last August and September. 
General Petraeus will give us, the President and I, his 
recommendations based solely on the views he has in the 
situation in Iraq.
    Chairman Levin. So at this time at least, you can't say 
that you agree with what he has said?
    Secretary Gates. That's right, I neither agree nor 
disagree. I intend to be visiting Iraq again in the near future 
and I'm sure we'll have that discussion.
    Chairman Levin. Then the President has said, however, to 
General Petraeus that if he wants to slow down the reduction 
it's up to him. The President has explicitly said that it's up 
to General Petraeus as to whether the drawdown will continue. 
Is that your understanding?
    Secretary Gates. As I started to say, Mr. Chairman, we will 
also receive the evaluation and recommendations of Admiral 
Fallon at CENTCOM and also of the Joint Chiefs. Frankly, I 
expect that I will have my own views, and I would expect that, 
as last fall, the President will take into account all of those 
points of view before making a decision.
    Chairman Levin. You're not telling us, then, what the 
President said, that it's up to Petraeus, is what will in fact 
occur? Your understanding is that it's not ``up to Petraeus,'' 
that it's going to be a matter of many recommendations given to 
the President and he will then decide; is that correct?
    Secretary Gates. The President certainly will decide. I 
certainly don't want to put any daylight between myself and his 
comments. It's clear that General Petraeus' view will have a 
very strong impact on this, but I think that the President will 
need to hear other points of view as well.
    Chairman Levin. Mr. Secretary, any agreement with another 
nation, whether it's called a Status of Forces Agreement (SOFA) 
or something else, has always been submitted to the Senate for 
advice and consent as a treaty if it contains a commitment to 
defend another nation with military force. Now, is it the 
intention as far as you know to submit any agreement which is 
negotiated with the Government of Iraq to the Senate for its 
advice and consent if there is any commitment in such an 
agreement to defend Iraq beyond the term of this 
administration?
    Secretary Gates. I'm certainly no lawyer, but I would say 
that any elements in the agreement, in any agreement that's put 
together that involves the treaty ratification authorities of 
the Senate, would require that it be submitted. At the same 
time, I would tell you that we have somewhere at any given time 
between 80 and 100 SOFAs with other nations, none of which over 
history have been submitted to the Senate. So I think it will 
depend very much on the content of the agreement.
    Chairman Levin. Do you know of any SOFA agreement which has 
committed our forces to the defense of a country?
    Secretary Gates. I'm not that well versed. I'd have to 
check.
    Chairman Levin. Would you let us know, because we don't.
    Secretary Gates. Okay.
    Chairman Levin. It's a major difference. We have all kinds 
of SOFAs with other countries, 80 to 100, whatever the number 
is, but those SOFAs, those agreements, do not contain 
commitments to defend other countries. Those commitments are 
contained in treaties which are submitted to the Senate, and if 
you have any evidence or any information to the contrary would 
you submit that for the record?
    Secretary Gates. Yes, sir.
    [The information referred to follows:]

    None of the Status of Forces Agreements in force between the United 
States and other countries commits U.S. forces to the defense of the 
other country.

    Secretary Gates. I will just tell you that the subjects 
that I have seen listed that we are interested in in this SOFA 
do not include that kind of a commitment.
    Chairman Levin. Except that there was a declaration of 
principles for a long-term relationship that was signed between 
the President and the Prime Minister of Iraq, and it includes 
the following language: ``Providing security assurances and 
commitments to the Republic of Iraq.'' So those words are in 
there, words which I think should raise real concerns on a 
bipartisan basis. This is not a partisan issue. This has to do 
with the constitution of the United States and the role of the 
Senate.
    So if there's any information you have about those SOFAs 
which make commitments, security commitments to other 
countries, please let us know, would you?
    Secretary Gates. Yes, sir.
    Chairman Levin. The security adviser of Iraq, Adviser 
Rubae, recently said that the Iraqi Government is at a 
stalemate. Do you agree with that?
    Secretary Gates. No, sir, but it's pretty slow.
    Chairman Levin. Now, this is Iraq's own security adviser. 
Now, are you concerned by the slowness of the political coming 
together in Iraq?
    Secretary Gates. Yes, sir, although I would say that, 
particularly at the national level, and I would say that just 
in recent weeks, there has been some evidence that they are 
beginning to move on some of these pieces of legislation. The 
de-Baathification law, and the accountability and justice law 
has passed and they have become law. According to the Iraqi 
constitution, if the presidency council does not veto it or act 
upon it within 10 days it becomes law, it has to be published 
and then it will become law.
    They are debating the provincial powers law as we speak. 
They are debating a budget. So they are beginning to act on 
some of these pieces of legislation, and of course you have 
been briefed many times on the activities that are taking place 
at the provincial level. So it's clearly important for them to 
continue to move and in my view to move faster on some of the 
legislation they are finally debating.
    Chairman Levin. Just in terms of what the constitution of 
Iraq provides, it specifically provides that legislation 
requires unanimous approval of the presidency council within 10 
days of its delivery in order to become law or it is sent back 
to the council of representatives. I know what's been stated 
about it, but nonetheless that's what the constitution 
provides.
    So we'd appreciate it if you'd have your lawyer take a look 
at the language of the constitution and then tell us, given 
that language, whether or not we have confidence that, despite 
the Iraq constitution's own language, that nonetheless that is 
the law.
    But I think you would agree that, even if it is ``the 
law,'' that how it is implemented is critically important. 
Would you agree with that?
    Secretary Gates. It is critically important the spirit in 
which it is implemented. I would say further that I understand 
that President Talabani and the presidency council may also 
introduce some amendments to the law.
    Chairman Levin. Thank you very much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I just go back to the chairman's question about the SOFA. 
Have your researchers check 1951, the NATO type of structure. 
That did come to Congress. It was a very important one. I just 
feel that Congress should be made a full partner in the 
decisions with respect to both Afghanistan and Iraq as we go 
forward into the next administration, and that we need the 
support of Congress because therein rests the support of the 
American people. So I do hope that you lay that foundation.
    Returning to the NATO issue, I want to commend you for the 
very strong and pragmatic public statement you've made with 
regard to your concern concerning that situation in Iraq and 
the participation or lack of participation by certain countries 
who've committed forces to that military operation. The problem 
of national caveats has been one that's been before this 
country and Congress for deliberation many times. But it's just 
a question of basic burden-sharing, risk-sharing of the forces 
that are committed to that region. I find it difficult that we 
can ask the U.S. forces, the British, the Canadians, and 
several others who do fully participate in sharing the risks, 
to do the whole thing and the others simply do not participate.
    So I hope that you continue with your strong statements and 
efforts to reconcile that problem. That brings me directly to 
the question of the decision by the President, which I support 
and I think Congress thus far has supported, of sending two 
Marine Corps battalions over there this coming spring.
    Was that decision necessitated by the shortfalls in the 
commitments made by the NATO partners?
    Secretary Gates. Yes, sir. I would say that, in reference 
to my public comments, I have achieved a goal I have been 
working for for the last year. I have brought unity to the 
alliance, unfortunately not in the right direction.
    Yes, sir, this is a concern. I think we have to be 
realistic about the political realities that face some of the 
governments in Europe. Many of them are coalition governments. 
Some of them are minority governments, and they are doing what 
they think is at the far end of what is politically acceptable.
    But I worry a great deal about, and will say so in a 
conference in Munich this weekend, the alliance evolving into a 
two-tiered alliance, in which you have some allies willing to 
fight and die to protect people's security and others who are 
not. I think that it puts a cloud over the future of the 
alliance if this is to endure and perhaps even get worse.
    I believe that focus on people meeting their commitments in 
Afghanistan will be an important element of the Bucharest 
summit of NATO in early April. I leave here this afternoon, 
after the House hearing, to go to a NATO defense ministers 
meeting in Vilnius and once again will become a nag on the 
issue, but I think it is important. There are allies that are 
doing their part and are doing well. The Canadians, the 
British, the Australians, the Dutch, and the Danes are really 
out on the line and fighting. But there are a number of others 
that are not.
    Senator Warner. I would not suggest you use the word 
``nag.'' I think you've been very forthright, clear, and I 
think convincing of the need to rectify this situation. So 
press on, Mr. Secretary, because you owe no less to the men and 
women of our country and the other countries who are taking the 
full measure of the burdens and the risks in that region.
    The most troubling aspect of that region, of course, is 
this each year enhanced drug trade, and the revenues from that 
drug trade in Afghanistan, the poppy crop, are recycled 
directly to the Taliban. The Taliban then invests them in 
weapons and use those weapons against our forces and our other 
allies in that region.
    What should be done in your judgment? We just can't start 
another nine-point plan and a six-point plan. Somebody has to 
say this has to be addressed head-on.
    Secretary Gates. This gets to a larger issue in Afghanistan 
and that is in my view the continuing need, as I suggested 
almost a year ago, for a strong figure empowered by NATO, the 
European Union, and if necessary the United Nations (U.N.), to 
coordinate international efforts in the nonmilitary side of the 
effort in Afghanistan. I very much regret that the appointment 
of Lord Ashdown didn't work, but it goes to the 
counternarcotics problem.
    First of all, I believe that our allies do not take this 
problem as seriously as we do, even though most of that opium 
ends up on the streets of Europe. Afghanistan at this point, I 
think, produces 93 percent of all of the opium, or heroin 
rather, in the world.
    Also, I think we've gotten too caught up in debates about 
specific means of eradication. The United States favors aerial 
spraying because we've seen it work in other places, such as 
Colombia and so on. It's clear that the Afghans themselves, the 
Afghan Government, and most of our allies are opposed to it. So 
my view is let's move on and figure out what kind of a 
comprehensive strategy we should have.
    My view is that if you're going to eradicate a man's crop 
you better be there the day before with money and seeds to let 
him know that he's going to have a livelihood for the next 
year, and you better have roads so that he can take those crops 
to market. So I think we have to do all these things at once. 
You can't do it serially, doing one thing and then do another. 
It seems to me you have to do eradication, you have to do 
interdiction, you have to do alternative development, and so 
on.
    Senator Warner. Thank you, Mr. Secretary.
    Admiral Mullen, the tours of our men and women of the Armed 
Forces, the current tour of the Army of some 15 months, what 
can you share with the committee with regard to the future and 
the likelihood that that'll be brought down to a more realistic 
level of one for one, in other words at least a month back home 
for every month over there, and those months over there not to 
exceed 12?
    Admiral Mullen. It is the views of the Joint Chiefs and 
many in leadership that we need to get to one to one as quickly 
as we can, 15-month deployments are too long. General Casey has 
spoken to this very consistently. That said, there's a very 
delicate balance between what we need to do on the ground to 
sustain the gains in Iraq and balance that with the stress on 
the force.
    In fact, there is a review that's ongoing to look at when 
that might occur. We've had discussions about it, and my goal 
would be to support that sooner rather than later, but that 
decision clearly hasn't been made.
    Senator Warner. I conclude with one of your quotes. In 
October 2007, you said: ``The ground forces are not broken, but 
they are breakable.'' I draw your attention to some statistics 
that I reviewed yesterday. Whether it's divorce, absent without 
leave, alcohol, suicide, and I could go on, there are some very 
serious indicators and they could be directly the result of the 
pressures.
    Admiral Mullen. I think they in great part are, and it has 
built up since October. I'm still in the same position. I don't 
think that we are broken, but we clearly can break them. We are 
focused on this very heavily in literally every decision we 
review.
    Chairman Levin. I thank you. I share your view that they're 
not broken, but we must be alert. It's an All-Volunteer Force 
and it's the most valuable asset we've had as a part of our DOD 
for generations.
    Admiral Mullen. Yes, sir.
    Chairman Levin. Thank you, Senator Warner.
    Following our usual early bird approach, Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen, for your service. Mr. Secretary, one 
item in the defense budget is not often cited, but it's 
important. That is the investment in critical basic research 
for universities, and I commend you for maintaining that in a 
very difficult budget environment.
    Secretary Gates. I was heavily lobbied by some of my former 
colleagues, but, frankly, I felt it was very important to send 
a signal that we were going to again emphasize fundamental 
research, peer-reviewed research. So it's about $300 million 
for 2009 and about $1 billion over the Future Years Defense 
Program.
    Senator Reed. Thank you, Mr. Secretary.
    Admiral Mullen, following on Senator Warner's line of 
questioning, if there is a decision to freeze our force levels 
at 15 brigades in Iraq this summer, would that almost 
automatically require continued use of 15-month deployments for 
the Army and an accelerated callup of Reserve and National 
Guard forces to maintain that force structure?
    Admiral Mullen. In the review of this that I've undertaken 
so far, General Casey has indicated that that may not be the 
case. He's really working his way through that right now, that 
in fact it is possible that we could get to shorter 
deployments. But that again is all tied into General Petraeus 
and Ambassador Crocker coming back with their assessment and 
their recommendation, what the President decides, because 
clearly that's the bulk of the deployed force right now and 
both sustaining what we're doing as well as creating any relief 
is going to be in great part based on that decision.
    Senator Reed. But I think one of the obvious consequences 
is that the real opportunity to reduce the tours to 12 months 
would be seriously compromised if in fact we commit to 15 
brigades indefinitely.
    Admiral Mullen. With some assumptions, we think it's 
actually doable, and in fact then if you end up with a 12-month 
out to a 12-month back, and to sustain at a certain level, say 
if we sustain it at 15 brigades, you just would end up 
deploying sooner.
    Senator Reed. Does that put pressure on Reserve and 
National Guard units?
    Admiral Mullen. It would put pressure on the entire force, 
including the Reserve and National Guard.
    Senator Reed. Mr. Secretary, the Army needs approximately 
$260 billion for their grow the force initiative, reset, and 
reequip modernization operations through fiscal year 2011. It 
looks as if there's about $141 billion roughly committed. 
There's a big delta. Are you concerned that we won't be able to 
continue this modernization and force increase for the Army?
    Secretary Gates. I must say, I think that if you look at 
the total cost of the FCS over the entire duration, I think the 
total cost of that program is about $120 billion and, frankly, 
it is hard for me to see how that program can be completed in 
its entirety. One of the things that I think is attractive 
about the way the Army has approached this is that as they are 
developing new technologies they are putting them into the 
field right away, instead of waiting to bring this thing full 
up.
    But I think that, in light of what inevitably are going to 
be pressures on the defense budget in the future, I think that 
is one we will have to look at carefully.
    Senator Reed. Tomorrow or later this week, Mr. Secretary, 
we'll hear from the Commission on the National Guard. One of 
their concerns is a shortage of equipment within the National 
Guard inventories for response to a civilian incident here in 
the United States, and they're estimating that it's about a $47 
billion shortfall which is not being covered at the moment.
    Do we have such a gap? Does it effectively compromise our 
ability to respond to incidents within the United States?
    Secretary Gates. There is a gap. We have in fact $46.8 
billion in the budget between fiscal year 2007 and fiscal year 
2013 for the National Guard, and we will push $17.5 billion 
worth of equipment to the National Guard over the next 24 
months--helicopters, 16,000 trucks, communications, and so on. 
But the historic fill rate for equipment for the National Guard 
has been about 70 percent. That fell to about 40 percent in 
2006, was up to 49 percent in 2007. We'll get it to about 65, 
66 percent during the course of 2008, and we hope into the low 
70s by the end of 2009.
    Our goal with what we have budgeted now would put the Army 
at a fill rate of 77 percent in 2013 and the Air Force, the Air 
Guard, at about 90 percent. If you want to try and get them to 
100 percent, which we've never done before, that would require 
an additional amount of money. But one important part about 
this new equipment going to the National Guard, is that it is 
exactly the same equipment that is in the Active Force. That 
will be a first. They have always in the past had either 
equipment that had been used by the Active Force or equipment 
the Active Force was no longer using because it had been 
replaced by more technologically sophisticated stuff. What 
we're going to be sending out to them is the same stuff, the 
same equipment that is provided to the Active Force.
    Senator Reed. I appreciate your efforts and your concern 
about this issue, but it seems we do have an equipment gap here 
with our National Guard Forces, principally attributed to 
deploying equipment in Iraq, leaving it there, and then, as you 
point out, trying to modernize old equipment that's been in the 
inventory too long.
    This raises a very general point and that is, do you agree 
with Admiral McConnell's assessment that al Qaeda in Pakistan 
is growing in its capacity and capability to recruit, train, 
and position operatives within the United States, or conduct an 
attack against the United States? Doesn't it raise some serious 
questions on our overall strategy if we have basically weakened 
our position in the United States in civil response? We have 
committed hundreds of thousands of troops to Iraq. We've put 
billions of dollars--we're debating how many billions will go 
to Iraq. Yet our enemy, which poses an existential threat to 
the United States, according to our intelligence leaders, is 
growing in their capacity as we discuss and debate Iraq.
    Secretary Gates. I think that Admiral McConnell is correct 
in saying that al Qaeda is taking advantage of the safe havens 
on the Pakistani side of the Afghan border to expand and train 
for attacks. Much of what we hear concerns attacks in Europe, 
to be frank about it. But clearly there's no doubt that they 
have the intent of attacking the United States and, frankly, I 
think that's one of the reasons why you're seeing a major push 
for equipment over the next 24 months.
    Senator Reed. Mr. Secretary, I don't think anyone has done 
a more credible job in my short tenure here as you, and 
unfortunately your short tenure, too. I want to also commend 
Admiral Mullen for his distinguished service. But I think we 
will look back and seriously question some of the strategic 
decisions that have been made in the last several years, 
particularly in reference to our last discussion.
    Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Let me first of all say to both our witnesses, I really 
believe your opening statements were about the best I've ever 
heard--very direct, and you got into some areas other people 
don't want to get into. Secretary Gates, for the first time I 
ever heard anyone in the last 7 years talk about where we 
should be in our overall defense systems in the future. It's 
been 7 years since that's really been discussed with this 
panel, and you talked about percentages of GDP, where we've 
been in the past, and where we are today.
    I believe I'm accurate when I say that if you go back to 
the 100 years of the 20th century that it averaged 5.7 percent 
of GDP. Then of course, at the end of the drawdowns of the 
1990s it went down to under 3 percent, about 2.7 percent. 
Unfortunately, a war came right after that, so you don't know 
what's going to happen, that's an uncertainty.
    Another uncertainty is what our needs are going to be in 
the future, because when I was serving in the House just in 
1994 we had a witness that said in 10 years we'll no longer 
need ground troops. So I think that you'll be surrounded with 
very brilliant admirals and generals trying to say what our 
needs are going to be in the distant future of say 10 years 
from now and they're going to be wrong.
    So, having said that, where we are today if we include the 
supplemental spending over this last year would be up to 4.7 
percent; without that, 3.7 percent. I know you've probably 
given some thought in looking into the future about where we 
should be. Do you want to share any thoughts with us that 
you've had on that subject?
    Secretary Gates. I used to say during the Cold War that if 
you were to graph the defense budget of the United States over 
a 30- or 40-year period it would look like an electrocardiogram 
of a fibrillating heart, and there would be deep cuts and then 
great increases, and it would go up and down. It is not an 
efficient way to do business.
    One of the advantages that I believe the Soviets had was 
they had fairly steady growth in their military spending over a 
protracted period of time. Four times in the 20th century, we 
made the same mistake. We fought a war, thought the world had 
changed for the better forever, and disarmed ourselves--after 
World War I, World War II, Vietnam, and the Cold War. Every 
time it turned out the world hadn't changed and so we had to 
rearm.
    Now, it seems to me that if we had a steady state and a 
bipartisan agreement of the investment of America's wealth that 
are required over the long-term to protect the Nation and 
everybody agreed and pretty much stuck to that figure, then I 
think we would all be advantaged, and I think, frankly, that 
when we do have to fight again we will save both lives and 
treasure.
    I think that number, if you look at it historically, 
probably ought to be in the 4 percent of GDP range.
    Senator Inhofe. I appreciate that very much.
    You generally agree with his comments, Admiral?
    Admiral Mullen. Yes, sir.
    Senator Inhofe. One of the reasons that I bring this up is 
because there is an expectation of the American people that our 
kids that are over there have the best of everything, and it's 
just not true, in terms of equipment. I know that Senator 
Warner has left now, but I can recall when he was chairman of 
this committee that I said the best non-line of sight canon or 
artillery piece that we have for close support is a Paladin, 
which is World War II technology, where you actually have to 
swab the breech after every shot. That's something people don't 
understand. There are five countries, including South Africa, 
that make a better one.
    I bring it up at this point because we're making some 
decisions that I think are very significant. When John Jumper 
in 1998 had the courage to stand up and say that now the 
Russians--and he was referring to their Su-27s and Su-30s--are 
making a better strike vehicle than ours. Of course, he was 
referring to the F-15s and F-16s. In many ways they were 
better. During that timeframe China made a very large purchase. 
That was unclassified.
    But I think that's very significant, because until we got 
into the F-22 we were in a position where we didn't have the 
best. Yes, our pilots are better, but the equipment wasn't in 
some ways as good. Some people say we could get by now with 
expanding the F-15s, maybe the E models, but they're not 
stealthy, that wouldn't work.
    Now, we're set up right now, we are flying 112 F-22s, 6 are 
being accepted by the Air Force, 50 to be built, and ultimately 
183, and it's my understanding that that's when it stops and 
that would mean that the line would start deteriorating around 
2009 or 2010. This is something that does concern me and I'd 
like to get your comments as to what--and then of course it 
would be another year before you'd get into the Joint Strike 
Fighter (JSF) and others.
    Do you agree with this level of procurement in F-22s?
    Secretary Gates. Yes, sir, we are, as you say, we are 
keeping the line open. There is a buy of 20 F-22s in the base 
budget. We will probably ask for several more as part of the 
supplemental. But we do intend to keep the line open. I'm 
persuaded that the 183 is probably the right number, or 
something in that ballpark. I know that the Air Force is up 
here and around talking about 350 or something on that order.
    My concern is that the F-22 is $140 million a copy and the 
JSF will be about half that, about $77 million a copy. My worry 
is that if the F-22 production is expanded that it will come at 
the expense of the JSF. The reality is we are fighting two 
wars, in Iraq and Afghanistan, and the F-22 has not performed a 
single mission in either theater. So it is principally for use 
against a near-peer in a conflict, and I think we all know who 
that is, and looking at what I regard as the level of risk of 
conflict with one of those near-peers over the next 4 or 5 
years until the JSF comes along, I think that something along 
the lines of 183 is a reasonable buy.
    Senator Inhofe. I'd like to ask Secretary Gates and all of 
your people to keep an open mind on this, because this is 
moving. It's not static.
    The last question I would ask would be just a real quick 
response if I could, Admiral Mullen. I've had occasion to spend 
quite a bit of time in both the Middle East and Africa, some 27 
trips. The one thing I consistently hear is that we have to 
enhance our train and equip, our 1206, 1207, 1208, and the 
Commander's Emergency Response Program (CERP). Those are the 
two most popular programs out there. I would like to know if 
you agree with that?
    Admiral Mullen. I do, very strongly. General Petraeus and 
General McNeil in Afghanistan speak literally about CERP money 
as ammo for making good things happen. Clearly the 1206 train 
and equip has tremendous leverage, far beyond the value of the 
money that we're actually spending.
    Senator Inhofe. Making it global?
    Admiral Mullen. Making it global.
    Senator Inhofe. I agree with that.
    I know my time has expired, but just for the record if you 
could give us your thoughts about what's happening with AFRICOM 
now, and particularly as the five African brigades that we have 
been concerned about, but nothing seems to happen there. I 
think of Africa as being a real critical area. So maybe for the 
record you could--thank you, Mr. Chairman.
    [The information referred to follows:]

    The African Stand-By Force is intended to be an African 
multidisciplinary contingent force with military and civilian 
components ready for rapid deployment within their respective African 
regions. It is planned that the force will be operational by 2010. The 
African Stand-by Force may be tasked to conduct peace support missions, 
post conflict operations, humanitarian assistance missions and other 
task as mandated by the African Union's Peace and Security Council. The 
African Stand-By Force five Brigades exist in theory and will be 
aligned roughly with Africa's five Regional Economic Communities. U.S. 
African Command (USAFRICOM) is engaging with the African Union's 
Regional Economic Communities in order to promote the professional 
development of the brigades. General Ward, Commander, USAFRICOM, is 
adopting a regional approach to the strategic environment. Our African 
partners have encouraged this viewpoint as it aligns with their 
strategic security concept. USAFRICOM intends to concentrate and 
prioritize its activities in the five African Union designated regions 
to further security across the continent. To achieve reliable 
partnerships while developing security partner capacity at the regional 
level, USAFRICOM will help develop capable professional militaries 
among our partner nations.

    Chairman Levin. Thank you so much, Senator Inhofe.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, you know my personal appreciation and affection 
for the job that you're both doing. You've brought a candor 
that was desperately needed in DOD. This opinion that I express 
is shared by many of us on this committee and we appreciate it.
    Now, one of the areas with the lack of candor has been 
brought out in the questioning by the chairman today. There's a 
budget request of $515 billion and over and above that is what 
is called a bridge fund of $70 billion for the war, when in 
fact the testimony here, asked by the chairman, it's $170 
billion. So I realize your hands are tied by the White House 
and specifically the budget office of the White House, and I 
agonize for you as you go through this. But this is part of the 
candor that we need. Again, I just reiterate, thank you for the 
candor that you have brought in the relationship between 
Congress and DOD.
    Let me just ask a series of questions, some of which deal 
with the subcommittee that I have the privilege of leading 
here, the Strategic Forces Subcommittee. First of all, I want 
to get for the record, do we have any other difference, Admiral 
Mullen, on the question of whether or not we ought to have the 
11 aircraft carriers that we have for projection of our 
defense, or should it be less?
    Admiral Mullen. 11.
    Senator Bill Nelson. Okay. Now that that environmental 
impact statement (EIS) has been completed on the question of 
making Mayport nuclear-capable and therefore spreading the 
Atlantic fleet of carriers from just one port to two ports, do 
you think that the DOD will budget for the necessary 
improvements to Mayport in order to make it capable of 
receiving a nuclear carrier?
    Admiral Mullen. I remain where I was when I was the Chief 
of Naval Operations (CNO) and we discussed this, Senator 
Nelson, which is I believe that strategic dispersal is 
important, or that capability is important. It was tied to this 
process, and obviously I would lean on Admiral Roughead and 
Secretary Winter for recommendations to myself and the 
Secretary of Defense, but clearly to have that capability you 
need to invest in it, and we need to continue to do that.
    Senator Bill Nelson. On another subject, you in the 
uniformed military are working up a recommendation to the 
Secretary of the Navy and the Secretary of Defense about 
reactivating the Fourth Fleet to give Admiral Stavridis more 
power to project in the Western Hemisphere. Have you made that 
recommendation yet, and if not----
    Admiral Mullen. It has not been made to me. I thought it 
was a great idea when I was the CNO.
    Secretary Gates. One reason I like to come to these 
hearings is I learn so much. [Laughter.]
    Senator Bill Nelson. That's exactly why I brought it up, 
Mr. Secretary, so you would hear it firsthand.
    In the subcommittee that the chairman has given me the 
privilege of heading, we're getting back from some of our 
combatant commanders that they do not have the near-term 
capabilities against the existing short- and medium-range 
missiles that would threaten our forward-deployed forces. We 
even stated this 2 years ago in our National Defense 
Authorization Act for Fiscal Year 2007, to place a priority on 
the near-term effective missile defense capabilities. Yet the 
DOD in its budget is not placing more emphasis and resources on 
these near-term capabilities.
    So I'm wondering, where the disconnect is here?
    Admiral Mullen. Senator, I'm a big proponent of missile 
defense and in fact we have fielded capability on a number of 
our ships which give us some of the capability that you're 
talking about, and that capability continues to be fielded. 
It's not out there now as we would have it be in the future and 
I think we need to continue to emphasize that.
    My view is the challenge in the Missile Defense Agency has 
been how to best proportion the investments there for the 
future. In fact, the overall missile defense budget this year 
has been increased. But it's a growing concern, growing threat, 
and it's one I think we need to continue to focus on, not just 
in the near-term but in the far-term.
    Senator Bill Nelson. We're talking about the Aegis, we're 
talking about the Standard Missile----
    Admiral Mullen. Yes, sir.
    Senator Bill Nelson.--interceptor, and we're talking about 
Terminal High Altitude Area Defense (THAAD). Our concern in our 
subcommittee is that the military analysis shows that you're 
only planning to buy half as many THAAD interceptors and the 
standard missile interceptors as the commanders are asking for.
    Admiral Mullen. We deal with the commanders, the combatant 
commanders, all the time and we work these requirements. The 
combatant commanders are not going to get everything they ask 
for. There's an affordability as well as distribution and risk-
taking aspect of this, all of which goes into the equation.
    We have, in fact, fielded that capability, as you 
indicated, in some parts of our fleet and it's, as is always 
the case, a balance between meeting the requirement, the timing 
of it, affordability, and where those systems are in 
development.
    Senator Bill Nelson. A final question. I have the privilege 
also of serving on the Senate Select Committee on Intelligence. 
Yesterday in the open session, General Hayden, the Director of 
the Central Intelligence Agency (CIA), stated his belief that 
Pakistan, the government, finally has a new appreciation of the 
problem of the uncontrolled tribal areas, and his opinion was 
that the Pakistani Government for the first time sees the 
situation in this area poses a direct threat to the stability 
of the Government of Pakistan.
    Do you agree with this assessment?
    Secretary Gates. Yes, sir, I do. I think it's a fairly 
recent development and probably brought home most vividly to 
them by the assassination of Mrs. Bhutto, that this is a 
serious threat. Al Qaeda has been public about threatening the 
leadership of the Pakistani military and the Pakistani civilian 
government. They have declared their desire to overthrow the 
Pakistani Government, plus the insurrectionist activity that's 
going on in the northwestern part of the country has really 
gotten the Pakistani Government's attention.
    Now, the problem that they face in a way is a little bit of 
the problem that the NATO alliance faces. The NATO alliance has 
trained and equipped over the past 50 years, almost 60 years, 
to meet the Soviets coming through the Fulda Gap. Pakistan has 
been focused for all these years on the threat to their east, 
to the Indian conventional military threat. So my view is that 
the Pakistanis, just as they recognize a new kind of threat to 
the stability of the country, are going to have to make some 
changes in terms of the training and equipping of their force.
    Senator Bill Nelson. Of course, that's the next question 
that we have to ask, and part of that has to be off the record.
    Thank you all very much for your service to our country.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Sessions.
    Senator Sessions. Thank you very much.
    Gentlemen, thank you for your service. You have indeed won 
a great deal of respect and credibility on both sides of the 
aisle here in Congress. Your candor and good judgment, I think, 
have been responsible for that and we appreciate it very much.
    Secretary Gates, I think your opening remarks, in which you 
talk about the new strategic threats we face, failed states, 
terrorism, and the like, represent a significant statement. You 
have indicated that we need to confront and be prepared to 
confront those threats for years and years to come. Are you 
confident that what we're doing within DOD now is the right 
balance between a potential peer competitor some time in the 
future, hopefully some years out, and the immediate threat of 
these kind of failed states and terrorist activities?
    Secretary Gates. I think we do have a good balance. I think 
it would be probably unrealistic for me to say with confidence 
that we have it all just right. When you have a budget this big 
and so many programs, you hope to get the balance in the right 
place. I think that what we have to do is figure out how to 
prepare for the diverse kinds of threats we're going to face.
    One of the issues, for example, that I've been discussing 
with the Army and where General Casey, frankly, has been very 
helpful is the fact that the Army is more likely to face 
asymmetric kinds of threats in the years to come, than it is a 
major conventional war, and how do they prepare and equip for 
that over the long term and at the same time be able to retain 
the full spectrum capabilities?
    So it's a matter not of one foot or the other, but the 
amount of weight you put on one or the other foot. So I think 
that another example of this is in the kind of ships that the 
Navy is buying. We've had these problems with these Littoral 
Combat Ships (LCS), but I think that they're exactly the right 
kind of ship for the kind of threat we're going to face in 
places like the Persian Gulf, where they can take on swarms of 
small boats and where they can go in shallower water and so on.
    So I think we have it pretty right, but I would never be in 
a position with a budget this big to say we have it exactly 
right.
    Senator Sessions. Admiral Mullen, do you want to comment on 
that?
    Admiral Mullen. I think, to Senator Inhofe's statement 
earlier about projecting, predicting the future, we're in an 
incredibly uncertain time. It's a dangerous time, and to best 
prepare for that I think we have to have a balance. We have to 
have this irregular warfare thing right. We need to continue to 
swing in that direction. But I also think we need to invest 
well for the future with respect to our conventional forces.
    I mentioned space and cyberspace. Those are of great 
concern to me as well. Most importantly, we have to get it 
right for our people, particularly our young people, so that 
they see that we're headed in the right direction, because 
they're the ones that always have to fight the fight.
    Senator Sessions. Thank you. I appreciate the Secretary 
mentioning the LCS and I hope, Admiral Mullen, we can break 
through some of the delays that are occurring there and not 
lose momentum on that critically important ship.
    I'm also pleased, Mr. Secretary, in your written remarks 
that you noted the need for the Air Force number one priority, 
the tanker. We'll soon be having a selection on that and it's 
something we're going to need to invest in for a number of 
years. Forty-eight-year-old tankers just cannot continue to 
meet our Nation's need.
    You mentioned cyberspace, Admiral Mullen. I am concerned 
about that. Even our new defense structure commits us even more 
deeply to high tech, satellite, communications, and computer 
systems. Of course the history of warfare has been that enemies 
have figured ways to penetrate communications systems and whole 
wars have turned on intelligence and spying activities. We of 
course have nations like China and others that are highly 
sophisticated in these areas.
    Are you confident that as we commit more to a high tech 
military that we have the defensive capabilities to guarantee 
the security of those systems in the event of a conflict?
    Admiral Mullen. I'm confident that we recognize the 
problem. The threat is exactly as you described it today, as it 
has always been; and that we have taken significant steps to 
invest to get it right for the future. But I would not sit here 
and give you a 100 percent guarantee that we could defend. It's 
a very active domain.
    Senator Sessions. I just have to tell you, the history of 
warfare is that somebody always figures a way to break these 
systems, and we're investing in them so heavily that I hope you 
will invest a lot in security.
    Admiral Mullen. We are.
    Secretary Gates. Senator, I might just say that one of my 
concerns is not only that they break them, but that somehow 
they figure out a way to deny them to us. One of the things 
that I've asked for is a study of what kind of, if you will, 
old capabilities we could resurrect as a backup in the event we 
lost some of the high tech capabilities to communicate and so 
on that we have right now.
    This world of cyber war is going to be very unpredictable 
and very dangerous, and it seems to me we ought to look back at 
some old pretty simple technologies so that we're not blind, 
deaf, and dumb if we're denied some of these high tech 
capabilities.
    Senator Sessions. Thank you very much for that insight. I 
think you need to press that because we absolutely could find 
ourselves in a situation where we're not able to utilize some 
of the technologies we thought we would be able to utilize.
    Missile defense site in Europe. Secretary Gates, you noted 
you personally have met with our Polish and Czech friends, that 
progress is being made there for a radar site at the Czech 
Republic and interceptors in Poland. Could you give us an 
update on that and why you think it's important?
    Secretary Gates. I think that we're continuing to move 
forward. It is my hope that we can reach agreement and break 
ground this fiscal year. I think that the Polish Foreign 
Minister when he made his public remarks after meeting with 
Secretary Rice indicated that the effort would go forward. I 
think the Poles clearly are concerned about whether there is an 
increased threat to their own security as a result of hosting 
these sites. Obviously the Russians are making a lot of 
threats. So we will be discussing that with them. But I think 
it is continuing to go forward.
    Senator Sessions. I would just note, I can't imagine why 
the Russians would object to this system. It poses no real 
threat to their massive capability in missiles. It's just very 
frustrating and another example of bad behavior by the Russians 
that's disappointing.
    Secretary Gates. We would like for them to be our partners 
in this, and we have made a number of forthcoming offers. 
Anybody can understand that this is not capable of being used 
against Russian missiles. The geometry is all wrong, the number 
of interceptors. I told President Putin: If your problem is 
breakout, that you think 10 years from now we'll do something 
different with this site that would make it a threat, we'll 
negotiate that with you so that there are limits. We talked 
about reciprocal presence in the sites.
    So we've really put a lot on the table in the hope that the 
Russians will see we're serious about this partnership. We both 
face the same challenge and that is the growing Iranian 
ballistic missile threat.
    Senator Sessions. You promised when you took this office 
that you would personally analyze conditions in Iraq and that 
you would give us your best judgment about where we should 
deploy, how we should deploy, the number, and so forth. In all 
the discussions that we'll be having, we want that opinion.
    Secretary Gates. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Let me add my appreciation to your service and particularly 
for the candor that you've been able to express in your 
position, Mr. Secretary and Admiral Mullen, as you continue in 
your role. I know you're going to give us your best estimate on 
what we need to do to keep our country safe in the midst of 
growing concerns and different kinds of challenges.
    Mr. Secretary, I dropped a letter your way today about the 
budget. My concern is the concern that was raised initially and 
one that you've responded to. I understand the difference 
between precision and accuracy. I don't know why they have to 
be at odds as far as they are in terms of the numbers.
    My concern is that we continue to bring together our desire 
for precision and getting it right accurately as well, so that 
the distance between the bid and the ask isn't quite so great, 
because it makes it very difficult to have anything back here 
called a budget. I don't know if I coined this word, but we 
came up with it in the office: It looks like a budget is now a 
``fudge-it.'' There's fudging in it, just because you don't 
know certain things.
    But I think we need to narrow down those differences as 
much as we possibly can. I know you told us that you were going 
to try to do that. The system here is broken and it's not your 
fault, but it is an opportunity for you to try to help us fix 
it so that we don't go through the rest of this decade with a 
broken system, to be inherited by the next administration. It 
just isn't going to enable us to get something that we can deal 
with.
    On high technology, let me say that I really think that, 
whether it's asymmetrical war or whether it's cyber concerns, 
that we have to be not only in a defensive posture--clearly we 
have to be able to defend what we have. If we lose our high 
tech capability, you're right, we better have some low tech 
response capability to be able to deal with that. But I also 
hope that we're at a position where we're not bragging, but 
making the world aware we have the ability to be on the offense 
on this as well.
    If the rest of the world understands that we can take out 
their cyber, assuming we can, we can take out their cyber 
capabilities, perhaps we can ultimately agree to certain things 
and reduce that risk to both sides, so that we don't continue 
to face the uncertainty of what high tech cyber war might look 
like.
    What I'd like to do is go just for a minute on the Pakistan 
military aid funding. I've been watching the media reports, the 
coalition support funds (CSF), and the foreign military 
financing aid that have been provided to the Government of 
Pakistan and it seems, according to the reports, this funding 
seems to have been used for means other than to fight al Qaeda 
and Taliban forces in Waziristan.
    According to a New York Times article on December 24, 
``Military officials believed that much of the American money 
was not making its way to front-line Pakistani units. Money has 
been diverted to help finance weapons systems designed to 
counter India, not al Qaeda or the Taliban, the official 
said.''
    In another article from the L.A. Times on November 1, they 
also talk about the billions of dollars that have been made in 
U.S. military payments over the last 6 years, but raising the 
question as to where those dollars have gone.
    So my first question is, are U.S. funds being used 
effectively and appropriately as well by the Pakistani 
Government in fighting al Qaeda and the Taliban?
    Secretary Gates. Based on the information that's available 
to me, Senator, I think they are. The funds have been used to 
help support I think something like 90 Pakistani army 
operations, to help keep about 100,000 troops in the field in 
the northwest. We have a process where the Pakistanis come to 
the embassy when they have an operation that they're going to 
perform. The embassy has to validate that it is in support of 
U.S. military and security objectives. It is then reviewed by 
CENTCOM, that not only further validates whether it's a 
legitimate military operation, but also whether the cost is 
reasonable. Then it's finally reviewed and approved by Ms. 
Jonas here.
    They have made airfields and seaports available to us. Half 
the material going into Afghanistan goes on Pakistani roads, 
convoys that are protected and so on.
    But as to some of the specifics, maybe I could ask Ms. 
Jonas to respond.
    Ms. Jonas. Senator Nelson, I'd just like you to know that I 
often talk to the IG on this, and when the program was 
initially set up we set it up in conjunction with them. He's 
looking at the program also to see if there are any management 
reviews that we can do or additional things that we can tighten 
up.
    I will tell you that my office in particular spends a lot 
of time testing the reasonableness of the costs. So there are 
plenty of things that we would turn down as well. But we do 
rely on the field to tell us, and to CENTCOM, as to how that is 
supporting the objectives.
    Senator Ben Nelson. Would that involve trying to decide not 
simply whether the use is appropriate, but are we getting 
results from it as well? Because I think that's the concern I 
have. How much do we need to provide to get the results that we 
are hoping for, and that is to avoid having the buildup in 
Waziristan and in the border, the non-border area where you 
have a reconstituting, reconstitution of the Taliban and the 
expansion and redevelopment of al Qaeda?
    So even if the money is being spent appropriately under the 
way in which it's been designated, are we getting the bang for 
the buck that we really ought to be getting? If we're not, is 
it because it's not enough or is it because it's not being 
used, while appropriately, not in the most effective manner 
possible to get the results we're after? Do we ask those kinds 
of questions or do we just go through--I don't mean to be 
pejorative here, and check the boxes to see that it's done 
appropriately, but what about effectively?
    Ms. Jonas. Certainly that would be the responsibility of 
Admiral Fallon and CENTCOM to judge that, along with the field.
    Admiral Mullen. Senator Nelson, if I may.
    Senator Ben Nelson. Yes, Admiral.
    Admiral Mullen. I know Admiral Fallon and I have 
specifically talked about this. I know he has addressed it with 
the leadership. To the Secretary's point, there has been a 
tremendous investment and we think generally it has flown in 
the right direction. Your question about results, output, or 
effects, I think, is a very valid question, particularly at a 
time, as was pointed out earlier, as this threat seems to be 
both expanding as well as turning inward. We know that General 
Kianni, who heads their army now, we all think is a great 
leader and has the right focus. It's going to take him a while 
to get the focus where it needs to go. It's going to take him 
years to get at this as well; and that our continued support is 
really important.
    To the level of detail where these dollars are going, I 
think it is a great question to look at from the standpoint of 
the effects. What we have seen from here, that's the case. 
Admiral Fallon is asking the same questions and I know they are 
in the field. I would hope that we would have detailed answers 
to that down the road that would answer that, that could put 
your concerns at ease.
    Secretary Gates. Senator, maybe we could ask Admiral Fallon 
to do a report for the committee on his view of the 
effectiveness of this investment.
    Senator Ben Nelson. Because if it's an investment and let's 
say it's effective to a certain level, I would like to ask the 
question, if we doubled the money would we get triple the 
results? I think there are certain kinds of questions you ask 
about a program like that, and when we don't seem to be getting 
where we want to be and they're reconstituting themselves and 
they're gaining strength in certain areas we have to ask the 
question. If we always do what we've always done, we'll always 
get what we always got. I think we need to break that and take 
a look at how we move forward to get the results we're after. 
If it's money, then we need to address that. If it's 
commitment, we need to address that. I'm not talking about our 
commitment, but I'm talking about the commitment of the other 
government.
    The other question which I hope to find out is what do our 
friends in Delhi think is being done with this money, because 
there are also reports that they're concerned that a lot of the 
money we're giving that's supposed to be going to Waziristan is 
just simply being used to build up the military strength of the 
Pakistan military on the border of India.
    So there are a lot of issues here and I hope that we could 
get from Admiral Fallon a pretty detailed explanation of that. 
Also, if he had his druthers and an open checkbook and an open 
opportunity, what would he ask for?
    Secretary Gates. I think one of the concerns that we're 
dealing with right now is there's quite a bit of sensitivity in 
Pakistan to the American footprint and presence in Pakistan, 
particularly an American military presence. I have said 
publicly that we are ready, willing, and able to help the 
Pakistani army should they need help in training for the new 
kind of mission and so on.
    They're very proud. They have a long history of being 
representative of the nation. I think, just further to Admiral 
Mullen's point, until General Kianni gets on top of the whole 
situation and what their needs are, I think we're in a standby 
mode at this point, other than this program.
    Senator Ben Nelson. With two wars costing us, what, $12 
billion to $16 billion at a pretty fast clip, one wonders what 
some of that money diverted to a stronger presence to attack 
Waziristan might get us and be cost savings in the long term, 
plus less threat--now my time's run out--to our troops if we're 
able to bring down the pressure there in Afghanistan and in 
Iraq.
    Thank you, Mr. Chairman. Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Nelson.
    Why don't we do this, Secretary Gates. If you would alert 
Admiral Fallon to the line of questions that Senator Nelson has 
raised about the effectiveness of that spending, perhaps by the 
time he comes here, which is March 4, I believe, he could be 
prepared to give us that report. We would appreciate that very 
much.
    Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you.
    Secretary Gates, I want to talk to you a bit about two 
reports that were released last week on Afghanistan which 
Chairman Levin has already alluded to. Both of them are pretty 
stark in their warnings about what is at stake in Afghanistan. 
One begins with ``Make no mistake, NATO is not winning in 
Afghanistan. Unless this reality is understood and action taken 
promptly, the future of Afghanistan is bleak, with regional and 
global impact.''
    The other says that ``Afghanistan stands today at a 
crossroads.'' It talks about how the progress of the last 6 
years is threatened by some of the factors that you've already 
discussed. It says that the United States and the international 
community have tried to win the struggle in Afghanistan with 
too few military forces and insufficient economic aid. The 
reports recommend that the ``light footprint in Afghanistan'' 
be replaced by the right footprint of U.S. and allied force 
levels.
    My first question to you is, what is your reaction to these 
two reports and the recommendation? Second, I recognize that 
we're sending 3,200 marines this spring to Afghanistan, but is 
that going to be sufficient to put Afghanistan back on course 
if NATO forces aren't joining in an increased commitment?
    Secretary Gates. First, I think that I guess what I would 
say is that I think we are--and it sounds a little familiar--
being successful in the security and particularly in the 
military arena. General Rodriguez reports that to the eastern 
region of Afghanistan, January was the first month in 2 years 
where the level of violence was actually less than it was 2 
years ago. That's clearly where the United States has the 
biggest presence. It's our area of responsibility, and the 
counterinsurgency is going very well there.
    The Taliban no longer occupy any territory in Afghanistan. 
They were thrown out of Mussaqawa a few weeks ago, before 
Christmas. Now, I think that the Taliban have had some real 
setbacks. Probably 50 of their leaders have been killed or 
captured over the past year and we know that that's had an 
impact on their capability and also on their morale.
    All that said, because they are failing in the conventional 
kinds of attacks on us, they are turning more and more to 
suicide bombers, to terror, and to IEDs. So I would say that, 
while we have been successful militarily, that the other 
aspects of development in Afghanistan have not proceeded as 
well. Clearly, counternarcotics are a problem. Corruption is a 
problem. The ability of the government to get services to the 
countryside is a problem. Effectiveness of government 
ministries in many cases is a problem.
    Then overarching this is a problem that I started trying to 
work on a year ago, which was to bring about greater 
coordination of the civil effort among the NATO allies. There 
are some 40 partner nations active in Afghanistan, not to 
mention hundreds of NGOs. There is no overarching strategy. 
There is no coordinating body that looks at what's working best 
and what's not working and shares those experiences or that 
coordinates and says, you need to focus on electricity, and you 
need to focus on roads and so on, in terms of your commitment, 
rather than everyone doing their own thing all the way around 
the country.
    So the importance of somebody filling the position that 
Lord Ashdown was considered for is critically important, and I 
started proposing that a year ago. I also proposed at Nordvik 
last fall that what NATO needs is a 3- to 5-year strategy that 
looks out beyond the end of 2008, beyond 2009. Where do we want 
to have Afghanistan? Where do we see Afghanistan being in 3 to 
5 years, and what kind of forces will it take, what kind of 
civil commitment will it take, what kind of economic aid and 
development?
    One of the biggest problems with Afghanistan is that it's 
poor. Total government revenues this year will be $675 million. 
That compares with nearly $50 billion budgeted in Iraq, and 
Iraq has 5 million fewer people. So the contrast and the 
importance of the international community helping Afghanistan 
in some respects is even more important than in Iraq because of 
the poverty in Afghanistan.
    But this strategy is necessary, with some milestones on how 
we can tell whether we're making progress in these areas. I 
think that there will be a strategy like this approved at 
Bucharest at the summit, that also will, I hope, serve as an 
educational tool for the people of Europe to better understand 
the threat to them coming out of Afghanistan, which will then 
further empower the political leaders to do more.
    Now, to the second part of your question, I've been working 
this problem pretty steadfastly for many months at this point 
and I would say that I am not particularly optimistic. I think 
there are some additional opportunities and I think there are 
some straws in the wind that suggest some governments may be 
willing to do more and do more in a meaningful way, not just 
symbolic.
    My hope is that in Vilnius and then in Bucharest we'll get 
some better indication of what they're prepared to do. Some 
nations are stepping up. The Poles are sending additional 
people. So I think that there are some who are stepping up to 
do more, after I made the decision on the marines, I sent a 
letter to every defense minister in NATO asking them, basically 
trying to leverage our dispatch of the marines into getting 
them to dig deeper. In several cases I made specific requests 
of specific kinds of units and in some cases named units and 
where they needed to go.
    I haven't gotten any responses yet, but I'm sure I will in 
Vilnius. But we'll see. We just have to keep working it.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Warner has just made an excellent suggestion, as 
always, that you, if you would, send that letter to us so we 
can make it part of the record, if that is a public letter.
    Secretary Gates. It was public after it leaked in Germany. 
[Laughter.]
    Chairman Levin. Why don't you leak it to the record. If you 
could leak it for our record. [Laughter.]
    [The information referred to follows:]

    Senators Warner and Levin requested a copy of a letter Secretary of 
Defense Robert Gates sent to every defense minister in NATO on 
enhancing their contributions to activities in Afghanistan, dated 
January 24, 2008. Enclosed is the letter.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

    Chairman Levin. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    I first would like to observe that I really appreciate the 
tone of the relations that we're having out of the DOD now, as 
compared to even a year ago when we were having some of these 
hearings. I think Admiral Mullen, Admiral Fallon, General 
Conway, and others have really demonstrated a willingness to 
rethink where we're going on a lot of these issues. It's 
vitally important that we do this and do it in a timely way.
    I was writing before the invasion of Iraq that my concern 
was we were falling into a double strategic mousetrap. I think 
if you look at this budget that's before us today, you see the 
ramifications of that, a double strategic mousetrap meaning 
first of all we were going to be tieing up our military in one 
spot, burning it out, burning out our people, burning out our 
equipment, at the same time that the enemy that we're facing, 
the true enemy that we're facing, which is global terrorism, 
international terrorism, would retain its mobility.
    I'm looking at the Washington Post this morning, the 
Director of National Intelligence (DNI) identifying what he 
called global hot spots--Iraq obviously, Saudi Arabia, Iran, 
Afghanistan, Pakistan, and China to the extent that it is 
providing missile sales and other weaponry to Iran. They're all 
focusing in that area in a way that we haven't been able to 
control it, in a large sense because of what's happened with 
our commitment in Iraq. To me that argues very strongly for 
getting our people off the streets of Iraq and out of the role 
as occupier.
    The second strategic mousetrap is that we were tieing up so 
much of our national attention and so much of our budget in one 
specific spot, while we were ignoring our strategic interests 
around the world, our larger strategic interests. We're seeing 
that coming home to roost now with the size of this budget. I 
support what we need to be doing, particularly with growing the 
Navy back to where it needs to be, but it's pretty unfortunate, 
from my own perspective that we're having to face these 
problems that were avoidable with a proper strategy.
    My question really is on the GI Bill. I've had meetings, 
I've had discussions with Admiral Mullen about this and others. 
I proposed a GI Bill a year ago that would give the people 
who've been serving since September 11 the same range of 
benefits as those who served during World War II. We took care 
of 8 million people after World War II, paid their tuition, 
bought their books, and gave them a monthly stipend.
    We keep talking about these young men and women as the new 
greatest generation, and yet we're having a very difficult time 
with this administration and, from what I'm hearing, inside the 
DOD, getting an agreement like this is something that these 
people have earned. Senator Clinton is on this bill. Senator 
Obama is on it. Governor Romney has indicated he supports 
something of this nature. We're still waiting for Senator 
McCain, who speaks so strongly about people who serve. We're 
still waiting for people on the other side here.
    But my question for you is this. What I've been hearing 
from the Pentagon is that there are people who believe that 
giving these young men and women this kind of a benefit will 
affect retention. I'm an old manpower guy. I spent 5 years in 
the Pentagon. My view on this is that it will increase the pool 
of people to be recruited, that right now we're burning out 
this one pool we've been going after time and time again with 
all these bonuses, and we've been seeing indicators from the 
Army that categories in terms of mental categories being 
recruited are going down. This would open up a whole new group 
of people potentially.
    I'm wondering if it's true that the position of the DOD is 
that this is somehow going to affect your ability to manage the 
force?
    Secretary Gates. I have not heard that, Senator, and I am 
certainly willing to take a close look at the bill and see what 
the budgetary implications are and so on. Personally, I've been 
trying to do what we can in terms of enhancing the benefits and 
the flexibility of the benefits. For example, the President's 
recommendation in the State of the Union address that a service 
person who does not intend to use his or her Montgomery GI Bill 
education benefits could transfer those to a spouse or to a 
child in their family, I heard that recommendation in one of my 
meetings with military spouses at Fort Hood.
    So I think we are looking for areas in which we can both 
help the families as well as the servicemembers. I'm very happy 
to take a look at this bill.
    Senator Webb. We've been trying to get people in the DOD to 
give us a specific comment on this for more than a year now. 
The Montgomery GI Bill averages out, the average payment on it 
averages out to $6,000 a year. If you were going to go to the 
schools that some of our World War II veterans were able to go 
to--Senator Warner, for instance, was able to go to Washington 
and Lee University--he and I have discussed this--and 
University of Virginia Law School. The Montgomery GI Bill 
wouldn't even cover 14 percent of that today.
    So whatever the benefit is to be transferred--and there are 
questions about transferability. As someone who spent 4 years 
as a committee counsel on the Veterans Affairs Committee 30 
years ago, the benefit itself is not measured to the value of 
the service.
    I'd be interested if the Admiral had any thoughts on this.
    Admiral Mullen. I'm an old manpower guy myself, Senator. 
Listening to you when you talk about this, it's my belief we 
need to take care of these people from the moment we recruit 
them, for as long as the system can support them, depending on 
what they do, whether they stay in and whether they get out. 
That doesn't, obviously, mean we take care of them for the rest 
of their lives, although I do feel strongly we have to have a 
system which supports those who are wounded in that regard.
    Specifically on this, I don't think there is any benefit 
that when I go out and talk to the troops and we meet with 
families--this gets talked about; it's the education benefit 
which they both see, you talk to the young enlisted, who so 
many came in for the education benefits. We know that it will 
lift up the country no matter what they do, whether they stay 
or go.
    I don't immediately sign up to whether this is affecting 
retention at all. I can get a little bit of that. But from the 
beginning to the end, from when they come in to when they 
leave, whether it's a few years or a career, we need to have a 
system which supports that. Education is a ticket to the 
future, whether you're in the Service or not.
    So we need to, I think, take a very careful look at it. 
I've not been made aware of this literally until we've talked 
in the last couple days, and I'm happy to certainly lend my ear 
as well.
    Senator Webb. I would suggest and hope that we can take a 
look at it soon, to try to get something through this year. 
We've been working on it for a year. We've been trying to get 
the other side to understand that this is not a political 
issue, it's an issue of rewarding service. All we're saying is 
try to give the same thing that we gave these people coming out 
of World War II.
    For every dollar that was spent on their education, we have 
$7 back in tax receipts because we increased the value of their 
professional lives. So I would hope we could work in a pretty 
rapid manner on this.
    Secretary Gates. Yes, sir. I say, I'm not a manpower guy, 
but the GI Bill did pay for my Ph.D. at Georgetown University.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. In your case it's probably 14 or 15 times 
the investment.
    Senator Webb. So far.
    Chairman Levin. So far, right.
    Senator Warner. Could I just commend my colleague from 
Virginia, and I wish to associate myself with your goals. I 
think we will be able to in this committee eventually put 
forward a bill.
    Senator Webb. I thank the senior Senator for saying that.
    Chairman Levin. I want to thank Senator Webb also for his 
persistence on this.
    But could you, Secretary Gates, get to us within the next 
month or so the position of the Department on this bill that 
Senator Webb and others have introduced?
    Secretary Gates. Yes, sir.
    Chairman Levin. We need to know what the Department's view 
is on it. We're entitled to know that, and Senator Webb surely 
has been, I think, not only very clear and right on this issue, 
but he's been patient as well. We're entitled to an answer.
    Senator Dole.
    Senator Dole. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, let me just underscore 
again, as each of our members have said, our thanks for your 
great service to our country and your candor before this 
committee.
    Chairman Levin. Senator Dole, if you would allow an 
interruption.
    Senator Dole. Sure.
    Chairman Levin. Forgive me for doing this, but I'm reminded 
that the question of this bill--this bill has been referred to 
the Veterans Affairs Committee, not to this committee. So that 
any report that you give to us should go also to the Veterans 
Affairs Committee because it is within the jurisdiction of 
Senator Akaka's committee.
    Thank you. I apologize, Senator Dole?
    Senator Dole. That's just fine.
    Admiral Mullen, you've endorsed the proposal to fund the 
annual defense budget at no less than 4 percent of the GDP. A 
review of this budget certainly makes it clear that we need to 
substantially increase the baseline budget. Accordingly, I am 
sponsoring with Trent Franks in the House of Representatives a 
joint resolution that calls for the United States to fund the 
annual defense budget at no less than 4 percent of the GDP.
    But rather than discuss percentages and dollars, would you 
share your view on the implications for our military in terms 
of modernization, the growth of our military, the quality-of-
life, and the research and development, if indeed we continue 
to inadequately support our armed services?
    Admiral Mullen. Senator, I've been in and out of Washington 
and a lot of time in the budget world since the mid-1990s, and 
I've recently discussed very publicly the need to have 4 
percent as a floor. Not unlike the other discussions, I'm not 
sure that's exactly right, but I think it's an important 
target. Over the last 10 or 12 years for me, as I've watched us 
through budgets which have been lower and budgets which have 
gotten larger, the impact of the growing cost to invest 
correctly for our people--and it's not just the members, but 
their families and the quality-of-life to have them stay in and 
to ensure that they see themselves as valued as we all say they 
are, and without whom we can't do anything--the growing 
challenges that we have across a full spectrum of requirements, 
and there are challenges in the acquisition world and we do 
need to contain those costs. But modern systems have gotten 
more expensive. The growing cost of operations. Those are the 
three big accounts.
    As I look back at a lot of people trying to get this right, 
and there are a lot of really dedicated people, I just worry a 
great deal about, in the world that we're living in right now, 
with the terrorist threat that we have, the weapons of mass 
destruction threat, the uncertainty, the regional instability, 
cyberspace, space, the growing challenges that possibly come 
from a near-peer competitor in the long run, the technology gap 
which is closing and which we're being closed on, that to 
underinvest across the board in a balanced way would be very 
dangerous.
    As I really roll it up and do the math, for me it's about 4 
percent. It isn't exactly that, but I think at a minimum we 
need to do that.
    To Secretary Gates' point earlier, we've made this mistake 
before. We can't do this now. It is a dangerous world, and if 
we do that I think we draw a great risk to ourselves in the 
future.
    Senator Dole. Thank you.
    Secretary Gates, let me speak to you about the need for a 
Goldwater-Nichols II interagency reform initiative. I read with 
great interest your speech to Kansas State University recently. 
You indicated there that, based on your experience serving 
seven presidents, as a former Director of the CIA, and now as 
Secretary of Defense, you said: ``I'm here to make the case for 
strengthening our capacity to use soft power and for better 
integrating it with hard power. One of the most important 
lessons of the wars in Iraq and Afghanistan is that military 
success is not sufficient to win. Economic development, 
institution-building, the rule of law, promoting international 
reconciliation, good governance, providing basic services to 
the people, training and equipping indigenous military and 
police forces, strategic communications, and more, along with 
security are essential ingredients for long-term success.''
    You also mention that ``What we do know is that the threats 
and challenges we will face abroad in the first decades of the 
21st century will extend well beyond the traditional domain of 
any single government agency. These new threats require our 
government to operate in a wholly different manner, to act with 
unity, agility, and creativity.''
    I would like for you to comment on the implications if we 
were not to move in the direction that you've suggested in this 
very impressive Kansas State speech.
    Secretary Gates. In many respects I think some of the 
challenges that we've faced in Iraq in terms of getting the 
development, reconstruction, the civil side of the equation 
right; the deployment, the difficulty that it has posed by 
trying to staff the Provincial Reconstruction Teams, as an 
example.
    In a way, this goes back to the question of resources. The 
reality, as I talk about in the speech, is that at the height 
of the Cold War, United States Agency for International 
Development (USAID) had 15,000 employees. It has 3,000 now and 
it's basically a contracting agency. USAID in its heyday was an 
expeditionary agency. It had all of the kinds of agricultural, 
rule of law, civic institution, all those kinds of people who 
knew and wanted to serve overseas and served in many third 
world countries, developing countries, and they knew what their 
role was and they were very good at it. It was an important 
component of America's arsenal in the Cold War, where that was 
as much a war of ideas as it was of military power.
    So we've really hampered ourselves. The freeze on the 
hiring of foreign service officers in the 1990s. One of the 
lines that I used in that speech is, you could take the entire 
foreign service and it would not be enough people to crew one 
single carrier strike group.
    So I think the government is out of balance. Now, the fact 
that I'm up here for a $515 billion budget suggests that I 
don't mean that we correct the balance by lowering the defense 
budget. But I think that there needs to be greater attention 
both in the executive branch and in the legislative branch in 
how do we strengthen some of the civilian side of the 
government that deals with international affairs.
    The second part of the problem is how do you structure it, 
how do you organize it? I would confess to you--and one of the 
few negative comments about that speech was that I didn't put 
forward any ideas on how to fix the problem. What we have done 
in the Pentagon is let a contract to a nonpartisan, 
nongovernmental think tank to try and come up with some ideas 
that could perhaps serve as a basis for legislation or action 
by a new administration in terms of how you structure it.
    The problem with the Goldwater-Nichols analogy is the same 
problem that I had with that analogy in the creation of the 
DNI. It is that the reason Goldwater-Nichols works in the DOD 
is that at the end of the day there is one guy at the top that 
makes all the decisions, and that's not the case in a 16-member 
intelligence community and it's certainly not the case in the 
interagency.
    But clearly the structure--the theme of that speech this 
last year was the 60th anniversary of the National Security 
Act. It created the Air Force, it created the DOD, it created 
the National Security Council, it created the CIA. It was a 
huge piece of legislation, of enormous consequence, and really 
provided the framework for decisionmaking for the entire Cold 
War. My suggestion was, if you are going to write the National 
Security Act of 2007, what would it look like.
    I just think that the legislative branch, because you have 
a lot of research capabilities up here, a lot of historical 
experience, the executive branch, and we're doing our part in 
the DOD, needs to begin to focus on this. Frankly, I think it 
needs to be as a new president looks out at the world, getting 
this right and figuring out how to restructure to use all of 
the elements of national power that we have should be a high 
priority for the new president.
    Senator Dole. Thank you very much.
    My time has expired.
    Chairman Levin. Thank you, Senator Dole.
    Senator Akaka.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman. I want to welcome our witnesses, Secretary Gates and 
Admiral Mullen.
    To Secretary Gates, as a result of the remediation for the 
problems identified at the Walter Reed Army Medical Center, DOD 
and VA are currently cooperating and collaborating I would say 
on an unprecedented level. Secretary Gates, do you believe that 
the Department can sustain the current level of cooperation and 
collaboration, and how will this be administered?
    Secretary Gates. I think that one of the things that has 
played a critical role in bringing the Departments together and 
making sure that the various levels of the Departments are 
doing what they're supposed to be doing in terms of both the 
Dole-Shalala recommendations, the legislation that you have 
passed and others, is the fact that the Deputy Secretary of 
Defense, Gordon England, and the Deputy Secretary of Veterans 
Affairs meet every week, and their subordinates are in the room 
and they have a checklist of what they're supposed to do, and 
they are methodically working through it.
    I am confident that this practice will continue certainly 
for as long as Gordon England and I are in our positions.
    I think that when you are sitting up here a year from now 
confirming a new Secretary of Defense, it seems to me that that 
provides a useful opportunity to encourage that Secretary to 
continue this practice, because that's what it takes, frankly. 
It takes top-level attention and it takes short deadlines for 
getting things done, and it has worked and it's really worked 
remarkably well. But it requires continued top-level attention.
    Senator Akaka. I want to thank you for placing that in the 
record. I'm so glad to see that continue to happen.
    Some have suggested, Mr. Secretary, that a permanent joint 
DOD and VA transition office be established. Do you have any 
thoughts about that?
    Secretary Gates. I'm very open to this because when we 
started dealing with this problem I said we need to look at 
this from the standpoint of the soldier, sailor, airman, or the 
marine. Forget all these bureaucracies. Forget all these 
different organizational charts and everything else. I'm a 
soldier, I've been wounded, or even if I haven't been wounded; 
how do we create a structure that makes--this is perhaps a 
contradiction in terms and so idealistic it sounds naive--but 
that in effect makes the bureaucracy the ally of the soldier, 
not the adversary, and a seamless transition, so that the 
bureaucracy smooths the way rather than making it a series of 
obstacles to be overcome.
    I think you can do that, and as we were doing a lot of the 
wounded warrior things, I said, go out and just interview some 
wounded soldiers and tell them: If you had a clean sheet of 
paper, based on your experience so far, how would you design 
this system? What would you make it look like?
    So I'm open to anything that's going to make the 
bureaucracy more user-friendly to those who have served it.
    Senator Akaka. Thank you for those responses, Mr. 
Secretary.
    Mr. Secretary, given the increased interaction between DOD 
and VA, disagreements could occur that can't be resolved over 
jurisdiction or responsibility between DOD and VA within either 
the DOD-VA joint executive council or the DOD-VA senior 
oversight committee. In these cases, who do you think is 
responsible for brokering these disagreements between the two 
Departments, and how would the process work?
    Secretary Gates. Happily we haven't had any of those yet. I 
would assume that if there were a really tough problem that 
couldn't be solved by the deputies that it would come to 
Secretary Peake and myself. I find it difficult to imagine that 
we couldn't come to an agreement. But if for some reason we 
couldn't then clearly the next step would be to take the issue 
to the President.
    Senator Akaka. I want to thank you also for mentioning 
``seamless transition,'' because we have been working on that 
and we have been working here at the Armed Services Committee 
and the Veterans Affairs Committee.
    Many of the programs currently under development, Mr. 
Secretary, at DOD continue to be delayed or are experiencing 
cost overruns. The GAO report just released February 1, 
identified 11 programs that are the result of poor Department 
acquisition practices and reiterates some of the issues brought 
out in the testimony at the end of the last congressional 
session.
    Some failures identified include: overreliance on testing, 
immature technologies, and early entry into signed contracts 
prior to a thorough engineering analysis, both of which 
drastically drive up costs on these programs.
    Secretary Gates, what is the status of ongoing efforts 
within the DOD to improve the efficiency of the acquisition 
process?
    Secretary Gates. I think you could probably fill this room 
with studies of the DOD acquisition process over the past 
number of decades. We have a new Under Secretary for 
Acquisition, Technology, and Logistics, John Young. John has 
tried to lay out for his entire group a new approach to 
acquisition that tries to minimize the kinds of problems that 
you've just described. I would invite--and I'm happy to have 
Mr. Young come up and talk to you about it or come up and talk 
to the committee, because I think--one of my real regrets is 
that Mr. Young is only going to have a little over a year in 
office, because I think he's on the right track and I think he 
has it right.
    There's another problem, though, and someone alluded to it 
at the very beginning of the hearing. In the 1990s, for two 
reasons--one, four successive National Defense Authorization 
Acts that required the Department to reduce the number of 
acquisition officers by 95,000 people altogether; and the 
Department's own actions to reduce personnel because of the 
budget--that took the number of acquisition people in the DOD, 
people working acquisition issues, from something like 620,000 
to fewer than 300,000.
    Maybe more importantly, between 1990 and now, the Defense 
Contract Management Agency dropped from 24,000 contract experts 
to just over 9,000. So one of the things we have to do is 
figure out how many is the right number to be involved in 
managing these contracts, because it seems to me, given the 
problems we've had in Iraq and the problems we've had that you 
alluded to, the number where we are now probably isn't right.
    One of the things that the Army has done--there's been a 
lot of criticism and a lot of justifiable criticism about 
contracting problems in Iraq. We had 63 contract managers in 
Iraq until December 2007. We now have over 300 that the Army 
has sent out, the Army alone has sent out there.
    So it's clearly partly a process problem, but it's also a 
resource problem, and I think we're trying to address both of 
those. But I invite the committee and I invite you to sit down 
with Mr. Young, because I think some of the programs he's 
putting in place are quite valuable.
    Senator Akaka. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Chambliss arrived on the spur of the moment. 
Senator Chambliss, you are next.
    Senator Chambliss. Thank you, Mr. Chairman. I apologize to 
whoever I cut off here.
    Chairman Levin. Senator Martinez was looking expectantly, 
and properly so. But you aced him out. Senator Chambliss?
    Senator Chambliss. Mr. Secretary, Admiral, thank you for 
being here this morning. Thanks for your great service to our 
country.
    Secretary Gates, in addition to requiring a force to defend 
the Homeland and to deter in and from four regions, the 
National Military Strategy requires our military ``to conduct 
two overlapping swift-defeat campaigns. Even when committed to 
a limited number of lesser contingencies, the force must be 
able to win decisive in one of two campaigns.'' These are 
quotes from that document.
    According to the strategy, it does not represent a specific 
set of scenarios nor reflect temporary conditions. Regarding 
tactical aviation, it is well known that there have been 
several studies regarding how much and what type of tactical 
aviation our National Military Strategy requires. Specifically, 
there have been at least three studies on this issue within the 
last 5 years: one by DOD, one by the Air Force, and one by an 
independent group.
    Each of these studies have come to a different conclusion. 
Only one of them, the DOD study, has concluded that we only 
need 183 F-22s. DOD's joint air dominance study, which was done 
in support of the 2005 QDR, assumes that of the two major 
regional operations that the force is sized against, only one 
of those is a stressing scenario that requires a large number 
of F-22s. I'm very concerned about this assumption. As a 
previous DCI, you know how hard it is to predict the future and 
I think that you would agree that our ability to predict our 
next military opponent over the last 10 to 20 years has been 
very inconsistent, and we've always been wrong.
    The DOD study completely discounts the possibility of a 
resurgent Russia over the next 20 years and uses predictions 
regarding proliferation of surface-to-air missiles and fifth 
generation fighter aircraft that are exceptionally conservative 
and that do not match estimates I received from intelligence 
personnel in the Pentagon just this morning specifically 
related to the double-digit SAM capability that Iran will have 
in 2024, the year the DOD study uses for its scenarios.
    We can't talk specific numbers because this is an 
unclassified hearing, but suffice it to say that the 
information that I received, the Pentagon estimates Iran's 
double-digit SAM capability at two to five times higher than 
the DOD study assumes. This would obviously require a much 
larger fifth generation fighter force to counter and would be a 
much more stressing scenario.
    Second, based on projections that I received from the 
Pentagon, there are at least 17 other nations that will have 
double-digit SAMs by 2024, including many of the Central Asian 
republics, Pakistan, Syria, Egypt, Libya, Algeria, Belarus, 
Vietnam, and Venezuela.
    Also, the DOD study makes the assumption, which I frankly 
don't agree with, that the F-22 and the JSF are equally capable 
against surface-to-air missiles, and also assumes that no F-22s 
will be required for homeland defense or to deter the threat 
from four regions, as the National Military Strategy requires.
    Now, given this threat information, the assumptions in the 
DOD study, and the fact that of the three studies only one 
recommends procuring only 183 F-22s, how confident are you that 
we are procuring the right number at 183?
    Secretary Gates. Senator, I know that the Air Force's view 
is that they would like to have 350 of these aircraft. I think 
at the end of the day, at least for me, it has ended up being a 
cost-benefit analysis of the F-22, of the growth of the F-22 
program beyond 183 or so aircraft, and the impact on the JSF 
program.
    My concern is that the F-22 is almost twice as expensive as 
the JSF. My worry is that a significant expansion of the 
production of the F-22 in the out-years will encroach on the 
production and the affordability of how many JSFs can be 
purchased.
    My view on this was that we have come to this conclusion in 
this administration in terms of the F-22, but there are 20 F-
22s in the 2009 budget. As I indicated earlier, we will 
probably ask for four or so more as replacement aircraft in the 
supplemental for 2009. So my objective was to keep the line 
open, quite frankly, so that a new administration as it looks 
at the DOD, at the defense budget and priorities, can make the 
decision. If they choose to expand the F-22 force, then the 
production line will still be open that would enable them to do 
that.
    Senator Chambliss. If you ask for four additional F-22s in 
the supplemental, how long is it your thinking that that will 
keep the line open?
    Secretary Gates. 2010.
    Senator Chambliss. Do you have any concerns about the fact 
that if that is not the case and you don't have money for long-
lead procurement in this budget, that in effect you're going to 
be shutting down that line because you're not going to have 
subcontractors out there that are going to have the assurances 
that they need from a long-lead standpoint? Is there a concern 
on your part that's real referenced to the shutting down of 
that line?
    Secretary Gates. I am concerned. My objective is to give 
the next administration an option. What I've been told is that 
this will keep the line open, that gives them that opportunity.
    Senator Chambliss. Has the fact that we now have--I'm not 
sure what the exact number is today; I think the last one I saw 
was about--160 F-15s, which the F-22 is replacing--we've had a 
significant issue with the F-15. We have about 160 of them that 
are grounded, I think, as of today. Has that factored into your 
decision or is that late issue that came into the picture not a 
factor?
    Secretary Gates. No, in fact that was an issue that helped 
persuade me to keep the line open.
    Chairman Levin. Thank you.
    Senator Chambliss. Thank you, Mr. Secretary.
    Chairman Levin. We are not going to be able to quite meet 
our noon promise, but we'll come very, very close. We're not 
going to be able to have a second round of questions, however. 
There have been some requests for that. We'll have to have 
those questions asked for the record, which we will keep open. 
But we are not going to be able to have a second round.
    Senator Kennedy.
    Senator Kennedy. Thank you very much.
    Thank you, Secretary Gates, for your service. Admiral 
Mullen, thank you very much for what you do for the country.
    I'd like to come back to an item that was talked about in 
the early part of the hearing by the chairman and the ranking 
member. That is the negotiations to sign a permanent long-term 
agreement with the Iraqis on the role of U.S. military in the 
future operations in Iraq. The agreement's expected to be 
concluded by mid-July.
    Obviously, the stakes are extremely high. Congress, I 
believe, must have the opportunity to approve or disapprove any 
security commitment, agreement, or assurance, pledge or 
guarantee, regardless of what it is called, that affects our 
troops and our national security. We're mindful that to date 
the Iraqi foreign minister is describing the agreement as a 
treaty. In a January 15 press conference with Secretary Rice he 
said: ``Our leaders have agreed to set a group of principles 
for the long-term treaty.'' The Iraq parliament is demanding to 
ratify the final agreement and the Iraqi Government has said it 
will submit any United States-Iraq pact to the parliament for 
ratification.
    General Lute, the Assistant to the President for Iraq and 
Afghanistan, said in November that congressional input ``is not 
foreseen. We don't anticipate now these negotiations will lead 
to the status of a formal agreement, which would then bring us 
to formal negotiation or formal input from Congress.''
    Yet, our troops are involved. Our national security is 
involved, and Congress should have the opportunity to approve 
or disapprove such an agreement. Congress even approves a 
security arrangement with the Marshall Islands, Micronesia. 
There's no convincing reason to bypass Congress.
    But let me ask you, before getting into comments about this 
issue. The existing authority under international law for the 
military presence in Iraq was extended in December 2007 through 
the end of 2008. Wouldn't it make more sense to seek a short-
term extension to enable the next administration to decide what 
form our commitment should take, if any?
    Secretary Gates. Senator Kennedy, the SOFA that is being 
discussed will not contain a commitment to defend Iraq and 
neither will any strategic framework agreement. My 
understanding is--and it's, frankly, a clearer point than I 
made earlier, and we certainly do not consider the declaration 
of principles as a security commitment to the Iraqis.
    My view is that there ought to be a great deal of openness 
and transparency to Congress as we negotiate this SOFA, so that 
you can satisfy yourselves that those kinds of commitments are 
not being made and that there are no surprises in this.
    Senator Kennedy. I appreciate that and appreciate your 
view. We have had other examples of statements that have been 
made where the administration's changed its position. In the 
last 4 years the administration said there would be no 
permanent bases. The President, on April 13, 2004, said: ``As 
proud and independent people, Iraqis do not support indefinite 
occupation. Neither does America.'' Secretary Rumsfeld said: 
``We do not have plans for permanent facilities in Iraq, no.'' 
Ambassador Khalilzad stated on August 15, 2005: ``We do not 
seek permanent military bases.'' Secretary Rice, May 7: ``We do 
not in the process these days of doing permanent military 
bases.''
    Now we have the National Defense Authorization Act this 
year and the President included a signing statement on the 
provision that prohibits funding for the establishment of any 
military installation or base for the purpose of providing for 
permanent stationing of U.S. Armed Forces, saying and 
indicating that he would not apply that language if it impedes 
his constitutional authorities.
    So we've had language from the administration giving the 
assurance to Congress one way and then the administration going 
the other way.
    Why not just simplify it? Why not just get the Iraqis to 
extend the U.N. resolution which has been the basis for this? 
Why not let them do it and then permit the next administration, 
Democrat or Republican, to make that judgment?
    If they are not going to do it, why won't they do it? If 
they won't do it, why shouldn't we take action that says that 
if they're not going to take responsibility in this area why 
should we continue to give effectively a blank check of 
American troops?
    Secretary Gates. We certainly are not going to give anybody 
any blank checks. It was very difficult to negotiate the U.N. 
extension for 2008 and I think that the general feeling from 
the experts, including our ambassador and General Petraeus, is 
that it would be extremely difficult to get the Iraqis to agree 
to even a short extension of this.
    In a way, they have a vote in this, and they don't want 
permanent bases either. They are interested in asserting 
sovereignty and, my personal view--I haven't talked to the 
President about it--but I suspect that that language had more 
to do with the constitutional issues than with the substance of 
whether or not we want permanent bases in Iraq. The fact is, in 
every meeting that I've taken part in, it has been affirmed 
from the President on down that we do not want permanent bases 
in Iraq.
    Senator Kennedy. The language is specific on this 
communique under item 3, the security sphere: ``Providing 
security assurances and commitments.'' That language is signed 
by the President of the United States. That has the President 
of the United States' signature on it. That means something. 
What we are asking here is that, in terms of binding a new 
administration, you've had the authority under the U.N. 
resolution in the past. The Iraqis have the opportunity to say 
that they can extend it for a year or renegotiate it in 6 
months. We're involved in fighting for their country. We don't 
get the reconciliation, the political accommodation. Why can't 
we expect that they would say, all right, you're going to get 6 
months and 12 months and leave the opening to a new 
administration, a new President, Republican or Democrat, to 
work those items out?
    When we have the President of the United States signing 
that document that talks about security, it seems to me that 
the American people are entitled to that kind of voice in its 
decision.
    Secretary Gates. Senator, my view is that there is nothing 
in the SOFA that we are just beginning to negotiate that would 
bind a future administration. It basically, like other SOFAs, 
sets forth the rules by which we continue to operate in Iraq in 
terms of protecting our soldiers, in terms of the legal 
relationship, and so on. I don't think that there's anything 
here that in a substantive way binds any future administration.
    Senator Kennedy. My time is up. Can you give the assurance 
that the Senate will have an opportunity to review it before 
it's implemented?
    Secretary Gates. As I indicated, I think there should be 
full openness as we go through this process.
    Senator Kennedy. I'll assume that that's an affirmative 
answer.
    Secretary Gates. That's a yes.
    Senator Kennedy. Thank you.
    Chairman Levin. Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, thank you both for your patience. I think I may 
be it, so soon you get to leave, and thank you for coming and 
being with us and for your service.
    I wanted to just reiterate, as my colleague from Florida, 
Senator Nelson, indicated, my continuing interest on the issues 
relating to Mayport and thank the chairman. As the CNO, you 
made some great statements on that and I appreciate that, and 
we look forward to the continuation of the EIS and the future 
of Mayport, which is so important to Jacksonville.
    Also, very interested in issues relating to the potential 
for a Fourth Fleet. Admiral Stavridis does a terrific job with 
the Southern Command and, Mr. Secretary, I think as you look 
into these issues that it will be apparent that, given our 
responsibilities as well as the threats in the region, that 
this may be an idea whose time has come.
    I am, too, and I want to just let you know, very concerned 
about the issue of rotations and the 15-month deployment. Mr. 
Chairman, I'm sure that you are equally concerned about it. I 
recently have had occasion to visit with a young man that I've 
known since he was a small baby, and he is back for 2 or 3 
weeks. It does underscore for me personally the difficulty of 
these long deployments. I realize what a difficult circumstance 
you find yourself in, but just count me on the side of needing 
to look for solutions to that issue in the short term.
    My concern--two quick questions. One was on the issue of 
intelligence sharing with Turkey. I was recently there and the 
Secretary and I discussed, I think, the very positive effect 
that our cooperation in terms of the threat presented to Turkey 
by the Kurdistan Worker's Party (PKK) has been very well 
received and it's a good thing. My question is twofold. Number 
one, how is this cooperation going?
    Second, I just heard yesterday about a series of aerial 
attacks that had taken place in northern Iraq by the Turkish 
forces. How are we preserving the integrity of Iraq as well as 
maintaining our Iraqi friends in the northern part of Iraq 
sufficiently content with what's taking place?
    Admiral Mullen. Coincidentally, Senator, I actually met 
with General Sigon yesterday. He's been here for about the last 
week or so. He has been the point of contact with the Turkish 
general staff along with General Cartwright, the vice chairman, 
and General Petraeus. We've worked our way over these last few 
months to a level of cooperation that had not been seen.
    Clearly it's a very delicate balance and I think all the 
senior leadership, not just in the military, of both countries 
understand that the balance is there, that this needs to stay 
both in balance and it is very delicate. We speak frequently 
with both General Petraeus and Admiral Fallon about this. 
General Petraeus is very aware each time there's any kind of 
operation which occurs similar to the one that you just read 
about, and it is in that balance that I think the long-term 
success of all the interests, the interests of this sovereign 
country of Iraq, clearly the internal interests that are there 
particularly in the north, as well as the interests of Turkey, 
and that this is focused on exclusively the PKK, which is a 
known terrorist organization.
    So we've made a lot of progress. We also believe that, not 
unlike in many areas that we've talked about, that there isn't 
just a military solution here, that this will, we would hope, 
buy some headroom so that the other aspects of this can be 
addressed for a long-term solution to this very difficult and 
longstanding problem.
    So from my standpoint, the intelligence sharing, the entire 
aspect of this has gone exceptionally well. It's just, like 
many things, a very delicate balance and we have to keep our 
focus on this to make sure that that balance is sustained.
    Senator Martinez. I think Prime Minister Erdogan, who I met 
with when I was in Ankara, was very appreciative of the 
cooperation, but also very cognizant of the fact that it was 
more than just a military solution. I think that General Sagin 
also echoed those comments when he was here. I saw him last 
week as well.
    Shipbuilding. I was concerned in looking at the current 
proposal that we may be seeing a reduction of seven ships from 
the projected schedule that we were on. I know the LCS issue 
and I know how passionately you feel about the importance of 
this. I concur with you, and I know the path we're on to try to 
allow the two current ships to be completed and proceed 
forward. But it does concern me that we are falling drastically 
off schedule from what was projected in our shipbuilding 
program to get us to the 313-ship Navy that I think you and I 
both believe is important.
    Admiral Mullen. Yes, sir.
    Senator Martinez. What can you tell me?
    Admiral Mullen. I think the analysis which went into 
underpinning that 313 number is still very solid. I think it's 
important to remember that was the minimum number of aircraft 
carriers, the minimum number of surface combatants, the minimum 
number of submarines, all those things. We had built ourselves 
down to a certain number that we could produce. Certainly we 
hoped the numbers would be up-tied to LCS.
    LCS had a very tough year last year. I thought the 
Department and Secretary Winter in particular put it under a 
microscope to bound the problem both in requirements and costs. 
It is a vital part of the Navy as soon as we can get it out 
there. The Secretary of Defense talked earlier about designing 
the right kind of ships for the kind of swarming tactics which 
we recently saw in the Persian Gulf that the Iranians executed, 
and that in containing it--and I think we can from a cost 
standpoint and we now need to move forward.
    Clearly, we weren't able to execute the third and the 
fourth in the class. We're now just with the first two. I think 
the overall acquisition strategy there is a good one and that 
once we get to the type model series that we want, we then need 
to generate them as quickly as we can and build up to that 55-
ship requirement.
    I think the submarine aspect of the program is solid. 
Clearly we're moving forward with the new destroyer, which is 
also in this budget. That's a really important transformational 
platform for the Navy for the future and I really believe for 
the Department in many ways. So the investment--I think it's 
somewhere above $14 billion this year, although some of that is 
overhaul money--continues to be there.
    I know I've spoken with Admiral Roughead, that his 
priority--I've heard him say it personally and publicly, that 
his number one priority is ships. You can't have much of a Navy 
without ships.
    Senator Martinez. That makes sense.
    Mr. Chairman, may I have one more question or am I out of 
time?
    Chairman Levin. I don't know if you're out of time or not, 
but why don't you quickly ask a question.
    Senator Martinez. Okay, thank you.
    Mr. Secretary, the one issue that does greatly concern me, 
as I know it does you, is the NATO cooperation in Afghanistan. 
I was chagrined that we had to send 3,500 marines there because 
it appears that our allies didn't understand the seriousness of 
their commitment, or at least didn't understand their 
commitment the same way we did.
    I wonder, in addition to what you said earlier, if there's 
anything you can tell us in terms of how we can bring about the 
kinds of results we need from NATO to undertake their 
responsibilities as it relates to Afghanistan?
    Secretary Gates. Senator, I leave after the House hearing 
this afternoon for Vilnius for a NATO defense ministers 
meeting, and clearly our role in Afghanistan is a key element. 
I mentioned earlier that I've sent--I'm trying to leverage the 
fact that we're sending these marines to get our allies to 
backfill behind the marines when they come out in winter. I'm 
going to provide a copy of that letter to the committee.
    I think we can--the reality is some of them have very 
difficult political circumstances at home. They're minority 
governments or they're in coalition governments and there's a 
difficult problem. One of the things I'm going to do in 
Vilnius, or actually in Munich at the Wehrkunde conference, is 
there are going to be a number of American legislators there 
and a number of European legislators, and I want to try and 
bring them together at a reception, because I think, frankly, 
one area where Congress can help us is in your interactions 
with European parliamentarians to talk about the importance of 
Afghanistan and success in Afghanistan, not just for their own 
security, but also for the future of the alliance.
    I think that the problem is they need to be more courageous 
in going out and trying to educate their population about why 
Afghanistan matters, and I think you in many respects have more 
credibility with them as elected representatives than people 
like me. So I think whatever you can do, that's one place where 
I think you can be helpful.
    Senator Martinez. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you so much.
    Senator Warner just wants to make a statement about our new 
Senator.
    Senator Warner. Thank you. Mr. Chairman, we have a new 
member, Senator Wicker, who took Senator Lott's seat from 
Mississippi. He has been trapped in this line of tornadoes in 
getting here to the Senate today and therefore he's absent. I 
ask unanimous consent that his statement and questions be 
admitted for the purposes of the record.
    Chairman Levin. Any statement will be made part of the 
record, and of course his questions will be asked for the 
record.
    [The prepared statement of Senator Wicker follows:]
             Prepared Statement by Senator Roger F. Wicker
    Chairman Levin and Senator Warner, thank you both for your kind of 
words. I am grateful and humbled to be a member of this prestigious 
committee. The work of the Senate Armed Services Committee makes our 
Nation stronger and the men and women who defend her safer. I look 
forward to contributing in some way to this important honorable cause. 
Thank you for this opportunity.

    Senator Warner. I thank the chair.
    Chairman Levin. We found that out and we're glad you made 
that part of the record.
    We're very grateful to our witnesses, particularly, may I 
say, Secretary Gates, for your statement of a few minutes ago 
giving us the flat-out assurance that any agreement with Iraq 
will not include a security provision. That's what an anonymous 
person from the White House apparently said yesterday, as 
reported in this morning's paper. You have taken the anonymity 
away from that and given us your direct statement, and we now 
have it on authority and that's what we welcome so much. It was 
important, I think, on a bipartisan, an institutional basis, as 
you heard this morning, that any agreement not include security 
commitments to a country since that belongs in a treaty.
    Secretary Gates. That certainly is what I have been 
informed about with the SOFA.
    Chairman Levin. Thank you.
    Again, to all of our witnesses, thank you so much for your 
service, and we came reasonably close to keeping our 
commitment.
    Secretary Gates. Thank you, sir.
    Chairman Levin. Again, our thanks. We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                         de-baathification law
    1. Senator Levin. Secretary Gates, the Washington Post reported on 
February 4, 2008, that the Iraqi Presidency Council issued a statement 
on Sunday that the de-Baathification law was now ``considered as 
approved'' even though Iraqi Vice President Tariq al-Hashimi, the only 
Sunni Member of the Presidency Council, refused to sign it and despite 
the fact that Article 138 of the Iraqi Constitution specifically 
provides that legislation requires unanimous approval by the Presidency 
Council within 10 days of its delivery to the Council to become law, or 
it is sent back to the Council of Representatives. Has the de-
Baathification law actually been approved?
    Secretary Gates. On February 3, 2008, the Presidency Council 
submitted the Accountability and Justice Law for publication in the 
Official Gazette.
    [Note: Since the February 6, 2008, Senate Armed Services Committee 
hearing, the law was published in the Official Gazette and is now law.]

                  project on national security reform
    2. Senator Levin. Secretary Gates, your speeches at Kansas State 
University and the Center for Strategic and International Studies 
called for major national security reforms. Section 1049 of the 
National Defense Authorization Act (NDAA) for Fiscal Year 2008 
authorized $3 million for a comprehensive study of required reforms in 
the fiscal year 2008 budget. I understand the Department of Defense 
(DOD) has committed to entering into a cooperative agreement with the 
Center for the Study of the Presidency and the Project on National 
Security Reform for this study. Will DOD provide the full $3 million to 
the Project on National Security Reform?
    Secretary Gates. The Department has entered into a Cooperative 
Agreement with the Center for the Study of the Presidency and the 
Project on National Security Reform for this study and will provide the 
$2.4 million appropriated by Congress. These funds will be adequate for 
fiscal year 2008 efforts.

    3. Senator Levin. Secretary Gates, what other support will the DOD 
provide to this important effort?
    Secretary Gates. It is too early to know what support may be 
required, but I expect we will be able to provide whatever support is 
requested.

    4. Senator Levin. Secretary Gates, I understand that Director of 
National Intelligence McConnell and Secretary of Homeland Security 
Chertoff have promised funding or support to the Project on National 
Security Reform. Have you sought to use the cooperative agreement as 
the mechanism for this assistance as well?
    Secretary Gates. No. Neither agency has requested to do so. 
Additionally, the current cooperative agreement with the Project on 
National Security Reform, and its associated funding, was carried out 
under section 1049 of the NDAA, which limits the amount that may be 
expended to $3.0 million. Using the Cooperative Agreement, which is 
directly tied to the funding prescribed by the NDAA, could limit the 
amounts that other agencies might provide.

    5. Senator Levin. Secretary Gates, what steps have you taken or do 
you plan to take to gain assistance from other departments and agencies 
for this effort?
    Secretary Gates. This effort is being carried out at the direction 
of Congress under Section 1049 of the NDAA, with an amount of $2.4 
million appropriated for the project ($3.0 million authorized). This is 
not a DOD initiative nor should it appear to be one if the 
congressional intent of a non-partisan, independent study is to be met. 
The Department thinks it inappropriate to seek additional funding or 
support from other agencies or departments, none of whom were 
authorized nor provided additional funding by Congress to support the 
study. The Project on National Security Reform has been highly 
encouraged to seek assistance from other potential private donors, any 
department or agency of the U.S. Government, as well as from Congress.

    6. Senator Levin. Secretary Gates, your policy office has estimated 
that to make national security reform a reality will require $12 to $15 
million. Have you included funding for this effort in your fiscal year 
2009 budget? If not, why not?
    Secretary Gates. I am not aware of an official DOD estimate on the 
costs of national security reform. Given that such reform possibly 
would entail more than just the DOD and likely will extend beyond the 
Executive Branch, any inclusion of government-wide reform in the 
Defense budget would be inappropriate. Currently, at the direction of 
Congress, the Department is funding a study by the Project on National 
Security Reform to examine the dimensions of the problem and possible 
solutions. However, the study is due in the Fall and any discussion of 
its recommendations, and the cost of implementing those 
recommendations, would be premature at this time.

                    strategic arms reduction treaty
    7. Senator Levin. Secretary Gates, the Strategic Arms Reduction 
Treaty (START) will expire in December 2009. If that treaty is allowed 
to expire, the DOD will no longer have access to certain Russian data 
and vice versa. In addition, the START verification mechanisms on which 
the Moscow Treaty relies will be lost. Do you believe that the START 
should be extended?
    Secretary Gates. Our goal is to maintain a credible deterrent at 
the lowest possible level, consistent with our national security needs, 
including our obligations to allies. To that end, the Department does 
not want to extend START, a complex, Cold-War era agreement with 
intrusive verification measures unsuited to our current relationship 
with the Russian Federation and the future security environment. 
Instead, we prefer to extend the Moscow Treaty limits of 1,700-2,200 
operationally deployed strategic nuclear warheads, and apply a set of 
transparency and confidence-building measures, including data 
exchanges, visits, exhibitions, telemetry exchanges, and activity 
notifications, as a means to ensure mutual awareness and predictability 
regarding Russian and U.S. strategic capabilities.

    8. Senator Levin. Secretary Gates, what are the alternatives to 
obtain the data and replace the verification mechanisms that would be 
lost if it is not extended?
    Secretary Gates. DOD supports a set of transparency and confidence-
building measures with Russia including data exchanges, visits, 
exhibitions, telemetry exchanges, and activity notifications.
                                 ______
                                 
            Questions Submitted by Senator Edward M. Kennedy
                             iraqi refugees
    9. Senator Kennedy. Secretary Gates, section 1248(c) of the Refugee 
Crisis in Iraq Act of 2007 requires the DOD to provide Congress with 
information to be used to verify employment of Iraqi citizens and 
nationals by the U.S. Government. The law also requires options for the 
development of a unified, classified database of relevant employment 
information that can be used to adjudicate refugee, asylum, special 
immigrant visas, and other immigration claims. A report on employment 
information and a report on a unified database, both dating back to 
2003, are due to Congress by May 28, 2008.
    What procedures have been established to conduct a comprehensive 
review of DOD internal records and databases of Iraqi employees from 
the past 5 years, and how is this same type of employment information 
being gathered from Federal contractors, grantees, and other 
organizations employing Iraqis in support of the United States?
    Secretary Gates. With regard to the two sections, 1248 (c) and (d), 
contained in the NDAA for Fiscal Year 2008, the Department is working 
with the Office of Federal Procurement Policy on an appropriate data 
call and an appropriate lead agency due to the broad nature of this 
task, which requires the ideas and data from multiple Federal agencies.

    10. Senator Kennedy. Secretary Gates, what options are under 
consideration for establishing and managing a unified database on 
Iraqis employed since 2003? How will consultations with the State 
Department, U.S. Agency for International Development, Homeland 
Security Department, and the Treasury Department be coordinated?
    Secretary Gates. Section 1248(c) of the NDAA for Fiscal Year 2008 
requires the DOD, the Secretary of State, the Administrator of the 
United States Agency for International Development, the Secretary of 
the Treasury, and the Secretary of Homeland Security to review internal 
records and databases for information that can be used to verify Iraqi 
nationals' employment. Part of verifying their employment in Iraq 
involves reviewing internal records and databases to obtain information 
from prime contractors and grantees who have performed work valued over 
$25,000. Likewise, section 1248(d) requires the same Federal agencies 
to submit a report to Congress highlighting the options examined to 
establish such a database. Due to the broad nature of this task, which 
requires data from multiple Federal agencies, the DOD is working with 
the Office of Federal Procurement Policy on an appropriate data call 
and an appropriate lead agency for this requirement.
    The Department considers biometrics as one of many possible venues 
to address this area.

         Consistent with statute and policy governing the use of 
        personal identity information for non-U.S. persons, the near 
        real-time sharing and screening of identity data on foreign 
        persons of interest, to include data on employment, is a 
        critical priority for DOD. To that end, DOD has been 
        participating in interagency committees and working groups 
        designed to improve the interoperability of U.S. Government 
        identity data. DOD is evaluating the development of a federated 
        data architecture, governed by common standards, in which 
        relevant data can be queried and shared both within DOD and 
        across the interagency consistent with appropriate privacy and 
        legal guidelines. The current arrangement between DOD and the 
        Department of Justice (Federal Bureau of Investigation (FBI) 
        Criminal Justice Information Services Division) allows such 
        seamless sharing of identity data between the DOD Automated 
        Biometrics Identification System and the FBI Integrated 
        Automated Fingerprint Identification System.

    With regard to how consultations with the Department of State, 
USAID, Department of Homeland Security, and the Department of Treasury 
will be coordinated:

         DOD has been participating in interagency committees and 
        working groups designed to improve the interoperability of U.S. 
        Government biometric data. Notable among these activities is 
        the National Science and Technology Council's Committee on 
        Technology, Subcommittee on Identity Management and Biometrics. 
        Within its working groups, the executive agencies have 
        collaborated to develop government-wide standards agreements 
        and interoperability policies. DOD will consult with the other 
        executive agencies through this body, to determine the correct 
        structure for collaborating on future initiatives and to 
        develop options for achieving a unified data architecture that 
        will enable the seamless sharing of identity data across the 
        interagency.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
             unfunded science and technology opportunities
    11. Senator Reed. Secretary Gates, please provide a prioritized 
list of science and technology (S&T) areas in which additional funding 
beyond that requested in this budget request would be supportive of 
defense missions and help address defense technology capability gaps.
    Secretary Gates. The fiscal year 2009 President's budget of almost 
$11.5 billion represents a robust investment in S&T, despite difficult 
budgetary demands from the war on terror and anticipated higher energy 
costs. We shifted funding to address capability gaps identified in the 
2006 Quadrennial Defense Review (QDR), and our increase in Basic 
Research of $270 million, also focused on addressing those gaps, will 
enhance the science and engineering personnel base and develop 
innovative solutions.

              laboratory personnel demonstration programs
    12. Senator Reed. Secretary Gates, how does the DOD plan to utilize 
the new authorities relating to the ongoing and highly successful 
laboratory personnel demonstration programs included in the NDAA for 
Fiscal Year 2008?
    Secretary Gates. DOD will utilize the new authority provided under 
the act to ensure that the maximum benefit of the extant demonstrations 
is afforded to each location affected by the legislation. We continue 
to work with the Service laboratories to monitor use of new and 
existing authorities.

    13. Senator Reed. Secretary Gates, what is the process and schedule 
planned to establish demonstration programs at the Natick Soldier 
Center, Office of Naval Research (ONR), and Edgewood Chemical 
Biological Center?
    Secretary Gates. (from Army) - The previous DOD policy that allowed 
for new laboratory demonstration projects to be approved only if they 
provided for new ``interventions'' different from existing initiatives 
at laboratories has been impacted by the recently passed legislative 
initiatives contained in the NDAA for Fiscal Year 2008, sections 1106 
and 1107. Natick is currently processing all necessary actions to 
establish a laboratory personnel demonstration program with the current 
fiscal year.
    Secretary Gates. (from Navy) - As an alternative to the Office of 
the Secretary of Defense (OSD) rejected 2001 Lab Demo proposal, the ONR 
has worked with Navy National Security Personnel System (NSPS) and Navy 
Human Resources offices to propose a hybrid NSPS/Lab Demo system.
    Based on a comparative analysis of the proposed 2001 Lab Demo and 
features available under NSPS and other Lab Demos, ONR has modified the 
proposed 2001 Lab Demonstration in the following ways:

         (1) To eliminate features that have been overcome by current 
        Federal regulations or are not critical to recruiting and 
        retaining employees
         (2) Design career tracks and pay bands to allow transition of 
        personnel between NSPS and the ONR Lab Demo program and to 
        facilitate an ONR transition to NSPS if that decision is made 
        later
         (3) Retain Senior Scientific Technical Manager and 
        Contribution-based Compensation Systems
        (4) Identify and implement features not previously considered 
        but are now important.

    Examples include:

         Revise Certain NSPS Pay Bands to Reflect Logical Career 
        Progression and Breaks
         Change Maximum Pay for Band III to Executive Level IV plus 5 
        percent
         Move from two Career Tracks in ONR Demo to six Career Tracks
         Accelerate Developmental Compensation for Developmental 
        Positions Modified for all Career Tracks
         Retain Scientific and Engineering Positions as Shortage 
        Category for Direct Hire
         Retain Conversion-Out Rules
         External Developmental Assignments

    The Chief of Naval Research is briefing the proposed Lab Demo 
personnel system up the Navy chain, and plans to brief OSD (Dr. David 
Chu, Under Secretary of Defense for Personnel and Readiness) by the end 
of April.

             international research and technology programs
    14. Senator Reed. Secretary Gates, how does the DOD track the 
research and technology capabilities of our global allies and 
competitors?
    Secretary Gates. There are a number of programs within the 
Department that work in concert to track global research and 
technology. Following the 2004 report by the National Academy of 
Sciences, ``Avoiding Surprise in an Era of Global Technology 
Advancement,'' both the Militarily Critical Technologies Program and 
the Department Technical Intelligence Program have been focused to 
systematically increase awareness on global technology. Several 
efforts, including the S&T net assessments and the Military Critical 
Technology List review process, assess comparative research and 
technology capabilities of emerging S&T, commercial technology, and 
military applications between the United States and its allies and 
potential competitors.
    These programs look at technologies from a threat perspective as 
well as assessing the export control perspective. The Department uses a 
team approach that relies upon subject matter experts from the 
Services, Government, industry, and academia in more than 20 technology 
areas. These experts also forecast downstream technologies and capture 
them in a related Defense S&T List that we are currently updating and 
expanding to address the global scope of S&T.
    Additionally, the Services maintain S&T offices abroad in 10 
countries that provide unique ``boots on the ground'' insights into 
regional activities. This global presence of informed military S&T 
experts helps ensure we stay abreast of developments in every corner of 
the world to both avoid technological surprises and to seek out 
opportunities for collaboration with our allies and coalition partners.

    15. Senator Reed. Secretary Gates, how is that information used to 
inform DOD investment decisions and the development of cooperative 
research opportunities?
    Secretary Gates. The Department assesses both the technology threat 
and the opportunities from allied technology development for enhancing 
existing and establishing new cooperative research programs. The 
information gained from offices with international liaisons (e.g., ONR, 
Air Force Office of Scientific Research, and Army Research Office) is 
an important component of the defense strategic planning, requirements 
generation, and acquisition processes of the Department. The Services 
maintain technology scouting offices in 10 countries whose job is to 
monitor and assess technology maturity and potential for U.S. 
collaboration in and around the countries the offices are located 
within. Where identified, and advantageous, the Department enters into 
collaborative technology development agreements with our close allies. 
We must use the best technology available worldwide to provide the best 
capability to the Nation and an awareness of international S&T and 
cooperation with our allies are vital parts of providing that 
capability.

    16. Senator Reed. Secretary Gates, are there any research or 
technology areas of importance to DOD in which you feel that the United 
States will not have a sufficient technical lead within the next 5 to 
10 years to preserve future military superiority over any adversary? 
Which technical areas? What is being done to address this issue?
    Secretary Gates. The recent National Academy of Sciences report, 
``Rising Above the Gathering Storm: Energizing and Employing America 
for a Brighter Economic Future,'' highlighted some strategic national 
challenges with respect to the number of scientists and engineers 
(S&Es) being produced to meet the needs of the Nation. The growth in 
S&Es in other countries compared to the United States results in a 
competitive market place for discovery of new scientific phenomenon and 
engineering. The production of new S&Es is growing faster in some 
nations other than America. This leads to an increased risk of the 
United States falling behind in technology areas of importance to DOD, 
although we are not prepared to state that there are specific 
technology areas that could result in a reduction of our operational 
and technological advantage. However, the DOD does need to remain 
engaged in understanding the technology developments in other nations 
to continue to develop new technologies and capabilities. We also need 
to remain engaged to reduce the possibility of technology surprise. To 
address this challenge within the DOD, we have increased our overall 
budget request in fiscal year 2009 by over 4 percent real growth for 
all of S&T and over 16 percent for basic research compared to the 
fiscal year 2008 budget request. This increased budget request for S&T, 
particularly in early sciences, enhances our insight into emergent 
technology areas. To guard against technology surprise in later 
programs, we are also developing a tighter integration of technology 
intelligence into our S&T planning process. These two actions should 
safeguard the DOD from technology surprise.

                       technology prize authority
    17. Senator Reed. Secretary Gates, each of the Services and the 
elements of the Office of the Director of Defense Research and 
Engineering (ODDRE), including the Defense Advanced Research Projects 
Agency (DARPA), have the authority to award prizes of technological 
achievement, as established in past NDAAs. What are the Services', 
DARPA's, and ODDRE's plans for utilizing this authority for the 
remainder of fiscal year 2008 and fiscal year 2009?
    Secretary Gates. The DARPA held the Urban Challenge on November 3, 
2007, featuring autonomous ground vehicles conducting simulated 
military supply missions in a mock urban area. First, second, and third 
place winners were awarded a total of $3.5 million in cash prizes. 
DARPA has no plans for prize competitions in fiscal year 2008 or fiscal 
year 2009.
    The ODDRE is sponsoring the Wearable Power Prize competition at 
Twentynine Palms, CA, from September 22 through October 4, 2008. The 
Wearable Power Prize competition was announced July 5, 2007, with the 
goal of reducing the weight of power systems warfighters carry to 
operate military equipment. Beginning September 22, 2008, 169 
competitors will gather, test, and demonstrate wearable electric power 
system prototypes that provide on average 20 watts of electric power 
continuously for 96 hours, with peak operation up to 200 watts for 
short periods, attach to a standard vest, and weigh 4 kg or less. First 
place winner is awarded $1 million; second place, $500,000; and third 
place, $250,000. See: http://www.dod.mil/ddre/prize for more details.
    The Services have announced no plans to conduct prize competitions 
in fiscal year 2008 or fiscal year 2009.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                                  iraq
    18. Senator Akaka. Secretary Gates, last February, you testified 
before this committee that the DOD was putting together ``a fairly 
complete checklist or matrix'' that would give us the ability to rate 
the Iraqi military and police forces. Today, with reduced violence 
levels across the country, and Iraqi forces actively participating in 
operations around Mosul, I expect a growing number of these forces have 
met the grade. Yet recently, the decision has been made to put a freeze 
on U.S. troop withdrawals beginning this summer.
    What are some of the obstacles that remain in the training of these 
Iraqi forces that prevents a continual and steady shifting of control 
from U.S. forces to the Iraqis?
    Secretary Gates. There has been no decision to freeze U.S. troop 
withdrawals beginning this summer. After the final surge brigade 
departs in July 2008, there will be a period of consolidation and 
evaluation for a few weeks. After that period, the commanders will 
reconsider the conditions on the ground and make a recommendation on 
force levels accordingly.
    The Iraqi security forces continue to develop its capabilities. 
However, challenges remain. These include the development of logistical 
and combat enablers and the lack of experienced leadership. Coalition 
trainers are working closely with their Iraqi counterparts to address 
these challenges.

    19. Senator Akaka. Secretary Gates, you and others have suggested 
that having timelines for troop withdrawals from Iraq is a mistake 
because of the signal it sends to the enemy that they only have to hold 
out so long in order to achieve victory. Yet, our entrance into the war 
was based on the assumption that we would not be there for an 
undetermined extended period.
    If events on the ground dictate that it is necessary to maintain a 
significant military presence in Iraq for the next 10 years, what are 
the biggest operational and structural challenges that will need to be 
overcome?
    Secretary Gates. Our current force projections are based on a 
reasonable estimate of the ground situation in the coming months. We 
are pleased with the security progress that has been made in Iraq, but 
the progress has not attained an irreversible momentum.
    Our planning for future force levels is not based on timelines, but 
on conditions on the ground. Any presence of U.S. forces in Iraq would 
have to be agreed upon by the United States and Iraqi Governments.

                          joint strike fighter
    20. Senator Akaka. Secretary Gates, a lot has been said about 
funding today. It seems to me that we are facing a choice between 
improving our ability to fight ongoing worldwide counterinsurgency 
operations and investing in systems like the Joint Strike Fighter (JSF) 
that improve the long-term ability of the American military to be 
competitive in conventional warfare. Iraq and Afghanistan have shown 
the limitations of technology. Given the increasing costs of 
technology, operations, and personnel, what nature of conflict will the 
U.S. military be best postured to handle in 20 years' time?
    Secretary Gates. The future strategic environment is difficult to 
predict, but will likely tend toward greater disorder and persistent 
conflict. This unpredictability requires that the U.S. military be 
postured to address a range of operations that includes overlapping 
demands in conventional warfare, irregular warfare, disaster 
assistance, and nation building.
    My intent is to ensure the development of a force capability and 
capacity that can deter, and failing that, defeat threats to our 
Nation's security and the security of our vital interests. To 
accomplish this, the Department will require significant resources to 
not only reset and reconstitute our people and platforms due to the 
toll of current operations, but also to revitalize the force to address 
emerging threats.
    I recognize that the resources devoted to the Department represent 
a significant portion of Federal discretionary spending and there is a 
limit to what our Nation can devote to national security. Nevertheless, 
I consider that our future force is affordable and that the Nation 
cannot afford the consequences of being unprepared.

                            joint operations
    21. Senator Akaka. Admiral Mullen, the Air Force is standing up its 
permanent Cyber Command in Louisiana later this year. Concerning roles 
and missions, the Air Force is arguing that operations in cyberspace be 
primarily the function of this branch of the military, given its 
technology heavy assets. The Navy, however, already has a Network 
Warfare Center. As an example of future joint operations, what steps 
are being taken by DOD to ensure unity of effort and interoperability 
among the Services' efforts?
    Admiral Mullen. Every Service brings unique and valuable expertise 
to operations in cyberspace that are critical to joint net-centric 
operations. The Defense Information Systems Agency and U.S. Strategic 
Command (STRATCOM) serve as operational seam managers, interacting with 
the Service organizations to ensure our cyberspace activities achieve 
interoperability, unity of effort, and economies of scale. The National 
Military Strategy for Cyberspace Operations Implementation Plan will 
help to ensure we foster continued unity of effort and Service 
interoperability in the Joint Force. This includes developing a joint 
operational concept, exploring appropriate organizational constructs, 
and clarifying command relationships to ultimately shape future 
requirements leveraged and synchronized across all of the military 
Services.

    22. Senator Akaka. Admiral Mullen, what is being done to minimize 
redundancy at all levels of joint operations?
    Admiral Mullen. The Joint Requirements Oversight Council (JROC) is 
responsible for ensuring individual Service program requests support 
the Chairman's guidance and contribute in a holistic manner to an 
increase in overall capabilities. While some redundancy may be built 
into any given capability, the JROC is responsible for ensuring that 
future programs develop weapon systems and other capabilities that 
combine across the warfare and command and control spectrum to enable 
U.S. forces to carry out national tasking across a broad range of 
mission sets.

                            troop readiness
    23. Senator Akaka. Admiral Mullen, I am concerned about the 
operations tempo facing our current forces in meeting the challenges of 
Iraq's reconstruction efforts. It appears that as the situation begins 
to improve on the ground in one area of responsibility (AOR), we must 
shift forces into the other in a perpetual cycle, as we are now seeing 
with the sending of thousands of more troops to Afghanistan. I am 
further concerned, and agree with your testimony, that this seemingly 
endless cycle of operations between the two AORs leaves our military 
thinly stretched and ill-prepared to handle another crisis should it 
become necessary.
    What plan is there to address these resource shortfalls, and how 
will maintaining a large military presence in both Iraq and Afghanistan 
affect our ability to respond to other regions?
    Admiral Mullen. The size, scale, and duration of operations in 
Afghanistan and Iraq have clearly strained the Army and Marine Corps. 
In order to ensure the highest level of readiness in our deploying 
forces, those recently returned or between deployments have paid a 
price. The impact of giving resourcing priority to the deployed force 
is reflected in the degraded readiness reports of non-deployed units. 
The most significant aspect of this lowered readiness in non-deployed 
units is the increased risk we must assume in the event of an 
unexpected contingency.
    There are sufficient forces and equipment to respond to some 
contingencies abroad but the readiness of those forces may result in 
longer timelines and increased casualties in achieving strategic goals 
and increased risk to mission success. In the case of another major 
theater war, the Army would be unable to source sufficient forces to 
meet all requirements.
    Several initiatives underway help minimize the readiness impact on 
non-deployed forces and maximize contingency readiness. Over the past 3 
years, we have used the Global Force Management process to ensure the 
deployment burden is balanced across the force through global sourcing 
of units and in-lieu-of sourcing. However, this can do only so much in 
managing our shortfalls. The fiscal year 2009 budget fully resources 
our commitment to increase the size of the Army and Marine Corps in the 
base budget. This effort is essential in providing the strategic depth 
necessary to improve our force rotation ratio and readiness of non-
deployed forces.
                                 ______
                                 
           Questions Submitted by Senator E. Benjamin Nelson
     defense experimental program to stimulate competitive research
    24. Senator Ben Nelson. Secretary Gates, what is the fiscal year 
2009 request and plan for the Defense Experimental Program to Stimulate 
Competitive Research (DEPSCOR)?
    Secretary Gates. The fiscal year 2009 request for the DEPSCOR is 
$2.833 million. The Department plans to expend all funds appropriated 
for this program in fiscal year 2009.
    Section 239 of the NDAA for Fiscal Year 2008 granted the Department 
more flexibility in the execution of the DEPSCOR program. Section 241 
requires an independent evaluation of it by a defense Federally Funded 
Research and Development Center. This evaluation is underway.

    25. Senator Ben Nelson. Secretary Gates, what is the status of 
execution of the funds appropriated for the program in fiscal year 2007 
and fiscal year 2008?
    Secretary Gates. Under the DEPSCOR program in fiscal year 2007, the 
DOD awarded $17 million to 13 academic institutions in 9 States to 
perform research in science and engineering. Academic researchers in 
Alaska, Arkansas, Delaware, Idaho, Kansas, Kentucky, Louisiana, Maine, 
Montana, Nebraska, Nevada, New Hampshire, North Dakota, Oklahoma, 
Puerto Rico, Rhode Island, South Dakota, South Carolina, Tennessee, 
U.S. Virgin Islands, Vermont, West Virginia, and Wyoming were eligible 
to receive awards in this competition.
    In the fiscal year 2008 DEPSCOR cycle, proposals were received from 
the Experimental Program to Stimulate Competitive Research (EPSCOR) 
committees in the 23 eligible states by the closing date of October 26, 
2007. The Services are making final award decisions now (announcement 
expected before March 31, 2008) that will fund these State proposals up 
to the fiscal year 2008 appropriated amount, $17.078 million.

    26. Senator Ben Nelson. Secretary Gates, how will the two 
provisions relating to the program in the NDAA for Fiscal Year 2008 be 
reflected in the execution of the program's appropriated funds?
    Secretary Gates. Section 239 of the NDAA for Fiscal Year 2008 
granted the Department more flexibility in the execution of the 
DEPSCOR. We have used those authorities to evaluate specific proposals 
in the fiscal year 2008 cycle. Section 241 requires an independent 
evaluation of DEPSCOR by a defense Federally Funded Research and 
Development Center. This evaluation is underway.

    27. Senator Ben Nelson. Secretary Gates, what is the status and 
plan for DOD to comply with the study requirement in the NDAA for 
Fiscal Year 2008?
    Secretary Gates. Section 241 of the NDAA for Fiscal Year 2008 
requires an independent evaluation of the program by a defense 
Federally Funded Research and Development Center. This evaluation is 
underway.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                             future threats
    28. Senator Bayh. Secretary Gates, as the DOD struggles to balance 
its spending priorities on future threats and current needs, why has 
the DOD not done more to cull less efficient or effective weapons 
systems from its own budget?
    Secretary Gates. The Department is constantly challenged with 
funding weapon system programs to combat conventional and 
unconventional threats in a limited resource environment. As an 
integral part of this exercise, the Department constantly evaluates the 
effectiveness and efficiency of weapon systems currently in 
development, production, and operation. The cancellation of the 
Crusader and RAH-66 Comanche Helicopter programs, the significant 
reduction in funding for Transformational Satellite System (TSAT), and 
the recent restructuring of the Littoral Combat Ship and the C-5 RERP 
programs provide examples of resource decisions necessary to balance 
the Department's investment to meet current and future threats from 
land, sea, air, and space.

                          congressional report
    29. Senator Bayh. Secretary Gates, in February 2007, you told this 
committee about the positive steps that DOD was taking in assuring a 
strong printed circuit board technology and industrial base as a result 
of the study and issues identified by the National Research Council 
(NRC) Committee on Manufacturing Trends in Printed Circuit Board 
Technology report. This report identified printed circuit board 
technology as critical in nearly every weapons system. You stated that 
a report on this topic, which was mandated by the NDAA for Fiscal Year 
2007, would go into detail on these positive steps. In October 2007, 
your Under Secretary for Acquisition, Technology, and Logistics told 
the committee that this report would be coming over to Congress by the 
end of November. To date, we have not received this report. What is the 
status of the report? Why has it been delayed?
    Secretary Gates. The report has been signed by the Deputy Under 
Secretary of Defense for Logistics and Materiel Readiness and copies 
were provided to the House and Senate Armed Services Committees. The 
report recommends that the Navy be designated the Executive Agent for 
Printed Circuit Board Technology. Preparation of this report required 
the establishment of a Principal Response Team led by the Defense 
Logistics Agency and Naval Surface Warfare Center Crane Division who 
analyzed, evaluated, and commented on the findings and recommendations 
contained in the NRC study. This evaluation and subsequent 
recommendation took longer than anticipated resulting in the delay of 
submission of the report to Congress.

                          hazardous substances
    30. Senator Bayh. Secretary Gates, it has come to my attention that 
there are potential reliability issues that may result from the 
European Unions (EU) Restriction on Hazardous Substances (RoHS) on 
lead-free solders utilized in electronic assembly. The science seems to 
indicate that if lead-free components were to enter the commercial 
aircraft industry or U.S. military and our allies' defense systems 
(high reliability electronic systems), severe reliability and potential 
catastrophic failures might occur. What is the military doing to ensure 
that lead-free and/or a mixture of leaded and lead-free components do 
not get incorporated into high reliability, mission-critical electronic 
systems?
    Secretary Gates. The Department has four initiatives to meet these 
challenges posed by RoHS to the Department's mission-critical 
electronic systems.
    1. The Defense Microelectronics Activity Office is participating in 
a joint effort with our industrial partners (Electronic Lead-Free 
Integrated Process Team) to minimize any disruption of the supply or 
reliability of electronics. It focuses on commercial off-the-shelf 
components and sub-assemblies.
    2. The Assistant Secretary of the Army for Acquisition, Logistics, 
and Technology has also undertaken a study to identify the occurrences 
of lead-free electronics in weapon systems deemed a priority by the 
Army. The National Defense Center for Environmental Excellence is 
involved with both of these initiatives.
    3. DOD's ODDRE and the Aerospace Industries Association of America 
participate in meetings to inform stakeholders of upcoming research 
needs and recommendations with regard to lead-free issues.
    4. The Deputy Under Secretary of Defense for Installations and 
Environment is conducting an enterprise-wide assessment to evaluate the 
risks of changing global lead regulations and their potential impacts 
on mission capability.

    31. Senator Bayh. Secretary Gates, given the unintended 
consequences of the EU's RoHS legislation on lead-free solders and the 
subsequent impact it had on military electronics, what mechanisms are 
in place to deal with another pending EU regulation--Registration, 
Evaluation and Authorization of Chemicals (REACH)--to influence the 
legislation, to establish policy and guidelines within DOD, and to 
foster implementation should implementation be warranted?
    Secretary Gates. REACH went into effect in July 2007 and is unique 
in that it covers both chemicals and the products that contain 
chemicals. The first date with possible implications for DOD's supply 
chain is the registration deadline of December 1, 2008, as failure to 
register certain materials by that date may result in the refusal or 
the delay of these shipments to the EU.
    The Defense Logistics Agency (DLA) is compiling a list of chemicals 
with known or potential regulatory consideration within the EU. 
Following DLA's compilation of chemicals transported to/through the EU, 
DLA will conduct a similar search to identify products of concern under 
REACH, also known as `articles.'
    REACH does allow for defense exemptions by member states. The 
Department will have the burden of demonstrating the mission critical 
nature of a material for which no safer alternative is commercially 
available, without a reduction in performance and making its case to 
the member state(s). The Department will continue to address other 
potential effects of this legislation, including costs and potential 
solutions.

             intelligence, surveillance, and reconnaissance
    32. Senator Bayh. Admiral Mullen, in your testimony, you noted 
there is a significant shortfall in intelligence, surveillance, and 
reconnaissance (ISR) sensors and processing infrastructure as 
identified by combatant commanders in the field. Would you please 
describe what kind of assets would address that shortfall?
    Admiral Mullen. [Deleted.]

    33. Senator Bayh. Admiral Mullen, how will the Joint Chiefs of 
Staff act to ensure that these shortfalls are properly defined and 
described to Congress so that we can work with you in meeting that 
need?
    Admiral Mullen. The Joint Staff has directed U.S. STRATCOM to 
develop a methodology and taxonomy to accurately capture combatant 
command (COCOM) ISR requirements and associated ISR shortfalls. We will 
use standard operational plans for testing scenarios to validate and 
verify U.S. STRATCOM's process. In the meantime,  the  Joint  Staff  
has  worked  with  the  Air  Force  to  produce  and  field  MQ-9 
Reaper and RQ-4 Global Hawk weapons systems at the maximum possible 
rate, and accelerate the wide area airborne surveillance sensor. 
Additionally, the Joint Staff is fully engaged and actively 
participating in the Secretary of Defense's ISR Task Force. 
Expectations for this task force are high and they are examining anew 
all potential options to address shortfalls. Upon your request, my 
staff stands ready to debrief Congress on results, findings, and 
recommendations to solve pressing ISR shortfalls.

                        unmanned aerial vehicle
    34. Senator Bayh. Admiral Mullen, why is it taking the Joint Chiefs 
so long to develop a comprehensive unmanned aerial vehicle (UAV) combat 
air patrol (CAP) requirement?
    Admiral Mullen. To answer the question of how many CAPs we need we 
must first answer the underlying question of what battlefield effects 
we need unmanned aircraft systems (UAS) to accomplish and how are we 
going leverage these effects as part of the broader ISR architecture. 
To answer these questions the JROC has initiated two near-term efforts, 
first the development of a comprehensive concept of operations (CONOPs) 
for UAS that integrates the wide variety of UAS platform capabilities 
in a unified approach, and second the development of an ISR force 
sizing construct, based on existing operational plans, to help inform 
future force mix analysis. Both of the efforts are scheduled to 
complete by June 2008 to inform the Department's future UAS force mix 
deliberations in advance of Program Objective Memorandum 2010 and the 
QDR.

    35. Senator Bayh. Admiral Mullen, are the Joint Chiefs any closer 
to establishing intra-service management of medium to high altitude UAV 
procurement and battlespace management?
    Admiral Mullen. In September 2007, the Deputy Secretary of Defense 
directed the Under Secretary of Defense for Acquisition, Technology, 
and Logistics to establish a task force to coordinate critical UAS 
acquisition issues and to develop a way ahead that will enhance 
operations, enable interdependencies, and streamline acquisition of 
UAS. This task force is achieving results and expects to combine the 
Air Force Predator and Army Sky Warrior programs into a single 
acquisition program in order to achieve common development, 
procurement, sustainment, and training activities. Additionally, the 
JROC will continue to coordinate the development of UAS training 
activities and operational employment by the Services.

    36. Senator Bayh. Secretary Gates and Admiral Mullen, I understand 
that the current JROC validated requirement for Predator UAVs stands at 
21 CAPs. Further, I understand that this addresses only Central Command 
and Special Operations Command priorities. I believe this number is not 
only dated, but insufficient and lacks the true global requirement for 
Predator and other theater-level UAVs to meet the ongoing shortfall in 
ISR assets worldwide. When will this requirement for DOD-wide, theater-
level UAVs be finalized, and what measures will you take to ensure 
requirements are allocated to make this dire need a reality?
    Secretary Gates. The U.S. Army issues Shadow systems to its 
individual Brigade Combat Teams (BCTs) as organic equipment. BCTs are 
in one of three phases (deployed, reset, and training). Deployed BCTs 
have their organic Shadows with them, reset BCTs send their Shadows to 
depot maintenance at the end of their deployment, and BCTs in training 
are receiving their Shadows systems from depot maintenance to prepare 
for deployment.
    To send additional Shadow units from the training phase into 
theater would necessitate shortening dwell for these personnel to less 
than 1 year. Reducing dwell below 1 year is an unacceptable option. The 
ISR Task Force, however, has identified three initiatives to increase 
Shadow capacity in theater that do not impact dwell. The first 
initiative sends contractors to theater along with Shadow equipment. 
The contractors will man two orbits in support of BCTs, deploying in 
early 2009.
    The second initiative provides additional contractors in early 2009 
to increase capacity at currently deployed Shadow launch sites.
    The third initiative that the ISR Task Force is examining would 
look to use the remaining Shadow equipment in garrison. The concept, 
known as ``Shadow remote split operations,'' would use a satellite 
relay to control Shadows remotely, just as Predator and Reaper systems 
are controlled. The intent is to conduct an operational demonstration 
of Shadow remote split operations in March 2009, with initial 
operational deployment in December 2009.
    Admiral Mullen. We recognize that a comprehensive review of UAS 
requirements is necessary. To address this concern the JROC has 
initiated two near-term efforts, first the development of a 
comprehensive CONOPs for UAS that integrates the wide variety of UAS 
platform capabilities in a unified approach, and second, the 
development of an ISR force sizing construct, based on existing 
operational plans, to help inform future force mix analysis. Both of 
the efforts are scheduled to complete by June 2008 to inform the 
Department's future UAS force mix deliberations in advance of Program 
Objective Memorandum 2010 and the QDR.
    While I recognize these actions are necessary to define future UAS 
requirements, it is clear that we must act now to address current 
operational deficiencies. As such, I am working to increase production 
of MQ-1C Predator/Sky Warrior, MQ-9 Reaper, and RQ-4 Global Hawk to 
their maximum production capacity at the earliest opportunity. The 
Joint Staff will work closely with the Services to ensure these 
critical enabling capabilities are fully resourced.

    37. Senator Bayh. Secretary Gates and Admiral Mullen, based on 
ongoing operations, I also understand that the Air Force has committed 
a significant portion, if not all, of its Predator combat capability to 
the AOR, whereas the Army has chosen to only provide 33-45 percent of 
its Shadow UAVs to the AOR. This leads me to believe that the remainder 
is back home in garrison. In our current state of a shortage of full-
motion video and ISR assets in Iraq and Afghanistan, can you please 
explain the disparity and rationale behind these employment decisions? 
If this is indeed the case, what is being done to manage UAVs so they 
can be more efficiently assigned to support combat missions?
    Secretary Gates. The U.S. Army issues Shadow systems to its 
individual BCTs as organic equipment. BCTs are in one of three phases 
(deployed, reset, and training). Deployed BCTs have their organic 
Shadows with them, reset BCTs send their Shadows to depot maintenance 
at the end of their deployment, and BCTs in training are receiving 
their Shadows systems from depot maintenance to prepare for deployment.
    To send additional Shadow units from the training phase into 
theater would necessitate shortening dwell for these personnel to less 
than 1 year. Reducing dwell below 1 year is an unacceptable option. The 
ISR Task Force, however, has identified three initiatives to increase 
Shadow capacity in theater that do not impact dwell. The first 
initiative sends contractors to theater along with Shadow equipment. 
The contractors will man two orbits in support of BCTs, deploying in 
early 2009. The second initiative provides additional contractors in 
early 2009 to increase capacity at currently deployed Shadow launch 
sites.
    The third initiative that the ISR Task Force is examining would 
look to use the remaining Shadow equipment in garrison. The concept, 
known as ``Shadow remote split operations,'' would use a satellite 
relay to control Shadows remotely, just as Predator and Reaper systems 
are controlled. The intent is to conduct an operational demonstration 
of Shadow remote split operations in March 2009, with initial 
operational deployment in December 2009.
    Admiral Mullen. [Deleted.]

                               leadership
    38. Senator Bayh. Admiral Mullen, in an impressive move, you have 
taken several townhall meetings with mid-level officers and senior 
enlisted servicemembers to better understand why the force has such 
significant holes in some of its most important field leadership 
positions. What are you finding?
    Admiral Mullen. The most important thing I am finding is great 
Americans that are committed and motivated to doing their part to 
preserve the security of our Nation. The mission has been demanding, 
but our All-Volunteer Force has completed every task they have been 
asked to perform.
    I have also heard from them and seen in their faces the wear and 
tear of our current operational tempo. They are stretched and stressed. 
Fifteen-month tours have been particularly arduous, and the recent 
decision to reduce deployment lengths from 15 months to 12 months for 
the Active Army is a very positive step. Additionally, I fully support 
the goal our Secretary has established to work toward a 2-year dwell 
time between deployments, when the mission allows it. This is a theme 
that I have heard repeatedly from spouses and family members. Our 
families right now are very fragile. The more predictability we can put 
into our battle rhythm, the better for our servicemembers and their 
families. The force is amazingly resilient but it has its limits. 
Lastly, young officers express concern for their career paths. They 
want to make sure they hit whatever the important career milestones are 
(like the Captain's Career Course) to ensure they have a viable future. 
These young men and women represent the ``best of the best'' in America 
and in our military. We need to make sure we do all we can to retain 
them and permit a little balance in their lives.

    39. Senator Bayh. Admiral Mullen, in what ways have you tried to 
increase retention for the military's best and brightest?
    Admiral Mullen. The Service Secretaries and Chiefs use the full 
spectrum of authorities given to them to sustain our All-Volunteer 
Force. Whether it is the critical skill retention bonuses the Army used 
for its mid-career force, or the late-career retention bonuses used to 
keep our experienced Special Operations Forces, each Service 
continuously monitors their force and applies these classic retention 
tools. I would like to once again thank the Congress for providing 
these authorities and making the necessary appropriations to give the 
DOD the flexibility to attract and retain our Nation's sons and 
daughters.
    With over half of our servicemembers married, special attention for 
family programs will also have an impact on retention decisions. The 
President acknowledged the service and sacrifice of our families by 
introducing new programs during his 2008 State-of-the-Union Address. 
These initiatives focused on transferring unused education benefits to 
family members, increasing accessibility to quality child care, and 
providing opportunities for spouses of military members to receive 
hiring preference so they can maintain successful careers while 
supporting the mobile lifestyle the military entails. Support from 
Congress will be needed to advance many aspects of these programs.
    Another way we can all help with retention is to keep telling the 
American public of the great performance of our servicemembers. 
Whenever I hear an account of visits to the field, be it by military 
leaders or elected officials, the common thread is they are impressed 
with the courageous men and women wearing the uniform. Their selfless 
dedication should be held up as a true icon of American ideals; and 
along with this recognition will be an even greater boost to morale and 
ultimately retention.
    Finally, reducing deployment lengths from 15 to 12 months for our 
Active-Duty Army, working towards a dwell ratio of 2:1 (2 years at home 
for every 1 year deployed), a robust reenlistment bonus program, 
ensuring we are ``listening'' to their needs, expanding the size of the 
Army and Marine Corps, and success in our missions all contribute to 
improved retention. And our current retention numbers are very good and 
have been such since 2001.

    40. Senator Bayh. Admiral Mullen, how effective are the cash 
bonuses you are now offering?
    Admiral Mullen. The short answer is very effective and very useful. 
The Department's recruiting success and favorable retention rates are a 
testament to the Services executing their bonus programs. It is 
essential that all recruiting and retention incentives remain in place 
and funded. These incentives are vital to attracting and retaining the 
right people with the right skills. As an example, Congress increased 
the accession bonuses for health care professionals in this year's 
authorization so the Department could better compete with attracting 
people in this tough niche market. As the Service Personnel Chiefs 
recently stated in testimony before your Subcommittee on Personnel, 
they are starting to see some positive results from this increased 
authority, but the challenge is far from over. We can never relax our 
efforts when it comes to recruiting and retention because the situation 
continues to change. Thank you for your continued support by giving the 
authority and flexibility to the Services to respond to changing 
dynamics.

    41. Senator Bayh. Admiral Mullen, what, other than money, have you 
considered providing these young men and women who are so integral to 
the future of our Armed Forces?
    Admiral Mullen. Improving the quality of life for all 
servicemembers and their families is a top priority of every leader 
within the DOD. This manifests itself in many ways other than giving 
money directly to our people. Commitments to improving our 
installations in the form of housing, child care, family services, and 
morale/welfare/recreation programs are just a few examples of how we 
want to create a favorable life for military members.
    Another major non-monetary area I have been focusing on is to 
provide stability and predictability in our deployment tempo. Reducing 
the deployment length from 15 months is a very positive change. In 
addition to reducing the length, the Secretary of Defense has also 
stated goals for the amount of dwell time personnel will have between 
deployments. The planned growth of our ground forces will help us 
achieve results. I believe any improvements accomplished in these areas 
will be very well-received by our servicemembers.
    Finally, as the President indicated in his State-of-the-Union 
Address, there are some initiatives being developed that will focus on 
the unsung heroes of our military force, our families. I have 
repeatedly stated our families also serve, and we as a Nation owe them 
a great deal of respect and praise. I support the President's 
initiatives to enhance the opportunities for spouses to pursue their 
own careers by offering them hiring preferences, improving child care 
availability, and allowing Montgomery GI Bill education benefits to be 
transferred to spouses and children.

                               deployment
    42. Senator Bayh. Secretary Gates and Admiral Mullen, the fiscal 
year 2009 budget notes that the DOD has a goal of significantly 
increasing dwell time for our ground forces. For example, an Army BCT 
can now reasonably assume only a year at their home station for every 
15 months deployed. You both mention goals of 24 months at home for 
every 12 deployed. However, the Army will not have 48 deployable BCT 
until 2012. Given that we only have 42 deployable BCTs today, what 
other assumptions is the DOD making when publicly stating these goals?
    Secretary Gates. First, I should note that with our ``grow the Army 
plan,'' we should achieve 48 deployable Active Army BCTs by fiscal year 
2011, not fiscal year 2012. Second, the operational tempo of our forces 
is largely determined by the situation on the ground. The Department is 
working to increase dwell time. Currently, the United States Central 
Command Commander plans to reduce the number of deployed BCTs to 15 by 
July of this year. This will allow the Army to limit deployments to 1 
year in theater with at least that same amount of time at home. This 
and we currently have 28 Army BCTs in the Reserve component. The 
Reserve component contributes, too.
    Admiral Mullen. I appreciate your question and concern for our 
forces and their families. The Army will have 48 deployable BCTs at the 
end of fiscal year 2011 and currently has 40 deployable BCTs, including 
the brigade forward deployed to the ROK. The Army currently has 43 
BCTs, but three are unavailable; two are transforming and one is 
organized as a transition training unit.
    Secretary Gates and I share your concern and are closely monitoring 
deployment-to-dwell ratios for our forces. We want to reiterate that we 
have a goal of a 1:2 deployment-to-dwell ratio for our forces--
especially our ground forces, committed around the world. This would be 
24 months at home for 12 months deployed for an Army BCT and 14 months 
at home for 7 months deployed for a USMC unit.
    When defining our goals, we include the following force commitments 
which affect our deployment-to-dwell ratio: a forward deployed Army BCT 
in the ROK, forces for global and domestic reaction forces, and Marine 
Expeditionary Units afloat around the world.
    Current demands on ground forces do not allow us to realize our 1:2 
deployment-to-dwell goal. We are working toward this goal and are 
currently reducing force structure in Iraq from 20 to a planned level 
of 15 BCTs. We are currently at 1:1 with the recent decision to reduce 
the length of Active-Duty Army deployments from 15 to 12 months 
starting in August 2008
    1:2 BLUF: Given a 1:2 deployment-to-dwell, we can provide CENTCOM 
with 11 U.S. Army Active component BCTs and 6 Marine Corps Active 
component Infantry Battalions in June 2009 for combat, SECFOR and MEU 
requirements.

         The United States will have 42 deployable BCTs available 
        generating 14 BCTs for worldwide commitments. Given the ROK, 
        GRF, CCMRF and a RIP/TOA factor, the Army can generate 11 BCTs 
        for CENTCOM. The Marine Corps will have 27 deployable infantry 
        battalions generating 9 for worldwide rotational commitments. 
        Given the two non-CENTCOM MEU requirements and a RIP/TOA 
        factor, the Marine Corps can generate six infantry battalions 
        for CENTCOM MEU, SECFOR and combat forces in Iraq and 
        Afghanistan.
         We can get the force to 1:2 in June 2009 given the following 
        assumptions:

                 We continue the drawdown in Iraq to 15 BCT/RCTs as 
                planned.
                 We reduce Iraq to 10 Active component BCTs/RCTs by 
                not replacing 5 BCT/RCTs by June 2009. (4 United States 
                BCTs and 1 RCT)
                 Afghanistan maintains two United States BCTs for 
                combat operations.
                 Marine Corps maintains a 1.0 CENTCOM MEU presence.
                 We continue worldwide commitments: USA-ROK, GRF and 
                CCMRF; Marine Corps - 2 non-CENTCOM MEUs.
                 Note: This COA is devoid of any tactical 
                considerations and assumes conditions on the ground in 
                Iraq would support the COA.

    43. Senator Bayh. Secretary Gates and Admiral Mullen, when will 
soldiers and their families be able to expect a more predictable and 
tenable operations tempo and what milestones have to be reached in 
order to get there?
    Secretary Gates. The operational tempo of our forces is largely 
determined by the situation on the ground in Iraq and Afghanistan. In 
Iraq, the force plus-up has been successful in reducing violence and 
enabling the conditions for a secure and stable Iraqi Government. If 
this situation continues, and we believe it will, the United States 
Central Command Commander plans to reduce the number of BCTs to 15 by 
July of this year. This force drawdown will allow the Army to limit 
deployments to 1 year in theater with at least that same amount of time 
at home. Although this does not yet achieve our goal of 2 years at home 
for every year deployed, the reduced deployment time does ease the 
burden on our servicemembers and their families.
    Admiral Mullen. In Spring 2008, the President announced that in 
August 2008, we would return to 12-month deployments. That is the first 
step to ensuring a more predictable, uniform deployment rotation cycle. 
However, that is also dependent on the requirements of the combatant 
commanders and the assessment of the theater commanders. Given the 
complex variables involved in Iraq, there is simply no way of setting a 
series of benchmarks which would dictate a predictable drawdown in 
ground forces.
    As the situation in Iraq improves, the U.S. military will draw down 
Operation Iraqi Forces as conditions warrant. As forces become 
available, requirements in Afghanistan will be filled. As forces draw 
down even further in Iraq, the U.S. military will reset and 
reconstitute forces at every opportunity in order to improve the health 
of the force and quality of life.
    Services are taking steps to increase the dwell time for our 
forces. The Army will increase by five BCTs over the next 3 years. They 
are also readjusting deployment timelines and in some cases curtailing 
units to more equitably distribute boots-on-the-ground/dwell across the 
force. By first quarter fiscal year 2009, the Marine Corps will 
complete the fielding of the third of three new infantry battalions 
added to the force over the past 18 months. We continue to fund growth 
for specific limited supply and high demand capabilities to include 
Military Police, Civil Affairs, Engineers, and Electronic Warfare 
assets.
    It is our intent that as soon as possible, we will transition to a 
deployment-to-dwell ratio of greater than 1:1, with the eventual goal 
of 1:2 for Active-Duty Forces and mobilization-to-demobilization ratio 
of 1:5 for Reserve component personnel.

                          stability operations
    44. Senator Bayh. Secretary Gates and Admiral Mullen, I understand 
that the DOD now has an officer in place for planning for stability 
operations. He has publicly stated that for cost reasons alone, the 
military cannot design specialized forces to do nothing but stability 
operations. What is that cost?
    Secretary Gates and Admiral Mullen. DODD 3000.05, Military Support 
for Stability, Security, Transition, and Reconstruction (SSTR) 
Operations defines stability operations as military and civilian 
activities conducted across the spectrum from peace to conflict to 
establish or maintain order in States and regions. NSPD-44 established 
the State Department as lead implementation agency for reconstruction 
and stabilization operations with DOD military organizations supporting 
applicable civilian agencies. As currently configured, our military 
forces are fully capable of supporting SSTR operations without 
designing specialized stability operation forces whose attributes would 
be marginalized across other military activities. There is inherent 
flexibility associated with current General Purpose Force constructs 
that enable units to task organize to provide a broad spectrum of 
support. Because of our force requirements today and what we project 
for in the future require full spectrum capability, we are not costing 
a specialized stability operations force. Rather, we are working with 
the Services and COCOMs, and our State Department counterparts, to 
identify the `full range' of capabilities required to conduct and 
support stability operations and their implications on doctrine, 
organization, training, materiel, leadership and education, personnel, 
and facilities (DOTMLPF).

    45. Senator Bayh. Secretary Gates and Admiral Mullen, what is the 
solution the DOD will instead use?
    Secretary Gates and Admiral Mullen. DOD's solution combines the 
increased end strength of the Army and Marine Corps, greater global 
train and equip authorities, and partnerships with other departments 
such as the State Department in using security and stabilization 
assistance authorities to improve our stability operations effort. 
COCOMs are working to identify the `full range' of requirements 
required for stability operations. In addition, the military 
departments are working to identify capabilities to meet these 
requirements and their implications on DOTMLPF.

    46. Senator Bayh. Secretary Gates and Admiral Mullen, how viable is 
that solution and what are its risks?
    Secretary Gates and Admiral Mullen. It is viable so long as we 
continue to enhance our interagency and foreign partner capacity and 
capability to conduct stability operations. To that end, it is crucial 
that DOD authorities to conduct train and equip missions, improve the 
commander's access and global utility of critical resources like those 
found in Commander's Emergency Response Program. Continued legislative 
support of authorities such as NDAA for Fiscal Year 2006, section 1206, 
and NDAA for Fiscal Year 2008, section 1210, is critical to DOD's 
stability operations solution. The associated risk with this solution 
would be realized if the stability operations burden could not be 
distributed across the whole of government and foreign partners and 
rest solely on the uniformed Services.

    47. Senator Bayh. Secretary Gates and Admiral Mullen, what other 
solutions were considered but rejected?
    Secretary Gates and Admiral Mullen. The security demands of today 
and those predicted for our future missions call for a full spectrum 
force, but single force mastery of all global situations comes with too 
many risks and costs. We considered this solution but as operations in 
Iraq and Afghanistan are making clear, stabilization and reconstruction 
operations are a civilian-military effort. Success in stability 
operations requires partnerships with both our interagency and foreign 
partners to create the enduring conditions that will prevent a country 
from sliding back to instability. Therefore we have focused on building 
the right force for the full spectrum of missions, while simultaneously 
advocating authorities, relationships, and activities that enhance our 
partner's capacity and capability.

                            wounded warrior
    48. Senator Bayh. Secretary Gates and Admiral Mullen, you both note 
the importance of caring for America's wounded warriors in your 
testimony. I also believe that after lifetimes of service to your 
Nation, you fully understand the moral imperative of caring for those 
who serve our Nation in uniform. How is DOD proceeding with 
implementing the Dole-Shalala Commission recommendations? As I 
understand, these remain unfunded in this year's budget.
    Secretary Gates. The DOD/Department of Veterans Affairs (VA) 
Wounded, Ill, and Injured (WII) Senior Oversight Committee (SOC) meets 
regularly to identify immediate corrective actions, and to review and 
implement recommendations of the external reviews, including the Dole-
Shalala Commission. We continue to implement recommended changes 
through the use of policy and existing authorities. Specifically, we 
have endeavored to improve the Disability Evaluation System, 
established a Center of Excellence for Psychological Health and 
Traumatic Brain Injury (TBI), established the Federal Recovery 
Coordination Program, improved datasharing between the DOD and VA, 
developed medical facility inspection standards, and improved delivery 
of pay and benefits. The core recommendation of the Dole-Shalala 
Commission centers on the concept of taking DOD out of the disability 
rating business so that DOD can focus on the fit or unfit 
determination, streamlining the transition from servicemember to 
veteran. Thus far, Congress has declined to act on that recommendation. 
We believe that the greatest improvement to the long-term care and 
support of America's wounded warriors and veterans will come from 
enactment of the provisions recommended by Dole-Shalala. We have, thus, 
positioned ourselves to implement these provisions and continue our 
progress in providing world-class support to our warriors and veterans 
while allowing our two Departments to focus on our respective core 
missions. Immediate budgetary needs will be met by reprogrammings, or a 
budget amendment, if necessary.
    Admiral Mullen. Implementation of the Dole-Shalala Commission 
recommendations is going well. Thirty-five of the 40 recommendations 
are on track for completion with 16 complete.
    There are five commission recommendations that require changes in 
legislation and advances in medical research to complete. Four require 
additional changes in legislation to substantially restructure the 
disability and compensation system, expand benefits to families, and 
provide lifetime healthcare benefits for combat-injured. Improving 
prevention and care for post-traumatic stress disorder (PTSD) and TBI 
will require more medical research along with additional mental health 
professionals, which we are pursuing. The Services and Senior Oversight 
Council (SOC) Overarching Integrated Product Teams (OIPT) are working 
all of these recommendations.
    Most wounded warrior issues are funded between the supplemental and 
the NDAA. Improving data collaboration between DOD/VA is currently 
funded from their budgets. All future programs for the various lines of 
action are not funded except through the supplemental. The DOD and the 
Services are determining future needs and will work to add them to the 
program.

    49. Senator Bayh. Secretary Gates and Admiral Mullen, how is the 
DOD working with the individual Services, such as the Army, to ensure 
that their own plans are well thought out and coordinated with other 
wounded warrior initiatives?
    Secretary Gates. The exchange of information on, and the 
coordination of, plans and programs--particularly those related to the 
care of WII servicemembers and their families, is being conducted 
primarily through the DOD/VA joint SOC, which work closely with the 
military Services.
    For example, the SOC case/care management representatives meet 
weekly with subject matter experts and program representatives from the 
military Services to identify practices and share ``lessons learned'' 
in areas such as:

         Care management across medical and non-medical facilities and 
        sites
         Preplanning for transitions across medical facilities and 
        sites
         Family support
         Joint training and standards for uniform identification, 
        notification, and tracking of PTSD and mental health issues
         Workload modeling
         Personnel requirements

    In addition, the SOC conducts joint collaborative exercises with 
the military Services and VA Health Administration and Benefits 
Administration representatives to closely review the process of care, 
management, and transition of WII servicemembers and their families.
    Admiral Mullen. The Services are working exceptionally hard to 
support our wounded, injured, and ill servicemembers. They have made 
significant improvements in their disability evaluation processes, case 
management practices, care for wounded with TBI and PTSD, facilities, 
and benefits. But, there is still more that can be done. The Joint 
Staff works with the Services in several ways to monitor and assist 
with their wounded warrior initiatives. We look at all Services 
activities and try to help identify what works and what needs 
improvement.
    The Joint Staff participates in the Secretary of Defense SOC for 
wounded warriors. The SOC reviews progress reported by the OSD and the 
Services in eight lines of action that consolidate the initiatives for 
improving care and support for our wounded, injured, and ill 
servicemembers.
    As I travel, I hold townhall meetings with combat wounded and their 
families and collect their issues and concerns. I then provide them to 
the Services to address. There are some special concerns that are often 
raised in these sessions:

         1. The Medical Evaluation Board/Physical Evaluation Board 
        process is too bureaucratic and too long.
         2. We have too few mental health professionals.
         3. There are too many seams between the DOD and the VA.
         4. There is not enough emphasis on long-term assistance for 
        injured personnel and their families.
         5. There is a perception that too often servicemembers' 
        injuries are misdiagnosed.

    My Special Assistant for Returning Warriors travels around the 
world assisting me in accurately assessing ground truth for all 
wounded, ill, and injured servicemembers. She marshals Legislative 
Affairs, Legal Assistance, VA, and medical subject matter experts along 
with Veteran Service Organizations and their respective resources to 
enhance my ability to deliver timely and necessary positive solutions 
for our Nation's returning warriors and their families. These efforts 
ultimately lift the morale of servicemembers and ensure a continuing 
legacy of exceptional troop care.
    We must help those who have been injured, and their families, be 
all they can be in the future. We need to have a continuum of care and 
no seams between DOD, the VA, and local communities throughout our 
country so that those who have sacrificed so much can achieve the 
American Dream.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
        congressional oversight of security agreements with iraq
    50. Senator Clinton. Secretary Gates, when the U.S.-Iraq 
Declaration of Principles for Friendship and Cooperation was made 
public in November, Lieutenant General Lute, the President's Deputy 
National Security Advisor for Iraq and Afghanistan, stated that the 
administration did not anticipate seeking congressional approval or 
even formal congressional input on an agreement that would 
institutionalize our long-term security, political, and economic 
relationship with Iraq. I was astonished, frankly, that the 
administration would complete such a significant agreement, an 
agreement of great long-term importance for American foreign and 
national security policy that could tie the hands of the next President 
with respect to Iraq, without bringing it to Congress for review and 
consent. Do you believe that Congress has an important role to play in 
overseeing any long-term American military commitment to Iraq?
    Secretary Gates. In the Declaration of Principles signed by 
President Bush and Prime Minister Maliki in November, the United States 
and Iraq agreed to negotiate bilateral arrangements on the security, 
political, economic, and cultural components of that relationship. Such 
a framework will set the stage for a normalized bilateral relationship 
between the United States and Iraq as two fully sovereign states, and 
would not make any security commitment to Iraq or commit the incoming 
President or any future President to any particular course of action 
with respect to troop levels, military mission, or assistance to Iraq.
    We intend to keep Congress apprised of the negotiation process as 
we proceed. I have instructed my staff to brief Members of Congress and 
their respective committees on these negotiations; these efforts have 
already begun. We will continue to consult with Congress as we proceed 
in these negotiations.

    51. Senator Clinton. Secretary Gates, one objection I have 
frequently heard to those of us who believe that Congress must have a 
say in this process is that the agreement is likely to be nothing more 
than a standard status-of-forces agreement (SOFA), which we have with 
many other nations around the world and which permits us to station 
American servicemen and women in foreign countries. I believe that any 
agreement with Iraq that commits the United States to help defend Iraq 
against both internal and external threats goes significantly farther 
in terms of our national security than a standard SOFA. Do you agree 
that any long-term security, political, and economic agreement between 
the United States and Iraq should be approved by Congress?
    Secretary Gates. To ensure that U.S. forces in Iraq are provided 
the legal protections and authorities they need absent the U.N. 
Security Council mandate they are presently operating under, the United 
States will seek to negotiate a SOFA with Iraq. The SOFA will be 
similar to other SOFAs the United States has negotiated with countries 
around the world, taking into account the particular circumstances and 
requirements for our forces in Iraq, and will be a part of the overall 
framework of the relationship with Iraq.
    Neither the SOFA nor any other arrangement contemplated with Iraq 
would bind the United States to any security commitments. Such 
documents will not bind the United States to take military action or 
expend funds in support of Iraq.
    Consistent with longstanding U.S. past practice on SOFAs, we expect 
that the SOFA with Iraq would be concluded as an executive agreement. 
We do not anticipate that the terms of this SOFA will require 
congressional assent.

    52. Senator Clinton. Secretary Gates, do we currently have SOFAs 
with any country with an ongoing civil war?
    Secretary Gates. The DOD does not normally characterize a 
particular conflict, unrest, or violence as a ``civil war.'' However, 
the Department has enduring SOFAs with countries that are experiencing, 
or have experienced, persistent conflict.

        long-term security agreement with iraq - permanent bases
    53. Senator Clinton. Secretary Gates, when the U.S.-Iraq 
Declaration of Principles for Friendship and Cooperation was announced 
in November, I was deeply disappointed to learn that it did not 
explicitly rule out the possibility that the United States would seek 
or maintain permanent bases in Iraq, nor did it make any reference to 
the redeployment of American troops out of Iraq.
    At the time the Declaration of Principles was announced, I wrote to 
the President about the importance of making clear to the Iraqi 
political leadership that we will not be there to referee their civil 
war forever. In my letter I made clear to the President my view that 
the United States should neither seek nor maintain permanent bases in 
Iraq. Unfortunately, what I'm hearing now from the administration is 
not at all clear. On the one hand, the White House spokeswoman has been 
quoted as saying that we won't seek permanent bases in Iraq, and you 
have said that ``we have no interest in permanent bases.'' On the other 
hand, the President last week attempted to circumvent the will of 
Congress by issuing a signing statement to accompany the NDAA, 
effectively saying that he didn't agree with the provision in the 
legislation that would bar funding for the establishment of permanent 
U.S. military bases in Iraq.
    Can you clarify for me, which is it?
    Secretary Gates. In a SOFA with Iraq, the United States would be 
seeking access to facilities in Iraq that support the activities that 
promote our mutual goals and interests. This provision would not be 
different from similar provisions we have negotiated in SOFAs with 
other countries around the world.
    Any agreement with Iraq would not obligate the United States to 
maintain a presence or set U.S. forces levels in Iraq. Rather, the SOFA 
would seek to ensure that the United States has the necessary access to 
Iraqi facilities and areas to conduct its mission in the mutual 
security interests of both Iraq and the United States. Furthermore, 
decisions on U.S. force levels in Iraq are U.S. decisions and are not 
affected by a SOFA. No agreement with Iraq would commit the United 
States to maintaining any specific number of forces.

    54. Senator Clinton. Secretary Gates, will the administration be 
clear with the American people, with the Iraqi people, and with the 
Iraqi political leadership that we will neither seek nor maintain 
permanent bases in Iraq?
    Secretary Gates. The United States is not seeking to establish or 
maintain permanent bases in Iraq.

   equipping african union/united nations hybrid operation in darfur 
                                mission
    55. Senator Clinton. Secretary Gates, there has been great concern 
expressed over the capacity of the African Union/United Nations Hybrid 
Operation in Darfur (UNAMID) to protect civilians there. As you know, 
the UNAMID mission met its December 31 deadline for assuming command of 
peacekeeping operations in Darfur. As you also are no doubt aware, the 
UNAMID mission had not met expectations in terms of deployed troop 
levels on December 31, and remains understrength at approximately 9,065 
troops, police, and personnel, far below the expected December 31 level 
of 12,000, and less than a third of its full complement of just over 
31,000 troops, police, and personnel. In addition to lacking troops, 
UNAMID also lacks the equipment and resources necessary to succeed, 
such as 18 transport and at least 6 attack helicopters.
    Noting that Congress has provided funding expressly for the purpose 
of increasing the level and tempo of U.S. efforts to bilaterally train 
and equip some of these additional African battalions, what is the 
current status of these U.S. efforts vis-a-vis Africa Contingency 
Operations Training Assistance (ACOTA) and other programs?
    Secretary Gates. Between June 2005 and March 2008, the ACOTA 
program will have provided $17,365,477 worth of training to AMIS and 
UNAMID-bound peacekeepers. ACOTA-trained units from Rwanda, Nigeria, 
South Africa, and Senegal formed the backbone of the AMIS mission, and 
continue to serve in Darfur now that the mission has transitioned to 
UNAMID. The ACOTA program has trained all of the infantry battalions 
from sub-Saharan Africa that are planning to deploy to UNAMID in 2008, 
including units from Burkina Faso, Ethiopia, Ghana, Malawi, Senegal, 
and Tanzania.
    Furthermore, the Department of State will provide units deploying 
in 2008 with about $100 million worth of heavy equipment using fiscal 
year 2007 Sudan supplemental funds. This equipment will enhance the 
ACOTA-trained battalions, each consisting of at least 800 peacekeepers, 
and include armored personnel carriers, cargo trucks, maintenance and 
engineering vehicles, generators, field hospitals, and water 
purification systems. The State Department will award a contract in the 
next few weeks to provide this equipment, as well as new equipment 
training and spare parts, to all of the battalions expecting to deploy 
in 2008. The equipment will be shipped directly to each country to be 
transported to Darfur along with the battalion as they are deployed by 
the U.N. This equipment will enable each battalion to meet the U.N.'s 
standards for UNAMID infantry battalions.

    56. Senator Clinton. Secretary Gates, has the DOD made efforts to 
elicit similar training and equipping commitments from allies who enjoy 
longstanding bilateral military relationships with other committed 
African troop contributors?
    Secretary Gates. The DOD has been working with the State Department 
to elicit training and equipping commitments similar to those the U.S. 
government is making to African troop contributing nations. 
Furthermore, the Department is working with our allies in other areas, 
such as providing pre-deployment planning and strategic transportation 
for deploying or rotating troop contingents. We are also encouraging 
donor countries to maintain their level of support over a longer period 
of time than originally envisioned and reinforcing State Department 
efforts to mobilize donors to satisfy emerging support requirements. 
Finally, DOD has helped the State Department identify countries that 
possess specialized equipment that might meet a critical operational 
need, such as transport and attack helicopters required to support the 
U.N. mission in Darfur.

    57. Senator Clinton. Secretary Gates, has the DOD made efforts to 
secure the contribution of helicopters from allies for the UNAMID 
mission?
    Secretary Gates. Yes, in concert with the Department of State's 
efforts, the DOD has taken a number of steps to secure the contribution 
of helicopters for the UNAMID.
    For example, the Department has worked closely with the U.N. 
Department of Peacekeeping Operations (DPKO) to solicit helicopter 
commitments from the international community. The U.N. rejected offers 
from potential contributors based on their pre-established helicopter 
specification criteria. In partnership with the State Department, DOD 
worked with U.N. DPKO to modify current UNAMID helicopter 
specifications to accept helicopters that could fill the transportation 
gap that currently exists in UNAMID.
    We are now encouraging U.N. DPKO to reconsider previous offers from 
Jordan, Bangladesh, Ethiopia, and Egypt. Further, DOD is currently 
conducting an assessment of 72 countries possessing helicopters that 
meet U.N. specifications to determine which nations might be willing to 
contribute. We have recently secured an offer from Ethiopia for four 
attack helicopters, which has been accepted by the U.N. DOD has 
partnered with the State Department to encourage the Government of 
Ukraine to contribute up to nine attack helicopters presently deployed 
to the U.N. Mission in Liberia and to consider leasing options 
involving private Ukrainian companies.

                        africa command and sudan
    58. Senator Clinton. Secretary Gates, noting that U.S. Africa 
Command (AFRICOM) is scheduled to reach full operational capacity this 
year, and that it will take on additional non-combat responsibilities 
that until now have fallen outside the realm of the DOD, do you foresee 
the U.S. military in general, and AFRICOM in particular, playing a 
larger role in Sudan? If so, how?
    Secretary Gates. AFRICOM is designed to better enable the DOD to 
fulfill its missions in concert with other elements of the U.S. 
Government and African partners. The Department is already supporting 
U.S. initiatives in Sudan, such as the Darfur Peace Agreement and the 
Comprehensive Peace Agreement. As AFRICOM reaches full operational 
capacity, it will better situate DOD to support the State Department's 
lead in advancing peace and stability in Sudan.

    59. Senator Clinton. Secretary Gates, more generally, what positive 
and negative reactions has the U.S. military received during 
consultations with African leaders on the role AFRICOM will play on the 
continent?
    Secretary Gates. With very few exceptions, African leaders have 
expressed strong support for DOD's engagement with African militaries. 
Negative depictions of AFRICOM in the international press have, in some 
instances, perpetuated misconceptions about AFRICOM's future presence 
on the continent. We believe, however, that as AFRICOM builds a 
reputation for adding value through improved security cooperation with 
African partners, many of these negative opinions will dissipate. In 
fact, we are already seeing some positive signs in this regard as more 
African leaders become informed about the true nature of the command. 
Many African governments and militaries see AFRICOM as a potential 
advocate for African security priorities within the DOD. They have 
partnered with us on security assistance programs over the years and 
understand the rationale for the command.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                      base realignment and closure
    60. Senator Pryor. Secretary Gates, I'm sure you are aware that the 
DOD has the authority to transfer real property to community 
redevelopment organizations at no cost if those communities agree to 
reinvest land sales and leasing revenues back into job creation and 
infrastructure development. It would be my hope that the DOD's disposal 
plans for these closing installations balances both public auctions 
with these no cost and other public benefit transfers. We have many 
financial challenges in executing Base Realignment and Closure (BRAC) 
projects, but it is important to me that communities are not left 
without resources to cope with the economic recovery they face and some 
of this property should be considered for open space and other 
important public uses. Can you assure me that the DOD will implement a 
balanced approach to property disposal and grant broad deference to 
community reuse plans the way the law intended?
    Secretary Gates. The Department's policy is to work in close 
collaboration with affected communities throughout the closure, 
disposal, and redevelopment process. The Department takes great care to 
ensure Local Redevelopment Authorities (LRAs) have information on 
surplus property for the community's consideration in their formulation 
of a redevelopment plan. The Department has an array of legal 
authorities by which to transfer property on closed or realigned 
installations, ranging from those that may be at no cost or discounted 
consideration to those that yield fair market value to the Department, 
to be responsive to the Department's BRAC and community redevelopment 
needs. The military departments work closely with affected LRAs to 
tailor disposal actions that consider local circumstances. In disposing 
of surplus property, the Department is careful to not preclude any 
disposal method until a redevelopment plan is completed.

    61. Senator Pryor. Secretary Gates, regarding BRAC, it is my 
understanding that the Army is following the letter of the law and the 
recommendations of the BRAC committee. Are you aware if this is 
occurring or true?
    Secretary Gates. The Army, as well as the other military department 
and defense agencies, are following the BRAC law. The Department 
reviews each recommendation implementation plan twice annually to 
ensure that it is in compliance with the BRAC law. Each of those 
reviews provides an opportunity to direct corrective action as needed. 
Additionally, the OSD Office of the General Counsel has been a key 
player in reviewing these plans to ensure that they are legally 
sufficient and to verify that the Department is meeting its legal 
obligations.

    62. Senator Pryor. Secretary Gates, what would you do if you found 
out the BRAC recommendations were not being followed?
    Secretary Gates. I would take action to ensure we meet our legal 
obligation. The Department reviews each recommendation implementation 
plan twice annually to ensure that it is in compliance with the BRAC 
law. Each of those reviews provides an opportunity to direct corrective 
action. Additionally, the OSD Office of the General Counsel has been a 
key player in reviewing these plans to ensure that they are legally 
sufficient and to verify that the Department is meeting its legal 
obligations.

                              procurement
    63. Senator Pryor. Secretary Gates, the Marine Corps has no 
procurement of the M-18 family of smoke grenades and is utilizing the 
Foreign Comparative Testing (FCT) program to modernize the M-18. In 
October 2006 the Marine Corps published a Sources Sought announcement 
in Federal Business Opportunities for the procurement of M-18s and 
plans to issue a Request for Proposal (RfP) at an undetermined time 
this year. The Marine Corps' departure from the procurement of these 
grenades, which are manufactured at the Pine Bluff Arsenal (PBA) in 
Arkansas, is a great concern to me, especially because the PBA has had 
a long and distinguished tradition of producing quality M-18 smoke 
grenades for the military for the past 65 years.
    The fiscal year 2009 defense budget shows a decrease in spending on 
grenades (all types). Procurement for the Navy and Marine Corps, for 
example, decreased from  $59.6  million  to  $39  million  from  levels 
 in  fiscal  year  2008.  Although  the  M-18 smoke grenade is part of 
a family of grenades with the same line number, the decrease in 
procurement coupled with that of the Marine Corps will have a 
significant impact on the industrial base at PBA (10 percent in lost 
revenue). I would consider this a very high risk category when making a 
section 806 determination to the risk on the national technology and 
industrial base.
    Are you aware of the Marine Corps' decision to procure M-18s 
outside of the Arsenal Act and why is the military jeopardizing the 
industrial base at PBA, ignoring the Arsenal Act, and moving away from 
this very important procurement for the warfighter?
    Secretary Gates. It is our intent, utilizing the Foreign 
Comparative Test (FCT) program, to seek alternatives to the current, 
legacy M-18 series smoke grenade. The design of some smoke grenades 
pre-dates the Vietnam conflict, and our modernization effort is one 
that can be expected in any munitions lifecycle, particularly one of 
this age. The smoke grenade modernization effort will: (1) increase 
performance; (2) provide equal or greater smoke duration; and (3) 
provide a safer flame reduced initiation system that will assist in the 
prevention of accidental fires, all at a competitive cost. The intent 
of this new program is to achieve a capability that advances the 
obscurant capabilities of all Services, across DOD. This effort is 
being conducted jointly with the U.S. Marine Corps and U.S. Army.

    64. Senator Pryor. Secretary Gates, last year Senator McCaskill and 
I introduced legislation to keep the C-27J a joint initiative between 
the Army and the Air Force. $156 million was allocated to the Army to 
begin the procurement of four aircraft in fiscal year 2008. The fiscal 
year 2009 defense budget requests an additional seven aircraft for the 
Army at $264.2 million. The NDAA for Fiscal Year 2008 states that no 
funds will be appropriated for the procurement of the Joint Cargo 
Aircraft (JCA) until 30 days after the Secretary of Defense signs off 
on six reports, one of which being the Joint Intra-theatre Airlift 
Fleet Mix Analysis. Where is this report, is it complete, and when will 
it be signed?
    Secretary Gates. I delivered all six reports to Congress on 
February 27, 2008. Attached is the certification letter from John Young 
validating the requirement for the JCA.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    65. Senator Pryor. Secretary Gates, the NDAA for Fiscal Year 2008 
also requires the Secretary of Defense to certify and validate 
requirements for a capability gap or shortfall with respect to intra-
theatre airlift. What are your thoughts on this issue? In your opinion, 
does a capability gap or shortfall exist?
    Secretary Gates. My Chief of Acquisition, John Young, recently 
certified and validated requirements for a capability gap or shortfall 
with respect to intra-theatre airlift. The letter stating that is 
attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                        unmanned aerial vehicle
    66. Senator Pryor. Secretary Gates, the JCA and UAV weapons systems 
have created discussions in Congress regarding a roles and missions 
debate and the House of Representatives plans to have hearings on the 
subject. What are your thoughts on an organic, limited operational 
capability within the Services, and what affect will it have on 
restructuring or reorganizing current weapons systems?
    Secretary Gates. While there are some areas where operational 
warfighting concepts and doctrine translate into unique Service level 
requirements and programs, there are far more areas where joint 
solutions can be achieved. The Department must continue to prioritize 
jointness and interoperability imperatives especially in the areas of 
materiel acquisitions. This means reviewing and coordinating new 
research and development programs to integrate Service and Joint 
requirements, development, and testing in order to achieve born joint 
investment programs. It also means continuing to consolidate current 
requirements and programs of record, where possible.
    Only through joint and consolidated acquisition will we realize the 
benefits of these efforts, which include: improved component 
interoperability and reduced duplication; lower development and 
production costs; increased quantities; reduction of logistics 
requirements through standardization; and the ability to meet similar 
multi-service requirements with a common materiel solution.
                                 ______
                                 
               Questions Submitted by Senator John Warner
               defense science and technology investment
    67. Senator Warner. Secretary Gates, last year, you received a 
memorandum from the Director of ODDRE which characterized current 
investment in defense S&T as ``inadequate'' to keep pace with emerging 
threats and concluded that the country has been ``coasting on the basic 
science investments of the last century.'' Your testimony acknowledges 
a need to increase defense investment in basic research. How are you 
focusing the S&T programs of the DOD to address this challenge?
    Secretary Gates. I asked Congress to approve a $1.70 billion 
investment in Basic Research in the President's budget request for 
fiscal year 2009. The request represents a 2 percent real increase 
above the $1.63 billion that Congress appropriated for fiscal year 2008 
and a 16 percent real growth from the fiscal year 2008 budget request. 
This basic research investment increases each year over the Future 
Years Defense Program to $1.99 billion in fiscal year 2013.
    The additional funds will be applied to peer-reviewed research 
conducted in universities, without specific DOD systems or applications 
in mind, but in areas of long-term interest to the Department. 
Predominantly the funds will support single investigators in the 
Services' Defense Research Sciences and Multi-Disciplinary University 
Research Initiatives, the mainstays of DOD Basic Research. This 
increase will both deepen the DOD investment in traditional Basic 
Research and broaden it to include such areas as: Information 
Assurance; Network Sciences; Counter Weapons of Mass Destruction; 
Science of Autonomy; Information Fusion and Decision Science; 
Biosensors and Bio-inspired Systems; Quantum Information Sciences; 
Energy and Power Management; Counter Directed Energy Weapons; Immersive 
Science for Training and Mission Rehearsal; and Human Sciences.

                      reliable replacement warhead
    68. Senator Warner. Admiral Mullen, in your prepared statement, you 
remark upon the need to modernize our strategic weapons systems and 
infrastructure, including our efforts to explore the feasibility of 
developing a Reliable Replacement Warhead (RRW). Although this 
committee, and the full Senate, had supported funding for such a 
feasibility study last year, the omnibus appropriations bill did not 
include funding. The Department of Energy has requested modest funding 
in fiscal year 2009 to continue a feasibility study of a replacement 
warhead. What are your more detailed thoughts and analysis which led 
you to support the continued study of a RRW?
    Admiral Mullen. To help manage geopolitical, operational, and 
technical risks, the United States relies on three inter-related 
aspects of its nuclear posture: 1) the composition of the operationally 
deployed nuclear delivery systems and their capacity to deliver nuclear 
weapons; 2) the size and mix of the nuclear stockpile that supports the 
operational force; and 3) the ability of the supporting infrastructure 
to maintain, produce, and repair nuclear weapon delivery systems and 
warheads.
    The stockpile stewardship program, initiated in the mid-1990s, has 
largely been successful. At present, we believe that the nuclear 
warhead stockpile remains safe, secure, and reliable. For the near-
term, we continue to have confidence that warhead life extension 
programs for W76 warheads for Trident II missiles and for B61 gravity 
bombs are needed and are wise investments to sustain existing nuclear 
capabilities. However, the current path for sustaining the warhead 
stockpile-successive refurbishments of existing Cold War warheads 
designed with small margins of error--may in the future be 
unsustainable. Specifically, the directors of the Nation's nuclear 
weapons laboratories have expressed concern about the ability to ensure 
confidence in the reliability of the legacy stockpile over the long-
term, without nuclear testing.
    Successive efforts at extending the service life of the current 
inventory of warheads will drive the warhead configurations further 
away from the original design baseline that was validated using 
underground nuclear test data. Repeated refurbishments could accrue 
technical changes that, over time, might inadvertently undermine 
reliability and performance. The skills, materials, processes, and 
technologies needed to refurbish and maintain these older warhead 
designs are also increasingly difficult to sustain or acquire. Some of 
the materials employed in these older warheads are extremely hazardous 
as well. Moreover, it is difficult to incorporate modern safety and 
security features into Cold War-era weapon designs.
    In the near-term, we have no choice but to continue to extend the 
life of these legacy warheads. However, the Departments of Defense and 
Energy are pursuing an alternative to this strategy of indefinite life 
extension, namely, the gradual replacement of existing warheads with 
warheads of comparable capability that are less sensitive to 
manufacturing tolerances or to aging of materials. The generic concept 
is referred to as the Reliable Replacement Warhead (RRW). The RRW 
concept promises other attractive benefits such as improved safety and 
security, less complex production processes, elimination of many 
hazardous materials in existing warheads, and an overall reduction in 
hazardous waste. The directors of the nuclear weapons laboratories 
believe that modern scientific tools developed for the stockpile 
stewardship program, including advanced computer modeling and 
experimental facilities, will enable design and certification of the 
RRW without nuclear testing. In addition, the RRW program will be a key 
enabler for a smaller and more responsive infrastructure, and will help 
grow a new generation of experts capable of sustaining our nuclear 
forces.
    RRW will be key to sustaining long-term confidence in the U.S. 
nuclear stockpile and enable significant reductions in the number of 
reserve warheads--further reducing the size of the overall stockpile. 
Assuring allies and convincing adversaries of the safety, security, and 
reliability of U.S. nuclear forces will in turn contribute to the full 
range of political and military benefits of the U.S. nuclear deterrent. 
Finally, allies with continued confidence in U.S. extended deterrence 
will have less motivation to develop nuclear weapons of their own.

                     support for military families
    69. Senator Warner. Secretary Gates, in the President's State-of-
the-Union Address on January 28, 2008, the President said, ``Our 
military families also sacrifice for America. They endure sleepless 
nights and the daily struggle of providing for children while a loved 
one is serving far from home. We have a responsibility to provide for 
them. So I ask you to join me in expanding their access to child care, 
creating new hiring preferences for military spouses across the Federal 
Government, and allowing our troops to transfer their unused education 
benefits to their spouses or children.''
    I join with the President in recognizing the sacrifices of military 
families--and I include parents in that as well. My understanding is 
that these initiatives are not included in the budget request that is 
before us. Is that correct?
    Secretary Gates. Yes, that is correct. These initiatives are not 
included in the original budget request, because decisions were made 
after the regular budget process had concluded. We plan to use 
reprogrammings, or a budget amendment, if necessary, to fund the fiscal 
years 2008-2009 costs.

    70. Senator Warner. Secretary Gates, what is the magnitude of the 
President's family support initiative and when may we expect to see an 
amended budget and legislative proposals to support these initiatives?
    Secretary Gates. These are the Department's specific proposed 
initiatives to support the President's pledge on family assistance:

          1. Permit Montgomery GI Bill transferability to immediate 
        family members, including spouses and children
          2. Establish hiring preferences for spouses of Active-Duty 
        military members, wounded or disabled members, and 
        servicemembers who died while in Active Service, and a spouse 
        internship program
          3. Expand the existing 18-installation demonstration program 
        for spousal career advancement accounts to all spouses
          4. Accelerate construction of planned military child care 
        centers and public-private ventures for child care
          5. Expand the pilot Yellow Ribbon Joint Family Assistance 
        Program and the four additional jurisdictions with National 
        Guard establishments

                    funding for military health care
    71. Senator Warner. Secretary Gates, for the third year in a row, 
the President's request decrements funding for military health care in 
anticipation of congressional approval of increases in TRICARE fees for 
military retirees, which each year Congress has rejected. Should 
Congress once again decline to increase TRICARE fees for military 
retirees, this budget would then be $1.2 billion short--is that 
correct?
    Secretary Gates. That is correct. The budget currently assumes 
savings of $1.2 billion associated with the adjustments in fees 
consistent with those recommended by the Task Force on the Future of 
Military Health Care, mandated by Congress.

    72. Senator Warner. Secretary Gates, one of the DOD health care 
task force's recommendations is to conduct an external audit of DOD's 
health care program and to establish a cost accounting system that 
provides true and accurate accounting for DOD health care costs. Is it 
your intention to follow through on that recommendation as well, so 
that Congress can have a true and accurate picture of DOD health care 
costs in the future?
    Secretary Gates. Yes, we do intend to follow through on the Task 
Force's recommendations. The Defense Health Program (DHP) health care 
costs are currently executed in four separate accounting and finance 
systems, to include Army, Navy, Air Force, and TRlCARE Management 
Activity. Since the accounting and finance systems all have different 
business rules, it is difficult to perform accurate cost accounting for 
health care. Several years ago, the Department developed the Medical 
Expense and Performance Reporting System (MEPRS), which allocates costs 
within the direct care system. While this is a useful managerial cost 
accounting tool, it could be much more accurate if the financial data 
feeding it came from systems using the same financial structure and 
business rules.
    To ensure commonality among DHP related financial systems, the DHP 
is actively participating in the DOD wide development of a Standard 
Financial Information Structure (SFIS). Each Service and Defense-wide 
accounting and finance system (all are currently under development) 
will have to comply with the established SFIS business rules. The DHP 
is actively engaged with the Business Transformation Agency to ensure 
that requirements for medical business processes under SFIS, and thus 
the ability to do medical cost accounting, are accurate. If it appears 
that the Service accounting and finance systems cannot easily 
accommodate the medical business requirements, we may consider adding 
the Army, Navy, and Air Force medical activities into the Defense 
Agency Initiative adopted by TRlCARE Management Activity, which is a 
new accounting and financing system being developed for all Defense 
agencies.
    Regardless of the solution selected, the DHP is committed to 
ensuring that there is accurate accounting of health care costs.
    MEPRS receives three primary types of data from multiple feeder 
source systems--Financial, Workload, and Personnel data. Army, Navy, 
and Air Force all use the same Tri-Service Workload systems, but they 
continue to use Service-unique systems for Financial and Personnel 
data. Challenges arise in trying to report standardized, uniform data 
at the DOD-level, when Financial and Personnel data come in to the 
central data repository as Service-unique data. Attempts are made to 
map these Service-unique data elements to DOD-common data elements.
    SFIS is a comprehensive ``common business language'' that supports 
information and data requirements for budgeting, financial accounting, 
cost/performance management, and external reporting across the DOD 
enterprise. SFIS standardizes financial reporting across DOD, thereby 
reducing the cost of audit. It allows revenues and expenses to be 
reported by programs that align with major goals versus by 
appropriation categories. It enables decisionmakers to efficiently 
compare programs and their associated activities and costs across DOD. 
In addition, it provides a basis for common valuation of DOD programs, 
assets, and liabilities.
    The SFIS initiative may provide a bridge to true and accurate 
picture of DOD health care costs in the future, however, with multiple 
SFIS-compliant financial systems that the Services are migrating toward 
(Army--General Fund Enterprise Business System; Navy--Navy ERP; and Air 
Force--Defense Enterprise Accounting and Management System), it will 
still be difficult to report uniform cost accounting information across 
three military department nonsynchronous systems--there will still be 
three separate military department financial systems to overcome.
    Defense Agencies Initiatives (DAI) represents the Department's 
effort to extend its solution set for streamlining financial management 
capabilities, eliminate material weaknesses, and achieve financial 
statement auditability for the agencies and field activities across the 
DOD. The DAI implementation approach is to deploy a standardized system 
solution that effectively addresses the requirements depicted in the 
Federal Financial Management Improvement Act and the Business 
Enterprise Architecture, while leveraging the out-of-the-box 
capabilities of the selected commercial off-the-shelf product.
    With the implementation of DAI, the Department will reduce the 
number of legacy financial systems supporting these entities from nine 
to one, standardize all Enterprise-level integration to a single source 
and streamline Defense Finance and Accounting Service support 
operations into a single solution set that leverages a common set of 
resources across a common set of processes. It is expected that all 25 
agencies and Field Activities will be transitioned to DAI by fiscal 
year 2011.
    Addressing the goal of a true and accurate picture of DOD health 
care costs in the future, DAI might be able to provide one accounting 
system for the DHP appropriation. DAI would then become the Enterprise 
DHP accounting system and allow current legacy systems (i.e., MEPRS) to 
be replaced. One accounting system for the DHP would ensure a 
synchronous and singular accounting management system and the 
opportunity to efficiently integrate cost accounting in routine 
Generally Accepted Accounting Principles compliant accounting 
functions.

                     implementation of dole-shalala
    73. Senator Warner. Secretary Gates, with all due respect, Congress 
enacted, and the President has now signed into law, nearly all of the 
recommendations of the Dole-Shalala Commission on Care for America's 
Wounded in the Wounded Warrior Act. These include the items you mention 
in your statement--case management and an emphasis on treatment of 
TBI--in addition to extended benefits for family members who care for 
the wounded and ill under the Family and Medical Leave Act.
    The work that remains is in reform of the disability retirement 
system, which affects the DOD to a lesser degree than the VA. Do you 
agree with that?
    Secretary Gates. A Dole-Shalala revision of the disability 
retirement system codified in chapter 61, title 10, U.S.C., would be 
relatively straightforward for the DOD to implement. There are 
significant DOD costs associated with the implementation of the TRICARE 
health proposal, however, that may require further analysis. The burden 
of implementing Dole-Shalala type transition payments--quality of life 
compensation and earning loss payments--falls on the VA. It is an 
enormous workload and would result in revolutionizing the manner in 
which VA does its business. The VA study on these transition payments 
is due out later this year, and will inform both Departments of the 
magnitude of work and statutory change that will be required.

    74. Senator Warner. Secretary Gates, does this committee have your 
commitment that each of the improvements to the care and management of 
wounded and ill soldiers contained in the NDAA for Fiscal Year 2008, 
Public Law 109-364, will be implemented in a thorough and timely manner 
within the budget that is now before us?
    Secretary Gates. It is the Department's intention to implement all 
the requirements in a thorough and timely manner. The Department's WII 
SOC tracks the implementation of all requirements contained in Title 
16: Wounded Warrior Matters, and Title 17: Veterans Matters of the 
fiscal year 2008 NDAA. The NDAA has 54 sections with 83 mandates that 
address wounded warrior matters. Twenty-five of the 54 sections in the 
NDAA address concerns previously identified by the various commissions 
on wounded warriors and 29 new sections not previously addressed. The 
NDAA requires 30 reports, 35 program or policy initiatives, and 9 
evaluations or studies.

    75. Senator Warner. Secretary Gates, because the needs of men and 
women who become disabled cut across so many agencies of our 
government--the Departments of Defense, VA, Labor and Education, 
Medicare, and the Social Security Administration--has there been 
consideration of a cabinet-level position or task force to oversee 
implementation of these reforms?
    Secretary Gates. As previously stated in testimony, DOD and VA 
formed a joint WII SOC, co-chaired by the two cabinet Departments' 
Deputy Secretaries, supported by a joint OIPT and a full-time joint 
staff office. The purpose of establishing these organizations is to 
coordinate the actions of the cabinet agencies, identify immediate 
corrective actions, and to review and implement recommendations of the 
various commissions and external reviews.
    Specifically, we have endeavored to improve the Disability 
Evaluation System, established a Center of Excellence for Psychological 
Health and TBI, established the Federal Recovery Coordination Program, 
improved datasharing between DOD and VA, developed medical facility 
inspection standards, and improved delivery of pay and benefits.

                             climate change
    76. Senator Warner. Secretary Gates and Admiral Mullen, I have been 
profoundly concerned by recent reports that link global climate change 
with exacerbated international security and compromised national 
security. One of these reports, conducted by distinguished retired 
colleagues at the Center for Naval Analyses, concluded that it is 
important that the U.S. military begin planning to address the 
potentially devastating effects of climate change.
    More recently, a study titled ``Uncertain Future'' conducted by the 
Oxford Research Group found that, ``the risks of climate change demand 
a rethink of current approaches to security and the development of 
cooperative and sustainable ways of achieving that security, with an 
emphasis on preventative rather than reactive strategies.'' Can you 
describe how the DOD is preparing to manage the added threat global 
climate change poses on Department activities, facilities, and 
capabilities?
    Secretary Gates. DOD defers to James Connaughton, Chairman of the 
Council on Environmental Quality, for responses addressing global 
climate change.
    Admiral Mullen. The Department is looking ahead to the impact of 
climate change on the future strategic environment as well as taking 
important steps to reduce the emissions of greenhouse gases by our 
Armed Forces and improving our energy security posture.
    We anticipate that climate change could have far-reaching impact 
across the globe regarding resources and the access of nations to 
resources. In looking ahead, we are implementing the direction of the 
NDAA for Fiscal Year 2008 that requires our military planners to 
consider the risks associated with climate change regarding current and 
future missions, defense plans, and future required capabilities.
    Additionally, we are working to reduce our own contributions to 
greenhouse gases by focusing on reductions in energy consumption. The 
primary Department-wide organization addressing this concern is the DOD 
Energy Security Task Force chartered in May 2006. Task Force membership 
includes the Joint Staff, Services, COCOMs, OSD, and various other DOD 
agencies. The Task Force has focused on initiatives to reduce energy 
consumption and reduce the overall DOD carbon footprint. The Task Force 
has taken on the development and deployment of energy technologies and 
changes in operational procedures which will decrease DOD-related 
carbon footprint without reducing operational effectiveness.
    Many of the Task Force recommendations consolidate and/or leverage 
existing energy initiatives from the Services for consideration and 
implementation DOD-wide. Examples include single engine aircraft taxi 
procedures and synthetic/alternative aircraft fuels testing (Air 
Force), renewable energy resources and insulation technologies to 
reduce the carbon footprint and fuel reliance of Forward Operating 
Bases (Army), and geothermal power generation facilities at Naval Air 
Weapons Station China Lake (Navy).
    The Joint Staff has initiated efforts to minimize or eliminate 
future climate change risks by reducing the DOD contribution to fuel 
consumption and carbon emissions. These include the incorporation of 
the Energy Efficiency Key Performance Parameter (KPP) into the Joint 
Capabilities Integration and Development System (JCIDS) in May 2007. 
This will ensure energy efficiency concerns are considered for future 
system acquisitions and associated operational plans. Additionally, we 
are leading a study in conjunction with the Services into the 
feasibility of increased simulator use to decrease in-vehicle training 
(and therefore fuel use and emissions) without sacrificing operational 
readiness.
    We will continue to shape the future strategic environment with an 
eye toward climate change effects and look for opportunities to reduce 
our carbon footprint.

    77. Senator Warner. Secretary Gates and Admiral Mullen, how can we 
ensure that we are taking preventative steps rather than reacting to 
situations as they arise?
    Secretary Gates. DOD defers to James Connaughton, Chairman of the 
Council on Environmental Quality for responses addressing global 
climate change.
    Admiral Mullen. The Department is looking ahead to the impact of 
climate change on the future strategic environment as well as taking 
important steps to reduce the emissions of greenhouse gases by our 
Armed Forces and improving our energy security posture.
    We anticipate that climate change could have far-reaching impact 
across the globe regarding resources and the access of nations to 
resources. In looking ahead, we are implementing the direction of the 
NDAA for Fiscal Year 2008 that requires our military planners to 
consider the risks associated with climate change regarding current and 
future missions, defense plans, and future required capabilities.
    Additionally, we are working to reduce our own contributions to 
greenhouse gases by focusing on reductions in energy consumption. The 
primary Department-wide organization addressing this concern is the DOD 
Energy Security Task Force chartered in May 2006. Task Force membership 
includes the Joint Staff, Services, COCOMs, OSD, and various other DOD 
agencies. The Task Force has focused on initiatives to reduce energy 
consumption and reduce the overall DOD carbon footprint. The Task Force 
has taken on the development and deployment of energy technologies and 
changes in operational procedures which will decrease DOD-related 
carbon footprint without reducing operational effectiveness.
    Many of the Task Force recommendations consolidate and/or leverage 
existing energy initiatives from the Services for consideration and 
implementation DOD-wide. Examples include single engine aircraft taxi 
procedures and synthetic/alternative aircraft fuels testing (Air 
Force), renewable energy resources and insulation technologies to 
reduce the carbon footprint and fuel reliance of Forward Operating 
Bases (Army), and geothermal power generation facilities at Naval Air 
Weapons Station China Lake (Navy).
    The Joint Staff has initiated efforts to minimize or eliminate 
future climate change risks by reducing the DOD contribution to fuel 
consumption and carbon emissions. These include the incorporation of 
the Energy Efficiency KPP into the JCIDS in May 2007. This will ensure 
energy efficiency concerns are considered for future system 
acquisitions and associated operational plans. Additionally, we are 
leading a study in conjunction with the Services into the feasibility 
of increased simulator use to decrease in-vehicle training (and 
therefore fuel use and emissions) without sacrificing operational 
readiness.
    We will continue to shape the future strategic environment with an 
eye toward climate change effects and look for opportunities to reduce 
our carbon footprint.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                            troop deployment
    78. Senator Collins. Admiral Mullen, I know how concerned you are 
that the lengthy and repeated deployments have placed enormous strain 
on our troops. As we decrease troop levels in Iraq and also continue to 
increase the end strength of the Army and Marine Corps, which the 
budget continues to fund, this should help to relieve the pressure. 
When do you believe the impact of a larger Army and Marine Corps will 
begin to affect the length and frequency of deployments for our troops, 
both Active-Duty and National Guard?
    Admiral Mullen. [Deleted.]
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                                  f-22
    79. Senator Chambliss. Secretary Gates, because Lockheed Martin and 
Boeing are building F-22 Raptors at a rate of two per month, the 
addition of four F-22s via an emergency supplemental budget will 
provide approximately 2 additional months of F-22 production. However, 
long lead suppliers who provide much of the parts essential to 
producing these aircraft would begin shutting down production as early 
as fall 2008. With this in mind, please explain the assertion that 
procuring four F-22s through fiscal year 2009 supplemental funds will 
keep the F-22 line open until the next administration.
    Secretary Gates. The Department is working with the Air Force to 
determine the necessary actions required to keep the F-22A production 
line viable so that the next administration can review the program 
requirements.

    80. Senator Chambliss. Secretary Gates, the administration has 
stated that further F-22 purchases will threaten the production numbers 
and the affordability of the JSF. The Air Force has consistently 
maintained that they would not utilize JSF funds to fund more F-22s 
since they desperately need both aircraft. Given a $515 billion defense 
budget in fiscal year 2009, $3.4 billion of which is allocated for JSF 
production, please describe how an additional Lot of 20-24 F-22s 
threatens the production and affordability of the JSF.
    Secretary Gates. The size of the annual procurement of any single 
program is modest compared to the total budget, but there are always 
unmet needs when we complete the budget process every year. DOD must 
balance across major procurement accounts. Major items in the Air Force 
procurement budget are tactical aircraft, tankers, space systems, and 
ISR assets. Any increase in F-22 funding would have to come out of 
these high priority accounts.
    Some have indicated that F-22 could be funded by finding 
``efficiencies'' in Operations and Maintenance (O&M), but given the 
pattern of steady growth in the O&M accounts, we don't expect 
efficiencies of $3 billion to $4 billion per year.

    81. Senator Chambliss. Secretary Gates, have you determined how 
much it will cost to shut down the F-22 line, and if deemed necessary, 
re-open the line if a future administration decides to procure 
additional F-22s?
    Secretary Gates. We don't plan to close the F-22 line in fiscal 
year 2009. Prior estimates of shut-down costs were on the order of $500 
million. We have not estimated what it would cost to re-open the F-22 
line once it is closed.

                   national guard and reserve forces
    82. Senator Chambliss. Admiral Mullen, I was pleased to see that 
you touched on the important issues of retention and recruiting in your 
written statement. You particularly noted that the National Guard and 
Reserve have experienced some challenges in retaining the company grade 
officers and mid-grade noncommissioned officers who lead our troops, 
but that you are overcoming these shortfalls through enhanced 
incentives for service, flexibility in terms of requirements, and 
enhanced retirement benefits. With the help of many on this committee I 
was proud last year to work on modifying the retirement system for 
National Guard and Reserve members and I hope that this added benefit 
will help retain some of those leaders that we need to retain.
    As you think about transitioning the Reserve components from a 
Strategic Reserve role to part of the Operational Reserve, and 
maintaining our professional National Guard and Reserve Force, what 
kinds of policies and changes come to mind and, in your opinion, how 
can we best transition and shape the National Guard and Reserve into 
being a force that best meets our combatant commanders' and our 
Nation's requirements?
    Admiral Mullen. The Department is currently reviewing the 
Commission on the National Guard and Reserves' 95 recommendations. The 
report identified six topic areas. Our first priority will be to 
implement topic areas I (Creating a Sustainable Operational Reserve) 
and IV (Developing a Ready, Capable, and Available Operational 
Reserve). The Joint Staff and COCOMs recognize that we must break the 
Cold War mentality with regards to our Reserve Forces. We intend to 
vigorously pursue these two topic areas.
    We also agree with topic area III (Creating a Continuum of Service: 
Personnel Management for an Integrated Total Force). The Staff is 
carefully evaluating whether any additional statutory changes are 
required and if they will help or hinder our goal to increase the 
Reserve components' integration into the ``Total Force.''
    Topic area V (Supporting Servicemembers, Families, and Employers) 
is one of my main goals as Chairman and Senior Military Leader of the 
``Total Force.'' I will work with the Services on their support to all 
members of our Armed Forces, their families, and their employers. I 
fully support the Employer Support for Guard and Reserve and will 
continue to champion the cause of our soldier's health, welfare, and 
morale.
    In regards to topic area VI (Reforming the Organizations and 
Institutions that Support an Operational Reserve), I fully support a 
closer alignment of the Services to their support agencies, both 
military and civilian. We need to establish a ``Total Force'' policy 
that eliminates cultural prejudices and produces a better staff 
integration system.
    Topic area II (Enhancing the Defense Department's Role in the 
Homeland) has resulted in some concern on the Joint Staff and within 
the COCOMs. While Reserve component civil support requirements are 
important, they should not be of equal importance to the Department's 
combat responsibilities. We are currently looking at alternate 
approaches to the Homeland recommendations to better support the Nation 
and its citizens.
    The Joint Staff will continue to work closely with the OSD, COCOMs, 
the National Guard and Bureau, and the Services on an implementation 
plan for all 95 recommendations.

                          prompt global strike
    83. Senator Chambliss. Secretary Gates and Admiral Mullen, in your 
statements you discuss the need to address capability gaps, rebalance 
strategic risk, and deter wars. One of the major ways we can do this is 
the ability to strike targets all over the globe promptly--prompt 
global strike. In relation to this, I'm keenly interested in the 
progress of the Air Force's new bomber, as I believe it is critically 
important to our future strategic plan. As you may know, the Air Force 
recently came out with their roadmap for the 21st century, which lists 
several U.S. bases where the next generation bomber may be based. As I 
understand it, there will be an interim bomber that is expected to be 
operational by 2018, with the next generation bomber becoming 
operational in 2035. What progress is DOD is making in developing and 
fielding these new bombers?
    Secretary Gates and Admiral Mullen. The Air Force has implemented a 
three-phased approach to meet the Nation's long-range Global Strike 
requirements:

         Phase 1 - Continue with the modernization of the legacy 
        bomber inventory to ensure sustainability and increased combat 
        effectiveness
         Phase 2 - Leverage near-term technologies with the goal of 
        fielding a next generation bomber (NGB) capability in the 2018 
        timeframe
         Phase 3 - Pursue a system-of-systems technology push for a 
        producible advanced capability bomber with significant 
        improvements in speed, range, accuracy, connectivity, and 
        survivability in 2035+ timeframe

    The Air Force is leveraging all available technology development 
efforts, including F-35, F-22, B-2, Global Hawk, Reaper, Predator, and 
other S&T investments in order to field a new bomber by 2018. The Air 
Force envisions that the new bomber will be a land-based, highly 
survivable, penetrating, persistent, long-range strike aircraft, likely 
started as a manned platform, with an unmanned option in the future.

                               readiness
    84. Senator Chambliss. Admiral Mullen, you note high readiness 
levels in theater come at the price of declining readiness for 
nondeploying units. How would you assess the general state of readiness 
of units here in the United States--if they had to deploy tomorrow? 
What percentage of units are ready to go?
    Admiral Mullen. [Deleted].

                            wounded warrior
    85. Senator Chambliss. Secretary Gates, I want to thank you for 
your handling of the Walter Reed situation last year, and your 
subsequent efforts to respond to the situation. In your prepared 
statement, you discuss the efforts under way to implement the Dole-
Shalala Commission's recommendations to ensure our wounded warriors are 
not neglected or forgotten. Beyond what we have already done to 
implement these recommendations in the last NDAA, what help do you 
require from us as a committee to carry out these recommendations? 
Also, I'm particularly interested in hearing what the response has been 
from the veterans community to the proposal to streamline the 
disability evaluation system.
    Secretary Gates. One of the most significant recommendations from 
the task forces and commissions is the shift in the fundamental 
responsibilities of the DOD and the VA. The core recommendation of the 
Dole-Shalala Commission centers on the concept of taking DOD out of the 
disability rating business so that the DOD can focus on the fit or 
unfit determination, streamlining the transition from servicemember to 
veteran. As the President urged in his State-of-the-Union message, we 
seek Congress's action on this recommendation.
    As to acceptance of the streamlined DES, the early responses from 
the Veteran Service Organizations (VSOs) are positive overall. The VSOs 
are pleased that DOD has decreased the time it takes to afford 
servicemembers and veterans their justly deserved benefits. However, 
they are withholding extensive review until the DES pilot program is 
fully expanded.

                            defense spending
    86. Senator Chambliss. Secretary Gates and Admiral Mullen, the 
budget you have sent to us represents about 3.4 percent of our gross 
domestic product (GDP). As you know, during other wars, we have spent 
much more of our GDP on defense, such as during the Vietnam war, when 
we were spending about 9 percent of our GDP, or the Korean War, when we 
were spending about 14 percent of our GDP. Admiral Mullen, according to 
an article published a few days ago in the New York Times, you're 
quoted as advocating for a 4 percent floor in defense spending as it 
relates to GDP. In other words, no less than 4 percent of our GDP 
should be spent on defense spending. Secretary Gates, I believe you 
have also been an advocate for this 4 percent floor. Given your 
advocacy for this floor in defense spending, why isn't that reflected 
in the budget you have sent to us?
    Secretary Gates. Before I would formally recommend to the President 
adoption of a defense spending floor of 4 percent of GDP, I would need 
to see promising support for that in Congress and from the American 
people. I do not perceive sufficient support at this time, but I am 
hopeful that my advocacy might advance the idea.
    Admiral Mullen. In order to prevail in the current conflict, defend 
the Nation, and deter future conflicts, the Department requires a 
considerable portion of the Nation's resources. The President's budget 
for 2009 strives to balance spending for the DOD with all of the other 
challenges that I know we face as a country.
    As Chairman, I have focused on advocating for the necessary 
resources to reset, reconstitute, and revitalize our people and our 
platforms. Operations in Iraq and Afghanistan have highlighted the 
Department's lack of strategic depth and the Department has worked 
effectively to prioritize our resources against our shortfalls. We have 
focused on the growth of our ground forces and that must continue on 
track or at an accelerated pace if achievable. Additionally, I am 
concerned that the growing proportion of our airframes and ships are 
aging beyond their intended service lives and I feel the Nation cannot 
afford to further defer these recapitalization requirements. The 
President and Congress have been tremendously supportive of the needs 
of our Nation's warfighters. The Service Chiefs and I will continue to 
address areas in which we are taking risk in accomplishing the National 
Military Strategy and work with the administration and Congress to 
properly resource our requirements.
    I support a floor of 4 percent of GDP for the DOD base budget. I 
believe that this will generate a thoughtful discussion about what we 
as a Nation need to spend on the DOD. Historically, I believe there is 
a correlation between our defense spending as a percentage of GDP and 
our ability to respond to the Nation's call. I recognize that a 
percentage of GDP may not be the only metric, but it is a metric that 
at least I hope would bring about a thorough, comprehensive debate 
about what we need, particularly as the DOD is one of the very few 
agencies with any discretionary spending.

    87. Senator Chambliss. Secretary Gates and Admiral Mullen, why have 
you presented a budget that represents 3.4 percent of GDP rather than 
the 4 percent of GDP that you advocate?
    Secretary Gates. Before I would formally recommend to the President 
adoption of a defense spending floor of 4 percent of GDP, I would need 
to see promising support for that in Congress and from the American 
people. I do not perceive sufficient support at this time, but I am 
hopeful that my advocacy might advance the idea.
    Admiral Mullen. In order to prevail in the current conflict, defend 
the Nation, and deter future conflicts the Department requires a 
considerable portion of the Nation's resources. The President's budget 
for 2009 strives to balance spending for the DOD with all of the other 
challenges that I know we face as a country.
    As Chairman, I have focused on advocating for the necessary 
resources to reset, reconstitute, and revitalize our people and our 
platforms. Operations in Iraq and Afghanistan have highlighted the 
Department's lack of strategic depth and the Department has worked 
effectively to prioritize our resources against our shortfalls. We have 
focused on the growth of our ground forces and that must continue on 
track or at an accelerated pace if achievable. Additionally, I am 
concerned that the growing proportion of our airframes and ships are 
aging beyond their intended service lives and I feel the Nation cannot 
afford to further defer these recapitalization requirements. The 
President and Congress have been tremendously supportive of the needs 
of our Nation's warfighters. The Service Chiefs and I will continue to 
address areas in which we are taking risk in accomplishing the National 
Military Strategy and work with the administration and Congress to 
properly resource our requirements.
    I support a floor of 4 percent of GDP for the DOD base budget. I 
believe that this will generate a thoughtful discussion about what we 
as a Nation need to spend on the DOD. Historically, I believe there is 
a correlation between our defense spending as a percentage of GDP and 
our ability to respond to the Nation's call. I recognize that a 
percentage of GDP may not be the only metric, but it is a metric that 
at least I hope would bring about a thorough, comprehensive debate 
about what we need, particularly as the DOD is one of the very few 
agencies with any discretionary spending.

                   north atlantic treaty organization
    88. Senator Chambliss. Admiral Mullen, I note in your prepared 
testimony that North Atlantic Treaty Organization (NATO) forces in 
Afghanistan ``provide a credible fighting force'' but that ``some 
nations' forces in theater must be more operationally flexible.'' I 
understand that some NATO troops in Afghanistan operate under 
``caveats'', meaning that they will not fight at night or other 
seemingly unrealistic operational guidelines, which are what I assume 
you're referring to when you say they must be ``more operationally 
flexible.'' Has there been any progress toward doing away with these 
restrictions?
    Admiral Mullen. [Deleted.]

    89. Senator Chambliss. Admiral Mullen, what other obstacles are you 
facing with the operational flexibility of NATO forces?
    Admiral Mullen. [Deleted.]

                            force structure
    90. Senator Chambliss. Secretary Gates, with some of the expansion 
of the Army and Marine Corps being paid for this year, when will we 
feel the positive effects of these new troops?
    Secretary Gates. These strength increases are taking place 
gradually, with the positive effects directly proportional to 
translating new manpower into deployable units.

    91. Senator Chambliss. Secretary Gates, how long do you anticipate 
it taking for them to relieve some of the strain on the current sized 
force?
    Secretary Gates. The benefits already are being realized; by fiscal 
year 2011, we anticipate reaching 48 Active Army BCTs.

    92. Senator Chambliss. Admiral Mullen, in your prepared statement, 
you talk about the need to increase interagency involvement. If there 
were more personnel from the other departments, would we be able to 
decrease the military footprint in Iraq and Afghanistan, or, are these 
personnel in addition to all of the military bodies?
    Admiral Mullen. In theory, greater interagency involvement would 
result in a decreased military footprint in Iraq and Afghanistan. 
Reality, though, is more complex than that. It is not as simple as a 
one-for-one swap.
    In both countries, we have soldiers, sailors, airmen, and marines 
performing functions that are not their primary function and for which 
other agencies have greater expertise. The other agencies, though, are 
not absent from the battlefield because of a lack of courage or desire. 
They are simply not manned or resourced to deploy for long periods of 
time like the DOD.
    With proper manning and funding, combined with a fresh 
expeditionary ethos, these agencies could have synergistic effects not 
currently present. It is not enough to create a secure environment 
through military presence and operations, without strong civil support 
providing basic services and creating an environment for economic 
prosperity to take root. It is equally ineffective to attempt to 
provide civil support without proper security. They both support each 
other and without one, the population becomes quickly disgruntled, 
providing a breeding ground for terrorism and insurgency.
    In the long-term, greater interagency involvement will create 
environments where citizens have livelihoods worth protecting with 
their own blood and national treasure. In the meantime, we must set 
those conditions and that can only be done by properly manning and 
resourcing the rest of the interagency.

    93. Senator Chambliss. Admiral Mullen, given the expansion of the 
Army and Marine Corps, have we planned and budgeted correctly for all 
the corresponding costs associated with this expansion? In other words, 
do we have enough ships and aircraft to transport them?
    Admiral Mullen. The planned expansion of the Army and Marine Corps 
ground forces is fully funded in the base budget. The primary reasons 
for the Grow the Force initiative are to increase our strategic depth 
and improve force rotation. This is not expected to lead to a larger 
deployed footprint or airlift requirements than what exists today.
    We are carefully reviewing our airlift requirements through the 
conduct of the NDAA for Fiscal Year 2008 (section 1046) directed study 
on the size and mix of the airlift force. My assessment so far is that 
the existing air and sealift programs of record are sufficient to 
execute our campaign plans and to support our global presence 
requirements.

    94. Senator Chambliss. Admiral Mullen, do we have enough tactical 
fighters and unmanned systems to support them?
    Admiral Mullen. The primary reasons for the Grow the Force 
initiative are to increase our strategic depth and improve force 
rotation. Our tactical fighter and unmanned system requirements are not 
driven by the size of our ground forces, but by our operation and 
contingency plans. My assessment so far is that the existing tactical 
fighter and unmanned system programs of record are sufficient to 
execute our campaign plans and to support our global presence 
requirements.

    95. Senator Chambliss. Admiral Mullen, are you comfortable with the 
current division of roles and missions between the Services?
    Admiral Mullen. Our enemy and the nature of warfare are always 
evolving. The Services are constantly evaluating and evolving their 
tactics, techniques, and procedures to adapt to and, where possible, be 
in front of, the enemy. I believe the current division of roles and 
missions is about right. The roles and missions review as directed in 
the NDAA for Fiscal Year 2008, will give us a chance to look at this in 
a holistic manner. We will focus on improving the Joint Force's 
effectiveness and efficiency to ensure the enduring security of the 
American people.

    96. Senator Chambliss. Admiral Mullen, are there any overlaps that 
we may examine and potentially save money?
    Admiral Mullen. The roles and missions review will address 
traditional core mission areas as well as evolving areas of warfare. It 
is too early in the process to identify specific areas of overlap, but 
throughout the review we will investigate areas of unnecessary 
duplication and capability gaps with the singular goal of optimizing 
the development and employment of our Joint Forces. That said, I do not 
expect there will be overlaps to the point that a great deal of money 
will be available for savings.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                                seapower
    97. Senator Wicker. Secretary Gates and Admiral Mullen, the 
industrial base required to build and modernize our Navy is relatively 
small compared to our other defense sectors. As the cost of ships has 
increased due to changing requirements and rising material costs, the 
number of ships we have been able to produce each year has slowed. As a 
result of the slow production, labor costs have increased, thus further 
impacting our shipbuilding capability. Conversely, the ability of 
potential adversaries such as China to produce naval ships is much 
greater than ours. How does our current goal of building a 313-ship 
Navy, our long-range shipbuilding strategy, and our budget forecasts 
overlay against potential naval adversaries' ability to grow a naval 
force at a much faster pace?
    Secretary Gates. The Navy faces many challenges in procuring a 
force that will be effective over the broad spectrum of naval missions 
anticipated in the coming decades. At the same time, escalating 
shipbuilding costs demand that the Navy procure only those ships that 
are necessary to accomplish critical missions, with the minimum 
essential capabilities, and in the most efficient and cost effective 
manner possible. As the Navy transforms itself into a 21st century 
fighting force and looks to recapitalize the retiring ship platforms, 
new ship concepts are being introduced. Additionally, as the Navy 
translates lead ships into serial production, cost estimates have been 
adjusted to reflect updated material costs and increased labor costs. 
In the case of fiscal year 2009 President's budget request, many of the 
labor and material rates that were impacted by Hurricane Katrina are 
now reflected in the end-costs of the ships. In addition, the impact of 
the Pension Protection Act has been reflected in higher overhead rates 
throughout the shipbuilding industry. The Navy's 313-ship force 
structure represents the minimum number of ships the Navy should 
maintain in its inventory to provide the global reach; persistent 
presence; and strategic, operational, and tactical effects expected of 
our Navy forces. Currently there are two countries with the indigenous 
shipbuilding capacity and potential budgetary means to grow a modern 
naval force on or ahead of the pace of our long-range shipbuilding 
strategy. China is the third-largest shipbuilder in the world, after 
Japan and South Korea, and is engaged in a naval shipbuilding program 
that is supported by an industrial base of about eight major shipyards 
involved in naval construction. This compares to the U.S. industrial 
base of six major shipyards owned by two corporations and at least two 
smaller shipbuilders engaged in naval construction. China's ability to 
produce modern and effective major ship sub-systems, particularly in 
the propulsion area and in weapon systems for those ships, is just 
recently beginning to show signs of improvement. Although Russia also 
possesses the indigenous shipbuilding capacity and potential budgetary 
means to grow a modern naval force on or ahead of the pace of our long-
range shipbuilding strategy, it is only now beginning to reestablish a 
naval shipbuilding program. Our ability to maintain a position of 
maritime superiority over the long-term relies on a battle force 
structure consistent with the Navy's 313-ship strategy, and investment 
in the research and development and increased procurement funding for 
ship and weapon systems that will continue to enable the United States 
to maintain its lead over our potential adversaries.
    Admiral Mullen. The Navy faces many challenges in procuring a force 
that will be effective over the broad spectrum of naval missions 
anticipated in the coming decades. At the same time, escalating 
shipbuilding costs demand that the Navy procure only those ships that 
are necessary to accomplish critical missions, with the minimum 
essential capabilities, and in the most efficient and cost effective 
manner possible. The Navy's 313-ship force structure represents the 
minimum number of ships the Navy should maintain in its inventory to 
provide the global reach; persistent presence; and strategic, 
operational, and tactical effects expected of our Navy forces. 
Currently there are two countries with the indigenous shipbuilding 
capacity and potential budgetary means to grow a modern naval force on 
or ahead of the pace of our long-range shipbuilding strategy. Russia is 
only now beginning to reestablish a naval shipbuilding program. China 
on the other hand is engaged in a naval shipbuilding program that is 
supported by an industrial base of about eight major shipyards involved 
in naval construction. This compares to the U.S. industrial base of 
five major shipbuilders and at least two smaller shipbuilders engaged 
in naval construction. While the capacity of China's shipbuilding 
industry is on par with that of the United States, China's ability to 
produce modern and effective major ship sub-systems, particularly in 
the propulsion area and in weapon systems for those ships, is just 
recently beginning to show signs of improvement. Our ability to 
maintain a position of maritime superiority over the long-term relies 
on a battle force structure consistent with the Navy's 313-ship 
strategy, and investment in the research and development of ship and 
weapon systems that will continue to lead our potential adversaries.

    98. Senator Wicker. Secretary Gates and Admiral Mullen, in 
addition, does our Cooperative Strategy for 21st Century Seapower 
properly account for our long-term ability to counter these threats?
    Secretary Gates. The new maritime strategy, ``A Cooperative 
Strategy for 21st Century Seapower,'' does properly account for current 
and future threats. I offer that China and other nations throughout the 
world are potential opportunities. Our new strategy recognizes that the 
security and prosperity of the global system will increasingly rely on 
the cooperation and partnership of all maritime powers, including 
China. Our Nation's interests are best served by fostering and 
sustaining a peaceful global system.
    The strategy recognizes that defending our Nation and defeating 
adversaries in war remain the indisputable ends of American seapower. 
We will continue to focus on maintaining a robust and effective 
capability to apply regionally concentrated, credible combat power to 
deter potential adversaries, limit regional conflicts, and win our 
Nation's wars. Through forward presence, deterrence, sea control, and 
power projection, we will maintain our ability to secure our Homeland 
and interests around the world.
    Effective implementation of the strategy depends upon our ability 
to execute a stable, affordable shipbuilding plan that delivers a Navy 
of at least 313 ships. A properly balanced Fleet, applied across the 
six core capabilities, will ensure our ability to meet future 
challenges.
    Admiral Mullen. The new maritime strategy, ``A Cooperative Strategy 
for 21st Century Seapower,'' does properly account for the ability of 
potential adversaries to produce naval ships in relatively significant 
numbers. Specifically, with respect to your earlier comments regarding 
China, I would like to offer that I believe China--and other growing 
nations throughout the world--are also potential opportunities. Our new 
strategy recognizes that the security and prosperity of the global 
system--the interdependent networks of commerce, finance, people, law, 
governance, and information--will increasingly rely on the cooperation 
and partnership of all maritime powers, including China. Our Nation's 
interests--all nation's interests--are best served by fostering and 
sustaining a peaceful global system.
    One of the principal tenets of the strategy is that preventing wars 
is as important as winning wars. Regional conflicts and major power 
wars create shocks in the global system that adversely impact people in 
every country around the world, regardless of whether they are involved 
directly in the event. Through the employment of globally distributed, 
mission tailored maritime forces, we are able to partner with nations 
around the world to prevent or contain local disruptions, and 
contribute directly to homeland defense-in-depth. Working in 
cooperation with partners both here and abroad, we exercise maritime 
security, humanitarian assistance, and disaster response in order to 
build the capacity to prevent as well as recover from shocks to the 
global system.
    The strategy also recognizes that defending our Nation and 
defeating adversaries in war remain the indisputable ends of seapower. 
We will continue to focus on maintaining a robust and effective 
capability to apply regionally concentrated, credible combat power to 
deter potential adversaries, limit regional conflicts, and win our 
Nation's wars. Through forward presence, sea control, and power 
projection we will maintain our ability to secure our Homeland and 
interests around the world.
    Through the selectively balanced application of the core 
capabilities of seapower--in cooperation with joint, interagency, 
nongovernmental, and coalition partners--we believe seapower is a 
unifying force for building a better tomorrow, for our Nation and 
nations around the world who seek the same great opportunities we enjoy 
as Americans.

                      base realignment and closure
    99. Senator Wicker. Secretary Gates, the Congressional Budget 
Office and the Government Accountability Office estimate that the cost 
to implement the current BRAC round has increased from $21 billion to 
$31 billion. Is this $10 billion cost growth accounted for in the 
President's budget and in the Future Year Defense Program, and what is 
the budget plan to meet the statutory deadline for the 2005 BRAC 
decisions to be completely implemented by September 15, 2011?
    Secretary Gates. As a matter of policy, BRAC requirements which 
ensure meeting the September 15, 2011, deadline must be fully funded. 
As such, all costs to implement BRAC are included in our fiscal year 
2009 budget request (including supplemental requests) and in the Future 
Year Defense Program. It is important to note that this assumes the 
$939 million reduction to the BRAC appropriations is restored in fiscal 
year 2008.

    100. Senator Wicker. Secretary Gates, in addition, what steps are 
being taken by the DOD to get the BRAC costs under control?
    Secretary Gates. Each implementation plan is reviewed twice 
annually to ensure that the proposed costs are valid and necessary to 
implement BRAC. As necessary, the Department's budget process allocates 
additional resources to ensure the recommendations will be implemented. 
This process adds another level of scrutiny to ensure increases in 
costs are minimized.

                      improvised explosive devices
    101. Senator Wicker. Secretary Gates, Congress has made a 
tremendous investment in the Joint Improvised Explosive Device Defeat 
Organization (JIEDDO), since its inception as the Joint IED Defeat Task 
Force in 2004. Fortunately for our soldiers and marines, they have seen 
first-hand some of the success of the JIEDDO efforts, such as the 
highly effective Mine Resistant Ambush Protected vehicles. Can you 
explain, at an unclassified level, what the JIEDDO priorities are for 
this 2009 budget request?
    Secretary Gates. This budget request provides funding for the 
JIEDDO. To that end, JIEDDO operates along four lines of operation to 
carry out its mission: Attack the Network, Defeat the Device, Train the 
Force, and Staff and Infrastructure.
    Specific JIEDDO priorities for this request focus on three areas:
    Attack the Network ($306.3 million)--this funding allows JIEDDO to 
conduct offensive operations against the complex networks of 
financiers, IED makers, trainers, and their supporting infrastructure 
and enhances our capability to attack and disrupt the enemy's IED 
networks.
    Train the Force ($88.3 million)--this funding supports demanding 
individual and collective training requirements to prepare units prior 
to and during deployment for operations in an intense, fluid IED 
environment. The fiscal year 2009 funding expands counter-IED (C-IED) 
training, completes the resourcing of critical C-IED equipment, and 
exports training capabilities to multiple locations.
    Staff and Infrastructure ($101.7 million)--this funding provides 
for JIEDDO's headquarters support structure necessary to successfully 
coordinate the IED fight. The fiscal year 2009 funding provides for 
civilian personnel, facilities, personnel contracts, professional 
training, communication equipment, travel, and supplies needed for 
minimum day-to-day operations.

    102. Senator Wicker. Secretary Gates, part of the success of the 
Defeat the Device strategy has been the use of UAVs to provide 
persistent overhead surveillance. How does the budget build on the 
success of the UAVs as part of a C-IED strategy and is there sufficient 
funding to keep the UAV mission at a level that will ensure the 
greatest possible protection of our troops?
    Secretary Gates. The JIEDDO has provided a total of $198 million 
for the delivery and nominal 2-year sustainment of C-IED sensor 
surveillance systems initiatives employed from UASs, requirements 
defined by the combatant commanders. JIEDDO's budget fully supports 
transitioning the C-IED capabilities of sensor systems aboard UASs to 
the Service(s). As new C-IED requirements are identified and validated 
by the combatant commanders and Joint Staff, JIEDDO will apply funding 
to meet the requirement and they are funded to do so during fiscal year 
2008.

    [Whereupon, at 12:13 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                       TUESDAY, FEBRUARY 26, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                   POSTURE OF THE UNITED STATES ARMY

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Webb, 
McCaskill, Inhofe, Sessions, Collins, Chambliss, Graham, and 
Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Michael J. Kuiken, 
professional staff member; Gerald J. Leeling, counsel; Thomas 
K. McConnell, professional staff member; Michael J. McCord, 
professional staff member; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Gregory T. 
Kiley, professional staff member; David M. Morriss, minority 
counsel; Lucian L. Niemeyer, professional staff member; Diana 
G. Tabler, professional staff member; and Richard F. Walsh, 
minority counsel.
    Staff assistants present: Fletcher L. Cork, Ali Z. Pasha, 
and Brian F. Sebold.
    Committee members' assistants present: Bethany Bassett and 
Jay Maroney, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Christopher Caple, assistant to 
Senator Bill Nelson; Andrew R. Vanlandingham, assistant to 
Senator Ben Nelson; Jon Davey, assistant to Senator Bayh; M. 
Bradford Foley, assistant to Senator Pryor; Gordon I. Peterson, 
assistant to Senator Webb; Stephen C. Hedger, assistant to 
Senator McCaskill; Sandra Luff, assistant to Senator Warner; 
Anthony J. Lazarski, assistant to Senator Inhofe; Todd 
Stiefler, assistant to Senator Sessions; Mark J. Winter, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Andrew King, assistant to Senator Graham; 
Lindsey Neas, assistant to Senator Dole; Brian Polley, 
assistant to Senator Cornyn; Jason Van Beek, assistant to 
Senator Thune; and Erskine W. Wells III, assistant to Senator 
Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today, Secretary Geren and General Casey testify before the 
Senate Armed Services Committee on plans and programs of the 
U.S. Army in review of the fiscal year 2009 budget request, the 
war supplemental request, and the Future Years Defense Program.
    We last had the Secretary and Chief of Staff update us on 
the state of the Army a little over 3 months ago, in November. 
We welcome you both back. We thank you for your service. As 
always, we ask you to extend our heartfelt gratitude to the men 
and women of the Army and their families, who have given so 
much of themselves in their service to this Nation in a time of 
war.
    Over the 3 months since Secretary Geren and General Casey 
last testified, the Army has begun redeploying the surged 
troops from Iraq, and, according to current plans, will 
complete that redeployment this summer. However, we're now 
hearing that General Petraeus will recommend a pause in further 
redeployments while he assesses the security situation. 
President Bush's public comments indicate he will follow 
General Petraeus's recommendations.
    This also means that we will continue to have an Army which 
is way overstretched. The stress on Army forces from operations 
in Iraq and Afghanistan continues to build. Our Army troops 
continue to face multiple tours of 15-month duration, with only 
12 months or less at home between rotations. According to a 
recent survey, 9 in 10 officers say that the war has stretched 
the military dangerously thin. These levels of deployment 
without adequate rest for the troops and repair and replacement 
of equipment simply cannot be sustained.
    General Casey has said that, ``Today's Army is out of 
balance,'' and that ``the current demand for our forces exceeds 
the sustainable supply.'' Admiral Mullen, Chairman of the Joint 
Chiefs of Staff, has echoed those concerns, saying that the 
ground forces ``remain under tremendous strain.''
    According to press reports, Admiral Mullen, meeting with 
Army captains at Fort Sill last year, found that the most 
prevalent concern was the impact on those soldiers and their 
families of the repeated deployments of 15 months, with 12 or 
fewer months home between rotations. One captain said, ``We 
have soldiers that have spent more time in combat than World 
War II. Is there a point where you can say you've served 
enough?''
    The heaviest burden in this war has fallen on the ground 
forces and on their families. General Casey has said, ``We are 
consuming readiness as fast as we build it.'' Well, one way or 
another, we must find a way to bring the Army back in balance.
    Other evidence of strain on the Army can be seen in 
recruiting and retention patterns. In fiscal year 2007, only 79 
percent of Army recruits were high-school-diploma graduates and 
only 61 percent of new recruits scored above average on the 
Armed Forces qualification test. Fiscal year 2007 represents 
the 4th consecutive year of decline in one or both of those two 
indicators.
    The Army recruited 3,200 category-4 recruits, the lowest 
acceptable measure of aptitude, which is the Department of 
Defense (DOD) maximum of 4 percent in this category. There has 
been an increase in the number of medical and misconduct 
waivers being granted. In fiscal year 2007, nearly one in five 
new recruits required a waiver. More than 50 percent of 
graduates of the U.S. military academy are separating from the 
Army as soon as their obligations expire.
    The impact of the wars has affected the Army in many ways. 
In order to sustain the necessary readiness level in our 
deployed forces, the readiness of our nondeployed forces has 
steadily declined. Equipment and people are worn out. Multiple 
deployments and extended deployments result in higher rates of 
mental health problems for our soldiers, and also takes a toll 
on their families. The number of wounded and injured soldiers 
in our Warrior Transition Units continues to climb. Most 
nondeployed units are not ready to be deployed; consequently, 
getting those units reset and fully equipped and trained for 
their rotation to Iraq or Afghanistan is that much more 
difficult and risky. Getting those units equipped and trained 
for all potential conflicts, including high-intensity combat, 
is virtually impossible, and is not being done.
    This Nation faces substantially increased risks should 
those forces be required to respond to other requirements of 
the national military strategy. The surge of additional forces 
to Iraq last year put even more pressure on an already strained 
readiness situation. Subjecting this Nation to that degree of 
risk is unacceptable.
    As daunting as it is to meet the current readiness 
challenge, we must also modernize our Army to meet our 
readiness requirements and our national security requirements 
into the future, and we must do so intelligently. In so doing, 
we must not fail to capture the lessons learned since the end 
of the Cold War and apply them to building that force of the 
future.
    Although it appeared somewhat fashionable to question the 
relevance of ground forces prior to September 11, that can 
hardly be the case now. The reality of warfare in the 21st 
century demands both the high-intensity force-on-force combat, 
as characterized in the early weeks of the Iraq war, and the 
grinding, all-encompassing stability and support in 
counterinsurgency operations of the last few years. The answer 
is not one mission or the other; the Army must be prepared to 
do both and everything in between.
    The reality right now and for the foreseeable future is 
that soldiers need to be warriors at sometimes, then, at other 
times, need to be acting as builders, city managers, 
humanitarian relief workers, and dispute arbitrators. Given the 
post-surge level of 15 Army brigade combat teams and supporting 
troops in Iraq and Afghanistan, Army officials have been 
telling Members and staff that the Army will need $260 to $270 
billion a year through fiscal year 2011 in order to meet its 
requirements.
    The 2009 base budget request provides the Army with $140 
billion. DOD requested $70 billion in bridge supplemental 
funding. In an answer to a question at the DOD posture hearing, 
Secretary Gates said that the best guess, at the moment, is 
that the remainder of the 2009 supplemental would be about $100 
billion. That means that the Army will have to receive $120 to 
$130 billion, out of a $170-billion 2009 supplemental total, to 
meet its annual requirement of the $260 to $270 billion. That 
would be somewhat doubtful; in which case, we need to 
understand, fully, the implications for the Army. We need to 
understand what needs to be done to ensure an Army that is 
ready for all its potential missions, both today and in the 
future. The Army and Congress owe nothing less to the soldiers, 
their families, and the American people.
    At this time, I now submit the prepared statement of 
Senator Warner.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Mr Chairman, thank you. I join you in welcoming Secretary Geren and 
General Casey here to the committee once again and thank them for their 
long and distinguished service to our Nation.
    Our Nation's Army is the best in the world. It is a battle-hardened 
force whose volunteer soldiers have performed with courage, 
resourcefulness, and resilience in the most arduous conditions.Some 
have suggested that our Army is broken. I do not believe that. However, 
like Admiral Mullen, I do believe the Army is ``breakable.''
    Looking back at the last years of Vietnam and into the 1970s--a 
time when America was last engaged in a protracted and controversial 
war--many of us remember a military that was under great strain. It was 
also a period in our history when popular appreciation for the military 
was not very noticeable.
    However, it is so gratifying today to see how the United States 
civilian population is so united in support of our military.
    We should all remember that the last draftee entered the Army in 
1973. For nearly 35 years now, we have been fortunate to have a 
military composed entirely of volunteers.
    When our country's All-Volunteer Force was born on July 1, 1973, no 
comparable military in the world operated on a fully volunteer basis. 
Since that time, our volunteers have upheld the finest traditions of 
our military Services and our country. Our Nation continues to be 
grateful for the courageous men and women who have demonstrated 
extraordinary patriotism in choosing to defend America.
    We owe these men and women and their families a great deal for 
their service and the sacrifices of their families. For those who have 
made the ultimate sacrifice, the country owes their families every care 
and benefit. To the wounded, we have a responsibility to see that the 
care they receive at all points in the military health care system will 
allow them to transition smoothly to the next phase in their lives. In 
these regards, I am proud of the work that this committee has done, but 
it is an effort that requires constant vigilance and oversight.
    As one who would strongly oppose a return to the draft, I believe 
that we should aggressively seek new ways to express our gratitude to 
these volunteers.
    This morning, the witnesses should be prepared to answer questions 
concerning: state of the All-Volunteer Army; the pace of deployments 
and the strain placed on soldiers and their families; and plans to end 
15-month overseas deployment cycles and attain an interim dwell time 
ratio of 1 to 1 and, ultimately, achieve an objective dwell time ratio 
of 2 to 1.
    In addition the witnesses should expect to be asked to discuss: 
progress being made with the multi-billion dollar investment in the 
Army's Future Combat System; the readiness of Army units when they are 
deployed from home stations to a combat theater, such as Iraq or 
Afghanistan; how the Army is using the dollars it receives to ``reset'' 
the force; how the Army will regain and sustain its advantage at 
fighting conventional wars while retaining what it has learned about 
asymmetrical threats and counterinsurgency operations; the readiness of 
Reserve component forces and the recommendations of the Commission on 
the National Guard and Reserves; and the state of outpatient care at 
Army medical facilities.
    Mr Chairman, thank you and I look forward to hearing from our 
witnesses today.

    Chairman Levin. Senator Inhofe.

              STATEMENT OF SENATOR JAMES M. INHOFE

    Senator Inhofe. Thank you, Mr. Chairman.
    I agree with all of the problems that are there, it wasn't 
as if we didn't see them coming. We are very proud of the Army. 
I remember when Senator Akaka and I were on the House side, we 
were active in the Army Caucus, and there wasn't one over here, 
so we started one here. I think that people are more aware now 
than they ever have been anytime in the history about the 
significance of the Army. With all the problems that the 
chairman mentioned, I can't think of two people that are in a 
better position to handle those problems than General Casey and 
Secretary Geren. So, I appreciate your dedication.
    I can remember, back in the 1990s, when the drawdown was 
taking place, and I was chairman, at that time, of the 
Readiness and Management Support Subcommittee. I remember going 
to the floor several times and talking about the fact that this 
is all fine, assuming that we don't have any real serious 
problems coming up, but guess what happened? We have serious 
problems. All of that couldn't have happened at a worse time. 
We were at our all-time low, after we had drawn down from 18 to 
10 divisions. So, we're demanding more and more, and I look at 
the big picture and think we just have to rebuild, that's all. 
The timing couldn't have been worse. Every time I go over 
there, I'm more and more proud of this All-Volunteer Service. I 
was a product of the draft, and it took me quite a number of 
years to realize that the quality is so good now. These young 
people, men and women, are just doing a great job. I'm also 
real proud that we have 2,600 of the Oklahoma 45th deployed 
over there right now. I recall, on their last deployment, that 
they were active in training the Afghan National Army, in 
Afghanistan, to train their own military.
    So, they're all doing a great job, most of the problems, 
frankly, are on this side of the table. I often say that you're 
doing a great job with the hand you're dealt, but you need to 
be dealt a better hand. Hopefully, we can do that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Let me, before you start, alert everybody, I think we know 
it up here, but for you folks out there, including our 
witnesses, we have five rollcall votes stacked, basically what 
we call back-to-back, starting at about 10:20 or 10:15, we 
believe. We're going to try to continue to go right through 
those votes somehow, but there may be a number of interruptions 
and adjournments that we're going to have to call, at the call 
of the Chair, during the question period.
    Secretary Geren?

 STATEMENT OF HON. PRESTON M. ``PETE'' GEREN III, SECRETARY OF 
                            THE ARMY

    Secretary Geren. Thank you, Mr. Chairman, Senator Inhofe, 
and members of the committee. It's an honor for General Casey 
and me to appear before you today to discuss our Nation's Army, 
an Army that's been built by the partnership between our Army, 
led by our Commander in Chief, and this Congress. It's a 
partnership older than our Constitution, and affirmed by it.
    The President's budget for fiscal year 2009 is before 
Congress; $141 billion for our Army. As is always the case, the 
Army's budget is mostly about people, and operations and 
maintenance (O&M) to support people. The personnel and O&M 
budget makes up two-thirds of our Army budget.
    Creighton Abrams reminded us often, people are not in the 
Army, people are the Army. The Army budget reflects that 
reality.
    Today, we are an Army long at war, in our 7th year in 
Afghanistan; next month, March, will be 5 years in Iraq. This 
is the third-longest war in American history, behind the 
Revolutionary War and the Vietnam War, and it is the longest 
war we've ever fought with an All-Volunteer Force.
    Our Army is stretched by the demands of this long war, but 
it remains an extraordinary Army. It's the best-led, best-
equipped, and best-trained Army we have ever put in the field, 
with Army families standing with their soldiers as those 
soldiers serve and re-enlist. It's an Army of volunteer 
soldiers and volunteer families.
    We currently have 250,000 soldiers deployed to 80 countries 
around the world, with over 140,000 deployed to Afghanistan and 
Iraq. Our 140,000 soldiers in harm's way are our top priority, 
and we will never take our eye off of that ball. This budget 
and our supplementals ensure that our soldiers have what they 
need when they need it.
    Today and over the last 6 years, our Reserve component, 
Guard and Reserves, have carried a heavy load for our Nation. 
Since September 11, we have activated 184,000 reservists and 
270,000 guardsmen in support of the global war on terror, and 
they've answered the call for Hurricanes Katrina, Rita, other 
storms, for forest fires, brush fires, other domestic crises, 
and they are in support of operations on our Nation's border.
    We are one Army. The Active component cannot go to war 
without the Reserve component. The challenge before us, and 
addressed in this budget, is our continuing effort to transform 
the Reserve component into an operational Reserve, match the 
organizing, training, and equipping with the reality of the 
role of today's Guard and Reserves. This budget continues the 
steady investment in new equipment in our Reserve component.
    Although we will not complete the recapitalization of the 
National Guard until 2015, we are not where we need to be, but 
it's important to acknowledge the progress that has been made 
in equipping our Guard.
    Looking at just a few pacer items:
    In 2001, the Guard had 290 Family of Medium Tactical 
Vehicles trucks; today, the Guard has over 9,000. In 2001, 
41,000 Single-Channel Ground-Air Radio System radios; today, 
over 82,000. Night-vision goggles, in 2001, 53,000; today, 
nearly 120,000. This budget includes $5.6 billion for Guard 
equipment and $1.4 billion for the Reserves. Over the next 24 
months, $17 billion worth of equipment will flow to the Guard 
and over 400,000 items over the next 2 years.
    The strength of our Army--Active, Guard, and Reserve--comes 
from the strength of Army families. Our Army families are 
standing with their soldier loved ones, but this long war is 
taking a toll. We owe our families a quality of life that 
equals the quality of their service.
    Over half of our soldiers are married, with over 700,000 
children in Army families. Today, nearly half, 48 percent, of 
all soldiers who go to theater leave behind children aged 2 or 
under. When a married soldier deploys, he or she leaves a 
single-parent household behind, and all the challenges of that 
family dynamic. When a single parent deploys, he or she leaves 
behind a child in the care of others.
    In our 2009 budget, we are doubling funding for family 
programs. We're adding 26 new child development centers to the 
35 that Congress funded for last year. Over the past year, with 
your strong support, we have expanded the availability of 
childcare, and we have reduced the cost. We have asked much of 
the volunteer network of spouses that has carried the burden of 
family support programs since September 11, a burden that grows 
heavier with each successive deployment. But, they need help.
    Our 2008 and this 2009 year budget provides much-needed 
support. We are hiring over 1,000 family readiness support 
assistants and nearly 500 additional Army community service 
staff to provide full-time support to our spouse volunteers and 
to Army families, and we are fielding 35 new Soldier Family 
Assistance Centers at major installations across the country. 
The Yellow Ribbon Program you authorized will provide much-
needed support for our guardsmen and reservists upon their 
return from deployments.
    In the late 1990s, Congress launched the Privatized Housing 
Initiative, an initiative that has replaced Army housing with 
Army homes, and has built neighborhoods and vibrant communities 
on our Army posts. This budget builds on the great success of 
your initiative. Our budget for Army homes, new and 
refurbished, in this budget is $1.4 billion. For single 
soldiers, we're modernizing existing barracks. Over 2009 to 
2015, with your support, we'll reach our target of 150,000 
soldiers in modernized barracks.
    This budget continues the programs at DOD, the Department 
of Veterans Affairs (VA), Congress, and the Army have made in 
meeting the needs of wounded, ill, and injured soldiers. In 
your authorization bill, you gave us additional authorities to 
hire needed medical personnel, to provide better health care 
for our wounded, and provide more help to family members who 
are supporting their loved ones. You gave us new authorities, 
resources, and the flexibility to allow soldiers and Army 
civilians to build and adapt a new outpatient care system to 
meet the ever-changing challenges of taking care of those who 
have borne the battle.
    This budget continues to advance those initiatives, 
continues to address personnel shortages, improve facilities, 
and work to accomplish the seamless transition from DOD to VA 
for our soldiers returning to civilian life, and we will 
continue to grow our knowledge and improve the care and 
treatment of the invisible wounds of this war--post traumatic 
stress disorder (PTSD) and traumatic brain injury (TBI)--and 
better meet the needs of soldiers who suffer these wounds, and 
better support their families. The generous support of Congress 
last year has provided us resources to make great progress on 
this front, and we have much to do.
    In 2008 and 2009, we will continue to transform Army 
contracting, under the leadership that we've received from the 
Gansler Commission. In this budget, we've looked to the future; 
we never want to send our soldiers into a fair fight. This 
budget continues our investment in the programs of tomorrow, 
our highest modernization priority, the Future Combat System 
(FCS), which will shape the Army of the future. It's spinning 
out technologies into today's fight. The armed reconnaissance 
helicopters, unmanned aerial vehicles (UAVs), the light utility 
helicopter, and the joint cargo aircraft are all part of that 
future, and we thank you for your support.
    This budget takes a major step forward in ensuring the 
long-term strength and health of our Army by moving the cost of 
43,000 Active Duty soldiers from the supplemental into the base 
budget, and we have accelerated the 64,000-man growth in the 
Active Duty Army from 2012 to 2010, with a commitment that we 
will maintain recruit quality at no lower than the 2006 levels.
    We are a Nation long at war, facing an era of persistent 
conflict. Our soldiers and families are stretched. We are an 
Army out of balance, and we are consuming our readiness as fast 
as we build it. But, our Army remains strong. It's stretched, 
it's out of balance, but it's resilient. Those who seek 
parallels with the hollow Army of the late 1970s will not find 
it. There are 170,000 young men and women who proudly join our 
Army every year, and 120,000 proudly re-enlist every year. 
They're volunteer soldiers, they're volunteer families, they're 
proud of who they are, and they're proud of what they do. We 
all are inspired by their service and humbled by their 
sacrifice.
    Mr. Chairman, members of this committee, thank you for your 
ongoing support of our soldiers and their families, for the 
resources and authorities that you provide us every year. Thank 
all of you for traveling all over this globe to meet with 
soldiers, and expressing your appreciation to them for the job 
they're doing; that means a great deal to them. Thank you for 
your partnership in building this great American Army.
    Thank you, Mr. Chairman.
    [The joint prepared statement of Secretary Geren and 
General Casey follows:]
 Joint Prepared Statement by Hon. Pete Geren and GEN George W. Casey, 
                                Jr., USA
    Our Nation has been at war for over 6 years. Our Army--Active, 
Guard and Reserve--has been a leader in this war and has been fully 
engaged in Iraq, Afghanistan, and defending the homeland. We also have 
provided support, most notably by the Army National Guard and Army 
Reserve, to civil authorities during domestic emergencies. Today, of 
the Nation's nearly 1 million soldiers, almost 600,000 are serving on 
active duty and over 250,000 are deployed to nearly 80 countries 
worldwide.
    We live in a world where global terrorism and extremist ideologies 
threaten our safety and our freedom. As we look to the future, we 
believe the coming decades are likely to be ones of persistent 
conflict--protracted confrontation among state, non-state, and 
individual actors who use violence to achieve their political and 
ideological ends. In this era of persistent conflict, the Army will 
continue to have a central role in implementing our national security 
strategy.
    While the Army remains the best led, best trained, and best 
equipped Army in the world, it is out of balance. The combined effects 
of an operational tempo that provides insufficient recovery time for 
personnel, families, and equipment, a focus on training for 
counterinsurgency operations to the exclusion of other capabilities, 
and Reserve components assigned missions for which they were not 
originally intended nor adequately resourced, result in our readiness 
being consumed as fast as we can build it. Therefore, our top priority 
over the next several years is to restore balance through four 
imperatives: Sustain, Prepare, Reset, and Transform.
    The Army's strength is its soldiers--and the families and Army 
civilians who support them. The quality of life we provide our soldiers 
and their families must be commensurate with their quality of service. 
We will ensure that our injured and wounded warriors, and their 
families, receive the care and support they need to reintegrate 
effectively into the Army or back into society. We never will forget 
our moral obligation to the families who have lost a soldier in service 
to our Nation.
    We are grateful for the support and resources we have received from 
the Secretary of Defense, the President, and Congress. To fight the 
wars in Afghanistan and Iraq, transform to meet the evolving challenges 
of the 21st century, and to regain our balance by 2011, the Army will 
require the full level of support requested in this year's base budget 
and global war on terror request.

          ``The U.S. Army today is a battle-hardened force whose 
        volunteer soldiers have performed with courage, 
        resourcefulness, and resilience in the most grueling 
        conditions. They've done so under the unforgiving glare of the 
        24-hour news cycle that leaves little room for error, serving 
        in an institution largely organized, trained, and equipped in a 
        different era for a different kind of conflict. They've done 
        all this with a country, a government--and in some cases a 
        Defense Department--that has not been placed on a war 
        footing.'' Secretary of Defense, Honorable Robert M. Gates, 
        October 10, 2007, AUSA Annual Meeting

    The Army--Active, Guard, and Reserve--exists to protect our Nation 
from our enemies, defend our vital national interests and provide 
support to civil authorities in response to domestic emergencies. Our 
mission is to provide ready forces and land force capabilities to the 
combatant commanders in support of the National Security Strategy, the 
National Defense Strategy, and the National Military Strategy.
    While what the Army does for the Nation is enduring, how we do it 
must adapt to meet the changing world security environment. We are in 
an era of persistent conflict which, when combined with our ongoing 
global engagements, requires us to rebalance our capabilities. We do 
this remembering that soldiers, and the families who support them, are 
the strength and centerpiece of the Army. while our Nation has many 
strengths, in time of war, America's Army is the strength of the 
Nation.
            strategic context: an era of persistent conflict
    Persistent conflict and change characterize the strategic 
environment. We have looked at the future and expect a future of 
protracted confrontation among state, non-state, and individual actors 
who will use violence to achieve political, religious, and other 
ideological ends. We will confront highly adaptive and intelligent 
adversaries who will exploit technology, information, and cultural 
differences to threaten U.S. interests. Operations in the future will 
be executed in complex environments and will range from peace 
engagement, to counterinsurgency, to major combat operations. This era 
of persistent conflict will result in high demand for Army forces and 
capabilities.
         trends creating the conditions for persistent conflict
    The potential for cascading effects from combinations of events or 
crises arising from the trends described below compounds the risk and 
implications for the United States.
                      globalization and technology
    Increased global connectivity and technological advances will 
continue to drive global prosperity--yet they also will underscore 
disparities, such as in standards of living, and provide the means to 
export terror and extremism around the world. Globalization accelerates 
the redistribution of wealth, prosperity, and power, expanding the have 
and have not conditions that can foster conflict. The scale of this 
problem is evident in the projection that 2.8 billion people are 
expected to be living below the poverty line by 2025. While advances in 
technology are benefiting people all over the world, extremists are 
exploiting that same technology to manipulate perceptions, export 
terror, and recruit the people who feel disenfranchised or threatened 
by its effects.
                               radicalism
    Extremist ideologies and separatist movements will continue to have 
an anti-western and anti-U.S. orientation. Radical and religious 
extremist groups, separatists, and organizations that support them are 
attractive to those who feel victimized or threatened by the cultural 
and economic impacts of globalization. The threats posed by Sunni 
Salafist extremists, like al Qaeda, as well as Shia extremists with 
Iranian backing, represent a major strategic challenge.
                           population growth
    The likelihood of instability will increase as populations of 
several less-developed countries will almost double in size by 2020--
most notably in Africa, the Middle East, and South and Southeast Asia. 
The youth bulge created by this growth will be vulnerable to anti-
government and radical ideologies and will threaten government 
stability. This situation will be especially true in urban areas in 
which populations have more than doubled over the last 50 years.
    By 2025, urban areas with concentrations of poverty will contain 
almost 60 percent of the world's population.
                          resource competition
    Competition for water, energy, goods, services, and food to meet 
the needs of growing populations will increase the potential for 
conflict. Demand for water is projected to double every 20 years. By 
2015, 40 percent of the world's population will live in water-stressed 
countries. By 2025, global energy demands are expected to increase by 
40 percent, threatening supplies to poor and developing nations.
                  climate change and natural disasters
    Climate change and other projected trends will compound already 
difficult conditions in many developing countries. These trends will 
increase the likelihood of humanitarian crises, the potential for 
epidemic diseases, and regionally destabilizing population migrations. 
Desertification is occurring at nearly 50,000-70,000 square miles per 
year. Today more than 15 million people are dying annually from 
communicable diseases. The number of people dying each year could grow 
exponentially with increases in population density and natural 
disasters.
              proliferation of weapons of mass destruction
    The diffusion and increasing availability of technology increases 
the potential of catastrophic nuclear, biological, and chemical 
attacks. Many of the more than 1,100 terrorist groups and organizations 
are actively seeking weapons of mass destruction.
                              safe havens
    States that are unable or unwilling to exercise control within 
their borders create the potential for global and regional groups to 
organize and export terror. Territories under the control of renegade 
elements or separatist factions will challenge central government 
authority, potentially creating a base from which to launch broader 
security threats. The trends that fuel persistent conflict characterize 
the strategic environment now and into the future and will require 
integration of all elements of our national power (diplomatic, 
informational, economic, and military) to achieve our national 
objectives. The implication for the Army is the need to be modernized, 
expeditionary and campaign capable, and prepared to operate across the 
full spectrum of conflict.
       challenges of providing forces with the right capabilities
    The Army recruits, organizes, trains, and equips soldiers who 
operate as members of joint, interagency, and multinational teams. The 
Army also provides logistics and other support to enable our joint and 
interagency partners to accomplish their missions, as well as support 
civil authorities in times of national emergencies. Responding to the 
strategic environment and the national security strategy that flows 
from it, we are building an expeditionary and campaign quality Army. 
Our expeditionary Army is capable of deploying rapidly into any 
operational environment, conducting operations with modular forces 
anywhere in the world, and sustaining operations as long as necessary 
to accomplish the mission. To fulfill the requirements of today's 
missions, including the defense of the homeland and support to civil 
authorities, approximately 591,000 soldiers are on active duty 
(currently 518,000 Active component, 52,000 Army National Guard, and 
21,000 Army Reserve). Forty-two percent (251,000) of our soldiers are 
deployed or forward-stationed in 80 countries around the world. 
Additionally, more than 237,000 Army civilians are performing a variety 
of missions vital to America's national defense. Of these, more than 
4,500 are forward deployed in support of our soldiers.
    Our current focus is on preparing forces and building readiness for 
counterinsurgency operations in Iraq and Afghanistan. Despite this 
current and critical mission, the Army also must be ready to provide 
the combatant commanders with the forces and capabilities they need for 
operations anywhere around the world, ranging from peace-time military 
engagement to major combat operations. Examples of Army capabilities 
and recent or ongoing operations other than combat include the 
following:

        <bullet> Supporting the defense of South Korea, Japan, and many 
        other friends, allies, and partners
        <bullet> Conducting peacekeeping operations in the Sinai 
        Peninsula and the Balkans
        <bullet> Conducting multi-national exercises that reflect our 
        longstanding commitments to alliances
        <bullet> Continuing engagements with foreign militaries to 
        build partnerships and preserve coalitions by training and 
        advising their military forces
        <bullet> Participating, most notably by the Army National 
        Guard, in securing our borders and conducting operations to 
        counter the flow of illegal drugs
        <bullet> Supporting civil authorities in responding to domestic 
        emergencies, including natural disasters and threats at home 
        and abroad
        <bullet> Supporting interagency and multi-national partnerships 
        with technical expertise, providing critical support after 
        natural disasters, and promoting regional stability
        <bullet> Supporting operations to protect against weapons of 
        mass destruction and block their proliferation

    It is vital that our Army ensures that units and soldiers have the 
right capabilities to accomplish the wide variety of operations that we 
will conduct in the 21st century. Continuous modernization is the key 
to enhancing our capabilities and maintaining a technological advantage 
over any enemy we face. We never want to send our soldiers into a fair 
fight.
    Future Combat Systems (FCS) are the core of our modernization 
effort and will provide our soldiers an unparalleled understanding of 
their operational environment, increased precision and lethality, and 
enhanced survivability. These improved capabilities cannot be achieved 
by upgrading current vehicles and systems. FCS will use a combination 
of new manned and unmanned air and ground vehicles, connected by robust 
networks, to allow soldiers to operate more effectively in the complex 
threat environments of the 21st century. Maintaining our technological 
edge over potential adversaries, providing better protection, and 
giving our soldiers significantly improved capabilities to accomplish 
their mission are the reasons for FCS. FCS capabilities currently are 
being tested at Fort Bliss, TX. They are proving themselves valuable in 
the current fight and are being fielded to our soldiers in Iraq. FCS 
and their capabilities will continue to be integrated into the force 
over the next 20 years.
 two critical challenges: restoring balance and funding an army out of 
                                balance
    Today's Army is out of balance. The current demand for our forces 
in Iraq and Afghanistan exceeds the sustainable supply and limits our 
ability to provide ready forces for other contingencies. While our 
Reserve components are performing magnificently, many Reserve component 
units have found themselves assigned missions for which they were not 
originally intended nor adequately resourced. Current operational 
requirements for forces and insufficient time between deployments 
require a focus on counterinsurgency training and equipping to the 
detriment of preparedness for the full range of military missions.
    We are unable to provide a sustainable tempo of deployments for our 
soldiers and families. Soldiers, families, support systems, and 
equipment are stretched and stressed by the demands of lengthy and 
repeated deployments, with insufficient recovery time. Equipment used 
repeatedly in harsh environments is wearing out more rapidly than 
programmed. Army support systems, designed for the pre-September 11 
peacetime Army, are straining under the accumulation of stress from 6 
years at war. Overall, our readiness is being consumed as fast as we 
build it. If unaddressed, this lack of balance poses a significant risk 
to the All-Volunteer Force and degrades the Army's ability to make a 
timely response to other contingencies.
                           restoring balance
    We are committed to restoring balance to preserve our All-Volunteer 
Force, restore necessary depth and breadth to Army capabilities, and 
build essential capacity for the future. Our plan will mitigate near-
term risk and restore balance by 2011 through four imperatives: 
Sustain, Prepare, Reset and Transform.
                                sustain
    To sustain our soldiers, families, and Army civilians in an era of 
persistent conflict we must maintain the quality and viability of the 
All-Volunteer Force and the many capabilities it provides to the 
Nation. Sustain ensures our soldiers and their families have the 
quality of life they deserve and that we recruit and sustain a high 
quality force.
    Goals for Sustain:

        <bullet> Offer dynamic incentives that attract quality recruits 
        to meet our recruiting objectives for 2008 and beyond
        <bullet> Provide improved quality of life and enhanced 
        incentives to meet our retention objectives for 2008 and beyond
        <bullet> Continue to improve the quality of life for Army 
        families by implementing the Army Family Covenant and other 
        programs that: standardize services, increase the accessibility 
        and quality of health care, improve housing and installation 
        facilities, provide excellence in schools and youth services, 
        and expand spousal education and employment opportunities
        <bullet> Continue to improve care for wounded warriors and 
        warriors in transition through a patient-centered health care 
        system, Soldier and Family Assistance Centers, and improved 
        Warrior Transition Unit facilities
        <bullet> Continue to support families of our fallen with 
        sustained assistance that honors the service of their soldiers
                                prepare
    To prepare our solders, units, and equipment we must maintain a 
high level of readiness for the current operational environments, 
especially in Iraq and Afghanistan.
    Goals for Prepare:

        <bullet> Continue to adapt and enhance the rigor of 
        institutional, individual, and operational training to enable 
        soldiers to succeed in complex 21st century security 
        environments
        <bullet> Train soldiers and units to conduct full spectrum 
        operations with improved training ranges to operate as part of 
        a joint, interagency, or multi-national force
        <bullet> Provide soldiers the best equipment through the Rapid 
        Fielding Initiative, the Rapid Equipping Force, and 
        modernization efforts
        <bullet> Partner with private industry to rapidly develop and 
        field equipment needed on today's battlefield
        <bullet> Continue to improve the Army Force Generation process 
        which increases the readiness of the operating force over time 
        by generating recurring periods of availability of trained, 
        ready, and cohesive units
                                 reset
    To reset our force we must prepare our soldiers, units, and 
equipment for future deployments and other contingencies.
    Goals for Reset:

        <bullet> Develop an Army-wide reset program that repairs, 
        replaces, and recapitalizes equipment that our soldiers need
        <bullet> Retrain our soldiers to accomplish the full spectrum 
        of missions they will be expected to accomplish
        <bullet> Revitalize our soldiers and families through 
        implementation and full resourcing of the Soldier Family Action 
        Plan (SFAP) and our warrior care and transition programs
                               transform
    To transform our force, we must continuously improve our ability to 
meet the needs of the combatant commanders in a changing security 
environment.
    Goals for Transform:

        <bullet> Help balance our force and increase capacity to 
        provide sufficient forces for the full range and duration of 
        current operations and future contingencies by growing as 
        quickly as possible
        <bullet> Upgrade and modernize to remain an agile and globally 
        responsive force with FCS as the core of our modernization 
        effort
        <bullet> Continue organizational change through modularity and 
        rebalancing to become more deployable, tailorable, and 
        versatile
        <bullet> Improve expeditionary contracting and financial and 
        management controls
        <bullet> Continue to adapt institutions and the processes, 
        policies, and procedures, including business practices, to more 
        effectively and efficiently support an expeditionary Army at 
        war
        <bullet> Complete the transition of the Reserve component to an 
        operational Reserve and change the way we train, equip, 
        resource, and mobilize Reserve component units
        <bullet> Integrate Grow the Army initiative, Base Realignment 
        and Closure (BRAC), Global Defense Posture Realignment, and the 
        operation of installations and facilities to increase 
        readiness, improve efficiency, and improve the quality of life 
        for our soldiers, families, and Army civilians
        <bullet> Develop agile and adaptive leaders who can operate 
        effectively in joint, interagency, intergovernmental, and 
        multi-national environments
      compelling needs for sustain, prepare, reset, and transform
    To achieve balance through the four imperatives, the Army will 
require sustained, timely, and predictable base budget and global war 
on terror funding. The Army's compelling needs for fiscal year 2009 
are:
                            support and fund
        <bullet> Recruiting and retention incentives and benefits to 
        enable Active and Reserve components to meet end strength 
        objectives and achieve Army standards for recruit quality
        <bullet> Quality of life programs to sustain our soldiers' and 
        Army civilians' commitment to serve and the continued support 
        of our Army families
        <bullet> Programs to help our wounded, ill, and injured 
        Warriors in Transition to return to duty or to civilian life
        <bullet> BRAC and military construction to execute the Army's 
        global repositioning plan
        <bullet> Operations and maintenance for air and ground 
        operations, depot maintenance, base operations, and space and 
        missile defense capabilities
        <bullet> Leader training and development to make soldiers 
        culturally astute and better able to integrate and complement 
        the other elements of national power (diplomatic, 
        informational, and economic)
        <bullet> Efforts to develop technical and procedural solutions 
        to defeat the threat of improvised explosive devices
        <bullet> The Rapid Equipping Force
        <bullet> Equipment repair, replacement, and recapitalization 
        programs
        <bullet> Retraining soldiers to execute their new and future 
        missions
        <bullet> Programs to revitalize our soldiers and families as 
        they reintegrate after deployments
        <bullet> End-strength growth of approximately 74,000 by 2010.
        <bullet> Army modernization programs including FCS, aviation, 
        Patriot PAC-3, LandWarNet, intelligence, logistics automation, 
        and other advanced technologies
        <bullet> Planned modular transformations in 2009--two Brigade 
        Combat Teams and 13 support brigades
        <bullet> Transformation of the Reserve components to an 
        operational Reserve

          ``America's ground forces have borne the brunt of 
        underfunding in the past and the bulk of the costs--both human 
        and material--of the wars of the present. By one count, 
        investment in Army equipment and other essentials was 
        underfunded by more than $50 billion before we invaded Iraq. By 
        another estimate, the Army's share of total defense investments 
        between 1990 and 2005 was about 15 percent. So resources are 
        needed not only to recoup from the losses of war, but to make 
        up for the shortfalls of the past and to invest in the 
        capabilities of the future.''--Secretary of the Defense, 
        Honorable Robert M. Gates, October 10, 2007, AUSA Annual 
        Meeting
                           funding challenges
    Recruiting and retaining the most combat-experienced Army in our 
Nation's history require predictable and sustained funding. Sustaining 
this high-quality and professional All-Volunteer Force will not be 
possible without investing in and supporting our quality of life 
efforts and providing competitive pay and benefits. As a manpower-
intensive organization, we will continue to spend the bulk of our funds 
to sustain people and maintain vital infrastructure, but we also must 
maintain investment in equipment and technology required for future 
readiness.
    To support our soldiers, the centerpiece of the Army, we must 
rebuild and recapitalize our equipment including vehicles and weapons 
systems, maintain readiness for current operational demands, and build 
readiness for future challenges. It takes years beyond the end of 
hostilities to complete rebuilding and recapitalizing equipment. The 
fact that the number of vehicles and weapon systems currently in Army 
depots are sufficient to equip five Brigade Combat Teams and one Combat 
Aviation Brigade demonstrates the importance of timely recapitalization 
and reconditioning.
                the fiscal year 2009 president's budget
    The fiscal year 2009 President's budget requests $140.7 billion for 
the Army. This request and the amounts in the global war on terror 
request are necessary to support current operations, fight the wars in 
Iraq and Afghanistan, sustain the All-Volunteer Force, and prepare for 
future threats to the Nation. This year the President approved 
accelerating the end strength of the Army's Active component to 547,000 
and the Army National Guard to 358,200 by 2010.
    The Army Reserve will increase in size to 206,000 by 2013. This 
most significant increase in the fiscal year 2009 budget is the result 
of permanent end strength increases of 44,300 soldiers in two 
components: 43,000 in the Active component and over 1,300 in the Army 
National Guard. The Army's fiscal year 2009 budget includes $15.1 
billion for all the costs associated with Grow the Army, which is an 
increase of $7.4 billion over the costs of this initiative in fiscal 
year 2008. This growth will enhance combat capabilities, help meet 
global force demand, and reduce stress on deployable personnel. Amounts 
requested by major appropriation category in the fiscal year 2009 
President's budget as well as the change from the amounts enacted in 
fiscal year 2008 are:
                           military personnel
    The fiscal year 2009 budget requests $51.8 billion, a $5.5 billion 
increase from fiscal year 2008. This includes $4 billion for Grow the 
Army, an increase of $3.4 billion over fiscal year 2008. This amount 
also funds pay, benefits, and associated personnel costs for 1,090,000 
soldiers: 532,400 Active, 352,600 Army National Guard, and 205,000 Army 
Reserve. The global war on terror request will fund special pays and 
incentives and the mobilization of Reserve component soldiers.
                       operation and maintenance
    The fiscal year 2009 budget requests $40.2 billion, a $3.6 billion 
increase from fiscal year 2008. This includes $2.6 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds training and sustainment of Army forces and includes the 
maintenance of equipment and facilities. The global war on terror 
request will fund the day-to-day cost of the war, training to prepare 
units for deployment, and the reset of forces returning from 
deployment.
                              procurement
    The fiscal year 2009 budget requests $24.6 billion, a $2 billion 
increase from fiscal year 2008. This includes $4.2 billion for Grow the 
Army, an increase of $100 Million from fiscal year 2008. This increase 
continues procurement of weapons systems for the Army to include the 
Non-Line of Sight Cannon, an FCS-designed system. The global war on 
terror Request will fund procurement of weapon systems to improve force 
readiness and replace battle losses and the reset of forces returning 
from deployment.
              research, development, test, and evaluation
    The fiscal year 2009 budget requests $10.5 billion, approximately 
the same amount requested last year, but a $1.5 billion decrease in the 
amount appropriated in fiscal year 2008. The fiscal year 2009 request 
reflects a $100 million decrease to the FCS research, development, 
test, and evaluation as the programs transition to procurement.
  construction, base realignment and closure, and army family housing
    The fiscal year 2009 budget requests $11.4 billion, a $1.8 billion 
increase from fiscal year 2008. This includes $4.3 billion for Grow the 
Army, an increase of $1.9 billion from fiscal year 2008. The increase 
funds the construction of facilities to support the growth and 
restationing of Army Forces. The global war on terror request will fund 
construction in and around the Iraq and Afghanistan theaters of 
operation.
                             other accounts
    The Army executes the Chemical Agents and Munitions Destruction 
Program. Funding for this account is stable at $1.6 billion in fiscal 
year 2008 and fiscal year 2009. The Army also has fiscal responsibility 
for the Iraq Security Forces Fund (ISFF), Afghanistan Security Forces 
Fund (ASFF), and Joint Improvised Explosive Device Defeat Organization 
(JIEDDO) appropriations. The Army budgets for recurring sustainment 
costs of JIEDDO with fiscal year 2009 at $500 million, an increase of 
$400 million from fiscal year 2008. The global war on terror request 
will fund JIEDDO initiatives. The ISFF and ASFF are funded entirely 
through the global war on terror request.
                        restoring fiscal balance
    Timely and full funding of the Army's fiscal year 2009 request of 
$140.7 billion will ensure the Army is ready to meet the needs of the 
Nation and continue the process of putting us back in balance. However, 
it is important to note that over the last 6 years, the Army has 
received increasing proportions of its funding through supplemental and 
global war on terror appropriations. This recurring reliance on global 
war on terror funds and a natural overlap between base and global war 
on terror programs means that the Army's base budget does not fully 
cover the cost of both current and future readiness requirements. 
Because the global war on terror planning horizon is compressed and the 
timing and amount of funding is unpredictable, some base programs would 
be at risk if supplemental funding is precipitously reduced or delayed. 
An orderly restoration of the balance between base and global war on 
terror requirements is essential to maintain Army capabilities for 
future contingencies.
    Our goals are to be good stewards of the resources we are provided 
by Congress and to free human and financial resources for higher 
priority operational needs. Through the use of innovations such as Lean 
Six Sigma we are improving support to our people while reducing waste 
and inefficiencies. Integral to achieving our goals is the development 
of an Army-wide cost-management culture in which leaders better 
understand the full cost of the capabilities they use and provide and 
incorporate cost considerations into their planning and decisionmaking. 
This approach will enable us to achieve readiness and performance 
objectives more efficiently. Concurrently, we are strengthening our 
financial and management controls to improve contracting in 
expeditionary operations and ensure full compliance with the law and 
regulations.
    Our goal to improve long-term sustainability will be achieved 
through effective stewardship of human, financial, and natural 
resources. Some examples of our ongoing initiatives include:

        <bullet> Adjusting our national and global footprint to improve 
        efficiency and sustainability
        <bullet> Transforming installations, depots, arsenals, and the 
        information network that connects them to become more 
        effective, energy efficient, and environmentally conscious
        <bullet> Transforming the Army's training, structure, systems, 
        and processes to better sustain and prepare the force
        <bullet> Adapting our activities to protect the environment
        <bullet> Our accomplishments over the past year further 
        illustrate our commitment to improving efficiency and 
        effectiveness throughout the Army.
                          army accomplishments
        <bullet> Initiated the Army Medical Action Plan to improve 
        medical care for our wounded warriors
        <bullet> Initiated the SFAP bringing to life the Army Family 
        Covenant
        <bullet> Initiated Soldier Family Assistance Centers throughout 
        the Army to provide a single point of entry for families and 
        wounded warriors for health care and related issues
        <bullet> Recognized with the prestigious Malcolm Baldrige 
        Award; the Army Armament, Research and Development Engineering 
        Center is the only organization in the Federal Government to 
        have received this honor
        <bullet> Recognized for world-class excellence in 
        manufacturing, the Army Materiel Command's depots and arsenals 
        earned 12 Shingo public sector awards
        <bullet> Formed the Army Contracting Task Force to review 
        current contracting operations and then immediately began 
        implementing improvements
        <bullet> Converted approximately 10,000 military positions to 
        civilian positions through the end of fiscal year 2007
        <bullet> Privatized more than 4,000 homes, bringing the total 
        to over 75,000 homes that are privately managed
        <bullet> Reduced energy consumption on our installations 
        through fiscal year 2007, achieving levels down 8.4 percent 
        since 2003 and 28.9 percent since 1985
        <bullet> Reset 123,000 pieces of equipment, including 1,700 
        tracked vehicles, 15,000 wheeled vehicles, 550 aircraft, and 
        7,400 generators
        <bullet> Improved property accountability by providing Army 
        wide visibility of 3.4 billion items valued in excess of $230 
        billion
        <bullet> Destroyed over 15,000 tons of chemical agent contained 
        in 1.8 million chemical munitions and containers
        <bullet> Moved 10 million square feet of unit cargo in support 
        of the global war on terror and humanitarian aid missions
        <bullet> Merged the Joint Network Node program into the 
        Warfighter Information Network-Tactical, resulting in better 
        integration and cost savings
        <bullet> Began fielding Mine Resistant Ambush Protected 
        vehicles to units in Iraq
        <bullet> Established the Army Evaluation Task Force and fielded 
        first `spin-outs' from FCS
        <bullet> Developed the Automated Reset Management Tool to 
        provide a collaborative integrated tool for equipment reset 
        planning and execution of the Army Force Generation process
        <bullet> Increased the rigor in training new soldiers by 
        requiring graduates of basic training to be Combat Lifesaver 
        certified
        <bullet> Fielded Human Terrain Teams to assist commanders in 
        gaining objective knowledge of a population's social groups, 
        interests, and beliefs
        <bullet> Employed National Guard soldiers worldwide who aided 
        in seizing nearly 4,000 vehicles, approximately a million 
        pounds of marijuana, and roughly 600,000 pounds of cocaine

    While we are proud of these accomplishments, we continue to 
identify and pursue additional ways to improve our stewardship, 
efficiency, and effectiveness throughout the Army.
                 preserving the strength of the nation
    The Army has been at war for over 6 years. Our soldiers have 
demonstrated valor, endured countless hardships, and made great 
sacrifices. Over 3,000 soldiers have died and many more have been 
wounded. The awards our soldiers have earned reflect their 
accomplishments and bravery on the battlefield. Our Army families have 
stood shoulder-to-shoulder with their soldiers throughout these 
challenging times.
    Our examination of the current and future security environments 
confirms the need to restore balance and build readiness across all 
components of the Army as quickly as possible. Four imperatives--
Sustain, Prepare, Reset, and Transform--frame how the Army will restore 
balance by 2011 and begin to build readiness for the future. To 
accomplish our plan, we will continue to require timely and predictable 
resources and support.
    The Army will remain central to successfully achieving U.S. 
national security objectives, particularly in an era in which 
operations will be waged increasingly among people in urban 
environments. As the decisive ground component of the joint and 
interagency teams, the Army operates across the full spectrum of 
conflict to protect our national interests and affirm our Nation's 
commitment to friends, allies, and partners worldwide. Our goal is a 
more agile, responsive, campaign-quality and expeditionary Army with 
modern networks, surveillance sensors, precision weapons, and platforms 
that are lighter, less logistics dependent, and less manpower 
intensive.
    As we restore balance and build readiness for the future, we 
continue to invest in our centerpiece--soldiers--and the families that 
support them. Of the million soldiers in uniform, over half of them are 
married, with more than 700,000 children. The Army Family Covenant, the 
SFAP, and the Army Medical Action Plan are examples of our commitment 
to caring for our soldiers, families, and Army civilians in these 
challenging times. With the continued support from the Secretary of 
Defense, the President, and Congress for our legislative and financial 
needs, the Army will restore balance, build the readiness necessary in 
an era of persistent conflict, and remain the strength of the Nation.

    Chairman Levin. Thank you, Secretary Geren.
    General Casey?

  STATEMENT OF GEN GEORGE W. CASEY, JR., USA, CHIEF OF STAFF, 
                              ARMY

    General Casey. Thank you, Mr. Chairman, Senator Inhofe, 
members of the committee.
    The chairman mentioned the fact that the Secretary and I 
were here in November, and, really, with the exception of some 
of the returning surge forces, not much has changed in the last 
90 days. That said, I'd like to re-emphasize some of the themes 
that the Secretary and I highlighted, but do it in the context 
of the fiscal year 2009 budget that we're presenting today.
    As has been said, our country is in our 7th year of war, 
and our Army remains fully engaged on all fronts, both abroad 
and at home. I testified, in November, that I believed the next 
decade would be one of persistent conflict, a period that I 
described as a period of protracted confrontation among state, 
nonstate, and individual actors who are increasingly willing to 
use violence to achieve their political and ideological 
objectives.
    I also described to you some of the global trends that I 
think will exacerbate and prolong this period: the double-edged 
swords of globalization and technology, doubling populations in 
developing countries, competition for resources, proliferation 
of weapons of mass destruction and safe havens in ungoverned 
spaces. I said that our Army must be versatile enough to adapt 
rapidly to the unexpected circumstances that will result, and 
that we are building an agile, campaign-capable, expeditionary 
force that we need for this uncertain future.
    I also said that the cumulative effects of the last 6-plus 
years at war have left our Army out of balance, consumed by the 
current fight, and unable to do the things we know we need to 
do to properly sustain our All-Volunteer Force and restore our 
flexibility for an uncertain future.
    Now, Mr. Chairman, I wrestled hard to find the right words 
to describe the state of the Army, because, as the Secretary 
said, it remains a hugely resilient, professional, and combat-
seasoned force, but I think we all acknowledge that we are not 
where we need to be.
    I said that we have a plan that will, with your help, 
restore balance to our force, and that we've identified four 
imperatives that we must accomplish to put ourselves back in 
balance: sustain, prepare, reset, and transform. Let me just 
say a few words about each.
    First and foremost, we must sustain our soldiers, families, 
and Army civilians. They are the heart and soul of this Army, 
and they must be sustained in a way that recognizes their 
quality of service. The Secretary mentioned some of the 
initiatives we've taken. They will continue with your support.
    Second, prepare. We need to continue to prepare our forces 
for success in the current conflicts. We cannot flinch from our 
commitment to provide them the training, the equipment, and the 
resources to give them a decisive advantage over any enemy that 
they face.
    Third, reset. The harsh environments that we're operating 
in, and the frequent deployments, are taking their toll on our 
soldiers and their equipment. Reset is about returning our 
soldiers and our equipment to appropriate levels of readiness 
for future deployments and contingencies. In fiscal year 2007, 
you provided us the resources to begin properly resetting the 
force, and, as a result, we've made significant strides in 
restoring systems and capabilities to the force. In my mind, 
resources for reset are the difference between a hollow force 
and a versatile force for the future.
    Lastly, transform. Even as we work to put ourselves back in 
balance, we must continue to transform our Army into the agile 
campaign-capable expeditionary force that can meet the security 
needs of the Nation in the 21st century. For us, transformation 
is a holistic effort to adapt how we train, modernize, develop 
leaders, station forces, and support our soldiers, families, 
and civilians.
    To guide our transformation, we are releasing, this week, a 
new version of our capstone doctrine, field manual 3.0. This is 
the first revision of our capstone doctrine since 2001. It 
describes how we see the future security environment and 
provides a framework for Army forces to operate and succeed in 
that environment. It has five significant elements.
    First, it describes the complex and multidimensional 
operational environment of the 21st century, where we believe 
we will increasingly operate and fight among the people.
    Second, the manual elevates stability operations to the 
level of offense and defense, and describes an operational 
concept for full-spectrum operations, where Army forces 
simultaneously apply offense, defense, and stability operations 
to seize the initiative and to achieve decisive results.
    Third, it emphasizes the commander's role in battle command 
and describes an intellectual process of developing solutions 
to complex challenges our forces will face.
    Fourth, it emphasizes the importance of information 
superiority in achieving success in modern conflict.
    Fifth, it recognizes that our soldiers remain the 
centerpiece of our formations and our ultimate asymmetric 
advantage.
    Mr. Chairman, we believe that this doctrine will provide us 
a great start point from which to build on the experience of 
the past 7 years and to shape our Army for the future.
    So, that's our plan: sustain, prepare, reset, and 
transform. The last 2 years, you've given us the funding to 
begin the process of putting the Army back in balance. This 
budget before you, the war on terror supplemental that will 
accompany it, and the balance of the fiscal year 2008 war on 
terror supplemental, will allow this process to continue. We 
appreciate your support, and I'd like to give you a few 
examples about how we've worked hard to put the resources 
you've given us to good use.
    First, we've made great strides in the Army Medical Action 
Plan to provide better care for our wounded soldiers.
    Second, we've initiated an Army Soldier Family Action Plan 
to bring life to our Army Family Covenant to improve the 
quality of life for soldiers and families.
    Next, we are over 60 percent complete with the modular 
conversion of our units. This is the largest organizational 
transformation of the Army since World War II. We're also over 
60 percent complete with our conversion of our 120,000 soldiers 
from skills that were needed in the Cold War to ones we need 
for the 21st century. We've reset over 120,000 pieces of 
equipment. We've privatized more than 4,000 homes, bringing the 
total of privately managed homes to over 80,000. The depots in 
our Army Materiel Command had been recognized by commercial 
industry for efficiency 12 times. There's a Shingo Award that 
industry gives for efficiency, and our depots have won 12 of 
those in the last year. So, as you can see, with your help 
we're not sitting still, and we're moving out to give the 
Nation the Army it needs for the 21st century.
    Now, let me just close with some thoughts on quality.
    I was in Alaska right before Christmas, and I was asked to 
present a Distinguished Service Cross to Sergeant Greg 
Williams. Sergeant Williams was on a Stryker patrol in Baghdad 
in October 2006. His patrol came under attack from three 
directions and with an explosively formed penetrator array. 
Those are those very lethal armor-penetrating improvised 
explosive devices. He was knocked out. He awoke to find his 
Stryker on fire, to find his legs on fire, and his eardrum 
burst. He put out his flames, and his first reaction was to 
grab the aid bag and start treating his fellow soldiers, under 
fire. He realized that the lieutenant was still in the burning 
vehicle. He went back in the burning vehicle and dragged the 
lieutenant to safety. Continuing to fire at the enemy, he 
realized that no one was manning the .50 caliber machine gun on 
top of the Stryker. He returned to the burning vehicle a second 
time, a vehicle that still contained over 30 pounds of 
explosives and detonating cord. He got on the .50 caliber, 
brought the weapon to bear on the enemy, broke the ambush, and 
the squad was extracted.
    That's the kind of men and women that we have in your Armed 
Forces today, and you can be extremely proud of the job that 
they're doing all around the world.
    That said, it will require more than the courage and valor 
of our soldiers to ensure that our Army can continue to protect 
this country in an era of persistent conflict. It will require 
recognition by national leaders, like yourselves, of the 
threats and challenges that America faces in the years ahead. 
It will also require full, timely, and predictable funding to 
ensure that our Armed Forces are prepared to defeat those 
threats and to preserve our way of life.
    Thank you very much.
    Chairman Levin. Thank you so much, General.
    Let's try a 5-minute round of questions. It's very short, 
but we have five votes coming up, and I'm afraid it's necessary 
to hop, skip, and jump a bit. So, let's have a first round of 5 
minutes.
    According to the current model for planning the rotations 
of units into and out of Iraq and Afghanistan, the Army's 
assertion is that it can reduce the time deployed, from the 
current 15 months, as was necessary to support the surge at the 
beginning of last year, back to the pre-surge 12 months per 
rotation. Let me ask you, Secretary or General, either one, 
when are you going to return to the 12-months deployment? What 
assumptions, relative to drawdown, do you make in the answer 
which you give to that question?
    Secretary Geren. Let me begin, but then I'd like to ask 
General Casey. We've been working on this together, and I think 
that he could provide more details on the analysis.
    We can't say, with certainty. It is a top priority for our 
Army. We know 15-month deployments are too long, and we know 
that we cannot continue to sustain the readiness that we need 
to build in this Army if we aren't able to extend the dwell 
time. Everyone in the Army understands this challenge, the 
importance of it, and we're working to shorten the deployment 
times and lengthen the dwell times.
    Chairman Levin. What is your goal? Do you have a goal for 
when you're going to reach 12 months, in terms of deployment, 
and what you need to do, in terms of drawdown of deployments, 
in order to achieve that goal? You must have a goal.
    Secretary Geren. We have a goal, but so much depends upon 
the demand from theater, and we don't control that, obviously.
    Chairman Levin. Is there a timetable for it?
    Secretary Geren. This summer, we'd like to see us be able 
to put ourselves on track to get our deployments and our dwell 
time in a one-to-one ratio.
    Chairman Levin. Okay, now what would have to come from the 
theater, in terms of drawdown, in order for you to reach 12 
months; by when? Put it in shorthand for us. You have to draw 
down to what level in order to get to 12-month deployment.
    General Casey. In shorthand, Senator, if General Petraeus 
is able to execute the announced plan of getting to 15 brigades 
by July, it would be our goal, at that point, to return to 12-
month versus 15-month deployments.
    Chairman Levin. All right. If that pause that he says he 
favors continues, say, for 6 months, would you be able to 
continue that 12-month deployment?
    General Casey. You asked what assumptions we make.
    Chairman Levin. Yes.
    General Casey. If the brigade levels stay at 15 brigade 
combat teams, we believe it will still be possible, even with a 
pause, to go from 15 brigades to 12 brigades. That's our goal.
    Chairman Levin. Fifteen months.
    General Casey. I'm sorry, yes.
    Chairman Levin. Yes, 15 months.
    General Casey. Fifteen months to 12 months. Thank you.
    Chairman Levin. That's regardless of the length of the 
pause.
    General Casey. Yes. As long as we get to 15 brigades.
    Chairman Levin. Even if we stay at 15 brigades.
    General Casey. Even if we stay.
    Chairman Levin. All right.
    I want to talk about stop loss. How many soldiers do you 
expect that the Army's going to retain under stop-loss 
authority at the end of fiscal year 2008?
    Secretary Geren. We currently have a little less than 8,000 
on stop loss today. Our goal is to get rid of stop loss as a 
force management tool. That also will depend upon what happens 
in theater. If we get down to 15 brigades, for every brigade 
that is reduced, we're able to reduce stop loss further. DOD, 
the Department of State, and the leadership of the Army all 
committed to utilizing stop loss as seldom as possible. Right 
now, it's less than 8,000. Without some remarkable change, 
it'll probably be around that at the end of the fiscal year.
    Chairman Levin. If we stay at 15 brigades?
    Secretary Geren. It might get as low as 7,000, but we don't 
expect it to go much lower than that over the course of this 
fiscal year.
    Chairman Levin. All right. Last October, General, the Army 
requested $123 million to build Warrior Transition Unit and 
Soldier Family Assistance Center facilities. Our authorization 
conference fully funded that request. Now, the Army has 
identified requirements for a substantial increase in the 
number of, and the funding required for such facilities for 
fiscal year 2009, but there's no funding in the budget request 
for those facilities, and there's no request for assistance for 
wounded warriors or families on the unfunded requirements 
letter that you've provided to us. I'm wondering why that is 
true. General?
    General Casey. We have made great use of the funds that 
you've provided there, in building 35 Warrior Transition Units 
around the country. I visited one in Alaska last week, and am 
very impressed with the quality of what we're doing.
    As for the additional funding in the 2009 base program, I 
was under the impression that we did have money in there for 
Warrior Transition Units. The exact number escapes me right 
now.
    Chairman Levin. My understanding is, there isn't. If there 
isn't, should there be?
    Secretary Geren. We have used the supplementals to respond 
to many of the wounded warrior needs, Senator, and that is 
among the areas that we're looking to move into the base 
budget, ultimately; but, right now, since they are wounds of 
war and they are a response to the casualties of war, we are 
funding much of that in the supplementals. When we look at 
programs that we're going to need to move from the supplemental 
to the base, that is one of them.
    Chairman Levin. So, we can expect that's going to be part 
of the supplemental request if it's not in the budget?
    Secretary Geren. Yes, sir.
    [The information referred to follows:]

    Over the last year and with Congress' support, we have rapidly 
improved care for our wounded warriors. We requested much of this 
funding in global war on terror supplemental because of our need to 
respond immediately. With Congress' assistance, we are operating and 
building facilities to support 35 Warrior Transition Units. Our fiscal 
year 2008 global war on terror supplemental request includes $300 
million for this purpose. Once Congress completes its budget 
deliberations, we will be able to proceed with the construction portion 
($138 million) of these important projects and finalize our remaining 
requirements for the fiscal year 2009 global war on terror 
supplemental. In the long-term, timely and predictable funding is 
critical to ensure quality care for our wounded warriors. Starting with 
fiscal year 2010, we plan to include Army Medical Action Plan 
requirements in our budget request.

    Chairman Levin. Thank you.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    Secretary Geren, you and I were both serving together in 
the House in 1994, and you've heard me make this statement 
before about the witness that appeared before the House Armed 
Services Committee and projected that, in 10 years, we'd no 
longer need ground troops. That was 1994; I think what that 
does is emphasize that, no matter how smart we are and how many 
smart generals we have around us, if you try to project out 10 
years, you're going to be wrong. Right now, we're negotiating a 
war and you're fighting it, having started after we reduced the 
number of divisions and resources that we had. It looks like 
what you're saying in your testimony this morning is that this 
budget is going to allow us to do that. Is that your feeling 
now, that you can hold on with this budget and also address the 
four things that you mentioned, General Casey, the sustain, 
prepare, reset, and transform?
    Secretary Geren. I think we would agree, today, that we cut 
the Army way too much. This Army is about 40 percent the size 
that it was 35 years ago. In this budget and over the program 
objective memorandum, we're not only growing the Army, we're 
growing the Army faster than we planned. Our plan is to add 
74,000 soldiers to the Active Army and 65,000 to the Guard and 
Reserve. With this budget, we're moving the growth of the 
Active component up from 2012 to 2010, so we'll have completed 
that growth by then. So, we're going to have more soldiers. As 
the chief mentioned, it's not just a question of more soldiers, 
it's moving soldiers from low-demand, high-density military 
occupational specialties (MOSs) to high-demand, low-density. We 
are in the process of moving 120 soldiers out of their old MOSs 
into new MOSs. For example, the Reserves are getting 1,000 new 
soldiers under this Grow-the-Reserves plan, but they're going 
to, at the end of their transformation, have 17,000 more 
soldiers that are going to be available to the operational 
Army. So, it's growing the Army, but it's also transforming the 
Army, making sure that we have soldiers that can do what the 
demands of the future require.
    Senator Inhofe. General Casey, when you used your, for 
example, sustain, repair, reset, and transform, you weigh them 
all about the same, don't you? Equal emphasis?
    General Casey. Senator, I would weight ``sustain,'' taking 
of and retaining our soldiers, as a little heavier than I would 
the others but the others are equally important.
    Senator Inhofe. I guess what I'm getting at is, the problem 
normally is whatever is bleeding the most is going to get the 
most attention. That usually leaves transformation out, or 
moves it back. I'm very proud that you've been able to keep 
that where it is. I'd like to have you both comment on the 
current status of the FCS and how optimistic you are that 
you're going to be able to stay on schedule with that system.
    Secretary Geren. The cuts that we have taken in the program 
over the last 3 years will result in a delay. We're estimating 
now that it'll delay the program 7 months. We had expected to 
build eight of the non-line-of-sight (NLOS) cannons this year, 
we're going to build five this year, three the next. So, the 
changes in the FCS budget have affected the calendar, but we do 
believe that we're going to be able to stay on track and bring 
this program into the service of our soldiers.
    There's been a lot of questions about its affordability, 
but if you look at the $160 billion over the life of the FCS 
program, at no point does it get to be more than a third of 
research and development (R&D) and acquisition budget. So, our 
R&D budget is a fourth of our Army budget. At no point does it 
get more than a 12th of our Army budget. We believe it's 
affordable, and we believe it's an investment that we have to 
make.
    Senator Inhofe. General Casey?
    General Casey. If I could, thank you.
    You mentioned in your opening comments about some decisions 
that were made in the 1990s that resulted in the force that we 
had on September 11. If we think back to the 1990s, we were 
looking at what we thought was going to be a very peaceful 
future.
    Senator Inhofe. Yes, I remember the peace dividend, yes.
    General Casey. The lesson that I take from that is, you 
have to continue to look for the future. We believe that the 
FCS is exactly the full-spectrum system that we need for our 
future. In fact, when you look at this manual, you'll see that 
the things, like precision intelligence-collection abilities 
and precision effects that are required in full-spectrum 
operations in the 21st century, are exactly the kind of systems 
that the FCS will bring to us.
    This year is the year that you will be able to see some of 
the things that, up to now, you've only seen on slides. Last 
week, I visited Fort Bliss, TX, where we have an Army brigade 
that is actually testing some of the initial components of the 
FCS. There will be a limited user test this summer. You will 
also see the first prototype of the man-ground vehicle in June. 
So, this is going to go from the slides to reality, here, and I 
think you will be able to see them, and see the power of what 
we're trying to create.
    Senator Inhofe. I appreciate that. My time has expired, but 
I have this very strong feeling, as I talk to people around the 
country, that there are expectations that if our kids are going 
to go to war, they ought to have the best there is out there, 
and currently, they don't. We are deficient in some areas. You 
mentioned the NLOS cannon. That's one area where, it's my 
understanding, there are actually five countries, including 
South Africa, that make a better NLOS cannon than we have. 
That's something we want to correct, as difficult as it is 
while we're negotiating war, and I applaud you for your being 
steadfast in that area.
    Chairman Levin. Thank you very much.
    The votes have begun. Senator Reed is next, and then I 
would ask Senator Reed, when he's done, whoever's here, to 
identify them, if you would. Senator Lieberman, if you'll take 
this overall charge.
    Senator Reed [presiding]. Thank you very much, Mr. 
Chairman.
    Thank you, gentlemen, for your service.
    Last Sunday, I think many people woke up and read a very 
intriguing article in the New York Times magazine about a 
battle that a company of the 173rd Airborne Brigade had in 
Afghanistan. One of the things that struck me is a passage 
which I'll read, ``One full-moon night, I was sitting outside a 
sandbag-reinforced hut with Kearney,'' Captain Dan Kearney, a 
great young company commander, airborne, ``when a young 
sergeant stepped out, hauling the garbage. He looked around in 
the illuminated mountains and dust and rocks, the garbage bins. 
The monkeys were screaming. `I hate this country,' he shouted, 
then he smiled and walked back into the hut. `He's on 
medication,' Kearney said quietly to me. Then another soldier 
walked by and shouted, `Hey, I'm with you, sir.' Kearney said 
to me, `Prozac, serious PTSD from the last tour.' Another one 
popped out of the headquarters, cursing and muttering. 
`Medicated,' Kearney said. `Last tour, if you didn't give 
information, he'd burn down your house. He killed so many 
people, he's checked out.' ''
    I find it disturbing that we have soldiers that are 
suffering, and again, this is a snapshot of one unit in one 
very difficult situation, but soldiers appear to have serious 
psychological problems, that are taking antidepressants and are 
in combat operations on a daily basis. Does that undercut a lot 
of this rhetoric about how we're doing great, the Army's fine, 
we just need a little more resources?
    General Casey. Senator, I don't think either the Secretary 
or I said that everything's great and the Army's fine. I think, 
just to the contrary, we said that we are stretched. I think 
what you're seeing is the impact of repeated tours in a brutal 
combat environment. We all understand the impact and the toll 
that takes on our soldiers and on our leaders.
    Now, I trust our junior leaders, supported by their medical 
health professionals, to make individual judgments about the 
soldiers in their units. Clearly what you read there is 
troubling.
    Senator Reed. I can recall, we were both in command of 
companies, and I, in a benign environment, was not faced with 
those types of leadership challenges, as portrayed here, of 
significant and multiple situations of young soldiers who have 
serious mental health problems. It seems to be that this is not 
a reaction to their first exposure to combat. As you point out, 
General, this is because they're being repeatedly cycled 
through combat. I think, in other circumstances, these young 
men would have been evacuated, or certainly not sent back into 
the zone. That, I think, underscores what you've said is not 
only overstretched, but, in fact, stretched, in some cases, 
beyond the capacity of individual soldiers.
    General Casey. Yes, Senator, I don't know the specifics of 
this particular unit, but I think you know that we have 
started, last summer, a very concerted effort to reduce the 
stigma that people attach to seeking assistance for PTSD and 
other mental health problems, and to inform our subordinate 
leaders so that they can help in diagnosis. We have trained 
over 800,000 of our soldiers in that, and we're starting to see 
a reduction in the stigma and people willing to come forward 
and get treatment, because, as our research has shown us, the 
sooner we get soldiers into the system, the more likely they 
are to make a full recovery.
    Senator Reed. There's another quote I think is important in 
this article by Sergeant Erick Gallardo of the unit, ``we don't 
get supplies, assets. We scrounge for everything and live a lot 
more rugged, but we know the war is here, we have unfinished 
business,'' which I think speaks to the ethic of these young 
soldiers to carry on, but also raises a question of, do they 
have everything they need? We're not just talking about the 
new, fancy FCS, we're talking about the basic equipment to 
carry out the job they're doing now. I think I would be 
disturbed; are you disturbed? When young soldiers and 
noncommissioned officers (NCOs) are talking about, ``we don't 
have everything we need.''
    General Casey. Senator, I go out to the theater, just like 
you do, and I ask everybody I talk to, ``Do you have what you 
need?'' I called both General Rodriguez, who's the commander in 
Afghanistan, and General Austin, who's the commander in Iraq, 
yesterday, and I asked them, ``Do you have supply problems? Do 
you have shortages?'' Their answer was, ``There's no systemic 
shortages, and they're at their stockage levels.'' Now, at the 
platoon level, can there be spare-part shortages? Sure. But I 
know that the logistical systems between Afghanistan and Iraq 
are well-established, and we can usually take care of shortages 
in a relatively short period of time.
    Senator Reed. My time is expired. I want to recognize 
Senator Chambliss. But, just a question for the record or for 
contemplation. When Secretary Gates was here just a few weeks 
ago, and I asked him about the status of FCS, he said, rather 
candidly, ``I don't see how the Army could ever fund this 
system going forward.'' He's someone that I think we all 
respect, and he happens to be your boss. So, I think you have a 
problem, if the Secretary candidly and honestly feels that he 
can't fund FCS, and you're talking about this all coming to 
balance in 2011. I'll try to come back for a response, but I 
want that on the record, at least.
    General Casey. I can give you a short one here, that I've 
talked to Secretary Gates after he made that statement, and he 
indicated he has no basic problems with the program. As he 
said, he supports the spinout part of the program. But, as with 
anyone faced with, as the case you posed, the inevitability of 
reductions in resources, you have to look at a $162 billion 
program.
    Senator Reed. Thank you, Mr. Secretary.
    Senator Chambliss.
    Senator Chambliss [presiding]. Thank you, Senator Reed.
    Gentlemen, first of all, as always, thanks for your great 
service to our country. We appreciate both of you.
    I was pleased to see both of you focus on the issue of 
wounded warriors in your opening statement, and also pleased to 
see the accomplishments and progress the Army has made in 
treating wounded warriors, caring for the families, and 
ensuring that the deployment reintegration process is as 
seamless as possible.
    Secretary Geren, you were here a couple of weeks ago, when 
we had the hearing on wounded warriors, and I asked about the 
ongoing cooperation between Fort Gordon, the Augusta VA, and 
the Medical College of Georgia in relation to caring for 
wounded warriors, and I appreciate Lieutenant General 
Schoomaker's comments about the success of that collaboration. 
He deserves an awful lot of credit, and I probably didn't say 
enough about him that day, but he really did a great job when 
he was at Eisenhower relative to this issue, and he, frankly, 
gave a lot of credit to the farsighted vision of the people of 
the Augusta community for seeing a need for that partnership 
and making it work.
    Now, as we go forward regarding how the Army treats its 
wounded warriors and works to rehabilitate them either back 
into the Army or successfully into civilian life, how can the 
private sector participate with you in this regard? How can we 
help you? What kind of expertise, training, or resources might 
you be able to use from the private sector that would assist 
you in ensuring your wounded warriors receive the best 
treatment possible?
    Secretary Geren. Thank you and I'll pass along your kind 
words about General Schoomaker. He certainly did an outstanding 
job there, and he's doing an outstanding job as the Surgeon 
General for the Army today in a very challenging time. That 
collaboration between VA and the DOD at Fort Gordon and 
Eisenhower is outstanding, and it's one of the models that we 
look to, to emulate around the force. The community down there 
does an outstanding job supporting the military and VA, and we 
appreciate, very much, all they do.
    There are many areas that we have to look to the private 
sector to address challenges that come with meeting the needs 
of wounded, ill, and injured warriors. Last year, Congress gave 
us $900 million in the area of TBI and PTSD work. Much of those 
funds will be invested with outside research efforts in order 
to increase our knowledge in those areas, so we will look to 
the outside community for research. Our health care system 
today depends on TRICARE, and TRICARE depends on the private 
sector, and that is one of the great challenges we have across 
the system. Many of our Army installations are in rural areas, 
they have certain medical specialties that are underserved in 
those areas, and we have a challenge in many of these rural 
communities, particularly in the area of mental health care, 
and we need to look long and hard at the TRICARE system and our 
system of supporting mental health needs within the Army to 
figure out a good way ahead that meets this need of our 
soldiers and their families.
    Certainly, research is an area that the private sector will 
be a full partner. We have shortages throughout our system in 
the areas of mental health; we have shortages in nursing; we 
have shortages in dental care, and dental professionals as 
well. So, with the authorities you have given us, we are 
working with the private sector to try to meet these shortages. 
But, for us to be successful in meeting the healthcare needs of 
our soldiers, it will require a full partnership with the 
private sector.
    Senator Chambliss. I applaud you for taking giant steps and 
trying to make sure that these brave young men and women are 
getting the treatment they need when they come back, and we 
look forward to continuing to work with you in that respect.
    I think I'm going to have to go vote. I guess we'll be in 
recess, subject to the call of the Chair.
    Secretary Geren. All right. Thank you. [Recess.]
    Senator Collins [presiding]. The committee will be in 
order.
    At the suggestion of the chairman, we're rotating back and 
forth between the votes, and so, I'm going to proceed quickly 
with my question at this time. If someone else comes back, I'll 
turn over the gavel. It's nice to temporarily have the gavel.
    General Casey, the inadequate size of our Army has caused 
repeated and extended deployments for our troops, and this is a 
matter of great concern to all of us. You've talked this 
morning about the tremendous strain on our troops and their 
families. Another consequence of the inadequate size of our 
Army has been an unprecedented reliance on private security 
contractors in a war zone. Do you think that we have become 
over-reliant on private security contractors to perform tasks, 
in a hostile environment, that traditionally have been 
performed by our troops?
    General Casey. I would not say, Senator, that we are overly 
reliant, as you suggest. In the 1990s, as we discussed earlier, 
some decisions were made to reduce the size of the Army from 
780,000 down to around 482,000. As a result of that, we 
recognized that we would have to rely on contractors, primarily 
for logistics, but also for security.
    My recollection is that DOD is relying on about 7,000 
security contractors in theater right now. To me, that does not 
seem to be an inappropriate number, and the tasks they are 
performing, usually of providing individual or close-in 
security, are something that probably they could do better than 
our soldiers, and our soldiers can best be put to 
counterinsurgency-type operations.
    Senator Collins. Secretary Geren, the same question for 
you. Are you satisfied with the balance between having military 
personnel, versus private security contractors, in Iraq and 
Afghanistan, or do you believe that we've become too dependent 
on private security contractors, who are, for the first time, 
performing tasks that traditionally have been performed by our 
men and women in uniform?
    Secretary Geren. We have to allocate our soldiers and our 
contract resources according to the priorities of where each 
could serve best. It's not just private security contractors, 
but we've seen a tremendous growth in the number of private 
contractors that support a deployed Army. In Iraq and 
Afghanistan, we have close to 200,000 contractors. I think 
that's just a reality of the kind of Army we are today. When we 
deploy today, we will be roughly half in uniform and half out. 
As we've shrunk the size of the Army, we've had to look to 
contractors to provide many of the support functions that have 
traditionally been handled by soldiers. But, if the choice is 
between putting a soldier in one of those contract functions or 
putting a soldier out, fighting the counterinsurgency war, I 
think we're making the better choice.
    Senator Collins. The reason that I'm focusing particularly 
on the private security contractors is, unlike contract 
employees who are engaged in logistics, they are far more 
likely to be involved in a hostile incident; and, indeed, there 
have been several controversial cases in Iraq where private 
security contractors have been involved in firefights, and in 
some cases, have killed Iraqi civilians. Whether unprovoked or 
not is being investigated, even as we speak.
    Let me ask you a different question, then, General Casey. 
Are you confident that we have a clear legal authority to deal 
with private security contractors who may have killed Iraqi 
civilians without justification?
    General Casey. Senator, I cannot say that I am confident. I 
don't know the specifics of the agreement that was worked out 
between General Petraeus and the Ambassador. I know that they 
were working very hard to ensure that we could exercise 
appropriate jurisdiction over any contractor that committed, 
really, any offense that was punishable under the Uniform Code 
of Military Justice (UCMJ).
    Senator Collins. Doesn't the fact that that agreement did 
not previously exist suggest that the framework for dealing 
with such cases was legally tenuous or ambiguous?
    General Casey. Again, I can't speak to that. I think, as 
you suggest, the increasing reliance on contractors has caused 
us to expand what we needed to do to deal with them, and it was 
a learning experience, and I think we have continued to grow in 
our knowledge of what it takes to effectively exercise control 
over contractors.
    Senator Collins. General Casey, I am going to have to go 
return to the floor, but, in fact, there was not such a 
framework worked out while you were the commanding officer in 
Iraq, was there?
    General Casey. That's true. That's true. I had jurisdiction 
over the DOD contractors; the State Department had jurisdiction 
over theirs.
    Senator Collins. According to an investigation that the 
Homeland Security Committee has done, in some cases the only 
penalty for a contract employee was to be just given an airline 
ticket home. Does that trouble you?
    General Casey. I don't know that that is the case in every 
situation. I know that there were some contractors under our 
authority who were, in fact, punished. I certainly cannot say 
whether that was the case for all contractors operating in 
Iraq.
    Senator Collins. My time has expired, but I would just 
suggest that another consequence of having too small a military 
force, in addition to the one that concerns us most, which is 
the tremendous strain that repeated deployments and extended 
deployments imposes on our troops, our families, and in the 
case of the National Guard, the employers, as well. Another 
consequence has been a need to rely on private security 
contractors who are not under the UCMJ, necessarily, or who are 
not subject to the kinds of legal constraints and chain of 
command that military personnel are under. I think that's been 
a real issue.
    Thank you, Mr. Chairman.
    Chairman Levin [presiding]. Thank you very much, Senator 
Collins.
    Senator Lieberman.
    Senator Lieberman. Thanks very much, Mr. Chairman.
    General Casey, Secretary Geren, thanks for being here. 
Thanks for the extraordinary service you and over a million 
Americans who serve under you give our country. We're placing 
enormous demands on you, and, in my experience and review, the 
Army is meeting those demands with excellence, with honor, and 
with a lot of bravery, and, as a result, we're succeeding in 
places where it's not easy to succeed. So, I thank you for 
that.
    As you well know, in the nature of the process we go 
through on the budget, the administration presents the budget, 
and then we have a responsibility to independently evaluate, 
consider the threats and demands that we face, and then 
authorize to a level that we think meets those threats and 
demands. I want to focus on Army personnel, because, obviously, 
all the concern you've heard expressed here and elsewhere, 
about the 15-month tours of duty, is a result of the fact that 
we have fewer people in the Army than we should have, in my 
opinion. This fiscal year 2009 budget funds positions up to 
what number, Mr. Secretary? In the Active Army, that's what I 
want to focus on.
    Secretary Geren. In this budget, we add 43,000 soldiers, 
which had been in the supplemental, into the base budget. 
Today, we have 523,000 soldiers on Active Duty. At the end of 
the fiscal year, we'll have 534,000 on Active Duty.
    Senator Lieberman. Okay. So, let me ask you this question, 
just to enable us to go through the process that we have a 
responsibility to go through. I want to ask both of you to 
answer this. Knowing what you know about the demands we face 
today, what your ideals would be, and what other demands and 
threats we may face around the world, leaving aside the very 
relevant, but I want to ask you to leave it aside, question of 
resources and budgeting, how large do you think the Army should 
be?
    General?
    General Casey. That's hard to leave the budget out of that 
discussion.
    Senator Lieberman. I know, but I want to give both the 
committee and, frankly, the American people, some sense, though 
the budget is high, that----
    General Casey. What I have said in the past, Senator, is, 
we have a plan to increase the size of the Active Force by 
65,000.
    Senator Lieberman. So, that would bring us to 547,000.
    General Casey. That's the 547,000 that we're building to 
now.
    Senator Lieberman. You've accelerated, and I appreciate it, 
the pace at which we're going to do that, and we're doing it.
    General Casey. That's correct.
    Senator Lieberman. In other words, the original was over 5 
years.
    General Casey. It was going to go out through 2012 and, as 
the Secretary said, we accelerated the growth until 2010.
    Senator Lieberman. Right.
    General Casey. The purpose of that was to, again, take and 
reduce some of the stress on the force.
    Senator Lieberman. Sure. So, that's 547,000 by 2010.
    General Casey. That's correct.
    Senator Lieberman. Okay.
    General Casey. Now, the question really then goes to: for 
what? What size Army do you need for what? The next question, I 
think, for the Active Army, particularly is: what is the access 
to the Guard and to the Reserve?
    Senator Lieberman. Right.
    General Casey. We feel that to sustain the Guard and 
Reserve, a deployment ratio of about 1 to 5, 1 year out, 5 
years back, is sustainable. They're operating at about 1 to 
3\1/2\ right now.
    Senator Lieberman. One to 3\1/2\. Right.
    General Casey. So, my strategy has been, let's get to 
547,000.
    Senator Lieberman. Right.
    General Casey. Let's build that quality force, and let's 
continue what we're doing to increase the size of the Guard and 
Reserve, and then let's reassess, and let's have a discussion 
and a debate about how big the Army should, in fact, be.
    Senator Lieberman. So, you're not prepared to give a number 
about what your goal would be now.
    General Casey. No, I don't think so, Senator. If you're 
looking for broad parameters with the folks that are mobilized, 
there's around 600,000 people on Active Duty today.
    Senator Lieberman. So perhaps the goal there would be to 
have 600,000 on Active Duty.
    General Casey. I don't necessarily think so, because you go 
back to the question you don't want to discuss. The worst thing 
I believe we could do, Senator, is to build a force that 
wouldn't be the quality of this force. I came into a hollow 
Army, and I really don't want to go out of a hollow Army.
    Senator Lieberman. No, absolutely. That's exactly the 
point. I've been reading the things that others have said, 
including your predecessor, General Gordon Sullivan, he did a 
slightly larger universe, but he said the Army and Marines and 
Special Operations Forces ought to hit a total of 750,000. Let 
me put it a different way. The 750,000 is the current goal. 
General Sullivan talked about possibly hitting a million. I 
take your answers, and I'm not going to push you any further to 
say to me, and I'll say what I believe, myself, that the 
current goal of 547,000 is not enough, and we're going to have 
to come back, as we go on to meet the threats that we need to 
meet, and to do it with people who are capable to defend our 
security.
    Secretary Geren, my time is up, but I don't know if you 
want to add anything to what General Casey has said on this 
subject.
    Secretary Geren. When we consider the size of the Army, a 
big part of our effectiveness in the future is going to depend 
upon how good a job we do in operationalizing the Guard and 
Reserve. Our Army Active Duty is only about half of the total 
end strength of our military today.
    Senator Lieberman. Right.
    Secretary Geren. You have the same number of people in the 
Guard and Reserve as you do in the Active Duty. Our Reserves, 
over the course of this growth, are going to add 1,000 
soldiers, but through transformation, they're going to be able 
to move 17,000 more soldiers into their operating force. So, 
there are a lot of variables as we look to what the right mix 
should be and what the right size should be. I think our most 
prudent course of action is to achieve the growth that we have 
on the books now, continue to work the transformation, move 
folks into MOSs that are in high demand, look at how 
effectively we can operationalize the Guard and Reserve, and 
then assess where we are, and then make a decision on whether 
or not it's an Army that meets the needs of the future.
    Senator Lieberman. The dialogue will continue. Thanks very 
much.
    Chairman Levin. Thank you, Senator Lieberman.
    I want to pick up, first, on a question that Senator 
Collins asked about under what law State Department contractors 
in Iraq are operating. I think it's important that we have a 
clear answer for the record. I understand that there's an 
effort now to negotiate an agreement with the Iraqi Government. 
That's not what I'm referring to. I don't think that's what 
Senator Collins was referring to either because she was talking 
about until now, what is the law that governs contractors hired 
by the State Department who allegedly have committed crimes? We 
need to know that for the record.
    Secretary Geren. Let us get back to you for the record.
    [The information referred to follows:]

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Secretary Geren. The Military Extraterritorial Jurisdiction 
Act (MEJA) law gives our Justice Department the authority to 
criminally prosecute Americans who commit crimes in foreign 
countries, so that is a backstop, but, as you well know, it's 
not used very often; it's been used very few times.
    Chairman Levin. Do you know why it's not used?
    Secretary Geren. I do not.
    Chairman Levin. Okay. Can you give us, for the record, a 
clear answer to what law applies? If Iraqi law doesn't, because 
of some agreement reached with the Iraqis, what American law 
applies? If it's a law that's not used frequently, why is it 
not used frequently? We need to know that, clearly, for the 
record.
    Secretary Geren. I'll get back to you for the record.
    Chairman Levin. Thank you. If you could do that promptly, 
because this issue is coming up in other committees, and there 
should be an answer from the DOD on this.
    On the deployment issues that I went over with you before, 
assume for the moment that there are two additional brigade 
combat teams that are needed in Afghanistan, and the other 
countries that are involved don't provide them, and the 
decision is made by our commander there that they are needed. 
Could those two U.S. combat teams be provided under your 
scenario, General? In other words, could you continue your 12-
month deployment? Would that answer still be effective after 
July, if we get down to 15 combat teams in Iraq, and stay 
there, if two additional brigade combat teams of the United 
States are required in Afghanistan, or would that change your 
answer?
    General Casey. Senator, when you asked that question 
earlier, about what the assumption is, my assumption is 15 
deployed Active component brigades, which, for the Army, is 13 
in Iraq and 2 in Afghanistan.
    So at 15 brigades, either in Iraq and/or Afghanistan, 
that's where we can stay at 12 months.
    Chairman Levin. Okay. So, the 15 includes 2 in Afghanistan.
    General Casey. There are two Marine regiments in there in 
Iraq.
    Chairman Levin. Okay. I just want a real clear answer. Now, 
there's 3,200 marines that are being sent, or have been sent, 
additionally, to Afghanistan. That's separate, correct?
    General Casey. Correct.
    Chairman Levin. The 15 brigades that you referred to, in 
Iraq in July, are the 15 that General Petraeus has talked 
about.
    General Casey. That's correct. That would be 13 Army and 2 
Marine.
    Chairman Levin. Two Marine. My question is: if two 
additional brigades are needed in Afghanistan, to the number of 
troops we already have there, would that change your answer?
    General Casey. As I said, my assumption on getting to 15 
months is that we will stay at 15 Army Active component 
brigades in Iraq and Afghanistan.
    Chairman Levin. What is General Petraeus's statement about 
getting to 15 brigades in July and then pausing? Are those the 
same 15 you've just described?
    General Casey. He is describing the 15 brigades in Iraq 
only. Those 15 brigades consist of 13 Army and 2 Marine.
    Chairman Levin. The 15 he's talking about are 13 Army, 2 
Marine.
    General Casey. Right.
    Chairman Levin. Now, if, in addition to what he's talking 
about is needed in Iraq, two additional brigades are needed in 
Afghanistan, on top of the troops we have there now, then, I 
take it, your answer is, we could not get to 12-months 
deployed. Is that correct?
    General Casey. Then I would have to go back and relook at 
that impact. I have not looked at supporting 17 brigades.
    Chairman Levin. I thought you did look. You said that the 
maximum in both Iraq and Afghanistan was 15. Now you're saying 
you need to relook it?
    General Casey. You asked me what my assumption was to get 
from 15 months to 12 months. I said it was 15 deployed Active 
component brigades between Iraq and Afghanistan. Army brigades.
    Chairman Levin. So, you're saying it's possible that you 
could add two additional brigades to Afghanistan and still have 
the same answer of 12-months deployment?
    General Casey. I have not looked at that specific case, 
Senator, and as I said, I'm very comfortable with the 15 
number. I have not looked specifically at 17.
    Chairman Levin. All right. My time's up. Would you get that 
back, then, for the record, to us?
    [The information referred to follows:]

    Deployment lengths and dwell times are a function of available 
supply and global combatant commander demands. Currently, U.S. Central 
Command demands over half of the available Brigade Combat Teams (BCTs) 
in the Army inventory. As demand for Army BCTs decreases, deployment 
lengths decrease.
    The Army is planning to reduce deployment lengths for soldiers from 
15 to 12 months later this year as the number of BCTs in Iraq is 
reduced. Twelve-month deployments are sustainable only if the global 
demand for BCTs remains at or below pre-surge levels. In other words, 
the number of available BCTs is fixed. If the two BCTs were provided to 
Afghanistan without a similar reduction elsewhere, the Army could not 
achieve 12-month deployment lengths.

    Chairman Levin. We have 3 minutes left, plus the 5 minutes 
add-on. So, Senator Lieberman, we'll turn it to you. If no one 
is here when you are done, would you recess us for 15 minutes? 
I'm going to come back and make sure there's no other Senators. 
Thank you.
    Senator Lieberman [presiding]. Honored to do that. Thank 
you.
    I just have a few questions, then I'm going to go over and 
vote.
    I wanted to focus in on another element of Army personnel. 
In my opinion, and, I presume, yours, the All-Volunteer Army 
has been a great success. I'm often asked when I'm out in 
Connecticut or elsewhere, ``Is there a need to go back to the 
draft?'' I said, ``No. The military, particularly, doesn't want 
to do that, because we have a good All-Volunteer Force.''
    Studies that I've looked at say that the quality of that 
All-Volunteer Force is dependent very much on two primary 
determinants, and that is the scores of the recruits on the 
Services Aptitude Test, and if the recruit had received a high 
school diploma. Obviously, there are individuals who may not 
score the highest on the aptitude test or may not have a high 
school diploma who turn out to be extraordinary soldiers. But 
my reading of these studies says that, on the average, we do 
better if we have people who score better on the test and have 
a high school diploma. Reports now indicate that we're falling 
down from the previous high levels in recruitment, that is, the 
test scores and the presence of a high school diploma, among 
people coming into the Army now. I want to ask you to comment 
on that, but also I want to ask this question in an affirmative 
spirit, which is: what can we do to help the Army, if this is a 
problem, recruit to a level that assures that this All-
Volunteer Force of ours will continue to maintain the standards 
of excellence and success that it has achieved thus far?
    Secretary Geren. Many issues bear on that question. Let me, 
first, say that many intangibles go into deciding whether or 
not somebody makes a good soldier or not.
    Senator Lieberman. Sure.
    Secretary Geren. One of the most important intangibles in 
assessing our recruiting classes these days is their 
willingness to stand up and raise their right hand and join the 
Army in the middle of a war.
    Senator Lieberman. Right.
    Secretary Geren. That tells you a lot about that young man 
or that young woman.
    Senator Lieberman. Motivation.
    Secretary Geren. They join the Army knowing they likely 
will be going into combat. So, I think, as a threshold 
question, that helps sort out folks. It brings the type of 
people into the Army that we want, the people that are willing 
to make selfless sacrifices.
    But you're right, when you look at our quality indicators 
over the last 3 years, they have gone down. Our high school 
diploma grads were at 79 percent last year. Our goal was to 
keep that above 80 percent. The Office of the Secretary of 
Defense goals are 90 percent, and we strive for that, and we 
are working to get to those levels.
    We have a challenge with our recruiting population. Only 
about 3 out of 10 young men in the 17- to 24-age range have the 
physical, moral, mental, and educational qualifications to join 
the Army. So we're aiming at the same people that the job 
market is aiming at. We want people that are dependable, 
healthy, moral, and have demonstrated a commitment to finish 
what they started, finish high school. As a country, we need to 
expand that pool, we need to get more young people to finish 
high school.
    A looming issue on the horizon is obesity. We're seeing 
that, as we look 10 years down the road we're going to see more 
and more young people disqualified for joining the Army because 
of obesity. We have to do a better job, as a country, producing 
17- to 24-year-olds that have the standards that qualify them 
to join our Army. So, I think that's a national effort.
    Senator Lieberman. So, short answer, and I apologize, 
because I have to go over and vote, can you think of anything 
specific that we can do for you, by way of funding or programs, 
that will enable you to get back to those higher percentages on 
the high school diploma, for instance?
    Secretary Geren. In this budget, we do have a couple of new 
programs that we started last year continuing this year. One is 
our Army Advantage Fund, which is offering opportunities for 
homeownership and also the opportunity to start a small 
business as an incentive. I think one of our most promising 
initiatives is a partnership between the Active component and 
the Guard to recruit together and have a young man or woman 
join the Active component and then transition to the Guard for 
the rest of their obligated service. So we are funding those 
initiatives and we continue to work to figure out ways to do 
what we do, and do it better, just recruit better. But, long-
term, we need, as a country, to do a better job of producing 
young people that are educated and meet the requirements of the 
Army. Support from leaders such as yourself, at the national 
level and the State level, and encouraging young people to join 
the Army, is a very valuable part of our effort.
    Senator Lieberman. Thank you, Secretary.
    General, I apologize for not having the time here, but this 
obviously is a long-range problem, and you and I will have many 
opportunities to discuss it.
    Thank you.
    General Casey. Thank you, Senator.
    Senator Lieberman. Thank you very much.
    General Casey. Thank you for your interest.
    Senator Lieberman. Senator Inhofe.
    Senator Inhofe [presiding]. Thank you, Senator Lieberman.
    Let me mention something. Senator Akaka, have you gone, 
have you had a series of questions yet?
    Senator Akaka. No.
    Senator Inhofe. Oh. Senator Akaka.
    Senator Akaka [presiding]. Thank you very much.
    Secretary, as chairman of the Subcommittee on Readiness and 
Management Support, I am especially concerned about the amount 
of time our soldiers are getting at home in between 
deployments, both to take care of themselves and their 
families, but also to receive the necessary training. This 
really is about resetting, as is being mentioned. Even with the 
increase in Army end strength, I'm concerned that operations 
tempo facing our soldiers will impact their ability to be 
trained and prepared for missions across the spectrum of 
conflict.
    My question to you, Secretary: what are the biggest 
obstacles for the Army to overcome if another crisis erupts 
that demands U.S. military intervention on the ground?
    Secretary Geren. Our goal is full-spectrum readiness, have 
our soldiers ready for the full range of threats that are out 
there. As you note in your question, with the length of time 
that we have at home today, 12 months between deployments, we 
do not have time to train for full-spectrum readiness in that 
period of time. We have funding that is allowing us to reset 
the equipment, so that equipment is ready for when soldiers 
redeploy, but, until we get to a deployment-to-dwell ratio that 
gives us adequate time at home, we are going to fall short of 
our goal of full-spectrum readiness.
    Senator Akaka. General Casey?
    General Casey. There's a perception that conventional 
training is not happening in the Army, and it's not happening 
much. But, I recently visited both Japan and Korea, and in 
Japan I witnessed an Army corps participating in a conventional 
scenario partnered with a Japanese corps. Then, in Korea, the 
U.S. forces under General Bell are also doing conventional 
training. So, not much, but it's not nonexistent.
    Senator Akaka. If current operations, Mr. Secretary, in 
Iraq and Afghanistan continue to require the same approximate 
number of forces for the next 2 or 3 years, what impact will 
this have on readiness, do you think?
    Secretary Geren. We are consuming readiness now as quickly 
as we build it, and if we are unable to extend the dwell time, 
if the number of brigades doesn't get down to a demand of 15 
brigades for our Army, we are going to have a difficult time 
having sufficient dwell time to accomplish all the missions 
that we hope to accomplish when a soldier is home. Our soldiers 
are training for the mission which they are asked to do today, 
counterinsurgency mission, and the soldiers that we send into 
combat are well-prepared for what we're asking them to do, but 
the demand to get them prepared for what we are asking them to 
do now understandably limits their ability to prepare for other 
missions.
    General Casey. Senator, if I could.
    Senator Akaka. General Casey?
    General Casey. Based on your question about what will 
happen the next few years, and if you hold the demand steady at 
those 15 Active component brigades, what you see is, with our 
growth, that the amount of dwell time at home gradually 
increases to the point where every year, starting in 2009, we 
get a progressively larger number of forces trained for the 
full spectrum of operations, in addition to the forces that 
we're deploying. So, the growth helps.
    Secretary Geren. When we reach our goal of 76 brigade 
combat teams across all three components, we'll be able to 
sustain up to 19 brigades deployed, at that point. So as we 
grow and reorganize towards that, we will be able to sustain a 
higher level of overseas deployments.
    Senator Akaka. Thank you.
    General Casey, much has been said of the limited value of 
mechanized warfare and the impact technology can have in 
conducting counterinsurgency and stability operations, which 
tend to rely much more on cultural awareness and interpersonal 
relationships to be effective. In essence, the enemy is not a 
willing participant in the information network, and detection 
in urban environments may be beyond the capabilities of any 
known technology. My question is: what are the specific 
advantages that a FCS VCT could bring to the counterinsurgency 
fight that justify its cost in the near term?
    General Casey. Thank you, Senator. A couple of points here. 
First of all, the FCS is an effective system across the 
spectrum of conflict, and I see it as very good at conventional 
war in the 21st century, which is going to be different than 
the wars we plan to fight on the plains of Europe. But, I see 
it as very helpful in terms of irregular warfare. As I 
mentioned in my opening remarks, in irregular warfare, your 
intelligence requirements require much more precision than they 
do in conventional warfare. It's a heck of a lot easier to find 
the second echelon of the 8th Guard's Tank Army than it is to 
find, as you suggested, an individual on the sixth floor of a 
high-rise apartment building in a sprawling city. What we're 
working on with the FCS, and what is being tested and evaluated 
today out at Fort Bliss, are unmanned and unattended ground 
sensors, UAVs, all linked by the network, that will allow us to 
locate, precisely, the targets of our military operations, and 
then to apply precision effects. There's a NLOS weapon system, 
that is part of this first test that you'll see, that can put a 
missile on a target from 40 kilometers away. So its precision 
intelligence-collections ability and its precision attack 
capabilities will make it, in my view, just as useful in 
irregular warfare as it is in conventional warfare.
    Lastly, the network will enable our soldiers to have a much 
better situational understanding of what will inherently be a 
very, very complex environment, and they will be augmented in 
that, in their cultural understanding and their cultural 
training, which would still be part of it. But, as I said, I am 
quite comfortable with the FCS capabilities in both an 
irregular and in a conventional environment.
    Senator Akaka. Thank you for your responses.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Geren and General Casey, thank you for your 
service and your outstanding leadership to our country. Welcome 
to the committee.
    I have to say that the last 6 years have made me extremely 
proud of the work that our Army does. These amazing men and 
women have performed incredible feats in the toughest of 
environments without complaint, and their families, of course, 
have shouldered an incredible burden, as well, with many of the 
soldiers serving multiple tours in harsh environments overseas.
    What I'd like to do is pick up on some of the questioning. 
I serve as the ranking Republican on the Readiness 
Subcommittee, with Senator Akaka. Last November, when you both 
appeared before the committee, I asked about the unwillingness 
of Congress to deliver adequate and predictable funding to you, 
and what kind of effect this was having. General Casey, you 
answered, ``We will beggar the home front to make sure that our 
soldiers that are in the theater have everything that they 
need, and it will put a terrible burden on soldiers, on 
families, on the institutional Army, our ability to train.'' 
Despite that testimony, Congress decided to provide only a 
portion of the emergency supplemental funds required by the 
President last year, and, in your prepared statement today, you 
emphasized that today's Army is out of balance, that, overall, 
our readiness is being consumed as fast as we build it. These 
statements are obviously cause for deep concern, and I guess my 
question is: is the problem of our readiness being consumed as 
fast as it is built related to the problems that you face in 
receiving timely and complete funding from Congress? Is the 
lack of full funding inhibiting our ability to grow the force 
with the capabilities that we need for future operations?
    Either one of you, if you want to react to that, or answer.
    Secretary Geren. You have to look at the funding in all the 
many categories that we rely on it. We use the term in the 
trade, the color of money, but there's money that can be used 
for certain purposes and can't be used for other purposes. 
Predictable and timely funding is key for us to be able to 
operate an organization that is the size of the United States 
Army. A million men and women in uniform, and over 200,000 
civilians, and over 200,000 contractors. When funding is 
unpredictable, it makes it very hard to plan, long-term.
    One area of great concern for us right now is Base 
Realignment and Closure (BRAC) funding. Last year, you all did 
not fund the entire BRAC bill, and, for the Army, we're $560 
million short, going into this year, in BRAC funding. It's 
going to make it very difficult for us to meet what the law 
requires, finishing BRAC by September 2011. We need that 
funding. We need it sooner, rather than later.
    The military construction funding also is very critical to 
maintaining support for our families. We're moving tens of 
thousands of soldiers around, we're building housing and other 
support structures across the country and around the world, and 
the delays that we've experienced in receiving the military 
construction funding also complicated our ability to being able 
to build what we need, when we need it, and maintain the type 
of synchronization that's necessary in order to manage the 
personnel of a huge organization such as the Army's.
    We are going to run out of the money in personnel in June 
in the supplemental funding, and we will run out of our O&M 
funds in July. As we anticipate that, we'll have to start 
making adjustments in order to accommodate for the ripple 
effect of that situation. So, it makes it very difficult, it 
makes things cost more, and it makes things take longer. Last 
December, we got awfully close to a point where we were going 
to have to start laying off people, or at least giving them 
notice of layoffs, and I'm hopeful that we don't find ourselves 
in that situation this spring. We really need the supplemental 
funding by Memorial Day.
    General Casey. The only thing I'd add to that, Senator, is 
that what you don't necessarily see are the second- and third-
order effects of the delays. For example, I mentioned in my 
opening statement that in fiscal year 2007 we got the money for 
the reset, right up front, and we were able to not only commit 
all of that, but also to buy the spares in advance that we 
needed, the long-lead items. Every time you delay long-lead 
items, you delay the completion of the reset and the vehicle. 
So, there are always second- and third-order effects that 
aren't visible that impact us over the long haul.
    Secretary Geren. Let me mention one other thing, if I 
could, on military construction. When we're operating under a 
continuing resolution, we don't have the authorities for new 
starts, either. That greatly complicates our ability to build 
the infrastructure to meet the needs of our soldiers and their 
families. Over the last several years, we have found ourselves 
having to operate without the new-start authority, or at least 
not having it in a timely manner. That complicates it as well. 
So, it's not just a question of the money, it's also a question 
of the authority which comes from authorizers. That makes it 
challenging to be able to build our infrastructure on the 
timeline that we need in order to meet the needs of our 
soldiers and families.
    Senator Thune. I have some other questions, Mr. Chairman, 
but I see my time is expired. That was the main issue I wanted 
to get out, so perhaps I'll submit some of those for the 
record.
    Thank you.
    Senator Reed [presiding]. Thank you very much.
    Senator Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service. I know our men and 
women in Army green are indebted to you for your commitment, 
and we appreciate your giving us your candid appraisal of where 
we are, at the moment, with readiness and a number of other 
extremely important issues.
    One of them has come to my attention; last week, the 
Washington Post published an article outlining the Army's 
policy on maternity leave and deferments from war-zone areas 
for new mothers that are serving in the military. According to 
the story, new mothers are facing a continuing difficult 
decision between motherhood and their service for their 
country. New mothers who have the critical skills to support 
operations in Iraq and Afghanistan have to seek a deferment 
which would allow them to spend more time with their newborn 
before having to return to their job within the military.
    In 2007, the Navy extended their deferment time for new 
mothers to 12 months. But the Army's policy only allows, at the 
present time, for 4 months before facing deployment. Some of my 
colleagues and I have written a letter to Secretary Gates to 
review the current policies that are in place, but I wonder, 
Secretary Geren, in light of our need to keep skilled 
personnel, many of whom are women, maybe as much as 15 percent 
of our force, what are your thoughts about the Army's policy 
versus the Navy policy, or at least in looking at the policy to 
see if this is a reasonable period of time or whether it should 
be extended?
    Secretary Geren. The chief and I have had numerous 
discussions about that, and we have tasked the Army staff to 
examine that policy and examine the impact of a change in that 
policy. I don't want to prejudge the outcome at this point, but 
we have asked them to explain to us why we should not be able 
to increase the maternity leave at least up to the level where 
the marines have been, which is 6 months.
    Senator Ben Nelson. With the force strength that we have, 
and the number of deployments and extended deployments, and 
trying to cut all that down, it only adds another variable to 
your already difficult task. But, if we're going to think about 
both recruitment and retention, I think clearly that has to be 
reviewed because it has to have some impact on people deciding 
whether to get in or stay in, if they have to get an extended 
deferment in order to have a family.
    Secretary Geren. I understand and share your concerns, and 
we should be able to get back with you pretty soon with an 
answer.
    [The information referred to follows:]

    Current Army policy requires a 4-month Postpartum Operational 
Deferment period for a female soldier after the birth of a child. The 
Army Postpartum Operational Deferment policy matches designated 
guidelines established by the Office of the Secretary of Defense.
    The Army recognizes the merit in lengthening the Postpartum 
Operational Deferment period, and intends to lengthen that period to 6 
months once Active Army units return to a 12-month deployment rotation 
policy from the 15-month deployment rotation policy that is currently 
in place.

    Senator Ben Nelson. Okay.
    I think it was June 2007 that the Center for New American 
Security Publication titled ``Institutionalizing Adaptation 
Report'' stated, ``The most important military component of the 
long war will not be the fighting we do ourselves, but how well 
we enable and empower our allies to fight with us.'' We're 
faced with requiring heavy numbers with a very well-armed and 
well-staffed Army to do what we would call, I guess, the 
essential combat of the past that an Army does. But, we're now 
faced with new requirements around the world. I guess we're no 
longer talking about nation-building, that's passe. At least in 
trying to help other countries develop their own military, are 
we at a point where we need to have a standing Army Advisory 
Corps, General Casey, as well as the typical operating mix of 
conventional forces and Special Operations Forces?
    General Casey. That's something that we are looking at very 
closely, and not only internally, but also with the Commander 
of Special Operations Command, Admiral Olson, and with the 
Commandant of the Marine Corps. In fact, we're getting 
together, here, in the next couple of weeks to discuss that.
    Clearly, one of the elements of any former battlefield, we 
believe, will be our ability to interact and work with 
indigenous forces.
    Senator Ben Nelson. Without knowing the answer to this, 
it's impossible to even give much of a guess, but on a 50-50 
basis, do you think that 50 percent of the future will require 
conventional forces, or will it be 60 percent or 40 percent? 
What mix do you envision between an asymmetrical combat force 
capability and conventional force capability?
    General Casey. Senator, as we look to the future, we 
believe that we will be best served by multipurpose forces that 
can operate across the full spectrum of conflict, from 
conventional war to peacetime engagement. That's the doctrine 
that I spoke about here. Those are the forces that we are 
trying to build. I would also tell you a bit more about your 
initial question. Cleary, there's an increasing role for 
special forces in training other armies, and we are increasing 
the number of special forces battalions by five, and that will 
give us great capability. We are, as you suggest, examining 
whether we should put an assistance group in each of the 
regional combatant commanders. We're working with them to see 
if that would be useful to them.
    But, working with indigenous forces is clearly an element 
of any future battlefield.
    Senator Ben Nelson. My time's up, but I'm going to follow 
up with a letter to the Secretary of Defense, in light of the 
concern that we have about the North Atlantic Treaty 
Organization's (NATO) capabilities of providing military 
support, where necessary, at the required levels of support 
necessary. Should we be looking, perhaps, for a two-tiered 
approach by NATO to not only have the capabilities of combat 
forces, as in the case of Afghanistan, but for more assistance 
in this area of an advisory role for part of their commitment? 
It seems to me that it's one thing for us to hit them over the 
head because they don't send enough troops, they don't have 
enough troops, they don't keep enough troops, and I'm not 
talking about all those that are already doing it, but those 
who can't. There may be another role that they could play. 
Rather than have us hit them over the head for what they're not 
doing, maybe we ought to start thinking about what they could 
do, and how they could support that kind of a growth in the 
Army.
    General Casey. The NATO allies, especially Italy, did a 
great job in Iraq training police. The Carbinieri were very 
effective in the south.
    Senator Ben Nelson. Thank you, Mr. Chairman. Thank you, 
gentlemen.
    Senator Reed. Senator Graham.
    Senator Graham. Thank you, Senator.
    I missed the discussion between Senators Levin, Collins, 
and, I think, yourselves, about what law governs contractor 
behavior. The sooner we could get an answer to that situation, 
I think, the better the country would be.
    I've just gotten back from a fairly extended visit to Iraq, 
and one of the big issues facing our country is that we're 
going to war now with, I think, over 100,000 contractors. 
They're patriotic Americans who are doing a great job, 
generally speaking, for our country, but we've never had a war 
quite like this. The idea of that many people being in Iraq, 
some of them with guns, requires us to address this problem and 
find out what law does regulate their behavior; because, Mr. 
Secretary, General Casey, I think it's a very demoralizing 
event for an E-4 or E-5 to be sitting across the table from a 
civilian contractor who makes four times what they make, and 
the contractor breaks the rules in an obvious way, and nothing 
happens, other than maybe getting fired. So, I would just add 
my voice to the idea that we need, as a country, to come up 
with a solution to this problem.
    General Casey, when it comes to force reductions in Iraq, 
the goal is to try to get to 15 brigades, I think, by July. Is 
that correct?
    General Casey. Correct, sir.
    Senator Graham. Could you explain to me, very briefly, the 
collaborative process that's going on, in determining when the 
troops come home, between you, General Petraeus, and others?
    General Casey. General Petraeus will come back in April and 
give his assessment of what needs to happen after July. He will 
interact with the Joint Chiefs in the process of forming his 
recommendations. But, there will also be independent action by 
the Joint Chiefs, so that we can present the President with our 
independent views on what the situation requires.
    Senator Graham. I understand that, and my two cents worth 
here is that it's been a very hard fight to turn things around 
in Iraq. I think we are turning things around politically, 
economically, and militarily. Every one wants the troops back 
home, and you can add me to that list. But, more than anything 
else, I want to make sure we don't lose the gains we've 
achieved by going down too fast. I'm sure you're sensitive to 
that. Is that correct, General Casey?
    General Casey. I am sensitive to that, sir.
    Senator Graham. I know the troops want to come home, but 
they're very proud of what they've achieved, and I want to make 
sure that we don't bring people home for anything other than 
success. I think they're going to come home with success.
    General Casey. Senator, if I could add to what you say.
    Senator Graham. Please. Yes, sir.
    General Casey. As I talk to the soldiers, it's exactly what 
you suggest. The most important thing to them is winning, not 
necessarily coming home.
    Senator Graham. Generally speaking, General Casey, how is 
morale for folks in the Army, particularly in Iraq and 
Afghanistan?
    General Casey. Senator, everything I have personally 
observed during my visits in December, and that I continue to 
hear, is that morale, both in Iraq, Afghanistan, and among the 
returning forces, is very positive. They believe in what 
they're doing. They see themselves making a difference in a 
very difficult environment. So I believe morale is very good.
    Now, as we said before you arrived, the force is stretched 
and there is no question about that. I just visited a brigade 
in Alaska that had been back about 90 days. My assessment is, 
they felt pretty good about what they did, but they were tired.
    Senator Graham. Sure, and that's why we're trying to build 
up the Army, right?
    General Casey. Right.
    Senator Graham. Is that correct? Okay.
    There was a comment made at, I think, the last Democratic 
debate by Senator Obama. Mr. Secretary, I don't know if you are 
familiar with what he said, but basically, during the debate, 
he indicated that a captain who was in charge of a rifle 
platoon in Afghanistan had come up to him and said that the 
amount of troops in that platoon were basically reduced in 
half, and the other half went to Iraq, and that the people left 
over went to Afghanistan, and they didn't have bullets, and 
they had to use Taliban weapons. It was easier to use Taliban 
weapons than it was to get the equipment they needed from the 
Army. Has Senator Obama talked to you or anyone in the 
Department about this?
    Secretary Geren. No. I have not discussed it with Senator 
Obama. General Casey, though, has looked into this issue, and 
I'd like to give him the opportunity to respond, with your 
permission.
    Senator Graham. Please.
    General Casey. Senator, as we looked into this, the best we 
could tell is, this incident occurred back in 2003 and 2004, 
and it was in a brigade of the 10th Mountain Division. We have 
talked to the brigade commander, and we've looked at their 
readiness reports. The brigade was manned over 100 percent, and 
stayed over 100 percent manned the whole time they were there. 
Now, it's certainly possible that platoons within that brigade 
might not have been filled to the same level as the rest of the 
brigade.
    You'll recall that was a difficult time, as we were all 
working very hard to get uparmored Humvees in to the troops. 
There were no uparmored Humvees available for him in training, 
which is one of the points that he made; there were only, at 
that time, a little over 50 in all of Afghanistan.
    There may have been some spot shortages of spare parts and 
ammunition, but the commander said that there was never a 
shortage of ammunition that impacted on the unit's ability to 
accomplish its mission.
    Senator Graham. But, you were never contacted by Senator 
Obama in 2003 or 2004, or any other time?
    General Casey. No, I have not been.
    Senator Graham. Okay. Thank you very much.
    Chairman Levin [presiding]. Thank you, Senator Graham.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Since we had a McCain moment, I think I need to have an 
Obama moment, out of fairness. It wasn't what I intended to ask 
about, but Secretary Geren and General Casey, I think you both 
are certainly aware that this captain has been contacted and 
has independently verified to independent sources the 
frustration he had with getting everything they needed, to do 
what they needed to do in Afghanistan. Is that your 
understanding, that this captain who has served valiantly and 
heroically, has independently verified that, certainly, there 
was a frustration over getting what they needed to do the job 
in Afghanistan at that point in time?
    General Casey. Senator, I don't think there's any doubt 
about that. We have purposefully not tried to seek out the 
captain, individually.
    Senator McCaskill. Which I respect.
    General Casey. I've seen the same reports that you've seen. 
Again, I have no reason to doubt what it is the captain says. 
But, this was 2003-2004, almost 4\1/2\ years ago. We 
acknowledge, and we all worked together to correct, 
deficiencies with equipment that we saw during that period, not 
only in Afghanistan, but in Iraq. It was a period that we have 
worked our way through.
    Senator McCaskill. I admire the acknowledgment that has 
occurred in this hearing room, by command, DOD, Secretary 
Gates, and by you and all of your colleagues, at the 
shortcomings, in terms of getting the equipment and we all know 
the shortages we have in Afghanistan right now, in terms of 
boots-on-the-ground. I mean, that is a critical, critical 
problem for us right now, in terms of us having success with 
NATO, getting the number of other countries involved, like we 
should have and haven't been able to, because of their 
unwillingness. So to act as if this Army captain is speaking 
about something that we all haven't acknowledged, I think, 
frankly, is misleading.
    Now I'll get to my questions.
    First of all, I want to congratulate Senator Nelson for 
speaking about maternity leave. I'm glad that he showed his 
softer side today and acknowledged that this is a career issue 
for the Army.
    I also want to talk, in passing, before I get to officer 
retention, about paternity leave. I think that it's time for 
the Army, frankly, and for the Secretary of Defense to look at, 
overall, a uniformity of policy between the various branches as 
it relates to both maternity leave and acknowledgment of some 
recognition of paternity leave. I know this was being 
discussed. I know that there was a pullback that occurred by 
one of the Under Secretaries of Defense about paternity leave. 
But, I just wanted to say that I'm hopeful that you all 
continue to look at that issue, because it dovetails nicely 
with what I want to ask you about this morning, which is our 
ability to retain officers.
    [The information referred to follows:]

    The Department of Defense is reviewing a legislative proposal that 
will amend section 701 of title 10, U.S.C., to include a new 
authorization to allow up to 21 days of permissive temporary duty for 
servicemembers in conjunction with the birth of a new child. The 
legislative proposal is consistent with a recent congressional change 
to section 701 of title 10 (section 593), which authorized up to 21 
days of administrative leave for a servicemember adopting a child. As 
with all leave, paternity leave would be granted on an individual basis 
dependent on the unit's mission and operational circumstances.

    Senator McCaskill. I would like both of you to speak to 
what I think the Government Accountability Office (GAO) pointed 
out, which is, we need to consolidate the command over West 
Point and Reserve Officers' Training Corps (ROTC), in terms of 
officer retention and it worries me that we are promoting 98 
percent of our captains and majors right now. That's an 
extraordinarily high number. It also worried me that we are 
doing the officer ascension program directly through Officer 
Candidate School, as opposed to West Point and ROTC. Looking 
from the outside, it appears to me that we may have a little 
turf war going on here between the command of West Point and 
the command of ROTC. Clearly, if I have young people that have 
applied to go to West Point, and they don't make it, we need to 
make sure we're grabbing those folks and getting them in the 
ROTC program. I'm very worried about this lack of coordination, 
especially when you realize that this is a huge hole that we 
can't patch. We have to integrate a solution and I'd love both 
of you to speak to that.
    Secretary Geren. Thank you for raising that. I appreciated 
the letter you sent on that. I've studied the GAO report and 
agree with many of those concerns.
    We have tasked a retired general to look at this issue and 
make some recommendations on how we could do a better job of 
coordinating the overall officer accessions. We are already 
working to do a better job of taking those outstanding young 
men and women who are not accepted into West Point, and trying 
to make them aware and recruit them into ROTC programs. But, 
overall, we have to do a better job of taking what, right now, 
are, by and large, three stovepipes--the military Academy, 
ROTC, and OCS--and bring those together and break down the 
walls between them. Over the course of this spring, we'll be 
back to you with a proposal to address those very important 
concerns. We are in agreement about the challenge, and we'll be 
getting back with you soon on a recommended way ahead.
    Senator McCaskill. I'm happy. I know that the stovepiping 
is resisted by the commands, and if some pointed letters to any 
of those commands, General, would help, I'm more than happy to 
let my pen fly.
    General Casey. Thank you for the offer, Senator. I find 
they respond pretty well to my direction.
    Senator McCaskill. I think that you can handle it, but I 
just want you to know there are several of us that have your 
back on this one. I think it's really important.
    General Casey. Thank you.
    Secretary Geren. Thank you.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Sessions.
    Senator Sessions. General Casey, one of the things that you 
promised to do when you returned as our commander in Iraq was, 
as Chief of Staff, to check on the status of families, those 
who've served, how they're doing. Your wife has been active in 
that. You've visited with a lot of people. First, are you 
continuing to do that? What are your observations, in general, 
and concerns about the state of the Army family health?
    General Casey. Senator, as I took over here, and we--my 
wife and I--traveled around the Army, it was clear to us, and 
this is late last summer, that the families were the most 
brittle part of the force, that we were asking more of Army 
families than I, frankly, thought that we should have been. We 
weren't doing enough for them. I've been a member of an Army 
family for 60 years, so I have some experience in this.
    In October, the Secretary and I issued an Army Family 
Covenant where we restated the commitment of the Army to 
families. We focused that covenant on five key areas, and they 
were the five key areas that families gave to my wife and I, 
that they were most concerned about.
    They wanted standardized services. They said, ``We don't 
need a bunch of fancy new programs. What we need is you to fund 
what you have, standardize them across the installations.''
    They want better access to quality health care. Quality is 
not usually the problem; it's accessing, getting into the 
system. So we're working with the Defense Health Services on 
that one.
    They want quality housing, they want better education and 
childcare opportunities for their children, and they want 
better education opportunities and employment opportunities for 
themselves.
    So we have focused $1.4 billion last year, and $1.2 billion 
this year, in this budget, on improving family programs. That's 
about double what we've done in the past. I believe it is 
absolutely essential to continue on that track, to retain the 
quality force that we have today.
    Mr. Secretary, anything you want to add to that?
    Secretary Geren. I'd like to add something quickly. We 
signed the Family Covenant, our leaders at each command signed 
it, all across the world--we had 120 Family Covenant signings--
to make sure that families understood our commitment to them.
    Senator Sessions. Were the families participating in these 
signing ceremonies?
    Secretary Geren. Yes, they did. We had large family groups 
at every signing. The Chief mentioned some of the funding and 
some of these new initiatives that have been undertaken, but 
some of the most important initiatives that help the families 
are going to come from those commanders on the ground, those 
garrison commanders and those command sergeant majors, as they 
identify ways to just make the Army work better for families.
    General Caldwell, out at Leavenworth, he took over the 
command there, and saw that we had a start time for the classes 
at Leavenworth that conflicted with the start time for 
children's classes in the area schools. So General Caldwell 
moved the start time of his classes back 30 minutes, so the 
parents, who had the responsibility of taking care of those 
children, could take the kids to school, and could eat 
breakfast with them. I think it's little things like that, in 
addition to some of these major budget initiatives, that are 
going to make the Army work better for families. So, we are 
going to see a lot of creativity coming out of leaders, up and 
down, NCOs and officers, as we try to make the Army work better 
for families.
    I'd like to briefly mention, we did the Covenant with 
Families last fall, this spring, we're going to do a covenant 
between the communities and families. Every installation in 
America has some wonderful programs in which the local 
communities stand up and support families; Adopt a Platoon, the 
Hugs program that helps families through difficult times. Every 
one of the installations all over the country has some, or 
many, innovative programs to help families.
    We're going across the whole force in trying to identify 
those, catalog them, identify the best practices, and, over the 
course of this spring and through the summer, we're going to be 
going to all the major installations across our country to 
invite our community leaders to join us in this Covenant with 
Families, and give them some ideas on things they can do to 
help families better; take good ideas from Alabama and take 
them to Texas, or take them to Oklahoma. So, it's our second 
step in this.
    We are, the Chief used the term, brittle. The families no 
doubt are stretched. They have shown extraordinary resilience. 
But, we can do more as an Army, we can do more as a government, 
and our communities can do more. So we're inviting them to join 
hands with us and help better support those families during 
these challenging times.
    Senator Sessions. I think you're wise to spend time on 
that. I think it's the right thing to do. We are asking a great 
deal of men and women in uniform, and, as a result, we want 
them to be supported in every feasible way.
    My time is up, but I do believe we're making some progress 
on improving housing. Some very good housing programs are out 
there that have accelerated our ability to produce housing much 
faster than we've done in the past. But, I hope that the Army, 
in particular, will emphasize, because we don't mean that our 
Army personnel, who oftentimes are away while their family's at 
home, are in anything but the best housing we can give them.
    So, thank you, General Casey, for your commitment to that 
issue. I believe you'll fulfill the commitments you made when 
you were confirmed and I asked you about that.
    Secretary Geren, I appreciate your report. I think that's a 
step in the right direction, because we are all worried that 
our personnel are supported adequately in a whole host of 
different areas.
    Secretary Geren. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Mr. Secretary, I want to thank you for your getting 
personally involved in this case of the World War II veteran 
who was inaccurately imprisoned and given a dishonorable 
discharge. The Army, a half a century later, recognized its 
mistake and gave him an honorable discharge; but then, to 
compensate him for the year that he spent in prison, sent him 
his pay of $720. I want to thank you for personally getting 
into it, with the VA, to try to figure out some appropriate 
compensation, given the fact that 50 years has passed. So, 
thank you.
    Mr. Secretary, the chairman has already asked you to 
release the full classified version of the RAND report, which 
was on the planning for post-war Iraq, which was prepared for 
the Army by the RAND Corporation, and also to prepare an 
unclassified summary. I'd like to, additionally, suggest that 
the RAND study be sent to the Intelligence Committee. I have 
the privilege, as does the chairman, of sitting on both 
committees, and, if you will do that, we would appreciate it 
very much.
    [The information referred to follows:]

    The Chief of Legislative Liaison, Major General Galen Jackman, 
responded to your request on March 20, 2008. A copy of the letter from 
General Jackman is attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Bill Nelson. Now, what I want to suggest to you 
here is that, it has come to my attention, from women in my 
State, the rapes that have occurred in Afghanistan and Iraq. I 
have been after this to try to get information, but what we'd 
like is to know the number of sexual assaults. Now, this is not 
military people, these are contractors. If you had this in the 
military, you have the UCMJ. Now, the chairman has already 
asked you, earlier today, what law applies if a civilian 
contractor commits a crime, and you said you would get back to 
the chairman on that. What we're finding is incomplete 
information and also this Never-Never Land of not knowing what 
to do and what laws to apply, and who's going to enforce it. 
You would think, if it's a contractor to DOD, DOD would enforce 
the prosecution of these crimes. Same for a contractor with the 
State Department, and so forth. So, for the record, let me just 
lay out a number of questions that I'd like you to address. 
We're not going to have time, obviously, in this setting here.
    The Inspector General (IG) has given us what they thought 
were the sexual assaults in 2005, 2006, and 2007, but we need 
to know, going back to the beginning of October 2001 in 
Afghanistan, and then, likewise, March 2003 in Iraq, what's the 
disposition of each of those sexual assault cases? What are the 
Service components or government agencies involved in each 
investigation? What is the status of the persons involved in 
each case? In other words, are they Active Duty military? Are 
they U.S. Government civilian employee, contract employee, or 
Iraqi national? Who has the jurisdiction or investigative 
authority for these sexual assault allegations in both 
Afghanistan and Iraq? This committee should have a clear 
explanation of the rules, regulations, policies, and processes 
under which these sexual assaults are investigated and 
prosecuted.
    It's obviously in our oversight responsibility to ask these 
questions. We would be most appreciative if you could help us 
get this information, because we've gotten very limited 
information, thus far, as a result of the IG referring us to 
the Army Criminal Investigative Command.
    Senator Bill Nelson. I come to the table with this, 
because, indeed, there is a Tampa lady that was part of a 
contractor that had contracted to the DOD. I've already talked 
to the chairman. In my capacity as chairman of a subcommittee 
in Foreign Relations, I'm going to have a hearing on this, as 
it involves the contractors to the Department of State. But, we 
need this information with regard to the DOD.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    This information would be more appropriately addressed by the 
General Counsel, Office of the Secretary of Defense.

    Chairman Levin. Thank you very much, Senator Nelson. Let me 
just, first of all, commend you for your pursuit of this issue. 
We will ask our witnesses whether or not they will be able to 
promptly provide that information.
    Secretary Geren?
    Secretary Geren. We'll certainly work to provide everything 
we can acquire. Now, it's possible that some of this 
information will come from other departments of government, but 
we'd be glad to cooperate with them and do everything we can to 
get you the information you request.
    Chairman Levin. That's great. Thank you so much.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Just to follow up briefly on what the Senator from Florida 
just asked you. General Casey could tell us what law applied to 
contractors when you were commanding troops over there.
    General Casey. We did this earlier, Senator, and the UCMJ 
applied to the folks that were working for the DOD.
    Senator Webb. Applied to civilians?
    General Casey. The contractors.
    Senator Webb. Civilian contractors were under the UCMJ?
    General Casey. That worked for DOD. Not all of them.
    Senator Webb. That worked for DOD. How many are you talking 
about?
    General Casey. It varied over the time I was there, 
Senator. I want to say around 20,000.
    Senator Webb. You had 20,000 civilian contractors subject 
to the UCMJ?
    General Casey. I'm sorry not----
    Senator Webb. How many were subject to the UCMJ when you 
there?
    General Casey. Senator, I do not recall the number right 
now.
    Senator Webb. Approximately. You were commanding the 
troops. How many were subject to the UCMJ?
    General Casey. Senator, we worked very hard over time to 
get an accurate number on contractors, and I want to say the 
number that was subject to UCMJ was around 7,000 to 8,000, but 
I am not sure of that number.
    Senator Webb. When you were commanding, 7,000 to 8,000 
civilians were subject to the UCMJ?
    General Casey. That's my recollection, yes, Senator.
    Senator Webb. Do you know if any of them were ever charged 
under the UCMJ?
    General Casey. Senator, I have vague recollections of a 
couple of cases, but I can't say for certain.
    Senator Webb. As someone who has spent some time in 
military law, and sat on courts-martial and been involved in 
the appeal of cases out of the UCMJ, I'm not even sure how you 
could have a proper court for a civilian under UCMJ, or how you 
could charge them. The most recent news I've heard about this 
was that this was a proposal last year, when I arrived on this 
committee. You're saying that you actually had civilians in 
Iraq subject to the UCMJ, who were subject to proceedings under 
the UCMJ?
    General Casey. Senator, my recollection is that we had UCMJ 
authority over some number of DOD civilians that were 
contracted by DOD. I am not 100 percent certain of that.
    Senator Webb. I'd like to know. I would think, quite 
frankly, if you were commanding people over there, you'd know 
that.
    General Casey. At one time, I did Senator, and it's been a 
while.
    Senator Webb. It's been a while since you knew that? I can 
remember when I was commanding troops in 1969.
    General Casey. Yes, Senator.
    Senator Webb. It's not a difficult concept, whether people 
are subject to the UCMJ. This isn't something I was going to 
ask about, but I find it very curious.
    Senator Bill Nelson. May I say to the Senator that I have 
been told that the UCMJ does not apply, and that's the reason 
why we have to get some clarity about what law does apply to 
protect these Americans that are serving their country in a 
civilian capacity abroad. Thank you.
    Senator Webb. I would agree. I would say to the Senator 
from Florida that this was an issue that came up in the 
Personnel Subcommittee last year as a proposal.
    I'm not aware of anyone, Mr. Chairman, who as a civilian, 
has been subjected to UCMJ.
    Chairman Levin. We've asked the question so that we can get 
very clear answers for the record. We've not gotten them 
clearly this morning. I believe that my chief of staff has just 
told me that, in the last couple of years, we've taken some 
steps relative to contingency operations, and people who are 
contracted for, relative to those operations, to be covered. 
But, that's within the last couple of years, and I'm not sure I 
even heard my own chief of staff, because he was whispering in 
my ear as you were asking the question.
    In any event, Secretary Geren has also, this morning, 
indicated a backup form of prosecution, and used an acronym, 
which I'm not personally familiar with.
    Perhaps, Secretary Geren, you could repeat for us what you 
made reference to earlier this morning, in terms of possible 
prosecution by the Department of Justice.
    Secretary Geren. It's a law that was passed in the early 
1990s, and it goes by the acronym of MEJA. It gives our Justice 
Department the authority to prosecute crimes by American 
citizens abroad, and it came out of a case in which an American 
citizen, I believe in Saudi Arabia, committed a crime and led 
to this initiative. It has not been used much. As I understand 
it, it's been used 12 to 18 times.
    Chairman Levin. In Iraq? In Afghanistan?
    Secretary Geren. No. I think just overall, as I understand 
it. It's a Justice Department authority, it's not a DOD 
authority. I believe it's been used twice in Iraq. One was a 
CACI contractor, having to do with one of the detainee 
investigations. It was a CACI contractor that was accused of 
detainee abuse, and I believe he was prosecuted under MEJA. 
There was one other case, and I don't remember the details of 
that one. But, it's been used very sparingly. At one point, I 
heard the Justice Department discuss some of the challenges 
associated with applying that as a prosecution tool. There's 
problems with witnesses and gathering evidence. They could, 
obviously, provide you more insights than I could.
    As I understand it, in 2007, Senator Graham offered an 
amendment that expanded the application of the UCMJ for use 
against civilians, and broadened that authority, and clarified 
that authority. Some of our commanders are waiting for some 
implementing instructions to figure out exactly how you do it. 
As Senator Webb noted, there are some obvious complications 
using the UCMJ as broadly as it's now allowed under Senator 
Graham's amendment.
    Chairman Levin. Yes, that is the reference which my chief 
of staff made, was to that 2007 amendment by Senator Graham, 
which became law.
    Secretary Geren. Yes.
    Chairman Levin. Yes.
    Okay, we ought to give you some additional time, Senator.
    Senator Webb. I would just say to the chairman, I would 
appreciate if we could really stay on top of this a little bit, 
because I think that Congress has been rolled on this issue for 
quite some time. We now have in excess of 150,000 contractors 
in Iraq, from the count that I've seen; it's probably higher 
than that. I'm not aware of any case, there may be a case, but 
I'm not aware of any case where serious crimes have been 
brought to justice. We know serious crimes have been committed.
    Chairman Levin. We did ask before for a very prompt 
assessment, because other committees are also interested in 
this subject, and there's been an IG report on this subject so 
that Secretary Geren committed to a very prompt overview of the 
law in this area.
    Senator Webb. I thank the chairman.
    Mr. Secretary, I was told by Senator Warner, who's not here 
today, that, in a meeting with him, you expressed, I'm not sure 
whether they were your personal views or the views of the 
Department of the Army, that you were in support of the concept 
of a GI bill that would take care of these people who have been 
serving since September 11 in the same way that those who 
served in World War II were taken care of.
    Secretary Geren. We talked, in general, about expanding the 
benefits of the GI bill, and talked, most specifically, about 
expanding the eligibility of benefits so that a soldier could 
transfer his or her GI bill benefits to spouses and children. 
That was really the focus of our conversation that day. 
Congress had passed legislation several years ago that allowed 
us, for critical skills, to offer an expansion of the use of GI 
bill benefits allowed to be transferred to children, and 
talked, that day, about how we might expand that benefit and 
make it more broadly available.
    Senator Webb. Right. That's a totally separate concept than 
the issue of S.22, the GI bill that's before the Senate right 
now. That's taking the Montgomery GI bill and moving it 
laterally rather than measurably increasing the benefits 
themselves.
    Secretary Geren. That was our discussion.
    Senator Webb. Does the Department of the Army have a 
position on the expansion of GI bill benefits other than the 
Montgomery GI bill?
    Secretary Geren. No, Senator, we have not had an 
opportunity to reach a final recommendation on it. The 
Secretary of Defense, Dr. Gates, has taken ownership of that 
initiative, for want of a better word. The Services are working 
with his Under Secretary in analyzing the bill. We have not had 
an opportunity to work through all the provisions of it. In the 
President's State of the Union, he noted the GI bill is one of 
the areas that he wants to see our Department expand its 
benefits.
    Senator Webb. I am told that the administration opposes 
this and so I'm trying to get some clarification. I mentioned 
that to Secretary Gates when he was testifying, and in concept, 
I think he agreed with what we were saying here. I would note 
that you have a pilot program, I just got something on this 
about a week ago, that as a recruitment incentive will pay 
enlistees who sign up for 5 years, as it reads here in this 
article, $40,000 toward purchasing a home when they leave the 
Army.
    Secretary Geren. Yes.
    Senator Webb. I don't know what the cost of that program 
is, but the argument against S. 22 is that it would affect 
retention at the end. What you're seeing here is clearly an 
incentive for someone to get out and cash in their $40,000 to 
buy a home at the end of an enlistment. As someone who spent a 
lot of my life working manpower issues, I would respectfully 
say that probably the best recruitment incentive you can give 
people if you want to broaden your recruiting pool is good 
educational benefits. You seem to be pounding on one potential 
pool of enlistees over and over again, when you have this whole 
group over here of people who are struggling to get through 
college, who might have some incentive to serve, that aren't 
being fit into the formula.
    Secretary Geren. Unquestionably, educational benefits are 
one of the most appealing benefits for service in the United 
States military. It's a big part of our recruiting, it's a big 
part of our retention. The Secretary of Defense, again, has 
taken ownership of evaluating that. The Services are providing 
input, and to my knowledge, the administration has not taken a 
position on the bill. I'm not aware of it, if the 
administration has.
    Senator Webb. We've had a number of articles in the Service 
Times where the administration has opposed the bill. The VA 
opposed it in hearings last year. I'm on the Committee on 
Veterans' Affairs as well. Like the General, I've been around 
the military since the day I was born. I feel very strongly 
about the people who are serving. I think that the military, 
right now, has been doing a very good job, in terms of managing 
its career force. We have some disagreements on the dwell-time 
issues and that sort of thing. But, there are so many people 
who come into the military because of family tradition, love of 
country, with no intention of really staying. Those are the 
people who are getting lost in the system. That is a pool that 
actually would expand with the right sort of educational 
benefits, and they'd have something when they walked back into 
the community. The number one recruiting tool, at least from 
the time that I was doing this, back in the community, is a 
veteran who is proud of their service and believes strongly 
that the military took care of them. So, this is kind of a no-
brainer to me. I can't see why we can't get it done.
    Secretary Geren. It's being actively evaluated right now, 
and the Department will take a position on it, I expect, soon. 
I checked, just as of yesterday, and the Office of the 
Secretary of Defense was still accepting input from the 
Services, and evaluating it, and looking at the financial 
implications. As soon as a decision is made, sir, we'll get 
back with you, Senator.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    When you present the analysis of the law which applies to 
contractors as to whether they can be prosecuted either in a 
military court or in an American court, include in that any 
understandings or agreements which have been reached between 
the American authorities and the Iraqi authorities relative to 
the prosecution of these folks in Iraqi courts.
    Secretary Geren. We will.
    [The information referred to follows:]

    The information you requested was provided in a March 31, 2008, 
letter from the Honorable Benedict S. Cohen, General Counsel of the 
Department of the Army. I have enclosed that letter for your records.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Levin. Okay.
    Secretary Geren. Just to expand, earlier you asked us to 
address the State Department.
    Chairman Levin. That is correct.
    Secretary Geren. We'll try to pull together a picture of 
the entire governmental position.
    Chairman Levin. We appreciate that.
    Senator Kennedy, thank you for your patience.
    Senator Kennedy. Thank you very much, General.
    I'd like to talk with you a little this morning about the 
kinds of pressures that are upon those that have served, and 
also those that are serving in the military, in order to 
understand the state of our Army.
    First of all, in this area of Army suicide in 2007, the 
Army suicide rate was the highest it's ever been. In 2006, Army 
suicides rose to 17 percent. That number increased to 20 
percent in 2007, when 121 soldiers committed suicide, more than 
double the numbers reported in 2001, before we sent troops into 
Iraq.
    The Army strives to ensure that 90 percent of its enlistees 
have high school diplomas. Last year, only 79 percent of the 
enlistees achieved that goal. The Army conduct waivers have 
more than doubled since 2003. The felony conviction waivers 
have increased 24 percent. Serious misdemeanor waivers have 
increased by 168 percent. These obviously highlight the strain 
we placed on the Armed Forces. The Army is currently facing a 
shortage of 3,000 officers or more, and the shortage is 
overwhelming in the mid-grades, the senior captains and majors. 
The Army recently announced that it failed to meet its goal of 
retaining 14,184 captains, and retained only 11,933, despite an 
aggressive campaign that offered cash bonuses, as much as 
$35,000, plus ability to choose next assignment or attend 
military-funded graduate school in exchange for continued 
service. All told, 67 percent of those eligible for the program 
agreed to serve an additional 1 to 3 years. The goal was 80 
percent. The attitude of the very young, in terms of how they 
view joining of the Service, has been dramatically altered or 
changed in the last several years.
    Several weeks ago, Senator McCaskill and I and others wrote 
to you about some of these challenges that you're having, in 
terms of the expansion of West Point and Officers Candidate 
Schools. We've reached sort of a level on this. It seems that 
we're reaching a perfect storm here, both in terms of attitude 
of young people going in, and in terms of the key personnel 
that are in there, remaining and staying. For those that do 
remain and stay, and that have been called on to go to Iraq and 
Afghanistan, it's an explosion in terms of domestic problems 
and challenges that are happening.
    What's your take of this? How should we view all of this? 
Is this the perfect storm, what's happening in terms of the 
military? How much should we be concerned about it? Is it just 
enough to change the tempo of service from 15 to 12 months? If 
you look at all of these kinds of indicators together, and take 
them, it certainly poses a very serious kind of challenge for 
the military. How are we going to deal with this?
    General Casey. Senator, you're right, and you are seeing 
the signs of a force that is stretched and under stress. The 
Secretary and I monitor these and other trends on a very 
regular basis, and it is something that we are all very 
concerned about and watch very closely.
    That said, there are some other positive indicators that we 
also watch. For example, retention: NCO retention in all three 
of our components is well above 100 percent. That's a very 
strong signal. We believe that even though the force is 
stretched, they are still a very dedicated and committed group.
    The second thing I'd say is that all of these indicators 
that you've mentioned, we are looking at and addressing. You 
mentioned suicides; that is something that concerns us all. We 
have a four-point program that we've been implementing for some 
time to reduce the stigma, to raise awareness, increase access 
to behavioral health care, and provide feedback to commanders.
    So, it's a combination of, one, recognizing that, yes, the 
force is stretched and stressed, and then, two, taking 
aggressive action to provide as much support and mitigation to 
the soldiers and the families as we can.
    Senator Kennedy. You had a task force that was focused on 
suicide, and then that became, as I understand, generally 
underfunded until very recently. I don't know what the take is 
on that. It seems to me, the re-enlistment rate is certainly 
something to be watched, but if you're looking across the board 
on this, in terms of the youths' attitude about whether to join 
the Service, all the steps that's been necessary to try and 
bring people into the Service, the challenge that people have 
in remaining in the Service, who are the high-quality figures 
in their mid-career, the majors and the captains, particularly 
those who have been involved in combat arms, it's certainly a 
pattern of enormous kinds of dangers. I'm just interested in 
what we're looking at. Do you take each of these components and 
try and deal with them individually? Do you look at this 
globally? How are you trying to come to grips with this in a 
meaningful way?
    Secretary Geren. Senator, we're in our 7th year of combat 
operations, and next month will have been 5 years in Iraq. I 
don't think it's surprising to see some of these personal 
indicators that you've noted start to show the stress on the 
force, both on the soldiers and on the families. On a macro 
level, one of the most important things we can do is get the 
deployment lengths down from 15 months to 12 months, and get 
the dwell time greater than the deployment length. That will go 
a long way towards reducing a lot of this stress on the force.
    But the symptoms of the stress, and you've done an 
excellent job of detailing them, we are approaching every one 
of those individually, as well. The suicides we've seen; we've 
watched the divorce rates; we've seen an increase in the number 
of divorces among females; we have family programs, chaplain 
programs, and other support programs to try to address that. We 
have an increase in the number of soldiers that have sought 
treatment for mental health. We're trying to staff up and do a 
better job of meeting those needs.
    So on a macro level, we're trying to grow the Army, and 
we're trying to reduce the stress on individual soldiers. But 
then, in detail, we're going after every one of those symptoms. 
We have an aggressive program to try to attack every single one 
of those and help soldiers, and help families deal with this 
stress.
    Senator Kennedy. Let me just say, finally, in December I 
mentioned I sent a letter to you with Senators Biden, Bayh, and 
McCaskill urging you to develop a plan to efficiently and 
effectively manage your accession pipeline. In developing a 
plan, we suggested that you conduct a thorough review of the 
Army's professional military education and career progression 
and selection programs. Your response, Mr. Secretary, to our 
letter detailed some long-term solutions to these problems, 
such as precommissioning retention programs and increasing West 
Point and ROTC production. For many of us, though, our concern 
is more immediate, and I'd hope you'd take a look again at the 
letter that we sent.
    Secretary Geren. Yes, sir.
    Senator Kennedy. Thank you.
    Secretary Geren. We have taken immediate steps to respond 
to the concerns raised in your letter, and I share your 
concerns. The GAO report that you noted in your letter made 
some very important observations about our officer accessions, 
and we are taking immediate steps, and we have a task force 
that is going to be reporting back to the chief and me within a 
couple months. Then we're going to take some additional steps. 
But, you've raised some very important points in that letter 
about the need to do a better job of coordinating officer 
accessions, and we are acting on that.
    Senator Kennedy. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Kennedy.
    Just one more question about the FCS program. It's, as you 
point out, a critically important program for Army 
modernization, and you've given us some of the funding 
assumptions in the future, and are confident that the program 
will be completed.
    Secretary Gates said, and perhaps you were asked this and I 
missed it, that it's hard for him to see how that program can 
be completed in its entirety.
    General Casey. We discussed that with Senator Reed.
    Chairman Levin. Is there not a disconnect there?
    General Casey. I've talked directly to the Secretary about 
it. He has no problems with the program. As he said, he 
particularly likes the spinout program to help the current 
force. My sense is that, the question was formed, ``Faced with 
the inevitability of a downturn in resources, would you have to 
relook the program?'' It's a $162 billion program, and I think 
that's where he framed his answer.
    Chairman Levin. I don't understand then what your answer 
is. Did he say that it is his expectation that the program will 
not be completed in its entirety?
    General Casey. Senator, my recollection of the exchange 
was, it was about, ``Faced with a drawdown in resources, could 
we afford a $162 billion program?''
    Chairman Levin. It was on the assumption that there would 
be a reduction in overall resources, that he gave that answer?
    General Casey. I think, as the Secretary said earlier, even 
at the high point of the funding, it's less than a third of our 
procurement accounts, which are about a quarter of our overall 
budget. So, we believe that it is affordable.
    Chairman Levin. I just want to be clear that you're saying 
that Secretary Gates' comment, that it's hard for him to see 
how the program can be completed in its entirety, that was left 
out in that quote was that, ``if there is a reduction in 
overall resources for the Army,'' that then it would be hard 
for him to see it? Is that what you're saying?
    General Casey. That's my recollection. There was something 
in there about the inevitability of a decrease in resources.
    Chairman Levin. He said it was inevitable there will be a 
reduction in resources?
    General Casey. Senator, my recollection is that's the way 
the question was posed.
    Secretary Geren. He has expressed his strong support for 
the program. I also have discussed his comment with him since 
that hearing. He was expressing concern over long-term, when 
you have a program that depends on funding over many years, 
about the challenges associated with maintaining support over 
those years in the face of budget challenges. But, he assured 
me in our conversations of his strong support for FCS, and 
nothing to do with the quality of the program or the importance 
of the program. But, he was being candid about what he sees as 
the challenges, long-term, in maintaining a program such as 
that over many years.
    Chairman Levin. We thank you both. It's been a morning 
which, happily, had only three interruptions instead of five, 
so as it was, it was a bit hectic, but we very much appreciate 
your testimony and your service. Again, please, always 
represent to our troops and their families the support of this 
Senate.
    Secretary Geren. Thank you, Mr. Chairman.
    General Casey. Thank you, Mr. Chairman.
    Chairman Levin. Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                         future combat systems
    1. Senator Akaka. General Casey, with regard to the Army's Future 
Combat Systems (FCS), cost estimates continue to rise, and the most 
recent analyses by the Army and the Department of Defense (DOD) predict 
that the total cost for the program will be between $230 and $300 
billion. This program has come under scrutiny lately both due to its 
price and its immediate relevance in fighting the global war on 
terrorism. Given the level of immature technologies that are being 
integrated into FCS, and recent concerns over available networking 
bandwidth, what is the Army doing to control costs of this system over 
the coming years?
    General Casey. The Army's FCS cost estimate has not continued to 
rise. With the exception of the one-time program restructure initiated 
in 2004 (restoration of four deferred systems, introduction of current 
force Spin-Outs, added experimentation, and a 4-year program extension 
to reduce concurrency), FCS costs have been stable. The Army is aware 
of other independent cost estimates that are higher than the Army 
estimate, but much of the difference between the Army's estimate and 
the independent estimates is driven by potential risks that to date 
have not manifested themselves in negative cost performance. The Army 
has acknowledged these risks and has implemented program metrics and 
risk mitigation strategies to minimize the likelihood of the risks that 
may lead to cost growth. At this point, it would not be prudent to plan 
and budget the program to a set of potential risks.
    FCS program costs are managed through an integrated life-cycle cost 
containment strategy. The safeguards reflected in this strategy include 
state-of-the-art processes, systems, and incentives. The independent 
estimates have been reviewed by the Army and the Office of the 
Secretary of Defense.

                     cultural training of soldiers
    2. Senator Akaka. General Casey, there has been a lot of emphasis 
within the DOD lately about increasing the cultural awareness of our 
soldiers so that they may better perform counterinsurgency and 
stability operations. Training soldiers to effective levels in language 
and culture differences comes at a price, however, in reduced resources 
and time to train them in more traditional conventional areas of 
warfare. From a soldier's perspective, what do you make of these calls 
to create an Army of culture warriors, and do you think there will be 
an impact on the capabilities of the Army to perform large force 
traditional combat operations as more resources are invested in 
cultural training?
    General Casey. Training soldiers to effective levels of culture and 
foreign language capabilities is a daunting task and does indeed come 
with a price. However, the benefits to the conduct of current and 
future operations are worth the investment of both time and funding.
    Within the scope of counterinsurgency and stability operations, a 
basic level of cultural awareness is vital to plan operations and 
interact with the local populace, to include building trust and 
cooperation. Culturally aware and foreign language-enabled soldiers are 
much more adept and responsive to situations that may arise during 
these operations. Moreover, culturally aware and foreign language-
enabled soldiers and leaders contribute to the successful planning and 
execution of all types of operations, not just counterinsurgency and 
stability operations.
    The Army has several initiatives underway that build on existing 
capabilities for the total force. Cross-cultural competence training is 
embedded throughout Army professional military education. Our Training 
and Doctrine Command is developing an Army Culture and Foreign Language 
Strategy that expands training in cultural and foreign language 
competencies throughout a soldier's career. This strategy allows for 
additional focused training for units during their pre-deployment 
preparations. The Secretary of the Army has initiated a program that 
will encourage future officers to begin foreign language study during 
their participation in the Reserve Officer Training Corps.
    Cultural awareness and foreign language capabilities are combat 
multipliers that we can ill afford to neglect in the training and 
preparation of America's soldiers. Our challenge is to develop these 
skills while maintaining our basic warrior skills.

                               retention
    3. Senator Akaka. General Casey, America is now engaged in the most 
enduring conflict since establishment of the all-volunteer professional 
military, and retention has emerged as a significant challenge for the 
Army. Recently, it was reported that almost 60 percent of the 2002 
graduating class from the U.S. Military Academy at West Point left the 
Army as soon as their service commitment was fulfilled. This compares 
with only 20 percent of the class of 1998 leaving when they had 
fulfilled their commitments. Given the high taxpayer cost of training a 
cadet at West Point, what sort of programs is the U.S. Army 
implementing to try to do a better job of retaining Academy graduates 
when they complete their initial service requirements, since as 
captains they fulfill such a critical role in combat leadership 
positions in both Iraq and Afghanistan?
    General Casey. The average United States Military Academy (USMA) 
graduate loss rate for year groups 1991-2002 at 60 months of service (5 
years) is 29 percent, and it increases to 41 percent at 66 months of 
service (5.5 years). Attrition rates for year groups 2000-2002 are 
approximately 5 percent higher than the average at 60 months and 2 
percent higher than at 66 months of service. Overall, there is no 
statistical significance in the loss rate differences from USMA year 
groups 1991-2002.
    The increased loss rates, regardless of statistical significance, 
are still of concern to the Army. We have, therefore, begun a thorough 
review of officer accession and retention policies, and are assessing 
the overall health of the officer corps. We have instituted two 
initiatives to boost officer retention. First, we provide the highest-
performing cadet officers from West Point and our ROTC scholarship 
programs the opportunity to select either their branch of choice, 
initial post of choice, or a fully-funded graduate degree program. This 
incentive has garnered over 9,000 additional man-years of obligated 
service among year groups 2006 and 2007 officers. We expect this 
incentive will raise the number of high-performance officers electing 
to serve 8 years by more than a third. Second, our unprecedented 
captain retention program offers a number of incentives, including 
graduate school or a cash bonus, to encourage our best and brightest 
officers to remain on Active Duty. Analysis of the results of our first 
several months of this program indicate a slight reduction in the loss 
rates of captains in the 2000 and 2001 year groups graduating from West 
Point.

                                waivers
    4. Senator Akaka. Secretary Geren and General Casey, the number of 
waivers granted by the Army to recruits with prior criminal offenses 
and/or illegal drug usage has risen markedly since the beginning of the 
Iraq conflict. Are the commanders in the field experiencing any 
noticeable detriment to the quality of the force as a result of this 
increase in waivers?
    Secretary Geren and General Casey. The number of enlistment waivers 
has increased over the last few years, in an era of persistent conflict 
and growth of the Army. Army mechanisms for screening these individuals 
are designed to mitigate risk and have proven very effective. A recent 
study comparing trends of waivered soldiers to non-waivered soldiers 
who entered the Army from fiscal years 2003-2006 indicates that the 
soldiers who received enlistment waivers performed comparable to their 
non-waivered peers in most areas. We continue to monitor these trends 
closely.

    5. Senator Akaka. Secretary Geren and General Casey, with the 
understanding that basic training standards have not been adjusted, has 
there been any change in discipline-related failures to complete 
training as a result of this policy?
    Secretary Geren and General Casey. Overall, there has been no 
discernable adverse change in the discharge rate for discipline-related 
failures in Initial Entry Training as a result of waiver policy. A 
review of attrition rates for entry level performance and conduct 
demonstrated a decline in attrition for this category from 2003 to 
present. A recent analysis by the Human Resources Research Organization 
showed that attrition rates among individuals with approved conduct 
waivers were not significantly different from the rates among 
individuals without conduct waivers. The use of these waivers does not 
currently appear to be causing any marked overall decrease in soldier 
quality, proficiency, or abilities or increase in related attrition in 
the training base.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
   sexual assault allegations and prosecution in afghanistan and iraq
    6. Senator Bill Nelson. Secretary Geren, how many sexual assault 
allegations and prosecutions have there been since October 2001 in 
Afghanistan?
    Secretary Geren. There have been 76 unrestricted sexual assault 
allegations in Afghanistan since October 2001. Of the 76 
investigations, four remain in open investigative status. There were at 
least nine military courts martial, one trial by Italian authorities 
for an allegation against one of their soldiers, and one trial by 
Egyptian authorities for an allegation against one of their soldiers.
    In addition to the 76 unrestricted reports of sexual assault 
investigated by the U.S. Army Criminal Investigation Command (USACIDC), 
there have been five restricted reports of sexual assault recorded by 
soldiers in Afghanistan since DOD instituted the restricted reporting 
option in June 2005. Restricted reports are not reported to the chain 
of command or USACIDC, and are, therefore, not investigated or 
prosecuted.

    7. Senator Bill Nelson. Secretary Geren, how many sexual assault 
cases have been reported since March 2003 in Iraq?
    Secretary Geren. There have been 454 unrestricted sexual assault 
cases in Iraq since March 2003. In addition to the 454 unrestricted 
reports of sexual assault investigated by USACIDC, there have been 15 
restricted reports of sexual assault recorded by soldiers in Iraq since 
DOD instituted the restricted reporting option in June 2005. Restricted 
reports are not reported to the chain of command or USACIDC, and are, 
therefore, not investigated or prosecuted.

    8. Senator Bill Nelson. Secretary Geren, what is the disposition of 
each of these cases?
    Secretary Geren. The disposition of the 454 sexual assault 
investigations in Iraq:\1\
---------------------------------------------------------------------------
    \1\ Some cases had more than one suspect, so dispositions will not 
equal investigations.

80........................................  Courts Martial
72........................................  Non-judicial punishment
                                             (Article 15, Uniform Code
                                             of Military Justice)
1.........................................  U.S. Federal District Court
                                             prosecution under provision
                                             of MEJA
2.........................................  Referred to the U.S. Navy
                                             for action as subjects were
                                             Navy personnel
64........................................  Adverse personnel actions
21........................................  Referred to local
                                             authorities
15........................................  No action taken by
                                             responsible authorities
25........................................  Remain unsolved
160.......................................  Either not substantiated or
                                             unable to develop
                                             sufficient evidence to
                                             support any type of
                                             judicial or adverse action
29........................................  Still pending action by
                                             commanders in the field
39........................................  Still open and active
                                             investigations



    9. Senator Bill Nelson. Secretary Geren, what are the Service 
components or government agencies involved in each investigation?
    Secretary Geren. In both Iraq and Afghanistan, the USACIDC is the 
agency responsible for investigating all unrestricted sexual assault 
allegations that occur and either involves U.S. Army soldiers as 
subjects or victims or both, no matter the location, or occurs on Army 
installations and involves anyone, regardless of status. Depending on 
the availability of other military and Federal criminal investigative 
organizations such as the Navy, Air Force, or FBI, the location of the 
alleged offense and persons involved and the status of the alleged 
offender joint investigations between USACIDC and these other agencies 
may occur. For the cases mentioned in the preceding question, USACIDC 
was the primary investigative agency. Recent changes provide Uniform 
Code of Military Justice (UCMJ) authority over civilians and USACIDC 
investigative authority has expanded to include all civilians accused 
of criminal acts who are accompanying the Army, or working on Army 
contracts, no matter where the crime occurs. For civilian offenders, 
prosecution would be with local judicial authorities (especially for 
local and third country nationals), U.S. Federal prosecutors under the 
provisions of the Military Extraterritorial Jurisdiction Act (MEJA), 
or, as of October 2007, with military authorities under the UCMJ.

    10. Senator Bill Nelson. Secretary Geren, what is the status of the 
persons involved in each case, i.e. Active military, U.S. government 
civilian employee, contract employee, or Iraqi national?
    Secretary Geren. Of the 76 investigations in Afghanistan, 49 
suspects were U.S. Army soldiers, 14 suspects were local or third 
country nationals, two suspects were U.S. civilians, one was a member 
of the U.S. Air Force, three suspects were from foreign militaries, and 
nine were unknown. In those same 76 investigations in Afghanistan, 
there were 78 U.S. Army soldier victims, 3 local or third country 
national victims, 5 U.S. civilian victims; 3 were in the U.S. Air 
Force, 1 in the U.S. Navy, and 1 in the U.S. Marine Corps. Some of 
these investigations remain active investigations and the number and 
type of persons involved may change in the future.
    For the 454 investigations in Iraq, there were 375 U.S. Army 
soldier suspects, 62 local or third country national suspects, 16 U.S. 
civilian suspects, 3 U.S. Navy suspects, 2 U.S. Air Force suspects, 2 
U.S. Marine Corps suspects, 5 suspects from foreign militaries, and 28 
unknown suspects. In those same 454 investigations in Iraq, there were 
467 U.S. Army soldier victims, 14 local or third country national 
victims, 22 U.S. civilian victims, 4 U.S. Navy victims, and 6 U.S. Air 
Force victims. Some of these investigations remain active 
investigations and the number and type of persons involved may change 
in the future.

    11. Senator Bill Nelson. Secretary Geren, who has jurisdiction or 
investigative authority for sexual assault allegations in both 
Afghanistan and Iraq?
    Secretary Geren. In both Iraq and Afghanistan, the USACIDC is the 
agency responsible for investigating all unrestricted sexual assault 
allegations that occur and either involves U.S. Army soldiers as 
subjects or victims or both, no matter the location; or occurs on Army 
installations and involves anyone, regardless of status. Depending on 
the availability of other military and Federal criminal investigative 
organizations such as the Navy, Air Force, or FBI, the location of the 
alleged offense and persons involved, and the status of the alleged 
offender, joint investigations between USACIDC and these other agencies 
may occur. For the cases mentioned in the preceding question, USACIDC 
was the primary investigative agency. Recent changes provide UCMJ 
authority over civilians and USACIDC investigative authority has 
expanded to include all civilians accused of criminal acts who are 
accompanying the Army, or working on Army contracts, no matter where 
the crime occurs. For civilian offenders, prosecution would be with 
local judicial authorities (especially for local and third country 
nationals), U.S. Federal prosecutors under the provisions of the MEJA, 
or, as of October 2007, with military authorities under the UCMJ.

    12. Senator Bill Nelson. Secretary Geren, could you provide a clear 
explanation of the rules, regulations, policies, and processes under 
which sexual assaults are investigated and prosecuted?
    Secretary Geren. Allegations of sexual assault involving soldiers 
as either suspects or victims, regardless of location, or allegations 
of sexual assault that occur on Army installations, regardless of the 
status of the participants, are investigated by the USACIDC. 
Allegations of crimes involving soldiers that occur on other Service 
controlled bases (e.g. U.S. Marine Corps) are investigated by that 
Service's criminal investigative organization. Prosecution of soldiers 
is a command function pursuant to the UCMJ, and the Manual for Courts-
Martial (MCM). The MCM provides general guidance to commanders on the 
disposition of any offense. However, pursuant to Army policy, authority 
to dispose of cases that resulted from allegations of sexual assault is 
withheld to the Battalion commander level and above, and that commander 
may do so only after receiving the advice of a judge advocate. 
Prosecution of civilians accused of criminal offenses may be 
accomplished either through local law enforcement/judicial authorities 
(especially for local nationals) or through the Department of Justice 
(DOJ) under the MEJA of 2000, if the acts occurred overseas. Under 
MEJA, the USACIDC provides its investigative report concerning a 
civilian suspect to either the Combatant Commander, or his Staff Judge 
Advocate, who may refer the case and the investigative report to the 
DOD General Counsel's office for coordination with the DOJ. Article 
2(a)(10), UCMJ, also provides for UCMJ jurisdiction over civilians 
serving with or accompanying the force in the field during contingency 
operations.

    13. Senator Bill Nelson. Secretary Geren, have any civilians been 
prosecuted during the entirety of U.S. involvement in Afghanistan and 
Iraq under the UCMJ?
    Secretary Geren. No. Jurisdiction over civilians was expanded on 
October 17, 2006 when the John Warner National Defense Authorization 
Act for Fiscal Year 2007 amended Article 2(a)(10), UCMJ. The expansion 
provided for UCMJ jurisdiction over civilians serving with or 
accompanying the force in the field during contingency operations. 
Prior to the effective date of the act, there were no prosecutions, 
because UCMJ jurisdiction over civilians was limited to periods in 
which there is a formal declaration of war. There have been no 
prosecutions of civilians since the statutory amendment became 
effective.

    14. Senator Bill Nelson. Secretary Geren, have any civilians been 
prosecuted during the entirety of U.S. involvement in Afghanistan and 
Iraq under any other U.S. or international law? If so, what 
international laws?
    Secretary Geren. Yes. I am aware that one former soldier, 
Specialist Steven Green, is being prosecuted under the MEJA of 2000 in 
Federal District Court in Kentucky, after being accused of murder and 
rape of Iraqi nationals in Iraq. Additionally, one U.S. civilian, who 
indecently assaulted a soldier in Iraq in 2005, was prosecuted and 
convicted in Federal District Court in Georgia. Issues relating to the 
prosecution of civilians serving with or accompanying our forces 
overseas under U.S. laws and international law are under the purview of 
the DOD Office of General Counsel (OGC). DOD OGC coordinates directly 
with the DOJ in its exercise of jurisdiction under MEJA, and maintains 
records and information on these cases or their disposition. Given 
DOD's and DOJ's responsibility and control over this process, they 
would be better positioned to provide specifics regarding the number of 
cases and their disposition. I am not aware of any American civilian or 
soldier being prosecuted in international tribunals. However, DOD OGC 
is the best source of data for this question.

    15. Senator Bill Nelson. Secretary Geren, what are the 
circumstances of all cases that have been prosecuted under the UCMJ or 
U.S. or international law?
    Secretary Geren. For Army activity under the UCMJ, there have been 
96 summary, special and general courts-martial of soldiers for sexual 
assaults in Iraq and Afghanistan. The alleged offenses include rape, 
forcible sodomy, sodomy with a child, and indecent assault. There have 
been an additional 92 adverse administrative and non-judicial actions 
for soldiers accused of sexual assaults. Under MEJA, one former 
soldier, Specialist Steven Green, is being prosecuted in Federal 
District Court in Kentucky, after being accused of murder and rape of 
Iraqi nationals in Iraq; and one U.S. civilian who indecently assaulted 
a soldier in Iraq in 2005 was prosecuted and convicted in Federal 
District Court in Georgia. Given DOD's and DOJ's responsibility and 
control over the application of MEJA, they would be better positioned 
to provide specifics regarding the number of cases and their 
disposition. I do not know of any cases where U.S. soldiers have been 
prosecuted for sexual assault under international law, at international 
tribunals, or in foreign domestic courts arising from allegations of 
misconduct in Iraq or Afghanistan. I would again encourage consultation 
with DOD OGC concerning this matter.

    16. Senator Bill Nelson. Secretary Geren, what is the law that 
governs civilian contractors (DOD, State, or any other U.S. Government 
agency) who are alleged to have committed crimes?
    Secretary Geren. Civilian contractors are subject to prosecution 
under the MEJA of 2000, and as of October 17, 2006, the UCMJ, Article 
2(a)(10). If a civilian in Afghanistan or Iraq commits a criminal 
offense that violates U.S. Federal criminal law, the MEJA allows the 
military to investigate the incident and coordinate with the DOJ 
concerning prosecution of the case. Under MEJA, civilian contractors 
are subject to prosecution under U.S. Federal criminal law if they 
commit a criminal act that would have been a felony-level Federal 
offense if committed within the United States. MEJA also requires that 
the contractor be employed by or contracted to the DOD, or that their 
employment or contractual work for another agency supports the mission 
of DOD. Since October 17, 2006, UCMJ jurisdiction extends to civilian 
contractors serving with or accompanying the force in the field during 
contingency operations. Therefore, civilian contractors who fall within 
this category are subject to prosecution for UCMJ offenses at courts-
martial. If jurisdiction exists under both MEJA and the UCMJ, by DOD 
policy, Federal prosecution takes precedence over UCMJ prosecution.

    17. Senator Bill Nelson. Secretary Geren, what role, if any, does 
the MEJA of 2000 play in the prosecution of civilian contractors who 
allegedly commit crimes in Iraq and Afghanistan?
    Secretary Geren. If a civilian in Afghanistan or Iraq commits a 
criminal offense that violates U.S. Federal criminal law, the MEJA of 
2000 allows the military to investigate the incident and coordinate 
with the DOJ to determine a United States Attorney's Office to 
prosecute the case. Under MEJA, civilian contractors are subject to 
prosecution under U.S. Federal criminal law, if they commit a criminal 
act that would have been a felony Federal offense if committed within 
the United States. MEJA also requires that the contractor be employed 
by or contracted to the DOD, or that their employment or contractual 
work for another agency supports the mission of DOD. Prosecution in 
MEJA cases is conducted by a United States Attorney's Office in a 
Federal District Court within the United States. If jurisdiction exists 
under both MEJA and the UCMJ, by DOD policy, Federal prosecution takes 
precedence over UCMJ prosecution of civilians.

    18. Senator Bill Nelson. Secretary Geren, how many prosecutorial 
investigations have been initiated under MEJA?
    Secretary Geren. Issues relating to the prosecutions of civilians 
under U.S. laws and international law are under the purview of the DOD 
OGC. DOD OGC coordinates directly with the DOJ in its exercise of 
jurisdiction under the MEJA of 2000. According to the DOD OGC, eight 
investigations of alleged sexual assault have been referred to the DOJ 
under the MEJA. Thus far, DOJ has proceeded with prosecution in two of 
these cases. Former soldier, Specialist Steven Green, is being 
prosecuted under MEJA in Federal District Court in Kentucky, after 
being accused of murder and rape of Iraqi nationals in Iraq; and one 
U.S. civilian who indecently assaulted a soldier in Iraq in 2005 was 
prosecuted and convicted in Federal District Court in Georgia. Both 
cases were investigated by the U.S. Army Criminal Investigation 
Command. Three cases have been declined for MEJA prosecution because 
there was insufficient evidence. The remaining three cases are listed 
as ``pending.''

    19. Senator Bill Nelson. Secretary Geren, what is the earliest date 
that you can provide to the Senate Armed Services and Intelligence 
Committees the classified and unclassified RAND report and all 
summaries titled ``Rebuilding Iraq''?
    Secretary Geren. The Chief of Legislative Liaison, Major General 
Galen Jackman, responded to your request on March 20, 2008. A copy of 
the letter from General Jackman is attached.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                 missile defense transition to the army
    20. Senator Bill Nelson. Secretary Geren, the Missile Defense 
Agency (MDA) has indicated that it is in discussions with the Army 
about its proposal for how and when to transition and transfer certain 
missile defense capabilities, such as the Terminal High Altitude Area 
Defense (THAAD) system. Can you describe your view of the proposed 
transition plan, and any concerns you have about it?
    Secretary Geren. The Army and MDA have been working plans to 
transition and transfer those Ballistic Missile Defense System (BMDS) 
elements for which the Army is the lead Service. There are currently 
three BMDS elements designated to be transferred to the Army: the 
ground-based interceptors and ground-based midcourse defense fire 
control and communications; the THAAD system; and the AN/TPY-2 Forward 
Based Mode Radar. A fourth BMDS element, the PAC-3, has already been 
transferred to the Army. For the past 2 years, we have collaborated on 
the transition and transfer plans and have participated on integrated 
product teams for each element in order to work the specific details 
associated with transition and transfer. Transition and transfer was 
the main topic of a recent Army/MDA board of directors meeting where it 
was decided to develop and sign an overarching memorandum of agreement 
with individual, event-driven element annexes to further guide the 
transition and transfer process. Our only concern with the transition 
and transfer of BMDS elements to the Army is long-term affordability. 
Element transitions must only occur when full funding is secured, as 
procurement and operations and support costs anticipated at transfer 
are beyond the Army's ability to program and fund without a total 
obligation authority increase.

                          thaad system delays
    21. Senator Bill Nelson. General Casey, the MDA budget request for 
fiscal year 2009 would delay the delivery of THAAD Fire Units 3 and 4 
by 1 year. These are near-term capabilities that we understand the 
regional combatant commanders want delivered as soon as possible to 
defend their forward-deployed forces against existing missile threats. 
If it is possible to eliminate this delay and deliver these fire units 
on time to the combatant commanders, would you support doing so?
    General Casey. Yes, and the MDA has recently taken steps to realign 
internal funding to restore planned procurement and delivery of these 
two fire units and interceptors as originally planned and scheduled. 
THAAD represents a cutting edge ballistic missile defense capability 
that we need to field as early as possible.

    22. Senator Bill Nelson. General Casey, the Joint Capabilities Mix 
study of missile defense systems indicates that we will need about 
twice the number of THAAD interceptors as the 96 we are currently 
planning to buy. Do you agree that we will need more than 4 THAAD Fire 
Units and 96 THAAD interceptors to provide adequate capability for our 
forward-deployed forces?
    General Casey. The Joint Capabilities Mix (JCM) II+ Sensitivity 
Analysis was completed in early January 2008. To date, the results of 
the study have been briefed at the Force Protection Functional 
Capabilities Board (FP FCB) and went to the Joint Capabilities Board in 
mid-February 2008. Results are scheduled to be briefed to the Joint 
Requirements Oversight Council (JROC). JCM II+ results support the 
findings of the Upper Tier interceptor inventory requirements for U.S. 
forces in 2015 that were detailed in the JCM II. These studies clearly 
show that current inventory levels are not sufficient to operate in 
multiple theaters in near-simultaneous combat operations.
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                             mental health
    23. Senator Bayh. Secretary Geren, as I understand, the reality is 
that our Nation and the military's medical system face significant 
shortages of mental health professionals. In fact, the Army is trying 
to hire 272 new mental health professionals this year. Unfortunately, 
the Army has estimated that it will have only 150 by March. As a 
result, our system today is hard-pressed and strained, at best, to 
provide the essential care that so many of our soldiers who suffer from 
traumatic brain injury (TBI) and post-traumatic stress disorder (PTSD) 
need. With that in mind, should we instead be focusing our efforts on 
taking the needed steps to increase access to quality, community-based 
and private care for our wounded soldiers?
    Secretary Geren. To provide optimal care for our soldiers, we must 
make full use of the Military Health System (MHS), the Department of 
Veterans Affairs (VA), and private sector care. Currently, the MHS 
makes extensive use of private sector care through the TRICARE Network. 
The Office of the Assistant Secretary of Defense for Health Affairs 
(HA) recently issued a new policy to ensure beneficiaries have 
appropriate access to mental health services by aligning mental health 
access standards with existing primary care access standards. This 
policy directs two new business practices. First, military mental 
health clinics must provide more self-referral capabilities, much like 
a primary care clinic. Mental health clinics traditionally operated as 
specialty referral clinics, with soldiers only having limited self-
referral capabilities. Second, the policy establishes a 7-day routine 
standard for receiving mental health treatment for a new onset, non-
urgent behavioral health condition or the exacerbation of a previously 
diagnosed condition. Military treatment facilities closely track access 
standards for our wounded soldiers. If access to care standards cannot 
be met at a military facility, the soldier is referred to the private 
sector for care. In addition, we are partnering with civilian health 
care providers to ensure that civilian providers have the education and 
training to care for our soldiers and veterans.
    DOD has focused its efforts on increasing access to community based 
care through a health care program called Military OneSource. The DOD 
provides Military OneSource at no cost to servicemembers and their 
families, and it is accessible 24/7. The health care system provides 
access to community counseling services by phone and in person. These 
counseling sessions are private and focus on issues ranging from 
reactions to deployment, to grief and loss, to stress related problems, 
to relationship problems. The servicemember or family member receives 
up to six free sessions per issue. Servicemembers can call 1-800-342-
9647 toll free, or they can access services through the website at 
www.militaryonesource.com.

    24. Senator Bayh. Secretary Geren, are you pursuing a comprehensive 
examination of TBI sufficient to provide protection for our future 
soldiers? That is, are the engineering and scientific communities being 
joined with the medical community to develop a deep understanding of 
the issues of blast waves and their interaction with the human body?
    Secretary Geren. Yes. The Army's core medical research program is 
currently supporting multiple parallel efforts to examine the medical 
effects of blast waves on the human body, and specifically on the 
brain. These efforts include evaluating the attenuating effects of 
protective equipment, as well as assessing design considerations that 
will improve the protective effect of the soldier's equipment. The 
medical research community is actively working with the engineering 
research community, multiple academic institutions, and private 
industrial labs to advance our understanding of primary and secondary 
blast effects on the human body, and to develop effective 
countermeasures to prevent injury to our warriors in the future.

    25. Senator Bayh. Secretary Geren, what are your plans to develop a 
broad body of investigators with new approaches, as opposed to a small 
number of research organizations, to research TBI and its remediation?
    Secretary Geren. There are already a myriad of research projects 
under way across a vast multidisciplinary research community, which 
includes academia, private organizations, and governmental 
organizations. The results of these multidisciplinary research 
initiatives being pursued by the best scientists in the field will 
advance our understanding of how to prevent, detect, diagnose, and 
treat TBI. Some examples of these research initiatives include 
neuroprotection and repair strategies, rehabilitation and reintegration 
strategies, and the physics of blast injury relative to brain injury.
    DOD PTSD/TBI Research Program supports basic and clinically 
oriented research that will: (1) result in substantial improvements 
over today's approaches to the treatment and clinical management of 
TBI; (2) facilitate the development of novel preventive measures; and 
(3) enhance the quality of life of persons with TBI. Congress mandated 
that the program be administered according to the highly effective U.S. 
Army Medical Research and Materiel Command's two-tiered review process 
that includes both an external scientific (peer) review conducted by an 
external panel of expert scientists, and a programmatic review. After 
the scientific peer review has been completed for each proposal, a 
programmatic review is conducted by a Joint Program Integration Panel 
(JPIP), which consists of representatives from DOD, VA, and Department 
of Health and Human Services. The JPIP identified several gaps in TBI 
research, including (1) treatment and clinical management; (2) 
neuroprotection and repair strategies; (3) rehabilitation/reintegration 
strategies; (4) field epidemiology; and (5) physics of blast. Research 
proposals that address these gaps will have the highest priority for 
funding.
    The DOD's investment strategy for the $150 million appropriation 
included multiple intramural (DOD and VA) and extramural award 
mechanisms focused primarily on pre-clinical TBI research. The funding 
mechanisms include the Concept Award, which supports the exploration of 
a new idea or innovative concept that could give rise to a testable 
hypothesis; the Investigator-Initiated Research Award which supports 
basic and clinically oriented research; the Advanced Technology-
Therapeutic Development Award, which supports studies designed to 
demonstrate the effectiveness of pharmaceuticals (drugs, biologics, and 
vaccines) and medical devices in preclinical systems and/or the testing 
of therapeutics and devices in clinical studies; the New Investigator 
Award, which supports bringing new researchers into the field of TBI; 
and the Multidisciplinary Research Consortium Award which supports 
optimizing research and accelerating the solution of a major 
overarching problem in TBI research within an integrated consortium of 
the most highly-qualified investigators.
    The DOD PTSD/TBI Research Program is offering competitive funding 
for a Clinical Consortium, which will combine the efforts of the 
Nation's leading investigators to bring to market novel treatments or 
interventions that will ultimately decrease the impact of military-
relevant PTSD and TBI within the DOD and the VA. Further, the Clinical 
Consortium is required to integrate with the DOD Center of Excellence 
(DCoE) and is intended to support the DCoE's efforts to expedite the 
fielding of PTSD and TBI treatments and interventions. Several other 
award mechanisms offered by the PTSD/TBI Research Program will also 
support preclinical and clinical trials for more effective treatments 
for TBI.
    The opportunities for funding research in TBI through these award 
mechanisms is open to all investigators worldwide, including military, 
academic, pharmaceutical, biotechnology and other industry partners. 
The competition is open, but rigorous, and the process ensures that the 
best research and brightest people are funded to provide solutions to 
the problem of TBI.

    26. Senator Bayh. Secretary Geren, how have the responders to your 
solicitations for TBI research shown investments that compliment and 
accelerate the programs of research?
    Secretary Geren. The DOD PTSD/TBI Research Program solicited 
proposals under intramural and extramural funding opportunities. 
Intramural funding mechanisms were dedicated to supporting research 
aimed only at accelerating ongoing TBI-oriented DOD and VA research 
projects or programs. Intramural proposals were solicited under two 
TBI-focused funding mechanisms, the Investigator-Initiated Research 
Award, which supports basic and clinically oriented research, and the 
Advanced Technology-Therapeutic Development Award, which supports 
studies designed to demonstrate the effectiveness of pharmaceuticals 
(drugs, biologics, and vaccines) and medical devices in preclinical 
systems and/or the testing of therapeutics and devices in clinical 
studies. Approximately $35.3 million of the $150 million TBI 
appropriation has been approved for funding ongoing DOD and VA research 
projects or programs. It is anticipated that other ongoing DOD and VA 
research will be supported indirectly through the extramural funding 
process.
    Congress mandated that the program be administered according to the 
highly effective U.S. Army Medical Research and Materiel Command's two-
tiered review process that includes both an external scientific (peer) 
review conducted by an external panel of expert scientists, and a 
programmatic review. After the scientific peer review has been 
completed for each proposal, a programmatic review is conducted by a 
JPIP which consists of representatives from the DOD, VA, and Health and 
Human Services. The members of the JPIP represent the major funding 
organizations for TBI and, as such, are able to recommend funding 
research that is complimentary to ongoing efforts.

                        unmanned aerial vehicles
    27. Senator Bayh. General Casey, as I understand, the Air Force and 
Army utilize different models for their unmanned aerial vehicle (UAV) 
crews. The Air Force's model, as it has been explained to me, is called 
Remote Split Operations. This places crews (pilots, sensors, analysts) 
in installations across the United States to allow for their constant 
usage. In turn, this means that the crew footprint in theater is 
relatively small and limited to only the launch and recovery elements. 
However, I understand that the Army is deploying the units forward 
allowing for only the use of those deployed assets (1/3 deployed, 1/3 
in train up, 1/3 in reconstitution). Does this not allow for 100 
percent utilization of Air Force crews instead of the Army's 
approximately 33 percent utilization rate?
    General Casey. The Army uses a modular Brigade Combat Team (BCT) 
centric model to generate forces for deployment. Our BCT structure 
incluces a Shadow UAS platoon of 22 soldiers. This small platoon 
conducts all launch, recovery, and flight operations. The UAS operators 
are fully integrated into the BCT mission planning and fully understand 
the commander's intent. If an unanticipated high priority mission 
occurs while a Shadow UAS is flying, the BCT can direct the operator to 
change the planned mission to provide immediate support. The Army 
currently has 20 Shadow UAS platoons, 2 Hunter UAS companies, 1 I-Gnat 
UAS detachment, and 4 Warrior-A UAS platoons deployed in OIF; and 2 
Shadow UAS platoons and 1 Warrior-A UAS platoon deployed in OEF. All 
BCTs scheduled to enter theater on the next rotation train with their 
Shadow UAS platoon to ensure the commander and staff understand how to 
employ this critical asset.

    28. Senator Bayh. General Casey, commanders abroad continue to note 
their growing UAV requirements for operations abroad. As I understand, 
the Joint Requirements Oversight Council (JROC) is currently 
reevaluating the UAV requirement for the entire DOD. Given what appears 
to be a modest explosion in need for the kind of persistent 
intelligence, surveillance, and reconnaissance (ISR) that UAVs provide, 
why is the Army not following the Remote Split Operations model the Air 
Force uses?
    General Casey. The Army focuses on tactical Reconnaissance, 
Surveillance, and Target Acquisition with its UAS assets. The 
integration of the UAS operator into mission briefings allows for 
greater understanding and facilitates dynamic retasking, effective 
manned/unmanned teaming, full use of on-board communications relay 
capabilities, and dynamic flexibility to meet emerging, time sensitive 
high risk threats. Of the 22 soldiers in the Shadow Platoon only two 
are operators not involved in launch and recover operations. If the 
Army placed those soldiers in the States they would not attend mission 
briefings, would not understand the commander's intent, and would not 
be readily available for dynamic retasking. The Army would have to add 
satellite technicians at each BCT and in the locations in the States. 
This would likely increase the footprint in theater, require the 
recruitment and training of large numbers of satellite technicians, and 
sever the critical link between the BCT commander and his UAS 
operators.

    29. Senator Bayh. General Casey, the Army currently supports an 
equivalent of 12 combat air patrols (CAPs) with its UAV fleet. The Air 
Force is anticipating that they will be able to support an estimated 24 
CAPs by June of this year thanks to a surge in their usage of personnel 
and assets. What are the Army's current UAV or ISR needs in Iraq and 
Afghanistan?
    General Casey. As of February 19, 2008, the Army has flown over 
429,000 UAS hours in theater. That includes 99,000 Raven Small UAS 
hours. Over the past 3 months, approximately two thirds of the major 
subordinate commands' full motion video requests were satisfied. The 
Army will provide a Sky Warrior Quick Reaction Capability and six more 
Shadow platoons to meet stated MNC-I shortfalls. We are awaiting 
feedback from the Chairman of the Joint Chiefs of Staff on our 
recommended courses of action to support the ISR surge.

    30. Senator Bayh. General Casey, has the Army considered an 
approach similar to the Air Force's to try and meet that current need?
    General Casey. The Army has provided the Secretary of Defense with 
options for increasing the number of Army UASs in theater. One option 
would be to accelerate the deployment of the Sky Warrior Block 0 and 
Shadow UAS into theater. Other options include mobilizing additional 
Reserve component units and adding Government Owned/Contractor Operated 
systems into theater. With all the options the Army balances the 
current need for UAS systems in theater with the scheduled rotations 
and to meet the Secretary of Defense's dwell time and boots-on-the-
ground requirements.

                          iraq and afghanistan
    31. Senator Bayh. Secretary Geren and General Casey, can you please 
delve into your plans to ensure that the force is appropriately 
balanced for future counterinsurgency or nation-building contingencies?
    Secretary Geren and General Casey. The Army continuously assesses 
capabilities to ensure the right mix of force structure to meet current 
and future strategic demands. The Army's ongoing analysis will directly 
result in the rebalancing of more than 142,000 spaces of capability, 
including the growth of 74,200 spaces of structure in the Grow the Army 
plan, by the end of fiscal year 2013. The focus of the Army's 
rebalancing and growth is to provide more special operations forces, 
infantry, military intelligence, military police, engineers, civil 
affairs, psychological operations, and critical combat service support 
enablers. These capabilities have allowed the Army to shift its weight 
to meet increasing requirements for counterinsurgency and nation 
building capabilities. The combined impact of rebalancing and growth 
will build strategic and operational depth across all three Army 
components to meet combatant commander requirements; mitigate high-
demand/low-density persistent shortfalls; and ensure the capability to 
generate, train, and sustain the force in an era of persistent 
conflict.

    32. Senator Bayh. Secretary Geren and General Casey, how is the 
Army training soldiers for both the situations today in Iraq and 
Afghanistan while also balancing the potential requirements of 
tomorrow?
    Secretary Geren and General Casey. Army training has aggressively 
adapted to fully prepare deploying forces. However, we face challenges 
to maintain balance for full spectrum conflict and future force 
modernization. The Army continues to deploy highly trained forces 
prepared for their projected mission in Iraq or Afghanistan. Units are 
alerted of their expected deployment as early as possible, identify 
mission essential tasks associated with their assigned mission, and 
focus pre-deployment training on achieving proficiency in those tasks. 
The Army has improved the capability of training venues at units' home 
stations and Combat Training Centers (CTCs) to realistically portray 
the ever changing operational environments--terrain, social, language, 
and culture--in which our soldiers are fighting. Every deploying unit 
conducts a mission rehearsal/readiness exercise or capstone event which 
features nongovernmental organizations, contractors, media, coalition 
role players, and hundreds of civilians on the battlefield.
    Given the predominance of operational deployments to Iraq and 
Afghanistan and the high demand for forces there, the Army is sensitive 
to likely atrophy of expertise for other kinds of operations. To 
counter any such trend and regain more suitable balance, the Army 
requires units to retain training focus as long as possible on the core 
tasked for which they were designed, before shifting to the tasks and 
operational conditions associated with their projected deployment. 
Doing so enables a unit to build skill on the fundamental tasks 
required of full spectrum operations--offense, defense, and stability 
operations--which are executed during any kind of operation whether 
counterinsurgency or major combat operations. As the dwell time before 
units must deploy increases over time, units will be able to train more 
on their as-designed, core tasks. Additionally, to ensure leaders 
develop in a balanced way over their extended careers, the Army 
requires professional military education courses for commissioned 
officers and noncommissioned officers to retain a broad focus on the 
entire range of military operations.
    Sustained demand of current operations has stressed the Army's 
training capability. For example, replicating current operational 
conditions at unit home stations and Army CTCs is accomplished by using 
a combination of base and supplemental funding at the expense of 
modernization. Overtime the training capability of the Army generating 
force has slipped out of balance with requirements of operating force 
because we have taken risk in manning, equipping, and resourcing the 
training base. The Army seeks to achieve balanced training capability, 
in part, by:

         Investing in training modernization for a fully integrated 
        live, virtual, and constructive training environment.
         Transferring training tasks from post-mobilization to pre-
        mobilization for Reserve component units.

    33. Senator Bayh. Secretary Geren and General Casey, can you please 
explain how long you believe the Army will be able to handle the 
current operations tempo?
    Secretary Geren and General Casey. The cumulative effects of the 
last 6-plus years at war have left our Army out of balance. The impacts 
on soldiers and units of increasing time deployed and decreasing time 
between deployments are visible in several different areas such as 
training and readiness. Additionally, there is a backlog of soldiers 
who have not attended professional military education schools 
commensurate with their rank. Units are only able to train to execute 
counterinsurgency operations rather than full-spectrum operations. 
Other potential indicators are worrisome: the competitive recruitment 
environment with a declining number of qualified potential recruits, 
the increase in the number of soldiers with post traumatic stress 
disorder, and an increasing number of suicides. However, we predict 
that we will continue to recruit and retain enough soldiers to meet our 
end strength requirements.
    The Army has identified four imperatives that we must accomplish to 
put ourselves back in balance: Sustain, Prepare, Reset, and Transform. 
The Army has accelerated its planned growth of soldiers and units and 
we expect to complete our growth by the end of 2011. In this era of 
persistent conflict, the Nation needs to field fully prepared and 
resourced forces wherever required.

    34. Senator Bayh. Secretary Geren and General Casey, you both 
mention that the force is strained; can you please contrast and compare 
your definitions of a strained force and a broken force?
    Secretary Geren and General Casey. Today's Army is out of balance, 
it is strained but not broken. Indications that the force is strained 
and out of balance include demand exceeds supply, counterinsurgency-
focused, rather than a full-spectrum trained force, accelerated 
equipment wear out, and stress on soldiers and families. Nevertheless, 
today's Army is able to meet the national strategy. The Army sends only 
properly manned, trained, and equipped units to Iraq and Afghanistan. A 
broken force lacks the capability to man, train, and equip itself to 
meet the national strategy.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor
                          joint cargo aircraft
    35. Senator Pryor. General Casey, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008 states that no funds will 
be appropriated for the procurement of the Joint Cargo Aircraft (JCA) 
until 30 days after the Secretary of Defense signs off on six reports, 
one of which being the Joint Intra-theatre Airlift Fleet Mix Analysis. 
Having been completed in December 2007, this report is long overdue to 
Congress. Where is this Fleet Mix Analysis and when will it be signed?
    General Casey. The Fleet Mix Analysis is a United States Air Force 
report; therefore, you will receive it from the Chief of Staff, Air 
Force.

    36. Senator Pryor. General Casey, how will a delay in this report 
affect the procurement and development of the JCA program for the Army?
    General Casey. The authorization delay will not effect the 
procurement of four aircraft in fiscal year 2008. The delay does impact 
JCA testing and the Business Case Analysis to support the Joint Program 
Strategy for Full Rate Production. Additionally, delayed funding will 
have a direct impact on establishing the first bed down site in 
Georgia, the maintenance contract, purchase of ground support equipment 
and special maintenance tools, and training for pilots and crew 
members. Today, we are in a day-for-day slip with regard to the first 
unit equipped in fiscal year 2010.

    37. Senator Pryor. General Casey, can you elaborate on the 
importance of the JCA for the Army and the strategic differences in 
intra-theater airlift and the last tactical mile?
    General Casey. The importance of the JCA Program to the Army cannot 
be understated. The JCA enables the Army to meet its inherent core 
logistics functions as described by Joint Publication 3-17 and Joint 
Publication 4-0. The primary mission of the Army JCA is to transport 
Army time-sensitive mission-critical (TSMC) cargo and personnel to 
forward deployed units, often in remote and austere locations, commonly 
referred to as the last tactical mile. Because of the critical nature 
of this cargo to the success of the tactical ground commander's mission 
and the short notice of its need (usually less than 24 hours), lift 
assets must be in a direct support relationship to provide the 
necessary responsiveness.
    For sustainment operations, Army fixed wing aviation performs those 
missions which lie between the strategic and intra-theater missions 
performed by the U.S. Air Force and the tactical maneuver and movement 
performed by Army rotary wing or ground assets. The JCA will provide 
point-to-point distribution where effectiveness vice efficiency is 
critical to meeting the ground tactical mission needs. Simultaneously, 
the JCA will continue to push the majority of supplies forward, 
maintaining the potential synergistic effect between efficiency and 
effectiveness. JCA for both the Army and Air Force is meant to be a 
complimentary asset.

    38. Senator Pryor. General Casey, on January 23, 2008, you met with 
General Moseley at Bolling Air Force Base for Warfighter Talks in an 
effort to strengthen joint partnerships between the Army and the Air 
Force and to discuss issues about interdependence and interoperability 
of operations. Specifically, what conclusions were drawn regarding the 
joint nature of the JCA?
    General Casey. The Army and Air Force have agreed to examine Intra-
theater Air Lift Roles and Missions as part of the Quadrennial Defense 
Review. In the most recent Air Force-Army Warfighter Talks, we 
recommitted our Services to the success of the C-27 program in its 
current format, on the current fielding timeline, and in accordance 
with the current beddown plan. Together, both Services will work any 
roles and missions issues that may arise.

                    finance and accounting officers
    39. Senator Pryor. Secretary Geren, what steps is the Army taking 
to increase the number of finance and accounting officers both within 
the Army and the combatant commands for current and future areas of 
concern?
    Secretary Geren. The Army's financial management community has 
proactively embraced transformation and modularity. Initiatives such as 
the Defense Integrated Military Human Resource Management System and 
the General Fund Enterprise Business System leverage technology to 
better use the talents of the officers within the financial management 
community. Our financial management community is also combining the 
functions of financial operations and resource management within the 
tactical structures to provide a full scope financial management asset 
for deployed commanders, while conforming to modularity for enhanced 
scale efficiencies. All these efforts maximize the capabilities of our 
current financial management officer population as the Army attempts to 
meet an increasing number of mission requirements.
    Despite these efficiencies, the experiences of OIF/OEF revealed the 
increased need for both financial management and contracting officers 
in deployed environments. The Gansler Report prescribed an increase to 
the expeditionary nature of contracting culminating with the 
establishment of the U.S. Army Contracting Command and a higher 
percentage of Army officers comprising the acquisition profession. 
Parallel efforts within the Army's financial management community 
recognized that battlefield procurement far exceeded previously 
anticipated volumes and recommended doubling the size of both corps and 
division level resource management cells. The analysis prescribed an 
increase from 4 to 8 soldiers at each echelon of these forward deployed 
money management cells--a total of 88 commissioned and noncommissioned 
officer positions across the Army. The next step toward achieving this 
increase in financial management personnel occurs in April when the 
Army's corps structure review revalidates the need and determines a 
sourcing solution.

    40. Senator Pryor. Secretary Geren, what are the incentives for a 
soldier to go into this critical field and has the Army instituted a 
general officer career path?
    Secretary Geren The Army has a well-established financial 
management career path for enlisted soldiers and officers through the 
ranks of sergeant major and colonel. However, the extraordinary 
financial circumstances of the past few years; the missions in 
Afghanistan and Iraq; the Gansler report; and expectations for a 
different budgetary landscape in the future indicate that the Army 
should increase the number of general officers from the financial 
management field.
    The Office of the Assistant Secretary of the Army (Financial 
Management and Comptroller) recently identified 16 positions across the 
Army and Joint Staff for which our skilled financial managers would be 
ideal fits. Both the Army and the Joint Staff would benefit from the 
assignment of soldiers from the financial management field to these 
jobs.
    To support growth in the number of general officers from the 
financial management community, I have agreed to the chief of staff's 
recommendation to increase the number of financial management personnel 
selected for brigadier general this fiscal year, and to select at least 
one every year thereafter. For fiscal year 2009, we are contemplating 
selecting two financial management personnel in order to accelerate by 
1 year the plan to put more financial management general officers into 
key Army and Joint Staff positions.
    The Army has not experienced any difficulties in recruiting or 
retaining uniformed financial-management personnel. Soldiers appreciate 
the inherent challenge of the job and being part of a community in high 
demand with enormous responsibility. Financial management offers the 
opportunity to make a tangible difference from the micro to the macro 
level--from helping to improve the quality of life and the service 
environment for individual soldiers and their families, to obtaining 
and shepherding the operational resources that enable the Army to 
execute its mission and build for the future.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                     national guard aviation units
    41. Senator Collins. Secretary Geren and General Casey, the Maine 
Army National Guard's Air Medical Evacuation (MEDEVAC) Company of the 
1st Battalion of the 126th Aviation Regiment is currently training at 
Fort Sill, OK, and will soon be deployed to Iraq. This will be their 
second deployment to Iraq since 2003, in addition to a deployment to 
Kosovo in 2000. The proposed DOD budget has $5.01 billion for Army 
aviation aircraft procurement. Some Army National Guard aviation units 
will be trading in their older UH-60 A model Blackhawk helicopters for 
newer model UH-60 M models. I also understand that there is a plan for 
some National Guard units to get their UH-60 A model Blackhawks 
modified to the UH-60 L configuration. While I am pleased to see that 
the Army is making great efforts to get the latest and very best 
equipment to our men and women in the National Guard, I am concerned 
that the Maine Army National Guard is not included in any of these 
plans despite the fact that they have deployed more often and more 
frequently than other National Guard Army aviation units. Can you tell 
me what the plan is to ensure that all of the Army Aviation National 
Guard units receive the most modern aircraft in order to perform all of 
their missions, both here at home, as well as when deployed overseas?
    Secretary Geren and General Casey. The Army is completely committed 
to providing the best equipment available to all aviation units, 
regardless of component. To this end, there is a deliberate review of 
the capabilities of each unit prior to its being sourced for a 
deployment to either Iraq or Afghanistan. If, during that review, it is 
determined that additional capability beyond what it currently 
possesses is either needed or appropriate for that unit to be able to 
accomplish its mission, the mechanisms to accomplish that are put into 
motion. This is the process that was used to upgrade the UH-60A MEDEVAC 
aircraft in Maine's 1-126th Aviation with the newest engines 
available--the T701D. These are the best engines in the Army and give 
that unit the added aircraft performance that is needed for the 
missions that it will perform. While the end result will be to have all 
UH-60 aviation units upgraded to UH-60Ms or UH-60Ls, fielding nearly 
2,000 Blackhawks in just these 2 configurations will take over 15 
years. This fleet will be a mix of Active and Reserve component units 
and will be fielded in a holistic manner. In the meantime, the Army 
will ensure that each unit has the proper capability. To this end, the 
needs of individual National Guard units are initially assessed by the 
National Guard Bureau, which makes an informed decision about the order 
in which these units need to receive new aircraft.

    42. Senator Collins. Secretary Geren and General Casey, despite the 
fact that the Maine Army National Guard's Air MEDEVAC Company of the 
1st Battalion of the 126th Aviation Regiment has deployed more than any 
other National Guard Air Ambulance company since 2000, it is troubling 
to see that they are not on the list to receive newer equipment. Can 
you describe the process and criteria used in determining which units 
will receive the newest aircraft?
    Secretary Geren and General Casey. The Army is completely committed 
to providing the best equipment available to all aviation units, 
regardless of component. To this end, there is a deliberate review of 
the capabilities of each unit prior to its being sourced for a 
deployment to either Iraq or Afghanistan. If, during that review, it is 
determined that additional capability beyond what it currently 
possesses is either needed or appropriate for that unit to be able to 
accomplish its mission, the mechanisms to accomplish that are put into 
motion. This is the process that was used to upgrade the UH-60A MEDEVAC 
aircraft in Maine's 1-126th Aviation with the newest engines 
available--the T701D. These are the best engines in the Army and give 
that unit the added aircraft performance that is needed for the 
missions that it will perform. While the end result will be to have all 
UH-60 aviation units upgraded to UH-60Ms or UH-60Ls, fielding nearly 
2,000 Blackhawks in just these 2 configurations will take over 15 
years. This fleet will be a mix of Active and Reserve component units 
and will be fielded in a holistic manner. In the meantime, the Army 
will ensure that each unit has the proper capability when it is needed 
most. To this end, the needs of individual National Guard units are 
initially assessed by the National Guard Bureau, which makes an 
informed decision as to the order in which these units need to receive 
new aircraft.
                                 ______
                                 
             Questions Submitted by Senator Saxby Chambliss
                     community growth around bases
    43. Senator Chambliss. Secretary Geren and General Casey, as you 
are well aware, both Fort Stewart and Fort Benning in the State of 
Georgia are in the process of growing as a result of the Grow the Army 
plan and the Base Realignment and Closure (BRAC) process, and we 
welcome that growth and look forward to having more Army soldiers and 
their families residing in the State of Georgia. This growth does bring 
challenges, and one specific challenge that I've been aware of and 
working to address for several years now is the growth in the number of 
students at local school districts resulting from an influx of 
military-connected children. No school district is going to turn away 
additional students, and I know that the folks in Muscogee County, 
Chattahoochee County, and Liberty County are eager to accommodate new 
Army families and their children into their school districts--and they 
will do so. I have had a very difficult time getting accurate estimates 
from the Army regarding how many soldiers and, consequently, how many 
school-aged children will be relocating to Georgia bases. The estimates 
have varied widely and have made it very difficult for local school 
districts to predict and plan how to accommodate this growth. However, 
everyone agrees that, at least at Fort Benning, they will experience a 
growth of several thousand students. But this is not just a Georgia 
issue. Bases and communities in Virginia, North Carolina, Kentucky, and 
Kansas will be affected as well. As you can well understand, any 
additional facilities and teachers required to accommodate additional 
students will need to be funded in advance of the students arriving. 
Local communities are challenged to pay for these expenses, especially 
when the tax base for doing so does not exist, or will likely be made 
up of non-residents who may not be paying income and property tax. Can 
you tell me what the Army is doing to partner with communities around 
bases experiencing this growth?
    Secretary Geren and General Casey. Installation commanders maintain 
dialogue with local education activities about timing and level of 
projected growth, as well as associated challenges. In December 2007, a 
Growth Summit was held in St. Louis, Missouri, where participants 
shared their communities' experiences, including techniques or services 
that would help others respond better to their anticipated growth.
    Impact Aid, a function and responsibility of the Department of 
Education, is a tool local communities use to meet the challenges they 
face in funding additional facilities and teachers to accommodate 
increased student loads. The aid is specifically designed to assist 
local school districts that have lost property tax revenue due to the 
presence of tax-exempt Federal property, or experience increased 
expenditures due to enrollment of federally connected children. The 
Army, in coordination with the DOD Office of Economic Adjustment and 
Department of Education, conducted a series of installation visits to 
provide Impact Aid stakeholders with on-the-ground knowledge of issues 
surrounding mission growth, to improve communications among all 
partners, and to identify gaps/lags in capacities.
    The accompanying table reflects school-aged dependent growth at 
Georgia installations.

------------------------------------------------------------------------
                                                Projected school-aged
           Georgia installations            dependent growth from fiscal
                                                   years 2007-2011
------------------------------------------------------------------------
Fort Benning..............................  3,983
Fort Gillem...............................  -838
Fort Gordon...............................  518
Hunter Army Airfield......................  13
Fort McPherson............................  -2,251
Fort Stewart..............................  1,963
------------------------------------------------------------------------


    44. Senator Chambliss. Secretary Geren and General Casey, how are 
you working to ensure that the children of Army families will have 
schools to attend when they arrive at a new station?
    Secretary Geren and General Casey. The Army, in coordination with 
the Department of Education's Offices of Elementary and Secondary 
Education and Management, and DOD Office of Economic Adjustment and DOD 
Military Community and Family Policy, conducted site visits to a 
representative sample (Fort Benning, Fort Bliss, Fort Drum, and Fort 
Riley) of locations to provide program stakeholders (Federal, State, 
and local) with on-the-ground knowledge of issues surrounding mission 
growth, improve communications among all partners, identify gaps/lags 
in capacities, and to more extensively document the specific requests 
for Federal action to assist communities and States responding to 
student migration.

    45. Senator Chambliss. Secretary Geren and General Casey, can you 
give me your assurances that making sure this transition is seamless 
and doing everything you can to help local communities prepare for this 
growth will remain a priority for the Army?
    Secretary Geren and General Casey. The Army is partnering with 
local communities to deal with community needs, such as schools, 
housing, and community activities, associated with Army stationing and 
growth. Garrison commanders and staff regularly engage with community 
leaders and have school liaison officers who facilitate communication 
with local education agencies to help communities deal with stationing 
and growth.
    The Army is committed to providing soldiers and families with a 
quality, supportive environment commensurate with their voluntary 
service and daily sacrifices. The Army Family Covenant lays out the 
Army's commitment to soldiers and families, and the fiscal year 2009 
budget includes $1.5 billion to make the covenant a reality. The Army 
Family Covenant is in direct response to concerns from Army families 
who expressed concern about support for family programs, physical and 
mental health care, housing, education, childcare, and employment 
opportunities for spouses.
    The Installation Management Command works extensively with 
garrisons to develop individual plans to meet staffing, funding, and 
programming requirements. Our BRAC plan addresses the needs of families 
as their numbers change on our installations. Our global rebasing plans 
include maintaining support to our soldiers and families throughout the 
process. At our installations impacted by growth, we have programmed 
new child development centers, youth centers, and fitness facilities 
and increased staffing, as needed. The Army will closely monitor these 
efforts to ensure that our families' needs are met as the Army 
undergoes this dramatic era of growth, restationing, realignment, and 
deployment.

    [Whereupon, at 12:26 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                   POSTURE OF THE UNITED STATES NAVY

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, Webb, McCaskill, Warner, 
Sessions, Collins, Chambliss, Dole, Thune, and Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Creighton Greene, 
professional staff member; Mark R. Jacobson, professional staff 
member; Gerald J. Leeling, counsel; Thomas K. McConnell, 
professional staff member; William G.P. Monahan, counsel; and 
William K. Sutey, professional staff member.
    Minority staff members present: William M. Caniano, 
professional staff member; David G. Collins, research 
assistant; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Sean J. Stackley, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Benjamin L. Rubin.
    Committee members' assistants present: Bethany Bassett and 
Jay Maroney, assistants to Senator Kennedy; Charles Kieffer, 
assistant to Senator Byrd; Frederick M. Downey, assistant to 
Senator Lieberman; Elizabeth King, assistant to Senator Reed; 
Bonni Berge and Richard Kessler, assistants to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; Gordon I. Peterson, assistant to 
Senator Webb; Todd Stiefler, assistant to Senator Sessions; 
Mark J. Winter, assistant to Senator Collins; Clyde A. Taylor 
IV, assistant to Senator Chambliss; Lindsey Neas, assistant to 
Senator Dole; Jason Van Beek, assistant to Senator Thune; Brian 
W. Walsh, assistant to Senator Martinez; and Erskine W. Wells 
III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. First, the 
committee welcomes Secretary of the Navy Donald C. Winter and 
General James T. Conway, USMC, back to the committee this 
morning. In addition, we'd like to welcome Admiral Gary 
Roughead, USN, to his first posture hearing. You are well known 
to this committee. You served as Chief of Legislative Affairs 
not too many years ago, a fairly short time, I think. Do you 
remember what years you were here as legislative affairs chief, 
if you want to admit this?
    Admiral Roughead. I wouldn't want to admit that. I think it 
was in the 2000, 2001 timeframe.
    Chairman Levin. It's great to have you back.
    Admiral Roughead. It's great to be back, sir. Thank you.
    Chairman Levin. We're grateful to each of you for your 
service, and to the valorous and truly professional men and 
women that you command and to their families, that we always 
remember when we extend our greetings and our gratitude to the 
men and women in uniform. We always remember to include their 
families, for reasons which you gentlemen are very well aware 
of.
    You're faced with a number of critical issues that confront 
the Department of the Navy in balancing modernization needs 
against the costs of supporting ongoing operations in Iraq and 
Afghanistan. In one notable case, the Nation is calling on the 
Marine Corps to surge additional forces to Afghanistan because 
of a refusal among our allies to support operations there.
    General Conway's prepared statement highlights that at 
least 3,200 marines will soon deploy to Afghanistan, without 
relaxing commitments elsewhere in the United States Central 
Command (CENTCOM) theater of operations. When I talked to 
General Conway the other day in my office, I asked him whether 
that failure on the part of our allies to do their committed 
part had any impact at all on the morale of our marines. His 
answer was a very firm, stout, and immediate ``No,'' and we 
recognize that. If we can be doubly grateful to our marines for 
that kind of a response, we are.
    The Navy's been contributing directly to the war effort in 
CENTCOM as well. In addition to the normal deployments of ships 
and aircraft in support of these operations, according to the 
Admiral's prepared statement the Navy has trained and deployed 
more than 17,000 individual augmentees (IAs) to support these 
missions on the ground in Iraq and Afghanistan. Again, not 
their usual duty, but there are no complaints, and we're 
tremendously grateful for that response.
    As we visit these men and women we talk to them about that 
issue, and they are doing their duty, period.
    General Conway. Thank you, sir.
    Chairman Levin. These activities further stress our troops 
and represent challenges to our servicemembers and their 
families. Again, let me express the thanks of every member of 
this committee and I'm sure every member of the Senate and 
every American for just how well and ably the men and women of 
the Department of the Navy and their families are responding to 
these challenges.
    A number of challenges facing the Department of the Navy 
center on acquisition programs. We have concerns about cost 
problems in the shipbuilding arena, most notably with the 
Littoral Combat Ship (LCS) program. When we met here last year, 
the Navy had cancelled the contract for the second ship with 
the first of the two LCS contractors. Since that time the 
second LCS contractor has run into much the same cost and 
schedule problems that plagued the first LCS contractor and the 
Navy cancelled that contractor's second ship as well.
    Changing requirements, poor cost estimates, inexperienced 
program managers, and poor supervision of the contractors' 
performance were among the causes of the overrun. Long ago, a 
famous study concluded: Don't monkey with requirements after 
signing a contract, because that leads to cost and schedule 
problems. I've heard through the decades that the Navy has 
learned that lesson, but it apparently still has not.
    In Marine Corps programs, we saw significant cost growth on 
the Expeditionary Fighting Vehicle (EFV) program last year. 
More recently, we've seen reports of significant problems in 
affording the VH-71 helicopter that will replace the current 
Marine Corps helicopters that support the President. We will 
need to understand what has caused those cost growth overruns 
and problems and what steps are being taken to correct them.
    In the case of the Mine-Resistant Ambush-Protected (MRAP) 
vehicle program, Congress intervened to accelerate this program 
enough so that the Marine Corps will complete filling its 
requirement for the MRAP vehicles in fiscal year 2008.
    Another concern surrounds future force levels. We're facing 
the prospect that the current Navy program will lead to 
potentially large gaps between the forces that the Chief of 
Naval Operations (CNO) has said that he needs and the forces 
that will be available to his successors. In one case, the CNO 
has said that the Navy needs to have 48 attack submarines to 
meet combatant commanders' requirements, but we are faced with 
the risk of falling well short of that goal for more than 10 
years starting during the next decade.
    Under current plans for tactical aircraft acquisition, the 
Navy is facing a shortfall of as many as 200 tactical fighters 
needed to outfit our aircraft carrier air wings. With 
shortfalls that large, we could be faced with drastically 
reducing the number of aircraft available on short notice to 
the combatant commanders, either because we've deployed 
understrength air wings or because we did not deploy the 
carrier at all because of those aircraft shortages.
    The Navy has predicted that the reduction in carrier force 
levels to 10 will not prevent them from maintaining the current 
capability to surge carriers under the Fleet Response Plan, the 
so-called 6+1 capability. If the Navy were not to have enough 
aircraft to outfit 4 of its 10 carrier air wings, this would be 
a moot point in any event.
    We look forward to the testimony of our witnesses this 
morning. We're very grateful again for their presence, for 
their commitment to this Nation, and to their fine work.
    Senator Warner, I think this may be your last Navy posture 
hearing, unless we sneak in another one before the end of the 
year.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. I've enjoyed 30 years of being with you, 
Senator, at these posture hearings, and then 5 years prior 
thereto when I sat at that table. So it's been a very wonderful 
opportunity for this humble person to have had that experience.
    I join you, Mr. Chairman, in the respect and homage we pay 
to the men and women of the Armed Forces, and today it's the 
Navy-Marine Corps team and their families for their service to 
country.
    Mr. Secretary, I was pleased when we visited the other day 
you told me about the centennial celebration for the Great 
White Fleet launched by Teddy Roosevelt 100 years ago, and how 
his aides said to him: Mr. President, we only have money to 
really get them halfway around the world. The President said: 
That's fine by me; we'll get them there and we'll park the 
ships until Congress appropriates the money to bring them home.
    So here we are. But I think those moments of history are 
important to remember. We should reflect also upon the 
Constitution, which says that this Nation shall maintain a Navy 
and raise an Army as we see fit in the appropriate time.
    Today, a third of our Fleet is underway at any one time, 
from the Western Pacific to the Arabian Gulf, sailing with the 
flag of freedom and hope, not only for our country, but for so 
many countries. We also see the trends in naval construction of 
other countries, notably China and now a rejuvenated Russian 
interest in their Navy, and that brings to mind the essential 
requirement of this country and we must remember, in effect, 
we're an island nation, and we're dependent on a maritime 
strategy for our overall security interests.
    Meanwhile, 25,000 marines are conducting our Nation's most 
pressing business in Iraq and Afghanistan, and more are on the 
way. So we salute you, General, and your forces. Today's 
hearing should ensure that we are doing all in our power so 
that they can meet that motto, the most ready at all times.
    For the Navy and the Marine Corps, this comes down to ships 
and aircraft, ordnance and armor, and a trained force of 
sailors and marines equally ready for sea and ready for war.
    The chairman covered several points that are also of 
interest to me and I'll just put that in the record as a part 
of my statement. But I'd like to say to the Commandant, I was 
impressed. I watched a piece last night, I believe it was on 
the Lehrer show, about your concern of the current armor and 
the weight of that armor and how that weight, not only of the 
individual's armor, but the armor that we put on vehicles, 
requires you to do some consideration about the future. I 
commend you for that. Certainly the uparmored Humvee has been a 
successful operation, and now the MRAP. But with that armor 
goes some loss of tactical mobility of those vehicles as well 
as the tactical mobility of the individual marine. Perhaps in 
your testimony you will touch on that decision that you've been 
making.
    We also are interested in the recruiting and training. The 
chairman and I will bring those issues into focus here.
    As the CNO, we're encouraged by the Navy's continued focus 
on the Fleet Response Plan, on stabilizing your steaming days 
and flying hours. I join the chairman with regard to the 
shipbuilding budget and, Mr. Secretary, we hope it is accurate 
and we're hopeful that we can maintain the goals that you've 
established for this coming fiscal year and in the outyears. 
That's the essential part of our responsibility here, providing 
for an adequate force.
    The 313-ship total, Admiral, is still the goal, as it 
should be, of our Fleet. We are also faced, as the chairman 
said, with shortfalls in aircraft as we try to fill the gap 
with the Joint Strike Fighter (JSF), and we'll cover that.
    But a ``well done'' to each of you gentlemen and those that 
you're privileged to have the responsibility to care for, both 
in uniform and the families, and a very significant civilian 
corps, Mr. Secretary, that you know well. I looked at your 
overall figures. It's 900,000 individuals in the Department of 
the Navy that you're responsible for, uniformed and civilian.
    Secretary Winter. Yes, sir.
    Senator Warner. Thank you, Mr. Chairman.
    [The prepared statement by Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Chairman Levin.
    General Conway, Admiral Roughead, Secretary Winter, thank you for 
your testimony today. I commend each of you for your outstanding 
leadership to our Nation, our service men and women, and theirfamilies.
    Mr. Secretary, I was pleased to note your recent centennial 
commemoration of President Theodore Roosevelt launching the great white 
fleet. President Roosevelt had a clear vision for American Seapower, 
and in the century since, our Nation's security has been underpinned by 
our preeminent position as a maritime power.
    Today, you report that a third of the fleet is deployed from the 
western Pacific to the Arabian Gulf, sailing with a freedom truly 
unmatched in history. Yet, today we also see trends in naval 
construction by foreign navies which alert us that this freedom, this 
`command of the seas' will surely be challenged ahead, and it is our 
responsibility to be prepared to meet such challenge.
    Meanwhile, 25,000 marines are conducting our Nation's most pressing 
business in Iraq and Afghanistan, to be joined soon by an additional 
Marine task force deploying to Afghanistan--another demonstration of 
the Corps' commitment, to be `most ready.'
    Today's hearing should ensure that we are doing all in our power so 
they can meet this commitment.
    For the Navy and Marine Corps, this comes down to ships and 
aircraft, ordnance and armor, and a trained force of sailors and 
marines equally ready for sea and ready for war.
    Commandant, you've stated that you're operating at ``surge-plus'' 
with marines experiencing a one-to-one ratio of time deployed to time 
back home, and that equipment usage rates are seven times greater than 
peacetime rates. I am most interested in your assessment of the Marine 
Corps' ability to sustain this operational tempo, your readiness to 
surge the additional 3,200 marines to Afghanistan next month, and how 
you will transition the experience you've gained in the Al Anbar 
province to achieve equal success in Afghanistan.
    It is important to hear from you on trends in recruiting, 
retaining, and equipping the force as you increase the Corps to an end 
strength of 202,000 marines. While we are focused today on Iraq and 
Afghanistan, it's important to understand your challenges in 
maintaining the Corps' excellence in Expeditionary Warfare.
    As well, Chief of Naval Operations, I'm encouraged by the Navy's 
continued focus on the Fleet Response Plan, on stabilizing steaming 
days and flying hours, and on increasing force readiness. Similarly, 
the Navy has been successful at managing end strength while offsetting 
increasing personnel costs--this done, while supporting ground forces 
with 10,000 sailors in Iraq and Afghanistan.
    However, the Navy's force readiness--current and future--will 
ultimately rely on ships and aircraft at sea, and I remain concerned by 
the continued downward trends in recapitalizing our fleet and naval air 
force.
    You have rightfully stated that the Navy's program to build a fleet 
of 313 ships is ``the floor'' required to meet the future threat. Yet 
today, with a force of 279 ships and just 7 ships in this budget 
request, we are simply not building at the rate we need.
    Compounding this problem, we are on the front end of a long gap to 
strike fighter aircraft. Shortfalls of at least 2, perhaps 4 air wings, 
threaten to extend beyond the next decade.
    In considering this budget request, the debate should not center on 
how we will make due with shortfalls in carriers, strike fighters, 
submarines, and amphibious lift; but rather, how we can best close 
these gaps. At the very core of this debate we must address spiraling 
cost growth, or the 313 ship fleet under the cover of 10 carrier air 
wings will remain beyond our reach. I know you all share this concern.
    Secretary Winter, I greatly appreciate your efforts to strengthen 
the business of building our Navy. Programs like the Littoral Combat 
Ship and Expeditionary Fighting Vehicle received much attention this 
past year, but the greater concern is that these programs' troubles are 
symptomatic of systems, processes and an industrial base that are 
struggling with today's demand for highly complex systems in low-rate 
production.
    I'm interested in your views on how we strike a course in 
acquisition that brings the Navy's affordability imperative in line 
with its mission requirements.
    As always, we rely on you to advise this committee on the adequacy 
of this budget request to fully support these objectives and to 
identify any challenges you face that warrant the attention of this 
committee. Again, I thank you gentlemen for joining us today and look 
forward to your testimony.

    Chairman Levin. Thank you, Senator Warner.
    Secretary Winter?

   STATEMENT OF HON. DONALD C. WINTER, SECRETARY OF THE NAVY

    Secretary Winter. Thank you very much, Mr. Chairman. 
Chairman Levin, Senator Warner, and members of the committee: 
Thank you for the opportunity to appear before you today. I am 
here to present the Department of the Navy's plan to support 
our sailors and marines in their mission to defend our Nation 
against current and future challenges.
    The President's fiscal year 2009 budget will assist the 
Navy and Marine Corps in accomplishing their complementary and 
reinforcing missions while building capabilities necessary to 
meet future threats. One of the primary responsibilities of our 
Government is to provide for the Nation's defense. Those 
responsibilities include the critical requirements to organize, 
train, and equip the naval forces. For the vast majority of 
citizens, the only cost imposed on us is financial. America is 
able to provide for the national defense with such a minimal 
impact on the citizenry because we are blessed to have among us 
a generation of people, patriots all, who volunteer to serve. 
They are the ones who bear many hardships, accept many risks, 
and go in harm's way.
    The pay and benefit funding levels in our 2009 budget 
request reflect the compensation levels necessary to continue 
to attract and retain quality personnel in the Navy and the 
Marine Corps. Furthermore, although we are doing well in our 
overall recruiting and retention numbers, I emphasize the need 
for special pays and bonuses to meet critical sub-specialty 
needs such as our requirements for nurses, physicians, and 
explosive ordnance disposal personnel.
    It is because of the hard work of our sailors and marines 
that we are making progress, fostering maritime security, 
defeating terrorist networks, progressing towards a stable 
Iraq, supporting the Afghan government, countering piracy and 
the proliferation of deadly technology, rendering humanitarian 
assistance, and strengthening partnerships around the world. 
Our sailors and marines have responded when called and superbly 
performed their many missions in our Nation's defense. It is 
truly an honor and privilege to work with them and support them 
as their Secretary.
    The Department of the Navy's fiscal year 2009 budget meets 
the challenge of resourcing the Navy and Marine Corps team 
across a range of missions, from partnership building to combat 
operations. It invests in our ability to operate, sustain, and 
develop forces that are engaged in the global war on terrorism 
while preparing the force for the challenges and threats of the 
future.
    We are requesting a total of $149 billion, a 7 percent 
increase over the fiscal year 2008 baseline. This increase is 
driven by factors such as rising oil costs and the critical 
comprehensive growth of the Marine Corps. Our fiscal year 2009 
budget reflects three key priorities, which are consistent with 
those of previous years. They are: first of all, prevail in the 
global war on terror; second, take care of our sailors, 
marines, and their families, and particularly our wounded; and 
lastly, prepare for future challenges across the whole spectrum 
of operations.
    To help meet our first priority, prevail in the global war 
on terror, we are adapting our force for current and future 
missions, to include growing the Marine Corps, shaping the 
force by recruiting and retaining the right people, and 
addressing critical readiness needs. Among the most critical 
readiness needs is the ability to train our sailors and marines 
for the threats that they may encounter. Unfortunately, our 
Navy has encountered increasing encroachments in our ability to 
conduct critical training. We recognize that there are on 
occasion impacts on the citizenry at large associated with such 
training. But these are necessary costs that are critical to 
the defense of the Nation. We take extensive precautions to 
minimize the impact of our training. We owe it to the American 
people and we owe it to those who serve to acknowledge that, as 
in all things in life, there are competing interests and 
tradeoffs and that we treat the risks of sonar operation at sea 
or the impact of jet noise the way we treat all public policy 
issues, balancing risks and costs against legitimate national 
security interests.
    I greatly appreciate the support this committee provided us 
last year with respect to Miramar Air Station, thereby ensuring 
that our naval aviators can continue to receive vital training. 
I commit to you today that I will continue to keep you apprised 
of legal challenges and their implications for readiness that 
we face over the course of the coming year.
    Mr. Chairman, if in the future we are unable to properly 
train our sailors and marines we will have failed to do our 
duty to them and to the American people.
    Another critical issue I would like to highlight concerns 
doing right by those who go in harm's way. As Secretary of 
Defense Robert M. Gates has stated, apart from the war itself 
we have no higher priority than to take care of our wounded. 
Our wounded warriors and their families deserve the highest 
priority care, respect, and treatment for their sacrifices. Our 
2009 budget honors our commitment to ensure that our sailors 
and marines receive the appropriate care, training, and 
financial support that they need.
    Finally, to meet the challenges of the future, the 2009 
budget provides for a balanced fleet of ships, aircraft, and 
expeditionary capabilities with the fighting power and 
versatility to carry out blue, green, and brown water missions 
wherever called upon.
    Furthermore, I would like to note that, consistent with our 
commitment to assure affordability and timely delivery of 
capabilities, we have launched an acquisition improvement 
initiative to provide better integration of requirements and 
acquisition decision processes, improve governance and insight 
into the development, establishment, and execution of 
acquisition programs, and formalize a framework to engage 
senior naval leadership.
    Mr. Chairman, I am grateful for the strong support this 
committee and Congress at large have given our Navy and Marine 
Corps team. I want to thank you on their behalf. Our Navy and 
Marine Corps are a strong, capable, and dedicated team. I 
appreciate the opportunity to represent them today and I look 
forward to your questions.
    [The prepared statement of Secretary Winter follows:]
              Prepared Statement of Hon. Donald C. Winter

 The Navy and Marine Corps Team . . . fighting today and preparing for 
                           future challenges

                            i. introduction
    Chairman Levin, Senator McCain, and members of the committee, it is 
an honor to appear again before you representing the men and women of 
the United States Navy and the United States Marine Corps--Active, 
Reserve, and civilian--a force of over 800,000 strong.
    I am here to present the Department of the Navy's (DON) plan to 
support our sailors and marines in their mission to defend our Nation 
against current and future challenges as they conduct operations 
spanning the spectrum, from major combat to humanitarian assistance. 
The President's fiscal year 2009 budget will assist the Navy and Marine 
Corps in accomplishing their complimentary and reinforcing missions, 
while building capabilities necessary to meet future threats. The 
fiscal year 2009 budget balances capabilities to support both 
traditional and irregular warfare demands. It also continues to expand 
the Marine Corps' capacity and furthers the transformation from a blue 
water navy into one that can fight and win in the blue, green, and 
brown waters.
    As I reflect upon my time as Secretary of the Navy, nothing is more 
sobering than the experience of seeing--every single day--the 
dedication, professionalism, and willingness to sacrifice shown by our 
sailors, marines, civilian employees, and their families. I will attest 
to you their unwavering commitment to duty. These patriots put 
themselves in harm's way to protect our Nation. From those who have 
given the ultimate sacrifice, such as Medal of Honor recipients 
Lieutenant Michael Murphy and Corporal Jason Dunham, to those who daily 
take the pledge to support and defend our Nation, our Navy and Marine 
Corps Team is second to none. It is because of their efforts that we 
are making progress fostering maritime security, defeating terrorist 
networks, progressing towards a stable Iraq, supporting the Afghan 
government, countering piracy and the proliferation of deadly 
technology, giving humanitarian assistance to people in need after 
tsunamis and earthquakes, and strengthening partnerships around the 
world. The men and women of the Navy and Marine Corps have responded 
when called upon. It is an honor and privilege to work with them and 
support them as their Secretary.
    Today our Nation is faced with a myriad of challenges and 
uncertainties across the globe. There have been several unexpected, and 
sometimes sudden, changes in the security environment over the past few 
years. Yet many of the strategic imperatives of the United States--
particularly with respect to the maritime environment--remain 
unchanged. It is clear the United States must have the capacity to act 
in such a fluid and unpredictable environment, and that naval forces 
offer unique flexibility to respond swiftly and decisively anywhere in 
the world. Providing this flexibility requires that the DON invest 
wisely across a wide range of capabilities, and that we take care to 
deliver a balanced portfolio of capabilities to the joint force. 
Worldwide presence, credible deterrence and dissuasion, projection of 
power from naval platforms anywhere on the globe, and the ability to 
prevail at sea are the critical, most fundamental elements of the Navy 
and Marine Corps strategic posture; these are our indispensable 
contributions to the joint warfighting capability of the Nation.
    The United States is a maritime power, bounded by sea to the east 
and west. The health of our national economy depends on assuring safe 
transit through the seas--and the maritime dimension of international 
commerce is ever increasing. Consider that 70 percent of the earth is 
covered by water, 80 percent of the world's population lives in close 
proximity to the coast, and 90 percent of the world's international 
commerce is transported via the sea. Given our national interests, and 
the role we play in the world, it is unsurprising that our sailors and 
marines are constantly called upon to react to a wide range of 
challenges. I suggest that the strength of a nation's naval force 
remains an essential measure of that nation's status and role in the 
world. I also submit that maritime dominance by the United States 
remains vital to our national security, to our position in the world, 
and to our ability to defend and promote our interests.
    Last fall, the DON, in collaboration with the U.S. Coast Guard, 
reaffirmed its emphasis on the traditional capabilities of forward 
presence, deterrence, sea control, and power projection in its new 
Maritime Strategy: A Cooperative Strategy for 21st Century Seapower. 
However, the Maritime Strategy also makes clear that we consider our 
core capabilities to include maritime security and the provision of 
humanitarian assistance and disaster relief--areas of growing 
importance. The strategy emphasizes the use of soft power, and 
highlights the criticality of our foreign friends and allies, while 
reminding us that the underlying credibility for partnerships and peace 
is the United States' ability to swiftly defeat a threat with 
overwhelming and decisive combat power.
    The unique nature of our Department is such that the Navy and 
Marine Corps team is a constantly deployed force, both in peacetime and 
in war, with the further ability to surge assets worldwide, anytime 
required. As we consider the current and projected strategic 
environment, we must anticipate a steadily growing reliance on our 
unique expeditionary character. This is becoming ever more apparent. 
The challenge of resourcing our two services across such a large range 
of steadily growing global missions, from partnership building to 
combat operations, is one that we have met with the President's fiscal 
year 2009 budget.
    Reflected in the budget submittal is the fact that today's Navy and 
Marine Corps are operating in blue, green and brown waters, in the air 
and on the shore--and sometimes deep inland--facing a wide variety of 
threats. On any given day, approximately 40 percent of the fleet is 
deployed at sea or involved in pre-deployment training. Forward 
deployed carrier and expeditionary strike groups operate on the high 
seas, unencumbered by constraints facing land-based forces. They are 
providing our combatant commanders with many important and powerful 
combinations of capability: tactical aviation, land attack systems, 
SEAL and Marine Special Operations Forces (SOF), intelligence and 
surveillance platforms, amphibious assault and forcible entry capacity, 
over-the-horizon force projection, and flexible seabasing and at sea 
logistical support. Our full spectrum of capabilities also includes 
ship-based ballistic missile defense--providing a shield that not only 
protects our maritime freedom of movement and access, but which also 
contributes to the defense of our allies and our homeland against 
missile threats. In other words, we are presenting a budget which 
supports a force in high demand across the globe.
    The President's budget does more than just fulfill our 
responsibilities in today's complex environment; it continues to evolve 
our portfolio of capabilities. This is essential to our ability to 
defend against future threats which could range from the asymmetric--
from terrorists to proliferation and/or use of weapons of mass 
destruction--to the more traditional challenges posed by nation-states 
and possible future ``near peer'' competitors.
    Evolving our portfolio of capabilities can be challenging, since 
the Navy and Marine Corps have an operational construct that emphasizes 
forward deployment and presence. Historically, while the bulk of U.S. 
forces return home after cessation of a conflict or crisis, our 
maritime forces often do not. They are continuously present in forward 
regions, and through their forward engagement they maintain familiarity 
with the environment and the characteristics of regional actors; they 
also foster and sustain trust and cooperation with friends and allies. 
Thus when a threat to our national security emerges overseas, it may 
well be encountered first by the Navy and Marine Corps. Meeting that 
threat, whether on land, in the air, on the high seas, or under the 
sea, will require our forces to be in peak fighting condition. They 
must be ready to fight and win at any time, and to do so at great 
strategic distance. We have developed a budgetary plan which addresses 
these requirements.
    We have developed the budget in the face of a demanding and rapidly 
changing security environment, and there are worrisome trends that bear 
watching. Nations are developing weapons and systems which seem 
deliberately intended to threaten our naval assets, deny access, and 
restrict our freedom of maneuver. The proliferation of anti-access 
weapons technology to unfriendly nations is a significant concern. 
Furthermore, the DON, like other parts of the Department of Defense 
(DOD), has been a target of aggressive foreign intelligence and data-
collection activities. As such, we need to invest in the capabilities 
necessary to preserve our technological advantage. Additionally, aside 
from growing costs and schedule delays in some acquisition programs, we 
also struggle with regulatory encroachment and legal challenges that 
threaten to undercut our ability to effectively train and maintain 
readiness. We must address these challenges; doing so is fundamental to 
maintaining our naval readiness and our capability to defend our 
Nation.
    In summary, the DON's fiscal year 2009 budget invests in the Navy 
and Marine Corps to operate, sustain and develop forces that will 
remain engaged in the global war on terrorism, while at the same time 
preparing the force for the challenges and threats of the future. The 
fiscal year 2009 budget requests $149.3 billion for these purposes. 
This is a 7-percent increase over the fiscal year 2008 baseline and is 
driven by factors such as rising oil costs and the critical, 
comprehensive growth of the United States Marine Corps.
Priorities for the Department of the Navy
    The DON is committed to finding solutions that allow the Navy and 
Marine Corps to balance our current requirements and operational 
realities with the likely needs of the future. We strive to maintain an 
agile and flexible force that can not only contribute to winning our 
Nation's wars but also can assist in preventing future conflict to the 
extent possible--whether by dissuasion, deterrence, humanitarian 
action, or disaster relief. As such, our priorities remain consistent 
with those in previous years. They are to:

        <bullet> Prevail in the global war on terrorism;
        <bullet> Take care of our sailors, marines, their families and 
        particularly our wounded; and
        <bullet> Prepare for future challenges across the full spectrum 
        of operations.

    As in the past, for the sake of brevity, some of the key programs 
are highlighted and can be found in greater detail in the Highlights of 
the DON fiscal year 2009 budget.\1\ This statement is designed to 
reinforce, and build upon, initiatives articulated in previous 
testimony and budget material.
---------------------------------------------------------------------------
    \1\ Highlights of the DON fiscal year 2009 budget, February 2008.
---------------------------------------------------------------------------
               ii. prevail in the global war on terrorism
    The Department's top priority remains the global war on terrorism. 
Today, approximately 29,300 marines and 11,300 sailors (including 
individual augmentees) operate ashore, along with 12,000 sailors at 
sea. They are conducting and supporting operations in Iraq and 
Afghanistan, and throughout the U.S. Central Command region, and their 
contributions are central to the progress being made.
    Naval forces provide a major part of the national worldwide 
rotational presence and an increasing portion of the required support 
for ground units in Operation Enduring Freedom (OEF) and Operation 
Iraqi Freedom (OIF). They operate across the spectrum--from low 
intensity conflict, humanitarian assistance and disaster relief, to 
high intensity conflict involving airborne strike and Marine Corps 
forces in coordinated joint and coalition ground operations. To 
illustrate the wide range of activities undertaken, it is noteworthy 
that, in 2007, five Carrier Strike Groups and five Expeditionary Strike 
Groups deployed in support of OEF and OIF. Throughout 2007 the Marine 
Corps provided three embarked Marine Expeditionary Units (MEUs) forward 
positioned in all geographic commands. Two of these MEUs were employed 
ashore in support of Multinational Force-West and participated in 
sustained combat operations. Naval aviation, afloat and ashore, in 
concert with U.S. Air Force and coalition aviation forces, has provided 
critical strike, overland surveillance, logistical and electronic 
warfare support to the joint land forces deployed in Iraq and 
Afghanistan. The Navy has also deployed riverine forces for the first 
time since Vietnam, operating on Lake Thar Thar and the Euphrates 
River. The Marine Corps also achieved a milestone with successful 
deployment of the first MV-22 Osprey squadron in OIF operations. Naval 
Special Warfare (NSW) forces continue to be actively engaged in 
combating terrorism. The Navy SEALs and the Marine Special Operations 
Command have done outstanding work in OIF/OEF and have made critical 
progress in countering the threat of international terrorism. We will 
continue to prioritize investment and retention of our highly-skilled 
Special Operations Forces.
    In addition to traditional types of maritime activities, the Navy 
continues to support the global war on terrorism in a variety of non--
traditional areas. For example, Navy sailors are leading a number of 
Provincial Reconstruction Teams in Afghanistan today. Significant 
numbers of naval combat support and combat service support personnel 
are relieving the Army and Marine Corps in select mission areas. In 
U.S. Central Command, Navy personnel are providing base and port 
operations support, medical, explosive ordinance disposal, construction 
battalions, civil affairs, electronic warfare, mobile security forces, 
detainee operations, intelligence, and headquarters staff support. The 
Navy also continues command of the detainee mission in Guantanamo Bay, 
Cuba and at Camp Bucca, a high security prison in Iraq. Executive agent 
responsibilities are discharged by the Navy for the global war on 
terrorism-related Combined Joint Task Force Horn of Africa (CJTF HOA) 
in Djibouti. CJTF HOA has transformed from its initial seafaring force, 
aimed at blocking terrorists fleeing Afghanistan (and preventing them 
from establishing new safe havens), into a task force that also 
conducts military-to-military training and humanitarian assistance over 
a large geographic expanse of eight countries.
    With respect to the Marine Corps, the II Marine Expeditionary Force 
Forward, augmented by marines from around the Corps, conducted 
counterinsurgency operations in Iraq and led the Multinational Force-
West in Al Anbar Province, supported by Army, Air Force, and Navy 
personnel. The achievements of the marines in Al Anbar have been widely 
noted, and their success in creating a permissive environment for local 
governance and economic development--making significant inroads in 
security, training, and transfer of responsibility to their Iraqi 
counterparts--has been crucial. More broadly across the country, Marine 
Corps Transition Teams have conducted training for Iraqi military, 
police, and border teams. The Marine Corps provided over 800 personnel 
across more than 50 types of Iraqi transition teams in 2007. Building 
upon these successes in Iraq, recently the President approved the 
deployment of 2,200 marines to Afghanistan in support of the NATO-led 
International Security Assistance Force mission, and 1,000 marines to 
assist in the training and development of the Afghan National Security 
Forces. In preparation for these overseas missions, the Marine Corps 
continues to implement comprehensive training programs at home, such as 
Mojave Viper and Desert Talon.
    At sea, the effective conduct of Maritime Security Operations is a 
critical element of the fight against terrorism. In the Northern 
Arabian Gulf, our sailors and marines are working with coalition and 
Iraqi forces in a Coalition Task Group to defend the Al Basra Oil 
Terminal and the Khawr al Amaya Oil Terminal. The security of these 
platforms is provided through waterborne patrols in rigid hull 
inflatable boats, platform security personnel, and helicopter 
surveillance. Working with our NATO allies, the Navy continues to 
provide support for Operation Active Endeavor, which is an ongoing 
maritime interdiction effort in the Mediterranean. Similarly, the 
conduct of operations to dissuade and counter piracy off the West 
African coast and the actions of the guided missile destroyers U.S.S. 
Porter, U.S.S. Arleigh Burke and U.S.S. James E. Williams off the coast 
of Somalia this past October are examples of how the Navy is working to 
provide a secure maritime environment.
    Fostering enduring foreign partnerships and friendships is yet 
another key contributor to the global war on terrorism, as we bolster 
the capacity of nations to work with us, and to conduct 
counterterrorism efforts of their own. The Navy is continuing to 
develop the concept of Global Fleet Station (GFS), envisioned to be a 
highly visible, positively engaged, reassuring, and persistent sea base 
from which to interact with the global maritime community of nations. 
The Department demonstrated the concept through the GFS pilot in 
October, using the HSV-2 SWIFT in the Caribbean, and again with the 
African Partnership Station in the Gulf of Guinea, using the U.S.S. 
Fort McHenry and HSV-2 SWIFT. In addition to targeted outreach 
activities, the Navy and Marine Corps team extends America's diplomatic 
reach through the conduct of multinational exercises and port visits. 
Throughout 2007, the naval force participated in over 230 bilateral and 
multinational exercises with partners around the globe.\2\ The Marine 
Corps also participated in over 60 Theater Security Cooperation events, 
which ranged from deployment of small Mobile Training Teams in Central 
America to MEU exercises in Africa, the Middle East, and the Pacific. 
Additionally, several overseas training events were held with foreign 
special operations forces to improve interoperability with Navy and 
Marine SOF, and the Department provided support to the stand-up of 
NATO's new SOF Coordination Center. The cumulative effect of these 
exercises and events is to foster trust and sustain cooperative 
relationships with our international partners. This is critical to U.S. 
national security.
---------------------------------------------------------------------------
    \2\ Illustrative of our global security cooperation are exercises 
involving the Japanese Maritime Self Defense Force and the Indian Navy 
during TRILAX 07 in the Northern Pacific; PHOENIX EXPRESS 07 with 
Moroccan, Algerian, and Tunisian forces west of the Gibraltar Strait; 
BALTOPS 07 in the Baltic Sea with Denmark, France, Germany, Sweden, 
Poland, Russia, Latvia, Lithuania, the United Kingdom, and NATO; AMAN 
07 with Pakistan, Great Britain, China, France, Italy, Malaysia, 
Turkey, and Bangladesh; UNITAS off of South America's Pacific coast 
with Chile, Colombia, and Peru; and MALABAR with forces from India.
---------------------------------------------------------------------------
    Outreach to foreign populations is also an important part of the 
Nation's efforts to stem the spread of terrorism. This is an important 
mission for the Navy and the Marine Corps and is a tangible way that we 
can demonstrate the compassion and values of the American people. Last 
year, the Navy and Marine Corps together were at the forefront of 
numerous humanitarian assistance and disaster relief operations. 
Sailors and marines in the Pacific provided desperately-needed 
humanitarian support to Bangladesh in the aftermath of Cyclone Sidr. 
The Marine Corps engaged in civil-military and humanitarian assistance 
operations such as ``New Horizons'' in Nicaragua and land mine removal 
training in Azerbaijan. The joint and combined crew aboard the U.S.N.S. 
Comfort gave humanitarian aid during a 4-month tour in Latin America 
and the Caribbean. During Pacific Partnership 2007, the joint and 
interagency crew of the U.S.S. Peleliu gave similar aid to the 
Philippines and other Pacific island nations. We hope that the support 
given during these missions, whether it was the Seabees' reconstruction 
of homes and schools devastated by a tsunami, or inoculation and 
treatment of children and the elderly by Navy and Marine medical 
professionals, helped convey a positive image of the United States with 
local populations.
    Finally, within the United States, the Department continues its 
emphasis on providing increased force protection to our sailors and 
marines, particularly in the area of counter-improvised explosive 
devices (IED). As lead service for the joint Mine Resistant Ambush 
Protected (MRAP) vehicle program, the Department accelerated production 
for MRAP vehicles to rapidly field this capability in Iraq and 
Afghanistan. Through the use of Lean Six Sigma activities and projects, 
the Department synchronized an effort to build and transport MRAP 
vehicles to the theater, rapidly identifying and mitigating 
deficiencies in the MRAP vehicle pipeline. Over 2,000 MRAP vehicles 
have been fielded to support the Department's joint urgent requirement, 
over 900 of which are in the hands of marines and more than 150 fielded 
to the Navy. Also as part of the broader counter-IED effort, the 
Department is procuring Biometric Tools, the Family of Imaging Systems, 
counter-IED robotics, and Counter Radio-Controlled IED Electronic 
Warfare systems.
Adapting the Naval Force for Global War on Terrorism and Future 
        Missions
    The Marine Corps and Navy are being called upon today to conduct 
surge operations, conduct Iraq unit rotations, provide additional 
forces to Afghanistan, and prepare for other challenges. The Department 
has not only addressed these commitments, but is contributing low 
density, high demand forces (e.g., Explosive Ordnance Disposal (EOD) 
units) to support the other Services and coalition efforts. Of our 
deployed EOD teams, over 50 percent operate in support of other 
services. Additionally, over the course of 2007, the Navy provided 
12,985 Active component augmentees and 9,527 mobilized reservists in 
support of OEF and OIF globally, and filled approximately 8,000 
individual augmentee and 4,500 ``in-lieu-of'' requirements. The Navy 
has increased several low density, high demand specialties and units, 
such as Construction Battalions and EOD teams. In October 2007, the 
Navy commissioned its newest Construction Battalion and Construction 
Regiment, bringing them to a total of nine Active Duty battalions and 
three Active Duty regiments. Further, in order to relieve stress on 
marines and their families, and to address future contingencies, the 
Marine Corps is growing the force, exceeding its 2007 target of 184,000 
marines; the Marine Corps is on track to meet the goal of 202,000 by 
fiscal year 2011.
    Reshaping of the force is an important and evolutionary process. To 
do this, the Department is focused on three fronts: recruiting the 
right people, retaining the right people, and achieving targeted 
attrition. Recruiting objectives are focused on increasing the quality 
of the Total Force and seeking qualified sailors to include special 
emphasis on filling the ranks of SEAL, NSW, Navy Special Operations, 
Special Warfare Combatant-Craft Crewmen, EOD, Divers, Hospital 
Corpsmen, and Women in Non-traditional Ratings (Master-at-Arms and 
Seabees). Recruiters are also focused on creating a smooth flow of 
recruits into boot camp by maintaining and mentoring a healthy pool of 
young men and women in the Delayed Entry Program.
    The Department has also implemented initiatives to increase 
visibility and incentives for medical recruitment. While we have seen 
improvement in some medical programs, such as in the Nurse Corps with 
direct accessions, numerous challenges remain in recruiting and 
retaining medical personnel. Retention challenges exist in critical 
specialties that require 3-7 years of training beyond medical school. 
In the Dental Corps, we face challenges in retaining junior officers 
between 4-7 years, and we also are experiencing high attrition rates 
for junior officer ranks in the Nurse Corps. To combat the recruiting 
challenges and continue supporting the increased demand for the OIF/
OEF, we implemented increased accession bonuses for the Nurse Corps and 
Dental Corps; funded a critical skills accession bonus for medical and 
dental school Health Professions Scholarship Program (HPSP) 
participants; increased the stipend for HPSP students, as well as 
Financial Assistance Program participants; expanded the critical skills 
wartime specialty pay for Reserve component medical designators; 
recently implemented a Critical Wartime Skills Accession bonus for 
Medical and Dental Corps; and implemented a Critical Skills Retention 
bonus for clinical psychologists.
    We note that the National Defense Authorization Act (NDAA) for 
Fiscal Year 2008 restricts military-to-civilian conversions for the 
medical community through September 30, 2012. Due to the date of 
enactment of this legislation, it is not reflected in the fiscal year 
2009 President's budget request, but the plan is now being readdressed. 
Resolution will require careful planning, and we are working closely 
with the Office of the Secretary of Defense on this matter.
    Incentive programs were a key component of our enlisted recruiting 
success in 2007. The enlistment bonus continues to be our most popular 
and effective incentive for shaping our accessions. The authority to 
pay a bonus up to $40,000 made a significant contribution to our Navy 
Special Warfare and Navy Special Operations recruiting efforts. 
Likewise, our Reserve component success would not have been possible 
without the availability of enlistment bonuses. Extended incentive 
authorities towards some of our more specialized skill fields, 
including nuclear and aviation, will help to recruit and retain these 
critical skill sets, while renewal of accession bonuses will help to 
expand the force to newly mandated levels. The continued support of 
Congress in the creation of flexible compensation authorities affords 
the Department the tools that will help shape the force for the 21st 
century.
    The Grow the Force mandate by the President is a long-term plan to 
restore the broad range of capabilities necessary to meet future 
challenges and mitigate global risk to national security of the United 
States. The Marine Corps will grow the force by 27,000 (from 175,000 to 
202,000) marines over 5 years. This additional capacity and capability 
will enable full spectrum military operations in support of allies and 
partners as well as against potential enemies. In 2007, the Marine 
Corps added two infantry battalions, capacity to the combat engineer 
battalions and air naval gunfire liaison companies, and planned the 
training and infrastructure pieces necessary to build a balanced 
warfighting capability. The Marine Corps has achieved success in 
recruiting and maintaining quality standards. This is a remarkable 
achievement for an All-Volunteer Force during a sustained war. The 
Marine Corps anticipates continued success in meeting recruiting and 
retention goals to achieve this planned force level. This end strength 
increase addresses more than current operations in Iraq and 
Afghanistan. It ensures that the Marine Corps will be able to deal with 
the challenges of the Long War and will reduce combat stress on marines 
and their families by moving towards a 1:2 deployment to dwell ratio. 
Currently many marines are on a 1:1 or less deployment to dwell ratio.
    Navy and Marine Corps Reserves continue to be vital to successfully 
fighting the global war on terrorism and in accomplishing routine 
military operations. The Marine Corps and Navy activated, respectively, 
5,505 and 5,007 reservists to fulfill critical billets in OIF and other 
gaps in headquarters and operational units. At the close of fiscal year 
2007, the Navy and Marine Corps Reserves end strength was 69,933 and 
38,557 respectively.
Readiness
    The Department's budget reflects a commitment to properly price and 
fund readiness to meet the demands of the Combatant Commands. For 
fiscal year 2009, the Fleet Response Plan (FRP) is funded to achieve 
``6+1''--the ability to support deployment of six carrier strike groups 
within 30 days and one additional group within 90 days. Additionally, 
the fiscal year 2009 budget funds 45 underway steaming days per quarter 
for deployed forces and 22 underway days per quarter for nondeployed 
forces. For the Marine Corps, equipment readiness accounts are focused 
on supporting the operational and equipment readiness of units engaged 
in operations in OIF. The Marine Corps has made tradeoffs in this area 
by cross-leveling equipment from units not in the fight, and while the 
force made great strides in its overall readiness to conduct 
counterinsurgency operations, this has been achieved at the expense of 
other traditional training, such as amphibious assault and jungle 
warfare.
    Carrier Waiver
    The Navy is committed to maintaining an aircraft carrier force of 
11. However, during the 33-month period between the planned 2012 
decommissioning of U.S.S. Enterprise and the 2015 delivery of the 
U.S.S. Gerald R. Ford, legislative relief is requested to temporarily 
reduce the carrier force to 10. Extending Enterprise to 2015 would 
involve significant technical risk, challenge our manpower and 
industrial bases, and require significant resource expenditure; with 
only minor gain for the warfighter in carrier operational availability 
and significant opportunity costs in force structure and readiness. The 
Navy is adjusting carrier maintenance schedules to meet the FRP and 
ensure a responsive carrier force for the Nation during this proposed 
ten carrier period.
    Law of the Sea Convention
    It is critically important to the United States and our friends and 
allies that the seas of the world remain safe and open for all nations. 
Accordingly, the DON supports U.S. accession to the Law of the Sea 
Convention. The Treaty codifies important principles of customary 
international law, such as Freedom of Navigation and rights of passage. 
Joining the Convention, with the declarations and understandings 
reflected in Senate Report 110-9 (Senate Foreign Relations Committee), 
will assist the United States to exercise its leadership role in the 
future development of open oceans law and policy. As a non-party, the 
United States does not have full access to the Convention's formal 
processes (through which over 150 nations participate in influencing 
future law of the sea developments). By providing legal certainty and 
stability for the world's largest maneuver space, the Convention 
furthers a core goal of our National Security Strategy to promote the 
rule of law around the world.
    Suppression of Unlawful Acts
    The Department supports expeditious U.S. ratification of the 2005 
Protocol of the Convention for the Suppression of Unlawful Acts (SUA) 
against the Safety of Maritime Navigation and the 2005 Protocol to the 
1988 Protocol for the Suppression of Unlawful Acts against the Safety 
of Fixed Platforms Located on the Continental Shelf (``SUA 
Amendments''), adopted by the International Maritime Organization on 
October 14, 2005, and signed by the United States on February 17, 2006. 
The SUA Amendments significantly strengthen the legal regime to 
criminalize terrorist acts and combat weapons of mass destruction 
proliferation in the maritime domain making them an important component 
in the international campaign to prevent and punish such acts.
    Encroachment
    A critical readiness issue is our ability to be prepared to meet 
the full spectrum of operations that may arise globally. This requires 
that we have the ability to properly train our sons and daughters in a 
manner that effectively prepares them for the threats they may 
encounter. In order for naval forces to be able to meet our operational 
commitments we need installations and ranges, the ability to continue 
to use them for their intended purposes, and the ability to augment 
them when necessary to respond to changing national defense 
requirements and circumstances.
    We appreciate the action taken by Congress to recognize the 
importance of protecting naval installations from encroachment 
pressures by enacting section 2863 of the John Warner National Defense 
Authorization Act for Fiscal Year 2007 that establishes prohibitions 
against making certain military airfields or facilities, including 
Marine Corps Air Station Miramar, available for use by civil aircraft. 
We seek your continued support to move forward with plans for the 
Outlying Landing Field (OLF) that is critically needed to support 
training requirements for Carrier Air Wing aircraft based at Naval Air 
Station Oceana and Naval Station Norfolk. The OLF will directly support 
the Department's ability to meet its national defense commitments under 
the FRP and provide naval aviators critical training in conditions most 
comparable to the at-sea operating environment they will face. In 
response to public comments regarding the previous site alternatives, 
the Navy has terminated the draft Supplemental Environmental Impact 
Statement (EIS) and will initiate a new EIS that examines five new site 
alternatives, three in Virginia and two in North Carolina, based upon 
new information provided by officials in those states. I ask for your 
continued support as we work with Congress and the States of Virginia 
and North Carolina to preserve and improve the installation and range 
capabilities needed to properly train our young men and women before we 
send them into harms way.
    Marine Mammals and Active Sonar
    The most critical readiness issue relates to the Navy's ability to 
train using active sonar while minimizing the effect on marine mammals. 
One of the most challenging threats that our naval forces face is 
modern, quiet diesel-electric submarines. These submarines employ 
state-of-the-art silencing technologies and other advances, such as 
special hull treatments, that make them almost undetectable with 
passive sonar and also reduce their vulnerability to detection with 
active sonar. A diesel-electric submarine so equipped can covertly 
operate in coastal and open ocean areas, blocking Navy access to combat 
zones and increasing United States vessels' vulnerability to torpedo 
and anti-ship missile attacks. Currently, over 40 countries operate 
more than 300 diesel-electric submarines worldwide, including potential 
adversaries in the Asia-Pacific and Middle East areas. Naval strike 
groups are continuously deployed to these high-threat areas. Training 
with the use of mid-frequency active (MFA) sonar is a vital component 
of pre-deployment training. The tactical use of MFA sonar is the best 
means of detecting potentially hostile, quiet, diesel-electric 
submarines. The inability to train effectively with active sonar 
literally puts the lives of thousands of Americans at risk.
    In January 2008, a Federal district court issued an injunction 
precluding the Navy's ability to train effectively with MFA in critical 
exercises scheduled to occur in the Southern California Operating Area 
through January 2009, creating an unacceptable risk that strike groups 
may not be certified for deployment in support of world-wide 
operational and combat activities. Because the Composite Unit Training 
Exercises and the Joint Task Force Exercises off Southern California 
are critical to the ability to deploy strike groups ready for combat, 
the President concluded that continuing to train with MFA in these 
exercises is in the paramount interest of the United States and granted 
a temporary exemption from the requirements of the Coastal Zone 
Management Act for use of MFA sonar in these exercises through January 
2009. Additionally, due to the emergency circumstances created by an 
injunction that would prevent the Navy from reliably training and 
certifying strike groups ready for deployment, the Council on 
Environmental Quality (CEQ) authorized, and the Navy accepted, 
alternative arrangements for compliance with the National Environmental 
Policy Act. Despite these developments, the trial court refused to set 
aside the injunction. As a result the Navy has appealed the court's 
refusal to give effect to the President's and CEQ's actions by 
dissolving the injunction and correcting the court's failure to 
properly tailor the injunction in the first place to allow the Navy to 
train effectively. The appeal is pending before the Ninth Circuit for 
expedited review.
    The Department continues to be a good steward of the environment, 
while providing the necessary training that is essential to national 
security and ensures the safety of our people. The Department is 
engaged in a comprehensive effort to ensure compliance with the 
National Environmental Policy Act, Marine Mammal Protection Act, 
Endangered Species Act, Coastal Zone Management Act, National Marine 
Sanctuaries Act, and Executive Order 12114. Twelve EISs are in 
development with associated Records of Decision (ROD) scheduled for 
issuance by the end of calendar year 2009. The Navy implements 29 
protective measures developed in conjunction with the National Marine 
Fisheries Service, the Federal regulator responsible for oversight and 
implementation of the Marine Mammal Protection Act. These measures 
afford significant protection to marine mammals while maintaining 
training fidelity. The Navy has steadily increased funding for marine 
mammal research from $12 million in fiscal year 2006 to $18 million in 
fiscal year 2008 and fiscal year 2009. The Navy's financial commitment 
constitutes more that half of the world-wide funding for research on 
the effects of anthropogenic sound on marine mammals. Over the past 
several years, tremendous progress has been made in expanding the 
scientific base of knowledge, especially concerning the species 
identified as the most sensitive to MFA sonar, deep diving beaked 
whales. The Navy, working with the National Marine Fisheries Service, 
is engaged in a 3-year controlled exposure study of sound on whales at 
the Navy's Atlantic Undersea Test and Evaluation Center in the Bahamas. 
This study, along with other research, development, test and evaluation 
efforts, will provide further information needed to understand and 
effectively mitigate the effects of active sonar on marine mammals.
                      iii. take care of our people
    In 2007 the Department implemented a Human Capital Strategy that 
focuses on our most valuable asset, the Department's people. In the 
strategy, the Department addresses the changes in warfare, workforce, 
technologies, and processes and lays out the strategic objective to 
produce and employ the right people with the right skills to support or 
accomplish 21st century naval missions. The development and retention 
of quality people is vital to our continued success. The DON is 
committed to sustaining quality of service and quality of life 
programs, including training, compensation, promotion opportunities, 
health care, housing, and reasonable operational and personnel tempo. 
The cost of manpower is the single greatest component in the fiscal 
year 2009 budget. The fiscal year 2009 budget requests $41.6 billion 
for military personnel and includes a 3.4 percent military personnel 
pay raise. This investment is critical to ensuring a naval force with 
the highest levels of ability and character.
    Comprehensive Care
    As Secretary of Defense Gates has stated, ``Apart from the war 
itself, we have no higher priority (than to take care of our Wounded, 
Ill, and Injured).'' Over the sustained combat operations in the global 
war on terrorism, the Department has endured the loss of over 830 
marines and 75 sailors killed in action, and over 8,500 marines and 600 
sailors wounded in action. These marines and sailors and their 
survivors deserve the highest priority care, respect and treatment for 
their sacrifices. We must ensure our wounded warriors and families 
receive the appropriate care, training and financial support they need. 
Failing them will undermine the trust and confidence of the American 
people. Consequently, the DON initiated a Comprehensive Casualty Care 
effort in March 2007 to ensure visibility of the full range of needs of 
servicemembers and their family members and the coordination and 
expedient delivery of clinical and nonclinical services throughout the 
continuum of care. Among the initiatives pursued under this effort was 
a Lean Six Sigma mapping of the casualty care process to identify areas 
of patient transitions, gaps in service, and unmet needs across key 
functional service areas to include: Medical, Pay, and Personnel, 
Family Support, Case Management, Information Technology, and the 
Disability Evaluation System. The following sections provide some 
specific examples of the Department's actions and plans for improving 
care for our people.
    Combat Casualty Care
    Navy Medicine provides combat casualty care to Navy and Marine 
Corps units, on Expeditionary Medical Facilities, aboard casualty 
receiving/treatment ships and hospital ships, and in military 
hospitals. Recent advances in force protection, battlefield medicine, 
combat/operational stress control, and medical evaluation have led to 
improved survival rates for wounded (approximately 97 percent) and 
enhanced combat effectiveness. In September 2007 Naval Medical Center 
San Diego stood-up a Comprehensive Combat Casualty Care Center 
providing inpatient and outpatient services to all levels of combat 
casualties, including rehabilitative, mental health and prosthetic 
care. The unit is the military's first and only center for amputee care 
on the west coast. This year the Marine Corps is reorganizing Medical 
Battalions and fielding the Family of Field Medical Equipment, 
modernizing 34 different medical systems such as the Traumatic Brain 
Injury (TBI) scanner and the Airframe First Aid Kit.
    Wounded Warrior and Safe Harbor
    In fiscal year 2007, the Marine Corps expanded its existing 
programs by establishing the Wounded Warrior Regiment with a Wounded 
Warrior Battalion on each coast to provide better continuity of care 
for wounded warriors. Specifically, these organizations provide wounded 
warriors a location to recuperate and transition in proximity to family 
and parent units. The Navy has a number of programs ensuring care for 
all wounded, ill, and injured sailors and their families. Those 
severely wounded, ill, and injured sailors and their families receive 
non-medical case management and advocacy from the Navy's Safe Harbor 
Program. Safe Harbor provides assistance in dealing with personal 
challenges from the time of injury through return to duty or transition 
to civilian life.
    Post-Traumatic Stress Disorder
    Specific improvements for post-traumatic stress disorder include 
both preventive and post-deployment care. The Marine Corps is employing 
Operational Stress Control and Readiness teams to provide early 
intervention, outreach, and prevention at the unit level in close 
proximity to operational missions, reducing stigma associated with 
conventional mental health care. The Navy is enhancing the Operational 
Stress Control Program and is completing phase two of the in-theater 
Behavioral Health Needs Assessment Survey to identify mental health 
needs, guide development of appropriate prevention and treatment 
programs, and ensure adequate in-theater mental health support. To date 
in fiscal year 2008, Navy Medicine expanded the Deployment Health 
Clinic (DHC) concept to a total of 17 centers. These DHCs logged over 
30,000 visits encompassing the entire range of post-deployment health 
care symptoms. These clinics are designed to be easily accessible, non-
stigmatizing portals for effective assessment and treatment of 
deployment-related mental health issues. Three additional DHCs are 
planned for 2008. Specialized training is also being provided to the 
Chaplain Corps and non-mental health medical personnel to include mind, 
body, and spiritual practices. Augmenting the ability to deliver the 
highest quality of psychological health care available, Navy Medicine 
committed $7 million to stand-up a Naval Center for the Study of Combat 
Stress that will support all of the varied and diverse mental health 
needs.
    Traumatic Brain Injury
    The Department is engaged in activities to address TBI and remains 
committed to the further expansion of TBI research and availability of 
services for our service members. Navy Medical Research Command uses 
new techniques to identify transmissibility of blast wave energy into 
the brain, focusing on the nexus between the blast wave energy 
transmission and the resulting brain pathology. Navy researchers serve 
on the Health Affairs Senior Executive Advisory Committee on TBI sensor 
development and coordinate closely with the U.S. Army Program Executive 
Office in the development of helmet-mounted monitors. The National 
Naval Medical Center's Traumatic Stress and Brain Injury Program serves 
blast-exposed or head-injured casualties aero-medically evacuated out 
of theater. Over 1,082 blast-exposed service members have been 
evaluated for psychological health and TBI. In May 2007, Naval Medical 
Center San Diego stood up a Traumatic Stress and Brain Injury Program, 
and in September 2007, Camp Lejeune stood up a similar program.
    Physical and Medical Evaluation Boards
    The Department refined the physical and medical evaluation board 
process to ensure timely, comprehensive and transparent actions 
balancing the rights of the individual and the needs of the service. 
Actions include upgrading the Council of Review Board website to 
provide transition services and links to government agencies with post-
service benefits. Additional upgrades are underway to provide a portal 
for members to monitor case processing. The Department is also 
participating in the joint DOD-VA Disability Evaluation Pilot in the 
National Capital Region that is designed to further streamline the 
process and ensure a smooth transition to civilian life for service 
members leaving active duty.
    Family Readiness
    The Department remains committed to the readiness and resilience of 
Navy and Marine Corps families, including the spouses, children, 
parents, and other extended family members committed to caring for 
sailors and marines. To that end, the Department operationalized family 
support programs to better empower sailors and marines to effectively 
meet the challenges of today's military lifestyle. The Marine Corps is 
redesigning and enhancing family readiness programs that most directly 
prepare marines and their families, including: Unit Family Readiness 
Program, Marine Corps Family Team Building Program, Exceptional Family 
Member Program, School Liaison Program, and Children, Youth, and Teen 
Program. As a companion effort, the Marine Corps will address quality 
of life deficiencies at remote and isolated installations, expand 
communication connections between separated marines and their families, 
and make needed improvements to quality of life facilities and 
equipment throughout the Marine Corps. The Navy increased emphasis on 
prevention, education, and counseling to Navy families undergoing 
frequent and often short notice deployments. It has created school 
liaison positions to work with school districts and Navy families to 
ensure teachers and other school officials understand the pressures and 
issues facing military children. The Navy provides brief, solution-
focused clinical counseling services to more family members, as well as 
increasing home visitation services to new parents who have been 
identified as requiring parenting support. To better reach Individual 
Augmentee families who do not live near a military installation but who 
have access to a computer, the Navy has begun virtual Individual 
Augmentee Family Discussion Groups to ensure outreach information, 
referral and ongoing support.
    The Department has developed an aggressive child care expansion 
plan, adding over 4,000 new child care spaces within the next 18 
months. This expansion includes construction of new Child Development 
Centers (including facilities open 24/7), commercial contracts, and 
expanding military certified home care. Combined, these initiatives 
will reduce the waiting time for child care from 6-18 months to less 
than 3 months. To assist parents and children with the challenges of 
frequent deployments, an additional 100,000 hours of respite child care 
will be provided for families of deployed servicemembers. In efforts to 
combat youth obesity, the Navy has implemented a new world-wide youth 
fitness initiative called ``FitFactor'' to increase youth interest and 
awareness in the importance of healthy choices in life.
    National Security Personnel System
    The DON has successfully converted 30,000 employees into National 
Security Personnel System (NSPS), with an additional 30,000 scheduled 
to convert by 30 October 2008. The DON is already seeing a return on 
investment: an unprecedented training effort focused on performance 
management, greater communication between employees and supervisors, 
people talking about results and mission alignment, and increased 
flexibility in rewarding exceptional performance. While mindful of new 
legislative restraints, maintaining key human resource elements of 
NSPS, including pay-for-performance, is vital to the system's success 
and the Department's ability to respond to ever-changing national 
security threats.
    Safety
    Fundamental to taking care of sailors, marines, and DON civilian 
employees is establishing a culture and environment where safety is an 
intrinsic component of all decisionmaking, both on- and off-duty. 
Safety and risk management are integrated into on- and off-duty 
evolutions to maximize mission readiness and to establish DON as a 
world class safety organization where no mishap is accepted as the cost 
of doing business.
    The Secretary of Defense established a goal to achieve a 75 percent 
reduction in baseline fiscal year 2002 mishap rates across DOD by the 
end of fiscal year 2008. In fiscal year 2007 the DON recorded our 
lowest number of serious operational mishaps and the lowest rate of 
serious aviation mishaps in our history.
    One particular challenge that we continue to face is loss of 
sailors and marines to fatal accidents on our Nation's highways--111 in 
fiscal year 2007. While our rates are actually better than U.S. 
national statistics, and fiscal year 2007 was one of our best years 
ever, we find these losses untenable--we can and must do better. In 
particular, the growing popularity of sport bikes, or high-powered 
racing motorcycles, represents our biggest challenge. We are 
restructuring our motorcycle training, and in partnership with the 
Motorcycle Safety Foundation, we have developed a new hands-on Sport 
Bike Rider Safety Course. We are also implementing methods and 
technology to more rapidly assess our personnel to accurately identify 
those individuals at high risk for private motor vehicle mishaps. They 
will be targeted for intervention in an effort to further reduce 
mishaps and our DON risk profile.
                   iv. prepare for future challenges
Building a Balanced Fleet
    Today's Navy and Marine Corps must confront threats in the maritime 
domain ranging from near-peer competitors, to non-state and 
transnational actors, to rogue nations and pirates. To meet the 
challenge the fiscal year 2009 budget provides for a balanced fleet of 
ships, aircraft and expeditionary capabilities with the fighting power 
and versatility to carry out blue, green, and brown water missions on a 
global basis.
    To ensure affordability and timely delivery of capabilities will 
require improvements in the acquisition process--ensuring stable 
requirements and clarity in design criteria, better program management 
expertise, and new measures to incentivize contractors to complete 
programs on cost and within schedule, while delivering a quality 
product for military use. Military use also includes other factors such 
as habitability conditions that support quality of life, reduced 
variability of part types, and supportable logistics and sustainment. 
In addition, independent cost, schedule, and risk assessments are 
conducted and used to establish the foundation of program plans.
    The Department has launched an acquisition improvement initiative, 
planning for which has included the Secretary, Chief of Naval 
Operations (CNO) and Commandant of the Marine Corps (CMC), and which 
will enforce discipline across the Department without altering existing 
Office of the Secretary of Defense and Joint Chiefs of Staff-level 
processes. Actions comprising the acquisition improvement initiative 
include the following:
Acquisition Governance
    Led by CNO/CMC, the requirements phase comprises three 
``requirements gates:'' (1) Approval of Initial Capabilities Document; 
(2) Approval of Analysis of Alternatives; and (3) Approval of 
Capabilities Development Document and Concept of Operations. During 
this phase the focus is on what we buy and the process ensures 
completeness and unanimity of requirements, agreed upon by top 
leadership early in the acquisition process.
    The acquisition phase, led by the Component Acquisition Executive, 
consists of three ``acquisition gates:'' (1) Approval of the System 
Design Specification; (2) Approval to release the System Development 
and Demonstration Request for Proposals; and (3) A Sufficiency Review 
of the entire program. During this phase the focus is on ``how we 
buy,'' emphasizing clear system design specifications, leveraging 
commonality within parts and systems, and the use of open architecture. 
During this phase CNO and CMC remain in support of the acquisition 
force to ensure stability in the requirements.
    Each ``gate review'' includes a comprehensive assessment using 
detailed metrics to determine the health of the program and ensures 
that the program is ready to proceed through the next phase of the 
acquisition process. The key benefits are: (1) better integration of 
requirements and acquisition decision processes; (2) improvement of 
governance and insight into the development, establishment, and 
execution of acquisition programs; and (3) formalization of a framework 
to engage senior naval leadership throughout the review process.
Acquisition Workforce
    To reinvigorate the acquisition workforce the Department has 
aggressively pursued investment in several key areas. Using a model of 
our total workforce, we've identified certain imbalances and 
redundancies which Systems Commands and Program Executive Officers will 
initiate corrective action for in fiscal year 2008. Further, the 
Department will create a common business model across Systems Commands 
to allow maximum flexibility of workforce utilization while sharpening 
the skill sets of our acquisition professionals. Further, we are 
creating common templates for acquisition program leadership that will 
ensure adequate staffing of programs throughout their life cycle. 
Notably we have adjusted the programmatic leadership structure of the 
DDG-1000 and Littoral Combat ships to benefit from these common 
templates.
    Finally, to bolster our acquisition leadership, we have selected a 
Vice Admiral to serve as Principal Deputy Assistant Secretary for 
Research Development and Acquisition.
Fiscal Year 2009 Acquisition Programs
    Shipbuilding
    The fiscal year 2009 shipbuilding budget provides for seven new 
ships: one Virginia-Class (SSN-774) nuclear-powered attack submarine, 
one DDG-1000 Destroyer, two Littoral Combat Ships (LCS), two Dry Cargo 
Ammunition (T-AKE) ships, and one Joint High Speed Vehicle (JHSV). The 
Navy also will procure an additional JHSV for the Army in fiscal year 
2009. The budget also includes the next increment of funding for CVN-
78; research and development funds for CG(X), the future cruiser; the 
first increment of funding for the Refueling Complex Overhaul for the 
U.S.S. Theodore Roosevelt (CVN-71); funding for an engineered refueling 
overhaul for an SSBN; and continued modernization for guided missile 
cruisers, guided missile destroyers, submarines, and aircraft carriers.
    Naval Aviation
    The DON requires a robust aviation capacity including attack, 
utility, and lift capabilities. The Department is in the midst of an 
extensive, long-term consolidation and recapitalization of aircraft in 
the naval inventory to achieve a more efficient and effective 
warfighting force. The fiscal year 2009 budget requests funding for 206 
aircraft. The fiscal year 2009 budget supports the acquisition of the 
F-35 Joint Strike Fighter, the EA-18G Growler, the MV-22B, the KC-130J, 
the E-2D; the MH-60, the UH-1Y and AH-1Z helicopters; and the continued 
development of the P-8A Multi-Mission Maritime Aircraft, the CH-53K and 
VH-71 programs.
    The Department will continue to recapitalize our aging inventory 
with upgrades or new variants of existing aircraft where suitable and 
cost effective. For example, the Navy helicopter community is replacing 
six different aircraft with the MH-60R and MH-60S, while the Marine 
Corps is buying the UH-1Y, AH-1Z, and CH-53K to replace older variants 
of those aircraft.
    Command, Control, Communications, Computers
    Effective command, control, communications, computers (C\4\) 
capabilities are key to ensuring that our forces have accurate 
situational understanding to enable decision superiority. The Navy and 
Marine Corps have planned several programs to deliver agile and 
interoperable network-centric capabilities to ensure success for naval, 
joint, and coalition forces, including naval contributions to the 
National Security Space. The Department is planning the replacement for 
the Navy-Marine Corps Intranet with the Next Generation Enterprise 
Network. The Marine Corps is developing the Command and Control 
Harmonization Strategy. Capitalizing on emerging capabilities such as 
the Tactical Communications Modernization Program and the Very Small 
Aperture Terminal, the Marine Corps intends to deliver an end-to-end 
integrated, cross-functional capability across the force.
    Intelligence, Surveillance and Reconnaissance
    The Navy and Marine Corps are in the process of reviewing current 
intelligence, surveillance, and reconnaissance (ISR) capabilities and 
formulating a long-term ISR strategy. This strategy, when completed, 
will ensure the Department's current and future ISR capabilities are 
used to the fullest extent possible and will maximize the use of other 
services' and national capabilities to enhance the Department's variety 
of missions. The Marine Corps' use of Department of Army's unmanned 
aircraft system, Shadow, is an example of leveraging another service's 
capability. Shadow meets the Marine Corps requirements for a 
transportable ISR asset capable of providing tactical commanders with 
day and night, battlefield and maritime reconnaissance. The Navy, with 
unique maritime domain ISR requirements, is integrating manned and 
unmanned capabilities with the Broad Area Maritime Surveillance (BAMS) 
Unmanned Aircraft System (UAS) and the P-8A program. The BAMS UAS will 
provide a persistent, multi-sensor, maritime ISR capability with 
worldwide access. Additionally, the Department of Navy is working 
closely with the Office of the Under Secretary of the Defense for 
Intelligence to ensure the current Distributed Common Ground System--
Navy and Marine Corp family of systems meet DOD standards, share 
technology and minimize duplication.
    Maritime Domain Awareness
    The responsibility for Global Maritime Security lies with many 
departments, agencies, and organizations across the spectrum of our 
government, international partners, and industry. Each of these 
stakeholders bring a part of the solution, and taking the lead in 
establishing a global capability from those parts is one of the single 
most important new steps of the DON. Protection of the global maritime 
domain is fundamental to our national security, and requires an 
integrated approach across the naval forces, with our Federal maritime 
partners, with certain State and local authorities, and indeed with the 
entire global maritime community. We have embarked on the 
organizational behavior changes necessary to bring those disparate 
stakeholders together, and are investing in creation of an enduring 
operational capability for the Nation.
Infrastructure Investment
    Facilities
    The fiscal year 2009 budget requests $3.2 billion for military 
construction projects at Active and Reserve Navy and Marine Corps 
bases, a substantial increase over the enacted $2.3 billion in fiscal 
year 2008. Much of the funding growth is to build training and housing 
facilities to support the Marine Corps growth in end strength over the 
next 5 years. Both Navy and Marine Corps will sustain existing 
facilities at 90 percent of the DOD model requirement.
    Base Realignment and Closure
    The fiscal year 2009 budget requests $871.5 million to continue 
implementation of the 2005 Base Realignment and Closure (BRAC) 
Commission recommendations. This request invests in construction 
(including planning and design) and operational movements at key 
closure and realignment locations. Fiscal year 2009 plans may require 
some adjustment to ensure consistency with the approved fiscal year 
2008 budget.
    Walter Reed National Medical Center Bethesda
    BRAC action 169 called for closure of Walter Reed Army Medical 
Center, realignment of tertiary and complex care missions to National 
Naval Medical Center Bethesda, and establishment of Walter Reed 
National Military Medical Center Bethesda. The DOD approved an expanded 
scope and acceleration of the original program. The Naval Facilities 
Engineering Command is managing the EIS for Bethesda and a ROD is 
scheduled for May 2008.
    Family and Bachelor Housing
    Privatization for housing in the continental United States is on 
its way towards completion. The privatization of unaccompanied housing 
is proceeding smoothly at our first pilot project in San Diego. The 
construction of new apartments is well underway with completion of the 
first building scheduled for December 2008. Moreover, the project won 
an industry customer service award in its first year of operation in 
recognition of the dramatic improvement in resident satisfaction in 
existing housing that was privatized. We have broken ground on our 
second pilot project in Hampton Roads in our effort to bring the 
benefits of bachelor housing privatization to sailors on the east 
coast. This year's budget reflects the continuation of the Marine 
Corps' quality-of-life initiative to construct additional housing to 
address the substantial, longstanding shortfall of adequate housing for 
single marines. The objective is to provide quality bachelor housing 
for all sergeants and below for our `pre-grow the force' end strength 
by fiscal year 2012 and to support 202,000 marines by fiscal year 2014. 
Our fiscal year 2009 budget request also includes a military 
construction project to replace bachelor housing at Naval Station San 
Clemente, completing elimination of inadequate bachelor housing in the 
Department.
    Wounded Warrior Housing
    The DON completed inspections of all housing for wounded, ill, and 
injured to ensure quality and accessible living quarters. Annual 
inspections will ensure continued oversight by Department of Navy 
leadership. In addition, Wounded Warrior Barracks are under 
construction at Camp Lejeune and Camp Pendleton. Both barracks will 
provide 100 two-person American with Disabilities Act-compliant rooms 
allowing for surge capability.
    Marine Corps Relocation to Guam
    The fiscal year 2009 budget continues detailed studies, plans, and 
environmental analyses for the U.S./Government of Japan Defense Policy 
Review Initiative to relocate about 8,000 marines and their dependents 
from Okinawa, Japan to Guam by 2014. The facilities, housing, logistics 
and environmental requirements are being developed from the ground up 
to support mission requirements as well as business-case prudence. The 
measured investment in fiscal year 2009 is crucial to the 5-year $10.27 
billion ($4.18 billion from the U.S. and $6.09 billion from the 
Government of Japan) construction program scheduled to commence in 
fiscal year 2010.
    Naval Station Mayport
    The Navy is preparing an EIS that examines several alternatives for 
best utilizing the facilities and capabilities of Naval Station Mayport 
after the retirement of the U.S.S. John F. Kennedy (CV 67). The options 
being evaluated include:

        <bullet> Cruiser/Destroyer homeporting
        <bullet> Amphibious Assault Ship homeporting
        <bullet> Nuclear-Powered Aircraft Carrier (CVN) capable
        <bullet> CVN homeporting
        <bullet> Amphibious Ready Group homeporting

    Preparation of the Mayport EIS is on schedule. The draft EIS is 
scheduled for release in March 2008, with the final EIS expected in 
December 2008 and the ROD in January 2009.
Environmental Stewardship
    Energy Initiatives
    Energy efficiency is key to reducing life-cycle costs and 
increasing the sustainability of installations and facilities. The 
Department has led the way in supporting the Energy Policy Act of 2005 
(EPAct05) by adopting the Leadership in Energy and Environmental Design 
(LEED) Silver standard as a primary consideration for all DON military 
construction projects. Using the LEED Silver standard, new energy-
efficient projects have been completed on several installations, 
including Recruit Training Center Great Lakes and Naval Amphibious Base 
Little Creek. DON also has a comprehensive energy program responding to 
the requirements of EPAct05 and Presidential Executive Order 13423, 
evidenced by an 8.85 percent reduction in fiscal year 2007 energy 
consumption and an extensive renewable energy program.
    Minimizing the overall environmental effects
    The recently-announced Low-Impact Development (LID) policy is an 
example of how the Department is emphasizing reduction of impact to the 
environment. The goal of the policy is ``no net increase'' in the 
amount of nutrients, sediment, and storm water escaping into the 
watersheds surrounding facilities and installations. The use of cost-
effective LID Best Management Practices such as rainwater collection 
systems in construction and renovation projects is central to achieving 
this goal.
    Alternative Fuels
    The Department has been a leader in the use of alternative fuels. 
The Navy and Marine Corps both reduced petroleum consumption in their 
vehicle fleets by more than 25 percent from 1999 to 2006, and together 
used almost 2 million gallons of biodiesel in 2006. Further gains in 
alternative fuel implementation will be supported by the Department's 
new Petroleum Reduction and Alternative Fuel Vehicle Strategy, which 
challenges the Navy and Marine Corps to build on already substantial 
progress to meet and exceed the established Federal goals contained in 
Executive Order 13423 and the Energy Independence and Security Act of 
2007. We are also expanding our use of alternative fuels in our 
tactical fleet, to include ships, aircraft, and ground vehicles. In 
fiscal year 2009 we will lay the groundwork for a testing and 
certification program for alternative fuel use. The Navy is also 
actively pursuing energy conservation initiatives, through energy 
conserving alterations in propulsion plants and conservation practices 
in operations.
                   v. management process improvement
    Complementary action to our acquisition improvement initiatives is 
our commitment to enhance process improvement across the DON to 
increase efficiency and effectiveness and responsible use of resources. 
The Enterprise Resource Planning (ERP) program, planned for 
implementation throughout the Department, began initial implementation 
at Naval Air Systems Command in October 2007. It is an integrated 
business management system that modernizes and standardizes business 
operations and provides management visibility across the enterprise. 
The Department continues to champion the use of Lean Six Sigma as the 
primary toolset as a means toward increasing readiness and utilizing 
resources efficiently. Over 4,420 leaders have completed Lean Six Sigma 
training, and there are over 2,000 projects underway. The Department's 
Financial Improvement Program leverages ERP and strengthens control of 
financial reporting. The Marine Corps expects to be the first military 
service to achieve audit readiness.
    A major process improvement initiative to ensure that the 
Department applies fundamental business precepts to its management is 
the Secretary of the Navy's Monthly Review (SMR). The SMR is a senior 
leadership forum, involving CNO, CMC, and Assistant Secretaries, 
designed to afford greater transparency across the Department and set 
into motion actions that garner maximum effectiveness and efficiency 
for the Department. The SMR reviews a portfolio of the bulk of 
Department activities and programs involving manpower, readiness, 
acquisition, infrastructure, etc. Using Lean Six Sigma tools and other 
business tools, this forum reviews the most urgent issues and discusses 
and implements appropriate solutions. Ultimately, this monthly 
interaction serves as a means to synchronize the Department's actions 
to comprehensively address complex problems, accomplish strategic 
objectives, and better position for challenges in the future.
    The Department will incorporate the Chief Management Officer (CMO) 
into the Secretariat in fiscal year 2008. The CMO will have 
responsibility for improving Department business operations to carry 
out objectives. These initiatives are all steps to make process 
improvement a way of thinking in carrying out daily business throughout 
the organization.
                             vi. conclusion
    Thank you for this opportunity to report to you on the DON. I 
provide the fiscal year 2009 budget to you and ask for your support for 
this plan that will enable the Department to prevail in global war on 
terrorism, take care of our people and prepare for future challenges. 
The uniformed men and women of the DON, and our civilian workforce, 
depend on our collective support and leadership. I appreciate the 
opportunity to set forth the President's fiscal year 2009 budget and 
look forward to working with you in furtherance of our maritime 
capabilities and our national security.

    Chairman Levin. Thank you so much, Secretary.
    Admiral Roughead, you're next.

 STATEMENT OF ADM GARY ROUGHEAD, USN, CHIEF OF NAVAL OPERATIONS

    Admiral Roughead. Thank you, Mr. Chairman. Chairman Levin, 
Senator Warner, and distinguished members of the committee: On 
behalf of our 600,000 sailors, Navy civilians, and families, 
thank you for your support and the opportunity to appear before 
you today. Together with Secretary Winter and General Conway, 
I'm privileged to be part of this leadership team, committed to 
our Nation's safety, security, and prosperity.
    Today your Navy stands ready with the agility, the 
flexibility, and the competence to do what no other Navy in the 
world can do. Last week we successfully temporarily converted 
our sea-based Ballistic Missile Defense (BMD) capability to 
engage a failing satellite. Sea-based BMD is here, it is real, 
and it works.
    But that is only part of what your Navy delivers to the 
Nation. We recently deployed the first converted strategic 
submarine for sea-air-land (SEAL) delivery. 2,800 sailors set 
sail to patrol in the Mediterranean and Middle East, and the 
three ships of our Africa Partnership Station conducted four 
port calls in West Africa.
    What you saw last week was just a small part of what your 
Navy does in executing the maritime strategy, a strategy that 
is more than just a glossy brochure. Four carriers last year 
anchored our presence in the Arabain Gulf. SSBNs patrolled as 
silent deterrence. Three carrier strike groups massed in an 
array of joint power, exercising sea control in the western 
Pacific in Exercise Valiant Shield. F/A-18 Hornets increased 
projected power ashore in Operation Enduring Freedom when the 
Air Force F-15s were grounded. Ships patrolled the Horn of 
Africa, enhancing maritime security against piracy. U.S.N.S. 
Comfort and U.S.S. Pelelly provided proactive humanitarian 
assistance to tens of thousands in South America and Southeast 
Asia. The U.S.S. Keasage Expeditionary Strike Group (ESG) 
rushed to provide disaster relief to Bangladesh in the 
aftermath of a cyclone.
    We are out and about, doing essential missions for the 
Nation. But as you so well know, our operations come at a cost 
to our people, our current readiness, and the future Fleet, 
those are my three areas of focus. Our people, our sailors, our 
marines, our Navy civilians, and their families know they have 
your support. We must continue to invest in their futures and 
in the young men and women of America who will follow in their 
wake. As a Nation at war, our utmost responsibility is to our 
wounded warriors. I am proud of and committed to the Safe 
Harbor program, which has dedicated staffs and teams 
individually tracking and meeting the needs of those heroic 
sailors and their families.
    In the context of this generational war, however, investing 
in the health of our force must go further. The health care we 
provide, especially for traumatic brain injuries (TBIs) and 
post-traumatic stress disorder (PTSD), as well as the 
President's support for child care, hiring preferences for 
spouses, and family education benefits, will bring welcome 
relief to the military families and assist us in a very 
challenging recruiting and retention environment.
    Likewise, increasing the throughput of the U.S. Naval 
Academy is an important investment in our future leadership, 
especially as Marine Corps end strength grows.
    But supporting our future force cannot be done without 
readiness to fight today. To this end, quality shore 
installations, responsive depot-level maintenance centers, and 
unfettered ability to train responsibly are necessities. Where 
area access and short support are denied, the Commandant and I 
have been moving forward with a sea basing alternative. These 
elements are essential to support our Fleet Response Plan, 
which has enabled us to meet requirements, and will sustain us 
through a requested temporary carrier force level adjustment.
    Of my three focus areas, building tomorrow's Navy to be a 
balanced, appropriately sized force is the most immediate 
imperative and challenge. Fiscal realities, operational strain 
on our ships and aircraft, and necessary decommissionings are 
contributing to the risk we assume. Achieving the 313-ship 
floor at current funding levels will require us to improve 
processes, collaborate with industry, and make difficult 
decisions in the near term.
    I am pleased that the first two DDG-1000 contracts have 
been awarded. The technology embedded in that ship will advance 
our surface combatants of the future. I remain strongly 
committed to funding those programs that provide critical 
capabilities to our forces. There is no substitute for the LCS 
in closing a littoral capability gap. Current F/A-18 Hornets 
are needed to assuage a 2016 strike fighter shortfall. Surface 
combatant superiority will be maintained through DDG-51 
modernization. Multi-mission maritime aircraft will 
recapitalize our maritime patrol antisubmarine warfare 
capabilities, and space BMD will ensure future theater and 
national defense and enable access.
    These critical programs for our future Fleet require 
appropriate disciplined investment now. The 2009 budget and its 
associated force structure plans will meet our current 
challenges with a moderate degree of risk. Clearly we have many 
challenges, of which building tomorrow's Fleet is the greatest. 
But with these challenges, it is our opportunity to have a 
Fleet which will defend the Nation and assure our prosperity 
for generations to come.
    On behalf of our sailors, Navy civilians, and our families, 
thank you again for the opportunity to appear before you today, 
and thank you for your support for what we do today and what we 
will do tomorrow.
    [The prepared statement of Admiral Roughead follows:]
              Prepared Statement by ADM Gary Roughead, USN
                              introduction
    Chairman Levin, Senator McCain, and members of the committee, it is 
an honor to appear before you today representing the nearly 600,000 men 
and women, sailors and civilians of our Navy. In 2007, the Navy 
answered all bells. Surge and rotational expeditionary forces performed 
brilliantly and we responded to global contingencies and requirements. 
The fiscal year 2009 budget and its associated force structure plans 
represent the capabilities needed to meet current challenges with a 
moderate degree of risk. I appreciate your continued support as our 
Navy defends our Nation and our vital national interests.
    In 2007, the Navy, Marine Corps, and Coast Guard released the 
Cooperative Strategy for 21st Century Seapower. The strategy represents 
unprecedented collaboration among the three Services. It also 
incorporates input from American citizens obtained through a series of 
``Conversations with the Country'' that included the maritime Services, 
business and academic leaders, and the general public.
    The maritime strategy is aligned with the President's National 
Strategy for Maritime Security and the objectives articulated in the 
National Security Strategy, the National Defense Strategy, and the 
National Military Strategy. It recognizes that the maritime domain is 
vital to national security and prosperity. Nearly three-quarters of the 
Earth's surface is water; 80 percent of the world's population lives on 
or near coastlines; and 90 percent of the world's trade, including two-
thirds of the world's petroleum, moves on the oceans to market. The 
oceans connect us to populations around the world and our Navy's 
presence and active engagement is vital to our collective security.
    In addition to the Navy's engagement in Iraq and Afghanistan, 
international military, political, and economic events beyond those 
borders have direct and indirect implications for the Navy. Examples 
include China's rapid build up of a blue water navy and their 
development of cyber and space warfighting capabilities. Russia's first 
Mediterranean deployment in 15 years and increased defense spending 
demonstrate their desire to emerge as a global naval power. North 
Korea's long-range ballistic missile program and their missile 
proliferation history reinforce the need for a credible, forward-
deployed ballistic missile defense capability. Militaries in Central 
and South American seek aircraft and submarines to back their regional 
and international objectives. Iran's confrontational activities at sea 
this past January, when the U.S.S. Port Royal, U.S.S. Hopper, and 
U.S.S. Ingraham encountered five small Iranian boats operating 
provocatively in the Strait of Hormuz, heightened tensions. Conflict is 
likely to continue into the future and the Navy's global commitments 
are likely to increase. As U.S. ground forces reset, reconstitute, and 
revitalize, the Navy will remain on station to respond to threats and 
crises.
    The new maritime strategy recognizes the many existing and 
potential challenges to national security and prosperity. To address 
these challenges, the strategy articulates six core capabilities our 
maritime Services provide: forward presence, deterrence, sea control, 
power projection, maritime security, and humanitarian assistance and 
disaster response (HA/DR). The first four capabilities are paramount 
because they enable the defense of our Nation and its interests. 
Forward presence, deterrence, sea control, and power projection must 
remain the cornerstones of what makes our Navy a dominant global force.
    The Navy will continue to enhance cooperation with existing and 
emerging partners and build bridges of trust among the international 
community. Proactive global involvement is a strategic imperative for 
the Navy and our Nation, since trust cannot be surged in times of 
crisis.
    Execution of the maritime strategy is already underway in current 
operations. As we plan and resource for the future, the maritime 
strategy will guide our efforts. The execution of our current readiness 
and force structure plans faces many challenges, but affordability is 
the most pressing. I refuse to cede our technological advantage to 
competitors; however current readiness, manpower, and escalating 
procurement costs make pacing the threat exceptionally difficult. We 
will continue to improve processes, work with industry, and maximize 
cost saving initiatives. Stable procurement plans must be affordable 
and realistic to deliver the balanced future Fleet. While I am 
satisfied that the force structure plans deliver required capabilities, 
the balance among capability, affordability, and executability in these 
plans is not optimal. This imbalance has the potential to increase 
significantly warfighting, personnel, and force structure risk in the 
future.
    Our operations, people, and equipment continue to serve our Nation 
well, but it comes at a significant cost. It is my duty as CNO to 
ensure our Navy is always ready to answer our Nation's call anytime, 
anywhere, now and in the future. This duty shapes my priorities and 
will influence the decisions and recommendations I will make regarding 
the future of our Navy.
                    priorities for fiscal year 2009
    My vision for the Navy is that we remain the preeminent maritime 
power, providing our country a naval expeditionary force committed to 
global security and prosperity. We will defend our homeland and our 
Nation's vital interests around the world. We will prevent war, 
dominate any threat, and decisively defeat any adversary. The Navy will 
remain a powerful component of joint warfare by exploiting cutting edge 
technology and cooperating closely with the other Services, the 
interagency community, allies, and international partners. We will 
remain a superbly trained and led team of diverse sailors and 
civilians, who are grounded in our warfighting ethos, core values, and 
commitment to mission readiness and accomplishment.
    To achieve this vision, the Navy must address existing and emerging 
challenges and create new opportunities. My priorities are to:

        <bullet> Build tomorrow's Navy
        <bullet> Remain ready to fight today
        <bullet> Develop and support our sailors and Navy civilians.

    I will demand that we accurately articulate requirements and remain 
disciplined in our processes. Achieving the right balance within and 
across these focus areas will provide dominant seapower for our Nation, 
today and tomorrow.
Building Tomorrow's Navy
    Our Fleet must have the right balance of capability and the 
capacity. Three hundred thirteen ships represent the minimum force 
necessary to provide the global reach, persistent presence, and 
strategic, operational, and tactical effects. Our fiscal year 2009 
budget requests 7 new ships: 2 LCS, 1 DDG-1000, 1 SSN, 2 T-AKE, and 1 
JHSV, and 47 new ships over the Future Years Defense Program (FYDP) 
(fiscal years 2009-2013). I support a stable shipbuilding plan that 
provides an affordable, balanced force and preserves our Nation's 
industrial base. I intend to develop further our Navy's relationship 
with industry to reinforce our commitment to a stable shipbuilding 
plan.
    As we pursue operational capability at reduced cost, we take into 
account several industrial factors. Level loading of ship and aircraft 
procurements help sustain appropriate employment levels, retain skills, 
and promote a healthy U.S. shipbuilding industrial base. Common hull 
forms, common components, and repeat builds of ships and aircraft that 
permit longer production runs also reduce construction costs. Our 
Navy's shipbuilding plans incorporate open architecture for hardware 
and software systems and they increase the use of system modularity. 
These initiatives reduce the cost of maintenance and system upgrades, 
and keep the Navy's Fleet in service longer.
    I seek your support for the following initiatives and programs:
    Aircraft Carrier Force Structure
    The Navy is committed fully to maintaining an aircraft carrier 
force of 11. During the 33-month period between the planned 2012 
decommissioning of U.S.S. Enterprise and the 2015 delivery of U.S.S. 
Gerald Ford, however, legislative relief is requested to temporarily 
reduce the carrier force to 10. Extending Enterprise to 2015 involves 
significant technical risk, challenges manpower and industrial bases, 
and requires expenditures in excess of $2 billion. Extending Enterprise 
would result in only a minor gain in carrier operational availability 
and adversely impact carrier maintenance periods and operational 
availability in future years. We are adjusting carrier maintenance 
schedules to support the Fleet Response Plan (FRP) and ensure a 
responsive carrier force for the Nation during this proposed 10-carrier 
period. I urge your support for this legislative proposal.
    Littoral Combat Ship
    Littoral Combat Ship (LCS) fills critical warfighting requirements. 
It offers speed, draft, and modularity that no other ship offers. 
U.S.S. Freedom (LCS-1) and U.S.S. Independence (LCS-2) enter service 
soon and their performance at sea will enable us to decide on the 
appropriate acquisition strategy for the class. Controlling and 
reducing LCS costs are key to an affordable shipbuilding plan and we 
have already improved management oversight, implemented stricter cost 
controls, and incorporated selective contract restructuring to ensure 
delivery on a realistic schedule. Although recent changes to the LCS 
program resulted in the reduction of 13 ships across the FYDP, I remain 
committed to procuring 55 LCS by fiscal year 2023. I appreciate your 
continued support for this important ship class, including our fiscal 
year 2009 request for $1.47 billion for procurement of two additional 
ships and associated modules and continued research and development 
(R&D).
    Joint Strike Fighter
    The increased operational tempo (OPTEMPO) of our legacy aircraft is 
consuming service life at an accelerated rate. The recent groundings of 
high demand P-3 aircraft highlight the need to bring the next 
generation of aircraft in service and retire our aging aircraft. The 
Joint Strike Fighter (JSF) provides expanded capability that will meet 
the needs of our Navy, Joint Forces, and international partners. 
Because of the high OPTEMPO of the current strike aircraft fleet, and 
despite JSF's initial operational capability (IOC) and delivery in 
2015, we anticipate a shortfall of strike aircraft from 2016-2025. 
Further delays in JSF will exacerbate this strike fighter gap. Navy's 
fiscal year 2009 investment of $3.4 billion includes procurement of 
eight aircraft and continued R&D for aircraft and engine development.
    CG(X)
    The next generation Guided Missile Cruiser CG(X) will be a highly 
capable major surface combatant tailored for Air and Missile Defense. 
CG(X) will provide maritime dominance, independent command and control, 
and forward presence. It will operate as an integral unit of Joint and 
Combined Forces. The CG(X) design and development program will feature 
revolutionary acquisition and spiral development practices that 
incorporate advanced technologies and next generation engineering 
systems. By replacing the Ticonderoga (CG 47) class of ships at the end 
of its 35-year service life, CG(X) capitalizes on the developments made 
through DDG Modernization and DDG-1000. We are conducting a rigorous 
analysis to examine alternatives for CG(X) consistent with the National 
Defense Authorization Act requirement for nuclear power. Our fiscal 
year 2009 R&D request for $370 million will support CG(X) and 
associated radar development.
    DDG-1000
    Congressional approval of split funding for the dual lead DDG-1000 
ships supports an acquisition approach that motivates cooperative 
completion of detail design. Collaboration between Northrop Grumman 
Ship Systems and Bath Iron Works during the detail design process has 
enabled these shipyards to produce the two lead ships simultaneously. 
Consequently, the DDG-1000 detail design will be more mature prior to 
start of construction than any previous shipbuilding program. Our 
budget request in fiscal year 2009 will procure the third ship of the 
class.
    Ballistic Missile Defense
    The increasing development and proliferation of ballistic missiles 
can threaten the homeland and our friends and allies. Ballistic 
missiles can also impede our military operations. Maritime ballistic 
missile defense (BMD) provides protection for forward-deployed joint 
forces and regional allies while contributing to the larger defense of 
the United States through the Ballistic Missile Defense System (BMDS). 
Maritime ballistic missile defense directly contributes to the Navy's 
core capability of deterrence, and enables our core capabilities of 
power projection and sea control. The Aegis BMD directorate of the 
Missile Defense Agency has developed the Navy's BMD capability which is 
installed on 17 ships including 3 cruisers and 14 guided missile 
destroyers with installations continuing in 2008. These Navy surface 
ships support the BMDS by cueing ground-based sensors and intercepting 
Short to Intermediate Range Ballistic Missiles with ship-based 
interceptors (SM-3 missiles). The Near-Term Sea-Based Terminal Program 
provides the ability to engage a limited set of Short Range Ballistic 
Missiles (SRBMs) with modified SM-2 Block IV missiles. The Navy will 
continue to work closely with the Missile Defense Agency to deliver 
improved capability and capacity to defend against this proliferating 
threat. While development and procurement funding is covered under the 
Missile Defense Agency budget, Navy has committed $16.5 million in 
fiscal year 2009 for operations and sustainment of Aegis BMD systems.
    Navy Networks
    Afloat and ashore networks enable warfighting command and control 
capability. Data, hardware, and applications must be arranged in a way 
that enables rapid upgrades to accommodate exponential increases in 
demand. Incorporation of open architecture and common computing 
environment in our networks will require us to redesign network 
architecture to free us from proprietary control. Open architecture 
will drive us to commonality and standardization, introduce 
efficiencies, promote better data protection, and network security. It 
will also allow our future war fighters to fight collaboratively and 
more effectively.
    The first step in achieving this new network architecture is 
putting it to sea. The Consolidated Afloat Networks and Enterprise 
Services (CANES) system achieves an open, agile, flexible and 
affordable network architecture that will move us forward. CANES 
embraces cross-domain solutions that enable enhanced movement of data. 
It is a revolutionary change in our information technology 
infrastructure and it is absolutely vital for us to excel in 21st 
century warfare. $21.6 million is aligned to CANES in the fiscal year 
2009 budget request, all of which is redirected from existing budget 
lines.
    Research and Development
    Science and technology (S&T) give the Navy warfighting advantage. 
Last year the Secretary of the Navy, the Commandant of the Marine 
Corps, and my predecessor completed and published a combined Naval S&T 
strategy that ensures our investments accomplish the vision and goals 
of the Navy and Marine Corps. Selecting research for future naval force 
capabilities must be balanced with fiscal realities. The S&T strategy 
identifies 13 research focus areas and sets high-level objectives that 
guide investment decisions. S&T investments present a balance between 
applied science, focused on near-term challenges, and basic research 
that advances the frontiers of science. We aggressively focus on 
transitioning S&T into programs of record and push these programs of 
record out to the Fleet through our Future Naval Capabilities program 
at the Office of Naval Research (ONR). The fiscal year 2009 budget 
requests $1.8 billion for Navy's S&T programs, an increase of 6 percent 
over the requested fiscal year 2008 level.
Ready to Fight Today
    Maintaining warfighting readiness demands a Navy that is agile, 
capable, and ready. As operational demands and Joint Force posture in 
the Middle East subside, I expect the Navy's posture, positioning, and 
OPTEMPO to increase, not decrease. OPTEMPO, as expressed in terms of 
steaming days, reflects the underway time of our conventionally powered 
ships. OEF/OIF and additional global commitments have caused a 
significant difference between budgeted and actual steaming days. The 
Navy has funded this difference with war supplemental funding. Trends 
indicate that anticipated operational requirements will continue to 
exceed peacetime levels in fiscal year 2009. Additionally, increased 
OPTEMPO drives accelerated force structure replacement and higher 
maintenance and manpower costs that must be funded.
    As the Nation's Strategic Reserve, the Navy must be ready to 
generate persistent seapower anywhere in the world. The Navy must also 
establish and evolve international relationships to increase security 
and achieve common interests in the maritime domain.
    We generate forces for the current fight and employ our Navy much 
differently than in years past. We simultaneously provide ready naval 
forces and personnel for Joint Force Commanders, sustain forward 
presence, fulfill commitments to allies, and respond to increasing 
demands in regions where we have not routinely operated, specifically 
in South America and Africa.
    The FRP has enhanced our ability to meet COCOM requests for forces 
for the last 6 years. FRP provides naval forces that are well-
maintained, properly manned, and appropriately trained to deploy for 
forward presence and surge missions. FRP increases operational 
availability and generates more forward presence and surge capability 
on short notice than was possible in the past. The unscheduled 
deployment of a second carrier to the Middle East in January 2007 is an 
example of how FRP provides the Nation with options to defend its vital 
interests. FRP also allows the Navy to respond to global events more 
robustly while maintaining a structured, deliberate process that 
ensures continuous availability of trained, ready Navy forces.
    Balancing capacity and capability across the spectrum of warfare is 
essential. The challenge will be maintaining dominance in traditional 
roles while meeting existing and emerging threats in asymmetric and 
irregular warfare. My goal is to influence the entire range of military 
operations from large scale conflict to maritime security and HA/DR. 
Areas of particular interest to us are:
    Anti-Submarine Warfare (ASW): Sonar-The Key ASW Enabler
    Submarines remain an immediate threat and their roles and lethality 
are increasing. More countries are buying submarines; some are building 
anti-access strategies around them. Maintaining the ability to detect, 
locate, track, and destroy submarines is essential and our active sonar 
systems, particularly medium frequency active (MFA) sonar, are the key 
enablers.
    The Navy's use of sonar is being challenged in Federal court by 
various lawsuits which seek to prohibit or severely limit it during 
vital combat certification exercises, such as those conducted in our 
southern California operating areas. In more than 40 years of sonar use 
in southern California waters, not a single injury to marine mammals 
has been linked to sonar. The Navy has worked closely with the National 
Marine Fisheries Service (NMFS) to establish effective, science-based 
mitigation measures. By implementing these measures NMFS does not 
expect adverse population level effects for any marine mammal 
populations during Fleet training exercises scheduled in southern 
California in 2008. MFA sonar provides a robust and absolutely vital 
capability to detect submarine threats. Limiting our ability to train 
and exercise with MFA sonar will degrade operational readiness and 
place our forces at risk.
    Our measures provide an appropriate balance between good 
stewardship of the environment and preparing our forces for deployment 
and combat operations. Our sailors must be trained to the best of their 
abilities with all of the technological tools available to fight and 
win. It is vital that our Navy be allowed to train and exercise with 
MFA sonar.
    Intelligence
    Our Navy provides a vital intelligence, surveillance, and 
reconnaissance capability around the globe. These capabilities produce 
warning and awareness in support of the planning and execution of 
maritime and joint operations. We are expanding our intelligence 
capability through development of trained human intelligence (HUMINT) 
personnel, investment in operational intelligence at our Maritime 
Operation Centers, and expanded synchronization with theater, joint, 
and national intelligence capabilities.
    Maritime Domain Awareness
    Maritime security supports the free flow of commerce for all 
nations. Maritime Domain Awareness is knowing what is moving below, on, 
and above the sea. Without a high level of Maritime Domain Awareness 
the free flow of commerce is jeopardized. The goal of Maritime Domain 
Awareness is to establish a level of security regarding vessels 
approaching our coastlines, while not infringing upon each nation's 
sovereignty or sharing inappropriate information.
    In partnership with the Coast Guard we established the Office of 
Global Maritime Situational Awareness (GMSA). GMSA works with the 
Office of Global Maritime Intelligence Integration in developing the 
national maritime picture. The first spiral of Maritime Domain 
Awareness capability arrives in the Central Command and Pacific Command 
in August 2008 with later spirals in the Atlantic and Caribbean.
    Seabasing
    Seabasing represents a critical warfighting capability. It will 
assure access to areas where U.S. military forces are denied basing or 
support facilities. In the near term, our amphibious and prepositioned 
ships (including MPF(F)) are the key ships in the seabase. They provide 
the required lift for the Marine Corps across the range of military 
operations. These ships and marines, and the defensive and strike 
capabilities of our surface combatants and aircraft, provide 
operational maneuver and assured access for the force while 
significantly reducing our footprint ashore.
    The Navy is exploring innovative operational concepts combining 
seabasing with adaptive force packaging that will further support 
national security policy and the combatant commanders' objectives 
worldwide. Our 30-Year Shipbuilding Plan provides for seabasing that 
covers the spectrum of warfare from Joint Forcible Entry to persistent 
and cooperative Theater Security Cooperation.
    Future Joint Sea Basing requirements are still being defined but 
will be significantly greater than today's Navy and Marine Corps 
warfighting capabilities. The next generation long-range, heavy lift 
aircraft, joint logistics support system, intra-theater lift and sea 
connectors will provide these future capabilities.
    Shore Installations
    Our shore installations are extensions of our warfighting 
capabilities and among our most complex systems. Our installations must 
be ready to deliver scalable, agile, and adaptive capabilities to meet 
the requirements of our fleet, sailors, and families. We must reverse 
our historical trend of underinvestment in our shore establishment. I 
will leverage and expand upon the successes of our Navy Ashore Vision 
2030 and enhance the linkage between our installations, our 
warfighters, mission accomplishment, and quality of service.
    In the past, we accepted significant risk in our shore 
establishment to adequately fund Fleet readiness. As a result, the 
condition, capability, and current and future readiness of our shore 
installations degraded to an unacceptable level by industry standards. 
I directed the implementation of a systematic and consistent approach 
to assess the material condition of our shore establishments and 
develop a comprehensive investment strategy to arrest and reverse the 
decline of our shore establishment.
    We will take advantage of every opportunity to leverage the joint 
capabilities we share with other Services and the capabilities of the 
supporting communities where we work and live. The power of this 
leverage is highlighted in our new Public-Private Venture Bachelor 
Quarters at San Diego and Norfolk. With the authorities granted by 
Congress and very progressive private partners, we provide our sailors 
the best housing I have seen during my naval career. These quarters 
will have a dramatic impact on sailors' decisions to reenlist.
    We owe our sailors, their families, and our civilian workforce, who 
selflessly serve our Nation, world-class facilities and services to 
enhance their productivity and effectiveness and to motivate them to 
remain in the Navy. The decline in the shore infrastructure must be 
reversed by a prudent review of current capacity and a forward leaning 
investment strategy that defines our shore footprint for the 
foreseeable future. The shore establishment is a critical system for 
the Navy and provides the foundation for our training, manning, and 
equipping. It is imperative we invest and sustain our shore 
establishment at the right level to ensure a ready, mobile, and capable 
Navy.
    Depot Level Maintenance
    The increased OPTEMPO of our ships and aircraft in combat 
operations elevates the importance of performing timely depot level 
maintenance. Depot level maintenance ensures continued readiness and 
the safety of our men and women operating our ships and aircraft. 
Adequate funding for depot level maintenance ensures we do not incur 
unnecessary risk by extending our ships and aircraft well past their 
periodicity of maintenance. In addition to the challenges of 
maintaining our ships and aircraft, the capacity of the industrial base 
remains challenging. Consistent, long-term agreements for the efficient 
use of shipyards are necessary to keep our ships and aircraft in the 
highest states of readiness.
    United Nations Convention on the Law of the Sea
    The Law of the Sea Convention codifies navigation and overflight 
rights and high seas freedoms that are essential for the global 
mobility of our Armed Forces. It directly supports our National 
Security Strategy. I believe strongly that the Convention furthers our 
national security interests. Our maritime security efforts necessitate 
that we become a party to the Law of the Sea Convention, the bedrock 
legal instrument in the maritime domain, to which 154 nations are 
party. Our current non-party status constrains our efforts to develop 
enduring maritime partnerships. It inhibits our efforts to expand the 
Proliferation Security Initiative and elevates the level of risk for 
our sailors as they undertake operations to preserve navigation rights 
and freedoms, particularly in areas such as the Strait of Hormuz and 
Arabian Gulf, and the East and South China Seas. Accession to the Law 
of the Sea Convention is a priority for our Navy.
Developing and Supporting Our Sailors and Navy Civilians
    Our talented and dedicated sailors and Navy civilians are 
absolutely essential to our maritime dominance. Attracting, recruiting, 
and retaining in a competitive workplace is increasingly more 
expensive. We must devote adequate resources and shape our policies to 
ensure our people are personally and professionally fulfilled in their 
service to our Nation. We have identified a steady-state force level of 
322,000 Active component/68,000 Reserve component end strength as the 
optimum target for our projected force structure. It is critical that 
future funding sustains this level.
    Recruiting, developing, and retaining diverse and highly capable 
men and women are imperatives. The Navy must address the changing 
national demographic to remain competitive in today's employment 
market. Only 3 out of 10 high school graduates meet the minimum 
criteria for military service. The propensity to serve is declining 
among youth and more often influencers of these youth, such as parents 
and teachers, are advising against military service.
    ``Millennials'' are the generation of youth currently entering the 
workplace and they comprise 43 percent of our Navy. Born into a 
globalized world saturated with information and technology, Millennials 
are more accomplished for their age than previous generations. They are 
a technology-savvy and cyber-connected group who may find the 
military's hierarchical command and control structure contradictory to 
the flat social networks they are used to navigating. The different 
paradigm under which this generation views the world and the workplace 
has implications for how the Navy attracts, recruits, and retains top 
talent. Additionally, to better meet the needs of the U.S. Marine 
Corps, we must increase the through-put at the U.S. Naval Academy. I 
urge your support of our legislative proposal to increase the number of 
Midshipmen at the Naval Academy.
    The Strategy for Our People ensures we have the best and brightest 
on our team. The strategy outlines six goals for achieving a total Navy 
force of sailors and civilians that is the right size and possesses the 
right skills to best meet the needs of the Navy. These goals are: 
capability-driven manpower, a competency-based workforce, effective 
total force, diversity, being competitive in the marketplace, and being 
agile, effective, and cost-efficient. Many of the efforts currently 
underway in support of the strategy are discussed in further detail 
below.
    Recruiting Initiatives
    The Navy Recruiting Command is relentless in its pursuit of 
attracting the best young men and women in America to serve in our 
Navy. Recruiting priorities are currently focused on attracting 
personnel for the Naval Special Warfare/Naval Special Operations, 
nuclear power, medical, and chaplain communities. Recruiting Command is 
constantly searching for new ways to recruit America's talent. For 
example, the Medical Leads Assistance Program employs Navy officers as 
ambassadors for generating interest in Navy Medicine. In the NSW and 
Naval Special Operations communities, we provide mentors for recruits 
before enlistment and during training with the two-fold goal of 
improving recruiting results and ensuring applicant success at Recruit 
Training Center and Basic Underwater Demolition/SEAL training.
    To recruit nuclear-trained officers and chaplains, we encourage our 
personnel to share their story with the American public. Through visits 
to college campuses and career fairs, nuclear-trained officers share 
their experiences of operating nuclear reactors on board carriers and 
submarines. These visits have improved short-term Nuclear Propulsion 
Officer Candidate recruiting and our officers will continue to 
cultivate personal relationships with faculty and university 
representatives to ensure long-term program health. Through the Reserve 
Officer Goals Enhance Recruitment program, Reserve chaplains use their 
network of ministerial relationships to share their experiences as Navy 
chaplains and provide information on how to become Active or Reserve 
chaplain candidates.
    Over the past 5 years, Navy Reserve Junior Officer recruitment has 
declined. To encourage young officers to stay Navy, we authorized a 
mobilization deferment policy for officers who affiliate with the Navy 
Reserve within the first year after leaving active duty. Combined with 
a $10,000 affiliation bonus, we have had some success in improving the 
recruitment of Reserve officers, but this market remains a challenge. 
We established a Reserve Retention and Recruiting Working Group to 
identify near-term and long-term solutions that will achieve 
sustainable success.
    Development Initiatives
    Our people deserve personally and professionally fulfilling careers 
that provide continuous opportunities for development. We offer 
multiple programs and we partner with outside organizations so that 
sailors and Navy civilians can pursue job-relevant training, continuing 
education, and personal enrichment. One such program is a pilot called 
``Accelerate to Excellence.'' This program provides enlisted recruits 
in specific ratings the opportunity to earn an Associate's Degree at a 
community college while undergoing specialized training after boot 
camp.
    The Navy also provides developmental opportunities for officers and 
enlisted personnel through Professional Military Education (PME). PME 
is designed to prepare leaders for challenges at the tactical, 
operational, and strategic levels of war. The PME continuum integrates 
advanced education, Navy-specific PME, Joint PME (JPME) and leadership 
development in a holistic manner. The competencies, professional 
knowledge, and critical thinking skills sailors obtain from PME prepare 
them for leadership and the effective execution of naval missions. PME 
graduates are 21st century leaders who possess the capacity to think 
through uncertainty; develop innovative concepts, capabilities, and 
strategies; fully exploit advanced technologies, systems, and 
platforms; understand cultural/regional issues; and conduct operations 
as part of the Joint force.
    Enrollment in JPME courses is up: JPME Phase I in-residence 
enrollment is up 5 percent; JPME Phase I non-residence enrollment is up 
15 percent; JPME Phase II enrollment is up 50 percent. Congressional 
support to allow Phase II JPME to be taught in a non-residency status 
would enable sailors to pursue professional development while 
continuing their current assignments.
    In addition to JPME courses, the Navy supports Joint training 
through the Navy Continuous Training Environment (NCTE). NCTE is a 
distributed and simulated Joint and coalition training environment that 
replicates real-life operations. NCTE integrates into the Joint 
National Training Capability (JNTC) training architecture and satisfies 
COCOM requirements at the operational and tactical level.
    Retention Initiatives
    As the Navy approaches a steady-state force level of 322,000 Active 
component/68,000 Reserve component end strength, attracting and 
retaining sailors with the right skills is critical. In fiscal year 
2008, the goal is to shift our focus beyond numbers to ensure we have 
the right skill sets in the right billets at the right time. This 
approach increases opportunities for advancement and promotion by 
assigning personnel to positions that utilize and enhance their 
talents, and emphasizes continued professional growth and development 
in stages that align to career milestones.
    The Navy is also addressing retention through Active component to 
Reserve component transition. This program is changing the existing 
paradigm under which a sailor leaves the Navy at the end of their 
obligated service and is instead promoting service in the Reserve 
component as an alternative to complete detachment. The Perform to 
Serve (PTS) program screens Zone A sailors, who are at the end of a 4- 
to 6-year enlistment for reenlistment within their rating or for rating 
conversion. The manpower, personnel, training, and education enterprise 
is adding Reserve component affiliation to sailors' PTS options at the 
end of Zone A enlistment. Additionally, Reserve component affiliation 
will become increasingly seamless as we shift responsibility from Navy 
Recruiting Command to Navy Personnel Command.
    Taking Care of Families
    When a sailor or civilian joins the Navy team our commitment 
extends to their family. Mission success depends upon the individual 
readiness of our people and on the preparedness of their families. 
Supporting Navy families is critical to mission success.
    Keeping families ready and prepared alleviates some of the stress 
associated with deployments. Our continued commitment to programs and 
resources that maximize family readiness remains high. We continue to 
improve and expand child care programs and centers. Crisis management 
and response procedures coupled with enhanced ombudsman programs 
demonstrate our commitment to give deployed sailors confidence that 
their families are in good hands.
    In 2007, Navy programs cared for 45,780 children ages 6 months to 
12 years and served over 70,000 youth, ages 13 to 18, in 124 child 
development centers, 103 youth centers, and 3,115 on and off-base 
licensed child development homes. In response to the needs of Navy 
families, we have launched an aggressive child care expansion plan that 
adds 4,000 child care spaces within the next 18 months and reduces 
waiting lists in most places below the current 6-month average.
    At the end of fiscal year 2007, we successfully privatized 95 
percent of the continental U.S. (CONUS) and Hawaii family housing. We 
aggressively monitor the ratification of Navy housing residents and our 
Public Private Venture efforts are clearly resulting in continuous 
improvement in the housing and services provided to our sailors and 
their families. The ability of the private partner to renovate and 
replace family housing units at a much quicker pace than military 
construction (MILCON) has positively impacted the quality of Navy 
housing.
    Taking care of our families includes proactively reducing financial 
stresses placed on sailors and families. We are focused on family 
counseling in response to increased OPTEMPO as a result of OEF/OIF. We 
provided one-on-one job search coaching services to 21,730 Navy family 
members and made 10,830 military spouse employment ready referrals to 
employers. Fleet and Family Support Center (FFSC) financial educators 
provided more than 186,000 sailors and family members seminars/
workshops focusing on financial fitness, increased our financial 
counseling services to military spouses by more than 50 percent, and 
launched a robust campaign to encourage wealth building and debt 
reduction.
    Health Care
    We have some of the best medical professionals in the world serving 
in the Navy. Health care options the Navy offers its people are 
valuable recruitment and retention incentives. Still, health care costs 
are rising faster than inflation. Operations in OEF and OIF increased 
the demand for medical services in combat and casualty care. Part of 
this demand is straight forward: our wounded need traditional medical 
care and rehabilitation services. The other part of this demand is more 
complex and addresses the increased occurrences of mental health 
disorders resulting from combat operations. Medical professionals are 
rapidly learning more about assessing and treating the effects of 
mental health issues associated with war such as post-traumatic stress 
disorder (PTSD) and traumatic brain injury. We are implementing these 
lessons to more effectively treat these sailors.
    Wounded Warrior/Safe Harbor Program
    Care for combat wounded does not end at the Military Treatment 
Facility (MTF). The Navy has established the Safe Harbor Program to 
ensure seamless transition for the seriously wounded from arrival at a 
CONUS MTF to subsequent rehabilitation and recovery through DOD or the 
Department of Veterans Affairs (VA). Since its inception, 162 sailors 
including 143 Active and 19 Reserve members have joined the program and 
are being actively tracked and monitored, including 126 personnel 
severely injured in OEF/OIF. Senior medical staffs personally visit and 
assist seriously injured sailors and their families to ensure their 
needs are being met.
                               conclusion
    We are truly a ready, agile, and global Navy. To ensure that we 
maintain our naval dominance, we must achieve the optimal balance of 
building the Navy of tomorrow as we remain engaged and ready to fight 
today while fully supporting our people.
    I will continue to work closely with the Secretary of the Navy, the 
Commandant of the Marine Corps, Congress, and industry to build the 
levels of trust and collaboration necessary to resource, acquire, and 
effectively manage a Fleet of the right size and balance for our 
Nation.
    Despite the challenges, I am very optimistic about our future and 
the many opportunities ahead. The dedication of our sailors and Navy 
civilians is inspiring. They are truly making a difference and it is an 
honor to serve alongside them. I thank you for your continued support 
and commitment to our Navy and for all you do to make the United States 
Navy a force for good today and in the future.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Thank you so much, Admiral.
    General Conway?

  STATEMENT OF GEN. JAMES T. CONWAY, USMC, COMMANDANT OF THE 
                          MARINE CORPS

    General Conway. Chairman Levin, Senator Warner, and 
distinguished members of the committee: I have pledged to 
always provide you with forthright and honest assessments of 
your Marine Corps and I bear that in mind today as I report to 
you on the posture of our Service.
    In the written statement I provided you a list of 
priorities that would enable your Corps to best serve our 
Nation's security interests, both today and in the uncertain 
future. But in brief, our young warriors in combat are my 
number one priority. Those magnificent patriots have been 
extremely effective in disrupting insurgents and the al-Qaeda 
in the al-Anbar Province. In the spirit of jointness, I must 
note that it hasn't been just marines, rather marines, sailors, 
and soldiers, a composite effort over time, that has brought 
success to the al-Anbar.
    Quiet in their duty and determined in their approach, your 
marines are telling us loud and clear that wherever there's a 
job to be done they'll shoulder that mission with enthusiasm. 
They're tough and they'll do what it takes to win.
    We are still supporting the surge in Iraq and have already 
shifted from population protection to transitioning security 
responsibilities to Iraqi security forces. They are actively 
stepping up to the task. Though it may not be our core 
competency, marines have addressed the Nation-building aspect 
of our duties with enthusiasm and determination.
    As you mentioned, Mr. Chairman, in answer to the most 
recent call from the Secretary of Defense, we are also 
deploying more than 3,400 marines to Afghanistan. Your marines 
will assist the joint force in either gaining or maintaining 
momentum there. We fall in on our expeditionary ethos of living 
hard and fighting well as part of the air-ground team.
    I've just returned from a visit to Iraq and Afghanistan 
and, ladies and gentlemen, I'm pleased to report to you that 
your marines are demonstrating amazing resiliency in the face 
of multiple deployments to dangerous lands. In spite of a one-
to-one deployment-to-dwell regimen that has virtually no chance 
of getting better until fall, the factors that we track monthly 
to determine health of the force, that include desertion and UA 
rates, suicide, divorce, child or spousal abuse, and not in the 
least, reenlistment rates, are all as good or better than they 
were in 2001.
    We do have a significant issue with our families. Simply 
put, they are proud of their contributions to this war, but 
they're tired. We owe it to those families to put our family 
service programs onto a wartime footing. For too long our 
programs have been borne on the backs of our volunteers--
perhaps acceptable during peacetime, but untenable during a 
protracted conflict. Congress has been exceptionally supportive 
in enabling us to make good on the promise to do more.
    Of course, we look beyond today and our obligation to the 
Nation, and we have learned lessons in trying to build the 
force as we fight. In response to a clear need, we are growing 
the Corps to 202,000 marines. We do this without lowering our 
standards and we are ahead of our goals. During the last fiscal 
year, we needed to bring aboard 5,000 additional recruits. We 
actually grew 7,000 additional marines, 96.2 percent of them 
high school graduates.
    But more than just manpower, the growth requires training, 
infrastructure, and equipment to meet the needs of our Nation. 
You've helped us meet those requirements with steady support 
and encouragement, and for that we thank you.
    Though our capacity is currently stretched, the Marine 
Corps retains the mission to provide a multi-capable force for 
our Nation, a two-fisted fighter, if you will, able to destroy 
enemy formations with our air-ground team in a major 
contingency, but equally able to fall back on our hard-earned 
irregular warfare skills honed over decades of conflict.
    By far the most complex of our congressionally mandated 
missions, amphibious operations, requires deliberate training 
and long-term resourcing to achieve a high level of 
proficiency. The operational expertise, the special equipment 
sets, and the amphibious lift are not capabilities that we can 
rapidly create in the face of a threat.
    Finally, on behalf of your marines, I extend great 
appreciation for your support thus far, and I thank you in 
advance for your efforts on behalf of our brave service men and 
women in harm's way. I assure you that the Marine Corps 
appreciates the increasing competition for the Nation's 
discretionary resources and will continue to provide a tangible 
return for every dollar spent.
    Mr. Chairman, thank you very much for the opportunity to 
speak.
    [The prepared statement of General Conway follows:]
            Prepared Statement by Gen. James T. Conway, USMC
                           executive summary
    Chairman Levin, Senator McCain, and distinguished members of the 
committee; I have pledged to always provide you forthright and honest 
assessments of your Corps. I bear that in mind today as I report to you 
on the posture of your Corps.
    Your Marine Corps is fully engaged in what we believe is a 
generational struggle against fanatical extremists; the challenges we 
face are of global scale and scope. This Long War is multi-faceted and 
will not be won in one battle, in one country, or by one method. Your 
marines are a tough breed and will do what it takes to win--not only in 
these opening battles of Iraq and Afghanistan, but also in the 
subsequent conflicts which we endeavor to prepare for today.
    In the face of great hardship, your marines have made a positive 
and selfless decision to stay resolved. More than 332,000 marines have 
either enlisted or re-enlisted since September 11, 2001; more than 
208,000 have deployed to Iraq or Afghanistan--a telling number for a 
force of less than 200,000 marines. Make no mistake, they joined or 
decided to re-enlist knowing they would go into harm's way.
    They have answered the Nation's call and are fully engaged in this 
fight--serving with distinction as the professionals they are. It falls 
on us, then, to fully support them--we owe them the full resources 
required to complete the tasks ahead. Now more than ever, they need the 
sustained support of the American people and Congress to provide them 
the help they need to fight today's conflict, prepare for tomorrow's, 
and fulfill our commitment to our marine families.
    Without question, marines in combat are our number one priority. 
Taken as a whole, combat operations are indeed stressing our forces and 
families. That said, the Marine Corps will not fail her country when 
called. In fact, in answer to the most recent call to provide ready 
forces to serve our Nation, the Marine Corps is deploying more than 
3,200 marines to Afghanistan in addition to supporting ongoing surge 
operations in Iraq and other force requirements worldwide.
    It is with these great men and women in mind that the Marine Corps 
has shaped its priorities--which are enduring and serve not only the 
conflict of today, but also the inevitable crises that will arise in 
our Nation's future. Through this budget request, we seek to:
Right-Size the Marine Corps for today's conflict and tomorrow's 
        uncertainty
    To fulfill our obligations to the Nation, the Marine Corps will 
grow its personnel end strength to 202,000 Active component marines by 
the end of fiscal year 2011. This increase will enable your Corps to 
train to the full spectrum of military operations and improve the 
ability of the Marine Corps to address future challenges of an 
uncertain environment. Our growth will enable us to recover our ability 
to respond in accordance with timelines outlined in combatant commander 
war plans--thereby, reducing operational risk. More than just manpower, 
this growth will require training, infrastructure, and equipment to 
meet the needs of our Nation.
Reset the force and prepare for the next contingency
    To meet the demands of this war, we must reset the force so that we 
can simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided. 
Congress has responded rapidly and generously to our requests for 
equipment and increased protection for our marines and sailors. We are 
committed to fulfilling our responsibility to manage these resources 
prudently as we modernize our force.
Modernize for tomorrow to be ``the most ready when the Nation is least 
        ready''
    Congressionally-mandated to be ``the most ready when the Nation is 
least ready,'' your multi-capable Corps is committed to fulfilling this 
responsibility. We remain focused and steadfast in our responsibility 
to be the Nation's premiere expeditionary Force-in-Readiness. To do so, 
we continue to adapt our organization and equipment to provide our 
country the best Marine Corps in the world.
Provide our Nation a naval force that is fully prepared for employment 
        as a Marine Air Ground Task Force across the spectrum of 
        conflict
    The newly published Maritime Strategy reaffirms our naval character 
and reemphasized our enduring relationship with the Navy and, now, 
Coast Guard. Current operations limit our ability to aggressively 
commit forces to strategy implementation at this time. However, as we 
increase our end strength to 202,000 marines and as security conditions 
continue to improve in Iraq, the Marine Corps will transition our 
forces to other battles in the Long War. The most complex mission in 
the Maritime Strategy is the congressionally-mandated mission of 
amphibious forcible entry. Such an operation requires a high level of 
proficiency and long-term resourcing and is not a capability that we 
can create on short notice.
Take care of our marines and their families
    Our most precious asset is the individual marine. Our marines and 
families have been steadfast and faithful in their service to our 
country, and we have an equally enduring obligation to them. As such, 
we are committed to putting our family programs on a wartime footing--
our marines and families deserve no less.
Posture the Marine Corps for the future beyond the horizon
    The United States faces a complex mix of states who sponsor 
terrorism, regional and rising peer competitors, failing states that 
undermine regional stability, and a variety of violent non-state 
actors--all serving to destabilize legitimate governments and undermine 
security and stability of the greater global community. We see this 
global security context as a persistent condition for the foreseeable 
future.
    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face.
    On behalf of your marines, I extend great appreciation for your 
support thus far and thank you in advance for your ongoing efforts to 
support our brave service men and women in harm's way. I promise you 
that the Corps understands the value of each dollar provided and will 
continue to provide maximum return for every dollar spent.
      i. marines and sailors in combat are our number one priority
    Marines in the operating forces have been pushed hard by the tempo 
and frequency of operational deployments; yet, their morale has never 
been higher--because they believe they are making a difference. Thanks 
to Congress, your marines know that the people of the United States and 
their Government are behind them. Your support has been exceptional--
from the rapid fielding of life-saving equipment to the increase of 
Marine Corps end strength. With your continued support, your marines 
will continue to make progress in their mission.
USMC Commitments in the Long War
    Over the past year, your marines deployed to all corners of the 
globe in support of our Nation. With more than 24,000 marines deployed 
throughout the U.S. Central Command's Area of Responsibility, 
Operations Iraqi Freedom (OIF) and Enduring Freedom (OEF) remain our 
largest commitment. The Marine Corps continues to support surge 
operations in Iraq in the form of two additional infantry battalions 
and the enabling forces that accompany them. As part of the Marine Air 
Ground Task Force in Iraq, these forces have proven extremely effective 
in the disruption of insurgent activities in the Al Anbar province.
    As part of these forces, Marine Corps provides more than 250 
personnel to OEF-Afghanistan. Approximately 100 of these marines are 
members of a Marine Special Operations Company that routinely engages 
in combat operations with partnered Afghan and U.S. Special Forces 
units. The remaining Marine complement to Afghanistan forms the nucleus 
of seven Embedded Training Teams (ETTs); these detachments provide 
strong mentorship to Afghan National Army units in the continuing fight 
against the Taliban.
    Taken as a whole, these recurring commitments of Marine forces in 
support of combat operations is indeed a stressing challenge on our 
forces and families. That said, the Marine Corps is fully cognizant of 
the regional and global effects of progress in Iraq, Afghanistan, and 
the Middle East. In fact, in answer to the most recent call to provide 
ready forces to serve our Nation, the Marine Corps is deploying a 
Marine Expeditionary Unit (MEU)-sized Marine Air Ground Task Force and 
an additional Battalion to conduct combat operations in Afghanistan. 
These 3,200 marines are in addition to surge operations in Iraq and 
other force requirements worldwide.
    The Marine Corps also deployed forces to participate in over sixty 
Theater Security Cooperation events, which ranged from small Mobile 
Training Teams in Central America to MEU exercises in Africa, the 
Middle East, and the Pacific. The Marine Corps also took part in civil-
military and humanitarian assistance operations such as New Horizons 
events in Nicaragua, land mine removal training in Azerbaijan, and 
disaster relief in Bangladesh after a devastating cyclone.
  ii. right-size the marine corps for today's conflict and tomorrow's 
                              uncertainty
    To meet the demands of the Long War, as well as the unforeseen 
crises that will inevitably arise, our Corps must be sufficiently 
manned, well-trained, and properly equipped. Like the Cold War, the 
Long War is a long-term struggle that will not be measured by the 
number of near-term deployments or rotations; it is this long-term view 
that informs our priorities and plan for growth.
    To fulfill our obligations to the Nation, the Marine Corps will 
grow its personnel end strength to 202,000 Active component marines. 
This increase will enable your Corps to train to the full spectrum of 
military operations and improve the ability of the Marine Corps to 
address future challenges of an uncertain environment. Our growth will 
enable us to recover our ability to respond in accordance with 
timelines outlined in combatant commander war plans--thereby, reducing 
operational risk.
    Current wartime deployment rates dictate an almost singular focus 
to prepare units for their next rotation and counterinsurgency 
operations. This focus and the deployment rate of many units threaten 
to erode the skills needed for Marine Corps missions such as combined-
arms maneuver, mountain warfare, and amphibious operations. Our 
deployment cycles must not only support training for irregular warfare, 
but also provide sufficient time for recovery and maintenance as well 
as training for other contingency missions. By increasing dwell time 
for our units, we can accomplish the more comprehensive training needed 
for the sophisticated skill sets that have enabled Marine Air Ground 
Task Forces to consistently achieve success in all types of operations.
    Just as importantly, this growth will relieve strain on those 
superb Americans who have volunteered to fight the Nation's battles. We 
must ensure that our personnel policies, organizational construct, and 
training enable our marines to operate at the ``sustained rate of 
fire.'' This means that we must have sufficient dwell time, equipment 
for training, and resources for our marines and their families to 
sustain their efforts over time. Our recently begun growth to 202,000 
marines will significantly enhance our ability to operate at the 
``sustained rate of fire.''
    Our goal, during the Long War, is to achieve a 1:2 deployment-to-
dwell ratio for all of our Active Forces; for every 7 months a marine 
is deployed, he or she will be back at home station for 14 months. 
Right now, many of our forces are at a 1:1 deployment-to-dwell ratio or 
less--which cannot be sustained in the long-term. We also aim to 
implement a 1:5 deployment to dwell ratio for our Reserve Forces and, 
eventually, achieve a peacetime deployment-to-dwell ratio goal is 1:3 
for our Active Forces.
    As we grow, we will develop all the elements of our Marine Air 
Ground Task Force in a balanced manner to meet the diverse challenges 
of an uncertain future. This growth includes:

        <bullet> An increase in our end strength to 202,000 marines;
        <bullet> Adequate expansions of our infrastructure to provide 
        for our marines, their families, and their equipment; and
        <bullet> The right mix of equipment for the current and future 
        fight.

    This additional end strength will result in three Marine 
Expeditionary Forces--balanced in capacity and capability. The 
development of Marine Corps force structure has been the result of a 
thorough and ongoing process that supports the combatant commanders and 
accomplishes our Title 10 responsibilities. The process addresses all 
pillars of combat development (Doctrine, Organization, Training, 
Materiel, Leadership and Education, Personnel, and Facilities) and 
identifies our required capabilities and the issues associated with 
fielding them. The most recent assessment revealed a requirement to 
front-load structure for recruiters and trainers to support our 
personnel growth and a phased introduction of units balanced across the 
Marine Air Ground Task Force.
    In fiscal year 2007, we stood up two infantry battalions: 1st 
Battalion, 9th Marines and 2nd Battalion, 9th Marines. We also added 
capacity to our combat engineer battalions and air naval gunfire 
liaison companies. Our plan will gradually improve the deployment-to-
dwell ratio of some of our other habitually high operational tempo 
units--such as military police, unmanned aerial vehicle, helicopter, 
air command and control, combat service support, and explosive ordnance 
disposal units.
    Growing the Marine Corps as we simultaneously fight the Long War is 
a challenge, but we are committed to being the best stewards of the 
Nation's resources and working with Congress to achieve these important 
goals.
Growing to 202,000 Marines
    The Marine Corps surpassed its fiscal year 2007 authorized end 
strength goal of 184,000 and is on track to meet the goal of 189,000 
marines for fiscal year 2008 as well as our target end strength of 
202,000 marines by fiscal year 2011.
    Recruiting
    A vital factor in sustaining our force and meeting end strength 
goals is continuing to recruit qualified young men and women with the 
right character, commitment, and drive to become marines. With over 70 
percent of our end strength increase comprised of marines on their 
first enlistment, our recruiting efforts are a critical part of our 
overall growth.
    While exceeding Department of Defense quality standards, we 
continue to recruit the best of America into our ranks. In fiscal year 
2007, the Marine Corps achieved over 100 percent of the Active 
component accession goal necessary to grow the force as well as 100 
percent of our Reserve recruiting goals. We reached this goal without 
compromising the high quality standards the American people expect of 
their marines.
    We forecast that both Active and Reserve recruiting will remain 
challenging in fiscal year 2008, particularly given the increased 
accession missions needed to meet our end strength growth. We will need 
the continued indispensable support of Congress to sustain our existing 
programs and other incentives essential to achieving our recruiting 
mission.
    Retention
    Retention is the other important part of building and sustaining 
the Marine Corps. As a strong indicator of our force's morale, the 
Marine Corps has achieved unprecedented numbers of reenlistments in 
both the First Term and Career Force. The expanded reenlistment goal, 
in which we sought to reenlist over 3,700 additional marines, resulted 
in the reenlistment of 31 percent of our eligible First Term force and 
70 percent of our eligible Career Force--compared to the 22 percent 
first term and 65 percent career force reenlistments in fiscal year 
2006. This achievement was key to reaching the first milestone in our 
end strength increase--184,000 marines by the end of fiscal year 2007--
without sacrificing our high quality standards. In fact, a recent 
Center for Naval Analyses study concluded that the quality of our first 
term force who reenlist has improved steadily since fiscal year 2000.
    For fiscal year 2008, our retention goals are even more aggressive, 
but we fully expect to meet them. Our continuing success will be 
largely attributable to several important enduring themes. First, 
marines are motivated to ``stay marine'' because they are doing what 
they signed up to do--fighting for and protecting our Nation. Second, 
they understand our culture is one that rewards proven performance; our 
Selective Reenlistment Bonuses are designed to retain top quality 
marines with the most relevant skill sets.
    There is no doubt that your marines' leadership and technical 
skills have rendered them extremely marketable to lucrative civilian 
employment opportunities. To retain the most qualified marines, we must 
maintain Selective Reenlistment Bonus (SRB) funding. In fiscal year 
2007, the Marine Corps spent approximately $460 million in SRB and 
Assignment Incentive Pay (AIP) to help achieve our end strength goal. 
With a reenlistment mission of 17,631 in fiscal year 2008--compared to 
an historical average of 12,000--the Marine Corps expects to spend 
approximately $500 million in reenlistment incentives during fiscal 
year 2008.
    This aggressive SRB plan will allow us to retain the right grade 
and skill sets for our growing force--particularly among key military 
occupational specialties. The continued support of Congress will ensure 
we have the necessary combat-trained marines for the Long War and other 
contingency operations.
    Reserve Component End Strength
    Our fights thus far in Iraq and Afghanistan have been a Total Force 
effort--our Reserve Forces continue to perform with grit and 
determination. Our goal is to obtain a 1:5 deployment-to-dwell ratio 
within our Reserve component. As our Active Force increases in size, 
our reliance on our Reserve Forces should decrease--helping us achieve 
the desired deployment-to-dwell ratio. We believe our current 
authorized end strength of 39,600 Selected Marine Corps Reserves is 
appropriate. As with every organization within the Marine Corps, we 
continue to review the make-up and structure of our Reserve in order to 
ensure the right capabilities reside within the Marine Forces Reserve 
units and our Individual Mobilization Augmentee program.
    Military-to-Civilian Conversions
    Military-to-civilian conversions replace marines in nonmilitary-
specific billets with qualified civilians, enabling the Corps to return 
those marines to the operating forces. Since 2004, the Marine Corps has 
returned 3,096 marines to the operating force through military-to-
civilian conversions. We will continue to pursue sensible conversions 
as this will aid in our deployment-to-dwell ratio goals for the force.
Growing to 202,000: Infrastructure
    Military construction is one of our keys to success in increasing 
the Marine Corps to 202,000 marines by 2011. We have determined the 
optimal permanent locations for these new units and have generated 
estimates for the types and sizes of facilities needed to support these 
forces. Because our end strength will increase before final 
construction is complete, we are providing interim support facilities 
that will include lease, rental, and purchase of temporary facilities. 
Our plan will ensure adequate facilities are available to support the 
phase-in and Final Operating Capability of a 202,000 Marine Corps while 
meeting our environmental stewardship responsibilities.
Military Construction--Bachelor Enlisted Quarters Initiative.
    Housing for our single marines continues to be our top military 
construction focus. Barracks are a significant quality of life element 
in taking care of our single marines. We have put ourselves in extremis 
with regards to new barracks as we have degraded their priority for 
decades in lieu of operational requirements. We are now committed to 
providing adequate billeting for all of our existing unmarried junior 
enlisted marines and noncommissioned officers by 2012--and for our 
increased end strength by 2014. To do that, we doubled the amount of 
our bachelor housing funding request from fiscal year 2007 to 2008; we 
will more than triple the 2008 amount in fiscal year 2009. We are also 
committed to funding replacement of barracks' furnishings on a 7-year 
cycle and prioritizing barracks repair projects to preempt a backlog of 
repairs.
    Public Private Venture (PPV) Housing
    Our efforts to improve housing for marines and their families 
continue. The housing privatization authorities are integral to our 
efforts to accommodate both current housing requirements and those 
resulting from our planned force increases. Thanks to congressional 
support, the Marine Corps had business agreements in place at the end 
of fiscal year 2007 to eliminate all of our inadequate family housing. 
However, we need to continue our PPV efforts to address the current 
insufficient number of adequate housing units as well as the deficit 
being created by the increase in end strength to 202,000 marines.
    Training Capacity
    Marine Corps Training and Education Command is increasing its 
training capacity and reinvigorating our pre-deployment training 
program to provide support to all elements of the Marine Air Ground 
Task Force (MAGTF) across the full spectrum of potential missions. In 
accordance with the Secretary of Defense's Security Cooperation 
guidance, we are developing and coordinating training and education 
programs to build the capacity of allied and partner nations. We are 
also developing the capability to conduct large-scale MAGTF exercises 
within a joint, coalition, and interagency context to maintain 
proficiency in core warfighting functions such as combined arms 
maneuver, amphibious operations, and maritime prepositioning 
operations. Finally, we are ensuring our training and education 
programs and training ranges accommodate the 27,000 Marine Corps end 
strength increase.
Growing to 202,00: Equipment
    Our assessment of the materiel requirements for our growth has been 
significantly enhanced through cooperation between the Marine Corps and 
industry partners. Through this effort, the units we created in fiscal 
year 2007 were provided the equipment necessary to enter their pre-
deployment training cycle. By prioritizing marines in combat and 
redistribution of some of our strategic stocks, these new units were 
able to meet training and deployment requirements for combat. With 
Congress' continued support, the numerous equipment contracts required 
to support our growth were met during fiscal year 2007 and will be met 
through fiscal year 2008 and beyond.
    iii. resetting the force and preparing for the next contingency
    To meet the demands of this war, we must reset the force so that we 
can simultaneously fight, train, and sustain our Corps. The Long War is 
taking a considerable toll on our equipment, and we continue to make 
tough choices on how best to apply the resources we are provided--
either to replace our rapidly aging equipment with similar platforms or 
to modernize with next generation equipment. Additionally, we have 
routinely drawn additional equipment from strategic stocks, which need 
to be replenished in order for us to remain responsive to emerging 
threats. Congress has responded rapidly and generously to our requests 
for equipment and increased protection for our marines and sailors. We 
are committed to fulfilling our responsibility to manage these 
resources prudently as we modernize our force.
Costs of Resetting the Force
    Reset funds replenish the equipment necessary to keep the Marine 
Corps responsive to emerging threats. Costs categorized as ``reset'' 
meet one of the following criteria: maintenance and supply activities 
to restore and enhance combat capability to unit and prepositioned 
equipment; replace or repair equipment destroyed, damaged, stressed, or 
worn out beyond economic repair; and enhance capabilities, where 
applicable, with the most up-to-date technology.
    Our current reset estimate is $15.6 billion. To date, Congress has 
appropriated a total of $10.9 billion for Marine Corps global war on 
terrorism reset costs. As the nature of the Long War evolves, ``reset 
the force'' cost estimates evolve as well. We not only need to 
``Reset'' the force to support current readiness, but we also need to 
``Reconstitute and Revitalize'' the force in preparation for future 
challenges. We are coordinating with other Services and the Joint Staff 
to refine estimates, and we are aggressively executing funding to 
ensure the marines in the fight have the proper equipment in a timely 
manner.
Equipment Readiness
    While the vast majority of our equipment has passed the test of 
sustained combat operations, it has been subjected to more than a 
lifetime's worth of wear stemming from increased vehicle mileage and 
operating hours as well as harsh environmental conditions--resulting in 
an escalated maintenance effort. This maintenance requirement is a 
consequence of not only operational tempo and operating environments, 
but also the sheer amount of equipment employed in operations. 
Approximately 26 percent of all Marine Corps ground equipment is 
currently engaged overseas. Most of this equipment is not rotating out 
of theater at the conclusion of each force rotation; it remains in 
combat, used on a near-continuous basis at a pace that far exceeds 
normal peacetime usage.
    For example, in Operation Iraqi Freedom, crews are driving Light 
Armored Vehicles in excess of 8,700 miles per year--3.5 times more than 
the programmed annual usage rates of 2,480 miles per year. Our tactical 
vehicle fleet is experiencing some of the most dramatic effects of 
excessive wear, operating at five to six times the programmed rates. 
Many weapon systems have been modified during this conflict; some of 
these modifications have led to further wear and tear due to additional 
weight--for example, armor plating has been added for protection 
against improvised explosive devices. These factors, coupled with the 
operational requirement to keep equipment in theater without 
significant depot repair, has tremendously decreased the projected 
lifespan of this equipment. As a result, we can expect higher than 
anticipated reset costs and more replacements than repair of equipment. 
The depot level maintenance requirements for the equipment that is 
repairable will continue beyond the conclusion of hostilities in Iraq 
and Afghanistan.
    Our priority for equipment is to support marines serving in harm's 
way. Therefore, we have drawn additional equipment from the Maritime 
Prepositioning Ships and prepositioned stores in Norway; we have also 
retained equipment in theater from units that are rotating back to the 
United States. The operational results of these efforts have been 
outstanding--the average mission capable rates of our deployed forces' 
ground equipment remain above 90 percent--but there is a price.
    The cost of this success is a decrease in non-deployed unit 
readiness as well as an increase in the maintenance required per hour 
of operating time. Equipment across the Marine Corps is continuously 
cross-leveled to ensure that units preparing to deploy have sufficient 
equipment to conduct our rigorous pre-deployment training programs. 
Because the stateside priority of equipment distribution and readiness 
is to units preparing to deploy, there has been a trade-off in unit 
training for other types of contingencies. The timely delivery of 
replacement equipment is crucial to sustaining the high readiness rates 
for the marines in theater, as well as improving the rates for the 
forces here at home. While additional equipment has been purchased, 
long lead times and production rates mean that, although funded, much 
of this equipment is still many months from delivery.
Aviation Equipment and Readiness
    The operationally demanding and harsh environments of Iraq, 
Afghanistan, and the Horn of Africa have highlighted the limitations of 
our aging fleet of aircraft. In order to support our marines, sister 
Services, and coalition partners successfully, our aircraft have been 
flying at two to three times their designed utilization rates.
    Despite this unprecedented use, our maintenance and support 
personnel have sustained a 79 percent aviation mission-capable rate for 
deployed marine aircraft over the past 12 months. Maintaining the 
readiness of our aviation assets while preparing our aircrew for their 
next deployment is and will continue to be an enormous effort and 
constant challenge for our marines. To maintain sufficient numbers of 
aircraft in deployed squadrons, our nondeployed squadrons have taken 
significant cuts in available aircraft and parts as they prepare for 
deployment--resulting in a 30 percent decrease in the number of 
nondeployed units reporting ``deployment capable'' over the last 5 
years. Reset funding has partially alleviated this strain, but 
continued funding is needed as we are simply running short of aircraft 
on our flight lines due to age, attrition, and wartime losses.
    Reset programs have helped us mitigate degradation of our aircraft 
materiel readiness through aircraft modifications, proactive 
inspections, and additional maintenance actions. These efforts have 
successfully bolstered aircraft reliability, sustainability, and 
survivability; nevertheless, additional requirements for depot level 
maintenance on airframes, engines, weapons, and support equipment will 
continue well beyond the conclusion of hostilities.
Prepositioning Programs
    Comprised of three Maritime Prepositioning Ships Squadrons (MPSRON) 
and other Strategic Reserves, the Marine Corps' prepositioning programs 
are a critical part of our ability to respond to current and future 
contingency operations and mitigate risk for the Nation. Targeted 
withdrawal of equipment from our strategic stocks has been a key 
element in supporting combat operations, growth of the Marine Corps, 
and other operational priorities; these withdrawals provided necessary 
equipment from the existing inventory while industry catches up to our 
new requirements in the long-term. Generous support from Congress has 
enabled the long-term solution, and as a result, shortfalls within our 
strategic programs will be reset as equipment becomes available from 
the manufacturer.
    Maritime Prepositioning Ships Squadrons
    Our MPSRONs will be reset with the most capable equipment possible, 
and we have begun loading them with capabilities that support lower 
spectrum operations while still maintaining the ability to generate 
Marine Expeditionary Brigades capable of conducting major combat 
operations. Since 2007's report, all three squadrons have completed the 
Maritime Prepositioning Force (MPF) Maintenance Cycle-8 (MMC-8). 
MPSRONs 1 and 3 were reconstituted to 91 percent and 100 percent 
respectively. The near-term reduction of MPSRON-1 was required to 
outfit new units standing up in fiscal year 2007 and fiscal year 2008 
as part of our end strength increase. MPSRON-1 will complete MPF 
Maintenance Cycle-9 (MMC-9) in June 2008, and we anticipate it will be 
loaded with roughly 80 percent of its full equipment set as a result of 
our requirement to support end strength increase to 202,000 marines. 
MPSRON-2 was loaded to 54 percent of its equipment requirements; much 
of MPSRON-2's equipment remains committed to Operation Iraqi Freedom. 
With projected deliveries from industry, our intent is to fully reset 
and modernize MPSRON-2 and MPSRON-3 when they return for maintenance 
beginning in May 2008 and April 2009 respectively.
    We are actively working with the Navy and Transportation Command to 
incorporate newer, more flexible ship platforms from the existing 
Military Sealift Command fleet into our aging legacy Maritime 
Prepositioning Force program. As we reset MPF, these changes are 
necessary to ensure we incorporate hard fought lessons from recent 
combat operations. Two decades of equipment growth and recent armor 
initiatives have strained the capability and capacity of our present 
fleet--that was designed to lift a naval force developed in the early 
1980s.
    We plan to incorporate three of Military Sealift Command's 19 
large, medium-speed, roll-on/roll-off ships (LMSR) as replacements for 
5 of our older leased platforms. The LMSR significantly expands MPF 
flexibility and will allow us to reset and optimize MPF to meet current 
and emerging requirements.
    Marine Corps Prepositioning Program-Norway
    The Marine Corps Prepositioning Program--Norway (MCPP-N) was also 
used in support of current operations, growth of the Marine Corps, and 
resetting other Marine Corps shortfalls with a higher operational 
priority. The Marine Corps continues to reset MCPP-N in concert with 
our operational priorities while also exploring other locations for 
geographic prepositioning that will enable combat and theater security 
cooperation operations for forward deployed naval forces.
Depot Maintenance
    The Marine Corps has aggressively worked to stabilize the 
conditions that affect our depot maintenance. These conditions include: 
the uncertainty of the timing of reset, asset availability, timing of 
funding, equipment condition, and evolving skill requirements. One area 
we focus on is the in-theater identification of equipment and scope of 
work to be performed; this effort enables better planning for parts, 
manpower resources, funding requirements, and depot capacity. Triage 
assessments made in theater and relayed back to the sources of repair 
have helped to ensure efficient repair preparation time. These efforts 
reduce the repair cycle time, returning the mission capable equipment 
to the warfighter as soon as possible--improving materiel readiness.
    Depot capacity is elastic; productivity is not constrained by money 
or capacity; the limiting factor is asset (carcass) availability. We 
increase capacity to support surge requirements through a variety of 
means--overtime, additional shifts, and additional personnel. 
Performing work on over 260 product lines, our depot workforce 
currently has multiple trade skills ranging from laborers to engineers. 
Much of the equipment in theater today includes items not previously 
repaired by any depot facility--organic or non-organic. As a result, 
the existing work force may require additional training. New personnel 
and continued supplementation through contractor support may also be 
required. We continue to leverage state and local institutions, such as 
the technical colleges and universities, which can provide valuable 
assistance in training our workforce in skills such as welding, 
environmental science, and engineering.
    Future challenges to meeting the increasing workload requirements 
include leveraging depot capacity, lessening the impact on our labor 
force, and ensuring parts are available. Continuing to partner with 
other Services and industry, we will enhance execution of reset using 
organic and non-organic sources of repair. We will continue to work 
with Congress to anticipate the evolving depot maintenance funding 
requirements.
Equipment Retrograde Operations from Central Command Area of Operations
    During 2006, in a continued effort to support the Commander, United 
States Marine Forces, Central Command, Marine Corps Logistics Command 
took the lead as the Service Executive Agent for the retrograde of 
equipment in theater determined to be excess. In addition to receiving, 
preparing, and shipping excess equipment within theater, Marine Corps 
Logistics Command (Forward) coordinates strategic lift requirements and 
manages the redistribution of principle end items in accordance with 
the Commandant of the Marine Corps' sourcing priorities. Since June 
2006, over 15,731 principle end items have been processed at the 
retrograde lot in Al Taqaddum and approximately 11,799 items have been 
shipped back to Blount Island Command for disposition. Once disposition 
is received, assets are sent to Marine Corps Logistics Command for 
induction into the Master Work schedule, placed In-Stores, used to fill 
requisitions, or sent to the Defense Reutilization Marketing Office if 
deemed uneconomical to repair. The repair and return of items to In-
Stores will enable us to better address the many demands for equipment. 
This, in turn, will keep us moving forward towards our goal of 
continued readiness improvement.
    Operation Iraqi Freedom has led to a conceptual change in the way 
we provide operational-level logistics to the warfighter. Due to 
changing operational and mission requirements, Marine Corps Logistics 
Command is implementing capabilities extending beyond traditional 
boundaries, creating a more mobile and agile organization. The Marine 
Corps Logistics Command (Forward) was established to satisfy 
operational logistics requirements using competitive, comprehensive, 
and integrated solutions obtained from ``the best'' strategic 
Department of Defense and commercial providers. While continuing to 
execute its strategic-level responsibilities, Marine Corps Logistics 
Command has transformed from a garrison-centric organization to one 
capable of deploying operational-level logistics solutions to augment 
the sustainment requirements of Marine Forces in combat.
 iv. modernize for tomorrow to be ``the most ready when the nation is 
                             least ready''
    We know we have tough choices ahead of us to meet equipment demands 
across the Corps. As we reset, we are making prudent assessments on 
when it is more effective to replace aging and worn out equipment with 
similar equipment or to buy new equipment. We remain focused and 
steadfast on our responsibility to be the Nation's premiere 
expeditionary Force-in-Readiness.
Experimentation
    Our Marine Corps Warfighting Laboratory conducts experiments to 
support operating force requirements and combat development. We 
continually seek to improve the capabilities of the operating forces by 
focusing on the needs of our lower-level ground combat and ground 
combat support units engaged in current and potential near-term 
contingencies. Some examples of current projects include:
    ``Combat Hunter,'' a project aimed at enhancing observation and 
hunting skills of individual marines operating in a combat environment;

        <bullet> Company Level Intelligence Cell experiment, designed 
        to provide us with a ``best practices'' model and to 
        standardize infantry battalion intelligence processes;
        <bullet> Squad Fires experiment, enhancing close air support to 
        squad-level units;
        <bullet> Combat Conditioning project, examining advances in 
        physical fitness training to best prepare marines for the 
        demands of combat; and
        <bullet> Lighten the Load initiative, an effort to decrease the 
        amount of weight carried by marines in the field.
Enhancing Individual Survivability
    The Marine Corps continues to pursue technological advancements in 
personal protective equipment--our marines in combat deserve nothing 
less. Fully recognizing the limiting factors associated with weight, 
fatigue, and movement restriction, we are providing marines the latest 
in personal protective equipment--such as the Modular Tactical Vest, 
QuadGard, Lightweight Helmet, and Flame Resistant Organizational Gear.
    Body Armor
    Combat operations in Iraq and Afghanistan have highlighted the need 
to evolve our personal protective vest system. In February 2007, we 
began transitioning to a newly-designed Modular Tactical Vest (MTV). 
This vest is close to the same weight as its predecessor, the Outer 
Tactical Vest, but it integrates more easily with our other personal 
protection systems. It provides greater comfort through incorporation 
of state-of-the-art load carriage techniques, which better distributes 
a combat load over the torso and onto the hips of the marine. The MTV 
also incorporates our combat-proven Enhanced Small Arms Protective 
Inserts (E-SAPI) and Side SAPI plates. These plates are provided to 
every marine in the Central Command theater of operations. The E-SAPI 
provides the best protection available against a wide variety of small 
arms threats--to include protection against 7.62mm ammunition. The 
initial acquisition objective for the MTV was 60,000 systems, with 
deliveries completed in October 2007. We are procuring additional MTVs 
during this fiscal year to ensure our marines continue to deploy with 
the best body armor system available.
    QuadGard
    The QuadGard system is designed to provide ballistic protection for 
a marine's arms and legs when serving as a turret gunner on convoy 
duty. This system, which integrates with other personal ballistic 
protection equipment, such as the MTV ESAPI and Lightweight Helmet 
(LWH), provides additional protection against ballistic threats--
particularly improvised explosive device fragmentation.
    Lightweight Helmet
    We are committed to providing the best head protection available to 
our warfighters. The LWH weighs less than its predecessor and provides 
a high level of protection against fragmentation threats and 9mm 
bullets. We now require use of a pad system inside the helmet as 
multiple independent studies and tests demonstrated that it provides 
greater protection against non-ballistic blunt trauma than the sling 
suspension system. We are retrofitting more than 150,000 helmets with 
the pad system and have already fielded enough helmet pads for every 
deployed marine. Since January 2007, all LWHs produced by the 
manufacturer are delivered with the approved pad system installed. In 
October 2007, we began fielding the Nape Protection Pad (NAPP), which 
provides additional ballistic protection to the occipital region of the 
head--where critical nervous system components, such as the cerebellum, 
brain stem, occipital lobe, and spinal cord are located. The NAPP is 
attached to the back of the LWH or the Modular Integrated 
Communications Helmet (MICH), which is worn by our reconnaissance 
marines. Final delivery of the initial 69,300 NAPPs is scheduled for 
April 2008. That said, we continue to challenge industry to build a 
lightweight helmet that will stop the 7.62 mm round fired from an AK-
47.
    Flame Resistant Organizational Gear
    In February 2007, we began fielding Flame Resistant Organizational 
Gear (FROG) to all deployed and deploying marines. This lifesaving 
ensemble of flame resistant clothing items--gloves, balaclava, long-
sleeved under shirt, combat shirt, and combat trouser--is designed to 
mitigate potential injuries to our marines from flame exposure. These 
clothing items provide protection that is comparable to that of the 
NOMEX combat vehicle crewman suit/flight suit, while adding durability, 
comfort, and functionality. We have recently begun fielding flame 
resistant fleece pullovers to our marines for use in cooler conditions, 
and we are developing flame resistant varieties of cool/cold weather 
outer garments and expect to begin fielding these to marines in late 
fiscal year 2008. With the mix of body armor, undergarments, and 
outerwear, operational commanders can determine what equipment their 
marines will employ based on mission requirements and environmental 
conditions. Through ongoing development and partnerships with other 
Services, we continue to seek the best available flame resistant 
protection for our marines.
    Sustained funding for the development and procurement of individual 
protective equipment has had a direct impact on our ability to reduce 
or mitigate combat injuries. Continued congressional support is needed 
to ensure that our marines and sailors receive the best equipment 
available in the coming years.
    Counterimprovised Explosive Devices
    Responding to urgent warfighter needs, we are providing the most 
capable force protection systems available. We are upgrading our 
Counter Remote-controlled IED Electronic Warfare Chameleon systems to 
meet rapidly evolving threats while remaining engaged with the Joint 
Program Board to develop a joint solution. We are enhancing our ability 
to combat the effects of weapons of mass destruction as well as 
protecting our marines worldwide by fielding 18 consequence management 
sets using the best available commercial off-the-shelf technologies. 
These sets complement the capabilities of our Family of Incident 
Response Systems and the Chemical Biological Incident Response Force. 
Our Family of Explosive Ordnance Disposal Equipment has undergone 
significant modernization through enhancement of technician tool kits 
and greater counter IED robotics capability and availability.
Marine Aviation Plan
    Resetting Marine Aviation means getting more capable and reliable 
aircraft into the operational deployment cycle sooner--not merely 
repairing and replacing damaged or destroyed aircraft. Daily, your 
marines rely on these aircraft to execute a wide array of missions 
including casualty evacuation for our wounded and timely close air 
support for troops in contact with the enemy. Legacy aircraft 
production lines are no longer active--exacerbating the impact of 
combat losses and increasing the urgency for the Marine Aviation Plan 
to remain fully funded and on schedule.
    The 2007 Marine Aviation Plan (AvPlan) provides the way ahead for 
Marine Aviation over the next 10 years as it transitions 39 of 71 
squadrons from 13 legacy aircraft to 6 new aircraft; it incorporates 
individual program changes and synchronizes support of our end strength 
growth to 202,000 marines.
    Joint Strike Fighter
    F-35B Lightning II development is on track with the first flight of 
BF-1 Short Take-Off/Vertical Landing (STOVL) variant scheduled for 
2008. The F-35B STOVL variant is a fifth generation aircraft that will 
provide a quantum leap in capability, basing flexibility, and mission 
execution across the full spectrum of warfare. The JSF will act as an 
integrated combat system in support of ground forces and will be the 
centerpiece of Marine Aviation. The manufacture of the first nineteen 
test aircraft is well underway, with assembly times better than planned 
and exceptional quality demonstrated in fabrication and assembly. The 
first Conventional Take-Off/Landing (CTOL) aircraft flew in December 
2006 and accumulated 19 flights prior to a planned technical refresh. 
The JSF acquisition strategy, including software development, reflects 
a block approach. The Marine Corps remains committed to an all-STOVL 
tactical aircraft force--which will enable future MAGTFs to best 
fulfill its expeditionary warfighting responsibilities in support of 
the Nation and combatant commanders.
    MV-22 Osprey
    The MV-22 brings revolutionary assault support capability to our 
forces in harm's way; they deserve the best assault support aircraft in 
the world--without question, the MV-22 is that aircraft. The MV-22 is 
replacing the CH-46E aircraft. The CH46E is over 40 years old, with 
limited lift and mission capabilities to support the MAGTF. In 
September 2005, the V-22 Defense Acquisition Board approved Full Rate 
Production. Twenty-nine Block A and 24 Block B aircraft have been 
delivered and are based at Marine Corps Air Station New River, NC; 
Patuxent River, MD; and Al Asad Air Base, Iraq.
    Much like the F-35, the MV-22 program uses a block strategy in its 
procurement. Block A aircraft are training aircraft, Block B are 
operational aircraft, and Block C aircraft are operational aircraft 
with mission enhancements that will be procured in fiscal year 2010 and 
delivered in fiscal year 2012. One V-22 Fleet Replacement Training 
Squadron, one test squadron, and three tactical VMM squadrons have 
stood up. MV-22 Initial Operational Capability was declared on 1 June 
2007 with a planned transition of two CH-46E squadrons per year 
thereafter.
    VMM-263 is deployed to Al Asad Air Base, Iraq, and the significant 
capabilities of the Osprey have already been proven in combat. A brief 
examination of the daily tasking of the MV-22 squadron in Iraq tells a 
compelling story: a flight of MV-22s are doing in 6 hours what would 
have taken 12 hours in CH-46s. In addition, the aircraft easily ranges 
the entire area of operations and flies a majority of the time at 
altitudes beyond the range of our enemy's weapons. The Marine Corps 
asked for an aircraft that could take us farther, faster, and safer; 
and Congress answered.
    KC-130J
    KC-130Js have been continuously deployed in support of Operation 
Iraqi Freedom since February 2005--providing state-of-the-art, multi-
mission, tactical aerial refueling, and fixed-wing assault support. The 
KC-130J is the workhorse of the MAGTF; its theater logistical support 
reduces the requirement for resupply via ground, limiting the exposure 
of our convoys to IEDs and other attacks.
    The introduction of the aerial refuelable MV-22 combined with the 
forced retirement of the legacy KC-130F/R aircraft due to corrosion, 
fatigue life, and parts obsolescence requires an accelerated 
procurement of the KC-130J. In addition, the Marine Corps will replace 
its 28 Reserve component KC-130T aircraft with KC-130Js, simplifying 
the force to 1 type/model/series. The Marine Corps is contracted to 
procure a total of 46 aircraft by the end of fiscal year 2013; 29 new 
aircraft have been delivered and 4 KC-130J aircraft requested in the 
fiscal year 2008 budget.
    H-1 Upgrade
    The H-1 Upgrade Program (UH-1Y/AH-1Z) resolves existing operational 
UH-1N power margin and AH-1W aircrew workload issues--while 
significantly enhancing the tactical capability, operational 
effectiveness, and sustainability of our attack and utility helicopter 
fleet. The Corps' Vietnam-era UH-1N Hueys are reaching the end of their 
useful life. Due to airframe and engine fatigue, Hueys routinely take 
off at their maximum gross weight with no margin for error. Rapidly 
fielding the UH-1Y remains a Marine Corps aviation priority, with the 
first deployment of UH-1Ys to Operation Iraqi Freedom scheduled for the 
spring 2009.
    Due to significant operational demands and aircraft attrition in 
the existing attack and utility helicopter fleet, the Marine Corps 
adopted a ``build new'' strategy for the UH-1Y in fiscal year 2006. 
Similarly, the Marine Corps began investing in Non-Recurring 
Engineering (NRE) in fiscal year 2007 for the production of a limited 
number of AH-1Z ``build new'' aircraft; these AH-1Zs will augment those 
existing AH-1Ws that will be remanufactured. This combined ``build 
new'' and remanufacture strategy will enable the Marine Corps to 
rapidly increase the number of AH-1s available, support the Marine 
Corps' growth to 202,000 marines, and alleviate inventory shortfalls 
caused by aircraft attrition. Ten production aircraft have been 
delivered. Operation and Evaluation (OPEVAL) Phase II commenced in 
February 2008, and as expected, showcased the strengths of the upgraded 
aircraft. Full rate production of the H-1 Upgrade (and the contract 
award of Lot 5 aircraft) is scheduled to take place during the fourth 
quarter fiscal year 2008.
    CH-53K
    In operation since 1981, the CH-53E is becoming increasingly 
expensive to operate and faces reliability and obsolescence issues. Its 
replacement, the CH-53K, will be capable of externally transporting 
27,000 lbs to a range of 110 nautical miles, more than doubling the 
current CH-53E lift capability. Maintainability and reliability 
enhancements of the CH-53K will significantly decrease recurring 
operating costs and will radically improve aircraft efficiency and 
operational effectiveness over the current CH-53E. The program passed 
Milestone B (System Development and Demonstration (SDD) initiation) in 
December 2005. The SDD Contract was awarded to Sikorsky Aircraft 
Corporation in April 2006. Initial Operational Capability (IOC) is 
scheduled for fiscal year 2015, and is defined as a detachment of four 
aircraft, ready to deploy.
Unmanned Aerial Systems
    The Marine Corps is taking aggressive action to modernize and 
improve organic UAS capabilities. The Marine Corps' UAS are organized 
into three echelons, appropriate to the level of commander they 
support. Tier III UAS serve at the Marine Expeditionary Force (MEF) 
level. Tier II UAS support Regimental Combat Team and Marine 
Expeditionary Unit operations, and Tier I UAS support battalion and 
below operations. At the Tier III level, we have simultaneously 
transitioned Unmanned Aerial Vehicle Squadrons (VMU) to the RQ-7B 
Shadow; started reorganizing the squadrons' force structure to support 
detachment-based flexibility (operating three systems versus one for 
each squadron); and initiated the stand up of a third Active component 
VMU squadron.
    With the significant support of the Army, the Marine Corps has 
completed the transition to the RQ-7B Shadow in less than 9 months. The 
transition to the Shadow provides a mature and modern--yet basic and 
readily available--Tier III platform upon which to baseline Marine VMU 
reorganization. A detachment-based concept of operations for the VMU 
will give Marine Expeditionary Force commanders flexibility to task-
organize based on mission requirements. The addition of a third VMU 
squadron is critical to sustaining current operations by decreasing our 
current operational deployment-todwell ratio--currently at 1:1--to a 
sustainable 1:2 ratio. This rapid transition and reorganization, begun 
in January 2007, will be complete by the fourth quarter fiscal year 
2009, significantly improving organic Marine Corps UAS capability while 
increasing joint interoperability and commonality.
    The Marine Corps is using an ISR Services contract to provide Scan 
Eagle systems to Multinational Forces-West, Iraq to fill the Tier II 
void until future fielding of the Tier II/Small Tactical UAS (STUAS), a 
combined Marine Corps and Navy program beginning in fiscal year 2008 
with planned fielding in 2011. At the Tier I level, the Marine Corps is 
transitioning from the Dragon Eye to the joint Raven-B program, also 
common with the U.S. Army.
    When fully fielded, the Corps' Unmanned Aerial Systems will be 
networked through a robust and interoperable command and control system 
that provides commanders an enhanced capability applicable across the 
spectrum of military operations.
Ground Mobility
    The Army and Marine Corps are leading the Services in developing 
tactical wheeled vehicle requirements for the joint force. Our efforts 
will provide the joint force an appropriate balance of survivability, 
mobility, payload, networking, transportability, and sustainability. 
The Army/Marine Corps Board has proven a valuable forum for 
coordination of development and fielding strategies; production of 
armoring kits and uparmored HMMWVs; and response to requests for Mine 
Resistant Ambush Protected (MRAP) vehicles. The Ground Mobility Suite 
includes:
    Expeditionary Fighting Vehicle
    The Marine Corps provides the Nation's joint forces with a unique 
and flexible forcible entry capability from the sea. The Expeditionary 
Fighting Vehicle (EFV) is specifically suited to maneuver operations 
conducted from the sea and sustained operations in the world's littoral 
regions. Its inherent capabilities provide utility across the spectrum 
of conflict. As the Corps' largest ground combat system acquisition 
program, the EFV is the sole sea-based, surface-oriented vehicle that 
enables projection of combat power from a seabase to an objective. It 
will replace the aging Assault Amphibious Vehicle--in service since 
1972. Complementary to our modernized fleet of tactical vehicles, the 
EFV's amphibious mobility, day and night lethality, enhanced force 
protection capabilities, and robust communications will substantially 
improve joint force capabilities. Its over-the-horizon capability will 
enable amphibious ships to increase their standoff distance from the 
shore--protecting them from enemy anti-access weapons.
    The Marine Corps recently conducted a demanding operational 
assessment of the EFV. It successfully demonstrated the most critical 
performance requirements, but the design complexities are still 
providing challenges to system reliability. To that end, we conducted a 
comprehensive requirements review to ensure delivery of the required 
capability while reducing complexity where possible. For example, the 
human stresses encountered during operations in some high sea states 
required us to reevaluate the operational necessity of exposing marines 
to those conditions. Based upon this assessment, along with subsequent 
engineering design review, we will tailor final requirements and system 
design to support forcible entry concepts while ensuring the EFV is a 
safe, reliable, and effective combat vehicle.
    Joint Light Tactical Vehicle
    The Army/Marine Corps Board has been the focal point for 
development of joint requirements for a Joint Light Tactical Vehicle 
(JLTV)--which will provide protected, sustained, networked, and 
expeditionary mobility in the light tactical vehicle weight class. 
Throughout 2007, Army and Marine Corps combat and materiel developers 
coordinated with the Joint Staff, defining requirements and acquisition 
planning for the replacement for the uparmored HMMWV. In December, the 
Defense Acquisition Board approved JLTV entry into the acquisition 
process at Milestone A, designating the Army as lead Service and 
initiating competitive prototyping during the technology development 
phase. Prototypes will be evaluated to demonstrate industry's ability 
to balance survivability, mobility, payload, network enabling, 
transportability, and sustainability. The program is on track for a 
Milestone B in early 2010.
    Marine Personnel Carrier
    The Marine Personnel Carrier (MPC) is an expeditionary armored 
personnel carrier--ideal for irregular warfare--yet effective across 
the full range of military operations. Increasing armor-protected 
mobility for infantry battalion task forces, the MPC program balances 
vehicle performance, protection, and payload attributes. Through 2007, 
we completed both joint staffing of an Initial Capabilities Document 
and, a draft concept of employment. Additionally, the Analysis of 
Alternatives final report was published in December 2007. The program 
is on track for a Milestone B decision in the second quarter of fiscal 
year 2010 and an Initial Operational Capability in the 2015 timeframe.
    Internally Transported Vehicle
    The Internally Transported Vehicle (ITV) is a family of vehicles 
that will provide deployed Marine Air Ground Task Forces with ground 
vehicles that are transportable inside the MV-22 and CV-22 tilt-rotor 
aircraft, as well as CH-53 and MH-47 aircraft. There are three variants 
of the ITV, the Light Strike, the Prime Mover-Weapon, and the Prime 
Mover-Trailer. Both prime mover variants are components of the 
Expeditionary Fire Support System designed to support the M327 120mm 
mortar. In conjunction with testing of our Expeditionary Fire Support 
System, we conducted an operational assessment of the ITV Light Strike 
variant during which it met all key performance parameters. We expect 
to begin fielding this variant the Light Strike Variant of the ITV in 
June 2008.
Vehicle Armoring
    Our goal is to provide the best level of available protection to 
100 percent of in-theater vehicles that go ``outside the wire.'' Our 
tactical wheeled vehicle strategy pursues this goal through the 
coordination of product improvement, technology insertion, and new 
procurement in partnership with industry. The Marine Corps, working 
with the other Services, is fielding armored vehicles such as: the MRAP 
vehicle, the Medium Tactical Vehicle Replacement Armor System, the 
Logistics Vehicle System (LVS) Marine Armor Kit, and the Uparmored 
HMMWV.
    Medium Tactical Vehicle Replacement (MTVR) Armor System (MAS)
    MAS provides an integrated, armor enclosed, climate-controlled cab 
compartment and an armored troop carrier for our MTVR variants. These 
vehicles are also being upgraded with an improved blast protection 
package consisting of blast attenuating seats, five-point restraint 
harnesses, and improved belly and fender-well blast deflectors. Basic 
MAS has been installed in all of the Marine Corps' MTVRs in the Central 
Command's theater of operation. Additionally, we are installing blast 
upgrade, fuel tank fire protection kits, and 300 AMP alternators; 
target completion for in-theater vehicles is fourth quarter fiscal year 
2008.
    Logistics Vehicle System Marine Armor Kit II
    The LVS Marine Armor Kit (MAK) II provides blast, improvised 
explosive device, and small arms protection. It has a completely 
redesigned cab assembly that consists of a new frame with armor 
attachment points and integrated 360-degree protection. The new cab 
will also have an air conditioning system that cools from 134 degrees 
Fahrenheit to 89 degrees Fahrenheit in 20 minutes. Additional 
protection includes overhead and underbody armor using high, hard 
steel, rolled homogenous armor, and 2.75" ballistic windows. The 
suspension system has been upgraded to accommodate the extra weight of 
the vehicle. We estimate the LVS MAK II armoring effort will complete 
fielding by February 2009.
    M1114 Highly-Mobile Multi-Wheeled Vehicle (HMMWV)-Upgrade--
        Fragmentation Kit 2 and Kit 5
    Fragmentation Kit 2 enhances ballistic protection in the front 
driver and assistant driver wheel-well of HMMWVs. Fragmentation Kit 5 
reduces injuries from improvised explosive devices as well as armor 
debris and fragmentation. Installation of both fragmentation kits was 
completed in fiscal year 2007. We are continuing to evaluate the U.S. 
Army's objective kit development and work with the Army and Office of 
Naval Research to assess new protection-level capabilities and share 
information. The Marine Corps has adopted a strategy of a 60 percent 
fully uparmored HMMWV fleet. All new Expanded Capacity Vehicles will 
have the Integrated Armor Package. Of those, 60 percent will be fully 
uparmored to include the appropriate ``B'' kit and Fragmentation kits 
during production. The Marine Corps will continue to work with the Army 
to pursue the development of true bolt-on/bolt-off ``B'' kits and 
fragmentation kits to apply as needed to post-production vehicles.
    Mine Resistant Ambush Protected Vehicles
    MRAP vehicles have a V-shaped armored hull and protect against the 
three primary kill mechanisms of mines and improvised explosive devices 
(IED)--fragmentation, blast overpressure, and acceleration. These 
vehicles provide the best currently-available protection against IEDs. 
Experience in theater shows that a marine is four to five times less 
likely to be killed or injured in a MRAP vehicle than in an uparmored 
HMMWV--which is why Secretary Gates made the MRAP program the number 
one acquisition priority for the Defense Department. MRAP vehicles come 
in three categories: Category I designed for use in urban environments 
and carries by up to six personnel; Category II for convoy escort, 
troop transport, and ambulance evacuation, which transports up to ten 
personnel; and Category III for route clearance/explosive ordnance 
disposal vehicles.
    The total Department of Defense requirement for MRAP vehicles is 
15,374--of which 3,700 are allocated for the Marine Corps. However, the 
Marine Corps requirement has been revalidated to 2,225, pending Joint 
Requirements Oversight Council approval. The Navy is the Executive 
Agent for the program and the Commander, Marine Corps Systems Command 
is the Joint Program Executive Officer. As an example of our adaptation 
to evolving threats, the Joint MRAP Vehicle Program Office has recently 
selected qualified producers of a new MRAP II vehicle for the Marine 
Corps and other forces. Vehicles procured through this second 
solicitation will meet enhanced survivability and performance 
capability required by field commanders.
    The Marine Corps is very pleased with the overwhelming support of 
Congress on the MRAP program, both financially and programmatically. We 
ask that Congress continue their support for these lifesaving vehicles 
and support us as we transition to the sustainment of these vehicles in 
future years.
Marine Air Ground Task Force Fires
    In 2007, we initiated a study titled ``The Major Combat Operations 
Analysis for Fiscal Years 2014 and 2024.'' This study scrutinized the 
current organic fire support of the MAGTF to determine the adequacy, 
integration, and modernization requirements for ground, aviation, and 
naval surface fires. The study concluded that the MAGTF/Amphibious Task 
Force was unable to adequately address moving and armored targets 24/7 
and in all weather conditions. This deficiency is especially acute 
during the Joint Forcible Entry Operation phase of combat operations. 
The study also reinforced the critical importance of both the Joint 
Strike Fighter and AH1Z in minimizing the fires gap. With this 
information, we then developed a set of alternatives for filling these 
gaps--using either MAGTF reinforcing or joint fires. We also performed 
a supplemental historical study using Operation Iraqi Freedom data to 
examine MAGTF Fires in the full spectrum of warfare. These studies 
reconfirmed the requirement for a mix of air, naval surface, and 
ground-based fires as well as the development of the Triad of Ground 
Indirect Fires.
    Our Triad of Ground Indirect Fires provides for complementary, 
discriminating, and nondiscriminating fires that facilitate maneuver 
during combat operations. The Triad requires a medium-caliber cannon 
artillery capability; an extended range, ground-based rocket 
capability; and a mortar capability with greater lethality than current 
models and greater tactical mobility than current artillery systems. 
The concept validates the capabilities provided by the M777 lightweight 
155mm towed howitzer, the High Mobility Artillery Rocket System, and 
the Expeditionary Fire Support System, a 120mm rifled towed mortar.
    M777 Lightweight Howitzer
    The new M777 lightweight howitzer replaces our M198 howitzers. It 
can be lifted by the MV-22 Osprey and the CH-53E helicopter and is 
paired with the Medium Tactical Vehicle Replacement truck for improved 
cross-country mobility. Through design innovation, navigation, 
positioning aides, and digital fire control, the M777 offers 
significant improvements in lethality, survivability, mobility, and 
durability over the M198 howitzer. The Marine Corps began fielding the 
first of 511 new howitzers to the operating forces in April 2005 and 
expects to complete fielding in fiscal year 2011.
    High Mobility Artillery Rocket System
    High Mobility Artillery Rocket System (HIMARS) fills a critical 
range and volume gap in Marine Corps fire support assets by providing 
24 hour, all weather, ground-based, indirect precision and volume fires 
throughout all phases of combat operations ashore. We will field 46 
HIMARS--18 to the Active component, 18 to the Reserve component, 4 to 
the supporting establishment, and 6 to the War Reserve Material 
Readiness--Forward. When paired with Guided Multiple Launch Rocket 
System rockets, HIMARS will provide a highly responsive, precision fire 
capability to our forces. We will reach Initial Operational Capability 
this August and expect to be at Full Operational Capability by fiscal 
year 2010.
    Expeditionary Fire Support System
    The Expeditionary Fire Support System (EFSS), a towed 120mm mortar, 
will be the principal indirect fire support system for heli- and 
tiltrotor-borne forces executing ship to objective maneuver as part of 
a Marine Air Ground Task Force. When paired with an Internally 
Transportable Vehicle, EFSS can be transported aboard MV-22 and CH-53E 
aircraft. EFSS-equipped units will have immediately responsive, organic 
indirect fires at ranges beyond current infantry battalion mortars. 
Initial operational capability is planned during fiscal year 2008, and 
full operational capability is planned for fiscal year 2010.
Infantry Weapons
    Based on combat experience and numerous studies, we are developing 
infantry weapons systems with the following goals: increased 
effectiveness, lighter weight, improved modularity, and integration 
with other infantry equipment. The Marine Corps and Army are co-leading 
joint service capabilities analysis for future developments.
    Individual Weapons
    The M16A4 is our current service rifle and makes up the majority of 
our assigned individual weapons. It is supplemented by the M4 Carbine, 
which is assigned to marines based on billet and mission requirements. 
We are participating in several Army tests which will evaluate the 
capabilities and limitations of our small arms inventory. In 
conjunction with the Army and Air Force, we will use these results to 
determine priorities for a future service rifle with focus on 
modularity, ergonomics, balance, and lethality. We also have executed a 
two-pronged strategy for a larger caliber pistol: supporting the Air 
Force's effort to analyze and develop joint capabilities documents for 
a new pistol and examining the Army's recent consideration of personal 
defense weapons.
    Multi-Purpose Weapons
    The Shoulder-Launched Multipurpose Assault Weapon (SMAW) is an 
aging, heavy weapon that is nearing the end of its service life. We are 
seeking ways to reduce weight, increase reliability, and improve target 
identification as well as develop a ``fire from enclosure'' capability 
that will enable marines to fire the weapon from within an enclosed 
space.
    Scout Sniper Capability
    We are conducting a holistic assessment of our Scout Sniper 
capability to identify shortfalls and develop recommended solutions--
concurrently integrating the doctrine, training, weapons, equipment, 
and identified tasks with a marine sniper's professional development 
and career.
    Non-lethal Weapons Technology
    The complexities of the modern battlespace often place our service 
men and women in challenging situations where sometimes, lethal force 
is not the preferred response. In these environments, our warfighters 
need options for a graduated escalation of force. As the Executive 
Agent for the Department of Defense Non-Lethal Weapons Program, we see 
the need for long-range, directed-energy systems. Marines and soldiers 
in Iraq are already using non-lethal directed energy weapons; green 
laser warning devices have reduced the requirement to use lethal force 
at checkpoints against wayward, but otherwise innocent, Iraqi 
civilians. We continue to pursue joint research and development of 
promising non-lethal weapon technologies, such as the millimeter wave 
Active Denial System. We thank the committee for its support of these 
vital capabilities for modern warfare.
    Counter-Sniper Technology
    We are leveraging the work of the Defense Advanced Research 
Projects Agency, our sister Services, the Marine Corps Intelligence 
Activity, and the National Ground Intelligence Center in an effort to 
increase our ability to counter enemy snipers. We are examining 
different obscurant technologies as well as various infrared detection/
location sense and warn capabilities. We are experimenting with 
advanced equipment and improved tactics, techniques, and procedures. 
The ability to detect enemy optics will provide our marines warning of 
impending sniper or improvised explosive device attacks and the ability 
to avoid or engage the sniper before he can fire. Ongoing joint and 
interagency cooperation, coupled with industry collaboration, will 
shape our future experiments.
    Infantry Battalion Enhancement Period Program (IBEPP)
    We are fielding additional equipment to infantry battalions to 
better enable marines to fight and win on the distributed and non-
linear battlefield. This equipment encompasses communications, optics, 
weapons, and vehicles, at a cost of approximately $19 million per 
battalion. Key elements of the IBEPP include a formal squad leader 
course for every rifle battalion squad leader, a tactical small unit 
leaders' course for prospective fire team leaders, and a ``Train the 
Trainer'' mobile training team to teach junior tactical leaders the 
skills required to more effectively train their own marines.
Command and Control (C2) Harmonization
    The Marine Corps' Command and Control Harmonization Strategy 
articulates our goal of delivering an end-to-end, fully-integrated, 
cross-functional capability to include forward-deployed and reach-back 
functions. We envision seamless support to marines in garrison and in 
combat--taking the best of emerging capabilities to build a single 
solution that includes the Common Aviation Command and Control System 
(CAC2S), Tactical Communications Modernization (TCM) program, Very 
Small Aperture Terminal (VSAT), and training.
    The CAC2S fuses data from sensors, weapon systems, and command and 
control systems into an integrated display, assisting commanders in 
controlling organic, joint, and coalition efforts while operating as a 
joint task force. Delivered in a common, modular, and scalable design, 
CAC2S reduces the current systems into one hardware solution. The TCM 
and VSAT programs fuse data on enemy forces into the Common Operating 
Picture and increase our ability to track friendly forces. Lastly, our 
C2 Harmonization Strategy increases capability to train our staffs 
through Marine Air Ground Task Force Integrated System Training 
Centers.
Information Operations
    The ability to influence an adversary through information 
operations has been a critical capability our current operations and 
will be of even more importance as we continue to engage in security 
cooperation efforts around the globe. To better support our Information 
Operations (IO), we are standing up the Marine Corps Information 
Operations Center at Quantico, VA--our primary organization to 
integrate and deliver IO effects throughout the Marine Corps.
Marine Corps Intelligence, Surveillance, and Reconnaissance Enterprise
    We are increasing the quality of our Intelligence, Surveillance, 
and Reconnaissance (ISR) capabilities through the use of an enterprise 
approach known as the Marine Corps ISR Enterprise (MCISR-E)--resulting 
in a fully-integrated architecture compliant with joint standards for 
data interoperability. MCISR-E will provide networked combat 
information and intelligence down to the squad level across the range 
of military operations. To ensure marines have access to these new 
capabilities, our MAGTF Command and Control systems feed combat 
operation centers with information from wide field of view persistent 
surveillance systems such as Angel Fire, traditional ISR systems such 
as our family of Unmanned Aircraft Systems (UAS), and non-traditional 
collection assets such as Ground Based Operational Surveillance System 
(GBOSS). Intelligence sections down to the company level are equipped 
with ISR fusion systems as well as applications such as MarineLink that 
enable rapid discovery, data mining, analysis, and most importantly 
incorporation of Intelligence into tactical planning for operations and 
intelligence reporting down to squad level and up to higher 
headquarters.
Marine Corps Operational Logistics
    Operating Force Sustainment Initiatives
    We have aggressively moved forward on several forward-deployed 
initiatives that have improved our support to our marines in combat. 
Our Marine Corps Logistics Command is working with our Marine 
Expeditionary Forces on extending heavy intermediate maintenance 
support within the continental United States. Maintenance Center 
contact teams at Camp Lejeune and Camp Pendleton are extending the 
service life of equipment through corrosion control and maintenance 
programs that enhance predeployment readiness.
    Improving Combat Readiness Through Innovation
    To assure optimum use of the resources provided by Congress and the 
American taxpayers, we are making innovations in how we equip, sustain, 
house, and move our warfighters. We are aggressively applying the 
principles of continuous process improvement to these enabling business 
processes across the Corps. In just the past year, we have cut costs 
and repair cycle time at both aviation and ground maintenance depots, 
revamped and speeded up the urgent universal needs statements process, 
and instituted regional contracting for materiel and services that is 
proving more cost effective. Such improvements are expected to increase 
as training and experience proliferate.
Urgent Universal Needs Statement Process
    The Urgent Universal Needs Statement (UUNS) process enables 
deployed commanders to request equipment based on their recent 
experience. Designed to procure equipment more expediently than if 
submitted in the regular budgeting process, the Marine Corps' UUNS 
process uses a secure, Web-based system that provides full stakeholder 
visibility from submission through resolution. Through continuous 
process improvement, we have reduced our average processing time by 
58.8 days. Our goal is responsive support to commanders in the field by 
providing a rational, disciplined, and time-sensitive process that 
fulfills their validated urgent requirements in the fastest, most 
logical way. We continue to review the system for opportunities to 
increase efficiency and timeliness. For example, as a result of a 
February 2006 Lean Six Sigma review, several improvements were 
implemented including standardization, on-line tracking, and 
streamlined approval. Typically, UUNS are funded by reprogramming funds 
from approved programs or through congressional supplemental funding. 
They are funded with regard for current law, their effects on 
established programs of record, or other initiatives in the combat 
capability development process.
Information Technology Enablers/Global Combat Support System--Marine 
        Corps
    Global Combat Support System--Marine Corps continues to make 
strides toward delivering a modernized information technology system 
that will enhance logistics support to the warfighter. As the primary 
information technology enabler for the Marine Corps' Logistics 
Modernization efforts, the system's primary design focus is to enable 
the warfighter to operate while deployed and provide reach back 
capability from the battlefield. At the core is modern, commercial off-
the-shelf enterprise resource planning software that will replace our 
aging legacy systems. The Global Combat Support System--Marine Corps 
Block 1 focuses on providing the operating forces with an integrated 
supply/maintenance capability and enhanced logistics-chain-management 
planning tools. Field User Evaluations and Initial Operational Test and 
Evaluations are scheduled for 1st quarter fiscal year 2009, followed by 
fielding of the system and Initial Operating Capability during fiscal 
year 2009. Future blocks will focus on enhancing capabilities in the 
areas of warehousing, distribution, logistics planning, decision 
support, depot maintenance, and integration with emerging technologies 
to improve asset visibility.
Secure Internet Protocol Routing Network
    The Secure Internet Protocol Routing Network (SIPRNET) is our 
primary warfighting command and control network. The asymmetric nature 
of current attacks combined with future threats to our networks demand 
a greater reliance on the SIPRNET to ensure the security of Marine 
Corps warfighting and business operations. The Marine Corps is 
aggressively upgrading our existing SIPRNET capabilities and an 
expansion of our SIPRNET in the future will be necessary to meet 
operational demands. The resources required for this expansion will 
enable wider use of the SIPRNET across the Marine Corps as we 
transition more warfighting and business operations into a highly 
secure and trusted network.
Infrastructure Energy Considerations
    The purchase of electricity, natural gas, petroleum fuels, and 
potable water to operate our facilities is a significant expense. 
Through proactive Facilities Energy and Water Management and 
Transportation Programs to reduce consumption, we are achieving 
substantial cost avoidance and environmental benefits including 
reduction of greenhouse gas emissions and other pollutants. Our program 
provides the direction, actions, and metrics necessary for commands to:

        <bullet> Reduce rate of energy use in existing facilities;
        <bullet> Improve facility energy efficiency of new construction 
        and renovations;
        <bullet> Expand use of renewable resources;
        <bullet> Reduce water usage rates on our installations;
        <bullet> Improve security and reliability of energy and water 
        systems; and
        <bullet> Decrease petroleum use through increased efficiency 
        and alternative fuel use.

    Marine Corps conservation efforts have been substantial, but 
installation energy and water requirements continue to increase as we 
increase our end strength and adjust to rising energy prices.
v. provide our nation a naval force fully prepared for employment as a 
                 magtf across the spectrum of conflict
    The enduring value of naval expeditionary forces in protecting our 
homeland, preventing crises, and winning our Nation's wars is a key 
theme of the recently signed maritime strategy entitled ``A Cooperative 
Strategy for 21st Century Seapower,'' the Naval Operations Concept, and 
the Marine Corps Operating Concepts for a Changing Security 
Environment. These documents acknowledge the uncertainty of the 
strategic environment and that winning the battle for influence--and 
thus preventing wars--is as important as our Nation winning wars. 
Influenced by a variety of geographic, diplomatic, and geographic 
factors, our country's access to strategic basing is in decline. Our 
strategies address the requirement to maintain a robust forcible entry 
capability: the ability to maneuver from the sea, gain and maintain 
access anywhere in the littorals as well as transition to operations 
ashore and sustain the force from the seabase. They provide a template 
for Maritime Service capability and capacity and underscore our Marine 
Corps-Navy warfighting interdependence.
    These concepts and strategies also incorporate hard-fought lessons 
from our current battles in Iraq and Afghanistan. Combat casualties 
have in a very real sense become a center of gravity for America--no 
matter what the cause or conflict. Therefore, ``increased risk'' and 
``slower response times'' must always be calculated in terms of their 
real costs--loss of life and materiel on the battlefield and then, 
potentially, the loss of support of the American people.
    Seapower is a distinct asymmetric advantage of the United States. 
For marines, that asymmetric advantage includes Joint Seabasing, which 
allows us to maximize forward presence and engagement while ``stepping 
lightly'' on local sensitivities, avoiding the unintended political, 
social, and economic disruptions that often result from a large 
American presence ashore. It allows us to conduct a broad range of 
operations in areas where access is challenged, without operational 
commanders being forced to immediately secure ports and airfields. 
Given diplomatic, geographic, and infrastructure constraints, Seabasing 
is absolutely critical to overcoming area denial and anti-access 
weapons in uncertain or openly hostile situations. The combination of 
capabilities that allows us to influence events ashore from over the 
horizon--amphibious warfare ships, innovative Maritime Prepositioning 
Force (Future) ships, Joint High Speed Vessels, surface connectors, MV-
22s, and EFVs--play a key role in surmounting access challenges.
    Seabasing is not exclusive to the Navy and Marine Corps--it will be 
a national capability. In fact, we view Joint Seabasing as a national 
strategic imperative. Just as the amphibious innovations championed by 
the Navy-Marine Corps team during the 1920s and 1930s were employed by 
all U.S. and Allied forces in every theater during World War II, we 
believe that the Seabasing initiatives currently underway will expand 
to become joint and interagency capabilities. Our control of the sea 
allows us to use it as a vast maneuver space--365 days a year. 
Seabasing allows us to project influence and expeditionary power in the 
face of access challenges, a distinct asymmetric advantage. These 
capabilities allow maritime forces to support our partners and to deter 
and defeat adversaries in a complex and uncertain future. Today, 
another generation of Naval planners continues to envision how our 
amphibious capabilities can evolve into more fully sea-based operations 
and better meet the Combatant Commanders' varied and competing 
requirements.
Amphibious Ship Requirements
    The maritime strategy advocates credible combat power as a 
deterrent to future conflict. The Marine Corps supports this capability 
through the flexibility and combat power of the Marine Air Ground Task 
Force embarked on amphibious warfare ships. By far the most complex of 
our congressionally-mandated missions, amphibious forcible entry 
requires long-term resourcing and a high-level of proficiency. It is 
not a capability that we can create in the wake of a threat.
    The characteristics of amphibious ships (their command and control 
suites, flight decks, well decks, air and surface connectors, medical 
facilities, messing and berthing capacity, and survivability) merged 
with the general-purpose nature of embarked marines, make them multi-
mission platforms--unbeatable in operations ranging from humanitarian 
assistance to amphibious assault. These forces have brought hope and 
assistance to peoples ravaged by tsunamis, earthquakes, and cyclones--
even hurricanes in our own country. They have provided a powerful 
combat force from the sea as evidenced by the opening days of Operation 
Enduring Freedom when marines provided the first conventional forces 
ashore in Afghanistan. An equally powerful force assaulted from 
amphibious ships up the Al Faw peninsula in early weeks of Operation 
Iraqi Freedom. In spite of the proliferation of anti-access 
technologies among state and non-state actors, Navy-Marine Corps 
amphibious capabilities have answered our Nation's ``911 call'' over 85 
times since the end of the Cold War. Many international navies have 
recognized the value of amphibious warfare ships--as evidenced by the 
global renaissance in amphibious ship construction.
    Based on strategic guidance, in the last several years we have 
accepted risk in our Nation's forcible entry capacity and reduced 
amphibious lift from 3.0 Marine Expeditionary Brigade (MEB) assault 
echelons to 2.0 MEB assault echelons. In the budgetary arena, the value 
of amphibious ships is too often assessed exclusively in terms of 
forcible entry--discounting their demonstrated usefulness across the 
range of operations and the clear imperative for marines embarked 
aboard amphibious ships to meet Phase 0 demands. The ability to 
transition between those two strategic goalposts, and to respond to 
every mission-tasking in between, will rely on a strong Navy-Marine 
Corps Team and the amphibious ships that cement our bond. The Navy and 
Marine Corps have worked diligently to determine the minimum number of 
amphibious ships necessary to satisfy the Nation's needs--and look 
forward to working with the committee to support the Chief of Naval 
Operation's shipbuilding plans.
    The Marine Corps' contribution to the Nation's forcible entry 
requirement is a single, simultaneously-employed two Marine 
Expeditionary Brigade (MEB) assault capability--as part of a seabased 
Marine Expeditionary Force. Although not a part of the Marine 
Expeditionary Force Assault Echelon, a third reinforcing MEB is 
required and will be provided via Maritime Prepositioning Force 
(Future) capabilities. Each MEB assault echelon requires seventeen 
amphibious warfare ships--resulting in an overall ship requirement for 
34 amphibious warfare ships. However, given current fiscal constraints, 
the Navy and Marine Corps have agreed to assume greater operational 
risk by limiting the assault echelon of each MEB by using only 15 ships 
per MEB--in other words, a Battle Force that provides 30 operationally 
available amphibious warfare ships. In that 30-ship Battle Force, 10 
aviation-capable big deck ships (LHA/LHD/LHA(R)) and 10 LPD-17 class 
ships are required to accommodate the MEB's aviation combat element.
    In order to meet a 30-ship availability rate--based on a Chief of 
Naval Operations-approved maintenance factor of 10 percent--a minimum 
of 11 ships of each of the current types of amphibious ships are 
required--for a total of 33 ships. The Navy has concurred with this 
requirement for 33 amphibious warfare ships, which provide the 
``backbone'' of our maritime capability--giving us the ability to meet 
the demands of harsh environments across the spectrum of conflict.
    Amphibious Assault Ship (Replacement) (LHA(R))
    The legacy Tarawa class amphibious assault ships reach the end of 
their service life during 2011-2015. The eighth Wasp-class LHD (multi-
purpose amphibious assault ship) is under construction and will replace 
one Tarawa-class ship during fiscal year 2008. To meet future 
warfighting requirements and fully capitalize on the capabilities of 
the MV-22 and Joint Strike Fighter, two LHA(R)-class ships with 
enhanced aviation capabilities will replace the remaining LHA class 
ships. These ships will provide enhanced hangar and maintenance spaces 
to support aviation maintenance and increased jet fuel storage and 
aviation ordnance magazines. We are investigating the feasibility of 
incorporating the reduced island concept and well-deck capabilities in 
future, general-purpose assault ship construction.
    Amphibious Transport Dock (LPD)
    The LPD-17 San Antonio class of amphibious warfare ships represents 
the Department of the Navy's commitment to a modern expeditionary power 
projection fleet that will enable our naval force to operate across the 
spectrum of warfare. It is imperative that 11 of these ships be built 
to meet the minimum of 10 necessary for the 2.0 MEB assault echelon 
amphibious lift requirement.
    The Navy took delivery of the first LPD-17 in the summer of 2005 
and operational evaluation is scheduled for spring 2008. The LPD-17 
class replaces four classes of older ships--LKA, LST, LSD-36, LPD-4--
and will have a 40-year expected service life. LPD-17 class ships will 
play a key role in supporting the ongoing Long War by forward deploying 
marines and their equipment to better respond to crises abroad. Its 
unique design will facilitate expanded force coverage and decreased 
reaction times of forward deployed Marine Expeditionary Units. In 
forcible entry operations, the LPD-17 will help maintain a robust 
surface assault and rapid off-load capability for the Marine Air Ground 
Task Force and the Nation.
The Maritime Prepositioning Force
    Capable of supporting the rapid deployment of three Marine 
Expeditionary Brigades (MEB), the Maritime Prepositioning Force is an 
important element of our expeditionary warfighting capability. MPF is a 
proven capability and has been used as a force deployment option in 
selected contingencies, to close forces on accelerated timelines for 
major combat operation, and in combination with amphibious forces to 
rapidly and simultaneously react to crises in more than one theater.
    The next and necessary evolution of this program is incorporation 
of the Maritime Prepositioning Force-Future (MPF(F)) Squadron into the 
existing MPF Program. MPF(F) is a key enabler for Seabasing and will 
build on the success of the legacy Maritime Prepositioning Force 
program. MPF(F) will provide support to a wide range of military 
operations with improved capabilities such as at-sea arrival and 
assembly, selective offload of specific mission sets, and long-term, 
sea-based sustainment. From the sea base, the squadron will be capable 
of prepositioning a single MEB's critical equipment and sustainment for 
delivery--without the need for established infrastructure ashore.
    While the MPF(F) is not suitable for forcible entry operations, it 
is critical for the rapid build up and sustainment of additional combat 
forces once our entry has been achieved by our assault echelon--
launched from amphibious assault ships. The MPF(F), along with two 
legacy MPF squadrons, will give the Marine Corps the capacity to 
quickly generate three MEBs in support of multiple combatant 
commanders. The MPF(F) squadron composition decision was made in May 
2005. That squadron is designed to consist of three aviation-capable 
big-deck ships, three large medium-speed roll-on/roll-off ships, three 
T-AKE supply ships, three Mobile Landing Platforms, and two dense-
packed container ships. All of these will be crewed by civilian 
mariners and, as stated earlier, are not designed to conduct forcible 
entry operations. The program is currently in the technology 
development phase of acquisition, with a Milestone B decision planned 
in fiscal year 2008.
    Mobile Landing Platform
    The Mobile Landing Platform (MLP) is perhaps the most flexible 
platform in the MPF(F) squadron. Designed to be the ``pier in the 
ocean,'' the MLP is an interface platform for other surface lift ships 
and vessels. Instead of ships and lighters going to a terminal on 
shore, they could transfer vehicles and equipment to and from the MLP. 
The ship is being designed to interface with MPF(F) Large Medium-Speed 
Roll-on/Roll-off ships through sea state four and accommodate Landing 
Craft Air Cushion operations in sea state three at a minimum. 
Additionally other service platforms could leverage the ship as an 
interface. In concert with the Navy, the MLP capabilities development 
document was delivered to the Joint Requirements Oversight Counsel in 
January 2007.
    Dry Cargo/Ammunition Ship (T-AKE)
    The T-AKE is a selectively off-loadable, afloat warehouse ship, 
which is designed to carry dry, frozen, and chilled cargo; ammunition; 
and limited cargo fuel. Key holds are reconfigurable for additional 
flexibility. It has a day/night capable flight deck. These ships can 
support the dry cargo and compatible ammo requirements of joint forces 
and are the same ship class as the Combat Logistics Force T-AKE ships.
    Large Medium-Speed Roll-on/Roll-off (LMSR) Ship
    The LMSRs were designed to accommodate the Department of Defense's 
largest vehicles--such as the Abrams Tanks, Rough Terrain Cargo 
Handler, and tractor trailers; this capacity is being leveraged to 
support Marine Corps vehicles and equipment. These ships, modified for 
MPF(F), will be very large, afloat equipment staging areas with 
additional capabilities including vehicle maintenance areas, berthing, 
ammunition breakout areas, two aviation operating spots, underway 
replenishment equipment, MLP interface, and a 113-ton crane capable of 
lifting vehicles or shipping containers. Importantly, they will also 
reduce strategic airlift requirements associated with our fly-in 
echelon.
Ship-to-Shore Mobility
    Historically, Marine Corps amphibious power projection has included 
a deliberate buildup of combat power ashore; only after establishment 
of a beachhead could the Marine Air Ground Task Force begin to focus 
its combat power on the joint force's operational objective. Advances 
in mobility, fires, and sustainment capabilities will greatly enhance 
operations from over the horizon--by both air and surface means--with 
forces moving rapidly to operational objectives deep inland without 
stopping to seize, defend, and build up beachheads or landing zones. 
The ability to project power inland from a mobile sea base has utility 
across the spectrum of conflict--from humanitarian assistance to major 
combat operations. The EFV, MV-22 Osprey, and CH-53K heavy lift 
helicopter are critical to achieving necessary capabilities for future 
expeditionary operations.
    High-Speed Connectors
    High-speed connectors will facilitate sustained seabased operations 
by expediting force closure and allowing the necessary sustainment for 
success in the littorals. Coupled with strategic airlift and sealift 
assets, the Joint High Speed Vessel and Joint Maritime Assault 
Connector provide an intra-theater capability, which enables rapid 
closure of Marine forces and sustainment ashore. These platforms will 
link bases and stations around the world to the sea base and other 
advanced bases, as well as provide linkages between the sea base and 
forces operating ashore.
            vi. taking care of our marines and our families
    Our most precious asset is the individual marine. Our marines and 
families have been steadfast and faithful in their service to our 
country, and we have an equally enduring obligation to them. As such, 
we are committed to putting our family programs on a wartime footing--
our marines and families deserve no less.
Putting Family Readiness Programs on a Wartime Footing
    Last year, we directed a rigorous assessment of our family programs 
and have aggressively moved forward to improve them at every level. We 
continue our assessments--targeting younger marines and their families 
to ensure that we are fully addressing their needs. We request that 
Congress continue to support these initiatives so that we can advance 
these reforms to meet the evolving requirements of our warfighters and 
their families.
    Our Marine Corps Family Team Building Program and unit Family 
Readiness Programs, the centerpiece to our family support capability, 
was based on a peacetime model and 18-month deployment cycles. It was 
also largely supported on the backs of our dedicated volunteers; our 
volunteers have been performing magnificently while shouldering the 
lion's share of this program--but it is time to dedicate sufficient 
resources in light of the demands of our wartime operations.
    We have recently initiated a sustained funding increase to 
implement Marine Corps family readiness reforms in fiscal year 2008. 
These reforms include:

        <bullet> Formalizing the role and relationship of process 
        owners to ensure accountability for family readiness;
        <bullet> Expanding programs to support the extended family of a 
        Marine (spouse, child, and parents);
        <bullet> Establishing primary duty billets for Family Readiness 
        Officers at regiment, group, battalion, and squadron levels;
        <bullet> Improving the quality of life at remote and isolated 
        installations;
        <bullet> Increasing Marine Corps Family Team Building 
        installation personnel;
        <bullet> Refocusing and applying technological improvements to 
        our communication network between commanders and families;
        <bullet> Dedicating appropriate baseline funding to command 
        level Family Readiness Programs; and
        <bullet> Developing a standardized, high-quality volunteer 
        management and recognition program.

    The Marine Corps continues its proud heritage of ``taking care of 
its own'' and ensuring family programs sustain our families and our 
marines for the Long War.
Casualty Assistance
    Your marines proudly assume the dangerous, but necessary, work of 
serving our Nation. Some marines have paid the ultimate price, and we 
continue to honor them as heroes for their immense contributions to our 
country. Our casualty assistance program continues to evolve to ensure 
the families of our fallen marines are always treated with the utmost 
compassion, dignity, and honor.
    Our trained Casualty Assistance Calls Officers provide the families 
of our fallen marines assistance to facilitate their transition through 
the stages of grief. Last year, congressional hearings and inquiries 
into casualty next-of-kin notification processes revealed deficiencies 
in three key and interrelated casualty processes: command casualty 
reporting, command casualty inquiry and investigation, and next-of-kin 
notification. These process failures were unacceptable. Instantaneous 
with discovery of the process failures, we ordered an investigation by 
the Inspector General of the Marine Corps and directed remedial action 
to include issuing new guidance to commanders--reemphasizing 
investigation and reporting requirements and the importance of tight 
links between these two systems to properly serve marines and their 
families. We will continue to monitor our processes, making every 
effort to preclude any future errors and to ensure marines and families 
receive timely and accurate information relating to their marine's 
death or injury.
Wounded Warrior Regiment
    In April 2007, the Wounded Warrior Regiment was activated to 
achieve unity of command and effort in order to develop a comprehensive 
and integrated approach to Wounded Warrior care. The establishment of 
the Regiment reflects our deep commitment to the welfare of our 
wounded, ill, and injured. The mission of the Regiment is to provide 
and facilitate assistance to wounded, ill, and injured marines, sailors 
attached to or in support of Marine units, and their family members, 
throughout all phases of recovery. The Regiment provides non-medical 
case management, benefit information and assistance, and transition 
support. We use ``a single process'' that supports Active Duty, 
Reserve, and separated personnel and is all inclusive for resources, 
referrals, and information.
    There are two Wounded Warrior Battalions headquartered at Camp 
Lejeune, NC, and Camp Pendleton, CA. The Battalions include liaison 
teams at major military medical treatment facilities, Department of 
Veterans Affairs Polytrauma Rehabilitation Centers and Marine Corps 
Base Naval Hospitals. The Battalions work closely with our warfighting 
units to ensure our wounded, ill and injured are cared for and continue 
to maintain the proud tradition that ``Marines take care of their 
own.''
    The Regiment is constantly assessing how to improve the services it 
provides to our wounded, ill, and injured. Major initiatives of the 
Regiment include a Job Transition Cell manned by marines and 
representatives of the Departments of Labor and Veteran Affairs. The 
Regiment has also established a Wounded Warrior Call Center for 24/7 
support. The Call Center both receives incoming calls from marines and 
family members who have questions, and makes outreach calls to the 
almost 9,000 wounded marines who have left active service. A Charitable 
Organization Cell was created to facilitate linking additional wounded 
warrior needs with charitable organizations that can provide the needed 
support. Additionally, The Regiment has also strengthened its liaison 
presence at the Department of Veterans Affairs Central Office. These 
are just some of the initiatives that reflect your Corps' enduring 
commitment to the well-being of our marines and sailors suffering the 
physical and emotional effects of their sacrifices for our great 
Nation.
    We are at the beginning of a sustained commitment to care and 
support our wounded, ill, and injured. As our Wounded Warrior Program 
matures, additional requirements will become evident. Your continued 
support of new legislation is essential to ensure our Wounded Warriors 
have the resources and opportunities for full and independent lives.
    Thank you for your personal and legislative support on behalf of 
our wounded warriors. Your personal visits to them in the hospital 
wards where they recover and the bases where they live are sincerely 
appreciated by them and their families. Your new Wounded Warrior Hiring 
Initiative to employ wounded warriors in the House and Senate 
demonstrates your commitment and support of their future well-being. We 
are grateful to this Congress for the many wounded warrior initiatives 
in the National Defense Authorization Act for Fiscal Year 2008. This 
landmark legislation will significantly improve the quality of their 
lives and demonstrates the enduring gratitude of this Nation for their 
personal sacrifices. I am hopeful that future initiatives will continue 
to build upon your great efforts and further benefit the brave men and 
women, along with their families, who bear the burden of defending this 
great country.
Traumatic Brain Injury (TBI)
    With the frequent use of improvised explosive devices (IEDs) and 
improved protective measures that reduce mortality rates, more marines 
are exposed to possible traumatic brain injuries. As with other poorly 
understood injuries, there is sometimes a reluctance by individual 
marines to seek medical attention at the time of the injury. Education 
is the best way to reduce this stigma, and it is to be the most 
effective treatment for those suffering a mild injury. TBI awareness 
and education is part of pre-deployment and routine training. All 
marines are being screened for TBI exposure during the post-deployment 
phase and those identified as injured receive comprehensive evaluation 
and treatment. A pilot program for baseline neurocognitive testing is 
being implemented to improve identification of TBI and maintain 
individual and unit readiness in the field. The Marine Corps continues 
to work closely with DOD's Center of Excellence for Psychological 
Health and Traumatic Brain Injury to continue to advance our 
understanding of TBI and improve the care of all marines.
Post-Traumatic Stress Disorder (PTSD)
    The Marine Corps Combat Development Command, Marine Corps Training 
and Education Command, Naval Health Research Center, and others are 
studying ways to identify risk and protective factors for Post-
Traumatic Stress Disorder (PTSD) and to increase our resilience to 
stress. By improving the awareness of both individuals and our leaders, 
we can provide early identification and psychological first aid for 
those who are stress-injured. Better screening and referral of at-risk 
marines are underway via pre- and post-deployment standard health 
assessments that specifically screen for mental health problems. The 
Department of Veterans Affairs has established comprehensive guidelines 
for managing post-traumatic stress, which are available to all 
Services.
    The Marine Corps is grateful for the effort Congress has put into 
making TBI, PTSD, and other-combat-related mental illness issues a top 
priority. We will continue to do the same so that we can further 
improve our knowledge and treatment of these disorders.
Combat and Operational Stress Control (COSC)
    Marine Corps commanders are fully engaged in promoting the 
psychological health of our marines, sailors, and family members. Our 
commanders bear responsibility for leading and training tough, 
resilient marines and sailors, and for maintaining strong, cohesive 
units. Unit commanders have the greatest potential for detecting stress 
occurrences and assessing impact on warfighters and family members. Our 
leaders establish an environment where it is okay to ask for help and 
that combat stress is as deserving of the same respect and care as any 
physical wound of war. With the Navy's medical community, we are 
expanding our program of embedding mental health professionals in 
operational units--the Operational Stress Control and Readiness (OSCAR) 
program--to directly support all elements of the Marine Air-Ground Task 
Force. We also continue our collaboration with sister Services, the 
Department of Veterans Affairs' National Center for Post-traumatic 
Stress Disorder, and external agencies to determine best practices to 
better support marines and their families.
Family Member Pervasive Developmental Disorders
    The effectiveness of marines and sailors during deployment is 
dependent upon the adequacy of support provided to family members at 
home. Children of servicemembers with special needs, to include 
pervasive developmental disorders, have additional medical, 
educational, and social needs that are challenging to meet even when 
both parents are available. The TRICARE Enhanced Care Health Option has 
not been able to provide sufficient support. To address this issue, the 
Marine Corps is working with the Department of Defense Office of Family 
Policy Work Group on examining options to expand its Educational and 
Developmental Intervention Services (EDIS), a program that delivers 
Early Intervention Services to eligible infants and toddlers in 
domestic and overseas areas as well as through Medically Related 
Service programs in Department of Defense schools overseas.
Exceptional Family Member Program (Respite Care)
    Parental stress can be heightened for families that are not only 
impacted by the current operational tempo but are also caring for a 
child with special needs. To focus on this need, we offer our active 
duty families enrolled in the Exceptional Family Member Program up to 
40 hours of free respite care per month for each exceptional family 
member. We seek to provide a ``continuum of care'' for our exceptional 
family members. In this capacity, we are using our assignment process, 
working with TRICARE and the Department of the Navy Bureau of Medicine 
and Surgery to expand access and availability to care, and providing 
family support programs to ease relocations and ensure quality care 
transitions.
Water Contamination at Camp Lejeune
    Past water contamination at Camp Lejeune has been and continues to 
be a very important issue for the Marine Corps. Our goal is, using good 
science, determine whether exposure to the contaminated water at Camp 
Lejeune resulted in any adverse health effects for our marines, their 
families, and our civilian workers.
    The Marine Corps continues to support the Agency for Toxic 
Substances and Disease Registry (ATSDR) in their health study, which is 
estimated to be completed during 2009. With the help of Congress, the 
highly respected National Academy of Sciences is now helping us develop 
a way ahead on this difficult issue.
    The Marine Corps continues to make progress notifying former 
residents and workers. We have established a call center and 
notification registry where the public can provide contact information 
so that we can keep them apprised of the completion of these health 
studies.
   vii. beyond the horizon--posturing the marine corps for the future
    History has proven that we cannot narrowly define the conditions 
for which our military must be ready. With little warning, our Nation 
has repeatedly called its Corps front and center. In the southern 
Pacific after Pearl Harbor, in Korea after the communist invasion in 
1950, in the mountains of Afghanistan after September 11, and southern 
Asia in the wake of the catastrophic tsunami of 2004--to name a few. 
These strategic surprises demonstrate the broad range of possibilities 
for which the Marine Corps must be prepared.
    The United States faces a complex mix of states who sponsor 
terrorism, regional and rising peer competitors, failing states that 
undermine regional stability, and a variety of violent non-state 
actors--religious extremists, insurgents, paramilitary forces, pirates, 
and other criminals--all serving to destabilize legitimate governments 
and undermine security and stability of the greater global community. 
We see this global security context as a persistent condition for the 
foreseeable future.
    Our Nation and its international partners are engaged in a global 
struggle for influence at the same time our access to many areas is 
acutely challenged--diplomatically, militarily, and geographically. In 
the past, the United States has maintained large forces on a 
significant number of permanent bases beyond our shores. Today, 
however, we have far fewer installations overseas. When conflict is 
imminent or crises occur, which may require land-based forces, we must 
conduct extensive diplomatic negotiations to acquire basing rights. 
Because of local and regional political, social, or economic pressures, 
even countries friendly to the United States decline to host or place 
conditional restrictions on basing U.S. forces. Furthermore, 
proliferation of anti-access technology among state and non-state 
actors further diminishes access opportunities.
    Our national interests increasingly require us to operate in 
remote, developing regions of the world where infrastructure is either 
insufficient or rendered useless by natural disasters. The growing 
trend of violent, transnational extremism is especially prevalent in 
many of these remote areas. In addition to ethnic and religious 
intolerance, many developing regions are troubled with economic 
challenges and infectious diseases. These problems are especially 
severe in the densely populated urban centers common to the world's 
littorals, resulting in discontented populations ripe for exploitation 
by extremist ideologues and terrorist networks. We estimate that by the 
2035 timeframe, more than 75 percent of the world's population will 
live within just 120 miles of the ocean; alternative energy sources 
will not be mature, so industrial and, increasingly, developing nations 
will depend on the free flow of oil and natural gas. Fresh water will 
be as equally important as petroleum products; during the 20th century, 
while the global population increased 300 percent, the demand for water 
increased 600 percent. Demographics and the aging of the population in 
industrial countries, accompanied by a youth bulge in developing 
countries, will literally change the face of the world as we know it. 
The U.S. technological advantage, economic power, and military might 
still exceed that of other nations, but will not be nearly as dominant.
    Given these strategic conditions, the requirement for maritime 
forces to project U.S. power and influence has increased--and will 
continue to increase. With its inherent advantages as a seabased and 
expeditionary force, the Marine Corps can quickly reach key areas of 
the globe in spite of challenges to U.S. access. The Marine Corps and 
its naval partners will expand the application of seapower across an 
even wider range of operations to promote greater global security, 
stability, and trust--key objectives for winning the Long War. Our 
seabased posture will allow us to continue to conduct ``Phase 0'' 
operations with a variety of allies and partners around the world to 
ease sources of discontent and deter conflict. We must increase our 
capacity for these operations without forfeiting our warfighting 
prowess in the event of a major regional conflict. As a forward-
deployed force, we are able to achieve familiarity with various 
environments, as well as behavioral patterns of regional actors--
contributing to our significant advantage in speed and flexibility.
    Recently combat-tested in the Middle East and historically engaged 
in the Pacific, the Marine Corps will seek to further enhance its 
operational capabilities in the Pacific theater. Some areas like Africa 
offer unique challenges and opportunities for significant U.S. 
engagement. The shear breadth and depth of that great continent present 
their own challenges, but given the operational flexibility afforded by 
Seabasing and the extended reach of the MV-22 and KC-130J, the future 
bodes well for the ability of dispersed units of marines--with 
interagency partners--to extend our partnerships within the continent 
of Africa.
Security Cooperation MAGTF
    The linchpin of future marine efforts to support the engagement 
requirements of combatant commanders to build partnership capacity will 
be the Security Cooperation Marine Air Ground Task Force. Similar to a 
Marine Expeditionary Unit but regionally-focused and task organized for 
security cooperation, Security Cooperation MAGTFs will provide training 
and assistance to partner nations--shaping the environment and 
deterring irregular adversaries.
    The units comprising the Security Cooperation MAGTF are general 
purpose forces, which will maintain a foundation of excellence in 
combined arms and the full range of military operations. Additional 
training in culture, language, and foreign internal defense will 
further prepare these units for the unique tasks needed to train 
foreign militaries. Able to aggregate and disaggregate based on mission 
requirements, elements of the Security Cooperation MAGTFs will be 
capable of operating for sustained periods and will help prepare the 
militaries of partner nations to disrupt irregular adversaries and 
reduce the requirement for U.S. forces to be committed to these 
regions.
Defense Policy Review Initiative (DPRI)/Guam
    Our recent force posture agreement reached under the auspices of 
the Defense Policy Review Initiative with Japan is facilitating an 
opportunity to more effectively employ Marine Corps forces while 
mitigating the effects of encroachment around United States facilities 
in Japan. The most significant DPRI action is completion of the Futenma 
Replacement Facility on Okinawa. Its completion is a prerequisite for 
realignment of Marine units north of Kadena Air Force Base on Okinawa, 
shifting KC-130s from Futenma to Iwakuni, Japan, and movement of 
approximately 8,000 marines and their family members from Okinawa, 
Japan, to Guam. The Government of Japan is prepared to bear much of the 
cost associated with the planned changes, but there are still 
significant remaining military construction and other infrastructure 
needs that require United States financial support. For the past 2 
years, the Marine Corps has worked with numerous stakeholders to shape 
the eventual basing of forces onto Guam. The Department of Navy-led 
Joint Guam Program Office is leading the detailed facility-level 
planning effort to support the force buildup on Guam. The Marine Corps 
is working with Joint Guam Program Office, the Secretary of the Navy, 
and Commander, United States Pacific Command to ensure plans meet 
operational requirements.
Law of the Sea Convention
    To be able to maneuver from the seas in a timely and reliable 
manner, and in concert with the U.S. Navy, we support joining the Law 
of the Sea Convention. Joining the Convention will best preserve the 
navigation and overflight rights that we need to reliably maneuver and 
project power from the sea.
The Future of Training and Education
    With Marine forces so heavily engaged in counterinsurgency 
operations, we will have to take extraordinary steps to retain the 
ability to serve as the Nation's shock troops in major combat 
operations. Continued congressional support of our training and 
education programs will enable us to remain faithful to our enduring 
mission: To be where the country needs us, when she needs us, and to 
prevail over whatever challenges we face.
    The Long War requires a multi-dimensional force that is well 
trained and educated for employment in all forms of warfare. 
Historically, our Corps has produced respected leaders who have 
demonstrated intellectual agility in warfighting. Our current 
deployment tempo increasingly places our Professional Military 
Education (PME) programs at risk. No level of risk is acceptable if it 
threatens the steady flow of thinkers, planners, and aggressive 
commanders who can execute effectively across the entire spectrum of 
operations.
    Marine Corps University (MCU)
    We have made substantial improvements in our Officer and Enlisted 
Professional Military Education (PME) programs and have significant 
improvements planned for the future. Marine Corps War College was the 
first senior Service college to be certified as Joint PME II and will 
soon undergo accreditation as part of the process for joint education 
accreditation by the Joint Staff. The Command and Staff resident and 
non-resident programs are scheduled for Joint PME I reaccreditation in 
September 2008. We have integrated irregular warfare instruction 
throughout all levels of PME; at the same time, balance between 
irregular and conventional warfare has been maintained so as not to 
lose sight of our essential core competencies, including amphibious 
operations. Additionally, MCU has led the way for integration of 
culture and language by continually refining their curricula to provide 
proper balance among PME, culture, and language.
    Last year we conducted a comprehensive assessment of the health of 
PME. The assessment examined six areas: students, curriculum, 
educational programs, staff, infrastructure, and policy. We are working 
diligently to improve our information technology and infrastructure by 
developing a facility master plan to accommodate needed growth. We must 
develop an aggressive plan and commit resources for additional faculty, 
facilities, and resources. The assessment was informative--we have 
world-class students, curricula, and faculty as evidenced by marines' 
performance on today's battlefields. With continued Congressional 
support, we can build our information technology and facility structure 
to match.
    Marine Corps Center for Lessons Learned
    Our Marine Corps Center for Lessons Learned applies lessons from 
operational experiences as well as those of the Joint Staff, other 
Services, and Joint Forces Command to guide efforts for ``fine tuning'' 
and transforming our force. This rapid, continuous process ensures the 
latest enemy and friendly tactics, techniques, and procedures are used 
in training and are part of the decisionmaking for institutional 
changes. In 2007, as result of these lessons learned, the Marine Corps 
implemented changes in predeployment training in such areas as 
detention operations; transition teams; interagency coordination of 
stability, support, transition, and reconstruction operations; 
irregular warfare; and the role of forensics in counterinsurgency 
operations.
    Center for Irregular Warfare
    In 2007, we established the Center for Irregular Warfare as the 
primary Marine Corps agency for identifying, coordinating, and 
implementing irregular warfare capability initiatives. The Center 
reaches out through the Center for Advanced Operational Culture 
Learning (CAOCL) and Security Cooperation Education and Training Center 
(SCETC) to other military and civilian agencies. Last year, the CAOCL 
expanded beyond pre-deployment unit training by offering operational 
culture, regional studies, and limited language courses for officer 
professional military education programs. Thus far, approximately 2,100 
new lieutenants have been assigned regions for career long-term study 
through the regional learning concept, which will be expanded this year 
to include sergeants, staff sergeants, and captains. Both officer and 
enlisted marines will receive operational culture education throughout 
their careers. We plan to have Language Learning Resource Centers at 
the eight largest Marine Corps bases and stations to provide local, on-
call, operational language training. Congressional support, to include 
recent supplemental funding, has been invaluable.
    Since early 2006, our SCETC formalized our military advisor 
training process and trained over thirty transition teams fiscal year 
2007. In fiscal year 2008, the SCETC is scheduled to train over 100 
teams (over 2,000 marine advisors) as well as stand up a Marine Corps 
Training Advisory Group to manage the global sourcing of future 
transition and security cooperation teams.
    Foreign Area Officers
    The Marine Corps has begun an expansion of its Foreign Area Officer 
(FAO) program in response to the wide-spread demand for language and 
cultural expertise for worldwide service with the Defense Attache 
System and combined, joint, and Service headquarters. As a result, the 
training of Marine FAOs will more than double in the near term. In 
addition to our traditional emphasis on Arabic, Russian, and Chinese, 
FAOs selected this year will learn more than a dozen different foreign 
languages, including Pashto, Hindi, Thai, French, and Indonesian.
Training Marine Air Ground Task Forces
    Operations in support of the Long War have significantly increased 
our training requirements. To meet deployment requirements and remain 
skilled in the full spectrum of operations, marines must now train to a 
broader range of skills. However, due to high operational tempo, we 
face ever-decreasing timetables for marines to achieve mastery of these 
skills. Our first major initiative to maximize effective use of limited 
time for training was the establishment of a standardized and well-
defined Predeployment Training Program. Subsequently, we have 
instituted two additional training efforts: the Marine Combat 
Operations Training Group and the Infantry Battalion Enhancement Period 
Program.
    Marine Corps Tactics and Operations Group (MCTOG)
    We recently established the MCTOG to provide standardized training 
and instructor qualifications for ground combat elements, similar to 
our exceptionally successful Marine Aviation Weapons and Tactics 
Instructor Course in Yuma, AZ. The MCTOG is developing and implementing 
a Ground Combat Element Operations and Tactics Training Program to 
provide advanced training in MAGTF operations, combined arms training, 
and unit training management and readiness at the battalion and 
regimental levels. We will improve unit preparation and performance by:

        <bullet> Providing focused, advanced instruction for key 
        battalion and regimental staff personnel, and
        <bullet> By assisting with the identification and vetting 
        training requirements and deficiencies for our ground combat 
        elements.

    Located at Twentynine Palms MAGTF Training Center, the MCTOG will 
reach an Initial Operating Capability by spring 2008 and a Full 
Operating Capability by spring 2009.
    Marine Aviation Training Systems Program (ATS)
    Marine Aviation, through Aviation Training Systems (ATS), is 
pursuing the development of fully integrated training systems at the 
post-accession aviation officer and enlisted level, to greatly enhance 
operational readiness, improved safety through greater standardization, 
and to significantly reduce the life-cycle cost of maintaining and 
sustaining aircraft. ATS will plan, execute, and manage Marine Aviation 
training to achieve individual and unit combat readiness through 
standardized training across all aviation core competencies.
    Twentynine Palms Land Expansion
    The Marine Corps currently lacks a comprehensive training 
capability to exercise all elements of a MAGTF in an environment that 
replicates operational conditions with our current equipment--as our 
new weapons systems have greatly increased ranges over legacy systems. 
As a result, we are conducting planning studies for expansion of our 
range complex at the Marine Corps Air Ground Combat Center in 
Twentynine Palms, CA. Implementing this action will involve acquiring 
land and seeking assignment of airspace by the Federal Aviation 
Administration in support of large-scale MAGTF live fire and maneuver 
training. This will give us the maneuver space to simultaneously train 
three to four battalions in the range complex and train with our 
current equipment. Our proposed complex will further facilitate the use 
of the Western Range Training Complex and lead to the capability for 
future large-scale MAGTF, Coalition, and Joint National Training Center 
training.
    Modernization of Training Ranges
    In 2001, we activated a Range and Training Area Management 
Division, and in 2004, we began a comprehensive investment program to 
sustain, upgrade, and modernize our training infrastructure. This 
modernization effort provides tools for better planning and execution 
of live training. The four principles of our program are:

        <bullet> Preserve and enhance our live-fire combined arms 
        training ranges. The full development of our doctrine and the 
        integrated employment of air and ground weapons will continue 
        to require access to the volume of land and air space available 
        at these larger installations.
        <bullet> Recapture the unit-training capabilities of the 
        Nation's two premier littoral training areas, Camp Lejeune and 
        Camp Pendleton. The transition of expeditionary combat power 
        from sea to shore remains among the most challenging of 
        military tasks, and we must reorient and update our training 
        capabilities.
        <bullet> Provide timely and objective feedback to marines who 
        are training. Proficiency with individual weapons and in 
        combined-arms requires that we provide venues that have the air 
        and land space to allow realistic employment and the 
        instrumentation and targetry to provide objective, actionable 
        feedback.
        <bullet> Ensure our complexes are capable of supporting joint 
        forces. Common range infrastructure and systems architecture to 
        support the joint national training capability are requirements 
        of our modernization program.
        <bullet> The range modernization program is a program of record 
        and has successfully programmed the resources to continue 
        operating and maintaining the many investments made with 
        supplemental and congressional-add funds.
Core Values and Ethics Training
    As part of our ethos, we continually seek ways to improve ethical 
decisionmaking at all levels. In 2007, we implemented the following 
initiatives to strengthen our Core Values training:

        <bullet> Tripled the amount of time Drill Instructor and 
        recruits conduct ``foot locker talks'' on values;
        <bullet> Institutionalizing habits of thought for all marines 
        operating in counterinsurgencies, the message of the importance 
        of ethical conduct in battle, and how to be an ethical warrior 
        is being strengthened and re-emphasized at all levels of the 
        Marine Corps;
        <bullet> Published pocket-sized Law of War, Rules of 
        Engagement, and Escalation of Force guides;
        <bullet> Increased instruction at our Commander's Course on 
        command climate and the commander's role in cultivating 
        battlefield ethics, accountability, and responsibility; and
        <bullet> Educated junior marines on the ``strategic corporal'' 
        and the positive or negative influence they can have; and
        <bullet> Reinvigorated the values component of our Marine Corps 
        Martial Arts Program, which teaches Core Values and presents 
        ethical scenarios pertaining to restraint and proper escalation 
        of force as the foundation of its curriculum.

    We imbue our marines with the mindset that ``wherever we go, 
everyone is safer because a U.S. marine is there.''
                            viii. conclusion
    The Marine Corps continues to create a multi-capable force for our 
Nation--not only for the current operations in Iraq and Afghanistan, 
but also for subsequent campaigns of the Long War. We are committed to 
ensuring we remain where our country needs us, when she needs us, and 
to prevail over whatever challenges we face. Your continued support has 
been critical to our readiness for today and adaptation for tomorrow. I 
promise you that the Corps understands the value of each dollar 
provided and will continue to provide maximum return for every dollar 
spent.
    Perhaps most importantly to keep in mind as we develop our force 
for the future, everything we read about the future indicates that 
well-trained, well-led human beings with a capacity to absorb 
information and rapidly react to their environment have a tremendous 
asymmetric advantage over an adversary. Ladies and gentlemen, that 
advantage goes to us. Our young marines are courageous, willing to make 
sacrifices and, as evidenced by our progress in Al-Anbar, capable of 
operating in complex environments. Quiet in their duty yet determined 
in their approach, they are telling us loud and clear that wherever 
there is a job to be done, they will shoulder that mission with 
enthusiasm. On behalf of your marines, I extend great appreciation for 
your support thus far and thank you in advance for your ongoing efforts 
to support our brave service men and women in harm's way.

    Chairman Levin. Thank you so much, General.
    Let's try an 8-minute round.
    Secretary, I made reference to these huge cost overruns 
that have dogged our acquisition programs. Are you making 
systemic changes to try to overcome those?
    Secretary Winter. Yes, Mr. Chairman. Two specific areas 
that I would highlight, one of which has to do with the overall 
processes that we go through within the Department to establish 
a program, and in particular to ensure that all the 
requirements are properly defined and completed prior to the 
initiation of advanced development activities.
    We're also going through a very significant activity to 
assure that we have the right work force to be able to both 
manage and oversee the acquisition activities themselves. This 
includes everything from the numbers to the appropriate 
training of the individuals that are put into the specific 
roles.
    Chairman Levin. Is there ever any accountability for the 
failure to meet these cost estimates?
    Secretary Winter. The accountability is imposed both within 
the Navy team itself as well as with the contractor community. 
One of the things that we try on the contractor side is to 
provide appropriate incentives that give the contractor 
financial inputs should they fail to meet the appropriate 
financial and schedule targets.
    Similarly, on the military side, in terms of the 
acquisition community, this is a major factor that we use in 
the evaluation of people relative to their future assignments 
and future careers.
    Chairman Levin. Admiral, I made reference to your Navy 
personnel who are serving not in their regular billets. 
Instead, they're being used as IAs. Do we have some way of 
assessing the impact of that on readiness or in other areas?
    Admiral Roughead. Yes, sir, Senator, we do. We have been 
assigning our sailors and IAs for a couple of years now and, as 
someone who in a previous assignment was responsible for the 
direct management of that, we have created a structure and 
oversight to properly pair the individual with the mission to 
be accomplished when they go forward, and at the same time as 
we're doing that we look at what effect that individual will 
have on the readiness of the sourcing command.
    What I have found is that the process that we have in 
place, the way that we identify, allows us to put the 
appropriate capability forward while not diminishing the 
readiness of our Fleet.
    Chairman Levin. Admiral, you made reference to the recent 
use of a modified missile defense interceptor, Standard Missile 
3, along with a modified version of the Aegis BMD system, to 
shoot down that failed satellite. Can you confirm that the 
modifications that were made to the interceptor missile and the 
Aegis weapons system were unique, one-time modifications 
exclusively for this one mission, and that the Aegis BMD system 
could not perform its required missile defense mission with 
those one-time modifications?
    Admiral Roughead. Those were one-time modifications, 
Senator, that were done on a finite number of missiles. The 
missiles that were not used in this mission will be 
reconfigured back to the anti-ballistic missile configuration.
    Chairman Levin. In terms of the Aegis BMD system, can you 
confirm that that system which was deployed does not have the 
capability to shoot down satellites, with the one exception of 
that unique mission?
    Admiral Roughead. I can confirm that, Senator.
    Chairman Levin. Secretary and Admiral, in your written 
statements you made reference to the importance of United 
States approval and accession to the Law of the Sea Convention 
in order to carry out our maritime strategy. We've held a 
hearing on that convention. The Foreign Relations Committee has 
voted it out of committee. It's on the calendar.
    Can you just briefly indicate here publicly that you do 
support that convention?
    Secretary Winter. Yes, Mr. Chairman, I'm supportive of 
that. I think it's important that we have a seat at the table 
as part of that convention and have an opportunity to engage 
with the other members, signatories to that convention, as the 
convention evolves over the years to come.
    Chairman Levin. Admiral, do you join that?
    Admiral Roughead. I do, sir. I can attest from my command 
positions in the Atlantic and Pacific that by not being a party 
to that treaty, it actually inhibited the activities that we 
could pursue with other navies.
    Chairman Levin. Is the administration committed at the 
highest levels to pursuing Senate approval of the ratification 
of the Law of the Sea Convention in this session of Congress? 
Mr. Secretary?
    Secretary Winter. Yes, sir.
    Chairman Levin. Admiral, do you know?
    Admiral Roughead. Yes, sir.
    Chairman Levin. General, let me ask you about the issue 
which was referred to at some length in this morning's 
Washington Post, which has had other references as well, and 
that's the question of Anbar Province, its success in turning 
against the extremists which you made reference to, and for 
which everybody is obviously pleased and grateful.
    The movement, which is called in various places and times 
the Sunni Awakening, or Concerned Local Citizens, or Sons of 
Iraq, is, according to a number of reports, including this 
morning's paper, fraying somewhat and could collapse because 
too few of their members are being offered positions in the 
Iraqi security forces, there are limited opportunities for 
other jobs, they are being targeted by al Qaeda, they are 
distrusted by too much of the Shia-dominated government, and 
they have been complaining of insufficient support by the 
United States.
    In the mean time, that provincial powers law which calls 
for provincial elections to be held by October 1 and was seen 
by the Sunni Arab community as a way to gain political power, 
has been vetoed by the Shia member of the presidency council, 
as we read yesterday or the day before. I just would like to 
ask you this question because you and your troops have played 
such a key role in Anbar and the success that has taken place 
there.
    Are you concerned that those Sunni Arabs may once again 
take up arms against the coalition, become insurgents again, 
which of course would then threaten to unravel many of the 
gains which have been achieved during the surge?
    General Conway. Sir, I'm not concerned that that could 
happen in the near term, but we are concerned about some of the 
things you cite and about some of the things which you read in 
the article this morning. There have been significant security 
gains and there are, even as we speak, the tribal frictions now 
as they elbow for power at the provincial level, but also as 
they endeavor to plug in at the national level.
    We're conscious of those things. We have people dedicated 
to working those things with the central government in Baghdad, 
to try to ensure that they understand the value of 
incorporating Sunnis into the government if we are to see one 
Iraq stay together in the future.
    So we monitor those things. We try to mitigate those things 
through discussion. We talk of the value of synergy, of all of 
the tribes and all of the political parties coming together as 
they plug into Baghdad. But we're not concerned that there is 
any near-term danger of a return to the levels of violence that 
we have seen.
    Chairman Levin. Is it fair to say that unless those 
problems are addressed that there could be a significant 
problem in the longer term?
    General Conway. Sir, I think that's fair. We have always 
talked about the three legs of the stool: the security, the 
economics, and the political. We can, in our current role of 
providing security and doing some nation-building in the 
province, help most with the security and the economics. We are 
less able to be involved in the political aspect of things, 
although we engage where we can.
    We certainly are pushing to keep the provincial elections 
October 1, because we think that will be a significant 
advancement on behalf of the Sunni tribes out west and an 
opportunity for them to again further engage with the central 
government.
    Chairman Levin. Thank you.
    Senator Warner?
    Senator Warner. Thank you, Mr. Chairman.
    Mr. Secretary, let's return to the shipbuilding budget, the 
out-year objective of 313 ships. Clearly, in your position you 
have first drawn on an extensive background prior to coming to 
the Navy Secretariat of managing major programs for the very 
top levels of our defense structure, TRW and Northrop and 
others. How confident are you that in the out-years you can 
reach, or perhaps I should say a successor to you could reach, 
the 313 level? What steps are you putting in place to ensure 
that that takes place in the out-years?
    Secretary Winter. Senator, I think that as we take a look 
out in time our understanding obviously is much better in the 
current years, in the near years. I'm confident that we have a 
viable program for 2009 and for the immediate years around 
that. As we go out further in time there are a number of 
uncertainties associated with everything from the cost of 
production to the overall requirements that have yet to be 
defined for many of the future systems, programs like the Ohio-
class replacement, programs like CG(X), which is still in the 
process of going through its early definition phases.
    I am hopeful that we will still be able to obtain a 313-
ship target in a timely manner, but that is going to require a 
significant effort on the part both of the Navy and industry to 
work together, to make significant changes to the acquisition 
process, including in particular stabilizing requirements, and 
having, if you will, a limit on our appetite for those 
requirements as we go through program definition.
    Furthermore, significant effort is going to be required, I 
believe, to modernize our facilities for the construction of 
ships and the combat systems that go on them. That investment 
is going to require, I believe, a concerted effort on the part 
of both the Navy and industry.
    Senator Warner. You're going to put in place a series of 
benchmarks that have to be made by you and your successors, and 
in what year do you hope to obtain, what fiscal year, the level 
of 313 ships?
    Secretary Winter. We've laid out the program right now into 
the 2020----
    Admiral Roughead. 2019 is when they cross.
    Senator Warner. 2019 is the year?
    Admiral Roughead. Yes, sir.
    Senator Warner. Is that predicated on some significant top 
line readjustment in the allocation of resources by the 
Secretary of Defense between the Navy, the Army, and the Air 
Force?
    Secretary Winter. Sir, that has a number of assumptions in 
it. It does assume an average expenditure of about $15.8 
billion a year in 2007 dollars to be able to accomplish that. 
That is more than what we're spending right now, but hopefully 
it is an amount that is achievable within the current 
allocation process.
    There are aspects that I would like to note are not 
included in that estimate. It does not include the costs 
associated with nuclear power for future surface combatants and 
it does not include the cost estimates associated with Ohio-
class replacement.
    Senator Warner. It's a challenge, but I think it's 
imperative that we meet that challenge in view of the fact that 
other nations now recognize the importance of having 
significant maritime capabilities in their military forces.
    General, I'm going to follow onto the line of questions by 
the chairman with regard to Afghanistan. I suppose that theater 
concerns this Senator the most of all the challenges that face 
us today. The marines are heading in in significant numbers, 
the thought being perhaps the success that the marines had in 
al-Anbar can be used as a blueprint to try and achieve greater 
success in Afghanistan.
    Would you address that concept and your own professional 
judgment as to whether or not there is a transferability of 
that strategy in al-Anbar which has been successful, for what 
in my judgment is a continuing serious, in some ways 
deteriorating, situation in Afghanistan, with the ever 
strengthening resurgence of the Taliban?
    General Conway. Sir, I don't think there's a direct 
transfer because the missions will be slightly different. That 
those marines will take in lessons that come right from our 
Small Wars Manual and the decades of dealing with Third World 
countries, if you will, I think will be extremely valuable. But 
whereas in al-Anbar we owned ground and had responsibility for 
all of the villages and all of the cities, neither the 
battalion that's going in nor the Marine Expeditionary Unit 
(MEU) will be assigned primary responsibility for ground. The 
MEU we believe will be used as a response task force, 
immediately commanded by the Commander of International 
Security Assistance Force, valuable we think particularly 
during a spring offensive if we see one, valuable if we decide 
to launch our own spring offensive against Taliban locations.
    The battalion coming off the West Coast will be primarily 
involved with training police and the army, and their utility 
will be at the various police stations throughout their region 
of assignment, in terms of securing the area to a degree that 
these people can operate with the populace.
    Senator Warner. So the first battalion would be in the 
nature of a September 11 force, to go anywhere within 
Afghanistan to confront high level insurgents?
    General Conway. I think that's fair, sir.
    Senator Warner. That's interesting. The second primarily 
for the training of the Afghan forces?
    General Conway. That's correct, sir.
    Senator Warner. Now, I mentioned the very interesting piece 
that I saw last night. You're readjusting your order for the 
new MRAP, is that correct?
    General Conway. No, sir. If you're talking about the 
protective vest, the individual armor----
    Senator Warner. Let's go vest and vehicle.
    General Conway. Yes, sir.
    Senator Warner. Whichever one you want first.
    General Conway. Sir, we did adjust our requirement for 
MRAP. We initially asked for 3,700 vehicles and the thought 
process was a one-for-one replacement of our uparmored Humvees 
with the MRAPs. The uparmored Humvees were simply not standing 
up to underbody explosions to the degree that we had hoped 
would be the case, and the MRAP had proven itself over time 
with the ability to do that.
    What we have discovered as those MRAPs have started to 
arrive in theater in large numbers is that, particularly out 
west, they are not able to cross some of the bridges that 
aren't that well built.
    Senator Warner. Because of the weight?
    General Conway. Yes, sir, exactly. They are heavy vehicles, 
48,000 pounds with the heaviest of the lot.
    They also don't maneuver as well off road. So what we've 
found is that those patrols need to be a combination of MRAPs 
and uparmored Humvees in order to be most successful and to 
accomplish the mission. So we have reduced our buy to something 
more on the order of about 2,300 vehicles, and saving we think 
in the process about $1.7 billion for the Government.
    Senator Warner. Now, what about the utility of that vehicle 
with your forces in Afghanistan?
    General Conway. Sir, we think there will be some utility. 
When I was there, I looked at, in fact, the arrival of the 
first 36 vehicles. We think there will be a total of about 38, 
something less than 40. It is not as applicable in large 
portions of the Afghan terrain even as it is in Iraq, because 
of the mountainous nature. But there are roadways there, there 
are some desert plains there, where we do think it will have 
value, and we fully intend to use it with our engineers, our 
route clearance people, and our Explosive Ordinance Disposal 
personnel clearing Improvised Explosive Devices (IEDs).
    Senator Warner. Let's conclude my time with the vest 
situation. That's been a very controversial subject here in 
Congress and certainly in the minds of the public. Where are we 
in your judgment on the amount of protective armor for the 
average marine, and are you going to make an adjustment once 
again in the type of vest that you think is best suited for the 
combat situations?
    General Conway. Sir, as a former marine I think you know 
that there is always a tradeoff between weight and protection 
and the mobility of the individual marine, and we continue with 
that dynamic even today. We think that the vests that we have 
protect our people exceedingly well.
    What we are hearing now from the marines in the Fleet and 
the marines in Iraq and Afghanistan is they don't like this 
most recent vest because it is three or four pounds heavier 
than the vest that it replaced. It takes, depending on how you 
put it on, two people to put on the vest. It has a quick 
release element that the old vest did not have, but when a 
marine straps in his rifle that quick release capacity is 
diminished or disappears.
    I wore it myself on my visit to the theater over 
Thanksgiving last year and, frankly, I have a big head and big 
ears and it's painful putting it on and taking it off, and many 
marines have experienced that same thing.
    Senator Warner. Then where do we go from here? Are we going 
to go back to the previous vest and produce more of that?
    General Conway. Sir, what I have done is told my commander 
at Quantico who handles such things to simply stop purchase on 
the remaining 24,000 vests. We need to go back and investigate. 
There were over 100 marines who field tested the vests for us 
back in 2006 and declared it ``good to go,'' if you will. But 
we're not getting that same report from the marines in theater 
who now wear it on a daily basis in combat.
    So I think we need to reassess at this point. I assure you, 
sir, there is no loss of protection either way, with either the 
old vest or the new vest. It's just a question whether or not 
we have made an advancement in this.
    Senator Warner. Are you working with the Army? Are you 
sharing that experience?
    General Conway. Yes, sir.
    Senator Warner. Are they experiencing the same problem with 
this vest?
    General Conway. Sir, I don't know that. I'm just back from 
the theater and my guys at Quantico are reinvigorating the 
discussion.
    Senator Warner. It seems to me that answer is important to 
achieve. There should be some parallelism between because the 
missions are comparable.
    General Conway. It's my belief, sir, that the Army has not 
invested in what we call the OTV, which is this latest variant, 
that they're still wearing the vest that we were stepping away 
from. We thought that this new vest that ostensibly carried the 
weight better on the hips and gave us slightly more protection 
was again a step up. I am not absolutely certain of that today.
    Chairman Levin. Thank you, Senator Warner.
    Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman.
    Good morning again. General Conway, according to the recent 
press reports an internal Marine Corps study found that the 
general in command of our Marine Forces in western Iraq sent an 
urgent request 3 years ago this month for over 1,000 MRAPs, but 
the urgent request was apparently lost in the bureaucracy and 
never made it to the senior levels of the Marine Corps. As we 
know, it took the Secretary of Defense's intervention in 2007 
to fix the broken bureaucracy and get a sufficient number of 
the MRAPs to our forces in Iraq.
    Secretary Gates said last June: ``The way I put it to 
everyone is that you have to look outside the normal 
bureaucratic way of doing things and so does industry, because 
lives are at stake. For every month we delay, scores of young 
Americans are going to die.''
    The recent Marine Corps study itself states that: ``If mass 
procurement and fielding of MRAPs had begun in 2005 in response 
to the known threats, as the Marine Corps is doing today, 
hundreds of deaths and injuries could have been prevented.''
    The Marine Corps now has questioned the press report, 
saying that that study was not an official Marine Corps study 
and that its conclusions are the investigators' own. Recently, 
General Magnus, Assistant Commandant of the Marine Corps, 
stated: ``I don't think the study stands up to the facts about 
what we did, about what the industry was capable of doing, and 
why we did what we did. I just don't think it's accurate.''
    A Naval Audit Service report last September, however, 
supported the Marine Corps study and its accusations of 
inefficiency when it concluded that the Marine Corps had not 
established adequate oversight for the urgent needs of its 
forces.
    Two days ago, the Marine Corps finally began to acknowledge 
the seriousness of the study's conclusion and asked the 
Pentagon's Inspector General (IG) to investigate the 
allegations. It seems, however, that the Marine Corps is still 
focused on downplaying the issue of getting the MRAPs to Iraq 
and missing the bigger issue, which is the Marine Corps 
bureaucracy.
    The Naval Audit stated: ``As the study concluded, MRAP is 
just one current example of how a loss of time had direct and 
measurable consequences on the battlefield. Marine Corps combat 
development organizations are not optimized to provide 
responsive, flexible, relevant solutions to commanders in the 
field.''
    The Naval Audit report last September agreed, stating that 
``the Marine Corps bureaucracy was broken and the ability to 
accomplish the mission could be undermined and the delivery of 
the equipment delayed.''
    So could you tell us about how you explain the differences 
between the Marine Corps statements that dismiss the MRAP 
study's conclusion and the Naval Audit report that the Marine 
Corps bureaucracy is broken?
    General Conway. Yes, sir, I'd be happy to. Sir, first of 
all, I would not characterize the series of events just as you 
describe. First of all, we asked the marine, former marine, now 
a GS-15, who works for us to write a letter to his boss to 
explain his concerns that we had read about in the media or had 
been advised about from Senators on the Hill.
    Senator Kennedy. This was done when?
    General Conway. It's been done recently, sir. I think 
within the past several weeks.
    But going back to the issue of the MRAP request, sir, in 
February 2005, if were Major General Dennis Hejlik sitting in 
this chair, who was the officer who signed off on the request, 
he would tell you that he was asking for uparmored Humvees, M-
1114s. We had a few at that time, but we had very few. He felt 
like that was the armor of choice and the vehicle that we 
needed for all of our marines when he signed off on the 
request. He had little knowledge of what an MRAP was at that 
point.
    That's the second point I would make to you, sir, is that 
at that point there were probably half a dozen of the actual 
MRAP vehicles, the Cougars with the V-shaped bottom, in the 
theater. We were having maintenance issues with some of those 
vehicles.
    At that point, sir--and this is the third point--only about 
10 percent of the attacks that we were seeing, and in most 
months less than that, were underbody explosions. What General 
Hejlik was concerned about were the side of the road explosions 
that were destroying our vehicles and killing marines.
    So to say that we knew at that time that a vehicle that had 
far from proven itself, against a threat that was by no means 
the major threat, was what we needed to buy is, I think in some 
regards, some excellent 20-20 hindsight.
    Senator Kennedy. The point that is made is the fact that 
the Naval Audit Report Number One recommends that by April 30 
you promulgate a Marine Corps order defining the roles, 
responsibilities, and desired outcomes of urgent need process. 
So obviously they made a finding and a judgment that the 
process and procedure at the current time was not working well, 
at least according to this naval report.
    Now, where do you stand with promulgating that, this order?
    General Conway. Sir, we have put something out on that in 
the wake of that report, and I will be the first to acknowledge 
that no bureaucratic process is without means of improvement. 
The Secretary works hard with us, with Lean Six Sigma----
    Senator Kennedy. I don't understand. You put something out? 
Explain that to me. I don't understand what's putting something 
out? This says promulgate. Their recommendation is by the 30th 
you promulgate a Marine Corps order defining the roles, 
responsibilities, desired outcome for the process, which is the 
urgent need process.
    General Conway. Yes, sir.
    Senator Kennedy. Has that been done yet?
    General Conway. Yes, sir, it has been done.
    Senator Kennedy. It has been done?
    General Conway. I would add further, sir, that we have 
asked for, in the wake of this issue coming to light once 
again, we have asked for a Department of Defense (DOD) IG 
investigation, because we think when the facts are fully known 
that they will----
    Senator Kennedy. When was that done?
    General Conway. Within the last 10 days, while I was on the 
trip to Iraq.
    So that all the facts can be brought to bear, and we think 
that the conclusion will be that well-intended men, very much 
concerned about the welfare of the marines, made prudent 
decisions at the time to bring forward the best capability we 
could to protect our people in combat.
    Senator Kennedy. If you look at the whole process, it 
appears that it took the Secretary of Defense's intervention in 
2007 to get the order. This is what Secretary Gates himself 
said: ``The way I put it to everyone is you have to look 
outside the bureaucratic way of doing things, and so does 
industry. Lives are at stake.''
    The audit makes that recommendation for the marines to 
date. I understand what you've said now is that you issued the 
response to the Naval Audit Report Number One.
    General Conway. Yes, sir.
    Senator Kennedy. That has been done.
    General Conway. Sir, if I could, with all due respect to 
Secretary Gates, when I became the Commandant in November 2006, 
at that point our commanders were advocating that we replace 
our uparmored Humvees with the MRAP vehicle. That became my 
theme then for purchase of those vehicles.
    If I could offer another quote, it was when I had said that 
by that point in time that we had had 300 underbody attacks 
against the MRAP and had not lost a single marine or sailor, 
the Secretary was impressed with that quality of the vehicle 
and then made it his number one priority in the DOD.
    Senator Kennedy. My time is up. I'm interested in the 
process of the request that was made and how the Marine Corps 
bureaucracy responded to that urgent request. I think you've 
answered the question with regards to the desirability of that 
particular system and alternative systems. But that doesn't get 
away from the underlying point about whether the system is 
functioning and working when these urgent requests come up 
which are necessary.
    I'll look forward to looking through the report.
    Chairman Levin. Thank you, Senator Kennedy.
    Senator Collins.
    Senator Collins. Thank you.
    Admiral Roughead, there's been a lot of discussion about 
the cost of the DDG-1000 and some House Members are quoted in 
Defense Daily today as going so far as to suggest the diversion 
of funds from the budget in order to buy other kinds of ships. 
What is often overlooked in the discussion of the DDG-1000 are 
three factors: first, that the requirements are actually for 8 
to 12 DDG-1000s rather than the 7 that are in the long-term 
plan; second, the technological advancements that have been 
incorporated into the ship, that will give the Navy much-needed 
capabilities; and third, the cost savings that will result when 
you look at the life-cycle cost from the much smaller crew size 
for the DDG-1000. If memory serves me correctly, I believe that 
the DDG-51 requires 338 sailors and we're looking at a crew 
size of only 142 sailors for the DDG-1000.
    Could you comment, please, on the capabilities issue, the 
requirements, and the cost?
    Admiral Roughead. Yes, Senator, I will. The DDG-1000 
introduces more new technology that will inform our future Navy 
combatants than any other ship class that we've ever fielded. 
The new technologies that we have put into that, the most 
significant one I believe is what you mentioned, reducing the 
crew size. Our ships of the future must have smaller crews.
    With respect to some of the press reporting that I have 
read about using the DDG-1000 to perhaps be used, the resources 
for that to be used for other ship classes, I'm very concerned 
that we do not disrupt our combatant lines. Right now we are 
developing a new Fleet of ships. If you look across it from 
submarines to combatants to amphibious ships, we are 
introducing all new classes. The Virginia-class is coming on 
line. It's a great submarine. The prices are coming down. We're 
doing the right thing there.
    The Amphibious Transport Dock (LPD)-17. Even though we had 
some growing pains when that ship came out, we're now in the 
process of getting into the flow of that ship, and in fact on 
Saturday I'm going down to participate in the christening of 
New York, our most recent LPD-17. The T-AKEs, that line is 
moving well.
    The areas where I am most concerned about are in our 
combatant lines: the DDG-1000, our new destroyer, and where we 
will take that ship to bridge to the new cruiser that we're 
beginning to work on now, but also the LCS.
    I believe with the stability that we have in submarines, 
amphibious ships, and auxiliary ships, we really need to allow 
our combatant build programs to take root, grow, stabilize, and 
move us into the future. So I very much want to do as much as 
we can to get the stability in our combatant lines for the 
future.
    Senator Collins. That's also very important in terms of the 
transition from the DDG-51 line to the DDG-1000. We do need to 
make sure that that is managed very appropriately in order to 
avoid a gap in the work at the yards, which could cause the 
loss of skilled workers. Once you lose that capability, it's 
gone forever; and I know that you and Secretary Winter share my 
concern in that regard.
    I want to associate myself also with the concerns expressed 
by Senator Warner about the need to stay on course for the 313-
ship fleet, which you have appropriately described as the 
floor, the minimum that we need. Part of the strategy for 
achieving that goal is modernizing in order to extend the life 
of the DDG-51 Arleigh Burke class of destroyers.
    First of all, how important is that modernization plan to 
achieving the 313-ship fleet?
    Admiral Roughead. That is very important to our 313-ship 
fleet, and it's also very important to the relevant 
capabilities that we're going to need in the future. DDGs are 
great ships. I speak from experience, having put one in 
commission myself as a commanding officer. But also, it was a 
DDG that was the backup ship for the Lake Erie when they shot 
down the satellite, again attesting to the versatility of the 
ship and the capability of that ship.
    It will be important for us to conduct that modernization, 
to upgrade the capability and extend the life of those ships, 
so that we don't have to take them out before they're due.
    Senator Collins. I want to encourage you to examine both 
the cost and schedule advantages of doing that modernization at 
the building yard rather than the home port. I think there's 
significant evidence that suggests there would be considerable 
cost savings to the Navy as well as efficiencies in doing that, 
and I look forward to working further with you and Secretary 
Winter.
    Finally, let me just thank you, Admiral Roughead, for 
coming to Maine to visit Bath Iron Works and to visit the 
Portsmouth Naval Shipyard in Kittery, ME. I know you were 
impressed with what you saw and I very much appreciated your 
including Maine as you've been getting out across the country 
to visit naval installations and yards.
    Admiral Roughead. Thank you, Senator, and thank you for 
taking time from your schedule to be with me during that visit. 
It really was good to get out and see the quality of work 
that's being done, the commitment not just of the leadership in 
the yards, but, as in all cases, it's the individual on the 
line that's actually doing the hard work that makes a 
difference, and that was apparent during my time up there.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, gentlemen, for your testimony and for your service.
    General Conway, I think that the two exchanges that you had 
with Senator Warner and Senator Kennedy over the MRAP and the 
uparmored Humvee were very important. Perhaps we in Congress 
have something to learn from them. I think we have been so 
concerned not only about the vest that you talked about with 
Senator Warner, but about the exposure of our personnel to the 
impact of the IEDs, the bombs, that we rushed with a lot of 
good intentions to authorize and appropriate at a very high 
level for the provision of the MRAPs. I'm hearing you say 
something really very, in some ways, tough, but very practical 
and reasonable, which is that in the experience of the marines 
the MRAPs are not right for all the missions we're asking you 
to perform and, in fact, may not protect against some of the 
other kinds of vulnerabilities. I think 10 percent was what you 
said was the percentage of attacks from underneath, and 
obviously the uparmored Humvees also protect from attack from 
the side.
    So I admire you for cutting back on your initial request 
for the MRAPs because it may be as I hear you that really we 
may have overdone it in real and practical terms, not only in 
terms of your performance of the mission, but protecting the 
safety of our personnel, and that what's needed ideally is a 
mix of vehicles, the MRAP, the uparmored Humvee, and maybe 
something else. I don't know the extent to which the Joint 
Light Tactical Vehicle that is being worked on now may fill a 
role there.
    So I just wanted to thank you for what you've said and what 
you've done, and I think maybe there's a lesson in it for all 
of us.
    I don't know whether you want to respond to that briefly.
    General Conway. Sir, I would only say that I look on the 
evolution of the MRAP creation and testing and purchase as one 
of the real success stories that has come out of what's 
happened. It took Congress, it took the DOD, it took the 
industry to provide the vehicles in the rapid state that they 
did. Sir, we have still yet to lose a marine in an MRAP to an 
underbody. It is an amazing vehicle against that niche kind of 
capability, and I think I can speak on behalf of my Army 
brothers and say that they're equally satisfied.
    Senator Lieberman. Right.
    General Conway. But you are exactly correct in that it's 
not a vehicle for all places and all times. Sir, as I look at 
the particular culture of our Corps, we're light, we're 
expeditionary, we're fast-moving and hard-hitting. Although an 
MRAP still may be in our future in another battlefield, it 
doesn't transport well.
    Senator Lieberman. Yes, it doesn't transport well if it's 
too heavy; I agree with you. I'm certainly not questioning the 
MRAP program. I think it's had great utility, and I appreciate 
your saying that we turned it around quickly.
    But your point is well taken. If it doesn't travel well, if 
it's too heavy to go over some bridges, if it doesn't operate 
well off road, and if it doesn't protect against some of the 
other threats to our troops, then I think what we're looking 
for is a mix of vehicles to allow you and the Army to carry out 
the missions we've asked you to carry out with maximum 
protection of our troops.
    General Conway. I think that's exactly right, Senator.
    Senator Lieberman. I appreciate that very much, and I think 
it's something we have to take into consideration.
    I want to go back to the size of the Fleet, the goal of 313 
ships total. What are we at right now, just as a matter of 
record? How large is the Fleet?
    Admiral Roughead. 279 today, sir.
    Senator Lieberman. Right. So in the most direct sense, does 
that mean, since we're at 279 and our goal has been to be at 
313 ships in our Navy, that we are vulnerable, we're in some 
danger? Are you unable to carry out some of the missions, 
Admiral, that the country is asking you to carry out?
    Admiral Roughead. Senator, I would put it into two 
different categories. One is that in combat operations I would 
say that the size of the Fleet today puts us at moderate risk, 
and by ``moderate risk,'' there would be likely success, but it 
may require longer time, it may require more resources, and it 
could require some changes in the plans that we would normally 
use to go after a particular problem.
    But I also believe that in the world that we live in today 
and the strategy that I believe that we as a Navy and a Marine 
Corps and even a Coast Guard must pursue, that we have to be 
out and about. The types of operations, the importance of 
maritime security on our prosperity and the way that the goods 
and resources flow around the world, that numbers become a 
capability in themselves, and we have to be there to assure the 
sea lanes that supply our country and that allow us to export 
our goods; and also to be able to have the types of ships and 
the balance in our Fleet for the various missions that we 
perform.
    The one area that I am most concerned about today is the 
area close to shore, the littoral areas, the green water. 
That's what the LCS is about. The other ship classes that we 
have are complementing current capabilities and are upgrading 
those current capabilities. The LCS is about an area that we 
are, quite frankly, deficient in.
    Senator Lieberman. I appreciate the directness of the 
answer. Moderate risk is, I think, ideally more risk than any 
of us should want you and our country to face, so that it does 
make the point, though that the absolute dollars in the 
requested DOD budget are large, in my opinion they're not 
enough and we remain at a percentage of the Gross Domestic 
Product, that is spending on defense, which is historically 
low, considering that we are at war, an active war, and we're 
facing the rise of other great powers--Russia, China--who we 
obviously hope we'd never get into hostilities with, but are 
putting a lot of money into military acquisitions, including 
ships for their fleet.
    Let me ask you about the LCS, just to remind us what the 
numbers are. Of the 313 goal, how many are intended to be in 
the LCS category?
    Admiral Roughead. Our objective, Senator, is 55.
    Senator Lieberman. So that's a pretty significant number.
    Admiral Roughead. Yes, sir.
    Senator Lieberman. Just for the record, you've cut back 
because of the problems in acquisition and development on what 
you're going to ask for this year, right, for the LCS?
    Admiral Roughead. Yes, sir, that's correct.
    Senator Lieberman. Just remind us again of what the 
reduction there is?
    Admiral Roughead. We reduced our intention this year by 
four LCSs and that is the adjustment in this year's current 
budget proposal.
    Senator Lieberman. So do you worry that the increasing cost 
of the ship will make it impossible for us to attain the 55 
number goal for the LCS that is part of that 313?
    Admiral Roughead. Getting control of the cost and indeed 
bringing the cost of the ship down is a very high priority, and 
that's what we're working on with the Secretary's leadership, 
and the decisiveness in cancelling the LCSs three and four was 
not an easy decision, but I believe it was in the best 
interests of the program.
    I look forward to being able to take the 2008 ship and the 
two LCSs that we have in 2009 and being able to put together an 
acquisition strategy that allows us to move forward, that 
allows us to acquire those ships, so that we can get them out, 
get them operating, because I do believe they are going to be 
workhorses of the future for us.
    Senator Lieberman. I agree. So at this moment you would 
hold to the 55 LCS goal that's part of the 313?
    Admiral Roughead. Yes, sir, my objective remains 55 LCSs.
    Senator Lieberman. The 313 remains not only your goal, but 
a goal that you think will meet our defense needs, our national 
security needs?
    Admiral Roughead. Yes, sir, and I would say that it is the 
minimum number of ships that we will need for the future.
    Senator Lieberman. It's very important to say that, right.
    Thank you. My time is up. Thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Mr. Secretary, Admiral, General, welcome. I'm always 
impressed at the tremendous ability and resilience of our men 
and women in uniform, and the Navy and Marine Corps certainly 
are great examples of that. Although in South Dakota we don't 
have a lot of shoreline, coastline, or beaches, I still have a 
great interest in making sure that our sailors and marines are 
well-equipped and well-trained.
    Secretary Winter, in your prepared testimony you discuss 
the recent readiness and training challenges that the Navy 
faces with a Ninth Circuit Court decision regarding the Navy's 
use of active sonar off the coast of California to train strike 
groups before deploying. From what I understand from your 
prepared statement, the Navy is still subject to an injunction 
on the use of this sonar issued by the court, despite the 
President granting an emergency exemption.
    As the ranking member of the Readiness and Management 
Support Subcommittee, I'm concerned about the effect that this 
injunction may be having on predeployment training. What effect 
is this injunction having on your current ability to conduct 
predeployment training, particularly as it relates to 
countering these modern super-quiet diesel electric submarines?
    Secretary Winter. Thank you, Senator, for the question. 
Right now the orders that we've received from the court impose 
several additional conditions on our use of sonar for training 
and exercise activities in the southern California operating 
area which we believe would have a significant deleterious 
effect on the efficacy of those training activities. They 
basically increase the requirement for shutdown of the sonar 
when a marine mammal is seen from what has been our practice of 
200 yards to a 2,000-meter requirement, which is over a factor 
of 10 increase in the area that we have to shut down under such 
circumstances.
    Similarly, there are certain water column conditions, 
what's known as surface ducting conditions, under which we 
would be required to reduce the sonar power by 75 percent 
whether or not a marine mammal was present.
    Those types of constraints we believe would significantly 
affect our ability to conduct the type of training activities 
that are crucial to preparing our Fleet prior to deployment.
    Senator Thune. Admiral Roughead, I have a question in 
relation to the encounter by the Navy with five Iranian 
speedboats that occurred last month in the Strait of Hormuz. 
According to a January 12, 2008, article in the New York Times, 
a 2002 war game indicated that small, agile speedboats could 
swarm a naval convoy and inflict devastating damage on our 
warships.
    To the extent that you can discuss this in an open setting, 
what is the Navy doing to prepare to meet this type of threat?
    Admiral Roughead. Senator, as you would understand, I won't 
get into the particular procedures that our ships and crews 
use. But first off, I'd like to just mention the competence and 
the training of our crews and the commanding officers are what 
I believe kept that situation under control.
    As part of our training for our crews as they prepare to 
deploy, we present them with scenarios that are very similar to 
that which would be encountered around the Straits of Hormuz 
and other littoral areas such as that. We employ simulators as 
well, again to just be able to take them through a variety of 
responses. But as we operate in environments like that we 
employ all dimensions of our naval power, not just the 
capabilities that we have on our ships, but also our airplanes, 
those that are embarked on the destroyers and other combatants, 
but also the aircraft of our air wing. So it's a total 
capability that we bring in. Our awareness, our situational 
awareness, adds to our understanding of what is developing.
    But again, I come back to the fact that it really is the 
training, the competence, and the discipline of the young men 
and women who are operating our ships at sea that make all the 
difference.
    Senator Thune. I absolutely would agree with that with 
regard to the incident in January. I guess the question is with 
regard to the simulation and how that played out when you gamed 
it out, do you have a concern about our flexibility and ability 
to react to that type of a threat, which seems to be where our 
adversaries in that region are headed?
    Admiral Roughead. Senator, I have confidence in our sailors 
and our commanding officers, but I am concerned about the type 
of behavior that is allowed to be taking place. When the 
leadership of Iran lauds the crew that captured the Royal Navy 
sailors, I think that that just engenders an attitude in the 
Revolutionary Guard units that has the potential to escalate, 
elevate, and perhaps make behavior like this more routine.
    Senator Thune. Secretary Winter, the Navy recently rolled 
out a new maritime strategy. Could you highlight the major 
points of that strategy and where you think we have the big 
gaps in our ability to execute it?
    Secretary Winter. I think the new maritime strategy really 
represents a long-term commitment on the part of the Navy to 
partnership building, to maritime security as a common 
objective of all maritime nations, and also recognizes the 
importance of humanitarian assistance and disaster relief as 
mechanisms to assist our ability to develop the relationships 
with other nations, other navies, and be able to represent our 
country around the world.
    It also continues, if you will, all the current aspects of 
dissuasion, deterrence, and supremacy at sea that have been a 
hallmark of our Navy ever since.
    Senator Thune. Admiral Roughead, there has been a lot 
written about the development of the Chinese and Indian navies, 
as well as other emerging threats. How would you characterize 
the submarine threat that other countries pose and how ready is 
the United States to deal with it?
    Admiral Roughead. The proliferation of submarines globally 
is occurring at a very, very rapid pace, and it's more than 
just numbers. The sophistication and the technical advancements 
that are being made in quieting submarines, making them harder 
to find, creating air-independent propulsion systems that allow 
submarines to remain under water for very long periods of time, 
add to the challenges of anti-submarine warfare and get to the 
point that the Secretary was making about the need to be able 
to train against those types of threats.
    In the days of the Soviet Navy, we looked for their 
submarines by listening passively and we could detect where 
they were and get a position on them. In the case of these very 
sophisticated, smaller, advanced diesel submarines, active 
sonar is how we find them, active sonar is how we localize 
them, and active sonar is enabling how we will kill them. We 
must be able to train realistically.
    We can do that while being good stewards of the 
environment. In fact, the United States Navy has invested in 
marine mammal research, more than any other organization in the 
world. We can do both and our record speaks to that.
    Senator Thune. Mr. Secretary, do you have any indication of 
if and when that injunction by the court might be lifted with 
regard to the training exercises?
    Secretary Winter. Sir, we had oral arguments yesterday in 
California. We expect to get a ruling by the Ninth Circuit 
Court some time next week, and we'll have to go from there. I 
do expect, however, to see continuing challenges on a wide 
variety of fronts associated with our use of sonar techniques.
    Senator Thune. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Good morning, gentlemen, and thank you for your public 
service to our country. I get to visit with you, Mr. Secretary 
and Admiral, probably more than you would want me to visit with 
you, and I thank you for the continuing saga with regard to 
making Mayport nuclear, and we're awaiting the Environment 
Impact Statement (EIS) so thank you very much.
    In a couple of minutes I'm going to be visiting with our 
Commander of U.S. Southern Command (SOUTHCOM) and, as I have 
discussed with both of you, the recommendations that are coming 
up to you, Mr. Secretary, from the Admiral about the 
reactivation of the Fourth Fleet. You may want to share your 
thoughts with the committee about that, and then specifically 
I'd like to ask if you will make the request for the 
appropriate funding in order to make the necessary improvements 
at Mayport for the Fourth Fleet that would support Admiral 
James E. Starvidis, USN, as we project our American presence 
throughout the Western Hemisphere.
    Admiral Roughead. Senator, I've been out in the fleet for 
the last few years, and as I've looked at the world we're going 
to operate in and I look at the strategy that I believe is 
right for our time, it became apparent to me that we had to 
make some adjustments in our command and control structure, and 
from that came the Fourth Fleet recommendation that I've made.
    It will better align Admiral Stavridis's naval activities 
and operations with the way that we're doing them in other 
parts of the world, very similar to Fifth Fleet and Sixth 
Fleet. So I believe the time has come to reactivate that and it 
will provide for much more effective operations and more 
cooperative activity, particularly in the SOUTHCOM area of 
operations.
    I would say, however, that the Fourth Fleet is a command 
structure and, similar to the Sixth Fleet in Europe and the 
Fifth Fleet in the Middle East, they will be receiving forces 
from other naval commands and operating them in the SOUTHCOM 
area of operations. So with regard to any improvements in 
Mayport, those are more driven by the EIS that I'm pleased 
we're going to have out here soon for public comment and 
decision in January 2009, and also the outcome of what I've 
asked my staff to do, and that is to look at what is the right 
strategic laydown and where should we have our Navy forces 
positioned in the United States.
    Senator Bill Nelson. So that EIS is not only going to be 
for nuclear-capable, but it's also going to be for whatever 
additional activities you would have with the Fourth Fleet?
    Admiral Roughead. What the EIS is looking at are a range of 
force package options for Mayport. There are 13 options that 
we're going to look at and range everywhere from combatants to 
carriers, and that will be a very informative document for us.
    Senator Bill Nelson. Mr. Secretary, what's this in the 
chain of command? Is it coming from the Admiral up to you and 
then it goes to Secretary Gates? Is that what happens?
    Secretary Winter. Yes, sir. I've taken a preliminary brief 
on it. I've asked a number of questions, particularly with 
regard to exactly how we will evolve this structure. As the CNO 
commented, this is principally a command and control element. 
This is a staff group that we're talking about. Most of that 
staff currently resides at Mayport. Is that the right place in 
the long term to support the SOUTHCOM down in Miami? How do we 
want to work all of that? All has to be determined yet.
    Once we go through that process, then we will go and take 
it forward to the Secretary of Defense.
    Senator Bill Nelson. Is that interrelated with the EIS or 
is that a command decision about where you locate the support 
group?
    Secretary Winter. I do not view this as having any material 
impact on the EIS or vice versa.
    Senator Bill Nelson. I see. Well then, I must have been 
mistaken. I thought that the recommendation coming up was that 
the Fourth Fleet would be headquartered at Mayport.
    Admiral Roughead. Senator, the Fourth Fleet is a 
headquarters, much like our Sixth Fleet is in Europe and our 
Fifth Fleet is in Bahrain. It is a headquarters organization 
that in the case of Fourth Fleet will be the merging of Naval 
Forces South and the Fourth Fleet into the headquarters 
element.
    Senator Bill Nelson. I thought that recommendation that was 
going up was to be at Mayport. Is that the recommendation that 
has to go up through the civilian leadership?
    Admiral Roughead. The recommendation, sir, is to take the 
Navy Southern Command (NAVSOUTH) staff and redesignate them as 
NAVSOUTH and Fourth Fleet, and that they currently reside in 
Mayport. My recommendation is that that redesignation occur, 
but that as we look at force laydown, where command and control 
structure will be in the future, I believe we should be looking 
at what is the best way for us to position and operate our 
Navy, and that will all be part of the look that I'm doing.
    Senator Bill Nelson. So long term, that's a decision still 
to be made in your recommendation?
    Admiral Roughead. Yes, sir. I think that we should be 
taking a good look at the overall force posture and positioning 
and where is the best place to put our forces.
    Senator Bill Nelson. All right. Admiral, let me ask you 
about the Reliable Replacement Warhead (RRW), which was going 
on the submarine-launched ballistic missiles. The first version 
of the RRW was something of a rebuild of the existing W-76 
nuclear warhead. But now the question is, is there a slow-up on 
the RRW? So what's the impact on the rebuild of the W-76?
    Admiral Roughead. Senator, if I could take that question 
for the record, I'd like to do that and get back to you.
    [The information referred to follows:]

    The current halt in the Reliable Replacement Weapon program 
resulting from the removal of Department of Energy funding in the 
fiscal year 2008 Appropriations process does not affect the Navy's 
program to refurbish existing W-76 warheads. The Navy's plan to extend 
the service life of W-76 warheads will ensure their safety and 
reliability through calendar year 2042.

    Senator Bill Nelson. Okay. We have that issue in front of 
our Strategic Forces Subcommittee, which we're going to have to 
answer that.
    I would also want to ask you if you would take for the 
record the question of the Standard Missile 3 inventory, as 
well as the Standard Missile 3 Block 1B over the Block 1A.
    Admiral Roughead. Yes, sir.
    [The information referred to follows:]

    The current inventory of SM-3 Missiles is 25; 9 SM-3 Block I 
variants and 16 SM-3 Block IA variants. A total of 75 SM-3 Block IA 
variants will be produced in the program of record. In fiscal year 
2010, production of the SM-3 Block IB variant will begin, with the 
first Flight Test Mission in fiscal year 2011. There are a total of 72 
SM-3 Block IB variants in the program of record through fiscal year 
2013.

    Senator Bill Nelson. It's going to have a considerable 
improvement and we need your advice as we get into this. 
Speaking of the Standard Missile, congratulations to you.
    Admiral Roughead. Thank you very much, sir.
    Senator Bill Nelson. You hit the bull's eye and you did a 
service, and I think it's appropriate for somebody like me to 
say that, even though people jump to conclusions, the fact is 
you had a schoolbus-sized defense satellite that was tumbling 
out of control, along with a 1,000-pound tank of hydrazine that 
could survive reentry, and the fact that you hit it and busted 
it into all thousands of pieces will cause--number one, the 
orbit to degrade a lot quicker; number two, much more 
manageable and therefore less likely that pieces survive the 
searing heat of reentry; and number three, you busted open the 
tank, so the likelihood of a tank filled with hydrazine--which 
did happen, by the way. The small hydrazine tank survived the 
reentry in the destruction of the Space Shuttle Columbia all 
the way to the Earth's surface. So for that third reason, you 
are to be congratulated in improving the safety of the 
conditions. Thank you.
    Admiral Roughead. Thank you, Senator.
    Senator Bill Nelson. Thank you very much.
    Admiral Roughead. I couldn't be more proud of our sailors 
and our civilian engineers that put all that together. Thank 
you.
    Chairman Levin. Thank you, Senator Nelson. Senator Nelson's 
comments and congratulations I'm sure reflects the feelings of 
all of us.
    Admiral Roughead. Thank you very much, sir.
    Chairman Levin. Senator Martinez, an uninterrupted turn 
from the chairman today.
    Senator Martinez. Thank you, Mr. Chairman. We can work as a 
team when need be. I thank you.
    I want to add my word of congratulations. I really think it 
was a remarkable thing. From time to time there are things that 
happen that completely capture our imagination and that one is 
an amazing feat. So, well done!
    Admiral Roughead, we have talked about the expanding Navy 
and the need for a 313-ship Navy, which as you know I fully 
support. One of the things that has been mentioned along those 
lines is the possibility that the Navy should be an all-nuclear 
surface fleet, and I wonder if you can articulate for us your 
thoughts on that issue.
    Admiral Roughead. Yes, sir. Nuclear power offers 
advantages. Nuclear power is also a more expensive initial cost 
as we build ships that have nuclear propulsion. I believe that 
as we look at the ships of the future we should look at varying 
types of ways to propel and to power those ships, and nuclear 
power is one of those things that we should look at.
    That said, for all ships to be nuclear my great concern is 
that it would become a question of affordability, and we have 
to look at that. We have to look at more than just the fuel 
cost. We have to look at how much it will cost us to maintain 
those ships, how much it will cost us to manage those ships, 
because I believe that as nuclear power has a resurgence in the 
civilian commercial applications that many of those companies 
know where the best operators and where the best engineers are, 
and that's in the United States Navy.
    Senator Martinez. So your concern is cost, which when 
compared to the cost of fuel alone does not tell you the whole 
cost, which has to do with the increased maintenance, and also 
you think that you could have simply a manpower issue in terms 
of competing with the private sector for increased demand for 
nuclear?
    Admiral Roughead. Yes, sir. We have to look at the whole 
dimension of it and then make the best decisions that we 
possibly can.
    Senator Martinez. So you want the flexibility, in other 
words to increase our Navy with whatever power station you 
think is the most suitable at a given point in time?
    Admiral Roughead. Yes, sir.
    Senator Martinez. Mr. Secretary, good to see you again.
    Secretary Winter. Good to see you, sir.
    Senator Martinez. We've talked about the LCS and how 
important it is. I really would like to get an update from you 
on that program. Where are we, what steps have you taken to 
correct the deficiencies? The Admiral and I have discussed the 
need for us to get this one right as we look to getting that 
313-ship Navy. So bring us up to speed on where we are on the 
procurement, on the ship models, and that kind of thing?
    Secretary Winter. Yes, sir. At this point in time we are 
focusing on really two aspects, one of which is the two ship 
hulls that are being constructed right now, one in Marinette 
under the Lockheed prime contract and the other down in Alabama 
under the General Dynamics contract. Both of those ships are 
coming along. We are right now conducting somewhat limited 
power train tests up at Marinette with the LCS-1. We're 
somewhat limited because of the ice buildup at this time of 
year in the lake there, and we are fully expecting to be able 
to initiate the full range of sea trials once we get past the 
ice season there, most likely in the April time period.
    With the LCS-2, which is down in Alabama, we're in the 
process of completing the construction there to the point that 
we can get it into the water later this spring. That is still 
our current forecast there and we fully expect to be able to 
conduct at least the initial range of sea trials with her later 
this year.
    Senator Martinez. What timeframe of the year? This summer, 
perhaps?
    Secretary Winter. Probably in the summertime, yes, sir.
    At the same time, we have proceeded very well on the 
mission modules. We've already taken delivery of the first of 
the mine warfare modules. That has been delivered. We also are 
fully expecting to have the first of the surface warfare and 
the anti-submarine warfare modules delivered this year. All of 
that gives us a good basis for conducting the full range of 
mission tests that we'd like to be able to do with both of 
these vessels.
    At the same time, we're preparing to start a round of 
acquisition which would enable us to acquire three additional 
vessels under a fixed price incentive type contract. Those 
three vessels would include the one that was previously 
approved for fiscal year 2008 and the two that we're requesting 
in the year of current interest, fiscal year 2009.
    Senator Martinez. Thank you, sir.
    General Conway, we've discussed this morning here the 
increased presence in Afghanistan with 3,200 marines. I'm not 
sure if it was asked, but if not I'd like to be sure that I'm 
clear. My concern is that from reports that I hear of an 
increasingly deteriorating situation in Afghanistan from the 
security standpoint, that this type of force increase may not 
be sufficient and that perhaps additional forces may be needed 
in Afghanistan in the near future.
    Aside from the great concern that I have about the lack of 
participation in real fighting from our North Atlantic Treaty 
Organization (NATO) partners, can you tell us where you see the 
Afghanistan force needs going in the near term and the far 
term?
    General Conway. Sir, I think your analysis is probably 
correct. When we visit there, people are generally pretty 
satisfied with what they see happening in Regional Command 
East, which is up against the Pakistani border and is in the 
northeastern portion of Afghanistan. They are less comfortable 
with conditions in the south. The drug fields still operate 
relatively freely there. There are what they call rat lines in 
from what some would consider safe haven across an 
international border. Taliban actually control some ground and 
some would say it's the heart of the Taliban. You have families 
there who have sons fighting as a part of the Taliban.
    So I think Regional Command South is still very much an 
unclear picture at this point, and whether or not enough troops 
have now been committed, both coalition force troops, who in 
some cases are doing very good work, and now marines in 
addition to the soldiers that have been there, will be 
sufficient I think is uncertain at this point, sir.
    Senator Martinez. I know the Secretary of Defense has been 
traveling a lot recently and has made his case to our NATO 
partners. But can you tell us anything about the level of 
cooperation that you might anticipate in what is a NATO mission 
from other NATO countries in terms of participating in the 
actual difficult work that is necessary there?
    General Conway. Sir, I cannot talk about any increased 
participation. What we do know is that the Canadians publicly 
are asking for additional troops. They think that there is a 
need for additional troops, especially if our marines pull out 
in October, which is planned at this point. The British we see 
are there. They have a replacement scheduled, a rotation that 
will replace the people that are there now with a parachute 
brigade, for all intents and purposes.
    So we think that the resolve is still readily evident on 
the coalition forces that are there now for at least the rest 
of this calendar year. Again, sir, I would not want to 
presuppose beyond that.
    Senator Martinez. Thank you, General.
    My time is up, but let me associate myself with Senator 
Nelson's comments as they relate to the situation in Mayport 
and our great desire to continue to see a very vibrant naval 
presence there going into the future. We've discussed it ad 
nauseam. I'm sure you know my points on that, but I did want to 
associate myself with the Senator's comments. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Thank you, gentlemen. Admiral Roughead, the Navy has the 
requirement to start detailed design for the next class of 
ballistic missile submarine. In fact, we have to start doing 
that pretty soon since I think 2019 is the target date to begin 
construction. When are you going to start that research and 
development (R&D) design program in the budget, this year's 
budget?
    Admiral Roughead. Yes, sir. We have to start looking at 
that, and we are beginning to move forward with initiatives to 
work a design process, as well as work cooperatively with the 
U.K. Government, which has a more urgent need than we do. So we 
are moving forward in that regard.
    Senator Reed. One of the problems I think is not in terms 
of just the delivery of the submarine in the future; it's the 
maintenance of the R&D force, which is fragile. If we don't 
keep investing, these are skilled individuals who will leave 
and go off by necessity. That is, I presume, a concern that you 
have and that will motivate your actions.
    Admiral Roughead. Very much so, yes, sir.
    Senator Reed. Mr. Secretary, can you describe the 
acquisition strategy for the rest of the ships in the DDG-1000 
program?
    Secretary Winter. Yes, sir. At this point in time we have 
not definitized the acquisition strategy for the rest of the 
ships. We will be developing that this year and going through 
the normal approval process on that.
    Senator Reed. When do you anticipate informing Congress 
about the results of the analysis of alternatives and design 
decisions for the CG(X?)
    Secretary Winter. Sir, we're still in the process of going 
through that right now. I will say that, based on the 
preliminary reviews I've had, we still have a ways to go on 
that, and I will be hard-pressed to give you a definitive date 
at this point in time.
    Senator Reed. Is it your intention to leverage the 
investment in existing hulls by re-using DDG-1000 hulls in your 
planning? Is that one option at least? I know you can't reach a 
definitive judgment. Is that an option?
    Secretary Winter. Sir, one of our principal objectives, is 
to maximize reuse of everything from hull forms to individual 
componentry on all of our ships, and to the extent that we can 
use improvements and new technology that is being developed in 
other programs, we will endeavor to do so.
    It is at this point in time, sir, though, just one of a 
series of options.
    Senator Reed. Yes. With respect to the DDG-1000 hull and 
the construction of the CG(X), can you do that with nuclear 
propulsion, as required by the National Defense Authorization 
Act for Fiscal Year 2008?
    Secretary Winter. That is one aspect that we're looking at. 
We do believe that we can accommodate a reactor plant in that 
particular hull form, but that is something that still needs to 
be fully developed.
    Senator Reed. Thank you.
    General Conway and Admiral Roughead, in general do you 
think we are putting enough money into the R&D to support both 
shipboard operations and expeditionary forces? Commandant, you 
first, and then the Admiral.
    General Conway. Yes, sir, I do. We have a very active 
warfighting lab that works with the Navy research labs. We 
reach out to commercial and educational institutions with our 
research. So I think that we are, sir.
    Admiral Roughead. I agree with that, Senator. Just 
coincidentally, this week I directed the president of our Naval 
War College to reinstitute the Title 10 war game so that we 
can, at an operational level, begin to look at some of the 
concepts that are important to General Conway and me, 
particularly in the area of sea basing, because I really value 
the intellectual capital that we have in Newport.
    Senator Reed. Rhode Island?
    Admiral Roughead. In Newport, RI, absolutely, yes, sir. 
That adds to not just the R&D, but really the operational 
perspectives that must be brought to bear.
    Senator Reed. Let me raise a final question. That is, I 
understand that the Navy is essentially allocating 50 
accessions from their Reserve Officer Training Corps (ROTC) or 
Naval Academy programs to the Marine Corps this year. Is there 
any plan going forward or contemporaneously to make up for 
that?
    Admiral Roughead. Senator, one of the things that we are 
requesting this year is to grow the size of the Naval Academy 
by 100 midshipmen. It will be done over a period of 4 years. 
That really is in support of the Marine Corps requirement and 
I'd seek your favorable consideration.
    Senator Reed. As long as they're coming out for the archery 
team that's fine. [Laughter.]
    Thank you.
    Chairman Levin. Let's see. Senator Wicker, I believe, is 
next.
    Senator Wicker.
    Senator Wicker. Thank you. Thank you very much. I 
appreciate it, Mr. Chairman.
    Gentlemen, let's talk about LPDs. Mr. Secretary, the 
purpose of the LPD is to load, transport, and unload marines, 
as well as their assault equipment, such as helicopters and 
other vehicles, for amphibious warfare missions. I notice, 
Admiral Roughead, that the LPD is number two on the Navy's 
unfunded priority list and, General Conway, it's the Marines' 
number one unfunded priority. I'd like to see that moved up, 
moved up a little.
    I know that we have competition between the needs and our 
ability to finance them. But I am concerned about our ability 
to provide continuous global posture, as outlined in the naval 
strategy, without additional investments in these large-deck 
platforms.
    If you couple the fact that the fiscal year 2009 budget 
outlines a 5-year shipbuilding plan and relies heavily on three 
new platforms, which brings a large degree of risk to an 
already complicated production strategy, with the growing 
Marine Corps, which I support and which most people support, it 
seems to me that additional LPDs are going to be necessary.
    As I understand it, there are nine of these ships that have 
been authorized and appropriated in last year's act. $50 
million in advance procurement was appropriated for the tenth 
ship, but it is not funded in the budget request. I'll ask each 
of you to comment on this. How many ESGs does the Marine Corps 
have a validated requirement for? As a matter of fact, somebody 
tell us for the record, what comprises an ESG?
    Admiral Roughead. The ESG, Senator, is comprised of----
    Senator Wicker. One strike group.
    Admiral Roughead. One strike group. One strike group will 
have a large-deck amphibious ship. It will have surface 
combatants capable of firing Tomahawk missiles, and on occasion 
we will couple a submarine with that strike group.
    Senator Wicker. But an LPD is an integral part of this ESG, 
is that correct?
    Admiral Roughead. That is correct.
    Senator Wicker. So isn't it a fact that we have a 
requirement, a validated requirement, for 11 of these strike 
groups?
    Admiral Roughead. General Conway's requirement is for 11 
LPDs as part of an 11-11-11 mix. I concur with the requirement 
that he has set forth. With regard to the prioritization with 
the LPD on my unfunded priority list, it is number two. Number 
one on my list are the P-3 airplanes that we have experienced 
cracking in the wings, and I've had to ground 39 of them in the 
last couple of months. The P-3s are our premier anti-submarine 
warfare airplane, so they're important to us in that mission. 
They're also being used very extensively in Iraq because of 
their intelligence, surveillance, and reconnaissance capability 
that they have, and for that reason I have put the P-3s as my 
number one priority.
    Senator Wicker. Number one unfunded priority.
    Admiral Roughead. Unfunded priority.
    Senator Wicker. How are we going to meet these requirements 
without the number one and number two requirement, and for you, 
General Conway, for your number one unfunded priority? How are 
we going to meet the requirement of 11 strike groups without 
those?
    General Conway. Sir, first of all, we are short. But let me 
couch perhaps the same conversation just a shade differently. 
We see that a minimum two brigade across-the-shore requirement 
is how we arrive at the numbers of ships that we need. You're 
certainly correct in that the ESGs are afloat, they serve a 
very valuable purpose, but 9 or 11 ESGs do not make an 
amphibious assault force.
    So we have analyzed what our two brigades look like, the 
amount and the numbers of ships that it would need to carry 
those brigades, and at this point we are a little short. Now, 
as Admiral Roughead mentioned, we've had some tremendous 
discussions with the Navy. We have come to agreement on the 
numbers of ships, 33 to make 30 operational ships, in order to 
give our Nation that very necessary capability. The Navy has 
looked at a way to extend some older ships that gives us that 
30 number for some period on through the Future Years Defense 
Program (FYDP), the 5-year defense plan.
    Our only concern with it, however, is that we have already, 
through previous agreement, previous CNOs and previous 
Commandants, agreed on the 30 ships. That still represents 
about a 20 percent shortfall that those brigade footprints 
would require. If we go with the old ships instead of newer 
ships, that shortfall becomes about 29 percent, and we think 
there's a risk inherent with that that just concerns us greatly 
with the ability to provide that kind of capability to the 
Nation. Ergo, it being our number one unfunded priority.
    Senator Wicker. Thank you very much. I would suggest you 
have the gist of my question. We put the $50 million in for 
advanced procurement for the 10th ship last year and I would 
just hope that this Government somehow could find the ways and 
means to go ahead with the 10th ship in short order.
    Now, General Conway, let me shift in the time I have 
remaining and follow up on Senator Martinez's question about 
Afghanistan. Regional Command South is troubling, as I 
understand your testimony to be. This is what I understand also 
from some of my colleagues who recently returned from 
Afghanistan.
    I think it's important that we paint a correct picture 
about what's going on there in Afghanistan. I think the 
testimony was that the Canadians are asking for additional 
troops. I suppose you mean they're asking our NATO allies for 
additional troops?
    General Conway. I think that's a fair statement, sir. They 
are saying that there is a need for 1,000 additional troops and 
6 additional helicopters.
    Senator Wicker. That's what the Canadians are saying. Do 
you agree with that? Is there a need for more than that 1,000 
to get the job done?
    General Conway. Sir, I think it remains to be seen. We're 
in a period at this point of lesser amounts of activity. Those 
3,400 marines are not on deck yet. I do think that a battalion 
of marines----
    Senator Wicker. I'm sorry. We're in a period of lesser 
activity?
    General Conway. Yes, sir, because it's winter there and 
there are heavy snows. The Taliban are historically less active 
during these months.
    But I think springtime will be another story. I was going 
to say, sir, that a battalion of marines in Afghanistan we feel 
as the Joint Staff is probably going to have more effect than a 
battalion in Iraq because of the nature of the threat and the 
numbers that we face. Sir, we don't know yet what the outcome 
of those 3,400 marines are going to be in the south. But the 
Canadians, who command RC South, would like to see a 
continuation of that kind of force structure on through beyond 
this calendar year and that's what they're asking for, to 
whatever nation that can help them to carry on the fight.
    Senator Wicker. Those would be NATO nations.
    The staff has just handed me a nice little card and I know 
that my time is drawing to a close. But I would just observe, 
this is a crucial moment for NATO and I would say this publicly 
to anyone that's listening to the sound of my voice. Our entry 
into Afghanistan was not controversial, as Iraq was later on. 
It followed September 11. The world was with us, and NATO all 
agreed to hold hands and do this together.
    I would simply suggest that there are a lot of people 
observing the situation that are wondering if everyone in NATO 
understands what the agreement was and what the alliance is 
about.
    Thank you.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Warner. Mr. Chairman, would you allow me to commend 
my colleague? I agree with your comment with regard to NATO. We 
should not forget that background.
    Senator Wicker. Thank you, sir.
    Chairman Levin. I think there's probably a consensus on 
this committee as to what you just said, Senator Wicker. We've 
spoken out on that issue, as has the Secretary of Defense, and 
your comments, I think, are right on target about the 
obligations of NATO that have not been met.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Let me say, Secretary Winter, Admiral Roughead, and General 
Conway, aloha and welcome to this hearing on the Navy's 
National Defense Authorization Request for Fiscal Year 2009. 
Also I want to thank all of you for your service to our 
country, and also thank all of those you command for their 
service to our country. We really appreciate all of that.
    Secretary Winter and Admiral Roughead, my question has to 
do with Guam. Decisions have been made already to send 8,000 
marines to Guam by 2014. This move coincides with the overall 
buildup of U.S. military facilities on Guam as it becomes a key 
strategic location in the Pacific. Your 2009 budget request 
includes $34 million to continue planning and development for 
the National Environmental Policy Act (NEPA) activities, which 
requires an EIS.
    I understand that DOD is making steady progress with their 
EISs. Other agencies such as the Department of the Interior do 
not have the funding necessary to complete their own EIS 
requirements for Guam. Secretary Winter and Admiral Roughead, 
if these other agencies are unable to find the funding 
necessary to complete their EIS requirements, my question is 
what impact will this have on the proposed time line?
    Secretary Winter. Sir, first of all, thank you for the 
question. I would note that we have gone a long way over the 
last several months in terms of developing the interagency 
coordination necessary to bring in the other Departments. In 
particular, Secretary Dirk Kempthorne has been a major player 
in terms of bringing the Department of the Interior into this 
act as part of their responsibilities for insular affairs and 
having explicit responsibility for Guam.
    I believe that the ongoing activities that are needed to 
support both the overall EIS development and the master plan 
development have all been identified. We are hopeful that they 
will be funded in a timely manner. I know that there's been a 
lot of effort going towards that direction. I cannot give you 
an explicit statement of what would occur if any specific 
component were unable to support the activity, but I can give 
you the assurance that we are working with all the other 
agencies in a very direct manner, and should any specific issue 
come up of that nature we would be more than pleased to inform 
you of that.
    Senator Akaka. Admiral?
    Admiral Roughead. Senator, there's nothing I can add to the 
Secretary's statement.
    Senator Akaka. I would then say that should other agencies 
not provide this information there may be a reconsideration of 
the time line.
    Secretary Winter. Yes, sir.
    Senator Akaka. Admiral Roughead, the Pacific is likely to 
increase in relevance for U.S. national security and for the 
U.S. Navy. As China becomes a greater economic and military 
power and as operations against radical extremism continue in 
places like Afghanistan and Pakistan, this certainly is a huge 
concern. Personally, I just want to say I would tell you that 
Admiral Timothy J. Keating, USN, has made some great moves and 
has been able at least to converse with the Chinese 
authorities.
    Given the importance of the U.S. Navy power projection in 
the Pacific and the shifting of 8,000 marines to Guam from the 
Third Marine Expeditionary Force, is there consideration, 
Admiral, for basing the new U.S.S. Gerald R. Ford at Pearl 
Harbor, given its strategic geographical advantages?
    Admiral Roughead. Senator, in recent years we've realigned 
our carrier force, put most of it in the Pacific. The same with 
our submarines. As we look to the future and the delivery of 
the Gerald Ford, which will be an aircraft carrier of great 
capability, we will factor that capability into the force 
structure and basing plans for the future.
    Senator Akaka. General Conway, in your statement you 
mention the importance of maintaining proficiency in the most 
enduring and traditional of Marine Corps missions, and that's 
the amphibious forcible entry. I'm concerned about the current 
operational stretch on the Corps and their readiness to conduct 
these types of operations that are so different from the 
missions our marines perform with such courage today, and many 
of course on the ground.
    Given the increased Taliban activity in Afghanistan and the 
U.S. response to send an additional 3,200 marines to that 
country, what is the biggest challenge facing the Marine Corps' 
ability to prepare for high intensity amphibious operations 
over the next years, so that we don't find ourselves in a 
situation where we've underresourced you or neglected the core 
competency of the marines?
    General Conway. Sir, our biggest challenge is to be able to 
create sufficient dwell time for our marines and sailors so 
that we can get back to some of those training venues that give 
us such a multi-capable capacity to do the Nation's work. When 
we're home now, we're home for 7 months and, quite frankly, 
some of that is used in leave time at the front and at the 
beginning, but the rest of it is devoted towards 
counterinsurgency training. As a result of that, we are not 
doing amphibious training or exercises. We are not doing 
combined arms live fire maneuver, which would be the extension 
of an amphibious operation once you're ashore. We are not doing 
mountain or jungle training except by exception.
    So your concern is my concern, sir. We traditionally have 
had a cadre of very experienced officers and senior staff NCOs 
who understood amphibious operations. I'm afraid we're losing 
that capacity and we've been away from it now for 5, maybe 6 
years. I don't know that you get it back in 5 or 6 years. I 
think there is an additional time requirement out there to 
develop and provide experience levels to those kinds of 
marines.
    Senator Akaka. Let me ask my final question to the 
Secretary. The strategic importance of Guam in the Pacific has 
led to increased investment in Navy and Air Force base 
facilities and equipment as more U.S. military capabilities are 
being transferred there. In an effort to make the best use of 
limited resources, part of the Base Realignment and Closure 
2005 recommendation was to realign Anderson Air Force Base by 
relocating the installation management functions into a joint 
basing effort led by the Navy. How is this realignment 
proceeding and what are your recommendations for the 
development of future military capability on Guam?
    Secretary Winter. Senator, I would observe that the 
cooperation that I have seen on Guam between both Navy and Air 
Force senior personnel is probably as good as anyplace else in 
the Services. I think that they are evolving that concept very 
well. We are doing an integrated planning activity as we 
develop the master plan, which incorporates not only Navy and 
Air Force activities, but also Marine Corps requirements 
associated with Anderson and the related areas.
    I think that as we evolve over the next several years there 
is all the possibility of making this perhaps one of the best 
cases for integrated joint basing.
    Senator Akaka. Thank you. I thank you all for your 
responses.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    Secretary Winter, you and Admiral Roughead, I think, have 
been very articulate and firm in your affirmation of the Navy's 
plan to make sure we have 55 LCSs as a part of the 313-ship 
Navy, and it's just a critical component of our defense 
capability. It's a new high-speed ship that would utilize less 
sailors and have more capability and be able to go into areas 
that we've never been before effectively and could have 
multiple capabilities, and maybe even as years go by we see 
even greater capabilities for that ship and we might even need 
more.
    But I was really taken aback last year when the 
subcommittee zeroed out funding for that. I can't complain. I 
believe persons in your position have to stand up and make sure 
costs come in on line. But we've now cancelled ships from both 
competitors. I guess I'm asking you and Admiral Roughead if you 
realize that it's going to take perhaps some extra effort to 
make sure that our members of the Senate and House are aware 
that, even though you're being vigorous and aggressive on costs 
and have delayed production and done some things, that you 
remain committed to this program.
    Would you share your thoughts, Secretary Winter?
    Secretary Winter. Thank you very much, Senator. I would 
like to underscore your comment there relative to the critical 
importance of LCS. I would note that, as opposed to many other 
of our shipbuilding activities, where we are modernizing and 
replacing older vessels of similar types, that this represents 
truly a new capability and a capability that we have no 
alternative mechanism of providing at this point in time.
    It is not just a matter of the speed, as you pointed out, 
but also the flexibility of the mission, the shallow draft and 
the appropriateness specifically for an evolving and 
increasingly important domain that we have to be prepared to 
fight in, the littoral.
    With regard to the specifics of the acquisition program 
that we've been engaged in, one of my objectives has been to 
ensure that we're able to acquire these vessels in a cost-
effective manner and a timely manner. One of the things that 
became fairly evident last year was that we were proceeding at 
a rate which was in advance, if you will, of our knowledge and 
understanding of the vessels. The specific actions that I took 
were with the objective of being able to put the program into a 
more studied and appropriate development process.
    I think we now have very good focus on both the individual 
vessels as well as the mission modules. We are proceeding at a 
good pace into the development and trials of both of those, and 
I fully expect that we will come out of this with an 
exceptionally good product and a capability that will provide 
excellent service for our Navy for many years to come.
    Senator Sessions. Your strong action that you took does not 
reflect any doubt of the ultimate ability of the ships being 
considered to meet the goals and requirements of the Navy?
    Secretary Winter. No, sir. If anything, I think we're going 
to wind up with two very good alternatives here, and exactly 
how we sort through that perhaps abundance of riches and 
options is something that we will have to deal with in the 
future. But I'm very comfortable that we have two very good, 
viable designs, either one of which has good prospects for 
fully meeting our objectives in the littoral.
    Senator Sessions. Admiral Roughead, would you likewise 
affirm that, even though the Navy has put its foot down on some 
cost and other issues, that that in no way reflects a lack of 
confidence in the capability of these vessels and the need that 
the Navy has for it to be a part of the Fleet?
    Admiral Roughead. Absolutely, Senator. I believe that we 
have had to fill this gap that we have and the LCS does that 
for quite some time. I have visited both variants on two 
occasions in the last 8 months. My visits to that ship only 
increased my commitment to the program, and I believe that the 
decision that was made with regard to LCS-3 and LCS-4 reflects 
a commitment to the program and the need to get the costs under 
control so that we could have the program.
    Senator Sessions. We know part of the cost problem was Navy 
additional requirements, and that all is not the contractor's 
fault when the buyer wants to add more and more capabilities. I 
think in the future, would you not agree that we could do 
better in making sure Congress has a fair picture of the actual 
costs of a product when you recommend it?
    Secretary Winter. Most definitely, sir. One of the changes 
that we put in place over this past year is a formal set of 
gate reviews that mandate that explicit discussion, so that we 
have a definitive set of requirements, not just the top level, 
but a complete set of requirements, in a timely manner and are 
willing to commit to stability in those requirements during the 
course of acquisition.
    Senator Sessions. I would just note, I know the Navy since 
I guess the beginning has favored the Law of the Sea Treaty, 
the LOST Treaty we call it. I'm not here to argue all of that, 
but I would just say to you I have a broader responsibility. 
This is an organization that gives us, I think for the most 
part, just one vote out of 100-and-something nations. It 
creates the possibility of an international taxing body on 
American corporations and businesses. It deals with many things 
that affect the seas. We even had lawsuits over nuclear power 
plants, trying to block plants on land because somebody argues 
that it might be a part of the sea. It creates international 
courts that we are bound to follow. We have perhaps enough 
courts already in our country.
    Someone could argue that this or that action might impact 
the environment of the sea, and we could have an international 
body blocking something that our environmental agency has 
approved in the United States.
    Also I would suggest that a hostile group over some 
political, international, military issue who was unhappy with 
the United States could at times generate enough votes to 
create rules that might block the military from doing things 
that we've historically been able to do.
    So I just want to say that I have some doubts about the 
treaty and I think we need to look at it carefully. That's why 
probably it hasn't been passed yet. It also has sovereignty 
issues that are not minor. We need to think those through.
    General Conway, I was honored to visit you and interact. I 
don't know whether you've had the opportunity to talk about it, 
but I remember the briefing we had in, I believe, 2006--
Senators Warner and Levin were there--that was so troubling, by 
the Marines about some of the difficult things in al-Anbar with 
the al Qaeda group. Within months, it seems, Major General 
Walter E. Gaskin, Sr., USMC, and his team had begun to 
negotiate with very local leaders, not regional leaders, not 
Baghdad leaders, but local leaders, tribal leaders, city 
mayors, and agreements were reached, and all of a sudden 
persons who had been helping the al Qaeda were now helping us. 
It really has been the model of this dramatic reduction in 
violence by 60 to 70 percent, we've seen in Iraq.
    Would you agree with that, that that was a key part of the 
change that's happened in Iraq? Would you say to us that 
legislation that would direct that you could only use force 
against al Qaeda would be impractical in the battlefield, as 
has been proposed? I don't think we're going to vote on that 
now. Maybe it's pulled down. But we had legislation up in the 
last few days that would have said you have to identify one 
group or another and you can only attack this group and not 
another.
    Any comments you would have?
    General Conway. Sir, the last question first: I would not 
want to put restrictions on the battlefield commanders or, more 
importantly, those NCOs that have to make split of the moment 
decisions that result in lives being lost or saved.
    With regard to your earlier observation, I think that's 
right. I would say that General Gaskin and his folks, the 
marines and soldiers and sailors there, did a wonderful job 
during that rotation. But they had the same theme during that 
period as we had from 2004. So I credit all those rotations 
that were through those cities and that surrounding countryside 
with maintaining the presence, maintaining their patience, 
their discipline, and trying to work with the Sunni sheiks to 
show that that we were not their worst enemy, but the al Qaeda 
was.
    I think when the al Qaeda finally overplayed their hand 
through the murder and the intimidation, wanting to intermarry 
and so forth, the sheiks finally decided collectively they had 
had it up to here. When they came to us to say, ``We will turn 
on them and slaughter them with your assistance'' we were only 
too happy to say, ``We think that's the right thing to do.'' 
That's when you saw the Province turn. It was a west to east 
movement, but it has continued east on now to Baghdad and 
places north and south of Baghdad, and I see that as very 
positive.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you so much, Senator Sessions.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    First I would like to say--it was mentioned earlier--this 
is Senator Warner's last Department of the Navy posture 
hearing, at least as a sitting Senator, and I want to express 
all of the appreciation I can muster for the years of service 
that the senior Senator from Virginia has given our country, 
first as a marine, then in the Defense Department, and finally 
here in the Senate.
    Mr. Chairman, I was a 25-year-old marine my last year in 
the Marine Corps on then Under Secretary and Secretary of the 
Navy Warner's staff, and am pleased to have an association with 
him since that time. I think it can fairly be said that there 
is no one wearing the uniform of the United States military 
today whose military life and well-being has not been affected 
by the dedication of the senior Senator from Virginia. So we 
will look forward to working with you in many other capacities.
    Senator Warner. I deeply am humbled by the comments that 
you make, my good friend. I thank you.
    Senator Webb. Thank you, sir.
    Chairman Levin. Thank you, Senator Webb, also. I tried in a 
very inadequate way to express those sentiments earlier today, 
and I appreciate your comments.
    Senator Webb. I certainly wouldn't want to take away from 
what the chairman said.
    Admiral Roughead, I have said many different times, you're 
familiar that I not only support the growth of the Navy to 313 
ships; I think we need to work really hard to figure out what 
the best number can be. It may be higher than that. I 
personally believe it should be higher than that. We have major 
strategic concerns around the world that I think have been in 
some ways atrophied because of the focus that this country has 
had to have in recent years on the situations in Iraq and 
Afghanistan, and there is no substitute for a tangible presence 
of the United States Navy in times of crisis when we have 
strategic concerns around the world.
    You hear how the members feel about that. Everybody seems 
to want ships homeported and everybody seems to want to build 
ships, so let's see what we can do to work together to get 
efficient shipbuilding programs and to streamline the process 
so that we can have the best strategic defense of our country.
    General, I would like to follow on a bit from what Senator 
Akaka began talking about this shift in our assets in the 
Pacific, the situation particularly from Okinawa to Guam. But I 
would like to hear more of your perspectives on that. I've been 
involved in it at one level or another for a very long time.
    One question that came up that I hope you can give us some 
further light on for the committee here is this aviation 
facility on Okinawa that was scheduled to be built offshore on 
the far northern part of the island. I can recall when I was 
visiting Okinawa a few years ago as a journalist there was a 
good bit of support, at least from what I could tell, for 
moving it. Then there was something about a lawsuit that 
originated in the United States that would interrupt the 
construction of this facility. Can you help us out on that?
    General Conway. Sir, if I can, I will talk briefly about 
the facility and then ask the Secretary if he'd like to 
comment, because it is very legal and he and his lawyers have 
been discussing it in detail.
    The facility is called the Futenma Replacement Facility. It 
would be built offshore, you're correct, sir, off Camp Schwab 
in a coral area there, to replace the one we have at Futenma, 
move it from a less populated area to an area offshore. We're 
asking for a similar type of facility that would take aboard 
both our helicopters and our C-130s for intertheater lift.
    It has been seeing recent problems with the finding of the 
Ninth Circuit, and I'd ask the Secretary to take over from 
here.
    Secretary Winter. Yes, sir. Senator, I appreciate the 
question. What has transpired here is that a group of 
individuals, principally from Japan but with a small group of 
plaintiffs from the United States as well, have argued that the 
National Historical Preservation Act applies in this 
circumstance, that, notwithstanding the fact that the 
Government of Japan is responsible for the actual construction 
activity and that the Government of Japan is undergoing their 
equivalent of a NEPA process with their style of EISs, that it 
is incumbent upon us to deal with the dugong, which is a 
manatee type of animal which has been designated by the 
Government of Japan as a cultural treasure, and it is therefore 
argued that the Okinawan dugong is subject to protective 
measures under the National Historic Preservation Act, which is 
one of the few acts which does constrain activities outside the 
United States.
    Senator Webb. Would you say this is going to interrupt the 
construction of the facility?
    Secretary Winter. It has the potential, sir, of disrupting 
the activities. It constrains our ability to provide the final 
approvals on the process, and I am concerned about in 
particular the schedule impact. Notwithstanding what we believe 
is a good likelihood of success in the final adjudication of 
this, the time period that it's going to take is going to be 
significant.
    We are currently evaluating our options to be able to 
continue in parallel, at risk if you will, in particular given 
the fact that the government of Japan has the principal 
responsibilities here.
    Senator Webb. Thank you. We'll look forward to working with 
you to help resolve that, I hope.
    The final disposition, General, of the assets, what would 
that look like, between Guam and Okinawa, Japan?
    Admiral Roughead. Sir, what we'd like to see is about 
10,000 on Okinawa, about 8,000 on Guam. We're proposing that as 
a part of the initial agreement that we also be able to 
distribute some of our forces to Hawaii. In the end what we 
would like to do is effect a brigading, if you will, of those 
locations in the Pacific, with the primary headquarters on 
Guam, but with the air wing and CSS headquarters located 
elsewhere, so as to be able to respond to some need in the 
future by the combatant commander.
    Senator Webb. It's absolutely essential for us to keep 
forces in that region, not only for that region, but for 
maneuverability throughout that part of the world.
    General Conway. I wholeheartedly agree, sir.
    Senator Webb. Have you looked at Babelthaup?
    General Conway. Sir, not as a basing.
    Senator Webb. Great training area.
    General Conway. But our commander in the Pacific is 
developing what he optimistically calls a ``Twentynine Palms of 
the Pacific,'' and he is looking at the Palaus, the Marshalls, 
opportunities to train and perhaps even put a station, if you 
will, on some other nations, where we would visit and bring the 
camp to life and then put it in a cooldown status when we 
leave.
    We think that there are going to have to be additional 
training opportunities because Guam is simply not that large 
and probably the best you're going to be able to do on-island 
is company size.
    Chairman Levin. Would you help us with ``Babelthaup,'' 
please?
    Senator Webb. Mr. Chairman, we ought to have a discussion 
about this. The first book that I wrote when I was 27 years old 
postulated that we should realign our military bases in the 
Pacific with a very heavy axis on Guam and Tinian. During those 
discussions actually General Lou Walt had gone out into the 
areas where the Marine Corps had operated in World War II. In 
the Palau Island group there's an island called Babelthaup, 
which is very difficult to spell. But he had recommended that 
as a training area.
    Chairman Levin. The reason I ask was to help our reporter. 
I also must confess ignorance. I had never heard the term 
before.
    Senator Webb. We'll get back to you for the record on that. 
I think there's a t-h-a-u-p on the end of it.
    Chairman Levin. That will give us another reason to go back 
and read your book, though. [Laughter.]
    Senator Webb. I can summarize it for you very quickly. 
[Laughter.]
    Admiral, you mentioned something here about the Naval 
Academy increasing in size in order to resource the growth in 
the Marine Corps? Am I hearing you correctly?
    Admiral Roughead. That's right, Senator. We would like to 
take the Naval Academy brigade strength from 4,300 to 4,400, 
because of the increased number of officers that are being 
commissioned into the Marine Corps in support of the growth.
    Senator Webb. What percentage of the Naval Academy now goes 
into the Marine Corps?
    Admiral Roughead. We're not set on a percentage. I think if 
you were to run the percents it's almost 30-plus percent a year 
that are now going into the Marine Corps.
    Senator Webb. That's incredible. When I look back, when we 
had a 4,100 Midshipman Brigade and the Marine Corps was 190,000 
going into Vietnam, I think they had about a 6\3/4\ percent 
were going into the Marine Corps. Then the Marine Corps went 
from 190,000 to 304,000 during Vietnam and they went up to 10 
percent. When it was at 200,000 when I was in the Pentagon, I 
don't think it was much higher than 10 percent.
    Admiral Roughead. It was about 16 percent when I was the 
Commandant there.
    Senator Webb. What you're really seeing is the impact of a 
reduction in the size of the Navy, I think, with those 
percentages going over.
    These people don't go through regular Marine Corps Officer 
Candidate School (OCS), do they General?
    General Conway. They do not, sir, any longer. They do go to 
Quantico if interested in a Marine Corps option for a 3-week 
period after their third year.
    Senator Webb. Mr. Secretary, when it grew above 10 percent 
when I was Secretary of the Navy, I mandated that those Naval 
Academy midshipmen who wanted to go in the Marine Corps should 
go through the bulldog program the same as the ROTC midshipmen, 
and I think at the time it was done because we were looking at 
the class standing of Naval Academy midshipmen in basic school 
and it had gone way down.
    We don't ever worry about the people at the top. They're 
always going to do well, the people who are really motivated. 
But when you have that high a percentage, I would be curious as 
to see what the spread looks like. You want to make sure that 
everybody's motivated. The Marine Corps has a different 
perspective than a lot of different areas.
    General Conway. I can talk to that myself, sir, if you 
would like. When I was commanding officer at the basic school I 
did a like study and, as you might imagine, our Marine Enlisted 
Commissioning Program was absolutely producing the best 
students, Naval ROTC and Platoon Leader Class a distant second. 
At that point Academy was about the same as OCS, and that was 
troubling to us.
    We started a series of engagements, and I can tell you, 
sir, it's quantum better today. Their performance today is akin 
to their intelligence levels and the 4 years of experience 
they've gained at the Academy.
    Admiral Roughead. Senator, I'd say it turned around when I 
was the Commandant at the Naval Academy. [Laughter.]
    Admiral Roughead. But I would also say that, in addition to 
supporting the Marine Corps growth, the Naval Academy remains 
one of the primary institutions where we get our technical base 
from. So that's why the growth is important. It can't be zero 
sum and that's why we need the growth.
    Senator Webb. Having had an engineering degree shoved down 
my throat during 4 years at the Naval Academy, I know what you 
mean about technical requirements. But I'd kind of be curious 
to see those numbers, actually.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I just want to say that no one has been more of a gentleman 
and more of a class act in terms of a Senator since I arrived 
here than Senator Warner. It's a wonderful time when we can get 
past all that party label stuff and acknowledge this. It's what 
makes this place good for our democracy. So I certainly echo 
the warm sentiments that Senator Webb had.
    Senator Warner. I thank my colleague.
    Senator McCaskill. Thank you.
    I note in your testimony, Admiral, that you're concerned 
about the tactical aircraft inventory shortfall. The older F-
18s are being used, as you well know, far beyond their original 
design. I know your inventory is really challenged by the 
delays in the JSF, and we're talking about now, depending on 
who you talk to and depending on whether we want to be very 
optimistic or whether we want to be overly realistic, somewhere 
between 2-, 3-, and 6-year delays.
    The Carrier Air Wing 7, it's my understanding, is missing 
all of its tactical aircraft at this point and is playing kind 
of a shell game to cover its mission responsibilities. I think 
your inventory models predict at best a 70-aircraft shortfall 
during this transition to JSF.
    My question is, would you comment on your plans in fiscal 
year 2009 and beyond to fix the shortfall? Do we need to 
strongly consider a new multi-year procurement of F-18s to fill 
in the gap in terms of these carrier deck shortfalls, 
particularly in light of our mission in that regard and the 
national security concerns?
    Admiral Roughead. Senator, thank you very much for the 
question. The JSF is going to be a capability that will add 
greatly to our Navy capability in the future. That said, as I 
look at how we are using our strike fighter aircraft, we're 
using them at quite a rate. In fact, we have a study underway 
currently to see if we can stretch out the life of the Hornets 
that are in service today.
    As I look at our future air wing--and your number is very 
close to ours. We're saying it's 69. We believe in the 2016 
timeframe that we will have a dip. We have to look at what are 
the mitigators for that. I do not believe we can stretch the 
Hornets any more than we're seeking to do right now.
    But as we go into preparation of our fiscal year 2010 
budget this is something that is foremost in my mind, because 
our ability to project power around the world is a function of 
our carriers and a function of our air wings, and we have to 
make sure that we have the capabilities that we need.
    Senator McCaskill. I'm encouraged that you're looking at 
that, and I certainly--obviously, I think we have a lot to be 
proud of in the F-18. It's under budget and on time and it has 
been a great aircraft for its purpose. Frankly, having a few 
more of them around during this transition period of time I 
think is not something that we should shy away from, 
particularly realizing the gap that's coming.
    Admiral Roughead. It's a great airplane and I'm pleased 
we've been able to transition it into an electronic attack 
variant that I think will be very valuable to us as well.
    Senator McCaskill. It's terrific.
    Also, the only other question I had today for you--and 
frankly, any of you can speak to this. I know that Senator 
Kennedy talked about the MRAP problems in terms of the 
availability. I'm concerned about the whistleblower, Franz 
Gayl. I would like some reassurance from you that Mr. Gayl is 
not going to face any adverse employment decisions or actions 
because of his whistleblowing in regard to the study that was 
done, that has now come out in part of the public discourse.
    General Conway. Ma'am, he works for the Marine Corps. I 
have purposely stayed at arm's length from that discussion. I 
have never met Mr. Gayl or Major Gayl.
    There is, I will say, I guess, an investigation underway to 
determine whether or not he has complied with the guidance that 
was given to him by his boss. We are making every overture to 
ensure that we don't violate any aspects of his whistleblower 
status. But if it's determined that Mr. Gayl has done something 
other than what his leadership and his bosses have instructed 
him to do, then that outcome will have to be determined, as to 
what happens to Mr. Gayl.
    Senator McCaskill. I know that General Magnus recently 
referred this to the DOD IG, which I think is an appropriate 
move. I know how hard it is internally to be careful in this 
regard, and I know that there are some whistleblowers who have 
not followed direct instructions and who have gotten out in 
ways that maybe they shouldn't have.
    But the impact that dealing negatively with whistleblowers 
has on the entire operation is something that we really need to 
avoid. Whistleblowers are so important to accountability, 
regardless of whether we're talking about a bureaucratic agency 
that's dealing with the taxpayers or whether we're talking 
about the military. I just want to make sure that I didn't 
leave this hearing without expressing to you how strongly I 
feel and how closely I'll be watching to make sure that any 
whistleblower, and this whistleblower in particular, is treated 
with respect and deference and under the letter of the law in 
terms of any potential adverse consequences because of what he 
did.
    I just think it's tremendously important and I just didn't 
want to leave the hearing without expressing that in very 
strong terms.
    General Conway. I do appreciate that and I can assure you 
from my leadership position he will be treated in accordance 
with the law.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCaskill.
    Admiral, I think you made reference to the number of P-3s 
that are grounded.
    Admiral Roughead. Yes, sir.
    Chairman Levin. As 39?
    Admiral Roughead. 39 is what we've grounded.
    Chairman Levin. What's the total number of P-3s we have? Is 
that a third? What percentage of the total is that?
    Admiral Roughead. That's about a third of what we have 
operational.
    Chairman Levin. You can get us the precise number for the 
record, just to get some idea of that.
    Admiral Roughead. I will get back to you.
    [The information referred to follows:]

    There are currently 157 P-3C aircraft in the inventory. The 39 Red 
Striped aircraft comprise approximately 25 percent of the total force.

    Chairman Levin. By the way, we'll just have a brief second 
round for those who want to ask some additional questions.
    On the MRAPs, General, your decision on the MRAPs, which is 
totally understandable, you explained it very well as to the 
various missions and what vehicles you need for which missions. 
When you purchase less or fewer MRAPs than expected, does the 
Army need the ones that you did not buy, do you know, and does 
that speed up delivery to the Army of their requirement because 
you're not going to be using all of the ones you originally 
planned on? Does that have any impact positively on the Army?
    General Conway. Sir, potentially, in that there would have 
been a distribution over time of those that were built that was 
depending upon the needs of the units in theater. Frankly, a 
part of our determination to recommend reduction of our buy was 
that we were not seeing the contacts in the west that the Army 
was still having, Baghdad, Diyalah, and up towards Mosul.
    So the answer I think is probably yes. That said, when we 
considered the reduction we looked at the impact that it would 
have on industry. We didn't want them to have bought up steel 
and transmissions and tires for a vehicle that we would 
suddenly say that we didn't need. There was no impact there.
    Chairman Levin. That would be a second question. But as far 
as the Army, you're not sure whether or not that brings them 
quicker to their requirement?
    General Conway. I think it's fair to say that it will, sir, 
because all those built on this last buy, which I think was 
December of this last year, will be Army. There will be no 
Marine vehicles in there.
    Chairman Levin. I'd like to talk to you about your troop 
levels. General, as I understand it in CENTCOM now, in Iraq and 
Afghanistan, you now have eight battalions; is that correct?
    General Conway. Sir, today as we speak we have eight 
battalions, that is correct.
    Chairman Levin. It's your intention to increase that to 10 
by March or in March? Is that your general plan?
    General Conway. Sir, it gets complicated, but our committed 
battalions will be 10 in March, because you will have the eight 
in Iraq and two more battalions, of course with the MEU 
headquarters and the support elements, going into Afghanistan. 
So from March through May the commitment will be 10 battalions.
    Chairman Levin. Then in May you're going to be bringing 
back two battalions as I understand it?
    General Conway. That is correct, sir.
    Chairman Levin. Then you'll be staying with eight through 
October?
    General Conway. That is correct, Senator.
    Chairman Levin. Now, is it your plan to draw down below 
eight in October? Is that your current plan?
    General Conway. Sir, the conditions under which the 
Secretary of Defense approved the request for forces was such 
that the deployments to Afghanistan represent 7-month 
deployments, which is our norm, for both the MEU and the 
battalion. So ostensibly those forces will be coming out in 
October of this year.
    Chairman Levin. Is it fair to say then that is what the 
current plan is, but it could be changed?
    General Conway. Mr. Chairman, that's exactly right.
    Chairman Levin. Now, on that Law of the Sea Convention that 
we made reference to--and I'm delighted to hear the 
administration is going to strongly support the ratification of 
that convention. It's my understanding that the Foreign 
Relations Committee voted that out again this Congress, and I'm 
wondering whether any of you or either of you may have 
testified before the committee, or was that your predecessors?
    Admiral Roughead. I did not testify. I believe Admiral 
Mullen testified, and I know Admiral Vernon E. Clark, USN 
(Ret.) did as well.
    Chairman Levin. He testified, okay.
    Senator Warner. Very strongly, if I might say, Mr. 
Chairman.
    Chairman Levin. That's great.
    I'm urging again that this convention be brought to the 
floor. I just think it's long overdue. It has great value in 
terms of the Navy, the way in which we can have orderly 
processes at sea working with other nations. My dear colleague, 
Senator Warner, was the person who actually signed the treaty, 
I believe on behalf of the country.
    Senator Warner. When I was Secretary of the Navy, I was the 
delegate for the Secretary of Defense to the Law of the Sea 
Conference in Geneva. It was about 36 years ago that I 
performed that service. It was someone different than the 
Incidents at Sea.
    But I commend you, Mr. Chairman, for bringing up this 
question of this treaty. It's important for the United States 
of America if we're going to continue to lead as the major 
maritime power, and we now have before us today the current 
team that's in charge of the Navy and they give unqualified 
support to this treaty. So thank you for bringing it up.
    Chairman Levin. I thank you. There's a wonderful picture of 
Senator Warner, if you have a chance to see it, when he was 
just a couple years younger, when he was, on behalf of the 
United States of America, initialing or signing fully that 
agreement. It's a wonderful bit of naval history, an important 
part to security, stability on the seas. It's a great history 
and I hope that we're able to confirm this while Senator 
Warner's still in the United States Senate.
    But a number of the benefits of the Law of the Sea 
Convention which have been cited were: the right of unimpeded 
transit passage through straits that are used for international 
navigation; a framework for challenging excessive claims of 
other states over coastal waters; and the right to conduct 
military activities in exclusive economic zones.
    Admiral, I believe you have said that the convention 
provides a stable, predictable, and recognized legal regime 
that we need to conduct our operations today and in the future.
    Admiral Roughead. Absolutely.
    Chairman Levin. So I wanted to get all that in the record 
because I will be asking the Majority Leader to bring that 
convention to the floor.
    The only other question I think I have is about the EFV. 
General, let me just ask you about the funding for that 
vehicle. This is really the missing piece in your over-the-
horizon assault goal. It's been in development, this vehicle, 
since the early 1990s. There was a cost breach of the Nunn-
McCurdy which occurred last year. That resulted in a delay. But 
there's a funding shortfall, as I understand it; is that 
correct, or is that not a funding issue at the moment?
    General Conway. Sir, I think at this point it's a 
developmental issue more than it is a funding issue. We have 
reduced our requirements by half in order to have just those 
vehicles that we sense that we have to need. We accept fully 
the reason why the Navy would not want to close closer than 25 
miles to an unfriendly shore. So you're precisely right, we 
have to find some way to bridge that distance and do it 
quickly.
    I'd ask the Secretary, sir, if he would have any comments 
about the funding or the development.
    Chairman Levin. Maybe you could comment on it. Mr. 
Secretary, is there a funding issue or is that a different 
problem?
    Secretary Winter. No, sir, I believe the issue here that 
you're referring to is a developmental one, where we went 
through the test and evaluation activities last year. While the 
vehicle was able to perform the vast majority of its 
objectives, the reliability was far from what we were looking 
for. So we went and took the program and said we needed to do a 
design for reliability and maintainability, with the hopes of 
being able to come up with a configuration that would reflect 
those types of improvements, give us the ability to maintain 
this critical asset on board ship, and have the availability 
and reliability that we expect out of a vehicle of this type, 
and make all of those changes before we went into production.
    Chairman Levin. Thank you.
    General Conway. Sir, if I could add one thing. We've talked 
some about the growth of other navies. I am going to China the 
end of next month. I'm invited to go out and ride aboard one of 
their new amphibious ships and then to be taken ashore in their 
equivalent of the EFV, that will ride well above the wave 
height at something exceeding 25 miles an hour.
    Chairman Levin. That's great. I think, by the way, these 
military-to-military contacts are valuable for all kinds of 
reasons, and that's a perfect example of it.
    General Conway. Yes, sir.
    Chairman Levin. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. Mr. Chairman, 
every now and then we should acknowledge the support that we 
get from our staffs. I wanted to thank a member of your staff, 
Fletcher Cork, for recognizing when the hearing started the 
temperature in this room was 64 degrees, and we have now got it 
up to 70.
    Chairman Levin. The conversation has not been heated at 
all. [Laughter.]
    Senator Warner. It's just the foresight of a very able 
staff member.
    Chairman Levin. New technology in operation here.
    Senator Warner. It's your staff.
    Chairman Levin. We want to thank you for recognizing my 
staff.
    Senator Warner. Thank you.
    Chairman Levin. They've done some other important things as 
well. Not recently. [Laughter.]
    Senator Warner. Notice all the laughter emanated on your 
side. [Laughter.]
    I want to talk a little bit about the family structure, 
which is so important to each and every one of those 
servicemembers, be it male or female, that's proud to wear the 
uniform. Admiral, I understand that you recently requested the 
Chairman of the Joint Chiefs to hold a tank session of the 
senior military leadership to address military health care 
costs and DOD medical issues. I hope that that will come to 
pass.
    We're fortunate in DOD to have the services of a man by the 
name of Dr. Alfred S. Casales, M.D. You're familiar with him?
    Admiral Roughead. Yes, sir, I know him.
    Senator Warner. Extraordinary achievement in the private 
sector as a cardiac surgeon, and he's heading up the team. He 
will undoubtedly be integral to this study.
    But tell us what you hope to achieve from bringing this up 
with your fellow members in the tank. Then, General, I'd like 
to invite you to address the same question. Because we have 
tried to improve health care. This committee has taken the 
leadership over many years. We did TRICARE for Life 
legislation. We had the very serious problem of, I just call it 
the Walter Reed syndrome, which awakened all of us to the need 
for further study. Now I think you're carrying it to another 
level.
    Admiral Roughead. Yes, sir. My motivation in recommending 
to the Chairman that the Chiefs talk about health care really 
stems from a couple of things. One is that as we look at what 
our people value, what our sailors and their families value, 
the surveys always point that health care is at the very top of 
the list.
    It is also true that the costs of health care are 
significant and that they are squeezing and putting pressure on 
budgets in ways that were not envisioned years ago.
    But most importantly, when you combine these things, and as 
we make adjustments in how we deliver care, whether it's 
privatized or direct care, I believe that the Chiefs must have 
a discussion as to what the nature of our operational health 
care will be, and in the case of the Navy and the Marine Corps 
we're an expeditionary force, we're a deployed force. So as we 
make changes to health care systems and how we budget for that, 
what effect does that have on the operational dimension?
    I believe that it's the Chiefs that must have that 
discussion. We can talk about the business plans and other 
things in other fora. But we collectively as Services, and as 
we become more joint in the providing of health care, I think 
it's time that we have this discussion. It's not aimed at any 
particular area.
    Senator Warner. I strongly commend you for that initiative.
    Would you like to add your perspective?
    General Conway. Sir, there's two or three points I'd like 
to offer. One, we with Navy medicine, I think, are doing a very 
good job with our wounded warriors. That includes PTSD and TBI, 
although we continue to, I think, do some discovery learning in 
terms of techniques. There is no lack of effort to provide the 
best possible medical care.
    The Navy has a forward-deployed footprint. The Admiral 
mentioned that they're expeditionary. They are. They're forward 
with us with teams sorting out these things really now in both 
theaters, and that's as it should be. What happens as an 
indirect result of that, and I'm attempting to manage it 
through discussions with the families and so forth, is that 
there is a shortfall in some of the hospitals and clinics. Our 
people wait a little longer, but they still get great treatment 
when they get in, and we're helping our families to understand 
that.
    One area that I find, though, that I think we need to place 
increasing attention and increasing concern are for those 
Exceptional Family Member Programs. We have stories out there 
of a first sergeant living in his mother-in-law's home, with 
his wife and two children, one of whom is an exceptional child. 
He is paying $80,000 a year for that treatment to that child 
and that's where all his income is going. He's a devoted 
parent.
    But the care that's being offered for some of our 
exceptional family members through the TRICARE system that we 
have now I think needs to take a closer look at those specific 
concerns and help these families, because they're having tough 
times otherwise.
    Senator Warner. They look to you as the uniformed boss. But 
I would like to invite Secretary Winter to follow on to the 
General's observation. I commend you for your recognition of 
the Navy-Marine Corps family as they've endured these high 
operational tempos, the initiatives you have outlined, adding 
4,000 child care spaces, authorizing 100,000 hours of respite 
care for families of deployed servicemembers, enhanced programs 
for children and youth, indeed at a price. Tell us a little bit 
about those initiatives?
    Secretary Winter. Sir, as has been said many times, we 
recruit sailors and marines; we retain their families. Ensuring 
that we're able to provide for an appropriate lifestyle and an 
appropriate environment for our families there is of absolute 
importance. Doing that at our Fleet concentration areas has 
been a major objective here. It has been somewhat easier, if 
you will, in those areas than it has been at some of the more 
farflung places that we operate, and in particular a little bit 
more challenging, obviously, for those families associated with 
our IAs and reservists that have been called up for Active 
Duty.
    What we're trying to do right now is to develop a whole 
range of programs and processes that can address the full 
spectrum of those families. The child development center 
investments that you referred to are a major part of that. That 
happens to be one of the highest priority items any time we go 
out and conduct surveys of families as to what is really 
important for them. Similarly, being able to provide the full 
range of support from the fleet and family service centers is 
increasingly important.
    What we've been doing of late, in addition to those 
activities, is affording mechanisms for families that are not 
co-located, that are not in those Fleet concentration areas, to 
participate in the call centers, the Internet Web sites, the 
other mechanisms that we've been able to identify, to be able 
to make sure that our families are taken care of and know how 
to get the resources that they need, no matter where they live.
    Senator Warner. I want to thank you for that initiative.
    Gentlemen, it's interesting, this July will mark 35 years 
of the All-Volunteer Force. Too much has been said about me 
here today, but I was privileged to be in the DOD in your 
position in July 1973 when the draft ended. We took a deep 
breath. I say ``we''; the whole of the United States, and 
particularly the military leaders, civilian and uniformed, 
decided to try an experiment that no other nation had ever 
tried. It has worked magnificently.
    As a matter of fact, I think it has worked better than any 
of us at that time had the vision to foresee. We have to 
protect it. I'd just like to wind up this session by hopefully 
receiving your assurances that in your collective professional 
judgment, if all three will respond to the question, that the 
All-Volunteer Force is very much alive and well and even 
strengthening.
    Mr. Secretary?
    Secretary Winter. Yes, Senator. I would argue it is not 
only necessary, but it is clearly possible. We just need to 
take care of our servicemembers and their families, and I think 
this Nation will continue to support us.
    Senator Warner. Admiral?
    Admiral Roughead. Senator, in June 1973 you spoke at my 
graduation.
    Senator Warner. At Annapolis.
    Admiral Roughead. You headed me fair, as we say in the 
Navy, and I'm honored that you're here at my first posture 
statement.
    The reason I bring that up is because of your leadership 
and your concern for the men and women of our Navy. That today 
I serve in the best Navy I have ever served in, and it's a 
function of the All-Volunteer Force, the care that you and this 
committee, the attention and the thought that goes into truly 
creating an environment where our young men and women can come 
and be fulfilled personally and professionally, has made our 
Navy what it is today. I thank you and I thank the committee 
for everything that you do.
    Senator Warner. General?
    General Conway. Sir, I joined the Marine Corps in 1971 in 
the operating forces. That was before the All-Volunteer 
military. There is no comparison between today's military and 
the people we had in our ranks at that point, absolutely no 
comparison.
    I would offer that a small All-Volunteer military is really 
put to the test in a protracted conflict such as we see here 
now. But use of our Reserves, I think, across all Services has 
helped to mitigate that, and we're managing that, I think 
effectively, in many instances.
    I would end, sir, by saying, however, that we're now a 
country of over 300 million people. Less than 1 percent of our 
numbers wear the uniform at any point in time. That is our 
warrior class. That's our insurance against all those things 
out there that could in some way do damage to our country. I 
would only ask that you continue to support and sustain those 
people to the best of your ability, because we owe them a great 
deal.
    Senator Warner. I want to thank you for those comments. As 
a matter of fact, I leave here to go to the floor at 2 o'clock 
to join Senator Webb, who's really been a leader in so many 
initiatives in the short time he's been in the Senate, to put 
forth legislation to strengthen and broaden the GI Bill.
    When I reflect on my modest career, it would not have been 
achievable had I not received a GI Bill education for modest 
service in World War II and a law degree for again modest 
Active Duty in the Marine Corps, this time during the Korean 
Conflict. I think this generation is entitled to the same 
benefits as my generation had. That educational program was 
probably the best investment that the American taxpayers ever 
made. It started in 1944.
    I mention that only because in my judgment the initiatives 
of Senator Webb and others who joined on this field are going 
to strengthen and solidify the foundation on which the All-
Volunteer Force exists. I think it's an important step. Sleep 
with one eye open. We cannot ever revert back to the draft in 
my judgment, absent some extraordinary unforeseeable situation.
    You remember, General--and I think probably, Admiral, you 
saw the vestiges of the draft--the problem that we had, the 
disciplinary problems, because there were just individuals who 
were there, not because they raised their hands and 
volunteered, as does every single person in uniform today. They 
are there because they had the courage and the willingness to 
raise their hand and said ``I volunteer.''
    So sleep with one eye open and guard it.
    I thank you again, Senator, for your comments.
    Chairman Levin. Thank you, Senator Warner. A lot's been 
said about you today.
    Senator Warner. Too much.
    Chairman Levin. Well, no, not enough. A lot more is going 
to be said about you in the months ahead. But most importantly, 
it's not just what you've contributed to the security of this 
country, representing your beloved Commonwealth, but we're 
going to look forward to many, many, many, many more years of 
your contribution to the security of this country after you 
leave this particular place early next year.
    Senator Warner and I have exchanged this gavel many times 
as chairman. I think we've each been chairman three times now. 
I'm just wondering, Senator, since this is going to be, I 
think, your last posture hearing, unless we can slip in an 
additional one just for old time's sake before you leave, if 
you would gavel this hearing to a close.
    Senator Warner [presiding]. This is an unexpected pleasure. 
Thank you. A third of a century of my life has been with the 
Army, the Navy, the Marine Corps, and with our military, and I 
wouldn't be here today but for what they did for me, and I 
don't think I've done in return that much for them. But I thank 
you for this honor.
    Thank you. We are adjourned.
    [Questions for the record with answers supplied follow:]
                Questions Submitted by Senator Jack Reed
            increases in navy science and technology funding
    1. Senator Reed. Secretary Winter and Admiral Roughead, the Navy 
mission has undergone significant change where the threats, theaters of 
operations, and increasingly joint context of operations have shifted 
significantly. One would expect a `bump' in science and technology 
(S&T) funding associated with technology enablers for new mission 
capabilities. This can be observed in the Army funding the S&T efforts 
to support the Future Combat System (FCS) when it was evident that a 
transformation to a faster, leaner, more connected ground force was 
needed. The Army got their S&T bump starting in 2005 and is now coming 
back down. Many of the technologies will not necessarily be tied to a 
platform, but are part of the overall theater combat network. We are at 
a point in time in the Navy where the force structure is changing and 
several new ship and air platform types are in the works. Typically, 
there is an increase in S&T before new platform types are introduced 
into the fleet as new systems technologies are developed for the 
platform. We are at that point in the Navy where a bump should be 
expected. The Navy budget for S&T has essentially flat-lined since 2004 
including the budget presented this year. Are we falling behind the 
curve in funding research and development (R&D) to support both 
shipboard and expeditionary force advanced capability?
    Secretary Winter and Admiral Roughead. We are not falling behind. 
The Navy has renewed its commitment to a strong S&T leadership role as 
reflected in the 6 percent increase in S&T investment in the 
President's budget request for fiscal year 2009. We continue focusing 
our S&T investments on greater integration of capabilities and on 
aggressively tapping into the opportunities provided by the global 
movement of ideas, technology, and innovation.
    Our S&T investments present a well-reasoned balance between applied 
science, focused on near-term challenges, and basic research to make 
longer-term investments to advance the frontiers of science. Our 
investment in basic and early applied research will build the 
scientific foundation for future technologies, emphasize key ``game 
changing'' initiatives that can provide disruptive technologies to our 
sailors and marines, and focus on the transition of critical S&T 
programs to the acquisition community and the fleet.
    The naval S&T strategy provides this balance by directing minimum 
investments as follows:

         At least 40 percent in discovery and invention (basic 
        research and early applied research)
         At least 30 percent in acquisition enablers, primarily the 
        Future Naval Capabilities (applied and advanced research)
         At least 10 percent in leap ahead innovations such as 
        Electromagnetic Railgun (applied and advanced research)
         At least 10 percent in quick reaction S&T (advanced research)

    2. Senator Reed. Secretary Winter and Admiral Roughead, if the Navy 
is falling behind in funding on R&D to support shipboard and 
expeditionary force advanced capability, how much is needed to supply 
an adequate `bump' in Navy S&T funding?
    Secretary Winter and Admiral Roughead. The Navy is not falling 
behind on R&D funding. We value S&T to give us a warfighting advantage 
and enable new innovative naval operating concepts. We have increased 
our investment in S&T by 6 percent in the President's budget request 
for fiscal year 2009 and 1.5 percent across the Future Years Defense 
Program (FYDP).
                                 ______
                                 
                Questions Submitted by Senator Evan Bayh
                        unmanned aerial systems
    3. Senator Bayh. General Conway, the MQ-9 Reaper, an Unmanned 
Aerial System (UAS), continues to distinguish itself during challenging 
combat operations in Southwest Asia supporting U.S. and coalition 
forces in combat abroad. U.S. and allied military commanders engaged in 
these operations have identified the MQ-9 Reaper as consistently key to 
mission success. The capabilities of the MQ-9 Reaper equipped with the 
DB-110 Reconnaissance Pod meet U.S. Marine Corps combat requirements in 
Iraq and Afghanistan, providing persistent endurance, superior wide-
area/day-night surveillance, precision strike, and beyond-line-of-sight 
operations, while also providing a 3,000 pound external payload 
capacity to meet future Marine Corps combat needs. However, the Marine 
Corps currently lacks these UAS capabilities and their dedicated 
employment. What are the combat benefits the Marine Corps could derive 
from the MQ-9 Reaper's immediate strike capability assuming the MQ-9 
Reaper were dedicated to and under direct control of Marine Corps 
fighting forces?
    General Conway. The MQ-9 Reaper is a large, multi-function UAS with 
a myriad of capabilities for providing day/night ISR and weapons 
employment. The Marine Corps could certainly benefit from dedicated MQ-
9 Reaper support. However, UAS support is a zero sum equation and the 
Marine Corps is currently meeting its commitments with the RQ-7B 
Shadow.
    Operational control (Direct Support vice General Support to the 
Joint Force) of an RQ-9 system by the Marine Corps would be in conflict 
to the Joint Force Commander's employment plan and would be achieved at 
the cost of support to another joint or coalition unit. Beyond 
operational support, the Marine Corps could not support the MQ-9 system 
with regard to logistics or manpower. The MQ-9 Reaper is three times 
longer, five and a half times wider, and an order or magnitude heavier 
than the currently fielded RQ-7B Shadow. The size and weight of the MQ-
9 limit its ability to be incorporated into the expeditionary 
warfighting methodology used by the Marine Corps.
    The future Tier II capability desired by the Marine Corps will 
retain its expeditionary capability with a requirement that it be 
transportable by a CH-53 aircraft. The MQ-9 does not meet this 
requirement.
    If given the opportunity to operationally control an MQ-9 system 
for direct support to the MAGTF, the USMC would certainly derive a 
short-term benefit. The cost to the Joint Force Commander could be 
considered detrimental given the limited availability of MQ-9 assets. 
It is a matter of debate as to the priority for MQ-9 support.

    4. Senator Bayh. General Conway, could the MQ-9 Reaper's and the 
DB-110 Reconnaissance Pod's capabilities complement Marine aviation 
functions, to include: Offensive Air Support, Aerial Reconnaissance, 
Assault Support, Electronic Warfare, Command and Control of Aircraft 
and Missiles, and Anti-Air Warfare?
    General Conway. Yes. Direct support to the MAGTF provided by the 
MQ-9 Reaper would complement the six functions of Marine aviation. The 
difference between the benefit provided and the associated cost of 
ownership is the deciding factor regarding the MQ-9 Reaper. If the 
Marine Corps were directed to support the MQ-9, the other aviation 
functions would suffer due to the logistical and manpower requirements 
to operate and control the system (e.g. maintainers, aviators, command 
and control officers, etc).

    5. Senator Bayh. General Conway, could the Marine Corps benefit 
from an extended Marine Corps MQ-9 Reaper/DB-110 Reconnaissance Pod 
combat evaluation in Southwest Asia, while operating under direct and 
dedicated Marine Corps control?
    General Conway. Yes, the Marine Corps could stand to benefit from 
MQ-9 Reaper support. Two key assumptions are critical to a successful 
evaluation. First, if all system support was provided by the owning 
agency (e.g. operators, maintenance, and controllers). Second, if the 
tempo from that agency matched our battle-rhythm. The rate at which 
tasks were turned into reconnaissance and actionable intelligence would 
have to be responsive and timely to meet the Marine Corps concept of 
operations. Given both assumptions, the Marine Corps would benefit from 
a combat evaluation of the MQ-9 Reaper.

              nuclear and fossil-fuel navy power analysis
    6. Senator Bayh. Secretary Winter and Admiral Roughead, the Navy 
has been studying variants of the next cruiser, CG(X), including 
nuclear power, in an Analysis of Alternatives (AOA), which was to be 
completed in 2007. I am extraordinarily pleased the Navy is undertaking 
this effort, and compliment the Navy's leadership and vision in 
pursuing such an in-depth study so critical to our Nation's security 
for the next half century. Is this analysis a true apples-to-apples 
comparison of nuclear and fossil-fueled ships, taking into account:

        <bullet> the fact that procurement costs for nuclear ships 
        include the cost of fuel for the ship's lifetime, while 
        procurement costs for fossil-fuel ships do not include a 
        lifetime of fuel;
        <bullet> the cost of the fuel supply infrastructure for fossil-
        fueled ships, including costs to protect supply ships as 
        capital ships (including the potential growth of fuel and 
        infrastructure costs over the life of the ship);
        <bullet> the value of energy independence, increased mobility, 
        and reduced carbon emissions from nuclear ships;
        <bullet> the value of more space for weapons, unmanned 
        vehicles, and aircraft fuel in nuclear ships due to space saved 
        by not storing fuel for power;
        <bullet> long-term savings on submarines and aircraft carriers 
        due to increased nuclear production; and
        <bullet> the value of nuclear power's ability to accommodate 
        the high energy demands of future weapon systems?

    Secretary Winter and Admiral Roughead. The Maritime Air and Missile 
Defense of Joint Forces AOA, which includes consideration of CG(X) 
platform alternatives, examined and compared the Life-Cycle Costs 
(LCCs) for nuclear and fossil-fueled ship concepts on an equal basis. 
The LCCs include costs for development, procurement, operations and 
support (including fossil fuel usage), and disposal. This cost 
comparison includes the cost of nuclear reactor cores supporting ship 
life in the upfront acquisition cost comparisons. For the operating and 
support costs, a delivered fully burdened cost of fuel is used in 
accordance with Office of the Secretary of Defense guidance and the 
Defense Energy Support Center price which includes direct costs (fuel 
price, refinement, transportation, facilities/operations) as well as 
proportionate indirect costs (Navy storage and handling, oiler 
acquisition and operating costs, and environmental related costs).
    The cost of protecting supply ships or growth in fuel supply 
infrastructure was not evaluated in the AoA. As CG(X) is envisioned to 
operate with Strike Groups and/or Surface Action Groups, accordingly no 
major impact to the Combat Logistics Force (CLF) structure is 
anticipated with either a new nuclear cruiser or a new efficient, high 
endurance, fossil fueled cruiser because CG(X)/CGN(X) is not the 
limiting ship class for re-supply. Should the Navy consider platform 
alternatives or operating concepts that affect these assumptions, the 
Navy will consider the impact to the CLF in the decision process.
Regarding the value of increased mobility:
    While any financial benefits that would accrue from operational 
advantages were not included in the cost comparison, studies of 
operational sufficiency conducted in support of the AoA suggest that 
nuclear power allows higher transit speeds in surge-to-theater missions 
without underway replenishment. Nuclear power offers increased time 
between replenishment resulting in longer time on station during 
warfighting operations.
    The value of energy independence beyond the operational benefits to 
a nuclear-powered CG(X) was not evaluated in the AoA. Quantification of 
the impacts of nuclear power on strategic energy independence is 
difficult in a cost comparison.
Regarding the value of reduced carbon emissions from nuclear ships:
    The value of reduced carbon emissions was not evaluated during the 
AoA. Design and operation of a future CG(X) platform will comply with 
applicable Federal, State, and local statutes.
Regarding the value of more space for weapons, unmanned vehicles, and 
        aircraft fuel in nuclear ships due to space saved by not 
        storing fuel for power:
    Development of ship design concepts to support the assessed 
operational requirements (including weapons, unmanned vehicles, and 
aircraft fuel) in the AoA included examination of the design impacts of 
alternative propulsion systems such as machinery space and fuel tank 
requirements.
Regarding long-term savings on submarines and aircraft carriers due to 
        increased nuclear production:
    The AoA considers but did not specifically include the long-term 
savings (5-9 percent) on submarines and aircraft carriers due to 
increased nuclear production.
Regarding the value of nuclear power's ability to accommodate the high 
        energy demands of future weapon systems:
    The ability to accommodate higher electric energy demands 
associated with future weapon and sensor systems is a function of 
electrical generation and distribution capacity, and is independent of 
fuel type (nuclear vs. fossil fuel). Flexibility in accommodating 
increased electric loads can be introduced into either nuclear or 
fossil fuel propulsion plant designs, although fossil fuel endurance is 
degraded with electric load growth.

    7. Senator Bayh. Secretary Winter and Admiral Roughead, when will 
the results of the AoAs be complete and made available to Congress?
    Secretary Winter and Admiral Roughead. The results of the Maritime 
Air and Missile Defense of Joint Forces AoA, more commonly referred to 
as the CG(X) AoA, were delivered to the Navy Staff in January 2008. The 
Navy Staff is reviewing this comprehensive and lengthy report. The 
report is over 600 pages of information and reflects 18 months of work. 
The Navy is conducting a series of internal reviews prior to making 
final decisions in several critical areas. I have been updated on the 
progress of the internal Navy AoA reviews. Once complete, the AoA 
Report will be forwarded from the Navy Staff via the Secretary of the 
Navy's Office to the Office of the Secretary of Defense for final 
approval. The Office of the Secretary of Defense will have the final 
determination on when the AoA will be made available to Congress.

    8. Senator Bayh. Secretary Winter and Admiral Roughead, if the cost 
of fuel, as well as the costs of operating and protecting supply ships, 
were added to the upfront costs of fossil-fueled ships, what would the 
difference in upfront costs be for nuclear and fossil-fuel cruisers?
    Secretary Winter and Admiral Roughead. The Maritime Air and Missile 
Defense of Joint Forces AoA, which evaluated CG(X) platform 
alternatives, examines and compares the LCCs for the nuclear and fossil 
fueled ship concepts on an equal basis based on the fully burdened cost 
of fuel to include the operations of the supply ship. The AoA did not 
evaluate the cost of protecting supply ships. As CG(X) is envisioned to 
operate with Strike Groups and/or Surface Action Groups, no major 
impact to the CLF structure is anticipated with either a new nuclear 
cruiser or a new efficient, high endurance, fossil fueled cruiser 
because CG(X)/CGN(X) is not the limiting ship class for resupply. 
Should the Navy consider platform alternatives or operating concepts 
that affect these assumptions, the Navy will consider the impact to the 
CLF in the decision process.

    9. Senator Bayh. Secretary Winter and Admiral Roughead, has the 
Navy considered alternative funding methods for nuclear fuel--for 
instance, funding nuclear fuel with the same appropriations fund that 
is used for fossil fuels--to reduce the difference in procurement costs 
in the Shipbuilding and Conversion, Navy (SCN) fund? If not, why not?
    Secretary Winter and Admiral Roughead. No, the Navy has not 
considered alternative funding methods for reactor cores for new 
construction ships. These funds are required to support construction. 
Changing the appropriations to procure these reactor cores represents 
no advantage to the Navy.

    10. Senator Bayh. Secretary Winter and Admiral Roughead, absent the 
current budget approach for nuclear fuel in SCN and fossil fuel in 
Operation and Maintenance, Navy, which power plant--nuclear-powered or 
fossil-fueled--will provide operationally superior capabilities for a 
cruiser able to meet the Navy's drastically increasing operational 
tempo and support Ballistic Missile Defense (BMD) and other future high 
energy weapons systems?
    Secretary Winter and Admiral Roughead. The budget approach has no 
impact on operational capability. However, studies conducted in support 
of the Maritime Air and Missile Defense of Joint Forces AoAs, which 
included consideration of CG(X) platform alternatives; assess that 
nuclear power offers increased time between replenishment resulting in 
longer time on station during warfighting operations and higher transit 
speeds in a surge-to-theater scenario.
    Cruisers currently deploy with other fossil fuel ships including 
CLF assets that can provide refueling at sea capability in the existing 
air defense concept of operations. The operational impact of reduced 
operational presence due to replenishment at sea is minimized if 
operating distances between CLF assets and the CG(X) remain small.
    The ability to accommodate higher electric energy demands 
associated with future weapon and sensor systems is a function of 
electrical generation capacity, and is independent of fuel type 
(nuclear vs. fossil fuel). Flexibility in accommodating increased 
electric loads can be introduced into either nuclear or fossil fuel 
propulsion plant designs, although fossil fuel endurance is degraded 
with electric load growth.

    11. Senator Bayh. Secretary Winter and Admiral Roughead, several 
years ago, the Nation's various shipyards were consolidated under two 
shipbuilding companies, to achieve greater efficiency and reduced 
costs. Have those predicted results been realized in savings in 
shipbuilding costs?
    Secretary Winter and Admiral Roughead. The consolidation of the 
shipyards under two shipbuilding companies allows those shipbuilders 
more flexibility to take a sector view in balancing their resources and 
facilities as they determine the most efficient approach in the 
production process. The Navy is encouraged by General Dynamics' and 
Northrop Grumman Shipbuilding's recent attempts to explore corporate-
wide efficiencies across their shipyards. The innovative design and 
build practices being implemented by General Dynamics Electric Boat and 
Northrop Grumman Shipbuilding Newport News in the Virginia-class 
Submarine Program serves as a model for other programs. Cost reduction 
goals are being realized and as a result the Navy will begin procuring 
two submarines per year in fiscal year 2011, 1 year earlier than 
previously planned. General Dynamics has also used Electric Boat's 
designers on the DDG-1000 design contract and Northrop Grumman Newport 
News resources have been used to support production of ships at 
Northrop Grumman Ship Systems. The Navy believes greater efficiencies 
and cost savings are possible as industry further examines the 
potential for corporate-wide savings.

    12. Senator Bayh. Secretary Winter and Admiral Roughead, both of 
the Nation's shipbuilders own nuclear and non-nuclear shipyards. Would 
shifting contracts to the shipbuilders vice individual shipyards better 
facilitate construction of future classes of nuclear-powered ships, by 
requiring the shipbuilders to most efficiently allocate their resources 
and distribute their work throughout the individual shipyards?
    Secretary Winter and Admiral Roughead. Awarding a nuclear 
shipbuilding contract to the ``parent'' corporation will not 
significantly change the allocation of ship components or systems 
within the corporation. The Navy awards contracts to the legal entity 
capable of performing the work. In most cases, the legal entity that 
possesses the qualifications, certifications, facilities, and resources 
to construct and deliver nuclear-powered ships is the individual 
shipyard, not the parent company. There is currently no contractual 
prohibition against sharing work across sectors of the same 
corporation, and shipyards do that. The Navy, in collaboration with 
industry partners, determines the most efficient manner to build ships, 
subject to the requisite technical approvals and competencies of the 
specific shipyards.

                          modular construction
    13. Senator Bayh. Secretary Winter and Admiral Roughead, modular 
construction has been very successful for the Virginia-class submarine 
program. How will the Navy apply this successful method of modular 
construction to other programs, particularly the nuclear cruiser 
program?
    Secretary Winter and Admiral Roughead. Modular construction has 
been a standard practice for more than 2 decades (e.g., DDG-51, LPD-17, 
T-AKE, and DDG-1000). The Navy seeks increased use of modular 
construction to maximize pre-outfitting and testing. Such efficient 
construction methods are planned for incorporation into any cruiser 
alternative. Northrop Grumman Shipbuilding-Newport News and General 
Dynamics Electric Boat are the Nation's two authorized and experienced 
nuclear qualified construction shipyards. Non-nuclear sections of 
future nuclear-powered ships could be built by other shipyards 
experienced in Naval Surface Combatant construction (General Dynamics 
Bath Iron Works and Northrop Grumman Shipbuilding-Gulf Coast). The 
method and location of construction of potential additional nuclear-
powered ship classes have not yet been determined. Lessons learned for 
efficient modular construction in the Virginia- and Ford-class programs 
will be applied to any new nuclear ship construction plan.

                  number of navy ships and submarines
    14. Senator Bayh. Secretary Winter and Admiral Roughead, given the 
fact that the number of Navy submarines will dip significantly below 
the Navy's stated minimum requirement of 48 submarines in about 20 
years, are there ways to rearrange the Navy's shipbuilding budget to 
facilitate more submarines sooner?
    Secretary Winter and Admiral Roughead. The shipbuilding plan 
detailed in the Navy's Report to Congress on Annual Long-Range Plan for 
Construction on Naval Vessels for Fiscal Year 2009 reduces the number 
of years that SSN force structure is below 48 from 14 years (per fiscal 
year 2008 plan) to 12 years. The 30-Year Shipbuilding Plan is the best 
balance of anticipated resources to the Navy's force structure 
requirements. Having less than 48 attack submarines (from 2022 through 
2033) is not ideal, but the long-term risk incurred is manageable as 
part of a stable shipbuilding plan that is properly balanced within 
anticipated resources. A two submarine per year build rate is good for 
Navy (cost and operational requirement) and for industry (stable 
market).
    The Navy is pursuing a three-part strategy to mitigate the risk 
incurred by the SSN shortfall by reducing the construction time of 
Virginia-class submarines from 72 to 60 months, extending the service 
life for 16 SSNs (ranging from 3 to 24 months in length), and extending 
the length of selected SSN deployments from 6 to 7 months. This 
strategy will reduce the impact of the projected dip in submarine force 
structure in the 2020-2033 time period and provide for all current and 
projected Combatant Commander critical forward presence requirements.

    15. Senator Bayh. Secretary Winter and Admiral Roughead, absent 
budget restraints, what is an achievable procurement schedule that 
minimizes national security risks and accelerates the timeline to get 
to a 313-ship Navy?
    Secretary Winter and Admiral Roughead. The budget submitted 
represents the best balance of resources to warfighting requirements. 
However, the Navy continues to evaluate the threat and evolving 
security environment to determine what, if any, adjustments to the 
force structure may be required. The Navy shipbuilding plan contains a 
313-ship force to meet the need in the 2020 time period.
    The Navy has examined the feasibility of increased shipbuilding in 
fiscal year 2009. Most of the ships in the Navy's construction 
inventory cannot be accelerated due to programmatic risk or production 
limitations. For other ships in production, such as DDG-51 class ships, 
in order to award and construct additional ships, numerous Government 
Furnished Equipment and Contractor Furnished Equipment vendor base 
issues would need to be resolved.
    LPD-17 class Amphibious Assault Ship and T-AKE Dry Cargo Carrier 
could accelerate the shipbuilding plan, but doing so would imbalance 
competing priorities to meet warfighting capability requirements across 
all warfare areas within the limits of Navy Total Obligating Authority.
    Given current industrial base capacity, the Navy's plan to achieve 
the required 313-ship force by the fiscal year 2020 time period, and 
other competing Navy requirements that must be met, the Navy's current 
procurement schedule represents the appropriate approach to achieve the 
required warfighting capability.

    16. Senator Bayh. Secretary Winter and Admiral Roughead, should SCN 
funding be increased or budgeting methods for ship procurement--
including submarines and nuclear ships--be revised to facilitate 
achieving the 313-ship Navy?
    Secretary Winter and Admiral Roughead. The Navy examined the 
feasibility of increased shipbuilding investment in fiscal year 2009. 
Given the current industrial base capacity and other competing Navy 
requirements, the fiscal year 2009 budget request of $12.4 billion is 
sufficient. The Navy plans to increase shipbuilding investments from 
$12.4 billion in fiscal year 2009 to over $17.9 billion in fiscal year 
2013. Stability in the shipbuilding program will be key in cost 
control.
    The current budgeting methods for ship procurement are sufficient. 
It is the Navy's policy to fully fund the cost of shipbuilding programs 
in the year of contract award, with the exception of incremental 
funding for aircraft carriers and large deck amphibious ships. While we 
have no plans for expanding incremental funding, we will continue to 
assess methods that responsibly optimize ship procurement.
                                 ______
                                 
               Questions Submitted by Senator John Warner
            competition in navy surface ship combat systems
    17. Senator Warner. Admiral Roughead, the Navy's first Quarterly 
Report to Congress on Naval Open Architecture, submitted this month, 
states: ``The Submarine Domain's Acoustic Rapid Commercial Off-the-
Shelf Insertion (ARCI) program is widely recognized as the Navy's most 
mature Open Architecture program. Based on studies in 2006, the 
development and production costs for the ARCI model process were 
roughly 1/6th of those for previous systems acquired under the 
traditional ``Mil Standard'' model. Consequent operating and support 
costs were approximately 1/8th of those for predecessor systems.'' 
That's an 83 percent reduction in acquisition costs and an 88 percent 
reduction in annual operating costs for the Navy's entire submarine 
fleet for the equipment acquired under this program. The key to 
achieving this unprecedented result was use of Open Architecture 
approaches and open business models involving continuous competition 
among businesses.
    Last year the committee required the Navy to report quarterly to 
Congress on how it plans to achieve similar results for surface ships. 
The Navy's report shows that there is a lot of Open Architecture 
activity going on in the Navy. Absent is any meaningful activity to 
open up competition--i.e. the business model--for the combat systems on 
Aegis destroyers and cruisers, which are by far the most numerous ships 
in the fleet. This is especially important since the contract for Aegis 
combat systems on Navy surface ships has not been competed since 1969. 
The Navy has already approved two sole-source justifications to spend a 
total of $2.5 billion with the incumbent Aegis combat system contractor 
over the last 10 years on a cost-plus basis, and is working on a new 
sole-source waiver to competition. Could you please explain your plan, 
using Open Architecture business models, for improving capability and 
lowering costs for computers and software on Navy surface ships?
    Admiral Roughead. The Navy has recently implemented an open 
business model for the procurement of displays and processors. 
Additional components for competition will include display services, 
electronic warfare/softkill integration, track management (including 
integrated architecture behavior model integration), training, anti-
submarine warfare capability improvement, and support systems.
    The Navy continues to focus on removing barriers to competition as 
we move forward with Open Architecture. Our ability to accelerate the 
reconfiguration of our ships to open architecture is limited by two 
factors. First, the fleet must maintain adequate numbers of operational 
ships to meet its worldwide commitments. Second, we must take into 
consideration the industrial capacity of our shipyards when we schedule 
the work necessary to configure our in-service fleet in the Open 
Architecture model. The cruiser and destroyer modernization programs 
address both of these factors and the budget required.
    Our intent is to move ahead as quickly as possible, while 
fulfilling our primary mission of providing a combat capable, reliable, 
and ready fleet.

    18. Senator Warner. Secretary Winter and Admiral Roughead, is the 
incumbent Aegis combat system contractor working with the Navy to open 
up competition for the DDG-51 combat system modernization?
    Secretary Winter and Admiral Roughead. The Navy is focused on 
removing barriers to competition as we move forward with Open 
Architecture. We are transitioning from the current platform-based 
development to a capability-based development. To this end, we are 
directing the Aegis combat system contractor to adhere to a government-
controlled objective architecture with government-defined and 
authenticated interfaces. We are providing incentives to broaden the 
vendor base, including the use of third-party components. These efforts 
will support competition for Aegis modernization components, including 
competitively awarded display contracts (fiscal year 2008) and the 
recently announced competition for the common processing system. 
Additional components being considered for competition include display 
services, electronic warfare integration, training, anti-submarine 
warfare capability improvement, and support systems.

    19. Senator Warner. Secretary Winter and Admiral Roughead, why is 
the Navy's surface ship community so far behind the submarine community 
in adopting Open Architecture?
    Secretary Winter and Admiral Roughead. The submarine community's 
success in adopting Open Architecture results from their open business 
methods of collaboration and competition combined with a vigorous Peer 
Review process. These methods are being emulated by the surface 
community. This year we are delivering Open Architecture-based combat 
systems in U.S.S. Bunker Hill (CG-52) and U.S.S. Nimitz (CVN-68).
    Our Aegis cruisers and destroyers have a tightly coupled radar 
sensor-to-weapon control loop, which requires significant work to parse 
the functional relationships between components such as radar, weapons, 
and display. Some of this effort has been done with the separation of 
Display and Common Processing functions. The next step is to facilitate 
competition at the component level.
    The Ship Self Defense System (SSDS) MK2, fielded in our large 
amphibious ships and aircraft carriers, has migrated to Open 
Architecture. The software and hardware are separated and can more 
readily accommodate legacy and new interfaces. The software 
applications are maintained in a common software library and are 
compiled for ship-specific installations. The SSDS commercial hardware 
is now upgraded via pre-planned product improvement kits to address 
commercial component parts obsolescence.

    20. Senator Warner. Secretary Winter and Admiral Roughead, what 
percentage of all the software that has been developed by the DDG-51 
contractor over the last 40 years is in the Navy's re-use library?
    Secretary Winter and Admiral Roughead. The DDG-51 Aegis Baseline 
7.1 software is included in the Software, Hardware Asset Re-use 
Enterprise (SHARE) library. This accounts for approximately 14 percent 
of all currently operational Aegis software baselines. Other components 
developed from the broad vendor base for Aegis and other combat systems 
that satisfy our Open Architecture needs will also be included in the 
SHARE library.
    Operational software delivered prior to Baseline 7 is not included 
in the SHARE library because it is written in older programming 
languages and is not transferable to newer Open Architecture systems. 
Additionally, non-operational software developed and fielded since 
program inception will not be included in the SHARE library due to 
software obsolescence.

                        navy strike fighter gap
    21. Senator Warner. Admiral Roughead, the Navy is facing a strike 
fighter shortfall estimated to range from 80 to 200 tactical aircraft--
roughly 2 to 4 air wings--and extending through the next decade. The 
exact shortfall will depend on the Navy's ability to extend the service 
life of F/A-18 Hornet aircraft and the ability to procure 50 Joint 
Strike Fighters (JSFs) per year beginning in 2014. The Navy's plan to 
extend legacy Hornets from 6,000 to 10,000 hours appears highly 
optimistic. Similarly, the plan to buy 50 JSFs per year during the 
period that you plan to double the shipbuilding budget raises true 
concerns. What is your best estimate for the most likely magnitude of 
the strike fighter shortfall?
    Admiral Roughead. The current estimate of the strike fighter 
shortfall is a projected 125 aircraft in 2017 (69 Navy and 56 Marine 
Corps). F/A-18 A/B/C/D aircraft are reaching life limits and will 
require extensions to bridge the gap to the JSF. The Service Life 
Assessment Program (SLAP) is assessing the remaining life on these 
airframes. The initial SLAP analytical data necessary to determine 
extension to 10,000 flight hours was released in January 2008. Costing 
data to support the extension is planned to be released in June 2008, 
and the required engineering change proposals to support the extension 
will begin development in July 2008. Initial Naval Air Systems Command 
and Boeing indications are encouraging on reaching 10,000 flight hours 
for the F/A-18 A/B/C/D aircraft.

    22. Senator Warner. Admiral Roughead, how does the strike fighter 
shortfall affect the Navy's ability to meet its commitment to maintain 
three deployed carriers, and be able to respond to crises by deploying 
three additional carriers within 30 days, and a 7th carrier within 90 
days?
    Admiral Roughead. The Navy will experience an estimated 69 aircraft 
strike/fighter shortfall by 2017. This shortfall would be exacerbated 
by delays in JSF, reduction in F/A-18E/F or JSF procurement, or early 
F/A-18 retirement. Without mitigation, Carrier Strike Group operations 
will be sub-optimized due to insufficient numbers of aircraft available 
to provide full complements of strike-fighters at the appropriate level 
of readiness to meet projected combatant commander demands.

    23. Senator Warner. Admiral Roughead, what steps are being taken--
or otherwise necessary--to reduce the strike fighter shortfall, and 
also mitigate risk in the F/A-18 service life extension and JSF 
procurement plans?
    Admiral Roughead. The Navy is developing a stable aviation plan 
that balances aviation capabilities through investments in 
recapitalization, sustainment, and modernization programs. An ongoing 
effort to reduce the strike fighter shortfall includes the F/A-18 SLAP 
to assess the feasibility of extending the F/A-18 A/B/C/D aircraft to 
10,000 hours. Initial indications are encouraging. Additional 
mitigation efforts will be addressed in Program Objective Memorandum 
(POM)-10.
                                 ______
                                 
            Questions Submitted by Senator Susan M. Collins
                    naval ballistic missile defense
    24. Senator Collins. Secretary Winter and Admiral Roughead, let me 
first congratulate you for the successful downing of the dead satellite 
last week. I was proud to see that the ship that made the successful 
shot, U.S.S. Lake Erie (CG-70), was a Bath Iron Works-built ship. This 
is a tremendous accomplishment that the whole Navy team should be proud 
of. The demonstration of capability and flexibility of the Aegis 
Cruiser and Destroyer fleet was a result of many factors and it 
highlighted the tremendous capability our complex surface combatant 
force brings to the important mission of naval BMD from the sea. What 
do you see as the future role of front-line surface combatants in 
defending our forces and our homeland from potential threats posed by 
ballistic missiles?
    Secretary Winter and Admiral Roughead. The threat to our forces 
afloat and ashore, to our friends and allies, and to our homeland is 
real and becoming more complex. We are building capability and capacity 
to conduct the regional BMD mission afloat in stride with our forward-
deployed and rotational-deployed forces. Additionally, these forces are 
being integrated into the Ballistic Missile Defense System as Long-
Range Surveillance and Track assets, contributing to the Homeland 
Defense Mission by providing early detection and cueing to support 
ground-based interceptors.
    The Navy has 12 engagement-capable BMD ships in the fleet today, 
and will have 18 by the end of calendar year 2008. Beginning in fiscal 
year 2012, our DDG modernization program will add this capability to 
our entire fleet of Aegis destroyers. While our current fleet has no 
capability against the longer range intermediate and ICBM threats, 
future Aegis baselines and Standard Missile Interceptors (SM-3) deliver 
this capability within the next 10 years.

    25. Senator Collins. Secretary Winter and Admiral Roughead, would 
not the naval BMD capability argue for a larger fleet of surface 
combatants going forward, in light of the growing threat we face?
    Secretary Winter and Admiral Roughead. The Navy is committed to 
delivering BMD capability through the DDG modernization program and 
through new classes of surface combatants, such as CG(X).
    Today the Navy has 12 Aegis BMD Engagement ships and five Aegis BMD 
Long-Range Surveillance and Track ships that have been upgraded with 
BMD capability. Eighteen Aegis BMD Engagement ships will be available 
by the end of calendar year 2008. Additionally, the Navy will begin 
outfitting the Arleigh Burke-class destroyers with BMD capability as 
part of the DDG modernization program in fiscal year 2012, expanding 
the number of BMD capable surface ships to 62. The Navy is also 
examining opportunities to include BMD capability in the CG 
modernization program.

                     naval shipyard infrastructure
    26. Senator Collins. Admiral Roughead, let me first thank you again 
for taking time from your schedule to come to Maine to visit both Bath 
Iron Works and Portsmouth Naval Shipyard last month. As I am sure you 
saw, the dedication and quality of the workforce at both of those 
historic Maine yards is second to none. Portsmouth Naval Shipyard has a 
number of buildings and facilities that are quite old. While the ``can 
do'' attitude and Yankee ingenuity have allowed the shipyard to be one 
of the most efficient public shipyards that the Navy has, the 
infrastructure of the yard has presented the workforce with a number of 
different challenges.
    While we were there, you and your staff were provided with a brief 
that detailed the different military construction projects that the 
shipyard requires in order to help it to remain as efficient as it 
currently is. During the past, many of the military construction 
projects have been provided through congressional plus-ups instead of 
being included in the annual Navy budget that is submitted to Congress. 
In fact, I have been told that since 1971 all but four military 
construction projects that have occurred on the shipyard have been 
funded with congressional adds.
    As you saw in the brief provided to you, Portsmouth has done a 
significant amount of planning and prioritization in laying out its 
military construction projects. I am concerned, however, that these 
projects may not be funded in a timely manner. As the Navy begins the 
transition from the Los Angeles-class to the Virginia-class submarine, 
what steps is the Navy taking to ensure that Portsmouth will have the 
facilities it requires to continue its outstanding record of 
performance?
    Admiral Roughead. Portsmouth Naval Shipyard has an approximate $160 
million MILCON reinvestment plan. This includes $67 million in MILCON 
programming in the fiscal year 2009 FYDP to improve the condition and 
operational efficiency of the shipyard. Specific projects include:


                        [In millions of dollars]
------------------------------------------------------------------------
             Fiscal Year                                         Amount
------------------------------------------------------------------------
2011................................  P-266; Structural Shops       23.8
                                       Consolidation.
2012................................  P-268; DD#3 Waterfront        16.8
                                       Support Facility.
2013................................  P-280; Gate 2 Security         4.1
                                       Improvements.
2013................................  P-282; Consolidate            12.2
                                       Global Sub Complex
                                       Facility.
2013................................  P-285; CBQ Building 373        9.7
                                       Addition Phase 1.
------------------------------------------------------------------------

    The Navy will continue to target investments throughout future 
programming processes. This plan will ensure Portsmouth has the 
facilities it requires to continue its outstanding record of 
performance. Portsmouth does not require any MILCON projects in the 
FYDP to service Virginia-class submarines, as its facilities are 
already capable.

             sealift capability and increased end strength
    27. Senator Collins. General Conway, last year the President 
announced that he wanted to increase the end strength of the Marine 
Corps by 22,000 marines. This process began last year and, according to 
the Department of the Navy's ``Budget Highlights,'' the Marine Corps 
end strength will continue to grow in fiscal year 2009. An important 
component of this increased capability is the ability to get the Marine 
Corps to where they need to go. Do you believe that there is sufficient 
sealift capability to accommodate the Marine Corps, especially 
considering the increase in Marine Corps end strength?
    General Conway. The end strength increase does not impact in itself 
Navy and Marine Corps amphibious lift requirements. These requirements 
are derived from Major Contingency Operation plans and Combatant 
Commander presence demands. The current amphibious lift requirement is 
34 operationally available assault ships. This is sufficient to support 
a simultaneous amphibious assault by two Marine Expeditionary Brigades. 
Because of fiscal constraints, the Commandant of the Marine Corps and 
the Chief of Naval Operations have agreed to accept risk by reducing 
the amphibious lift requirement to 30 operationally available ships as 
the minimum. However, this 30-ship assault echelon fleet must include 
at least 10 ``big deck'' aviation capable assault ships (LHA/LHD/
LHA(R)), at least 10 LPDs, and 10 LSD-41/49s.
    Moreover, we must fully fund the Maritime Prepositioning Force 
(Future) program so as to provide a Marine Expeditionary Brigades' 
worth of reinforcing capability to fully enable a seabased Marine 
Expeditionary Force to fight a Major Contingency Operation.
                                 ______
                                 
              Questions Submitted by Senator Mel Martinez
            shipbuilding and the national maritime strategy
    28. Senator Martinez. Admiral Roughead, this committee has strongly 
supported the Navy's 313-ship plan. Likewise, we have supported the 
recently developed Maritime Strategy, which provides a framework for 
the Navy's role in meeting national security requirements. However, we 
remain concerned that Navy shipbuilding continues to fall short in 
numbers of ships procured and dollars invested. When coupled with cost 
growth on new ship programs, the 313-ship Navy--and with it, the 
Maritime Strategy--appear beyond the reach of the Navy's budget. How do 
we drive the necessary changes to our requirements and budget and 
procurement processes that are needed to improve the affordability of 
the shipbuilding plan?
    Admiral Roughead. The October release of our new Maritime Strategy 
will inform the planning, programming, budgeting, and execution process 
for POM-10. We have tailored our budget and defined our future Navy to 
enhance and support the speed, flexibility, agility, and scalability 
that our forces bring to the maritime realm.
    During the Navy's POM-10 programming, the Maritime Strategy will 
guide our decisions to ensure that the Navy is properly sustained, has 
the capacity to satisfy mission requirements, and is relevant for 
future operations. We are evaluating our current programs and 
reconciling our portfolio with fiscal realities. The result of this 
process will be a balanced program which will allow us to meet the 
imperatives outlined in our Maritime Strategy. The Navy recognizes that 
building the required force structure will largely depend on 
controlling shipbuilding costs (including combat systems) within an 
affordable range and the need for aggressive requirements and cost 
control measures. This can only be achieved by working closely with 
industry, utilizing realistic assumptions, instilling discipline in 
shipbuilding requirements, and driving more industry and government 
investments to reduce cost. Given the importance of requirements-
containment and cost-reduction to the viability of the shipbuilding 
plan, the Navy continues to evaluate each ship class and identify cost 
reduction opportunities while balancing warfighting requirements, 
costs, and industrial base realities.
    The Navy is emphasizing repeat builds of ships within the same 
class to reduce new construction costs, provided required warfighting 
capabilities can be fielded. This permits longer production runs and 
resultant cost reductions associated with production improvements and 
economies of scale. The Navy's shipbuilding plans include incorporation 
of Open Architecture for hardware and software systems and increased 
use of systems modularity. In addition, the Navy is aggressively 
pursuing opportunities to incorporate standardized components to reduce 
logistics support costs. These initiatives will reduce the cost of 
maintenance and system upgrades, and they will facilitate keeping Navy 
ships in service longer.

    29. Senator Martinez. Admiral Roughead, if we agree with the Navy's 
determination that the 313-ship fleet represents ``the floor'', why 
aren't we seeing the funding in the shipbuilding budget request 
necessary to get up to that floor?
    Admiral Roughead. The current President's budget 2009 represents 
the best overall balance between procurements to meet operational 
requirements and affordability. The Navy has examined the feasibility 
of increased shipbuilding investment in fiscal year 2009. Given current 
industrial base capacity, the Navy's plan to achieve the 313-ship mix 
required by the fiscal year 2020 timeframe, and other competing Navy 
requirements that must be met, $12.4 billion in the fiscal year 2009 
budget request is sufficient and represents the necessary resources to 
achieve the required warfighting capability on time. In addition, the 
Navy's plan increases shipbuilding investments from $12.4 billion in 
fiscal year 2009 to over $17.9 billion in fiscal year 2013.
    It is a significant challenge to get the number of ships we need 
with the right capabilities within the Navy's overall funding level; 
however, the Navy is committed to achieving a force structure of at 
least 313 ships, with the necessary warfighting capability that the 
Navy will need by fiscal year 2020.

                 carbon fiber composite hull technology
    30. Senator Martinez. Secretary Winter, I am concerned that we 
aren't seeing as much development within the Navy of composites and 
carbon fiber hull technology for ships. This is something that other 
countries, including China, seem to be pursuing, yet our research 
efforts with this technology seem minimal at best. Please provide an 
update of what programs you're planning on implementing with regard to 
composite hull technologies.
    Secretary Winter. The Navy has a robust program in the development 
and material performance evaluation of composites and carbon fiber 
technology for use in naval vessels.
    Our basic and applied research efforts supporting carbon fiber and 
composite hull technologies, including steel-composite hybrid hull 
technology, are targeted at understanding and mitigating those 
degradation mechanisms that are unique to naval hulls; specifically, 
the dynamic effects of seaway loading, extreme loading from weapons, 
fire, and the marine environment itself.
    The Navy has dedicated composite hull technology efforts in the 
following areas:

         An agreement with the Japanese to develop technology for a 
        hybrid composite-steel ship hull for a Navy surface combatant. 
        Under the agreement, large composite and hybrid test articles 
        are exchanged and tested by both countries (deck house and hull 
        sections) for signature, underwater, and air explosion.
         Currently prototyping a large scale carbon composite high 
        speed vessel bow for feasibility and cost evaluation using a 
        vacuum assisted resin transfer molding method.
         Mk V.1 Special Operations Craft Replacement is an 82 foot, 
        carbon/epoxy hulled boat that was delivered March 2008 for 
        performance evaluation. The outcome of these trials will assist 
        in determining value of carbon composite hulls in future 
        combatant craft.
         Navy Transformable Craft Innovative Naval Prototype program 
        includes a composite hull craft from one of the competitors.

    Additionally, the Navy has the following ongoing efforts to develop 
and demonstrate the use of composites in the construction of ships and 
submarines in an effort to reduce procurement costs:

         DDG-1000. The composite Deckhouse and Hangar program 
        represents the largest use of composite structures to date 
        within the surface Navy. This ship class will also be the first 
        to use composite rather than steel rudders, specially contoured 
        to reduce cavitation and meet performance requirements. 
        Additionally, a project is in planning to demonstrate a low 
        cost method for fabricating composite exhaust stacks for the 
        ship's turbine engines, which would replace the current design 
        requiring expensive, heavy nickel-base alloy that is difficult 
        to manufacture.
         Virginia-class Submarine (VCS). The Navy is converting the 
        VCS Sail Cusp, a hull-to-sail fairing, from steel to a much 
        more affordable and easier-to-manufacture composite structure. 
        The VCS steel main ballast tank flood grates were recently 
        converted to fiberglass composites. Additionally, the VCS 
        program is considering converting the expensive steel bow 
        planes and nickel-aluminum-bronze tail cone to composite 
        structures.
         CVN-21. A light-weight, composite superstructure, 
        incorporating thermal, acoustic, and fire insulation, as well 
        as ballistic protection, is in final validation testing.

    31. Senator Martinez. Secretary Winter, what can Congress do to 
further our research efforts on the carbon fiber composite hull 
technology front?
    Secretary Winter. The Navy currently has a robust research program 
in carbon fiber composite hull technology. Congressional support of the 
R&D program request in the President's fiscal year 2009 budget 
submission will enable this research program to continue.

                         law of the sea treaty
    32. Senator Martinez. Secretary Winter, I am aware of the Navy's 
and the administration's strong support for Senate ratification of the 
Law of the Sea Treaty. This treaty has been in the works and debated, 
on and off, since the Carter administration. I have some concerns that 
the United States would be routinely outvoted on issues of national 
interest were they to come up in the International Tribunal that the 
treaty establishes or with the International Seabed Authority. It seems 
to me that freedom of the seas and the rights of free passage are long 
established. Are you concerned that other nations may try to sue the 
United States or the Navy if the Senate were to ratify this treaty? For 
instance, for the use of sonar or for some other perceived 
environmental threat.
    Secretary Winter. No, I am not concerned that ratification of the 
Convention will open the Navy to lawsuits. Specifically, the compulsory 
dispute resolution procedures will permit the United States to 
completely exempt its military activities from dispute resolution and 
prevent any opposing state, court, or tribunal from reviewing our 
determination that an activity is an exempted military activity. When 
the Convention was being drafted, military officers serving as members 
on the United States delegation negotiated this exemption; it is 
ironclad. The Convention they helped craft permits a maritime nation, 
like the United States, to use compulsory dispute resolution as a sword 
against foreign coastal state encroachment while simultaneously 
shielding military activities from review. It is important to note that 
all permanent members of the United Nations Security Council (except 
the United States) and numerous other countries have taken the military 
activities exemption. For this reason, I am not at all concerned that 
accession to the treaty would make the United States more susceptible 
to lawsuits.

    33. Senator Martinez. Secretary Winter, it is certainly in the best 
interest of much of the world to be a party to this treaty because 
other nations stand to benefit from the fees collected by the Seabed 
Authority for deep sea mining that would then be distributed to them 
under the ``Benefit of Mankind'' provision (Article 140). The vast 
majority of what the Navy is seeking under this treaty is 
unobjectionable. However, it is also only a small fraction of the total 
treaty. Has the Navy taken into consideration the non-military 
provisions in this treaty?
    Secretary Winter. The Navy, in considering its support of the Law 
of the Sea Convention, has taken all aspects of the treaty into 
account. The benefits are considerable, which accounts for the treaty's 
broad and long-standing support from the President and the Departments 
of State, Defense, Homeland Security, Commerce, and Interior. The 
treaty also has broad support from industry. Every major ocean 
industry, including shipping, fishing, oil, natural gas, drilling 
contractors, shipbuilders, and telecommunications companies that use 
underwater cables support United States' accession.
    Specific questions relating to the non-military provisions of this 
treaty might better be answered by others. However, in regards to 
Article 140, the Convention does not set forth any ``royalty'' 
requirements for seabed production. If the United States became a party 
to the Convention, we would need to agree to the establishment of any 
``royalty'' requirement and, as in the case of the extended continental 
shelf, no payments would go to the United Nations; they would be 
distributed to states parties in accordance with a formula which would 
require concurrence by the United States before it could be 
implemented.

                   next generation enterprise network
    34. Senator Martinez. Secretary Winter, as part of last year's 
National Defense Authorization bill, the committee included report 
language on the status of the Next Generation Enterprise Network 
(NGEN). What is the current status of the NGEN?
    Secretary Winter. The NGEN program is concluding the requirements 
definition phase. When the resulting requirements document is signed by 
the Service Chiefs, it will be forwarded officially to the acquisition 
agent.
    Following approval of the requirements document, detailed costing 
and engineering analysis will be conducted by the NGEN Program Office. 
Both an Acquisition Strategy and Acquisition Plan are currently being 
developed. Subsequently, the Service Specification will define the 
required system functions, performance parameters, and all other 
requirements and constraints. Upon completion, Department of the Navy 
leadership will conduct a review of the Service Baseline in order to 
confirm that the recommended solutions adequately address the approved 
requirements within cost, schedule, performance, and risk parameters.
    An NGEN Oversight Team, under the leadership of the Department of 
Defense Chief Information Officer, has been established to ensure 
coordination, effective test and evaluation planning, comprehensive 
architectural compliance, and continued responsive oversight of the 
program. The Oversight Team includes representation from the Under 
Secretary of Defense (Acquisition, Technology, and Logistics), the 
Assistant Secretary of Defense (Network Integration and Information), 
the Office of Program Analysis and Evaluation, the Joint Staff, the 
Director, Operational Test and Evaluation, the Defense Information 
Systems Agency, and Department of the Navy leadership.
    The National Defense Authorization Act for Fiscal Year 2008 (S. 
Rept. 110-77) requested the Secretary of the Navy submit a report 
jointly with the Assistant Secretary of Defense for Networks and 
Information Integration; the Under Secretary of Defense for 
Acquisition, Technology, and Logistics; and the Director, Operational 
Test and Evaluation on the plans for the NGEN acquisition. The 
information requested has been compiled and the report is currently 
within the Department's staffing process. Department of the Navy 
intends to submit the report to the defense committees by April 1, 
2008.
                                 ______
                                 
             Questions Submitted by Senator Roger F. Wicker
                          cooperative strategy
    35. Senator Wicker. Secretary Winter, the Navy, Marine Corps, and 
Coast Guard recently published its revised Naval Strategy called ``A 
Cooperative Strategy for 21st Century Seapower.'' This Strategy 
represents the first time that the Navy, Marine Corps, and Coast Guard 
have all collaborated on a single, common strategy for defending the 
U.S. Homeland and protecting U.S. interests overseas. I applaud our 
three maritime forces for coming together to form a unified naval 
strategy. This strategy seems to rightly coincide with the Navy's 
decision to increase the fleet by 33 commissioned ships--from 280 to a 
floor of 313 ships. However, given the current rate of production, I am 
concerned with our ability to meet the future needs of our maritime 
forces and meet the minimum of 313 ships. How will the President's 
budget meet the ``Cooperative Strategy'' objectives and is the proposed 
mix of naval ships that combine to form the 313-ship Navy sufficient to 
provide a ``credible combat power to be continuously postured in the 
Western Pacific and Arabian Gulf/Indian Ocean,'' as outlined in the 
strategy?
    Secretary Winter. The fiscal year 2009 President's budget request 
and current procurement schedule both meet the Cooperative Strategy 
objectives by representing the necessary resources and warfighting 
capabilities to achieve the 313-ship fleet. This fleet will have the 
agility to meet a broad array of challenges and requirements to include 
operations with allies and friends around the globe. The increased 
emphasis of naval forces in the Western Pacific and the Arabian Gulf/
Indian Ocean reflects the combined demands of planned steady-state 
operations and response times for potential projected contingencies. 
The current mix of the 313-ship Navy described in the Long-Range Plan 
for Construction of Naval Vessels for 2009 includes large deck nuclear-
powered aircraft carriers, conventionally-powered amphibious ships and 
other associated surface combatants, submarines, maritime preposition 
ships, combat logistic ships, and support ships that establish our 
combat credibility not only in these regions, but worldwide.

    36. Senator Wicker. Secretary Winter, does the current mix of big 
deck ships outlined in the 30-year shipbuilding plan meet the challenge 
of creating a ``credible combat power to be continuously postured in 
the Western Pacific and Arabian Gulf/Indian Ocean,'' as outlined in the 
strategy?
    Secretary Winter. The increased emphasis of naval forces in the 
Western Pacific and the Arabian Gulf/Indian Ocean reflects the combined 
demands of planned steady-state operations and response times for 
potential projected contingencies. The current mix of the 313-ship Navy 
described in the Long-Range Plan for Construction of Naval Vessels for 
2009 includes large deck nuclear-powered aircraft carriers, 
conventionally-powered amphibious ships and the other associated 
surface combatants, submarines, maritime preposition ships, combat 
logistics ships, command-control ships, and support ships that 
establish our combat credibility not only in these regions, but 
worldwide.

    [Whereupon, at 12:36 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                         TUESDAY, MARCH 4, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

UNITED STATES CENTRAL COMMAND AND THE UNITED STATES SPECIAL OPERATIONS 
                                COMMAND

    The committee met, pursuant to notice, at 9:34 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, E. Benjamin Nelson, Webb, McCaskill, Warner, 
Inhofe, Sessions, Collins, Chambliss, Cornyn, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Gerald J. Leeling, counsel; Peter K. Levine, general 
counsel; Thomas K. McConnell, professional staff member; 
Michael J. McCord, professional staff member; Michael J. 
Noblet, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Gregory T. Kiley, professional staff member; and 
David M. Morriss, minority counsel.
    Staff assistants present: Fletcher L. Cork, Jessica L. 
Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Sharon L. Waxman, 
assistant to Senator Kennedy; James Tuite, assistant to Senator 
Byrd; Frederick M. Downey, assistant to Senator Lieberman; 
Elizabeth King, assistant to Senator Reed; Christopher Caple, 
assistant to Senator Bill Nelson; Andrew R. Vanlandingham, 
assistant to Senator Ben Nelson; Jon Davey, assistant to 
Senator Bayh; Gordon I. Peterson, assistant to Senator Webb; 
Anthony J. Lazarski, assistant to Senator Inhofe; Todd 
Stiefler, assistant to Senator Sessions; Mark J. Winter, 
assistant to Senator Collins; Clyde A. Taylor IV, assistant to 
Senator Chambliss; Jason Van Beek, assistant to Senator Thune; 
and Brian W. Walsh, assistant to Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. Today we welcome 
Admiral William J. Fallon, Commander of the United States 
Central Command (CENTCOM); and Admiral Eric T. Olson, Commander 
of United States Special Operations Command (SOCOM).
    Admiral Fallon and Admiral Olson command virtually all of 
the U.S. forces who are currently participating in combat. We 
ask you to convey to the men and women under your command our 
heartfelt gratitude for the many sacrifices that they and their 
families are making on our behalf. Of course, our thanks also 
go to you personally and to your families for the contribution 
which you and they are making.
    Admiral Fallon's command is responsible for U.S. security 
interests in 25 nations that stretch from the Horn of Africa 
(HOA) through the Arabian Gulf region into Central Asia. He 
commands the bulk of U.S. troops in combat today and is 
responsible for an area with a host of security challenges. In 
that position, Admiral Fallon also uses diplomatic skills to 
help us deter and prevent conflict almost as much as his 
military skills when a military response is appropriate. Today 
we will be seeking his views on a host of troubling issues in 
his area of responsibility (AOR), predominantly, but not 
entirely, the conflicts in Iraq and Afghanistan.
    Admiral Olson represents the over 50,000 military and 
civilian personnel working for SOCOM, who are fulfilling 
critical direct and indirect long-term and short-term missions 
all over the globe. Special operations personnel have been 
heavily concentrated in the CENTCOM AOR since 2003, so it is 
fitting that we have the two commanders here together today.
    Our Army, Marine Corps, and Special Operations Forces are 
overstretched and increasingly stressed. General David Petraeus 
has advocated ``a period of consolidation, perhaps some force 
adjustments and evaluation before continuing with further 
reductions'' in troop levels in Iraq once the five surge 
brigades complete their redeployment this summer.
    Although General Petraeus also said that there's ``every 
intent,'' in his words, to further reduce forces. President 
Bush has already indicated he would support a recommendation 
for a pause in redeployments. In other words, there is a strong 
possibility that force levels in Iraq will remain at pre-surge 
levels of approximately 130,000 and that troop levels in Iraq 
will be about the same when President Bush leaves office as 
they were in December 2006, before the surge.
    At the same time, Iraqi leaders continue to squander the 
opportunity our troops and our taxpayers have given them. Our 
soldiers risk their lives while Iraqi politicians refuse to 
take political risks. We cannot have the lives of American 
servicemembers held hostage to Iraqi political bickering. The 
State Department said last November that the ``Shiite-led 
government is a larger threat than al Qaeda.'' The report went 
on to say that ``senior military commanders now portray the 
intransigence of Iraq's Shiite-dominated government as the key 
threat facing the U.S. effort in Iraq, rather than al Qaeda 
terrorists, Sunni insurgents, or Iranian-backed militias.''
    In Afghanistan, we're now increasing American troop levels, 
with over 3,000 additional marines slated to deploy in the 
coming months, and more may well be needed. Meanwhile, our Army 
troops continue to face multiple tours of 15-month duration, 
with only 12 months or less at home between rotations, and 
marines also see more time deployed than at home, although for 
shorter, more frequent periods.
    These levels of deployment without adequate rest for the 
troops and repair and replacement of equipment cannot be 
sustained. General George Casey, the Army Chief of Staff, has 
said that the ``Army is out of balance'' and that ``the current 
demand for our forces exceeds the sustainable supply.''
    For too long, United States military operations in 
Afghanistan have taken a back seat to the war in Iraq. The 
Chairman of the Joint Chiefs of Staff, Admiral Mullen, 
acknowledged as much in December when he said, ``It is simply a 
matter of resources, of capacity. In Afghanistan we do what we 
can. In Iraq we do what we must.'' That's not acceptable.
    While the President paints a rosy picture of the situation 
in Afghanistan, just last week the Director of National 
Intelligence, Michael McConnell, told this committee that ``The 
Taliban-dominated insurgency has expanded'' to previously 
peaceful areas west and around Kabul. He testified that the 
Taliban controls about 10 percent of the country, while the 
Afghanistan government is capable of controlling about 30 
percent, which leaves about 60 percent of the country outside 
of either's control.
    Defense Intelligence Agency Director General Michael Maples 
stated that al Qaeda's presence in Afghanistan is ``increasing 
to levels unseen since 2001 and 2002'' and that the number of 
attacks, suicide bombings, and improvised explosive devices 
(IEDs) continues to rise.
    As has been reported, Admiral Fallon is conducting an 
assessment of the Afghanistan mission, one of a number that the 
administration and North Atlantic Treaty Organization (NATO) 
are undertaking. The Atlantic Council report, which by the way 
says that ``NATO is not winning in Afghanistan and that, 
despite efforts of the Afghan Government and the international 
community, Afghanistan remains a failing state and could become 
a failed state,'' that Atlantic Council report also says that 
the assessments that Admiral Fallon is making, will hopefully 
be completed in a matter of weeks, not months, and we'll be 
interested in Admiral Fallon's recommendations for 
strengthening the U.S., NATO, and international community's 
efforts in Afghanistan.
    Another major challenge in the CENTCOM AOR is addressing 
the safe havens that the Taliban, al Qaeda, and other violent 
extremists have found in the tribal areas along Pakistan's 
border with Afghanistan. As Director McConnell recently 
testified, the tribal areas are serving not only as a staging 
area for attacks into Afghanistan, but also as a terrorist 
training location for attacks in Pakistan, Middle East, Africa, 
Europe, and the United States.
    Director McConnell and Secretary Gates have testified 
recently that they believe that Pakistan's political leaders 
now perceive that the lawlessness prevailing in the border 
tribal areas represents a potentially mortal threat to 
Pakistan. We'll be interested in Admiral Fallon's views on what 
opportunities exist to encourage Pakistan to confront extremist 
elements on its territory and eliminate the sanctuary for the 
Taliban and al Qaeda along the Afghanistan border.
    Over 80 percent of SOCOM's operators are deployed in the 
CENTCOM area of operation. However, SOCOM's responsibilities 
are global and the operations in Iraq and Afghanistan are 
affecting the command's ability to maintain critical language 
and cultural skills and relationships in other parts of the 
world. The Quadrennial Defense Review (QDR) recommended 
increase in the size of SOCOM will help address that problem. I 
hope Admiral Olson will comment on whether that increase is 
sufficient.
    In addition, while the Department included funding in 
SOCOM's budget for some personnel growth, the fiscal year 2009 
budget request is $300 million less than their budget for this 
fiscal year. This comes in a year when the overall DOD funding 
request is 7.5 percent above this year's level and when the 
Services have increased funding requests ranging from 7 to 9.6 
percent above the fiscal year 2008 base budget.
    Some of the decrease in SOCOM funding is due to one-time 
military construction costs. But since SOCOM's end strength 
continues to increase, it's unclear why the procurement 
account, for example, has decreased by 17 percent.
    The $300 million decrease in SOCOM funding from fiscal year 
2008 to 2009 is all the more perplexing given the fact that 
SOCOM also gave the committee: one, a list of 31 additional 
procurement and research and development programs that they 
would like funding for, totaling $413 million; and two, have 
given us a list of 12 unfunded military construction projects 
totaling $186 million.
    On top of this, Admiral Olson, I understand that in 
response to an inquiry from Senator Bayh, that you recently 
identified a $300 million unfunded requirement for 
intelligence, surveillance, and reconnaissance (ISR), which is 
a critical asset in the hunt for terrorists in the CENTCOM area 
of operation, and that $300 million itself falls short of the 
additional $900 million which Admiral Fallon has indicated in a 
CENTCOM joint needs statement is necessary for counter-
terrorism in his area of operations.
    So we have many issues to explore today. We are very 
appreciative of our witnesses' appearance here today and of 
their service to this Nation, and I call upon Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I followed your 
statement very carefully and much of the statement that I will 
ask to have put into the record today reflects views in many 
respects parallel to yours.
    I want to, of course, join in thanking our two witnesses 
and their families for their service, and each and every one of 
the many in uniform that you have in your command, and the 
important component of the civilians who work dedicated in your 
commands.
    Mr. Chairman, in the past few weeks I've had an opportunity 
to go over and visit with Admiral McConnell, the Director of 
National Intelligence and I expressed to him a need that we 
here in the Senate Armed Services Committee, and indeed the 
entire Senate, would value greatly updates in the intelligence 
area on Afghanistan and Iraq. I've included and ask unanimous 
consent to put in today's record here his response to me. He 
said he would publish a paper in March updating the National 
Intelligence Estimate (NIE) threat on the homeland here in the 
United States, publish an NIE on Afghanistan by late summer, 
early fall, but the Iraq piece will be ready in March.
    Chairman Levin. It will be made part of the record.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Warner. I recall, Mr. Chairman, a trip with you and 
our colleague Senator Sessions in 2006 to Iraq, and I remember 
coming back and I expressed my own views that the situation is 
just drifting sideways. I'm pleased this morning to acknowledge 
that I feel that the surge operations initiated by President 
Bush in January 2007 have moved forward in Iraq and turned a 
situation from one that was unpredictable going down to some 
definite signs of improvement in that area.
    The President said that this was to clear and secure 
neighborhoods, to help them protect the local population, to 
help ensure that the Iraqi forces left behind are capable of 
providing the security that Baghdad needs. He further added 
that when this happens daily life will improve, Iraqis will 
gain confidence in their leaders, hopefully, and the government 
will have the breathing space.
    Certainly the military operations under the leadership of 
these two fine witnesses this morning has shown that it has 
resulted in that security situation. They are approaching, I 
think--Admiral Fallon will give us greater details--a time when 
we'll take a brief breathing space ourself to determine the 
true levels. But I hope the Admiral can assure us that the 
commitments the President made to bring home the forces by 
July, the surge forces, can be met and that that interregnum 
between further reductions, which I hope will be achievable, 
will not be a lengthy one.
    I also said at the time when the President spoke that more 
responsibility should be given to the Iraqi forces. I'm anxious 
to hear your views this morning, Admiral. In my judgment the 
Iraqi forces have shown a significant increase in their 
professional ability to work and carry out the responsibilities 
of protecting the sovereign nation of Iraq.
    Nevertheless, the violence there, while it has fallen off 
considerably, it remains, as is al Qaeda remains, a threat. I 
think, Admiral Olson, particularly your forces in Special 
Operations under General McCrystal--and I do hope that he can 
soon return to the United States and take on new 
responsibilities with the Joint Staff--you told me yesterday 
that General McCrystal has 120 days of accrued leave. He hasn't 
hardly been home to see his family in this long, extensive, and 
distinguished tour he's had over there.
    But nevertheless, a substantial degradation of al Qaeda has 
taken place, but it still remains a threat.
    The factions, as you mentioned, Mr. Chairman, in Iraq are 
disappointing--Shia factionalism, criminal activities, 
corruption remains at a higher than acceptable level; and 
sectarian distrust prevails at a level far unacceptable 
throughout Iraq.
    I acknowledge that the Iraqi Council of Representatives 
(COR) passed a long-awaited de-Baathification law, a provincial 
powers law, an amnesty law for detainees, and a budget for 
2008. Credit is owing for those achievements. But I regret that 
the political situation remains far short of demonstrating the 
decisive leadership needed to preserve and grow a new sovereign 
nation.
    For example, the Provincial Powers Act was passed by the 
legislature and rejected by a member of the Presidency Council. 
This is another example of moving ahead two steps and then one 
backwards. Let us hope that that can be readily cured and that 
legislation can go forward, because the Iraq people have 
tremendous potential for developing a nation which could become 
the envy of all the countries in the Middle East. There is 
untapped natural resources in that nation, principally oil, 
that can restore the economy to a strong, vibrant economy and 
match any of the increases that we've seen by different 
countries in the Middle East.
    But your soldiers, your sailors, your airmen, and your 
marines have made it possible for the increases that have taken 
place thus far in political reconciliation.
    In the coming months the United States Government and Iraq 
will negotiate a strategic framework agreement and a status of 
forces agreement (SOFA) that will chart our long-term mutual 
relationship. Our colleague Senator Webb has taken the lead on 
that. I was privileged to join him yesterday for a special 
briefing and I judge that hopefully he'll join us this morning 
and address that important issue.
    But Admiral, I think it's important that you likewise 
address those agreements and give us your best estimate of the 
timing and particularly the necessity. The underlying necessity 
for such agreements is to protect the individual serviceperson 
wearing the United States uniform and carrying out missions in 
that AOR.
    Turning to Afghanistan, the chairman quite properly recited 
the number of attacks by the Taliban insurgency exceeded that 
of the previous year. The poppy situation is absolutely abysmal 
in my judgment, and it is really the responsibility of the 
Department of State and NATO as a whole to come to grips with 
this situation. I find it totally unacceptable that our forces 
are facing an enemy using ammunition and arms and other things 
purchased as a consequence of the recycling of the poppy 
culture profits into armaments. I think I just find that just 
totally unacceptable and I hope that this year some much 
stronger initiatives can be undertaken to bring about a 
cessation of that poppy crop, which today is the most 
significant drug dissemination source in the whole world.
    I'd like to commend our Secretary of Defense, Robert Gates, 
for his tireless efforts over the past few weeks to impress 
upon NATO allies the importance of NATO's mission in 
Afghanistan. In testimony before this committee last month, 
Secretary Gates expressed concern and said the alliance 
evolving into a two-tiered alliance, in which some are willing 
to fight, some are not. The people's security is at stake.
    The debate on the importance of the mission in Afghanistan 
is the most complicated mission that the NATO allies have faced 
since the alliance was formed. Failure there by NATO could 
bring about the demise of NATO.
    The committee will want to know your views on the role of 
NATO and what they should do to prepare themselves for a 
stronger retaliation against the Taliban and for the need for 
each of the NATO participants to live up to their commitments 
with regard to the manpower levels.
    The chairman made reference to the three reports on 
Afghanistan that were brought before this committee. I share 
with him the views in those reports and I'm sure you have seen 
them, Admiral Fallon.
    Another area of concern is Pakistan. Working with the 
Pakistan armed forces and with their government, is an 
essential relationship to our mission in Afghanistan. So much 
of our supplies, so much of the particularly petroleum and so 
forth, has to transit Pakistan. The tribal areas are certainly 
moving in a direction which is antithetical to a strong central 
government in Pakistan, and I hope that we can work in 
partnership to alleviate that threat to Pakistan.
    I would like to close, Mr. Chairman, with a note on Iran. 
It appears to be enhancing its ability to project its military 
power, primarily with ballistic missiles and naval power. Iran 
continues to provide support for violent terrorist groups in 
Lebanon and Syria and seeks to deepen its influence in Iraq and 
western Afghanistan.
    I want to close in recognition of America's Gold Star 
Mothers, Mr. Chairman. I was visited by them recently. This is 
an organization of mothers who have lost a son or a daughter in 
the war. It was founded shortly after World War I. These women 
who have suffered a parent's loss continue to provide support 
for mothers and families of servicemembers of today's 
generation.
    The Gold Star Mothers across the country, our Nation owes 
you a debt. I would expressly ask in a question: I wonder what 
the reaction of a Gold Star Mother who lost a son or a daughter 
in Iraq as a consequence of the illegally imported weaponry 
that Iran is sending into Iraq. I wonder what their reaction is 
to the visit by Ahmedinejad from Iran to Iraq this week? I'd 
like to have your comments on that eventually, Admiral.
    Thank you.
    Chairman Levin. Admiral Fallon?

  STATEMENT OF ADM WILLIAM J. FALLON, USN, COMMANDER, UNITED 
                     STATES CENTRAL COMMAND

    Admiral Fallon. Senator Levin, Senator Warner, 
distinguished members of the committee: It's a great honor to 
be back in front of you again this morning, and particularly to 
appear with my distinguished colleague Admiral Olson. Tampa is 
in an unusual state now with all this maritime leadership not 
seen before. Not that we spend much time there. We're focused 
out in the region, where we certainly have lots of challenges, 
as both Senator Levin and Senator Warner have highlighted here 
today, and many issues. I'd be pleased to get into these issues 
as I get into the testimony.
    I would like to begin by picking up on both Senator Levin 
and Senator Warner's comments about the hard work and sacrifice 
of our men and women in uniform and those civilians that 
support them. Every day that I get the chance to visit and work 
with our people, I am more proud, if that's possible, of the 
great work that they do in our behalf, under conditions that 
are certainly challenging in many respects. But they and their 
families, who have shouldered this burden of our engagement in 
troubled areas for several years consecutively now, I can't say 
enough about them and certainly join you in saluting them.
    I have to tell you that going to Iraq I am very encouraged. 
From the time that I sat here about 10 months ago, the 
situation has improved substantially in the security arena, and 
I believe that there are many other aspects of the situation 
that are coming together, that have contributed to this 
improvement, and I see this on an upward vector, and I'll be 
pleased to get into the details of your questions in talking 
about Iraq.
    In Afghanistan, I'm encouraged. I know that there are a lot 
of reports, a lot of commentaries that are rather negative. But 
I'm encouraged for a couple of reasons with what I see in 
Afghanistan. First of all, the Government of Afghanistan still 
enjoys broad support from the people. We're working very 
closely with the Afghan security forces, particularly the army. 
I'm really encouraged by the leadership, determination, and the 
willingness to go out and engage; and at the end of the day 
these are the people that are really going to provide stability 
and security that are going to enable this country to stand on 
its own two feet.
    There are certainly lots of other issues--Pakistan, 
Lebanon, Somalia, lots of places in which stability and 
security are fragile, if at all existent. But with each of 
these places, there are also opportunities for us to engage, to 
help people to help themselves, to try to make this a better 
region.
    So in Pakistan, for example, they're suffering turmoil 
politically, under attack internally from an insurgent threat, 
just completed an election as the world watched, and they are 
in the process of forming a government, which we certainly 
encourage and will certainly do our utmost to support. Again, 
opportunities for us to not only help them to help themselves, 
but to help some of our interests, and particularly the recent 
use of these ungoverned areas or previously ungoverned areas 
along the Afghan border.
    I see other signs of hope. The recent agreement that was 
brokered by United Nations (U.N.) Secretary General Kofi Annan 
in Kenya to try to bring to a halt the strife and bloodshedding 
that's been going on there in recent days. We engage throughout 
the region to try to provide stability and security, to do what 
we can to lend our experience, our resources, through the 
generosity of certainly this committee and your colleagues in 
Congress, to lend the opportunity for our people, our best 
ambassadors, to work with these people, to show by their 
example how things could be done differently and better, to 
provide opportunities.
    So as I get around and spend most of my time out in the 
region, I'm encouraged. I wish we had more hours in the day to 
both engage to a greater degree in each of these countries--and 
I have to tell you in summing up here that I couldn't be any 
more proud of the work that our men and women do every day 
throughout this region.
    Thank you for the support that you provide to them and to 
their families. I am grateful to be here again and I'll look 
forward to your questions. Thank you very much, sir.
    [The prepared statement of Admiral Fallon follows:]
            Prepared Statement by ADM William J. Fallon, USN
                            i. introduction
    Mr. Chairman and distinguished members of the committee:
    On behalf of the men and women of the United States Central Command 
(CENTCOM), I thank you for this opportunity to testify about the state 
of the command and to provide an assessment of security and stability 
in my Area of Responsibility (AOR), as well as our military strategy 
and operational requirements.
    I would begin by highlighting the selfless service and sacrifice of 
our servicemembers and their families. This dedicated work on behalf of 
our Nation merits recognition and credit for the substantial progress 
that has been achieved in security and stability during these past 12 
months.
    The CENTCOM AOR is large and diverse. It spans 6.5 million square 
miles and 27 countries stretching from the Horn of Africa, through the 
Middle East to the Central and South Asian States. These countries 
possess vast human and natural resource potential, have rich histories, 
and sit at the crossroads of Africa, Asia, and Europe. The region is 
home to nearly 700 million people, who speak more than 80 languages, 
identify with 50 or more ethnic groups, and are adherents of more than 
a dozen religions. Despite differences in language, culture, and 
history, we share basic aspirations with the peoples of the Middle 
East, East Africa, and Central and South Asia. They desire security and 
prosperity for their families, opportunities to make choices, and 
governments that respect their rights and respond to their basic needs.
    This is the 7th consecutive year of combat operations in the 
CENTCOM AOR. I am pleased to report significant progress in security in 
Iraq. Our forces there, in concert with coalition partners and the 
increasingly competent Iraqi security forces (ISF), have expanded areas 
of stability and brought a return to more normal life for the citizens 
of Iraq. Likewise, in Afghanistan, large areas of the country are 
generally stable, millions of children are in schools and the Afghan 
National Army (ANA) is growing in size and demonstrated performance. 
But challenges remain in both these countries and in other areas of the 
region. Violent extremism, weak governance, political crisis and 
lagging economic development are key inhibitors to long-term stability. 
Given the complexities of the region, two certainties stand out; there 
are no simple answers to the challenges, and enduring solutions require 
predominately non-military initiatives.
    To advance U.S. security interests and regional stability, CENTCOM 
works with interagency and international partners to promote 
development and cooperation among nations, responds to crises, deters 
and, if necessary, defeats aggression. Success will require patience, 
thoughtful application of resources and commitment.
    The strategy in support of this mission has focused efforts in five 
main areas: setting conditions for stability in Iraq; expanding 
governance and security in Afghanistan; degrading violent extremist 
networks and operations; strengthening relationships and influencing 
states and organizations to contribute to regional stability and the 
free flow of commerce; and posturing forces to build and sustain joint 
and combined warfighting capabilities and readiness.
              ii. setting conditions for stability in iraq
    United States and Coalition forces have operated continuously in 
the region since the Iraqi invasion of Kuwait in 1990, and will soon 
enter the 6th year of combat operations in Iraq. Our objective is a 
unified, democratic and Federal Iraq that can govern, defend, and 
sustain itself and is an ally in the war on terror. We are pursuing 
this objective along political, security, economic, and diplomatic 
lines of operation. I can say with confidence that we are closer to our 
objective today than when I last testified.
    The most significant development in Iraq over the last year has 
been a dramatic decrease in violence. By almost every measure, the 
security situation has improved significantly. This turnabout is the 
result of many complex and interrelated factors. The application of the 
``surge'' deployment implemented last February, which increased troop 
levels and shifted our strategy to the priority task of protecting the 
population, has enhanced local security. The proximity of our troops to 
the populace and their shared experience in day-to-day life throughout 
the country has reversed the widespread anti-coalition attitude to a 
general acceptance and appreciation for our presence. This situation 
has been facilitated by the larger and more capable ISF, which have 
expanded the scale and effectiveness of operations against al Qaeda in 
Iraq and criminal Shia militias. The population has welcomed the 
widespread deployment of the Iraqi Army and is growing more comfortable 
with the Iraqi Police. Both of these forces are becoming more capable 
and competent as they assume an increasing share of security duties and 
boost reconciliation.
    Equally important have been the growing rejection of al Qaeda by 
the Iraqi people and the genesis of the ``awakening'' movement, which 
has altered the local balance of power between extremists and security 
forces. More than 90,000 Iraqi men have volunteered to assume grass 
root security functions as Concerned Local Citizens, also known now as 
Sons of Iraq. These men are key partners who supplement uniformed 
security forces in their communities and provide invaluable 
intelligence about the violent extremists. Although at this point, 
these groups are comprised primarily of Sunni Muslims, some Shia 
communities have started similar initiatives as Jaysh al-Mahdi 
extremists wear out their welcome.
    While security in Iraq has improved dramatically and sectarian 
violence has greatly diminished, these gains are not irreversible. 
Multiple strains of violent extremism remain a threat to the government 
and populace, and some of these groups benefit from external support. 
From the East, Iran pursues a destabilizing political and ideological 
agenda and is a key source of finance, weapons and training support to 
lawless militia groups. In the West, foreign fighters continue to enter 
Iraq from Syria.
    To sustain and build on improvements in security, Multinational 
Force-Iraq conducts security operations with the ISF while 
transitioning, where conditions allow, to Iraqi led and conducted 
operations. More than 530,000 Iraqi soldiers and police officers now 
secure their country with notable improvement in capability and 
battlefield performance. With the ISF proving themselves in battle, the 
next steps in building the ISF will focus on enhancing capabilities in 
command and control, logistics, combat support functions, and other 
operational enablers. I believe our efforts to improve Iraq's Army and 
Police will help set the conditions for sustained security and enable 
future U.S. troop redeployments.
    Meanwhile, the previously announced reduction of Brigade Combat 
Teams from 20 to 15 is underway, along with several Marine Corps 
battalions and some enabling forces. General Petraeus is preparing a 
response to a Planning Order from me to consider scenarios for the 
post-July 2008 period in Iraq and to provide recommendations on the 
pace and scope of a further reduction of forces from Iraq. His 
recommendations will be considered by the Chain of Command and our 
inputs, along with his, will be forwarded to the President for his 
consideration. Recommendations will consider the existing security 
situation, progress of the ISF and their readiness to assume 
responsibility for security. The conditions on the ground will be a 
major determinant of future moves.
    Progress in governance lags behind security, but there are signs of 
improvement. To sustain the security gains, a general improvement in 
government effectiveness and the enactment of legislative guarantees 
are required. Iraqi political leaders have begun demonstrating the will 
and skills to move this process forward. The recent passage of the 2008 
National Budget, Provincial Powers, Amnesty, and de-Baathification laws 
are significant accomplishments. The Presidency Council returned the 
Provincial Powers Law to the Council of Representatives but with the 
assurance that preparations for provincial elections this fall should 
continue. Meanwhile, the Government of Iraq continues to work toward 
other important legislation including Hydrocarbon and Election laws and 
the referendum on Kirkuk.
    Economic development is a key component of sustained growth and 
reconciliation. The Government of Iraq has improved budget execution 
and increased allocations to provinces and ministries. Iraqi and 
coalition initiatives to secure critical infrastructure and a 
substantial investment in repair and refurbishment have resulted in 
greater oil production and revenue from oil sales. The international 
community is playing an increasing and welcome role in Iraq. The 
Neighbors Conference Ministerial meetings have contributed to 
stabilization efforts. France is actively reaching out to Iraq while 
Saudi Arabia, the United Arab Emirates and Kuwait are considering the 
re-opening of diplomatic offices in Baghdad. The U.N. designated a new 
Special Representative to Iraq, who has demonstrated strong initiative 
and a keen understanding of the situation. The U.N. also dramatically 
increased its assistance mission, while the Security Council passed a 
new Chapter 7 mandate for the Coalition to operate in Iraq until 31 
December 2008.
    Looking to the future and as U.S. forces are withdrawn, we are 
planning to normalize long-term bilateral relations through a framework 
agreement that reflects our shared political, economic, cultural and 
security interests, as well as a Status of Forces Agreement. These 
agreements will establish authorities and jurisdictions for U.S. and 
coalition forces operating in Iraq beyond 2008. The documents will 
allow us maximum flexibility to assist the Government of Iraq in the 
fight against al Qaeda, develop its security forces and combat harmful 
influences inside Iraq while, at the same time, protecting our own 
forces. As Iraq increasingly asserts its sovereignty, we want to 
continue to assist in developing the Iraqi capacity to secure and 
defend their country.
           iii. expand governance and security in afghanistan
    U.S. and coalition forces support international efforts to assist 
the Islamic Republic of Afghanistan to provide security, improve 
stability, and enhance development and governance. Within Afghanistan, 
the NATO International Security Assistance Force (ISAF) commands the 
security mission while CENTCOM leads the military capacity building and 
counterterror efforts. These command structures require close 
coordination between CENTCOM and NATO.
    Despite increased violence in 2007, most visibly in the form of 
suicide attacks, Afghan and coalition forces have degraded the ability 
of the Taliban and other insurgents to execute coordinated and 
effective attacks. The coalition has maintained relentless pressure on 
the insurgents, and as a result, the enemy has shifted most of its 
effort to targeting police and civilians. The recent increase in 
suicide attacks is a concern and may give the perception that the 
insurgents have grown stronger. In reality, most of their successful 
attacks are confined to about 10 percent of total districts, while the 
vast majority of Afghans deny support to the violent extremists.
    The successes in Khowst Province are one example. Long considered 
ungovernable and one of the most dangerous provinces in Afghanistan, 
Khowst has been turned around by Afghan and coalition counterinsurgency 
operations. Tangible improvement in governance, reconstruction, 
development and security have been noted and are good examples for 
application elsewhere in the country.
    The increase in U.S. forces planned for this spring will reinforce 
our momentum while enabling accelerated growth of Afghan National 
Security Forces (ANSF). CENTCOM recently concurred with an initiative 
to expand the authorized end strength of the ANA from 70,000 to 80,000 
soldiers. The Combined Security Transition Command-Afghanistan (CSTC-A) 
is scheduled to complete the fielding of 80,000 ANA personnel by the 
end of 2010. Meanwhile a Marine Corps Special Purpose Marine Air Ground 
Task Force will deploy this spring and bolster the ISAF maneuver forces 
in Regional Command-South.
    The ANA has taken the lead in more than 30 significant operations 
to date and has demonstrated increasing competence, effectiveness and 
professionalism. Operation Maiwand executed last summer in the Andar 
District of Ghazni Province is an example of recent progress. Planned, 
rehearsed, and executed under the direction of the Afghan 203rd Corps 
Commander, a combined ANA and NATO ISAF task force cleared the entire 
district and removed a Taliban shadow governor. This well-integrated 
security operation was quickly exploited with the synchronized 
application of governance and development efforts consisting of medical 
treatment for 2,300 citizens, 10 new schools, the delivery of 260 tons 
of humanitarian aid, and $1 million committed toward additional 
development. This operation resulted in significant disruption to enemy 
forces in Ghazni Province and is a manifestation of the growth and 
maturation of ANSF as well as the spread of governance and development.
    The Afghanistan National Police (ANP) are improving, although at a 
slower pace than the ANA. While police competence has progressed in 
many areas, corruption, poor leadership, pay issues and equipment 
shortfalls challenge this organization. A new initiative, led by CSTC-
A, called the Focused District Development plan and implemented late 
last year, shows great promise. This initiative withdraws local police 
from selected districts, replacing them temporarily with highly trained 
and effective Afghan National Civil Order Police. The local police then 
receive 2 months of immersion in a concentrated program of instruction 
by carefully selected mentors to upgrade their professional 
performance, equipment and confidence. Local police units then return 
to their districts as much more capable forces and better able to serve 
their communities.
    Recruiting for both the Army and Police has shown a positive trend. 
Despite increased targeting of ANSF personnel and high casualty rates, 
Afghans continue to enlist in large numbers. This demonstrates 
confidence in the government and their future (as well as a strong need 
for employment opportunities). Proper training of these dedicated 
volunteers will take time, and additional U.S. personnel will be needed 
to fill key shortfalls in training capacity. A battalion of U.S. 
marines will deploy to support and mentor the ANP this spring in an 
effort to boost ANP capability.
    Setting the conditions necessary for economic growth is essential 
to long-term security and stability. Afghanistan has come a long way in 
7 years. Since 2001, Gross Domestic Product, per capita income and 
Foreign Direct Investment are all up. There has been considerable 
growth in Afghanistan's domestic revenues as well as international 
reserves, which have nearly doubled since 2004. However, Afghanistan 
still faces formidable economic challenge. The Afghan Government 
remains overly dependent on foreign aid, with official revenues 
covering only 20 percent of recurrent costs. Inflation, particularly 
for food and fuel, is rising. Access to credit is limited, and few 
Afghans are able to borrow.
    Four strategic economic priorities support the counterinsurgency 
effort. These include embracing free market economic policy, enhancing 
government resources, addressing inflation and implementing structural 
reforms. Staying the free market course means resisting costly new 
subsidies, which serve to reduce resources for other more constructive 
expenditures in areas like infrastructure, education and health care. 
U.S. and international community efforts are assisting the Afghan 
Government move toward a sustainable fiscal policy to generate revenue, 
manage resources and operate without massive foreign financial support. 
The international community is also trying to boost economic growth by 
modernizing the infrastructure, particularly in the areas of electrical 
power, road construction, water management and agricultural 
development. Our Provincial Reconstruction Teams are key elements in 
these endeavors, and they have brought real improvement directly to the 
populace. Finally, trade is benefiting, albeit slowly, from growing 
regional integration. On March 3, Afghanistan is scheduled to join the 
South Asian Free Trade Area, bringing greater access to and integration 
with six other regional countries.
    Narcotics remain a significant challenge for Afghanistan and the 
international community. Opium production in Afghanistan increased 
substantially in 2007. The narcotics trade dissuades work and 
investment in legitimate activities, provides the insurgents with a 
lucrative source of funding and contributes heavily to heroin addiction 
in Central Asia, Europe, and increasingly in East Africa. We will 
continue to work with the interagency and international partners to 
reverse this negative trend. Of note, the ANA is standing up a new 
counternarcotics battalion for the single purpose of poppy eradication. 
This unit is in training and is expected to deploy this spring to 
destroy (by plowing under) poppy plants in fields when found.
    Our commitment to the Afghan Government and people seeks to shape a 
future of a moderate and stable Afghanistan as a key regional partner. 
There is a general sense of optimism and determination among the Afghan 
leaders and people. They regularly voice their appreciation for our 
assistance. Enduring success will require additional, well coordinated 
Coalition resources and support.
        iv. degrading violent extremist networks and operations
    Whether sponsored by Iran, enabled by Syrian acquiescence or 
motivated by networks such as al Qaeda and its associated movements, 
violent extremism is a serious danger to regional and global security. 
We must identify, mobilize against, and confront this menace as its 
anachronistic worldview and murderous tactics threaten people and 
stability worldwide. While our efforts in Iraq and Afghanistan 
continue, we will use all available methods to build regional and 
international momentum for moderate behavior while eroding support for 
violent extremist ideology.
    The highest priority in our counterterror efforts is to defeat al 
Qaeda. Part of this effort, but not an end to itself, is the removal of 
senior al Qaeda leaders. Since the September 11, 2001 attacks, we and 
our partners have captured or killed terrorists, diminished safe 
havens, driven leaders underground, and restricted their operating 
space. Despite these efforts, challenges continue as our enemies work 
to reconstitute their networks. Critical to countering these violent 
extremists is the denial of the sanctuaries, nation-state support and 
lines of communication that sustain them. These militant Islamist 
terrorists attract recruits from a large, worldwide pool of disaffected 
young people. Unfortunately, their tactics and radical ideology remain 
almost unchallenged by voices of moderation. In response, we will 
enhance our intelligence capabilities, develop partner nation 
capacities, strengthen information sharing, disrupt illicit lines of 
communication, and work to prevent terrorist organizations from 
acquiring and using weapons of mass destruction. All of these actions 
will require interagency and international coordination and 
cooperation.
    Equally important to defeating al Qaeda and other extremist groups 
is delegitimizing the underlying social and political movements that 
support them. To diminish the radical social movements from which our 
enemies derive their strength, we must maintain operational pressure on 
their networks while building capacity in governance and security that 
help at-risk societies address problems that foster internal and local 
grievances. This work requires empowering credible experts to expose 
the flaws and internal contradictions of the enemy's ideology; provide 
viable, competing alternative worldviews; and contest the intellectual 
``safe harbors'' where extremist ideas incubate.
    Defeating extremists and their ideology would be easier if they did 
not have state sponsors. Iran and Syria have not cooperated with 
efforts to combat terrorism and promote reconciliation. Their policies 
and actions threaten the internal security of their neighbors and the 
collective stability of the region. The Iranian regime provides Shia 
militia groups in Iraq with training, funding and weapons including 
lethal Explosively Formed Penetrators (EFPs), a particularly deadly 
form of Improvised Explosive Device (IED). Iran continues to employ 
surrogates in Lebanon and Gaza, providing money and weapons to 
Hezbollah and Hamas, threatening the stability of Lebanon and 
undercutting the future of Palestinians, as well as engaging in 
confrontational activity in the Gulf.
    Iran's most destabilizing activity has been the pursuit of nuclear 
weapons technology in defiance of the international community, 
International Atomic Energy Agency and United Nations Security Council. 
A nuclear-armed Iran would further threaten regional stability, 
potentially trigger an arms race and increase the potential for 
extremists to acquire weapons of mass destruction.
    The Syrian Government continues to meddle in Lebanon. Its support 
for Hezbollah is destabilizing the country, and it stonewalls the 
investigation into the Rafik Hariri assassination.
    Over the past 5 years, terrorists, suicide bombers, and foreign 
fighters have traveled through Syria to attack Iraqi and coalition 
forces. The government in Damascus has tolerated the presence and 
operations of Iraqi Sunni extremists who have fueled the fighting in 
Baghdad and elsewhere in the country.
    In Lebanon, the government is confronted by opposition groups and 
violent protests, but the Lebanese Armed Forces are maintaining a 
fragile order. Hundreds of thousands of Lebanese have stood up publicly 
against assassination and terror, and for their elected government and 
a peaceful, prosperous future. The international community continues to 
support the popularly elected government in Beirut and its legitimately 
constituted and disciplined security forces.
 v. strengthening relationships and influence states and organizations 
   to contribute to regional stability and the free flow of commerce
    To increase prospects for long-term stability and security in the 
region, we are working to strengthen relationships between and among 
these nations and the United States. We are also trying to influence 
states and organizations such as the Gulf Cooperation Council to 
contribute to regional stability and work to ensure the free flow of 
commerce and positive economic growth.
    During the course of my numerous trips to the region, I have 
developed relationships with most of my military counterparts and many 
of their political leaders. The foundation of these partnership 
building efforts is our Theater Security Cooperation program, which 
helps develop the security capabilities of current and prospective 
coalition partners, builds and supports effective regional security 
arrangements and interoperability, and synchronizes efforts with other 
U.S. Government agencies. More importantly, these programs forge 
personal relationships between the U.S. and partners in the region, 
enhancing mutual trust and confidence and facilitating the effective 
operations of our commands.
    The CENTCOM Theater Security Cooperation program is built on a 
foundation of enduring relationships. The synchronized efforts of all 
the elements of U.S. and international power are key to success. We are 
fortunate to have a number of close, reliable partner nations. Five of 
these countries, Egypt, Jordan, Kuwait, Bahrain and Pakistan, are major 
non-NATO Allies, and of those, Jordan and Bahrain are Free Trade 
Agreement partners. Our Theater Security Cooperation Strategy enables 
regional stability and advances security efforts that protect vital 
U.S. national interests and helps partners build capacities to combat 
terror and become self-reliant.
    Department of State programs such as Foreign Military Funding (FMF) 
and International Military Education and Training (IMET) are vital to 
build enduring security relationships. Attendance at U.S. institutions 
and courses of instruction by foreign military personnel offers 
exposure to our ideas, principles, standards and most importantly, our 
people. The resulting personal relationships have proven invaluable in 
building long-term trust and access. In my experience, withholding IMET 
funds inhibits the ability to influence the positive transformation of 
regional military forces. Additionally, authorities for building global 
partnership capacity proposed in title 13 of the draft National Defense 
Authorization Act for Fiscal Year 2009 will give me the tools I need to 
support our partners in the war on terror more effectively and 
efficiently than current authorities. Passage of this legislation will 
allow CENTCOM to use existing authorities to train and equip partner 
nations' non-military security services in addition to national 
military forces, and to engage in a wider range of combined exercises, 
training, and personnel and information exchanges. It will also give 
more field commanders the authority to spend Commander's Emergency 
Response Program funds, give rewards for valuable information and 
integrate a wider range of Department of State capabilities with our 
military ones. However, it will still require advance notification to 
Congress, thereby maintaining appropriate levels of transparency and 
oversight.
    In order to facilitate multi-lateral engagement between our 
partners, I hosted the inaugural CENTCOM Chiefs of Defense Conferences 
in Tampa, bringing together senior military officers from 19 of the 27 
nations in our region. These conferences were very well received and 
bolstered the stature and acceptance of the Iraqi and Afghan Defense 
Chiefs. Additionally, the unprecedented engagement between participants 
reduced suspicion and enhanced trust while cementing personal 
relationships.
    Military exercises enable our troops to operate with partner forces 
and improve interoperability as well as demonstrate capabilities. Our 
forces have participated in 49 combined exercises throughout the AOR, 
including multi-lateral exercises in Qatar, the United Arab Emirates 
(UAE), Egypt, and Kazakhstan. Qatar hosted an exercise focused on air 
defense and consequence management called Eagle Resolve for the third 
consecutive year. This event has strengthened defense cooperation among 
many of our regional partners. The UAE hosted three air exercises, two 
of them at the Gulf Air Warfare Center, which focused on multi-lateral 
cooperation and interoperability among Gulf Cooperation Council (GCC) 
members. Egypt hosted CENTCOM's longest standing cooperative exercise, 
Bright Star, for 13 partner nations. After 25 years, this exercise 
continues to be relevant and has grown to emphasize strategic level 
engagement. In Central Asia, Kazakhstan hosted exercise Regional 
Cooperation, which enhanced interoperability and integration between 
the various disaster preparedness and consequence management ministries 
of Kazakhstan, Kyrgyzstan, Pakistan, Tajikistan, and Turkmenistan. By 
bringing together units from various nations to cooperate in response 
to realistic and challenging scenarios, these exercises hone the skills 
of U.S. and partner military forces while enhancing regional stability 
and security.
    Following are highlights of the development of key relationships in 
the region:
Egypt
    Egypt is a key ally, strongly supporting the Middle East Peace 
Process and U.S. regional initiatives. Our close relations greatly aid 
our efforts in Iraq, Afghanistan, and the war on terror by providing 
expedited Suez Canal transits for U.S. warships, over flights and 
access to basing. Egypt has maintained a field hospital and medical 
staff in Afghanistan since 2003 that continues to provide medical care 
and training. Egypt has signaled its intent to help combat smuggling 
into the Gaza strip through the purchase of technical equipment that 
could assist Egyptian security forces detect and exploit tunnels, a 
requirement that has assumed even greater importance in light of recent 
events. Egypt is one of the largest contributors to the United Nations-
African Union Mission in Darfur with some 1,200 Egyptian soldiers and 
police officers. FMF significantly contributes to the modernization and 
interoperability of the Egyptian Armed Forces, which helps provide 
stability in the Suez Canal area and the Levant.
    The prospects for positive change in Egyptian governance are 
enhanced by our close interaction on regional security matters. These 
relations also ensure continued Egyptian support for our regional 
presence and operations and demonstrate that when we make a commitment, 
we keep it. For these reasons, I urge Congress to continue its support 
for Egyptian FMF levels.
Horn of Africa and Yemen
    The nations in the Horn of Africa (Ethiopia, Kenya, Djibouti, 
Sudan, Somalia, Eritrea, and the Seychelles) face border and ethnic 
tensions, insurgencies, corruption, terrorist infiltrations and 
poverty. CENTCOM's Combined Joint Task Force-Horn of Africa (CJTF-HOA) 
conducts operations, training, and humanitarian missions in the Horn of 
Africa and Yemen to build partner nation military capability, improve 
quality of life, expand governance, strengthen bilateral relationships, 
and build partner nations' military capability. Cooperation of these 
nations with us contributes to building their own capacity to combat 
terrorism and prepare for other challenges, including natural 
disasters. CENTCOM is working closely with U.S. Africa Command to 
ensure our relations continue to strengthen as the new geographic 
command prepares to assume its responsibilities.
Ethiopia
    Ethiopia is a key regional strategic ally and close partner in the 
war on terror. This strong bilateral relationship was readily evident 
in the wake of Ethiopia's initial military operations in Somalia to 
support the Transitional Federal Government against radical insurgents. 
Ethiopia has also demonstrated strategic importance by its considerable 
contributions to United Nations peacekeeping missions, such as the U.N. 
Mission in Liberia and its pledge of 5,000 peacekeepers for the U.N. 
African Union Mission in Darfur. Our support for the efforts of the 
Ethiopian military to modernize and professionalize will be critical to 
the government's ability to address security threats effectively and in 
conformity with international norms.
    Ethiopia has, however, refused to evacuate disputed territory on 
its border with Eritrea, despite the fact the United Nations Ethiopia-
Eritrea Border Commission made its final ruling in favor of Eritrea's 
claim. Eritrea has denied supplies to the United Nations mission there 
in order to force it to depart. President Isaias Afwerki's government 
also sponsors violent extremists in Somalia, and there is evidence it 
does the same in Ethiopia. Eritrea's treatment of its own people is no 
better, as Isaias has jailed all political opponents and devastated 
what had been a relatively healthy economy. As long as Eritrea is 
aggressive toward its neighbors and repressive against its own people, 
the amount of assistance CENTCOM can provide will be severely limited.
Kenya
    The just signed power-sharing agreement between President Kibaki 
and Orange Democratic Movement leader Raila Odinga is encouraging. 
While we should remain vigilant for signs of a return to political 
crisis and ethnic violence, I believe Kenya's strong institutional 
foundations can be a basis for long-term stability. Kenya provides a 
traditional locale for the U.S. and the international community to 
conduct relief and rescue operations in regional trouble spots and is a 
key contributor to regional conflict resolution and counterterrorism 
efforts. Historically, Kenya has been one of our closest and staunchest 
partners against terrorism. America's interests are to assist Kenya in 
countering the terrorist threat, support the processes of political and 
economic reform, help raise the standard of living, combat health 
crises, and protect Kenya's resource base.
Djibouti
    This small, peaceful, and tolerant Muslim country is an island of 
stability in a region characterized by tension and violence. Djibouti 
is a key security partner as it hosts CJTF-HOA and provides refueling 
facilities for coalition naval vessels. Djibouti is also the warehouse 
location for prepositioned emergency food relief used by the Office of 
Foreign Disaster Assistance in times of crisis. As this country 
undergoes potentially rapid change while developing a new port complex, 
the continued support for CJTF-HOA in cooperation with other elements 
of the interagency will be critical to ensure the benefits of growth 
are distributed in a way that promotes stability and democratic 
development.
Sudan
    In 2007, tension between the ruling National Congress Party (NCP) 
and the southern Sudanese People's Liberation Movement (SPLM) increased 
due to the slow implementation of the Comprehensive Peace Agreement 
(CPA). These tensions culminated in the SPLM temporarily withdrawing 
from the Government of National Unity in Khartoum. We anticipate 
additional tension in 2008 due to expected delays in the CPA-mandated 
national census. In Darfur, the deployment of the U.N.-African Union 
Mission in Darfur will remain behind schedule due to NCP 
obstructionism. Multiple attempts to unite the Darfur rebels failed to 
bring about a cohesive group prior to renewed peace talks, exacerbating 
insecurity and the humanitarian crisis.
Somalia
    Military, humanitarian, and political conditions deteriorated 
significantly in Somalia during 2007 and could further deteriorate in 
2008. Initially fractured in early 2007, the al Qaeda associated Somali 
resistance, supported politically by Eritrea, have regained control of 
much of southern and central Somalia. We will work closely with our 
regional partners to prevent harm to our broader interests, mitigate 
the humanitarian challenges and support efforts to achieve a political 
settlement.
Seychelles
    Our relationship with the stable, democratic Government of 
Seychelles focuses on countering coastal security threats and improving 
disaster preparedness. Through joint exercises with the Seychelles 
Coast Guard we are working to build their capacity to plan and conduct 
operations to counter transnational threats.
Lebanon
    Since November 2007, Lebanon's already tenuous political situation 
has worsened. The government and opposition see the stalled 
Presidential election process and the subsequent cabinet formation as 
crucial to their interests. The country remains politically stymied as 
the Hezbollah-led opposition, with its Syrian and Iranian allies, 
attempt to use the vacuum in the presidency as leverage to control 
future decisionmaking in the country. Syria will continue to pressure 
its allies to refuse any compromise knowing that the election of a 
Western leaning government will likely lead to the rapid implementation 
of the Special Tribunal to charge the assassins of former Prime 
Minister Rafiq Hariri. Damascus fears this will implicate high-ranking 
Syrian officials and their Lebanese allies. These political battles 
have grown violent as evidenced by assassinations of political and 
security leaders. In addition, bombs have targeted high-ranking members 
of the security establishment as well as U.S. Embassy employees.
    A well-armed and well-trained Lebanese Armed Forces (LAF) is a 
potential unifying force. The multi-confessional LAF, with its members 
drawn from all of the country's communities, enjoys broad support from 
the Lebanese people. The LAF demonstrated resolve and courage during 
its 102 day fight in the Nahr al-Barid refugee camp last year--a 
victory that would have been far more costly were it not for the 
support of the United States and key allies like Saudi Arabia, Jordan, 
and Egypt. CENTCOM Special Operations Forces enhanced LAF effectiveness 
by providing training during the months preceding operations at Nahr 
al-Barid. While addressing the short-term needs of the LAF, we are 
focusing on its long-term development. The $220 million FMF 
supplemental approved by Congress in 2007 is contributing significantly 
to this effort, but we must continue the process and strengthen our 
bilateral military relationship to resist efforts by Syria, Iran, and 
their Hezbollah surrogates to undermine the sovereignty of Lebanon.
Jordan
    Jordan is a regional leader in security and counterterror training 
and one of our strongest partners. In 2007, Jordan hosted a large 
multinational special operations exercise as well as six other military 
exercises. It also hosts the Peace Operations Training Center, the 
International Police Training Center, the Cooperative Management 
Center, and the King Abdullah Special Operations Training Center. 
Additionally, Jordanian doctors and nurses operate and provide training 
in much needed hospitals in both Iraq and Afghanistan.
    Consistently supportive of our role and presence in the region, 
Jordan has played a major role in promoting stability and 
reconciliation in Western Iraq, supporting the Lebanese Armed Forces 
and training Palestinian Authority Security Forces. Currently, more 
than 1,000 Palestinian authority security personnel are receiving 
essential police training in Jordan.
    Although it placed enormous stress on public services, Jordanian 
leaders opened their country to hundreds of thousands of Iraqis fleeing 
the violence in their own country. Jordanian efforts to improve border 
security are exemplary and set the standard for the region. U.S. 
military and economic assistance to Jordan are wise investments for a 
peaceful, secure and prosperous region.
Arabian Gulf States
    We have improved participation and cooperation with the GCC states 
of Kuwait, Bahrain, Qatar, the UAE, Oman, and Saudi Arabia. Of note, 
Iraq has participated in GCC multi-lateral discussions and as an 
observer during exercises. Developing these relationships will 
eventually lead to greater security and economic opportunity for the 
entire region. Each of these nations has been a valuable contributor to 
our mutual security efforts providing essential base and port access, 
overflight rights and additional force protection for U.S. units in the 
region.
    Our strong partnership with Kuwait is vital to the CENTCOM mission. 
Kuwait hosts the Combined Forces Land Component Command and provides a 
staging area for Coalition forces entering and departing Iraq. Military 
operations in Iraq would not be possible without critical support 
provided by Kuwait in the form of fuel, electricity, water, meals, 
waived customs fees, and many other allowances totaling about $1 
billion per year. The military-to-military relationship with Kuwait 
grows stronger through a robust military sales program and an extensive 
program of combined exercises.
The Kingdom of Saudi Arabia
    The Kingdom of Saudi Arabia has achieved significant success with 
an initiative to cut off funding to terrorists and restrain violence. 
Saudi leaders have enacted tough antiterrorism laws, established a 
Financial Intelligence Unit to combat illegal ``charities'' that 
ultimately fund al Qaeda and have built indigenous special operations 
and counterterror forces capacity. They have also made efforts to 
reform their educational system and have promoted the ideals of 
tolerance and moderation in their leading mosques and promote 
rehabilitation programs for security prisoners. Saudi Arabia has been 
helpful in our efforts to support the stability and independence of the 
legitimate Government of Lebanon. Our military relationship is based on 
extensive interaction between armed forces and a robust military sales 
program that we expect to grow in coming years. It is enhanced by a 
U.S. advisory presence in the Kingdom and by our training of Saudi 
military personnel.
    Bahrain and the U.S. have enjoyed a close military relationship for 
more than a half a century. Today, Manama hosts U.S. Naval Forces 
Central Command. In addition, a Bahraini officer currently commands 
Coalition Task Force 152 with responsibility for Maritime Security in 
the Arabian Gulf. Bahrain hosted an Iraq Coalition conference this past 
October and is a strong supporter in the struggle against terror. In 
the past year, I attended the Manama Dialogue in Bahrain, and the Forum 
on U.S.-Islamic Relations in Qatar. These two widely respected fora are 
strongly supported by the host nations and allow leaders the 
opportunity to benefit from extensive engagement on substantive 
regional issues.
    We are grateful to Qatar for hosting the CENTCOM forward 
headquarters at Camp As Saliyah and our Combined Air Operations Center 
at al-Udeid Air Base. The excellent military-to-military relationship 
with the Qatar Armed Forces is robust and mutually beneficial. Access 
to the airbase at al-Udeid facilitates air operations in the AOR. Doha 
also provides substantial in-kind support to U.S. forces, significantly 
offsetting the cost of our operations from there. Additionally, they 
have participated in the Gulf Security Dialogue meetings with the 
Departments of State and Defense in order to build infrastructure and 
systems necessary to improve deterrence.
    The UAE has emerged as a staunch coalition partner, contributing to 
the continued security and stability of the Gulf and the Strait of 
Hormuz. In addition to access for air assets at the Al Dhafra Airbase, 
the Emirates provide nearly continuous access for Navy ships in the 
port of Jebel Ali. It is a leading partner in the campaign against 
terror, providing assistance in military, diplomatic and financial 
areas. Our military-to-military relationship ties are a key element of 
our excellent bi-lateral relations. We expect these relations to 
strengthen as the UAE serves as a regional example of the benefits of 
private sector growth and broadened opportunity for individual choice. 
The Emiratis are leading the Shared Early Warning initiative in the 
Gulf and have a robust Foreign Military Sales Missile Defense request 
pending.
    Oman is a stable, secure, and cooperative partner. The Sultanate 
allows the storage of important war reserve material, and its proximity 
to the Strait of Hormuz is a uniquely vital strategic position. We have 
had an enduring relationship with Oman since the early part of the 19th 
century, and they have provided strong support for Operations Enduring 
Freedom and Iraqi Freedom. Our cooperation with Oman in areas such as 
education and economic development support Oman's own measured path to 
economic growth and more participatory governance.
Pakistan
    The recent election in Pakistan was encouraging and offers the 
potential for a peaceful return to democracy and much needed 
stabilization for this populous country. It is important to note that 
the Pakistani Armed Forces did not arbitrate these elections, but they 
did provide the essential security that enabled a generally peaceful 
process. Senior Pakistani leaders understand the threat of violent 
extremism to their country and are taking steps to transform their 
security institutions to be more effective in combating these 
challenges. The military aid we have provided in all forms has been 
critical in the fight against extremists inside Pakistan, particularly 
along the western frontier adjacent to Afghanistan. Pakistan has 
successfully deployed more than 100,000 troops to the western frontier, 
directly engaged al Qaeda, the Taliban, and foreign fighters.
    Pakistani security forces have captured and killed significant 
numbers of violent extremists, to include high-ranking leaders of al 
Qaeda and the Taliban. They have also suffered extensive casualties. 
Our long-term partnership with Pakistan is central to defeating 
extremist groups in the region, and it is difficult to imagine success 
in that struggle without its support and cooperation. We are working 
together to reduce the tensions stemming from the radical and violent 
extremist presence in the Federally Administered Tribal Areas. Ongoing 
initiatives include regular meetings with Pakistan's military leaders, 
enhanced liaison and communications among our units operating along the 
Afghanistan-Pakistan border and a Security Development Plan, which 
includes initiatives to establish a Frontier Corps Training Center, 
assist the Frontier Corps (FC) in establishing new Wings (battalion 
equivalent) and improve indigenous intelligence operation capabilities. 
Advisors will share lessons learned in counterterrorism and 
counterinsurgency mission sets, and FC personnel will be provided with 
modern equipment. Also, Sector Headquarters and Border Coordination 
Centers will be established to improve shared situational awareness and 
deconflict border operations with coalition forces in Afghanistan.
    Pakistan remains a strong partner of the United States, and our 
support for its counterterror efforts will continue with a variety of 
focused programs. Our security cooperation funding and bilateral 
exercise programs help the Pakistani Government conduct counterterror 
operations, develop its counterinsurgency capacity and enhance its 
internal stability. In this critical time of democratic change it is 
vital that Pakistan view the U.S. as a long term trusted partner, 
particularly in our efforts to defeat common enemies.
Middle East Peace Process
    Any discussion of security and stability in the region must include 
the Middle East Peace Process. Recent efforts to revive this effort are 
positive. A peaceful two-State solution that offers justice and 
security to Palestinians and Israel would negate the widespread 
perception of inequity in the Arab world.
Central Asian States--Kazakhstan, Kyrgyzstan, Tajikistan, Turkmenistan 
        and Uzbekistan
    These five nations in Central Asia, are strategically important to 
the U.S., welcome greater interaction with us and play an increasing 
role in the global energy market. They reject violent extremists and 
all, save Uzbekistan with whom we have just reestablished a military 
dialogue, cooperate with the U.S. in a variety of security initiatives.
    Kazakhstan is a valued partner in Iraq and offers the potential to 
serve as a regional leader for economic growth and prosperity. 
Kazakhstan is a key player in east-west trade and the potential 
northern nexus of a trade route that could stretch south to Pakistan, 
linking the less developed nations in the region with access to 
international markets in the Middle East, Europe, and Asia. With regard 
to its security needs, we have been assisting Kazakhstan in refining 
its defense strategy, modernizing its armed forces, and development of 
its peacekeeping forces.
    Kyrgyzstan is rebuilding political stability after the turmoil of 
the past few years and hosts a U.S. presence at Manas Air Base, a key 
logistics node that facilitates operations in Afghanistan. We are 
seeking new and innovative ways to help develop the capabilities and 
capacity of Kyrgyz security forces to meet internal requirements and to 
contribute to regional stability.
    Economic woes, an energy deficit and narcotics trafficking 
challenge Tajikistan, one of the poorest nations in the region. 
Tajikistan has made progress in building national unity, but much work 
remains. I am encouraged by Tajikistan's willingness to participate in 
international peacekeeping efforts, and our security cooperation 
programs are focused on helping Dushanbe build its capacity and secure 
it borders.
    Turkmenistan is slowly but steadily emerging from the self-
isolation of former President Niyazov. President Berdimuhamedov has 
loosened up internal controls, reached out to neighbors in need and 
demonstrated a stiff spine by halting gas exports to Iran for non-
payment of agreed fees. Turkmenistan has expanded cooperation with us 
on a range of military-to-military activities and recently approved 
funding for a U.N. Drug Control program office in Turkmenistan. They 
have actively assisted our efforts in support Afghanistan operations.
    We have reinstituted a security relationship with Uzbekistan after 
a hiatus of about 3 years following the expulsion of our forces from 
Karshi-Khanabad airbase, in the wake of the Uzbek Government's response 
to an attempted extremist takeover of the town of Andijan in 2005. I 
met with President Karimov in January, and we welcome the opportunity 
to reverse the deterioration in relations between the U.S. and 
Uzbekistan, encourage better regional cooperation and reopen a dialogue 
to address issues of reform and human rights.
    Throughout Central Asia, there is an opportunity to positively 
influence the future development of these countries. We are encouraging 
greater economic, political, and security cooperation among these five 
states. Greater sustained diplomatic engagement, military aid and 
economic assistance would further mutual interests.
    vi. posturing the force to build and sustain joint and combined 
                 warfighting capabilities and readiness
Joint and Coalition Operations
    Joint and combined warfighting capability and readiness are 
fundamental to our ability to prosecute ongoing military operations, 
maintain a credible presence to deter aggression and respond 
effectively to contingencies. Because we execute nearly all of our 
activities jointly and in concert with allies, we must cultivate 
effective interservice and multinational ways of doing business. 
Existing examples of such integration include the Multinational 
Headquarters in Iraq, Afghanistan, and the Horn of Africa. Because our 
region is filled with uncertainty, we must maintain a full spectrum of 
responsive capabilities through an effective forward deployed force 
structure, thorough planning and realistic combined training exercises. 
Other critical capabilities include the following:
A Strong Coalition
    Currently there are 41 partner nations with troops in Afghanistan 
and 31 with personnel in Iraq. They bring important mission 
capabilities but also significant integration challenges. Blending 
capabilities of these countries into effective action requires, among 
other factors, a command and control infrastructure that accounts for 
remote locations, multiple languages, cultural differences and 
challenging force protection issues. Our coalition must share 
classified and sensitive information when appropriate and have the 
networks and infrastructure to facilitate such exchanges.
Interagency Coordination
    Establishment of security and stability in our region requires the 
application of all elements of national power: military, diplomatic, 
economic, and information. The military instruments can set conditions 
for security but other agencies foster lasting change.
    We are fortunate to have several U.S. Government entities engaged 
in the CENTCOM AOR. The Departments of State, Treasury, Justice, and 
Homeland Security, as well as subordinate agencies including the U.S. 
Agency for International Development, Diplomatic Security Service, 
Federal Bureau of Investigation, Drug Enforcement Administration, and 
U.S. Coast Guard, are actively engaged in our theater. Their efforts 
are helping to protect critical infrastructure, prevent terrorist 
attacks on our homeland, train fledgling law enforcement organizations 
and rebuild damaged or aging infrastructure. There is clearly a need 
for better integration and more comprehensive application of all the 
elements of national power.
Flexible Logistics
    Strategic airlift, rapid sealift, prepositioned inventories, and 
access to bases with critical infrastructure are the key logistics 
components which support operational flexibility. Our primary focus in 
this area remains the timely deployment, equipping, and sustainment of 
units engaged in combat operations. As an example, the rapid fielding 
of Mine Resistant Ambush Protected (MRAP) vehicles to our troops would 
not have been possible without the highly flexible contingency air and 
sealift capabilities. We will leverage commercial air and surface 
distribution across the theater and pursue initiatives to improve 
theater-wide logistics cost savings and work force reductions. We will 
continue working with the Joint Staff, Office of the Secretary of 
Defense, the Department of State, and partner nations to ensure access 
to the infrastructure we need to support ongoing and future operations.
Adaptable Command, Control, Communications, Computers, Intelligence, 
        Surveillance and Reconnaissance (C\4\ISR) Capabilities
    Interoperable, high-volume communications systems are essential to 
conducting operations across a dispersed command space. Our systems 
operate near full capacity daily with little surge capability. Because 
many of our needs must be satisfied by commercial providers, access to 
them is critical. The largest challenge we face is integration of 
disparate systems into interoperable and reliable networks. We must 
embrace policies that enable successful integration and technologies 
that result in effective interoperability and efficient information-
sharing.
    Ultimately, our ability to target violent extremists depends on 
precise and actionable intelligence. We continue to evolve our 
techniques and procedures to optimize efforts to ``find, fix, finish, 
and exploit'' targets. Our adversaries have been agile in adapting to 
our operations. We continue to improve battle space awareness, seeking 
greater specificity, detail, and timeliness of intelligence whenever 
possible. We are aggressively seeking ways to manage shortfalls or 
capability gaps in imagery intelligence, wide area coverage, sensor 
integration, signals intelligence, moving target indicators, layered 
Intelligence Surveillance and Reconnaissance (ISR) architecture, 
biometrics, counterintelligence, and human collectors. Your support of 
our intelligence needs is much appreciated, and I solicit your 
continued funding of these critical items.
Responsive Counter Improvised Explosive Device Program
    Insurgents' weapon of choice will likely continue to be the IED, or 
road-side bomb. They are cheap, effective, and anonymous and have been 
adapted to include toxic industrial chemicals such as chlorine. While 
some are crude, our adversaries increasingly use sophisticated 
technology, including EFPs from Iran. These weapons have killed or 
wounded thousands of military and civilian personnel in Iraq, and IEDs 
are becoming increasingly prevalent in Afghanistan.
    To counter this threat, and working with the interagency and our 
coalition partners, we are fielding jammers, specialized route 
clearance vehicles and equipment and improved vehicle and personnel 
protective armor. The most effective counter to the IED is targeting 
the human networks which supply, train, and employ the devices. We have 
pressed this approach through a comprehensive application of ISR. These 
initiatives have reduced IED effectiveness. We must continue to develop 
new technologies, tactics, techniques and procedures. Of particular 
importance to CENTCOM is continued fielding of MRAP vehicles, and 
further research and development to improve the detection of mines, 
IEDs and unexploded ordnance.
Personnel
    Sustained operations in the CENTCOM AOR depend on personnel who 
have foreign language proficiency and cultural awareness competency in 
addition to military skills. Retention is a critical issue, and we 
depend heavily on quality of life enhancements such as Combat Zone Tax 
Relief, Imminent Danger Pay, and Special Leave Accrual. The Rest and 
Recuperation program continues to be a success, serving more than 
590,000 troops to date. Over the past year, we have conducted a 
comprehensive review of the manning of our headquarters, which, after 6 
years of war, is still highly reliant on temporary individual 
augmentation personnel. My subordinate warfighting headquarters are 
also heavily manned with individual augmentees. I am committed to 
working with the Services and the Joint Staff to properly size and 
resource all of these headquarters.
    CENTCOM is also working to address requirements for low density 
skills. Our present inventory of language and intelligence specialists 
(especially human intelligence) and counterintelligence agents does not 
support current requirements. Language expertise is crucial in 
counterinsurgency, counterterrorist, and counterintelligence operations 
and will continue to be in high demand. Contracting language expertise 
provides interim capability, but in the long run, we need 
servicemembers and career civilians with the requisite language and 
cultural skills.
    We recognize the importance of co-locating our servicemembers with 
their families whenever prudent. We further recognize the value is 
compounded when done so overseas as our families interact with the host 
nation and strengthen the ties between our peoples. We have initiated 
the process to authorize our military families to return to areas as 
reduced threats permit. Before such actions, we will take every 
precaution to ensure protection and security measures are in place to 
safeguard our personnel and their families.
                             vi. conclusion
    During this past year the men and women assigned to CENTCOM have 
fought valiantly in Iraq and Afghanistan, provided humanitarian and 
reconstruction assistance, and engaged with partners and allies in 
deterring aggression. They have worked tirelessly on behalf of the 
American people to provide essential security and stability for 
millions of others. They have trained and exercised alongside men and 
women from many other nations, providing experience, advice, mentoring, 
and example in an effort to increase the capabilities of others to 
defend and secure their people. The engagement of our service personnel 
with foreign counterparts is key to gaining the trust of these people 
and facilitating our ability to influence outcomes in support of U.S. 
policy objectives. We stand ready to assist those who would work with 
us to bring lasting peace to this troubled region of the world.
    The American people and Congress have provided staunch and steady 
support for our efforts, and we greatly appreciate your advocacy and 
assistance. I am proud and honored to represent the men, women and 
supporting families of CENTCOM. On their behalf, thank you for your 
support and for this opportunity to testify before you.

    Chairman Levin. Admiral Fallon, thank you.
    Admiral Olson?

 STATEMENT OF ADM ERIC T. OLSON, USN, COMMANDER, UNITED STATES 
                   SPECIAL OPERATIONS COMMAND

    Admiral Olson. Mr. Chairman, Senator Warner, and 
distinguished members of the committee: Thank you as well for 
this opportunity to appear before you to report on the Special 
Operations Forces. I'm very honored to represent the 54,000 
soldiers, sailors, airmen, and marines and government civilians 
of SOCOM. With your permission, I submit my written posture 
statement for the record and will limit my opening remarks.
    The strong and steady interest of Congress and this 
committee has helped Special Operations Forces attain global 
capability and effectiveness. Since your creation of United 
States SOCOM, now almost 21 years ago, our joint force has 
proven itself in many well-known and lesser known operations, 
and it's been a steady presence with our friends and allies.
    Throughout the command, its strength has been its 
extraordinary people, enabled by unique authorities and a 
dedicated budget. United States SOCOM is charged by legislation 
to prepare and provide fully capable Special Operations Forces 
to conduct operations worldwide. These activities include 
counterterrorism, counterproliferation of weapons of mass 
destruction, direct action, special reconnaissance, 
unconventional warfare, training with foreign forces, civil 
affairs, psychological operations, and information operations 
as they relate to special operations.
    By direction of the President, United States SOCOM is also 
the lead combatant command for synchronizing Department of 
Defense (DOD) planning for the global campaign against 
terrorism.
    So in aggregate, these doctrinal terms define a complex set 
of tasks that are best accomplished by a specially selected, 
trained, and equipped joint force with proven skill, 
discipline, courage, and wisdom. It's a force that must operate 
with equal confidence and equal effectiveness across the 
spectrum of conflict from pre-crisis through intense conflict 
and to stabilization and reconstruction. Such a joint force 
must be carefully managed to optimize its readiness.
    When deployed outside the United States, Special Operations 
Forces are almost always in support of geographic combatant 
commanders. They're present in 58 countries today, mostly in 
small numbers, often with low visibility, low profile presence. 
Over 80 percent, as you said, sir, of our deployed forces today 
are in the CENTCOM AOR working for Admiral Fallon, focused on a 
careful balance of direct and indirect actions to defeat 
terrorists and violent insurgents and contribute to local 
stability.
    Operational commanders have learned that no other force can 
accomplish such a broad scope of missions in such diverse 
operational environments, and so global demand for this force 
does exceed supply, and I anticipate no decrease in demand even 
as some United States forces eventually draw down from Iraq. In 
fact, I expect an increase in demand for Special Operations 
Forces as local environments transition from a larger 
conventional force presence to a smaller train and assist kind 
of activity presence, especially considering the continuing 
deficit of Special Operations Forces in the other geographic 
combatant commanders' regions.
    To answer this, as a result of program decisions of the 
last few years, including the QDR in the last Program Objective 
Memorandum cycle, we are expanding as fast as we reasonably 
can, as fast as we can reasonably absorb the growth. In the 
long-term, I estimate that 3 to 5 percent growth per year is 
about right for Special Operations Forces manpower. If we must 
expand organic enablers like aviation, like cordon and search 
forces, like interrogator forces, intelligence analysts, 
airfield control and the like in order to become more self-
sufficient, though, those numbers would increase.
    Many of the mobility platforms and much of the equipment 
used by Special Operations Forces are initially procured by the 
Services and then modified for Special Operations-peculiar 
mission requirements. So must of SOCOM acquisition programs 
must be carefully synchronized with the Services. 
Recapitalizing our fixed wing transport fleet and our 
intelligence, surveillance, reconnaissance capability in terms 
of systems, not just platforms, are our most critical needs.
    For these and other programs that deliver Special 
Operations-peculiar items, speed of process is essential and 
I'm committed to exploring the scope of my authorities in order 
to make that system more responsive.
    In any case, I'm convinced that Special Operations will be 
required to at least sustain and perhaps grow its levels of 
both operational effort and funding for the foreseeable future.
    I remain humbled to command such a force, such a capable 
and versatile group of soldiers, sailors, airmen, marines, and 
civilians, at this important time, and I also remain in awe of 
the courage and dedication demonstrated by this force every 
day.
    I thank you for your continued support and I look forward 
to your questions.
    [The prepared statement of Admiral Olson follows:]
              Prepared Statement by ADM Eric T. Olson, USN
    Mr. Chairman and distinguished members of the committee, it is an 
honor to report on the state of United States Special Operations 
Command (SOCOM).
    SOCOM's mission is to provide fully capable Special Operations 
Forces (SOF) to defend the United States and its interests; and to plan 
and synchronize Department of Defense (DOD) operations against 
terrorist networks.
    America's Special Operations Forces (SOF) are organized, equipped 
and trained, and then deployed by SOCOM to meet the high demands of 
Geographic Combatant Commanders (GCCs) around the world. The range of 
special operations is wide, the geographic dispersion is great, the 
quality is exceptional and the results are impressive.
    Although most SOF deployed from the United States since the attacks 
of September 11 have served in and around Iraq and Afghanistan, we 
clearly understand the enduring value of a global presence. We are 
proud to be serving in about 60 countries today.
    The core capabilities of SOF are in the people who choose to do, 
qualify for and remain committed to this type of work. Finding, 
training, and sustaining them requires steady focus. Ensuring they have 
the equipment, sensors, weapons, and mobility platforms of the kind and 
quality demanded by their peculiar missions requires willingness to 
invest in the rapid fielding of both existing solutions and cutting 
edge technologies even when the relatively small purchase quantities do 
not optimize production costs.
    SOF must be manned, trained and equipped to operate globally with 
unmatched speed, precision and discipline within a culture that 
promotes innovation, initiative and tactical level diplomacy. While 
this Nation appreciates the tremendous impact of SOF's day-to-day 
engagement with global friends, allies and partners, and the powerful 
impact of SOF on the battlefield is legend, America also expects SOF to 
be able to appear in places they are not expected to be, with 
capabilities they are not expected to have.
    To accomplish our missions, we are focused on three priorities, 
each containing nested objectives.
    First, we must deter, disrupt, and defeat terrorist threats to our 
Nation. We do this by planning and conducting special operations, 
emphasizing culturally-attuned international engagement and fostering 
interagency cooperation. The Command's synchronization of the plans and 
planning to deter, disrupt, and defeat our enemies has great influence 
on allocation of the Department's resources.
    Second, we must develop and support our people and their families. 
Our great people are the foundation of mission success, and they are 
national assets. We must maintain our quality, train and educate our 
force as joint warrior-diplomats, and always care for them and their 
families.
    Third, we must sustain and modernize the force by equipping the 
operator, upgrading our mobility platforms and further developing 
persistent intelligence, surveillance, and reconnaissance (ISR) sensors 
and systems.
    These priorities support SOCOM's ongoing efforts to ensure SOF are 
highly trained, properly equipped and deployed to the right places at 
the right times for the right missions. Our personnel must be capable 
of planning and leading a wide range of lethal and non-lethal special 
operations missions in complex, ambiguous environments. This specific 
requirement underpins expectations that SOF will continue a military 
culture of initiative and innovation at every level. SOCOM will 
continue to work closely with the Services to ensure that the 
conventional force enablers upon which we depend remain a part of our 
future operations.
              deter, disrupt, and defeat terrorist threats
    The enemy threat is complex and patient. SOCOM anticipates no 
relief from our deployed commitments even when U.S. force levels in 
Iraq and Afghanistan are reduced. SOF's ability to grow relationships 
and build partner nation capacity is a fundamental part of the 
Department's campaign plan against terrorist threats.
    We pursue two essential, mutually supporting and often intertwined 
approaches--direct and indirect. These two approaches integrate the 
requirement to immediately disrupt violent extremist organizations 
while positively impacting the environment in which they operate.
    The direct approach addresses the immediate requirement to pursue 
terrorists, their infrastructure and their resources. Despite the 
positive trends in Iraq, operations to capture or kill terrorists and 
disrupt their networks remain both urgent and necessary. In the dynamic 
and ambiguous environments that constitute today's battlefields, the 
ability to rapidly analyze and exploit information is key to fast 
sequential targeting. This requires unique skills, specialized 
technologies and flexible mobility. We understand the necessity of 
prosecuting targets with speed, precision and discipline.
    The indirect approach addresses the underlying causes of terrorism 
and the environments in which terrorism activities occur. The indirect 
approach requires more time than the direct approach to achieve 
effects, but ultimately will be the decisive effort.
    In a world characterized by protracted struggles, emerging 
Irregular Warfare (IW) doctrine calls for a suite of capabilities to 
prevail against those who threaten us. IW is a logical, long-term 
framework that assists in both analyzing and applying many elements of 
national and international power to achieve mutual security objectives.
    IW often employs indirect operations to gain asymmetric advantage 
over adversaries. IW is not a new mission area for SOF. Unconventional 
warfare, counterterrorism (CT), counterinsurgency, civil-military 
operations, Civil Affairs (CA), Psychological Operations (PSYOP), and 
Foreign Internal Defense (FID) are all traditional IW activities and 
core tasks for SOF. With IW's emergence as a focus area for broader 
participation across the Department, it increasingly describes 
activities that both SOF and general purpose forces will employ in 
their operational approaches.
Theater SOF Efforts--By, With, and Through
    Deployed SOF are normally under the command of Theater Special 
Operations Commanders who work directly for the GCCs. The Theater SOCs 
have the regional focus that contributes to a good understanding of the 
people, the cultures, and the issues of their areas of interest.
    It is under the Theater Special Operations Commands that 
permanently deployed and rotational SOF work in other countries to 
enhance combat skills; establish relationships with counterparts; 
advise, assist or manage a variety of civil and military projects; 
contribute to the achievement of U.S. Ambassadors' objectives; or gain 
the experience that will contribute to future successes.
    For example, at the direction of SOCOM-Pacific, SOF assist 
Philippine forces' efforts to identify and defeat indigenous and 
transnational terrorist organizations in the southern islands. Building 
on the model that was effective on Basilan Island in 2002, a Combined 
Joint Special Operations Task Force works closely with Philippine Army, 
Marine and Navy units and the U.S. Agency for International Development 
to provide both humanitarian assistance and military training. SOF also 
manage information and public affairs plans in coordination with the 
U.S. country team. The combined effect of these efforts has made 
central and southern Mindanao and the Sulu Archipelago a much more 
challenging environment for terrorist activity.
    Under SOCOM-Europe, Army Special Forces conducted an exercise 
during the summer of 2007 involving several Trans-Saharan (Pan-Sahel) 
nations and our European partners. SOF provided training in regional 
synchronization, intelligence sharing, planning and coordination for CT 
related operations. Last year, SOF also participated in Joint Combined 
Exchange Training exercises in this region. These exchanges enhance SOF 
skills while building person-to-person and unit-to-unit relationships.
    Under SOCOM-Central Command, SOF have continued programs that are 
building competent and capable Iraqi and Afghan security forces . Iraqi 
SOF are generally touted as some of the most effective military units 
in the region.
    Under SOCOM-South, SOF personnel train, advise, and assist in 
Colombia's campaign against the Revolutionary Armed Forces of Colombia 
(FARC) narco-terrorists.
Foreign Internal Defense
    SOF employs its unique abilities to assess, train, advise, and 
assist host nation militaries to build military capability. In so doing 
we improve our partner nations' confidence and abilities to detect and 
defeat violent extremist organizations. In 2007, SOF conducted hundreds 
of FID missions around the world.
Civil Affairs
    CA projects deter support for violent extremist organizations by 
legitimizing existing governments and fostering a more favorable 
opinion of U.S. efforts. Simultaneously, programs that address 
government corruption, poverty, unemployment, illiteracy, and basic 
human needs build confidence in fledgling governments. While CA units 
are key to success in Afghanistan and Iraq, they remain equally vital 
to the conduct of myriad other SOF operations throughout the world.
    Working closely with Colombian government and military officials, 
SOF CA personnel carried out more than two dozen medical humanitarian 
civic action events. These events treated thousands of Columbian 
patients in remote areas of the country and solidified that 
government's legitimacy in undergoverned spaces.
    The Civil Military Engagement Program employs Civil Military 
Support Elements which are scalable, modular SOF teams that plan, 
coordinate, facilitate, manage and lead programs and projects that 
support U.S. and host nation objectives. Combatant commanders are 
increasingly requesting this CA augmentation to enhance their indirect 
operations.
Psychological Operations
    One of the most important components in defeating terrorism 
includes countering violent extremist propaganda. These efforts are 
global in scale and are locally implemented by the geographic Combatant 
Commands. PSYOP forces disseminate truthful information to shape 
behavior and erode the attraction of extremist ideologies among foreign 
audiences.
    SOCOM's Joint Military Information Support Command (JMISC) includes 
functional, cultural and geographic experts who bring a combined 
approach to tackling what has become a tough, entrenched war of ideas. 
JMISC currently orchestrates a 24/7 multi-media campaign formatted to 
the cultures and languages of relevant audiences. This provides a 
factual message as an alternative to the extremist ideology for global 
audiences.
    A most important tool in our ability to build the capacity of 
partner nations to conduct CT or stability operations is our continued 
authority to train and equip foreign military forces under language 
included in the National Defense Authorization Act for Fiscal Year 
2008. Sections 1202 (previously known as 1208) and 1206, which expires 
this year, are authorities that have made a big difference in 
developing carefully selected counterpart forces. As an authority 
specific to Special Operations, section 1202 is especially germane.
Synchronization and Planning
    In 2005, SOCOM was directed by the Unified Command Plan to plan, 
synchronize and, as directed, conduct global operations against 
terrorist networks in coordination with other combatant commanders. 
While this was widely perceived as granting SOCOM the authority to 
direct a wide range of operational activities in areas already assigned 
to the GCCs, we have realized in execution that our greatest value is 
in synchronizing global war on terror campaign plans and planning. The 
operations themselves are in almost every case conducted by the GCC 
responsible for that region, with SOCOM in support. Every day at 
headquarters SOCOM, and at numerous outstations and agencies around the 
world, SOCOM personnel are collaborating, coordinating, and planning 
with other agencies to achieve desired global effects.
    The most comprehensive element of SOCOM's synchronization effort is 
the global collaborative planning process. This effort draws on other 
Combatant Command capabilities and expertise to develop DOD's global 
war on terror campaign plan. This plan, coupled with the Geographic 
Combatant Commands' regional war on terror campaign plans that support 
it, are dynamic and under continuous review. SOCOM and the DOD Global 
Synchronization Community have developed structured processes to 
evaluate and prioritize the many capabilities, operations, activities, 
resources and forces required for DOD's efforts to deter, disrupt, and 
defeat terrorism. SOCOM provides real and virtual venues for regular 
meetings, briefings, and conferences with each of the GCCs, interagency 
partners, and friendly and allied nations. The primary forum is the 
semi-annual Global Synchronization Conference. Because collaboration 
with our partner nations is so important, several other programs such 
as the foreign attache-based Sovereign Challenge and our upcoming 
International SOF Week improve global cooperation.
    SOCOM's Interagency Task Force is a catalyst to rapidly facilitate 
CT collaboration within the U.S. Government against trans-regional, 
functional, and strategic level problem sets and opportunities.
    SOCOM's International Engagement Program identifies requirements 
and helps coordinate actions within selected foreign countries to 
assist, resolve and enhance their CT capabilities and increase overall 
information sharing.
Future Concepts
    The 2006 Quadrennial Defense Review (QDR) identified several 
initiatives to give the Department greater capability and agility in 
dealing with the most common and enduring threats of the 21st century. 
The development of IR capabilities was prominent. SOCOM plays a lead 
role in developing IW doctrine.
    The IW Joint Operating Concept, developed by SOCOM in partnership 
the Marine Corps, was approved and signed by the Secretary of Defense 
in September 2007. It is the first step in the promulgation of IW 
doctrine, organization, training, materiel, leader development and 
education, personnel, and facilities.
    In order to maintain the momentum in IW planning and policy, SOCOM 
established an IW Directorate (J10) in 2007. The J10 provides 
continuous focus on IW related issues that cut across operational and 
programmatic lines.
           develop and support our people and their families
    The Commander of SOCOM is responsible for ensuring the combat 
readiness of assigned forces. With this requirement comes the need for 
better defined personnel management authorities and readiness reporting 
frameworks.
Recruiting and Retention
    The ability to identify and recruit the best SOF candidates is a 
challenge requiring innovation and commitment of resources. Diversity 
across the force is an operational necessity posing additional 
challenges to recruiting. Attributes sought by the SOF community 
include culturally-attuned individuals proficient in foreign languages 
who physically blend into the operational environment.
    Ongoing personnel sustainment and programmed growth efforts 
directed by the QDR require intense cooperation and support between 
SOCOM, the Services, and DOD. This concentrated effort has paid 
dividends--89 percent of the fiscal year 2007 QDR growth was achieved. 
With support from the Services, the SOF community leveraged a 
combination of innovative accession programs, revamped training 
programs, and implemented retention incentives.
    SOF personnel have deployed often and suffered many casualties. 
SOCOM puts great emphasis on sustainment programs that assist families 
as well as the uniformed member. The SOF Care Coalition project, 
implemented by my predecessor, has been extremely successful through 
patient and family advocacy that extends beyond recovery, 
rehabilitation and any subsequent transition to civilian life. No issue 
is too large or too small. Care Coalition successes range from 
minimizing medical and physical evaluation board bureaucracy, ensuring 
Traumatic Serviceman Group Life Insurance compensation is appropriate, 
coordinating home repairs for a family whose father was deployed, 
making certain a SOF warrior's young daughter received the best TRICARE 
could provide, and providing personalized support for all families 
caring for their hospitalized wounded warrior.
    Although SOCOM is specifically responsible for the special 
operations force defined by Major Force Program (MFP) 11 
authorizations, one of the greatest emergent challenges is the health 
of our service-provided SOF enablers.
Training and Education
    The component assessment and selection programs identify candidates 
with the potential for entry into the SOF community. The initial SOF 
qualification training that follows assessment and selection takes up 
to 2 years to complete, but skills training is continuous thoughout 
one's career in SOF.
    Professional military education remains an essential element to the 
development, sustainment, and advancement of SOF. One initiative 
scheduled to begin in 2008 will expand the SOF Interagency Fellow's 
program to provide post-graduate courses, full degree programs, and 
independent research opportunities for SOF strategists and long-range 
planners.
Language and Culture
    Language skills and cultural knowledge continue to be key to 
establishing effective relations with the foreign forces, 
organizations, and individuals with which SOF will interact. The 1st 
Special Forces Group language training program was recognized by the 
Army and DOD as the best of its kind in 2007 but, although we have 
enhanced all of our language training programs in recent years, we 
remain underqualified in many key languages and dialects. We will 
continue to expand our programs in 2008, stressing the need for a few 
individuals to be thoroughly steeped in select languages and cultures. 
Our initiatives will include exploration of innovative options to 
permit such specialization without sacrificing promotion opportunity.
Joint Special Operations University
    The Joint Special Operations University (JSOU) is responding to the 
increased need for strategic and operational level education for our 
SOF personnel, enablers, and international partners. JSOU will continue 
to offer a range of academic options that address strategic and 
operational subject areas. Programs will include traditional courses 
and seminars; tailored academic electives at the Service professional 
military education institutions; joint mobile education teams; symposia 
and academic workshops; individual performance support; and similar 
activities aimed at the needs of our student base.
                    sustain and modernize the force
Budget
    The budget and acquisition authorities provided in the original 
language that created SOCOM have proven invaluable in enabling SOF to 
be properly trained and equipped.
    The fiscal year 2009 President's budget request of $5.727 billion 
for Major Force Program 11 will permit continued development of 
capabilities peculiar to special operations. This request will continue 
our investment in capabilities to improve SOF warrior systems, promote 
specialized and institutional training, explore and exploit new 
technologies and refine force structure. Over half of the budget 
request--$3.7 billion--is for operations and maintenance to sustain SOF 
operational readiness, to maintain equipment, and to provide for fuel, 
consumable supplies, civilian salaries, spare parts, and repair of 
weapons and equipment.
    Of the remainder, $1.5 billion is for procurement, and will be used 
to fund vital SOF-unique modernization and recapitalization efforts in 
force protection, mobility, weapons, munitions, communications, and 
intelligence equipment. An additional $361 million is requested for 
research, development, test, and evaluation to develop SOF-peculiar 
equipment, to provide technological advances, and to modernize SOF 
weapons. Finally, $255 million is requested for Military Construction 
to fund 13 projects in 7 States and 1 project at an overseas location.
    We expect our tempo of operations will remain high even when 
conventional forces downsize in Iraq and Afghanistan. Consequently, the 
funding we have received in supplementals will still be required to 
support our efforts. In order to sustain our operations long term, we 
are working with DOD to pursue a shift of essential supplemental 
funding to the base budget.
Force Structure
    Last year, SOF added 6,443 military and civilian positions. These 
positions provided needed enhancements to both headquarters and 
operational force structure.
    In fiscal year 2009, SOCOM will add another 1,536 military and 
civilian billets across the component commands in order to improve 
readiness and add capacity and capabilities. We will grow to 55,890 
civilian and military personnel by the conclusion of fiscal year 2009, 
of which 43,745 will be Active-Duty military members, 6,870 will be in 
Reserve components (4,310 Guard and 2,560 Reserve) and 5,275 will be 
government civilians.
Acquisition Efforts
    SOCOM's acquisition organization is a very important factor in 
resourcing SOF-peculiar requirements. While Federal Acquisition 
Regulations uniformly apply to the Department, we strive to take 
advantage of flexibilities that are inherent in these guidelines to 
quickly provide materiel solutions for the SOF operator. Because our 
budget authority is limited to SOF-peculiar equipment and 
modifications, SOCOM must work closely with the three military 
departments (MILDEPs), because the MILDEPs fund, develop, acquire and 
provide the basic Service-common vehicles, aircraft, boats, weapons, 
ammunition and other equipment to SOCOM, which we then modify to SOF-
specific platforms, systems and/or equipment.
    When a SOF requirement cannot be met using a Service-common 
solution, SOCOM uses its authority to develop and acquire SOF-peculiar 
equipment or modify the Service-common equipment to meet SOF needs. 
SOCOM's acquisition culture stresses assertive risk management, and 
process efficiencies to steward a system that is often more tailorable, 
responsive, and agile than elsewhere in DOD.
    SOCOM's Urgent Deployment Acquisition process continues to provide 
a rapid acquisition and logistics response to combat mission needs 
statements submitted by deployed SOF. Most capabilities developed under 
this program are delivered to the forces within 6 months to a year 
after the requirement is validated.
    Our total requirements, funding and acquisition sub-processes are 
still slower and more restrictive than we believe is optimal for this 
specialized force. During the coming year we intend to explore whether 
we are using the full extent of our legislated authorities as Congress 
and President intended when SOCOM was established.
Science and Technology
    SOCOM's Science and Technology (S&T) strategy is to selectively 
invest and leverage available resources with the MILDEPs and other 
agency laboratories, academia, and industry for the purpose of 
maximizing SOF capabilities. S&T programs identify and assess emerging 
technologies for potential insertion into current and future SOF 
concepts, requirements, and acquisition programs of record. As the 
strategic, tactical, and geopolitical environments in which SOF 
operates evolve, so too does the S&T investment focus and support.
    The SOCOM Special Operations Technology Development (SOTD), Special 
Operations Advanced Technology Development (SOST) and Small Business 
Innovation Research programs work together to synergistically develop, 
evaluate, and eventually transition key technologies. The SOCOM 
Locating, Tagging and Tracking efforts are being staffed through the 
SOTD and SOST programs in collaboration with our program executive 
officers, the Defense Research and Engineering Directorate, the MILDEPs 
and interagency partners. Our involvement in several Advanced Concept 
Technology Demonstrations and Joint Capability Technology 
Demonstrations allows SOCOM to leverage the resources of other 
organizations to create robust opportunities for evaluating and 
transforming mature technologies in a way that SOCOM could not 
otherwise afford on our limited S&T budget.
Equipping the SOF Warrior
    The new combat assault rifles, the MK16 and MK17 and their 
associated enhanced grenade launcher module, completed development and 
began limited fielding in 2007. We expect these weapons to be fully 
deployed by the end of 2009. SOCOM will continue the development of 
next-generation ammunitions as well as fused-image-capable, clip-on 
optics for our weapons.
    In 2007, SOCOM fielded more than 11,000 supplemental body armor 
kits, saving lives and reducing injuries by increasing the area of 
ballistic protection beyond that of previously issued SOF body armor. 
More than 4,500 sets of the new protective combat uniform were fielded 
to provide extreme cold weather protection for SOF operators. The 
Command implemented a product improvement effort to reduce the weight 
and/or increase the ballistic performance of the modular integrated 
communications helmet.
    The worldwide proliferation of night vision devices has somewhat 
diminished the technological advantage that the U.S. military possessed 
during the conduct of night operations. Although the technology gap has 
narrowed, SOCOM continues to identify, test and field many new night 
vision and visual augmentation systems. In 2007, SOCOM continued to 
field advancements in thermal imaging and camera technology by putting 
into service visual augmentation systems that were smaller and lighter 
with increased capabilities.
SOF Munitions
    Special purpose munitions, such as demolition, breaching, 
diversionary, and shoulder-fired munitions, are required to accomplish 
SOF missions. Future developments will upgrade the SOF shoulder-fired 
systems with the capability to fire within and from enclosed spaces for 
use in urban environments. We will continue to procure foreign weapons 
and ammunition to train SOF operators so they will be better prepared 
to train the forces of our partner nations.
    Once munitions are developed and fielded, our logistics personnel 
assume responsibility for procurement of replenishment munitions to 
sustain the force. All SOF munitions are intensively managed in order 
to minimize stock levels while simultaneously providing time-sensitive 
capabilities required by the Theater Special Operations Commands.
SOF Communications
    SOCOM continues to transform its respective capabilities in the 
areas of communications, information technology, automation of 
intelligence data and collaboration tools into a single, integrated SOF 
information environment. Such an information environment enhances 
operations by permitting robust command and control capabilities at the 
strategic, operational, and tactical levels and by extending 
information services to the individual SOF warrior.
    As a result, available satellite communications bandwidth is at a 
premium.
SOF Mobility
    SOCOM continues to sustain and modernize the venerable SOF C-130 
fleet. We have engaged with the Department of the Air Force to develop 
strategies for replacing and modernizing the aging MC-130E Combat Talon 
I and MC-130P Combat Shadow fleets. As an interim solution, 4 of 12 
planned MC-130W air refueling tankers were delivered to date, with 4 
more scheduled for delivery in 2008. The eight aircraft will help to 
partially offset those MC-130Es and MC-130Ps. Four CV-22 trainer 
aircraft and the first three operational CV-22 Ospreys were delivered 
in 2006 and 2007. Three additional aircraft will to be delivered in 
2008, with Initial Operational Capability projected for February 2009.
    SOCOM rotary wing programs, in partnership with the U.S. Army, are 
providing the latest technologies and sustainability upgrades to the 
current SOF rotary wing fleet. Taken together, these programs for the 
MH-47s, MH-60s, and the MH-6Ms will improve current capabilities and 
prepare for future modernization while consolidating the fleet into 
three common standardized airframes. The MH-47G variant has been 
deployed since February 2007. The MH-60M program was accelerated and 
will begin deliveries in 2008. The MH-6M Little Bird is nearing 
completion of its first block modification upgrade. Meanwhile, the MH-
53M fleet is being drawn down for total retirement later this year.
    The fielding and deployment of the Advanced SEAL Delivery System 
(ASDS) in June 2007 moved SOCOM Undersea Mobility capabilities 
significantly forward. ASDS #1 is now available for deployment as a 
reliable combat capability based on successful testing, exercises and 
improvements in reliability. This vehicle enables SOF to perform myriad 
missions in water space that was previously unreachable. Our other 
Undersea Mobility efforts such as the wet submersible Swimmer Delivery 
Vehicle and Dry Deck Shelter will continue to provide capabilities that 
enable SOF to perform a wide range of specialized tasks. There are on 
going studies to better define future undersea mobility joint efforts 
in this area.
    SOCOM recently enhanced its surface maritime mobility systems by 
fielding the advanced forward looking infrared systems for installation 
throughout its combatant craft fleet. As a result of combat lessons 
learned, SOCOM has also fielded other improvements on the special 
operations craft-riverine. As the current models of rigid-hull 
inflatable boats and the SEAL Delivery Vehicles age, SOCOM will begin 
developing the next generation of these surface and undersea maritime 
platforms.
    This year, two new classes of vehicles were introduced for SOF 
ground mobility: the RG-31 medium mine protected vehicle and the RG-33 
mine resistant ambush protected vehicle. These vehicles enable SOF to 
deploy forces across the theater of operations with a level of 
protection previously unavailable. In 2008, SOCOM will begin fielding a 
suspension upgrade for our primary ground mobility vehicle (HMMWV 
variants) in order to return payload and mobility to the platform that 
was lost with the addition of heavy armor packages. Additionally, the 
light mobility vehicle, delivering in 2008, will carry 3-5 personnel 
over all types of terrain and is deployable from multiple aircraft 
platforms, including the CV-22.
SOF Sensor Systems
    Sensor systems that provide persistent ISR are essential elements 
of SOCOM's operations and force protection. SOCOM has been swiftly 
fielding persistent ISR capabilities within budgetary constraints and 
respective Service training program limitations. We have modified 
existing SOF equipment where available, procured additional manned and 
unmanned ISR platforms, and partnered with the MILDEPs, Defense 
Research and Engineering Directorate and the Joint IED Defeat 
Organization to cooperatively field additional sensors.
    SOF Locating, Tagging, and Tracking capabilities are currently 
providing valuable information regarding hostile force location, 
movement, and intent while minimizing risk to U.S. personnel. SOCOM, in 
conjunction with other government partners, will continue to invest in 
leading-edge technologies for sensors and data infiltration and 
exfiltration.
    Improved laser range finders and designators, hand-held thermal 
imagers, infrared pointers and marking and illuminating devices are a 
few of the capabilities delivered over the past year. Eye-safe laser 
range finders and binoculars provided a marked improvement in the 
determination of enemy target locations. Improved target geo-location 
accuracy was demonstrated in 2007, providing SOCOM with the world's 
most accurate self-contained laser targeting geo-locater.
    Additionally, SOCOM acquired and utilizes a combination of several 
manned and unmanned airborne ISR assets to provide the necessary 
flexibility for supporting the dynamic SOF mission set. Unmanned aerial 
systems continue to be powerful force multipliers for SOF activities 
and a key component of almost every operation. The micro unmanned 
aerial systems, the long-endurance Predator class systems, and the 
potential ultra-long-endurance unmanned aerial systems, such as the 
Global Observer JCTD, are platforms that provide force protection to 
small SOF units and aid in the identification and tracking of 
individual targets and items of interest. SOCOM also continues to grow 
our manned airborne ISR capability to complement the unmanned ISR 
systems. In fiscal year 2007, additional airborne ISR aircraft were 
procured with supplemental funds, and SOCOM partnered with the National 
Guard Bureau to rapidly modify and employ Air National Guard aircraft 
and air crews to augment SOCOM's organic ISR capability.
                               conclusion
    We continue to improve our capability and capacity to conduct all 
of our assigned missions, carefully balancing the demands of both 
preceding and responding to the sound of guns. Over the course of 
SOCOM's 21 year history, Congress has consistently demonstrated strong 
interest in the command and its people. The joint SOF you see around 
the globe today is a direct product of your vision, your trust, and 
your commitment to build the world's premier Special Operations 
capability. We will prevail against those who threaten us and assist 
those who don't. The men and women of the SOF will meet your highest 
expectations. Thank you for your continued support.

    Chairman Levin. Thank you.
    Admiral Fallon, what further reductions in U.S. troop 
levels do you see for the rest of this year, assuming the 
current level of violence continues?
    Admiral Fallon. Senator, I'm eagerly awaiting General 
Petraeus' response to some planning guidance that I provided to 
him recently for his assessment of courses of action. I think 
there should be little doubt that our desire is to continue to 
bring our force levels down in Iraq as the Iraqis demonstrate 
their ability to stand up and take responsibility for security 
in the country. Those trends are certainly encouraging and 
moving in the right direction.
    But it's critical that, of course, we not lose the ground 
that's been so hard fought this year in providing the overall 
stability and security. I don't want to give you a number until 
I see General Petraeus' input, but I think that we are clearly 
in agreement in the direction we want to go.
    Chairman Levin. Admiral, as Senator Warner said, the surge 
has helped produce a reduction in violence. I think that's 
clear. Its primary purpose, however, was to give the political 
leaders the chance to work out political differences. There was 
recently a statement ballyhooing the decision of the assembly 
over there to adopt some legislation which would have 
represented progress. There was a bundle of three bills. One of 
them was then vetoed by a member of the Presidency Council.
    What is the status of the other two bills that were in that 
bundle? Are they interrelated?
    Admiral Fallon. Senator, they were interrelated in the 
political discussions that enabled the COR to vote and move 
those forward. But the other two bills, my understanding is 
that they are still in play and we have every expectation that 
they're going to go forward. They were linked politically for 
the purpose of getting approval through the COR, but now that 
they're agreed they're independent.
    Chairman Levin. Are they law?
    Admiral Fallon. They should become law once the waiting 
period expires on those.
    Chairman Levin. Senator Warner asked a question which I 
think is a very pertinent one and I want to comment on it and 
then ask you to answer it. That has to do with the visit of 
President Ahmedinejad to Iraq. We've shed a lot of blood and 
our taxpayers have spent a lot of money to give Iraq an 
opportunity to be independent. Next door is a threat to them. 
It's called Iran, who is seeking weapons of mass destruction, 
nuclear weapons, against the wishes of the United States, and 
providing weaponry which is killing our men and women still.
    Then we see their leader, a virulent leader, a vituperative 
leader, their president, who comes to visit Iraq. I think it's 
offensive. The Iraqi leaders have every right to invite whoever 
they want. They're sovereign. But we have a right to express an 
opinion about it. Have we expressed an opinion about this to 
the leadership of Iraq?
    Admiral Fallon. Senator, I'll address a couple of aspects 
of that if I could. Certainly, as you indicated, Iraq's a 
sovereign country. They have the right to do what they choose. 
The reality is that Iran is a neighbor that shares a long 
border with them. As with many things in life, there are mixed 
blessings. It's not all one way.
    I would highlight a comment that's alleged to have been 
made by Minister Bulani, the Minister of Interior, I think 
yesterday in Iran, in which he was asked what he thought about 
it, the visit, and as I understand it highlighted the fact that 
there are many things that are perceived as good coming from 
Iran, and he highlighted food and other things that are helping 
make life better for some Iraqis. On the other hand, the point 
you made: There are lethal weapons, training, support coming 
over, that are being used against not only our people, but 
moderate Iraqis. So it's a mixed bag.
    From my perspective, we are not going to be able to help to 
solve the problems inside that country without assistance from 
outside. In the past year it's been encouraging to note the 
many countries who have come to begin to assist Iraq in very 
positive ways. Iran has not been one of those to the best of my 
insight and observation.
    There may be an opportunity here. My understanding from 
speaking to General Petraeus and Ambassador Crocker on this 
subject is that we certainly have expectations that the Iraqi 
leadership in their engagement with President Ahmedinejad would 
convey to him the necessity of stopping this lethal flow of 
equipment and beginning to show positive signs that they are 
willing to work with the Iraqi Government and with us. We've 
had a series of engagements, the first in many decades, with 
Iran. We have had one scheduled engagement that keeps being 
postponed. I think this is a venue in which we might be able to 
move some kind of a dialogue forward to get them to be more 
cooperative and helpful in this area.
    I have to tell you that it's a difficult picture to 
absolutely determine where we are. The levels of lethal 
assistance into Iraq, difficult for us to pinpoint, but there's 
certainly been a diminution of activity in the last several 
months, particularly regarding these IEDs, explosively formed 
penetrators, the particular version of those, that are 
obviously coming from, at least our vision, obviously coming 
from Iran. How much of this is directly a result of decisions 
made in Teheran and how much of it is due to our own people and 
their good work in the field, I don't know. But this kind of 
trend is something that we want to see accelerated and moved 
on.
    Chairman Levin. I'm not raising the question of having some 
kind of contacts with Iran and expressing positions to Iran. 
I'm talking about inviting that particular president, a 
vituperative extremist, to Iraq, and I don't think it's a mixed 
bag at all. That invitation, I don't think it's a mixed 
blessing. I think it's an unmixed mistake. Not the opening to 
Iran, not the conversations, not the discussions, but that 
particular invitation to that particular president it seems to 
me sends exactly the wrong message to Iran and to the world.
    Senator Warner.
    Senator Warner. Mr. Chairman, I join you on that issue of 
the visit by President Ahmedinejad.
    I'm glad that you gave I think a fairly comprehensive 
answer to the chairman's question, and I would hope that others 
in the administration would express their indignation about 
this visit and the comments made by that president, because 
they go to the very heart of the enormity of the sacrifices of 
life and limb that we have suffered in trying to provide Iraq 
the ability to become a strong sovereign nation and a working 
partner for all the Nations in that region. You, I think, are 
the only one that I know of that has expressed any opinion thus 
far. A White House spokesman sort of touched on the question 
here recently, but I cannot find where anyone else spoke out on 
it.
    Let's turn to NATO. We are sending over two battalions of 
marines, one to provide a training mission for the Afghani 
forces, the second to--and I asked this of the Commandant and I 
think he acknowledged it--is to sort of be a September 11 type 
force, to be utilized in Afghanistan wherever the situation is 
tough. These marines are up to that tough fight. You know that.
    But I believe those two battalions were needed because of 
the shortfalls in the commitments made by other nations in 
forming the alliance that went in under the command of NATO, 
into Afghanistan. Do you share that view?
    Admiral Fallon. Senator, if you'll permit me to double 
back, lest there be any doubt. My view of Iranian behavior 
regarding Iraq and their activities is they've been absolutely 
unhelpful, very damaging; and I absolutely don't condone any of 
their activities. I have yet to see anything since I've been in 
this job in the way of a public action by Iran that's been at 
all helpful in this region, and particularly in Iraq, rather.
    To Afghanistan and the marines: As we looked at the 
situation there and, as Senator Levin indicated, we've been 
doing some assessment of where we are and what we might be able 
to do in the future, it seemed to me that we could benefit from 
an injection of forces there if we could pull them together, to 
capitalize on the situation we find ourselves in at the end of 
winter, as we approach the end of the winter here.
    I believe that General McNeal ought to be able to take 
advantage of this significantly capable maneuver force, special 
purpose Marine air ground task force, that's moving into the 
country, to give him the flexibility to deal with the Taliban 
and their al Qaeda allies, to really move us up into security 
and stability.
    We all know that there's been a longstanding requirement 
from General McNeal for additional maneuver forces from NATO 
writ large. It's clear that that requirement is not being met, 
and it seemed to me that from my view we ought to do anything 
we can to try to help General McNeal and give him the assets 
that he needs.
    At the same time, the other battalion I believe is going to 
be of great value to us in helping to grow the Afghan security 
forces in a way that will be helpful to us. This is another 
shortfall that we've had for some time, that we have not been 
able to come up with enough people. I think this is going to be 
very useful and helpful to us, and so I'm anxious to get these 
folks over there and put them to work.
    Senator Warner. Let's turn to this question of the emerging 
of the major narco-state as it relates to the poppy production. 
This has been the football that's been passed around to several 
countries to deal with, and it has each year increased in size 
and the flow of funds from this are directly in large measure 
going into the Taliban to enable them to do the combat missions 
against NATO and the U.S. forces.
    Now, when are we going to see a turnaround in this 
situation, and what actions? I ask these to you in a very 
forceful way for your views on this, but it is largely the 
responsibility I think of the Department of State and the 
Afghan Government under President Karzai. Therein rests the 
primary responsibility. But we cannot tolerate this.
    It's interesting to note in history that when the Taliban 
were in control of Afghanistan the poppy production was but a 
mere fraction of what it is today. So it's literally grown in 
size as a consequence of the situation to try and liberate 
Afghanistan so that it can join the Nations of the world as a 
democracy. In that area we have failed.
    What steps are likely to be taken in the future or what 
steps are you in your position asking of our Government and 
other governments to end this exponential growth in the poppy 
production?
    Admiral Fallon. Senator, this scourge of poppy production 
afflicts not only the Afghan people, but, as you indicated, 
many parts of the world. Why the increase? I think several 
factors are at play here. Last year the weather conditions they 
tell me were pretty much ideal for the production of this 
stuff. The fact that the Taliban are using poppy production as 
a means to fund their activities is pretty widely accepted.
    If we're going to get it fixed, we collectively, ourselves, 
the Afghan Government, the rest of the world that's trying to 
assist this government, are going to have to get their act 
together, I believe, and focus on getting the job done. From 
what I know and information, there are a couple of initiatives 
within the Afghan Government to do this. There's a drug 
eradication operation with people and materials and funding 
within the Government of Afghanistan. There's a new initiative. 
We've been in discussion with the Afghan military and they have 
decided to dedicate a new battalion, or kandak, as they call 
it, whose specific and only task will be to work on this drug 
eradication. They're in training right now. They're getting the 
materials and the tools to do this, and we expect to be able to 
put them in the field here in a couple months and actually have 
them going after those poppy fields that are under cultivation.
    As I get around Afghanistan and look at different areas, 
it's really a mixed bag. Those areas which have been 
historically most productive here in growing these poppies, are 
those that are typically the most unstable, the most insecure.
    A couple months ago I went around and met some of the 
governors and made an interesting observation. Those provinces 
that were particularly well led, strong governors, the poppy 
production is either nonexistent or minimized. I met with a 
couple of them who had a problem of significance last year. 
They've assured me that they've taken steps in the fall, and 
that's when the initial actions had to be done to prevent the 
planting of this crop. They've taken actions. I'll be anxious 
to see what really transpires.
    President Karzai and his government for their part have to 
step up and recognize this is a problem. I realize it's 
complex, that it's a traditional activity in the country, but 
it has to stop, and my sense is that progress----
    Senator Warner. I hope they could take a lead on it. My 
time has expired, but we ought to send a message to President 
Karzai. I know he's up for reelection in about a year, but he 
can't sit on his hands and tolerate this situation. He has to 
move out assertively.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Admiral Fallon, Admiral Olson, thank you for your 
extraordinary service.
    I want to say just briefly, about the Ahmedinejad visit to 
Iraq, that I share my colleagues' sense of outrage about it. I 
also want to thank you for, both in your prepared statement and 
your testimony here this morning, making very clear that 
there's no doubt in the mind of the American military that the 
Iranians continue to provide lethal training and equipment to 
the Iraqis, even though--and this is why I say this--
Ahmadinejad when he was in Iraq denied any such behavior by 
Iran, which is simply a lie.
    Admiral Fallon. The facts prove otherwise.
    Senator Lieberman. The facts prove otherwise, and I thank 
you for saying that.
    A few questions about Iraq. Again, it means a lot to hear 
from you, looking back to last year--and I'm quoting you--that, 
regarding Iraq, you're very encouraged that we're on an upward 
vector. I appreciate that. I know, as you said, we fought hard 
to achieve that, so did the Iraqis, and we're fortunate for 
that.
    We're now in the process of pulling down the additional 
troops, moving out the additional troops that were sent as part 
of the surge. That withdrawal will be completed in July. Then 
there'll be the pause.
    I wanted to ask you this, and I quote from you again. You 
said: ``It's critical that we not lose the ground that we 
fought so hard to attain in Iraq.'' There's been some concern, 
acknowledging the reality of the stress on our forces as a 
result of Iraq and Afghanistan, that there'd be pressure to 
pull more forces down after the pause, based more on the stress 
on the forces than on conditions on the ground. I wanted to ask 
you personally, in your role at CENTCOM. My belief, based on 
what I've heard you say today and before, is that the primary 
consideration in responding to General Petraeus' recommendation 
will be that we not lose the ground that we have fought so hard 
to obtain and win in Iraq thus far. Am I right?
    Admiral Fallon. Yes, sir, Senator. I think there may be too 
much focus on the word ``pause'' and what that means, what it 
might mean or might not mean. The reality is that as we go 
forward to the midyear point this year there is a plan that's 
been well vetted and very complex, that will continue to draw 
down those surge brigades as their 15 months in country comes 
to an end. That in itself is a recognition of this other 
reality that there's great stress on our force.
    Senator Lieberman. Right.
    Admiral Fallon. It's not only that these units are going to 
be withdrawn. We have every expectation that that's going to 
continue apace. But there are also some other brigade combat 
teams that are in the process of rotating so that their 
numerical reliefs will be coming in at the same time. This is 
an awful lot of activity in a short period of time.
    I expect General Petraeus is going to come in and recommend 
to me and to the chain of command is that it's prudent to make 
an assessment of where we are. It's not just pulling troops 
out, but he has a really significantly difficult task, in that 
as we withdraw these many thousands of troops he has to reset 
the lines of command and control within the country. It's 
significantly different now than it was a year ago, because 
there are many more Iraqi security forces that are now in the 
field and coming in. They did their own surge this past year, 
increasing their numbers.
    So General Petraeus has this major task of resetting the 
battlefield here, and that's the focus, to keep the momentum 
going, to keep the stability and security. It is truly 
remarkable today to look at the statistical evidence and, as 
many of you know because you were in there to see it, to 
actually see the difference on the ground.
    Senator Lieberman. It is remarkable, and it didn't happen 
as an accident. There was tremendous effort by our forces under 
your leadership and others, and some excellent work by the 
Iraqis as well.
    Let me ask you one final question. Over the last weekend 
there's been some confusion about a pause ending automatically 
after 45 days. In other words, there was a story in some of the 
press based on communication with an unnamed national security 
official which led some to believe that there would be a 45-day 
pause and then automatically the troops would begin to come 
out.
    President Bush said that was not his intention, that there 
would be a review and troops would come out based on conditions 
on the ground and of course based on recommendations from 
General Petraeus, yourself, and up the chain of command.
    So what was the confusion about the 45 days?
    Admiral Fallon. I think the confusion is because this is 
all speculation. The facts are General Petraeus has yet to come 
back to me formally with his recommendations and of course I'm 
going to wait until I see what he says before we decide.
    Senator Lieberman. Right.
    Admiral Fallon. The reality is that we'll look at the whole 
situation. I'll be eager to hear what he has to say and to have 
his input into that. I think nothing is written in stone. 
Assuming decisions are made, that people are going to be smart 
enough to recognize that we'll take actions based on the 
conditions we find. If those conditions change, I expect that 
there'll be every consideration.
    But all of this is speculation. The facts are that he has 
not come in with his recommendations. I think we ought to just 
wait a few weeks and see what he has to say, and then we'll be 
happy to take that and go forward.
    Senator Lieberman. I appreciate that, and I find it 
reassuring, one in that General Petraeus is the key original 
source of recommendation from the field; two, that conditions 
on the ground will determine the pace of the reduction in our 
forces, which all of us want. We spent a lot of time arguing in 
the Senate about the troops coming home. Everybody wants the 
troops to come home. The question is are we going to order them 
out from here or are they going to be brought out by the 
military and the Commander in Chief based on what's happening 
on the ground, and I hear you say, of course, the latter.
    The one of the three new laws that did not make it because 
of a veto on that council presumably will be passed before--and 
that's the provincial election law, which will provide for 
elections, or at least in its original form, no later than 
October 1. Very important from everybody I've talked to.
    I just want to get a reassurance that one of the factors 
that you'll consider as you consider the pace of withdrawal of 
troops is that we wouldn't want to take on any additional risk 
or vulnerability at a time of the elections when we presume the 
terrorists would be looking to create maximum disruption.
    Admiral Fallon. Senator, the provincial powers legislation 
in Iraq is a political document. You are much more aware of how 
this works than I. My understanding is that the process that 
has been codified by the Iraqi people in their legislation to 
date affords an opportunity for that legislation to go back and 
be reviewed and hopefully move forward.
    It's complex. There are aspects of this that we're 
cheering. I personally would like to see elections as soon as 
practical in as many areas as we can. We deal with risk every 
day. I think that's the job that has been entrusted to me and 
I'll certainly seriously consider every aspect of that risk in 
making my recommendations and decisions.
    Senator Lieberman. Thank you very much, Admiral.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First of all, let me associate myself with the remarks of 
Senator Warner in terms of the progress of the surge, and also 
in your printed statement--I'm not sure you got to it in your 
verbal statement--talking about the quality of the training in 
Afghanistan. I'm very proud that--I was over there 3 or 4 years 
ago, and we turned over the training of the Afghan National 
Army to the Afghans, and that happened to be the Oklahoma 45th 
that was over there. So I think that we've been following their 
progress and they've been very successful.
    My three favorite programs that I want to get your opinions 
on. You did cover them somewhat in your opening and in your 
written statement. First of all, the train and equip, 1206, 
1207, 1208 authorizations, they expire this year. We tried to 
get reauthorization last time and expanding the authority that 
goes with those train and equip programs, but were unable to do 
it, not because there was opposition, but we just ran out of 
time.
    I'd like to have both of you on the train and equip 
programs give us your candid opinion.
    Admiral Fallon. Eric, do you want to step up to the mike?
    Admiral Olson. It's hard to overstate the importance of 
those authorities, particularly 1206 and 1208, in the world in 
which I operate. 1208 is an authority peculiar to Special 
Operations. It is an authorization, not an appropriation. It 
authorizes $25 million to be spent around the globe on Special 
Operations train and equip activities. We have grown into 1208 
very well and in fact we are approaching the $25 million limit.
    Senator Inhofe. I understand that's actually the smallest 
of the three programs. But you're the one to address that.
    Admiral Olson. It is by a long shot, yes, sir. The 
realization has struck me that once in it's hard to back out, 
and so this will have to be an increase in authority over time.
    Senator Inhofe. Do you agree, Admiral Fallon, with his 
comments on the significance of the program?
    Admiral Fallon. Senator, I certainly do, and if I could 
offer an endorsement to an Office of the Secretary of Defense 
proposal, the building partnership capacity, global partnership 
capacity initiative, which would propose pulling together the 
1206, 1207, and the Commander's Emergency Response Program 
(CERP) together.
    Senator Inhofe. Yes, the other thing I was going to ask you 
about is the CERP. It's been my opinion is so significant to 
the commanders out there, and money well spent.
    Admiral Fallon. As I look at the progress that's been made 
in Iraq and progress in Afghanistan, and particularly in the 
eastern region where U.S. forces are operating in Afghanistan, 
this is one of the most important and crucial factors in 
progress in both areas, is this ability to actually use a 
relatively small amount of funds compared to some other 
expenditures to directly affect capacity-building with our 
partners on the ground, to give our commanders the opportunity 
to actually fix things right on the spot.
    It's so different to watch our people in Afghanistan, for 
example, and their ability to deal with challenges and watch 
the way other countries do it. I strongly encourage the 
support.
    Senator Inhofe. I see Admiral Olson nodding in agreement. 
Of course that's the program that needs to be globalized, and I 
think you would agree with that. Anyway, that expires also this 
year, so we need to address that.
    Then the third one and the last one is the International 
Military Education and Training (IMET) program. There was a 
time when we treated that program as if we were doing countries 
a favor by bringing their people over and training them and 
actually requiring Article 98 cooperation before allowing them 
to do it. I think we recognized in the last authorization bill 
that it's doing us the bigger favor, so we eliminated that 
requirement.
    Do you see that as a high priority program, the two of you?
    Admiral Olson. Sir, as part of my responsibilities for 
synchronizing planning in the global war on terrorism we 
develop and recommend the list of priority countries, 1 through 
204 in terms of their importance. As I go through the top 
countries on that list, I'm struck by how underfunded IMET is 
in most of those countries. In the places we go and the people 
with whom we work, having trained in the United States is a 
badge of honor that is proudly worn, almost a self-selection 
criteria. It's clear early who has trained in the United States 
and who hasn't. The power of IMET to bring people to this 
country, to train them in skills and knowledge at schools and 
universities, is truly powerful. I think you said it very well 
when you said we used to think of it as doing something for 
them, but it truly is doing something very important for us.
    Senator Inhofe. It builds an allegiance that stays there. 
I've noticed this in a lot of the African countries, so I do 
appreciate it. We need to do that.
    Speaking of Africa, with the Africa Command (AFRICOM) 
coming on I've had extensive conversations with General Ward. 
Do you think the transition's coming along all right? Just a 
short answer.
    Admiral Fallon. Thanks, Senator. If I could double back, I 
have to say something about IMET. Of all the programs that are 
funded by this institution, there are none that I think offer 
us the potential on leverage to do good for ourselves and 
people around the world than this program. It's really painful 
for me to watch the down side of the use of this program in a 
way to either punish or to try to get the attention of other 
countries. I understand the rationale behind it, but I have to 
tell you the damage it does is significant.
    Let's take one country, Pakistan. For almost a decade, for 
reasons that we well understand and appreciate, we had a 
situation in which we were not permitted to have this kind of 
engagement with this country. We are paying price for that 
right now, because we have a large block of the leadership of 
their military services that, frankly, are dubious of trust 
with us. As we try to help them face the challenges they 
undergo today, it's really a challenge.
    So I can't say enough for IMET. It's not only the 
opportunity to train people and make the associations, but when 
they go back and spread this word it's very helpful.
    To AFRICOM, my intention is to take that part of Africa in 
which we are engaged right now, in the Horn, which is grouped 
under a command, Joint Task Force-HOA, and to try to take that 
organization and structure as it exists, to transfer it to 
AFRICOM, to continue the same kind of good work that they're 
doing. Every single one of our ambassadors, every single one of 
the leaders of those countries in that region, tell me they're 
grateful, appreciate, and they want it to continue in just that 
manner.
    Senator Inhofe. I think you have the right guy running that 
over there. He's doing a very good job.
    My time has expired, so the last two questions I'll ask for 
the record if you don't mind. One is your feelings about the 
African brigades. It's been going very slowly. The East African 
Brigade in Ethiopia and the West in Ghana with the Economic 
Community of West African States are doing pretty well, but the 
other three are not. So I just would like to get for the record 
something as to what you feel the status is and the 
significance is.
    [The information referred to follows:]

    The Eastern African Standby Brigade (EASBRIG) is part of an African 
Union (AU) initiative to establish five regional standby brigades 
(north, south, east, west, and central) that can deploy as quick 
reaction forces in support of peacekeeping and humanitarian relief 
operations throughout Africa. Britain, France, Canada, and the U.S. are 
partners in supporting the concept of EASBRIG. Combined Joint Task 
Force-Horn of Africa (CJTF-HOA) is the implementing agency for U.S. 
Department of Defense involvement. A truly capable EASBRIG is important 
to U.S. interests because it would provide a regional peacekeeping and 
peace support operations capability and would contribute to the 
creation of an overaching regional security architecture.
    EASBRIG currently consists of a limited HQ staff in Addis Ababa, 
Ethiopia, a Coordination Mechanism (EASBRICOM) and a Planning Element 
in Nairobi, Kenya. CENTCOM, thru CJTF-HOA, has worked with the AU staff 
to assist in the development of a training and structural needs 
assessment of EASBRIG, as well as exploring options, within CJTF-HOA 
resources, to support EASBRIG capacity building leading to a 
Headquarter Command Post Exercise.

    Senator Inhofe. Admiral Fallon, you and I fought and lost a 
3-year battle called the battle of Vieques, and we did the best 
we could. It was not a partisan thing. It wasn't Democrats or 
Republicans. But we lost. It's interesting now that the very 
opposition in Puerto Rico that was there is now coming back 
saying: We've changed our minds. Well, we were right and they 
were wrong.
    But for the record, I'd like to have you inform us as to 
the quality of the integrated training that was there before 
and after and how we're progressing in making up for that 
vacuum that I think is sorely missed.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    The loss of the Vieques training facility has had no operational 
impact for units currently operating within the Central Command area of 
responsibility. Since the closure of Vieques in May 2003, units are and 
have been arriving in theater with all training requirements complete. 
Over the last 4\1/2\ years, the Navy and Marine Corps have adapted 
their training by utilizing combinations of alternate training 
facilities in order to provide the same training opportunities that 
were afforded by the Vieques training facility.

    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    Admiral Fallon, I know my colleagues have commented on the 
visit of President Ahmadinejad, but I think his visit and, 
frankly, the warm response he received in Baghdad, raises a 
fundamental question about our strategy. Iran now seems to me 
more powerful than it was 5 years ago, both politically and one 
might argue also militarily, working not directly but 
indirectly through surrogates in Iraq itself, in Lebanon, and 
elsewhere.
    From a strategic point of view, doesn't this question what 
we've been doing the last 5 years?
    Admiral Fallon. Senator, I'm not sure. What we've been 
doing in regard to what?
    Senator Reed. To Iran. We've seen them grow. We have 
invested trillions of dollars in our efforts in the region. 
Iran, I argued back in 2003, was a much more serious threat to 
stability in the region and to our interests in the region than 
Iraq was. Now we've seen them, frankly, become more robust, 
more politically accepted, and I think it underscores a 
fundamental strategic fault or flaw that this administration 
has pursued for the last several years.
    Admiral Fallon. Senator, Iran is a complex issue. I would 
give you maybe a little different view of Iran and their 
influence and their stature, if you would, in the region. As I 
talk to countries throughout the region and all of Iran's 
immediate neighbors, what I come away with is a lot of 
skepticism, a lot of distrust, a lot of anxiety about them. In 
my opinion their stature has not grown. To the contrary, 
countries are taking a very dim view of their engagement.
    They know the game. They know that Ahmadinejad gets out, 
gets a lot of face time. We see other people in other parts of 
the world that act in a similar manner. But at the core of 
things, people are concerned, and they are engaging with us--
these are the neighbors--to ascertain our intentions, to be 
able to stand tall, to not knuckle under to any Iranian 
intimidation or pressure. They're anxious to have us support 
them.
    Nobody's looking for another conflict, but they are 
certainly looking for support from us in our approach. It seems 
to me that that's what we ought to be trying to do, and that's 
certainly what I do in my engagement with these countries.
    Senator Reed. So how would you assess the influence of Iran 
in Iraq today versus 5 years ago?
    Admiral Fallon. I think the situation is so different in 
Iraq today than 5 years ago that it's pretty difficult to say, 
because you'd have to set up the conditions and the conditions 
are very different.
    Senator Reed. Would President Ahmadinejad have made a trip 
to Baghdad 5 years ago?
    Admiral Fallon. Speculation: probably not. I suspect the 
pollsters are out hard at work today asking this same question, 
what do you think about this, of the Iraqi people. Even in the 
south, where the Iranians have been working overtime to try to 
maximize their influence, there's increasing skepticism from 
every report that I see from our engagement with the people 
there. They're dubious of Iran's real intentions.
    I mean, frankly, practically, most everybody in Iraq has 
been happy to take their money, and they've been spreading a 
lot of it around by every account. But they're now realizing 
that there may be other intentions here, and I'm beginning to 
sense a significant pushback. Again, I don't know all the 
factors that are at play, particularly in the south, but I do 
know that things have kind of gone the other way now, and I 
think that as people--first of all, as the Iraqis get more 
confident in their own ability, my sense is that there's going 
to be a little bit of--I'm out in front of my headlights here, 
but every indication I have is that people are realizing that 
there's no free lunch here. Yes, they like the tomatoes and the 
potatoes and the mattresses and the other things that are 
helping, and I've been to the borders. I've watched this 
incredible amount of traffic coming across.
    The Iraqi people welcome the average Iranian pilgrim who 
wants to come and visit the shrines, and there's a tremendous 
traffic there and that's an economic benefit, of course, to the 
people. You can see the interaction with them. But the people 
are not stupid. They recognize that this is a potential double-
edged sword, and it's in our interest to continue to work with 
the Iraqi people. It's pretty obvious to me, if you look at 
just the data of responses to questions in the last 6 months, 
as security and stability have expanded in this country, people 
have come to realize that the reason that's expanded is because 
of our engagement with them and not the Iranians. They have not 
been particularly helpful.
    So I think it's in our best interest to continue to engage, 
to continue to try to build security and stability, and I think 
the Iraqi people are going to be smart enough to realize what's 
going on here.
    Senator Reed. So you aren't troubled by the presence of the 
Iranians politically or tactically on the ground?
    Admiral Fallon. Of course I am. We want to do everything we 
can, and from the military standpoint we are working overtime 
with our commanders to try to cut off this Iranian influence in 
all of its aspects inside of Iraq.
    Senator Reed. There is about 60,000 Sunni militia in the 
Concerned Local Citizens (CLCs) that have not been integrated 
into the formal structure of the security forces there. The 
Government in Afghanistan, heavily dominated by Shia and Kurds, 
seem reluctant to do that. What's your estimate of this taking 
place? Because I think there are many that are concerned that 
if it doesn't take place in the next few months these forces 
will become less supportive and cooperative with us. In fact, 
there was a ``strike'' in Diyalah a few days ago by CLC forces.
    Admiral Fallon. A complex question. Very few free lunches 
or one-way streets certainly in this country. We have clearly 
welcomed the initiative of the people to step up and be willing 
to put themselves and their lives on the line. I think it's 
impractical to expect that all of these folks are going to be 
able to be integrated into the Iraqi security forces. In 
recognition of that, General Petraeus and our team in Iraq have 
been working to try to have other opportunities available. 
There are a number of initiatives that are beginning to be 
under way in and around Iraq to try to provide other 
opportunities, vocational training and--it's jobs, that's the 
bottom line. At the end of the day, this is probably the most 
important thing, the number one issue with the majority of 
people in the country: Give me some meaningful work and give me 
a future and we'll think things are getting better.
    There are issues to work through. This issue in Diyalah 
that you mentioned has been resolved, at least for now, by a 
step by the Iraqi central government to make an adjustment to 
the leadership in the security forces in Diyalah that it turned 
out was acceptable to those CLCs, now called Sons of Iraq, 
they've seen fit to now go back on the job.
    As I was out the week before last in Anbar, went all 
through the province looking and watching at what's going on, I 
saw enthusiasm among the people, those CLCs that are so 
effective. You go to a city like Fallujah now or Ramadi and you 
walk around in the city, very few American troops are seen, 
marines in this case. A few more Iraqi soldiers, but many more 
police and Sons of Iraq. It was interesting to me as I was out 
and about on this last trip. I started off with a large 
contingent of marines to look out for my safety, and we got 
into the city and as we got deeper into the city and just all 
of a sudden, turned around and the marines kind of faded back 
and the fellows that were escorting me and pointing things out 
and providing security were almost all Iraqis, and they were 
proud of it.
    The requests that I got were: Can you please help us to get 
jobs? We want a future and this is the answer.
    I'm sorry, that was a long answer to your question. But I 
don't believe it's practical to put them all back in the army 
or the police, and we have to work hard to make sure we have 
other opportunities.
    Senator Reed. Thank you. My time has expired.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I think it's interesting that those who want the United 
States to talk with anybody in the world now feign the greatest 
concern that Iraq would talk with its neighbor, which is--and 
having some sort of relationship with Iran is important for 
their long-term success; wouldn't you agree, Admiral Fallon?
    Admiral Fallon. Of course. It's their neighbor. They have 
to figure out how to deal with them.
    Senator Sessions. How many miles of border is that? Do you 
happen to know?
    Admiral Fallon. I'd be guessing at the number. It's a long 
border.
    Senator Sessions. A long border. At least they have a good 
bit of contact. So I don't know how to handle this. We tell the 
Iraqis they have to step up and act like a real country and to 
solve political problems, and then they try to meet with a 
country that could destabilize them or could be some sort of 
halfway decent partner in the future and we jump on Maliki. I 
am somewhat taken aback by this line of questioning.
    Admiral Olson and Admiral Fallon--well, first, Admiral 
Fallon, let me ask you this. At the 30,000 foot level there's 
been a good bit of discussion off and on about what kind of 
military commitment works best in this region. I saw an article 
I think in the Washington Times quoting I believe Colonel 
Nagel, who favors a more intensive training of regular army, I 
believe, in things that relate to nation-building. General 
Casey says he hopes we don't have another one of these happen 
again, and certainly we all hope that's true.
    But I'm not convinced we won't have a continual demand on 
the part of the United States as a government to provide 
leadership to states that could fall into the failed state 
category and be a danger to the neighbors and us. So I think 
that is a continual thing.
    Frankly, I find that the military performs better than the 
State Department and other agencies who've been very weak in my 
view in providing leadership.
    I guess what I want to ask you first, and I'll ask you, 
Admiral Olson, are we configured correctly? Are we thinking 
further, hard enough in the years to come about what kind of 
capabilities our military needs in these grey areas between war 
and peace and reconstruction and stability in the areas that 
may be very important to us?
    Admiral Fallon. Senator, we need a multifaceted approach to 
this, it seems to me. Many of the skill sets and capabilities 
that I believe are and will continue to be very effective in 
this engagement are skills that our people are learning in 
significant efforts now inside of Iraq, that will be 
transferable to other places.
    The key thing is to be engaged. We need to be there. We 
need to be visible. We need to gain the trust and confidence of 
people in each of these countries. My number one objective, big 
picture, would be to build capacity in each of these nations so 
that they can look after their own security as the primary 
instrument of stability in their countries. The extent to which 
we can do that is of course a factor of their willingness to 
have us, and that means you have to have engagement to be able 
to build trust, to be invited to help--because it's their 
country; they have to invite us in--having the tools available. 
You've been very generous in providing----
    Senator Sessions. Let me just ask it a little bit 
different. My question is a little bit different. Are you 
satisfied that our budget and plans within the United States 
military are sufficiently focused on preparing ourselves for 
situations like Iraq in the future? Have we thought that 
through sufficiently, and do you have any observations?
    Admiral Fallon. I have one observation to start with: that 
as we look to the future the one thing that's certain is the 
future will never be exactly as the events we've just engaged 
in. So we have ourselves in a position now where we've honed 
and refined the skill set that's very effective in Iraq, that 
has been demonstrated, and trying to figure out which of these 
applications really suits Afghanistan. So I think we're in very 
good shape now for that.
    We also have to be mindful that there are other 
capabilities that might be required in other situations, and I 
think the challenges for the Services in particular are to try 
to balance those requirements. Sometimes they appear to be in 
competition, but what I find is the number one thing is people. 
If we can train our people to be agile of mind and to be 
broadbased in their skill sets, so they're very adaptable, they 
can handle these situations.
    So of all the things you could do, the emphasis on people 
and trying to get and retain the best people, have their skill 
sets as broad as possible, would be the number one thing. I 
think we're generally okay, but I got to tell you that from my 
perspective I'm focused on the execution right now. What I see 
I like. There are not many things except maybe more of them or 
a little more flexibility in the application of the things that 
you've given us, but generally I'm satisfied that we're in 
pretty good shape right now.
    Senator Sessions. Admiral Olson?
    Admiral Olson. Senator, all of the Services are working to 
build a train and assist capability into their forces. It's 
access and how you apply it, is what I think is important. 
Certainly in Iraq and Afghanistan, where we're focused on 
building an army from scratch, the big Services have a capacity 
to do that that's very important.
    In most of the countries of the world, there is in fact, a 
limited appetite for that, and where we earn access through a 
lower profile presence and an enduring engagement, and those 
are the areas that I am more particularly focused on, where 
some sort of cultural awareness that builds up over a 
regionalization over time, a linguistic skill, a maturity of 
experience, and the personal relationships that then do 
contribute significantly to building these partner capacities 
for the purpose of either disengaging from that country as they 
grow their own sovereign capabilities or because we're going to 
fight alongside them in some special circumstances at some 
point in the future.
    We're contributing from Special Operations Forces a great 
number of operational detachments, Alpha, Special Operations A 
Teams, and a few Navy SEAL platoons, to Admiral Fallon to do 
that in specialized units across Iraq and Afghanistan. It works 
well there the way we are doing it in partnership with the big 
Services the way that they are doing it. The issue is how do 
you break down big Service units to do this kind of training 
and will the future structure support sort of taking from the 
big organizations the specific capabilities that you need to 
train to specific skills once we get beyond simply building an 
army.
    Senator Sessions. Thank you.
    Thank you, Mr. Chairman. I would just note that I do think 
we need to not only think about how to replicate Iraq in the 
future better, a situation like that, but the other kind of 
situations we might have and some sort of cadre and training 
program for a number of persons that could help us be more 
effective from day one I think might be helpful.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Admiral Fallon, many of us are so concerned about the 
strain that extended and repeated deployments in Iraq and 
Afghanistan has had on our troops. Last week General Casey 
testified that we would be able to return to the 12-month 
deployment, once the number of Army brigades was drawn down to 
15. But in reviewing his testimony, it's not clear to me 
whether he's talking about 15 combat brigades in both 
Afghanistan and Iraq or just in Iraq. Could you clarify that 
issue for the committee?
    Admiral Fallon. Senator, I can give you my opinion, but I'm 
not sure. I think you probably need to talk to General Casey to 
be sure. My understanding is that it's 15 in Iraq, but I defer 
to General Casey because he's the one that's doing the detailed 
look at his force structure.
    Senator Collins. We have had two recent reports, one from 
the Atlantic Council of the United States, the other from the 
Afghanistan Study Group, that both warned that we have 
insufficient military forces in Afghanistan to accomplish the 
goals, as well as an effort on the economic and diplomatic side 
that is not robust enough. In effect, both of these reports 
warn that Afghanistan is on the brink, that we're at a tipping 
point, and both of them are an urgent call for action.
    We are sending 3,200 additional marines into Afghanistan to 
try to deal with this problem. My concern is that if NATO 
troops do not step up to the challenge that's outlined in this 
report and if our NATO allies continue to operate under 
constraints that make them less effective in dealing with the 
resurgence of the Taliban, that in fact we're going to end up 
with another enormous effort, imposing still more strain on our 
troops, and that it will be impossible for us to go back to a 
normal deployment length of 12 months and to stop repeatedly 
sending back the same troops after insufficient rest periods.
    Based on your assessment, what do you see as the demands 
for additional American troops in Afghanistan?
    Admiral Fallon. Senator, I'll start by saying that I'm not 
as pessimistic as some of these reports and studies seem to 
indicate the situation is in Afghanistan. Regarding the use of 
U.S. forces, we've taken steps and the President's approved the 
deployment of two marine units, one to address the need for 
maneuver forces under the NATO command, under International 
Security Assistance Force. There's been a longstanding request 
to have two more brigade-size forces for General McNeal.
    Now, there's been another request to have more trainers 
working for General Cohn, who works for me, to provide for the 
training of the Afghan security forces. We're sending units to 
address both of these issues, not in the full numbers that have 
been desired, but I think that they're going to be very helpful 
this year.
    The challenges that General McNeal faces in the ability to 
use the existing forces in Afghanistan are well known. The 
caveats and conditions under which these forces are used in my 
opinion provide some significant tactical limitations. They are 
what they are and, there are many efforts being made to address 
that issue with the other countries of NATO, to try to get more 
responsiveness and more flexibility in the use of those troops.
    I expect that this year this influx of troops ought to have 
some significant results. I don't think that the situation in 
Afghanistan is going to be in the long term solved by a huge 
influx of additional forces. I think that we need to get people 
focused on executing the specific tasks in Afghanistan that are 
going to be helpful to returning this country. It's different 
than Iraq, very different, in many ways. Our forces have been 
very successful, particularly in the past year, working in the 
eastern regions where we have primacy and basically 
responsibility. What I see is the kinds of engagement with the 
local populations--we learn a lot of lessons from Iraq in this 
regard--that basically provide stability and security, but 
encourage them through the instruments like CERP that you've 
made available and through other means, and the engagement with 
the international community, to help build their future--
schools, development, water, power, management, all these 
things that are essential to daily life. This combination of 
factors in a focused, flexible manner has been what's given us 
the results in the east and we have every expectation we'll be 
able to build on that this year.
    Senator Collins. Thank you.
    I want to turn briefly to Pakistan. Obviously, the recent 
violence in population, the increase in car bombings, the 
assassination of the former prime minister, combined with the 
election changes in which a strong ally of our country, 
President Musharraf, and his party was resoundingly rejected, 
call into question what the impact will be on cooperation with 
the United States in the hunt for Osama bin Laden and for 
Taliban and al Qaeda leaders, particularly in the Federally 
Administered Tribal Areas (FATA) of Pakistan.
    How do you see these recent events affecting the 
cooperation that the United States desperately needs from the 
Pakistan Government?
    Admiral Fallon. My first comment would be that I find it 
impossible to separate Afghanistan from Pakistan. There's a 
border out there between the countries, but the reality is that 
you have a significant Pashtun tribal ethnic reality that 
spreads into significant parts of both countries. The Pak 
leadership now understands that, I believe, the principal 
threat to their long-term security and stability are the same 
folks that are operating out of the FATA, that are a problem 
for us in Afghanistan. So we have a lot of common ground here.
    Certainly there is a lot of swirl and change in Pakistan. I 
think it remains to be seen how this is going to work out. The 
good news is there's a process, there's a democratic process 
that has provided an election, and there is maneuvering going 
on and the political actions now to try to form a new 
government, which we certainly hope will be supportive of 
stability in that country, which will be helpful to us and the 
region in the long run, and also that they'll continue to 
support us in our endeavors to address the terror threat and 
the leadership of those networks that we believe emanate in the 
FATA.
    We have had, I believe, significant engagement of a 
positive manner with the Pak military. General Qiani, the new 
army chief, whom I've had the pleasure to meet, I think is very 
aware of the responsibilities he has to not only help, as the 
army is the dominant institution in that country to provide 
internal security, but he very well recognizes the threat 
that's posed by these extremists, and the same kind of 
behaviors that we see in Afghanistan now spreading into other 
areas of Pakistan. They're going to have to deal with it.
    From my perspective, we want to stay engaged. We want to 
encourage them to work with us as they have in the past and to 
a greater extent, so that we can leverage our relationship to 
help them help themselves and to help us in the process. I 
think it remains to be seen. It's certainly a critical time for 
this country of Pakistan and certainly for us. For our part, it 
seems to me the priorities for us are to encourage them to work 
toward solutions that are going to be politically acceptable 
and that are going to give their people the best chance for 
security for the future.
    Senator Collins. Thank you.
    Admiral Fallon. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    I want to focus in for a minute on the money being spent, 
and I want to particularly focus in on the money being spent in 
Pakistan. I think that there have been a number of reports, as 
we've had with the moneys in Iraq also, of fraud, waste, and 
abuse in terms of military aid to Pakistan. I know that we are 
spending $80 million a month on the combat support operations, 
the coalition support funds program, which supposedly 
reimburses Pakistan for conducting military operations to fight 
terrorism on the Afghan border.
    My concern is as I look at all the materials on this, I 
know that the U.S. embassy is supposed to verify that Pakistan 
has in fact incurred these expenses in support of combat 
activity on the Afghan border, and that I know the expenditures 
are sent to CENTCOM, where they are supposedly evaluated and 
the claims are looked at and then reimbursement is forwarded on 
to the Pentagon, the Office of Management and Budget, and to 
Congress.
    But the Pakistan military provides no receipts and many 
officials now believe that these invoices are being inflated. I 
think another concern obviously is that a senior military 
official has said that this aid, this $80 million a month, a 
total of $5.7 billion which we have provided, is really being 
used on a weapons system to potentially be involved with India; 
that Pakistan is focusing these moneys on something other than 
the goal that we want them to be working on, which is obviously 
the tribal unrest and terrorism that is obviously in play along 
the Afghan border.
    I would certainly like your take on this and what 
procedures can you put in place or your staff put in place to 
get a handle on these reimbursements, to make sure that they 
are going onto fighting terrorism in these tribal areas, as 
opposed to some long-term strategic goal that the Pakistani 
Government has in terms of the threat they feel from India?
    Admiral Fallon. Ma'am, I'll take this one to start with. 
The first comment I would make is these coalition support funds 
which are made available by Congress are intended to reimburse 
partner nations for their logistic and military activities in 
support of our operations in Iraq and Afghanistan, Operation 
Iraqi Freedom, and Operation Enduring Freedom specifically.
    I can tell you what I've done in the 10 months or so that 
I've been in charge of CENTCOM. I can't tell you what went on 
in the past, but I can tell you we're paying a lot of attention 
to it now--and trying to make sure that these moneys are being 
used for the purposes for which they were intended. This is 
very complex and the support that the Paks provide to us is 
extensive. I can tell you, frankly, that we would be very hard-
pressed to be able to conduct our operations in Afghanistan 
today anywhere near the scope that we conduct them without this 
significant assistance from Pakistan.
    The Paks I believe understand that the challenge--I don't 
know what it was like in the past, but they certainly 
understand now that the threat that they face is really the 
same threat that we're facing in Afghanistan. It's the same 
people and I think many of the same intentions.
    The process by which we look at these expenditures and try 
to validate the purpose for which they are being spent is one 
in which there's no rubber stamp. We are looking very carefully 
at these things and as I look at the way things appear to have 
gone in the past and how they go now, we have in many ways 
slowed down the process. This has created some friction with 
the Paks because they submit these vouchers, if you would, 
outlining what they say they have spent the money on and we're 
scrutinizing them very carefully.
    In the past year, my folks tell me we've only approved 
about 80 percent of those requests that have come in, as we try 
to drill into them and find out what's really being done.
    That said, I think it's only fair to recognize that the 
Paks are heavily engaged. They have lost several thousand 
people killed and wounded to these insurgents that are up along 
the border there. They have been engaged certainly in the past 
year that I've been watching them to a much greater degree than 
they were in the past. They have moved a significant number of 
forces. Somewhere well over 100,000 troops have now been moved 
from the east, where traditionally they have been focused on a 
perception of an Indian problem, and they are increasingly 
engaging in the west.
    In operations in the Swat Valley, for example, where they 
were I think surprised to see insurgents and terrorists take 
over that area, they have fought to push them back out of that 
valley. It's been painful to watch and painful for them to 
endure, but they've been successful.
    So I see a lot of activity. North Waziristan, South 
Waziristan, they're actually moving. I think that in the big 
scheme of things there's little doubt that in the past they 
were focused on India as the big threat to the country. I think 
they see things differently now. They've taken steps. It is 
different now than it was 6 months ago and certainly a year 
ago, and they're working in this area.
    People make all kinds of accusations. For example: No money 
should be spent for F-16s because that's a big weapon system. 
In fact, they have a significant need for close air support to 
help their troops that are engaged on the ground. They don't 
have the capabilities we do. So they are trying to use every 
one of their means to try to address this issue.
    The fact of the matter is their capabilities need a lot of 
work. That's part of our engagement here, is to help make them 
more productive, make them more effective in their engagement.
    So we're looking very hard at this money. I understand it's 
a large amount of money and we would like to have it spent in 
the right way. But they do a lot of things every day. Every 
single aircraft that flies into Afghanistan from the south and 
east, and that's the vast majority of them, have to overfly 
Pakistan. They have to have support, they have to be 
deconflicted and so forth. So there are lots of things on these 
lists of charges and requests for reimbursement that the Paks 
submit that I think have a basis. How much exactly is stuff 
that we have to go through. But we're working on this process. 
We're working very hard with our own people in Islamabad to 
make them more aware of the need to be very careful in 
scrutinizing this. We're working on it.
    Senator McCaskill. Is it your sense then, Admiral, that 
since you have taken over that you're comfortable that we are 
in fact drilling down and getting receipts and actually getting 
documentation for what they are requesting in terms of this $80 
million that we're spending on a monthly basis, which is a lot 
of money for the American taxpayers?
    Admiral Fallon. Yes, it certainly is. I'm not going to say 
that I'm comfortable with any of this. I'll tell you that we're 
certainly giving it good close attention. The idea that you 
have a receipt for every flight hour that's expended or the 
repair costs of the helicopters or whatever I think is a little 
difficult to do. But we are certainly engaged with the Paks in 
this and I think we're in a lot better shape than we were in 
the past, and we're going to keep at it.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    I want to thank Admiral Fallon and Admiral Olson for being 
here today. I thank you both for your service, and the troops 
that serve under you. Again I want to tell you how proud I am 
that both of your commands are headquartered at Tampa, FL, in 
the great Sunshine State. We're proud to have you there.
    Admiral Fallon, earlier you answered some questions about 
Iranian influence in the region and I was intrigued by your 
comments because it did appear to me that you suggest that 
their influence vis-a-vis the area of influence that they could 
possibly project, their neighborhood, you indicated they were 
viewed with skepticism, distrust, with a dim view, and their 
influence was not increased, but in fact there was great 
concern about them.
    My question is then, it appears that their neighbors and 
the neighbors of Iraq--you suggested that those neighbors were 
concerned also about our commitment, and that you were asked 
repeatedly by these neighbors about our commitment. I guess my 
question to you is, given the fact that things have 
dramatically improved on the ground from a year ago, that in 
fact levels of violence are greatly decreased in Iraq, would it 
be fair then to say that our continued presence in Iraq has 
added stability to the region, and that in fact these neighbors 
feel better about the fact that we continue to be committed 
than they would feel if we in fact had not maintained that 
commitment, but had in fact withdrawn precipitously?
    Admiral Fallon. Senator, as with most of these issues, 
there's more than one side to the story. I think it would be 
fair to say that many of the countries in the region were not 
particularly pleased with us, directly related to the level of 
violence in Iraq in the past years, directly related to the 
continuing instability and the concerns about where this all 
was going. Now that the forces in Iraq have made substantial 
progress, they like it a lot better and now they're concerned 
the other way. Probably the majority of that concern is in the 
other direction, that they don't want us to pull out and have 
this thing drift back into a more chaotic state again.
    So it's the battle of perceptions. I think it really 
highlights how important it is to have consistent messaging, 
based on behavior on our part. There is concern about our 
commitment and as many of these countries look at the way we 
have engaged periodically and then seemingly gone into periods 
where we have not seemed to have focused on their region and 
their countries, they begin to doubt us.
    It's like anybody else. They want to be loved, they want to 
be engaged. They want to feel that we are going to be with them 
all the time.
    Now, we have requirements from our side, too. We want to be 
with them, but we want them to behave in a manner that's going 
to be helpful to their own people and to us in the region. So 
as with most things, you have to look at the entire thing from 
all the angles. But today there's pleasure, increased 
confidence that the situation in Iraq is improving. I believe 
that countries would like to see us engaged, to remain engaged 
in the region. Certainly the concern about Iran demonstrates 
that. They want us to do it in constructive ways. So I think 
it's in our interest to continue to stay there in some number, 
in some form, and stay engaged.
    Senator Martinez. In terms of continuing the low level of 
violence, I don't think there's any question that it was very 
important that the Mahdi Army and Moqtada al-Sadr made a 
commitment to continue their ceasefire. Can you tell me how we 
deal with an individual that is as volatile as this individual, 
who has such deep hatred of the United States, and yet seems to 
be in such an influential position as it relates to the level 
of violence in Iraq, and how we will move to a more permanent 
level of stability?
    Admiral Fallon. The short answer is, because we don't have 
direct engagement with this individual, Moqtada al-Sadr, we 
rely on those Iraqis that deal with him, not just the 
Government of Iraq and those clerics with whom he deals, and 
that's how we try to convey our messages, which are it's in the 
interest of not only his group but the rest of the people of 
Iraq to continue this so-called freeze, to continue to focus 
their energy in non-kinetic ways, in ways that are not going to 
incite levels of violence.
    I believe that as the Iraqi people see the benefits of 
people not resorting to force of arms they are liking things a 
lot better and that becomes a pressure in itself. So it's the 
Iraqi people working with the Iraqis and these leaders of these 
groups to influence them to act in reasonable and appropriate 
ways.
    Senator Martinez. Thank you, Admiral.
    Admiral Olson, recently, in fact Saturday, the Colombian 
Government struck a great success in their continuing fight 
against the Revolutionary Armed Forces of Coloumbia (FARC), a 
terrorist group that has been responsible for now over 3 years, 
I guess, the kidnapping of 3 Americans, in addition to over 
their history over 100 Americans who have been kidnapped by 
this group over time. I know that your Special Operations 
Forces have been engaged in training in Colombia as well as 
other missions, including humanitarian missions, as you 
mentioned. Could you speak to us about your work in Colombia? 
It looks to me like your training has taken hold because this 
operation on Saturday seems to have been a pretty neat deal.
    Admiral Olson. Yes, sir. We do have a longstanding 
engagement with the Colombians, as you're well aware. Our 
presence in Colombia has ranged from 200 to 500 people as it's 
ebbed and surged over the last several years. Under the rules 
of the engagement, we are in a train and assist role. We do not 
conduct operations with the Colombians, but we do train and 
advise and assist, and we say goodbye to them as they go off on 
their operations and then we welcome them back as they return.
    This has been a successful engagement. It is conducted 
largely by Army Special Forces, but we have had marines and 
Navy SEALS down there conducting that engagement because so 
much of their transportation is dependent on the riverine 
system within Colombia. So it's been a good partnership.
    I second your thought that this operation that was 
successful this past weekend against the number two FARC leader 
was at least in large part a manifestation of that 
relationship. In fact, one of the Colombian soldiers I'm told 
who was killed in that operation is one on whom one of our 
Special Operations leaders down there had pinned a U.S. medal 
not too many years ago because of the value of the relationship 
that we had built with that particular Colombian soldier.
    So this is a continuing effort for us. I think that we 
should be encouraged by the level of Colombian activity against 
the FARC in particular. They had gone many years without having 
this kind of success. Now they've had several successes over 
the last couple of years.
    Senator Martinez. I would conclude by just following on 
that comment. The fact is that the Colombian Government is a 
democratically elected government. President Uribe was elected 
with an overwhelmingly positive vote by their people and it is 
distressing to see that neighboring governments seem to be 
intent upon destabilizing the Colombian Government and 
situation by providing assistance to the FARC.
    It's interesting that in this operation apparently some 
very direct and clear evidence of this destabilizing influence 
of neighboring governments came to light, which I think many of 
us have suspected for a long time, but it's pretty clear that 
that in fact took place.
    I'm proud of your people standing on the side of a 
democratically elected government against those who through 
violence would seek to destabilize.
    Thank you.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Nelson.
    Senator Bill Nelson. Thank you, gentlemen, for your service 
to our country, and its especially a privilege that we have 
your two headquarters located in our State.
    Admiral Olson, you need two modified C-27s as a gunship and 
you also need some more Ospreys to do your role. You want to 
tell the committee about that?
    Admiral Olson. Sir, two separate issues. I'll address them 
separately. The C-27 we're discussing as a prototype for what 
we call Gunship Light. The AC-130 gunship has proven very 
powerful and in high demand in Afghanistan and Iraq with its 
surgical strike capability from an orbital flight. We are soon 
to experience a degradation of that fleet due to the center 
wingbox issue that has struck the entire C-130 inventory. The 
Air Force solution for the next generation gunship is several 
years away, at least fiscal year 2015, 2016, perhaps 2017.
    So we're looking at a lighter version of the C-130. If you 
take a C-130 and put it on a copy machine and push the 50 
percent button, you  get  a  C-27. It's  a  twin  engine. It  
looks  a  lot  like  the  C-130. This is an integration effort 
to determine the art of the reasonable with respect to mounting 
guns on a C-27, flying it in an orbital pattern to provide 
quick response, primarily to troops in contact or where troops 
may be expected to be in contact, with the surgical precision 
that we've come to expect from the AC-130.
    I've talked to the Chief of Staff of the Air Force about 
this. It would be an exaggeration to say that we are moving 
forward together on this, although we are supportive of the 
goals of the effort, and he has spoken about that as well. But 
with the acquisition authorities that I am granted as the 
Commander of SOCOM, we are striving  to  move  forward  with  a 
 prototype  development  of  that  C-27.
    The V-22 Osprey is our next generation rotary wing lift, at 
least for the Air Force component of Special Operations. We 
have come to depend on the MH-53 Pave Low fleet, the last one 
of which will be retired in October of this year. We have an 
inventory of 31. We're building towards an inventory of 50 CV-
22s, largely to replace that capability. It's a Special 
Operations-modified version of the V-22. We pay about one-
quarter of the cost, the Air Force pays about three-quarters of 
the cost, as we make the SOF-peculiar modifications to it.
    In my view that airplane is being delivered to us at too 
slow a rate. There are opportunities in the production line to 
accelerate that and so we are seeking some funding in order to 
do that.
    Senator Bill Nelson. Admiral Fallon, you may have gone over 
this while I had to go and just give a speech, but let me quote 
from your comments: ``Looking to the future and as U.S. forces 
are withdrawn, we are planning to normalize long-term bilateral 
relations through a framework agreement that reflects our 
shared political, economic, cultural, and security interests, 
as well as a status of forces agreement.''
    Then you go on to say: ``As Iraq increasingly asserts its 
sovereignty, we want to continue to assist in developing Iraqi 
capacities to secure and defend their country.'' That's what 
the military does and it does it very well, our military.
    Every presidential candidate has some version of a 
withdrawal that they have laid out on the table for the 
American people to consider. Will political reconciliation 
occur in your opinion, and do you see any evidence that it's 
occurring other than what you've stated in your testimony here, 
the 2008 national budget, the provincial powers, amnesty, the 
de-Baathification law, provincial powers laws, and so forth? 
Look over the horizon for us.
    Admiral Fallon. We certainly have every expectation they're 
going to continue down this path to stability and enable us to 
do what I believe the vast majority of our people would like, 
and that is to be able to withdraw the bulk of our combat 
forces and let the Iraqi security folks take over in their own 
country.
    This will be enabled by continued political development in 
the country. It's painful to watch sometimes. But I see things 
that go on almost on a daily basis. When I got here last year, 
I went out and tried to make a point to meet the leaders 
throughout Iraq, particularly those in the central government, 
and, frankly, came back with mixed opinions of folks. My 
opinion at that time, after meeting them for the initial go-
around, was that most were very narrowly focused based on their 
backgrounds from political parties. Recognition that the people 
in many of the key positions were there precisely because they 
weren't really powerful, because those were the deals that were 
brokered.
    It's been encouraging to watch the development of these 
people from Prime Minister Maliki on down, to see them take 
responsibility, and increasingly we're seeing the results of 
that. It's not a straight line and I don't think it's going to 
be. There are things that are frustrating. This is a different 
culture than ours and, frankly, it's a different political 
process and philosophy in this country. But it's coming along.
    I'll give you one example. There was an impasse in this 
legislation and there were a number of items teed up: the 
budget, the Provincial Powers Act that Senator Levin already 
talked about, the amnesty legislation. They all appeared to be 
stymied and as we watched they'd take one after the other and 
weren't making progress. They got innovative. They bundled 
them, put them all on the table together, and in the process 
found ways to make the political accommodations that got them 
all passed, amazingly, in one day. It was kind of astounding. 
All of a sudden it was, how'd they do this?
    So I think we have to continue to engage them, continue to 
point out to them the cost of this in terms of blood, sweat, 
and tears on the part of our people, which is very substantial, 
the resources that we've devoted to this country.
    They're working on it. They're taking responsibility in my 
view, whether it's in the political process, whether it's in 
the recognition--it seems to me they are more aggressive now in 
going out and addressing issues away from the capital, and this 
is essential to me. If they can't figure out how to get people 
in the provinces the basics that they need, we're not going to 
be successful, nor they. But increasingly I see them paying 
attention to it.
    I give you another couple of examples. I was out in Anbar 2 
weeks ago and it was pointed out to me by the marines out there 
that they had a problem on the border, one of the border 
crossing points with Syria. The issue was that the Iraqis out 
there, Sunnis most of them, all of them actually in this area, 
had been attending to business and they were having to do it 
out of their own resources, and the central government had not 
seen fit, or at least that was the story, to pay these guys and 
to provide them the other resources they needed. It was gnawing 
at them. Just this weekend, got a report. They actually sent a 
delegation out, addressed the issues, paid the arrears, and 
people were moving forward.
    I mentioned this thing in Diyalah the other day with the 
Concerned Local Citizens/Sons of Iraq. It was gnawing at them 
and it was starting to cause the compromise to come apart. They 
took appropriate steps to fix it in the budget.
    They are increasingly taking responsibility financially for 
themselves. The lines have crossed. They are spending this year 
three times more on their security than we will spend. Where 3 
years ago we were spending the bulk of the money, they are now 
spending the vast majority of it, and the trends are in the 
right direction.
    They were particularly not effective in using their own 
resources for their own people. That's increased I think 55 
percent or so is the data this year. It's still got a long way 
to go. But they are getting better at their own budget 
execution.
    Anyway, day after day, slowly but surely, it's generally 
moving in the right direction. It has to continue. Part of the 
role of our folks that are engaged out there is to keep beating 
the drums to ensure that they don't lose sight of the fact that 
they have to continue to make progress.
    Thank you, sir.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Chairman Levin. On the question of the Iraqi resources, you 
say now being spent more and more to support their own troops. 
The Iraqi oil ministry goal for 2008 is to produce 2.2 million 
barrels of oil a day. Now, the exports that we know of have 
revenues that are estimated $41 billion in 2007 and according 
to the current rate in 2008, extrapolating that rate would give 
us an estimate of $56 billion of oil exports for 2008.
    How much of that oil revenue is Iraq spending for its own 
security and economic development?
    Admiral Fallon. Senator, this year the number's about $9 
billion in security. The number for us is about $3 billion. In 
total development, I don't have it off the top of my head, but 
I know that when we were out there the week before last that 
their intention was to bump a surge amount, if you would, of 
$10 billion additional into development.
    The trends are increasingly for them to increase and take 
over responsibility. In the big scheme of things, this year the 
lines crossed in development resources. As I recall, the number 
now is total that they've invested is about $51 billion versus 
$48 billion for us since 2002. So they're working on it. They 
have a long way to go.
    Chairman Levin. Since 2002, that's about 6 years or 5 
years, and that's about maybe $7, $8 billion a year. But I'm 
talking $40 billion in oil money, oil revenues from exports 
last year, and perhaps $56 billion this year. How much of that 
is just being stashed away in foreign banks, do you know?
    Admiral Fallon. A lot of it's in our banks, the vast 
majority.
    Chairman Levin. Why should that money not be spent in Iraq, 
on Iraqi projects?
    Admiral Fallon. Senator, it should be. The facts are that 
their ability to institutionalize and effectively distribute 
those funds is lacking. It's increasing. It's getting better. 
As I indicated, it's double this year, the expenditure rate, 
than the year before. This is not going to happen overnight. We 
have to continue to engage with them.
    I think it illustrates a real important fact here. While we 
couldn't be where we are without security and stability 
provided through the military, the major issues in their long-
term viability are not military. It's government and 
development of those institutional processes within the country 
that are going to enable them to actually be effective in this 
business.
    Chairman Levin. I can't accept the answer that they're not 
capable of administering their own revenues. They have a budget 
which is approximately this amount, and it's totally 
unacceptable to me that we are spending tens of billions of 
dollars on rebuilding Iraq while they are putting tens of 
billions of dollars in banks around the world from oil 
revenues. It doesn't compute as far as I'm concerned and I 
think that we ought to get an accounting from our either 
Inspector General or our Government Accountability Office of 
those oil revenues, and we'll be sending a letter to one or the 
other to do just that. I take it you wouldn't have any 
objection to that?
    Admiral Fallon. Senator, I'm with you on this one. I think 
it's not just sitting in the banks trying to get somebody rich 
on interest income. It's because they're in a holding position 
now until they can figure out how to effectively disburse this 
money.
    There's another dimension to this that I find pretty 
fascinating. Because of the tradition in this country with 
Saddam and his henchman and the way they took all resources and 
used them for private funds, the Iraqi leaders at every level 
appear to be highly sensitive to the image of corruption, not 
that there isn't that that goes on, but to the perception that 
they might somehow misuse these funds, the National funds.
    So we find what I consider are very extraordinary actions 
on their part, risk avoidance, if you would, in taking what 
seem to me to be appropriate, prudent decisions to go ahead and 
get with the program. It's the checks and balances kind of 
thing.
    But clearly we'd like to see them take a more active role, 
spending more of their money, and so we end up spending less of 
ours, no doubt about it.
    Chairman Levin. If they can't figure out how to spend their 
own money and if the fear of being perceived as being corrupt 
is the reason, they sure can transfer those resources to us. 
We'll administer them the way we administer our own funds, for 
their reconstruction. I mean, we're putting a lot more money 
into reconstruction up to now than they have.
    Admiral Fallon. But that's changed. They are putting more 
in now.
    Chairman Levin. It's changing, but that money, which is 
sitting somewhere in banks, can be applied to reconstruction, 
if necessary through our administration. Some of us voted when 
this war began to have the future delivery of Iraqi oil to fund 
the cost of this war. We had a vote on that issue. In fact, it 
was represented by some people that the Iraqis would pay for 
the cost of this war.
    The least they can do, instead of stashing that money in 
banks, is have that money go to current reconstruction 
projects. So we're going to press that issue in the way that I 
indicated, and there may be other ways to do it as well.
    Admiral Olson, let me get to some of the questions that I 
had in my opening statement that I'd like to address. Kind of 
working backwards, do your special operators have sufficient 
Predators and other assets to conduct aggressive search and 
seizure missions against al Qaeda and Taliban leaders in and 
around Afghanistan and in Iraq? Do you have enough of those 
type of assets?
    Admiral Olson. I'd like to give you a yes or no answer, Mr. 
Chairman. It's a balance of what Special Operations should 
provide and what should be provided by the rest of the theater. 
There are now 50-something orbits, is the term, flown over 
Iraq, most of which are provided by CENTCOM, some of which are 
provided by SOCOM. We're providing on the order of 11 or 12 of 
those.
    In total, that's not sufficient. If the question is are 
there sufficient Predators, there aren't. But I'm not convinced 
that a dollar for intelligence, surveillance, reconnaissance 
capability is best spent on Predators at this point. It's a 
very complex system, with bottlenecks in training the 
operators, training the intelligence analysts, developing the 
hangars and the ramp space and the bandwidth and developing the 
full motion video sensors. That is all part of the ISR system.
    So the short answer is we have insufficient capability for 
ISR in total.
    Chairman Levin. What is your shortfall? On ISR what is your 
shortfall?
    Admiral Olson. Sir, the most severe shortfall is manpower 
now. It's trained operators of the systems and trained 
intelligence analysts to evaluate and distribute the 
information that is gathered through the surveillance.
    Chairman Levin. Do you have a dollar shortfall? You've 
given us a list of dollar shortfalls.
    Admiral Olson. Yes, sir.
    Chairman Levin. Could you total them up for us?
    Admiral Olson. Sir, the shortfall that I've presented is on 
the order of about $300 million in short-term funds, and that's 
balanced across leasing capability, buying capability, 
investing in training capability. There are air space 
management challenges. There's a lot that goes into this. But 
with $300 million I believe that I can reasonably enhance the 
Special Operations capability as our share of the much larger 
development of the total military capability.
    Chairman Levin. Have you requested that money in the 
budget?
    Admiral Olson. Sir, we're in discussion with your staff.
    Chairman Levin. No, no. I mean in the administration's 
budget.
    Admiral Olson. No, sir, we did not.
    Chairman Levin. Why was that?
    Admiral Olson. Because we were depending on Service 
capability to provide for that shortfall. We have long 
supported a stated requirement for 30 continuous orbits in 
Iraq. That's a CENTCOM requirement, supported by U.S. SOCOM. We 
internally have grown at a rate that we believe we reasonably 
could, in order to support our share of that total shortfall. 
But I did not submit in my budget request the funds to make up 
for the entire military shortfall.
    Chairman Levin. Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral Fallon, Admiral Olson, I apologize for having had 
to step out of here. As so often happens up here, we have two 
very important hearings going on at the same time, and I'm at 
the bottom of the food chain here, so I had to wait longer than 
I thought I would at the other one before I could ask my 
questions.
    I also wanted to make sure that I reviewed the questions 
that had been asked of you so I wouldn't be redundant here.
    I have two areas that I would like to get some 
clarification on. The first is, how would you describe the 
center of mass of al Qaeda activity in your region, Admiral 
Fallon? Where would you put that?
    Admiral Fallon. The first word would be ``distributed.'' 
These guys are pretty clever. They've figured it out. They 
leverage the technology today and they recognize the inherent 
danger of pulling all the folks in one spot.
    We have a working assumption that the most senior 
leadership resides somewhere in the Afghan-Pak border area, 
probably in the FATA. But we have lots of evidence that 
indicates that they have established nodes, if you would, in 
lots of other places in the region. It seems that the CENTCOM 
region, for better or for worse, mostly for worse, I think, 
seems to be attractive to them. That's not surprising because 
we have more poorly governed or lawless places, I suspect, than 
most in the world. So they tend to come to these areas and take 
refuge there and try to operate, and using the technology to 
communicate back and forth.
    Senator Webb. Recognizing that they are mobile, would you 
say that the center of mass of their activities is Pakistan?
    Admiral Fallon. Again, I don't have a body count. I think 
there are a couple of things that are pertinent here. One is 
they have lots of allies and allied groups, and these 
affiliated organizations sometimes maybe present the appearance 
of mass, but I suspect that there are fractures and fissures 
and different views among these folks.
    I think this offers us an opportunity in some respects. The 
fact that they are distributed in different countries means 
that they have to communicate somehow, some way. When they talk 
one way or another or move, it gives us an opportunity to use 
regional assets, not just U.S. but the countries in the region, 
to help us in identifying and hopefully capturing these people.
    Senator Webb. Just to say editorially, one of the problems 
I've had since day 1 with what we did in Iraq is that we took 
probably the greatest maneuver force in the world and locked it 
down in a strategic mousetrap, occupying these different 
cities, while the people we ostensibly were going after 
remained mobile. So we have a situation here where a huge 
portion of our military is essentially in a classic holding 
action for political reasons while this mobility is occurring 
over us.
    The question I want to get to because I'm running out of 
time is a little different. It's something that Senator Warner 
and I have discussed at some length. There are two agreements 
now that are being negotiated at the executive branch level 
between our Government and the Iraqi Government pertaining to 
the future relationships, long-term future relationships that 
we are going to have in Iraq. There is some great concern, 
particularly on this side of the aisle, that we are going to be 
placed in a position as the Government changes one way or the 
other after November, where because of the reliance of the 
Iraqi Government on some of these terms that are being 
negotiated and because of sort of a lack of clarity with us 
here in the congressional branch about what is being done, 
where we will be kind of ineluctably drawn into a long-term 
relationship while it hasn't been properly debated.
    Are you familiar with the differences between these two 
agreements that are being negotiated? I'd like your thoughts on 
that.
    Admiral Fallon. Yes, sir, I think I'm pretty tuned in to 
this, and I'm very, very focused on it because it's essential. 
The reality is that we have to have in place the appropriate 
protections for our troops, and not just for their personal 
protection, which is essential, but to enable them to be 
effective in operating in Iraq. Come December 31 of this year 
when that U.N. Security Council resolution expires, we're going 
to be in a different ballgame.
    We have a critical task in front of us to figure out. The 
two, from my view, they're different, but they're very 
complementary and essential, and you have to have both. What 
we're trying to do here in what's called the strategic 
framework agreement is to frame expectations with the 
Government of Iraq about our mutual vision of the future. What 
is it we expect to have in the way of a relationship between 
the countries? Certainly a lot different than the one that's 
been in place for the last couple of years.
    So that's the key aspect of the SOFA. Certainly we have to 
for our part, I believe, affirm for the Iraqis their 
sovereignty. This is their country and they want to have a 
future, and they want to be able to make decisions about their 
security. At the same time, we want to ensure that our 
interests are protected, and most importantly those interests 
are our people, that they can actually continue to do what they 
do.
    We would like to be able to continue to work against this 
extremist threat, the terrorist threat, the al Qaeda network 
that remains in Iraq. We want to be able to deal with the 
challenges that we face.
    At the same time, there's another aspect of this and that's 
the detail of just the physical presence of people in another 
country, as you're well aware. We have SOFAs, for example, with 
dozens and dozens of countries around the world. They're 
individually negotiated and they cover the interests and 
specifics of various nations.
    It's essential that we have a replacement for the U.N. 
Security Council Resolution. We have a process to do these 
things that is well tested. I don't believe that we have any 
intention of putting ourselves in a position where we are 
making an international agreement such that it would 
necessitate Senate review of this or anything along those 
lines. These are essential agreements that should be made at 
the executive level and I think that's clearly our intention 
from my view of what we're trying to do in this duality 
approach, if you would.
    Senator Webb. We may have some disagreement on that with 
respect to the umbrella agreement. We had a meeting yesterday 
with some people from the administration on this. When I say 
``we,'' I'm saying among this body. There are people who are 
concerned that that first agreement is not a security 
agreement. When you talk about long-term relations with a 
country, it's essentially a national agreement. It's committing 
the country and that sounds an awful lot like a treaty.
    We have always operated under some sort of umbrella, 
particularly when we're putting people into harm's way, whether 
it's international compacts like NATO or bilateral security 
agreements like the Philippines, Japan, et cetera. So we, those 
of us who are concerned, may want some further clarification on 
this.
    Recognizing that the clock is ticking, that actually is one 
of the reasons that the concern level up here and that the 
level of sincerity perhaps from the administration both have 
come into question.
    Admiral Fallon. Senator, from my perspective I can pledge 
to you that we'll be as open as we possibly can. There's every 
intention to keep you informed. I think from my discussions 
with the folks that were up briefing you yesterday that's 
certainly their intention as well, to keep you well informed 
and to keep your confidence.
    Senator Webb. I hope we can shed some more light on this. I 
have great respect for the job that you've been doing and 
hopefully we can get this into the open air. If we don't, it's 
going to become a campaign issue; I can promise you that.
    Admiral Fallon. We have highlighted a couple of agreements 
with countries around the world. We have many agreements. In my 
previous assignment out in the Pacific, we've reached agreement 
with countries on similar things. One that comes to mind, very 
important for us, was a SOFA-equivalent with Singapore. It was 
an executive agreement to codify expectations with that 
country.
    But back to the key point here, the intention is to be very 
open, very forthcoming, to alleviate any concerns in this 
regard.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I want to commend my colleague, Senator Webb, for taking 
this initiative. I feel just as strongly as he about these 
agreements.
    Now, the SOFA follows the pattern of military agreements 
we've had with many nations, and that's to protect our 
individual soldiers, airmen, marines, and sailors for their 
personal activities in carrying out the missions assigned by 
the President. Second, we would not want the strategic 
framework agreement in any way to tie the hands of the next 
president, whoever that may be, as he or she directs the future 
missions of our country on behalf of not only Iraq, but indeed 
Afghanistan, too, because this is a pattern.
    Lastly, I don't know whether this rises to the level of 
advise and consent. Senator Webb said a treaty. I'll leave that 
to perhaps our colleagues on the Foreign Relations Committee. 
But I do think it's important, Mr. Chairman, that Senator Webb 
and I recommend to you that we have a hearing on this at the 
appropriate time, and that there be the maximum amount of 
transparency. Now, any negotiation requires a certain amount of 
confidentiality between the negotiators, but at the present 
time get it all out, so that there's no hidden agenda in the 
minds of the American people or in the minds of the Iraqi 
people about where the two nations want to go.
    So I urge you also that we move out on this thing, because 
I would think it would be helpful to have it wrapped up in the 
next 90 or 120 days and therefore not become drawn into good 
old-fashioned politics of America as we elect our next 
president and it become or could be distorted or whatever.
    I want to turn to this problem of the rest of the United 
States Government. Throughout the years this committee has 
pushed for the administration to get more of the departments 
and agencies of this Government involved in Iraq. I think 
that's slowly come to pass. But do we have a similar situation 
in Afghanistan, Admiral Fallon? Now, there there's some 
question about the security, personal security of people of 
other agencies and departments coming over to perform their 
functions. But it is essential. You stressed the need for jobs 
in Iraq. I stress the need for jobs in Afghanistan if we're 
going to have a strong and stable sovereign country.
    Admiral Fallon. Senator, I couldn't agree more. In fact, as 
I look at Afghanistan the priorities for that emerging country 
are in other than military things--electrical power, roads, 
water management, agricultural development. These are the 
things that are really going to turn this into an ongoing 
concern.
    There's a fact of life in this business of the interagency 
and their personnel. DOD and our military forces are by nature 
expeditionary. We are used to deploying, used to going out in 
the world and engaging. Our rotational forces are out there all 
the time. The other institutions of this Government are focused 
historically domestically, with the exception of the Department 
of State. Secretary Rice has had an initiative to substantially 
ramp up the number of people in the Department of State. It's 
going to take a while to do that.
    I am anxious to get more people to engage in these things 
because not too many of them are there.
    Senator Warner. Good. I mentioned also the Department of 
Agriculture. If we're going to come to grips with this 
insidious, frightful problem of the growing poppies and the 
increased revenue there--from flowing into military operations 
to support the Taliban, we have to help that agricultural base 
develop alternatives. Let's hope that that can really be on the 
top of everybody's list.
    Admiral Fallon. Yes, sir.
    Senator Warner. Admiral, I noted with a great deal of 
pleasure that the U.S.S. Cole deployed into your region. One of 
your 24 countries is Lebanon. We all remember the events of the 
1980s, to include the tragic bombing of the marine barracks 
that killed 241 marines. I remember Senator Tower and I went 
out there within 48 hours, I believe, of that tragic incident 
to make our assessment.
    What's the intent of the deployment of the U.S.S. Cole and 
what's the likelihood that that deployment structure will stay 
in place for a while?
    Admiral Fallon. Senator, the deployment is really sent as a 
signal. In my opinion, it's designed to let folks know that we 
are certainly very interested in this part of the world and 
particularly in activities within Lebanon. It's been 
frustrating to me to watch. I visited Lebanon back in September 
for the first time in several decades, in fact since I was back 
there in 1983, the last time. There had not been a senior 
military officer visit.
    I was well received by the government, the leadership 
there, the defense minister. It's clear that they want to 
engage with us. But meanwhile we've watched now this political 
impasse drag on and on where--the inability to get a president. 
It's very clear that outside actors are influencing this in 
Lebanon. The message here is that we are watching with keen 
interest, that we are not actively putting our fingers into 
this thing, we're not trying to destabilize anything, but we 
want to demonstrate through our presence that we are committed 
to helping Lebanon to move forward and hopefully resolve their 
crisis.
    I'm very anxious to get our people engaged in helping the 
Lebanese armed forces to be more confident and more able to 
provide security and stability. As they demonstrated in the 
refugee camp activities this last summer, they have a lot of 
challenges. We want to be more engaged.
    Senator Warner. I think sending the U.S.S. Cole is quite a 
symbol. As we all remember, that ship and its crew suffered a 
tragic incident when a terrorist rammed it and exploded. We 
repaired that ship and she's back on the line.
    Are there other ships accompanying it in this force or is 
it a single ship?
    Admiral Fallon. I believe that there will be other ships 
that are going to operate in the area, sir.
    Senator Warner. I would hope that would be the case.
    My last question, Mr. Chairman. There's been the assertion 
that the Afghan situation should be separated from the Iraq 
situation. They are coupled in that it's a common effort to 
enable two nations to achieve strong sovereignty, but I think 
Secretary Gates again very wisely said the Europeans have a 
problem with our involvement in Iraq and project that to 
Afghanistan, and do not understand the different kind of 
threat.
    I assume you associate yourself with that analysis by the 
Secretary of Defense, and I thought you'd share with us your 
own views here.
    Admiral Fallon. Senator, both Iraq and Afghanistan are 
stability challenges in my region. Each is unique; many 
circumstances that are different. I can't explain all the 
thought processes within the heads of the people in the various 
countries that are involved here, but I can tell you that we 
need help in Afghanistan. There are lots of folks who have 
raised their hands and said, we aim to be of assistance here. 
It seems to me we have to figure out a better way to get people 
to be committed to working together in a really complementary 
and effective manner if we're going to be successful.
    Senator Warner. There's no reason why they can't supply 
some of the non-military aspects of the recovery in 
Afghanistan.
    Admiral Fallon. I think we're a little cautious to say, 
look, here's how it works and how it's effective. Our example 
in the east bringing to bear those other instruments that 
you've made available to us in the way of moneys and ability to 
operate to help people in their daily lives, it seems to me 
these are very obvious examples of how things could be more 
effective than they are now. Removing caveats and allowing 
troops to really have their value on the ground is critical. I 
just don't understand what people are thinking about in this 
except for the risk aversity of things.
    It's very different in Afghanistan. For example, the 
drumbeat today is things are really going to heck in a 
handbasket and there's no doubt about that the IEDs, the 
suicide bombings, are up significantly from a year or 2 ago, 
but the scale of violence in Afghanistan is a fraction of what 
it is in Iraq. I'm not trying to sugar-coat this at all, but it 
needs effective engagement.
    There are lots of folks there. If we could get everybody to 
put in a solid effort without all these caveats, I think we'd 
be a heck of a lot further down the road.
    Senator Warner. Is Iran trying to project along its border, 
particularly in that segment of Afghanistan, it's own influence 
and destabilizing some of the efforts that we and NATO are 
trying to achieve?
    Admiral Fallon. No doubt that the Iranians are influencing 
Afghanistan. In many ways it's positive. I've had this 
conversation with President Karzai. They have provided a lot of 
assistance to Afghanistan.
    Senator Warner. ``They'' being----
    Admiral Fallon. The Iranians.
    Senator Warner. Recently have provided economic assistance?
    Admiral Fallon. Yes, sir. In the west, in Herat and that 
area, there's substantial Iranian investment and activity. The 
cost of that----
    Senator Warner. Do you view that as positive?
    Admiral Fallon. That's positive. What I don't like is the 
flip side of it, that we found several instances last year in 
which it was pretty apparent that they were trying to provide 
lethal assistance of a similar kind----
    Senator Warner. The IED type?
    Admiral Fallon. Haven't seen much evidence of that, but 
we've seen other things. Now, it's not on a scale of what's 
going on on the other border, but it's still unhelpful. Now, 
what else we don't know remains to be seen. It could be a very 
positive influence. In some ways it is. The flip side of it is 
as you know.
    Senator Warner. Mr. Chairman, I think our witnesses have 
shared very superb professional perspectives on your 
responsibilities in that AOR. I compliment you and your troops 
under you.
    Chairman Levin. Thank you, Senator Warner.
    Senator McCaskill?
    Senator McCaskill. Thank you, Mr. Chairman.
    It is my understanding--and please correct me if I'm 
wrong--that we have approximately 85,000 Sunnis on the payroll 
on a monthly basis in Iraq?
    Admiral Fallon. Closer to--this is the former Concerned 
Local Citizens, called ``Sons of Iraq'' now?
    Senator McCaskill. I'm just curious how many Sunnis we have 
on the payroll. I don't know what we call them or what they're 
doing. I just want to figure out what is the number of Sunnis 
that we are paying every month with American tax dollars.
    Admiral Fallon. Senator, I think you're focused on those 
volunteers that have helped us with local security. The answer 
is about 90,000 total and I'm told that about 80 percent of 
those are Sunnis, about 20 percent Shia. So the number is 
probably closer to 70-75,000.
    Senator McCaskill. They're receiving somewhere between $200 
and $400 a month from us?
    Admiral Fallon. I don't know exactly what General Petraeus 
and his folks are paying them, but they're certainly receiving 
a salary.
    Senator McCaskill. Is it the sense that this is making a 
big difference in terms of stability?
    Admiral Fallon. Huge difference, a very positive 
difference.
    Senator McCaskill. Have we thought about paying 90,000 
Afghans a month? How about 90,000 Pakistanis a month?
    Admiral Fallon. The situations are different in both 
countries. I don't think you can take this--we have looked at 
this. A lot of people have said, well, this thing worked over 
here, let's get it going in Afghanistan. It's very different in 
many respects.
    The lesson's not lost on us. We're trying to figure out how 
to work with the indigenous people, with the tribes. I would 
tell you that right off the bat my experience and knowledge 
here in Afghanistan tells me that it's much more complex. Many 
more tribal affinities, local tribal affinities. Many of them 
don't particularly get along with the folks over in the next 
valley. So we've benefited immensely in Iraq in places where 
there's large tribal influences that cover big swaths of 
territory, folks have cooperated with one another. We think 
this is going to be a significant challenge in Afghanistan.
    I'm open to any suggestion that would help us move forward, 
but I don't think that we can just take this template and plop 
it down over top of either of these countries.
    Senator McCaskill. How are we going to get out from 
underneath this payroll? It's so frustrating. I think the 
amount of money--and by the way, I was kind of facetious when I 
talked about Afghanistan, but the Atlantic Council has said 
only 10 cents of every dollar we're spending there is getting 
to the Afghans.
    I'm curious also for your take on what kind of measures do 
we have in place to make sure these taxpayer dollars that we're 
spending in Afghanistan in fact is getting any kind of efficacy 
in terms of our goals in Afghanistan, and what's the long term? 
If we're doing this, whether it's 75,000 or 85,000 Sunnis that 
we're paying every month with American money, when do we stop 
paying them?
    I know some have characterized that payroll as--I know our 
military has performed there very well under General Petraeus 
as it relates to security. But clearly this amount of people on 
the payroll has also greatly contributed to what has occurred 
in terms of more security, and I don't know how we get out from 
under that.
    Admiral Fallon. Senator, we are very grateful for the 
willingness of these folks to step up and assume responsibility 
at the local level. It's been extraordinarily helpful in 
achieving the stability gains that we've made. We recognize 
that this is not a long-term solution, that we will have to 
have a way to transition these folks to some future employment, 
and that's what it's really about. It's about jobs and that's 
what they want.
    Some of these folks have been already and the plan is to 
continue to try to transition them into the Iraqi security 
forces, the army and the police. Many will not be able to do 
this, for a lot of reasons. So we're looking at other 
alternatives. Some of them are already under way. There are 
several trials that are involving a couple thousand of these 
people now to get them retrained through vocational schools, 
through other economic opportunities.
    The answer here in my opinion is as the economic activity 
levels increase in Iraq this is really the solution. General 
Petraeus and his commanders are certainly aware of this. They 
know that we have to have long-term solutions. Again, these are 
not all military. We have to have help from the development 
agencies and others.
    I'm encouraged by the beginnings of investment from outside 
private money into Iraq and the future of this country, and 
that's the real answer, giving them alternatives. So we know we 
have to transition them. We're working to try to effect those 
transitions as best we can.
    Senator McCaskill. But we have the same challenge in 
Afghanistan in terms of alternatives to poppy.
    Admiral Fallon. Of course.
    Senator McCaskill. I understand the tribal differences and 
I understand it's not quite as static as Sunni, Shiite, Kurd as 
in Iraq, that it is more complex in Afghanistan. But if what 
we're doing in terms of spending money in Afghanistan has not 
been successful--and 10 cents on the dollar is certainly not 
successful--it seems to me that we need to roll out the full 
employment plan in Afghanistan.
    Admiral Fallon. I can't vouch for 10 cents on the dollar, 
but I can tell you that there are certainly a lot of people 
that are intensely focused on trying to make Afghanistan a 
success. I would look at their security forces. We are actively 
and very positively, I believe, engaged in trying to make this 
force--not only allow it to grow, but to grow in a manner that 
they're really going to be capable of providing security. 
That's coming along.
    The real answer is in economic development. But this 
country is very different than Iraq. For starters is the 
literacy rate. It's in the 30 to 35 percent range. That means 
you have limited options when you start talking about economic 
opportunities. You have to start somewhere. The good news is 
there are millions of youngsters that are in schools now and 
that's a really positive sign.
    So there's no easy answer to this, this business in 
Afghanistan. At the end of the day it's a very different 
culture than ours, too, and they're going to have to come up 
with Afghan solutions to many of these challenges. We can 
advise them, we can be there to help provide security and 
stability, which we certainly are, and to encourage them. I get 
citizens around the country sending me, almost on a weekly 
basis, ideas about things that we might be able to try in 
Afghanistan, and I'm anxious to listen to them. Some of them I 
think are actually pretty worthwhile. We do what we can to give 
these over to our development folks and say, what can you do to 
help us?
    We're working the problem. We have to have stability and 
security as an underpinning, but we know that the real future 
in Afghanistan is economic development and we're committed to 
try to help.
    Senator McCaskill. I worry that the economic development is 
going to take so long, and that sometimes what we try to do 
militarily is so expensive. Believe me, it's weird that I would 
be sitting here pitching for lining up folks and putting them 
on the payroll paid for by the American taxpayer. But if in 
fact the problem with the poppy and the problem with all the 
tribal fighting in Afghanistan and the resurgence of a lot of 
the terrorist elements in that country and the Taliban is 
because of dire poverty--it took years for us to figure out how 
to begin to stabilize in Iraq, and the formula seems to be not 
only a good strategy, obviously, by the military, but the fact 
that we are now signing up people and giving them money every 
month. It seems to me that it's time for an analysis as to how 
the employment plan may cost out in terms of a cost-benefit 
analysis in terms of the money that we're spending.
    Clearly it doesn't appear that we're getting NATO to step 
up to do what they need to do to help us. If it's just a matter 
of us stretching even more thinly our boots on the ground in 
the Middle East, it's weird that I think that this might be a 
good idea, because if somebody would have told me I would be 
pitching this idea I'd say this is not what I would normally be 
doing.
    But I would certainly ask that you take a look at that in 
terms of just lining people up and paying them like we are the 
Sunnis in Iraq.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    Do we have any idea how much it would cost us to pay 
farmers in Afghanistan--these are the poorest folks--not to 
grow poppy? Do we have any idea? I'm not talking about the drug 
lords and the places, the heroin labs and the precursor folks. 
I'm talking about just those farmers. Do we have any idea, to 
pay them 100 bucks a month, what it would cost us?
    Admiral Fallon. No, I don't, Senator. But it seems to me 
that just paying them money is not the answer. The answer is to 
give them a future, give them some viable----
    Chairman Levin. I agree. We give them seeds and give them 
something else to grow. But do we know how much it would cost?
    Admiral Fallon. No. We're working on it. What I'm sensing 
is these people have been there for a long time. They're hardy, 
they're tough. They've managed to eke out an existence and 
thrive to an extent. There are more people in Afghanistan than 
Iraq. But they've been in a box. They've been destabilized, 
they've been oppressed by the Taliban, other challenges.
    We're working on it. Educate them, give them an 
opportunity.
    Chairman Levin. Let me tell you what I sense after talking 
to a whole lot of folks about this issue. The people who are 
making the money in Afghanistan are not those farmers. They're 
making a little more than they'd make growing other crops. The 
people who are making the money are drug lords, drug czars, 
people running chemical labs. But we don't go after the drug 
lords.
    Now, why don't we go after the drug lords? As I understand 
it, the order that our forces are operating under is that they 
seize narcotics and destroy labs that they come across in the 
course of their normal operations, but they do not have an 
order to seek and seize and destroy those narcotics labs, which 
if you could do that you address the problem.
    Why do we not have an interdiction mission in Afghanistan?
    Admiral Fallon. Senator, I think it's not we don't have a 
mission. We're trying to focus on stability and security for 
the people of this country, and in the process of course, if 
they have an opportunity to engage the drug trade, they're 
going to do that. But I've seen an increase in the last several 
months of, as we become more effective in engaging in this 
country, of starting to get at these what I consider the more 
lucrative targets, not working at the farmer and his field end 
of the thing, but into the area where they get the refined 
drugs.
    One of the things I spend time doing as the regional 
commander is engaging the other countries, and particularly 
those to the north to try to come up with arrangements with 
them to be more effective in interdicting this supply. They 
have some of the same questions and challenges. This stuff's 
coming out of Afghanistan; why can't you guys be more effective 
in this?
    I think we'll work on it. It's not that our people are 
turning a blind eye to this. You know they're working on it. 
We'll just have to look and see if we can be more effective.
    One of the problems is the corruption issue. It's 
traditional here in this country and as we engage with 
President Karzai and the leadership we make every effort to try 
to influence the right decisions, to get rid of those people 
that are identified as corrupt and that are supporting this 
drug trade and get them replaced. I think there's no straight 
line, but in Helmand Province, the most problematic, certainly 
by most measures the most prolific drug producing province, the 
governor has just been replaced. President Karzai has put in a 
new man. He's been effective in two other provinces, and 
hopefully this is the kind of move that's going to provide the 
kind of backbone to knocking this stuff off.
    Again, my experience as I get around the country, in those 
provinces where the governor and the leadership have taken a 
strong stand against it then the results follow. So we'll 
continue to encourage this kind of activity.
    Chairman Levin. Secretary Boucher told this committee in a 
recent hearing that the U.S., our Government, preferred to have 
Afghan forces seize the drug lords and the heroin labs and the 
precursor materials. Then he also acknowledged that Afghan 
forces have only had some success with small and medium 
traffickers and not a lot of success at the bigger levels.
    Then we had a meeting with the British chief of defense, 
Sir Jock Stirrup who asserted that the coalition should set a 
goal of having two to three high-value drug lords locked up by 
the end of the year.
    What about it? Why not adopt that? We basically know who 
they are. Some of them are pretty high up in the political 
support of the Government of Afghanistan. Why do we not just 
tell the Afghan Government basically, these drug funds are 
being used to support the Taliban, which are out after our men 
and women, they're killing us, they're killing your troops? Why 
not have an interdiction mission flat-out going after these 
laboratories?
    Admiral Fallon. Senator, I would be very pleased to take on 
the drug labs. I think this is where we're probably going to 
have much better payoff, again, than working down the food 
chain. I'm happy to take that on. I'll be happy to talk to our 
commanders and look at it.
    I also acknowledge that there's another reality in this 
country, and that is that it's very complex. Governance, 
effective governance, relies on the allegiance of many, many 
tribal entities, and I think finding someone who is completely 
lily-white pure in this area and still being effective in 
trying to get the allegiances required to move forward is a 
challenge. I think President Karzai is acutely aware of it. 
Again, they make decisions every day. I see more of them that 
are in the right direction than the wrong direction. So we'll 
keep at it.
    Chairman Levin. Will you get back to us on that issue when 
you talk to your commanders, when you take on that mission of 
going after the laboratories? Will you, after you have those 
discussions, let us know what the outcome is?
    Admiral Fallon. Sure.
    Chairman Levin. Thank you.
    There's a terrorist target that was reportedly attacked in 
southern Somalia the other day. Do you know what the outcome of 
that strike was?
    Admiral Fallon. Senator, I'd prefer to do that in a closed 
session. We'll be happy to share what I have on it.
    Chairman Levin. That's fine.
    There's a program in Afghanistan which I briefly talked to 
you about yesterday called, in my office, called the National 
Solidarity Program. Assistant Secretary of State Boucher again 
endorsed a program, this program, the National Solidarity 
Program. It's within the Afghanistan Ministry of Rural 
Rehabilitation and Development. It provides block grants 
directly to locally elected community development councils. 
They identify the development projects in their own communities 
at very small cost in each community, and there's 16,000 
community development councils in Afghanistan. Apparently 
there's been like $400 million in payments to those community 
development councils, which have financed more than 30,000 sub-
projects in these communities which have improved 
infrastructure, markets, services.
    Would you take a look at those and tell us from your 
perspective whether or not they've been a success? We think 
they've been a very important place where some progress at a 
local level, much freer of corruption, the progress has taken 
place. But I'd like your take on it after you've had a chance 
to review that.
    Admiral Fallon. Yes, sir.
    [The information referred to follows:]

    I believe the National Solidarity Program (NSP) to be a valuable 
initiative, and I support its intent. The Islamic Republic of 
Afghanistan established the NSP in 2003 to empower the grassroots of 
Afghan society. It does this by facilitating local governance via 
Community Development Councils (CDCs) in more than 20,000 villages 
across all 34 of Afghanistan's provinces. CDCs identify and prioritize 
community projects and take ownership over each program by contributing 
a minimum of 10 percent of cost for each project. The NSP has supported 
approximately 34,000 community projects with most oriented on improving 
infrastructure such as irrigation and roads. Other projects have 
improved access to electricity, safe drinking water, clinics, and 
better sanitation. The Ministry of Rural Rehabilitation and Development 
implemented the program, which has received approximately $410 million 
from an international consortium of donors. The World Bank is the 
largest financier. This has been sufficient to run the program, without 
direct support from U.S. forces in Afghanistan.

    Chairman Levin. The question has been raised about these 
two negotiating tracks which we're on, and this will be my 
final question. Do you know who are negotiating those two 
agreements with the Iraqis? Is the military involved in those 
negotiations?
    Admiral Fallon. Yes, sir. Ambassador Crocker has the lead 
for the entire effort in Baghdad. Ambassador Loftus from the 
Department of State is specifically the SOFA negotiating agent. 
Of course we're involved in them. I've met Ambassador Crocker 
all the time. I met with Ambassador Loftus and had a good chat. 
I have somebody from my headquarters plugged into his staff. I 
understand he's either downrange in Iraq now or headed down 
there. So it seems to me that there's a very close relationship 
here between the interested parties.
    Chairman Levin. Secretary Gates told us that there will be 
no security commitment made to Iraq in those agreements. Is 
that your understanding?
    Admiral Fallon. Yes, sir.
    Admiral Olson. Mr. Chairman, I know we're not allotted any 
time in this, but if I can ask for 1 minute to fully address 
the question you asked on Predators and ISR.
    Chairman Levin. Absolutely.
    Admiral Olson.--because I'm uneasy that I left a sense that 
we're not being as aggressive as we can be and that we didn't 
put it in the President's budget, which we did. We are pressing 
ahead with the purchase----
    Chairman Levin. I'm sorry. I'm confused. You said that the 
money which you had not asked for, that you in fact did ask 
for; is that what you're----
    Admiral Olson. No, sir. There is $300 million on top of 
what we asked for in the President's budget, and I think that's 
where the confusion factor was. We did include in the 
President's budget a significant amount of money for purchase 
and lease of total capability. I meant to say that we are 
beholden to the Services for recruiting and providing people, 
bandwidth, all of that. We've also become dependent to a large 
degree on the global war on terror supplemental for funding the 
day-to-day costs of operating our Predators, on top of what's 
included in the President's budget as well, to continue the 
pace of operations and in fact grow it, as we already have in 
our budget. It will require a sustainment of that level of 
effort.
    But the $300 million specifically was after we submitted 
the President's budget we were asked specifically: If there was 
more available could you spend it? We did a further analysis 
and determined that there is some burden that we could take on 
from the services for an additional $300 million of MFP-11 
money.
    Thank you, sir.
    Chairman Levin. So it's not that you relied on a 
supplemental for that $300 million?
    Admiral Olson. Sir, we have ISR funding in the 
supplemental, we have ISR funding in our President's budget. 
This would be in addition to the supplemental.
    Chairman Levin. So there was no signal to you from the 
administration that you should not include that request to 
them?
    Admiral Olson. Sir, these are new items that was based on 
additional analysis after we submitted the supplemental.
    Chairman Levin. So the answer is there was no signal then 
from the administration?
    Admiral Olson. That's correct, sir.
    Chairman Levin. Again our thanks to both of you. It's been 
a long hearing, and we appreciate your work and your commitment 
to your missions; and to all the support that you get, we're 
grateful to them and to your families. We'll stand adjourned.
    [Questions for the record with answers supplied follow:]
             Questions Submitted by Senator Daniel K. Akaka
                           levels of violence
    1. Senator Akaka. Admiral Fallon, I am pleased and encouraged about 
the falling levels of violence across Iraq, and the prospects of a 
better future for the Iraqi people. However, I am concerned about other 
factors that may be contributing to the reduced number of attacks other 
than what can be attributable to the U.S. surge in forces last year. To 
what degree do you figure that the nation-wide ceasefire order from 
Shiite cleric Muqtada Al-Sadr has played in reducing violence 
throughout the country, and especially around Baghdad?
    Admiral Fallon. Muqtada Al-Sadr's 29 August 2007 ``freeze'' order, 
which he renewed for 6 months on 22 February 2008, has certainly 
contributed to reduced violence levels, particularly the intra-Shia 
violence in the southern provinces. However, it is important to note 
elements of the Jaysh al Mahdi, especially the Iranian-backed Special 
Groups, continue to conduct attacks against the coalition in violation 
of the ``freeze'' order. Sadr's ``freeze'' added to other factors--most 
notably the U.S. surge, the disruption of al Qaeda in Iraq, more 
effective Iraqi security forces, and the success of local Sunni 
security initiatives--to create a synergistic effect that has reduced 
violence levels in Baghdad and the surrounding areas. Thus, Sadr's 
``freeze'' order has been one factor among many with contributed to 
lowering levels of violence.

                              troop levels
    2. Senator Akaka. Admiral Fallon, assuming the number of attacks 
remains manageable enough, and that increasing numbers and capabilities 
of the Iraqi security forces will allow the United States to continue 
the withdrawal of military forces after the summer ``pause'', what 
prospects do you give for long-term stability between Sunni and Shia 
factions within Iraq at the reduced troop levels?
    Admiral Fallon. We are optimistic, despite the uncertainty in Iraq, 
that the positive trends we have observed will continue in the next 
year and that the prospects for long-term stability between Sunni and 
Shia are excellent. The reduction in civil sectarian violence in Iraq 
during the past year has been significant, and has allowed Iraq's Sunni 
and Shia to focus on a shared adversary, foreign-inspired terrorist-
extremists. The increasing, albeit slow progress on Iraq's political 
front demonstrates Sunni/Shia cooperation in a manner that fosters 
stability and non-violent resolution of political competition in Iraq. 
The growth of localized Sunni security institutions, particularly 
tribal security organizations, has encouraged Sunni cooperation and 
reconciliation with the Government of Iraq. By giving Sunnis a greater 
stake and greater control in the self-governance of their own 
communities, the Sunni security initiatives are creating greater long-
term stability between Sunni and Shia factions in Iraq.

                            opium production
    3. Senator Akaka. Admiral Fallon, recent reports before this 
committee have highlighted the importance of addressing the opium 
production problem in Afghanistan as a prerequisite to coalition 
success. What is being done to compensate Afghani farmers for giving up 
their poppy crop growing, both financially and in terms of protecting 
them and their families from retribution by the Taliban insurgent 
forces, for cooperating with coalition objectives?
    Admiral Fallon. The State Department's Bureau for International 
Narcotics and Law Enforcement Affairs serves as the lead implementing 
agency on narcotics issues in Afghanistan. Their partner for 
Alternative Development in Afghanistan is the United States Agency for 
International Development.
    The military role in this effort is clear; development activities 
can not occur where there is not sufficient security. The NATO led 
International Security Assistance Force has integrated counternarcotics 
into the broader security strategy and routinely incorporates 
development activities as follow-on to security operations.
    The challenges of implementing the Alternative Development program 
are daunting. Economic growth in Afghanistan is hampered by massive 
infrastructure deficits, a shortage of skilled human capital, 
insecurity, corruption, weak legal and regulatory regimes, and poor 
access to seaports, among other factors. Despite the significant 
progress made, given Afghanistan's incredibly low starting point, years 
of work remain in order to build a modern and regionally competitive 
Afghan economy.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                                  iran
    4. Senator Bill Nelson. Admiral Fallon, is the President of Iran's 
claim that, ``Iran now rivaled the United States in terms of influence 
in Iraq'' realistic?
    Admiral Fallon. Instead of attempting to quantify President 
Ahmadinejad's claim, I think the focus should be Iraq is a sovereign 
nation. As such, they have the right to diplomatically engage with 
their neighbors; including Iran. The reality is that some Iraqi 
politicians have characterized President Ahmadinejad's recent visit to 
be a positive step in developing good relations with a neighboring 
Muslim state.
    In the bigger picture, Iranian activity throughout the area of the 
Arabian Gulf is not helpful. Iranian support for terrorism and the 
export of sectarian violence beyond its borders is a destabilizing and 
troubling influence. Iran is emboldened in their recent behavior and 
actively seeks to play a more assertive role within Iraq, such as in 
their support for Shia extremists. As a direct result of the visit, 
Ambassador Crocker expressed hope that Iran would now deal in a more 
positive, constructive manner with Iraq's Government and people, and 
stop assisting groups that damage Iraq's stability and security. In 
addition, he also hopes Iran's visit would send a clear message to 
Iraq's Arab neighbors that they need to engage more with Iraq because 
they too have vested interests that may be in danger if they continue 
their current diplomatic inertia. The U.S. Mission in Iraq will 
continue pressing these key Arab neighbors to open embassies and send 
ambassadors to Baghdad.

          equipment needs--aircraft full motion video cameras
    5. Senator Bill Nelson. Admiral Fallon and Admiral Olson, is there 
another Service organization besides Special Operations Command (SOCOM) 
that could acquire and maintain the aircraft you require to fulfill 
Central Command (CENTCOM)'s operational requirement for aircraft with 
full motion video cameras?
    Admiral Fallon. All Service components and the Joint Improvised 
Explosive Device Defeat Organization are capable of, and are actively 
acquiring and fielding, manned and/or unmanned platforms for the 
purpose of intelligence collection using full motion video (FMV). As 
stated, in testimony by Admiral Olson, the immediate Intelligence, 
Surveillance, and Reconnaissance (ISR) shortfall, in regards to 
processing, exploitation, and dissemination (PED); is manning and 
intelligence exploitation. It is critical that ISR systems be developed 
and fielded with consideration to the entire system, end-to-end, to 
include theater bandwidth and communications architecture integration.
    Admiral Olson. The Services have large airborne ISR FMV programs 
that can provide the detailed information needed by Special Operations 
Forces (SOF). However, Service platforms were designed for different 
target sets. SOF unique target sets require far more persistence and a 
different degree of stand-off than that needed by the target sets the 
Service common ISR platforms were designed for. Additionally, Service 
common ISR FMV programs are currently insufficient to cover the service 
common demand in the CENTCOM, leaving very little to cover any other 
Geographic Combatant Command (GCC) theater demands.
    Navy programs include P-3/EP-3 and Broad Area Maritime Surveillance 
(BAMS). The P-3 fleet is aging and replacement does not begin until 
2012 for P-3 (P-8) and 2018 for EP-3. BAMS is still in the research and 
development (R&D) stage.
    Army programs include the Extended Range Multi-Purpose (ERMP) 
Unmanned Aircraft System (Warrior) and Guardrail. The Guardrail is also 
aging. The Warrior is FMV capable but has a limited ability to 
disseminate its data and is not yet available in sufficient numbers.
    Air Force programs include Predator, Global Hawk, U-2, RC-135, 
Senior Scout, Scathe View, and E-8 Joint Surveillance and Target Attack 
Radar System (JSTARS). Only the Predator and Scathe View are FMV 
capable; the current planned Predator and Scathe View inventory is 
insufficient. The Air Force is reportedly making plans to substantially 
increase the size of the Predator fleet. SOCOM encourages this 
development as it brings needed capability to the current Operation 
Iraqi Freedom/Operation Enduring Freedom (OIF/OEF) fight and to the 
post OIF/OEF environment.
    Airborne FMV ISR must be thought of as a whole system (pilots, 
sensor operators, exploiters, architecture, etc.). Airborne FMV ISR 
sensors collect data; PED and then converts that data into 
intelligence. Service common PED is designed to convert collected data 
into intelligence to support conventional force needs. Operational 
experience has demonstrated that Service common PED does not meet SOF 
needs.
    Based on lessons-learned, SOF has developed its own PED capability/
capacity with SOF unique tactics, techniques, and procedures. 
Experience consistently shows that SOF ISR, or Service ISR supporting 
SOF combined with SOF unique PED, leads to dramatic increases in 
actionable intelligence. Conversely, experience shows that lack of SOF 
unique PED support makes ISR dramatically less effective. Current SOF 
unique PED capacity is insufficient.
    Distributed Command Ground Systems (DCGS) is the current 
exploitation program for the Services; in addition, some of the 
Services heavily leverage combat support agency (CSA) exploitation 
capabilities. There are substantial differences between the DCGS 
programs. The Air Force DCGS combines manpower, systems, equipment, and 
facilities to provide a PED capability and capacity for ISR assets. The 
other Service DCGS programs are mostly equipment-centric. The current 
Under Secretary of Defense for Intelligence (USDI) led DCGS efforts are 
focusing on improving interoperability and data sharing among the DCGS 
programs. Discussions about improvements in interoperability have not 
been accompanied by discussions on growing PED capacity. Similarly, 
discussions on Service common ISR growth are not being matched by 
discussions on Service common PED growth. It is important to note that 
SOF unique PED does rely heavily on intelligence generated by Service 
common ISR and PED. Furthermore, SOF units in the field often receive 
time-sensitive direct support from conventional ISR and PED. SOCOM 
needs conventional force ISR and PED support to remain in place; they 
are a critical enabling capability for SOF. SOCOM encourages the 
Services and the combat support agencies to increase their Service 
common PED capacities and align them with the projected Service common 
ISR growth.
    Due to its unique target set and insufficient Service common ISR 
and PED, SOCOM has grown and is growing its SOF unique ISR and PED 
capability and capacity to meet SOF needs. The global war on terror 
requires far more ISR and PED than was ever envisioned. Based on sheer 
volume alone, SOCOM will not be able to grow all the SOF unique ISR and 
PED necessary to meet the SOF demand. SOCOM will grow its fair share 
and make SOF-peculiar modifications to Service capabilities as 
required, but it continues to look to the Services and CSAs to expand 
their ISR and PED support for the global war on terror.

    6. Senator Bill Nelson. Admiral Fallon and Admiral Olson, are you 
looking into this?
    Admiral Fallon. CENTCOM through the Joint Force Management and 
Joint Urgent Operational Need (JUON) processes has consistently 
documented operational needs (including theater SOF requirements) for 
Aircraft (both manned and unmanned platforms) with FMV capability. 
Currently there are eight open JUONs that have FMV as a critical 
component. The acquisition of additional platforms with FMV 
capabilities along with requisite PED capabilities will greatly enhance 
the warfighter's ability to track and target enemy activities. The 
Joint Requirements Oversight Council (JROC) is currently investigating 
FMV solutions, as persistent ISR is CENTCOM's number two issue on the 
Integrated Priority Listing (IPL).
    Admiral Olson. The Services have large airborne ISR FMV programs 
that can provide the detailed information needed by SOF. However, 
Service platforms were designed for different target sets. SOF unique 
target sets require far more persistence and a different degree of 
stand-off than that needed by the target sets the Service common ISR 
platforms were designed for. Additionally, Service common ISR FMV 
programs are currently insufficient to cover the Service common demand 
in the CENTCOM, leaving very little to cover any other Geographic 
Combatant Command (GCC) theater demands.
    Navy programs include P-3/EP-3 and BAMS. The P-3 fleet is aging and 
replacement does not begin until 2012 for P-3 (P-8) and 2018 for EP-3. 
BAMS is still in the R&D stage.
    Army programs include the ERMP Unmanned Aircraft System (Warrior) 
and Guardrail. The Guardrail is also aging. The Warrior is FMV capable 
but has a limited ability to disseminate its data and is not yet 
available in sufficient numbers.
    Air Force programs include Predator, Global Hawk, U-2, RC-135, 
Senior Scout, Scathe View, and E-8 JSTARS. Only the Predator and Scathe 
View are FMV capable; the current planned Predator and Scathe View 
inventory is insufficient. The Air Force is reportedly making plans to 
substantially increase the size of the Predator fleet. SOCOM encourages 
this development as it brings needed capability to the current OIF/OEF 
fight and to the post OIF/OEF environment.
    Airborne FMV ISR must be thought of as a whole system (pilots, 
sensor operators, exploiters, architecture, etc.). Airborne FMV ISR 
sensors collect data; PED and then converts that data into 
intelligence. Service common PED is designed to convert collected data 
into intelligence to support conventional force needs. Operational 
experience has demonstrated that Service common PED does not meet SOF 
needs. Based on lessons-learned, SOF has developed its own PED 
capability/capacity with SOF unique tactics, techniques, and 
procedures. Experience consistently shows that SOF ISR, or Service ISR 
supporting SOF combined with SOF unique PED, leads to dramatic 
increases in actionable intelligence. Conversely, experience shows that 
lack of SOF unique PED support makes ISR dramatically less effective. 
Current SOF unique PED capacity is insufficient.
    DCGS is the current exploitation program for the Services; in 
addition, some of the Services heavily leverage CSA exploitation 
capabilities. There are substantial differences between the DCGS 
programs. The Air Force DCGS combines manpower, systems, equipment, and 
facilities to provide a PED capability and capacity for ISR assets. The 
other Service DCGS programs are mostly equipment-centric. The current 
USDI led DCGS efforts are focusing on improving interoperability and 
data sharing among the DCGS programs. Discussions about improvements in 
interoperability have not been accompanied by discussions on growing 
PED capacity. Similarly, discussions on Service common ISR growth are 
not being matched by discussions on Service common PED growth. It is 
important to note that SOF unique PED does rely heavily on intelligence 
generated by Service common ISR and PED. Furthermore, SOF units in the 
field often receive time-sensitive direct support from conventional ISR 
and PED. SOCOM needs conventional force ISR and PED support to remain 
in place; they are a critical enabling capability for SOF. SOCOM 
encourages the Services and the combat support agencies to increase 
their Service common PED capacities and align them with the projected 
Service common ISR growth.
    Due to its unique target set and insufficient Service common ISR 
and PED, SOCOM has grown and is growing its SOF unique ISR and PED 
capability and capacity to meet SOF needs. The global war on terror 
requires far more ISR and PED than was ever envisioned. Based on sheer 
volume alone, SOCOM will not be able to grow all the SOF unique ISR and 
PED necessary to meet the SOF demand. SOCOM will grow its fair share 
and make SOF-peculiar modifications to Service capabilities as 
required, but it continues to look to the Services and CSAs to expand 
their ISR and PED support for the global war on terror.

    7. Senator Bill Nelson. Admiral Fallon and Admiral Olson, do you 
believe that Congress should fund this requirement on the supplemental?
    Admiral Fallon. Yes. The acquisition of full motion video has been 
validated as an urgent need at various levels throughout the Department 
of Defense (DOD). Currently there are eight open Joint Urgent 
Operational Needs that involve full motion video capability. The 
acquisition of additional full motion video capabilities will greatly 
enhance the warfighter's ability to track enemy activities, resulting 
in successful operations while significantly reducing American and 
Coalition loss of life.
    Admiral Olson. The Services have large airborne ISR FMV programs 
that can provide the detailed information needed by SOF. However, 
Service platforms were designed for different target sets. SOF unique 
target sets require far more persistence and a different degree of 
stand-off than that needed by the target sets the Service common ISR 
platforms were designed for. Additionally, Service common ISR FMV 
programs are currently insufficient to cover the Service common demand 
in the CENTCOM, leaving very little to cover any other Geographic 
Combatant Command theater demands.
    Navy programs include P-3/EP-3 and BAMS. The P-3 fleet is aging and 
replacement does not begin until 2012 for P-3 (P-8) and 2018 for EP-3. 
BAMS is still in the R&D stage.
    Army programs include the ERMP Unmanned Aircraft System (Warrior) 
and Guardrail. The Guardrail is also aging. The Warrior is FMV capable 
but has a limited ability to disseminate its data and is not yet 
available in sufficient numbers.
    Air Force programs include Predator, Global Hawk, U-2, RC-135, 
Senior Scout, Scathe View, and E-8 JSTARS. Only the Predator and Scathe 
View are FMV capable; the current planned Predator and Scathe View 
inventory is insufficient. The Air Force is reportedly making plans to 
substantially increase the size of the Predator fleet. SOCOM encourages 
this development as it brings needed capability to the current OIF/OEF 
fight and to the post OIF/OEF environment.
    Airborne FMV ISR must be thought of as a whole system (pilots, 
sensor operators, exploiters, architecture, etc.). Airborne FMV ISR 
sensors collect data; PED and then converts that data into 
intelligence. Service common PED is designed to convert collected data 
into intelligence to support conventional force needs.
    Operational experience has demonstrated that Service common PED 
does not meet SOF needs. Based on lessons-learned, SOF has developed 
its own PED capability/capacity with SOF unique tactics, techniques, 
and procedures. Experience consistently shows that SOF ISR, or Service 
ISR supporting SOF combined with SOF unique PED, leads to dramatic 
increases in actionable intelligence. Conversely, experience shows that 
lack of SOF unique PED support makes ISR dramatically less effective. 
Current SOF unique PED capacity is insufficient.
    DCGS is the current exploitation program for the Services; in 
addition, some of the Services heavily leverage CSA exploitation 
capabilities. There are substantial differences between the DCGS 
programs. The Air Force DCGS combines manpower, systems, equipment, and 
facilities to provide a PED capability and capacity for ISR assets. The 
other Service DCGS programs are mostly equipment-centric. The current 
USDI led DCGS efforts are focusing on improving interoperability and 
data sharing among the DCGS programs. Discussions about improvements in 
interoperability have not been accompanied by discussions on growing 
PED capacity. Similarly, discussions on Service common ISR growth are 
not being matched by discussions on Service common PED growth. It is 
important to note that SOF unique PED does rely heavily on intelligence 
generated by Service common ISR and PED. Furthermore, SOF units in the 
field often receive time-sensitive direct support from conventional ISR 
and PED. SOCOM needs conventional force ISR and PED support to remain 
in place; they are a critical enabling capability for SOF. SOCOM 
encourages the Services and the combat support agencies to increase 
their Service common PED capacities and align them with the projected 
Service common ISR growth.
    Due to its unique target set and insufficient Service common ISR 
and PED, SOCOM has grown and is growing its SOF unique ISR and PED 
capability and capacity to meet SOF needs. The global war on terror 
requires far more ISR and PED than was ever envisioned. Based on sheer 
volume alone, SOCOM will not be able to grow all the SOF unique ISR and 
PED necessary to meet the SOF demand. SOCOM will grow its fair share 
and make SOF-peculiar modifications to Service capabilities as 
required, but it continues to look to the Services and CSAs to expand 
their ISR and PED support for the global war on terror.

                       pakistani training mission
    8. Senator Bill Nelson. Admiral Olson, do you have plans for SOCOM 
to provide trainers to the Pakistanis in order to better develop their 
capabilities for irregular warfare operations in the tribal regions?
    Admiral Olson. [Deleted.]

    9. Senator Bill Nelson. Admiral Olson, are the Pakistanis willing 
to accept the level of help that is really needed to meet the 
challenges they face?
    Admiral Olson. [Deleted.]

    10. Senator Bill Nelson. Admiral Olson, are the local recruits that 
Pakistan plans to use for this new mission likely to be reliable?
    Admiral Olson. [Deleted.]

                assessment of indirect military actions
    11. Senator Bill Nelson. Admiral Olson, what is your assessment of 
our Government's performance in meeting the challenge of those indirect 
military actions required to defeat the terrorist threat throughout 
your area of responsibility?
    Admiral Olson. At this juncture, we have not yet sufficiently met 
the challenge of effectively and efficiently implementing the indirect 
military actions required to defeat the global terrorist threat.
    This correlates with our analysis that highlights the need for an 
increased emphasis on the indirect approach at this time. Within this 
indirect approach, DOD should increase endeavors to enable our Partner 
Nations (PNs) to help us further reshape the environment around our 
enemies to reduce their capacity and popular support. In addition, DOD 
needs to bolster its participation and contributions to the whole-of-
government effort, specifically with regard to a reinvigorated 
strategic communication campaign.
    From a strategic perspective, we need to prevent the emergence of 
new violent extremist threats, particularly those that pose strategic 
threats to the U.S. and our PNs. To date, we have demonstrated success 
in this endeavor. Yet, existing extremist groups continue gaining 
support and now seek to align themselves with better known ``brand 
names,'' in an effort to increase their legitimacy among their current 
and likely constituency. The creation of al Qaeda in Iraq (AQI) and al 
Qaeda in Magreb (AQIM) are prime examples of this trend. Increasing our 
ability to support the development of capable governments in countries 
with at risk populations, and the development of a PN-focused network 
capable of delivering culturally effective messages that deter the 
emergence of new generations of extremist organizations, is vital to 
long term success in this venue.
    Meanwhile we have had mixed results in isolating threats to the 
regional or local levels, as many VEOs remain as strategic threats. The 
outcome of the global effort to deprive terrorist organizations of the 
assets and resources needed to wage war over the long-term has been 
limited. Unfortunately, DOD support to United States Government and PN 
actions has neither denied a sufficient number of extremists their 
access to funds nor their freedom to acquire resources and to recruit 
adherents and operatives in the global market place.
    On the other hand, DOD has been effective in defeating threats once 
they are isolated, particularly in Iraq and Afghanistan. VEOs, such as 
al Qaeda, have felt the effects of DOD action manifested in significant 
losses and in precipitating their retreat to sanctuaries as opposed to 
openly operating among the populace. Yet as fast as we eliminate or 
capture enemy leaders and fighters, sufficient numbers of recruits and 
support flow into these organizations. This reality demonstrates the 
limitation of the direct approach--eliminating enemy combat elements 
which can be replaced is not enough to achieve long term victory. We 
must employ additional indirect actions to nullify the extremist 
networks' strategic capability and capacity to generate and project 
power.
    Likewise, we must prevent the reconstitution of VEOs, such as the 
Taliban in Afghanistan. Success depends on the establishment of a PN 
network that refuses to support extremist organizations or to permit 
their populations to support terrorism. Many nations continue to 
develop counterterrorism (CT) capabilities. DOD, however, has been 
limited in its progress to enable PN CT programs.
    While DOD deems enabling PNs to combat VEOs as the decisive 
military effort in the ongoing struggle, a comprehensive and integrated 
strategic communication campaign is also critical to countering the 
appeal of the extremist ideology. DOD must continue working with the 
U.S. Government lead, the Department of State, to help develop and 
implement this program. Still, this effort is complicated by the 
likelihood that almost any publically revealed strategic communication 
effort linked to DOD will lack legitimacy in the eyes of many targeted 
populations. As such, DOD and the U.S. Government must also work with 
PNs to spread the anti-VEO message by amplifying moderate voices that 
speak out against terrorism.
    Finally, to sufficiently meet the global challenge of implementing 
those indirect military actions required to defeat the terrorist 
threat, DOD will most likely need to realign resources. Operations 
designed to remove our enemies' freedom to act and move within 
vulnerable populations may require a more persistent application over 
several years. Due to the less tangible nature, the longer approach and 
the increased challenge of measuring success in these types of 
operations, patience will be required to reap success.

    [Whereupon, at 12:30 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        WEDNESDAY, MARCH 5, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

                 POSTURE OF THE UNITED STATES AIR FORCE

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, 
Akaka, Bill Nelson, E. Benjamin Nelson, Webb, McCaskill, 
Warner, Inhofe, Sessions, Chambliss, Graham, Dole, Thune, 
Martinez, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jonathan D. Clark, counsel; 
Madelyn R. Creedon, counsel; Creighton Greene, professional 
staff member; Peter K. Levine, general counsel; Michael J. 
Noblet, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; Gregory T. Kiley, professional staff 
member; David M. Morriss, minority counsel; Lucian L. Niemeyer, 
professional staff member; Sean J. Stackley, professional staff 
member; Diana G. Tabler, professional staff member; and Richard 
F. Walsh, minority counsel.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Darcie Tokioka, assistant to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; M. Bradford Foley, assistant to 
Senator Pryor; Gordon I. Peterson, assistant to Senator Webb; 
Stephen C. Hedger, assistant to Senator McCaskill; Sandra Luff, 
assistant to Senator Warner; Anthony J. Lazarski, assistant to 
Senator Inhofe; Todd Stiefler, assistant to Senator Sessions; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Lindsey 
Neas, assistant to Senator Dole; Jason Van Beek, assistant to 
Senator Thune; Brian W. Walsh, assistant to Senator Martinez; 
and Erskine W. Wells III, assistant to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    This morning, we welcome Secretary Wynne and General 
Moseley back to the committee. As we do on these occasions, let 
us ask both of you to extend, on behalf of the committee, our 
gratitude to the men and women of the Air Force, and their 
families, for the many sacrifices that they have made, and will 
continue to make on behalf of our Nation. Thanks to both of you 
for your careers of leadership and service.
    A number of critical issues confront the Air Force. 
Although not at the same operating tempo as the Army and the 
Marine Corps, the Air Force faces the difficult challenge in 
balancing its modernization needs against the costs of 
supporting ongoing operations in Iraq and Afghanistan. We 
understand that you, General Moseley, have said that you 
require something like an additional $20 billion per year, 
beyond the budget request, to maintain and modernize the Air 
Force. We also know that each of the other Services are facing 
their own modernization and readiness challenges. So, we'd like 
to hear from both of you this morning about the risks that 
will, in your opinion, face future Secretaries and Chiefs of 
Staff if additional resources are not provided, but also 
whether you requested additional funds from the administration 
when discussing your budget with them.
    We know that the Air Force is providing forces to the 
Central Command (CENTCOM) war efforts in a number of 
traditional roles, but it is also providing airmen in support 
of land-component tasks and the so-called in-lieu-of (ILO) 
missions. According to the witnesses' prepared statements, 
there are more than 6,200 airmen currently performing that 
mission in the theater now. I think we should hear from the 
witnesses about what systems are in place to cushion the impact 
of these ILOs being where they're at on the organizations who 
are giving up these airmen for those ILO deployments.
    On the acquisition front, one of the challenges facing the 
Air Force is in space systems. All of the Air Force space 
satellite systems are in the process of modernization and 
replacement, and all have seen substantial cost growth and 
schedule delays. In many instances the initial cost and 
schedule predictions were unrealistic, and in others the 
technical risk was greater than thought or not well understood, 
and others suffered from poor management or execution. Some of 
these programs are showing improvement, but most are not out of 
the woods yet. As a result, space program costs have increased 
substantially overall.
    Another challenge facing the Department is the potential 
closure of several production lines and what effects those 
closings might have on meeting warfighting requirements. The 
production program that has had the most prominent discussion 
of the past several years is that of the C-17. Two years ago, 
Congress added 10 C-17 aircraft to the fiscal year 2007 
supplemental request. Then, last year, the Air Force budget for 
fiscal year 2008 did not include any funding to keep the C-17 
production line open. Congress authorized procurement of eight 
additional C-17s in fiscal year 2008, but no funds have yet 
been appropriated for those aircraft.
    General Moseley has been quoted as saying that he would 
like to retire C-5A aircraft and buy more C-17 aircraft. In 
fact, you've requested 15 more C-17s on your unfunded priority 
list, at a cost of approximately $3.9 billion.
    At one point, the Air Force had been discussing a so-called 
30-30 option, wherein 30 C-5As would be replaced by 30 new C-
17s. The analysis supporting the Reliability Enhancement and 
Re-engining Program (RERP) certification of the Under Secretary 
of Defense reviewed that very option, but rejected it because 
it would not meet requirements.
    So we should hear from you this morning, General Moseley, 
about whether your unfunded priority list for buying more C-17s 
is part of a plan to retire C-5As or whether they would be 
added to the airlift force, and whether you made your case for 
the C-17s to the Department of Defense (DOD) for inclusion in 
the fiscal year 2009 budget request.
    On the C-5 modernization program, the Air Force's RERP has 
recently been granted a waiver under the Nunn-McCurdy process. 
It was invoked when that effort ran into cost problems. The 
program has now been scaled back to a total program of 
performing that re-engining on the 49 C-5Bs and 2 C-5C aircraft 
in the fleet, and dropping the C-5A aircraft from the program. 
Does dropping the C-5As from that program result in having 
insufficient strategic airlift capability?
    So, in summary, we need to hear about the Air Force's plans 
for airlift modernization and sustainment.
    Another program facing production shutdown is the F-22. The 
fiscal year 2009 budget for F-22 includes neither funds for 
advanced procurement of additional aircraft in 2010, nor money 
to pay for line shutdown charges. We think the Air Force's view 
is clear on this. General Moseley's unfunded priority list for 
fiscal year 2009 includes almost $500 million for advanced 
procurement for 24 aircraft that would be produced in a later 
fiscal year. However, others within the DOD hold the view that 
the currently approved program of 183 F-22 aircraft is enough 
to meet the needs of the warfighters. So, the committee needs 
to hear more about those differing views this morning.
    On the tanker issue, the Air Force has not provided, yet, 
any details describing the basis under which the winner of the 
competition was selected. We appreciate that the Air Force 
leadership took special measures to ensure transparency with 
Congress in the tanker acquisition process leading up to the 
selection of the winning contractor team. I believe that the 
Air Force is following appropriate procedures in waiting to 
provide details of the decision to Congress until the Air Force 
has briefed the participating contractors, and we would welcome 
any comments or clarification, as appropriate, this morning.
    Underlying all of these major acquisition concerns is an 
acquisition management issue. Secretary Wynne, when you came 
into this job, you recognized that you would have to take 
significant steps to build up the acquisition workforce and to 
restore confidence in the Air Force acquisition system after 
the abuses and poor decisions, that were previously documented, 
on the tanker lease program. We talked last year about that 
effort. But, again this year, we'd like to hear from you of any 
progress on that front.
    In the operational arena, the Air Force has been challenged 
to review the procedures under which it manages and protects 
access to nuclear weapons. We all know about the incident of 
the B-52 carrying nuclear weapons from Minot Air Force Base 
(AFB) to Barksdale AFB, when standard nuclear weapons handling 
procedures were violated. It would be useful to hear what the 
Air Force has done, both in making corrective actions and in 
holding accountable those responsible for the failures involved 
in that incident.
    So, we look forward to hearing your testimony this morning 
on these and other issues that face the Air Force. Again, we're 
grateful for your service and for your presence here this 
morning.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    Mr. Chairman, it's interesting, the Air Force celebrated 
its 60th birthday in September, and I judge that you and I have 
sat here for 30 years, half the life of the Air Force, working 
on these budgets. [Laughter.]
    Chairman Levin. Well, we don't look that old. The Air Force 
sure looks that old, but we don't look that old. [Laughter.]
    Senator Warner. This budget poses a challenge. The chairman 
pointed that out. But, I certainly want to recognize the 
tremendous contribution that the men and women in uniform, and 
your large civilian component, are performing on behalf of this 
Nation all over the world. You should take great pride in it.
    I checked, the other day. You've been in the CENTCOM area 
for 17 years taking an active role from the first Gulf war to 
enforcement of Iraq no-fly zones all during that interregnum 
period with the Navy, and now Operations Enduring Freedom and 
Iraqi Freedom. Those deployments, in addition to operations in 
Bosnia, Kosovo, and elsewhere throughout the world in support 
of humanitarian efforts, have made the maximum use of the Air 
Force air expeditionary concept. I don't think there's a 
Senator around this table that hasn't ridden in the aircraft 
operated by the Air Force, particularly the old C-130s, the Air 
Guard, a magnificent part of your organization. All of us 
remember the flights, every hour on the hour, into Bosnia and 
Sarajevo, back in that stressful period of time. In our visits 
to Iraq and Afghanistan, it's usually the old workhorse, the C-
130, that takes us around.
    It's interesting, this morning I was reading, with great 
interest, the acceleration of China's budget. I stopped to 
think; the role of the Air Force in balancing the interests of 
the United States in China and that region is really critical.
    You have a few problems in here, and the chairman touched 
on them, but I'd like to add a few of my own views.
    We're back again with the Joint Strike Fighter (JSF) 
Program, and we simply have the funding for the single engine. 
This committee has taken the lead, I think I have been in the 
forefront of that, to provide for the competition and the 
reliability, which history points out is essential to a program 
of this magnitude, and particularly where we have, now, a 
number of foreign partners in it, and that could even grow.
    Consequently, I think we have an obligation to this 
contract and the foreign participation to make sure we have 
that two-engine. I don't think there's any contract that I can 
think of in the history that I've been affiliated with the 
Pentagon, which is quite a few years, with that large a 
participation by other nations in buying in and sharing in that 
program.
    So, that's a challenge that the committee will have, and I 
feel pretty confident the committee can work that out, as it 
has in years past.
    Now, the chairman very carefully pointed out about the 
conflicting messages with your C-17s and the C-5s and he went 
all through the C-17 production line. I've been on this 
committee with all of us working it out. But, the plain fact of 
the matter is, the C-17 is one of the finest aircraft that 
we've ever produced, and we have to continue, somehow, to make 
this aircraft available.
    Similarly, with the F-22, this conflict between ``it's not 
in the budget, but there's no shutdown,'' leaves us up just to 
work with you to figure out how we're going to go through that.
    I'm going to read this carefully: ``Continuing on the theme 
of the budget being incomplete, the Air Force has submitted an 
unfunded priorities list of items that did not make it into the 
final budget request, that totals $18.7 million.'' Despite the 
fact the Air Force budget has grown by nearly 35 percent in 
constant dollars since 2001, the Air Force's unfunded list this 
year is 4 times the size of the Navy list, 5 times as large as 
the Army, and 10 times the Marine Corps.
    I guess if you don't ask, you don't get, but we're going to 
have to work our way through that in an equitable manner as it 
relates to the other components, that is, the Army, the Navy, 
and the Marine Corps.
    So, we will carefully follow your testimony today. The 
chairman mentioned our concern about the nuclear weapons 
handling incident.
    As we increase the end strength of the Army and the Marine 
Corps, how do you intend to adjust your end strength?
    The new cyber command is of great interest to me, and, I'm 
sure, others.
    The interesting thing that you told me, Mr. Secretary, is 
about the use of alternative fuels to help alleviate the energy 
crisis. I hope you have an opportunity to discuss that.
    So, we're looking at this budget like the old song, ``We're 
coming in on a wing and a prayer,'' and it's going to take a 
lot of praying to work these things out for your folks.
    I also want to add my thoughts about this tanker contract. 
If you'll recall, there's a reprogramming action that worked 
its way through Congress, and the two committees in the House 
approved it. The Appropriations Committee in the Senate 
approved it, and then myself and others, I was chairman at that 
time on this committee, we felt that that contract wasn't 
correct. The rest is history. We've lost a lot of time. I join 
the chairman in saying that we will work in reviewing with you 
how you performed the steps under the law to reach your 
conclusion, but I want you to know, I feel very strongly that 
Congress should not get into the business of trying to rewrite 
a contract, particularly one of this magnitude and complexity, 
as it might suit other members. So, I intend to support the 
contract; nevertheless, we'll look at it carefully. But, I'm 
confident, once we've finished that exam, we can go forward 
with this contract.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Warner.
    Secretary Wynne.

 STATEMENT OF HON. MICHAEL W. WYNNE, SECRETARY OF THE AIR FORCE

    Secretary Wynne. Thank you very much, Mr. Chairman and 
members of this committee. Thank you for the opportunity to 
testify on behalf of America's Air Force.
    Thank you, as well, for your support on our improved 
readiness, via retirement and recapitalization. We're working 
hard to see this through. Today, we urge you to quickly pass 
the pending supplemental, as it will help.
    Across the total force of Active, Guard, Reserve, and 
civilian, we are America's strategic shield in air, space, and 
cyberspace. We are contributing to today's fight with 
increasing ordnance drops, and we stand watch at the missile 
fields; we stand ready in the nuclear field; and we are an 
effective air superiority and strike force to both deter and 
dissuade any opponent who may consider our forces to be 
stretched in the global war on terror.
    We're gratified to hear that role reaffirmed by the 
Chairman of the Joint Chiefs of Staff in a deliberate message 
to those who might seek to dissuade or deter us from our own 
options in the future. This is why we seek to move forward, and 
not backward, into fifth-generation fighters, into new 
expeditionary tankers, and into new long-range strike assets. I 
can report to you that we did complete the award for the new 
KC-45 air refueling tanker. This tanker decision is a major 
step in the Air Force's critical recapitalization and 
modernization effort. It is why we seek to modernize space 
assets, as the executive agent for space, and not see further 
fragmentation of the management of this now vulnerable area. It 
is why we have established the cyberspace command and see this 
as a warfighting domain in which we need to dominate to remain 
a net-centric force for the future.
    Clearly, beyond the global war on terror, we must not lose 
America's asymmetric advantage in strategic forces. Your Air 
Force has been in the fight for 17 years, as you acknowledge, 
and yet has, over the same 17 years, seen underfunded 
modernization. We thank you for initiatives to restore fleet 
management to the United States Air Force, a responsibility we 
don't take lightly. When General Moseley and I came to our 
posts, we set about a strategy to restructure our Air Force, to 
truly develop a lean and efficient Air Force in order to 
husband the resources for investment. We worry about the 
industrial base and the need to look after any open line. I am 
pleased to report to you that the Department and the Air Force 
have indicated a desire to essentially not close the F-22 line, 
and to develop a long-range threat asset. It is to these that 
we would like to apply the saved resources over the near term 
while the F-35 proves itself through rigorous tests and is 
effectively capped on production. We ask that you agree with an 
approach for the F-22 aircraft, while we work to restore our 
readiness with younger aircraft.
    The F-35 and the F-22 are complementary. The F-22 is 
bigger, faster, planned to fly higher, and can carry more air-
to-air weapons internally. Also, with less than 20 penetrating 
bombers in our current fleet, it is time to develop an 
alternative, as well. We have talked about being underfunded, 
but, here, have worked to offer a balanced budget, prioritized 
to best defend America, and we will continue to do that over 
the Future Years Defense Program.
    The Air Force research laboratories are well engaged in 
technology development, expanding the opportunities for energy 
alternatives, while reducing our demand in our fleet and at our 
bases, also on unmanned flight, in propulsion, in material 
science, as well as in human effectiveness.
    As regards space, at Kirtland AFB, a branch of the Air 
Force research laboratory is creating inherently defensive 
space assets. In cyberspace, career development, including the 
Air Force Institute of Technology, and also warfighting schools 
are keys. Combat commanders and agencies partner with us in 
this increasingly contested domain.
    I have worked in space for almost two decades, and have 
worked in commercial and classified space as a supplier and a 
customer. We need consolidated leadership to maintain our 
current strategic advantage. Congress asked for a relook at 
responses to the Space Commission, and we should really 
consider what's in the report. The Air Force is undergoing 
back-to-basics, as well as back-to-blue, complementary efforts 
to restore a steady demand and a knowledge base to execute on 
that demand. I recommend we keep the executive agency exactly 
where it is, which is in the Air Force shop.
    I have engaged airmen in both theaters of operation, and 
they have asked about the continuation of our presence and the 
continuation of the ground-force tasking, referred to as ILO 
tasking. My answer is, they performed so well that our Army 
colleagues don't want to give them up. They do perform well, 
many winning Bronze and Silver Stars. Your Air Force is 
currently protecting the sovereignty of these fledgling 
nations, and, until their air forces can do that, I would not 
be surprised to see our Air Force requested to remain. This is 
why we are reexamining our force structure, though we have 
prioritized, right now, recapitalization in the President's 
budget.
    I again thank you for the privilege of leading the best Air 
Force in the world. Every day, our airmen earn the respect of 
our friends and enemies. We worry about their quality of life 
as we seek efficiencies and as we implement joint basing, but 
we never worry about the sense of mission they bring to the 
task.
    I will not have the privilege to represent them in this 
setting for the force posture again, and I hope I have 
reflected their pride in service, as I have felt, myself.
    I'm ready to take your questions.
    [The joint prepared statement of Secretary Wynne and 
General Moseley follows:]
 Joint Prepared Statement by Hon. Michael W. Wynne and Gen. T. Michael 
                             Moseley, USAF
                         1.0 executive summary
    The United States Air Force provides the Nation with a powerful 
deterrent force in times of peace, and it sets the conditions for joint 
and coalition victory in times of war. For over 17 years, since 
Operation Desert Shield, the United States Air Force has been engaged 
in continuous combat operations. Our airmen have maintained constant 
watch, deployed continuously, engaged America's adversaries directly, 
responded to human crises around the world, and provided the Global 
Vigilance, Global Reach, and Global Power to secure our Nation.
Global Vigilance
    The ability to gain and maintain awareness--to keep an unblinking 
eye on any entity--anywhere in the world; to provide warning and to 
determine intent, opportunity, capability, or vulnerability; then to 
fuse this information with data received from other Services or 
agencies and use and share relevant information with the Joint Force 
Commander.
Global Reach
    The ability to project military capability responsively--with 
unrivaled velocity and precision--to any point on or above the earth, 
and provide mobility to rapidly supply, position, or reposition Joint 
Forces.
Global Power
    The ability to hold at risk or strike any target anywhere in the 
world, assert national sovereignty, safeguard joint freedom of action, 
and achieve swift, decisive, precise effects.
    Global Vigilance, Global Reach, and Global Power constitute 
America's edge--America's asymmetric advantage that shapes the global 
security environment. Global Vigilance, Global Reach, and Global Power 
are vital to our National Security Strategy, as conveyed through the 
decision superiority they allow, the military options they provide, and 
the influence they command. However, in a world of increasing 
uncertainty, volatility, and accelerating technology, America's edge 
will become a fleeting advantage if we fail to maintain and hone it.
    The United States Air Force executes its missions globally. Its 
warfighting domains cover the entire planet, offering a unique 
perspective. Every day, America's airmen demonstrate a non-negotiable 
commitment to offer and deliver sovereign options for the United States 
in, through and from air, space, and cyberspace.
    Our Air Force strategic imperatives articulate why these sovereign 
options are necessary to maintain and strengthen our National security 
and global stability. The Air Force is redefining air, space, and cyber 
power through cross-domain dominance--our effort to integrate all of 
our capabilities to exploit the natural synergies across these 
warfighting domains.
    This statement articulates the major elements of our Air Force 
Posture--our strategy for fulfilling our role in defending the Nation 
and its interests; our contributions to winning the global war on 
terrorism; our most critical efforts and concerns; and our top priority 
programs. We will continue to pursue specific programs and initiatives 
to safeguard and strengthen America's military advantages and to 
address major concerns and risks.
    Three overarching Service priorities serve as the organizing 
principles for all of our efforts: Winning Today's Fight; Taking Care 
of Our People; and Preparing for Tomorrow's Challenges. The Air Force's 
top acquisition priorities specifically begin to address our critical 
recapitalization and modernization needs--the new Tanker (KC-X); the 
new Combat Search and Rescue Helicopter (CSAR-X); modern space systems 
to provide capabilities vital to our joint warfighters; the F-35A 
Lightning II; and a new Bomber we intend to field by 2018.
    We will continue our efforts to modernize and protect America's 
vital air, space, and cyberspace capabilities. We strongly recommend 
extending the existing C-130J production line. We are also concerned 
with preserving America's aerospace industrial base. Additionally, we 
seek relief from restrictions on the retirement of aging, worn-out 
aircraft which are increasingly unsafe, unreliable, and obsolete. The 
Air Force is highly engaged in national efforts to assure sustainable 
energy, and we will continue to push the performance envelope on fuel 
efficiency and renewable energy technologies. We are committed to the 
Joint Basing initiative and want to work through the transfer of total 
obligation authority and real property control without impacting 
command authorities, reducing installation service support, or 
negatively affecting quality of life. Finally, we will continue our 
practice of recruiting and retaining the world's highest quality 
airmen. We will build upon our successes in achieving Total Force 
Integration (TFI) of our regular, Guard, Reserve, and civilian airmen.
    America looks to its airmen to provide dominance that spans the 
air, space, and cyberspace warfighting domains. They need your support 
today to defend the Homeland and to prepare for tomorrow's threats and 
challenges. Full funding and support for America's airmen will ensure 
America's continued freedom of action; reassure our allies; strengthen 
our partnerships; reinforce our sovereign Homeland defenses; dissuade 
and deter adversaries; and set conditions for joint and coalition 
success across the entire spectrum of conflict and crisis.

          We guard the Nation--providing the Global Vigilance, Global 
        Reach, and Global Power that underwrite the security and 
        sovereignty of our Nation.
                        2.0 strategic imperative
          The mission of the United States Air Force is to deliver 
        sovereign options for the defense of the United States of 
        America and its global interests--to fly and fight in air, 
        space, and cyberspace.

    Today the United States stands at a strategic crossroads. This 
junction is characterized by a global economy accompanied by a 
diffusion of technology, new and increasingly complex economic and 
international relationships, competition for resources and influence, 
and the changing conduct of warfare. From the early days of the 20th 
century, the United States has played a leading role in preserving and 
protecting international stability, particularly as the number of 
democratic nations grew. This leadership led in large part to the 
current world order and provided the backdrop against which countries 
like Japan, India, and China initiated their unprecedented economic 
growth. We cannot abdicate our position of political and military 
leadership without grave consequences.
2.1 Challenges
    Today's confluence of global trends already foreshadows significant 
challenges to our organization, systems, concepts, and doctrine. We are 
at an historic turning point demanding an equally comprehensive 
redefinition of American air power. The future strategic environment 
will be shaped by the interaction of globalization, economic 
disparities, and competition for resources; diffusion of technology and 
information networks whose very nature allows unprecedented ability to 
harm and, potentially, paralyze advanced nations; and systemic 
upheavals impacting state and non-state actors and, thereby, 
international institutions and the world order. The following are 
salient features of this increasingly complex, dynamic, lethal, and 
uncertain environment:

        <bullet> Violent extremism and ethnic strife--a global, 
        generational, ideological struggle
        <bullet> Proliferation of weapons of mass destruction and 
        empowering technologies
        <bullet> Predatory and unpredictable regional actors
        <bullet> Increasing lethality and risk of intrusion by 
        terrorist and criminal organizations
        <bullet> Systemic instability in key regions (political, 
        economic, social, ideological)
        <bullet> Unprecedented velocity of technological change and 
        military adaptation
        <bullet> Availability of advanced weapons in a burgeoning 
        global marketplace
        <bullet> Exponential growth in volume, exchange, and access to 
        information
        <bullet> Surging globalization, interconnectivity, and 
        competition for scarce resources
        <bullet> Dislocating climate, environmental, and demographic 
        trends

    The consequences of not being adequately prepared for a conflict 
should a military peer arise would be severe and potentially 
catastrophic. We must maintain our focus on deterring potential peer 
adversaries from using military threats to narrow our diplomatic 
options, or from embarking on militarily risky courses of action. The 
rapid development and proliferation of high-technology weapons, 
combined with innovative operational concepts, is likely to make these 
global and regional engagements particularly challenging, since power 
balances will be dynamic and the risks of miscalculation and 
misperception high. Therefore, maintaining deterrence will require a 
sophisticated, competitive strategy that assures we maintain required 
military capabilities for today and make sustainable, affordable 
investments for tomorrow.
    Even if we continue to successfully dissuade and deter major 
competitors, their advanced equipment is proliferating worldwide. We 
are bound to confront these weapons systems wherever America engages to 
promote and defend its interests. We must also vigilantly monitor 
adversary breakthroughs and maintain leading edge research and 
capabilities in fields such as cybernetics, nanotechnology, 
biotechnology, electromagnetism, robotics, energy conversion 
technology, and advanced propulsion. We cannot assume the next military 
revolution will originate in the West. Indeed, the hub of innovation in 
science and engineering education has shifted eastward. Therefore, we 
must anticipate innovative combinations of traditional and new 
concepts, doctrines, weapons systems, and disruptive technologies.

          Given this spectrum of threats, the United States must field 
        an Air Force capable of assuring our allies, dissuading and 
        deterring potential adversaries, and, if necessary, defeating 
        those who choose to become our enemies.
2.2 The Role of the U.S. Military
    It is always better to deter hostile intent or win without having 
to fight. Today, the U.S. military does this by shaping the 
international environment with the potent tools of assurance, 
dissuasion, and deterrence. The principal role of the U.S. military is 
to defend our Nation and our National interests. Rooted in overwhelming 
capabilities and plainly linked to the National will, two powerful 
tools we exercise in this role are our assurance to allies that they 
need not bow to violent threats and our deterrence of potential 
adversaries. Our armed services accomplish this role by providing a 
solid foundation of military strength to complement the tools of 
peaceful diplomacy. None of these tools alone can sustain our position 
of international political and economic influence. However, we must be 
prepared to provide our leaders with critical elements of U.S. military 
power to use in proper combination and in an integrated manner to 
address potential threats to our Nation and our interests.
2.3 Sovereign Options
    In response to current and emerging threats, the Air Force has 
implemented a strategy based on providing policy makers with sovereign 
options for our defense, covering the spectrum of choices that air, 
space, and cyberspace capabilities offer for solving problems. We use 
this strategy for sovereign options to guide how we organize, train, 
and equip our forces. In peacetime, these options include such 
expedients as: supporting the containment of aggressive states or 
usurping elements of their sovereignty as a means short of war to 
compel positive behavior; signaling opponents of our commitment by 
moving forces into contested regions; and providing humanitarian aid--
to both our allies and potentially hostile populations--to assure them 
of friendly U.S. intentions. In war, Air Force capabilities provide 
decisionmakers with a range of options, from supporting Joint and 
Coalition actions in conjunction with allied land and sea forces to 
direct strikes against enemy centers of gravity to accomplish strategic 
and tactical objectives. These options provide the country with 
credible and scalable counters to the full range of potential enemy 
actions and support our goals of assurance, dissuasion, and deterrence. 
These sovereign options are enabled by the asymmetric advantage the 
U.S. possesses in air and space technology and the way our preeminence 
in air, space, and cyberspace increases the power of all U.S. and 
coalition forces.
    Through aggressive development of technology and operational 
concepts, the U.S. enjoys leadership in space, and in recent decades 
has achieved the ability to gain air supremacy against enemy air forces 
and air defense systems. The history of warfare, however, shows such 
advantages to be fleeting and fragile. Air and space preeminence is the 
key to the ability to accurately strike targets within enemy states or 
enable friendly ground or maritime forces to rapidly dominate their 
respective domains. While U.S. air and space preeminence has 
transformed the way the U.S. fights, allowing joint and coalition 
forces unprecedented freedom of action in all domains, the Nation 
cannot rest on its laurels. Future preeminence is not guaranteed; 
instead, it must be planned, paid for, developed, and fielded.
    More than the ability to win wars, sovereign options increase the 
Nation's strategic flexibility in determining when, how, and where to 
engage an enemy. War is not a matter of convenience. When war is thrust 
upon us, we must have the strategic depth to shape the conditions of 
conflict. From 1991 to 2003, the use of no-fly zones allowed the U.S. 
to contain the aggressive actions of Saddam Hussein. When his 
aggressive acts drew us into open conflict, the determined use of air 
power as part of a joint force crushed Iraq's conventional armies. A 
similar fate met the forces of al Qaeda in Afghanistan. When the 
Taliban were removed from power in 2001 by a combination of air power 
working with Special Forces and indigenous Northern Alliance troops, we 
disrupted Osama bin Laden's plan to operate his global terrorist 
network from the relative sanctuary of the Afghan frontier. In the 
insurgencies that followed these operations, air, space, and cyberspace 
power continued to prevent insurgents from massing into guerrilla 
armies, thus diminishing their power and providing friendly forces time 
and territory to establish stability.
    The Air Force's ability to be simultaneously dominant in air, 
space, and cyberspace, has formed the foundation from which we provide 
sovereign options to policy makers. Our ability to operate across these 
domains and defeat our adversaries in each allows the Air Force the 
ability to multiply the power of Joint and Coalition forces or to act 
alone to achieve national objectives. Our Air Force combines 
capabilities in the domains of air, space, and cyberspace to deliver 
Global Vigilance, Global Reach, and Global Power to the Joint force.
2.4 Cross-Domain Dominance
    No future war will be won without air, space, and cyberspace 
superiority. Accordingly, the Air Force must be better postured to 
contend with both today's and tomorrow's challenges. To promote and 
defend America's interests through Global Vigilance, Global Reach, and 
Global Power, the Air Force must attain cross-domain dominance.
    Airmen appreciate the interdependence of the air, space, and 
cyberspace domains--actions in one domain can lead to decisive effects 
in any and all domains. Cross-domain dominance is the ability to 
maintain freedom of action in and through the air, space, and 
cyberspace despite adversary actions. It permits rapid and simultaneous 
application of lethal and non-lethal capabilities in these three 
domains to attain strategic, operational, and tactical objectives in 
all warfighting domains: land, sea, air, space, and cyberspace.
    Through cross-domain dominance, the Air Force contributes to joint 
freedom of maneuver in all warfighting domains. This, in turn, allows 
the Joint Force Commander to achieve desired outcomes across the full 
range of military operations, from humanitarian relief to preventing 
war via dissuasion and deterrence to inflicting strategic paralysis on 
implacable opponents. Without the Air Force's ability to present this 
spectrum of capabilities to the Joint Team in peace, crisis, and war, 
U.S. national security would be at risk.
2.5 Implementing the Strategy
    The Air Force currently provides joint and coalition forces with an 
air bridge to the rest of the world and dominance on the battlefield. 
This hard-won capability to dominate air and space will only persist in 
coming decades if carefully nurtured.
    The technology race continues. Today, opponents are studying our 
operations in Iraq and Afghanistan and are rapidly developing counters 
to aging U.S. air and space superiority technology. These adaptive 
competitors are translating lessons from recent conflicts into new 
warfighting concepts, capabilities, and doctrines specifically designed 
to counter U.S. strengths and exploit vulnerabilities. They are 
advancing in all domains. For example:

        <bullet> ``Generation 4-plus'' fighter aircraft that challenge 
        America's existing ``4th Generation'' inventory--and, thus, air 
        superiority--with overwhelming numbers and advanced weaponry; 
        sophisticated integration of electronic attack and advanced 
        avionics; emerging low-observable technologies; and 
        progressive, realistic, networked training.
        <bullet> Increasingly lethal integrated air defense systems 
        that threaten both our airmen and aircraft, and could negate 
        weapons used to suppress or destroy these systems.
        <bullet> Proliferation of surface-to-surface missiles with 
        growing range, precision, mobility, and maneuverability that 
        are capable of delivering both conventional and non-
        conventional warheads.
        <bullet> Proliferation of unmanned aerial systems (UAS) capable 
        of conducting low observable, persistent, intrusive missions in 
        both lethal and non-lethal modes.
        <bullet> Resurgence of offensive counterspace capabilities, 
        including anti-satellite weapons, jamming, and blinding.
        <bullet> Increasing ability of even marginal actors to surveil 
        the disposition of U.S. and allied assets through widely-
        accessible, commercially-available means.

    In the coming years our advantage will significantly diminish if we 
do not keep pace by fielding new 5th Generation fighters, modern 
bombers, and modern satellites in sufficient numbers to counter the 
development of advanced anti-air and anti-space technologies and the 
inevitable export of those capabilities to potentially hostile states 
and non-state actors. We must provide our airmen with the most 
exceptional tools for battle in order to sustain a durable and credible 
deterrent against our adversaries.
    Equally worrisome is the rapidly shrinking aerospace industrial 
base. Historically, America's strength and ability to capitalize on 
advances in air and space technologies hinged largely on its vibrant 
and diverse aerospace industry. This advantage has deteriorated over 
the last decade.
    Beyond advantages in technology and operational concepts, America's 
commitments abroad require an expeditionary Air Force that can engage 
forward in peacetime and fight forward in wartime. While long-range 
bombers and missiles are the ultimate guarantor of U.S. security and 
power, expeditionary presence reflects U.S. power and is the 
indispensable source of local and regional assurance, dissuasion, 
deterrence, and, ultimately, sovereign options. Engaging forward in 
times of peace and fighting forward in times of war are hallmarks of 
U.S. national security strategy. Therefore, the Air Force must have 
sufficient resources and capability to continue to maintain a 
sustainable, rotational base. We must retain sufficient manpower and 
force structure to project influence.
    The mechanism to accomplish this is the Air and Space Expeditionary 
Force (AEF) that provides Joint Force Commanders with a trained and 
ready air, space, and cyberspace force to execute their plans. U.S. 
influence flows from permanent and expeditionary basing and serves to 
assure allies of U.S. commitment while deterring our adversaries from 
threatening U.S. national interests. The Air Force works with combatant 
commanders and partner air forces to secure basing and counter 
potential anti-access strategies. We continue to develop new ways of 
projecting power without exposing vulnerabilities, and we design 
systems that facilitate reach-back, thus maximizing forward capability 
while minimizing forward footprint.
    The Air Force can provide Global Vigilance, Global Reach, and 
Global Power only so long as it possesses robust capabilities in such 
areas as air dominance; global strike; space superiority; intelligence, 
surveillance, and reconnaissance (ISR); missile defense; special 
operations; air mobility, and cyberspace superiority. Today, electronic 
communications constitute and connect all joint and coalition 
capabilities. In an information age, this network allows us to find our 
opponents, process the information, route it to where it is needed, and 
guide our munitions to their targets. Cyberspace vastly increases our 
capabilities but also presents a potential vulnerability our 
adversaries could exploit. Our enemies also increasingly use and depend 
on cyberspace systems. Safeguarding our own capabilities while engaging 
and disrupting the use and purpose of our opponents' capabilities is 
thus increasingly critical to modern warfare.
    If the Air Force is to fulfill its crucial role, we must develop 
and maintain technological leads in the areas of air-superiority, anti-
access penetration, and long-range reconnaissance and strike 
capabilities to hold at risk targets around the world. We must also 
field sufficient strike and full-spectrum mobility assets to assure 
dominance for the Joint Team. We must continue treating space as an 
operational domain by creating architectures and systems that allow us 
to provide the appropriate situational awareness and communications 
capability, giving strategic and tactical advantage to leadership at 
all levels. We must design and develop a force structure to operate in 
cyberspace to our benefit while holding adversaries at risk. While 
doing so, we will continue our series of cross-Service initiatives to 
enhance interoperability and avoid unnecessary duplication of 
acquisition, manning, and operations.
                         3.0 win today's fight
    We remain committed, first and foremost, to fighting and winning 
the long global war on terror, sustaining our current operations, and 
providing strategic defense of our Nation. We also continue to adapt 
our ability to deter adversary activities, detect enemy locations, and 
defeat them through direct or indirect actions when required--anywhere 
and at any time.
    America's airmen are key to joint success and have proven their 
capabilities applicable and adaptable across the entire spectrum of 
conflict. They are the most battle-tested force in our history. Today's 
global war on terror missions are only the latest in a succession of 
over 17 years of continuous combat and expeditionary operations, 
beginning with our initial Operation Desert Shield deployments in 
August 1990; continuing with years of persistent conflict in Southwest 
Asia, Somalia, the Balkans, and Haiti; and through ongoing operations 
in Iraq, Afghanistan, and around the world. The past 17 years have 
clearly demonstrated success at any point along the spectrum of 
conflict requires air, space, and cyberspace superiority.
3.1 Maintain Global Vigilance, Global Reach, and Global Power for 
        America
    We are the Nation's premier multi-dimensional maneuver force, with 
the agility, reach, speed, stealth, payload, firepower, precision, and 
persistence to achieve global effects. Dominance of air, space, and 
cyberspace provides the essential bedrock for effective Joint 
operations.
    Today's Air Force provides the Joint Force Commander a range of 
capabilities that set conditions for success. Our airmen currently fly 
an average of over 300 sorties daily as part of Operations Iraqi 
Freedom and Enduring Freedom (OIF/OEF). These sorties include 
Intertheater and Intratheater Airlift; Aeromedical Evacuation (AE); 
Aerial Refueling; Command and Control (C2); ISR; Close Air Support; and 
pre-planned strike.
    Our airmen operate on a global scale every day; Air Force 
engagement in the Central Command (CENTCOM) area of responsibility 
(AOR) is only the ``tip of the iceberg.'' The complete picture of Air 
Force engagement includes airmen deployed to contingencies outside of 
the Continental United States (OCONUS), forward deployed in Europe and 
the Pacific, and employed from their home stations as they execute 
global missions.
    Furthermore, the Air Force is the only Service flying Operation 
Noble Eagle (ONE) missions, which have been continuous since September 
2001. America's airmen fly fighters, tankers, and Airborne Warning and 
Control aircraft during daily Air Sovereignty Alert operations. 
America's airmen also command and control these aircraft, maintaining 
vigilance and protection of America's air corridors and maritime 
approaches in defense of our Homeland.
    Since 2001, the Active Duty Air Force has reduced its end strength 
by almost 6 percent, but our deployments have increased over 30 
percent--primarily in support of global war on terror. Approximately 
26,000 airmen are deployed to over 100 locations around the world to 
fight in the global war on terror at any given moment--fighting our 
enemies in their own backyard so they cannot come to ours. In addition, 
approximately 208,000 airmen--178,000 regular Air Force airmen plus 
30,000 Guard and Reserve airmen--fulfill additional combatant commander 
(CCDR) requirements, missions, and tasks 24 hours a day, 7 days a week. 
In other words, approximately 41 percent of our Total Force airmen--
including 54 percent of the regular force--are globally contributing to 
winning today's fight and are directly fulfilling CCDR requirements 
everyday.
    Whether controlling satellites, flying unmanned aerial vehicles 
(UAVs), standing strategic missile alert, or analyzing intelligence 
information, airmen directly engage America's adversaries and affect 
events worldwide every day.
    3.1.1 Intelligence, Surveillance, and Reconnaissance
    ISR is the foundation of Global Vigilance, Global Reach, and Global 
Power. It cuts across all domains and affects almost every mission 
area. Today, ISR efforts make up the majority of the operations 
required to achieve our security objectives. These operations range 
from finding the enemy, to deconstructing its network and intentions, 
to making it possible to deliver weapons or other effects on target, to 
subsequently assessing the results of those efforts.
    ISR is the linchpin of our Effects-Based Approach to Operations 
(EBAO). It is impossible to accurately predict the effect of operations 
on an enemy system without good intelligence; nor can one assess the 
outcome of delivered effects without detailed surveillance and 
reconnaissance. Intelligence requirements for an EBAO and effects-based 
assessment (EBA) are much more demanding than the old attrition-based 
model. The increased intelligence detail necessary for EBAO/EBA makes 
focused reconnaissance and persistent surveillance operations ever-more 
crucial.
    The Air Force has demonstrated its commitment to the importance of 
ISR by establishing a 3-star Deputy Chief of Staff for ISR, the Air 
Force ISR Agency, and formed a global organization for the processing 
of ISR data from a variety of sources. These initiatives demonstrate 
the Air Force has shifted the way it manages ISR capabilities from a 
Cold-War platform perspective to a 21st century holistic capability-
based approach.
    3.1.2 Strike
    In addition to our ONE missions over the Homeland, America's airmen 
fly daily OIF and OEF missions, keeping a watchful eye on America's 
adversaries and providing lethal combat capabilities that take the 
fight to our enemies. In 2007, America's airmen conducted nearly 1,600 
strikes in Iraq and Afghanistan. In Iraq alone, Air Force strikes 
increased by 171 percent over the previous year, while in Afghanistan 
strikes increased by 22 percent. These increases clearly demonstrate 
the applicability, flexibility, and prevalence of Air Force combat 
options in ongoing OIF and OEF counterinsurgency operations.
    Engaging directly is only a small portion of what the Air Force 
provides. To meet current and future challenges, we must maintain a 
credible deterrent that convinces potential adversaries of our 
unwavering commitment to defend our Nation, its allies and friends. One 
prominent example is our ICBM force--the U.S. nuclear arsenal continues 
to serve as the ultimate backstop of our security, dissuading opponents 
and reassuring allies through extended deterrence. Besides continuing 
the recapitalization of our fighter force, we must also modernize our 
bomber and ICBM forces.
    3.1.3 Space
    Space superiority, like air superiority, has become a fundamental 
predicate to joint warfighting. Indeed, America's space superiority has 
completely transformed the way America fights. America's airmen 
currently operate 67 satellites and provide command and control 
infrastructure for over 140 satellites in total, providing the Nation 
persistent global communications; weather coverage; strategic early 
warning; global Positioning, Navigation, and Timing (PNT); signals and 
ISR capabilities--all vital to joint success.
    Space superiority relies on assured access to space, and Air Force 
launch programs continue to provide this capability. In 2007, we 
extended our record to 56 straight launch successes, including 
deployment of two new Global Positioning System (GPS) satellites. Also 
in 2007, we successfully launched the first operational Evolved 
Expendable Launch Vehicle heavy lift rocket. This rocket deployed the 
final satellite in the Defense Support Program constellation of 
ballistic missile warning satellites.
    3.1.4 Airlift
    Airlift is an Air Force core competency, and our airmen prove it 
everyday. Air Force airlifters--both Intertheater and Intratheater--
have become absolutely indispensable to Joint Forces in Iraq and 
Afghanistan as well as to crisis response planners and responders in 
the wake of natural disasters both at home and abroad. The Air Force 
gives America an air bridge--a strategic asset providing operational 
reach--making possible the deployment and employment of joint combat 
power and humanitarian relief.
    Airmen provide the Nation's ground forces with the tactical, 
operational, strategic, and logistical reach to rapidly deploy, 
deliver, supply, resupply, egress, and evacuate via air anywhere in the 
world. In Iraq, Air Force airlift delivers approximately 3,500 
equivalent truckloads of cargo in an average month, taking more than 
8,600 people off dangerous roads and providing the Army and Marine 
Corps the flexibility to reassign those vehicles and associated support 
troops to alternate missions and safer routes.
    3.1.5 Aeromedical Evacuation
    Air Force Aeromedical Evacuation (AE) is a Total Force, combat-
proven system contributing a unique, vital capability to the joint 
fight. AE and enroute care are built on teamwork, synergy, and Joint 
execution, providing soldiers, sailors, marines, coast guardsmen, and 
airmen the highest casualty survival rates in the history of warfare. 
Casualties treated in our deployed and joint theater hospitals have an 
incredible 97 percent survival rate.
    Since late 2001, we have transported more than 48,500 patients from 
the CENTCOM AOR to higher levels of care. We continue to refine this 
remarkable capability and the enroute care system built upon our 
expeditionary medical system.
    3.1.6 Joint Force Land Component Tasks
    Of the approximately 26,000 airmen currently deployed in the 
CENTCOM AOR, over 6,200 are performing tasks and missions normally 
assigned to the land component--also known as ``In Lieu Of'' (ILO) 
tasks. Airmen currently fill other Services' billets in some of their 
stressed skill areas and are taking on tasks outside Air Force core 
competencies. Since 2004 we have deployed approximately 24,000 airmen 
in support of such ILO tasks, and we expect a steady increase in that 
total.
    In addition to the 6,200 airmen currently deployed supporting ILO 
taskings, over 1,000 airmen are ``in the pipeline'' for ILO Task 
training at any given time. Within the Joint Team, airmen provide the 
Joint Force Commander distinctive skills. While complementary, these 
skills are not interchangeable amongst the team, thus airmen require 
ground-centric combat training to accomplish ILO taskings. This 
training increases personnel tempo for our airmen, but, more 
importantly, ILO tasks and training consumes critical training time, 
resources, manpower, and in some cases reduces overall proficiency in 
Air Force core mission areas. In many cases, Air Force career fields 
already at critical manning levels are further affected by unit 
deployment rates of as high as 40 percent, primarily filling ILO 
taskings. Such high deployment rates from units cannot be absorbed 
without putting at risk the critical missions and capabilities the Air 
Force provides our Nation. This situation creates additional risk to 
the critical missions the Air Force performs and capabilities the Air 
Force provides our Nation.
3.2 Strengthen Global Partnerships
    Fighting and winning the global war on terror requires commitment, 
capability, and cooperation from our allies and partners around the 
world. We depend on them to secure their territory, support regional 
stability, provide base access and overflight rights, and contribute a 
host of air, space, and cyber power capabilities as interoperable 
coalition partners.
    So America's strategic partnerships are more important than ever. 
Our Air Force will strengthen and broaden international relationships, 
capitalizing on the global community of like-minded airmen while 
attending to interoperability between allies and partners. Building 
these relationships not only expands, extends, and strengthens Global 
Vigilance, Global Reach, and Global Power, but also leverages the Air 
Force's value as an engine of progress and, thus, as a potent 
instrument of America's diplomacy in an increasingly interconnected 
world.
    The Air Force strives to develop synergistic, interoperable air 
forces utilizing a capabilities-based approach. Foreign Military Sales 
and Direct Commercial Sales allow our partners to operate common 
systems with the Air Force while providing a vehicle to expand 
relationships with our international partners. Some recent examples of 
mutually beneficial agreements include Australian, Canadian, and 
British selection of C-17 Globemaster III airlifters; international 
participation in the F-35A Lightning II Joint Strike Fighter (JSF) 
program and the Advanced Extremely High Frequency (AEHF) satellite 
communications program; British Royal Air Force procurement of MQ-9 
Reaper UAVs; and Australian participation in the Wideband Global SATCOM 
(WGS) system. Future opportunities for partnerships--with platforms 
such as UAVs, C-17s, C-130Js, and the new C-27--can open doors for 
greater interoperability, personnel exchanges, common doctrine, and 
training.
    In addition to integrating international partners into the most 
robust combat training scenarios, we maintain our commitment to the 
pursuit of partnerships for greater global cooperation, security, and 
stability. We recently held the 3rd Global Air Chiefs Conference in 
Washington, DC, which gave over 90 international air chiefs the 
opportunity to learn, understand, and share concerns and issues with 
fellow airmen from around the world. We are also making strides to 
improve language expertise and cultural understanding through 
deliberate development of airmen in the International Affairs 
Specialist program, expanding Military Personnel Exchange Program, and 
cultivating skilled and knowledgeable attaches.
    The Air Force's approach to operations, interoperability, and 
training exemplify our global, international, and expeditionary 
perspective--built on the shared traditions of airmanship that 
transcend geographic boundaries.
                      4.0 take care of our people
    Any organizational renaissance begins with people. We must prepare 
our airmen for a future fraught with challenges, fostering their 
intellectual curiosity and ability to learn, anticipate, and adapt. 
Because our expeditionary airmen must be prepared to deploy and ready 
to fight, we are revitalizing the world's most advanced training system 
and expanding their educational opportunities. While we enrich our 
airmen's culture, leadership, training, education, and heritage, we 
will also continue to care for their families and provide for their 
future.
    Our airmen are our most precious resource. They must be well-
trained and ready for expeditionary warfighting responsibilities. 
Fiscal constraints dictate that we continue to carefully shape the 
force. Additionally, within the context of rising costs, we remain 
committed to providing the highest possible quality of life standards 
and charting out a career full of education and training for each 
airman. We will continue our emphasis on recruiting and retaining the 
world's highest quality airmen. Additional Air Force high priority 
efforts serve to reinforce a warrior ethos throughout our Service, 
provide proactive force health protection, and encourage Air Reserve 
Component (ARC) volunteerism.
    Spanning six decades of Air Force history, particularly over the 
past 17 years, our airmen have proven themselves as the global first 
responders in times of crisis--taking action anytime, anywhere. The 
foundations for this well-deserved reputation are the quality and 
frequency of the training and education we provide and our commitment 
to the highest possible safety and quality of life standards.
4.1 Shape the Force
    Ultimately, we must produce a Total Force that is sized and shaped 
to consistently meet current and future requirements--balanced against 
the compelling need to maintain high quality of life standards--to meet 
the global challenges of today and tomorrow.
    During the 1990s, while engaged in continuous combat, the Air Force 
suffered a 7 year ``procurement holiday.'' Today, fiscal constraints 
have tightened as energy and health care costs have continued to 
increase dramatically.
    In late 2005, the Air Force reduced its end strength by 40,000 
Active Duty, Guard, Reserve, and civilian Full-time Equivalents (FTEs) 
in order to self-finance the vital re-capitalization and modernization 
of our aircraft, space, and missile inventories. End strength reduction 
by 40,000 FTEs over a 3-year period was our only viable alternative to 
preserve the required investment capital.
    Our Force Shaping efforts have placed us on a path to meet our end 
strength targets. However, personnel changes of this magnitude come 
with a degree of uncertainty and difficulty for our airmen and their 
families. We are making every effort to use voluntary measures to shape 
the force with the right skills mix, increase manning in stressed 
career fields, leverage new technologies, and refine our internal 
processes to reduce workload and reduce or eliminate unnecessary work 
through Air Force Smart Operations 21.
    We have reduced our Air Force end strength using a methodology that 
has preserved a strong expeditionary capability. Our AEF construct 
provides an enterprise view of Service risk that synchronizes our 
resources and assets to support our global requirements. However, 
reducing Air Force end strength further, coupled with ILO taskings for 
the foreseeable future, carries considerable risks of ``burning out'' 
our airmen in several critical expeditionary career fields as well as 
limiting our future national options to meet global mission 
requirements in an increasingly volatile world.
4.2 Ensure Highest Quality of Life Standards
    Our ``People'' priority demands we ensure the quality of life we 
offer our airmen meets the highest possible standards. Because the 
nature of our Air Force mission demands a highly educated, trained, and 
experienced force, we recognize the direct linkages between quality of 
life issues and their impact on our recruiting, retention, and, 
ultimately, our mission capability.
    4.2.1 Housing and Military Construction
    Air Force investments in housing underscore our emphasis on 
developing and caring for airmen. Through Military Construction 
(MILCON) and housing privatization, we are providing higher quality 
homes faster than ever. With the fiscal year 2009 funding, we will 
revitalize more than 2,100 homes through improvement or replacement. We 
are on track to meet our fiscal year 2009 goal of eliminating 
inadequate housing at overseas locations.
    MILCON is an essential enabler of Air Force missions; however, due 
to fiscal constraints, we must reduce funding and accept greater risk 
in facilities and infrastructure in order to continue our efforts to 
recapitalize and modernize our aging aircraft and equipment. However, 
our new construction projects are state-of-the-art, incorporating 
energy efficient features and sustainable designs. We have prioritized 
the most critical requirements to support the Air Force and the 
Department of Defense (DOD) requirements. Our MILCON plan supports 
these priorities by focusing on new mission beddowns, training, and 
depot transformation, as well as dormitory and child care center 
upgrades.
    4.2.2 Joint Basing
    The Air Force has a long and successful history of working toward 
common goals in a Joint environment without compromising Air Force 
principles and the well-being of our people. Joint Basing initiatives 
are no exception. To guarantee success, each Joint Base should be 
required to provide a suitable setting to all of its assigned 
personnel, their families, and other customers within the local 
communities our bases support.
    To accomplish this, we advocate establishment of a common Joint 
Base quality of life standard. Our airmen, soldiers, sailors, marines, 
DOD civilians, and their families will benefit from efficient, 
consistent installation support services. Such standards will ensure 
the Air Force and our sister Services continue to provide all personnel 
with the level of installation support services they deserve. As we 
work with the Office of the Secretary of Defense and our sister 
Services, we will ensure all Joint Basing initiatives contribute to the 
DOD's ability to perform its mission. We will also safeguard against 
potential negative impacts to the Joint and Air Force approach to 
mission performance.
    To do this, we will have to work through the transfer of TOA and 
real property without eroding the local installation commander's 
prerogatives relative to satisfying mission and training requirements, 
optimizing installation resources, tailoring installation services to 
local needs, and prioritizing MILCON funding. We will also have to work 
through the transfer without reducing the combat capability our bases 
generate, installation service support standards, or the quality of 
life for servicemembers, their families, and other customers of these 
Services.
    We look forward to establishing a base realignment and closure-
envisioned executive agency agreement involving local leaders and the 
local unit commander. Such an agency, combined with elimination of 
duplicate offices and administration of centrally agreed standards, 
would improve efficiency while safeguarding mission requirements and 
quality of life for families and servicemembers. We believe the 
natural, direct feedback and tension between a service provider and a 
paying customer is the best model to drive efficiency and cost savings.
    The Air Force remains committed to ensuring that all bases, joint 
or otherwise, maintain their capability to perform their missions and 
meet our quality-of-life standards. We want joint bases to be so 
efficient and effective that an assignment to a joint base would be a 
highlight for every servicemember.
4.3 Recruit, Train, and Retain Highest Quality Airmen
    The Air Force is the ``Retention Service''--we recruit, train, 
develop, and retain the best America has to offer. Our emphasis on 
retention stems from the high technical and operational expertise 
required of our personnel. The high morale, cohesiveness, and 
capability of the Air Force are due to our efforts to retain a highly 
experienced, educated, and skilled force.
    The Air Force has never lowered its recruiting standards. We 
continue to recruit and choose the best America has to offer from our 
diverse population. Our recruiting and retention figures remain 
impressive, clearly indicating our success to date and the 
effectiveness of the Air Force's holistic approach to quality of life, 
recruiting, and retention. This success reaffirms our commitment to 
long-term family support efforts, education, and training.
    While we recruit airmen, we retain families. We believe our airmen 
should never have to choose between serving their country and providing 
for their families. Quality of life and family support are critical 
elements of our overall effort to retain high quality airmen. As part 
of our efforts to maintain high quality of life standards, we are 
concerned with the hardships facing our Air Force families resulting 
from the frequent moves our airmen and other servicemembers make 
throughout their careers. We applaud ongoing congressional and 
interstate efforts addressing such issues as transfer of educational 
credits for military members and dependents, professional 
certifications for military spouses, and economic support for military 
families coping with spousal income disadvantages.
    Additionally, Air Force training initiatives continue to evolve, 
improving our ability to develop and retain the world's best air, 
space, and cyberspace warriors. We are concentrating our efforts to 
reprioritize Air Force professional education opportunities to reflect 
a balance between winning today's fight and preparing for tomorrow's 
challenges.
    Tuition assistance continues to be a strong incentive that helps 
ensure we meet our recruiting and retention goals. We believe voluntary 
education, facilitated with tuition assistance, not only aids in 
recruiting and retention, but further reinforces national strength and 
richness by producing more effective professional airmen and more 
productive American citizens for the Nation, both during their 
enlistment and their eventual return to civilian life.
    Within the last 2 years we have taken several initiatives to 
``intellectually and professionally recapitalize'' our airmen. We are 
developing leaders with the management acumen, cultural sophistication, 
international expertise, and language skills to successfully lead a 
diverse, globally engaged force. Air Education and Training Command and 
Air University are leading our efforts to reinvigorate the world's most 
advanced educational system for airmen by expanding our full-spectrum 
educational opportunities.
    Finally, we optimized and expanded our training regimes to take 
advantage of more modern methods and broader scope in our live 
exercises. Red Flag exercises now offer two venues, Nevada and Alaska, 
with varied environments; take advantage of Distributed Mission 
Operations technologies; include Total Force airmen from the Regular 
and Reserve Components; and offer the full range of integrated 
operations, offering realistic training for warriors from across the 
Services, Components, and our international partners.
                 5.0 prepare for tomorrow's challenges
    In addition to taking care of our airmen and training them for the 
full-spectrum challenges we expect this century, it is also our 
responsibility to ensure our airmen have the weapons and equipment 
necessary to provide for our Nation's defense.
    The U.S. cannot take advantages in air, space, and cyberspace for 
granted. Today, we are already being challenged in every warfighting 
domain. The Air Force is actively formulating innovative operational 
concepts to anticipate, adapt to, and overcome future challenges. We 
are transforming our thinking from considering the space and cyber 
domains as mere enablers of air operations to a holistic approach that 
recognizes their interdependence and leverages their unique 
characteristics. We will continue to push this conceptual envelope and 
expand the boundaries of existing tactics, techniques, and procedures 
to fully exploit the synergies of cross-domain dominance.
    But we cannot hone America's edge without modernizing the Air 
Force's air, space, and cyberspace capabilities. We are therefore 
pursuing the biggest, most complex, and most important recapitalization 
and modernization effort in Air Force history. These programs will gain 
and maintain militarily important advantages for our Nation for the 
coming decades.
5.1 Top Acquisition Priorities
    The Air Force's top acquisition priorities begin to address our 
critical recapitalization and modernization needs--the new Tanker (KC-
X); the new CSAR-X; modern space systems to provide capabilities vital 
to our joint warfighters; the F-35A JSF; and a new bomber we plan to 
field by 2018.
    Additional high-priority acquisition programs include F-22 5th 
Generation fighter production; C-17 production; continued production of 
the C-130J and introduction of the C-27 intratheater airlifter; and 
expansion of the MQ-1 Predator, MQ-9 Reaper, and RQ-4 Global Hawk UAV 
inventories.
    5.1.1 New Tanker (KC-X)
    The KC-X is our highest procurement priority. It is critical to the 
entire joint and coalition military team's ability to project combat 
power around the world, and gives America and our allies' unparalleled 
rapid response to combat and humanitarian relief operations alike. KC-X 
tankers will provide increased aircraft availability, more adaptable 
technology, more flexible employment options, and greater overall 
capability than the current inventory of KC-135E and KC-135R tankers 
they will replace. It is imperative we begin a program of smart, steady 
reinvestment in a new tanker--coupled with measured, timely retirements 
of the oldest, least capable KC-135E tankers--to ensure future 
viability of this unique and vital U.S. national capability.
    5.1.2 New Combat Search and Rescue Helicopter
    The Air Force organizes, trains, and equips dedicated forces for 
the Combat Search and Rescue (CSAR) mission. The Air Force must 
recapitalize our CSAR forces to maintain this indispensable capability 
for the Nation and the Joint Team. Purchasing the entire complement of 
programmed CSAR-X aircraft will relieve the high-tempo operational 
strain placed on the current inventory of aging HH-60G Pave Hawk 
helicopters.
    The CSAR mission is a moral and ethical imperative. Airmen are 
responsible for safely securing and returning our airmen and members of 
the joint and coalition team. The CSAR-X helicopter will provide a more 
reliable, more responsive capability for rapid recovery of downed, 
injured, or isolated personnel in day or night, all weather and adverse 
conditions, as well as support non-combatant evacuation and disaster 
relief operations.
    5.1.3 Space Systems
    Air Force communications, ISR, and geo-positioning satellites are 
the bedrock of the Joint Team's ability to find, fix, target, assess, 
communicate, and navigate. While many of our satellites have outlived 
their designed endurance, they are generally less durable than other 
platforms and sensors. Over the next 10 years we must recapitalize all 
of these systems, replacing them with new ones that enhance our 
capabilities and provide mission continuity, maintaining the asymmetric 
advantages our space forces provide our Nation.
    The WGS system, AEHF, and the Transformational Satellite 
Communications program will assure a more robust and reliable 
communications capability designed to counter emerging threats and meet 
expanding joint communications requirements.
    The GPS II-F and III programs will add a more robust PNT capability 
to America's established GPS constellation. GPS III will utilize a 
block approach to acquisition and will deliver enhanced civil and 
military PNT capabilities to worldwide users.
    The Space Based Infrared System will enhance the Air Force's early 
warning missile defense, technical intelligence, and battlespace 
awareness capabilities through improved infrared sensing, missile 
warning, and data processing.
    The Air Force will continue to develop space situation awareness 
(SSA) capabilities to help protect space assets from future threats. We 
are also pursuing more robust space protection measures to warn of 
attacks, provide redundant command and control, harden electronics, and 
defend against direct attacks. The Space Based Space Surveillance 
system will be the first orbital sensor with a primary mission of SSA. 
This system, along with other developments such as the Rapid Attack 
Identification Detection and Reporting System will improve our ability 
to characterize the space environment--the friends and foes operating 
in it, and the objects traversing it.
    5.1.4 F-35A Lightning II (Joint Strike Fighter)
    The F-35A Lightning II will be the mainstay of America's future 
fighter force, providing an affordable, multi-role complement to the F-
22 Raptor. In addition to fielding advanced combat capabilities, the 
Lightning II will also strengthen integration of our Total Force and 
will enhance interoperability with global partners.
    The F-35A Lightning II boasts 5th Generation, precision engagement, 
low-observable (stealth), and attack capabilities that will benefit not 
only the Air Force, but also the Navy, Marines, and our international 
partners involved in the program. The F-35A is the Conventional Take-
off and Landing variant, and it will replace, recapitalize, and extend 
Air Force F-117, F-16, and A-10 combat capabilities. The F-35A also 
serves as the recapitalization program for our international partners' 
aging F-16s, F-18s, and other 4th Generation fighter aircraft.
    Complete dominance of the air and freedom of maneuver for the 
entire joint force demand the complementary capabilities of the F-22 
and F-35A 5th Generation of fighters. Together, they promise the 
ability to sweep the skies, take down the enemy's air defenses, and 
provide persistent, lethal air cover of the battlefield. The leading 
edge capabilities of the F-35A, in development and low rate production 
now, will provide an affordable, Joint Service, international 
complement to the F-22.
    5.1.5 New Bomber
    Range and payload are the soul of an Air Force. These capabilities, 
along with precision, lethality, survivability, and responsiveness are 
fundamental to modern strategic military deterrence, and apply across 
the full range of military operations--from tactical to strategic, 
kinetic to non-kinetic. Yet our Nation has just 21 bombers currently 
capable of penetrating modern air defenses. Even these B-2 Spirit 
stealth bombers have limitations and will become relatively less 
capable and less survivable against advanced anti-access technologies 
being developed and fielded around the world. Furthermore, our current 
bomber inventory is becoming more costly to operate and maintain. 
Indeed, some suppliers for spare parts no longer exist.
    The Air Force is therefore pursuing acquisition of a new bomber by 
2018 and in accordance with Quadrennial Defense Review goals for long 
range strike capability. This next generation bomber will feature 
stealth, payload, and improved avionics/sensors suites, and will 
incorporate highly advanced technologies. It will also bring America's 
bomber forces up to the same high standard we are setting with our F-22 
and F-35A 5th Generation fighters, and ensure our bomber force's 
ability to fulfill our Nation's and the CCDRs' global requirements.
5.2 Improve our Global Vigilance, Global Reach, and Global Power
    Because Global Vigilance, Global Reach, and Global Power constitute 
America's edge, we must continually hone our ability to provide them. 
Our acquisition programs aim to broaden Global Vigilance, extend Global 
Reach, and strengthen Global Power advantages for America.
    5.2.1 Broaden Global Vigilance
    The Air Force provides the global eyes and ears of the Joint Team 
and our Nation. Using a vast array of terrestrial, airborne, and 
spaceborne sensors, we monitor and characterize the earth's sea, air, 
space, land, and cyberspace domains around the clock and around the 
world. The information collected through surveillance and 
reconnaissance, and converted into intelligence by exploitation and 
analysis, is used to formulate strategy, policy, and military plans; to 
develop and conduct campaigns; guide acquisition of future 
capabilities; and to protect, prevent, and prevail against threats and 
aggression aimed at the U.S. and its interests. It is relied upon at 
levels ranging from the President and senior decisionmakers to 
commanders in air operations centers to ground units engaged with the 
enemy to pilots dropping precision-guided munitions.
    The future vision of all the U.S. military Services is information-
driven. Success will hinge on America's integrated air, space, and 
cyberspace advantages. Air Force assets like the E-8C Joint 
Surveillance Target Attack Radar System, E-3 Airborne Warning and 
Control System, RC-135 Rivet Joint, RQ-4 Global Hawk, MQ-1 Predator, 
and our constellations of satellites contribute vital ISR capabilities 
and networking services that are integral to every aspect of every 
joint operation. Our recapitalization and modernization plan aims to 
dramatically increase the quantity and quality of ISR capabilities, 
products, and services available to the Joint Team and the Nation. Our 
recapitalization efforts are focused on extending the lifespans and 
capability sets of our workhorse platforms, such as the RC-135 Rivet 
Joint and several space-based assets. We are also working to find and 
leverage previously untapped ISR capabilities such as those on fighters 
carrying targeting pods. Finally, we have made a concerted effort to 
ensure the viability of Air Force space communications, PNT, early 
warning missions, and SSA capabilities to provide uninterrupted mission 
continuity for America and our allies.
    5.2.2 Extend Global Reach
    America's airmen provide the long legs and lift for joint 
warfighters' rapid global mobility as well as the long arms for global 
strike and high endurance for global persistence and presence. On a 
daily basis, Air Force intertheater and intratheater airlift and 
mobility forces support all DOD branches as well as other government 
agency operations all over the world. Yet the increased demand for 
their capabilities and their decreased availability underscore the 
critical need for tanker recapitalization and investment to ensure the 
long-term viability of this vital national capability.
    5.2.3 Strengthen Global Power
    The U.S. Air Force provides the ability to achieve precise, 
tailored effects whenever, wherever, and however needed--kinetic and 
nonkinetic, lethal and nonlethal, at the speed of sound and soon at the 
speed of light. It is an integrated cross-domain capability that rests 
on our ability to dominate the air, space, and cyberspace domains.
    The Global Power advantages the Air Force provides the Joint Team 
ensure freedom of maneuver, freedom from attack, and freedom to attack 
for the Joint Team. However, failure to invest in sufficient quantities 
of modern capabilities seriously jeopardizes these advantages and risks 
the lives of our soldiers, sailors, airmen, and marines.
5.3 Retire Aging, Worn-Out Aircraft
    The Air Force has been in continuous combat since 1990--17 years 
and counting--taking a toll on our people and rapidly aging equipment. 
While we remain globally engaged, we recognize the imperative of 
investing in the future through recapitalization and modernization. 
Beyond fielding new aircraft, we must also retire significant portions 
of our oldest, most obsolete aircraft if we are to build a modern, 21st 
century Air Force. Our aircraft inventories are the oldest in our 
history, and are more difficult and expensive to maintain than ever. 
They require a larger footprint when deployed, and are significantly 
less combat-capable in today's increasingly advanced and lethal 
environment. In the years ahead they will be less and less capable of 
responding to or surviving the threats and crises that may emerge.
    Since 2005, we have attempted to divest significant numbers of old, 
worn out aircraft. However, legislative restrictions on aircraft 
retirements remain an obstacle to efficient divestiture of our oldest, 
least capable, and most costly to maintain aircraft. Lifting these 
restrictions will alleviate considerable pressure on our already 
constrained resources that continue to erode our overall capabilities.
5.4 Preserve America's Aerospace Industrial Base
    America's public and private aerospace industrial base, workforce, 
and capabilities are vital to the Air Force and national defense. The 
aerospace industry produced the brainpower, innovations, technology, 
and vehicles that propelled the U.S. to global leadership in the 20th 
century. The aerospace sector gave birth to the technologies and minds 
that have made the information age a reality. This key industrial 
sector continues to lead and produce the technologies and capabilities 
America needs to safeguard our future.
    Yet this vital industry has deteriorated over the last decade. We 
have witnessed an industry consolidation and contraction--from more 
than 10 domestic U.S. aircraft manufacturers in the early 1990s to only 
3 prime domestic aircraft manufacturers today. Without funding, in the 
coming decade production lines will irreversibly close, skilled 
workforces will age or retire, and companies will shut their doors. The 
U.S. aerospace industry is rapidly approaching a point of no return. As 
Air Force assets wear out, the U.S. is losing the ability to build new 
ones. We must reverse this erosion through increased investment.
    We must find ways to maintain and preserve our aerospace industrial 
capabilities. We must maintain national options for keeping production 
lines open. Complex 21st century weapons systems cannot be produced 
without long lead development and procurement actions. Additionally, we 
must continue our investment in a modern, industrial sustainment base. 
Air Force depots and private sector maintenance centers have played 
vital roles in sustaining our capabilities and have become models of 
modern industrial transformation. We are fully committed to sustaining 
a healthy, modern depot level maintenance and repair capability.
    Furthermore, we must recognize that these industry capabilities 
represent our National ability to research, innovate, develop, produce, 
and sustain the advanced technologies and systems we will continue to 
need in the future. This vital industrial sector represents a center of 
gravity and single point vulnerability for our National defense.
5.5 Extend C-130J Production Line
    Acquisition programs set the stage to field future capabilities. So 
we must make prudent decisions to maintain current production of 
advanced systems in order to reach required force structure goals and 
provide a hedge against future uncertainty. We must maintain and extend 
the existing production lines for C-130J intratheater airlifters. This 
aircraft represent America's best technology and capability.
    We strongly recommend taking action to ensure these vital 
production lines remain open. Maintaining current production lines will 
be critical to revitalizing our force structure, setting conditions for 
future success, and providing America with the option--should 
conditions dictate--to produce additional modern, advanced technology 
aircraft without having to start from square one.
5.6 Strengthen Total Force Integration
    The Air Force is dedicated to ensuring our States and Nation get 
the most combat effective, most efficient force possible to accomplish 
our mission faster and with greater capacity, around the world and at 
home. We believe integrating our Total Force is the best way to do 
that.
    America's airmen set the DOD standard for Reserve component 
integration. The ARC--comprised of the Air National Guard and the Air 
Force Reserve Command--is an operational Reserve and an essential 
element of the U.S. Air Force. We are developing concepts, strategies, 
force management policies and practices, and legal authorities to 
access sufficient ARC forces without the need for involuntary 
mobilization. Though the Air Force is already the model for melding its 
Guard, Reserve, and civilians with its Regular Air Force elements, we 
can and will push this synergy to new levels.
    A distinguishing hallmark of the Air Force is the ease with which 
Total Force airmen work seamlessly together at home and abroad. From 
the first Reserve Associate unit in 1968 to the full integration of 
Guard and Reserve units into the AEF in the 1990s, the Air Force has a 
well-established history of employing airmen from all components in 
innovative and effective ways.
    TFI represents a long-term Air Force commitment to transformation. 
TFI maximizes the Air Force's overall joint combat capability, forming 
a more cohesive force and capitalizing on the strengths inherent within 
Regular, Guard, and Reserve elements. Including the ARC in emerging 
mission areas increases the Air Force's ability to retain critical 
skills should airmen decide to transition from the Regular Air Force to 
the ARC. We will continue to review policies and practices--through our 
Continuum of Service initiative--to optimize sustainment support to the 
warfighting force and further integrate personnel management across the 
Total Force. TFI will be critical to meeting the challenges of 
competing resource demands, an aging aircraft inventory, and 
organizing, training, and equipping for emerging missions.
    We are leveraging our Total Force to the greatest extent ever. We 
expect the Total Force to produce the vanguard elements we will need as 
we expand our leading role in cyberspace and explore new cyber 
technologies. Many of our most experienced cyber warriors, having 
attained the high level of expertise required to excel in this domain, 
are found in our Guard, Reserve, and civilian ranks.
    5.6.1 Total Force Roadmap
    As an integral element of our procurement efforts, we have built a 
global Total Force Roadmap for acquiring and basing new aircraft and 
equipment. Just as our AEF construct seamlessly draws upon all of the 
Total Force components, the beddown of future Air Force aircraft and 
equipment integrates Regular, Guard, and Reserve airmen beginning with 
the first phases of production and basing through Full Operational 
Capability.
    The Roadmap represents a more efficient and flexible force 
structure. Although the Air Force will have a smaller total aircraft 
inventory compared to our current inventory of aircraft, overall Air 
Force capabilities will increase with each next-generation weapons 
system. In numerous instances, the potential locations will capitalize 
on TFI efforts, creating innovative organizational arrangements among 
Regular, Guard, and Reserve components. This effort takes advantage of 
the inherent strengths of each component.
    The Air Force Roadmap provides a planning construct for the future 
which, if adequately resourced, will result in the required force 
structure that will give our Nation the best capability for Global 
Vigilance, Global Reach, and Global Power across the globe; to reassure 
allies, to dissuade, deter, and defeat adversaries; and to protect the 
Homeland.
5.7 Secure the Future
    To maximize the potential advantages of our programs in the future, 
the Air Force is engaging in multiple initiatives to better organize, 
train, and equip our forces. Whether harnessing the complementary 
capabilities of the F-22 and F-35A programs to provide Air Dominance 
for the Joint Team; strengthening our National Security Space 
Enterprise; leading efforts to acquire interoperable UAS; developing 
Cyber Warriors; or pursuing alternative energy solutions with 
environmentally safe production processes, the Air Force continues to 
investigate and embrace opportunities to secure Global Vigilance, 
Global Reach, and Global Power for our Nation's future.
    5.7.1 Strengthen Joint Air Dominance
    America's airmen are understandably proud of their contributions to 
the joint fight. Airmen have prevented enemy aircraft from inflicting 
any U.S. ground force casualties for over 50 years, and our Nation must 
maintain the required capability advantages to continue this record in 
the future. With advancing technology and proliferating threats, the 
Nation also needs the right equipment for the Homeland Defense mission 
to protect civilians on American soil.
    The F-22 Raptor and the F-35A Lightning II JSF are leading-edge, 
modern, 5th Generation fighters. They are not modernized versions of 
old designs. These aircraft reap the benefits of decades of advanced 
research, technology development, open architecture design, and 
operational experience. These fighters are furthermore designed to be 
complementary--the F-22 being superior in speed and maneuverability, 
and the F-35A being optimized for ground attack and multi-role 
capabilities. These fighters will provide the advanced warfighting 
capabilities, aircraft system synergies, and the flexibility and 
versatility required in future environments and engagements.
    Currently in production and fully operational with Total Force 
units in Virginia and Alaska, and with units planned for New Mexico and 
Hawaii, the F-22 is the newest member of the Air, Space, and Cyber 
Expeditionary Force. Airmen are putting the Raptor through its paces--
flying and deploying the world's first and only operational 5th 
Generation fighter. Its attributes of speed, stealth, maneuverability, 
internal weapons carriage, advanced sensors, and adaptable, integrated 
avionics will meet our Nation's enduring national security requirements 
to gain and maintain joint air dominance in anti-access environments; 
provide powerful sensing capabilities and battlespace situational 
awareness; and precisely engage a broad range of surface targets.
    It is vital to our National interests that 5th Generation fighter 
production capability be preserved. This year the F-35A will continue 
development and begin its ramp-up to full rate production in 2014. 
Continuing production ensures the aerospace industry keeps its 
technical edge, maintains an able workforce to respond to 
uncertainties, and preserves critical skills and production suppliers. 
Uninterrupted production in sufficient numbers of 5th Generation 
fighters remains the lowest risk strategy and best future guarantee for 
homeland air sovereignty and Joint air dominance.
    5.7.2 Lead Joint Unmanned Aircraft System Operational Development
    The Air Force is the world leader for successful, innovative, and 
effective development, acquisition, and operation of Unmanned Aircraft 
(UA) and the UAS that incorporate UAs and the C2 networks and equipment 
to employ them. Future successful Joint UAS acquisitions and operations 
hinge upon execution of three critical elements, which align cohesively 
with joint doctrine:
    Develop Joint UA Concept of Operations (CONOPs). UA operators serve 
the global Joint mission through interoperability and interdependence. 
Globally and jointly integrated UAS operations and capabilities--from 
strategic to tactical--are necessary for joint success. CONOPs 
development must focus on accomplishing the joint mission as opposed to 
serving functional components.
    Standardize and Streamline UAS Acquisitions. We must develop an 
affordable joint acquisition strategy for future UAS development, 
organization, and employment. Air Force acquirers and operators 
pioneered UAS development and application in joint warfare, and have 
established best practices for organizing, training, standardizing, and 
equipping the world's most effective UAS operations squadrons.
    Ensure Airspace Control and Awareness. Presentation of UA forces 
and capabilities must meet Joint Commander requirements and objectives. 
``Organic ownership'' of UAS capabilities is irrelevant in the context 
of the Joint fight and the Joint Forces Air Component Commander's 
authority and responsibility to control Joint airspace. Homeland 
operations are also becoming increasingly important. We are working 
with all the Services and the Department of Transportation to establish 
Federal Aviation Administration Certifications for UA operations within 
approved civil airspace.
    5.7.3 Lead the National Security Space Enterprise
    Our Nation depends on its space capabilities as an integral part of 
its military strength, industrial capability, and economic vitality. As 
DOD Executive Agency for Space, the Air Force will continue to ensure 
mission continuity in critical areas of communications, PNT, early 
warning, SSA, and ISR. We will also continue efforts to strengthen 
National Space integration and collaboration across DOD, with the 
Intelligence Community, our interagency partners and our international 
partners.
    Of particular note are our efforts to strengthen America's space 
professionals and science and engineering workforce. These 
professionals will form the fundamental corps who will lead our space 
efforts to success in the future by integrating enterprise level 
architectures; designing, developing, acquiring, and fielding new 
systems; and operating in a dynamic and potentially contested 
environment.
    Additionally, the Air Force is developing capabilities to quickly 
respond to the urgent needs of CCDRs. Operationally Responsive Space is 
a tiered capability consisting of spacecraft, launch vehicles, and 
terrestrial infrastructure employed in concert to deliver a range of 
space capabilities to responsively meet CCDR requirements in times of 
war, conflict, or crisis.
    Finally, the Air Force is committed to improving its space 
acquisitions, focusing on flexibility and affordability. Success in 
this endeavor depends on achievable requirements, appropriate 
resources, disciplined systems engineering, and effective program 
management. We focus all of these efforts through a disciplined block 
delivery approach tying together basic science and technology (S&T), 
technology development, systems development, and system production 
efforts so concepts first evaluated in S&T will enable a systematic 
transition from development to operations.
    5.7.4 Lead Cyberspace Operational Development
    Current and potential adversaries already operate in cyberspace, 
exploiting the low entry costs and minimal technological investment 
needed to inflict serious harm in and through cyberspace. State and 
non-state actors are already operating within cyberspace to gain 
asymmetric advantage.
    In April 2007, Estonia was the victim of a barrage of cyber attacks 
which brought its technologically sophisticated government to a virtual 
standstill. Insurgents in Iraq, Afghanistan, and elsewhere exploit 
electronics and the electromagnetic spectrum to kill and maim through 
improvised explosive devices and propagate their message of hate to the 
world. Thus, the ability to inflict damage and cause strategic 
dislocation no longer requires significant capital investment, superior 
motivation and training, or technological prowess.
    We seek to deny our adversaries sanctuary in cyberspace while 
assuring our access to and freedom to operate in this domain. Our 
Nation's ability to achieve effects in air, in space, on land, and at 
sea depends on control of and freedom of maneuver in the cyber domain.
    As part of a larger effort to address this need, the Air Force 
stood up a Provisional Air Force Cyberspace Command (AFCYBER) on 18 
September 2007. Our current plan is to activate the AFCYBER MAJCOM on 1 
October 2008. The newly designated AFCYBER will consolidate and 
integrate Air Force cyber capabilities to prepare them to function 
across the spectrum of conflict. These capabilities will include, but 
are not limited to: electronic warfare; network warfare; global C2 
integration, and ISR enhancement.
    We will continue to develop and implement plans for maturing cyber 
operations as an Air Force core competency. Our objective is to provide 
flexible options to national decision<dagger>makers to deter, deny, 
disrupt, deceive, dissuade, and defeat adversaries through destructive 
and non-destructive, lethal and non-lethal means.
    5.7.5 Assure Sustainable Energy
    We are pursuing an aggressive energy strategy and are committed to 
meeting and surpassing the energy goals mandated by the Energy Policy 
Act of 2005 (EPAct 05) and other national policies. We continue to 
pursue a variety of programs aimed at reducing our use of fossil fuels 
and controlling cost growth. Our vision emphasizes a culture in which 
all airmen make energy-conscious decisions. We aim to implement our 
vision with solutions that include alternate sources of domestic energy 
as well as an aggressive drive for greater efficiency in our 
facilities, vehicles, and aircraft.
    Following Presidential direction to reduce dependence on foreign 
oil, the Air Force is aggressively pursuing a broad range of energy 
alternatives. As the DOD's leading consumer of jet fuel, we are 
currently engaged in evaluating alternative fuels and engine 
technologies leading to greater fuel efficiency. We have certified the 
B-52 to fly on a synthetic fuel blend, and are on track to certify the 
C-17 and B-1 in 2008, the F-22 in 2009, and the remainder of all of our 
aircraft expected to be certified by early 2011. In fact, on December 
17, 2007--the 104th anniversary of the Wright Brothers' first flight at 
Kitty Hawk, NC--a McChord AFB, Washington-based C-17 flew the first 
transcontinental flight on synthetic fuel (a 50/50 blend). The Air 
Force goal is to acquire 50 percent of its continental United States 
aviation fuel via a synthetic fuel blend utilizing domestic sources. 
Our intent is to require synthetic fuel purchases be sourced from 
environmentally-friendly suppliers with manufacturing facilities that 
engage in carbon dioxide capture and effective reuse. In addition, the 
Air Force is testing renewable fuel resources that will lower CO2 
emissions significantly compared to petroleum. Other Air Force 
technology efforts continue to explore high-efficiency aerodynamic 
concepts, advanced gas turbines, and variable cycle engines providing 
higher performance and greater fuel efficiency.
    The Air Force is the renewable energy leader, and we seek to expand 
our portfolio through innovative public-private partnerships and 
evaluations of a wide range of energy proposals at several bases. Last 
year, the Air Force received the Presidential Award for Leadership in 
Federal Energy Management. The Air Force also continued to lead the 
Federal Government in green power purchases, with 37 bases meeting some 
portion of their base-wide electrical requirements from commercial 
sources of wind, solar, geothermal, or biomass. We reached full 
operating capacity--14.5 megawatts--of the largest solar photovoltaic 
array in the Americas at Nellis AFB, NV. At Edwards AFB, CA; Kirtland 
AFB, NM; and Luke AFB, AZ; we are exploring additional commercial-scale 
opportunities for solar power. On under-utilized land at Malstrom AFB, 
MT, we are exploring the potential for a privately financed and 
operated coal-to-liquid plant. Finally, as a result of congressional 
interest, we have begun considering the potential for small-scale 
nuclear power production on Air Force property. As energy leaders, the 
Air Force is engaging with allied and coalition air force partners to 
share best practices, identify common issues and concerns, and ensure 
future, sustainable energy interoperability.
    5.7.6 Maintain Science and Technology Leadership
    True to our heritage over the past century of powered flight, the 
Air Force continues to maintain the most complex, diverse, and 
ambitious S&T portfolio of all the Services. History clearly 
demonstrates the broad benefits to America of our S&T efforts, in terms 
of military power, industrial capability, economic growth, educational 
richness, cultural wealth, and national prestige. Examples of these 
efforts include aerospace technology and propulsion, materials science, 
advanced computing and communications, atmospheric science, remote 
sensing, medicine, precision timing, weather forecasting, and satellite 
navigation. What has been good for the Air Force has been great for 
America. We are committed to building upon this heritage.
    The Air Force S&T program develops, demonstrates, and tests 
technologies and advanced warfighting capabilities against the spectrum 
of 21st century threats. As we continue to adapt to a volatile and 
uncertain world, today's focused investment in our S&T program will 
produce the future warfighting capabilities needed to ensure America's 
continued technological preeminence and military flexibility. Major Air 
Force S&T efforts include hypersonics, composites, propulsion, 
nanotechnology, small satellite technology, directed energy, and 
cybertechnology.
    Additionally, Air Force S&T organizations work closely with the 
other Services, the Defense Advanced Research Projects Agency, 
Intelligence Community, and other Federal agencies, such as the 
National Aeronautics and Space Administration, as well as partner 
nations. Through these partnerships we leverage efforts, share 
information, and advance state-of-the-art technologies.
    The Air Force S&T Program provides the necessary leadership and 
foundation for future joint warfighting capabilities, focusing on 
dominance of the air, space, and cyberspace warfighting domains. 
Continued Air Force S&T leadership will be critical to maintaining the 
asymmetric military advantages and broad national benefits our Joint 
Team and the Nation have come to expect and enjoy.
                          6.0 america's airmen
    U.S. security and prosperity are best assured when all the 
instruments of national power are orchestrated to work with other 
states to promote a stable and prosperous international system. The Air 
Force directly contributes to U.S. security by providing a unique array 
of sovereign options for decisionmakers. These options maximize our 
ability to assure friends and to dissuade and deter threats, large and 
small, across the spectrum of conflict. When opponents cannot be 
deterred, these options magnify the combat capability of joint and 
coalition forces and provide a variety of alternatives for our 
political leaders to choose from in pursuit of national objectives. We 
provide the Nation with its most lethal and proven force for defeating 
enemies across the broad range of threats we face.
    By exploiting the synergies of air, space, and cyberspace, the Air 
Force provides our Nation with the capability to dominate across 
domains and expand the options available for our sister Services to 
dominate their respective domains. Implementing our strategy requires 
fielding a force of highly trained airmen with a commanding edge in 
technology and a force structure with sufficient capacity to provide 
the assurance of U.S. presence. So long as airmen maintain a global 
presence and hold significant advantages over potential opponents, we 
will continue to provide our Nation with the means to lead the fight 
for global stability and prosperity.
    Our emphasis on assurance, dissuasion, and deterrence reflects our 
conviction that it is far better to convince potential adversaries to 
refrain from the use of military force than to have to defeat them in 
battle. Our success will be measured by conflicts averted as well as 
conflicts fought and won. But we must never forget that our ability to 
assure and deter ultimately flows directly from our unambiguous ability 
to overwhelm swiftly and decisively any adversary who elects to test 
us.
    We are today honing America's edge. Our airmen have sworn an oath 
to serve their country, and they are meeting and exceeding their 
wartime commitments. We remain focused on our Air Force priorities of 
winning today's fight, caring for our people, and preparing for 
tomorrow's challenges. We are assessing threats in an uncertain world, 
balancing our requirements within fiscal constraints, and managing 
risks as we endeavor to strengthen the asymmetric advantages our Nation 
and the Joint Team currently enjoy.
    We will have neither the buffer of time nor the barrier of oceans 
in future conflicts. The Air Force's Regular component is smaller in 
February 2008 than the United States Army Air Forces was in December 
1941. The character, tempo, and velocity of modern warfare already 
severely test our ability to adapt. Therefore, redefining the Air Force 
for the 21st century is an urgent national security requirement--not a 
luxury we can defer.
    America looks to airmen to provide dominance that spans the air, 
space, and cyberspace warfighting domains. Our airmen are fighting 
today's fight, while standing watch across the frontiers of technology 
and the future. They need your support today to defend the Nation from 
tomorrow's threats. Full funding and support for America's airmen will 
ensure America's continued freedom of action; increase global 
awareness; reassure America's allies and strengthen our partnerships; 
reinforce our sovereign homeland defenses; and set conditions for joint 
and coalition success across the entire spectrum of human conflict and 
crisis.
    We imperil our security, our people, and our way of life if we fail 
to maintain and sharpen America's Edge--the Air Force-provided Global 
Vigilance, Global Reach, and Global Power advantages which underwrite 
the defense and sovereignty of our Nation.

    Chairman Levin. Thank you, Secretary.
    General Moseley.

  STATEMENT OF GEN. T. MICHAEL MOSELEY, USAF, CHIEF OF STAFF, 
                    UNITED STATES AIR FORCE

    General Moseley. Chairman Levin, Senator Warner, 
distinguished members of the committee, instead of an oral 
statement, allow me to introduce five great Americans that wear 
the uniform of the United States Air Force.
    Chairman Levin. Thank you. Please proceed to do that.
    General Moseley. Sir, first, let me thank you and the 
committee for all you do for soldiers, sailors, marines, coast 
guardsmen, and airmen. Thank you for the opportunity for my 
boss, Secretary Wynne, and I to spend some time with you and 
talk about the posture of your Air Force, and the vision for 
the future, and the strategy to achieve it.
    The face on those 670,000 airmen are seated behind me, and, 
with great pride, I'd like to introduce them and tell you a 
little bit about each of them.
    First is Lieutenant Colonel Brian Turner. Please stand. 
He's a Virginia Air National Guardsman who flies F-22s at 
Langley AFB in the first of our classic associations with the 
F-22 in the Air National Guard and the Reserve. He's a graduate 
of the University of Virginia. He's a symbol of the Air Force's 
ironclad commitment to total force integration. He's logged 
over 3,600 flying hours in the F-16A, B, C, and D, and now the 
F-22. He has over 300 combat hours in Operations Desert Storm, 
Allied Force, and Iraqi Freedom, and one of his current roles 
at Langley AFB is flying Operation Noble Eagle, which is our 
air sovereignty and air defense of the country over the top of 
Washington, New York, and the east coast, in the F-22, as he 
defends the Homeland. So, that's Lieutenant Colonel Brian 
Turner, sir, Virginia Air National Guard.
    Next is Captain Kari Fleming. She's a C-17 pilot from 
Charleston AFB. She's a 2003 graduate of the United States Air 
Force Academy. So, Charleston is her first and only operational 
assignment. Still, she's amassed over 1,200 total flying hours, 
including 900 hours in the C-17, including 124 combat missions, 
278 combat hours since 2005, just in Operations Enduring 
Freedom and Iraqi Freedom alone. Her missions have included not 
only delivery of equipment and cargo, but aeromedical 
evacuation for fallen airmen and operational airdrops. I was 
having a chat with her the other day, and I asked her the last 
time she landed the big airplane in the dirt, and she says 
she's done that quite often, landed it on dirt roads and 
riverbeds. So, sir, that's Captain Kari Fleming from Charleston 
AFB.
    Next is Technical Sergeant Jim Jochum. He's in the business 
end of offensive air power. He's an aerial gunner on our 
special operations AC-130 gunships out of Hurlburt Field, FL. 
He joined the Air Force in August 1989, and spent 5 years as a 
maintenance airman, then joined Air Force Special Operations. 
Since November 1995, he's logged over 4,300 total flying hours, 
2,500 of that being combat hours, 367 combat sorties in the AC-
130, which is more than anyone else in Air Force Special 
Operations Command. He has 35 combat support hours on an 
additional seven other sorties. But since October 2001, he's 
accrued 892 days deployed; about 3 years. He wears an Air Medal 
with 16 oakleaf clusters.
    Mr. Chairman, next is Technical Sergeant Michelle Rochelle. 
She's a lead operator for Joint Team of Cyber Operators. She's 
under the tactical control of United States Strategic Command's 
Joint Functional Component Command for Network Warfare. She's 
the leading edge of this business of cyberspace. Her roles in 
conducting computer network attack missions and exploitation 
means she has direct involvement in the global war on terrorism 
and supplying strategic intelligence to America's political and 
military leaders. She truly represents the vanguard of the 
forces that we are attempting to organize, train, and equip to 
operate in cyberspace for the Nation's combatant commanders. 
She also reminds us how critical the cyber-domain is, and that 
it's the nexus of cross-domain dominance, with cyberspace, 
space, and air. She's one of those professionals that you never 
see, you never hear about, but you know they exist, and they do 
this magic work every single day.
    Next is Technical Sergeant Michael Shropshire. He's 
currently the acting operations superintendent for the 12th 
Combat Training Squadron at Fort Irwin, CA. That is our 
embedded operation that we marry our operations at Nellis and 
the National Training Center with the United States Army. He's 
a tactical air control (TAC) party member. He enlisted in July 
1992, as a battlefield airman. He's spent his entire career 
associated with the United States Army; multiple deployments, 
from Joint Endeavor, in Bosnia, to Iraqi Freedom. He wears a 
Silver Star and a Bronze Star. His Silver Star is for 
individual heroic actions while surrounded, cut off under hail 
of enemy gunfire in the largest sandstorm in four decades, 
alongside our Army comrades. He quickly coordinated close-air 
support, putting 12 joint direct-attack munitions (JDAMs) on 10 
Iraqi T-72 tanks, while constantly switching from his radio 
handset to his rifle, personally engaging and killing three 
enemy soldiers at close range. For that, he wears a Silver 
Star. His Bronze Star is for exceptional performance as a TAC 
party member during the 3rd Infantry Division's push on Baghdad 
in March and April 2003.
    So, Mr. Chairman, Senator Warner, and distinguished 
members, thank you for the opportunity to bring five of your 
airmen to the hearing so you can put a face on the 670,000 
airmen that Secretary Wynne and I are so proud to represent. 
Thank you to the committee, again, for watching over soldiers, 
sailors, marines, coast guardsmen, and airmen, and for 
understanding that these folks make miracles happen every day. 
[Applause.]
    Chairman Levin. We thank you, General, for taking the time 
to bring these airmen to this committee. We thank you for the 
way you introduced them, for the passion that you show for the 
men and women in the Air Force, as does Secretary Wynne. It's 
an honor to be in their presence.
    General Moseley. Sir, it's an honor to wear the same 
uniform that they're wearing this morning.
    Senator Warner. I think you should stop while you're ahead 
now. [Laughter.]
    General Moseley. Yes, sir, I'll just sit back.
    Chairman Levin. Let Secretary Wynne answer all the 
questions now, right? [Laughter.]
    General Moseley. Sir, I'm ready.
    Chairman Levin. Let me start with the issue of the C-17 
procurement. The Air Force budget for fiscal year 2009 does not 
include any funding to keep the C-17 production line open. 
General Moseley, you've been quoted, though, as saying that 
you'd like to buy more C-17 aircraft. The Air Force stopped 
requesting C-17s when they got to 180 aircraft. Two years ago, 
Congress then added 10 C-17s, the 2007 bridge supplemental. 
That brought it up to 190. Last year, Congress authorized an 
additional eight. The final supplemental appropriation for 
fiscal year 2008 will likely provide an appropriation for at 
least eight C-17s. That would bring us to a total of 198 C-17 
aircraft.
    The Commander of the Transportation Command (TRANSCOM), 
General Schwartz, said late last year that he believed that 
meeting the requirement for strategic airlift aircraft would 
mean having 205 C-17s. So, assuming that the appropriations 
process yields the eight aircraft that were authorized, we 
would then need only to buy another seven aircraft to meet 
General Schwartz's requirements. Nonetheless, this year, 
General Moseley, you've requested 15 more C-17s on your 
unfunded priority list, at a cost of about $4 billion.
    Now,  knowing  that  the  TRANSCOM  requirement  totals  
205  C-17s, my first question is: Why didn't the administration 
include any C-17s? The second question is: Why would you want 
to buy, on your unfunded requirements list, more C-17s than are 
necessary to get to the 205 requirement of the TRANSCOM 
Commander? I think you know these numbers well enough by heart, 
so I won't apologize for throwing a bunch of numbers at you, 
but there's two questions that are involved there.
    General Moseley. Mr. Chairman, thanks for that question. 
Sir, I will tell you, the C-17 is performing magnificently in 
the arena that we have it in. We're doing things with the C-17 
that we've only previously done with C-130s, like landing it in 
the dirt and providing forward resupply to land component and 
special operations.
    When we testified in 2006 that 180 is enough, it was 
predicated on the requirement for strategic airlift remaining 
constant and the C-5 capability being modernized. Mr. Chairman, 
since then, the goal post has moved on us a bit, and we 
continue to struggle with defining that requirement.
    The Army's grown, and the Marines have grown, close to 
100,000. The Future Combat System vehicle that we have counted 
on being able to fit in the C-130, we're told now that it 
likely won't fit in a C-130; we'll have to put it into C-17s 
and C-5s. Africa Command has stood up, which will be an 
incredibly mobility-intense operation, to be able to move 
humanitarian relief and disaster relief equipment and people 
around that huge continent.
    Sir, as we look at the difference in uparmored Humvees and 
Mine Resistant Ambush Protected (MRAP) vehicles, and to be able 
to move those, it takes us away from the C-130 capability.
    Then, on top of that, every month we fly as much as we can 
off the roads to avoid improvised explosive devices (IEDs) and 
insurgents, and we're averaging somewhere around 3,500 convoys 
a month, and close to 9,000 people a month that we get off of 
the roads, away from IEDs and convoys.
    So, as we support the President's budget and support the 
Office of the Secretary of Defense (OSD) in these tough 
decisions on resourcing and affordability, we continue to 
struggle with the notions of: How do we meet those growing 
demands as the goal post moves on us? Those are the discussions 
we have inside the Department as we attempt to come to closure 
on this.
    Chairman Levin. Did you request those additional C-17s of 
DOD?
    General Moseley. Sir, we had those discussions as we put 
the budget together, but it's simply an affordability issue.
    Chairman Levin. But, you did make the request.
    General Moseley. We did talk about it, yes, sir, in the 
unfunded requirements list, as we replied to a request from 
Congress, our desire was to be absolutely open and transparent, 
and to show you where the next dollar would go, if we had an 
additional dollar.
    Chairman Levin. I'll put it this way. Did you argue for it 
in the budget?
    Secretary Wynne. We  could  not  overcome  the  fact  that  
the  MCS-05 capped us at 300 strategic airlifters. There was a 
law basically restricting us from retiring C-5s, so we had to 
use all 110, and the debate over the Nunn-McCurdy was still 
there, so we were not well received with any increase in the C-
17s, and we knew that.
    Chairman Levin. Does that mean your argument for it wasn't 
well received?
    Secretary Wynne. We did not offer it after we received the 
analysis back.
    Chairman Levin. All right.
    By the way, we'll have a 6-minute first round, if that's 
all right with everybody. On the F-22 issue, there is a 
difference of opinion here between the Air Force and DOD, as 
well, about how many of these planes should be acquired. One of 
the issues, as I understand it, is whether the currently-
planned 183 aircraft would be sufficient to meet wartime 
requirements. We can't talk about the specific differences in 
an unclassified setting, but it does appear that the Air Force 
and the Office of the Secretary are using different estimates 
for the threat. My understanding is that the Defense 
Intelligence Agency (DIA) is responsible for publishing 
coordinated threat estimates, against which the whole 
Department fields capability. So my question, General, to you 
is: Is the Air Force using the DIA-approved threat estimates in 
arriving at its conclusion that you need more F-22s?
    General Moseley. Sir, we use all threat information that we 
can get. Of course, inside DIA, each of the Services 
participate aggressively in understanding those threats.
    Sir, I would tell you, we completely support the 
President's budget, and the Secretary of Defense's budget 
submission, but this is also an affordability issue, and that's 
where the discussions really come down as to what we can 
afford, as we have these discussions about meeting our top 
line.
    Chairman Levin. I can understand that, inside of DIA, when 
you have these discussions, there are differences, but there is 
a final threat estimate that is issued by DIA after that 
discussion takes place. Is the Air Force using the final DIA-
approved threat estimate in arriving at your conclusion that 
you need more F-22s?
    General Moseley. Sir, we use the DIA threat estimate, yes.
    Chairman Levin. Thank you. My time is up.
    Senator Warner.
    Senator Warner. Thank you very much, Mr. Chairman.
    Following on the chairman's line, the questioning on the C-
17, I wonder if you could put a little more emphasis on the 
fact that when we go into a big aircraft program like this, we 
try to set the end-number limit based on what we perceive, at 
that time, to be the challenges for that aircraft over its 
lifetime. I would dare say that the challenges that the C-17 
has met far exceed those projections, in terms of flying hours 
in these operations in both Afghanistan and Iraq. Those are 
remote places on the globe, and that should be considered as a 
basis for the additional C-17s. Would I be correct, General?
    General Moseley. Sir, you are. Inside the affordability 
discussion is still the notion of another mobility capability 
study that we're working on now, which will be due, I believe, 
in January 2009, to try to capture that movement of the goal 
posts on a larger Army, on vehicles that will or won't fit, and 
on what we're doing with these aircraft, as far as over-flying 
the program flying hours to take convoys and people off the 
roads.
    Senator Warner. So, that has been very substantial.
    General Moseley. Yes, sir, and we're working our way 
through that next mobility capability study to try to better 
define that requirement.
    Senator Warner. From an engineering perspective, is the 
airframe holding up under these stressful conditions?
    General Moseley. Sir, it is. It's a wonderful airplane. I 
won't speak for the pilot back here, but we've not found 
anything that we can't do with the airplane that we couldn't do 
with the C-130, and that's a strat-lifter that we're using in 
the tactical environment.
    Senator Warner. I remember when we worked on this airplane, 
from the congressional perspective, we asked you to make sure 
you make one to do short landing, takeoffs, and drive around on 
the dirt. The captain testifies that they work well on the 
dirt.
    Captain, is that correct?
    Captain Fleming. Yes, sir.
    Senator Warner. Thank you very much. [Laughter.]
    On the tanker contract, the Secretary spoke to his strong 
affirmation of the procedures that were followed, and I'd like 
to have your perspective on how the winning contract prevailed. 
In my understanding, we have five criteria; was it four out of 
the five that the winning contract, in your judgment, exceeded 
the other contract?
    General Moseley. Sir, since I'm not in the acquisition 
business, I would ask the professionals inside Secretary 
Wynne's world to provide that information for the record.
    [The information referred to follows:]

    The Air Force made a best value determination based on an 
integrated assessment of the following five evaluation factors: mission 
capability, proposal risk, past performance, cost/price, and an 
Integrated Fleet Aerial Refueling Assessment. Specific information on 
the assessments of the proposed aircraft, and the comparison of these 
assessments, is source selection sensitive. At this time, such 
information can only be provided verbally in a closed session; we are 
ready to provide a briefing, when requested by the chairman or ranking 
member of the committee.

    General Moseley. I will tell you that we were very 
stringent on the requirements that we laid down for either 
airplane to meet. We made sure we could take these airplanes 
into the 21st century, fight with them, and provide refueling 
for the entire joint team.
    Senator Warner. But, there were clear criteria. In meeting 
the criteria, it appears that the winning contract had the 
stronger aircraft for a number of those criteria.
    Secretary Wynne. Senator Warner, if I could relieve the 
Chief of his anxiety, I can tell you this. There were nine key 
performance parameters. Across that spectrum, all evaluated, 
the Northrop Grumman airplane was clearly a better performer.
    In the area of the proposal factors, there are factors that 
are reviewed, and, in that area, the Boeing proposal was judged 
to be just a little bit more risky, primarily because of the 
complexity of their offering.
    In the area of price, the Northrop Grumman proposal was 
judged to be less, across the board, narrowing slightly at the 
total life-cycle estimate. I think they're going to be 
debriefed on Friday. I have been advised, by lots of folks, 
that if I go into any more depth than that, I have to have it 
in a private session, because it gets into proprietary 
information. But, sir, it confirms your view.
    Senator Warner. At this point, this committee is not going 
to be involved until all those procedures have finished. It's 
the appropriate time for Congress to review how you reached the 
contract and determine if it's consistent with the law. I think 
it's just important, as this debate is beginning to build up, 
to have some facts out there which show that this aircraft is 
the best performer. I'll just close on that.
    On the question of the cyberspace, it was quite interesting 
that you had one of your outstanding airmen here today on that 
subject. Tell us a little bit about the cyber command. This is 
an area in which I've had a lot of interest.
    Secretary Wynne. We stood up a provisional command down in 
Louisiana last September, in order for it to shape itself and 
become organized. There are elements around the country that 
have an interest, and a continuing interest. We have, so far, 
been solicited by 16 States for the location of the final 
command. We are going to communicate with the point of contact 
in each of those States on or about mid-month, this month. 
We're going to cut off the supply of information, so we can do 
an evaluation, between July 4th and November. We intend to 
down-select to four of the prime candidates in November, and 
then down-select to a single candidate in December, and try to 
do it in as fair and unbiased manner as we can.
    We've also asked the command to become virtual. In other 
words, we've said, ``We don't want you to be a standard pro-
forma command, as you might see from the Napoleonic era.'' We 
think we should go into the information age, so we asked them 
to look at Accenture and Amazon and companies like that, see 
how they operate, and minimize the headquarters. By the way, 
the units that are already located in the various States around 
the country; our first inclination is to leave those in place.
    Senator Warner. Let me turn to my last question, on the 
unmanned aerial vehicle (UAV) program. Congress, in its 
infinite wisdom, and I had a hand in this, laid down some goals 
that by 2010, one-third of the aircraft in the operational 
deep-strike force should be unmanned. Now, I have to tell you, 
at the time we did that, it was to try to push your Department 
into more forward thinking on this. However, the Unmanned 
Systems Roadmap for 2007 to 2032, just delivered to Congress, 
did not describe how it plans to achieve that goal, nor does it 
include striking targets as key UAV role missions in the 
future.
    UAVs are really performing magnificently, particularly on 
the border between Afghanistan and Pakistan. It's becoming an 
essential component of our overall Armed Forces. We were 
privileged, yesterday, to have the CENTCOM Commander before the 
committee, and the Commander of the Special Operations Forces. 
He reiterated his growing dependency on the UAV for Special 
Operations and various programs across the board.
    Secretary Wynne. We're extremely proud of the partnership 
we have with the Special Operations Command. By the way, the 
reachback activities that you cannot find in country, you have 
to come to Beale AFB, or you have to come to Nellis, or 
sometimes you have to come to areas here in Washington, DC, to 
find the actual operators who are doing that. Sir, you may look 
in the budget this year and find that we are asking for 92 
airplanes, of which half of them are unmanned. That's one of 
the reasons that we're running into a little stress, if you 
will, on our manned fleet. Our unmanned fleet is burgeoning, 
and deliberately so. We're actually running into a little bit 
of buildout constraints, if you will, in being asked by the 
suppliers to add to their capacity, to make sure that we can 
order more.
    That having been said, we're also asking our Army 
colleagues if we can show them, and use their resources, 
because they have a lot of Shadow aircraft that we think we can 
press into the fight, and maybe meet some of your larger goals. 
As we go forward in our unmanned long-range strike, we're 
actually thinking about having that aircraft be a manned and 
unmanned variant, because we see the manned as, in fact, a 
constraint. He can only go for 11, 12, 13 hours, as we have in 
the U-2, and SR-71 programs. Absent the individual, we find 
Global Hawks can go 24 to 27 hours.
    Senator Warner. Thank you, Mr. Secretary. My time is up.
    General Moseley. Senator Warner, that number is 93 
airplanes, and 52 are unmanned, that the Secretary talked 
about. Our Reapers, our MQ-9s, that we're using, that you 
talked to Admiral Fallon and Admiral Olson about, we have those 
in strike squadrons, not reconnaissance squadrons. The vector 
we got from the committee awhile back on moving into strike, 
that version of the UAV is a strike platform, not a 
reconnaissance airplane.
    Chairman Levin. Thank you, Senator Warner.
    Just for the information of Senators, on this question of 
the tanker contract, the committee staff is going to schedule a 
briefing after your briefing of the parties.
    Secretary Wynne. Excellent.
    Chairman Levin. They, and we, will be notified of the time 
and place of that briefing, in case any Senator might want to 
attend, personally. Senators, of course, may ask for individual 
briefings. That'll be up to each Senator.
    As a matter of timetable, if there is an appeal to the 
Comptroller General, which the law apparently allows, what is 
the timetable for that?
    Secretary Wynne. I think it's shortly after they get 
debriefed, which will be this Friday.
    Chairman Levin. Is there a 10-day, 20-day, 30-day?
    Secretary Wynne. Sir, I'd have to get that back to you.
    [The information referred to follows:]

    The Code of Federal Regulations covers the timetable for an 
unsuccessful offeror to file a protest. According to 4 C.F.R.  
21.2(a)(2), protests shall be filed not later than 10 days after the 
basis of protest is known or should have been known (whichever is 
earlier), with the exception of protests challenging a procurement 
conducted on the basis of competitive proposals under which a 
debriefing is requested and, when requested, is required. In such 
cases, with respect to any protest basis which is known or should have 
been known either before or as a result of the debriefing, the initial 
protest shall not be filed before the debriefing date offered to the 
protester, but shall be filed not later than 10 days after the date on 
which the debriefing is held.

    Secretary Wynne. I thought it was 10, but it could be 30, I 
don't want to misspeak.
    Chairman Levin. Very good. Thank you very much.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Mr. Secretary, General, thank you. Thanks, to all those who 
serve under you, who are behind you today and in many other 
places around the world to protect our security and our 
freedom.
    I would like to talk to you for a moment about the Multi-
Platform Radar Technology Insertion Program (MP-RTIP). This 
extraordinary, next-generation X-band radar that has been 
developed for airborne surveillance systems can provide 
unprecedented situational awareness to the warfighter of both 
ground and air targets.
    There's a history here, obviously, which is that this was 
being developed for the E-10A. That plane was canceled by the 
Air Force. At one point, the work on the MP-RTIP was stopped, 
even though we had spent over $1 billion on it. Then, I think, 
quite correctly and wisely, the Air Force realized that was not 
the right way to go, and began to come back to developing MP-
RTIP, because it is a unique capability. You've listed MP-RTIP 
as one of your unfunded priorities, for $285.5 million. The 
description is, ``Accelerates MP-RTIP development while the Air 
Force determines the most viable platform to carry the future 
MP-RTIP sensor.''
    I want to make a pitch, and then ask you what you think. I 
know there's consideration of doing this radar system on a 
smaller variant to be used on a Global Hawk. That's obviously 
positive, but I hope that you're also considering using it on 
the E-8, the Joint Surveillance Target Attack Radar System 
(JSTARS) platform, because of the additional capabilities that 
the larger version of MP-RTIP gives you that can be put on the 
JSTARS. I'm thinking, particularly, about the increased ability 
of the larger system to detect and track targets with a much 
smaller radar signature. Here I include cruise missiles because 
of the ability to protect our forces in the field. But as the 
chair of the Homeland Security Committee, my concern is the 
potential for a cruise-missile attack by terrorists or enemies 
on the U.S. Homeland.
    So,  my  question  is  whether  the  larger  platform  and  
a  larger  MP-RTIP are under consideration as part of this 
unfunded priority list?
    General Moseley. Sir, it is. If you remember the reason we 
had to cancel the E-10 was because of cost growth on it, and we 
couldn't see our way clear to spend that kind of money on a 
single demonstration airplane. But, the concept of the 
technology is still most attractive. We've looked at versions 
to put on the 707 airframe, but we're limited on the 707 
airframe, just from the distance from the belly to the runway 
on the size of an antenna that you can put on it.
    Senator Lieberman. Right.
    General Moseley. So, there is a version of it that will fit 
on the existing 707 airframe, and we've worked with the 
contractor for that.
    We've also kept it alive to put it on the Global Hawk which 
addresses Senator Warner's question about unmanned vehicles and 
persistence.
    So, sir, I think there is a future for this capability, 
because of the need to be able to see things small, both on the 
unmanned and on the manned side of this.
    Now that we have a tanker contract with another type of 
aircraft that is bigger, we have options to go back to the 
bigger antenna, to create a bigger aperture, so that we can 
take a look at that.
    We've had the conversation amongst ourselves about: How do 
we start that program, now that we have an airframe that is big 
enough, the distance from the runway to the belly of the 
airplane, that we can put the bigger antenna on it? So, it's 
very much alive.
    Senator Lieberman. You might put the antenna on the 
tankers?
    Secretary Wynne. Sir, all of our derivative aircraft are 
707s.
    Senator Lieberman. Right.
    Secretary Wynne. What we're looking at now is, thinking 
about going to the systems houses and asking them to, 
essentially, design their product for a platform that's in the 
Air Force inventory, and give them the right to come back to us 
with: What does it fit on? I think that would put the impetus, 
if you will, on the electronics instead of the platform.
    Senator Lieberman. I appreciate that. That's very 
encouraging, even exciting, so long as we can find a way to 
acquire that larger MP-RTIP piece of this.
    Secretary Wynne. Sir, in your chairmanship of the Homeland 
Security Committee, you might think about the reason that the 
National Guard is so excited about the F-22, frankly, is that 
it also can chase down cruise missiles.
    Senator Lieberman. Hear, hear. Although I think its 
capacity, as great as it is, will be amplified by the MP-RTIP.
    Secretary Wynne. If it gets cued, it's much easier.
    Senator Lieberman. That's the key.
    Briefly, on the fighter programs. First, on the JSF, you do 
not fund the alternate engine for the JSF in your budget 
request. During hearings last year on this issue, you 
characterized it as unnecessary and a potential cost that could 
delay fielding of the JSF. Is that still your position, Mr. 
Secretary?
    Secretary Wynne. I think the issue really is affordability. 
It fails the business case. I would note that Senator Warner 
emphasized reliability. If you go to a single airplane for 8, 
9, 10 nations, then the question is: Does it have to pass a 
business case in order to just be an investment in uber 
reliability? Recognizing it doesn't pass its business case, as 
Senator Levin pointed out on the C-17, we don't get much 
support for putting it forward. We do agree with the 
President's budget, as it sits, but we also look at it and 
think: What should America take responsibility for in the area 
of reliability?
    Senator Lieberman. Understood.
    General Moseley. Senator Lieberman, if I could piggyback my 
boss.
    Senator Lieberman. You sure can.
    General Moseley. The holding of the F-35-series aircraft, 
F-35 A, B, and C, timeline to the original requirement is 
something we're very sensitive to. Being able to deliver that 
airplane on time, for not just the Air Force, but the 
international community, as well as the Marines and the Navy, 
is a concern to all of us about being able to bring that 
aircraft online, in the numbers that we need, on time.
    Senator Lieberman. I agree, and appreciate the answer.
    My time's up. Thank you very much.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I was going to start off with my concern over the number of 
the F-22s, but I see that Senator Chambliss is here, and I'm 
sure he'll cover that in enough detail, I won't have to use my 
time to do it.
    A lot of discussions are taking place about the aging 
equipment. I know that you guys have tunnel vision, you're 
concerned mostly about the Air Force, but this could be a 
hearing of the Army, the Marines, and the Navy. All of them 
have this same problem. We had a conversation a couple of days 
ago with General Wurster, the Air Force Special Operations 
Command Commander, and he told me about a refueling mission 
with a KC-135, where they had problems transferring gas from 
one of its wings through the boom; instead of aborting the 
mission, the crew devised a workaround, offloading gas from the 
good wing, and then pumping it over to replace it and maintain 
the balance all at the same time. So I know this is happening. 
Things like this are going on.
    Going into Baghdad, they always put me in the oldest C-130s 
they can find. [Laughter.]
    I'd say, ``You know, I'm convinced. You don't have to do 
that with me.'' [Laughter.]
    We actually lost two engines going in once. Not one, but 
two engines. Then, of course, the last time, we were about 8 
minutes out, we were shot at, and if we had had something that 
performed better, we would have been out of range by that time. 
So, I don't have to be convinced. I know that's a problem. But, 
I wonder how many people in this room know that, in the case of 
the lift vehicles, that Tinker has a reverse engineering 
facility, where it reverse engineers parts of our aging 
aircraft, because there just aren't the parts available. Is 
this a program you're familiar with, General Moseley?
    General Moseley. Yes, sir. Also in our wings, when the old 
aircraft go through phased maintenance, we work very closely 
with the depot teams associated with that mission design series 
so that we're actually manufacturing parts for aircraft that 
there's no supply for. Even in phased maintenance, not just in 
depot, we are supplying things down to the wing level to be 
able to keep the old airplanes flying.
    Senator Inhofe. Yes. I know it's true in Georgia and Utah, 
and in Oklahoma, that the Air Logistics Centers are really 
doing a great job, much better job than they used to do. We had 
occasion to take a team around to all of them and compare as to 
how it's being done. It's being done very well.
    I am glad that people are now talking about the overall 
problem. I can remember 7 years ago when Donald Rumsfeld was up 
for confirmation, asking him the question about the overall 
problem: How can we assure that 10 or 15 years from now, we're 
going to have the best of everything? We went through this 
thing where we didn't have the best of everything. Certainly 
John Jumper was very courageous in the late 1990s to point that 
out. He said, ``Well, we went through the entire 20th century, 
for 100 years, averaging 5.7 percent of gross domestic product 
(GDP) for military.'' This was 7 or 8 years ago, he said, 
``It's down now to about 2.7 percent.'' Now it's up to about 
3.4 percent. So, I said, ``Where should it be?'' A lot of 
people have done a study on this thing, and it's somewhere 
around 4 to 4\1/2\ percent. Well, nothing happened for about 6 
years. Now people are talking about it.
    I noticed, General Moseley, in February 29th's Early Bird, 
you were quoted that you are looking at that, too. You came up 
with something, probably off the top of your head; 4 percent. I 
would like to hear any comments the two of you might have right 
now about this, where we should be, and then make a request.
    Go ahead.
    Secretary Wynne. Actually, we have swung in to support the 
Chairman of the Joint Chiefs, who looked at it, conducted what 
I would say is probably a short assessment, and felt that 4 
percent was an appropriate floor. But when you fall below that, 
you really begin to build up a bow wave because you begin to 
shut things down. If we were to shut down a shipyard or an 
aircraft line, these things just do not start back up again on 
their own initiative. That's where you begin to really build a 
bow wave forward and cause yourself to really think about 
getting back into the 4s and 5s. Whereas, if you a had a nice, 
steady rate, I think it wouldn't have gotten us there.
    Senator Inhofe. Yes.
    General Moseley. Senator, my analysis takes us to that 4 
percent number, which allows us, whether it's shipbuilding or 
aviation or space, to be able to lay in the capital investment, 
in the long term, to be able to recapitalize aging systems, and 
to stay ahead of obsolescence on the inventory, whether it's 
ships or whether it's aircraft. If you could stabilize the 
contractors and lay that in, then you can also get economic 
order quantities that you can deliver the systems much faster, 
at lower cost, and you can field the capability much faster for 
the entire joint team. Less than that, we are making 
fundamental decisions based on affordability, not on notions of 
protecting the industrial base and delivering capability.
    Senator Inhofe. All of that affects the risk that these 
guys over here to your left are facing on a daily basis.
    I saw something in your written statement that surprised 
me, and it pleased me. Each of us up here is on two standing 
committees. Of course, this is the Senate Armed Services 
Committee. My other one deals with the crisis that we have in 
terms of energy. I'm quoting now out of your statement, it 
says, ``Finally, as a result of congressional interest, we have 
begun considering a potential for small-scale nuclear power 
production on Air Force property.'' Could you elaborate a 
little bit on that?
    General Moseley. Sir, the Secretary and I have discussed 
the opportunity to put a small nuclear reactor on an AFB or on 
a military installation because you can protect it, you can 
secure it, and you can also generate the power from it in a 
very clean way.
    We've asked the question: What would it look like, and how 
would we efficiently ask the question? But, I think it merits 
some discussion.
    Secretary Wynne. Right, you can't terrorist-proof it, but 
what we want is something that is not dangerous to the 
community.
    Senator Inhofe. Sure.
    Secretary Wynne. They have, now available, interesting 
designs which we can put on parts of our base. You can actually 
almost bury it, but it takes up about a football field, and 
produces about 50 megawatts, which would take the military off 
the grid, which I think might be valuable in the event of a 
grid catastrophe. It could also provide the surrounding 
community with a maintenance amount. It's one of those things 
that I've been worried about since we stood up Cyber Command 
and people began to tell me about what the threats are. I said, 
well, maybe we ought to make sure that we're protected, in 
several ways.
    General Moseley. Senator, we've pushed the limit about as 
far as we can on geothermal, on wind, on renewable energy, and 
alternative energy sources. We run most of our bases west of 
the Mississippi on alternative energy. We've also flown 
airplanes with synthetic jet fuel. With the Secretary's 
leadership, we've pushed very hard into that world of renewable 
and alternative energy, but there's a limit to wind and 
geothermal and solar that seems to be an opportunity to begin 
to ask the question: What can we do next?
    Secretary Wynne. Right.
    Senator Inhofe. My time is expired, but I applaud you for 
that, and encourage you to pursue that.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, and thanks to our men 
and women in Air Force blue, for your commitment and your 
service, as well.
    Senator Levin was talking about the unfunded request that 
you're looking at to recapitalize and modernize the fleet. As I 
understand it, we're talking in terms of $20 billion this 
budget cycle, but it's also my understanding that you're 
thinking in terms of $20 billion for each of the next four 
budget cycles after this one. Is that correct?
    General Moseley. That's correct.
    Senator Ben Nelson. We've gotten ourselves into a situation 
where the budget really is never a budget, it's maybe not even 
a blueprint at times. My concern is that, when we continue to 
put requests outside the budget, we're creating a bypass of the 
process, in part, but, also, we're skewing what the budget 
really looks like. So, what we should be thinking about is, 
whatever comes here next year, if it doesn't include that $20 
billion, just begin to automatically add $20 billion in our 
thinking, because that's what's going to automatically happen? 
I'm not trying to pin you down, as much as I am raising serious 
questions about the process, not suggesting you don't need the 
money.
    Secretary Wynne. Senator, I think one of the best ways to 
look at it is, we have been below 4 percent now for several 
years. We have been actively engaged in a war for 17 years. We 
went through a procurement holiday, and we have built up a bow 
wave. Now, the American taxpayer can tell us that, ``You know, 
we don't want the kind of defense you all are offering. We 
would rather that you were smaller or that you just let 
yourself grow old.'' I think there's enough of a democracy out 
in the world that we owe you what we believe it takes. However, 
when the die is cast and the gavel comes down, this is America 
and we follow direction.
    Senator Ben Nelson. Is the theory that it might be easier 
to convince us than it is to convince the administration?
    General Moseley. Sir, I wouldn't say that. Remember the 
unfunded requirements list was a request from Congress as to 
where we would put the next dollar.
    Senator Ben Nelson. I know. I know. I just wonder why it 
comes to us in that situation, as opposed to coming through the 
regular budget.
    General Moseley. Sir, the last budget that we submitted, 
the Air Force spent 2.2 million manhours on submission of that 
program objective memorandum (POM) inside the Department. So, 
we do spend some time trying to get it right, given the fiscal 
guidance that we're given by the Department. We have those 
discussions inside the Department, and we salute smartly when 
the Secretary of Defense makes a decision and submits that 
budget to the President. I have no problem with that; I support 
that fully. But, when asked, ``Where would you put the next 
dollar?'' I think the right way to answer is to be absolutely 
transparent and honest.
    Senator Ben Nelson. I don't want to put a penalty on 
candor.
    General Moseley. We did the same thing last year, sir. The 
last 2 years, we've told Congress exactly where we would put 
the next dollar, if we had an extra dollar.
    Senator Ben Nelson. If we could move to cyber for a moment, 
as we look toward the high-tech requirements that protecting 
cyberspace is going to require, are we in a position to be able 
to recruit young people and/or people from industry with the 
right technical background for that kind of command?
    Secretary Wynne?
    Secretary Wynne. Sir, first of all, we can't afford not to 
because it is a warfighting domain, and we consider ourselves a 
net-centric operation. I would also tell you that my 
interaction with industry is, they are ready, willing, and able 
to help us in that, and many of them have constructed some 
network operations centers on their own, that they're willing 
to share with us, as to where they're going and what their 
innovation is. We have, in our own Air Force Institute of 
Technology, a master's degree program in cyberspace, in aspects 
of technology relating to cyberspace, and we're establishing, 
actually, National Guard squadrons, in the Silicon Valley and 
in Seattle, Washington, that are very well attended. So, we 
find that this is an area whose time may have come. The 
question is: How do we organize, train, and equip correctly, 
and how do we make sure that we maintain the right kind of 
leadership to get this done?
    Senator Ben Nelson. The importance of a public/private 
partnership is fairly obvious because we can certainly acquire 
a great deal of technology and information that can help us 
from the private side. Is there any effort to try to make this 
a three-party arrangement so that you have the private side 
together with Homeland Security, as well as the Air Force?
    Secretary Wynne. I want to be sure that we can organize, 
train, equip, and present forces where we are asked to do it. 
So I am working very closely with Strategic Command, as the 
combatant commander, and making sure that we have the right 
attributes to support him. When it comes to the Director of 
Homeland Security, the mission is a little bit different. When 
it comes to some of our partners in the Intelligence Community, 
the mission is a little bit different. We see it as a cross-
domain exercise. In fact, we have a warfighter school set up at 
Nellis, that the Chief set up, so that we could show if you can 
synchronize a cyberdefense together with an air attack and a 
ground attack, it is a remarkable, remarkable difference.
    Senator Ben Nelson. So, you think that there is a 
possibility of synchronizing what happens with the requirements 
from Homeland Security, together with the Cyber Command 
component?
    Secretary Wynne. I think we will all learn from each other, 
but the missions are a little bit different.
    General Moseley. Senator, I think we have to do it that 
way. I think we have to look at ways to capture those 
synergies. I would offer that the two of us, as we've stood up 
this provisional command and looked for a full command, we're 
just now beginning to understand how to ask the question about 
cyberspace. So, I'm not sure we have the answers yet.
    So, the first steps are to understand the domain, get our 
professionals, like our Technical Sergeant here, involved in 
that, and look for ways to partner with both the academic world 
and the industry and the other departments to see how to even 
ask the right questions.
    Senator Ben Nelson. The assets of the private sector are 
considerable, and if they can be made available to assist, that 
certainly would provide not only synergy, but I think it would 
provide compatibility, to bring all of our interests in 
protecting the cyber area together.
    General Moseley. Yes, sir.
    Senator Ben Nelson. Thank you.
    Chairman Levin. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I just want to say, General Moseley, that a good friend, 
Chuck Larson, U.S. Attorney in Iowa, sent me a book by his son, 
Major Chuck Larson, who served in Iraq, about heroes, people 
who won Silver Stars. This individual, who won the Silver Star, 
gave great credit to his tactical air traffic controller, who 
was under fierce fire, as your airman, here, and he said, when 
that was over, he had one goal; that was to go find those guys 
and hug them, because they would not have survived without 
them. Those soldiers, who were in very desperate situations, 
made a reference to their ability to call in air support that 
was critical in saving the lives of Americans. Of course, we 
have a lot of airmen in Iraq and Afghanistan, serving in all 
kinds of different circumstances today. We thank you for that.
    I thought I would mention the tanker. Mobile is a strong 
Air Force town. Brookley AFB had 40,000 people working there at 
one time, and it was just closed in the 1960s, and the town 
endured 30 years of struggling. Now, the Northrop Grumman team 
searched the world over and selected that as the place to 
construct a new tanker, if they were able to win the contract. 
They have been able to do so. I just have never seen anything 
like the excitement that our people feel for the opportunity to 
once again be a part of the Air Force community, to see the 
revitalization of that fabulous old runway and the engineering 
building they have already constructed. They intend to move 
forward.
    I just want to share a few thoughts about that process. 
This committee became engaged in it. The lease proposal that 
turned out to be an embarrassment for us all was raised. 
Senator McCain, in the Airland Subcommittee that I chaired at 
the time, long before Mobile was ever considered a site for 
this, objected to the lease agreement. He made a number of 
valid points. We had analyses of alternatives, that formal 
procedure, and Government Accountability Office reports. It 
came up to full committee, and Senator Warner, as he noted, and 
Senator Levin, as ranking member at that time, believed that 
this was not the way to go, and that we should have a 
competitive bid process. Congress voted on that. We said, ``No, 
we're not going to do a sole-source lease. We're going to have 
a competitive bid process.''
    Now, Secretary Wynne, if you're going to buy a large 
aircraft transport plane, and you're going to have a 
competitive bid process, you need more than one bidder, don't 
you, to have the benefits of bidding?
    Secretary Wynne. Yes, sir, you do.
    Senator Sessions. In the world, how many companies produce 
major large aircraft?
    Secretary Wynne. Right now there are three. We are actually 
running MRAP vehicles back on Antonovs, and then there's EADS, 
and then there is Boeing.
    Senator Sessions. Yes, there were basically two at the 
time, and so, you had the two bidders. They bid, and did you 
make a commitment, implicitly and explicitly, that you would 
fairly evaluate those bids, and that, when it was over, you 
would award the contract to the best bidder?
    Secretary Wynne. We made a commitment that we would be 
transparent, that we would apply the laws of the land in a fair 
way, and be very communicative to Congress, as well as to the 
companies. I think we've done that.
    Senator Sessions. Did anybody claim and object, at any 
time, that the Northrop Grumman lead responsible bidder and the 
EADS partner was unqualified to bid and shouldn't be allowed to 
bid, and didn't meet the standards for bidding, that you're 
aware of?
    Secretary Wynne. Not that I'm aware of.
    Senator Sessions. I didn't hear that either. So the 
complaints have come now from some who didn't win. I think 
that's a bit late. We can discuss the bidding process, if we'd 
like, and what kind of changes we'd like, but it's not 
acceptable to change the rules in the middle of a game. It's 
certainly not acceptable to change the rules after the game is 
over and the winner has been declared. So, I think politicians 
really need to be more circumspect than what I've been hearing 
from some; not on this committee, but others.
    I would just note a couple of things about that contract, 
because it is important to me, and I've watched it. There will 
be 25,000 new American jobs created in 49 States; 230 companies 
will participate in this process. The Commerce Department has 
said, despite some different numbers being floated, they 
estimate that the Boeing plant would amount to 25,000 jobs, 
also. So, it was the same number. I would note that we have 
gotten an aircraft that I think, in all the major criteria, is 
superior.
    Let me just ask you, Secretary Wynne, my time has run out, 
but with regard to the criteria, that includes how far the 
plane can fly, how long it can stay in the air, how much fuel 
it can carry, and life-cycle cost, and other factors. Those are 
fairly objective criteria.
    Secretary Wynne. We had nine key performance parameters 
(KPPs). We actually allowed the competitors to trade off 
anything that was not a KPP. So, you're right, those were 
actually contributions to the warfighting mission.
    Senator Sessions. I thank you for your leadership, and I 
believe the Air Force conducted the most transparent and open 
bidding process, perhaps in the history of this kind of 
procurement, perhaps setting a model for the future. You did it 
on an objective basis, I believe, and came out with one 
conclusion, which was that this aircraft, that was selected 
according to your professionals who analyzed it, was clearly, 
clearly was the word they used, superior. I don't think 
politicians should now seek to alter a process we've approved 
all along.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, good morning. Thanks again, I enjoyed the visit 
yesterday. Thank you all for your service to our country.
    One of the things in our private meeting that I didn't 
bring up, that we've talked at length about, is, back a year 
ago, the National Defense Authorization Act directed the Air 
Force to produce two reports on the future of the test and 
evaluation wing at Eglin AFB. We've gotten one of those 
reports. We have another one that's coming. As I understand, 
it's coming pretty soon. Mr. Secretary, I wanted to ask you, is 
the Air Force planning restructuring of test and evaluation 
that will affect Eglin by reducing manning or capacity?
    Secretary Wynne. Remember, sir, we were waiting for the two 
reports to come in, and I understand that OSD is also looking 
at the Defense Test and Readiness Management Center. We'll have 
to wait to see what they say, but as far as I know, it appeared 
to me the capacity was held.
    Senator Bill Nelson. If you will make your decision on a 
comprehensive analysis and a coordination with DOD and the 
other Services before you come to a conclusion, then I feel 
confident. As the first RAND study has already shown us, what 
was originally planned by the Air Force was certainly not in 
the interest, not only of the Air Force, but not in the 
interest of DOD. For example, in that first attempt to try to 
squeeze money out of the Air Force Materiel Command, you were 
shutting down the climatic lab. It's one resource in the world. 
You can't duplicate it. You could say, ``Well, we can send 
people to Greenland to simulate cold, then we can send them to 
the desert to simulate hot.'' But, what about if you want a 
combination of sleet with the snow, or what if you want a 
combination of wind from a certain direction coming in with a 
certain temperature? You certainly can't simulate what we can 
do in that climatic lab.
    Secretary Wynne. I think, sir, you've hit upon a stress 
point across our Nation, frankly, that affordability can't 
always be the rule.
    Senator Bill Nelson. Here's where the problem is. This is 
the nub of the problem. DOD said we have to cut X number of 
billions of dollars. The Comptroller of DOD allocates it out to 
the various Services. The Services allocate it out to the 
various commands. Materiel Command got a cut of $1.7 billion, 
and it tries to figure out how it's going to do it, and it 
says, ``Well, we can get $800 million by shutting down these 
things in test and evaluation, and squeezing it together with 
Edwards AFB.''
    Now, that's wrongheaded decisionmaking on the basis of an 
artificial number imposed by a comptroller of DOD, allocated 
out, because that's not considering the mission of the entire 
DOD. The mission of DOD, in this case, is to be able to test 
and evaluate all of our systems, highly sophisticated weapons 
systems, so that they will work when we call on them to work. 
So here's the wrongheaded budgetary thinking, ``Well, we have 
to impose this much cuts.'' I appreciate the drill that you all 
have to go through, and I know the discomfort. But, when it is 
an artificial number given to certain commands, and they're 
looking at it through a tunnel, they don't see the big picture 
of how it's going to affect DOD.
    Now, the reason I get so worked up about this that I had to 
get into it, and I had to put an amendment on the authorization 
bill to stop it, because it was going to happen by my amendment 
causing the studies. The RAND study came out and basically 
corroborated a lot of what I've said, and we're waiting on the 
second study right now. I just want to make sure that behind 
the scenes, that suddenly this guy with the green eyeshade up 
there in the Comptroller's office who is saying, artificially, 
for you all to cut a certain amount, that this is not 
happening, and it becomes a fait accompli, to the detriment of 
the defense of the United States.
    Secretary Wynne. I think there is some support, without a 
doubt, for the climatic laboratory and some other facilities 
there at Eglin in the RAND report, and as I remember, even in 
the second one that's still being reviewed.
    Senator Bill Nelson. I'm just using the climatic lab as one 
example. There are other unique facilities there, and a unique 
mission of test and evaluation. That's why we have almost the 
entire Gulf of Mexico off of Florida that is restricted 
airspace, so you all can go out there and test and evaluate 
those weapon systems.
    General, I didn't ask you any questions, but do you want to 
comment?
    General Moseley. Sir, test and evaluation is a big deal for 
us, because the Air Force lives on technology, the Air Force 
lives on fielding technology to make the warfight quicker with 
less losses. We live at the leading edge of technology, whether 
it's altitude, speed, lethality, precision, or efficiencies of 
being able to deliver ordnance. Eglin is an important part of 
that for us, as is China Lake for the Navy, as is Fallon for 
the Navy, and Edwards is. The synergy of all of this is a big, 
big deal for us. Getting it right is a big deal for us.
    Sir, having said that, it wouldn't surprise you for a 
Secretary or a Chief to say, ``But, we're still living inside 
the world of what's affordable and what's our top line.'' Those 
are the decisions that we're struggling with every day. But, 
sir, rest assured, test and evaluation and fielding systems is 
at the top of our list.
    Senator Bill Nelson. I don't want this to happen in the 
dead of night. It almost did, 2 years ago. I was just fortunate 
that this little country boy happened to be in the right place 
at the right time before it happened. As the Good Book says, 
``Come, let us reason together.'' I hope you will be mindful of 
that in the future.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Let me just make a few observations about the tanker 
replacement announcement last week. The chairman mentioned this 
in his opening remarks, and I'm glad to know that there will be 
further opportunity for information, Mr. Chairman, on the basis 
for the award, which, of course, is information that should be 
provided after the competitors are debriefed. But, I would just 
note, for those who might not have been in the room, that the 
Air Force has been commended for the special efforts toward 
transparency in this particular process. Those are not my 
words, those are the words of the chairman of this committee. I 
would echo the words of my chairman, in that respect, to our 
two witnesses today.
    Of course, the assembly of these aircraft will occur in 
Mobile. That's right next door to Jackson County, MS. I expect 
a lot of Mississippians will be among the 25,000 Americans who 
will participate in the new jobs created by this program. So, 
as a Mississippian, and as an American, I am very pleased about 
this.
    It has been mentioned, also, that the KC-135, which was 
about a decade old when I was in field training at Grissom AFB, 
and got to take a flight and lie in the boom, there, and watch 
a refueling, is now 48 years old, and time is wasting on the 
new tanker replacement. We've already lost a lot of time in 
this regard. Those are not my words today, those are the words 
of our esteemed colleague, Senator Warner. I would just, again, 
say to our two witnesses and to our colleagues, that I 
appreciate Senator Warner's statement that Congress should not 
get into the business of rewriting contracts. Certainly, we'll 
be debriefed about it, as I've already said.
    Had the award gone to the competitor, I would, no doubt, 
have been disappointed. But, I do think that we should not lose 
sight of the central question, and that is producing the best 
aircraft for our service men and women, and for the mission. I 
also appreciate other Senators today pointing out that, on the 
categories of mission capability, proposal risk, past 
performance, cost, and integrated fleet aerial refueling 
assessment, the Northrop bid did come out first in four of the 
five key areas, and tied in the other key areas.
    Ms. Payton, the Air Force Acquisition Executive, has stated 
publicly that this decision had to do with the requirements the 
warfighter needed. We need to keep that in mind. I'm glad these 
jobs are coming to the Gulf Coast. I'm glad that it's going to 
an aircraft that's 60 percent U.S. content, as compared to the 
other proposal, which was only 57 percent U.S. content. But, 
that wasn't part of the criteria that the Air Force was asked 
to look at; they were asked to look at the requirements.
    General Arthur Lichte, Commander of the Air Mobility 
Command, has stated about the Northrop Grumman proposal that 
this is an American tanker. It's flown by American airmen. It 
has a big American flag on the tail. It will be saving American 
lives every day. He went on to say that it can be summed up in 
one word, more: more passengers, more cargo, more fuel to 
offload, more patients that we can carry, more availability, 
more flexibility, and more dependability. The KC-135, according 
to the information I have, will have 22 percent more fuel 
offloaded, 30 percent more booms on station time, 68 percent 
more cargo capacity; and more aircraft fly-by-wire and state-
of-the-art avionics.
    An independent aerospace analyst, Loren Thompson, said of 
the award, mentioning four of the five key areas where Northrop 
bested the opposition, that the outcome and victory by Northrop 
Grumman was not even close.
    I would also point out to the committee that the KC-45, 
which was chosen by the Air Force in this transparent process, 
has won the last five international competitions against the 
other competitor; the United Kingdom, Australia, the United 
Arab Emirates, and Saudi Arabia, and now, of course, our own 
United States Air Force.
    I would just hope that the disappointment by people who 
have worked real hard on the other project has subsided, that 
we won't lose sight of the main objective; that we're already a 
little bit behind on this, we've lost some time, and we need to 
get on with it.
    So, gentlemen, I haven't asked a question, either. If I've 
stated anything that's factually incorrect, I'd invite you to 
comment on that.
    I thank the chair for indulging me.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Secretary Wynne, I just want to say, from my point of view, 
you've done an outstanding job of leading the Air Force. I know 
you've had some tough issues to deal with over there, but 
you've been a straight shooter, and we really appreciate what 
you've brought to the table.
    General Moseley, I've known you for a long time. I really 
appreciate your service and leadership. I'm not going to talk 
about the tanker deal; I guess because none of it is in South 
Carolina. But, from a 30,000-foot view of the Air Force, the 
question for Congress is: Do we need more money for the Air 
Force and the Navy as we grow the Army and the Marine Corps? 
When you add the supplemental budgeting with the baseline, 
Secretary Wynne or General Moseley, what percentage of GDP have 
we been spending?
    General Moseley. Senator, I believe that's 4.6 or 4.7 
percent. But, if you'd allow us to get the exact number, we'll 
provide that for the record.
    [The information referred to follows:]

     The National Defense Budget Estimates For Fiscal Year 2009 Office 
of the Secretary of Defense ``Green Book'' provides the following 
information with respect to DOD funding as a percent of GDP. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Graham. The point is, for my colleagues, whether 
you believe defense spending should be 4 percent of GDP. We're 
spending more; we're just not doing it in a very wise way. I 
think we could baseline 4 percent and probably get what we 
need. So, I hope the committee and Congress will look at trying 
to avoid all these supplementals, and get a baseline that 
works.
    For the last 17 years, we've been in states of undeclared 
war, in terms of the Air Force. Is that correct, General 
Moseley?
    General Moseley. Yes, Senator, that's right.
    Senator Graham. We've been flying 2.2 million hours per 
year for the last 17 years.
    General Moseley. Averaging about 17 years, yes, sir.
    Senator Graham. Of that, how much is combat time?
    General Moseley. Sir, I've asked them to get those numbers, 
and we'll provide that for the record.
    [The information referred to follows:]

    Information previously provided to Senator Graham. (In response to 
questions from Senator Graham on the FHP, we [A3] provided a full 
breakout on Operations (Combat and Combat Support) and training hours 
from fiscal year 1991 to fiscal year 2007.)

    General Moseley. Combat, combat support, and the rest of 
the training time.
    Senator Graham. Now, for a military lawyer, that sounds 
like a lot. Is it?
    General Moseley. Sir, that's a lot.
    Senator Graham. Okay. For 17 years, we've been in some form 
of combat somewhere, flying 2.2 million hours, and doing it 
with 30 percent less airplanes. Is that correct?
    General Moseley. That's correct, sir. From the baseline of 
1989 and 1990, Operations Desert Shield, Desert Storm, to where 
we are now, we have a little over 30 percent fewer aircraft.
    Senator Graham. A lot more challenges.
    General Moseley. They're over 40 percent older.
    Senator Graham. So, let me get this right. We've been 
flying the wings off these things for 17 years, performing 
missions in combat. The air fleet is 30 percent less than it 
used to be. The age of the planes have grown 40 percent during 
this period of time. Is that correct?
    General Moseley. Yes, sir.
    Senator Graham. Now, we're going to grow the Army and the 
Marine Corps. Do you support that?
    General Moseley. Absolutely.
    Senator Graham. We need more boots on the ground, right?
    General Moseley. Absolutely.
    Senator Graham. Now, tell me what happens to the Air Force 
when you grow the Army and the Marine Corps.
    General Moseley. Sir, first off, when the Army grows, we 
grow--a certain percentage, because, like our TAC party 
member--behind me here, we have members of the Air Force 
embedded into Army formations. So, when the Army grows the 
brigade combat teams that we see now, that's at least 1,000 or 
so more airmen that live inside the Army formations. When the 
Army grows to those larger numbers of brigade combat teams, 
same with the Marine regimental combat teams, the mobility 
requirement obviously goes up, to be able to support either 
forces in the field or force rotation modules.
    Senator Graham. So, the workload of the Air Force is going 
to grow as the Army and the Marine Corps grow. Is that correct?
    General Moseley. Yes, sir.
    Senator Graham. Tell me about the C-17, the assumptions we 
had a few years ago about its utilization and reality now. How 
has the C-17 mission changed?
    General Moseley. Senator, we're using the C-17 a lot like 
we've used all our strat airlifters, but also like we've used 
our theater airlifters. We're using C-17s like we have C-130s 
when we take convoys and people off the roads.
    Senator Graham. How much of that are you doing?
    General Moseley. Sir, somewhere around 3,500 to 3,600 
convoys, and around 9,000 people a month that we take off the 
roads, away from IEDs or insurgents.
    Senator Graham. So, in-theater airlift allows us to take 
9,000 people off the roads.
    General Moseley. Rough numbers, yes, sir.
    Senator Graham. Tell me about how the C-130 utility has 
changed, given the new needs of the Army.
    General Moseley. Sir, the C-130 is still a wonderful 
airplane. The C-130J is the gold standard for intra-theater 
airlift. That's why we continue to support that program, and 
the numbers that we see to replace the old C-130s, which we're 
obviously flying the wings off of.
    But, sir, as we look to support a modernized Army, as the 
Army moves into the future with their digital system, we're 
told now that the baseline vehicle that they're looking at 
won't fit in a C-130. So, to move the new Army around, we're 
going to have to use C-17s or C-5s to be able to do that.
    Senator Graham. So, the assumptions we had a few years ago 
about the C-17 have changed, because the Army is changing.
    General Moseley. The Army is modernizing, changing, and 
growing. I support all of that.
    Senator Graham. Now, your son's an F-15 pilot. Is that 
correct?
    General Moseley. That's correct, sir.
    Senator Graham. Is he flying the same plane you flew, 
basically?
    General Moseley. Sir, he's flown several airplanes that I 
flew.
    Senator Graham. I don't know how old you are, but that's a 
pretty old plane. [Laughter.]
    Chairman Levin. Do you want to tell us, off the record, how 
old you are, General? [Laughter.]
    General Moseley. Sir, a pretty old fighter pilot.
    Sir, he's flown several airplanes that I've flown, and he's 
flown several airplanes that I flew as a captain. So, not just 
because I have a son that does that, but because they're all 
sons and daughters to all of us, I think we owe it to them, to 
the folks behind me here, to have the best flying machine and 
the best satellites that we can field for the joint team.
    Senator Graham. Some people say, ``Why do you need 
fighters? We don't have any enemies out there anymore.'' Tell 
me about China and their fighter aircraft.
    General Moseley. I believe, in the world of modernization 
out there, we're not the only ones that are modernizing the 
systems. I think there are threat systems out there that as the 
DIA baseline reports, that Chairman Levin referenced, are not 
just fighters, but they're surface-to-air missiles (SAMs), 
integrated systems, early-warning radars, target-tracking 
radars, as well as the fighters. There are countries out there 
that are producing wonderfully capable, very lethal systems. To 
be able to survive in that world, or better yet, to be able to 
deter or dissuade, I believe we need the best systems that we 
can possibly field.
    Senator Graham. Can the F-22 and the F-35 meet those 
threats?
    General Moseley. Yes, sir, they both can.
    Senator Graham. Finally, I believe the number that you're 
talking about to put the Air Force in good shape is $20 billion 
a year.
    General Moseley. Rough number, yes, sir.
    Senator Graham. Okay. So, for $20 billion more, the 
American public would have a modernized Air Force, where the F-
15 pilots would not be flying the same planes you flew; we'd 
have a C-17 capable of supporting the Army; we'd have the 
ability to suppress any new air defense systems out there and 
continue to support the Army and the Marine Corps in their 
missions. Is that correct?
    General Moseley. That's correct, sir.
    Senator Graham. Thank you very much.
    Chairman Levin. Thank you, Senator Graham.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to add my welcome to the Secretary and to the Chief 
of Staff, and thank you so much for your service to our great 
country, and also thank all the personnel in the Air Force, as 
well.
    The Air Force is currently conducting operations, and this 
has been mentioned here already, in the oldest fleet of 
aircraft in its history. As chairman of the Readiness and 
Management Support Subcommittee, I'm especially interested in 
helping to maintain the air superiority that has protected our 
military forces since the Korean War, which was the last time 
an American soldier was attacked by an enemy air force. I look 
forward to working with you and address the concerns that you 
have.
    Mr. Secretary, the Air Force continues to train and provide 
airmen for ground combat duties in Iraq. They call it the ILO 
program, where they are performing missions that have 
traditionally been carried out by our Army personnel. I 
understand the benefits these airmen have provided to our 
overstretched ground forces, but what has been the impact of 
the ILO program on Air Force readiness and ability to perform 
its own core competencies?
    Secretary Wynne. Sir, we've taken this for the most part 
out of hide; meaning that most of our units operate with a 
little bit less competent players.
    I'm very proud of the service that our airmen have provided 
in the ILO opportunities. I was a little bit surprised that we 
haven't had the combat service support come up faster in order 
to replace them. I've had a theory that I've advanced, that 
every airman or rifleman doesn't work in the limit. I'm very 
proud of what they've done, to date, and I tell my Army 
colleagues that they love the innovation and imagination that 
they bring. But, they have had an impact on our operational 
readiness. We've stretched this out, and it has not impacted us 
in a way we can highlight.
    General Moseley. Senator, with our end strength headed for 
316,000, we will have less capacity to offer up the magnitude 
of the ILO tasking that we are performing now. We have a little 
over 6,000 deployed this morning, and about 15,000 or so in the 
pipeline; so, a little over 20,000 or so wrapped up in that. As 
we go from 330,000, where we are now, to 316,000, we will have 
less capability to offer up that magnitude of people outside 
the career field or outside the workplace that they're involved 
in, in their Air Force job.
    That's the piece of this that we're working through with 
Joint Forces Command to identify where we can continue to 
contribute to the joint fight, the long war on terrorism, and 
still not begin to influence or impact negatively on the units 
that we have for the other combatant commanders. Because, on 
any given day, 53 percent of your Active Air Force is committed 
to a combatant commander, higher than any other Service, 
because of space, because of mobility, because of command and 
control. So, when you have 53 percent committed to the global 
set of combatant commanders, and you're taking 20,000-plus 
people out, I want to make sure we have that right. Those are 
the discussions we're having now with Joint Forces Command and 
the OSD staff.
    Senator Akaka. My concern has been for the Air Force and 
whether what's happening in this program takes away anything 
from the Air Force.
    General Moseley, the Army's shift to transform to a more 
flexible, modular force will involve the use of many more 
unmanned systems than is in use today. Even now, Army UAVs are 
being piloted by Army personnel in conducting operations in the 
global war on terrorism. As both the Army and the Air Force 
transition to greater numbers of unmanned systems, I am 
concerned about overlapping roles, missions of two Services. 
The word joint Services, of course, is an important word, as it 
is being used now.
    My question to you is: What type of future integration will 
be necessary between the Air Force and the Army to ensure unity 
of effort when conducting close air support and reconnaissance 
missions? How will the Services cooperate with their respective 
unmanned systems in managing the battle space?
    General Moseley. Sir, the Army Chief and I have been 
friends for a long time, and we've worked this personally. In 
fact, we have agreed to merge our two Concepts of Operations 
(CONOPs) into a single CONOPs for looking at theater 
intelligence, surveillance, and reconnaissance (ISR) and 
looking at fielding these systems.
    On the tactical side, we effectively buy what the Army 
buys, and they have a great operation in Alabama to do that. On 
the strategic side, all the Joint Force leverages off of Air 
Force strategic systems, be they Global Hawk, U-2, Rivet Joint, 
or the other systems, manned or unmanned. The seam between the 
strategic side and the tactical side, or the high altitude and 
the low altitude, is that area that we're working now to make 
sure we understand fully how to employ the maximum amount of 
combat effectiveness with the minimum amount of friction. So, 
sir, the Army Chief and I are working this very hard.
    Senator Akaka. Thank you very much.
    My time is expired, Mr. Chairman. I'll submit my other 
questions for the record.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Wynne, General Moseley, thank you very much for 
your outstanding service.
    I, for one, believe that we do need to increase the top 
line. I hate to see you robbing from Peter to pay Paul. I think 
that the Air Force is at a pretty remarkable crossroads, in 
terms of deciding what to buy next, and how many to buy. We 
have aircraft that are getting older and flying more than 
expected. I appreciate your focus on modernization, and I think 
we have to stay ahead of our adversaries out there. But, the 
facts are pretty daunting, and they're evident in my State of 
South Dakota, just like they are everywhere else in the Air 
Force. You look at the 114th Fighter Wing, an Air National 
Guard unit in Sioux Falls, the F-16s there are F-16s that were 
built in 1985, they're 23 years old, they have an average of 
5,000 hours apiece on the airframes, which is an astounding 
measure, by any account. The B-1s that we have at Ellsworth AFB 
are also showing their age, and they're being used much more 
than was projected. Most of those aircraft are over 20 years 
old. Due to the support of the operations in Iraq and 
Afghanistan last year, the 28th Bomb Wing flew 171 percent more 
than normal.
    So, I guess I want to hone in a little bit on a couple of 
the questions with regard to replacing those.
    Secretary Wynne, as you look at the roadmap for future 
sites and potential bed-downs of some of these new aircraft, I 
was pleased to see that the Sioux Falls Air National Guard Base 
at Joe Foss Field was on the Air Force's future weapon systems 
roadmap. By replacing some of the F-16s and A-10s and F-15Es in 
our inventory, the F-35, of course, is going to be critical to 
our Nation's Air Force. I was also pleased to see that 
Ellsworth AFB was on the roadmap as a potential bed-down for 
the next-generation bomber.
    I guess I'd be interested in getting your comments on the 
status of the roadmap, maybe some insights into potential 
timetables for when the Air Force is going to begin analyzing 
potential bed-down sites and initiating those environmental 
impact statements that go with it.
    Secretary Wynne. Sir, first of all, we are pleased to tell 
you that we work closely with the Adjutants General across the 
United States to do our total force, because we are becoming 
increasingly reliant on our Reserve component as the Air Force 
gets smaller. We look at the roadmap that has been devised, as 
a guiding tool, because the timing of all of our product that 
we can replace, we're not replacing at a rate that causes us to 
run around to try to figure out where the roadmap goes. Even 
with the long-range strike airplane, we're talking about an 
initial operational capability (IOC) of 2018. We're not backing 
off of that, but we recognize that you're not going to have a 
squadron of those. You're going to have a flight-ready system 
of that ability in the 2020 timeframe, which is going to 
require sitting and everything else in around the 2012-2013 
timeframe to get that started.
    We're a little bit surprised that, every time we move a 
fighter squadron to a fighter squadron base, we would have to 
do an environmental impact study, but that's the way it is. 
That will come, I think, on the roadmap, with enough time to 
allow us to do it, maybe in 2, 3, or 4 years, right in that 
range.
    But, we are excited about the prospects for maintaining the 
funding profile, maintaining the level of competition we have. 
We'll probably be back here, as we can declassify our ongoing 
pursuit of the next-generation bomber. I think the committee's 
going to be extremely pleased with the way we've integrated 
technologies that are available to us across this great 
country, to make this happen, and make it, not really a 
revolutionary vehicle, but, in fact, an evolutionary vehicle. 
It gives us hope that we can maintain our timelines.
    General Moseley. Senator, I would also add, with the 
Secretary, that when we look at having some definition by 2012 
or 2013 to be able to do the environmental work to look at 
bedding down the new bomber, we're working the 2010 budget 
right now, so we're there. We're beginning to look at the bed-
down and the fielding and the criteria, not only for the total 
force, but also the new systems. The budget for 2010 is not 
that far from a set of activities in 2012, so I would say we're 
there.
    Senator Thune. Mr. Secretary, you noted in your prepared 
testimony that the Air Force is already the model for melding 
its Guard, Reserve, and civilians into the regular Air Force 
elements, and I wholeheartedly agree with that, and that you're 
looking to push that synergy to new levels. One of the things 
that you have done in the Air Force is use this concept of 
active association units, which I understand is a program that 
brings Active Duty airmen and mechanics to Air Guard bases to 
receive training from the more seasoned Air Guard counterparts. 
Could you just state for the record a few details about that 
program, how many of those associations exist, what the process 
is for an Air Guard base to obtain an active association unit?
    Secretary Wynne. Yes, I'd have to get that for you for the 
record, sir.
    [The information referred to follows:]

    There are 22 Chief of Staff of the Air Force-approved Active 
Associations (18 flying, 4 non-flying) on the current Total Force 
Integration (TFI) List.
    The objective of the TFI associations is to meet Air Force 
operational mission requirements by aligning equipment, missions, 
infrastructure, and manpower resources to enable a more efficient and 
effective use of Air Force assets. While the desire for associations is 
on the rise, proposed TFI initiatives require concurrence between both 
gaining and associating MAJCOMs, and must satisfy an existing MAJCOM/
COCOM requirement. Headquarters Air Force, in close coordination with 
MAJCOMs and the National Guard Bureau, develop missions and identify 
potential integration opportunities that satisfy current and future 
capabilities requirements that align with national security 
requirements. Prior to making any TFI association decisions, the Air 
Force takes into consideration factors such as facilities, 
environmental impact, available manpower, usable airspace, and current 
number of aircraft. Additionally, there is a prerequisite to craft and 
submit a TFI Initiative Review Worksheet and Reserve MAJCOM/NGB legal 
approval of the proposed initiative. The initiative must then be vetted 
through the Air Staff, approved by the Chief of Staff of the Air Force, 
and must ultimately compete for funding in the Air Force programming/
budgeting process. A summary of the complete TFI vetting process can be 
found in AFI 90-1001.

    Senator Thune. Okay.
    General Moseley, one avenue for keeping the aircraft flying 
is modernizing them. We had a briefing yesterday on some of the 
things that are in the budget this year to modernize the B-1. 
What's proposed is placing advance targeting pods on the B-1s, 
and the question I have is: What kind of a capability does that 
give to a B-1? Does it in any way obviate the need for fielding 
a new bomber by 2018?
    General Moseley. Sir, the answer to the second question is 
no. To be able to bring the B-1 inventory up to the best 
capability that we can, given the missions that we're operating 
now in Iraq and Afghanistan, putting the targeting pods on 
there, and being able to use that both as a striking platform 
and a nontraditional ISR platform, just makes perfect sense.
    The lethality and the precision that you get with the 
Sniper, or the Littening pod on that airplane, to be able to 
deliver ordnance is just an incredible capability. Who would 
have thought a few years ago that we would be doing this to the 
B-1? The airplane has proven to be an outstanding striking 
platform in the scenarios that we have right now; supporting 
Army and Marine and Special Operations Forces.
    Senator Thune. Just one last question, if I might. One of 
the things that you all have focused on, and I commend you for, 
is pursuing alternative fuels to alleviate our dependence upon 
foreign oil. The Air Force, in particular, is the biggest user 
of fuels in the country. In the prepared testimony, you said 
the B-1 is on track to be certified to fly on a synthetic fuel 
blend sometime this year. My question would be: How helpful 
would it be to the Air Force to be able to enter into multiyear 
contracts, beyond the statutory 5 years, perhaps out to 10 
years, when it comes to purchasing those types of fuels?
    Secretary Wynne. It's really crucial to making a market, 
because this is really about using the muscle of big government 
to make a market in a marketplace that's not there yet. You 
have to get beyond the timelines that the bankers require, to 
make sure that there is a successful market out there. We can 
take all of our payments, essentially, in fuel, but the fact of 
the matter is, we're going to need, probably, 5- to 7-year 
commitments out there, plus some options, to make sure that we 
are convincing to the marketplace, that they should invest, and 
it is a substantial investment, in these new alternative energy 
products and processes, to make sure that we're still going to 
be there as a consumer. It is my intent to be a consumer, to 
make a market, and not to be a producer.
    So, as we go forward in time, whether it's natural gas to 
liquid, coal to liquid, biofuels to liquid, whatever it is, we 
recognize that we have to have a long-term arrangement so that 
they can build the facility, produce the facility, and then 
we're still there to take the fuel.
    General Moseley. Senator, if I remember the numbers right, 
we burn a little over 4 billion gallons of fuel a year.
    Secretary Wynne. Right.
    General Moseley. Not all of that is jet fuel. We burn about 
7 million gallons of jet fuel a day. So, 4 billion gallons 
includes diesel and gasoline and jet fuel. Alternative energy 
and synthetic fuels are a big deal for us.
    Secretary Wynne. I will tell you, very proudly, that the B-
1 that we're about to qualify, the two-stage engines, is going 
to get us into the supersonic realm, and that allows me to 
branch out and now begin to qualify some supersonic fighters, 
as well as supersonic bombers.
    Senator Thune. Huge savings, I think, but also really 
important, in terms of our getting away from that dependence on 
petro dictators when it comes to our energy supply.
    So, General, Mr. Secretary, thank you very much for your 
service.
    General Moseley. Thank you, sir.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, thank you as always for your great service to 
our country. To those men and women who are sitting in blue 
behind you, thanks for the great job you do each and every day 
to make this world a safer place, and a safer place for my 
children and my grandchildren.
    I had a chance to speak to about 500 of your chief master 
sergeants earlier this week in Atlanta, and what a great bunch 
of men and women they are. They're really, really great 
leaders, and we all know they're doing a terrific job in 
providing the kind of leadership that makes America a safer 
place.
    Gentlemen, Senator Levin asked if the Air Force was using 
the DIA validated threat assessment, earlier, regarding how 
many F-22s you need. I believe you said that you were. One key 
issue regarding how many F-22s we need relates to how many 
advanced SAMs countries like Iran may have in the future.
    We just checked, and the DIA has those assessments and 
projections for the short-term, for 5 to 10 years, but not for 
any further. The OSD study assumes that Iran will have only a 
handful of advanced SAMs in 2024. However, as far as I can 
tell, there is no DOD assessment to support that number. If you 
have any comment on this, I would appreciate it.
    General Moseley. Sir, I would only say, relative to the 
threat assessment, as a squadron commander, you only know what 
you know. It's easy to build those systems, and it's easy to 
proliferate those systems; and so, you don't really know what's 
there until it shoots at you or you have the signature of it. 
The notion of a capability is probably the more critical of the 
opening arguments, equally to the numbers. The fact that the 
SA-20 or the SA-15 or the SA-10 exists, and the fact that they 
can be bought on the open market, and sold alongside the target 
tracking radars and early warning radars, is the threat that we 
worry about.
    Senator Chambliss. Gentlemen, at the DOD posture hearing 
earlier in February, Secretary Gates commented that we are 
fighting two wars, but that the F-22 has not performed a 
mission in either theater. Isn't it a fact that we have an 
awful lot of expensive weapons systems in our inventory that 
we've never used in Iraq, or in Afghanistan, but because we 
don't know who the next enemy's going to be, it's important 
that we have these weapons systems in our inventory, to make 
sure that we're always the world's strongest military?
    General Moseley. Yes, sir. If you'll let me defend my 
Secretary of Defense for a minute, I think he was answering a 
question about: Has the aircraft deployed, and have we got it 
out into the inventory? We have it in the Air Expeditionary 
Force rotation. We've used it for Operation Noble Eagle, but 
we've not deployed it into the theater. So, he's correct.
    However, the ability to have the capacity or the capability 
to defend against the threats that you described is the 
fundamental question.
    Senator Chambliss. Is it correct that the F-22 is designed 
to gain access and create and maintain air dominance?
    General Moseley. Yes, sir.
    Senator Chambliss. Is it correct that the F-22 has 
capabilities for gaining access and achieving air dominance by 
countering other advanced aircraft and SAMs that the JSF does 
not have?
    General Moseley. Yes, sir.
    Senator Chambliss. Is it correct that the JSF is optimized 
for the air-to-ground mission, and that, although it has some 
anti-access capability, it is not optimized for the anti-access 
mission?
    General Moseley. Yes, sir, and that's why our requirements 
are for both airplanes, and the requirements to have the 
synergy of both airplanes to be able to field that for the 
whole joint team.
    Senator Chambliss. The vision of the Air Force is that 
these two great weapons systems are to work hand in hand to 
make sure that we never have to worry about air dominance.
    General Moseley. Correct, sir.
    Senator Chambliss. I understand that, in 2015, when we are 
scheduled to be procuring 80 F-35s a year, that the cost per 
plane is estimated to be $77 million per copy. Is it true, 
however, that given all the uncertainties that go into weapons 
procurement programs, we really don't know how much the F-35 is 
going to cost?
    Secretary Wynne. Sir, we're just not producing airplanes at 
the rate of 180 a year, like we did the F-16. We're not 
producing them at the rate of 100 tankers, that we used to. So, 
our trend is definitely that our great plans for producing or 
acquiring 100 of these fine F-35s may not come true. In other 
words, if we reduce the manufacturing volume at any plant you 
can assume that the price is going to rise.
    Senator Chambliss. The F-15 has been a great weapon system, 
and a great fighter. General Moseley, as you said, you've been 
in that plane. Is there any value in purchasing any additional 
F-15s today?
    General Moseley. Sir, my personal opinion is no, because 
you can make the airplane reasonably lethal, but you can never 
make the airplane as survivable as the F-35 and the F-22. You 
can get a missile off of it, you can increase the ability of 
the radar to see a little bit, but you'd never make it as 
stealthy, you can't reduce the signature; therefore, you can't 
make the airplane as survivable.
    Senator Chambliss. Are there comparable aircraft flying, in 
the hands of other countries today, to the F-15?
    General Moseley. Yes, sir.
    Senator Chambliss. PA&E's Joint Air Dominance Study states 
that the Air Force only needs 183 F-22s, which is our current 
projected buy. This study assumed that, in 2024, of the two 
near-simultaneous major combat operations (MCOs) that the 
United States must be prepared to fight, only one of those MCOs 
would require the Air Force to defeat advanced SAMs. Do you 
agree with that assumption?
    General Moseley. Sir, we're working very hard to get those 
baselines right. We're working very hard with PA&E, and with 
the folks in OSD, to better understand those threat levels. My 
personal opinion is, we have to be prepared to deal in a 
variety of locations, in a variety of places, and a lot of that 
is threat-dependent. Your opponent gets to choose where they 
decide to fight, and in the numbers that they decide to fight. 
I think we should be prepared to deal across that full 
spectrum.
    Secretary Wynne. An interesting fact there is that these 
advanced integrated air defense systems are getting less and 
less expensive, and as people who have a tendency to use them 
are, in fact, accruing more and more wealth, it becomes just a 
decision on their part as to whether they want to engage.
    Senator Chambliss. Mr. Chairman, I know my time's up. I 
have a couple of more questions.
    Chairman Levin. Go ahead.
    Senator Chambliss. Thank you very much.
    The PA&E study also assumed that it would take 
approximately 10 days for the Air Force to achieve air 
dominance in the most stressing MCO, and then swing to another 
MCO. Do you agree with those assumptions? In your estimation, 
does TRANSCOM have the logistical network to support such a 
swing?
    General Moseley. Sir, as a guy that's commanded two air 
campaigns in combat, I would tell you that any projection on a 
week or 10 days is still adversary-dependent. What we would 
like to impose on an adversary and what actually happens may 
not necessarily work that way. It's back to the notion of, what 
can you afford, what capacity can you field, and what 
contingencies and what depth are you looking for? Given ideal 
circumstances, 10 days might work. But again, that's adversary-
dependent, and it's hard to bet the farm on something that is 
adversary-dependent.
    Secretary Wynne. I note that, in the Millennium Challenge, 
it was a Marine Corps general, I think, that was in command of 
the adversaries, and he did something so unusual that we 
actually had to restart the game. So, planning on how the enemy 
will react to you might not work out.
    Senator Chambliss. Has the Air Force ever proposed any 
reduction in the JSF to procure additional F-22s?
    General Moseley. No, sir.
    Senator Chambliss. The fiscal year 2009 budget request 
contains $497 million in F-15 operation and maintenance (O&M), 
presumably to fix the F-15s that are currently grounded due to 
fatigue and cracked longerons. I understand that there are 
currently nine F-15s that you've identified for longeron 
replacement, at a cost of $235,000 per plane, for a total of 
$2.1 million, and that these costs may be covered by fiscal 
year 2008 funds. Is that correct?
    General Moseley. That's what we understand, sir.
    Senator Chambliss. I understand that, based on the current 
funding profile, long-lead suppliers for the F-22 program will 
begin shutting down in the fall of 2008, and that procuring 
another four aircraft in the supplemental, as has been 
suggested, will keep these suppliers operating for another 2 to 
3 months. Again, is that what you've been advised?
    Secretary Wynne. Sir, that's up to every individual 
supplier. But, if you look at the profiles in which they are 
funding, the amount of funding that is available from four 
airplanes, and by the way, the cost of those airplanes will 
probably rise fairly dramatically, we're just not sure of the 
sufficiency.
    Senator Chambliss. Okay. The projected buy of F-22s today 
is 183. I understand that's a budget number, and it's what's 
been proposed by the Air Force. From a personal standpoint, 
General Moseley, do you think that number's enough?
    General Moseley. No, sir.
    Senator Chambliss. Secretary Wynne?
    Secretary Wynne. Sir, not being the warfighter, my reliance 
is on the outside agencies, and I think there's a study out 
there that basically says about 277 gets you to the minimum 
medium risk. So, that's what I would rely on. Otherwise, we're 
driven by affordability.
    Senator Chambliss. Okay.
    General Moseley. Senator Chambliss, I would offer, this has 
been a true affordability discussion inside the Department 
about trying to meet our top line in the fiscal guidance both 
for 2008 and the 2009 budgets. As we look at the POM10 budget, 
it is all about trying to get as much capability as we possibly 
can get into the budget, as we understand it, and the guidance 
that we've been given.
    Senator Chambliss. Let me just say to both of you 
gentlemen, obviously we've had a number of conversations about 
this particular weapons system, as well as others, including 
the C-17, I think it's a mistake to shut down that line. But, 
I've also had those same discussions with OSD and individuals 
in that office, and I appreciate your frankness. This committee 
operates somewhat independently, but yet dependent on what 
comes out of OSD. But, we're the ones that ultimately are 
charged with the decisions of how to spend the taxpayer money, 
and how much of it to spend. We can't do that without your 
being frank and straightforward with us. I want you to know I 
appreciate your doing that, in spite of the fact that you can 
have disagreements within the building over various issues. I 
would hope that those who have an opinion otherwise will allow 
us to continue discussion with them until we resolve this 
between Capitol Hill and the Pentagon.
    Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Chambliss.
    Senator Thune asked about long-term arrangements for 
synthetic fuels and alternative energy. Mr. Secretary, you 
talked about the desirability of making a market for that by 
entering into, potentially, long-term contracts. Is legislation 
required to do that?
    Secretary Wynne. As near as I can tell, sir, it is. The 
Defense Energy Supply believes that they have only a 5-year 
contract, and I think the companies are looking for 7 to 9 
years.
    Chairman Levin. Have you recommended to them that authority 
be----
    Secretary Wynne. We requested. Yes, sir, we have.
    Chairman Levin. Of them?
    Secretary Wynne. I've asked that they request the 
authority, because I don't want to go into the buying business. 
They should be in the buying business.
    Chairman Levin. You've asked them to ask Congress for 
increased authority?
    Secretary Wynne. Yes, sir.
    Chairman Levin. All right. Any memos that you can give us 
on that subject, we'd appreciate.
    Secretary Wynne. Okay.
    [The information referred to follows:]

    No formal memorandum from the Air Force has been issued. The Air 
Force expressed support for long-term contract authority for the 
purchase of synthetic fuels to the Defense Energy Support Center (DESC) 
in various meetings over the past several months. DESC was also 
supportive of the long-term contract authority and drafted a 
legislative proposal and we understand this proposal is in review at 
the Office of Management and Budget.

    Chairman Levin. I'll ask both of you, should we terminate 
the JSF alternate engine program?
    Secretary Wynne. Here's where we have to be very supportive 
of the President's budget.
    Chairman Levin. Why do you have to be supportive here, but 
not on the F-22s and not on the C-117s?
    Secretary Wynne. We're actually supportive of the 
submission. If you were to ask us for a personal opinion, I 
think we could perhaps offer you that.
    Chairman Levin. Okay, let's try a personal opinion.
    Secretary Wynne. On a personal level, we were very happy to 
have the F-16 fighters available when the F-15s got stood down 
because of cracking. To offer America reliability on the air 
dominance fighter fleet, it was nice to have two airplanes.
    One of the things we have here is the possibility of having 
two airplanes, but with one being a very short fleet and the 
other one supporting eight countries, you have to ask yourself: 
What reliability should be there? So, we looked to high 
reliability operations to ask the question. I'll note for you 
that, on the Shuttle, there are quadruple redundancies that 
would not make a business case; they only made a strategic 
reliability case. You have to look at: What is America doing in 
involving nine countries and essentially taking decisions on an 
affordability basis, and not looking at the statistics for 
reliability, and just pushing them all the way to the nines?
    Right now, the Pratt & Whitney engine is making its mark, 
and doing a great job. We expect that they will have problems 
downstream, because this is an aircraft program, and this is an 
engine program.
    Chairman Levin. In your personal judgment, should we cancel 
the alternate engine program?
    Secretary Wynne. I would tell you that's a very tough 
decision, but my personal opinion is, I would keep it alive.
    Chairman Levin. General? Your personal opinion on whether 
we ought to keep the program going or not.
    General Moseley. Sir, we do support the President's budget 
and the submission out of DOD. The issues on affordability, 
though, take us to these other discussions on a variety of 
levels.
    To use the money that would perhaps slip the entire program 
would not be advantageous to all of us. I believe there should 
be a second engine. My personal opinion is, there should be a 
second engine. We have had some problems with turbine blades on 
the F-35B.
    Sir, this goes back, again, to the affordability question, 
and it goes back to: How much money do we have to put into 
these programs to keep them online and on-time delivery?
    Secretary Wynne. Right.
    Chairman Levin. These issues always come back to 
affordability. That's what budgets are for, and that's what 
appropriations are for, and that's what priorities are for, and 
that's what judgment is for, and that's what difficult 
decisions are for, but nothing new about affordability being 
the issue, at the end of the day, that you have to figure out, 
what can you afford, what will you pay for, and what can't you 
pay for?
    On the readiness issues, on your list of unfunded 
priorities you don't make reference to readiness at all. I 
don't believe that the word appears there.
    General Moseley. Sir, we have several entries in there on 
modernization things, and on sustainment.
    Chairman Levin. Right. But, on the readiness issue, in 
terms of depot maintenance, 77 percent of the projected depot 
maintenance requirements are met in this budget, so that leaves 
a shortfall, on depot maintenance, of 23 percent. That's a 
pretty significant shortfall. Perhaps not quite as big a 
shortfall as last year; but, nonetheless, a shortfall. Is that 
troubling to you?
    Secretary Wynne. Depot maintenance is periodicity, as well 
as usage. I would say that those folks have managed to use 
productivity improvements and lots of things, but they have a 
list of things, to make them better, and I think part of this 
maintenance fee can be deferred, and that's what we're trying 
to judge. When you come to affordability, you build it up, 
section by section and level by level. We think that 77 percent 
gives them exactly what they need to make their mission.
    Chairman Levin. Are you comfortable with 77 percent, 
General?
    General Moseley. Senator Levin, I'd like to have it higher. 
I would like to have it so that we could maintain the aging 
systems until we can recap them with new systems. General 
Corley gave me a note the other day that said every dollar he 
spends on modifications to his existing inventory, 86 percent 
of that goes to safety and sustainment, with only 14 percent 
going to enhanced warfighting capability. I think that gives 
you a rough gauge on what the depots are doing for us. The 77-
or-so-percent number is a true baseline. We can survive with 
that, but we don't have the depth and the capacity, and we 
don't know what part of this old inventory is going to break 
next.
    Chairman Levin. Now, another readiness issue is the flying-
hour program. In your testimony last year, Mr. Secretary, you 
explained that the Air Force was increasing the risk in 
readiness accounts in order to protect modernization accounts. 
Your budget request last year included a 10 percent reduction 
in flying hours, compared to fiscal year 2007.
    General, you indicated last year that you had some 
discomfort with that reduction in flying hours, and you were 
trying to find ways to, as you, I think, put it, or we put it, 
``migrate funds back into the flying-hour program.'' But, the 
request for fiscal year 2009 included an additional reduction, 
it's a modest one, but, nonetheless, a continuing reduction, to 
the flying-hour program. We are concerned that the reductions 
in the readiness account are, like you say, budget-driven 
rather than driven by the operational requirements, safety 
requirements, and risk requirements.
    So, here's my question. Are you troubled, General, by this 
additional reduction in flying hours?
    General Moseley. Sir, there's two answers to that. I'm 
always troubled by the reduction in flying hours; but, in this 
budget, we also lose, I think, 270 aircraft out of the 
inventory, so we have less airplanes to fly. We've also 
restructured a bit of training command, so we take some of the 
time out of the undergraduate pilot training and undergraduate 
navigation training syllabus. So that particular piece, I'm 
comfortable with.
    The operational composite-force training, the preparation 
for Afghanistan and Iraq, or whatever we have to go do next, 
I'm less comfortable with that, and we work that, hard.
    Secretary Wynne. Senator, I think there's a mismatch of 
numbers here. What General Moseley's saying is that we think 
it's the mix of the fleet that actually caused the appearance 
of a reduction in flight hours; but per pilot, we have not 
reduced flying hours.
    Chairman Levin. Can you get us those figures, if we don't 
already have them?
    General Moseley. Yes, sir.
    Chairman Levin. If we do already have them, just let our 
staff know where they are because I think that's a very 
important distinction.
    Secretary Wynne. Yes, sir, we will.
    [The information referred to follows:]

    In the Air Force fiscal year 2009 President's budget submission, 
the active Air Force O&M flying hour program delta between fiscal year 
2008 and fiscal year 2009 was programmed at 26,968 FHs (2.5 percent 
reduction). Although all programs have minor changes, the major factors 
driving this decrease are:

          13,342 FHs for AETC T-38C - shift of student pilot production 
        from fighter to heavy aircraft to meet the Chief of Staff of 
        the Air Force's guidance to right size unit manning.
          5272 FHs for AETC F-15C/D anticipated force structure 
        reductions.
          5803 FHs for AETC F-16C/D - shift of student pilot production 
        from fighter to heavy aircraft to meet the Chief of Staff of 
        the Air Force's guidance to right size unit manning.
          2638 FHs for ACC F-117A - weapons system retirement.

    The programmed hours per crew per month (HCM) data:

------------------------------------------------------------------------
                                                        Fiscal Year
                                                 -----------------------
                                                     2008        2009
------------------------------------------------------------------------
Fighters \1\....................................        14.4        13.9
Bombers \2\.....................................        15.3        14.5
Tanker..........................................        15.1        15.1
Airlift.........................................        23.0        22.9
------------------------------------------------------------------------
Drivers of HCM change between fiscal year 2008 and fiscal year 2009
\1\ Fighters
  (1) MAJCOMs had the option to decide which aircraft's flying hour
  program to adjust and how many hours to adjust in each fiscal year to
  meet their ``10 percent'' flying hour program funding reduction.
  (2) DMO.
  (3) Common Configuration Implementation Program (CCIP).
\2\ Bombers
  (1) MAJCOMs had the option to decide which aircraft's flying hour
  program to adjust and how many hours to adjust in each fiscal year to
  meet their ``10 percent'' flying hour program funding reduction.

    Note: There were no explicit programmatic actions taken to reduce 
hours per pilot in fiscal year 2009. The HCM calculation used pilot 
numbers as of the end of the forth quarter for each year. As the pilot 
numbers catch up with the force structure drawdowns, the resultant 
fiscal year 2009 HCM will be closer to the fiscal year 2008 levels.

    Chairman Levin. I think you were, nope, almost made it. 
[Laughter.]
    General Moseley. We would be remiss.
    Chairman Levin. We're delighted that Senator Warner got 
here in the nick of time.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I was privileged to join with our Senate leadership in 
having a small meeting with His Majesty, the Prince of Jordan.
    The question I would ask is just to recite the pros and the 
cons, as you see it, of having a competitive engine process 
continue for the F-35 aircraft. I recognize the position of 
your Department. I respect that. But, just let's evaluate the 
pros and the cons of that issue.
    Chairman Levin. If I could interrupt, Senator Warner, when 
you were out, they crossed the Rubicon on this issue, in terms 
of their personal support for the second engine; they both 
expressed their personal support for it. I did not ask, 
however, your question, which is the pros and cons. I don't 
want to interrupt that, but since you weren't able to be here, 
I just wanted to bring you up to date.
    Senator Warner. Thank you very much. I appreciate that, Mr. 
Chairman.
    Secretary Wynne. Sir, as we start this, first of all, 
supporting the President's budget, it was arrived at from 
affordability. It was arrived at because the Pratt & Whitney 
engine was, in fact, going along very well, and seemed to be 
hitting its statistical levels. The impact on the program 
appeared to be that it failed the business case. So it did not 
get into the budget, and I think we, both of us, have that as 
our starting point.
    If I could, as Senator Levin said, cross the Rubicon once 
again to offer you, from a professional standpoint and a 
personal level, what the pros and cons could be, I would say it 
this way. I was very pleased to have two airplanes when the F-
15 developed cracks. The reason I was very pleased to be able 
to do that is, we swung a lot of F-16s in to support and 
essentially accomplish the mission of the F-15 while they were 
being examined for reflight. We were very pleased to have two 
engines for the F-16, sometime back, when we had an engine 
failure. Quite a few of our international partners had been 
here, and General Moseley had to go to all of our international 
flying partners on the F-15s to reassure them that America, in 
fact, produced a very high-reliable craft. He has accomplished 
that mission in a very good way. We have offered transparency 
in the reflight characteristics for that airplane, because they 
only have the single airplane as their air-dominant fleet. Here 
in the JSF, we now have a partnership across nine air forces.
    I would tell you that while it does not pass the business 
case, the question of, ``How much reliability should you have 
to ensure your air-dominance inventory is available to you'' is 
a question that has not really been asked, and it is where I 
came down on the side of continuing the investment, at this 
point.
    There is a secondary question: What kind of capability will 
you have in the future to grow your engine, design and 
manufacturing capability, and what kind of capability do you 
have there now? I think having the competitive forces at work 
allow you some mission creep, which is going to happen across 
our air fleet, and maintains the competition out there, which 
has proven itself to be somewhat apropos for the engine 
companies. It also has really helped in the international 
market, because the engine companies will compete.
    So, after assessing all of that, I would tell you, from 
where we are to look at the to-go costs versus a sum cost, I 
think the to-go costs are appropriate.
    Senator Warner. I thank you. So it really comes down 
against an array of advantages; i.e., competition, reliability, 
international partnerships; possibly, there's a variance in the 
thrust which could affect the vertical and/or short takeoff and 
landing aircraft versus the other plane. On the down side, it's 
just the difficult question of the dollar budget.
    Secretary Wynne. Yes, sir.
    Senator Warner. Is that about a summary of it?
    Secretary Wynne. I think you've hit it.
    General Moseley. Senator, that question of the dollar 
budget inside that program, we're all very sensitive to 
fielding that airplane on time.
    Secretary Wynne. Right.
    General Moseley. Not just the A model, but the B model and 
the C model for the Navy and the Marine Corps, to be able to 
bring that airplane online so we can move into the 21st century 
with the new capabilities. Any large programmatic cut inside 
that program puts those IOC times at risk.
    Senator Warner. In a few words, look elsewhere for the 
money.
    General Moseley. Yes, sir.
    Senator Warner. Thank you.
    General Moseley. Or, sir, help us protect the IOCs on these 
critical airplanes as we develop them and field them for the 
joint team.
    Senator Warner. I look forward to the challenges of working 
with each of you. You're a great team.
    I caught that little comment of yours when we started, Mr. 
Secretary: this could be your last budget presentation. We'll 
wait and see. But, in any event, I do know this will be my last 
hearing with the Department of Air Force on the posture of your 
Department. There will be others, I'm sure.
    Thank you very much.
    Chairman Levin. Thank you, gentlemen. We are adjourned.
    [Additional information submitted for the record:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Jack Reed
               energy development and range encroachment
    1. Senator Reed. Secretary Wynne and General Moseley, the 
Department of Defense (DOD) ``Strategic Plan for DOD Test and 
Evaluation (T&E) Resources'' (September 30, 2007) identifies 
encroachment threats which ``threaten the DOD's ability to conduct 
realistic and safe T&E.'' Among the principal challenges faced by DOD's 
test ranges, the plan identifies ``energy-related projects.'' 
Specifically, the plan identifies new energy production and 
transmission infrastructure, including energy corridors and wind farms, 
as range encroachment threats. The Air Force is actively pursuing the 
development of new energy production facilities on Air Force 
installations. Has the Air Force evaluated its drive for new energy 
projects against the potential for such projects to exacerbate 
encroachment issues at Air Force test and training ranges?
    Secretary Wynne and General Moseley. Yes. Each proposed energy 
project is evaluated through a rigorous planning process prior to 
approval. Ensuring there is no impact to mission is the first hurdle 
energy projects must overcome in the process.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                              f-22 fighter
    2. Senator Akaka. General Moseley, the F-22 has come under 
criticism of late for its lack of direct contribution to operations in 
Iraq and Afghanistan and the broader global war on terrorism. In the 
context United States Pacific Command, could you please outline the 
unique capabilities and advantages provided by the F-22 in performing 
missions, for example, in defense of South Korea or Taiwan that help us 
understand why it is so critical to invest in this weapon system?
    General Moseley. The F-22's primary mission is air dominance. It 
was designed from inception to dominate in the air-to-air fight, 
providing air superiority and targeting advanced surface-to-air missile 
systems. Our current legacy fighters have reached parity with foreign 
fighters and are unable to access high threat areas that contain 
advanced surface-to-air missile sites. The Raptor's combined attributes 
of integrated avionics, multi-role, stealth, advanced maneuverability, 
and supercruise give the F-22 unprecedented lethality and 
survivability. This allows the F-22 to access high threat areas that 
are defended by advanced surface-to-air missiles on day one of any 
conflict. In the defense of South Korea or Taiwan, the F-22 will fly 
into environments where our F-15s and F-16s can no longer operate in 
order to clear out the enemy fighters and begin to pick apart the 
enemy's integrated air defense systems. This air dominance mission is 
the Air Force's job number one--it enables all the other joint forces 
to operate by allowing them freedom from attack, freedom to maneuver, 
and freedom to attack.
    The F-22 has not been requested by Combatant Command (COCOM) 
commanders for operations in Iraq or Afghanistan. The Air Force has 
been operating over the skies of Iraq for the last 18 years and has 
obtained air dominance. Sufficient numbers of F-22s are required to 
meet the National Military Strategy requirements this Nation may face 
over the next 20 years and beyond. The current program of record 
provides the Air Force with 126 combat coded aircraft fielded in seven 
combat squadrons. Based on normal attrition, this combat force will 
steadily decrease over time and result in the Air Force closing an F-22 
squadron by 2014--only 6 years from now.

                             f-35a fighter
    3. Senator Akaka. General Moseley, the F-35A will primarily be 
replacing the aging fleet of F-16 and A-10 aircraft, most of which were 
acquired in the 1970s and 1980s to counter the Soviet air and air 
defense capability. Large attrition was expected had the Cold War ever 
turned ``hot'', which helped justify the large number of them procured. 
It is my understanding that the current number of F-35s that the Air 
Force wants to acquire will replace these aircraft on an approximate 
one-for-one basis. Please comment on the nature of the foreseen threat 
to American air operations over the operational life of the F-35 that 
helps explain the need for this kind of replacement ratio, given the 
technological capabilities of this new fighter.
    General Moseley. The technological capabilities of the F-35 are 
indeed greater than the legacy aircraft it will replace, but the threat 
we face today and in the future is much more lethal than the threat in 
the 1970s and 1980s when our legacy aircraft were designed and built. 
Fifth generation capabilities are required to survive and be lethal 
against the advanced threats that are both in development and in 
production. Today we face increasingly sophisticated Integrated Air 
Defense Systems (IADS) armed with significantly more lethal surface-to-
air and air-to-air missile systems. These systems possess far greater 
lethal ranges, greater detection ranges, and use missiles with greater 
maneuverability than in the past. We face enemy fighters with radar, 
missile, avionics, and performance capabilities that exceed the 
capabilities of our current systems and require us to field fifth 
generation aircraft to retain our advantage.
    The F-35 will be the Air Force's future core fighter for air-to-
ground strike operations. As such, the Air Force must build sufficient 
force structure to provide persistent global attack across the spectrum 
of air-to-ground missions against a large and diverse target set. The 
Air Force's total buy of 1,763 F-35s resulting from previous 
Quadrennial Defense Reviews (QDRs) was reviewed and remained unchanged 
in the 2005 QDR. It's important to note that the 1,763 F-35s will field 
and operate over a 47-year period (based on the planned procurement 
rate of 80 aircraft/year starting in fiscal year 2015, the period of 
operational service starts in 2013 and ends in 2060). This means that 
due to the 25 year production period as aircraft steadily enter the 
inventory, the peak number of 1,016 operational F-35s will not be 
reached until 2032. This inventory number then begins to decrease 
steadily 2 years later as early production aircraft enter retirement.
    Bottomline: 1,763 Air Force F-35s are required to ensure adequate 
force structure to meet national security requirements over the 
extended life cycle of the F-35.

    4. Senator Akaka. General Moseley, taking into account all the 
priorities of the Air Force, is a reduction in the total number of F-
35s procured a reasonable solution that will meet fiscal constraints 
and yet still protect adequate future capability?
    General Moseley. Recapitalizing and modernizing the force is one of 
the Air Force's three strategic priorities. The F-35A program is a key 
element contributing to that strategic priority and as such ranks among 
the Service's top five acquisition priorities. However, the F-35A 
program is a decades-long procurement process that culminates with 
1,763 aircraft in the 2030s. Reducing the total number of F-35As to 
address fiscal constraints without other viable alternatives will force 
the Air Force to a much smaller force structure resulting in a loss of 
capability and capacity and not meet the National Defense Strategy or 
National Military Strategy. The total number of F-35As with its 
persistent attack capabilities complements the air superiority 
capabilities of the F-22A, and their combined advanced combat 
capabilities provide air dominance to the Joint Force for freedom of 
maneuver, for enhanced interoperability with global partners, and for a 
strengthened national security.

                          domain of cyberspace
    5. Senator Akaka. General Moseley, the mission of the Air Force now 
includes fighting in the domain of cyberspace. We've recently heard 
testimony from the Director of National Intelligence and the Director 
of the Defense Intelligence Agency about the grave nature of the cyber 
threat now facing the data and infrastructure of American information 
systems by nations with an increasing ability to target these 
vulnerabilities. What do you feel are the inherent strengths of the 
current Air Force that position it to be the lead Service to handle 
cyberspace operations?
    General Moseley. Cyberspace operations are inherently fast-paced 
and dynamic, and require the capability to reach out anywhere across 
the globe in a moment's notice. This is an environment where the Air 
Force thrives, having developed the training, skills, and a culture of 
global reach and global power to rapidly strike our adversaries 
wherever they may hide. Cyberspace operations are not new to the U.S. 
Air Force. We have executed non-kinetic operations with more 
traditional kinetic operations and integrated them from the Air and 
Space Operations Center for many years. We count on cyberspace 
superiority for achieving both air and space superiority. We have also 
fielded diverse capabilities to hold our adversaries at risk in and 
through cyberspace across the globe. What is new, however, is the Air 
Force's leadership in recognizing the importance of this domain in 
modern warfighting, and our renewed emphasis in ensuring maximum 
effectiveness in organizing, training, and equipping airmen to meet the 
rapidly growing need of the warfighters. Our Nation's warfighting 
combatant commanders regularly use Air Force cyberspace operations 
capabilities. Air Force forces find themselves not only heavily engaged 
in achieving cyberspace superiority for U.S. Central Command, but also 
actively engaged with or in demand by all the other geographic and 
functional COCOMs.

    6. Senator Akaka. General Moseley, how will you and your successors 
prioritize allocation of resources to maintain capability in the three 
domains, given the very high capital costs of acquiring assets like 
high technology aircraft and space systems?
    General Moseley. The Air Force recognized that while pursuing air 
dominance through focused investment of resources, it had become 
increasingly dependent on space and cyberspace to provide desired 
effects. Accordingly, the Air Force committed to the strategic 
imperative of providing Global Vigilance, Global Reach, and Global 
Power through cross-domain (air, space, cyber) dominance to underwrite 
the security and sovereignty of the Nation. The standup of the new 
Cyber Command, along with Air Combat Command, Air Mobility Command, and 
Air Force Space Command, provides an organizational structure to 
support advocacy, awareness, priorities, and resource implications of 
cross domain requirements. The Air Force understands that loss of 
dominance in one could lead to loss of dominance in all and through 
continual assessment of the strategic environment will allocate 
resources to provide dominance in all three domains. The Air Force uses 
a variety of end-to-end processes to determine and implement cross-
portfolio prioritization--to include strategic planning, senior leader 
forums (e.g., CORONA and Blue Summit conferences), and the Air Force 
Corporate Structure with its senior leadership oversight and direction 
throughout the complete process.

                   next generation long range bomber
    7. Senator Akaka. General Moseley, you have argued that the F-35 
fighter will complement the advanced air-to-air capabilities of the F-
22, and that they are both needed to ensure a well-rounded 5th 
generation air power structure that can dominate air and space in the 
21st century. Given the proposed number of 1,763 F-35A strike aircraft 
that are requested by the Air Force, with their enhanced survivability 
and technology improvements over previous generations of multi-role 
fighters, what arguments would you use to justify the cost expenditures 
required for a next generation long-range bomber?
    General Moseley. While providing significant capability advances 
over the legacy fighters they'll replace, the F-35A is not optimized to 
conduct long-range, persistent, deep-penetration strike operations 
envisioned for the next generation bomber. The extended-range 
characteristics of the next generation bomber permit it to be employed 
from beyond the threat area thus mitigating anti-access and area denial 
strategies. The next generation bomber's high survivability, 
persistence in the threat area, and enhanced payload capacity of 
precision munitions ideally suit the platform for operating in 
environments beyond the capability of multi-role fighters and providing 
truly global power projection.

            Questions Submitted by Senator Claire McCaskill
                      cost estimating on the f-22
    8. Senator McCaskill. Secretary Wynne, the cost estimating systems 
at Lockheed Martin Aerospace have come under attack several times in 
the past few years. The cost estimating on the F-22 has been 
particularly questioned and, for some, puts the extremely high cost of 
the F-22 into question. I am aware that the Air Force, in a perfect 
world, wants to buy 380 F-22s, but because of its cost and limited 
budget room in DOD, you are being limited to buying about 180 F-22s. 
Some say this reduced buy produces a national security risk. When you 
pair the Air Force's desire for more F-22s with a potentially 
questionable process that has been used to establish costs for its 
development, one might conclude that perhaps we could buy more F-22s if 
we hadn't let faulty systems drive its cost up.
    Let me discuss some specifics that have me especially concerned. A 
July 2007 Defense Contract Audit Agency (DCAA) audit of Lockheed's cost 
estimating systems (Audit Report No. 3711-2006A24010501) ``disclosed 
eight significant deficiencies in Lockheed Martin Aerospace's 
estimating system that result in the development of noncompliant cost 
estimates,'' including vast noncompliance with DOD regulations and 
Truth in Negotiation Act violations (as expressed in the audit 
executive summary). The audit further found that, ``Lockheed Martin 
Aerospace's contract negotiators are often not informed by estimating 
personnel or the functional area of changes or updates to cost and 
pricing data that should be disclosed to the Government prior to final 
definitization of the contract price.'' The DCAA audit also noted that 
the control environment and accounting at Lockheed was inadequate as of 
April last year as well.
    In a June 22, 1998, memorandum, Bill Bullock, then the President of 
Lockheed Martin Aeronautical Systems, stated, ``Lockheed Martin 
Aerospace must have a measurement system that is capable of providing 
the information and data we need to manage the company . . . our 
current program and functional reviews are not capable of providing 
what we need'' (underline in original).
    Finally, I am informed that there was a February 19, 2008, meeting 
between numerous senior Air Force and Office of the Secretary of 
Defense (OSD) Under Secretary of Defense for Acquisition, Technology 
and Logistics officials to discuss Lockheed Martin's plan to get their 
cost estimating system compliant. Such a high level meeting seems to 
indicate that there are serious problems at Lockheed. How confident are 
we that the cost of the F-22 is not based on faulty cost estimating by 
Lockheed Martin?
    Secretary Wynne. The Air Force is confident F-22 costs are not 
based on faulty data. The contracts to procure F-22s are firm fixed 
price contracts and were negotiated with Lockheed Martin. As part of 
the negotiation process, the Air Force is required to have its own cost 
position independent of Lockheed Martin. In addition, there is enough 
historical data from previous lots, actual costs incurred, and enough 
insight by the Defense Contract Management Agency (DCMA) to assist in 
driving overhead costs as low as possible that the Air Force is 
confident it is receiving a fair and reasonable price for each lot of 
aircraft. Because multi-year procurement authority was provided by 
Congress, the Government receives the benefit of financial stability 
and obtains most efficient use of Lockheed Martin's supply chain and 
economic ordering.

    9. Senator McCaskill. Secretary Wynne, what is being done to 
address Lockheed Martin's cost estimating faults in general?
    Secretary Wynne. The Air Force, in coordination with DCMA formally 
notified Lockheed Martin Aerospace on August 7, 2007, of their 
estimating deficiencies identified in DCAA Audit Report 3711-
2006A24010501 via a DCMA Level II Corrective Action Request (CAR). The 
CAR listed the deficiencies and requested a formal, comprehensive 
Corrective Action Plan (CAP) by September 10, 2007. Prior to the audit 
being issued, the contractor had already started corrective actions 
based on preliminary findings. Those early responses by the contractor 
were captured in the CAP along with the detailed actions requested by 
DCMA. Biweekly meetings among DCMA, DCAA, and Lockheed Martin Aerospace 
took place in conjunction with those early responses. These meetings 
continue to take place to address the contractor's progress. 
Additionally, DCAA has begun its field work on their follow-up audit to 
assess the contractor's implementation of the CAP and should issue a 
report in July 2008.

    10. Senator McCaskill. Secretary Wynne, how are they affecting 
Lockheed's work on other Air Force programs, such as the JSF and C-5 
RERP?
    Secretary Wynne. The DCMA audit of Lockheed Martin's Earned Value 
Management System (EVMS) highlighted some shortcomings that may be 
impacting the Joint Strike Fighter (JSF) program office's ability to 
accurately project future performance based on earned value data. The 
JSF program office will continue to work with DCMA and Lockheed Martin 
to correct the deficiencies in the EVMS.

    11. Senator McCaskill. Secretary Wynne, what has the Air Force done 
to address the issues raised in the DCAA audit discussed herein (Audit 
Report No. 3711-2006A24010501)? Please be very specific.
    Secretary Wynne. The Air Force, in coordination with DCMA, formally 
notified Lockheed Martin Aerospace on August 7, 2007, of their 
estimating deficiencies identified in DCAA Audit Report 3711-
2006A24010501 via a DCMA Level II CAR. The CAR listed the deficiencies 
and requested a formal, comprehensive CAP by September 10, 2007. Prior 
to the audit being issued, the contractor had already started 
corrective actions based on preliminary findings. Those early responses 
by the contractor were captured in the CAP along with the detailed 
actions requested by DCMA. Biweekly meetings among DCMA, DCAA, and 
Lockheed Martin Aerospace took place in conjunction with those early 
responses. These meetings continue to take place to address the 
contractor's progress. Additionally, DCAA has begun its field work on 
their follow-up audit to assess the contractor's implementation of the 
CAP and should issue a report in July 2008.

    12. Senator McCaskill. Secretary Wynne, has the Air Force recovered 
any payments made to Lockheed Martin where faulty cost estimating led 
to overbilling? If not, why not?
    Secretary Wynne. Lockheed Martin credited the JSF contract via a 
voucher (invoice) for the $126,637,869.76 billing error. In addition, a 
deposit of $28,346,781.00 was returned to the General Treasury for 
interest. The amounts identified and returned to the Air Force were a 
self-disclosed error that Lockheed Martin found within their award fee 
arrangement with their subcontractors and not a result of any cost 
estimating system issues.
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
                       air refueling tanker fleet
    13. Senator Collins. Secretary Wynne and General Moseley, there has 
been much debate over the past few months about a split buy for the air 
refueling tanker fleet, and it was reported recently that the Air Force 
may be reconsidering its stance on its current acquisition strategy to 
support a winner-take-all position. I would encourage you to explore 
all options that will provide a best value capability and best value 
solution for our service men and women and the American taxpayer. 
Please comment on the current acquisition strategy for this program and 
the capabilities that each proposal would provide the Air Force.
    Secretary Wynne and General Moseley. The Air Force considered a 
split buy approach when it developed the KC-X acquisition strategy in 
2006. We decided against split buy because it was not affordable. Such 
an approach would double the development costs and $3 billion annual 
production costs and complicate manpower and logistics by creating two 
production lines, two support networks, and two training systems. OSD 
approved the winner-take-all acquisition strategy just prior to release 
of the Request for Proposal (RFP) in January 2007; they reaffirmed this 
approach during a review in preparation for the KC-X Defense 
Acquisition Board in February 2008. The Air Force remains committed to 
a winner-take-all strategy. A decision to direct a split buy at this 
point would require termination of the awarded contract and a new 
competition, delaying the recapitalization of today's 47-year-old fleet 
at least 18 to 24 months.
    Conducting a competition to select the KC-45 has served the 
warfighter and taxpayers very well. Both competitors offered viable 
solutions but Northrop Grumman was selected because their proposal 
represented the best value solution based on an integrated assessment 
of the evaluation factors. Since a protest has been filed with the GAO, 
we cannot discuss specifics about the proposals or any issues under 
review.

    14. Senator Collins. General Moseley, based on the results of the 
initial award for the KC-X program, size does seem to have mattered 
apparently. Ultimately, the commitment to this aircraft will come at a 
cost of some other capability that the Air Force needs to meet its 
missions. It is my understanding that this award was to be a best value 
solution, is that correct? If so, are you concerned about the increased 
life cycle costs that logically come from supporting the KC-45 aircraft 
as the air refueling choice for the tanker fleet?
    General Moseley. The Air Force articulated requirements based on 
capability, not on size. It was the offerors' responsibility to propose 
a solution that met the requirements in the RFPs and provided the best 
overall value to the government. They were free to offer a tanker of 
any size. There was also nothing to preclude them from offering more 
than one aircraft.
    Northrop Grumman was awarded the contract because they proposed the 
best value solution. We were concerned about life cycle costs, and in 
fact, it was one of the five evaluation factors. Life cycle costs 
include development and production costs as well as operation and 
support costs. These were considered in making the best value 
determination.
    The RFP stated the contract would be awarded on a ``best value'' 
basis using the following factors:

          (1) Mission Capability which included Key System 
        Requirements, System Integration and Software, Product Support, 
        Program Management, and Technology Maturity and Demonstration,
          (2) Proposal Risk (evaluating potential weaknesses of an 
        offeror's proposal),
          (3) Past Performance (recent and relevant),
          (4) Cost/Price (based on a Most Probable Life Cycle Cost 
        (MPLCC) analysis), and
          (5) Integrated Fleet Aerial Refueling Assessment (IFARA).

    Factors 1 through 3 were of equal importance and individually more 
important than Cost/Price and IFARA. Cost/Price and IFARA are of equal 
importance. Factors 1, 2, 3, and 5 combined are significantly more 
important than Cost/Price.

    15. Senator Collins. Secretary Wynne, fiscal constraints need to be 
considered over the life of the program to help in determining best 
value. Where did life cycle cost factor into the evaluation criteria 
for this program?
    Secretary Wynne. Life cycle cost was one of the five evaluation 
factors. It was of less importance than mission capability, proposal 
risk, and past performance but it was equal in importance to the IFARA 
which analyzed the offerors' aircraft in a wartime scenario.

    16. Senator Collins. Secretary Wynne, based on the general 
reactions that I am hearing about the award, I want to ensure, as do my 
colleagues, that the process used for this evaluation was sound. Please 
provide information on the process and evaluation criteria used for 
this important competition.
    Secretary Wynne. The Air Force had extensive dialogue with the 
offerors through a Request For Information, Industry Days, and two 
draft RFPs in 2006. This dialogue promoted a clear understanding of the 
requirements and evaluation factors prior to the start of the 
competition. During the source selection, we spent an unprecedented 
amount of time to gain a thorough understanding of their proposals. 
Through hundreds of formal exchanges, including three face-to-face 
interim reviews, we provided the offerors feedback on the strengths and 
weaknesses of their proposals. We also shared government cost estimates 
during interim reviews; in the past, this typically was done during the 
post-award debriefings. Near the end of the source selection, both 
offerors praised the Air Force for the way the source selection was 
conducted.
    The requirements were fully vetted through the Joint Requirements 
Oversight Council, which validated them in December 2006. The 
requirements are still the same today. For the source selection, the 
requirements were articulated in the System Requirements Document, 
which was released with the final RFP. The DOD Inspector General issued 
a report on May 30, 2007, that stated the requirements were properly 
established and documented.
    As mentioned above, a best value determination was made based on an 
integrated assessment of the five evaluation factors: mission 
capability, proposal risk, past performance, Cost/Price, and the IFARA.
    The requirements and the five evaluation factors did not change 
after the final RFP was released on January 30, 2007.
                                 ______
                                 
               Questions Submitted by Senator John Thune
                        active association units
    17. Senator Thune. Secretary Wynne, you note in your prepared 
testimony that the Air Force ``is already the model for melding its 
Guard, Reserve, and civilians with its Regular Air Force elements,'' 
and I wholeheartedly agree. You also state that you are looking to 
``push this synergy to new levels.'' One of the ways the Air Force is 
doing this is through Active Association Units, which I understand is a 
program that brings Active Duty airmen and mechanics to Air Guard bases 
to receive training from their more seasoned Air Guard counterparts. 
Please provide more details about this program, such as how many Active 
Association Units currently exist, where they're located, and what the 
process is for an Air Guard base to obtain an Active Association Unit?
    Secretary Wynne. There are currently 22 Chief of Staff of the Air 
Force-approved Active Associations on the Total Force Integration (TFI) 
List.
    The type of Association and their respective locations are:


  F-16, Dannelly Field, AL                  C-130, Elmendorf AFB, AK
  C-130, Peterson AFB, CO                   C-21, Petersen AFB, CO
  A-10, Engine CIRF Bradley IAP, CT         F-16, Homestead ARB,FL
  F-22, Hickam AFB, HI                      KC-135, Hickam AFB, HI
  C-40, Scott AFB, IL                       C-21, Scott AFB, IL
  F-15, Engine CIRF NAS New Orleans, LA     A-10, Barksdale AFB, LA
  C-21, Martin State, MD                    A-10, Whiteman AFB, MD
  RED HORSE, Seymour Johnson AFB, NC        C-130, Pope AFB, NC
  KC-135, Seymour Johnson AFB, NC           RED HORSE, Charleston AFB,
                                             SC
  F-16, McEntire AFB, SC                    F-16, NAS Ft Worth, TX
  C-130, Cheyenne MAP, WY                   F-16, Burlington AGS, VT


    The objective of the TFI associations is to meet Air Force 
operational mission requirements by aligning equipment, missions, 
infrastructure, and manpower resources to enable a more efficient and 
effective use of Air Force assets. While the desire for associations is 
on the rise, proposed TFI initiatives require concurrence between both 
gaining and associating MAJCOMs, and must satisfy an existing MAJCOM/
COCOM requirement. Headquarters Air Force, in close coordination with 
MAJCOMs and the National Guard Bureau, develop missions and identify 
potential integration opportunities that satisfy current and future 
capabilities requirements that align with national security 
requirements. Prior to making any TFI association decisions, the Air 
Force takes into considerations factors such as facilities, 
environmental impact, available manpower, usable airspace, and current 
number of aircraft. Additionally, there is a prerequisite to craft and 
submit a TFI Initiative Review Worksheet and gaining MAJCOM/NGB legal 
review of the proposed initiative. The initiative must then be vetted 
through the Air Staff, approved by the Chief of Staff of the Air Force, 
and must ultimately compete for funding in the Air Force budget. A 
summary of the complete TFI vetting process can be found in AFI 90-
1001.

                   total force integration initiative
    18. Senator Thune. Secretary Wynne, could you comment on the Air 
Force's ongoing TFI Initiative and how important it has been to you?
    Secretary Wynne. TFI continues to be a fundamental element of Air 
Force transformation. TFI creates efficiencies, retains invaluable 
human capital, and, above all, increases the capabilities of all the 
Air Force components. It encompasses new technology, new concepts of 
operation, and new organizational constructs. The Air Force's 
transformation to a more dynamic, integrated Total Force extends to all 
areas of Air Force operations. Integration initiatives range from Rapid 
Engineer Deployable Heavy Operational Repair Squadrons (RED HORSE) to 
space and cyberspace operations. In order to produce a smaller, more 
capable, more affordable Air Force, all areas of operations must be 
reviewed for efficiencies and integration opportunities. The Air Force 
is committed to recapitalizing the force by changing organizational 
constructs in a way that defends against, deters, and defeats every 
adversary in any future challenge to the American way of life.
    To date, 130 individual initiatives are either being developed or 
are under investigation by integrated process teams. Some are near 
completion, such as the classic association of Regular Air Force and 
Reserve personnel on F-16s at Hill AFB, UT and the classic association 
of Regular Air Force and Air National Guard personnel on F-22s at 
Langley AFB, VA, both outstanding success stories. TFI has led to new, 
ground-breaking organizational constructs. The first ever Air Force 
Reserve and Air National Guard association in the KC-135 at Tinker AFB, 
OK, is bringing the inherent strengths of these two components together 
into one organization. In the future, full integration of the Air Force 
components at all levels of organizational construct should be one of 
the going-in assumptions as we beddown future weapon systems.
                                 ______
                                 
              Questions Submitted by Senator Roger Wicker
                          new tanker aircraft
    19. Senator Wicker. Secretary Wynne and General Moseley, what is 
the status of the current decision on where to locate the new tanker 
aircraft?
    Secretary Wynne and General Moseley. The KC-45 program is still in 
a very early stage of development, and analyses regarding future tanker 
basing are not complete. The first beddown locations are Edwards for 
testing and Altus for the Formal Training Unit. Beyond those two 
locations, the phasing and basing of the KC-45 will be based on several 
criteria, including objective operational requirements and 
environmental studies in accordance with the National Environmental 
Policy Act. As we make these decisions, the Air Force will optimize 
timing and placement of weapons systems in the best interest of our 
Nation's defense.

    20. Senator Wicker. Secretary Wynne and General Moseley, could you 
discuss if the Air Force plans to begin retiring the KC-135 before the 
new tanker arrives in the field?
    Secretary Wynne and General Moseley. Fiscal year 2009 President's 
budget procures 44 KC-45A aircraft with 17 scheduled to be delivered by 
the end of fiscal year 2013. Fiscal year 2009 President's budget does 
not retire any KC-135R aircraft. There will be no KC-135R retirements 
before the KC-45A arrives in the field. However, the National Defense 
Authorization Act (NDAA) for Fiscal Year 2008 allows the retirement of 
48 KC-135E air refueling aircraft with provisions for more pending a 
successful KC-45A contract award and the resolution of any contract 
protest. The Air Force will retire 48 KC-135E air refueling aircraft in 
fiscal year 2008 with the remainder retiring before the end of fiscal 
year 2009.

                            air guard bases
    21. Senator Wicker. Secretary Wynne and General Moseley, it is 
critical to maintain the proficiency of our pilots, crews, and 
maintenance personnel at our Air Guard bases, and we should ensure the 
capacity and flexibility these bases provide the Air Force is not lost. 
If some of the Air Guard bases lose their refueling mission, such as 
the 186th Air Refueling Wing at Key Field, MS, what can we do to ensure 
that these bases receive a new mission, such as a lift capability 
mission?
    Secretary Wynne and General Moseley. The Air Force agrees that it 
is critical to preserve the skills, experience, and proficiency of our 
Guardsmen at locations where aircraft are scheduled to be reassigned 
under BRAC. As such, we have worked closely with the National Guard 
Bureau, the Air National Guard, and leadership at the other Major 
Commands to identify future missions for all of these locations. In 
addition, we have identified transition, or bridge, missions for Guard 
locations scheduled to lose their aircraft before a new mission can 
begin.
    The 186th Air Refueling Wing in Meridian, MS, is one such unit. The 
Air Force has identified Meridian as a location scheduled to receive 
the C-27B (JCA) mission. Since the KC-135Rs are scheduled to be 
reassigned in fiscal year 2011, the transition mission for the 
Mississippi Air National Guard will be flying the C-17 aircraft 
assigned to the 172nd Airlift Wing in Jackson, MS. This premier 
airlifter has an identical crew complement and similar mission to the 
C-27, and will serve as an ideal platform to develop the necessary 
skills for transition, as well as preserve the experience and 
proficiency of the Mississippi Air National Guard crews.
    Meridian is also identified as a location for a Component Numbered 
Air Force mission, or C-NAF, beginning in 2011. This mission will begin 
after reassignment of the KC-135R aircraft. Some retraining will be 
required, but the skills and experience of the Mississippi Air National 
Guard will prove invaluable to this new, emerging mission. While some 
details remain to be finalized, it is expected this mission will 
require approximately 300 guardsmen.

                         c-17 and c-5 aircraft
    22. Senator Wicker. Secretary Wynne and General Moseley, does the 
current force of 301 C-17 and C-5 aircraft meet the Department's 
strategic airlift requirements, and if so, is it the Department's 
intent to allow the C-17 production line to shut down?
    Secretary Wynne and General Moseley. The current fleet does not 
satisfy the Department's strategic airlift requirements. The 2005 
Mobility Capabilities Study (MCS 05) set the baseline for a strategic 
airlift fleet ranging from 292 to 383 C-5 and C-17 aircraft. The study 
concluded that 112 fully modernized and reliability enhanced C-5s were 
required. The 2007 National Defense Authorization Act further refined 
the low end of that range by directing the Secretary of the Air Force 
to maintain a fleet of at least 299 strategic airlift tails. Of these, 
111 fully modernized C-5s became the standard as the Air Force lost 1 
aircraft in a crash at Dover AFB.
    However, the C-5 RERP Nunn-McCurdy process reduced the programmed 
number of fully modernized or RERP'd C-5s from 111 to 52. The capacity 
shortfall left by excluding the remaining 59 C-5As from the RERP 
program is equivalent to 8 C-17s. This shortfall is based on a Joint 
Requirements Oversight Council validated organic strategic airlift 
capacity of 33.95 million ton miles/day (MTM/D).\1\
---------------------------------------------------------------------------
    \1\ Includes C-5 and C-17 contribution only.
---------------------------------------------------------------------------
    Additional changes since publication of MCS 05 include Future 
Combat System Manned Ground Vehicle growth beyond C-130 transport 
capability, introduction of the Mine Resistant Ambush Protected (MRAP) 
vehicle, a 92,000 increase in Army and Marine forces, and the stand up 
of Africa Command. The next opportunity to gauge the effects of these 
changes on the airlift fleet will be the Mobility Capability 
Requirements Study 2008 (MCRS 08) due in summer 2009. Similar to MCS 
05, MCRS 08 will include analysis of sealift and prepositioned 
requirements.
    Without additional procurement, the C-17 production will begin to 
shut down in 2008. The last C-17 delivers in August 2009, which 
includes Air Force and foreign sales. Although the last delivery is not 
until late fiscal year 2009, the 34-month C-17 manufacturing span time 
dictates that procurement must significantly precede delivery. Boeing 
is currently protecting the manufacturing schedule by putting company 
funds at risk; however, without additional orders (i.e., fiscal year 
2008 global war on terror additions), it is anticipated that Boeing 
will cease production.

    [Whereupon, at 12:01 p.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        THURSDAY, MARCH 6, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

   UNITED STATES SOUTHERN COMMAND AND UNITED STATES NORTHERN COMMAND

    The committee met, pursuant to notice, at 9:36 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Bill Nelson, McCaskill, Warner, Inhofe, Collins, Thune, and 
Martinez.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Richard W. Fieldhouse, professional 
staff member; Gerald J. Leeling, counsel; Thomas K. McConnell, 
professional staff member; Michael J. McCord, professional 
staff member; William G.P. Monahan, counsel; and William K. 
Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Robert M. Soofer, professional staff member; 
Richard F. Walsh, minority counsel; and Dana W. White, 
professional staff member.
    Staff assistants present: Fletcher L. Cork, Jessica L. 
Kingston, and Benjamin L. Rubin.
    Committee members' assistants present: Frederick M. Downey, 
assistant to Senator Lieberman; Elizabeth King, assistant to 
Senator Reed; Richard Kessler, assistant to Senator Akaka; 
Christopher Caple, assistant to Senator Bill Nelson; M. 
Bradford Foley, assistant to Senator Pryor; Gordon I. Peterson, 
assistant to Senator Webb; Sandra Luff, assistant to Senator 
Warner; Anthony J. Lazarski, assistant to Senator Inhofe; Mark 
J. Winter, assistant to Senator Collins; Jason Van Beek, 
assistant to Senator Thune; and John L. Goetchius, assistant to 
Senator Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody. The committee 
meets this morning to hear from two regional combatant 
commanders with responsibility for the Western Hemisphere, 
General Gene Renuart, Commander, U.S. Northern Command 
(NORTHCOM) and of the North American Aerospace Defense Command 
(NORAD); and Admiral James Stavridis, Commander of the U.S. 
Southern Command (SOUTHCOM). We thank you both for your 
service, your personal service, your family support. We're 
particularly grateful, as we hopefully never miss saying, to 
the men and women who you lead for their commitment and service 
to this Nation, and also to their families, and we would 
appreciate your extending our gratitude, this committee's 
gratitude, to those men and women.
    NORTHCOM was established in October 2002 after the 
terrorist attacks of September 11, so it's a relatively new 
command. It has the missions of Homeland defense and providing 
military support to civil authorities for response to domestic 
disasters, whether natural or manmade, including a terrorist 
attack using conventional weapons or weapons of mass 
destruction (WMD).
    NORAD is a binational command with Canada, responsible for 
protecting the approaches to the North American continent. 
General Renuart assumed command of NORTHCOM and NORAD 1 year 
ago. We look forward to hearing his report on what has happened 
during the last year and what is planned for the future with 
this dual command.
    Last month we received the report of the Commission on the 
National Guard and the Reserves. It contained a number of 
findings and recommendations relative to NORTHCOM and the role 
of the National Guard in domestic disaster response. Some of 
these findings and recommendations were controversial and some 
were critical of NORTHCOM. For example, the Commission 
recommended that the Governors of our States should be able to 
direct Active-Duty military forces in their States to respond 
to emergencies. The Commission also recommended that NORTHCOM 
be required to have a majority of its headquarters personnel 
with National Guard or Reserve qualifications. The Commission 
also suggested that NORTHCOM's planning and capabilities to 
support a Federal response to a domestic attack involving WMD 
are inadequate. We look forward to hearing General Renuart's 
views on the findings and recommendations of the Commission's 
report.
    The committee also welcomes Admiral Stavridis, Commander of 
SOUTHCOM, who's responsible for an area including Latin America 
south of Mexico, the countries and territories of the 
Caribbean, as well as the surrounding waters. The greatest 
challenges here include State stability and illicit drug 
trafficking.
    We're now entering the 8th year of U.S. assistance to 
Colombia in its fight against narcoterrorists. The Colombian 
Government has made great strides regaining territory and 
establishing a government presence in local municipalities. 
Over 30,000 paramilitaries have been demobilized and the 
Revolutionary Armed Forces of Colombia (FARC) numbers about 
9,000 fighters, down from an estimated 12,000 to 18,000.
    The FARC, which is the captor of about 750 hostages, 
including 3 Americans, remains a threat to Colombian society 
and to human rights. President Uribe has again instituted a 
one-time wealth tax to raise money for the fight against the 
narcoterrorists and has committed his government to local 
development and to improving Colombia's human rights record.
    Our government is working with Bogota to assist them in 
economic development, judicial reform, and human rights, and we 
will continue to push for implementation of those aspects of 
Colombia's plan.
    The illicit drug problem that Colombia is fighting is one 
that threatens the entire hemisphere. According to the 
Department of State (DOS) 2008 International Narcotics Control 
Strategy Report that was released last week, Colombia's 
neighbor Venezuela ``is a major drug transit country with 
rampant high-level corruption and a weak judicial system.''
    Recent increases in the price of cocaine in the United 
States have apparently been the result of the Mexican 
Government's crackdown on drug cartels, not, for example, a 
result of the millions of dollars that we have poured into 
eradication into Colombia. In light of this, the committee will 
want to hear what we can do to forge a counterdrug strategy for 
the Western Hemisphere that applies U.S. assistance most 
effectively.
    We also hope to hear SOUTHCOM's perspective regarding the 
leadership change in Cuba, and United Nations (U.N.) 
peacekeeping operations in Haiti. With the direct 
responsibility of the command, Admiral Stavridis, we would also 
like to have your assessment of the ongoing detention and 
interrogation operations at Guantanamo Bay.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Mr. Chairman, I take note that we have a 
vote at 10:50. Therefore, I'll ask to have my statement placed 
in the record so that the committee can receive the testimony.
    Chairman Levin. We appreciate that.
    Senator Warner. I'd like to make a comment. General 
Renuart, in our discussions yesterday I raised the issue of the 
Commission on the National Guard and Reserves, headed by Major 
General Arnold Punaro. I said you'd be given an opportunity 
this morning to reply to some of their observations. It is a 
commission that this committee established and I think on the 
whole they did some very constructive work. This happens to be 
one of the more controversial elements and we welcome to hear 
your testimony.
    Admiral, I'm interested in how you have stressed the need 
to include economic, political, and social developments as part 
of your overall approach, just not heavy--well, heavy emphasis 
on, the needed emphasis on the military, but you recognize that 
in your area of responsibility that is a very heavy component 
of what you achieve.
    Your thoughts on Plan Colombia--that was a bipartisan 
achievement of this committee some several years ago, that 
seems to have worked.
    Mr. Chairman, I felt your statement was very comprehensive, 
so I'll just put mine in the record. But I also join you in 
expressing our appreciation to our witnesses today and their 
families and the men and women under their command for doing 
such an outstanding job. Thank you.
    [The prepared statement of Senator Warner follows:]
               Prepared Statement by Senator John Warner
    Thank you, Mr. Chairman. I join you in welcoming our witnesses here 
today. I would like to thank General Renuart and Admiral Stavridis for 
their long and distinguished service to our Nation. I also wish to 
convey my deep appreciation for the fine men and women serving in your 
command. While much of our attention is focused in other theaters, we 
cannot neglect our responsibility to protect the Homeland and our vital 
national interest in the Western Hemisphere. As combatant commanders, 
we value your insights on the challenges facing your respective areas 
of responsibility. We also welcome your assessment of the fiscal year 
2009 defense budget request.
    We welcome General Victor Renuart, Commander of U.S. Northern 
Command (NORTHCOM). NORTHCOM, stood up in 2002, has the important 
mission of providing both Homeland defense and defense support to civil 
authorities, drawing upon Active-Duty, Reserve, and National Guard 
units. Over the past few years, NORTHCOM has experienced growing pains 
associated with military planning, interagency coordination, equipment 
shortages, and its relationship with the National Guard and Reserve.
    On January 31, the Commission on the National Guard and Reserve, 
headed by Major General Arnold Punaro, submitted its report and 
recommendations regarding the role and mission of the Reserve 
components. The Commission generated some controversy with its 
assessment that current planning for crises within the United States is 
deficient and that the Defense Department is not prepared to play a 
primary role, at the President's direction, in restoring order and 
providing assistance in the aftermath of weapons of mass destruction 
(WMD) events and other incidents likely to produce mass casualties.
    This committee conducted a hearing on the Commission's report on 
February 7. I entered into the record at that hearing the official 
response of NORTHCOM to the Commission's report, which stated: ``U.S. 
NORTHCOM's primary mission is Homeland defense, and the command stands 
ready to respond to any Homeland defense or civil support mission 
requirement. . . . Americans can be assured the U.S. military is ready 
and capable of responding to attacks within the United States.'' This, 
along with Assistant Secretary of Defense McHale's public comments, was 
reassuring. I'm aware that the Department is preparing a formal 
response to the most recent report of the Commission, but I hope we can 
learn more from you today about the Nation's readiness to deal with the 
consequences of a WMD event that is likely to quickly overwhelm the 
capability of local first responders.
    We also welcome Admiral Stavridis, Commander of U.S. Southern 
Command (SOUTHCOM) who has the awesome responsibility of fostering 
peace and stability in our Western Hemisphere. We often forget how 
vital Latin America is to our national interests. Our national defense 
is intricately tied to the prosperity and security of our southern 
neighbors. SOUTHCOM's area of responsibility, comprised of 32 nations, 
represents a region full of diverse challenges and opportunities. It 
requires a comprehensive approach--to include economic, political, and 
social development. Under your command, SOUTHCOM has embarked on an 
ambitious reorganization that embraces this concept. I am confident 
your efforts will serve as model for other combatant commands. I look 
forward to hearing about your progress integrating various components 
of the interagency into your command.
    SOUTHCOM is responsible for what is perhaps one of this committee's 
greatest bipartisan achievements--Plan Colombia. For years, Colombia 
teetered on the brink of being a failed state. Today, Colombia has 
emerged from being a nearly failed state to one that has aggressively 
disrupted narco-trafficking in the country and gained control over 
regions and towns once controlled exclusively by the terrorist group, 
the Revolutionary Armed Forces of Colombia (FARC). Today, Colombia is a 
functioning democracy and our best partner in the region, but there is 
still much work to do. Earlier this week, Colombian forces killed a 
senior FARC rebel in Ecuador, which prompted Venezuela and Ecuador to 
close their embassies in Bogota and send troops to their Colombian 
borders--raising tensions between the three nations. I look forward to 
hearing your assessment of this recent development and the role we 
might play to enhance stability there and throughout the region.
    In addition to recent troop movements in Venezuela and Ecuador, the 
committee will be interested in your assessment of: the threat of 
radical Islam, including violent extremists with ties to Hamas, 
Hezbollah, and al Qaeda in the region; efforts to curb the flow of 
illegal drugs into the United States from the south; the links between 
violent regional criminal groups and gangs in the United States; the 
effects of referendum defeat on Hugo Chavez's popularity; Cuba after 
Fidel Castro; foreign influences on the Panama Canal, particularly the 
Chinese influence; operations at the Guantanamo detention center; and, 
to the extent you can tell us of the progress to locate our three 
hostages held by FARC guerrillas in Colombia since 2003.
    Again, I would like to express my deep appreciation to all of you, 
and to the brave men and women of your commands, for all of their 
efforts to provide for the Nation's defense. Thank you, Mr. Chairman.

    Chairman Levin. Thank you, Senator Warner.
    General Renuart?

  STATEMENT OF GEN. VICTOR E. RENUART, JR., USAF, COMMANDER, 
  NORTH AMERICAN AEROSPACE DEFENSE COMMAND AND U.S. NORTHERN 
                            COMMAND

    General Renuart. Good morning. Thank you. Chairman Levin, 
Senator Warner, and members of the committee. It is really a 
privilege to be here this morning representing the men and 
women of NORTHCOM and NORAD and truly, most especially, to sit 
here with my very close friend, Jim Stavridis. Not only is our 
personal relationship strong, but our professional relationship 
between the two commands grows stronger every day, and I think 
we do have the ability to answer some of the questions that you 
have, both of you have mentioned with respect to drug 
trafficking and mutual interest areas in the Caribbean.
    I also want to take a moment to introduce and make note of 
three members of my team who are critical to our success every 
day. Major General Steve Villacorta is my advisor from the Army 
National Guard. He serves in a key position within my staff. 
We're also pleased to have with us a member of the National 
Guard Bureau team, Brigadier General Fick, who is here again to 
demonstrate the partnership that we have. Finally, to represent 
the young men and women who wear the cloth of our Nation every 
day in harm's way, Command Sergeant Major Dan Wood. I 
appreciate them being here to witness the proceedings.
    Chairman Levin. We welcome them and thank them.
    General Renuart. Sir, you talked about the relationship of 
these two commands in the hemisphere, and we have worked very 
hard over the last couple years with SOUTHCOM, with Admiral 
Stavridis' joint interagency task force, to begin to close the 
seams that may be there as we move from one area combatant 
commander to another. I'm pleased to say that that 
collaboration is continuing to strengthen. We're finding new 
ways to collaborate, and I know Jim and I are happy to talk 
about those in the course of the day.
    As Commander of NORTHCOM, I'm assigned two distinct and 
critical missions: to defend our Homeland from attack, whether 
it is an attack of a conventional nature or one of 
unconventional nature, and then to support the Nation with 
unique Department of Defense (DOD) capabilities during time of 
crisis, the natural or manmade disaster.
    We really can't prioritize one or the other because they 
move across the spectrum almost simultaneously. So we put a 
great deal of effort each day to both our Homeland defense and 
to our support of civil authorities mission. As we move into 
the hurricane season, for example, that mission of civil 
support becomes very significant in terms of the weight of 
effort, but those mission sets can move back and forth.
    Our missions we believe are especially meaningful because 
nothing is really more important than keeping our citizens, our 
families, all safe. This requires a culture of anticipation. We 
understand all too well that failure is not an option. In fact, 
we rewrote our mission statement soon after I arrived and added 
the keyword ``anticipate'' to emphasize this new standard of 
preparedness. Over the past year we have substantially 
increased our focus on planning, training, exercising, and 
readiness.
    We updated our Homeland defense and civil support plans. We 
ensured our plans are consistent with the National Response 
Framework and Department of Homeland Security (DHS) support 
plans for those 15 National Planning Scenarios. All of this is 
done in close partnership with DHS's Incident Management 
Planning Team. In fact, we carry the lead DOD role for concept 
planning across the Department.
    We have successfully completed the Maritime Domain 
Awareness Concept of Operation and the interagency investment 
strategy to go along with that. These developments improve 
situational awareness and provide a way ahead to rapidly assess 
and respond to maritime threats. We have made historic progress 
in both military and civil response collaboration with our 
friends in Canada. On our southern border, the United States 
and Mexico work more closely every day to confront the threat 
of narcotics trafficking and we are hopeful Congress will 
continue its support of the Merida Initiative as it provides a 
real opportunity for meaningful progress in this area.
    We train with over 50 Federal, State, and local partners at 
all operational levels. As an example, we exercised our 
Chemical, Biological, Radiological, Nuclear, and High-Yield 
Explosives Consequence Management Response Force during 
Exercise Ardent Sentry and Northern Edge not quite a year ago 
and exercised a portion of that again this past fall in the 
State of Oregon.
    We have assisted the National Interagency Firefighting 
Center in battling wildfires in the northwest and the 
southwest, prepared for the worst when Hurricane Dean 
threatened Puerto Rico and Texas, and we provided a broad range 
of DOD capabilities to a lot of events around the country, such 
as the I-35 bridge collapse, the Utah mine tragedy, and midwest 
ice storms.
    Supporting DHS and the Government of Canada during National 
Special Security Events has also been one of our principal 
tasks over the last year. We provide military support to 
Federal law enforcement partners along the borders as they 
continue to counter transnational threats.
    At the same time, we provide civil assistance and 
continually watch intelligence indicators, early warning 
information, and the operational picture. Specifically, we 
monitor, assess, and evaluate 12 to 20 potentially dangerous 
events affecting the Homeland every day, every day. This 
includes such things as vessels of interest, suspicious 
aircraft activity, missile launches around the world, and 
myriad manmade and natural disasters.
    As an example, we worked closely hand-in-hand with the 
State of Florida during the recent power losses to ensure that 
if there was a requirement that could be met by DOD we were 
ready.
    Every day we see the benefits of this collaboration in so 
many ways. Our officers sit side-by-side with the Federal 
Bureau of Investigation (FBI) in the Joint Terrorism Task Force 
and the National Counterterrorism Center (NCTC), all to ensure 
that we have the same threat picture. This allows us to 
routinely collaborate and assess information. We've built a 
high degree of confidence with our partners and I'm happy with 
that.
    We also rely on the information expertise provided by our 
Joint Interagency Coordination Group. This group synchronizes 
and integrates the activities of over 40 Federal and regional 
support agencies, including a private sector cell which allows 
us to tap into the private sector for areas of Homeland 
response.
    We recognize there's plenty to do. There's still more 
improvements that can be made. But we spend a great deal of our 
effort trying to anticipate the threats to our security, to 
improve Homeland defense and our global support plans, and 
strengthen relations with our mission partners both at home and 
abroad.
    Mr. Chairman, before I close I'd like to briefly comment on 
the final report of the Commission on the National Guard and 
Reserves. It is clear that a great deal of effort went into the 
report. In conjunction with the DOD, we are continuing our 
review to provide Congress a thorough assessment of each of the 
recommendations in that report.
    I agree with the Commission that we need to increase 
support to our Nation's Active-Duty and Reserve Forces, to 
build and enhance the Nation's capability to provide chemical, 
radiological, biological, and nuclear incident consequence 
management capabilities. I am leading the DOD charge to do just 
that and have received strong support from both the Chairman 
and the Secretary.
    My Integrated Priority List to the Secretary of Defense 
supports recapitalizing and equipping our National Guard to 
support domestic missions. I firmly believe that our Nation 
needs a strong and well-equipped Guard and Reserve Force. That 
said, some of the findings in the final report I believe are 
incomplete and can be misleading. I disagree with the 
Commission's assessment of a so-called ``appalling gap'' in our 
capabilities to respond to a WMD attack. Let me assure you 
there are plans in place and there are forces available and a 
range of capabilities across the government to respond to these 
events, and we are ready to respond today.
    The Commission also suggests that the Governors should have 
complete command and control of Title 10 forces in certain 
circumstances within their State. I disagree. I believe current 
command provisions allow the Governors to have the authority 
they need to direct all efforts within their States. Upon 
taking command, I made relationship-building with each of these 
Governors a high priority. I'm pleased to say that I've visited 
now over 30 States and in those visits I've met now with 19 
Governors and Lieutenant Governors, every State Adjutant 
General, and most of their emergency management directors.
    My message is clear and consistent: NORTHCOM is here to 
support you. These Governors and Lieutenant Governors with whom 
I have spoken are confident in their adjutants general and 
their ability to lead State efforts in times of crisis, and 
they know they can count on NORTHCOM for the support when it is 
requested.
    I believe it's more important to ask the Governors, are 
they receiving the support they need, than to have a struggle 
over the lines of command and control. They are the supported 
elements in their State and our role is to make sure that they 
have all they need.
    Finally, let me set the record straight on the Commission's 
comments regarding the need for State-level experience within 
NORTHCOM. Today 46 percent of my staff has Guard and Reserve 
experience and, as you see General Villacorta here, 6 of my 13 
general and flag officers, my key advisors, are guardsmen and 
reservists. I rely on them daily and they are integral members 
of my team. We're also doubling the number of full-time Guard 
positions within our headquarters. I believe these statistics 
stand on their own two feet and provide the right kind of 
experience in our command.
    In closing, our mission is to protect our fellow citizens 
and the freedoms that uphold our way of life. We are proud to 
be part of a combined Federal, State, and local team. 
Coordination with international, Federal, State partners, 
Governors, and the National Guard is paramount. General Steve 
Blum, the Chief of the National Guard Bureau, said just 
recently: ``The coordination and cooperation between our two 
agencies has never been better,'' and I do agree.
    By anticipating threats, exercising our capabilities, and 
increasing information-sharing with our partners, we strengthen 
our ability to protect each of you, your families, our 
families, and our Homeland.
    Chairman, thank you very much for the opportunity to be 
here and I look forward to your questions.
    [The prepared statement of General Renuart follows:]
        Prepared Statement by Gen. Victor E. Renuart, Jr., USAF
    Chairman Levin, Senator McCain, distinguished members of the 
committee, I very much appreciate the opportunity to appear before you 
and report to you on the state of our two commands, U.S. Northern 
Command (NORTHCOM) and North American Aerospace Defense Command 
(NORAD). Together, these Commands protect and defend the United States 
and Canadian homelands. I want to leave no doubt in your minds that in 
the 5-year history of NORTHCOM and 50-year history of NORAD, the men 
and women assigned to these Commands have never been more committed to 
this no-fail mission--they are vigilant, prepared, and responsive to 
threats that may harm our families and our countries.
    Since standing up in 2002, NORTHCOM, partnered with our NORAD 
teammate, has protected our Nation from attack. The NORTHCOM and NORAD 
team has been successful thanks to the combined work of our Nation's 
leaders, the Department of Defense (DOD), the interagency community, 
and especially support from Congress. Additionally, since the Hurricane 
Katrina disaster, NORTHCOM has re-defined readiness; we have made 
landmark improvements in our planning, anticipating, communicating and 
coordinating the Federal, State, and local response to natural 
disasters and other events requiring civil support. The National 
Strategy for homeland security states, ``as we face the dual challenges 
of preventing terrorist attacks in the Homeland and strengthening our 
Nation's preparedness for both natural and manmade disasters, our most 
solemn duty is to protect the American people.'' This pledge 
underscores the missions of NORTHCOM and NORAD, as we monitor 12-20 
potentially dangerous events every day.
    We continue to place strong emphasis on three focus areas: 
anticipating threats to our continental security, improving our 
homeland defense and civil support plans and capabilities, and 
strengthening relationships with our mission partners. It is my 
privilege today to report not only on the state of our commands, but 
also on our goals for the future.
             our missions--anticipate, prepare, and respond
    NORTHCOM and NORAD are separate commands--neither being subordinate 
to the other--with complementary homeland defense missions. We share 
common values, understand the urgency and significance of our duties in 
light of very real and present dangers, and operate in a dynamic and 
uncertain security environment. A range of threats across all domains 
represents an immediate and future challenge for both commands. Whereas 
the enemies of yesterday were relatively predictable, homogeneous, 
hierarchical, and slow to change, today's adversaries are agile, 
unpredictable, diverse, increasingly networked, and dynamic. These 
adversaries benefit from technologies and materials readily accessible 
in world markets, to include disruptive systems or the ingredients 
required to fabricate weapons of mass destruction (WMD). This potential 
availability of WMD to terrorist groups is of vital concern, especially 
as terrorists thrive in the ``gray area'' where notions of crime and 
armed conflict overlap.
    Our missions require a culture of anticipation. With every 
potentially harmful event, through constant vigilance throughout 
NORTHCOM's area of responsibility (AOR), we anticipate appropriate 
levels of DOD response to provide capabilities that protect and defend 
the American people to prevent and minimize loss of life, suffering, 
and property damage.
    NORTHCOM is prepared to support its Federal, State, and National 
Guard partners in responding to a wide range of events. Natural 
disasters such as major hurricanes, earthquakes, or pandemics can 
quickly exceed the capabilities of local and State emergency response 
assets and require significant allocation of military resources to help 
mitigate the effects of and support for relief and recovery efforts. 
Likewise, a terrorist attack, particularly one involving WMD, may not 
only cause overwhelming numbers of casualties, but may also initiate a 
multitude of cascading events which could require substantial defense 
support of civil authorities. When needed, our military assets are 
organized, trained, equipped, and immediately accessible to leverage 
national, and as appropriate, continental strengths.
    An essential element of NORTHCOM and NORAD success is our ability 
to anticipate events that may require a military response. We work hard 
to have global situational awareness of potential events that can 
affect the safety and security of our homeland. Toward this end, in 
2006, the commands began a project to build a single, integrated 
command center that supports our requirements for global situational 
awareness and interconnectivity with key homeland defense and civil 
support partners. This remains a high priority for the commands, and we 
are on track to begin initial operations out of the new, integrated 
command center by May 2008. The NORAD and NORTHCOM command center will 
provide a more efficient and effective means of executing homeland 
defense against threats coming from all domains. In addition to an 
increased capacity to coordinate defense activities with other 
stakeholders, especially Canada command, the integrated command center 
will provide a significantly enhanced capability to execute defense 
support of civilian authorities.
    We understand Congress' concerns with the Command Center 
Integration project. In response, we provided the House and Senate 
Armed Services Committees' leadership a cost-benefit analysis for the 
integration and a summary of our actions to mitigate physical security 
vulnerabilities in early December 2007. As required by the 2008 
National Defense Authorization Act, we have completed a report to 
Congress on command center integration and provided that report to the 
Chairman of the Joint Chiefs of Staff for coordination and subsequent 
submittal to Congress.
               planning efforts--integral to our response
    The number one priority for NORTHCOM is continuing to build Active-
Duty and Reserve component capabilities to support training and 
readiness for response to chemical, biological, radiological, nuclear, 
and high yield explosives (CBRNE) incidents. On behalf of DOD, NORTHCOM 
is prepared to provide a rapid and effective Federal-level response to 
a catastrophic domestic CBRNE incident, whether it is a deliberate 
terrorist attack or an accident. Currently, our Nation has 53 certified 
National Guard WMD Civil Support Teams, one in every State, the 
District of Columbia, and Puerto Rico, ready to provide initial 
detection and identification in a chemical, biological, radiological, 
or nuclear event. Additionally, there are 17 regional consequence 
response Joint National Guard CBRNE Enhanced Response Force Package 
units, each consisting of nearly 200 trained people, as well as an 
active-duty military response unit of nearly 450 marines which is the 
gold standard for responding to a WMD attack. Should the event require 
additional Federal forces, we have active duty units of over 3,000 
members in each unit who are on a short recall to reinforce the initial 
response teams.
    We refined our CBRNE Consequence Management Concept Plan and led 
efforts within DOD to identify, train and make ready the CBRNE 
consequence management response capabilities the plan enumerates. 
Although the DOD response force is intended to augment those of state 
authorities, such as National Guard WMD-Civil Support Teams and CBRNE 
Enhanced Response Force Packages, we strongly recommend robust Federal 
response units, referred to as CBRNE Consequence Management Response 
Forces (CCMRF). This capability is needed because local and State 
capabilities will likely require additional DOD resources in the event 
a CBRNE incident is catastrophic or multiple events occur 
simultaneously. When operational, each CCMRF will deliver a range of 
ready capabilities, including incident assessment, command and control, 
medical, decontamination, logistics, transportation, mortuary affairs, 
general support, and public affairs. In May 2007, NORTHCOM successfully 
exercised the first-ever substantial CCMRF deployment to Camp 
Atterbury, IN, during Exercise Ardent Sentry-NORTHCOM Edge 07; we will 
exercise these CCMRF capabilities again in May and then annually to 
maintain critical readiness.
    Today, we have notional sourcing for the units we have been tasked 
to build. This remains a high priority for our command, and we are 
diligently working with the Office of the Secretary of Defense, the 
Joint Staff, U.S. Joint Forces Command, the Services, and the National 
Guard Bureau to source the full CCMRFs. The Secretary of Defense has 
directed a full-time, dedicated force be trained and equipped by the 
end of this fiscal year. I appreciate Congress' direction to establish 
an advisory panel to assess DOD's capabilities to provide support to 
U.S. civil authorities in the event of a catastrophic CBRNE incident, 
and look forward to providing input to the panel's assessment.
    We worked hard to complete detailed plans that will guide our 
operational response in the event of a catastrophic event. NORTHCOM's 
homeland defense and civil support plans are vital to our Nation's 
ability to deter, prevent and defeat threats to our security, and 
assist civil authorities when called upon by the President or Secretary 
of Defense. We continue to adjust these plans as we evaluate lessons 
learned from exercises and real world operations. Since the inception 
of NORTHCOM, our planning efforts with our mission partners, 
particularly Department of Homeland Security (DHS), the National Guard 
Bureau, and Canada command, have matured significantly.
    Our Nation uses the 15 National Planning Scenarios as a vehicle to 
shape nation-wide planning efforts for terrorist attacks and 
synchronize planning for natural disasters such as hurricanes and 
earthquakes. NORTHCOM plans, such as CONPLAN 3501, Defense Support of 
Civil Authorities, address each of the National Planning Scenarios that 
may require NORTHCOM support. We have established a close partnership 
with the DHS's Incident Management Planning Team to ensure DOD plans 
are integrated into the broader government-wide plans being developed 
by DHS. These plans will address the range of activities across the 
prevention, protection, response, and the recovery phases for each of 
the National Planning Scenarios. In coordination with the Joint Staff, 
the Office of the Assistant Secretary of Defense for Homeland Defense 
and Americas' Security Affairs, and DHS, we have developed a yearly 
civil disaster assistance Execute Order and 26 Pre-Scripted Mission 
Assignments to put specific capabilities on alert in order to respond 
to specific predetermined requests for assistance from designated 
primary agencies, which streamline DOD response activation.
    In preparation for a potential Pandemic Influenza, NORTHCOM is 
leading the DOD effort to globally synchronize military efforts to 
minimize contamination and prevent further spread of the pandemic. In 
October 2007, NORTHCOM completed a DOD Global Synchronization Plan for 
Pandemic Influenza. This plan provides guidance to all the geographic 
combatant commands, functional combatant commands, Services, and DOD 
agencies to assist in development of regional plans addressing 
operations in a pandemic influenza environment.
    Each year, NORTHCOM anticipates, prepares, and trains for 
significant events that may require a DOD response. The command, in 
partnership with NORAD, annually sponsors two large-scale exercises 
(Ardent Sentry and Vigilant Shield) and participates in over 30 
additional exercises. Our exercise scenarios have involved: air (civil 
and military) incidents and attacks, maritime and port security, 
maritime interception operations, missile defense, consequence 
management in support of civil authorities, nuclear proliferation, 
nuclear weapon accidents, weapons of mass destruction attacks, and 
natural disasters such as hurricanes and earthquakes.
    Our exercises (in full partnership with Canada, primarily through 
Canada command) arc integrated within the annual DHS-coordinated 
national exercise program, wherein we participate in National Level 
Exercises, and demonstrate our full response capabilities, including 
the deployment of elements of the CCMREs. We enthusiastically support 
and participate in the national level exercises, particularly those 
with senior cabinet involvement, because they are tremendous 
demonstration and training opportunities for the spectrum of civil and 
military personnel who may respond to a real world event.
  our operational response--helping americans where they live and work
    We implemented many improvements following Hurricane Katrina that 
make NORTHCOM well-prepared for seasonal natural disasters that occur 
in our homeland, such as hurricanes, floods, and wildfires. For 
example, in August 2007, Hurricane Dean threatened the United States 
Gulf Coast as a Category V storm. In anticipation of the significant 
threat posed by the storm and the possibility of a Presidential 
Emergency Declaration under the Robert T. Stafford Disaster Relief and 
Emergency Assistance Act, as amended, NORTHCOM quickly responded, 
including the following:

        <bullet> Established direct linkage to the Texas and Puerto 
        Rico State Emergency Operations Centers and the Adjutants 
        General Joint Task Force Headquarters.
        <bullet> Activated our Future Operations Center.
        <bullet> Pre-deployed Defense Coordinating Officers and their 
        staffs to St. Thomas, U.S. Virgin Islands (Federal Emergency 
        Management Agency (FEMA) Region II) and Corpus Christi, TX 
        (FEMA Region VI) in coordination with DHS (FEMA).
        <bullet> Coordinated with U.S. Transportation Command to 
        transport the FEMA Mobile Emergency Response Support vehicles 
        from Westovcr, MA, to Puerto Rico to provide emergency 
        communications support to Puerto Rico and the U.S. Virgin 
        Islands, if necessary.
        <bullet> Developed the first-ever validated transportation plan 
        for a pre-hurricane evacuation of citizens from Texas and 
        Louisiana.
        <bullet> Propositioned Mobile Aero-Medical Staging Facility 
        teams in south Texas, prepared to evacuate special needs 
        medical patients.

    As Hurricane Dean advanced across the Western Caribbean and gained 
strength, the State of Texas requested activation of the National 
Disaster Medical System and the President approved a pre-landfall 
Emergency Declaration for Texas. We had already anticipated these 
developments and, in coordination with U.S. Transportation Command, 
prepared to assist in the immediate general air evacuation of up to 
26,000 people from the Rio Grande River Valley. As it turned out, 
Hurricane Dean made landfall on the Yucatan Peninsula of Mexico on 21 
August 2007 and did not reach the United States. However, if the storm 
had made landfall in Texas or elsewhere along the U.S. Gulf Coast as 
some storm models predicted, we were positioned to assist state and 
local authorities in all aspects of disaster response.
    Last fall, we quickly provided the DOD response to help fight the 
fast-moving, Santa Ana-driven wildfires that threatened hundreds of 
thousands of California residents. To help save lives and protect 
homes, we:

        <bullet> Deployed a Defense Coordinating Officer and staff 
        element to facilitate Federal response efforts;
        <bullet> Deployed U.S. Army North's Operational Command Post to 
        command and control Title 10 forces engaged in assisting State 
        and local authorities, as well as a Mobile Air Staging Facility 
        to process any potential casualties, especially burn patients;
        <bullet> Tasked, in coordination with the National Guard and 
        Reserves, six Modular Airborne Fire Fighting Systems (MAFFS). 
        MAFFS-equipped, C-130 aircraft: flew a total of 76 sorties, 
        dropping retardant to help contain the fires;
        <bullet> Employed Incident Awareness and Assessment assets that 
        provided critical imagery for local responders.

    This was a historical first-use of a DOD unmanned aerial system, 
the Global Hawk, for a Defense Support of Civil Authorities event. It 
identified 50 additional hotspots, enabling local responders to 
optimize the firefighting locations. We conducted these Incident 
Awareness and Assessment activities while simultaneously safeguarding 
the civil liberties of American citizens and adhering to appropriate 
statutes and DOD regulations. NORTHCOM employment of three Incident 
Awareness and Assessment/Full Motion Video communications suites 
enabled the Command to receive real-time video from incident sites and 
then disseminate unclassified video to all of our partners via the 
Internet.
    In summary, NORTHCOM remains vigilant and ready to respond to all 
types of disasters, large or small. Our support even extended to 
several small-scale events, such as the Minnesota I-35 bridge collapse 
and the Utah mine collapse. When the I-35W bridge over the Mississippi 
between downtown Minneapolis and St. Paul collapsed into the river in 
August 2007, killing several people and injuring many more, we 
responded. In support of Minnesota Governor Pawlenty's request, 
NORTHCOM deployed the FEMA Region V Defense Coordinating Officer and 
coordinated with U.S. Transportation Command and the U.S. Navy for the 
deployment of underwater salvage capabilities to support Federal 
(Department of Transportation, Federal Bureau of Investigation, 
Environmental Protection Agency, and U.S. Army Corps of Engineers) 
assistance to the State and local efforts at the scene.
    Just 5 days later, when a portion of the Genwal Coal Mine collapsed 
in central Utah, trapping six miners approximately 1,500 feet below the 
surface and 4 miles from the mine entrance, we responded again. 
NORTHCOM, in coordination with U.S. Transportation Command, 
synchronized the delivery of the Department of Labor's Seismic 
Detection equipment to the incident site.
         our operational response--homeland defense is job one
    Although NORTHCOM is better known for coordinating the DOD response 
to disasters in our AOR, the men and women of NORTHCOM and NORAD remain 
vigilant in our number one responsibility, homeland defense. Through 
our operational missile defense program, maritime and air defense 
activities, both Commands are vigilant and maintain a high state of 
readiness to respond as necessary against man-made threats.
    NORTHCOM is responsible for directing missile defense operations 
within our AOR and Hawaii to protect the homeland, allies, and other 
national interests from potentially hostile acts. We have made great 
strides in the Ground-Based Midcourse Defense System (GMD) capability 
and have fielded 23 Ground-Based Interceptors and additional sensor 
capability standing ready to defend the United States' and its allies' 
infrastructure and population centers, if needed.
    Last year, I testified that I would do my best to make sure Missile 
Defense flight tests realistically reflect NORTHCOM's operational 
environment. In September 2007, I personally participated in a flight 
test conducted by the Missile Defense Agency (MDA), which successfully 
demonstrated the GMD's warfighting capability. We are also working with 
MDA to develop systems such as the Multiple Kill Vehicle program, the 
21-inch SM-3 program, and the Theater High Altitude Air Defense 
program. These improved capabilities will significantly enhance our 
Nation's protective shield against missile threats.
    For over 6 years now, NORAD has executed Operation Noble Eagle and 
provided the air defense of the United States and Canada through 
airspace surveillance, a ready alert force, air patrols, and the unique 
National Capital Region Integrated Air Defense System. We have flown 
over 48,000 sorties for this operation, and appreciate the National 
Guard's contribution of flying over 70 percent of these sorties. We 
continue to fly irregular air patrols to achieve a balance between 
readiness and sustainability while assuring the defense of our 
homelands. Despite a grounding of 37 percent of the U.S. Air Force F-
15s due to structural cracks in aging airframes, NORAD air defense 
fighters remain mission-capable and on alert protecting North America. 
Reflective of the enduring nature of the NORAD Agreement, during the 
initial phase of the F-15 grounding, Canadian F-18s seamlessly 
supported NORAD'S Northern Sovereignty Operations.
    While our mission requirements are now being met by other aircraft 
with similar capabilities, such as the F-16s and F-22s, this places an 
operational strain on the globally-committed F-16s and F-22s. Maritime 
patrols of our homeland have similar operational challenges, due to the 
grounding of U.S. Navy P-3 aircraft caused by deterioration of 
airframes. As such, we strongly support the U.S. Air Force and U.S. 
Navy efforts to recapitalize the air defense and maritime patrol 
aircraft to keep our Nation safe and ensure future homeland defense 
missions are supported at the required levels.
    In the National Capital Region, NORAD continues to improve the 
robust air- and ground-based air defense system. Improvements to 
aircraft surveillance systems and close coordination with our 
interagency partners have resulted in quicker detection and 
identification of intruders into the protected airspace around 
Washington, DC. In addition to the alert fighters at Andrews AFB, the 
U.S. Coast Guard supports NORAD with alert helicopters to intercept 
low-and-slow aircraft in the National Capital Region. NORAD's ability 
to detect and deter intrusions to the National Capital Region will be 
further enhanced in the coming year by the interagency effort to 
delineate the airspace around the region. This rulemaking effort is 
critical to the long-term goal of securing the skies over the Nation's 
capital.
    In January 2008, NORAD and NORTHCOM provided DOD support to the 
President's 2008 State-of-the-Union Address, designated as a National 
Special Security Event. We provided unique DOD capabilities, including 
small medical teams of advanced cardiac and trauma life support teams 
and the Initial Response Force of the Chemical Biological Incident 
Response Force. We are currently planning support for two other 
National Special Security Events: the Democratic National Convention, 
24-28 August 2008, in Denver, CO, and the Republican National 
Convention, 1-4 September 2008, in Minneapolis-St. Paul, MN.
    NORTHCOM and U.S. Coast Guard coordinate operations in multiple 
national defense mission areas: maritime intercept operations, mine 
countermeasure operations, maritime security and defense, theater 
security cooperation, and environmental defense operations. Twenty U.S. 
Coast Guard personnel are integrated within the NORTHCOM staff, and the 
command is fully engaged with U.S. Coast Guard Pacific and Atlantic 
Area commands in maritime planning and execution. Although maritime 
defense operations are not widely publicized, this quiet mission 
remains a strong deterrent capability for our Nation. In any given 
month, our Command tracks, and in partnership with DHS and other DOD 
agencies, takes appropriate measures to ensure these potential threats 
do not reach our shores:

        <bullet> 40 foreign flag vessels with potential for 
        intelligence gathering;
        <bullet> 25 vessels of interest to law enforcement (potential 
        contraband);
        <bullet> 8 foreign nation warships entering NORTHCOM's AOR;
        <bullet> 100 regulatory vessels (containing hazardous materials 
        or other dangerous cargo); and
        <bullet> 7 vessels of interest to our national security.

    Our command also supports DHS in the conduct of port security 
operations, and we developed plans enabling a rapid response to 
Secretary of Defense-approved requests for assistance. A significant 
challenge for port security is our ability to counter underwater mines. 
An underwater explosive device, either purpose-built or improvised, is 
a credible threat that could have huge consequences for our Nation's 
port facilities, and would prompt an expensive and challenging recovery 
effort. The Maritime Operational Threat Response Plan tasks DOD as the 
lead agency for mine countermeasures in the maritime domain with 
NORTHCOM assigned that responsibility for the continental United 
States. NORTHCOM, in coordination with the U.S. Coast Guard, will 
employ tailored, rapidly deployable forces to respond to a domestic 
mine incident to re-establish maritime commerce in an expeditious 
manner balanced with acceptable risk.
    The trafficking of illegal drugs continues to be a threat to 
national security. While our interagency partners have scored record 
seizures of illegal drugs this year, drugs continue to flow across our 
northern and southern borders. NORTHCOM's Joint Task Force-North (JTF-
N) supports law enforcement agencies and ensures unity of effort 
between Title 10 and Reserve component forces and those National Guard 
forces operating under State control (Title 32). Through JTF-N's 
missions and activities, we continue to sustain important relationships 
with Federal law enforcement agencies and National Guard counterdrug 
task forces engaged in securing our Nation's borders against drug 
traffickers and their associated activities.
                     partnering with reserve forces
    We understand the vital contributions of the National Guard and 
Reserves and are firmly committed to helping reconstitute and improve 
the Reserve component's operational capabilities. It is in our Nation's 
best interests to enable the States and Federal authorities to have the 
robust resources they need in times of catastrophic events.
    Toward that end, NORTHCOM has been closely coordinating with the 
Office of the Secretary of Defense and the Joint Chiefs of Staff to 
meet milestones laid out in the DOD implementation plan for 
recommendations made by the Commission on the National Guard and 
Reserves Second Report (1 March 2007), and will do so as well for the 
Final Report (31 January 2008). Much of what has been said in the press 
about the Nation's ability to defend itself is not correct. I agree 
that NORTHCOM's plans can always be improved; however, make no 
mistake--we are trained, ready, and prepared to defend our homeland. I 
look forward to providing my perspective on some of the more 
significant recommendations made by the Commission in the Final Report.
    Specifically, I take exception to the recommendation regarding 
Governors directing Federal forces. NORTHCOM is committed to supporting 
Governors. Based on the Secretary's direction, we have numerous options 
that allow Federal forces to assist State emergency response personnel 
in order to have a coordinated response to domestic catastrophes and 
other emergency operations. NORTHCOM's role is clear--we respond in 
support of Governors, adjutants general, and designated Federal 
agencies.
    I also believe the commission's recommendation regarding NORTHCOM 
staff qualifications is unnecessary. The Commission recommends that ``a 
majority of NORTHCOM's billets, including those for its service 
component commands, should be filled by leaders and staff with Reserve 
qualifications and credentials. Job descriptions for senior leaders and 
other key positions at NORTHCOM should contain the requirement of 
significant Reserve or National Guard experience or service.'' In fact, 
this already occurs. This recommendation does not reflect the fact that 
in addition to the nearly 50 full-time National Guard officers we have 
in NORTHCOM, 46 percent of NORTHCOM servicemembers have previous 
experience working with National Guard and Reserve personnel and units. 
I have six two-star National Guard and Reserve officers who serve as my 
Chief of Staff, subordinate commanders and direct advisors. Virtually 
all of my air component and a large percentage of my land component are 
guardsmen or reservists. Thus, while we can always improve, and we 
will, I am satisfied that we possess sufficient experience levels to 
provide timely and effective support to the States.
    Furthermore, I take my role as the combatant commander advocate for 
the Reserve component very seriously. This advocacy role was also one 
of the many recommendations in the second report of the Commission on 
the National Guard and Reserves that has been implemented throughout 
the DOD. In each of NORTHCOM's annual Integrated Priority List and 
Program Objective Memorandum submissions to the DOD, we advocate for 
and support correcting Guard and Reserve capability shortfalls for both 
Federal and non-Federal roles. NORTHCOM also advocated for and 
supported National Guard Bureau efforts to validate key initiatives 
such as Joint Force Headquarters-State and CBRNE Enhanced Response 
Force Packages through DOD's Joint Requirements Oversight Council. We 
advocate for changes to DOD policies that allow for more collaborative 
planning to ensure proper resourcing for National Guard and Reserve 
units' equipment, personnel, and training for civil support operations.
    Lessons learned during past events serve to underscore the 
importance of providing training and education opportunities to members 
of the National Guard including potential Joint Task Force-State 
Commanders, Commanders of Joint Force Headquarters-State and their 
respective staffs. At the request of the National Guard Bureau, 
NORTHCOM eagerly took the task to further develop these important 
National Guard Joint Task Force capabilities. Upon completion of 
training, participants are better able to conduct and support 
operations across the entire operational spectrum (State Active Duty, 
Title 32 status, and Title 10 status). In the past year, this program 
trained over 750 students; in 2008 we plan to train up to 1,000 
students.
    Three years ago, NORTHCOM, National Guard Bureau and U.S. Joint 
Forces Command launched a combined initiative entitled Joint Force 
Orientation. The primary objective of this program is to facilitate a 
mutual understanding of joint operational concepts and information 
sharing between States, territories, and NORTHCOM. The program 
currently uses two avenues for reaching the States. The first 
engagement is a 2-day conference held at the NORTHCOM headquarters 
targeting senior civilian and National Guard leadership from States 
within a FEMA region. The second engagement consists of a team from 
NORTHCOM's Standing Joint Force Headquarters North (SJFHQ-N) traveling 
to a State's Joint Force Headquarters. To date, NORTHCOM has engaged 
all 54 States and territories through the 2-day conference and our 
SJFHQ-N team has traveled to 23 States and territories for individual 
State engagements, the most recent being New Hampshire in early 
February. State feedback has been extremely positive, reflecting the 
value and importance of a NORTHCOM-state mission partnership that is 
based on mutual trust.
    We support proposed DOD legislative changes regarding the expanded 
employment of Army, Navy, Air Force, Marine, and Coast Guard reservists 
in the homeland. Normally, these reservists are only available for 
civil emergencies while in voluntary Inactive-Duty for Training status. 
To eliminate this restriction, we ask for your support of DOD's fiscal 
year 2009 legislative proposals that will allow the President to order 
Army, Navy, Air Force, Marine, and Coast Guard reservists to Active-
Duty to provide assistance in large-scale manmade, natural, and 
accidental disasters or catastrophes when the response capabilities of 
Federal, State, and local civilian agencies have been, or will be, 
exceeded. For example, a third of the Army's medical capabilities are 
resident with the Army Reserve. By enacting the legislative changes, 
these medical capabilities would also be available in the case of a 
domestic disaster or emergency. The bottom line is that enactment of 
these legislative proposals will increase the source of force options 
available to the President to support the Governors and likely decrease 
the need to Federalize National Guard forces.
                 partnering with states and territories
    Working with our mission partners is essential to ensuring the 
American people obtain assistance during times of need, whether at the 
international, interagency, or State and local level. Our Nation's 
Governors take very seriously their role as Commanders in Chief of 
their State and we respect that authority. Our job is to support our 
Nation's Governors in their leadership role to respond to emergency 
situations and threats in their States.
    We are expanding working relationships with the State Adjutants 
General. Since taking command, I have personally met with 19 Governors, 
32 State Adjutants General, and 25 Emergency Management Directors. In 
2007, our Command hosted many Adjutants General, including members of 
the Adjutants General Association Homeland Security Committee, in 
forums designed to increase information sharing, promote unity of 
effort and facilitate mutual advocacy. I have also addressed the annual 
meeting of the National Guard Association of the United States and the 
Adjutant General Association's Winter Meeting. In each instance, my 
message is the same: Our forces are trained, equipped and ready to 
support the needs of a State when disaster strikes or during special 
security events, and we do it in direct support of the Governor, his or 
her Adjutant General, and the primary Federal agency. In the years 
since Hurricane Katrina, we have built much stronger mutual 
understanding and respect between NORTHCOM and the State Adjutants 
General as we work together during exercises and real-world incidents.
               partnering with the interagency community
    NORTHCOM supports and enables other agencies in our common 
objectives of homeland defense and civil support. Our NORAD and 
NORTHCOM Interagency Coordination Directorate and the Commander's Joint 
Interagency Coordination Group integrate and synchronize activities of 
multiple civilian, Federal, state and private sector organizations. The 
group includes 60 full-time people from 40 other Federal and DOD-
supporting agencies resident at NORTHCOM. Among the Federal agencies 
are DHS (FEMA, U.S. Customs and Border Protection, and U.S. Coast 
Guard), Department of State, Department of Health and Human Services, 
Department of Justice (Federal Bureau of Investigation), Transportation 
Security Administration, U.S. Army Corps of Engineers, U.S. Geological 
Survey, and the Central Intelligence Agency. We also integrate similar 
expertise from five Canadian agencies.
    Cooperation with DHS on requirements, science and technology is a 
key aspect of our partnership. Improvements in coordination have led to 
a forward-leaning, anticipatory, operational sequence that reacts 
quickly to requests for assistance from civil authorities, as approved 
by the Secretary of Defense or the President.
    NORTHCOM closely coordinates and cooperates with FEMA in a number 
of areas related to the planning process. DOD liaison officers from 
NORTHCOM, the Joint Director of Military Support, and the National 
Guard Bureau have been assigned to FEMA Headquarters. These experts 
help ensure effective coordination of activities, provide advice, and 
facilitate relationship building. We maintain visibility of FEMA's 
logistical preparations and Defense Logistics Agency-sourced 
deliveries. This improves situational awareness, helps reduce the need 
for short-notice airlifts and improves our ability to anticipate and 
rapidly respond to emerging requirements during civil support missions.
    Additionally, NORTHCOM assigned Defense Coordinating Officers, 
supported by a six-person Defense Coordinating Element, to each of 
FEMA's 10 Regions to ensure close coordination in planning. FEMA and 
NORTHCOM also co-sponsor an annual Federal Coordinating Officer-Defense 
Coordinating Officer Conference that maintains and enhances civilian-
military understanding and support for planning and disaster response 
activities.
    During the 2007 hurricane season, NORTHCOM and U.S. Transportation 
Command provided in-depth evacuation planning assistance to FEMA 
Headquarters and Region VI planners, resulting in an updated Louisiana 
Hurricane Plan. We have maintained this planning momentum throughout 
the off-season to prepare for the 2008 hurricane season through 
involvement in FEMA's Joint Coordination Evacuation Planning 
teleconferences. Additionally, we volunteered to assist FEMA in the 
development of their 2008 Hurricane CONPLAN. We are also in the midst 
of coordinating a 2008 Hurricane Transportation Planning Conference for 
DOD and Federal partners.
    Working with the DHS Private Sector Office, we have facilitated 
appropriate relationships for planning with the private sector 
(business, nonprofit, nongovernmental, faith-based, and academia) to 
promote mutual understanding, situational awareness, and unity of 
effort for homeland defense and civil support arenas, including 
hurricane and other natural disaster support. For instance, we have a 
particularly strong relationship with the American Red Cross. They 
participate in our Joint Interagency Coordination Group and we maintain 
close contact with their representatives to coordinate actions during 
real-world contingencies and exercises.
    One of our primary goals is to ensure DOD is prepared to provide a 
prompt and effective health services support response to homeland 
events as delineated in the 15 National Planning Scenarios. To meet 
this goal, we are working hard to:

        <bullet> Improve synchronized medical pre-event planning with 
        public, private and Federal partners through participation in 
        exercises, working groups and planning efforts.
        <bullet> Encourage paradigm shifts in the provision of health 
        services support, presenting alternative solutions to event 
        preparation and execution, e.g., Shelter-in-Place planning 
        versus sole reliance on Strategic Air Evacuation during a 
        hurricane event.
        <bullet> Enhance utilization of our Joint Regional Medical 
        Planners at all levels of medical planning, providing greater 
        visibility of state and local plans while also working to fully 
        train and integrate National Guard Joint Regional Medical 
        Planners to bridge the gaps in synchronization between Title 32 
        and Title 10 medical support.
        <bullet> Improve unity of effort for health services support 
        with our international medical partners in Canada and Mexico, 
        coordinating planning efforts for cross-border events.
        <bullet> Refine National Disaster Medical System planning in 
        our organizational plans to improve and increase DOD's 
        capability to evacuate patients through a well-coordinated 
        effort among Active, Guard, and Reserve component personnel.
                   partnering with canada and mexico
    The DOD Security Cooperation Guidance's top priority is to build 
the capacity of allies and partners to help win the global war on 
terror by enhancing coordination with our continental neighbors. In 
2007, NORTHCOM, NORAD, and Canada command initiated a study to examine 
future roles, missions, and relationships for the three commands, with 
a desired end state of increasing North American defense and security 
while enhancing the valued relationship between the United States and 
Canada. The study will focus on strengthening the U.S. and Canadian 
armed forces' ability to act in a timely and coordinated fashion to 
identify, deter, disrupt, and defeat threats to the United States and 
Canada in all domains and to provide timely, effective, and efficient 
support of civil authorities as directed.
    The development of NORTHCOM's Theater Security Cooperation Strategy 
and Implementation Plan have significantly strengthened our 
relationship with our Mexican defense and interagency counterparts. In 
2007, NORTHCOM hosted high-level members of the Mexican military and 
interagency community to improve their understanding of our mission in 
defending the U.S. Homeland, while fostering trust and confidence.
    The Government of Mexico has undertaken an unprecedented war 
against narco-violence and organized criminal groups, which has been 
accompanied by improving Mexican interagency relations, with new 
partnerships being born between the Mexican military and police. The 
Merida Initiative captures an opportunity with our critical neighbor to 
jointly confront the threat of narcotics trafficking and organized 
crime. We are hopeful that Congress will be able to move this 
initiative forward this year.
    We greatly appreciate Congress' action to lift American 
Servicemembers Protection Act sanctions in the National Defense 
Authorization Act for Fiscal Year 2008. Your action removed 
longstanding barriers to enhancing our ability to build partner 
capacity to effectively counter threats such as terrorism and narcotics 
trafficking in North America by modernizing Mexico's capabilities and 
improving interoperability against common threats. In support of the 
Building Partnership Capacity Execution Roadmap, we are already 
collaborating with other U.S. and Mexican governmental agencies to 
enhance emergency preparedness and response activities along the 
southern border.
    While much progress has been made, building partnership capacity is 
an area that still requires additional congressional support. There are 
serious shortfalls in the U.S. Government's ability to help build the 
capacity of foreign partners-both within and outside DOD. The 
Departments of State and Defense conducted a systematic review of gaps 
in authority and developed an omnibus bill called the Building Global 
Partnerships Act, which was personally brokered by the Secretaries of 
State and Defense. I strongly urge Congress to enact all of these 
authorities. Building partner capacity is fundamental to our national 
security strategy and will make our Nation safer.
     improving our homeland defense and civil support capabilities
    As part of the larger DOD effort to assess its roles, missions, 
capabilities, and resources needed to combat threats to our Homeland, 
NORTHCOM and NORAD are leading a comprehensive homeland defense and 
civil support Capabilities-Based Assessment. This Assessment will 
define DOD's core capability requirements in our AOR; evaluate existing 
capabilities; understand capability interdependencies; and determine 
where gaps, excesses, and redundancies exist and prioritize them to 
help inform the Department's decisions on risk management and 
resourcing in a limited resource environment. DHS and the National 
Guard Bureau are playing an integral role throughout this analytical 
effort. Most importantly, DHS will lead the effort to define the 
contributions of non-DOD agencies to homeland defense and civil 
support, thus identifying DOD's capability requirements as well as 
facilitating DHS's continued actions under Homeland Security 
Presidential Directive ``National Preparedness'' (HSPD-8).
    NORTHCOM's Joint Intelligence Operations Center North (JIOC-N) 
relies on collaborative Intelligence Community networks to gain insight 
and understanding of emerging international terrorist and strategic 
threats to North America. Recognizing the challenges of sharing 
information across agencies and with partner nations, JIOC-N continues 
teaming efforts with the Federal Bureau of Investigations, National 
Counterterrorism Center and the Central Intelligence Agency's 
Counterterrorism Center. Additionally, as a result of lessons learned 
during the NORTHCOM response to the California wildfires, JIOC-N is 
working to centralize the sharing of critical imagery and geospatial 
information to support first responders and deployed DOD personnel 
responding to crises.
    To effectively execute our missions, NORAD and NORTHCOM rely on the 
uninterrupted use of the internet and communications systems that 
comprise our Nation's cyber infrastructure. There are a variety of 
global actors who threaten the security of commercial and government 
cyber infrastructure. To reduce vulnerabilities and defend against 
cyber infrastructure attacks, we are working closely with the DHS and 
U.S. Strategic Command.
    Space situational awareness is essential to our ability to predict 
threats from space. Distinguishing a foreign space launch from a 
missile launch is central to our Nation's defense and NORAD requires 
this space data to determine if North America is under attack. 
Similarly, the re-entry of a spent rocket body over North America has 
consequence management implications for NORTHCOM and NORAD. Having a 
window from which to view space activities enables us to have an 
overall picture of the next threat to North America. There are over 
17,000 manmade objects orbiting Earth and thousands more we cannot 
track. There are eight nations able to launch their own spacecraft and 
a few that are perfecting this technology. At the same time, there are 
commercial assets that could--even if unwittingly--launch a malicious 
payload into space. Saying ``don't know what we don't know'' is not 
good enough. I recommend that Congress support the efforts of U.S. 
Strategic Command to enhance our space situational awareness 
capability. NORAD requires survivable, protected and dynamic tactical 
satellite communications capabilities throughout our area of 
operations, including coverage of the northern Polar Regions.
    NORTHCOM requires dynamic satellite communications for capacity and 
coverage throughout our entire area of responsibility that will support 
real-time joint force networking, battle space awareness and land air, 
and sea-borne command, control, communications, computers, 
intelligence, surveillance, and reconnaissance. Both Commands' networks 
must seamlessly bridge with Federal, State, and local agencies. In our 
view, transformational satellites offer the most viable course of 
action to satisfy our requirements for high-speed, secure, protected, 
dynamically-allocated and efficiently-utilized communications.
    NORTHCOM communications efforts are focused on ensuring DOD is 
completely interoperable with our partners in DHS, FEMA, the National 
Guard, States, and local organizations to rapidly and effectively share 
information to ensure a prompt, coordinated response. We made advances 
in the area of deployable communications by aggressively addressing 
shortfalls identified during the response to Hurricane Katrina. In 
partnership with FEMA and the National Guard, we now have a combined 
total of 25 deployable cellular-based suites which include cellular 
towers, satellite communications connectivity, Land Mobile Radio 
interfaces, and ancillary devices for emergency responders. All of the 
suites are interoperable and can be immediately deployed to an incident 
site to provide reliable communications for civil authorities.
    In 2007, we published our Concept of Operations for Domestic 
Unmanned Aerial System (UAS) Operations, which explains how NORTHCOM 
envisions domestic employment of DOD UASs to help accomplish our 
missions of homeland defense and civil support. UASs will be employed 
in homeland defense missions to accomplish intelligence, surveillance 
and reconnaissance, communications, and CBRNE detection. Civil support 
applications of UASs include Incident Awareness and Assessment, 
communications, search and rescue, and CBRNE detection.
    Beyond our efforts to solve interoperable communications 
challenges, we must also resolve challenges with our surveillance 
radars. Inhibitors to these systems significantly impact our 
situational awareness and threat detection capability.
    The U.S.-Canada Surveillance Gap Filler Strategy is the NORAD and 
NORTHCOM centerpiece strategy for improving wide area surveillance of 
the North American continent. Current surveillance gaps leave our 
countries vulnerable to attacks in multiple domains. We are conducting 
a command and control gap filler joint capability technology 
demonstration (JCTD) and are developing a Next Generation Over-the-
Horizon Radar JCTD candidate as near-term steps in the strategy to 
achieve eventual full operational deployment. These technology 
demonstrations will focus on integrating surveillance sensor data in a 
developmental command and control system, fielding an enhanced sensor 
data fusion correlation system at the Continental U.S. NORAD Region Air 
Operations Center, and operationalizing a more capable wide area 
surveillance radar system for the homelands.
    Our Nation lacks an integrated air and missile defense of the 
homeland against cruise missiles, low-flying aircraft and short-range 
ballistic missile attacks. As the threat of terrorism looms and the 
proliferation of advanced asymmetric capabilities grows, I recommend 
the DOD initiate the development of a truly integrated air and missile 
defense system-of-systems tailored to meet the unique needs of the 
homeland. This system-of-systems must allow for military action to 
protect the homeland and our citizens against surprise attack while 
operating within the constraints appropriate to protect our way of life 
and national freedoms.
    The Maritime Domain Awareness Concept of Operations and Interagency 
Investment Strategy, advocated by NORAD and NORTHCOM and, approved this 
past year, provides an interagency way ahead to continue to improve 
maritime awareness in this vital domain. NORTHCOM directly supports the 
newly established Global Maritime Situational Awareness Office and also 
coordinates with the Global Maritime and Air Intelligence Integration 
office in their efforts to improve awareness. NORTHCOM has worked 
extensively with U.S. Joint Forces Command to conduct an 
experimentation series to further understand the current maritime 
domain awareness practices and allow evaluation of future ideas.
    Since Maritime Warning was added to the NORAD Agreement in 2006, 
mission development has steadily progressed, with the planning staff 
working in cooperation with several external agencies in the United 
States and Canada. Building upon the initial maritime warning 
capability established in late 2006, our staff prepared a strategic 
concept that will set the framework to establish and formalize 
agreements for improved maritime information sharing, to ensure a 
comprehensive shared understanding between both nations, and to 
institute the Maritime Warning process.
    NORTHCOM and NORAD continually evaluate global changes that may 
impact our continental security. One area of concern recognized by the 
United States government and DOD is the need to study the implications 
of Arctic climate change and how it will affect our military 
capabilities, organizations, and infrastructure in the area. Our 
homeland defense and civil support plans address the DOD response to 
potential effects of climate change. We support prudent steps to 
strengthen our Nation's disaster preparedness regardless of the 
political debate on climate change. We are grateful for Congress' 
direction in the National Defense Authorization Act for Fiscal Year 
2008 that the next National Security Strategy and the new National 
Defense Strategy include guidance for military planners to assess the 
risks of projected climate change to current and future missions of the 
Armed Forces. We also urge the Senate to ratify the Law of the Sea 
Treaty, as it will enable the U.S. to be party to the adjudicating body 
which will determine rights to the region's resources.
    There is no doubt future threats will look to exploit seams and 
vulnerabilities. Our Commands must close seams, eliminate 
vulnerabilities and enhance security so as to meet evolving challenges 
that are associated with an interconnected world. Achieving a truly 
seamless security posture is our perpetual objective.
                               conclusion
    NORTHCOM and NORAD are steadfastly committed to our mission of 
defending our homelands, and we know we cannot fail. Through continued 
emphasis on anticipating and preparing for all-hazards response with 
our mission partners, strengthening relationships with our mission 
partners, improving our homeland defense and civil support capabilities 
and anticipating future impacts to our continental security, we are on 
the right path for a secure nation.
    Our committed team of active duty members, civilians, Reserve 
component forces, Canadian personnel, interagency personnel, and 
contractors is trained, ready, and vigilant in our missions to defend 
our homelands and provide civil support. We appreciate the committee's 
efforts to ensure our men and women in uniform continue to have the 
best possible equipment, education, training, and care for their 
families. We applaud the President's call for Congress to enact 
legislation to allow U.S. servicemembers to transfer their education 
benefits to family members, to expand access to childcare for military 
families, and to increase government employment opportunities and 
funding for professional certification for military spouses. If 
enacted, these initiatives will greatly help military families cope 
with the challenges they face with frequent moves. We also strongly 
encourage support for the lifelong needs of our Wounded Warriors--it is 
an obligation our Nation must meet. With Congress' sustained support, 
NORTHCOM and NORAD will continue to protect and defend our fellow 
citizens and the freedoms they enjoy.

    Chairman Levin. Thank you, General.
    Admiral Stavridis?

   STATEMENT OF ADM JAMES G. STAVRIDIS, USN, COMMANDER, U.S. 
                        SOUTHERN COMMAND

    Admiral Stavridis. Good morning, Mr. Chairman, Mr. Ranking 
Member, Senators of this truly bipartisan committee. I thank 
you so much for the opportunity to appear today. I thank you 
also for the great support this committee has given to the men 
and women not only of SOUTHCOM, but of the entire Armed Forces.
    I'd echo what Gene said, that he and I are close friends 
and I'm very proud to sit next to him. It's not just a personal 
relationship. There's a deep professional relationship between 
NORTHCOM and SOUTHCOM that has to exist to address the security 
issues that we face together in this region.
    I know we want to get right to questions, so I'll be very 
brief. I would like to have my statement entered in the record, 
Mr. Chairman, if I could.
    I would make the comment, sir, that as I go about my 
business at SOUTHCOM people often say to me: Admiral, what you 
do is so important; you know, that's America's backyard. I 
think that's the wrong expression. This is America's home that 
we share together in the Americas. So our mission at SOUTHCOM 
is to approach the security challenges in this home we share 
together in a way that brings to bear international 
cooperation, interagency partnership, and partnerships within 
the military, like working with our brothers and sisters north 
of us in NORTHCOM.
    It's an area of the world with extraordinary promise, but 
it is burdened by poverty and, Mr. Chairman, as you said, it is 
burdened by narcotics, and it is burdened by instability. It's 
our home and I think we need to address the challenges in it 
seriously, and we should move forward in a variety of programs 
that do so.
    I put two photos up here today. I just want to mention what 
they are. Mr. Chairman, you spoke about the drug threat. On the 
right, this is a self-propelled semi-submersible submarine. It 
was captured off the coast of Guatemala between Colombia and 
Mexico. It was moving more than 5 tons of cocaine to the United 
States. It was captured in August 2007.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    It is indicative of the magnitude of the threat of 
narcotics flowing north and also indicative of the challenges 
of facing up to this threat.
    Senator Inhofe. Mr. Chairman, could he explain the position 
of this? I don't understand what we're looking at here.
    Admiral Stavridis. Sir, it's a semi-submersible submarine. 
It floats just below the surface of the ocean, and it was 
caught carrying 5 tons of cocaine from Colombia bound for 
Mexico and transshipment to the United States.
    It's again indicative of the drug threat. Mr. Chairman, the 
drug threat is a big national threat. There's a demand side in 
the United States, there's a supply side that you alluded to in 
Colombia and other parts of the Andean Ridge, and there's an 
interdiction challenge. Our part of the mission at NORTHCOM and 
SOUTHCOM is the interdiction portion of it. I put this graphic 
up to show that this is a significant threat and we are 
addressing it hard every day.
    Second, on my left is a photograph of something very good. 
It's the Hospital Ship Comfort. The DOD with interagency 
partnership and with international partners deployed this ship 
to the Caribbean and South America last summer. We did 400,000 
patient encounters, 100,000 individual patient treatments, and 
25,000 pairs of eyeglasses. I could go on and on. It was a 
tremendous demonstration of positive U.S. engagement in the 
region.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    So I put those two pictures up to simply make the point 
that there are challenges in this region, many of them stem 
from narcotics, instability, gangs, corruption, and drugs, but 
there are also solution sets that we need to think about 
applying, as we did last summer, and I hope we'll talk about 
some of those.
    In closing in my oral statement, sir, again thank you for 
taking the time. I look forward to your questions about current 
events in the region, which are certainly bubbling. Again, I 
want to close by thanking the committee for all the support 
over the years. Thank you, sir.
    Chairman Levin. Admiral, thank you very much.
    [The prepared statement of Admiral Stavridis follows:]
           Prepared Statement by ADM James G. Stavridis, USN
                              introduction
    Mr. Chairman, ranking member, and distinguished members of the 
subcommittee, thank you for the opportunity to appear before you today 
to discuss the United States Southern Command (SOUTHCOM) and our work 
in Latin America and the Caribbean. I would like to thank all the 
committee members for your support over the past year and for your 
continued support as we face the challenges and opportunities of this 
promising, yet complex 21st century.
    SOUTHCOM is charged with promoting security cooperation and 
conducting military operations in Central America, the Caribbean, and 
South America in order to achieve U.S. strategic objectives. 
Successfully accomplishing this mission enhances the security and 
stability in the Western Hemisphere and ensures the forward defense of 
the United States.
    Our efforts are significantly influenced by our understanding of 
the complexities of the hemisphere and our ability to foster 
cooperation with--and among--willing and capable partners. As 
globalization trends continue, we are certain that our security will 
involve deeper cooperation with multinational, interagency, and public-
private partners.
    2007 was an important year for SOUTHCOM. We celebrated our 
headquarters' 10th anniversary in Miami, conducted numerous bilateral 
and multilateral exercises, responded to several natural disasters, 
built new relationships and strengthened existing ones, launched a 
series of valuable medical missions, and put the command on track for a 
reorganization to meet the security challenges of the new millennium. 
With the ongoing support of Congress, we hope to continue our progress.
    Today in the Americas, from northern Canada to the tip of South 
America, 45 nations, territories, and protectorates are interdependent 
in many ways. While each of us celebrates our uniqueness and diversity 
across the hemisphere, we also share tremendous linkages and natural 
alignments that bring us closer together with each year that passes. As 
our hemisphere ``virtually'' shrinks, each of our Nations--working 
together--becomes more important in facing the challenges posed by this 
new century.
    Last year, in my first posture statement, I reported on the status 
of the diverse region we are assigned. I discussed the tremendous 
linkages that we share with Latin America and the Caribbean--important 
geographic, cultural, economic, and geopolitical linkages. I outlined 
some difficult underlying conditions faced by the region--led by 
poverty and unequal wealth distribution--and how they contribute to 
specific challenges such as crime, violence, and illicit trafficking of 
drugs, people, and weapons.
    This year, I would like to give you an update on our region, 
discuss the challenges we still face, report on SOUTHCOM's key 
initiatives, and detail our efforts to modify our organization to meet 
current and future security demands.
                         economics and culture
Economic momentum
    According to the United Nations' Economic Commission on Latin 
America and the Caribbean, this past year was an encouraging one for 
the region in terms of economic growth, with all of Latin America and 
the Caribbean benefiting from 5 consecutive years of positive economic 
performance. The year 2007 ended with an average overall economic 
growth rate of 5.6 percent, with some individual economies growing as 
much as 8 percent. From a historical point of view, the region has not 
seen an equivalent sustained economic performance in over three 
decades.
    A key contributor to this growth was the increase in formal 
employment, with an overall reduction in the unemployment rate to 8 
percent and an increase in real wages of about 1.5 percent--all leading 
to a rise in household consumption and a slight decrease in poverty 
levels. These positive economic indicators, coupled with expanding 
credit and rising commodity prices, stimulated the region's demand-
driven economic performance.
    ``Ours is a region of cruel contrasts,'' wrote one of the current 
Presidents in the region. Despite its economic growth, great wealth, 
abundance of natural resources, and the vast potential of its creative 
people, Latin America and the Caribbean still suffer from widespread 
poverty, unequal wealth distribution, and social exclusion. The level 
of these social ills does vary, however, by region, country, and the 
economic policies and practices of each government. But, as a 
developing region, notwithstanding its recent year-on-year growth, 
Latin America and the Caribbean are still lagging behind other 
developing areas.
    In terms of trade, the rest of the Americas continue to be a major 
trading partner with the United States, with almost 40 percent of total 
U.S. trade--imports and exports--flowing north and south in the 
hemisphere. From important sources for oil, metals, and other 
commodities, to key destinations for our exports such as machinery 
parts and other technical equipment, the Nations of the Americas are 
increasingly interdependent and important to the United States. In 
fact, we are either the primary or the secondary trading partner with 
almost every nation in the Americas. This continuous two-way flow of 
materiel, ideas, and people is reshaping the hemisphere. In essence, 
our economic exchange is the lifeblood of the hemisphere, sustaining 
our economies and ultimately providing security and prosperity for our 
people.
    The Free Trade Agreements we have with our partners in the region 
help facilitate this beneficial exchange and contribute to the 
demonstrated growth of all of our economies, thus contributing to 
security and stability. I would like to thank Congress for its support 
of the Peru Trade Promotion Agreement late last year--this is extremely 
important for security in the region. Additionally, we currently have a 
unique opportunity to strengthen our economic ties to two key friends 
and allies--Colombia and Panama--by passing Free Trade Agreements that 
could help bolster their economic security, and in the case of 
Colombia, help solidify the significant gains it has made towards 
achieving peace and stability for its citizens. Both agreements would 
help the overall level of security in the region.
Dynamic Cultures
    The Americas are an interacting system--a diverse, yet 
interconnected community, which in every sense of the word is our home. 
We have tremendous geopolitical, economic, and social linkages that 
make up the foundation of this home, and Latin America and the 
Caribbean are an integral part of its structure. Frequently, this 
important region is offhandedly referred to as the ``backyard'' of the 
United States--an image that is inaccurate and inappropriate--
especially since it is vitally important to our hemisphere and to the 
future of the United States. It is not our ``backyard,'' nor our 
``front porch.'' The Americas are a home we share together. A clear 
indication of this is the mixing and merging of cultures we see in the 
region, with a significant amount occurring here in the United States.
    To see some of the linkages, all you have to do is turn on the 
television or walk down the street. Fifteen percent of our population 
traces its heritage to Latino origin. Almost 50 million people, who as 
a popular commercial once said, ``live in English, but feel in 
Spanish.'' By the middle of this century, almost 30 percent of the U.S. 
population will be of Latino descent.
    In fact, the Latino advertisement sector is booming and seeks to 
attract this growing Latino population--a population with a combined 
economic power of nearly $1 trillion. Steadily, more channels and 
broader programming are available in Spanish, with viewers concerned 
about issues affecting their population and that of their countries of 
origin.
    This past year, the United States probably became the second 
largest nation of Spanish-speakers in the world--behind only Mexico, 
but ahead of Argentina, Colombia, and Spain. Four of the top 15 
surnames in the United States are now of Latino origin, and as the U.S. 
Census Bureau statistics illustrate, seven of the top ten largest 
cities in the United States are now arrayed in States along our 
southern border--San Jose, Los Angeles, San Diego, Phoenix, Dallas, 
Houston, and San Antonio. This represents a huge population density 
shift from 100 years ago, when all 10 major cities were in the 
northeastern part of the United States.
    What does this great mixing of cultures in our country mean? For 
starters, it represents a U.S. population interested in and connected 
to Latin America and the Caribbean. It represents a linkage to the 
hemisphere that we should leverage along with our various other natural 
alignments. We should couple this human connection with our country's 
natural generosity and ability for innovation and ultimately apply them 
to solve our shared challenges.
                               challenges
    When it comes to security challenges, fortunately, we do not see 
any conventional military threats to the United States developing in 
the region, nor do we foresee any major military conflict between 
nations in Latin America or the Caribbean. Although some historical 
competition and occasional tension between neighbors do exist, we are 
confident that any disagreements will be resolved through dialogue--a 
strength in the region--and not through state-on-state violence. 
However, public security threats--such as crime, gangs, and drug 
trafficking and use--pose the principal near-term security challenges 
to the region. Given the depth of our linkages in the Americas, these 
ills pose a threat to the United States as well. For example, the U.S. 
Department of Justice's National Drug Intelligence Center reports that 
there were an estimated 5,500 U.S. deaths that listed cocaine poisoning 
as a factor in 2004--a 43 percent increase from 1999. If this 
statistical trend continues at the same rate, and considering all 
cocaine-related deaths--such as accidents and homicides--it can be 
assumed that several thousand more people will die in the United States 
this year related to cocaine, most of which comes from Colombia, Peru, 
and Bolivia in the Andean Ridge of South America.
Poverty and inequality
    In many cases, the underlying conditions of poverty and inequality 
provide fertile soil for the principal security challenges in the 
region. Although recent positive economic growth has begun to make a 
dent in poverty rates, still about 35 percent of Latin Americans are 
living in poverty--subsisting on less than $2 U.S. per day.
    Moreover, about 13 percent of the people in the region live in 
extreme poverty--less than $1 U.S. daily--and nearly 80 percent of the 
entire region lives on less than $10 per day. When you add these 
poverty figures--which represent millions of people trying to provide 
for their families--to the world's most unequal distribution of wealth 
and a high level of corruption, you have a strong catalyst for 
insecurity and instability. Poverty and inequality--although not 
uniform across the region--make whole populations susceptible to the 
lure of illicit activity--such as an involvement with the drug trade, 
crime, gangs, or illegal immigration. It also creates a large 
constituency predisposed to vote for any demagogue espousing political 
or economic changes that might improve their financial circumstances, 
regardless of the ultimate consequences. This also provides a basis for 
terrorists seeking to exploit such conditions.
Drugs
    Drug trafficking is one of the greatest threats to public order in 
our hemisphere. The Andean Ridge in South America is the world's only 
significant source of coca cultivation. Cocaine is the fuel that feeds 
many public security ills in Latin America and the Caribbean--from 
criminal violence, to corruption, to political instability. But the 
drug trade's toxic effects are not isolated to our south. As mentioned 
earlier, we estimate that several thousand people will die in the 
United States this year due to cocaine-related events that can be 
traced to illicit drugs from this region.
    The global business of illegal drug production, distribution, and 
consumption is devastating societies in Latin America and the 
Caribbean. Narcotraffickers continuously adjust their operations to 
adapt to law enforcement efforts by developing new trafficking routes 
and consumer markets. Consequently, nations that were once isolated 
from the illicit drug trade are now experiencing its corrosive effects. 
Most nations in the hemisphere are now struggling to counteract the 
drug trade's destabilizing and corrupting influence.
    Each nation that finds itself affected by the drug trade will need 
to increase cooperation and dedicate more resources to combat this 
growing and adapting threat. Drug traffickers are innovative, adaptive, 
and organized. For example, as we interdict their shipments along 
coastal routes, they reroute west of the Galapagos Islands to avoid 
detection. As we stop them on the high seas, they build and operate 
self-propelled semi-submersibles that skim along the water line to 
avoid visual and radar detection. Through international and interagency 
efforts, we have interdicted several such semi-submersible vessels, 
which are showing improved capability and technology. Last year, a 
``ship building'' site was discovered in the Colombian jungle where 
five semi-submersibles were being built--each with a capacity to bring 
several tons of cocaine into the United States. To put this threat into 
perspective, each load aboard one of these vessels is the rough 
equivalent of one cocaine hit for each U.S. high school student--all 18 
million of them.
    Fortunately, we are making progress in Colombia--the major global 
source of cocaine. Colombian efforts have significantly eliminated key 
leaders involved in the drug trade. In September 2007, Colombian 
authorities captured Diego Leon Montoya Sanchez, one of the world's 
most dangerous drug traffickers responsible for nearly two-thirds of 
the hundreds of tons of cocaine exported from Colombia each year. 
Experts attribute nearly 1,500 murders to this ruthless criminal. 
Through fear and corruption, Montoya, like Pablo Escobar before him, 
played a huge, destabilizing role throughout Latin America. His arrest 
marks a major milestone for Colombia--a nation that has labored for 
years to build a foundation for legitimate governance and rule of law.
    Here in the United States, illegal drug use continues to be a 
serious challenge that needs to remain a high priority on the national 
agenda. There are legitimate needs on the ``demand side'' as well as on 
the ``interdiction and supply side.'' Every effort devoted to solving 
the drug abuse epidemic in this country and preventing the flow of 
illicit drugs is an effort well spent in directly saving the lives of 
U.S. citizens, enhancing our national security, and stabilizing fragile 
democracies in our hemisphere.
    SOUTHCOM's unique counternarcotics task force located in Key West, 
FL, is a role model for the kind of innovative cooperation and fusion 
of capabilities we need to counter this dynamic and pernicious threat. 
This Joint Interagency Task Force-South (JIATF-S) combines the efforts 
of international partners, the U.S. armed services, and numerous U.S. 
and international departments and agencies, including Panama Express, 
an interagency Strike Force of the Organized Crime Drug Enforcement 
Task Force supported by the Department of Justice dedicated to maritime 
interdiction originating in Colombia and related investigations. Thanks 
to this cooperative and effective arrangement, large quantities of 
narcotics moving through the region are interdicted each year. Last 
year this task force stopped approximately 210 metric tons of cocaine 
from entering the United States and facilitated the capture by law 
enforcement or partner nations of hundreds of drug traffickers. These 
efforts prevented the equivalent of roughly 1 billion cocaine hits from 
reaching our streets. More must be done, however. Drug traffickers 
respond to pressure by changing their tactics, as well as by 
diversifying their markets, such as in Europe and beyond, thereby 
compounding the global drug problem. JIATF-S has an outreach plan that 
includes interaction with European law enforcement agencies and liaison 
with most of the U.S. geographic combatant commands.
    Our task force uses a multinational and interagency approach that 
bridges the gap between the military's role of detection and monitoring 
and law enforcement's role of interdiction and apprehension. We will 
continue to address this problem with all available resources.
Violence and crime
    Violence and crime have become a major threat to the security of 
many nations in the Western Hemisphere. In fact, murder is one of the 
five main causes of death in several Latin American countries. The 
annual homicide rate for Latin America and the Caribbean is one of the 
highest in the world at 27.5 murders per 100,000 people. This murder 
rate stands in stark contrast to 5.5 in the U.S. and 1 in Western 
Europe. Recent surveys in Central America report that two-thirds of the 
respondents cite crime as the number-one problem facing their 
countries--six times the number of respondents choosing poverty.
    These crime rate trends are exacerbated by the growing influence of 
gangs and are severely challenging security and civil society 
throughout Latin America, with some gang population estimates reaching 
over one hundred thousand in Central America alone. Primarily, these 
are urban gangs comprised of disenfranchised youth, thus creating a 
challenging long-term and generational aspect to this threat. Central 
American street gangs--maras--are known for their brutal initiations 
and their extortion of ``protection'' money--or ``War Taxes'' as the 
locals call it. These gangs do not just pose a concern in Latin 
America. Central American gangs routinely cross borders and operate 
inside the United States.
    The size and reach of these gangs severely stress regional law 
enforcement capabilities. Partner nation law enforcement units are 
often out-gunned, out-manned, and overwhelmed when attempting to 
counter these criminal enterprises. As a result, partner nation 
military forces are often called in to support their law enforcement 
counterparts. These militaries then turn to the U.S. seeking assistance 
and advice, yet U.S. military forces are legally prohibited in our 
ability to provide such support. Support in these areas often resides 
in Department of Justice, Department of State (DOS), or U.S. Agency for 
International Development (USAID) programs, underscoring the fact that 
coordinated interagency solutions will be required to confront these 
threats.
    In recognition of these dynamics and the need for broader 
interagency involvement on crime and gang issues in the region, 
SOUTHCOM has worked with counterparts in the intelligence community, in 
Federal development agencies, and in domestic U.S. law enforcement 
organizations to improve mutual understanding of these complex social 
issues. Gang challenges and the need to address broad rule of law 
issues regionally have also led, in part, to expanded personnel 
representation at SOUTHCOM by the Federal Bureau of Investigation 
(FBI), the USAID, the DOS, and the Drug Enforcement Administration 
(DEA).
    In September 2007, we hosted a major Interagency Coordination Group 
conference on gangs in Latin America and the Caribbean. This conference 
underscored the pivotal role U.S. law enforcement and development 
agencies play in countering the regional criminal threat, linked 
disparate U.S. agency and law enforcement representatives, facilitated 
information exchange, and reinforced understanding of why U.S. military 
involvement in such efforts remains appropriately constrained.
Colombia
    Colombia continues to be a focus nation and valued partner for 
SOUTHCOM. Colombia is a strategic ally, an important friend, and a 
crucial country for the future stability and security of this 
hemisphere. Colombia has access to the Pacific and the Atlantic Oceans, 
shares a border with Panama that forms a natural land bridge to the 
United States, and is the second oldest democracy in the hemisphere. 
Yet Colombia continues to face challenges: it has been waging an 
internal struggle for peace for over four decades, and it remains the 
source for most of the world's cocaine.
    Overall, Colombia continues to make great progress in its complex 
struggle for peace and security. There is a building momentum for real 
peace in this long troubled country. I encourage the members of the 
committee to visit Colombia to experience first hand the sense of 
accomplishment and hope most Colombians feel today. A tour of Bogota--
recently named by the New York Times as one of ``The 53 Places to Go in 
2008''--will quickly highlight the economic growth and progress the 
country has made. Cartagena is an international tourist destination and 
a U.N. World Heritage City on the Caribbean coast. New construction is 
booming, citizens flock to the malls, restaurants are packed, and 
ordinary people routinely drive across the country in relative safety--
all activities unheard of a decade ago.
    With the steady support of the United States, Colombia is on the 
brink of winning its peace and making its successful gains against 
terrorism and social disorder irreversible. Desertions by members of 
the various subversive armed groups continue to rise. For example, 
Colombia's main narcoterrorist group--the Revolutionary Armed Forces of 
Colombia (FARC)--has been reduced to an estimated 9,000 fighters 
today--a significant decrease from the 17,500 fighters in 2002. The 
Colombian armed forces have had numerous operational successes against 
the FARC with the clearing of former FARC strongholds and the removal 
or bringing to justice of numerous high-ranking FARC leaders, such as 
Negro Acacio and Martin Caballero. Over the course of the last 5 years, 
homicides have decreased by 40 percent, kidnappings for ransom 
decreased by 76 percent, and terror attacks against civilians decreased 
by 61 percent--due in large part to the current Colombian 
administration's strategy of establishing security and governance 
throughout its sovereign territory.
    Colombia has made these difficult gains within an increasingly open 
and transparent political and judicial system. The press in Colombia 
has free reign to investigate and publish on any subject that it 
wishes. Just as in the United States, as illegal activity becomes 
known, accusations are made public and trials take place in an open 
legal system. Like many nations fighting for peace against capable and 
well-resourced foes, Colombia has uncovered some excesses and abuses 
linked to corruption and human rights violations. To Colombia's credit, 
regardless of the level of implication, they are attempting to 
prosecute these cases in a transparent and public manner.
    All of these and many other hard-fought successes are the result of 
dedicated effort on part of the Colombian Government with the 
assistance of the United States. Continued U.S. support at current 
levels for the next 3 years is critical, and we believe it will enable 
Colombia to achieve irreversible gains as it moves into the 
consolidation phase of its peace plan. During this important phase, as 
the Colombian Government extends effective government services and 
security presence throughout its territory, we predict this key 
strategic ally will benefit from progress toward peace, while the 
ability of narcoterrorists to grow, process, and ship illicit drugs 
will be significantly reduced--ultimately saving U.S. lives and 
resources.
    Over the next 3 years, support for the Colombian armed forces' 
campaign to defeat the FARC and for their interagency efforts to bring 
governance and economic opportunity to areas recaptured from the FARC 
is essential. Paramount to this support will be training, mobility, and 
sustainment of key infrastructure programs to provide long-term self-
sufficiency. Our continued support over the next 3 years will be 
critical through the ``nationalization'' period, as the Colombian 
government assumes responsibility and funding of the majority of 
current programs through the resources raised by its tax system--
specifically $3.7 billion that Colombians have agreed to generate 
between 2007 and 2010 to increase their defense budget by 12 percent.
U.S. Hostages
    For 5 years, U.S. citizens Marc Gonsalves, Keith Stansell, and 
Thomas Howes have been held hostage by the FARC in Colombia. Their safe 
return to the United States is a top priority for SOUTHCOM. 
Unfortunately, the FARC are extremely capable and experienced at 
holding and hiding hostages in the dense Colombian triple-canopy 
jungles. We are hopeful that our efforts and those of Colombia and the 
international community will soon see Marc, Keith, and Tom returned to 
U.S. soil alive and well. Last fall, a videotape seized from FARC 
operatives by Colombian authorities showed our three U.S. hostages 
alive. Since their capture in February 2003, we have maintained 
vigorous 24/7 activities in pursuit of their recovery, including tens 
of thousands of hours of surveillance and intelligence gathering in 
concert with our Colombian partners. We dedicate numerous personnel to 
this end, and have recently conducted a review of all activities and 
procedures to expand coordination, integration, and cooperation with 
our interagency partners and international efforts to achieve their 
repatriation.
Terrorism
    Since September 11, the potential for terrorist activity in the 
region is a growing concern. We consider Latin America and the 
Caribbean to be potential bases for future terrorist threats to the 
United States and others in the Americas. The conditions in parts of 
the region--easily skirted borders, black market economies, corruption, 
poverty, established illicit trafficking routes--all could provide 
maneuvering room for any form of terrorism to exploit, to include 
Islamic radical groups. The alleged plot to bomb the gas lines leading 
to John F. Kennedy International Airport in New York and the leading 
suspects' roots in the Caribbean raise the specter of Islamic terrorist 
activity gaining traction. We believe members, facilitators, and 
sympathizers of Islamic terrorist organizations are indeed present in 
our hemisphere.
    As with all of the Department of Defense (DOD), SOUTHCOM dedicates 
significant effort to remaining vigilant of terrorism. We have a unique 
regional plan to combat this threat through multiple avenues--including 
shaping the strategic environment through humanitarian operations that 
deter radical organizations from gaining a foothold in the region, and 
building partner nation capacity to detect and defeat threats in a 
cooperative environment. These efforts will help ensure the forward 
defense of the United States and increased security of our partners. We 
thank the committee for providing us the resources dedicated to this 
mission. We appreciate any effort that will provide flexible funding 
sources, such as those requested in the administration's Building 
Global Partnerships Act, to help us rapidly address emerging capability 
gaps of our partners as the strategic situation develops. SOUTHCOM will 
continue to work with our interagency and regional partners to ensure 
our Nation and those of our friends remain secure.
Guantanamo Bay
    We conduct safe, humane, legal, and transparent care and custody of 
the less than 280 detainees currently at the facility. More than 500 
detainees have left Guantanamo, and all activities there occur under 
close supervision and in full compliance with U.S. laws, Common Article 
Three of the Geneva Convention, the Army Field Manual, and the Detainee 
Treatment Act. Hundreds of reporters and legislators have visited the 
facility and observed the operations there first hand.
    Of particular note, the task force and the detainee camps exist on 
the grounds of U.S. Naval Station Guantanamo. Whatever the future holds 
for the detainee facility, the U.S. Naval Station, which reports 
through the U.S. Navy chain and not to U.S. Southern Command, will 
continue to be an important strategic location with both port and 
airfield facilities for the United States in the Caribbean.
International Competition and Cooperation
    There is much debate over where Latin America and the Caribbean are 
heading in a geopolitical sense. Some argue that there are ``two 
Americas'' with various distinctions between the two--left or right, 
pro-U.S. or not, market friendly or protectionist. Our job at SOUTHCOM 
is simply to build cooperative security relationships and to promote 
U.S. interests in the region. Unfortunately, some trends in a few 
countries impede security cooperation as their governments espouse 
vocal anti-U.S. messages and undertake policies that portend a less 
stable and secure hemisphere.
    Additionally, there are other international actors--notably Iran--
who are establishing political and economic inroads in the Americas. 
Unfortunately, they often espouse anti-U.S. messages, and, in the case 
of Iran, bring the potential for radical Islamic activity into this 
hemisphere.
    In order to counter these trends, we need to continue to engage 
proactively in the region and to counter anti-U.S. messaging with 
persistent demonstrations of our goodwill. The U.S., in general, needs 
to be capable of assisting our partners in addressing underlying 
conditions of poverty and inequality, while SOUTHCOM needs to build 
relationships and create innovative security initiatives with 
cooperative partners to confront transnational security threats.
Cuba
    Cuba continues as a vestigial colony of the failed communist 
system. It literally and figuratively stands as an island of oppression 
and tyranny amidst the democratic nations of the Americas. Over a year-
and-a-half ago, Fidel Castro's failing health sparked renewed hope that 
Cuba might soon join the community of democracies. Despite Fidel 
Castro's recent comments indicating he will not serve as the President, 
Cuba appears to remain entrenched in its repressive past. To the 
detriment of its people, the Cuban regime continues to embrace 
totalitarian control and the subjugation of its citizens. Consequently, 
we saw the highest levels of migration activity from Cuba last year 
since the 1994 migrant crisis, and we are prepared to support 
interagency efforts, if necessary, to respond to a mass migration 
emergency.
                              initiatives
    Throughout the year ahead, SOUTHCOM is committed to executing 
innovative initiatives to build capacity and capability to counter 
security challenges, enhance our own readiness, and increase linkages 
with our neighbors.
U.S Naval Ship Comfort
    A very visible and successful recent initiative was the deployment 
of the hospital ship Comfort  to the Caribbean, Central America, and 
South America. For 4 months last summer, this unique ship--with its 
specially tailored joint, interagency, international, and private 
sector crew--traveled to 12 countries in Latin America and the 
Caribbean to bring modern medical care to almost 100,000 men, women, 
and children through nearly 400,000 patient encounters. This symbol of 
goodwill brought renewed hope to those who might have given up on a 
healthy future and to those who might have previously been sympathetic 
to anti-U.S. rhetoric. This one deployment alone directly changed the 
lives of many and indirectly touched the lives of several hundred 
thousand throughout the region.
    More than just a medical mission, U.S. Naval Ship Comfort provided 
dental care to about 25,000 patients, conducted medical training for 
almost 30,000 host nation students and medical providers, and sponsored 
over 20 construction and restoration projects at local schools and 
health care facilities. U.S. Naval Ship Comfort also extended 
veterinarian services throughout its journey, treating and vaccinating 
thousands of animals, which constitute the livelihood of many families.
    It is difficult to assess precisely the overall impact of a 
training mission with humanitarian benefits of this scale. But based 
upon the positive local and international press, the number of national 
leadership visits, and the vast number of people touched by the U.S. 
Naval Ship Comfort mission, we believe it was a significant success. 
Certainly, there are many lessons learned from this first-ever 
deployment to Latin America and the Caribbean--and we will incorporate 
them into any future deployments--but the integrated and cooperative 
nature of this mission really serves as a model for the future of 
engagement and training: Joint . . . Interagency . . . International . 
. . Public-Private. We plan to conduct similar missions on a regular 
basis.
Disaster Relief
    Also demonstrating U.S. goodwill, last year, SOUTHCOM directed 
military forces to provide disaster relief to six of our partner 
nations in times of dire need. These disaster relief operations, which 
were integrated with USAID-led efforts and those of the international 
community, helped alleviate the suffering of many and assisted affected 
regions in their recovery. Specifically, we provided much needed flood 
relief to Bolivia in March, and quickly provided relief to Peru 
following an earthquake in August. Also in August, we assisted Belize 
after the passage of Hurricane Dean. We were critical first-responders 
to a Nicaraguan request for relief following Hurricane Felix in 
September, arranged the procurement of firefighting equipment for 
Paraguay during a widespread wildfire also in September, and assisted 
the Dominican Republic after Tropical Storm Noel ravaged the island 
nation in October.
    In almost every case, our Joint Task Force-Bravo (JTF-B), located 
in Soto Cano, Honduras, was a major contributor to the success of these 
disaster relief operations. Essentially a small, joint air wing 
comprised of 18 helicopters, JTF-B is our only permanently deployed 
contingency force in the region. JTF-B responds to crises as a first-
responder and routinely participates in humanitarian assistance, 
disaster relief, search and rescue, personnel recovery, and 
noncombatant medical evacuations. JTF-B has a long history of answering 
the call for assistance and is a tremendously valuable asset to 
SOUTHCOM's partnership and goodwill efforts in the region.
Humanitarian Assistance
    Throughout the year, SOUTHCOM's Humanitarian Assistance Program 
augments traditional military-to-civilian engagement activities in 
order to increase our partner nations' ability to respond independently 
to natural and manmade disasters. Our program helps local populations 
who could benefit from completed projects such as schools, clinics, 
community centers, orphanages, emergency operations centers, disaster 
response warehouses, wells, and potable water systems. Last year we 
completed 49 construction projects and provided critical training 
programs for first responders, disaster managers, firefighters, and 
disaster warehouse managers.
    A close corollary to the Humanitarian Assistance Program is the New 
Horizons series of joint and combined humanitarian assistance exercises 
that SOUTHCOM conducts with Latin American and Caribbean nations. These 
exercises provide readiness training for U.S. Engineer, Medical, and 
Combat Service Support units, but also provide great benefit to the 
host nation. Each New Horizon exercise lasts several months and usually 
takes place in remote areas. SOUTHCOM strives to combine these efforts 
with those of host nation doctors and civic personnel. In 2007, we 
conducted these exercises with four Nations--Belize, Guatemala, Panama, 
and Nicaragua.
    Along with the New Horizons exercises, SOUTHCOM also conducts 
medical readiness training exercises to bring medical aid to needy 
rural, isolated populations and to provide valuable training for our 
medical units--primarily from our Air Force and Army component 
commands. These demonstrations of goodwill reached over 200,000 
patients in 13 countries. Complemented by our coastal U.S Naval Ship 
Comfort mission, these unique training exercises had tremendous 
humanitarian impact inland across the region at 63 separate locations--
changing lives, influencing opinions, and spreading goodwill through 
quality donated medical assistance.
Global Fleet Station--Pilot Deployment
    Last summer, SOUTHCOM sponsored the pilot deployment of a new U.S. 
Navy program called Global Fleet Station. The new concept provides a 
modular platform for sustained engagement tailored to each unique 
region. SOUTHCOM quickly realized the great benefit for this program, 
given that all but two of our partner nations have direct access to the 
sea. Last summer, the High Speed Vessel (HSV) Swift conducted a 7-month 
tour of the Caribbean Basin with visits to seven countries.
    The focus of the HSV Swift deployment was to train local security 
units on port security operations, small boat operations and repair, 
and small unit tactics. This floating theater security cooperation 
platform hosted more than 1,000 military and civilian personnel and 
involved a joint, multinational, and interagency approach at each 
training site. HSV Swift also conducted community relations projects in 
each port to refurbish local schools and community centers and to 
deliver tons of donated goodwill materials. As with U.S. Naval Ship 
Comfort, this deployment represents the future of engagement--visible, 
persistent, scalable, and cooperative engagement that trains our 
personnel and demonstrates the goodwill of the United States while 
building partner nation security capabilities.
    The return on investment of the HSV Swift is very high. It is 
relatively inexpensive to operate; it can maneuver into very shallow 
ports; and it supports modular, tailored security cooperation missions. 
Providing more of this type of capability would greatly facilitate the 
achievement of SOUTHCOM's mission.
Partnership of the Americas 2007
    For the second year in a row, SOUTHCOM conducted a maritime 
Partnership of the Americas (POA) event in our region. Evolving from 
the initial 1-month event in 2006, POA 2007 involved a 6-month Navy and 
Marine Corps mission throughout Latin America and the Caribbean that 
focused on enhancing relationships with regional partners and improving 
operational readiness and interoperability. During the deployment, a 
four-ship multinational task force circumnavigated South America, 
participated in several multinational exercises sponsored by SOUTHCOM, 
and conducted theater security cooperation and community relations 
events on shore. Our POA events serve as visible symbols of U.S. 
commitment to bilateral and multilateral military cooperation and have 
evolved into comprehensive engagement missions that maximize exposure 
to international partners and local communities.
Operation Enduring Freedom-Caribbean and Central America (OEF-CCA)
    This year, SOUTHCOM began OEF-CCA as a key initiative to address 
potential terrorist threats in the region. Within a cooperative 
regional environment, OEF-CCA seeks to improve the capabilities of 
Caribbean and Central American partners to interdict and disrupt 
terrorists who might leverage illicit transnational routes and 
uncontrolled areas to threaten the United States and/or our neighbors. 
OEF-CCA is a long-term endeavor and will create a multi-layered 
counterterrorism posture of mutual benefit to the United States and 
regional partners.
Exercises
    In 2007, SOUTHCOM sponsored numerous military and security force 
training exercises throughout the region. Our largest exercise, Fuerzas 
Aliadas (Allied Force) Panamax, brought together 19 nations from three 
continents, all operating in a combined task force to simulate the 
defense of the Panama Canal and surrounding region from traditional and 
nontraditional threats. Panamax also involved representatives from the 
United Nations and the Organization of American States. As one of the 
DOD's largest exercises, Panamax 2007 was a resounding success. The 
exercise placed 30 ships, numerous aircraft, and several brigades of 
simulated ground forces under the control of multinational staffs, and 
all participants left with an improved understanding and capability for 
multinational cooperation.
    We also conducted a multinational exercise--Tradewinds--that 
focused on transnational threats in the Caribbean Basin. This 
successful exercise brought together security forces and interagency 
personnel from 18 nations to practice coordinated first-responder, 
fire, police, and military responses to security threats. The exercise 
scenario emphasized basic security operations, counterdrug activities, 
and disaster preparedness in a field environment with a focus on 
regional cooperation.
    We conducted two multinational peacekeeping exercises (PKO North 
and PKO South) designed to improve the capability of partner nations to 
plan and conduct peacekeeping operations. The emphasis of this exercise 
series was operational planning, command and control, and 
interoperability with regional armed forces assigned to U.N. missions 
and involved the integration of nongovernmental agencies and 
international organizations.
    Another of our exercise is Fuerzas Comando (Commando Forces), a 
skills competition and senior leadership seminar designed to enhance 
cooperation and trust between international Special Operations Forces 
while improving their training, readiness, and interoperability. 
Eighteen countries from throughout the region participated in this 
SOUTHCOM-sponsored exercise in 2007. Each year, this exercise assembles 
antiterrorism experts to exchange information and share tactics, 
techniques, and procedures for counterterrorism operations.
    Another significant exercise is our Unitas maritime exercise 
program that we conduct on both the Atlantic and Pacific sides of South 
America. These two exercises sponsor multinational maritime forces to 
enhance security cooperation and improve coalition operations. Unitas 
is our longest running exercise program and is coming up on its 49th 
year. Last year's exercises were conducted as part of our Partnership 
of the Americas event and trained each participant in a variety of 
maritime scenarios designed to practice operations within a 
multinational force.
Building Partnership Capacity
    Throughout U.S history, our Nation has depended upon external 
partners to help maintain our own security and to spread the benefits 
of security and stability to ensure a cooperative worldwide economic 
system. This is true now more than ever, as today's transnational 
security threats cross borders, use distributed networks, and leverage 
information technology to threaten peace-seeking nations worldwide.
    In addition to conducting exercises that build understanding and 
multinational cooperation, SOUTHCOM conducts a comprehensive Theater 
Security Cooperation program to develop the capability and capacity of 
our partners to respond to mutual security threats--either 
independently or with regional partners.
    SOUTHCOM participates in the Regional Counter Terrorism Fellowship 
Program that sponsors seminars, symposiums, and tactical and 
operational training designed to build the counterterrorism capability 
of participating nations. Our training involves information collection 
and sharing, professional development, port security procedures, quick-
reaction force actions, explosive device response, and civil-military 
responses to terrorism.
    Another of our partnership capacity building programs is Enduring 
Friendship (EF)--a multi-year maritime security assistance program that 
enhances the capability of select Central American and Caribbean 
partner nations to patrol their sovereign waters and share information. 
EF provides interceptor boats, operation and maintenance training, 
command and control systems, and a common operating picture to improve 
maritime domain awareness and interoperability. This key program shares 
U.S. information on illicit traffickers and builds or improves partner 
nations' ability to detect and interdict illicit trafficking along 
their shores.
    Besides our peace operations exercises, we also assist with the 
Global Peace Operations Initiative (GPOI), which is a DOS-funded and 
DOD-executed program. The intent of GPOI in our region is to train a 
multinational peacekeeping battalion from the Conference of American 
Armed Forces (Dominican Republic, El Salvador, Guatemala, Honduras, and 
Nicaragua) and two multi-role engineer companies from Paraguay to 
prepare them for deployment on U.N. peacekeeping missions. Through 
GPOI, SOUTHCOM assisted in the establishment of a regional training 
center located in Coban, Guatemala, which became operational in 2007 
and is the primary location for peacekeeping training, unit 
qualifications, and exercises. This important training center will also 
receive instructor and curriculum support from Argentina, Chile, and 
Uruguay--who already have their own well-established peacekeeping 
training centers.
    The State Partnership Program (SPP) is another example of 
successful partnership building that has had a tremendous benefit and 
return on investment. The SPP links 26 partner nations to 18 U.S. 
States using the U.S. National Guard as the executive agent. Last year, 
state National Guards conducted 113 separate training events that 
developed core competencies in regional military forces, promoted the 
concept of citizen-soldiers as public servants, and reinforced our 
bilateral relationships.
    In order to build understanding, SOUTHCOM conducts or facilitates 
military and defense exchanges, numerous defense seminars, and mobile 
training teams throughout the region. We also facilitate International 
Military Education and Training (IMET), which invests in the 
professional development of key military officers and senior enlisted 
leaders of our partners. IMET improves the professionalism and 
interoperability of partner military and defense forces and builds a 
sense of mutual understanding between the United States armed forces 
and the partner nation armed services. Training at our security 
institutions continues to be very popular and beneficial to our 
partners in the region, and access to funded billets at U.S. schools 
significantly diminishes the draw of extra-hemispheric military 
influence.
    A significant tool for building capacity is the Foreign Military 
Financing (FMF) program. FMF represents a powerful method of supporting 
military relationships, ensuring interoperability of equipment in 
coalition operations, regional cooperation, and developing partner 
nations' response capability to mutual threats and challenges. Although 
SOUTHCOM's focus region covers one-sixth of the globe and represents a 
region with significant linkages and shared challenges with the United 
States, FMF to this region in 2007 amounted to a slight fraction of the 
worldwide total. The FMF we did receive was spent on critical capacity 
building programs with our partners.
    A number of nations from this region were previously subject to 
sanctions under the American Servicemembers Protection Act. I would 
like to thank Congress for the recent lifting of the sanctions on those 
nations. This will have an enduring and positive effect on building 
long-lasting partnerships.
Human Rights Initiative
    All of our exercises, training evolutions, and partnership building 
activities are done within a framework of respect for human rights. 
SOUTHCOM has a unique and dedicated group of experts that assist the 
region's militaries and security forces in the human rights arena. 
Several nations in Latin America are still dealing with a not-so-
distant history darkened by abuses committed by uniformed militaries, 
militias, and guerrilla groups. We sponsor a Human Rights Initiative in 
a unique public-private partnership with a Costa Rica-based human 
rights organization. This initiative has created a consensus document 
on human rights through which the militaries and security forces of 
nine nations and a multinational organization have committed to advance 
an institutional respect for human rights and promote a zero-tolerance 
environment for violations. We support development of doctrine, 
education and training programs, internal control systems, and civil-
military outreach efforts by military and security forces of the 
region.
                        an interagency approach
    The 21st century security environment presents us with some 
significant new challenges, both globally and regionally, such as the 
global reach of radical organizations, nation states fighting in 
unconventional settings with unfamiliar tool sets, and growing 
environmental security concerns to name a few.
    These global conditions and the already described realities in this 
region, all require an interagency-focused approach. With the approval 
of the Secretary of Defense, we are initiating action toward 
reorganizing the command along more interagency lines--with 
interagency, multinational, and even limited private sector partnering 
as core organizing concepts.
    This is a critical and logical step towards better accomplishing 
our mission. Our goal is to establish an integrated interagency team 
with senior representatives from key departments and agencies assigned 
throughout the command. Toward that end, we are coordinating closely 
with those other departments and agencies in ensuring that our goal can 
be met in a manner that is consonant with their core mission interests 
and resources. This new organization will have functional divisions 
that reflect the types of missions we face in the 21st century. We will 
focus on teaming with DOS and will seek new and expanded partnering 
arrangements with the Nations and territories in the region. Despite 
its new integrated structure, however, SOUTHCOM will always retain a 
principal competency to conduct military operations, with an unbroken 
and capable military chain-of-command and authority.
    Fortunately, we already have significant interagency integration at 
SOUTHCOM. Over the last year, we created a directorate designed to 
foster collaboration with interagency partners. We have exchanges, 
liaisons, and/or representatives from 17 Federal agencies and 
departments that participate in our planning efforts and help 
coordinate command activities. We have hosted extremely successful 
interagency conferences, exercises, and coordination group meetings on 
a number of strategic topics related to our assigned region. Each of 
these events, from the tactical worker level to senior interagency 
leadership, gave all participants an improved understanding of complex 
issues and a baseline for future cooperation.
    In addition to our interagency integration efforts, we have also 
created a staff section dedicated to understanding and developing 
public-private cooperation. This unique group reaches out to the 
private sector and finds where we can legally build synergy in our 
efforts to engage in the region. To date, we have coordinated the 
delivery of tons of donated goodwill material to the needy of the 
region and have facilitated the delivery of higher-end needs such as 
donated ambulances and operating room equipment. This effort, which 
truly has the potential to harness the good nature and resources of the 
U.S. private sector, will add depth and breadth to our interaction with 
our partners in Latin America and the Caribbean.
    Together with our partners in the U.S. Government, private sector, 
and international community, we should be able to better defend the 
United States and to enable a secure, stable, and prosperous hemisphere 
of cooperating and democratic nations.
                             looking ahead
    Looking forward, we have identified critical capability 
requirements that will allow us to confront the challenges we see in 
the region today and the security trends noted for the future.
Fusion
    In order to coordinate joint, multinational, interagency, and even 
limited public-private efforts in our region, SOUTHCOM needs the 
physical and virtual capability to fuse information from diverse 
entities and to operate from a location that facilitates idea exchange 
and integrated planning. This location will allow our diverse partners 
to integrate into our organization in a transparent manner, allowing 
them to participate in daily activities while building mutual trust and 
cooperation. Our new headquarters building and the information systems 
scheduled for installation will serve to meet this requirement. We 
thank the committee for its support in authorizing the new construction 
of our headquarters, which we are scheduled to occupy in 2010. The 
construction timeline should greatly enhance our effectiveness once 
complete.
Persistent engagement
    As discussed above, the capability to forge willing and capable 
partnerships throughout the region and to create a sense of goodwill 
towards the United States are essential to achieving our mission. In 
order to do this, we need persistent engagement. We plan to conduct 
deployments similar to the U.S.N.S. Comfort  and HSV Swift on a regular 
basis. We need military and civilian, public and private exercises and 
initiatives throughout the region, with more microbursts of assistance, 
as well as long-term initiatives integrated across the Federal 
Government. In short, we need coordinated, whole-of-government, 
persistent efforts that meld with the efforts of the international 
community and the private sector.
    In order to strengthen and/or gain partners, first we need to earn 
and maintain their trust. This will require a unified approach with 
consistent, effective, and flexible engagement. It will require 
cohesive strategic messaging and innovative and earnest information 
sharing across the board. It will require innovative ways to make our 
various exercises, programs, and partnerships more inclusive and more 
effective in reinforcing our connection to the peoples of the region.
    Along with this engagement, we need to ensure our message gets out 
effectively and that we understand the impact of our efforts. Over the 
past year, SOUTHCOM has refocused efforts on strategic communication, 
making it a priority at all levels of the command.
Capable partners
    Continued globalization and the diffusion of high technology have 
made it certain that the United States cannot ensure its forward 
defense alone. Working alone, we cannot stop drug traffickers from 
penetrating our borders; nor can we locate and neutralize terrorist 
threats abroad without capable partners willing to cooperate with us. 
Persistent engagement will go a long way toward building willingness, 
but we also need to identify capability shortfalls with these partners 
and flexibly expend resources to build overall regional security 
capability and capacity. Just as important, we need to be able to 
rapidly address capability shortfalls with key partners to meet 
emerging transnational threats.
Sovereignty and peacekeeping
    As our partners build capability and capacity, we need them to be 
able to deny transnational threats from using their sovereign 
territory. We need them to be able to ``see'' these threats, whether on 
land, in the air, on the sea, or in cyberspace. This involves the 
appropriate awareness systems--coastal radars and air surveillance 
radars, for example--as well as physical assets such as patrol boats 
and aircraft with crew trained and proficient to operate and maintain 
them. It will also require the ability to share information with the 
United States and with adjacent neighbors in order to build a common 
operating picture in a regional sense.
    We also need these partners to be able to conduct peacekeeping 
operations. Already, we see many nations in the region contributing to 
international peacekeeping in places such as Haiti. By developing a 
regional capability, we will reduce the demand for U.S. forces to 
perform peacekeeping missions, while also increasing the legitimacy of 
peacekeeping forces by diversifying international representation.
Interagency core
    Besides the ability to fuse information and efforts across the 
command, we also need to create an environment where the various U.S. 
Government agency representatives are willing and authorized to 
integrate into our efforts. We need to create a whole-of-government 
program where integrated planning and career exchanges are the norm. It 
should be a positive career step for someone from the military to fill 
an exchange in one of the other Federal agencies, and the converse 
should be equally true. By working together and building a regional 
focus point for policy implementation, we should be able to reduce 
redundancy, gain resource efficiencies, and ultimately better ensure 
our security and that of our partners.
Flexible access
    The use of the sea affords us tremendous flexibility for maritime 
partnering with the Nations in the region. But in order to maintain 
persistent engagement and more fully cooperate with our partners, we 
are looking for more flexible land and aviation access agreements under 
the Secretary of Defense's Global Defense Posture. Our current access 
agreements limit us to aerial counternarcotics detection and monitoring 
missions from existing cooperative security locations and to a single, 
more flexible agreement at the forward operating site of our Joint Task 
Force-Bravo. We are looking to establish improved regional access that 
supports broad-spectrum operations and that is mutually beneficial to 
the host partner nations and the United States.
Understanding
    The last of our required priority capabilities is probably the most 
important--the ability to understand the region, know what transpires, 
and how to act or interact with our partners. Modern information 
systems, extensive language capability, and cultural training and study 
are the tools necessary for this command to achieve this understanding. 
The importance of Latin America and the Caribbean to the United States 
cannot be overstated. It merits frequent high-level visits to see first 
hand the tremendous linkages and challenges we share and to demonstrate 
U.S. interest and commitment to our partners in Latin America and the 
Caribbean.
                            command heading
    Thanks to the support of Congress, this year is already on track to 
be another good year for SOUTHCOM and the pursuit of our mission in the 
region. We will be planning and executing numerous multinational 
exercises, exchanges, and humanitarian events. We are building on 
lessons learned from last year and are further integrating joint, 
multinational, interagency, and public-private efforts into as many of 
our actions as possible.
    Soon the aircraft carrier U.S.S. George Washington will be sailing 
around the region as the centerpiece of our Partnership of the Americas 
event. As we did last year, this deployment will encompass much more 
than just traveling around the region; it will encompass our major 
maritime exercises and other smaller exercises. We have the perfectly 
named ship for this event, U.S.S. George Washington. Washington was an 
early idol of Simon Bolivar, who was the father of liberty in South 
America and an iconic ``American'' in the broadest sense of the term.
    We also are revamping our land engagements this year, with the 
beginning of a program called ``Beyond the Horizon.'' This program will 
maximize the impact of our land events by increasing the number of 
``microburst'' engagements--engineer construction, small unit 
familiarization, subject matter exchanges, medical readiness training 
exercises--as well as establishing longer-term programs that integrate 
the efforts of other U.S. Federal agencies, host nations, and the 
private sector.
    Also this year, we will be conducting Continuing Promise, a multi-
month training mission with the U.S.S. Kearsarge--a large deck 
amphibious ship--which will continue the successful mission of the 
hospital ship U.S.N.S. Comfort  from last year. This deployment will 
highlight persistent engagement with innovative interagency, 
multinational, and public-private cooperation.
    We will continue our Regional AirSpace Integration (RASI) 
initiative with a focus on improving Central American capability to 
detect and monitor aircraft in their predominantly unmonitored 
airspace. This initiative involves integrating the civil, military, and 
security air domain in the region, modernizing air traffic management, 
and building a multinational common operating picture through a 
regional surveillance center and new surveillance radars. A 
complementary program to RASI is our Regional Aircraft Modernization 
Program (RAMP), which conducts surveys to identify gaps in the aviation 
capability of our partners to respond to transnational threats. 
Ultimately, RAMP aims to promote regional air sovereignty through 
increased cooperation, interoperability, and modernization of regional 
air security assets, with cooperating nations better prepared to 
perform humanitarian and air sovereignty missions.
    We have numerous other programs and initiatives coming on line--all 
working to advance our mission in the region. We are progressing 
steadily on our reorganization efforts and have received significant 
support from our sister agencies on this effort. We continue to track 
along our command heading: understanding the linkages the United States 
shares with the region; working together with partners to overcome 
shared challenges; and fulfilling the promise of a secure, cooperating, 
and prospering hemisphere through innovative and effective strategic 
initiatives.
                               conclusion
    I take great pride in our exciting and important mission and in the 
tremendous efforts of the men and women of SOUTHCOM. I believe we have 
made good progress over the last year; and that this year and those to 
come promise to see solid return on Congress's investment in the 
region. I would like to thank all of the members of the committee and 
indeed all the Members of Congress for your support of SOUTHCOM and the 
hard work we are doing for our country in Latin America and the 
Caribbean.
    Although the likelihood of large-scale military combat in our 
region remains very low, this region continues to play a critical role 
to the continued security and prosperity of the United States. Despite 
some challenges, I believe that through the sharing of ideas, economic 
interdependence, cultural understanding, and an integrated approach to 
partnering, the United States will continue to be a welcomed partner of 
choice in this hemisphere. At SOUTHCOM, we will work hard to help make 
this vision a reality. We are committed to being the military partner 
of choice and will continue to harness innovation and to develop the 
relationships necessary to accomplish our mission.
    Finally, I would like to say a word about the superb soldiers, 
sailors, airmen, marines, coastguardsmen, and civilians--Active-Duty, 
Reserve, and Guard--who serve in the region. They are volunteers and 
patriots, and I am proud and lucky to serve with them everyday. Our 
greatest strength is our people, and I ask continued support for the 
programs that support them and their families.
    I thank you for your support and am prepared to answer your 
questions.

    Chairman Levin. Let's have a 6-minute round for our first 
round.
    Admiral, in June 2006, the President declared that he 
``would like to close Guantanamo.'' Have there been any 
directions to you relative to that policy?
    Admiral Stavridis. No, sir. Since that time I believe the 
Secretary of Defense and the Chairman of the Joint Chiefs have 
both spoken to the subject. They have also indicated a desire 
to close Guantanamo Bay. At this moment I'm unaware of any 
direction to me to do so.
    I will make the point that since the high point of 800 
detainees we're down to about 270. I know the administration in 
cooperation with other international partners is seeking to 
reduce that number.
    Chairman Levin. How many of the 270 detainees have had 
status determination hearings?
    Admiral Stavridis. Sir, I'll take that one for the record, 
because I don't at SOUTHCOM--I'm not involved in the judicial 
side of this. That is a totally separate part of the command. 
Our mission at Guantanamo is the humane and transparent 
treatment of the detainees, and I'm very satisfied we're living 
up to our part of it at SOUTHCOM.
    Chairman Levin. Give us that number for the record.
    Admiral Stavridis. Yes, sir, I will.
    [The information referred to follows:]

    According to the Office for the Administrative Review of the 
Detention of Enemy Combatants (OARDEC), all detainees held by Joint 
Task Force-Guantanamo (JTF-GTMO), except for the six most recent 
arrivals, have been determined to be enemy combatants through the 
Combatant Status Review Tribunal (CSRT) process. As neither U.S. 
Southern Command nor JTF-GTMO conduct CSRTs or control the CSRT 
process, I defer further questions on the matter to the Deputy 
Assistant Secretary of Defense for Detainee Affairs and OARDEC.

    Chairman Levin. Relative to Cuba, what changes, if any, do 
you expect in Cuba's approach to security in the hemisphere and 
to the United States under Raul Castro?
    Admiral Stavridis. Sir, unfortunately I do not expect 
significant change under Raul Castro. Sir, he was elected on a 
Sunday and, as I've said to people, Cuba on Monday looked a lot 
like Cuba on Friday. The change was the first name of the 
president, from Fidel to Raul.
    Raul quickly consolidated his power by bringing into his 
immediate organizations his senior vice presidents, a group of 
men who are in their 70s by and large and also very much 
reflect the Castro view of how power ought to be consolidated. 
This is a national assembly with 614 seats and 614 candidates 
ran for office. It's not a vibrant democracy, to say the least.
    So as I look at the future of Cuba under Raul, sir, I do 
not see significant political change in the offing.
    Chairman Levin. Do we have any military contacts with the 
Cuban military?
    Admiral Stavridis. Sir, there is one set of routine contact 
that occurs between the commander of the Guantanamo Naval 
Station and a senior Cuban colonel, and those are the so-called 
Fenceline Talks. They happen about once a month and they are to 
discuss routine issues of the management of the air space and 
the water space over Guantanamo Bay. Beyond that, I'm not aware 
of any military-to-military contacts.
    Chairman Levin. Are they professional?
    Admiral Stavridis. Yes, sir, they are very professional, 
very courteous. There is absolutely no problems between those 
two.
    Chairman Levin. Do you welcome increased military-to-
military contacts with the Cubans?
    Admiral Stavridis. Sir, that's clearly a national policy 
decision that would have to be taken by the administration in 
concert with Congress. I don't think that's mine to address.
    Chairman Levin. General, you talked about coordination with 
Governors and with The Adjutants General (TAGs), the State 
TAGs. You have indicated that coordination and cooperation is 
very close. You've given us your statistics in terms of the 
number of reservists and guardsmen that are on your staff. So I 
think I'll ask you about some different aspects of your work, 
even though that is a critically important subject.
    Your prepared statement mentions a U.S.-Canada surveillance 
gap and a strategy to fill that gap. I gather this is the 
number one unfunded priority. Could you describe that program 
briefly and why is it your highest unfunded priority?
    General Renuart. Mr. Chairman, thank you for that question. 
Today the surveillance network that we use--and it's important 
to note that this is both a NORAD and a NORTHCOM-related 
program--those surveillance tools that we use, the network that 
is created is aging rapidly. Congress and the Department have 
funded a service life extension program, and again these are 
predominantly for older style radars that allow us to maintain 
visibility on aircraft working in our national air space system 
of both countries.
    I am also tasked to provide maritime warning for both 
countries and as the NORTHCOM commander, respond to maritime 
threats for the United States. We have a gap in the ability to 
maintain situational awareness on vessels in the maritime 
domain. So this initiative allows us first to look at advanced 
technologies that can replace the fixed radar sites that we use 
around the country today with a combination of other sensors, 
both active like a radar and passive, that might be available.
    So it is a program, a project, that will allow us to look 
at the advanced technologies available and be prepared for the 
time in the vicinity of 2015 to 2020 where these radar systems 
truly will be at the end of their capable life cycle, and to 
have an integrated set of sensors available to us that can 
continue to carry that load.
    As an example, the Federal Aviation Agency is moving 
towards a more compliant system based on global positioning 
systems and the like. The challenge for us in our Homeland 
mission is that threat-based capabilities aren't necessarily 
compliant. So we need a means of identifying those.
    We are working closely with the Government of Canada and 
with their defense department on technologies. We've looked at 
places like Australia who have done some great work in over-
the-horizon radar and we're trying to find the best sweet spot, 
if you will, for a smart investment strategy, but capable 
sensors for the future.
    Chairman Levin. Senator Warner?
    Senator Warner. General, I'd like to go back to the 
question of the Commission's report, which was critical of our 
current national state of preparedness or lack of preparedness 
for natural and manmade disasters. That was a very substantive 
criticism directed, not to you personally, but to your command 
and the work of your predecessor. Secretary McHale came up and 
talked to Congress.
    I want to make certain that the record that is before 
Congress, before this committee and perhaps other committees, 
really has a reply from your command which addresses each one 
of the points that they raise, because should they have the 
misfortune of an incident in this country, people will turn to 
determine what was the problem and, if there is a problem which 
Congress, as opposed to the executive branch, has some 
responsibility, I and others on this committee would like to 
know what it is that you think should be done. Is it a shortage 
of appropriations, is it a shortage of authority? Or how would 
you summarize--and I'll ask you to put the rest of it into the 
record, we're so short on time this morning--but summarize.
    Say, for example, is it your professional judgment we're 
prepared today, the United States and our 50 States, to react 
to a WMD? I suppose there's a whole spectrum of them out there, 
but just take the logical one, a dirty bomb type situation or 
something of that nature.
    General Renuart. Senator, thanks for that question. 
Actually, I do take the report somewhat personally because I 
sat with Secretary Gates before taking command and listened to 
the interim briefing from the committee. Frankly, I agreed with 
the----
    Senator Warner. From the Commission or the committee?
    General Renuart. From the Commission, I'm sorry. From the 
Commission.
    I agreed with a number of those early recommendations and 
took those on, with the Secretary's support, a personal mandate 
as we arrived at NORTHCOM. But having said that, I think that, 
first, your question is do I have the authority necessary from 
Congress to conduct our mission. The answer absolutely is yes. 
I believe that the gaps in our national capability that we saw 
post-Hurricane Katrina, we have worked aggressively to ensure 
those gaps no longer exist. We have a relationship with the 
National Guard Bureau, with the States, all through the country 
now that has created through this idea of anticipation a sense 
of what bad could happen and then how are we prepared to 
respond to that.
    With respect to WMD, the capabilities are available to me 
today. I would ask the Secretary for them to be deployed and 
have them made available to me. In the future, I would like 
forces assigned to me that I have every day, that I can 
exercise and train and evaluate their readiness every day. 
We're on the road to creating that force. By early this fall, 
we will have a dedicated force fully trained, fully equipped, 
fully funded, and then exercised and certified that will allow 
us a near-immediate response to a catastrophic event, whereas 
today it may take a few days in order to have that force 
available.
    Senator Warner. Now, should an incident occur--let's talk 
about the command and control. With due respect to the 
sovereignty of our States, and very proud, and hard-charging 
Governors presumably in each, is there a clear chain of command 
to who takes charge, particularly when it's a multi-State?
    General Renuart. Senator, I think each event begins as a 
local response, obviously. So that local first set of first 
responders, supported by State responders, clearly are the 
right people to be the first ones on the scene. The Governor in 
many cases----
    Senator Warner. Our units which we establish nationwide, 
the name has changed now. They're responders. They could be 
first responders.
    General Renuart. They could be, but again it would depend 
on the size of the event and the circumstances surrounding it. 
If we use the concept of a catastrophic event as the test case 
of this, I think you would still have various State Governors 
beginning to respond. The President would clearly make a 
decision on the Federal nature of this response. But our forces 
would be in a position to be on the ground within hours and to 
begin to assist.
    In terms of the command and control, if the President's 
decision is to allow Governors to continue to manage for their 
State and have a regional Federal military capability that can 
go across lines, we have processes agreed to with our National 
Guard friends, that are understood by the States, that can 
allow----
    Senator Warner. I'm going to stop at that because I have 
just a few minutes.
    General Renuart. I'm sorry.
    Senator Warner. Please finish, but put it in the record.
    General Renuart. I will put that in the record.
    [The information referred to follows:]

    Today, Governors have the authority to direct all operations in 
their States and I am very supportive of this authority. My goal is to 
achieve the highest levels of coordination between State and Federal 
military forces. Our current system achieves that goal with the Federal 
military forces under the command and control (C2) of U.S. Northern 
Command (NORTHCOM) responding to requests from State or local 
governments through the primary Federal agency. All of my operations 
would be seamlessly coordinated with National Guard State Joint Task 
Force Headquarters, National Guard Bureau, and all appropriate Federal 
agencies.
    As a combatant commander, my primary concern regarding this 
recommendation from the Commission on National Guard and Reserves is 
that it would create more issues than it would resolve by impeding the 
coordinated Federal response established in the National Response 
Framework (NRF) and the comprehensive National Incident Management 
System (NIMS). It simply is not necessary; and in the end, our response 
would not be as effective as it is today.
    When conducting consequence management in support of State and 
local officials, NORTHCOM is part of a coordinated Federal response 
under the NRF and NIMS. Under this structure, NORTHCOM provides support 
requested by State and local officials, through the primary Federal 
agency. The scope and focus of each mission is controlled by a State's 
initial request to the primary Federal agency, and the subsequent 
request for support from the primary Federal agency through the 
Department of Defense (DOD) to NORTHCOM. NORTHCOM remains, at all 
times, under the C2 of the Secretary of Defense. Within the general 
parameters of the approved mission and keeping the integrity of its 
Federal C2, NORTHCOM coordinates with the on-site State or local 
commander, and responds to the developing needs of the situation.
    Currently, there are few, if any, problems with this C2 structure. 
NORTHCOM tests this C2 structure on a daily basis as various situations 
arise, and puts the structure under immense pressure during our 
national level exercises. But even with that, we have continued to work 
on improvement. In July 2007, I directed a comprehensive Organizational 
Mission Analysis. This analysis included NORTHCOM Headquarters and our 
subordinates. Our intent was to assess C2 structures and internal 
procedures to determine if they provided the best framework for 
success. Based on that analysis, I approved a realignment that will 
further streamline NORTHCOM's internal C2 structure and provide for a 
more seamless integration with our mission partners.

    Senator Warner. You give us the assurance it is in place, 
it is understood, and it will work?
    General Renuart. Senator, I will give you that personal 
assurance and I will put that in the record.
    Senator Warner. Thank you.
    Admiral, as you look back over your long, distinguished 
career, I dare say the chapter when you had a mere three 
stripes and was the commander of a destroyer was one of your 
greatest. As a matter of fact, you're working on a new book to 
cover that.
    That is an interesting vehicle right there. The first 
question is, was it homemade in a garage or is there somebody 
making these, and how many of them are out there now? That's a 
destroyer's job together with air assets.
    Admiral Stavridis. It is a combined job of surface ships, 
of aviation. It certainly is an intelligence function. It's an 
interagency.
    Senator Warner. It's everything.
    Admiral Stavridis. It is everything.
    Senator Warner. How many of them are out there?
    Admiral Stavridis. Sir, we don't know how many of them are 
out there. Let me give you a set of numbers, though. In 2006 we 
were tracking either via intelligence or capturing around three 
of these, in 2006. In 2007, it jumped to about 30. This year so 
far, in 3 months we've seen about 30. So we are seeing more and 
more of these.
    We don't know how many there are that we are not seeing.
    Senator Warner. Have you captured one?
    Admiral Stavridis. Yes, sir, we've captured several and we 
are exploiting them. Typically what happens--
    Senator Warner. Reverse engineered it?
    Admiral Stavridis. Yes, we are doing all of that. At the 
moment we have a prosecution that we have just completed. What 
normally happens with these guys is they scuttle them and they 
go to the bottom, and we're lucky to recover the drugs and get 
the people off. We have captured several. We are reverse 
engineering them and we are very aggressively pursuing this.
    Senator Warner. Are they made in a shipyard somewhere?
    Admiral Stavridis. No, sir, I don't think they're made in 
shipyards. They really are essentially garage-level technology. 
It's just a diesel engine, a fiberglass hull, a snorkel, a 
primitive periscope, seating in a crude sense for two to four 
personnel.
    We are working very hard on the intelligence front to find 
out where they are coming from.
    Senator Warner. They're able to traverse quite a long 
distance?
    Admiral Stavridis. They can go hundreds of miles. They have 
diesel engines, which are very economical. Then the drug 
cartels will come out and do a refueling at sea, if you will, 
and then they'll continue on.
    Senator Warner. That's quite interesting. My time's up.
    Chairman Levin. Thank you so much, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, General and Admiral. You're really two impressive 
people and we're lucky to have you working for us. I appreciate 
it very much.
    I do want to ask on this first round, Admiral Stavridis, a 
few questions. But before I do that, General, following up on 
the earlier questions on the Commission report, I just want to 
reflect from my point of view wearing my other hat as chairman 
of the Homeland Security and Governmental Affairs Committee 
(HSGAC) that we are a lot better prepared to respond today than 
we were on September 11, 2001, or during Hurricane Katrina. I 
think you'd be the first to agree. We have a ways to go.
    But I just want to ask you very briefly. I've been 
impressed with the development of the Consequence Management 
Response Teams.
    General Renuart. Yes, sir.
    Senator Lieberman. I say this for my colleagues and for the 
public insofar as anybody's watching. Just spend a moment. Your 
goal is to have three almost brigade-sized units, 4,000, ready 
with the unique and targeted purpose of responding to homeland 
disasters, terrorist or natural.
    General Renuart. Senator, thank you. That is exactly right. 
Today there are elements of that in place in our States, 53 
Civil Support Teams, 17 smaller units.
    Senator Lieberman. Right.
    General Renuart. But these forces in particular are 
substantial in size and in capability. They're trained and 
equipped with the technical skills necessary to respond to an 
all-threat catastrophic event. We do intend, the Secretary's 
intent is to grow these incrementally over the coming couple of 
years so that we would have three of those forces in place very 
soon. As I said, the first one will be full up this fall.
    Senator Lieberman. This fall, and of course, none of that 
existed on September 11, 2001.
    General Renuart. No, sir, that did not.
    Senator Lieberman. Or at the time of Hurricane Katrina.
    General Renuart. It did not.
    Senator Lieberman. Thank you.
    Admiral, I wanted to ask you a couple of questions about 
the current crisis around Colombia, Venezuela, and Ecuador. It 
certainly seems to me, and I'm going to ask you what your 
position and understanding is and what our government's is, 
that the Colombian Government had the right to take action 
against the terrorists who were striking at them from a camp in 
Ecuador. Is that your position and the position of our 
government?
    Admiral Stavridis. Sir, I can't speak for the U.S. 
Government. My understanding, reading the President's remarks 
yesterday and listening to what I can at the policy level, is 
that that would be an accurate representation. But I would not 
speak for the U.S. Government position.
    I can tell you that from a SOUTHCOM position we are 
monitoring events closely. We are talking to our interlocutors. 
I agree with what Secretary Gates said yesterday, that I 
personally see a very low likelihood, very low, of actual 
shooting conflict here. I think there is some level of troop 
movement. We're watching that on the Venezuelan-Colombian 
border, and a lesser movement on the Ecuadoran-Colombian 
border.
    I'm encouraged over the last couple of days by the 
Organization of American States, which has held meetings on 
this and is providing a forum. Certainly this is a diplomatic 
issue that needs to be worked between the three countries.
    I'm also encouraged to see significant actors in the 
region, like President Lula of Brazil and President Bachelet of 
Chile, making offerings of the ability to hold talks and help 
the three countries through this.
    The good news in this region is that there is not a strong 
history of prolonged warfare, and so again I think there's a 
low likelihood of conflict and I'm encouraged over the last day 
or so by what I've seen in that regard.
    Senator Lieberman. I appreciate that answer.
    Have you been privy to any review of the information that's 
led I guess the Colombian Government to conclude that the 
Chavez Government in Venezuela has made substantial monetary 
contributions to the FARC, the narcoterrorists in Colombia?
    Admiral Stavridis. Sir, we have not seen those actual 
computer hard drives at SOUTHCOM. I don't know whether anyone 
else in the U.S. Government has seen them yet. But we are 
certainly following very closely the open source reporting on 
that. I would comment that, even if a fraction of what is 
reported in the laptop revelations that are being reported is 
true, that, as Ambassador Tom Shannon said yesterday from DOS, 
is extremely worrisome, to say the least.
    Senator Lieberman. I agree.
    Let me ask you, because in your position at SOUTHCOM you 
have a really unique overview of what's happening, and I like 
what you said. It's not our backyard; it's our home. We're all 
part of the same region.
    Admiral Stavridis. Yes, sir.
    Senator Lieberman. A critical part of your work, it's 
always seemed to me has been the partner-to-partner, military-
to-military relationships. I want you to talk a little bit, 
because we get information that there are other countries from 
around the world who have been moving into Latin America to 
develop similar relations, weapons sales, even military-to-
military, on the most threatening level Iran, less threatening 
but worth following, China. Give us your sense of what you see 
from other nations to the south of us, from elsewhere in the 
world; and two, how are you doing in your partner-to-partner 
relations, and do you need anything else from us to improve 
those relations?
    Admiral Stavridis. Sir, thank you. That is a terrific 
question. First of all, the good news is the United States 
remains the partner of choice to I would say the majority of 
nations in the region, including almost everywhere in Central 
America, most of the Caribbean, and most of South America. We 
have close military-to-military relations with almost every 
state, with the exception of Cuba and Venezuela. Even in 
countries where we have differences at the government-to-
government level like Nicaragua or Bolivia, Ecuador at times, 
we continue to have strong military-to-military relations. So 
that's a good thing.
    In terms of the competition, if you will--and we are, in 
this part of the world, in the competitive marketplace. We the 
United States need to be engaged, show that we should be the 
partner of choice. So the competition, if you will--just as you 
mention, I worry a lot about Iran.
    Senator Lieberman. What do you see?
    Admiral Stavridis. What I'm seeing from the Iranian side is 
the president of Iran making frequent trips to the region. I 
see Iranian embassies opening all over the region. Iran is a 
state sponsor of terrorism. I am concerned as I see Iran move 
into the region.
    On the other nation you mentioned, the Chinese, I think 
it's more of an economic interest that they have. There is some 
military-to-military contact, but I would not categorize it as 
large or rising at this point.
    Finally, Russia is involved I think almost strictly on a 
commercial sales basis, most notably to Venezuela. The Russians 
have recently sold 30 advanced fighter aircraft, 50 attack 
helicopters, 100,000 AK-103 rifles with a license to produce 
25,000 more per year. There's a large component of Russian arms 
sales to Venezuela that is of concern.
    So that's a bit of an overview, but I would close by saying 
again that I think the United States remains the partner of 
choice and we're working hard at SOUTHCOM to make sure that 
stays that way.
    Senator Lieberman. Thanks, Admiral. I appreciate that.
    My time is up. At some point I'd like to ask you, not now, 
whether you have enough in the way of authority and resources 
to meet that competition in the interest of American security. 
Thank you.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    These are 6-minute rounds, so I'm going to ask for very 
brief answers to several questions here. First of all, General, 
I think you outlined very well the operational tempo (OPTEMPO), 
the problems that we're having right now with the Guard. I'm 
very proud of the 45th from Oklahoma. They're in Iraq now. I'll 
be with them in a week or 2. I was there when they were in 
Afghanistan. They actually were participating in the training 
of the Afghan National Army to train themselves and they've 
done a great job. So the performance is wonderful.
    The OPTEMPO is not. It's a serious problem. So I'd like to 
have you get on record here. My feeling is Operation Jump 
Start, it was a good idea, it worked very well. It's going to 
sunset in I think 2008. There is legislation now that would 
leave that open, that would provide and mandate 6,000 of our 
Guard on the borders, southwest borders, until the borders were 
secure. So that means it's open-ended.
    I need to ask you, number one with the OPTEMPO, do you 
agree that this is a good policy? I guess that would be the 
main question. Would you like to address that for us?
    General Renuart. I would, Senator. Thank you. First, you're 
right, the Guard has been asked to do a great deal for the 
Nation and they have served selflessly every time we've asked. 
This Operation Jump Start was designed to be a gap-filling 
capability for a period of time, and the Secretary extended the 
numbers of that for an additional period and that will expire 
this July. The Secretary has been very clear that he believes 
that's the right time to draw that mission down.
    I would tell you from both a NORTHCOM perspective and 
having watched the Guard that I think that makes sense. I think 
there are other----
    Senator Inhofe. Correct me if I'm wrong, but in the event 
there's a reason that they have to have more down there they 
can still make application after this expires.
    General Renuart. Absolutely.
    Senator Inhofe. You can then evaluate where it's needed the 
most.
    General Renuart. Senator, absolutely, either in State 
Active-Duty or in a Title 32 status that could be done.
    Senator Inhofe. Now the question I always ask every group 
that comes in, and just for a very, very brief response. My 
three favorite programs are: first, train and equip, that's 
1206, 1207, 1208, which is due to expire next year and we were 
trying to extend it, but we just didn't have time to do it 
before, and there's not really opposition to it; second, the 
Commanders' Emergency Response Program, to take it out of its 
position now and include--make it global; and then third, the 
International Military Education and Training program.
    Those three, I'd like to know from each one of you real 
quickly just how a priority do you put on these three programs?
    General Renuart. Senator, from my Central Command days, my 
Pacific Command (PACOM) days, and now, those are critical to 
our ability to generate coalition support in their own 
countries. I'm very much supportive of each of those and would 
look forward to their continuing.
    Senator Inhofe. Admiral?
    Admiral Stavridis. I completely associate myself with 
General Renuart in every regard. I would add just as a quick 
example 1206-type moneys are how we equip partner nations to go 
after things like these self-propelled semi-submersibles. We 
have used them to provide our partners with high-speed boats, 
command and control, the ability to control the area around 
them. So all of those programs are excellent and critical in 
every way.
    Senator Inhofe. Yesterday or the day before when we had the 
special operations people in here they were talking about 1208 
being the same thing.
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. Okay, that's good.
    Now let me ask you, Admiral. I saw that--I think there are 
two of them. There's the U.S.S. Comfort  and the U.S.S. Mercy, 
is that right?
    Admiral Stavridis. Yes, sir. They are sister ships.
    Senator Inhofe. Did I see one in the west, the west side of 
Africa?
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. I saw one there, but I'm not sure it was 
one of ours.
    Admiral Stavridis. No, sir. The U.S.S. Comfort  is on the 
east coast and comes periodically into my area and it has been 
to Africa. On the west coast, the U.S.S. Mercy went after the 
tsunami, for example, and 2 years ago went through the 
Philippines. They are powerful, powerful statements.
    Senator Inhofe. I'm very much impressed. I think that was 
the one I saw on the west coast. I think it was the U.S.S. 
Mercy.
    Admiral Stavridis. Yes, sir.
    Senator Inhofe. Now, probably the only area where you and I 
disagree is in the Law of the Sea Treaty. What I'd like to do, 
rather than just start any kind of a debate here, because I 
consider you an expert--I've opposed this since the Reagan 
administration and I haven't seen a lot of changes in it. But I 
have four things I'd like for the record you to respond to 
specifically, four things.
    One of my objections is, the International Seabed Authority 
and the fact that it has regulatory powers over some 70 percent 
of the Earth. I'm concerned about the sovereignty issue.
    Second would be, the way I read it--and we've had several 
hearings for this committee about 3 years ago and then also the 
other committee that I'm on, the Environment and Public Works 
Committee--that it has the power to level a global tax. I just 
would like to know, if you disagree with that, specifically 
what precludes that from happening.
    Third, there are only four circumstances under which they 
can be stopped on the high seas, which are listed as human 
trafficking, drug trafficking, piracy, and then unauthorized 
broadcasting. I'm not sure what that is. I'd like to see, have 
you comment on that.
    Then lastly, they always argue that military actions are 
exempt, but it doesn't define military actions.
    So if you would do that for the record so that I would be 
able to have that, I would appreciate it.
    Admiral Stavridis. Yes, sir.
    [The information referred to follows:]

    As an official policy matter, I defer questions associated with the 
U.N. Law of the Sea Convention to the Chief of Naval Operations. 
However, as a professional naval officer, I support U.S. accession to 
the Convention and offer the following personal thoughts on the 
questions posed:
    First, as to your seabed and sovereignty concern, I believe the 
United States would have more influence on deep seabed mining than any 
other nation. The United States would have a permanent seat in the 
Council of the International Seabed Authority (ISA) and a seat on ISA's 
Finance Committee, and any decision that could result in a substantive 
obligation on the United States, or that could have financial or 
budgetary implications, would require U.S. consent. Additionally, no 
deep seabed mining revenues, should any ever be accumulated, could ever 
be distributed without U.S. approval.
    Second, as to your concern as to a global tax, I understand that 
the Convention does not provide for or authorize any international 
institution (the United Nations, the ISA, or any other body) to tax the 
United States, its citizens, or its corporations.
    As to your third concern regarding circumstances under which 
vessels can be stopped on high seas, the Convention does not limit or 
restrict our maritime interdiction activities in any regard--in fact, 
it bolsters them. With regard to your specific question concerning the 
meaning of ``unauthorized broadcasting,'' Article 109 of the Convention 
defines ``unauthorized broadcasting'' as the transmission of sound 
radio or television broadcasts from a ship or installation on the high 
seas intended for reception by the general public contrary to 
international regulations. ``Unauthorized broadcasting'' from the sea 
is rare; but, by way of example, if a ship were suspected of 
broadcasting radio or TV into the United States illegally, the U.S. 
Navy could rely on Article 110 to board the suspect vessel.
    Finally, as to your fourth concern regarding whether military 
actions are exempt, Article 298 of the Convention permits the United 
States to completely exempt its military activities from dispute 
resolution and, under the express terms of the Convention itself, a 
determination by the United States that its activities are military 
activities exempt from dispute resolution may not be overturned by any 
court, tribunal, or foreign state.

    Senator Inhofe. Now, General Renuart, one of the things, a 
presentation that I make quite often on the missile defense 
system, which I've been concerned with for many, many years, is 
the boost phase, midcourse phase, and terminal phase. Now, on 
the boost phase what I'd like to have you do, and either 
comment now in whatever time I have left or, if I run out of 
time, then do it for the record--it's my understanding we 
really don't--we're kind of naked on the boost phase. We're 
working on these things, the Airborne Laser, the Kinetic 
Booster, but they aren't to a position to do us much good.
    We've seen on the midcourse phase the performance of Aegis. 
We're very, very pleased with that, and also some 23 or 24 
ground-based systems that are working as far as the Multiple 
Kill Vehicle, that's still in design.
    Then third, on the terminal defense segment, the High 
Altitude Area Defense, I think that's going to come up in 2009 
or 2010. I'm not sure. Then of course, the PAC-3, which is 
already very capable.
    So any of those that you could comment on. Where do we need 
to do the most the quickest in these phases?
    General Renuart. Senator, I'll try to be very quick, but 
our principal role is in the ground-based midcourse interceptor 
mission for defense of our Homeland. We've been involved in a 
series of both spiral development tests as well as----
    Senator Inhofe. In case you have to write it for the 
record, I understand that for the Homeland, but I'm talking 
about for the overall system, which goes beyond that. I know 
you're familiar with that.
    General Renuart. Let me do this. Let me provide you a 
little bit more detail for the record if I might, in the 
interest of time. But I think there are some real capabilities 
that we need to continue to pursue, both in the boost and in 
the terminal phase.
    Senator Inhofe. For Homeland, what would be the weakest 
link?
    General Renuart. For the Homeland, I think maybe the one of 
least applicable right now is the capability in the boost 
phase. We really don't have something there that is immediately 
available.
    Senator Inhofe. When you answer this for the record, if you 
don't mind, have it go beyond just the Homeland, and also get 
as many dates. We're getting conflicting information sometimes, 
and then of course this requires legislation every year.
    General Renuart. Absolutely.
    Senator Inhofe. We just need to know just where the 
greatest needs are in your opinion.
    General Renuart. Senator, I'll be happy to do that.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. Thank you, Senator Inhofe.
    Senator Collins.
    Senator Collins. Thank you.
    General, welcome----
    Chairman Levin. Senator Collins, would you forgive this 
interruption.
    I didn't have a chance to ask Senator Warner if he agreed 
with this. Because there's at least a chance that we may be 
able to finish by 11 o'clock, which would be about 10 minutes 
after the vote starts, could we ask our staffs to find out if 
any of the Senators that are not here now are expected to come 
back after that vote, so if we do vote and finish by 11 o'clock 
we'd be able to agree to adjourn, unless there are Senators 
that we don't know of who are going to come back after that 
vote expecting that we will still be in session.
    Thank you, Senator Collins. Excuse the interruption.
    Senator Collins. Sure. Thank you.
    General, you testified this morning that you disagree with 
the Commission on the National Guard and Reserves' assessment 
of an appalling gap in our ability to respond to an attack with 
WMD. You and I had a good discussion about this in my office. I 
want to put aside what may be overblown rhetoric and look very 
directly at our capabilities.
    If you read before that term of ``appalling gap,'' the 
assertion of the Commission is that we do not have sufficiently 
trained and ready forces available. The Commission says that 
they're not fully budgeted for, sourced, manned, trained, and 
equipped, which is a very specific indictment.
    Clearly we've made tremendous progress since the attacks on 
our country and since Hurricane Katrina, as my friend and 
colleague Senator Lieberman points out. But aren't there in 
fact still gaps in our ability to respond effectively? You've 
talked about troops coming on line, but if there were an attack 
tomorrow would you be able to marshal sufficiently trained and 
equipped troops to respond quickly?
    General Renuart. Senator, I think the best answer to that 
is yes, I would. Are they the best available? We clearly would 
have to take those forces from what is at home today. We 
certainly have those forces available who have the skill sets 
necessary. But as I mentioned to you, they have not trained 
together on a routine basis. So we would, if you will, create 
the integrated team on the scene.
    Would it be as effective? It's not as effective as I would 
like, and that's the reason why we're pushing for this 
dedicated force that I mentioned to Senator Lieberman. But they 
would be capable within a matter of days to respond to the 
scene and provide credible capability to respond.
    Senator Collins. Right now, however, the system is pretty 
ad hoc.
    General Renuart. It is.
    Senator Collins. You're bringing units from here and there. 
You've talked about the new team that will come on line, I 
think you said this fall will be the first one.
    General Renuart. Yes, ma'am.
    Senator Collins. But don't we need three such teams? Isn't 
that the plan?
    General Renuart. Yes, ma'am.
    Senator Collins. When will we have three such teams in 
place?
    General Renuart. Right now the plan is to in each 
subsequent year add a second team, again budgeted for, 
equipped, trained, and evaluated. So at the embarrassment of 
doing public math, I would say that would get us out to about 
fiscal year 2011 with three full capable teams. So I think 
that's the plan that we currently have. If there's an ability 
to accelerate that, we'll continue to look at that.
    But I'm comfortable that that gives me the ability to 
respond with the right forces and I think we're on the right 
track.
    Senator Collins. I am skeptical about the Commission's 
recommendation of giving Governors operational control of Title 
10 forces in the event of a catastrophe. At the same time, 
however, I know from the HSGAC's intensive investigation into 
the failed response to Hurricane Katrina that there were 
enormous coordination problems involving the National Guard 
units and the Active-Duty troops. Indeed, Admiral Keating, your 
predecessor, testified very frankly that he was unaware that 
the levies had been breached until he read it in the paper or 
saw it on television. He did not have visibility into the 
whereabouts of National Guard units that were coming under the 
Emergency Management Assistance Compact agreements from all 
over the country to assist. There was an appalling--I use that 
word in this case because I think it's appropriate--there was 
an appalling lack of coordination.
    I know you're concerned about that. I know you don't 
dispute that. What have you done to improve the coordination 
with our States, our emergency managers, the TAGs, our 
Governors? Is this more of a problem of inadequate planning and 
exercising, rather than truly a problem of command?
    General Renuart. Senator, thanks. What I'd like to do, 
twofold. I'd like to put a very detailed answer in the record 
if I might.
    [The information referred to follows:]

    I fully and enthusiastically recognize the need to coordinate 
directly with States and State leadership to accomplish our mutual 
missions. We have the imperative to anticipate, plan, and respond 
collaboratively with the States and tribal nations within the U.S. 
Northern Command (NORTHCOM) area of responsibility. Developing 
understanding, trust, and mutual respect between NORTHCOM and the 
National Guard is of particular importance as we plan and execute our 
mutual State and Federal missions. We are developing strong 
relationships with Governors, Emergency Managers (in collaboration with 
DHS and FEMA), and Adjutants General (in collaboration with National 
Guard Bureau). Each time I visit a State, I try to meet with the 
Governor, his Adjutant General, Homeland Security Advisor, and 
Emergency Manager. I've met with 19 Governors, all of the TAGs, and 
every State director of emergency management. I recently had the honor 
of being the keynote speaker at both the National Guard Association of 
the United States Annual Meeting in Puerto Rico and the recent National 
Emergency Management Association Conference. As a matter of priority 
early in my command, I met with the Homeland Security Committee of the 
Adjutants General Association.
    Direct State engagement is not a specified task for the Department 
of Defense (DOD) or for NORTHCOM. However, it's imperative that we 
develop relationships with our State mission partners that will 
contribute to success in saving lives, protecting infrastructure, and 
promoting a resilient society. I'm working to ensure my staff 
understands Governors' concerns and that senior State staff have an 
appreciation for NORTHCOM's role in security and defense. This 
understanding will promote the unity of effort our citizens deserve.
    We develop relationships with States in concert with National Guard 
Bureau and DHS. Planning partnerships ensure we have unity of effort 
with the States in addressing areas of mutual concern, including the 15 
National Planning Scenarios directed by the Homeland Security Council. 
In day-to-day operations, we connect to the States through the National 
Guard Bureau Joint Operations Center and maintain situational awareness 
24/7 through a dedicated National Guard desk in my Command Center. In 
the training and exercise arena, we work with National Guard Bureau and 
DHS to develop and execute a comprehensive knowledge exchange and 
exercise program that facilitates State and regional exercises and 
develops the military skills of both my staff and State Joint Force 
Headquarters staffs. NORTHCOM partnerships with National Guard Bureau 
and DHS result in direct benefit to Governors, State emergency 
managers, and Adjutants General.

    Senator Collins. Yes.
    General Renuart. Let me summarize just very quickly. I 
think your last statement actually is really the key. If you 
plan ahead, if you exercise routinely, and if you train 
together, then there is no gap in so-called command and 
control. We each know what each other brings to the fight. We 
each know what capabilities are needed and we then exercise and 
execute them when called for.
    I would just use the example of our two national level 
exercises. I think Senator Lieberman mentioned the dirty bomb 
scenario. We trained with our Federal, State, and local 
responders on that this past October, three events across the 
country simultaneously. We planned and exercised against a 
nuclear detonation in Indianapolis last May. Those allowed us 
to see the synergies that can be created when you work 
together. That has become part of our culture every day, that 
plus the relationships, as I talked about earlier, that we are 
building with State and local responders, as well as our 
Federal partners, have put us in a significantly better 
position than we were during Hurricane Katrina, and I'm 
comfortable that there will not be a dispute of command and 
control, but rather the understanding of how we support a State 
or a Federal agency in a large response.
    Senator Collins. Thank you.
    I know my time has expired. I'm going to submit for the 
record a question for you, Admiral, on Venezuela.
    Admiral Stavridis. Thank you.
    Senator Collins. I know we'll have that opportunity.
    Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Martinez?
    Senator Martinez. Mr. Chairman, thank you very much.
    Gentlemen, thank you for being here with us. We appreciate 
your service.
    Admiral, I want to go back to Venezuela. Actually, it's 
really the Colombian-Ecuadoran situation. I saw you say the 
three countries. The fact is from my understanding this was an 
action by the Colombians that apparently did violate 
territorial integrity of Ecuador, but Venezuela had nothing to 
do with it.
    Admiral Stavridis. Not that I can see.
    Senator Martinez. In fact the only thing Venezuela may have 
to do with it is what was found on the computer files of this 
rebel leader Reyes, correct?
    Admiral Stavridis. Yes, sir.
    Senator Martinez. There's an apparent indication of maybe 
$300 million transferred to the Colombian narcoterrorists from 
the Venezuelan Government?
    Admiral Stavridis. That has been reported in the open 
press. I have not seen that myself, nor do I know that's 
verified yet. But that is what has been reported repeatedly in 
the open press.
    Senator Martinez. This fellow Reyes that was killed in 
action is reported to be the number two person in the FARC.
    Admiral Stavridis. Yes, sir.
    Senator Martinez. My understanding is that this was also an 
international criminal, on the FBI Most Wanted List and 
Interpol's Most Wanted List, with a long string of kidnappings 
and murders in addition to narcotrafficking to his credit, 
correct?
    Admiral Stavridis. Yes, sir. I would underline that he was 
the number two leader of the FARC, who are holding, as the 
chairman said, at least 750 hostages, including three U.S. 
citizens: Tom Howes, Marc Gonsalves, and Keith Stansell.
    Senator Martinez. Those hostages--by the way, also some 
Venezuelans are held as hostage.
    Admiral Stavridis. That's correct also.
    Senator Martinez. To this date, I've not heard the 
Government of Venezuela express any concern about the 
Venezuelan hostages that are kept.
    But the conditions of hostages kept by the FARC, would you 
describe what you know about that and how they're kept?
    Admiral Stavridis. I will. Sir, we think we have good 
visibility on that because some hostages have escaped, some 
have been rescued, and some have been released in international 
negotiations. To use a word we've used several times this 
morning, the conditions are appalling. They really are 
appalling.
    These individuals are kept either chained or in cages. They 
are not well fed. Their medical condition is reportedly very 
bad. We have firsthand reports on that from other released 
hostages. We are deeply concerned, we at SOUTHCOM are deeply 
concerned about all the hostages, and we focus a great deal of 
our attention and effort on the search for our three U.S. 
hostages in cooperation with our Colombian partners.
    Senator Martinez. Presidential candidate Ingrid Betancourt 
of Colombia is one of those hostages----
    Admiral Stavridis. Yes, sir.
    Senator Martinez.--as well as over time several members of 
the Colombian parliament----
    Admiral Stavridis. Yes, sir.
    Senator Martinez. The current serving Foreign Minister of 
Colombia is a former hostage.
    Admiral Stavridis. He is an escaped hostage.
    Senator Martinez. Escaped hostage. I talked to him and----
    Admiral Stavridis. He's an extraordinary man.
    Senator Martinez. He is. It's gripping to hear his tale.
    There was some report of a dirty bomb interest. What do you 
know about that?
    Admiral Stavridis. Well, again----
    Senator Martinez. By the FARC.
    Admiral Stavridis. Yes. I hasten to say this is strictly 
what is being reported in the open press, so I would hesitate 
to categorize it at all as a dirty bomb. What I have seen 
reported is that there were allegations of interest on the part 
of the FARC in obtaining uranium. There was no mention to my 
knowledge that I read in the press about a dirty bomb, but 
there was interest on the part of the FARC in obtaining uranium 
and that's as far as it has been reported in the press. 
Obviously, very worrisome and we are working hard from an 
intelligence perspective to learn all we can about that.
    Senator Martinez. Admiral, I know for some time I have 
suspected that the FARC were receiving aid and comfort and 
sanctuary by the country of Venezuela. This evidence now 
suggests that that may in fact be the case. Venezuela is 
increasing its armament purchases beyond their national defense 
needs in my view and they do maintain a close level of 
cooperation with the Cuban dictatorship.
    What can you tell us about the influence that Venezuela is 
creating for the region in terms of the stability of the region 
and the military needs of Venezuela and Cuba and their 
cooperation?
    Admiral Stavridis. I would start by observing that 
historically the United States and Venezuela have had very 
close relations, and it is unfortunate that at the moment we do 
not enjoy that at a government-to-government level. At a 
military-to-military level, Senator, we have no relationship, 
unfortunately. We have tried to reach out to the Venezuelan 
military. We've invited them to conferences. We want to have 
some level of understanding and dialogue with them. But they 
have rejected that.
    The Government of Venezuela has not been cooperative in the 
narcotics fight, and we are very concerned about transshipment 
of cocaine through Venezuela.
    Finally, I would say from a political perspective it is 
clear that the current Government of Venezuela espouses 
positions that are very contrary to those of the United States 
and they seek to influence others. They have a very close 
relationship in particular, as you mentioned, with Cuba and 
that is of concern to us at SOUTHCOM.
    Senator Martinez. Would you speak for a minute about the 
U.S.S. Comfort? I know you spoke about what it does, but I'd 
love for you to tell the committee about the journey of the 
U.S.S. Comfort and the ports of call and some about the tour.
    Admiral Stavridis. I will, very quickly. U.S.S. Comfort is 
a large hospital ship. It's essentially a big hospital that 
floats. It's manned up by about 1,000 people. We put a crew on 
it that is both military and loaded up with nongovernmental 
charitable organizations, volunteers. We had some international 
partners who came with us, notably the Canadians.
    We sent it on a 4-month voyage through 12 different ports 
throughout South America and Central America and the Caribbean. 
It was extremely well received--400,000 patient encounters, 
25,000 sets of eyeglasses, thousands of surgeries. A very 
visible, prominent, and compassionate signal from our country 
to the region.
    Thank you for that opportunity.
    Senator Martinez. My time is up, but I want to close by 
saying to you that I have visited Guantanamo on more than one 
occasion. When I have, I had the opportunity to see the care 
and treatment of the detainees there by our forces and, as 
having been a former Mayor of Orange County, FL, I assure you 
that their conditions are far in excess of what Orange County 
provides common prisoners in the Orange County jail. They're 
well cared for. They seem well fed, with sensitivity to their 
religious needs and all of that and more.
    I would say that, as compared to the way that our three 
Americans are being kept by the FARC in the jungle or the way 
that many Cubans are kept in Cuban prisons by the mere 
expression of a political view different from that oppressive 
government, that we're doing pretty well by the detainees in 
Guantanamo.
    Thank you very much.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Reed.
    Senator Reed. Thank you very much.
    Admiral Stavridis, I think when General Craddock was here 
in April 2006 he indicated that we would be able to draw down 
some of our military forces in Colombia within, at that time, 
18 months. We're bumping up against that proposed deadline. 
What's your comment on the forces in Colombia?
    Admiral Stavridis. I'm optimistic, sir. Colombia has made 
enormous progress as a result of Plan Colombia, which came out 
of the Clinton administration, was followed in the Bush 
administration. Murders down 40 percent, kidnappings down 76 
percent, terrorist incidents down 60 percent. Police presence 
throughout the country. It's a much safer country.
    As the chairman indicated, the Colombians have just self-
financed with a wealth tax $3.5 billion. I fully expect over 
the next 24 months we should be able to move toward a reduction 
in our very small forces that are there. Senator, we have a cap 
of 800 U.S. military. We typically average well below that, in 
the 500 range. I'm very confident that Colombia can handle 
herself, as Secretary Gates said yesterday in reference to this 
Venezuela issue.
    Senator Reed. Thank you, Admiral.
    General, Mexico is within your responsibilities.
    General Renuart. Yes, sir.
    Senator Reed. For many times my understanding was it was 
outside of anyone's responsibility, that it was sui generis. 
But now you have essentially operational responsibility. There 
is a proposal to significantly increase aid to the Mexican 
security forces. But of more imminent concern to me is the 
repeated reports in the press of open gun battles along the 
border of the United States, as Mexican security forces try to 
interdict drug operations.
    Can you give me a sense of how you're supporting Mexico and 
your outlook as to what's happening on the border? That's a 
startling revelation when you read about these open gun 
battles.
    General Renuart. Senator, I'd be happy to. Thank you for 
the question. I would say first that the Mexican Government 
under President Calderon's leadership has really made a 
commitment to take on the mission of counternarcotics and the 
narcoterrorism efforts and events that occur.
    In doing so, he has given a clear mandate to both of his 
senior military leaders that they would engage actively, and 
they have. We've seen, as was mentioned by the chairman, the 
price of narcotics in our country rise significantly, due in 
substantial part to the efforts of the Mexicans to interdict. 
As Admiral Stavridis mentioned, these boats are trying to get 
their products into Mexico to then move over land into the 
United States.
    We have been involved with our partners in the Federal 
agencies--Drug Enforcement Agency; Alcohol, Tobacco, and 
Firearms; Immigration and Customs Enforcement; and others--in a 
support role along the border to help identify and interdict 
cross-border transit. We've been substantial partners to our 
friends in Customs and Border Protection in terms of providing 
them logistical support, surveillance capabilities, and the 
like. I think that has made good progress.
    With respect to Mexico, we are strong supporters of the 
Merida Initiative. That will begin to provide funding for the 
Mexican counternarcotics missions. As you may know, in Mexico a 
good deal of that is done by the military. Both of the senior 
leaders of their military forces are working hard on 
eliminating corruption within their own militaries and in the 
local police forces.
    Having said all of that, the cartels are beginning to feel 
that pressure and are lashing out in more violent ways, and I 
think that as we begin to see more pressure from the Mexican 
military and their counternarcotics agencies you may see some 
more violence, but I think they're making good progress with 
good training to begin to----
    Senator Reed. In general, how would you categorize your 
assistance to Mexican authorities? Is it training, logistical 
support, advice, or joint planning?
    General Renuart. I think joint planning in a collaboration, 
with information-sharing, and then feeding as much as we can to 
our Federal law enforcement partners who work with their 
components. I would also say that Admiral Stavridis and I are 
connected both with Joint Interagency Task Force-South and my 
Joint Task Force-North to have a transparent flow of 
information, and the Mexicans are eager participants with both 
of us.
    Senator Reed. Thank you sir.
    General Renuart, shifting gears a bit, do you--the National 
Guard and Reserve units which you include in your plans for 
emergencies within the United States, they would report to you 
on a regular basis their readiness?
    General Renuart. Senator, I would tell you 2 years ago I 
couldn't say this. Today I'm comfortable that, in collaboration 
with the National Guard Bureau, we monitor the readiness of all 
of those forces that we would take advantage of in a response. 
That information is transparent to both the Guard Bureau and to 
us and I'm comfortable that I have a much better picture on 
their readiness today.
    Senator Reed. I know these readiness numbers are 
classified, but what percent roughly are command (C-1), both in 
training, equipment, and personnel, of these Reserve and 
National Guard units?
    General Renuart. Senator, I think General Blum has been out 
in public with some numbers. Let me get the specific numbers 
for the record if I might.
    [The information referred to follows:]

    Readiness is not reported in ``C'' ratings within the Defense 
Readiness Reporting System (DRRS). Readiness reporting is based upon 
the ability to accomplish assigned Joint Mission Essential Task Lists 
(JMETLs). In conjunction with the National Guard Bureau (National Guard 
Bureau), we have established JMETLs for Defense Support of Civil 
Authorities missions. Currently we have an ongoing effort to establish 
reporting in DRRS at each of the 54 Joint Force Headquarters-State. The 
National Guard Bureau is leading a 3-5 year implementation plan led by 
three DRRS Implementation in the Guard teams. These teams are 
incorporating State National Guard units into DRRS.
    As of 31 March 08, 18 States/territories are reporting in DRRS. The 
breakdown is as follows:

         18 States Total Reporting in DRRS
         6 Reporting Green (Fully Mission Capable)
         11 Reporting Yellow (Qualified with Concerns)
         1 Reporting Red (Not Mission Capable)

    Senator Reed. All right. But just in general, because we 
don't want to cross the line here, but in general my impression 
is that the majority, the vast majority of the units that are 
reporting to you, are not reporting C-1 in these categories.
    General Renuart. I think that's a fair approximation, yes, 
sir.
    Senator Reed. What's your estimate of how that affects your 
ability to carry out your plans, which is the bottom line about 
readiness numbers?
    General Renuart. Senator, each of those units are reporting 
against a whole variety of plans. So from my perspective, I 
watch the things that are unique to the Homeland, and I think 
our concerns are maybe less acute than the overall warfighting. 
I would see our numbers for our mission being up in the 75 or 
so percent equipment rate and so a higher C status. But again, 
that's reported against that broader question.
    Senator Reed. Let me ask another question in this regard, 
final question. That is, one of the problems I think 
particularly with land forces is that they've been so 
preoccupied with missions in and out of Iraq that their whole 
training focus has been oriented on a very limited set of 
important skills, basically urban counter-guerrilla warfare. To 
what extent are your units because of this demand, if they're 
doing any training at all, it's so Iraq-specific and so Afghan-
specific that your missions, your training missions, are 
neglected?
    General Renuart. Senator, I'd actually say I do not have a 
problem in that regard, because each of those Guard units has a 
State mission and those are very compatible with the roles that 
I have. So they maintain a good training level for their State 
missions.
    Senator Reed. The only other question I ask, and that is to 
the effect that you have to call on an asset--and I'll ask this 
of the Admiral--regular forces as part of your contingency 
planning, the fact that those forces are committed almost 
entirely, the land forces that is, what effect does that have 
on your ability to carry out contingencies, Admiral?
    Admiral Stavridis. Very minor in the context of Latin 
America and the Caribbean, for the obvious reasons. It's very 
unlikely we'd use a large standing army down there.
    Senator Reed. General?
    General Renuart. Sir, I'd just say that we do have the 
ability, if needed, to go into our home bases and get forces 
should we need them. So right now we're sensitive to that 
OPTEMPO, but it has not had a dramatic effect on our 
operations.
    Senator Reed. Thank you very much, gentlemen.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Now I'm going to call on Senator Nelson and I'm going to 
ask him to turn this over to the next in line, that the staff 
will identify for you, and we'll be back. We are not going to 
finish this. There's a vote that should start any minute.
    Senator Nelson.
    Senator Bill Nelson [presiding]. Thank you, Mr. Chairman.
    Admiral, General, thank you both for your public service. 
Admiral, the Chief of Naval Operations (CNO) told us the other 
day that he is making a recommendation to the Chairman of the 
Joint Chiefs, and I understand Admiral Mullen also is going to 
make that recommendation to the Secretary of the Navy, and then 
to go on up to the Secretary of Defense, about reactivating the 
Fourth Fleet, which would give you additional capability that 
you need to project your forces in the Western Hemisphere. Do 
you want to share with the committee your thoughts on that?
    Admiral Stavridis. I will, Senator. Thank you for asking 
that. As we just talked about, this part of the world is not a 
place where I could foresee using large standing land forces. 
On the other hand, naval and air forces are very helpful in the 
kinds of missions that we do, from drug interdiction to medical 
types of missions to disaster response to counterterrorism. So 
all of those kinds of mission sets require a strong naval 
presence.
    So the CNO, Admiral Gary Roughead, a good friend, Admiral 
Mike Mullen, his predecessor as CNO, have both been very 
supportive of our request to activate the Fourth Fleet. It 
gives us a fleet presence that is focused on this region. It 
gives us real command and control capability. It is the right 
answer to also show the region that we want to engage, we want 
to continue the kinds of efforts and missions that we've done 
successfully and can do much better if we have a Fourth Fleet 
in place.
    Senator Bill Nelson. Tell us what you think the timing on 
this is going to be?
    Admiral Stavridis. Certainly as you said, sir, it has to go 
up through the Department, but I think it's going to be soon. 
I'm very hopeful that it will be soon. The sooner the better 
from where I sit, because as the combatant commander who would 
use the capabilities of a Fourth Fleet, that would be very 
helpful, to have that in place this year if at all possible.
    Senator Bill Nelson. It would be a headquarters for a 
Fourth Fleet and then you would reach out, pick and choose the 
assets that you needed to tailor it to the particular threat 
that you see?
    Admiral Stavridis. Exactly, yes, sir. It would give us the 
ability to do that in real time in ways that would allow a much 
better and more concerted response to problem sets that range 
from hurricanes to medical diplomacy to counternarcotics moving 
through the region to the nascent counterterrorism kinds of 
operations. Speed is very important in all those scenarios.
    Senator Bill Nelson. There is precedent for this kind of 
arrangement, both in the Persian Gulf and the Mediterranean?
    Admiral Stavridis. Yes, sir. In the Persian Gulf we have 
the Fifth Fleet. In the Mediterranean we have the Sixth Fleet. 
This would be the Fourth Fleet and would focus on the Caribbean 
and the waters of South America.
    Senator Bill Nelson. General, the question at some point in 
the future if a European national missile defense system is set 
up--and that's still a question now; particularly that's a 
question in light of the Central Intelligence Agency report 
that was made public that said that Iran has stopped their 
weapons program as of 2001, because the initial idea for a 
national missile defense system in Eastern Europe was to 
protect U.S. assets and also European assets from the threat of 
a nuclear-tipped Iranian rocket.
    Now, assuming that we were to proceed with such a European-
based two-stage instead of national missile defense three-stage 
rocket which we have, the question is, is it controlled by the 
European Command (EUCOM) commander or the NORTHCOM commander? 
Do you want to weigh in on that?
    General Renuart. Senator, I think we have to proceed on a 
couple avenues in this regard. First, the mission to protect 
the Homeland is clearly one that NORTHCOM has the 
responsibility for and should exercise that, and we do that 
every day.
    As we see capabilities, for example with Iran, to reach out 
at the intercontinental range, I think we have to have some 
serious discussions between the two commanders and make 
recommendations to the Secretary on how to manage the resources 
for both potentially a European threat and a Homeland threat.
    If the threat is limited just to Europe with a certain 
capability, then I think clearly the commander of EUCOM has 
that role and responsibility. Most importantly in all of this 
is that we have a common integrated operating picture, so that 
any of the combatant commands can understand the threats to 
their area and respond if needed. I think Strategic Command 
(STRATCOM) is working very hard on that and we're a big 
supporter of their efforts.
    Senator Bill Nelson. In our last National Defense 
Authorization Act (NDAA), we were allowing the negotiations to 
proceed with regard to the acquisition of real estate in 
Eastern Europe. But all of those seem to have come to a halt 
because it has neither approved--it has not approved, been 
approved, by the host countries: one, where there would have to 
be the radar; and the other, that would actually be the launch 
site.
    Do you have any update? Of course, I can ask this when the 
national missile defense team comes in and I will. But do you 
want to share any of that timetable with us?
    General Renuart. Senator, I'm really not--I don't have that 
information, so it would be unfair of me to comment on that. 
I'm sure that General Obering can be more specific.
    Senator Bill Nelson. Okay.
    Senator McCaskill.
    Senator McCaskill. Thank you, Senator Nelson.
    I know there has been other questioning about the 
Commission's report on the National Guard and Reserve, but I 
don't think we have touched upon one of the recommendations 
that talks about how we have changed basically the use of our 
Guard and Reserves into an Operational Reserve and Guard, as 
opposed to Strategic. That is, pardon the expression, a sea 
change as to what we have typically done in our military, and 
it presents many, many challenges.
    We can boil it down to the pragmatic everyday challenge, 
and that is when I was the prosecutor in Kansas City I looked 
on a resume for that entry of being in the Reserve or the Guard 
because it said something to me about that person in terms of 
me wanting to hire them as an assistant prosecutor in my 
office. I know that now if I was looking at that I think I 
would still, hopefully, feel the same way, but as an employer 
you have to go: Wait a minute, this is really hard to put 
someone in a key position in your operation knowing that 
they're going to be called on operationally consistently and, 
frankly, unfortunately, constantly in this particular 
contingency that we're engaged in.
    So I thought the recommendation that the Commission made 
about separating out a Strategic and an Operational Reserve 
certainly makes sense. I understand that it would be a big 
stressor right now in terms of what pressure it would put on 
our need for activation of those men and women with what we 
have committed--frankly, what we are in for the long haul 
whether some of us think it needs to be quite as long as it's 
been or not.
    I would like you all to speak to that, about should we, 
shouldn't we, be working towards a goal to have a--and frankly, 
the Strategic Reserve is something we've always had in our back 
pocket for a national catastrophe, for the kinds of things that 
we traditionally always thought of particularly the Guard for, 
and I know that's been touched upon by other Senators in terms 
of drug control and all the other things that we had relied on 
them for.
    If you would briefly--I know we're going to have to vote 
here and I have another quick question before we go. So if you 
would briefly address that, so I don't miss the vote.
    General Renuart. Sure, Senator. Thanks. First I will say as 
just a bit of context, I spoke to a number of members of the 
Delaware National Guard just a few weeks ago and I asked the 
question, why are you here, why do you wear this uniform? A 
young lady stood up, a young lieutenant, and she said: Sir, my 
father served in the Guard and my brother is an Active-Duty 
person, and serving the Nation and wearing this uniform and 
making a difference is important to me.
    I think we have to be careful not to lose that belief among 
our young men and women who are citizen soldiers. They are 
critical to our Nation. Having an Operational Reserve makes 
good sense in many, many ways and I think the recommendation of 
the Commission is sound in that regard. I think there is a need 
for some Strategic Reserve. How you mix that, I think, is 
something we have to continue to study.
    Finally, I'd say there is no doubt that the effect on 
employers as well as on those guardsmen and their families is 
profound, and I think we have to look at ways to find a balance 
between operational and strategic, and we have to continue to 
thank and remind those employers of the importance of those 
citizen soldiers we use every day.
    Senator McCaskill. I couldn't agree with you more. It seems 
to me that there would be--I know we're trying to keep people 
in. It seems to me that once you have been in an Operational 
Reserve or in the Operational Guard it would be realistic, I 
think, to say to those men and women: We would now like you to 
re-up and stay with us, but if you would like we would give you 
the choice of being in the Strategic Reserve, which would 
obviously have a different connotation in terms of how likely 
it is that they would be called upon to spend extended periods 
of time, a year or more, every 2 or 3 years or, frankly, even 
more frequently than that, as we have witnessed.
    It seems to me that would be good for maintaining some of 
that experience that we have, that we may be losing.
    General Renuart. Senator, I think there are both practical 
and potentially even legal ramifications of the 
differentiation. That will take some study to come up with a 
good recommendation. But I think Secretary Gates and the 
Chairman both have said that we are moving towards a more 
predictable OPTEMPO for our guardsmen and reservists, with 1 
year sort of, if you will, active or in the hopper to be used 
and then 5 years, 4 or 5 years as a target, not to be, and that 
allows employers a more predictable timetable.
    I think we have to work all of those simultaneously.
    Senator McCaskill. I agree, but I want to make sure that we 
don't make the mistake of thinking that because we can be more 
predictable now we might not be right back in this place, 
because, by the way, I've heard ``deja vu all over again'' 
several times since I've been on this committee. If we don't 
learn from what has happened in terms of the stressors on our 
Active-Duty Forces and this kind of contingency, then shame on 
us.
    Let me just ask you this question. I'm confident, based on 
some answers previously given, you may not have the answer, and 
I have to run now or I'm not going to make this vote. If you 
would get to me the answer: How many of the detainees at 
Guantanamo have been transferred to Bagram? There has been a 
huge increase in the number of people at Bagram and I want to 
make sure that we're not just rerouting folks, and if we are I 
would like to understand why. So the numbers at Bagram have 
gone from several hundred to over 600, while the numbers at 
Guantanamo have dropped, and I would like to know the 
percentage of people who have left Guantanamo and how many have 
gone back to their home countries, and then obviously a 
percentage if any of them have been transferred to Bagram.
    Admiral Stavridis. I think that would be mine. I'm the 
Guantanamo end of it. I know nothing about Bagram and neither 
does General Renuart. But, ma'am, I will take that question for 
the record and get you an answer to it from the Department.
    [The information referred to follows:]

    According to the Deputy Assistant Secretary of Defense for Detainee 
Affairs (DASD-DA), no detainees have been transferred from Joint Task 
Force-Guantanamo (JTF-GTMO) to the U.S. military detention facility at 
Bagram. In 2007, 124 detainees from JTF-GTMO were transferred or 
released to foreign governments. As neither U.S. Southern Command nor 
JTF-GTMO determine which detainees are transferred or released or to 
whom, I defer further questions on the matter to the Deputy Secretary 
of Defense and DASD-DA.

    Senator McCaskill. Thank you so much. Thank you.
    Now what should I do? We're going to recess, but they 
should stay. But you should stay. The voice of Carl Levin is 
being channeled to me, and the voice of Chairman Levin says you 
must stay, and I always do what Chairman Levin says.
    General Renuart. Yes, ma'am.
    Senator McCaskill. Thank you. [Recess.]
    Chairman Levin [presiding]. General, I'd like to ask a 
couple questions of you about ballistic missile defense 
testing. You and I have spoken about this in my office.
    General Renuart. Yes, sir.
    Chairman Levin. Do you agree that we need robust and 
operationally realistic testing, in other words testing our 
missile defense system the way it was intended to be used in an 
operational mission, to demonstrate its operational 
capabilities?
    General Renuart. Yes, sir, I do, absolutely.
    Chairman Levin. Should such testing include salvo launches 
and multiple target tests, as well as tests with 
countermeasures and decoys?
    General Renuart. Senator, I do, and I believe those are 
built into the test program.
    Chairman Levin. The independent Director of Operational 
Test and Evaluation, who is the Pentagon's independent test and 
evaluation director, reported in December that ``The Ground-
Based Midcourse Defense (GMD) flight testing to date is not 
sufficient to provide a high level of statistical confidence in 
its limited capabilities.'' Do you agree with that?
    General Renuart. Senator, I would only say that the tests 
that I've been a part of have been very successful within the 
parameters of that particular test, and that I'm comfortable 
that the test development program over the coming days will 
expand both the types of tests and the degree of difficulty, if 
you will, of the test objectives.
    Chairman Levin. Why are you not able to comment on whether 
you agree with the Director of Operational Test and Evaluation 
that overall the flight testing to date has not been sufficient 
to provide yet a high level of statistical confidence in its 
limited capabilities?
    Are you not in a position to give an opinion?
    General Renuart. I don't know what the previous test 
probabilities have been. I can tell you that the tests that 
I've been a part of since taking command have been absolutely 
successful. So I guess I would disagree to the degree of my 
observations. Those two tests have been very, very successful 
that I've observed, and so I have every reason to believe they 
would continue to be successful.
    Chairman Levin. The key I think for all of this is whether 
or not there's sufficient, has been sufficient testing. Do you 
believe that we have to conduct more than one operationally 
realistic test per year to demonstrate consistent operational 
capability?
    General Renuart. Sir, I think we do, yes.
    Chairman Levin. We placed some provisions in the National 
Guard Empowerment Act of 2007, which was part of the NDAA for 
Fiscal Year 2008, which affects NORTHCOM, and I'd like to ask 
you whether or not the requirements which are now in law create 
problems for NORTHCOM. First, establishing in the functions of 
the National Guard Bureau the duty to assist the Secretary of 
Defense in coordinating with NORTHCOM on the use of National 
Guard personnel and resources. Does that create a problem?
    General Renuart. No, Senator, it does not. In fact, we're 
working that daily.
    Chairman Levin. We require a review of the civilian and 
military positions, job descriptions, and assignments within 
NORTHCOM, with the goal of determining the feasibility of 
significantly increasing the number of members of the Reserve 
components and civilians in NORTHCOM. Does that review create a 
problem?
    General Renuart. It does not, Senator, and that's ongoing 
as we speak.
    Chairman Levin. Admiral, I think that you have addressed 
this question. If you have, I'll read your answer for the 
record. I believe that Senator Reed asked you this, but let me 
make sure. I believe we were told originally that the military 
support for Colombia at the current level was going to be 
lasting about 18 months. This was extended after that first 18-
month period elapsed. Were you asked when you believe we can 
start to drawdown U.S. forces?
    Admiral Stavridis. Sir, I was.
    Chairman Levin. The short answer to that?
    Admiral Stavridis. The short answer is let's say 24 months 
from now I think would be a good window. I would add to what I 
said earlier if I could, Mr. Chairman. I think signing a free 
trade agreement with Colombia would be helpful in that regard, 
strictly speaking from a national security perspective.
    Chairman Levin. You may have also in your answers, I 
believe to Senator Martinez, but perhaps others, about the 
Venezuela, Ecuador, and Colombia border, that border issue with 
Ecuador and Colombia--I understand the Colombian Government has 
apologized to Ecuador; is that correct, that it expressed 
regrets?
    Admiral Stavridis. Sir, I've read in the open press that 
they have, I believe, expressed regrets. But I would not attest 
to that.
    Chairman Levin. All right. Is there a danger that Venezuela 
or Ecuador would take military action against Colombia, do you 
believe?
    Admiral Stavridis. Sir, I personally find that highly 
unlikely.
    Chairman Levin. Senator Warner.
    Senator Warner. I'd like to follow on the chairman's very 
important line of questioning about missile defense. He talked 
about the testing features and so forth. I want to go to a 
broader question to you, General. What is your assessment of 
the current readiness as of today of the GMD system now 
deployed in Alaska to intercept a long-range ballistic missile 
fired against the United States?
    General Renuart. Senator, I believe on a limited basis--and 
by that I mean not multiple missiles all being fired, but on a 
single event like the one we saw with the Taepodong in North 
Korea--I monitor that readiness every day and I believe it to 
be capable of providing us that limited defense that we seek 
against that threat.
    I do believe that we have to continue to expand our test 
program. We will have a series of tests this year that will add 
the full suite of sensors, the sea-based X-band, for example, 
the forward-based X-band radar, that will give us a much more 
end-to-end realistic test, and we will begin to look at both 
decoys and multiple vehicles as we get further into the test 
program. So I'm comfortable that we're continuing to expand.
    In terms of the readiness of the systems, I monitor them 
every day. Today they are in the test process. We work back and 
forth with the Missile Defense Agency to move missiles in and 
out of the test phase so that they can conduct the work they 
need to do and yet I have the forces available to respond 
should that be necessary.
    Senator Warner. That's quite reassuring then.
    Now, the most recent activity where we had to as a matter 
of safety bring down that crippled system using naval 
capabilities, what interrelationship did that event in terms of 
the use of our existing capabilities, both sea-borne and the 
missile itself, what relationship does that--what lessons do we 
learn from that that relate to the question of our missile 
defense?
    General Renuart. Senator, first, that was, as Secretary 
Gates has mentioned, a one-time event to protect human life.
    Senator Warner. Yes, but it worked.
    General Renuart. It did work.
    Senator Warner. It was to the commendation of the Services 
that it did work.
    General Renuart. The Department of the Navy and their 
engineers were fantastic in essentially reengineering the 
capability of that particular system.
    Senator Warner. I'd throw in the contractors. Everybody 
kicks them around like a football.
    General Renuart. Yes, sir, absolutely. They really did a 
magnificent job.
    Senator Warner. They really did.
    General Renuart. It was coordinated among all of the 
players: Commander of PACOM, Admiral Keating, myself, certainly 
General Chilton at STRATCOM. General Chilton was the supported 
commander for that. But we maintained full visibility on the 
process. Importantly, NORTHCOM was in a position to provide 
consequence management if that satellite had fallen into 
territory where we could be of assistance.
    Senator Warner. But did it add some credibility to our 
missile defense system?
    General Renuart. Senator, I think it would be unfair to 
characterize that, because it really was done for a very unique 
set of circumstances. Missile defense has a very different set 
of parameters there. So while we learned a lot about the 
process, I would be careful not to equate that event with 
developments in missile defense.
    Senator Warner. Maybe to the extent that the seaborne 
platform concept worked.
    General Renuart. Senator, every day our naval vessels 
carrying the SM-3 missile are used in a missile defense role, 
and they are exquisite in the performance of that role.
    Senator Warner. I just wanted to get a little naval plug 
in, Admiral.
    Admiral Stavridis. Sir, I want to associate myself with the 
word ``exquisite'' as it was just used there. [Laughter.]
    Senator Warner. The chairman asked questions about what 
Congress has done and what it hasn't done on the question of 
your department, General. The Commission recommended--that's 
the famous Punaro Commission--that Congress codify the DOD's 
responsibility to provide support for civil authorities.
    However, it would appear that the Constitution of the 
United States, existing laws such as the Stafford Act and the 
Insurrection Act, as well as DOD policy, the reference being 
DOD's strategy for Homeland defense and support to civil 
authorities, all of this taken together would seem to us at 
this time--I'm not going to render judgment; maybe I should say 
it would seem to me; I can't speak for my colleagues--provide 
ample, sufficient authorities for DOD to provide support for 
civil authorities.
    So what's your view about the need for review and a 
possible new Federal statute for the mission of supporting our 
State and civil authorities?
    General Renuart. Senator, I believe that today I have the 
authorities I need to provide that kind of support to the 
American people, and they deserve it, and I think existing 
policies within DOD allow me to do that. We're working, by the 
way, closely with our Department, with DHS, to ensure that we 
look at the kinds of support that may be needed in the future 
and that we're positioned to help in that.
    I include in my commander's Integrated Priority List and to 
my inputs to the budget development programs in the Department, 
those unique capabilities that are required by the Guard to 
help us respond. So it is an integrated effort in this regard.
    So I think today the existing authorities are more than 
sufficient and it is really the relationships and the planning 
and integration and exercising that will win the day for us.
    Senator Warner. Can I get two more quick questions?
    Chairman Levin. Senator Thune, are you happy to yield to 
your ranking member?
    Senator Warner. I didn't realize we had someone come.
    Senator Thune. No, please.
    Chairman Levin. Senator Warner?
    Senator Warner. Usually we sit here together and rattle on 
back and forth. [Laughter.]
    We'll need for this important hearing, Admiral, from you a 
submission for the record about the status of issues on the 
Panama Canal.
    Admiral Stavridis. Yes, sir.
    Senator Warner. I follow that very closely.
    Admiral Stavridis. Yes, sir, I know.
    Senator Warner. I want you to describe the current 
counterterrorism cooperation that we now have with Panama. I 
understand Panama, we have a very strong cooperative 
relationship.
    Admiral Stavridis. Sir, it is excellent.
    Senator Warner. But you do see that Panama has recognized 
Taiwan. How do you sort that out with some Chinese interests at 
both ends of the Canal which were the subject of a lot of 
discussion here years ago?
    Admiral Stavridis. Yes, sir. Yes, sir, I will.
    Senator Warner. Then of course, we have underway this 
referendum which authorized the Panamanian Government to go 
ahead and do a major upgrade of the Canal. What's your degree 
of confidence in their ability to achieve this?
    Admiral Stavridis. Yes, sir. I can address all those for 
the record for you, sir.
    Senator Warner. For the record.
    Admiral Stavridis. Yes, sir, if that's your preference.
    [The information referred to follows:]

    U.S. Southern Command (SOUTHCOM) is in the second consecutive year 
of a training program by which Special Operations Command South through 
Naval Special Warfare Detachment South (NSW Det South) is providing 
counternarcoterrorism training to the Panamanian Public Forces. NSW Det 
South continues to train groups comprised of personnel from the 
Panamanian National Police Special Forces and Frontier Forces, as well 
as personnel from Panamanian National Maritime Service. Panama's 
Minister of Government and Justice, accompanied by the Commander of the 
Frontier Force, visited SOUTHCOM headquarters in Miami in January, to 
forge an even closer relationship with the United States on 
counternarcoterrorism and other issues.
    For the diplomatic relationships between Panama and Taiwan and 
Panama and China, I defer such matters to the Department of State.
    Concerning the expansion of the Panama Canal, I have a high degree 
of confidence that the Panamanian Government can achieve their goal to 
upgrade the Canal. I think the Panama Canal Authority has a well 
thought out plan and they have the support of the Government and people 
of Panama to make this a very successful project.

    Senator Warner. Then I think you should address the alleged 
quantities of narcotics or other illicit materials that are 
transitting the Canal.
    Admiral Stavridis. Aye-aye, sir.
    [The information referred to follows:]

    In 2007, the interagency Consolidated Counterdrug Database (CCDB) 
estimated that approximately 1,400 metric tons (MTs) of cocaine flowed 
from South America. Of those 1,400 MTs, the CCDB estimates that 
approximately 3.3 MTs flowed through the Panama Canal. This represents 
less than a quarter of 1 percent of the total cocaine flowing out of 
South America. However, enforcement agencies admit they have little to 
no solid statistics on quantities or percentage of flow that actually 
transits the Canal since containerized cargo is not routinely 
inspected.
    Although illicit trafficking through the Canal does occur, the 
consensus amongst enforcement and intelligence officials is that 
utilizing the Canal is not the preferred route for most maritime 
smugglers and drug traffic organizations. Statistics and intelligence 
support that drug trafficking organizations still prefer smaller 
noncommercial maritime conveyance and tactics such as go-fasts and 
semi-submersibles that utilize more littoral and coastal routes 
reducing the risk of detection and interdiction.

    Senator Warner. Lastly, the ship over here. I was greatly 
impressed with that. Through the years, somehow I've had 
something to do with that ship. I can't remember exactly when 
she was made and launched. But I guess somebody ought to run an 
analysis of--you recited all the wonderful things that it's 
done.
    Admiral Stavridis. Right.
    Senator Warner. 25,000 pairs of eyeglasses?
    Admiral Stavridis. Yes, sir.
    Senator Warner. Has anybody done a cost analysis of how 
that goodwill by the United States and medical help to these 
people translates into lessening the burdens that you have on 
your military for performing the needed military missions? If 
so, should we think about urging the Department to commission 
another one of these ships?
    In other words, is it a cost effective way to achieve our 
goals in that region, and should we begin to step up this?
    Admiral Stavridis. Yes, sir, I would welcome the chance to 
provide some of that analysis----
    Senator Warner. Would you?
    Admiral Stavridis.--which has been--excuse me. Which has 
been done.
    I think the short answer to the question is that we can 
demonstrate effectiveness in attitudes toward the United 
States, which then turns toward helping solve other problems. I 
will put the answer in the record.
    Senator Warner. Because the region is just frightfully 
turbulent.
    Admiral Stavridis. Yes, sir.
    Senator Warner. The more that we can convince them that our 
mission there is simply to provide for their own, protect their 
own individual sovereignty and achieve some democratic form of 
government for their people, this can do it.
    So if you want to get behind it, slip me a little piece of 
paper and I'll see if I can talk to my chairman and maybe get 
some long-range planning for a new ship or something.
    Admiral Stavridis. Sir, I'll be glad to submit that for the 
record.
    [The information referred to follows:]

    Soon after the completion of the deployment of the hospital ship 
U.S.N.S. Comfort  to the U.S. Southern Command (SOUTHCOM) area of 
focus, SOUTHCOM conducted a Comfort Deployment Initial Impact 
Assessment. The Comfort was one of many humanitarian and engagement 
activities in the SOUTHCOM theater in 2007 that were aimed at achieving 
the strategic objectives of ensuring security, enhancing stability, and 
enabling prosperity in Central and South America and the Caribbean. The 
Initial Impact Assessment sought to isolate the impact of Comfort's 4-
month deployment.
    The Comfort's mission in Latin America and the Caribbean was 
primarily a training and forward presence deployment in support of 
SOUTHCOM's theater security cooperation mission. The Comfort also 
performed humanitarian and civic assistance activities in conjunction 
with the training and forward presence deployment (both onboard the 
Comfort and ashore in various partner nations). These activities were 
conducted principally under the authority of Title 10, U.S.C., section 
401, humanitarian and civic assistance provided in conjunction with 
military operations.
    During their 4-month deployment, the medical professionals of the 
Comfort completed over 380,000 medical encounters with over 98,000 
patients. All levels of care were provided, from general medicine to 
over 1,100 surgeries. The Comfort's veterinarian staff completed over 
17,000 veterinary encounters. Over 24,000 eyeglasses were distributed, 
as well as 132,000 pharmaceuticals dispensed. Comfort technicians 
affected 438 biomedical equipment repairs for partner nation medical 
providers. Additionally, a small contingent of naval engineers 
(SEABEEs) completed over $398,000 worth of infrastructure construction 
and repairs.
    In addition to the services provided, the deployment also 
highlighted exceptional cooperation with interagency partners and 
Nongovernmental Organizations (NGOs). The U.S. Public Health Service 
and U.S. Coast Guard provided critical medical personnel. Project Hope 
medical providers were onboard throughout the deployment and greatly 
enhanced the capabilities of the medical team. Project Hope also 
provided over $3.4 million worth of medical supplies and vaccines for 
the mission. Operation Smile participated in two of the port visits, 
providing life-changing cleft palate and cleft lip surgeries. The 
participation of the NGOs demonstrated how a coordinated effort can 
enhance Department of Defense missions and provide greater benefit to 
partner nations.
    The medical services provided were not the only benefits to host 
nations and their citizens. The deployment of the Comfort also had a 
significant economic impact in the region. The assessment captured a 
variety of economic injections including the value of medical services, 
training, infrastructure projects, port visits and Panama Canal transit 
costs, and NGO donations. It is estimated that the deployment had an 
economic impact of over $45 million dollars in the region.
    The Comfort deployment received significant media coverage from 
international, U.S., and regional media outlets. Over 88 percent of 
print media analyzed was of a positive or factual nature. When 
monitored, television coverage was informational and very positive, 
focusing largely on human interest stories. The level of media coverage 
of Comfort far exceeded any other activities of any kind in the 
SOUTHCOM theater. Additionally, the level of interest from and 
participation by high-level host nation officials was unprecedented. 
During the deployment, 105 foreign distinguished visitors toured the 
Comfort, including seven at the President/Vice President/Prime Minister 
level.
    There was also evidence suggesting the Comfort visit had an effect 
on the behavior of host nation populations. The most compelling example 
occurred following the visit of the Comfort to Buenaventura, Colombia. 
The Colombian military reported that in the weeks following the visit, 
reports from the local population regarding illegal trafficking 
activities in a FARC stronghold more than doubled.
    The assessment showed convincingly that hospital ship deployments 
are not only excellent training platforms for U.S. military medical 
professionals, but are also effective and highly visible means of 
demonstrating the commitment and goodwill of the United States. In 
addition, they serve to enhance existing and develop new regional 
partnerships, build partner nation capacity and capabilities and 
provide much needed medical care to people in need. All of these 
attributes of the missions help to address the underlying conditions of 
poverty, inequality and corruption that facilitate many of the regional 
security challenges, including gangs and illicit trafficking. SOUTHCOM 
intends to continue maritime medical missions, based on the strong 
belief that persistent engagement is the key to achieving theater 
objectives.

    Senator Warner. All right. Thank you very much.
    I thank the chair and I thank my colleague.
    Chairman Levin. Thank you, Senator Warner.
    Just adding one request in support of that, if you'd like, 
you could give us for the record some examples of clippings 
from newspapers in ports too.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. If you could translate them for us, too, if 
you would.
    Admiral Stavridis. Yes, sir.
    Chairman Levin. What the public reads about and knows about 
in these countries.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Admiral, thank you for your service. Be sure to 
express our appreciation to those who serve under your command 
for the great work that they do in protecting freedom, 
protecting our country.
    General, this is probably somewhat of a theoretical 
question, but I'd like to get your thoughts on the 
intersection, on the role of law enforcement in the military. 
On both ends of the spectrum I think it's clear what those 
roles are; they're fairly well-defined. But it seems like the 
middle is becoming increasingly grey.
    Do you see a change from using law enforcement resources to 
military resources for threats against the Homeland?
    General Renuart. Senator, I think, as you say, the bounds 
are very clear. I think we have approached the law enforcement 
aspect of our role in the Homeland as a supporting agency, and 
I think that's the prudent way to do that. In other words, we 
have great capabilities within our law enforcement agencies to 
respond both locally and nationally to threats, whether they be 
threats to the border or natural threats that just require, if 
you will, the law of order in a particular county or city, et 
cetera.
    I'm comfortable that the provisions that we have in the 
Constitution provide the appropriate bounds for Active-Duty 
military in their use to respond in a role that is more active 
in law enforcement, and I don't think that's something that we 
need to change at this point. I'm comfortable that the National 
Guard, who has more of those authorities, is available and 
trained to support the Governors in that respect.
    I think our key enabler, if you will, is to find more ways 
that we can assist our law enforcement agencies with 
information-sharing and with logistical support to enable them 
to do their role, and the Secretary has asked us to continue 
things like our work along the southern border with the El Paso 
Intelligence Center, and their support to law enforcement 
agencies. So I think that's the appropriate level for us.
    Senator Thune. General, our military forces started flying 
Operation Noble Eagle right after September 11. Do you still 
see that operation as vital to national security?
    General Renuart. Senator, I do. To date we've flown about 
48,000 missions or sorties, predominantly by the National 
Guard, but not exclusively. We've flown those in a variety of 
missions to support security of our national air space system. 
I think there was some press even yesterday of an aircraft who 
entered the restricted area around the National Capital Region 
and was intercepted by our fighters and diverted to an air base 
where they could question the pilot on the reasons for that. 
Fortunately, it was a benign event.
    But I think we do need to have a capability to respond in 
that regard. The systems that we use to identify traffic in our 
national air space system are aging. We are working on some 
advanced technologies to allow us to perform that via a broader 
means. In fact, that's my number one unfunded requirement 
today.
    So in the meantime, the ability to put eyes and, if you 
will, radars on an air threat is critical to us. I think also 
we have to be cognizant of low observable and cruise missiles 
and again the air defense mission, the Noble Eagle Mission, has 
a key role to play in that.
    So for the future I see that role continuing. I see it to 
be vital to our national defense and I would continue to 
recommend to the Secretary that we keep that force available to 
us.
    Senator Thune. Your testimony details how important it is 
to anticipate threats against the Homeland, and I guess I'm 
wondering maybe what you think is the most lethal threat and 
maybe what is the most probable threat that we might come up 
against.
    General Renuart. Senator, I think this anticipation, this 
concept of integrating our intelligence resources with the NCTC 
and others, is a great way to go in that regard. Clearly, the 
most lethal threat that we might see would be the acquisition 
of a WMD, primarily a nuclear weapon--and having that detonated 
somewhere in our country. The impact of that would be 
substantial, obviously. The loss of life would be huge, as well 
as the injury and the long-term effect. So that is what I would 
say is the most lethal threat that we face out there.
    I don't believe that is the most likely, because I believe 
the integrated effort of all of our agencies of government is 
focused on those and we are being successful at reaching out 
and deterring or defeating some of those threats as they try to 
develop.
    I think the most likely threat that we have frankly comes 
from Mother Nature, because she does not work on our time 
schedule. So a Hurricane Katrina-like event or a large-scale 
earthquake, something like the historic New Madrid Fault Line 
earthquakes that occurred back in the 1800s. Those things will 
have a broad effect on the civilians across the country, and we 
need to be prepared for that. I call it a threat because, if 
you will, that is another enemy force out there that we have to 
deal with.
    Senator Thune. Admiral, in your prepared statement you said 
you believe ``Members, facilitators, and sympathizers of 
Islamic terrorist organizations are indeed present in our 
hemisphere.'' I think most Americans are probably unaware of 
the increasing activities undertaken by Hezbollah and Hamas in 
the tri-border area of Argentina, Paraguay, and Brazil. To the 
extent that you can talk about that in open forum, could you 
describe what you're observing in the tri-border area, as well 
as commenting on what efforts you're making to counter this 
threat to our national security?
    Admiral Stavridis. Yes, sir. Within the constraints of 
classification, I will say that I continue to be concerned 
about the tri-border area. It is in my view, principally 
Hezbollah activity. There is clearly fundraising, money 
laundering, drug trafficking, and certainly a portion of the 
funds that are raised in that are making their way back to the 
Middle East.
    We are receiving good cooperation from the nations in that 
region. We are actively pursuing both military-to-military 
conversations, but principally this is a law enforcement 
effort, and our law enforcement branches here in the United 
States are talking to their counterparts in the entire range of 
instruments that one would take against those kinds of things, 
both drug enforcement activities, following the money, and a 
variety of other things that I can report appropriately to the 
committee in writing.
    Senator Thune. Thank you both very much for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Any additional questions? [No response.]
    In that case, our thanks again to you, your people who work 
with you, your families, for the great job you all do. We stand 
adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
           responsibility for domestic consequence management
    1. Senator Levin. General Renuart, Northern Command (NORTHCOM) has 
a mission to provide military support to other Federal agencies for 
domestic consequence management, primarily the Department of Homeland 
Security (DHS). Can you describe the relationship between NORTHCOM and 
DHS, and what your support to DHS entails? Please provide specific 
examples of cooperation and coordination.
    General Renuart. NORTHCOM has always enjoyed a cooperative 
relationship with DHS and takes operationally prudent, collaborative 
steps necessary to both better protect our country and, in the event of 
an incident, ensure a prompt, competent, unified response.
    In the planning arena, we have provided direct support to the DHS 
Incident Management Planning Team's work on strategic plans for the 15 
National Planning Scenarios and the development of an Integrated 
Planning System. We enjoy continuous collaboration with all Federal 
Emergency Management Agency (FEMA) planning efforts, from hurricanes to 
recent preparations for the possibility of a dangerous satellite 
impact. In coordination with FEMA, NORTHCOM developed more than two 
dozen all-hazard Pre-Scripted Mission Assignments. We are working now 
to provide special emphasis on assisting FEMA with logistics planning. 
At the regional and State level, our Defense Coordinating Officers and 
their staffs work daily with FEMA regional planners.
    Our North American Aerospace Defense Command (NORAD) and NORTHCOM 
Command Center partners closely with the DHS National Operations Center 
24x7x365 to monitor nation-wide events that might require unified 
Department of Defense (DOD) and DHS action. For contingencies and major 
training events, NORTHCOM provides a liaison to the DHS National 
Infrastructure Coordinating Center to share information and ensure 
unified operations regarding the Nation's 17 Critical Infrastructure/
Key Resource and Private Sectors. NORTHCOM is a standing member of the 
DHS Operations Coordination Group and participates in all DHS 
contingency conferences led by both the DHS Operations Coordination 
Directorate and FEMA. NORTHCOM and DHS also co-led the development of 
an Information Sharing Plan that codifies procedures for the exchange 
of operational information between DOD, DHS, and the National Guard 
Bureau (National Guard Bureau).
    We have focused NORTHCOM and DHS teamwork on scenario-specific 
exercises involving international, national, regional, State, and local 
partners. Senior DHS representatives recently made invaluable 
contributions during a NORTHCOM-hosted Senior Leader Seminar designed 
to refine the objectives, scenario, and issues for Exercise Vigilant 
Shield 09. NORTHCOM is responsible for DOD's Defense Support of Civil 
Authorities course, and collaborates with DHS on curriculum 
development, regularly providing senior leaders to one another's 
training courses to ensure effective integration of messages and 
procedures. We also work closely with DHS to support efforts to 
integrate the private sector in all appropriate training events.
    Full-time liaisons complement well-established NORTHCOM and DHS 
operational and planning procedures, facilitate synchronization, and 
quickly highlight any emerging threats. We include Senior Advisors in 
one another's headquarters; have NORTHCOM representation in FEMA's 
National Response Coordination Center and FEMA, Customs and Border 
Protection, Transportation Security Administration, and United States 
Coast Guard have representatives at NORTHCOM who are fully integrated 
into the Command's operations. NORTHCOM has also provided advice and 
best practices as the DHS Operations Coordination Directorate develops 
its own ``Battle Command'' and Operations and Planning organizations 
and procedures.
    Senior NORTHCOM and DHS leaders actively monitor collaboration, 
identify potential issues, and empower staffs to work areas of mutual 
benefit. For example, DHS is a full partner in the NORTHCOM-led 
Capabilities Based Assessment (CBA), a 16-month effort to identify 
DOD's capabilities and shortfalls that will inform DOD's homeland 
defense and civil support missions and resourcing priorities. We 
partner closely in innovation, experimentation, and science and 
technology.
    NORAD and NORTHCOM have also worked closely with DHS, particularly 
FEMA, in implementing DOD's Building Partner Capacity Program in the 
NORTHCOM area of responsibility (AOR). This has resulted in important 
progress in international collaboration with Canada and, significantly, 
Mexico. NORAD and NORTHCOM collaboration with DHS in the international 
arena is active and growing. NORTHCOM and DHS are key partners in 
several international forums, including the U.S.-Canada Permanent Joint 
Board on Defense and the North American Security and Prosperity 
Partnership.

           coordination with governors and adjutants general
    2. Senator Levin. General Renuart, one of the key objectives for 
Federal consequence management is to ensure coordination and 
cooperation of various Federal, State, and local response forces and 
plans. Please describe the role of NORTHCOM in working with the 
Governors and their Adjutants General to coordinate these various 
levels of disaster response forces and planning with Federal 
capabilities.
    General Renuart. I recognize the need to coordinate directly with 
States and State leadership to accomplish our mutual missions. We have 
the imperative to anticipate, plan, and respond collaboratively with 
the States and tribal nations within the NORTHCOM AOR. Developing 
understanding, trust, and mutual respect between NORTHCOM and the 
National Guard is of particular importance as we plan and execute our 
mutual State and Federal missions. We are developing strong 
relationships with Governors, Emergency Managers (in collaboration with 
DHS and FEMA), and Adjutants General (in collaboration with National 
Guard Bureau). Each time I visit a State, I try to meet with the 
Governor, the Adjutant General (TAG), Homeland Security Advisor, and 
Emergency Manager. I've met with 19 Governors, all of the TAGs, and 
every State director of emergency services. I recently had the honor of 
being the keynote speaker at both the National Guard Association of the 
United States Annual Meeting in Puerto Rico and the recent National 
Emergency Management Association Conference.
    Direct State engagement is not a specified task for DOD or for 
NORTHCOM. However, it's imperative that we develop relationships with 
our State mission partners that will contribute to success in saving 
lives, protecting infrastructure, and promoting a resilient society. 
I'm working to ensure my staff understands Governors' concerns and that 
senior State staff have an appreciation for NORTHCOM's role in security 
and defense. This understanding will promote the unity of effort our 
citizens deserve.
    We maintain relationships with States in concert with National 
Guard Bureau and DHS. Planning partnerships ensure we have unity of 
effort with the States for the 15 National Planning Scenarios directed 
by the Homeland Security Council. In day-to-day operations, we connect 
to the States through the National Guard Bureau Joint Operations Center 
by maintaining situational awareness 24/7 through a dedicated National 
Guard desk in my Command Center. In the training and exercise arena, we 
work with National Guard Bureau and DHS to develop and execute a 
comprehensive knowledge exchange and exercise program that facilitates 
State and regional exercises and develops the military skills of both 
my staff and Joint Force Headquarters-State staffs. NORTHCOM 
partnerships with National Guard Bureau and DHS result in direct 
benefit to Governors, State emergency managers, and Adjutants General.

                       maritime domain awareness
    3. Senator Levin. General Renuart, one of the initiatives being 
pursued by NORTHCOM and other Federal organizations and agencies is 
Maritime Domain Awareness, an effort to have a much better 
understanding of the location and status of potential threats at sea. 
What is NORTHCOM's role in Maritime Domain Awareness, and how is it 
being coordinated among various government organizations and agencies, 
including the Navy, the Coast Guard, and the Intelligence Community?
    General Renuart. NORTHCOM is a key leader in advocating for 
Maritime Domain Awareness to provide timely, accurate, and actionable 
information that aids our ability to detect threats to the Homeland and 
our neighboring allies. Below are two of the initiatives the Command 
has undertaken:

         Developed, jointly with U.S. Coast Guard, the National 
        Concept of Operations for Maritime Domain Awareness. In August 
        2007, the National Security Council and Homeland Security 
        Council approved the Maritime Domain Awareness Concept of 
        Operations, which executes the National Plan to Achieve 
        Maritime Domain Awareness in support of the National Strategy 
        for Maritime Security.
         Partnered with U.S. Joint Forces Command to design and 
        execute the maritime portions of Noble Resolve 08. This 
        experiment will involve numerous organizations to include the 
        Office of Global Maritime Situational Awareness, Customs and 
        Border Protection, and the Office of Naval Intelligence.

    In addition, NORTHCOM serves as the Operational Manager for two 
Joint Capability Technology Demonstrations: Comprehensive Maritime 
Awareness and Maritime Automated Super Track Enhanced Reporting, which 
correlates and automates over 300 information sources into a maritime 
common operating picture.
    In May 2007, the Deputy Secretary of Defense appointed the Navy as 
the Executive Agent for Maritime Domain Awareness. The lead for this 
effort is the Deputy Under Secretary of the Navy. As the Executive 
Agent, the Deputy Under Secretary of the Navy is responsible for 
implementing Maritime Domain Awareness for the DOD. NORTHCOM continues 
to engage with the Navy to ensure command requirements are met within 
the Maritime Domain Awareness technology development process.
    At NORTHCOM, we understand that global Maritime Domain Awareness 
will only be achieved through continued interagency and international 
outreach. National Security Presidential Directive-41 and Homeland 
Security Presidential Directive-13 set U.S. Policy for Maritime 
Security and direct the development of a National Strategy for Maritime 
Security along with eight supporting policy action plans. The National 
Plan to Achieve Maritime Domain Awareness is one of the eight plans and 
was approved by the President in October 2005. The Maritime Domain 
Awareness Plan lays out the strategy, goals, and priorities for 
enhanced information sharing within the maritime domain. The Office of 
Global Maritime Situational Awareness was established by the Maritime 
Domain Awareness Concept of Operations as one of two interagency 
offices, along with the Office of Global Maritime Intelligence 
Integration, dedicated to removing barriers to maritime information 
collection, fusion, analysis, and dissemination.
    NORTHCOM will remain fully engaged in future development of 
Maritime Domain Awareness through continued support for the Office of 
Global Maritime Situational Awareness, strengthened ties with U.S. 
Fleet Forces Command, and advocacy for U.S. Joint Forces Command 
experimentation.

                     major exercise program results
    4. Senator Levin. General Renuart, you have two major annual 
exercises. Can you describe their objectives and what we learn from 
them? For example, how large are they, and do they involve Federal, 
State, and local personnel?
    General Renuart. Our two major exercises are Ardent Sentry and 
Vigilant Shield.
    Ardent Sentry is primarily focused on Defense Support of Civil 
Authorities training for NORTHCOM, and asymmetric threat missions for 
NORAD; it is a Field Training Exercise typically involving 10,000 to 
20,000 personnel, including full interagency participation. Vigilant 
Shield is primarily focused on homeland defense training for NORTHCOM, 
and strategic war scenarios for NORAD; it is a Command Post Exercise 
normally involving approximately 5,000 personnel.
    Both exercises are designed to train NORAD and NORTHCOM 
Headquarters, Components, Regions, Sectors, and Subordinate Commands to 
practice, in a 7- to 10-day execution window, one or more of our 
mission-specific Concept Plans and Functional Plans. Each exercise 
routinely includes participants from several Federal departments and 
agencies (e.g., FEMA, United States Coast Guard, Department of Justice, 
Federal Bureau of Investigation, Department of Transportation, Federal 
Aviation Administration, Department of Heath and Human Services, Center 
for Disease Control, Department of Energy); State organizations (e.g., 
State-level Department of Emergency Management/Emergency Operations 
Center, State National Guard units); and local responders (county and 
city). We also frequently exercise with nongovernmental organizations 
such as the American Red Cross; private industry organizations, such as 
the Association of American Railroads; tribal governments; and 
international organizations (e.g., Royal Canadian Mounted Police, 
Public Safety Canada, and Canada Command).
    Each of our exercises (and real-world contingency operations) 
includes a comprehensive data collection and management effort to 
capture and record pertinent observations for each mission area 
performed. Analysis of that information leads to recommendations for 
sustainment of best practices or changes to plans and procedures. The 
revised plans and procedures are then verified in follow-on exercises 
and operations. When appropriate, such as for recommended changes in 
policy, we forward relevant observations to the Joint Staff for DOD-
wide consideration, or to make them available to our interagency 
partners.

    5. Senator Levin. General Renuart, do any of these exercises 
involve any of our specialized weapons of mass destruction (WMD) 
response units? If so, please describe how they are used and how the 
exercises improve their capabilities.
    General Renuart. Yes; depending on the number, size, and location 
of simulated incidents (e.g., hazardous chemical spill, biological 
attack, radiological dispersal device, improvised nuclear device, 
hijacked aircraft ``missile''), we exercise deployment and employment 
of the full range of response capabilities. The capabilities range from 
a State Weapons of Mass Destruction-Civil Support Team (WMD-CST) to a 
Chemical, Biological, Radiological, Nuclear, or High-Yield Explosive 
(CBRNE) Enhanced Response Force Package (CERFP) to one or more CBRNE 
Consequence Management Response Forces (CCMRFs). A relatively limited 
response may be coordinated with a Defense Coordinating Officer and 
Element. Larger responses may call for a Joint Task Force, and a Joint 
Force Command may be appropriate for a wide-area, massive response.
    It is important to note that we often exercise alongside non-DOD 
organizations with specialized response capabilities, such as the 
National Disaster Medical System, Disaster Medical Assistance Team, 
Disaster Mortuary Operational Response Team, and local Hazardous 
Material Teams. The opportunity for these units to train and respond to 
WMD scenarios in the Homeland is valuable at all levels of government, 
as the large, complex exercises bring most, if not all of the key 
responders and decision makers together in a dynamic operating 
environment that is as realistic as training resources will allow.

                      capabilities-based analysis
    6. Senator Levin. General Renuart, your prepared statement mentions 
that you have started a capabilities-based analysis of NORTHCOM's needs 
for homeland defense and civil support, and that the DHS is also 
assisting in this effort. What do you expect this analysis to produce 
in terms of concrete results, and when will it be completed?
    General Renuart. NORTHCOM is leading a comprehensive Homeland 
Defense and Civil Support (HD/CS) CBA in accordance with the Joint 
Capabilities Integration and Development System. The CBA will define 
DOD's HD/CS core capabilities, help define capability 
interdependencies, and identify capability gaps and excesses to 
influence and inform decisions on risk management and resourcing, to 
include National Guard and Reserve Forces. This effort is one of DOD's 
Top 25 Transformational Priorities.
    The end result of this study will be a document that prioritizes 
the Department's capability gaps and excesses and provides 
recommendations to the Joint Requirements Oversight Council (JROC) on 
which areas should undergo further analysis to identify programmatic 
and system materiel solutions or non-materiel solutions. We expect to 
provide a CBA approval brief to the JROC, the accepting authority, in 
December 2008.
    DHS is fully supporting the CBA and actively collaborating with the 
CBA team. They believe this CBA will facilitate their actions under 
Homeland Security Presidential Directive-8 (National Preparedness 
System and Target Capabilities List) and set a foundation for their 
Quadrennial Homeland Security Review.

                      joint tactical radio system
    7. Senator Levin. General Renuart, the DOD is developing a Joint 
Tactical Radio System (JTRS) that will be able to accept software to 
utilize multiple types of waveforms to allow all DOD users, including 
the National Guard, to be able to talk to each other. The waveforms are 
owned by the DOD and licensed to various manufacturers of the radios. 
One of NORTHCOM's missions is to provide support to civil authorities. 
A key element of this capability must be the ability to communicate 
with State and local responders. Will State and local authorities be 
able to purchase the JTRS radios, or will the JTRS radios be programmed 
so that they can communicate with all State and local authorities?
    General Renuart. The latest information we have from the Program 
Manager for JTRS indicates that JTRS radios will be available to the 
National Guard in all States and that the radios will also be available 
to all U.S. Government activities, including State and local 
authorities. This means that those organizations with JTRS will be able 
to interoperate with DOD forces on approved DOD portions of the 
spectrum.
    JTRS radios are capable of tuning throughout the available 
spectrum, including frequencies assigned to public safety Land Mobile 
Radios (LMRs). However, the Project 25 (P25) waveform, which is 
required to be interoperable with public safety LMRs, is not included 
in the JTRS waveform Increment 1, which is currently under development. 
The P25 waveform is included in the requirements for JTRS Increment 2 
development, but the Increment 2 schedule is not approved at this time. 
NORTHCOM is advocating with the Joint Chiefs of Staff Command, Control 
Communications and Computers System Directorate for P25 development to 
be accelerated within Increment 2.
    In the meantime, radio bridges (such as the ACU-1000 currently used 
by NORTHCOM and the National Guard) enable interoperability between 
different radio systems. Radio bridges allow the users to maintain 
their different radio network configurations and still communicate 
across disparate radios. By physically connecting radios into the radio 
bridge equipment, voice communications can be passed between the 
different radio networks. With the multitude of radio configurations 
for LMR, radio bridges are a common technology found across local, 
State, and Federal agencies. In short, radio-bridging is the simplest 
and most efficient means for connecting different radio systems while 
we continue to work on fielding a common radio and interoperability 
standard.

    8. Senator Levin. General Renuart, how will NORTHCOM ensure 
compatibility and interoperability among Federal, State, and local 
radio users in domestic incident responses where NORTHCOM is providing 
civil support?
    General Renuart. We have taken a number of steps here at NORTHCOM 
to ensure compatibility and interoperability when our forces provide 
civil support. Our command has a standards document that publishes the 
interoperability standards for DOD forces operating in the AOR. One of 
the items identified in that document is the Audio Controller Unit-1000 
(ACU-1000), which was used effectively during Hurricane Katrina relief 
to bridge the radio interoperability gap between DOD forces and State 
and local organizations. NORTHCOM command and control elements have 
ACU-1000s as part of their deployable equipment.
    Deployable cellular systems, known as the Interoperable 
Communications Extension System, were fielded during Hurricane Katrina 
relief operations in 2005, and have since increased in density and 
capabilities. These systems are now in use by NORTHCOM, FEMA, and the 
Air National Guard. In addition to cellular telephones and data links 
that reach back to DOD teleports for out of area communications, these 
systems also have ACU-1000s in order to interconnect Land Mobile Radio 
and DOD radio systems or make telephone calls. The National Guard also 
uses the ACU-1000 as a component of their Joint Incident Scene 
Communications Capability.
    NORTHCOM also participates in the DOD Interoperability 
Communications Exercise (DICE); a Joint Interoperability Test Command-
sponsored exercise designed to test and certify communications 
equipment. As part of DICE, NORTHCOM organized a Homeland Security, 
Homeland Defense and Defense Support of Civil Authorities 
interoperability communications exercise, 24-28 Mar 08. For 2008, 
NORTHCOM used two separate venues for the exercise: one at Fort Sam 
Houston, TX, hosted by U.S. Army North, and one at Fort Monroe, VA, 
hosted by Joint Task Force Civil Support. Participants for DICE 2008 
included communications assets from NORAD and NORTHCOM, the DHS, U.S. 
Coast Guard, Texas (State and local), Virginia (State and local), Texas 
National Guard, Virginia National Guard, American Red Cross, Army 
Signal Company, Air Force Communications Squadrons, and other first 
responders. DHS assets participating in the DICE 2008 exercise included 
the Fredrick, MD, FEMA Mobile Response Vehicle (MRV), the Denton, TX, 
FEMA MRV, and various regional FEMA assets participating from their 
home stations.
    NORTHCOM is also working on information sharing between operating 
centers: the NORAD and NORTHCOM Command Center; the National Military 
Command Center, DHS National Operations Center, and the National 
Guard's Joint Operations Center. The goal of this Strategic Operations 
Information Sharing Plan of Action is to capture and codify the common 
information sharing processes between operations centers and missions. 
This effort supports the National Command Capability Information 
Sharing Environment vision and sets the stage for an evolution to a 
broader implementation. The new vision includes the use of net-centric 
capabilities and shared standards among mission partners across the 
Homeland Security and Homeland Defense mission environment.

              counterdrug eradication versus interdiction
    9. Senator Levin. Admiral Stavridis, Colombia has made great 
strides in taking control of territory and expanding the influence of 
the State. However, it is not clear whether all the resources we have 
put into counternarcotics in Colombia have yielded much progress. Coca 
cultivation has increased and kept up with eradication.
    Moreover, my understanding is that interdiction efforts are under-
resourced and in recognition of this the Director of the Office of 
National Drug Control Policy (ONDCP) has requested that DOD increase 
support to interdiction in the transit zone to help law enforcement 
agencies achieve interdiction of 40 percent of the cocaine headed to 
the United States. Do you believe that eradication efforts are the most 
efficient use of U.S. counterdrug funds?
    Admiral Stavridis. I firmly believe that no single action will stem 
the flow of drugs into our cities or drug use in our Nation. Countering 
the drug threat requires coordinated effort against all aspects of the 
illicit narcotics industry--education, treatment, cultivation, 
production, transportation, and consumption--to fully attack this 
complex problem. Eradication is an integral part of the attack on drug 
production operations. However, U.S. Southern Command's (SOUTHCOM) 
focus is on detection and monitoring operations. We normally receive 
approximately 35-45 percent of the stated detection and monitoring 
requirements to meet ONDCP's interdiction goal. This percentage 
represents the total requirement against all allocated air and surface 
assets from the DOD, the DHS, and our international partners. I defer 
to our Department of State colleagues on the efficacy of eradication as 
they are the lead agency for eradication in Colombia.

    10. Senator Levin. Admiral Stavridis, would you support shifting 
some of the resources used for eradication to focus on interdiction 
throughout the transit zone from Colombia to the United States?
    Admiral Stavridis. Most, if not all, of the assets used to execute 
the eradication mission are not capable of performing an interdiction 
role. For example, spray aircraft and helicopters used for security in 
Colombia would be of little use as detection and monitoring assets in 
the transit zone. While I cannot speak to the availability of 
eradication resources since that is the purview of the Department of 
State, I could certainly use more detection and monitoring assets, 
which constitute the DOD's contribution to law enforcement agencies.

    11. Senator Levin. Admiral Stavridis, do you have sufficient 
resources to track and interdict drugs in the transit zone? 
Specifically, do you have sufficient reconnaissance assets? If not, 
what would you need to reach the ONDCP goal?
    Admiral Stavridis. [Deleted.]

                       interdiction-intelligence
    12. Senator Levin. Admiral Stavridis, your opening statement last 
year before this committee mentioned that it appears that some cocaine 
movements go undetected each year because of a lack of an appropriate 
detection resource to respond to intelligence queuing, a real missed 
opportunity because nearly 90 percent of illicit drug movements that 
are successfully detected by Joint Interagency Task Force-South (JIATF-
South) are eventually interdicted. Is this still a problem? If so, can 
you elaborate on what the problem is?
    Admiral Stavridis. Yes, this is still a problem. During calendar 
year 2007, JIATF-South had intelligence knowledge of 683 non-commercial 
maritime events of which only 150 were physically detected (22 percent 
detection rate). Of those 150 detected events, 132 were interdicted (88 
percent interdiction rate). The problem lies in the fact that over the 
past several years we have seen an increase in awareness of the number 
of cases as a result of more robust intelligence, but we have not had a 
corresponding increase in the number of detection and monitoring 
resources, assets, or capabilities. In fact, we have observed an 
overall decrease in air support over the past 3 years, while 
maintaining a steady maritime presence. Recent trends indicate that 
traffickers are distributing cocaine loads via greater numbers of 
smaller, faster, and stealthier methods of conveyance (go-fast boats, 
self-propelled semi-submersibles, single engine Pangas). The net result 
is that there are more targets on the water, but we have fewer 
interdiction resources to bring to bear.

    13. Senator Levin. Admiral Stavridis, what detection resources are 
we missing, and how can we take steps to ensure that you have such 
resources?
    Admiral Stavridis. [Deleted.]

    14. Senator Levin. Admiral Stavridis, what would it take to detect 
the new threats you mentioned in your testimony, like the semi-
submersible submarines being used to transport cocaine?
    Admiral Stavridis. Drug trafficking organizations are adaptable and 
continue to evolve as we become more proficient against their methods. 
Self-propelled semi-submersible are the newest and most challenging 
conveyance being employed. I have recently asked the Naval Warfare 
Development Center to assist ongoing Joint Interagency Task Force-South 
(JIATF-S), SOUTHCOM, and U.S. Naval Forces Southern Command efforts to 
develop new tactical procedures for maritime detection and monitoring. 
An initial assessment of available self-propelled semi-submersible 
intelligence, gathered primarily by JIATF-S, has produced preliminary 
requirements that include expanded radar, acoustic detection, and 
intelligence capabilities.

                           mexico-counterdrug
    15. Senator Levin. General Renuart and Admiral Stavridis, what are 
the greatest weaknesses in Mexico's counterdrug abilities?
    General Renuart and Admiral Stavridis. [Deleted.]

    16. Senator Levin. General Renuart and Admiral Stavridis, do they 
need help with respect to their intelligence and operations?
    General Renuart and Admiral Stavridis. [Deleted.]

                          unified command plan
    17. Senator Levin. General Renuart and Admiral Stavridis, are you 
comfortable with the delineation of your geographic commands? Is there 
anything that you would like to change?
    General Renuart. We both agree that the NORTHCOM/SOUTHCOM boundary 
should be adjusted in the Caribbean to place the U.S. Virgin Islands, 
Puerto Rico, the Bahamas, Turks and Caicos inside the NORTHCOM AOR. 
NORTHCOM missions of Homeland Defense (HD) and Civil Support (CS) make 
it best postured to support the requirements in the U.S. Virgin Islands 
and Puerto Rico. This AOR adjustment will enhance the overall HD and CS 
mission unity of effort and unity of command for these U.S. territories 
in the Caribbean. NORTHCOM has already established deliberate and 
contingency plans, as well as trained personnel for all-hazard disaster 
response in the U.S. Virgin Islands and Puerto Rico. NORTHCOM, as an 
interim measure in August 2007 and with approval of the Secretary of 
Defense, assumed responsibility for natural disaster-related Defense 
Support of Civil Authorities for Puerto Rico and the U.S. Virgin 
Islands. NORTHCOM tailored State, local, and interagency coordination 
for U.S. HD and CS requirements to ideally engage with Puerto Rico and 
the U.S. Virgin Islands on these issues. This AOR boundary shift will 
also include placing the British Virgin Islands, the Bahamas, Turks and 
Caicos Islands in the NORTHCOM AOR. This move will enhance unity of 
command and effort for HD in the approaches to the United States from 
our ``third border,'' the Caribbean. Including these bordering HD 
partners in our theater security cooperation focus will support their 
security posture and the security of the region. In addition, our 
unique depth, capability, reach back, and coordination with interagency 
partners in humanitarian assistance and disaster relief support will 
greatly benefit our closest Caribbean neighbors and partners.
    Admiral Stavridis. Yes, there is a geographic change currently 
being reviewed within the DOD. In August 2007, we submitted a joint 
proposal to modify the Unified Command Plan that would reposition the 
existing Caribbean boundary between our commands. If approved by the 
President, this change would reassign responsibility for the Bahamas, 
Turks and Caicos, Virgin Islands, and Puerto Rico from SOUTHCOM to 
NORTHCOM. We believe this recommendation to be prudent and in the best 
interest of the DOD as it eliminates duplication in effort and ensures 
the best utilization of limited resources.

    18. Senator Levin. General Renuart and Admiral Stavridis, 
specifically, with regard to Mexico, would you both agree that the best 
place to put responsibility for Mexico is in NORTHCOM and not in 
SOUTHCOM?
    General Renuart. Yes, consistent with national policy and strategic 
guidance regarding the future intended role of Mexico as a major 
participant in continental security, Mexico should remain under the 
overall responsibility of NORTHCOM. NORTHCOM, as Mexico's primary 
military partner, has forged very constructive links with Mexico's 
military services since the inauguration of President Calderon. The 
United States Government must ensure the integration of Canada, Mexico, 
and the Caribbean basin into a comprehensive and mutually beneficial 
architecture that protects North America's critical infrastructure and 
its land, air, sea, and space approaches. However, the United States 
Government must work to integrate the North American security 
architecture into a broader, functional hemispheric security framework. 
Because of the need for hemispheric security, we have determined that 
Mexico is a partner nation of interest to both NORTHCOM and SOUTHCOM 
under the overall responsibility of NORTHCOM.
    Admiral Stavridis. This issue was a topic during our August 2007 
staff discussions and, after extensive review and consideration, we 
agreed the most appropriate place for Mexico was within the NORTHCOM 
area of focus. As a leader throughout the Western Hemisphere, Mexico 
has security interests that span the geographic areas of responsiblity 
assigned to both NORTHCOM and SOUTHCOM. Recognizing Mexico's importance 
to each of our commands, we provided a joint proposal to modify the 
Unified Command Plan to include language that would benefit all 
geographic combatant commands that recognize countries that are of 
particular importance to more than one combatant commander. This 
proposal, if approved, would provide combatant commands the opportunity 
to coordinate more readily with countries of mutual interest that are 
located outside their assigned geographic AOR.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka
                             national guard
    19. Senator Akaka. General Renuart, section 351 of the National 
Defense Authorization Act (NDAA) for Fiscal Year 2008 requires the DOD 
to incorporate National Guard domestic support missions into its 
current title 10 readiness reporting system. In addition to improving 
our ability to respond to domestic emergencies, Congress intends this 
provision to help define lines of Federal and State responsibility for 
achieving and maintaining agreed-upon levels of equipment and personnel 
readiness. What are your views on the current and projected levels of 
National Guard readiness to respond to domestic emergencies, given 
current rotation plans and equipment levels?
    General Renuart. The National Guard Bureau just shared their Report 
on National Guard Readiness for Emergencies and Major Disasters with 
us. This report describes the methodology for assessing the readiness 
of the National Guard in the 54 States and Territories as required by 
the NDAA for Fiscal Year 2008.
    NORTHCOM is involved with the National Guard and its readiness 
assessment and reporting process. Our command's Training and Exercise 
Directorate directly supports the National Guard Bureau with the 
Defense Readiness Reporting System (DRRS) Implementation in the Guard 
(DIG) effort. This long-term effort helps the National Guard implement 
DRRS at each of the 54 State Joint Force Headquarters (JFHQ).
    The National Guard is pursuing increased capability to respond to 
terrorist incidents involving WMD and Domestic Operations. The limited 
availability of Secret Internet Protocol Router Network access is a 
common problem. Below are four additional deficient areas identified by 
National Guard Bureau in the report:
Personnel Gaps
    The impact of the sustained operations tempo of Guard Title 10 
operational support to Operation Iraqi Freedom, Operation Enduring 
Freedom, and Joint Task Force Horn of Africa has been significant. In 
spite of these demands, the National Guard has maintained a manning 
level of 87 percent in support of domestic and overseas operations.
Equipment, Sustainment, and Modernization Gaps
    There are equipment, sustainment, and modernization gaps that may 
prevent the immediate response and sustained capabilities for many of 
the Chemical, Biological, Radiological, Nuclear Explosive and major 
disaster scenarios.
Training Gaps
    The National Guard has established numerous courses, programs, and 
exercises that support and enhance readiness capabilities at all 
echelons. There is definitive need for funding, aggressive curriculum 
review and exercise participation.

    20. Senator Akaka. General Renuart, what is NORTHCOM's role in 
analysis, development, testing, and implementation of a National Guard 
domestic support readiness reporting system?
    General Renuart. NORTHCOM has had the opportunity to review the 
National Guard's Joint Capabilities Database (JCD), an unclassified 
readiness system for domestic operations. We have not participated 
directly in the development, testing, or implementation of the system, 
but acknowledge that it plays an important interim role in supporting 
ongoing National Guard and NORTHCOM civil support planning. NORTHCOM 
strongly supports the Secretary of Defense policy that requires DOD 
organizations to utilize the DRRS as the single reporting system for 
readiness reporting. In that regard, NORTHCOM is very actively involved 
with the National Guard and its readiness assessment and reporting 
process. We directly support the National Guard Bureau through the DRRS 
Implementation in the Guard (DIG) effort. This long-term effort helps 
the National Guard implement DRRS at each of the 54 State and Territory 
Joint Force Headquarters.

    21. Senator Akaka. General Renuart, are you satisfied so far that 
the development of this system will meet NORTHCOM's requirements for 
visibility of the readiness of the National Guard for domestic support 
contingencies?
    General Renuart. I am satisfied that National Guard Bureau is 
moving in the right direction in developing and implementation of their 
JCD, an unclassified system the National Guard currently utilizes to 
report readiness of capabilities for domestic operations. NORTHCOM 
needs to ensure that the JCD can effectively feed information into the 
DRRS to comply with the Secretary of Defense requirement of having one 
single reporting system for readiness. Additionally, the functionality 
of the JCD needs to link to the DHS Target Capabilities List. DOD and 
DHS must be integrated in this respect if they are to achieve 
integrated and accurate understanding of readiness and abilities to 
provide requested capabilities.

    22. Senator Akaka. General Renuart, how would you envision using 
such a system in the development of your Integrated Priorities List, 
contingency plans, training exercises, and experiments?
    General Renuart. Knowing that we are indeed partners with the 
National Guard in domestic and civil support missions in the Homeland, 
we have advocated through our Integrated Priority List (IPL) for Guard 
capabilities. The emphasis in our exercise and training plans is to 
coordinate our events with participation from the local first 
responders and the National Guard through the Vigilant Guard exercise 
program. Our primary visibility into National Guard capabilities is 
through the DRRS. We have collaborated with the National Guard Bureau 
to participate in DRRS Implementation Group teams. Through 
collaborative efforts to get mission assessments into DRRS, we are 
developing visibility into the different States and territories and 
their probable capability gaps in order to anticipate what will be 
needed by these entities. DRRS is a classified system that is the 
Secretary of Defense directed single readiness reporting system for the 
DOD. Our process for developing our IPL and training plans come from 
our Joint Mission Essential Task List readiness assessments. We also 
use these assessments for our training and exercise planning strategy. 
Our visibility into National Guard capabilities and mission assessments 
are used the same way.
    The JCD is an unclassified readiness system that the National Guard 
intends to utilize for domestic operations. The JCD could effectively 
feed DRRS and meet the Secretary of Defense requirement of having one 
single reporting system for readiness. The JCD's greatest value to 
NORTHCOM is its ability to support planning, exercise development, and 
experimentation in a manner complementary to the DRRS system. The data 
in the JCD also supports planning and decisionmaking within DHS, so 
this should be further developed with that potential use in mind.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
command and control of european ground-based midcourse defense 3rd site
    23. Senator Bill Nelson. General Renuart, as Commander of NORTHCOM, 
you are the combatant commander with the responsibility for operating 
the Ground-based Midcourse Defense (GMD) system to defend the United 
States against long-range ballistic missiles. You would presumably also 
be the combatant commander responsible for operational command and 
control of the proposed deployment of the GMD system to Europe if it 
were used to defend the United States against potential future long-
range missiles from Iran. What would be the role of the North Atlantic 
Treaty Organization (NATO), if any, in the command and control of the 
proposed European GMD system?
    General Renuart. United States policy currently supports U.S. 
command and control of the proposed European GMD system. The United 
States is discussing the issue of data sharing and interoperability 
with the NATO Active Layered Theater Ballistic Missile Defense theater 
defense system for situational awareness purposes. I am working with 
the other effected combatant commanders and with the Chairman to ensure 
we evolve an Integrated Missile Defense Global Concept of Operations to 
most accurately determine operational and battle management 
requirements and thereby eliminate gaps or seams.

    24. Senator Bill Nelson. General Renuart, what would be the role of 
the Governments of Poland and the Czech Republic, if any, in the 
command and control of the system proposed to be based on their 
territory?
    General Renuart. United States policy currently supports U.S. 
command and control of the proposed system based in Poland and the 
Czech Republic. There is no indication that either host nation would 
reject this position of exclusive U.S. control. The United States has 
offered both host nations the capability to share data for situational 
awareness.

               new southern command headquarters facility
    25. Senator Bill Nelson. Admiral Stavridis, what is the status of 
the new SOUTHCOM headquarters facility and how will this facility 
enable the interagency collaborative work you are doing at SOUTHCOM?
    Admiral Stavridis. SOUTHCOM is in the process of awarding the 
design-build contract and the recently (March 2008) signed land lease 
has been sent to congress for review (April 2008). By the end of April 
we will have issued a Notice-to-Proceed and construction is expected to 
be completed by September 2010, allowing the full move in to the new 
headquarters building by December 2010. All leases on the old 
headquarters will expire by 2011.
    The facility will enable SOUTHCOM's interagency collaborative work 
in a number of ways:

         Consolidate SOUTHCOM and collaborative partners into one 
        complex, as opposed to being spread around nine buildings today 
        in Miami:

                 Sufficient space, tailored to facilitate joint 
                interagency collaboration, flexible to reconfigure
                 Eliminates requirement to drive to/from buildings, 
                increasing efficiencies

         Provide Modern Information Technology Systems:

                 Enhanced access to internet, NIPR, CENTRIX, and SIPR 
                networks
                 Increases VTC capable conference rooms from 20 to 49 
                (all classification levels)

         Provide an integrated command center:

                 Enables interagency and coalition unescorted access 
                during releasable operations
                 Integrates operators and planners via LCD glass 
                walls, promoting collaboration

         Provide a stand-alone coalition and interagency collaboration 
        center:

                 Eliminates escorts for coalition and interagency 
                partners for unclassified events
                 Back-up coalition-interagency operations center 
                (during U.S.-only operations in Command Center)

         Better allow layered security (meets DOD anti-terrorism/force 
        protection standards):

                 Increases access for interagency and coalition 
                without escorts
                 Grants dependents and retirees easy access to 
                services without escorts

         Provide Category-5 Hurricane protection:

                 Reduces the need to relocate the command center for 
                CAT-2 and CAT-3 hurricanes
                 Provides back-up power for full strategic operations 
                (IT, security, HVAC, etc)

                                 brazil
    26. Senator Bill Nelson. Admiral Stavridis, you and I recently 
visited Brazil; in your personal opinion, how do you see our 
relationship with that nation?
    Admiral Stavridis. I hold the Brazilian military in the highest 
regard and I value the excellent cooperation and friendship our nations 
share. As with all partner nations in Latin America, SOUTHCOM continues 
to remain engaged with Brazil. In May 2008, Brazil will be hosting the 
Southern Cone Defense Conference (SCONDEC). This conference, which is 
cosponsored by SOUTHCOM, provides a forum for senior-level discussions 
on topics that are of mutual interests to all militaries from the 
Southern Cone of South America. In addition to conferences such as 
SCONDEC, SOUTHCOM engages with Brazil through bilateral training 
exercises. Finally, the United States is pursuing a Defense Cooperation 
Agreement and a Status of Forces Agreement with Brazil--such agreements 
would foster an environment that encourages more regional engagement 
and enhances the opportunity to strengthen our mutual ties.
                                 ______
                                 
         Questions Submitted by Senator Hillary Rodham Clinton
                             climate change
    27. Senator Clinton. General Renuart, section 951 of the NDAA for 
Fiscal Year 2008 directs the DOD to consider the effects of climate 
change on facilities, capabilities, and missions in the next National 
Security Strategy, National Defense Strategy, and Quadrennial Defense 
Review.
    The provision reflects increasing concerns about the national 
security implications of climate change, as reflected in a report 
issued in April 2007 by the Center for Naval Analyses Corporation 
titled ``National Security and the Threat of Climate Change.'' That 
report was written by 11 retired three-star and four-star admirals and 
generals. The report explores ways in which projected climate change is 
a threat multiplier in already fragile regions, exacerbating conditions 
that lead to failed states--the breeding grounds for extremism and 
terrorism.
    Section 951 directs the DOD to implement a number of 
recommendations of that report. The provision states that the National 
Security Strategy and the National Defense Strategy should include 
appropriate guidance to military planners to assess risks to current 
and future missions of projected climate change, guidance for updating 
defense plans based on these assessments, and the capabilities needed 
to reduce future impacts. This guidance should include appropriate 
revisions to defense plans, including working with allies and partners, 
to incorporate climate mitigation strategies, capacity building, and 
relevant research and development. It also states that the next 
Quadrennial Defense Review should examine the capabilities of the 
United States military to respond to the consequences of climate 
change, in particular, preparedness for natural disasters from extreme 
weather events, pandemic disease events, and other missions the United 
States military may be asked to support both at home and abroad.
    With that provision in mind, I note with interest the portion of 
your testimony which states that: ``One area of concern recognized by 
the United States Government and DOD is the need to study the 
implications of Arctic climate change and how it will affect our 
military capabilities, organizations, and infrastructure in the area. 
Our homeland defense and civil support plans address the DOD response 
to potential effects of climate change.'' How are you planning to 
address the concerns that you outlined in your testimony?
    General Renuart. We have a clear interest in understanding climate 
change challenges and their impact to the changing security environment 
in our area of operations (AOO) and AOR. Changes are occurring in the 
accessibility of the Arctic region and these changes are directly 
influencing the current and potential future economic activity 
throughout the northern reaches of our AOO and AOR. I have stressed the 
importance of advancing U.S. Arctic policy and ratification of the 
United Nations Convention on the Law of the Sea Treaty.
    These actions will provide a foundation for constructive U.S. 
leadership in the evolving international Arctic regime. I expect the 
Quadrennial Defense Review and additional strategic guidance to be 
contained in the National Security Strategy and National Military 
Strategy.
    Actions recently taken include incorporating these considerations 
in the ongoing periodic revision of NORTHCOM concept plans directing 
the missions of homeland defense and civil support. NORTHCOM and 
subordinate commanders continue to foster relations with allied and 
interagency partners to enhance execution of these missions. One 
concrete example is the NORAD maritime warning mission. In concert with 
mission partners Canada Command and NORTHCOM, NORAD is working to 
better understand the impact of increased maritime activity in the 
Arctic due to climate change.
    I have also recently altered a fundamental concept within my 
command mission statement to highlight and emphasize the importance of 
anticipation. We must have a forward leaning stance on probable 
homeland defense and civil support missions in the future. One of my 
subordinate commands, Joint Task Force Alaska, has taken the initiative 
on climate change by initiating significant research; they continue to 
work within the interagency framework of ``Team Alaska'' to address 
these concerns across the State of Alaska and the northern boundaries 
of the NORTHCOM AOR.
    The full measure of military risk assessment, organizational 
agility, and adaptation in considering climate change is being applied. 
Highlighting these concerns today provides the opportunity for the 
joint military acquisition and procurement processes to adjust in 
meeting the changing environment. NORAD and NORTHCOM will work closely 
with Canada Command to focus on climate change considerations as we 
continuously monitor, anticipate, and adapt to an ever changing global 
security environment.

    28. Senator Clinton. General Renuart, what else are you doing to 
implement section 951?
    General Renuart. NORAD, NORTHCOM, and Canada Command continually 
monitor changes in the global security environment and consider the 
possibility of adjustments in defending North America against foreign 
threats and aggression. NORTHCOM anticipates changes that may affect 
how we might be required to support civil authorities in the future. 
However, for the present, we believe the National Response Framework 
and the 15 National Planning Scenarios have bounded the foreseeable 
civil support requirements the DOD may be reasonably required to plan 
for and provide, when approved by the President and directed by the 
Secretary of Defense.

    29. Senator Clinton. General Renuart, how is your work being 
integrated into other work at the DOD to implement this provision?
    General Renuart. Climate change is a national security problem, 
requiring a comprehensive national strategy to synchronize the 
diplomatic, informational, military, and economic instruments of 
national power. As U.S. climate policies are translated into specific 
national security actions, we will address DOD requirements through 
advocacy for force structure improvements (Guidance for Development of 
the Force), and revisions to command structures and arrangements 
(Unified Command Plan).
    I anticipate the new administration will publish an updated 
National Security Strategy. This strategy, as in previous versions, 
will state the essential tasks the Nation must accomplish. In turn, 
this strategy will drive changes to the National Defense and National 
Military Strategies in the assessment of risks associated with 
projected climate change. As these documents shape our future missions, 
they will also shape the national policy that drives the acquisition of 
capabilities we will require to accomplish the essential tasks outlined 
by our superiors. We will work in the near-term to help understand the 
evolving environment and to anticipate what tactics, techniques, and 
procedures will be required to meet future climate change challenges. 
We will then advocate for the capabilities needed to successfully 
execute them.
    As these changes to DOD planning, organization, and forces are 
implemented, we will work closely with the DHS, Department of State, 
and other interagency partners to continuously review and update our 
Homeland Defense and Civil Support operation plans. This will ensure 
that the military is fully prepared to defend national interests.
                                 ______
                                 
              Question Submitted by Senator Susan Collins
                              hugo chavez
    30. Senator Collins. Admiral Stavridis, Venezuelan President Hugo 
Chavez's plans for military arms purchases, his relations with 
countries such as Cuba and Iran, and his efforts to spread anti-
Americanism in Central and South America are all issues of concern to 
this committee. In recent days he has ordered Venezuelan military 
forces to deploy to the border with Colombia as the result of the 
killing of a Revolutionary Armed Forces of Colombia terrorist leader by 
the armed forces of Colombia. What is SOUTHCOM's assessment of 
President Chavez's influence in the region?
    Admiral Stavridis. From my perspective, Venezuela is attempting to 
form diplomatic, informational, military, and economic alliances 
throughout the region, and through a barter-style exchange system 
(e.g., fuel oil for agricultural goods), Venezuela is attempting to 
create a counterweight to U.S. diplomacy. As to the impact of 
Venezuela's efforts, those nations most in need (especially of 
petroleum) may acquiesce to some aspects of Venezuela's agenda in order 
to address their own needs and to advance their own interests; however, 
acceptance of the ideological tenets of President Chavez's agenda is 
expected to be minimal.

    [Whereupon, at 11:49 a.m., the committee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2009

                              ----------                              


                        TUESDAY, MARCH 11, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.

      UNITED STATES PACIFIC COMMAND AND UNITED STATES FORCES KOREA

    The committee met, pursuant to notice, at 9:35 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Akaka, Bill Nelson, Webb, Warner, Thune, Martinez, and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Evelyn N. Farkas, 
professional staff member; Peter K. Levine, general counsel; 
and Michael J. McCord, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; David M. 
Morriss, minority counsel; Sean G. Stackley, professional staff 
member; Diana G. Tabler, professional staff member; Richard F. 
Walsh, minority counsel; and Dana W. White, professional staff 
member.
    Staff assistants present: Jessica L. Kingston, Ali Z. 
Pasha, and Brian F. Sebold.
    Committee members' assistants present: Jay Maroney, 
assistant to Senator Kennedy; Frederick M. Downey, assistant to 
Senator Lieberman; Bonni Berge and Darcie Tokioka, assistants 
to Senator Akaka; Christopher Caple, assistant to Senator Bill 
Nelson; Gordon I. Peterson, assistant to Senator Webb; Sandra 
Luff, assistant to Senator Warner; Brian Polley, assistant to 
Senator Cornyn; Jason Van Beek, assistant to Senator Thune; and 
Brian W. Walsh and Erskine W. Wells III, assistants to Senator 
Martinez.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. On behalf of the committee, we welcome our 
witnesses: Admiral Timothy J. Keating, United States Navy, 
Commander of the U.S. Pacific Command (PACOM); and General 
Burwell B. Bell III, United States Army, Commander of the 
United Nations Command, the Republic of Korea-U.S. Combined 
Forces Command, and Commander, U.S. Forces Korea.
    This will be General Bell's last hearing before our 
committee. We want to thank him particularly for his strong and 
capable leadership throughout the years. We also welcome Jim 
Roy, PACOM's Command Master Sergeant. The committee thanks you 
all for your service and, through you, to the men and women 
that you lead and the families who support you and them, for 
the hard work and sacrifice that makes our military so strong.
    The U.S. PACOM encompasses the most populous area of the 
world, with almost 60 percent of the world's population. This 
area is also home to five of the world's six largest 
militaries, not including the United States, and three of the 
five largest economies in the world. The Asian Pacific area is 
complex and changes rapidly. In the last several years we've 
witnessed two of Asia's largest countries and economies, China 
and India, substantially increase their economic and military 
power and that has affected the strategic dynamic throughout 
the Asia Pacific region.
    At the same time, another major phenomenon transforming the 
strategic calculus, especially in south and southeast Asia, is 
the role of the armed forces of the region to counter terrorist 
organizations.
    Finally, with the 2006 North Korean nuclear test, the 
threat of nuclear proliferation has increased. All of this 
makes our alliances with Japan, South Korea, and Australia 
critical and lends new significance to our relationships with 
other friendly nations, such as Singapore, India, Thailand, 
Taiwan, and the Philippines.
    The committee hopes to explore the implications of this 
strategic dynamic in Asia and on the Korean peninsula in 
particular with our two witnesses today. With China, we've seen 
an unprecedented interest in military-to-military cooperation, 
but at the same time a sudden denial of first a U.S. Navy 
carrier port call in November, and second denial of requests 
for refuge by two U.S. Navy minesweepers.
    The 2008 report on the military power of the People's 
Republic of China, which came out last week, is a catalogue of 
China's growing military capabilities. What is missing from the 
picture is what intelligence professionals call intent; what 
does China intend to do with these military assets?
    Regarding South Asia, this committee has held several 
hearings recently that focused on an issue in Central Command's 
(CENTCOM) area of responsibility (AOR), the terrorist threat 
found in Afghanistan and Pakistan. This committee and many 
Members of Congress have been concerned about whether Pakistan 
is doing enough to fight terrorism in South Asia. A related 
issue relevant to the PACOM is the extent to which Pakistan is 
a threat to India and vice versa. Admiral Fallon told the 
committee last week that in the past Pakistan was ``focused on 
India as the big threat to the country. I think they see things 
differently now.''
    In the not so distant past, in 2006 Pakistan signed a $3.5 
billion deal to purchase advanced F-16 fighter aircraft. Even 
at that time, and especially after the October 2006 earthquake 
in Pakistan, some observers felt they would be better off 
investing in helicopters that they could use for humanitarian 
and counterterrorist operations.
    What is the assessment on the other side of the border in 
the PACOM area of operation? Does India regard Pakistan as a 
threat? If so, to what extent, and what can the United States 
do to ensure that India and Pakistan devote more of their 
resources to working together and with the United States to 
address the threat of terrorism and other threats that are 
common to each of them?
    With respect to the Korean peninsula, this committee in the 
National Defense Authorization Act for Fiscal Year 2007 
directed the administration to appoint a high level envoy to 
coordinate policy towards North Korea and to engage seriously 
in negotiations with Pyongyang to eliminate its nuclear weapons 
program. Last year, finally, four to eight or more additional 
plutonium-based nuclear bombs and one nuclear test later, the 
administration started negotiating in earnest.
    Today we inquire: Is there more that the United States and 
South Korea need to do together on the conventional military 
front to ensure that we are negotiating from a position of 
strength? How likely is it that we will see North Korea move 
from nuclear disablement to nuclear dismantlement within the 
next couple of years, and what are the implications for our 
force posture if they don't do that?
    Finally, I hope our witnesses will give us an assessment of 
the readiness of the nondeployed forces in the Pacific theater 
and how personnel and equipment shortages are affecting the 
ability of the United States to meet commitments and challenges 
there. How much risk results for the United States from that 
shortfall in personnel and equipment shortages and is that an 
acceptable risk, and how are we mitigating that risk?
    So again we thank our two witnesses for their tremendous 
service to this Nation, for their leadership of the men and 
women who they do lead. Now I turn this over to Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman. I join you in 
welcoming these two distinguished public servants. Indeed, 
Admiral Keating does go back a way. I think we were on the same 
watch a long time ago. General Bell, you and I have discussed 
Korea and your knowing of my interest in that strategic part of 
the world, myself having spent the winter of 1951-1952 there. I 
commend both of you for your long service and thank your 
families.
    Mr. Chairman, I think you've covered basically the same 
points I have in mind, so I'll put my statement in the record 
so we can proceed directly to the witnesses.
    [The prepared statement of Senator Warner follows:]

               Prepared Statement by Senator John Warner
    I join Senator Levin in welcoming Admiral Keating and General Bell, 
and in thanking them for their service to our country. General Bell, 
this will be your last appearance before this committee, given your 
planned retirement in June, so we'll try to make it memorable for you. 
We thank you and your wife Katie for 39 years of service to our Nation.
    Admiral Keating and General Bell, the Pacific area of 
responsibility (AOR) presents enormous opportunities and challenges for 
the United States. Among those challenges, the most immediate is the 
situation on the Korean Peninsula. North Korea's nuclear and missile 
programs continue to pose a threat to its neighbors and to America's 
interests in East Asia. It is unclear whether North Korea is truly 
committed to a complete declaration and verifiable elimination of its 
nuclear program, and whether the February 2007 agreement by the Six 
Parties will ultimately lead to a denuclearized Korean peninsula. On 
the positive side, we are encouraged that Pyongyang has nearly 
completed all the steps required to disable its Yongbyon nuclear 
reactor. On the negative side, Pyongyang is overdue in providing a 
complete declaration of its nuclear programs, materials and facilities 
as it has pledged to do. It is essential that North Korea fulfill its 
commitment to make a full and complete declaration of its nuclear 
program. In the meantime, Pacific Command and USFK play a vital role in 
providing stability and deterrence in support of this diplomatic 
effort.
    Admiral Keating and General Bell, we look forward to hearing your 
assessments of the situation on the Korean Peninsula, including any 
changes you have seen over the past year in North Korea's military 
posture, and your assessment of North Korea's nuclear program, 
ballistic missile and proliferation activities, and the readiness of 
our forces to respond to any possible developments on the Peninsula, 
both now and in the future.
    Admiral Keating, Pacific Command (PACOM) plays a critical role in 
sustaining and expanding not only the U.S.-Republic of Korea alliance, 
but also the U.S.-Japan strategic alliance, the cornerstone of our 
security umbrella in northeast Asia. We look forward to your assessment 
of these critical alliance relationships in the pacific region.
    I am also interested to hear your assessment, Admiral Keating, of 
China's military modernization program and plans, to include China's 
continuing build-up of missiles across the Strait; the impact of 
China's military modernization on U.S. interests in the region; and 
your assessment of the current state of China-Taiwan cross-Strait 
relations, which remains at the core of U.S. interests in the region. 
As Beijing's regional and global aspirations grow, properly managing 
this relationship remains vital. In that vein, I look forward to your 
report on the U.S.-China military-to-military activities that have been 
undertaken under your leadership.
    In the Asia-Pacific region, the war on terrorism is being waged in 
Singapore, Malaysia, Thailand, the Philippines, Indonesia and other 
nations. I look forward to an update on the efforts of your command to 
counter the numerous terrorist and transnational threats in your AOR.
    Fortunately, the United States does not face these challenges 
alone. One of the vital responsibilities of the PACOM commander is to 
work closely with our key allies in the region--Japan, South Korea, 
Australia, to name a few--to strengthen bilateral relations and to 
develop multilateral approaches and responses to the challenges and 
opportunities that we face in the U.S. Pacific Command.
    We welcome our witnesses this morning and look forward to their 
testimony.

    Chairman Levin. Thank you, Senator Warner.
    Admiral Keating?

  STATEMENT OF ADM TIMOTHY J. KEATING, USN, COMMANDER, UNITED 
                     STATES PACIFIC COMMAND

    Admiral Keating. Thank you, Mr. Chairman. To you and 
Senator Warner, Senator Reed, Senator Akaka: Good morning and a 
warm aloha from the 350,000 men and women who are proud to 
serve the United States PACOM. They're all throughout the Asia 
and the Pacific region, and they're building capacity in the 
theater, as you mentioned, Mr. Chairman.
    I have had the great privilege of serving as the Commander 
of PACOM for a year now since you confirmed me and allowed me 
and Wandalee to return to Camp Smith. In a word, I'm 
optimistic. The region is stable, the guns are silent all 
throughout the Pacific, security is improving across the board, 
economies are growing, and things are generally positive.
    There are a few key points that I'd emphasize to support 
what I think is a solid foundation for that perspective. There 
are several new leaders all throughout the Asia Pacific region, 
in Japan, in Thailand, the Republic of Korea, and in Australia. 
In each case we visited those countries and met with those new 
leaders and their respective administrations, and the beat goes 
on for the United States PACOM.
    There's a collaborative mind-set amongst all of these 
partners and our counterparts. We have been to 21 of the 39 
nations in our AOR in less than a year. We had the 23 chiefs of 
defense from those countries visit our headquarters in Hawaii. 
Without exception, they all agree that we can improve our 
security and a multilateral mind-set is to be recommended. 
Capacity-building is on their mind. They view the United States 
as the indispensable element in combatting terrorism and 
enhancing maritime security and providing humanitarian 
assistance when needed.
    Indonesia is one country in particular where we're making 
significant progress. In close coordination with our State 
Department colleagues, Ambassador Christie Kenny in particular, 
we're making great progress in the southern Philippines in the 
war on terror as well. We're pleased with the humanitarian 
efforts and civil-military operations that are transforming 
this at-risk environment. The U.S.S. Pellalu visited last year 
to conduct medical, engineering, and dental assistance. The 
U.S.N.S. Mercy, our hospital ship, will go again this summer, 
repeating her visit of 2 years ago. Pellalu saw over 30,000 
patients. There were 1,000 major surgeries performed by this 
one ship in a short period of time, and it wasn't just United 
States military personnel on board. There were members from 
health organizations and the commercial sector as well.
    Exercise Balikatan was just concluded. We had 8,000 
soldiers and marines from the Pacific region who were in the 
central and southern Philippines and they saw over 10,000 
medical patients, rebuilt schools, and contributed in a big way 
to enhancing our perception in the Philippines and making it 
ever harder for the Abu Sayyaf Group and Jamail al-Azmiya to 
continue to prosecute the people of the Philippines.
    The train-and-equip authorities that you give us through 
1206 money are very, very helpful in the war on terror. It 
allows us in a very short period of time to improve maritime 
security in Malaysia, Indonesia, Singapore, and the Philippines 
in particular. That triborder area had been a rather fertile 
area for violent extremists. It is much tougher for those folks 
to move around in that part of the woods now because of the 
1206 money that you have given us. It was $95 million in 2006 
and 2007 and we're hoping that we can continue that very 
responsive funding.
    Mr. Chairman, you mentioned North Korea. In regard to the 
Six-Party Talks, General Bell lives in there and can address 
the topic well. I have met with Ambassador Hill on several 
occasions, as late as last week in Thailand. The way I would 
characterize PACOM's perspective is we are cautiously 
optimistic, very, very, very cautiously optimistic. But we 
think that there is progress being made by Ambassador Hill and 
his colleagues. The readiness and the force posture of our 
forces in South Korea and throughout the Pacific region remain 
high, and I'd be happy to address particulars with you if 
questions remain.
    You mentioned India, Mr. Chairman. We have wonderful 
opportunities that we're exploring with India. I was there in 
1985 as the flag lieutenant to then Commander in Chief-Pacific 
Admiral William J. Crowe. We visited last August. So it's been 
22 or 23 years since I was there. The difference is startling. 
Admiral Crowe's reception was much less warm, much less 
engaging, than was ours. We have engaged with the Indians in 
significant exercises in the Bay of Bengal, where we had two 
aircraft carriers of ours, one of theirs, and ships from 
Australia, Japan, and Indonesia in a very sophisticated 
maritime exercise, and we were communicating real-time across 
secure circuits with all the ships in that entire battle group.
    The Pakistan-India border remains calm. We are in frequent 
discussion with our colleagues in India. Their force readiness 
throughout the country has not increased significantly due to 
perceived pressures from Pakistan. So we see no significant 
difference there on the Indian side of that particular border.
    That said, there are challenges for us in the Pacific. 
There was a coup in Fiji. The situation in Burma is certainly 
unsettled. We think in both cases a return to democratic 
institutions is essential.
    The struggle against violent extremism continues all 
throughout the AOR. Progress is being made in Malaysia, 
Indonesia, and the Philippines to the contrary, but that 
remains our number one concern, the struggle against violent 
extremism.
    As you mentioned, the People's Republic of China is in our 
AOR. We have been there twice. Our more recent visit about 6 
weeks ago was much more constructive and warm, and there was 
more dialogue. That said, there are miles to go before we sleep 
in our relationship with China. We want a mature, constructive, 
and cooperative relationship. We are making progress, but, as I 
said, we have a long way to go.
    You mentioned Chief Master Sergeant Jim Roy. He will go to 
China. One of the interesting parts about dealing with China is 
they do not have a senior noncommissioned officer corps. It 
doesn't exist in the People's Liberation Army. So when Jim Roy 
goes he doesn't have a counterpart with which to meet. So he 
will sit down and talk with colonels and captains. Those are 
his counterparts in China.
    We are working with them to help them understand the 
authorities and responsibilities we vest in our senior 
noncommissioned officer corps and we hope that opens the door a 
little bit more to the kind of dialogue that we're looking to 
not just initiate, but sustain and enhance with the People's 
Republic of China.
    All that said, we're moving forward in the PACOM. Our 
initiatives fall into four major priorities. In regard to 
warfighting readiness, we are ready to respond today. There are 
30,000-some soldiers, marines, airmen, and sailors who are 
forward deployed, added to Admiral Fallon's AOR. That said, we 
remain ready across the board.
    We are working to make even more dominant our presence and 
our force posture. We're looking at ways to engage with all the 
countries in our AOR in exercises and personnel exchanges, 
including humanitarian assistance and disaster relief and we 
are increasingly focused on pandemic influenza.
    Regional engagement is the ticket. We seek multilateral, 
rather than just a series of bilateral agreements. We find that 
this could be very beneficial in dealing with countries whose 
military power is significantly less than the United States, 
and they're happy to be partners of ours, not necessarily 
allies, and it works better if we bring more than one country 
with us when we show up to engage with them.
    Last but most important of all is your continued support 
for those 350,000 men and women in uniform by continuing to 
improve the quality of life for them and their families all 
through the AOR. Your support is of course key in all these 
initiatives. Thank you very much for that support and I'd be 
happy to take your questions.
    [The prepared statement of Admiral Keating follows:]
           Prepared Statement by ADM Timothy J. Keating, USN
                              introduction
    Mr. Chairman and members of the committee:
    On behalf of the men and women of the U.S. Pacific Command 
(USPACOM), thank you for this opportunity to testify regarding the 
posture of our command and security in the Asia-Pacific.
    The region is secure and stable. This year, I have had the 
opportunity to visit 21 regional nations--more than one-half the total 
in our area of responsibility (AOR). I also hosted 23 National Chiefs 
of Defense in Hawaii this past November. From these first-hand 
experiences, I gained the sense that my counterparts see a secure and 
prosperous future for the region, particularly if we choose to approach 
security issues with a collaborative mindset. I share their optimism 
and a desire to seek multilateral solutions when possible.
    2007 was a year of considerable change in the region. Positive 
economic trends continued for most of Asia, which has three of the 
world's top 10 economies (Japan, China, and India). The region played a 
greater role on the global diplomatic stage. Many Asia-Pacific nations 
improved, and some expanded, their military capabilities as well. All 
these trends are impacting how nations interact with each other and the 
U.S. This dynamism and interplay offer more opportunity than challenge 
but will require our continued, confident leadership and a commitment 
of resources commensurate with the importance of this vibrant region to 
our Nation.
    Working in this constantly evolving arena, USPACOM forces conducted 
meaningful military-to-military engagement with regional partners and 
realized progress in a number of security areas. We improved 
multilateral information sharing with partners and held the first-ever 
conference among Asia-Pacific Intelligence Chiefs; enhanced the 
capacity of our regional partners to counter transnational crime and 
terrorism; changed attitudes in populations at risk for terrorist 
exploitation; advanced U.S. and allied ballistic missile defense 
capabilities; and, mitigated human suffering in the wake of natural 
disasters. Our military accomplished all of these things, and 
significantly, they did so in full cooperation with our embassy country 
teams, allies, and partners.
    Outside our AOR, Pacific-based forces continue to serve with 
surpassing distinction in Iraq and Afghanistan. Next year, we expect to 
sustain about 30,000 USPACOM-assigned personnel in the U.S. Central 
Command AOR. Many Asia-Pacific nations have made and are still making 
significant contributions to our efforts in the Middle East, including 
Australia, Japan, Republic of Korea, Thailand, Singapore, Fiji, 
Mongolia, Tonga, and New Zealand. Having visited our people and 
partners in Iraq, I assure you USPACOM forces on the ground are 
confident, believe in their mission, and see progress being made. I 
could not be more proud of them and their families.
    Based on my first-hand observations, there are several key 
assessments that merit upfront consideration. In the main, they convey 
the progress and challenge of the past year.
    We welcomed new, democratically-elected leaders in several allied 
nations--Australia, Japan, the Republic of Korea, and Thailand. From 
USPACOM perspective, elections reaffirm the strength of these 
governments and our alliances. While we build new relationships on a 
personal level, we retain policy alignment with our allies.
    In Northeast Asia, our alliances with Japan and the Republic of 
Korea remain indispensable to peace and security. Resolute action by 
both allies kept Six-Party Talks on track and the goal of a 
denuclearized peninsula within the realm of the possible. Military 
transformation and realignment in Japan and the Republic of Korea 
continue on planned timelines. The allies also made major contributions 
to the protection of our people and resources with upgrades to missile 
defense capabilities.
    This year demonstrated that our military-to-military relationship 
with the People's Liberation Army (PLA) is not to the level we desire. 
Progress was decidedly uneven. We saw positive outcomes from senior-
level visits but also experienced the perplexing cancellation of some 
routine activities. Nevertheless, improving the interaction between 
USPACOM and the PLA is critically important--in terms of maintaining 
stability across the Taiwan Strait and in assuring regional nations. 
For our part, we will continue to pursue a mature, constructive 
relationship with Chinese counterparts. We view the effort as the best 
means to reduce the chance of miscalculation, increase our mutual 
understanding, and encourage cooperation on areas of common concern.
    That said, I remain concerned about Chinese double-digit growth in 
annual defense spending and investment in systems which threaten Taiwan 
and our own capabilities. Consistent with U.S. policy and legislation, 
USPACOM is encouraging Taiwan to improve its self-defense capabilities 
and thereby deter potential People's Republic of China (PRC) 
aggression.
    Southeast Asia remains the central front against terrorism in the 
Pacific. The Armed Forces of the Philippines (AFP) sustained its 
momentum against terrorism in the southern Philippines. Of special 
note, civic action-type activities by the AFP reinvigorated a healthy 
relationship with the local populace. This bond between the people and 
security forces has created a southern Philippines far less susceptible 
to extremist influences.
    USPACOM interaction with the Indonesian Armed Forces (Tentara 
Nasional Indonesia (TNI)) remains positive and encouraging. We see no 
surer sign of Indonesian commitment to professionalize its military 
than their request for U.S. assistance to improve TNI Enlisted and 
Noncommissioned Officer (NCO) training. Of global significance, 
Indonesia, in partnership with Singapore and Malaysia, and most 
recently Thailand, is markedly improving maritime domain awareness and 
law enforcement capabilities in the strategically vital Strait of 
Malacca.
    U.S.--India military-to-military activities continued on an upward 
vector this year. From my discussions with Indian leaders, it is clear 
we share many of the same security concerns in South Asia and the 
broader Asia-Pacific-Indian Ocean region. We agreed to work toward more 
mature interaction in the areas of maritime security, counterterrorism, 
and humanitarian assistance.
    Political conditions in Fiji and Burma are unsatisfactory. In the 
case of Fiji, with a return to a democratically-elected government, 
USPACOM would welcome a quick renewal of our previously strong 
military-to-military ties.
    These impressions highlight the security landscape of the Asia-
Pacific. We have in place key elements to enhance regional stability 
and advance U.S. security interests--healthy alliances, opportunities 
for new partnerships, combat ready and agile forces, and committed 
soldiers, sailors, airmen, and marines to lead our efforts. As we move 
forward, our initiatives are organized across four priorities--
Warfighting Readiness, Presence and Force Posture, Regional Engagement, 
and Quality of Life.
                         warfighting readiness
    First and foremost, USPACOM is a warfighting command committed to 
maintaining preeminence across the full spectrum of operations. We are 
ready to fight and win, and to dominate in any scenario, in all 
environments, without exception.
War on Terror in the Pacific
    We will win the current war on terror. In coordination with the 
Office of the Secretary of Defense, the Department of State, and our 
U.S. Ambassadors, we continue to work with and through our regional 
partners to combat violent extremism and transform at-risk 
environments. We are making progress in the war on terror, particularly 
in the Philippines.
    Through Operation Enduring Freedom--Philippines (OEF-P), USPACOM 
forces, predominantly from Special Operations Command Pacific, advised 
and trained Philippine allies in counterterrorism operations and 
activities. Our efforts have served to both enhance Philippine ability 
to conduct sustained direct action against terrorists and to build 
their civic action capacity to mitigate terrorist support within the 
community. In 2007, the AFP, with U.S. support, conducted continuous 
counterterrorism/civic action operations for 8 months. In addition to 
killing or capturing several high-value individuals and their 
followers, the AFP rebuilt a cooperative market; constructed new 
schools, clinics, and community centers; and brought solar-powered 
electricity to multiple locations in the Sulu Province. As a complement 
to OEF-P, USPACOM has increased levels of Civil Military Operations 
activity in Balikatan, our major annual exercise in the Philippines.
    With assistance from our allies, especially Australia, Japan, and 
South Korea, OEF-P future operations will continue to build AFP 
capacity while setting conditions for expanded operations in Central 
Mindanao. We will also continue to encourage multilateral cooperation, 
in particular among the Philippines, Indonesia, and Malaysia, to 
disrupt terrorist activities and transit in the shared maritime space 
of the Celebes and Sulu Seas.
    In Indonesia, we witnessed no significant increase in terrorist 
activity. We are encouraged by the success of the Indonesian National 
Police in countering Jemaah Islamiyah operations, to include the arrest 
of Abu Dujana.
    Our partners in the war on terror benefit greatly from continued 
U.S. military assistance to improve the effectiveness of 
counterterrorism operations. With continued congressional support, 
assistance will take the form of Theater Security Cooperation 
activities, Security Assistance, Defense Security Cooperation Agency-
led Philippine Defense Reform (PDR), and capacity building authorities.
NDAA Section 1207
    The Department of State, led by our embassy country team in the 
Philippines, seamlessly integrated with USPACOM efforts through the 
Southeast Asia Tri-border Initiative (SATI). Enabled by section 1207 
authority, $16.9 million toward SATI will considerably expand economic 
development in the region as well as improve responsiveness of regional 
military and law enforcement forces, a tremendous complement to ongoing 
regional efforts to combat terrorism and transnational crime.
NDAA Section 1206
    With congressional 1206 authority, USPACOM also contributed more 
than $64 million in fiscal year 2007 toward increasing maritime 
security capacity in Malaysia, Indonesia, the Philippines, and Sri 
Lanka. In fiscal year 2008, we intend to build upon these initiatives 
by enhancing capabilities of partner nations to monitor and control 
areas in and around borders that may be used to transport, shelter, 
supply, or finance terrorist organizations.
    Sections 1207 and 1206 authorities, executed in full cooperation 
with the Department of State and our regional Ambassadors, are highly 
effective tools to build regional capacity and undermine terrorism in 
Southeast Asia. USPACOM thanks Congress for supporting these 
authorities and recommends making them permanent.
    Joint Interagency Task Force-West (JIATF-West) counterdrug 
operations support war on terror objectives. Importantly, JIATF-West, 
with a focus on the global drug threat, is able to achieve a high 
degree of law enforcement cooperation with regional partners, a level 
of cooperation that would not be possible with a singular 
counterterrorism agenda. Enhanced law enforcement cooperation has 
proved beneficial in countering all transnational threats, including 
terrorism. The command successfully applied NDAA Section 1022 authority 
to support counterterrorism law enforcement by providing training for 
bomb blast investigations and evidence collection in Malaysia and the 
Philippines, respectively. JIATF-West was the only entity to apply this 
provisional authority, and we would welcome continued authority in the 
future.
    The warfighting landscape today also includes significant 
nontraditional, transnational security threats. Drug trafficking is a 
key concern in the Asia-Pacific, as a threat to the human condition and 
as enabler for other security threats. In 2007, JIATF-West, in 
cooperation with our embassies and partners, achieved important 
successes. Focus remained on areas where crime-terror linkages exist or 
are likely to emerge: the Philippines, Indonesia, Malaysia, and 
Thailand. The Interagency Fusion Center program--a key element of our 
assistance portfolio--played an integral role in a recent high-profile 
case. Last October, the Indonesian National Police used the Jakarta 
Interagency Counterdrug Operations Center to support raids and post-
seizure analysis on a large crystal methamphetamine laboratory, 
estimated to be the world's fifth largest, and its support facilities 
on the island of Batam, located at the southern entrance to the Strait 
of Malacca. This capability will prove increasingly beneficial to 
partner nations as they combat all aspects of transnational crime and 
terror networks.
    JIATF-West successes to date highlight the benefits of expanded but 
targeted congressional authority. As a logical and important next step, 
USPACOM advocates for NDAA Section 1033 authority, which would allow 
JIATF-West to equip security forces, in key countries of concern--the 
Philippines and Indonesia.
    While USPACOM forces will continue to be called on to execute a 
full-range of military missions, security and stability in the region 
depend on our readiness to dissuade, deter, and if necessary, defeat 
any adversary who chooses to operate on the high end of the spectrum of 
conflict. We must continue to posture forces forward, backed up by 
ready and agile forces in the continental U.S. Intelligence, 
Surveillance, and Reconnaissance assets must be sufficient to maintain 
situational awareness. Our maritime, air, and ground forces must have 
the capability and capacity to prevail in a warfighting environment in 
which potential adversaries are rapidly closing the technological gap. 
Ensuring the survivability of our networks, both military and those 
commercial networks that support military operations, is becoming 
increasingly critical in a battlespace sure to place additional 
emphasis on the domains of space and cyberspace.
    USPACOM requires pervasive and persistent surveillance to 
understand adversary plans and intended actions. The size of our 
theater and scarcity of available assets hampers opportunities to shape 
the environment. To improve this situation, USPACOM would welcome new 
resources--new sensors to increase dwell and access to potential 
adversary territory and communications and more human intelligence. 
These capabilities are critical to preventing strategic or tactical 
surprise.
    Implementation of Joint Intelligence Operation Centers has become 
key to synchronizing operational requirements with national and Service 
intelligence providers, particularly those requirements that support 
indications and warnings analysis.
Communications System
    USPACOM requires reliable, secure, and interoperable communications 
systems to provide the foundation for command and control. Robust 
information networks enable information sharing and collaborative 
planning across the full spectrum of joint and multinational operations 
throughout the Asia-Pacific region. We must invest appropriately to 
preserve critical communication capability and capacity. USPACOM 
concentrates its effort on sustaining required levels of communication 
assurance despite existing limitations. However, long-term success 
depends on collective action by the Department of Defense (DOD) and 
Congress.
    Satellite failures as well as funding cuts and delays in follow-on 
SATCOM systems have reduced availability of Military SATCOM. USPACOM is 
engaged with the national satellite community to ensure satellite and 
terminal programs are synchronized and address this availability gap.
    The DOD communications infrastructure continues to be vulnerable to 
cyber exploitation and attack. USPACOM works daily with Joint Task 
Force-Global Network Operations to defend the Global Information Grid 
against cyber threats. Critical C2 networks must be proactively 
defended to ensure confidentiality and integrity of the information. 
The mitigation of computer network vulnerabilities is a top priority.
    Expanding coalition communication networks is essential to support 
USPACOM missions. USPACOM fully supports the Assistant Secretary of 
Defense for Networks and Information Integration and the Joint Staff 
implementation of a Multinational Information Sharing (MNIS) program. 
The goal of this program is to build and sustain a single network that 
supports multinational information sharing requirements.
Undersea Superiority
    Continued improvement of air, surface, subsurface, C\4\I systems, 
and acoustic modeling and navigation charts through oceanographic 
surveys, and cooperative training and operations with partners and 
allies will enhance our ability to operate effectively in the maritime 
domain. However, in the face of fast-paced PLA-N modernization and 
their ever-expanding area of operations, anti-submarine warfare remains 
a challenge and is the number one priority for U.S. Pacific Fleet. 
Maintaining an operational advantage also requires rigorous training at 
sea, before deployment in the AOR. Without the exemption recently 
granted by the President, the restrictions placed on use of active 
SONAR in the waters of Southern California would have presented a 
significant training challenge for our maritime forces preparing for 
deployment in the Western Pacific.
    Continuing to balance the risk between today's fight against terror 
and the need to maintain the readiness of our forces to dissuade, 
deter, and if necessary, defeat potential high-end adversaries is 
perhaps the single greatest military challenge faced by our Nation's 
leaders. USPACOM is achieving an acceptable balance in this regard but 
we must work at it, constantly mitigating shortfalls by making 
adjustments with our resources or in coordination with other geographic 
combatant commanders.
    Combating Weapons of Mass Destruction capability in the Asia-
Pacific is another warfighting priority. Along with allies and 
partners, the centerpiece for our activity remains the Proliferation 
Security Initiative (PSI), which aims to build global capacity to 
disrupt weapons of mass destruction proliferation among states, and 
between states and terrorist organizations. Eleven nations within the 
AOR endorse the PSI (Australia, Japan, Singapore, New Zealand, the 
Philippines, Brunei, Cambodia, Mongolia, the Marshall Islands, Sri 
Lanka, Papua New Guinea). We continue work to expand participation 
during our regional military-to-military engagements.
    While a common commitment to counterproliferation is important, we 
also made gains with the essential next step--exercising 
counterproliferation capabilities. In October 2007, PACOM forces 
participated in a Japan-hosted PSI exercise that included units from 
Australia, New Zealand, France, Singapore, and U.K, as well as 
observers from some 30 additional countries. Japan's exercise 
demonstrated a full range of counterproliferation actions, from law 
enforcement and customs actions to maritime interdiction. On the 
domestic front, PACOM participated in the Homeland Security 
Department's Exercise Topoff 4 and tested and refined our full range of 
existing procedures for managing a domestic terrorist WMD event. In 
September 2008, USPACOM will participate in another PSI exercise, the 
New Zealand-hosted exercise Maru.
Pandemic Influenza
    Pandemics can be difficult to predict. Should a pandemic influenza 
(PI) contingency develop, USPACOM has a robust plan in support of our 
national strategy for a PI response and is prepared to support lead 
agencies (Department of Homeland Security, and Department of Health and 
Human Services, U.S. Department of Agriculture, and Department of 
State) at a national level. This past year, in addition to an internal, 
no-notice planning and response exercise, we conducted our most 
comprehensive PI exercise to date, with participation from all USPACOM 
Service components and representatives from the State of Hawaii, U.S. 
interagency, and international humanitarian communities. The exercise, 
Tempest Express 13, tested strategic and operational level civil-
military coordination mechanisms. We also collaborated with the Centers 
for Disease Control and Prevention to hold ``Laboratory and Rapid 
Response'' train-the-trainer workshops with participants from 
Bangladesh, Cambodia, India, Indonesia, Laos, Thailand, and Vietnam.
                       force presence and posture
    U.S. force presence and posture--in Japan, Korea, and across the 
Asia-Pacific AOR--has long been a guarantor of peace and stability in 
the Asia-Pacific. We will continue to position our forces in theater to 
optimize agility and flexibility, ensure rapid response to crises, and 
provide the force presence that both assures allies and partners and 
dissuades and deters threats to security. We will remain a force ready 
and a force present.
    The Defense Policy Review Initiative (DPRI), launched by the 
Secretary of State and Secretary of Defense with their Japanese 
counterparts in December 2002, serves as the framework to manage U.S.-
Japan alliance transformation and posture realignment. Major elements 
of DPRI include plans to relocate the functions of two U.S. air bases 
from urbanized to rural areas; relocate over 8,000 marines from Okinawa 
to Guam; co-locate U.S. and Japanese command and control capabilities; 
deploy U.S. missile defense capabilities in Japan, in conjunction with 
Japan's own deployments; and improve operational coordination between 
U.S. and Japanese forces. These activities will strengthen capabilities 
and maintain deterrence in the region while reducing impacts of U.S. 
presence on local communities in Japan.
    Since implementation details were agreed to in May 2006, progress 
has been made in all priority areas. Most notably this past year, the 
Japanese Diet approved a comprehensive legislative package that 
provides financial incentives to local communities and authorizes 
financing to build housing on Guam for Marines relocating from Okinawa. 
Additionally, the Government of Japan initiated the environmental 
assessment so that construction of the Futenma Replacement Facility on 
Okinawa can progress. The completion of this facility is critical to 
finalizing our force posture changes in Guam by 2014. Currently, we are 
on schedule to meet construction timelines on this and other major 
DPRI-related facilities throughout Japan.
USMC Relocation to Guam
    The rebasing of 8,000 marines and their dependents from Okinawa to 
Guam remains a vital component of USPACOM engagement with the GOJ and a 
cornerstone of continued U.S. force projection capability. This action 
will return desirable land to Japan while enhancing the flexibility of 
the forward-based Marine presence in the USPACOM AOR. The Joint Guam 
Program Office, led by the Department of the Navy, is managing all 
aspects for this relocation effort. Rebasing beddown alternatives have 
been finalized, and we seek to begin upgrades to the military 
infrastructure, housing, and training facilities on Guam in 2010. The 
Japanese have reaffirmed their commitment to bear approximately $6 
billion of the cost for facilities and infrastructure. USPACOM 
advocates for similar resolve within the DOD and Congress in 
shouldering the approximately $4 billion U.S. share for the Guam 
posture change. The relocation will be a monumental undertaking 
requiring maximum involvement from all branches of the military and 
active participation from numerous Federal agencies and territorial 
governments.
U.S. Forces Korea Transformation
    On the Korean peninsula, with the full support of the Republic of 
Korea (ROK) government, we are reducing and consolidating our footprint 
into two hubs south of the Han River. To increase readiness and boost 
the quality of life for our Korea-based force, we are considering 
longer, accompanied tours for our servicemembers.
    Over the last year, we have also made strides in formalizing the 
path to transfer warfighting operational control from U.S. to ROK 
responsibility in 2012. With the disestablishment of the U.S.-led 
Combined Forces Command (CFC), U.S. Forces, Korea (USFK) will become a 
U.S. joint warfighting headquarters, provisionally-described as U.S. 
Korea Command, supporting the ROK armed forces during armistice and in 
war. In order to succeed, USFK will require significant transformation 
of the command force structure, logistics architecture, and a robust 
training and exercise program. We will execute new theater-level 
exercises, Ulchi Freedom Guardian and Key Resolve, to maintain CFC 
readiness, as well as train, certify, and validate the alliance's new 
command construct.
Prepositioned Stocks/Preferred Munitions
    Due to the time-distance challenges in this theater, USPACOM forces 
require readily available and properly maintained prepositioned stocks 
and preferred munitions at the outset of any conflict. During this past 
spring, the Army downloaded APS-3 afloat equipment sets to support 
Iraq-bound Army units. This event, in addition to existing shortages in 
the remaining prepositioned programs, creates a need for close 
monitoring of the replenishment of equipment and stocks throughout the 
USPACOM AOR. Also, achieving the appropriate mix and inventory levels 
of key munitions, particularly GPS-aided and laser-guided weapons, the 
Guided Multiple Launch Rocket System, Patriot (PAC-3) missiles, 
Advanced Medium Range Air-to-Air Missile version C-7, and the Joint 
Air-to-Surface Standoff Missile, is imperative.
Missile Defense
    To defend U.S. forces, interests, and allies from short- and 
medium-range ballistic missiles, USPACOM seeks a forward-deployed, 
layered, and integrated air and missile defense system that is capable 
of intercepting threat missiles throughout the entire time of flight. 
USPACOM has established an initial missile defense capability by 
forward deploying the Standard Missile 3 (SM-3) aboard U.S. Navy AEGIS 
ships, integrating a forward-based X-band radar into the Ballistic 
Missile Defense (BMD) architecture, conducting BMD exercises and 
training with key partners, and refining the tactics, techniques, and 
procedures required for coordination with USNORTHCOM and other 
Geographic Combatant Commands during the employment of the missile 
defense system in defense of the U.S. Increased inventories of both 
PATRIOT PAC-3 and SM-3 interceptors, forward basing of a Terminal High 
Altitude Area Defense fire unit in Guam, and accelerated development of 
sea-based terminal and kinetic boost phase interceptor capabilities 
would effectively build on the initial missile defense capability 
already deployed in the USPACOM AOR.
    As the Government of Japan fields their own national BMD capability 
with Patriot PAC-3 Fire Units and AEGIS SM-3 capable ships, USPACOM 
will continue to work closely with them to maximize the combined 
efforts and achieve the most effective capability. As we grow the 
overall BMD architecture, interoperability will play an even greater 
role. It is vital to mission success to have communication systems that 
can not only integrate across the joint spectrum, but also with our 
partner nations.
    Acquisition and Cross-Servicing Agreements (ACSAs) enhance 
interoperability and readiness, and provide a cost effective mechanism 
for mutual logistics support between U.S. and allied or partner 
military forces. ACSAs have been particularly helpful in the conduct of 
war on terror operations. For example, we have made extensive use of 
the current agreement with the Republic of the Philippines to support 
the AFP operations against terrorist cells in that country. USPACOM has 
12 ACSAs in place. We signed an agreement with Sri Lanka in March 2007 
and both the Philippines and Tonga renewed their ACSAs during 2007. 
Agreements with Fiji and Australia are both up for renewal in 2008. 
Additionally, we are currently negotiating an agreement with Indonesia 
and hope interest by Timor-Leste and Brunei will yield results. We view 
these agreements as vital in maximizing our interoperability and 
helping increase the readiness of coalition partners in the Pacific 
region.
                           regional engagment
    Our Theater Security Cooperation Plan serves as the primary 
blueprint to enhance U.S. relationships and military capacities of 
allies and regional partners. The plan is fully coordinated with our 
embassy country teams and integrates security assistance, military-to-
military exchanges, exercises, cooperative technology development, and 
outreach programs into a coherent, mutually supportive set of 
activities for each country, whether ally, partner, or cooperating 
state.
    These security cooperation activities are essential to the success 
of U.S. national security strategy. For relatively low cost, we have an 
opportunity to make progress in each of the USPACOM priorities, and 
facilitate situations in which future security challenges can be met 
through regional collaboration and capacity.
Japan
    The U.S.-Japan alliance is a cornerstone for maintaining a secure 
and stable Asia-Pacific. Nearly 38,000 U.S. Armed Forces personnel are 
stationed in Japan, along with an additional 14,000 forward-deployed 
personnel. Japan also provides over $4 billion in host nation support--
the most generous of any U.S. ally--and remains steadfast in supporting 
its share of the costs of alliance transformation.
    Transformation of the U.S.-Japanese alliance continues on its 
positive, steady pace. From the USPACOM perspective, significant 
changes within the defense organization--a new Joint Staff in 2006 and 
a ministerial-level defense department in 2007--strengthen Japan Self-
Defense Force ability to defend Japan and demonstrate a desire to 
enhance cooperation with the U.S. and other regional partners to ensure 
peace and stability in the region. USPACOM is encouraging more 
trilateral cooperation between Japan, the ROK, and the U.S. militaries, 
particularly in the areas of peacekeeping operations (PKO) and 
humanitarian assistance/disaster relief. Increased cooperation in these 
areas would be beneficial regionally and internationally, much as 
ongoing Japanese support of the war on terror continues to be.
    Japan continues its full commitment to BMD. During the past year, 
Japan has fielded its own PAC-3 missiles to defend Tokyo, and has 
tested SM-3 missiles which will soon be operational in the waters off 
the coast of Japan, providing additional BMD capability.
Republic of Korea
    The U.S.-ROK Alliance remains strong and critically important to 
stability on the Korean Peninsula. Despite warranted optimism from 
progress in the Six-Party Talks and Inter-Korea Summit, the alliance 
remains focused on the most immediate security threat, North Korea. We 
do not foresee a near-term, overt challenge by North Korea. However, 
North Korea retains a significant conventional capability with massed 
forces near the demilitarized zone and a potent missile arsenal. We 
remain convinced that the strong U.S.-ROK alliance is the key to 
deterring North Korea.
    In recognition of growing military capabilities of our forces, the 
U.S.-ROK alliance continues to transform to better meet security 
challenges, both on and off the peninsula. All on-peninsula 
transformational goals are on track. Regionally, we seek increased 
partnering with the ROK in counterproliferation, maritime security, and 
disaster relief, as well as trilateral military cooperation between the 
U.S., ROK, and Japan. This is particularly relevant since our three 
nations have the financial resources, logistical capability, and 
planning ability to handle complex contingencies throughout the region. 
The relevancy of our alliance grows globally as well, demonstrated by 
ROK contributions to the war on terror in Iraq and Afghanistan and by 
the deployment of ROK forces to Lebanon in support of the United 
Nations Interim Forces in Lebanon mission.
    Australia is our most steadfast ally, committed to enhancing 
security, regionally and globally. Australian leadership in the Pacific 
was noteworthy in 2007. For example, this past year Australia continued 
to lead the International Stabilization Force in Timor-Leste and the 
Regional Assistance Mission to the Solomon Islands. The Australia 
Defence Force also worked with USPACOM on building regional security 
capacity, particularly in the area of maritime security.
    As a sure sign of the enduring nature of our alliance, Australia 
places major emphasis on advancing interoperability with the U.S. 
through well coordinated acquisition and training programs. They are a 
Joint Strike Fighter level three partner and have made great progress 
in implementing Strategic Level and Operational Level Review 
recommendations to enhance U.S.-Australia interoperability. Exercise 
Talisman Sabre 2007, our premier high-end combined warfighting exercise 
with Australia, was highly successful and validated the U.S.-Australia 
Joint Combined Training Capability. We are now improving that bilateral 
capability by increasing the fidelity and numbers of virtual and 
constructive forces that can be integrated into exercise and training 
environments. In accordance with the Presidential agreement announced 
at the last APEC Summit, we are also enhancing cooperation with 
Australia on Intelligence, Surveillance, and Reconnaissance, and on 
regional Humanitarian Assistance/Disaster Relief response.
Republic of Philippines
    Our partnership with the Republic of the Philippines is central to 
success in meeting our war on terror goals in Southeast Asia. With U.S. 
advice, training, and monetary support, the AFP have had remarkable 
success against terrorists in the southern Philippines. The Philippine 
government and its security forces are increasingly assuming a regional 
leadership role against terrorism and transnational crime. Most 
noteworthy is the Maritime Security effort in the Tri-border Region (an 
area shared with Indonesia and Malaysia) to bring security to the Sulu 
and Celebes Seas and improve economic viability.
    PDR, an innovative and highly-effective approach to building 
partner capacity, continues to strengthen civilian control over the 
military, inject transparency into Philippine Department of National 
Defense processes, and increase the overall professionalism and 
capability of the armed forces. It is a blueprint by which other 
nations in the region can model and implement similar efforts.
Thailand
    The December 2007 elections and certification of a democratically-
elected government has allowed us to move forward--at an appropriate 
pace--with restoration of our military relations with Thailand, a major 
regional ally. For 2008, we place emphasis on completing a fully 
robust, Thailand-hosted Cobra Gold, the premier USPACOM multilateral 
exercise. This annual exercise is a centerpiece for building regional 
competencies to respond to a wide range of transnational security 
threats and humanitarian relief contingencies. We appreciate Thailand's 
important global security contributions in the war on terror, 
counternarcotics efforts, and PKO, including an 800-troop contingent to 
the U.N. mission in Sudan.
India
    Delay with the Civil Nuclear Cooperation Initiative has not 
adversely affected interaction between USPACOM and Indian military 
counterparts. Collectively, we see our militaries building a 
constructive relationship. We foresee great potential for cooperation 
in areas of counterterrorism, maritime security, and disaster relief.
    During my visit to India in August 2007, the Indian Foreign 
Secretary, Defence Secretary, and all three Service Chiefs expressed 
support for our military-to-military cooperation and a desire to 
increase the quality and complexity of these events in the future. The 
U.S.-Indian naval exercise, Malabar 07, which also involved 
participants from Singapore, Australia, and Japan, is indicative of the 
kind of progress we seek with our relationship.
    Singapore continues to be one of our strongest security partners in 
Asia and a key coalition partner in the war on terror. Beyond providing 
strategic access to ports and airfields for transiting U.S. forces, 
Singapore cooperates with us on shared maritime security, 
counterterrorism, and command and control initiatives. In 2007, 
Singapore broke ground on a multinational Command and Control Center at 
Changi Naval Base, which will facilitate information sharing among 
regional nations and enhance maritime security in the Malacca Strait. 
Their decisions to purchase U.S. platforms such as F-15 aircraft and 
Seahawk helicopters strengthen our level of cooperation. Singapore has 
provided niche capabilities to support operations in Iraq and 
Afghanistan.
Indonesia
    Since the normalization of our military relationship with Indonesia 
in 2005, we have moved deliberately to upgrade our ties with the 
Indonesian Armed Forces (TNI). Sitting astride key sea lanes, Indonesia 
is the largest nation in Southeast Asia and the world's third-largest 
democracy. We and the Indonesians have a broad range of shared 
interests, and it is important that our security relationship matures 
to reflect these shared interests. USPACOM conducted significant 
military-to-military engagement activity with the TNI in 2007. Two 
events were particularly noteworthy: a peacekeeping-focused, brigade-
level Command Post exercise, Garuda Shield, and the multilateral intra-
agency Southeast Asia Disaster Management Conference, which exercised 
the Indonesian government's ability to respond to disasters at the 
strategic, operational, and tactical levels. In both evolutions, 
interaction between the TNI and U.S. military--at all levels--was 
strongly positive, professional, and marked by a desire to improve 
peacekeeping and disaster relief skills. Consistent with this view, 
Indonesia has deployed a second set of troops to support PKO in 
Lebanon, recently completed its first PKO course through the U.S. 
Global Peace Operations Initiative (GPOI) program, and is developing 
its own PKO center.
    In 2008, we anticipate greater Indonesian leadership within our 
theater security cooperation activities. For example, Indonesia has 
already agreed to co-host this year's Pacific Armies Management Seminar 
and the Chiefs of Defense Conference. TNI will also host the fourth 
maritime trilateral exchange with Malaysia and the Philippines, an 
effort to improve greater cooperation and security in the Sulu and 
Sulawesi Seas.
People's Republic of China
    Our dealings with the PRC and Taiwan are guided by the Taiwan 
Relations Act, the three Joint U.S.-PRC communiques (1972, 1979, 1982), 
and the one-China policy. We abide by restrictions stipulated in the 
National Defense Authorization Act for Fiscal Year 2000.
    Our military-to-military interaction with the PLA fell short of 
expectations this year. We achieved some success with several high-
level visits to the PRC, including the Secretary of Defense, Chief of 
Naval Operations, and two Commander, USPACOM visits. In each case, PLA 
hosts provided access to platforms and facilities not visited before, 
and discussions with their senior military leaders were candid and 
open. However, we saw little change in PRC willingness to conduct port 
visits, simple exercises at sea, mid-level officer exchanges, or 
pragmatic interaction like the Military Maritime Consultative Agreement 
talks--the activities USPACOM views as most useful in reducing the 
potential for miscalculation and misunderstanding between our forces. 
The growing PLA military capability remains a concern, and our 
understanding of PLA intentions is limited.
    USPACOM will continue to pursue military-to-military activity with 
the PLA, with the clear purpose to reduce chances of miscalculation, 
increase understanding, and create opportunities for cooperation. We 
seek--in the long-term--a mature relationship with the PLA.
Cross-Strait Assessment
    Sustaining stability across the Taiwan Strait is a top priority. 
Vital to preserving this current stability is a credible Taiwan self-
defense capability. In accordance with legislation and policy, we make 
available to Taiwan advice, training, and equipment necessary for a 
sufficient self-defense capability. Through regular engagement, we have 
advocated to Taiwan military leaders a variety of defensive measures 
such as increased joint training, critical infrastructure protection, 
and capability acquisitions. The Taiwan military has improved its self-
defense capabilities considerably.
    Consistent with the Taiwan Relations Act, USPACOM will also 
continue to maintain its own capabilities to defend against any 
potential military aggression in the region.
Mongolia
    Mongolia is an enthusiastic U.S. partner and supports major U.S. 
security efforts, including the war on terror and President Bush's 
GPOI. USPACOM remains primarily focused on helping Mongolia transform 
its military into a rapidly deployable, elite peacekeeping force that 
is interoperable with U.N. and coalition forces. Our high-tempo 
interaction in 2007 included strategic dialogue, bilateral and 
multilateral exercises, security operations exchanges, defense reform, 
and NCO development. We foresee the Mongolian Armed Forces continuing 
to participate in international PKO and increasingly assisting with 
Humanitarian Assistance/Disaster Relief efforts.
Russia
    USPACOM coordinates all its security cooperation activities with 
the Russian Far East Military District with U.S. European Command, 
ensuring the efforts of both geographic combatant commands are mutually 
supportive. Our direct interaction with the Russians this year was 
positive and helpful, with USPACOM hosting the Far East District 
Commander's first visit to Hawaii in 10 years.
    This year we also witnessed a more assertive Russia, particularly 
in the form of increased and more visible Russian bomber activity in 
the USPACOM AOR. We do not assess Russian action as a threat, but we 
prefer to deal with Russia more openly and directly to prevent any 
misinterpretation. To that end, we encourage Russia to restart the 
``flight announcement'' process. My first trip to Russia is scheduled 
for summer 2008.
Sri Lanka
    We support the Government of Sri Lanka (GSL) efforts to defend 
themselves against terrorist attacks by the Liberation Tigers of Tamil 
Eelam but are concerned about GSL withdrawal from the 2002 cease fire, 
increased levels of violence, and allegations of human rights abuses. 
USPACOM security cooperation programs focus on institutionalizing 
respect for human rights, enhancing the Sri Lankan armed forces ability 
to deter renewed violence, and improving their maritime security 
capabilities through Section 1206 capacity building authority. We also 
continuously stress that GSL seek a suitable resolution to the 
conflict--a solution that meets the needs of the Sinhalese, Tamil, and 
other communities. Additionally, we are now working with the Sri Lankan 
military to enhance their nation building and disaster relief 
capabilities.
    Sri Lanka continues to demonstrate support for the war on terror by 
providing blanket over-flight and landing rights in support of 
operations in Iraq and Afghanistan.
Nepal
    The uncertainty of the political situation in Nepal caused by 
delays in the national elections and contentious differences between 
the ruling party and the Maoists has affected our military-to-military 
engagement with Nepal. Until the political situation is resolved, 
USPACOM security cooperation will continue to focus on non-lethal 
assistance with the emphasis on professional military education, 
peacekeeping training, and respect for human rights.
People's Republic of Bangladesh
    Bangladesh continues to make progress in countering their internal 
extremist threat. Over the past year, they have brought to justice 
numerous leaders of various Muslim extremist organizations. Assisting 
the Bangladesh government to enhance their counterterrorism 
capabilities is the focus of our bilateral cooperation. USPACOM further 
seeks to enhance Bangladesh ability to conduct international 
peacekeeping and to increase capacity to conduct domestic humanitarian 
assistance and disaster relief missions, which will improve national 
response in the wake of events like the November 2007 cyclone crisis.
    Since the declaration of Emergency Rule in January 2007, USPACOM 
has remained watchful of the role of the military within the Caretaker 
Government. We initiated defense sector reform programs that focused on 
maintaining a professional military that adheres to human rights and is 
respectful of civilian control of the military.
Malaysia
    Defense ties with Malaysia are strong and improving, best 
exemplified by a five-fold increase in our ship visit program, 
acceptance of high-level visits, and Malaysia's partnering with us in 
numerous multilateral venues. In the last 18 months Malaysia has co-
hosted three high-level major multilateral conferences, including the 
first ever Asia-Pacific Intelligence Chiefs Conference. This strong 
relationship is important as Malaysia influences the evolution of 
ASEAN, demonstrates strong leadership in maritime security, and 
actively participates in the Non-Aligned Movement and the Organization 
of the Islamic Conference. Malaysia also continues to lead the peace 
monitoring mission in southern Philippines and has renewed its 
contribution of peacekeeping troops to Lebanon.
Vietnam
    Our military-to-military relationship with Vietnam has made 
positive strides in recent months, most significantly in the areas of 
humanitarian assistance and disaster relief. A beneficiary of the 
U.S.S. Peleliu humanitarian mission, Vietnam also contributed directly 
to the mission success regionally, providing a medical team on board 
the ship. During my December trip, I encouraged Vietnam to continue to 
grow its capabilities in the humanitarian assistance and peacekeeping 
mission areas. USPACOM also agreed to sustain information exchanges 
that allow the Vietnamese to better prepare for and respond to severe 
typhoons. This year we continued our support of the Presidential 
Emergency Program for AIDS Relief, with the DOD contribution exceeding 
$5 million. With this incremental progress, we look forward to 
increased military cooperation with the Vietnamese, both bilaterally 
and multilaterally.
Cambodia
    Our military relationship with the Royal Cambodian Armed Forces 
(RCAF) continues to progress steadily. They have shown increased 
willingness to cooperate closely on counterterrorism, peacekeeping, 
disaster response, and medical and health related activities. After a 
2006 assessment of RCAF requirements, the U.S. delivered 49 laptop 
computers in 2007 and will deliver 30 2.5-ton trucks in Spring 2008, 
all from excess defense articles. Reinforcing the positive outcome from 
last year's first ship visit to Cambodia since the Vietnam War, U.S. 
Pacific Fleet conducted a second visit in 2007 with the U.S.S. Essex. 
The sailors were well-received and completed a robust schedule of 
medical and dental civic action programs with their Cambodian 
counterparts. Cambodia was also a recipient of peacekeeping training 
through the Global Peacekeeping Operations Initiative and sent a 
platoon to Mongolia for the region's premier peacekeeping exercise, 
Khaan Quest. Cambodia is playing a lead role in the region by 
conducting Exercise Tempest Express 14 to test and refine national, 
regional, and broader international mechanisms for disaster and 
emergency response.
Laos
    We are slowly building security-related activities with Laos beyond 
traditional personnel recovery and humanitarian assistance cooperation. 
The Lao Peoples' Democratic Republic (PDR) leadership is receptive to 
increased military engagement, as evidenced by their decision to accept 
the exchange of Defense Attaches. Engagement activities will be focused 
initially on English language training for mid-level and senior 
officers, medical training and avian influenza preparedness, military 
cooperation on unexploded ordnance detection and removal, and increased 
Lao participation in regional conferences and activities. USPACOM 
remains mindful of the poor past performance of the Lao PDR regarding 
human rights and reinforces international standards of behavior in all 
engagement activities.
    New Zealand shares many U.S. security concerns about terrorism, 
maritime security, transnational crime, and proliferation of weapons of 
mass destruction and delivery systems and cooperates closely with us. 
They are an active and positive force in Pacific Islands security 
initiatives, including support to stabilization efforts in Timor-Leste 
and the Solomon Islands. While the 1987 legislative declaration of New 
Zealand as a nuclear free zone remains an impediment to bilateral 
military-to-military relations, we support New Zealand Defence Force 
participation in approved multilateral events that advance our mutual 
security interests.
    New Zealand remains supportive of coalition efforts in the war on 
terror and has extended its lead of the Provincial Reconstruction Team 
in Afghanistan through at least September 2008. New Zealand also 
continues to provide excellent support to Operation Deep Freeze 
missions supporting U.S. scientific exploration in Antarctica.
Compact Nations
    USPACOM enjoys a special relationship with the three Compact 
Nations--the Federated States of Micronesia, the Republic of the 
Marshall Islands, and the Republic of Palau. We fully support their 
initiatives to expand capacity and operations to protect their valuable 
economic exclusion zone resources. The U.S. Army Pacific Joint Task 
Force for Homeland Defense leads our partnership with these nations to 
ensure our mutual defense, as set forth in the Compacts of Free 
Association. We are grateful for the extraordinary support from the 
citizens of these nations, particularly those who serve with great 
distinction in the U.S. military and Coast Guard. The Marshall Islands 
host the Ronald Reagan Ballistic Missile Defense Test Site, integral to 
the development of our missile defense programs and conduct of space 
operations.
Timor-Leste
    The recent attempted assassinations of President Ramos-Horta and 
Prime Minister Gusmao highlight the continued political unrest in 
Timor-Leste. However, there are several reasons to remain optimistic 
about the future of this fledgling democracy. This past year, Timor-
Leste successfully held its first democratic presidential and 
parliamentary elections. The Timor-Leste civil-military defense 
establishment is in place, and their Defense Forces operate under the 
rule of law. With international support, Timor-Leste is again 
experiencing the relative stability necessary to begin critical 
institutional development. Regarding USPACOM interaction, our U.S. 
security assistance program with Timor-Leste is focused on English 
language training. We have also recently completed a highly successful 
port visit and look forward to increasing our engagement opportunities 
with the Timor-Leste Defense Forces this year.
Tonga
    With a military of 600 personnel, Tonga remains an extraordinarily 
committed U.S. partner in the war on terror and is a regional leader in 
PKO. Royal Tongan Marines returned to Iraq in September 2007 for two 6-
month rotations with the possibility of providing additional troop 
rotations in the future. These efforts and their other regional 
peacekeeping commitments mean that one-third of deployment-eligible 
Tongan soldiers are engaged in peacekeeping missions, worldwide. 
USPACOM security cooperation with Tonga supports their efforts to 
strengthen and refine the peacekeeping capacity of the Tongan Defence 
Service through our annual Marine-led exercise, Exercise Tafakula and 
our GPOI capstone exercise.
Burma
    The policies and practices of the Burmese government undermine 
regional security through violent suppression of peaceful protests (as 
observed as recently as September 2007), human rights violations, 
particularly against ethnic minority civilians, and narcotics 
trafficking. USPACOM fully supports U.S. policy to increase pressure on 
the military junta to engage in a credible transition to democracy. Our 
military-to-military engagement with Burma is limited to coordination 
of the recovery of missing U.S. personnel, the last activity having 
occurred in 2004.
Security Assistance
    One of the most important features of PACOM theater security 
cooperation is the security assistance effort we execute in partnership 
with the Department of State and our embassy country teams. Powerful 
engagement tools for building security partnerships with developing 
countries include International Military Education and Training (IMET) 
and Foreign Military Financing (FMF). IMET advances U.S. interests by 
educating participants in essential principles of a professional 
military force. IMET is of life-long value to the participants and the 
respective regional nations. The program also develops personal 
relationships among nations in the Asia-Pacific. FMF continues to prove 
its value in equipping and training regional partners to more 
effectively contribute toward common security goals. FMF is vital to 
supporting U.S. coalition partners in the war on terror, such as the 
Philippines, Indonesia, and Mongolia. USPACOM countries typically 
receive less than 1 percent of the annual worldwide allocation of FMF. 
Because modest investments in security assistance foster a more secure 
and stable region, increased funding in this area merits consideration.
Enlisted Leader Development
    We place a premium on developing the enlisted leaders of partner 
nations in the Asia-Pacific. To that end, we are assisting selected 
countries as they work to create a professionally-committed, competent, 
and empowered enlisted force. Growing these leaders will contribute 
directly to a partner nation success across the full gamut of security 
interests, from the war on terror to maritime security initiatives.
Joint Exercise Program
    USPACOM joint exercises are tangible and productive elements of our 
theater engagement strategy and joint training program. Our exercises 
develop and sustain habitual relationships that promote overall 
operational effectiveness among USPACOM forces and with the armed 
forces of other nations and civilian organizations. Exercises also are 
the primary vehicle we use to improve, demonstrate, and certify the 
readiness of USPACOM forces and our joint command and control 
headquarters.
    To maximize opportunities for training, we continue to leverage the 
capabilities of live, virtual, and constructive simulations in all of 
our training and exercises. These simulations bring greater fidelity 
and realism to our exercises while preventing increased operational and 
personnel OPTEMPO. Validation of the Joint and Combined Training 
Capability program with Australia during exercise Talisman Saber was a 
milestone achievement and showed how effective the integration of live, 
virtual, and constructive environments can be.
    The establishment of the Combatant Commander Exercise Engagement 
(CE2) account, this year, is a significant and welcome improvement. The 
CE2 account allows the DOD to efficiently and effectively support joint 
training and exercises. It provides flexibility to focus support when 
and where it is needed to meet USPACOM and national security 
requirements. We appreciate Congress' leadership in establishing this 
account. Your continued support for the Joint Exercise Program plays a 
critical part in maintaining security and stability in the Pacific.
    GPOI is a presidential and G-8 initiative to build competent and 
professional peacekeepers worldwide. Within the Asia-Pacific region, 
USPACOM GPOI program continues to leverage existing host nation 
programs, institutions, policies, and exercises. Our continued emphasis 
is on encouraging long-term sustainment of qualified peace support 
operations forces through a train-the-trainer focus, and ensuring 
standardization and interoperability by taking a regional approach, and 
by working within the framework of United Nations Guidelines. This 
program is one of our key components for fostering military-to-military 
relationships and in meeting security cooperation objectives among 
nations within the Asia-Pacific region. USPACOM successes include 
producing over 1,116 tactical peacekeepers, 272 qualified staff 
officers, and 145 Trainers available for immediate deployment 
worldwide. In late 2007, the Philippines and Tonga were added as GPOI 
participating nations.
    In 2008, the USPACOM GPOI program will be fully implemented in 
Bangladesh, Indonesia, Malaysia, Mongolia, Nepal, Sri Lanka, and Tonga. 
We expect to train 5,000 peacekeepers. USPACOM, in conjunction with 
Bangladesh, will host the largest multinational peacekeeping capstone 
exercise conducted in the Asia Pacific region in April 2008 with all 
the current regional GPOI partner nations.
    Other key programs in USPACOM contribute more broadly to security 
cooperation by addressing transnational concerns. The periodic 
deployment of humanitarian missions and outreach organizations like the 
Center of Excellence in Disaster Management and Humanitarian Assistance 
(COE) and the Asia-Pacific Center for Security Studies (APCSS) provide 
expertise and establish enduring relationships between nations of the 
region. Additionally, the Joint POW/MIA Accounting Command, through the 
conduct of their important mission, serves as a powerful tool in our 
efforts to improve relationships in the region, particularly in 
Southeast Asia, but also in China.
    U.S.S. Peleliu deployed to the Western Pacific for 120 days from 
June to September 2007 to perform a humanitarian assistance and theater 
security cooperation mission, reinforcing relationships and goodwill 
established during U.S.N.S. Mercy missions in 2005 and 2006. The 
Pacific Partnership team of regional partners, NGOs, military 
engineers, doctors, dentists, and veterinarians provided support to the 
governments of the Philippines, Vietnam, Papua New Guinea, Federated 
States of Micronesia, Solomon Islands, Peleliu Island, and the Republic 
of the Marshall Islands. Together they treated 31,684 medical patients, 
4,242 dental patients, 2,614 veterinary patients and completed 42 
engineering civic-action projects for the betterment of the host nation 
populace.
    This past summer USPACOM also leveraged the Pacific Air Forces 
International Health Services to conduct Pacific Angel, a C-17 based 
humanitarian assistance mission, to the island nations of Kiribati, 
Nauru, and Vanuatu. In less than 9 days, this 50 person team of 
talented dentists, nurses, surgeons, and engineers cared for over 1,800 
patients and rehabilitated 3 clinics. We will continue similar missions 
this year, using the unique capability of the C-17 to bring assistance 
to remote, generally inaccessible Asia-Pacific areas.
    Center for Excellence in Disaster Management and Humanitarian 
Assistance (COE), a direct reporting unit to USPACOM, offers a unique 
tool in our continuing efforts to promote stability and human security 
in the Asia-Pacific region. COE educational programs in humanitarian 
response, peacekeeping, stability operations, and public health engage 
non-traditional partners from the civilian community and help maintain 
critical key relationships with our civilian disaster relief partners 
such as the United Nations agencies, non-governmental organizations, 
and civilian authorities in partner nations. COE activities also build 
indigenous capacity and promote consensus on strategies to improve our 
collective security against the emerging threats of climate change, 
urbanization, and potential pandemics.
    APCSS provides regular executive education to key regional 
security-practitioner leaders. APCSS has broadened its audience beyond 
traditional defense practitioners to encompass whole-of-government, 
non-governmental, and international organizations in order to address 
complex security issues more comprehensively. During fiscal year 2007, 
APCSS held security-related workshops in Cambodia, Nepal, Japan, 
Bangladesh, and Brunei. Feedback from the region indicates that APCSS 
Alumni are routinely leveraging the knowledge, skills, and 
relationships gained at APCSS to make progressive change in specific 
security cooperation areas.
Joint POW/MIA Accounting Command
    USPACOM has no more important and honorable mission than achieving 
the fullest possible accounting of Americans missing from our Nation's 
conflicts. Our Joint POW/MIA Accounting Command (JPAC) successfully 
accomplished more than 50 missions globally last year. Additionally, 
JPAC Central Identification Laboratory identified 62 unaccounted 
individuals from the Vietnam War, Korean War, and World War II. In 
conducting its mission, JPAC relied upon cooperation from Cambodia, 
Vietnam, Laos, the ROK, Japan, the Pacific Islands, and several 
countries in Europe.
    We anticipate similar results in the coming year. JPAC has also 
received tentative approval to conduct a recovery mission in the 
People's Republic of China and to engage Government of India officials 
regarding potential recovery missions in Northeast India. Operations in 
North Korea remain suspended, but JPAC is prepared to resume operation 
once conditions in North Korea are again appropriate.
    This year, with the support of the Department, USPACOM will 
complete the design for a new JPAC headquarters at Hickam Air Force 
Base. In fiscal year 2010, we will seek congressional authority and 
military construction funds for this $105 million project.
                            quality of life
    We thank Congress for the extraordinary support you give our 
people--our most valuable asset. We are grateful for consistent pay 
raises, improved housing, enhanced medical and dental services, 
exemplary education programs, enriching family and deployment support 
programs, and other new quality of life initiatives for our families.
    With regards to education for our children, the number one priority 
for our families, your support allowed a new high school to open in 
Guam and construction to begin on the elementary/middle school. In 
Daegu, Korea an addition to the high school was completed, offering 
Junior Reserve Officer Training facilities, a music wing, gym and 
counseling center.
                           summary statement
    USPACOM long-term priorities emphasize a region that is stable, 
secure and at peace. We are engaged extensively throughout the AOR to 
advance theater security goals. We are committed--along with our allies 
and partners--to turn the promise of a stable and secure region into 
reality and convert challenges into opportunities that strengthen 
regional relationships and cooperation. We are fortunate to have 
traditional allies and partners, as well as emerging partners, who are 
willing to help set conditions for security and stability and work 
together for the common good of the people of the Asia-Pacific. We 
appreciate the staunch support of Congress and American people. I am 
proud and honored to represent the men and women of U.S. PACOM. On 
their behalf, thank you for your support, and thank you for this 
opportunity to testify on the defense posture in the USPACOM AOR.

    Chairman Levin. Admiral, thank you so much.
    General Bell?

 STATEMENT OF GEN BURWELL B. BELL III, USA, COMMANDER, UNITED 
 NATIONS COMMAND AND REPUBLIC OF KOREA/UNITED STATES COMBINED 
     FORCES COMMAND; COMMANDER, UNITED STATES FORCES KOREA

    General Bell. Thank you very much, Mr. Chairman, Senator 
Warner, distinguished members of the committee.
    Your support for our alliance with Korea in an area of the 
world which I view as of vital interest to the United States of 
America is greatly appreciated, as is your commitment to our 
servicemembers serving there in Korea, about 8,000 miles from 
home.
    Sir, for the record I'd like to submit my 2008 posture 
statement.
    Chairman Levin. Thank you.
    General Bell. On February 25, 2008, just last month, Lee 
Myung-bak was inaugurated as the president of the Republic of 
Korea in a landslide victory. In his inaugural address before 
international heads of state, diplomats, and dignitaries, with 
45,000 South Koreans gathered there, he spoke eloquently about 
the relationship with the United States. Singling us out 
individually, he said, ``We will work to develop and further 
strengthen traditional friendly relations with the United 
States into a future-oriented relationship. Based on the deep 
mutual trust that exists between our two peoples, we will also 
strengthen our strategic alliance with the United States.''
    It was an interesting moment for him in his inaugural 
address to stop and talk about the United States specifically, 
and then he went on, of course, and dealt with other subjects.
    Our partnership with the Republic of Korea is entering in 
my view an extremely positive era, wherein the South Koreans 
strongly desire to reinvigorate our alliance. In recent State 
Department public polling, 75 percent of South Koreans viewed 
the American military presence to be important to South Korean 
national security. Sixty-eight percent believe that the United 
States-South Korean Mutual Defense Treaty should be maintained 
even if the threat of aggression from North Korea ended.
    Today we are indeed welcome and wanted in the Republic of 
Korea. It's my strongest recommendation that the United States 
seize this moment and extend a reciprocating welcoming hand to 
one of our most steadfast and long-term allies.
    Today the Republic of Korea is a modern first-world nation. 
Rising from the third-world stagnation to an economic 
powerhouse, South Korea is bidding to become 1 of the 10 
largest economies in the world and they do rank 11th right now.
    Korea is strategically located on the east Asian mainland 
at the regional nexus of an economically advancing China, 
resurgent Russia, and economically powerful Japan. Illustrative 
of this is that Seoul is 100 miles closer to Beijing than it is 
to Tokyo. I cannot overstate the strategic importance of the 
long-term U.S. alliance with the Republic of Korea to help 
ensure continued peace and stability in northeast Asia.
    Today North Korea does remain the single most dangerous 
threat to regional security in East Asia in my view. With the 
fourth largest military in the world, North Korea continues to 
train and ready itself for potential war. North Korea employs a 
military-first policy while depriving its citizens of basic 
sustenance. North Korea focuses proportionately enormous energy 
on developing weapons of mass destruction (WMD) and it has 
worked hard to develop a sophisticated missile capability. Its 
past record of proliferation coupled with its recent nuclear 
weapons and missile developmental activities are a matter of 
great concern, as you all know.
    I too believe, as Admiral Keating stated, the Six-Party 
Talks process is the most viable path to achieve 
denuclearization of North Korea, and I too remain hopeful that 
North Korea will continue to demonstrate good faith in 
executing the agreement that they signed up for. Until full 
denuclearization is achieved, progress in lowering the risks to 
regional and even global peace and stability will remain 
problematic.
    Meanwhile, in working with South Korea to modernize and 
transform our alliance, we're on the threshold of transferring 
operational command or operational control, ``OPCON,'' as we 
call it, of South Korean military forces in potential wartime 
from the U.S. Combined Forces headquarters, which I command, to 
the South Korean military itself. That's going to take place in 
2012 and this OPCON transfer will realize the final step in 
sovereign self-reliance for the South Korean government, with 
the United States remaining a trusted ally, fully committed to 
fighting side by side with our partner.
    Gentlemen, I conclude my statement today by reiterating my 
view that Korea is located at the geographical and geopolitical 
nexus of Northeast Asia. Global economic prosperity, including 
our own, is immensely dependent on continued peace and economic 
enterprise with our trading partners in this area of the world. 
My strongest recommendation is that the United States approach 
our alliance with South Korea from a long-term strategic 
perspective.
    Next month President Lee Myung-bak will visit the United 
States and Washington. We are the first country that he will 
travel to since assuming the presidency and I hope that 
Congress will embrace this very friendly, pro-U.S., and 
visionary South Korean leader. He's extending a welcoming hand 
of friendship to us and I think that we must be no less 
forthcoming and seize this opportunity.
    It's my best judgment that our alliance with U.S. forces 
stationed in South Korea is of vital importance to us and it 
should be the centerpiece of our foreign and security policy 
throughout the 21st century and beyond, regardless of any 
future resolution of the North Korean issue.
    I thank you for allowing me to make this statement and, 
gentlemen, I'll be glad to take your questions. Thank you.
    [The prepared statement of General Bell follows:]
                Prepared Statement by GEN B.B. Bell, USA
    Mr. Chairman, and distinguished members of the committee, thank you 
for the opportunity to appear before you today. As the Commander, 
United Nations Command (UNC); Commander, Republic of Korea-United 
States Combined Forces Command (CFC); and Commander, United States 
Forces Korea (USFK), it is a privilege to represent the servicemembers 
and their families who serve in the Republic of Korea (ROK). On behalf 
of these outstanding soldiers, sailors, airmen, and marines, I thank 
you for your unwavering support which allows us to promote prosperity 
and stability in Northeast Asia and ensure security on the Korean 
peninsula. I appreciate this opportunity to present my updated 
assessment of the command and our plan for continued transformation and 
strengthening of the United States-ROK Alliance.
    Our Alliance was forged in blood when our countries fought side-by-
side during the Korean War, and was formalized by the signing of our 
Mutual Defense Treaty in 1953. This treaty has since served both 
nations well, while continually assuring the ROK and its citizens that 
the United States is a committed ally. Our Mutual Defense Treaty with 
Korea is a model of foresight, strategic thinking, and global 
understanding. Behind the shield of our alliance, the ROK has rebuilt 
from the devastation of war and is now a thoroughly modern nation with 
a vibrant democracy and a flourishing trade-based economy. South Korea 
now showcases the 11th largest economy in the world. For the past 55 
years, our bilateral military alliance has provided the stability and 
security that is essential for preserving peace, promoting democracy, 
and fostering prosperity for the citizens of the ROK. The Alliance 
still serves its original purpose of deterrence against North Korea. 
However, it is in our best interest to cultivate and expand the 
Alliance into one that more fully serves our two nations by 
contributing to a broader strategy for the promotion and enhancement of 
regional security. Regardless of the outcome of ongoing negotiations 
with north Korea and the possibility that a future peace treaty might 
further contribute to regional security, our Alliance with the ROK 
along with a meaningful U.S. force presence should be maintained 
throughout the 21st century and beyond.
    The previous administration of President Roh put a high priority on 
developing cooperative relations between north and South Korea in an 
effort to lay the foundations for a peaceful and prosperous peninsula. 
Inter-Korean dialogue was highlighted by the second north--South Korean 
Presidential Summit in October 2007. Newly inaugurated President Lee, 
Myung-bak has articulated a policy of continued engagement and 
cooperation with north Korea, but has noted that any such engagement 
should occur in parallel with further progress toward complete 
denuclearization. The U.S. is supportive of inter-Korean dialogue and 
there is reason for optimism that bilateral north-South engagement 
could bolster the Six-Party Talks effort to achieve the complete 
denuclearization of the Korean Peninsula while advancing the path to 
peace. However, the strategic rationale for a future U.S. force 
presence in Korea far transcends the important, yet one-dimensional 
north Korea issue.
    Historically, security interests have been the initial basis for 
long-term U.S. defense alliances. Security and stability underpin 
opportunities for peace, economic growth, and social development. To 
remain healthy, an alliance can and should change and expand over time. 
As an example, after the fall of the former Soviet Union many believed 
that the North Atlantic Treaty Organization (NATO) would become 
obsolete due to the perception that it existed only to deter Soviet 
aggression during the Cold War. However, instead of disbanding after 
the fall of the Iron Curtain, NATO has evolved into a multi-dimensional 
alliance whose members share the fundamental values of democratic 
principles, individual freedom, and free market enterprise. Indeed in 
the post-Cold War era, NATO has blossomed from 16 to 26 nations, 
including Eastern European countries. Further expansion is possible.
    Nearly 20 years after the end of the Cold War, we can clearly see 
that the members of NATO demonstrated exceptional strategic courage and 
foresight, transforming the alliance into one committed beyond its 
single dimension of military security in Europe, into an alliance with 
global impact in support of democracy and increasing prosperity for all 
its members. In the United States, there was never any thought that we 
should disband NATO after the fall of the Soviet Union. The United 
States led the effort to expand NATO, while refocusing and redefining 
its purpose. Today, the foresight of 20 years ago appears remarkably 
wise, as the Trans-Atlantic Alliance engages with an increasingly 
complex European, Central Asian and Global environment.
    Similarly, it is time for Washington to reexamine its Defense 
Treaty with Seoul and look beyond the narrow scope of the DMZ threat, 
and solidify the Alliance as a pillar of stability and cooperation that 
will be an example for all the Nations of Northeast Asia and the world. 
Today, Northeast Asia is changing and its nations are engaging across a 
broad range of activities. Located on the Asian mainland, Korea is 
situated at the regional nexus of an emerging China, a resurgent Russia 
and a prosperous Japan. Indeed, Seoul is geographically closer to 
Beijing than it is to Tokyo. Keeping in mind this central position of 
Korea in the region, it is important for America to fully appreciate 
that Northeast Asia is home to four of our nine largest trading 
partners. The region accounts for 24 percent of all U.S. trade as well 
as a $191 billion U.S. direct investment position in 2006. With nearly 
a quarter of the world's population (1.5 billion people) and 4 of the 
world's 16 largest economies, having a combined 2006 gross domestic 
product (GDP) of approximately $16.4 trillion (25 percent of the global 
GDP), Northeast Asia is crucial to the world's expanding free trade 
system and is certain to remain an area absolutely critical to U.S. 
national interests.
    Within the Northeast Asia region, the ROK plays a vital role in 
sustaining U.S. prosperity. With expanding markets, the prospect of a 
mutually beneficial free trade agreement with the United States, and as 
one of the most technologically and scientifically advanced countries 
in the world, the ROK is a first-class economic power and a major 
business, banking and commerce center. South Korea is already the 
world's largest shipbuilder, the 3rd largest steel producer, and the 
5th largest car manufacturing nation. As a major U.S. economic partner, 
South Korea ranks as our seventh largest trading partner and seventh 
largest export market. South Korea's economic strength will continue to 
develop under the newly elected ROK president.
    While the region generates much of the world's commerce, it is also 
highly vulnerable to flashpoints which can threaten stability. 
Notwithstanding progress toward a denuclearized Korean Peninsula borne 
from the Six-Party Talks process and the ongoing disablement of north 
Korea's nuclear facilities, we remain concerned about north Korea's 
proliferation of military equipment and ballistic missiles along with 
missile-related technologies. Beyond the north Korean threat, the 
presence of five of the world's six largest militaries and three proven 
nuclear powers, heightened nationalism, historical animosities, 
territorial disputes, resource competition, and historical struggles 
for regional hegemony all come together to pose long-term regional 
security challenges in this area which is so critical to our economy 
and other national interests.
    In view of U.S. economic and security interests in the ROK and the 
region, it is my most considered judgment that the U.S. should set a 
cooperative policy based on shared interests and values with the ROK to 
maintain a meaningful American troop presence on the Korean Peninsula 
throughout the 21st century and beyond, even subsequent to a peace 
treaty with north Korea, should that come about. Peace, stability and 
prosperity in this region of the world have not been attained for the 
past 55 years by accident or good luck. They are a function of a 
reliable and credible long-term U.S. presence in Korea, Japan, and the 
Pacific Rim.
    Korea-based U.S. forces are the only U.S. forces present on the 
East Asian mainland. In considering our future engagement, 
opportunities and influence in East Asia, we should take counsel of 
history and recall stated policies for the area following World War II. 
Many argue that America's perceived policy of retrenchment from the 
Asian mainland, highlighted by Secretary of State Acheson's 
``Perimeter'' speech to the National Press Club in 1950, set conditions 
for instability and emboldened north Korean aggression, supported by 
outside influences. Now is the time for the United States to reaffirm 
the tenets of our Mutual Defense Treaty Alliance with Korea and set our 
course for cooperative engagement on the Asian mainland throughout the 
21st century. A stated long-term commitment to our South Korean Ally on 
the Asian mainland which is independent of a peace treaty with north 
Korea is the most cost-effective approach to long-term peace and 
stability in East Asia.
    In considering our long-term interests, the United States will be 
best served by balancing the ongoing on-peninsula transformation of 
today's Alliance with an additional and fundamental change in our troop 
stationing policies in the ROK. I am convinced that we have an historic 
opportunity to end our outdated and debilitating legacy system of 1 
year family unaccompanied short tour rotations, and replace it with 
normal 3 year family accompanied tours of duty. Recall that at the 
height of the Cold War and with U.S. Army divisions facing numerically 
superior Russian and Warsaw Pact divisions armed with modern equipment 
and tactical nuclear weapons, we still welcomed our families to Europe 
and fully offered 3 year family accompanied tours to our married 
servicemembers. Not only did this policy provide a solid measure of 
stability and eliminate family separations for our post-Vietnam 
volunteer military, it also sent a powerful message to our friends and 
adversaries alike that America was fully committed to our NATO Alliance 
for the long-term.
    With a force in Korea less than 10 percent the size of our 
commitment to the Cold War in Europe, we can easily afford and should, 
in coordination with our Korean ally, initiate a policy now to begin 
the implementation of a 10-year program to transition to family 
accompanied tours in Korea. Such a policy will eliminate a significant 
added source of family separations in a military already 
extraordinarily stretched by repeated unaccompanied short tour combat 
rotations to Afghanistan and Iraq. Furthermore, with major burden 
sharing financial support from our Korean Ally, including anticipated 
increases, the financial burden to the United States will be 
comparatively low, particularly given the return on investment in long-
term security and stability in the region. Last, a family accompanied 
policy will bring our stationing practices in line with the same 
practices we have set for our forces in both Europe and Japan--policies 
that have enjoyed long-term congressional support.
    With family accompanied servicemember tour normalization 
implemented over a 10 year transition period and in close coordination 
with our Korean Ally as provided for in our current bilateral Strategic 
Flexibility Agreement, the United States will be in a position to 
consider selected levels of worldwide deployment of our Korean based 
force, not unlike the way our forces deploy from and return to their 
bases in Europe and Japan. Deployment from and return to our Korean 
Main Operating Bases (MOBs) where our families would be located would 
be a function of any continued threat from north Korea, and U.S. global 
force generation requirements. In all decision making related to our 
alliance with Korea, the U.S. would be obligated to continue to ensure 
we meet our security responsibilities with the ROK, without ever 
sending a message of reduced commitment or weakness to any and all 
potential adversaries, including North Korea.
            i. the united states-republic of korea alliance
    While established to deter the North Korean threat, the U.S.-ROK 
Alliance is maturing from a single purpose military relationship to a 
broader partnership committed to expanding prosperity and regional 
stability which should be continued and reinforced. It is in our 
national interest to do so. The presence of U.S forces and the strength 
of the Alliance form a cornerstone of continued regional peace and 
stability, essential for stable global markets, expansion of prosperity 
through free trade, and promotion of freedom and democracy. The United 
States and the ROK have agreed to transition from the U.S.-led Alliance 
warfighting CFC, to an arrangement where U.S. forces are in a 
doctrinally supporting role to the ROK military. The ROK military will 
assume responsibility for commanding and controlling the warfighting 
readiness and operations of their own forces in wartime for the first 
time since the end of the Korean War. Towards this end, the U.S. 
military will form an independent U.S. headquarters to command U.S. 
forces serving in Korea during wartime, while the Koreans will form a 
Korean national warfighting headquarters referred to by them 
provisionally as the ROK Joint Forces Command (JFC). This transition is 
referred to by many as ``Operational Control (OPCON) Transfer'' and 
will take place on 17 April 2012. The current U.S. led combined 
warfighting command, CFC, will be disestablished. The transition will 
convey a strong message to all regional actors of continuing solidarity 
with our Korean ally, while providing us an opportunity to strengthen 
our close and cooperative relationship with the ROK. With OPCON 
transition, one of the longstanding perceived infringements on ROK 
sovereignty and self determination will be removed along with a 
lightning rod for political dissent and anti-American sentiment. This 
move is healthy, long overdue, and in the best interest of both the 
United States and the ROK.
The Republic of Korea Today
    Over the course of the Alliance's half-century of security 
cooperation, the ROK has flourished while becoming a leader in the 21st 
century global community, and the envy of many nations throughout the 
world. Within this vibrant democracy, South Korean citizens have 
achieved an incredible standard of living, a modern transportation 
infrastructure, and world-class universities and hospitals. As the 11th 
largest economy in the world, the ROK is a hub of economic activity 
within Northeast Asia, and an integral player in the global trading 
system. It is a true testament to the South Korean people that within a 
single lifetime they have realized the joy and pride of rebuilding 
their country from the ashes of war to prosperity and leading-power 
status.
U.S.-ROK Alliance Partnership
    Since the end of the Korean War, each generation has dreamed of 
achieving a true and lasting peace on the Korean Peninsula. With the 
North-South Korean Presidential Summit in late 2007 and the ongoing 
Six-Party Talks process, there is reason for hope and optimism. 
However, optimism must be tempered with caution due to North Korea's 
unpredictability. The U.S.-ROK Alliance provides diplomatic leaders 
with a mechanism to develop options for confidence building measures 
that can assist in the overall effort to denuclearize the Korean 
Peninsula and promote dialogue between the North and South with the 
purpose of eventually realizing a peace treaty between the two Koreas. 
The Alliance fully supports this process. Until peace becomes reality, 
the U.S.-ROK Alliance must remain vigilant and capable of deterring 
North Korean aggression.
    To ensure future viability, the ROK and the U.S. agreed to embark 
on the most profound defense transformation on the peninsula since the 
end of the Korean War. For the past 58 years, the United States has led 
the warfighting command responsible for the defense of the ROK. Today, 
it is both prudent and the ROK's sovereign right to assume the primary 
responsibility for the lead role in its defense, given its advanced 
military and economic capabilities. The transition to a ROK-led 
national defense will be a success story for both the United States and 
the ROK and is the cornerstone to future regional stability.
Transition of Wartime Operational Control
    In September 2006, the Presidents of the United States and the ROK 
agreed that South Korea should assume the lead for its own defense. In 
early 2007, the U.S. Secretary of Defense and ROK Minister of National 
Defense determined that South Korea will assume wartime OPCON of its 
forces on April 17, 2012. U.S. Forces Korea will transform into a new 
joint warfighting command, provisionally described as Korea Command 
(KORCOM). KORCOM will be a fully capable and resourced complementary 
U.S. joint warfighting command in a doctrinally supporting role to the 
ROK JFC. The United States views this effort as an affirmation of the 
tremendous success of the Alliance since the end of the Korean War. 
U.S. and ROK civilian and military leaders have been discussing wartime 
OPCON transition for nearly two decades as part of the normal 
progression of the Alliance. Transitioning the Alliance to a new ROK-
led military command and control structure in 2012, with U.S. and U.N. 
forces in doctrinally supporting roles, will enhance relationships that 
best serve both nations' interests and are well suited for the long-
term. In the future, ROK Army ground forces will leverage quick 
reacting and readily available U.S. air and naval capabilities to 
counter initial North Korean provocations or aggression. Though 
transitioning to a doctrinally supporting military relationship, the 
Commander of the new KORCOM will still maintain uninterrupted national 
command over all U.S. forces.
ROK Defense Initiatives
    Since assuming peacetime OPCON of its armed forces in 1994, the ROK 
has made great strides in readiness through upgrading equipment and 
force training. Since 1998, the ROK Army has fielded 13 modern 
mechanized brigades including approximately 1000 K-1 tanks, South 
Korea's main battle tank similar to the U.S. M-1 Abrams. In addition, 
there are 11 field artillery battalions, two multiple launch rocket 
system battalions, and an extremely capable special operations force. 
The ROK Marine Corps is highly trained and in the midst of fielding a 
modern battle command and control system, and the Navy is emerging as a 
blue-water force, having commissioned its first amphibious assault ship 
in 2007, a vessel similar to a U.S. Navy Landing Helicopter Assault 
ship. In 2007, the ROK Navy also launched its first of three KDX-III 
class Aegis radar equipped destroyers. Finally, the ROK Air Force is 
modernizing with the acquisition of F-15K fighters and precision-guided 
munitions to enhance deep strike and core facility protection 
capabilities.
    Under its ambitious Defense Reform 2020 plan, the ROK military 
strives to be a more modern and agile fighting force. Its goal is to 
develop a self-reliant, technology-oriented, qualitative defense force. 
As a result of its emphasis on technology under this plan, the ROK 
plans to reduce its total (Active and Reserve) Army ground forces by 
approximately 45 percent over the next 12 years leading up to its 
target date of 2020. The overall active and Reserve Forces will be 
reduced from about 3.7 million to about 2 million. It is my assessment 
that the ROK military is well on its way to achieving a military force 
capability that as the ROK Ministry of National Defense puts it, ``sees 
farther, moves faster, and strikes more precisely.'' Nonetheless, as 
the CFC Commander responsible to both the Presidents of Korea and the 
United States for deterrence and for executing a warfight with North 
Korea, I do believe that planned drawdowns of the ROK Army should be 
executed commensurate with similar drawdowns by the North Korean Army.
Republic of Korea's Support to Global and Regional Security
    The ROK is a committed U.S. ally and active defender of freedom 
around the world having previously committed troops to Vietnam, 
Operation Desert Storm, Somalia, and East Timor. Reflecting its greater 
political, economic and military capacity, the ROK continues to 
demonstrate a larger international role with deployments into Iraq, 
Afghanistan, and most recently, a peacekeeping battalion to Lebanon 
supporting United Nations operations. In December 2007, the ROK's 
National Assembly approved a fourth, 1-year extension of its 
commitments in Iraq through 2008, although their force has been reduced 
by approximately 600 soldiers. In Afghanistan, the ROK's support 
included medical and engineer construction units and other military 
assistance worth millions of dollars. Though the ROK Government 
recently redeployed the majority of its troops from Afghanistan and 
will replace them with a small civilian-led medical team, I am 
confident that this redeployment will not lessen either the South 
Korean commitment to the U.S.-ROK Alliance, or its commitment to peace 
and stability around the world.
        ii. north korea challenges regional and global security
    North Korea remains the primary threat to security in Northeast 
Asia. Notwithstanding progress in the ongoing Six-Party Talks and the 
ongoing disablement of its Yongbyon nuclear reactor facility, North 
Korea's historical opposition to meaningful reform and its long-term 
pattern of provocative behavior and proliferation present significant 
challenges to achieving lasting regional and global stability. In 
addition to North Korea's nuclear threat, its missile program, coupled 
with its aging but still lethal and forward positioned conventional 
force, continues to present significant challenges.
North Korean Nuclear and Ballistic Missile Developments
    Progress in the Six-Party Talks notwithstanding, North Korea 
continues to use its nuclear program and suspected stockpile as both a 
deterrent and leverage in negotiations, as highlighted by the recent 
failure to meet the 31 December 2007 nuclear declaration deadline as 
agreed in the Six-Party Talks process. Currently, the intelligence 
community assesses that North Korea extracted plutonium at its Yongbyon 
nuclear facility and possesses weapons-grade plutonium sufficient for 
several nuclear devices.
    North Korea is also believed to have pursued a highly enriched 
uranium development program that if fully developed could provide an 
alternative method of nuclear weapons development independent of North 
Korea's plutonium production facility at Yongbyon. Regardless of the 
fact that the Yongbyon reactor was shut down in July 2007 with physical 
disablement beginning in November, the nuclear threat will remain until 
full implementation of North Korea's commitment under the September 
2005 Joint Statement to abandon all nuclear weapons and existing 
nuclear programs.
    North Korea views its ballistic missile program as a source of 
international power and prestige, a strategic deterrent, and a source 
of hard currency derived from exports. As a leading supplier of 
missile-related technologies with known export programs to Syria, Iran 
and other nations of concern, North Korea continues to build missiles 
of increasing range, lethality and accuracy, bolstering its current 
stockpile of 800 missiles for its defense and external sales. With its 
recent intercontinental missile test conducted in July 2006, and 
preparations underway to field a new intermediate range missile capable 
of striking Okinawa, Guam and Alaska, North Korea's missile development 
and export program present a threat which can not be ignored.
North Korean Armed Forces
    Despite chronic economic hardship, North Korea retains the fourth 
largest armed force in the world with 1.2 million Active Duty and 5 
million Reserves, devoting up to one third of its available resources 
to sustain its conventional and asymmetric military capabilities. 
Though aging and unsophisticated by U.S. standards, its military 
arsenal, which includes 1,700 aircraft, 800 naval vessels, and over 
13,000 artillery systems, still constitutes a substantial threat. 
Seventy percent of North Korea's ground forces are located within 90 
miles of the Demilitarized Zone, with up to 250 long range artillery 
systems capable of striking the Greater Seoul Metropolitan Area, a 
thriving urban area of over 20 million inhabitants. While I do not 
assess that its military is capable of sustained offensive maneuver 
that could successfully defeat the combined military power of the ROK 
and United States, North Korea still has the capacity to inflict major 
destruction and significant military and civilian casualties in South 
Korea, with little to no warning.
    Supplementing its conventional forces, North Korea also maintains 
the world's largest Special Operations Force (SOF), with over 80,000 in 
its ranks. Tough, well trained, and profoundly loyal, these forces are 
capable of conducting strategic reconnaissance and asymmetric attacks 
against a range of critical civilian and military targets. Among the 
best resourced in its military, North Korean special operations forces 
provide an asymmetric enabler to North Korea in crisis, provocation, or 
war. Given the dense South Korean civilian population which is heavily 
dependent on sophisticated infrastructure, fuels, utilities, and 
transportation, North Korean SOF poses a major threat to the Alliance's 
ability to effectively protect and defend South Korea.
North Korean Threat Outlook
    North Korea will remain a major destabilizing force in our efforts 
to maintain security in Northeast Asia and globally until we have 
achieved the complete implementation of the September 2005 Joint 
Statement of Principles. With little tolerance for economic reform, and 
an infrastructure, agricultural and industrial sector incapable of 
meeting the needs of its populace, North Korea's long-term approach to 
maintaining its ``military first'' policy will remain a major challenge 
for the north. My assessment is that while aware of the depths of its 
economic crisis and the dangers of its significant dependence on 
foreign aid to meet basic sustenance requirements, North Korea will 
continue to resist fundamental change, focusing its international 
engagement, strategic dialogue and military readiness to ensure its 
long-term survival.
       iii. ensuring peace and stability on the korean peninsula
    As Commander of CFC, UNC, and USFK, force readiness is my first 
priority. Readiness can only be maintained by training and executing 
all key tasks and responsibilities to standard in conditions 
approximating those expected to be encountered in wartime. We must 
ensure that our training facilities and training opportunities fully 
support the transformation of our U.S. military forces stationed in 
Korea. Since my last testimony to Congress in April 2007, measurable 
progress has been made in improving training range and airspace 
availability for our ground and air forces in Korea, but we must still 
make additional progress with our Korean ally to put ourselves in a 
position to achieve the highest levels of readiness. USFK still 
requires increased access to modern and instrumented air to ground 
bombing ranges in the ROK, with the requisite training schedule 
required to maintain readiness levels. The ROK military is working hard 
in coordination with civilian ministries to provide the required 
training ranges and airspace, and we appreciate their efforts. We look 
forward to continued progress in this area throughout the remaining 
fiscal year 2008 and into fiscal year 2009.
    Continued congressional support for force capability enhancements 
is also critical to readiness. USFK has continued to make meaningful 
progress in several key focus areas for modernization: joint command, 
control, communications, and computers (C4); intelligence, surveillance 
and reconnaissance (ISR); theater missile defense (TMD); prepositioned 
equipment and logistics; and counter-fire and precision munitions. I 
ask for your support and help to ensure our necessary upgrades and our 
transformational requirements are met evenly and predictably.
C4 and ISR
    Modernization of C4 and ISR capabilities is a top command priority, 
and crucial to transforming the U.S.-ROK Alliance. As we prepare to 
transition command of Korean forces in wartime to the ROK military in 
2012, combined intelligence interoperability will be paramount to 
establishing a seamless command and control capability, to maintain 
Alliance access to U.S. capabilities, and to leverage the increasing 
capabilities of the ROK intelligence community. Major C4 and ISR 
initiatives which are important include the integration of ROK 
intelligence systems through Project Morning Calm, the expansion of our 
combined intelligence networks, the establishment of an Intelligence 
Fusion Center, and support for U.S. National Multi-Intelligence Support 
Elements at the ROK defense intelligence centers.
    Congressional support is essential to sustain and improve C4 and 
ISR during this critical period of Alliance transformation. Validated 
U.S. requirements for Global Hawk, Predator, the Joint Surveillance and 
Target Attack Radar System, along with improved signals and human 
intelligence capabilities continue to exist. Support for our 
intelligence requirements ensures that we close the most critical gaps, 
support diligent ongoing daily operations, and improve the overall 
long-term intelligence posture in the region.
Theater Missile Defense
    North Korea's missile tests in 2006 highlighted the importance of 
an active theater missile defense system for South Korea. The ROK must 
field its own TMD system, capable of full integration with the U.S. 
system, in the near-term. It recently approved the purchase of eight 
Configuration-2 German Patriot fire units. When fielded in 2008 and 
2009, these firing units will possess a U.S. PAC-2 equivalent theater 
ballistic missile defensive capability. The regional missile threat 
from North Korea requires the ROK to develop its own missile defense to 
protect its critical civilian and military command capabilities, 
critical infrastructure and population centers. As of now, these Korean 
military and civilian facilities are highly vulnerable to North Korean 
missile attacks.
    PAC-3 Patriot Missile System upgrades and improved munitions have 
significantly enhanced our posture to protect critical United States 
facilities in Korea. There remains, however, a significant shortage of 
PAC-3 missiles currently positioned on the Peninsula to counter North 
Korea's missile inventory. Continued production of PAC-3 missiles in 
the near-term, followed by continued development of the Theater High 
Altitude Air Defense, Airborne Laser, and Aegis Ballistic Missile 
Defense will provide the layered missile defense capability we require 
for the future. Your continued support remains essential to these and 
other Service component programs that protect our forces on the 
peninsula, and sustain our ability to reinforce South Korea in the 
event of a crisis.
Theater Logistics, War Reserve Materiel and Strategic Transportation
    An integral aspect of USFK transformation is developing the 
necessary logistics structures and resources to enhance our ability to 
respond to contingencies. The proximity of the North Korean threat 
coupled with the long distances from U.S. sustainment bases in the 
Pacific and continental United States requires a robust and responsive 
logistics capability. The capability enhancements currently planned 
will significantly improve our core logistics functions through pre-
positioned equipment upgrades, responsive strategic transportation, and 
modern logistics tracking systems.
    Army Prepositioned Stocks (APS)-4, which includes critical 
equipment, weapon systems, preferred munitions, repair parts, and 
essential supplies, is vital for rapid combat power projection to the 
Korean theater. Critical combat systems are currently at 100 percent 
fill and the Heavy Brigade Combat Team (HBCT) equipment set is 97 
percent Fully Mission Capable. During the Reception, Staging, Onward 
Movement, and Integration exercise in 2007, Task Force Blackhorse, from 
the 11th Armored Cavalry Regiment at Fort Irwin, CA, drew selected APS-
4 HBCT combat vehicles and conducted a road march that culminated in a 
live-fire exercise. The task force certified the equipment as fully 
mission capable, remarking that the combat systems--Abrams tanks, 
Bradley infantry fighting vehicles, and Paladin self-propelled 
howitzers--were the best that they had seen.
    Clearly, the Army Materiel Command is making great strides in 
maintaining the prepositioned stocks in Korea. However, sustainment 
shortages still exist and can only be overcome through the commitment 
of additional funding while increasing the priority of fill for Army 
prepositioned stocks. For example, we have less than 5 percent of our 
full authorization of uparmored HMMWVs or trucks in our Army 
operational and prepositioned fleets. This is a significant shortfall 
and is a major risk.
    Responsive strategic transportation platforms, such as cargo 
aircraft and maritime prepositioning ships, remain essential to our 
ability to rapidly reinforce the Korean theater and sustain U.S. forces 
in the event of crisis. Our critical strategic airlift capability was 
recently tested in February 2008 during the FOAL EAGLE exercise. U.S. 
Air Force C-17 aircraft transported a combat-ready platoon of Army 
Stryker vehicles from Alaska to the Korean Peninsula, where the unit 
conducted gunnery and maneuver live-fire exercises. During the same 
exercise, a battalion from the 7th Marine Regiment conducted a Maritime 
Prepositioning Force offload of combat equipment at Chinhae, followed 
by a combined live-fire exercise with the 2nd ROK Marine Division. 
These types of strategic deployments will continue to be a part of 
future Foal Eagle exercises, and exemplify the command's requirement 
for expeditionary capability and responsive strategic lift.
    Equally important is the ability to maintain in-transit visibility 
of supplies and equipment with a modernized joint logistics C4 and 
information system. Past experience has shown that relatively small 
investments in asset tracking systems and theater distribution yield 
significant efficiencies and improve overall effectiveness of our 
logistics systems. Your continued support for modern pre-positioned 
equipment, responsive transit requirements, and logistics tracking 
systems will ensure that U.S. forces have the right equipment and 
supplies at the right time.
Precision Strike and Preferred Munitions
    Precision strike engagement capabilities are critical requirements 
for our contingency plans that allow us to change the dynamics of a 
conflict and rapidly achieve campaign objectives. Increasing the 
forward stocks of preferred munitions is also vital to operational 
success in the Korean theater. Our priority ordnance requirements 
include: the Guided Multiple Launch Rocket System with extended range 
capability; a ground-launched, extended range, all weather capability 
to defeat hardened and deeply buried targets; precision-guided 
munitions; and air-to-ground and air-to-air missiles. Your continued 
support to these programs provides the overmatching capabilities to 
deter aggression.
War Reserve Stocks Allies-Korea
    Legislation signed in December 2005 permits the U.S. to offer, for 
sale or concession, surplus ammunition and military equipment to the 
ROK. Negotiations for the War Reserve Stocks Allies-Korea (WRSA-K) 
program began in 2007. By successfully transferring these stocks to the 
ROK, the U.S. will avoid up to $1.2 billion in transportation and 
demilitarization costs, reduce its storage footprint, and increase ROK 
readiness.
                      iv. combined forces command
    The ROK and the United States established the CFC on November 7, 
1978, and it has proven to be the most advanced, capable, bilateral 
warfighting command in our Nation's history. Led by a U.S. four star 
commander, CFC has effectively deterred aggression and provided a 
peaceful and stable setting for the citizens of the ROK and the region 
for nearly 30 years.
    With the end of the Cold War and significant downturn in external 
conventional military support to the North Koreans, coupled with 
continued major enhancements to the ROK military, the ROK and United 
States have frequently discussed and negotiated changes to the 
Alliance's military command and control mechanisms. In fact since the 
Korean War and until 1994, a U.S. four star commander operationally 
controlled the ROK military in peacetime, as well as in potential 
wartime. On conclusion of negotiations in 1994, peacetime OPCON of the 
ROK military was transferred from the U.S. led CFC, to the ROK Joint 
Chiefs of Staff. Since 1994, the ROK and the United States have 
discussed and negotiated the next logical step in Alliance command 
arrangements, the full transfer of wartime OPCON of ROK military forces 
from the U.S. led CFC to a new ROK JFC. Final negotiations to set a 
date for this transition were agreed to in 2007, with a ROK military 
OPCON transition from CFC to the ROK JFC date set for 17 April 2012.
    To achieve realignment of responsibilities in the transition of 
wartime OPCON in 2012, the ROK and U.S. militaries completed a 
transition road map--the Strategic Transition Plan (STP)--signed in 
2007, identifying requirements and milestones for the next 5 years. 
Prior to the ROK assuming wartime OPCON of its own forces in 2012, U.S. 
and ROK planners will develop new terms of reference, crisis action 
standard operating procedures, wartime command and control procedures, 
and operational plans through formal alliance consultative processes, 
such as the bi-monthly Security Policy Initiative and the annual 
Security Consultative and Military Committee Meetings.
    This is all made possible by the enormously successful economic and 
military development of the ROK. Celebrating the 11th largest economy 
in the world, the ROK is a solid democratic nation, with a world-class, 
highly competent and professional military dedicated to the 
preservation of its republic and clearly poised, with U.S. continued 
support, to assume responsibility for wartime operational command of 
its forces.
    Through the OPCON transition path to April 2012 and as part of the 
STP, the Alliance has initiated two major simulation-driven exercises 
each year. Ulchi Freedom Guardian will focus on training and certifying 
the 2012 and beyond future command structure, and Key Resolve/Foal 
Eagle (KR/FE) will ensure CFC readiness until 2012, while visibly 
demonstrating the strength of the Alliance. We just completed our first 
KR/FE Exercise under this new paradigm, and I am extremely confident 
that CFC remains highly capable of deterring aggression, and should 
deterrence fail, defeating a North Korean attack quickly and 
decisively.
    Lessons learned from each exercise will help to eliminate 
shortfalls in combined capabilities in order to maintain a strong and 
credible deterrent during the transition period. The culmination of the 
STP will be marked with a certification exercise in March 2012, 
followed shortly thereafter by the disestablishment of CFC and the 
simultaneous establishment of separate and complementary U.S. and South 
Korean national military commands, with the U.S. in a doctrinally 
supporting role to the ROK warfighting JFC. Our intent is to achieve 
initial operational capability for the doctrinally supporting KORCOM 
and its Service components, followed by full operational capability 
prior to the final certification exercise in March 2012.
                       v. united nations command
    As the longest standing peace enforcement coalition in the history 
of the United Nations, the UNC represents the international community's 
enduring commitment to the security and stability of the Korean 
Peninsula. With 15 current member nations and the ROK, the UNC provides 
a unified and prompt international response mechanism to preserve the 
security of the ROK if there is a North Korean attack. Furthermore, the 
UNC actively supervises compliance with the terms of the 1953 Korean 
Armistice Agreement fulfilling the members' mutual pledge to ``fully 
and faithfully carry out the terms'' of the Armistice. With 
responsibility south of the Military Demarcation Line for the 
maintenance of the Armistice Agreement, the UNC meets with the Korean 
People's Army (KPA) representatives, inspects South Korean units 
positioned along the DMZ, and conducts investigations into alleged 
Armistice violations to prevent minor incidents from escalating into 
destabilizing crises.
    As we progress towards the transition of wartime OPCON in 2012, the 
UNC will continue to be a vital component of our deterrent and 
warfighting capabilities in the ROK. The ROK and the U.S. are 
addressing current disconnects in UNC authorities and responsibilities, 
which will become untenable with the transition of wartime OPCON to the 
ROK JFC in 2012. In the current arrangement, the UNC Commander, the 
U.S. Forces Korea four-star general, is ultimately responsible for 
Armistice maintenance, crisis management and resolving Armistice 
violations, even though he has no peacetime authority to posture or 
position ROK military forces in response to provocations or violations 
along the Demilitarized Zone. Today, these responsibility--authority 
mismatches are mitigated through the U.S. Commander's dual-hat as CFC 
commander. Once the transition of wartime OPCON is complete, the U.S. 
commander, and thus the UNC commander, will no longer have any chain of 
command access or direct authority over ROK forces--the very forces 
that are arrayed along the DMZ--in peacetime, crisis escalation, or 
war.
    In accordance with the STP, both countries are jointly studying 
future arrangements for Armistice maintenance responsibilities, as well 
as the enduring role and authorities of the UNC. It is our goal to 
transfer or delegate appropriate armistice authorities and 
responsibilities to the ROK, while ensuring that the UNC remains a 
critical component in deterring aggression and supporting combat 
operations should conflict erupt on the peninsula. Through the UNC we 
must also maintain the United Nations--Japan Status of Forces Agreement 
(SOFA), which provides throughput access to critical Japanese air and 
naval bases for U.S. and U.N. forces during crisis.
                     vi. united states forces korea
    Under the Yongsan Relocation Plan (YRP), signed by the U.S. and ROK 
in 2004, U.S. joint force elements operating in the Yongsan Garrison in 
Seoul will relocate to our MOB at Garrison Humphreys, near Pyongtaek, 
approximately 40 miles southwest of Seoul. The relocation of the Second 
Infantry Division is also part of a separate U.S.--ROK realignment 
plan, the Land Partnership Plan, which, when complete, will enable 
United States Army forces to assume a more efficient and less intrusive 
footprint within two sanctuary main operating base locations south of 
Seoul. It will remove our forces from the traditional military 
operational avenues between Seoul and the DMZ, thus putting U.S. forces 
in ground force and artillery sanctuary locations well south of the 
Nation's capital. Relocation will also significantly improve the 
quality of life of our servicemembers, while returning valuable land to 
the citizens of the ROK.
    For 4 of the past 5 years, the relocation of U.S. forces has 
frequently been contentious between the ROK and U.S. Governments. The 
central issue has been the application of the bilaterally negotiated 
SOFA procedures to return vacated U.S. base camps to the ROK. However, 
over the past year, the ROK Minister of National Defense has led an 
inspired effort which has largely resolved the disagreements and 
friction. We are confident that the new government will continue to 
negotiate in good faith with the United States regarding this most 
important issue.
    In 2007, we returned an additional five installations and expect to 
return two installations and seven other SOFA granted facilities in 
2008. To date, we have closed 37 installations encompassing over 17,208 
acres with a tax assessed value of over $500 million and returned 35 
installations to the ROK. Along with these camps and in accordance with 
our SOFA, we have transferred free of cost to the ROK the full range of 
buildings, capital assets, and improvements found on these camps, many 
built with U.S. appropriated military construction funds. It remains 
our goal to close a total of 63 facilities and areas--two thirds of all 
land granted under the SOFA, totaling more than 38,000 acres. Given the 
recently established cooperative effort as noted above, we are hopeful 
that this process will proceed smoothly to the mutual benefit of both 
nations in accordance with the U.S.-ROK SOFA.
    In exchange for the return of the majority of our dispersed camps, 
the ROK, per our agreements, has purchased 2,800 acres of land required 
to expand Garrison Humphreys and the Air Force's Osan Air Base.
Allied Burdensharing
    At the end of 2006, the ROK and the United States concluded talks 
on a new Special Measures Agreement (SMA) regarding ROK cost sharing 
support for USFK in 2007-2008. The resulting ROK SMA burden sharing 
contribution represented approximately 41 percent of U.S. Non-Personnel 
Stationing Costs (NPSC) over this 2-year period--725.5 billion won 
($770 million) for 2007 and a Consumer Price Index adjusted increase in 
2008 to 741.5 billion won ($787 million). This is an improvement from 
the 2006 SMA contribution of 680.4 billion won ($722 million) 
representing 38 percent of NPSC.
    Defense burdensharing is advantageous to both Alliance partners. 
For the United States, the ROK's willingness to equitably share 
appropriate defense costs is a clear indicator that United States 
forces in Korea are welcome and wanted. Host nation funded construction 
satisfies critical infrastructure requirements that would otherwise be 
borne by U.S. taxpayers. In the past year ROK SMA contributions funded 
the construction of an $8.5 million Vehicle Maintenance Facility at 
Camp Mujuk and an $8.3 million upgrade of 22 Hardened Aircraft Shelters 
at Osan Air Base. We also authorized the design and construction of a 
$36.6 million U.S. Army Air Defense Artillery Brigade headquarters 
facility at Osan Air Base, and began construction of a $41.8 million 
barracks complex for enlisted personnel at Kunsan Air Base. We are in 
the process of approving the construction of a $35 million humidity 
controlled warehouse to support APSs at U.S. Army Garrison Carroll and 
a $39.4 million joint senior noncommissioned officer dormitory at Osan 
Air Base.
    For the ROK, nearly all ROK SMA burdensharing funds are expended 
directly into the Korean economy by paying the salaries of Korean local 
national employees, Korean contractors and service agents, and Korean 
construction firms. In 2007 the ROK contributed 295.4 billion won ($314 
million) toward Korean local national employee wages, funding the 
majority of the cost of this absolutely necessary workforce on U.S. 
bases. ROK SMA contributions also offset 132.5 billion won ($141 
million) of U.S. logistics requirements last year, through contracts 
with Korean companies in critical warfighting functions such as 
equipment repair, maintenance, and munitions storage.
    In principle, both sides agree to the goal of reaching an equitable 
level of commitment to allied cost sharing. The U.S. Department of 
Defense believes that to achieve equitability, the ROK should share 
approximately 50 percent of NPSC. While this year's contribution did 
not meet DOD's goal, the ROK and the U.S. will continue to negotiate 
and coordinate in pursuit of reaching a more equitable sharing level of 
USFK stationing costs.
Upgrading and Building New Infrastructure
    Currently I assess our facilities overall in Korea to be the most 
dilapidated in the U.S. military, outside of active combat or peace 
enforcement zones. This regrettable situation is not in keeping with 
our stated commitment to the young men and women who selflessly serve 
our Nation. In Korea we need to commit to recapitalizing our facilities 
and infrastructure. As a reliable and trusted ally, we are committed to 
helping defend one of the most prosperous and advanced countries in the 
world, yet the facilities that we subject our servicemembers and their 
families to in Korea resemble something only a couple of years out of a 
combat zone.
    Year after year our servicemembers and their families are subjected 
to substandard and often decrepit facilities and housing here in Korea, 
8,000 miles from home. The war in Korea ended nearly 55 years ago and 
it is time to put our personnel into facilities and infrastructure they 
rightfully deserve as American citizens, military volunteers and 
patriots. ``Out of sight--out of mind'' is not an acceptable facilities 
and infrastructure strategy for our priceless young men and women, and 
their families. As a Nation, we simply cannot turn a blind eye to this 
decades long lack of capitalization and maintenance.
    Our facilities and infrastructure are old, particularly Army 
facilities where over one-third of the buildings in the command are 
between 25 and 50 years old and another one-third are classified as 
temporary structures. In 2007, our estimates are that the Eighth United 
States Army was underfunded by 26 percent ($28 million) in sustainment 
and 78 percent ($307 million) in restoration and modernization 
requirements. The Seventh Air Force was underfunded by 40 percent ($20 
million) in sustainment and 93 percent ($244 million) in restoration 
and modernization requirements. As a result of long-term annual 
shortfalls, many buildings have substantial deferred maintenance, 
contributing to continual deterioration. Without the investment to 
sustain, restore, and modernize our facilities, our Servicemembers and 
their families will continue to be perpetually relegated to live and 
work in run-down, dilapidated, patched-up facilities. Your commitment 
to our SRM Program requirements, supplemented by host nation financial 
burden sharing contributions, will allow us to begin to effectively 
pursue an infrastructure renewal program to enhance our readiness and 
upgrade the quality of life for our personnel and their families.
    In looking to the future, our realignment to two sanctuary MOBs in 
the ROK provides us with a unique opportunity to change the paradigm 
and begin to meet the needs of our servicemembers and families, 
allowing us to focus on improving living and working conditions. To 
this end, sustained access to several different funding programs will 
be essential, including United States military construction, host 
nation-funded SMA construction, and commercial build-to-lease programs. 
Using these different funding streams, we have recently constructed 
several modern unaccompanied housing quarters and barracks for our 
servicemembers. However, as time passes, the goal to achieve ``to 
standard'' facilities and infrastructure becomes more illusive. It is 
long since time to act.
Family Housing, Senior Occupant Housing and other Military Construction
    As part of the YRP signed by the U.S. and the ROK in 2004 to move 
the U.S. joint force footprint from Seoul to the new MOB at Garrison 
Humphreys south of Seoul, the ROK agreed to provide at their expense 
the majority of the required buildings and infrastructure at a cost of 
billions of dollars. The ROK is aggressively pursuing their agreed to 
requirements, already spending nearly $2 billion in pursuit of project 
goals. For our part, the United States agreed to provide the majority 
of required family housing and unaccompanied senior leader quarters for 
our force, at a cost we estimate to be between $1 and $2 billion. 
Although the number of family housing units required under the YRP is 
substantially less than what will be required for a future normalized 
stationing environment, should that be approved, meeting YRP family 
housing requirements provides a solid foundation for a normalized tour 
path over the next 10 to 15 years.
    To date, we have been unable to gain Congressional support to fund 
our family housing commitments to meet our obligations under the 2004 
YRP. The result of this situation is that the United States is 
telegraphing to our long time Korean Ally that we are not prepared to 
execute our commitments in the YRP. My assessment is that failure to 
execute our obligations under this plan will result in a crisis in the 
Alliance, and signal a clear lack of commitment to our national 
interests and to our ROK Ally in this most important area of the world. 
This will send a chilling message to the regional players, including 
Japan, China, and Russia.
    In the past year, I have emphasized the need for a solution to meet 
our family housing requirements under the YRP during congressional 
hearings, numerous office calls with members, and continuing 
correspondence in order to empower the Army to provide the necessary 
family housing and unaccompanied senior quarters at MOB Garrison 
Humphreys. After consultation and debate and in spite of our many, many 
pleas, we have not achieved consensus. Right now we are dead in the 
water.
    For fiscal year 2009, the Army is requesting $145 million in 
military construction funds. A portion of the requested funds--$20 
million--will be used to construct a much needed vehicle maintenance 
complex at MOB Garrison Humphreys. The majority of the funds--$125 
million--is requested to build the first 216 joint force family housing 
units at MOB Garrison Humphreys. While this is a necessary start, and 
your support for these family housing apartment towers is needed and 
greatly appreciated, our future stationing at MOB Garrison Humphreys 
requires more than 2,100 additional housing units. We would appreciate 
your support when the funding for these necessary units is requested.
    Without the support and funding to procure military housing, we 
will remain in Seoul, which is within range of North Korean artillery, 
while essentially refusing to relocate from land in Seoul which we have 
promised to return to our Korean Ally. We have absolutely no business 
continuing to garrison troops in our Ally's capital city, and it is in 
both our interests to execute the YRP on time and on schedule. Until we 
have appropriate housing constructed that meets DOD standards for our 
servicemembers just as we do in Europe and Japan, we cannot meet U.S. 
obligations agreed to under the YRP. Determining an immediate solution 
to our family housing requirements ensures the success of our historic 
endeavor with the ROK to both transform the current U.S.-ROK Alliance 
command structure, and relocate the footprint of U.S. forces to 
sanctuary locations in accordance with national and strategic policy 
level guidance. As the commander in the field, it is my most considered 
judgment that it is imperative that Congress support the President's 
Budget request, thus authorizing the initiation of requests for 
proposals and construction for the initial housing units. In this way, 
we can begin the process of taking care of our servicemembers and their 
families in a way that all Americans will endorse, while meeting our 
agreements with the ROK.
Normalizing Tours for United States Forces-Korea
    With the momentum of our relocation into two sanctuary MOBs south 
of Seoul and the transition of wartime OPCON to the ROK in 2012, the 
U.S. is uniquely positioned to execute a tour length policy change in 
Korea. Much like our agreements with our European and Japanese Allies, 
and at the invitation of our Korean Ally, it is my assessment that we 
should normalize U.S. servicemember tour lengths in Korea to fully 
authorize 3 year family accompanied tours.
    In 55 years, the ROK has transformed from a war ravaged country to 
one of the most modern, progressive, and democratic countries in the 
world. It is an economic powerhouse with modern world class medical 
centers and universities. Unfortunately, in a modern and vibrant ROK, 
the U.S. still rotates servicemembers on 1 year unaccompanied 
assignments as though this remained an active combat zone. It is not. 
Indeed, during the Cold War and in the face of the Soviet and Warsaw 
Pact war machine, our servicemembers were encouraged to bring their 
families with them to Europe. This created a stable military and sent a 
strong message of U.S. commitment and reliability to our European 
Allies. We resourced and practiced noncombatant evacuation procedures 
to ensure that in the event of crisis we could redeploy our family 
members to the United States. Today, our force in Korea is less than 10 
percent the size of our Cold War force in Europe.
    With long-term operations in Iraq and Afghanistan, we are 
needlessly contributing to family separations for the U.S. military 
with our current rotational practices here in Korea, while continuing 
to send a message to our Northeast Asian partners and allies that we 
either expect imminent conflict, or that we are not fully committed and 
can withdraw our forces on a moment's notice. Conflict is not imminent 
and with our force in sanctuary locations south of Seoul, our immediate 
no-notice vulnerability will be dramatically less than that faced by 
our force in the Cold War in Europe--again, a force where we welcomed 
family members. We should make a long-term commitment to South Korea 
and the other members of the Northeast Asia community by signaling that 
the United States has important national interests in the area and, at 
the invitation of the ROK, is committing to a policy of 3 year family 
accompanied tours in Korea, exactly as we have in Japan and across 
Europe. We could implement this policy with an infrastructure expansion 
plan over 10 to 15 years, with the costs being subjected to burden 
sharing negotiations between the ROK and the United States.
    The benefits of normalizing tours are many and include improved 
continuity, stability, readiness and retention of regional, 
institutional, and cultural knowledge. Also, the end-state will result 
in reduced entitlement costs and an overall savings as we decrease the 
number of permanent change of station (PCS) moves and lower the need 
for entitlements resulting from family separations.
    Currently, in addition to receiving a cost-of-living allowance that 
ensures equitable pay for our servicemembers who serve in Korea, the 
Army, Air Force, and the Navy offer their servicemembers Assignment 
Incentive Pay (AIP), a program that authorizes a monthly cash incentive 
for servicemembers who are willing to extend their tours in Korea. AIP 
has saved the Department of Defense millions upon millions of dollars 
in reduced PCS costs. So far, since the AIP program began in 2004, the 
Army and the Air Force have had over 19,000 soldiers and airmen 
volunteer for AIP. While AIP has been a major success, for our family 
unaccompanied servicemembers--over 80 percent of our authorized force 
in Korea--accepting AIP means longer separations from family back in 
the States. Rather than providing incentives to unaccompanied personnel 
to stay longer in Korea, it is my assessment that we should focus on 
enabling servicemembers to bring their families to Korea and establish 
a more family oriented environment. With 3 year tour normalization, we 
could end the AIP program.
    I have submitted a formal proposal to the Department of Defense 
recommending an endorsement to move to a normal 3-year accompanied tour 
policy in Korea, along with the opening of negotiations with the ROK 
regarding their assessment, and hopefully their support. It is under 
consideration. Endorsement of this proposal will provide our 
servicemembers a better quality of life, strengthen the U.S-ROK 
Alliance, and send a powerful message to the Nations of the area of 
America's long-term commitment to stability and security in Northeast 
Asia.
                    vii. an alliance for the future
    The U.S.-ROK Alliance is one of the greatest bilateral success 
stories in modern history with many chapters ahead. In 1950, the UNC 
was created to defend the ROK when it was attacked by North Korea. In 
1957, establishment of U.S. Forces-Korea provided the command structure 
necessary to support the Alliance. In 1978, the Alliance underwent a 
major evolutionary change when we created the CFC to provide a unified 
ROK and U.S. command structure. The Alliance evolved once again in 1994 
when peacetime OPCON of ROK forces was transferred to the ROK Joint 
Chiefs of Staff. With the transition of wartime OPCON to the ROK Joint 
Force Command in 2012, the United States and the ROK will enter a new 
era of cooperation, an era marked by a first-world ROK with military 
capabilities to match its stature. In a broader context, the Alliance 
will be key to maintaining and advancing U.S. national interests in 
this strategically vital region of the world. This is a natural 
evolution--one whose time has come both militarily and politically. We 
look forward to continuing this vital partnership--one that promotes 
freedom, democracy, and global free trade in Northeast Asia--throughout 
the 21st century and beyond.
    I am extremely proud of the soldiers, sailors, airmen, marines, and 
civilians serving in the ROK who selflessly support the Alliance, and 
because of their presence, ensure regional stability. Your continued 
support for our servicemembers and the U.S.-ROK Alliance is greatly 
appreciated. I know you will agree that our young men and women in 
uniform deserve the very best working, living, and training 
environment, and we should do everything feasible to provide it. Thank 
you.

    Chairman Levin. General, thank you so much.
    Admiral, let me start with a few questions for you. Let's 
have an 8-minute first round.
    What do you believe or assume the intent of the Chinese is 
in their increasing military capability?
    Admiral Keating. Mr. Chairman, I asked them that question 
many times during two visits. The answer that comes back is the 
same answer with a slightly different turn of phrase each time. 
The Chinese would say: We only look to protect that which we 
think is ours.
    They do not state any hegemonic intentions. They do not 
state any desire for expansion. They don't state any desire for 
a grab or to reach beyond their ability to protect those things 
that are theirs. That obviously includes an increased presence 
in the maritime domain. Their appetite for oil is significant 
and is growing. They can't keep up with their demand with their 
own coal. So the Strait of Malacca, the Indian Ocean, and the 
Bay of Bengal are of critical strategic importance to them just 
to supply their energy demands.
    When we counter with questions along the lines of 
development of area denial weapons, anti-satellite (ASAT) 
tests, and similar military technological advances, we don't 
get much back and forth here. The saw doesn't cut both ways. It 
goes to your request from us to them to understand intentions. 
The transparency that they profess is insufficient in my view. 
Being able to see what they have doesn't tell us what they 
intend to do with that equipment.
    So I think that they are developing a blue water 
capability. They want to develop weapons systems that will 
allow them, should they so choose, to make it harder for other 
military forces to operate within 1,000 to 2,000 kilometers of 
their borders. Also, they're obviously demonstrating a 
capability to exercise some control in space.
    It is overall I believe a desire to improve their position 
strategically in the world. They view themselves as a rising 
military power, and it is something that in our view merits 
close observation.
    Chairman Levin. You've had a number of visits now with 
China. You made reference to them. What is your relationship? 
How do you get along with your Chinese counterparts?
    Admiral Keating. Fair to good, Mr. Chairman. I have seen 
now some of these senior officers three times, twice in China 
and once at the Shangri-La Dialogue in Singapore. We're hardly 
let's-go-to-the-club-and-have-a-beer pals, but I know them 
enough to see them now. But it is such a different sort of 
friendship. I mentioned in a couple of calls yesterday 
afternoon that while visiting them in their offices in Beijing 
and Guanxio and Nanjing you notice a phone on their desk. Many 
of them have aides who have cell phones. So I would say to each 
and every one of them somewhere during our call: May I please 
have your phone number. I'd like to call you when I get back to 
Hawaii to thank you for your hospitality, and if something 
comes up in the South China Sea that maybe we can talk about 
and defuse tensions and spread some information around, I'd 
just like to call you. I can't get the phone number.
    So it is hardly like we're as close as I am with many 
military officers in Japan and in South Korea, much less the 
relationship that B.B. Bell and I enjoy. So, better friends 
than we were a year ago; a long way to go, and even then the 
breakdown of decades-old mistrust and custom is going to take a 
lot more effort.
    Chairman Levin. I take it you offered them your phone 
number?
    Admiral Keating. Yes, sir. I gave them our card and it has 
our phone number on it. They haven't called.
    Chairman Levin. On the Indian side, India with Pakistan, 
have you talked to the Indian military about their possibly 
developing confidence-building measures with their Pakistani 
counterparts?
    Admiral Keating. Yes, sir, we did. It goes back a couple of 
years. I had the pleasure of serving in Bahrain as the Naval 
Component Commander for CENTCOM, so we came at it from the 
Pakistan side, if you will. We had discussions then. That was 
in 2003, 2004.
    Now, in the Pacific we're on another side of it. We had 
discussions with senior Indian army and naval officers, 
including Admiral Mehta, and encouraged them and continue to 
encourage them to find ways to cooperate, albeit in a very 
small, measured approach right now, to increase their 
cooperation with Pakistan. It is a very important part of an 
overarching theater security cooperation plan to enhance 
stability in the region. I think it's very important.
    Chairman Levin. Now let me ask both of you about the 
readiness of our nondeployed forces and what effect that has on 
you. I believe, Admiral, you made reference to 30,000 of your 
forces being forward deployed and obviously that has an effect 
on your readiness to some extent. But what about the 
nondeployed forces that we have? To what extent are those 
problems affecting your capability? What are the risks that are 
entailed from your perspective when our nondeployed forces are 
not ready, which is the case today?
    Why don't I start with you, General, and make sure that we 
hear from you during my first round. Then, Admiral, we'll turn 
to you. General?
    General Bell. Thank you, Mr. Chairman. I'm very pleased 
with the forces that are ashore and Korea's readiness. We put 
enormous energy into that, the commands have, and the Services 
have supported us.
    Our principal capability ashore is Army and Air Force. Air 
Force gives us the ability to assure deterrence because it's 
ready to fight tonight and respond to some kind of provocation. 
I'll just tell you, we completed an exercise 3 days ago called 
Key Resolve-Foal Eagle. Quite frankly, as the cards just played 
out we had a large number of forces involved. Certainly all of 
our on-peninsula forces were involved. I got around to see all 
of them, plus deploying forces that came to Korea, and I was 
very impressed.
    Our Second Infantry Division, which has one maneuver 
brigade and then some enabling brigades like an artillery 
brigade, fires brigade we call it now, military intelligence, 
et cetera, is doing very, very well and is fully resourced.
    I will tell you they don't have all the equipment that we 
see we need in Iraq, which I would want. For example, they do 
not have all uparmored wheeled vehicles yet and given the 
experience that we've had in Afghanistan and Iraq, and knowing 
the special operating force capability of North Korea, I want 
all of my wheeled vehicles to be uparmored on the peninsula, 
and that has not taken place yet.
    So I would say the readiness of our forces, certainly the 
Army and the Air Force, is very good, particularly against the 
criteria, if you will, pre-war. Some of the things I've seen in 
Iraq and Afghanistan I would like to bring to Korea and that 
has not happened yet.
    Last point if I might. Our Army Prepositioned Stock (APS) 
that is ashore there, APS-4 it's called, is in extremely good 
shape and is ready to fight, and we've drawn it and used it and 
it has a very good record. So I'm satisfied.
    Chairman Levin. Admiral, let me focus in on the contingency 
plans that you have if you needed to bring forward nondeployed 
forces and the problem we have with the readiness of the 
nondeployed forces. It's a different situation, I think, than 
General Bell has described. What concerns do you have about the 
challenges that are faced by our nondeployed forces and how 
does it affect your current contingency plans, which require 
and assume that those nondeployed forces be ready?
    Admiral Keating. We address those contingency plans and 
assess them daily in our headquarters and I report back on a 
monthly basis to the Secretary of Defense on our readiness to 
execute those plans. I have not yet had to submit to the 
Secretary anything other than, ``We can execute the plans as 
they are on the shelf.'' Now, that said, with a larger 
proportion of land forces out of our AOR, we have shifted some 
of our focus and some of our planning to the naval and air 
forces that we would use in the early stages of those 
contingency plans. There is increased risk attendant thereto 
and I have reported that to the Secretary of Defense. It is not 
unmanageable. It is not a cause of great concern for us, and I 
would back that up or move that timeline left a little bit from 
the execution of the contingency plan. An area of some concern 
to us is intelligence, surveillance, and reconnaissance (ISR). 
Because assets are forward-deployed and for other reasons I'm 
sure of which the committee is aware, we don't have quite the 
visibility into the regions we would watch carefully in the 
weeks and days leading up to a potential conflict.
    So it's ISR assets and capabilities that are of increasing 
concern to us.
    Chairman Levin. Thank you both.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    First, Mr. Chairman, we note that General Bell will be 
stepping down, and I'd like to comment that I have vivid 
memories of earlier appearances in this hearing room when we 
assessed the challenges that faced you in the first years of 
your distinguished service there. I recall very well that in 
the Army we were experiencing, particularly among younger 
officers, that they would rather leave the Army than face 
another tour in Korea, given the harshness of the weather and 
oftentimes the families couldn't accompany them.
    But you turned that around, and I had a nice visit this 
week with your successor, General Sharp, and he gave you full 
credit for that. How'd you do it?
    General Bell. Senator, thank you for the compliment. I 
don't know that I deserve that much. I think we've seen a turn-
around in attitude about serving in Korea, I think principally 
because it is a vital national interest area for America. I've 
tried to craft with the servicemembers there how important 
their service is, and I think they realize that.
    Part of it is just attitude about why we are there today. 
We are there to deter, let there be no doubt about it. That's 
our principal mission, to deter North Korean aggression. But 
also I think the mission goes much broader than that. As Tim 
Keating has said, the U.S. engagement in that area of the 
world, given the situation that we see developing in East Asia, 
is vital. I think that we've been able to instill in our young 
servicemembers a sense of duty about the future of the United 
States. This is a vital place for us; 25 percent of our trade 
flows through that area and 25 percent of the world's gross 
domestic product is generated in that area.
    Senator Warner. I think you've answered the question, but 
you did a lot to make that happen.
    General Bell. Thank you.
    Senator Warner. I remember some declined to take on their 
first major command as maybe a battalion commander, rather than 
go there.
    General Bell. Those were different days.
    Senator Warner. Tough times.
    You said that 2012 would be the shift of the responsibility 
in the command structure.
    General Bell. Yes, Senator.
    Senator Warner. Run a quick mathematics. I was scribbling 
it down. The war started in 1950. This is 2008. That's 58 
years. You're saying it's going to take another 4 for them to 
come to the realization that they're going to step up and take 
a greater degree of responsibility for the defense of that 
peninsula. That's in the face of South Korea today which is, I 
believe, the 11th strongest economy in the world.
    General Bell. Yes, sir.
    Senator Warner. Now, maybe they've been spending a little 
too much time on building up the economy and not enough on the 
military. Is that 2012 locked in place? There was a target of 
2009.
    General Bell. Yes, sir.
    Senator Warner. What happened to that?
    General Bell. Senator, I was a proponent of 2009. I thought 
in 2006 that we could effectively do this over a 3-year period 
of transition, both in terms of training and assisting our 
allies to execute high-level battle command. Their formations 
are very competent. They're very good. It's an impressive 
military, one of the best in the world. But at high-level 
battle command, they've allowed the United States, and we've 
certainly pursued that, to have the theater command structure 
apparatus.
    It takes quite a bit to train high-level battle staffs to 
function. So I said 2009.
    Senator Warner. General, 3 or 2 years is a long time to 
train some senior officers to take over the command. I must 
express a degree of indignation and disappointment, and I don't 
know that it quite rests on your shoulders. It rests on 
basically the South Korean government's shoulders to take it 
over. I think it would be a matter of a sense of pride for them 
to do it.
    After all, we're relocating a number of our forces down the 
peninsula, away from the demilitarized zone, to add somewhat of 
an element of security and for other reasons. I can't 
understand why they don't step up and accept the challenge.
    General Bell. Senator, I will tell you that the Secretary 
of Defense of the United States and the Minister of National 
Defense of South Korea agreed last year that 2012 would be 
satisfactory to both of them. I have a very good timeline 
worked out now with the South Korean military.
    Senator Warner. I've made my point, you've made yours, and 
you did your best.
    Admiral, I picked up on your colloquy with the chairman 
here. I'm concerned about the lack of transparency with the 
Chinese. You would think that they might take an element of 
pride on growing as they have with their military 
professionalism and the size of their forces. I think in 
response to the chairman's question, while you didn't say it 
directly, you inferred that the current size of the force 
structure that they now have and, as a matter of fact, I think 
they increased their defense budget this year, am I not 
correct?
    Admiral Keating. Yes, sir.
    Senator Warner. That force structure goes well beyond the 
size of force structure that might be needed just to, as you 
say, protect that which is ours. Do you not agree with that?
    Admiral Keating. I do agree, Senator.
    Senator Warner. Now, your predecessors, again having had 
the privilege of being in this chair for a number of years, 
made efforts, I recall distinctly, of urging that we do an 
incident-at-sea (INCSEA) type of agreement that we successfully 
had with the Soviet Union in the height of the Cold War. The 
tensions between our Nation and then the Soviet Union and the 
European nations, we pushed that aside and realized the 
military necessity for rapid communications between the Soviet 
Union, the United States, and other North Atlantic Treaty 
Organization (NATO) nations, and it was done.
    I remember very well, Mr. Chairman, you and I together with 
Senator Nunn worked on the hot line to the Soviet Union, 
whereby we literally had a phone on the NATO commander's desk 
and back here in the Pentagon with a direct line into the 
senior elements of the military of the Soviet Union.
    Have you explored the possibility of a hot line? These 
people have to remove themselves from the dark ages if they 
want to be respected, I think, by other military powers.
    Admiral Keating. Yes, sir. The Secretary of Defense has 
just concluded technical discussions with counterparts in the 
People's Republic of China. A hot line will likely be in place 
and functional I'll say within 2 months.
    Senator Warner. That's encouraging news.
    Admiral Keating. Yes, sir, it is. It's not the end-all, as 
you'd expect, but it's a step.
    Senator Warner. But it's a step forward.
    Admiral Keating. On the INCSEA agreement, we took your 
advice and we have engaged with the People's Liberation Army-
Navy. As recently as 4 or 5 days ago, within the past week, our 
J-5, General Conan, has been in Shanghai with his counterparts 
for the Marine Consultative Agreement discussions. Not very 
productive and a lot of political back and forth, not much 
hard-core military yes and no, but it's a step in the direction 
that you recommend for us. We cite as an example that we got it 
done with the Russians in times of increased tension.
    So we have that underway. It is going to take a while, but 
that is our goal, to have something very similar to the INCSEA 
agreement.
    Senator Warner. I take that as at least some progress. But 
it's in the mutual interest of the United States and China, and 
indeed other nations in that area, to have it, because 
sometimes mistakes are made at a flashpoint and they should 
avoid that mistake. I'm not suggesting the mistake is on their 
side. It could well be on the side of another military power. 
But instant communications to determine the nature of the 
problem and the corrective measures that should be taken can 
save lives.
    Admiral Keating. I couldn't agree more.
    Senator Warner. I listened carefully. I said a few things 
about Taiwan and their relationship, but that always concerns 
me. We have the Taiwan Relations Act in this country and I'm 
concerned that Taiwan thinks that's a 911: Dialing the United 
States, come rescue us.
    What is the current status of that situation now, the 
degree of tension, the degree of armaments that each are 
building up, and in your professional judgment the likelihood 
that anything could happen by way of an outbreak of the use of 
force?
    Admiral Keating. I think it very unlikely, Senator, that 
anything will happen across the strait. It is our overarching 
concern when discussing with Taiwan or China, we want to 
maintain stability in the region, across the strait in 
particular. There has been significant military buildup by the 
People's Republic of China on their side of the strait. The 
Taiwan officials certainly notice that. We caution both sides 
against untoward military activity.
    The Taiwan election is on March 22. The two leading 
candidates both advocate a more moderate, less bellicose 
approach in Taiwan's dealings with the People's Republic of 
China. So we're cautiously optimistic that a little bit of the 
steam will leave the kettle after March 22.
    We do then have that period of transition between election 
and inauguration, which is in late May. So there will be a 
period of a couple of months where we'll continue to watch very 
carefully cross-strait tensions. I think it very unlikely that 
any hostilities will break out.
    Senator Warner. Thank you.
    Mr. Chairman, my time is up.
    Chairman Levin. Thank you, Senator Warner.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Admiral, General, welcome. Admiral, I'd like to follow up a 
little bit on the line of questioning that the chairman began 
and that Senator Warner picked up on with respect to 
understanding how China is asserting its pressure in the region 
irrespective of whether there is predictable actual kinetic 
hostilities against Taiwan. You're right to say that it's 
difficult to speculate about intentions and that we should look 
at capabilities. But I think we can also look at decipherable 
actions in order to try to examine exactly what this set of 
increasing pressures might mean.
    I'm thinking specifically of three different areas in the 
immediate region around China and the South China Sea. One is 
the Paracel Islands, which China and Vietnam both claim. China 
years ago put an air strip on the Paracels at the same time 
that it was articulating a more offensive military posture in 
the way it was structuring its military, downsizing a lot of 
the army units, and upgrading its technology.
    The second is the Spratlys, which I think five countries 
claim at least pieces of, including China, Vietnam, Malaysia, 
Brunei, and the Philippines. China several years ago had 
actually erected a structure that could be interpreted as a 
military structure on the Spratlys.
    Then the Senkaku Islands between Taiwan and the Ryukyus 
Islands, where there was some naval activity a year or so ago 
that the Japanese were pretty engaged about and I think 
actually had sent in some of their own destroyer squadrons. I 
don't remember the exact details of it, but Japan does claim 
the Senkakus. China has never accepted that the Ryukyus are 
actually a part of Japan. They've been active in the Ryukyus, 
which include Okinawa, since the late 1960s.
    If we take a look at these three data points as they give 
us some indication of how China has been expanding its 
activity, what do you make of it?
    Admiral Keating. If I could, a very brief anecdote, 
Senator. While in discussions with a senior Chinese naval 
officer on our first visit, he with a straight face, so 
apparently seriously, proposed the following deal to me. He 
said: As we develop our aircraft carriers, an interesting note 
to begin with, why don't we reach an agreement, you and I. You 
take Hawaii east, we'll take Hawaii west, we'll share 
information, and we'll save you all the trouble of deploying 
your naval forces west of Hawaii.
    Even if in jest, it indicates some consideration of the 
strategic vision that the People's Liberation Army, Navy, and 
Air Force might have. While not necessarily hegemonic, they 
clearly want to expand their areas of influence and those 
strategic goals of theirs, while not necessarily counter to 
ours, are at least of concern to us.
    So it is for that reason and many others that we stress our 
forward engagement, that we stress the readiness of those 
forces that we have who can move around those parts of the 
world, engage in exercises with smaller countries on a 
multilateral basis, so as to be the offset for the Chinese 
presence in the area and this increased pressure applied by 
Chinese checkbook diplomacy.
    So we're watching very carefully. We are actively engaged 
in activities that we think serve as an effective foil to this 
increased Chinese presence and pressure.
    Senator Webb. Thank you for that. I would suggest that is 
every bit as much an indicator, not simply of military 
strategy, but it's of a piece when you look at a nation's grand 
strategy, the way that the Chinese have been increasing their 
pressure in a lot of countries in that region.
    There was a piece in The Economist magazine just a couple 
of weeks ago saying that Burma, now calling itself some other 
name, but still it's Burma, may be moving toward the Chinese 
currency as their national currency. When I was in that country 
in 2001, I think you and I have had a discussion about this 
previously, that you went an hour outside of Yangon, there was 
a huge port facility that had been built by the Chinese, which 
if you follow the strategic logic of it could result in oil 
pipelines and other pipelines moving through Myanmar or 
whatever they want to call themselves now, up to the southern 
part of China, so that the Straits of Malacca, the Straits of 
Longbok, and these other places, would be less strategically 
vulnerable to them than they are to us.
    Have you been following those developments at all?
    Admiral Keating. Yes, sir, we have. The Chinese expansion, 
as you say, is not just straight military, with destroyers and 
potential aircraft carriers. They are working all throughout 
Oceania, the area that is Australia's front porch, if you will, 
on through the Indian Ocean and all the way to the coast into 
internal Africa, to develop these ports of call so as to 
provide, it would seem, some sort of foothold in the area, not 
just a military port presence, so as to be able to protect that 
which is theirs and to ensure access to those maritime domains.
    So the answer to your question is yes, sir, we are watching 
that, and not necessarily attempting to counter it, but just to 
serve as a balance on a military basis at PACOM headquarters to 
those countries who are subjected to the Chinese pressure.
    Senator Webb. Thank you.
    General, my time is about to run out, but I am curious as 
to the level, if any, of exchange programs, military-to-
military programs, with the North Koreans that might allow the 
future leaders of North Korea to see what the rest of the world 
looks like. This was done with very good success in Vietnam as 
we began the normalization process there.
    General Bell. Senator, it's pretty sparse. We do have 
weekly contact and, frankly, we can have it any time we want 
with the North Korean People's Army at Pammunjon. It's at the 
colonel level, in other words not the brigadier general or 
higher level, unfortunately. But we do have contact, and we do 
talk about a range of issues.
    That doesn't seem to go very far, however. I believe the 
North Koreans treat it as a bureaucratic process more than an 
opportunity for advancement. Over the years the North Koreans 
have rejected any number of opportunities. They run the Neutral 
Nations Supervisory Commission out of North Korea. We still 
have them with us, and that was a great opportunity for 
dialogue. Certainly the high-level meetings we had at Pammunjon 
for years at the general officer level produced some merit. 
They don't allow that now.
    So frankly, other than those meetings that we have at 
Pammunjon about once a week at the colonel level, our contact 
with the North Korean military is nonexistent, and I regret 
that. I do agree with you, sir, that that is something that 
down the road we need to find a way at the right diplomatic 
levels to re-engage somehow and to convince them that re-
engagement is in their interest.
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Admiral, thank you for your service to our country 
and thank you for being with us today.
    Admiral, there's a lot of discussion around here about the 
next generation bomber, which is scheduled to be fielded in 
2018. I'm just wondering if you might comment on the importance 
of long-range strike as a deterrent capability in your 
command's area of operations.
    Admiral Keating. It's a critical element of our operational 
planning and conceptual planning, Senator. We're very 
interested in the Air Force program. The particular platform is 
of less consequence to us. The capability is, of course, where 
our focus remains. So the short answer to your question, we're 
very interested in that long-range penetration capability and 
it is an important element of our planning.
    Senator Thune. Admiral, the Chinese have recently undergone 
an incredible leap forward in terms of their air defense 
capability by fielding a lot of systems such as the SA-10, SA-
20, SAN-20, SAN-7, HQ-9, and HHQ-9. What are the capabilities 
and survivability of our legacy fighter and bomber forces 
versus these advanced surface-to-air missile systems, and are 
you concerned about these and other Chinese anti-access 
technologies?
    Admiral Keating. Senator, we are concerned about the 
Chinese surface-to-air capabilities. It is a source of 
discussion between those of us at PACOM and our counterparts 
when we visit China and on those rare occasions when they come 
visit us. We have state-of-the-art equipment that we can deploy 
if we need to. That said, we also are flying some airplanes 
that I flew when I was still doing that sort of thing as a 
younger man.
    The electronic countermeasures we enjoy are in most cases 
sufficient, and in some cases insufficient. So, at large, we 
are concerned with the Chinese electronic warfare developments 
and it has been a topic that I've discussed with the Joint 
Chiefs within the past couple months expressing our concern.
    Senator Thune. Thanks.
    Admiral, let me just ask a question too if I might 
regarding some of China's claims that there's no threat to U.S. 
interests. But on the other hand, there has been this issue 
with cyber intrusions that originate in China and attempt to 
gain access to various U.S. institutions that deal with 
national security, ranging from the Pentagon to think tanks.
    What's your opinion of the message that China is attempting 
to deliver, at least publicly, and how that conflicts with some 
of the things they're doing, and have you communicated with the 
Chinese military leadership about these intrusions, and what's 
their reply when you ask them?
    Admiral Keating. We have communicated our concerns, 
Senator. We asked them to try and describe for us their 
intentions in the warfare specialty they call 
informationization. They study it in their war colleges. They 
have books on informationization. It's a concept a little 
foreign to us, but fundamentally it comes down to asymmetric 
warfare, computer network attack, and computer network defense.
    They acknowledge that they are pursuing these specialties 
and subspecialties, but they do not acknowledge, at least to 
me, their engagement in those activities. It is clear they are 
engaging in those activities. We have expressed our concern. I 
know that the State Department, the Department of Homeland 
Security, and Department of Defense (DOD) have efforts to 
provide better protection for our networks and to be able to 
determine conclusively who it is conducting the penetration.
    Senator Thune. General, as the ranking member on the 
Readiness Subcommittee I'm interested in the preparedness of 
U.S. forces on the Korean peninsula. How would you rate the 
preparedness of your units and are there enough exercise venues 
and events to effectively train on the peninsula, or do you see 
a necessity to deploy forces more for training events?
    General Bell. Senator, last year I was getting nervous 
about this, but I have to tell you, over the last year I've 
seen a lot of emphasis placed from off the peninsula to 
ensuring my readiness on the peninsula is where it ought to be. 
We've just concluded a major exercise, both a command post 
exercise that's driven by simulation, and real field exercises, 
land, sea, and air, and all those were done in a very, very 
professional way, a very pleasing way to me, and reiterated for 
me, I think, the capacity that we've achieved in the last year.
    Our Air Forces ashore are ready. We've gotten upgrades to 
our F-16 fleet that are very impressive. Our Army forces ashore 
are very ready. However, they do not have all the equipment 
that I wish they had, given our lessons in Iraq, for example 
uparmored wheeled vehicles. If you walked amongst the Second 
Infantry Division right now, you'd see a very ready division 
without uparmored vehicles. So that piece, given what we've 
seen in Iraq and that vulnerability, does concern me, and we're 
working with the Army to get in line to make sure that we get 
this equipment over to Korea quickly.
    But I'm pleased with our readiness ashore and I would put 
it at a high level right now. It's very good.
    Senator Thune. Let me ask both of you. I'd like to explore 
the North Korean ballistic missile threat. Where do you see the 
biggest gap in defense against that threat and how do you 
propose that we solve it?
    General Bell. North Korea has a range of ballistic 
missiles, obviously. They cross all the spectrum of missile 
capability from relatively short-range missiles, which they've 
just begun to field a modern version of. It's called the KN-02 
missile, solid fuel, very mobile, and something like our 
Multiple Launch Rocket System or our Army Tactical Missile 
System (ATACMS), pretty sophisticated; all the way up through 
their traditional Scuds, which are liquid fuel but very 
reliable. Every time they test them they work. They land where 
they're supposed to go.
    They have the No-dong missile, which is a medium-range 
ballistic missile. The Musadon they have in research and 
development (R&D), which is an intermediate range ballistic 
missile which could threaten Guam and certainly threatens all 
of Japan, all the way out to their hard work on an 
intercontinental ballistic missile (ICBM) called the Taepodong-
2, which failed in its last flight test.
    So they have the whole range and we have to protect against 
all those ranges. Ashore in Korea I have today eight Patriot 
batteries. That is adequate to protect my U.S. force. Our 
Republic of Korea ally does not have adequate theater ballistic 
missile defenses on their peninsula. They recognize this as a 
shortcoming. They are now purchasing Patriot systems, believe 
it or not, from Germany and they're fielding Aegis cruisers 
that could have an air defense capability as well.
    My biggest concern is not theater ballistic missiles coming 
at South Korea. I think we are adequately prepared for that. 
It's the off-peninsula missile capability that they are 
developing and have to either threaten Japan, Guam, Hawaii, or 
even the continental United States that is the biggest issue 
for us to address right now.
    I will hand that off to Admiral Keating because he is more 
aware of and into the layered defense that we have to defend 
against that threat.
    Senator Thune. Admiral?
    Admiral Keating. The lower 48 States and Alaska and Hawaii 
can be well defended against ICBMs from North Korea with our 
ground-based mid-course interceptors and increasingly by our 
sea-based ballistic missile defensive capabilities. I am more 
concerned about helping our allies protect themselves. Senator, 
the Japanese just conducted a successful test of one of their 
Aegis ships. The Japanese ship Congo launched an SM-3 missile 
and intercepted a target ICBM over the Pacific Missile Range 
Facility and successfully destroyed that target ICBM.
    So Japan is developing the capability themselves, but there 
are other countries, of course, that do not have any capability 
throughout our AOR. Helping our allies protect themselves is a 
source of some concern to us. I am satisfied that we continue 
the development of the integrated system to which B.B. alludes. 
It is important for the 48 States, Alaska, and Hawaii, and 
we're working with our allies for their own self-protection.
    Senator Thune. Thank you, gentlemen, very much for your 
service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman, and thank 
you, gentlemen, for joining us today.
    General Bell, I want to thank and commend you for your 
extraordinary service to the Army and the Nation. You have 
inspired great confidence in many, and good luck as you move 
forward, and thank you.
    Admiral Keating, you say in your written statement that 
anti-submarine warfare is a top priority of U.S. Pacific Fleet 
and that PACOM requires pervasive and persistent surveillance 
to understand the adversary's plans, et cetera. Do you have a 
sufficient number of submarines in your AOR to do that?
    Admiral Keating. I do today, yes, sir.
    Senator Reed. Looking forward in terms of your longer-term 
and medium-term?
    Admiral Keating. Through the mid-term, through the Future 
Years Defense Program, Senator, 5 to 10 years, we have 
sufficient numbers of U.S. attack submarines.
    Senator Reed. I don't want to put words in your mouth, but 
you probably have missions that you would like to run but you 
can't at the moment, that you have excess demand?
    Admiral Keating. That would be true, sir.
    Senator Reed. General Bell, you are recommending, I 
believe, departing from the 1-year tour in Korea and going to a 
3-year stabilized tour with family. Can you talk to that 
recommendation, and also the impact on your plans on the 
constant draw of troops into Iraq and Afghanistan, and just 
generally the whole flow of troops back and forth?
    General Bell. Senator, I'm an advocate of what I call troop 
normalization. I am convinced, after serving over there for 
over 2 years, that the 1-year unaccompanied tours that we 
pursued over there sends a message of temporary commitment by 
the United States. Just 1 year in and we can be out. I believe 
that a 3-year tour would send the right message of commitment 
of the United States to that area of the world, first. Second, 
it adds measurably to the personnel tempo of our military 
Services right now, unnecessarily in my view.
    I admit that I've advocated a 10-year transition period to 
a normalization policy over there because there are a lot of 
issues to be dealt with. You just can't one afternoon say, 
bring another 15,000 U.S. families over there. But over time 
and with the help of our ally, who I believe would help us 
resource part of this, I believe that it's best for our 
families and it's best for our readiness. If I had a 
servicemember over there for 3 years, he or she would be very 
ready, as opposed to just being there 1 year.
    I think it sends the right message to our allies of a 
commitment to that area of the world, which is of vital 
interest to the United States of America.
    Now, there are a lot of details to be worked out here and I 
have not yet gotten the policy decision out of the DOD yet, and 
I certainly haven't even had a formal request from my Korean 
ally yet. But I believe those may be forthcoming, and then with 
that in hand we could lay out a program to achieve this.
    I do believe it's necessary for the United States to send 
the message to all of our friends in that area of the world 
that that area of the world is important to us and that if the 
North Korean issue is resolved, through whatever methodology, 
peace treaty, reunification, or otherwise, that does not mean 
the end of U.S. commitment and we're not going to just take our 
troops and go home. As long as we're welcome and wanted by the 
Republic of Korea and they desire our alliance to continue, I 
believe it's in our interest, and the best way to demonstrate 
that is through normalization.
    Senator Reed. Thank you, sir.
    The Second Infantry Division, at this juncture, and correct 
me, but my impression is they have one brigade in Korea and two 
plus brigades in Iraq or Afghanistan or in combination. Is that 
correct?
    General Bell. Yes, sir. We have one brigade that is 
permanently stationed in Korea with the division headquarters. 
The other brigades are permanently stationed in the United 
States and there is no desire to bring them forward unless, of 
course, we had a conflict break out. In addition to the one 
maneuver brigade, we have other important brigades there in the 
Second Infantry Division, an aviation brigade with attack 
helicopters, a fires brigade, artillery, military intelligence, 
engineers, et cetera. It's still a pretty good-sized division, 
but it only has that one maneuver brigade. I deem it essential 
to force protection, quick reaction force capability, and, 
believe it or not, if I had to do a noncombatant evacuation 
operation. There are 100,000 U.S. citizens that live in Seoul 
pursuing American business. I would need those maneuver troops 
to help run an evacuation.
    So we're at about the lowest level I'm interested in 
getting to on Army troops right now, Senator.
    Senator Reed. That brigade has so far been immune to 
deployment as a brigade into Iraq and Afghanistan?
    General Bell. It has. We had two maneuver brigades there 
until 2 years ago. One of them was withdrawn, went to Iraq, and 
it's now stationed at Fort Carson, CO. This brigade is not on 
the deployment list.
    Senator Reed. But are you seeing some personnel turmoil? 
Not brigade units and battalions, but individuals moving in and 
out of the division because of Army-wide demands? Is that 
affecting your readiness at all?
    General Bell. The Army does a good job of keeping up with 
the 1-year rotations. What I think is due to the fallout from 
the current commitment to Iraq and Afghanistan it's very normal 
for me to get a servicemember, a soldier mostly because it does 
affect the Army more perhaps than it does the Air Force, but 
it's not unusual for a soldier to show up, a young specialist, 
a staff sergeant, or a master sergeant, having just returned 
from Iraq 5 or 6 months ago. Here they are with another set of 
orders for a short tour in Korea and continued family 
separation.
    That's fairly common now, and of course I would like to end 
that practice by a normalization tour. So the issue is that 
they are not getting much time at home before they're ordered 
on forward to Korea, having come out of Iraq. The same thing 
happens when they're going back, Senator. They'll leave Korea 
after a year, end up in a unit, and then off they are to Iraq 
or Afghanistan, perhaps fairly quickly.
    Senator Reed. I have read in news accounts of incidents of 
depression with troops based on service in combat, in Iraq and 
Afghanistan, that are being medicated with Prozac still in 
combat areas. Are you detecting that in terms of your soldiers 
and airmen who are coming back through Korea?
    General Bell. I'm really not seeing that in Korea. I think 
this is an issue for our military. I'm not trying to minimize 
it. But I can tell you that, having been in this business now 
39 years, this Army that we have remains an Army of great 
morale, great commitment, brotherhood, and sisterhood. It's 
very special. It is different than some of the issues that we 
had during other wars, Vietnam, et cetera. I can tell you in 
Korea these troops are high-spirited, they're committed, 
they're dedicated, and I'm very proud of them and I do not see 
a degradation in their morale or their readiness because of 
Iraq or Afghanistan.
    Senator Reed. My impression is similar to yours, but I 
think this is a fault line in terms of some of the mental 
health issues of our troops. It's something, as you suggested, 
that the Army particularly, and the Marine Corps, and all of 
our Services have to be acutely aware of because we're asking 
these young men and women to do some extraordinary things 
repeatedly, and it adds up.
    General Bell. It is, it is.
    Senator Reed. Admiral Keating, we spoke briefly about the 
renewed relationship with Thailand. Can you comment on your 
efforts on cooperation with the Thais, particularly the anti-
drug efforts?
    Admiral Keating. Yes, sir. We were just there 2 weeks ago 
and we met their supreme commander, General Boonsrang, who was 
a good friend from previous engagements. The Thai military 
remains strong. They are solid. They're aware of some concerns 
we have had about their observing what the rest of the world 
would regard as appropriate human rights measures and 
expectations, and I have the assurances of him, General 
Boonsrang, that they have that in hand, and our trainers who 
work with them agree.
    We have a Joint Interagency Task Force (JIATF) West 
headquartered at the United States PACOM, headed by a Coast 
Guard one-star, and they work extensively the counterdrug 
challenges throughout the Asia Pacific AOR. The Thailand 
military is certainly aware of their position on the flow and 
the flow points for narcotics. They are actively engaged. They 
did not share with me any particular efforts they have 
underway, but I did note that General Boonsrang mentioned his 
concern and his active involvement in trying to stem the flow 
of those drugs. So too are Coast Guard-led forces at JIATF 
West.
    Senator Reed. Thank you very much, gentlemen.
    My time has expired.
    Chairman Levin. Thank you, Senator Reed.
    The Clerk's notes say that Senator Wicker arrived 1 minute 
before Senator Martinez. However, review of the videotape shows 
some uncertainty in this regard. [Laughter.]
    I've had extensive conversations with the ranking member 
and we decided to leave it up to you gentlemen. Did you arrive 
simultaneously?
    Senator Martinez. I will go with the chair.
    Chairman Levin. Thank you.
    Senator Wicker.
    Senator Wicker. A random act of kindness by my colleague.
    General Bell, we appreciate that high level of commitment 
and morale that you just testified about. I want to follow up 
on a conversation you and I had last year when I was in the 
House of Representatives and you testified before the 
Appropriations Subcommittee on Military Construction. At that 
time you mentioned a need for a TRICARE representative to 
assist all the servicemembers' families you have living in 
Korea on the economy.
    Can you provide me with an update on that situation?
    General Bell. We're making progress. I don't have the full 
TRICARE service contract in place yet. It's coming. This is a 
competitive process. You just can't order it one day. There has 
to be a request for a proposal through the contracting agencies 
and different companies have to bid for it, et cetera. But we 
expect that in the very near-term, Senator.
    The good news is that in the interim the Army has committed 
several individuals who are wearing Department of the Army 
civilian hats as administrators for me. So now I have people in 
critical locations across the peninsula who are fundamentally 
doing the job of a TRICARE contractor in an interim way. They 
are coordinating with the local Korean hospital. They are 
setting up hot lines and phone lines with them, so when a 
patient comes in and they need care at the local hospital we 
have that liaison working for us. Then the reimbursement of the 
servicemember is handled in an expeditious way.
    We had a situation there for a while where the 
servicemember was expected to pay up front. Can you imagine 
something like that, walking in and saying, I need an 
appendectomy, and having to reach into your pocket as a staff 
sergeant and pay for your appendectomy before you had it? It 
was completely unacceptable. We fixed all that.
    Senator Wicker. Has Congress given you everything you need 
in this regard?
    General Bell. Senator, they have. I'm very pleased. I'm 
working inside the DOD now. I think we're on the right track, 
and I'll report back to you if it comes unglued. But I think we 
are on the right track.
    Senator Wicker. Thank you.
    Another thing we talked about at that hearing last year was 
your concern for ensuring that you have a medical activity 
hospital instead of a combat hospital.
    General Bell. Yes, sir.
    Senator Wicker. Could you update us on that also?
    General Bell. Yes, sir. It's done. We activated the medical 
activity about 5 months ago, which gives us all the authorities 
to requisition the right kind of doctors, the right kind of 
practitioners, and the right kind of nurses for our clientele. 
Embedded in that remains the combat support hospital. So we 
have exactly the right organization now, and that was something 
I look at very positively. I'm very excited about that.
    Senator Wicker. Congratulations on that.
    Now, let me then follow up on something that I'm told you 
testified to earlier before I was able to attend and that's the 
need for uparmored wheeled vehicles. Now, Congress has made 
quite an investment in the mine resistant ambush protected 
(MRAP) vehicle. Would that meet your needs?
    General Bell. Senator, I am concerned about not having 
uparmored vehicles there in the Republic of Korea. I agree with 
the prioritization that the Army has now. For example, in the 
old days a National Guard unit would never be prioritized over 
an Active unit. But National Guard units are going to Iraq. 
They need them before I do. So we have a requirement in for 
various types of vehicles, including the MRAP vehicle, to meet 
our needs, and I believe we'll start seeing that fielding here 
in about the next year.
    But we are at the tail end of that fielding chain and I 
think rightfully so. I'm not complaining at all, because I'm 
not facing imminent combat. So the answer is yes, MRAP is part 
of our future. So are other uparmored kits, whether it's on our 
2\1/2\- and 5-ton vehicles or even our Humvees, and we don't 
have any of that right now of merit. We have about 2 percent of 
our vehicles uparmored, which is not really satisfactory.
    So it's a good program that is laid out and not resourced 
yet.
    Senator Wicker. Thank you very much.
    Now, Admiral, let me quote from page 6 of your testimony: 
``Southeast Asia remains the central front against terrorism in 
the Pacific.'' It strikes me that many people, many Americans, 
don't understand that the war on terrorism affects the region 
that you have charge of. Could you give us the status on the 
fight against terrorism specifically in the Philippines and its 
impact on regional stability?
    Admiral Keating. Yes, sir, I'll try. We were there 2 weeks 
ago and met with Ambassador Kenney and the leader of the Joint 
Special Operations Forces, Philippines, an Army colonel. He is 
in charge of about 500 Special Forces personnel, Army, who are 
deployed throughout central and southern Philippines in support 
of, and it is very important to emphasize, the Armed Forces of 
the Philippines (AFP) in their war against violent extremists 
and terrorists in the southern Philippines.
    Progress is being made. It is measurable, discernible, and 
palpable. As we traveled throughout the southern Philippines, 
the support demonstrated by young men and women who greet the 
AFP as they are moving through the very dense jungle in the 
Philippines is a visual demonstration of the support enjoyed by 
the AFP.
    That said, the AFP are also killing and capturing a 
significant number of Abu Sayyaf Group and Jemaah al-Islamiah 
leaders and lieutenants. There is work to be done, to be sure, 
acknowledged by the Philippines and by our Armed Forces who are 
there now. But the progress is measurable, demonstrable, and 
I'm very proud of the work being done by those 500 soldiers who 
have been there for a while now and are there for the 
foreseeable future.
    Senator Wicker. What would be the consequences of not 
getting the job done in the Philippines to the average American 
citizen?
    Admiral Keating. To the average American citizen who might 
be in the Philippines, we have seen American citizens kidnapped 
there and some killed.
    Senator Wicker. To my constituents back in Mississippi?
    Admiral Keating. To your constituents in Mississippi, it 
would be a gradual erosion of peace and stability all 
throughout the Asia Pacific region. It would have an economic 
impact, and it would have a social impact, it would have an 
impact on one of our longest standing allies in all of the 
world, the Republic of the Philippines.
    Senator Wicker. Thank you very much.
    Thank you both for your service.
    Chairman Levin. Thank you, Senator Wicker.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Admiral, General, thank you for your testimony. Good 
morning.
    In some sense I want to follow up on Senator Wicker's line 
of questioning. Admiral, you have reported to us this morning 
that your AOR, the Pacific, is secure and stable, but obviously 
you have concerns of different kinds. One is the terrorism just 
mentioned, the other is our relations with China, managing 
those in a way that is peaceful and constructive, and of course 
the particular threats represented by North Korea.
    Of the various concerns that you have in your AOR, which 
would you say is your top concern?
    Admiral Keating. The struggle against violent extremism, 
Senator.
    Senator Lieberman. In that sense, this is the regional 
expression of Islamist extremism and terrorism?
    Admiral Keating. Good point. Not just in the Philippines, 
but all throughout the Asia Pacific region, from the east coast 
of Africa to the west coast of the United States.
    Senator Lieberman. It's a very significant answer because 
obviously we're focused on North Korea and China in different 
ways, but you would say from the region that your number one 
concern is to stop the spread of Islamist extremism and 
terrorism. It does make the point that Senator Wicker made, 
which is that this war against Islamist extremism and terrorism 
is global. It's a world war.
    At this point, would you say that the enemy in your region 
is gaining, receding, or being held about where it's been?
    Admiral Keating. Receding, Senator.
    Senator Lieberman. Why is that?
    Admiral Keating. Progress made in the Philippines, progress 
made in Indonesia, progress made in Malaysia, and progress 
being made in India. The kinetic attacks being conducted by 
violent extremists are down. There have been, thank God, very, 
very few significant attacks that have been conducted in our 
AOR since September 11, 2001, as you're aware.
    They are on a much smaller scale. The activities are much 
more local. That makes them no less onerous for those who 
suffer the sting of the terrorists, to be sure. But it is not a 
widespread, coordinated, collaborated effort the likes of which 
we have seen in the wake of September 11.
    Progress is being made on not just a military front, but in 
the sharing of intelligence, on the curtailment of movement of 
violent extremists, and the support that they need to conduct 
their onerous activities. All of these are being reduced in our 
region.
    Senator Lieberman. That's good news.
    Would you say that the Joint Special Operations Task Force, 
Philippines is a model for the way in which we might combat 
extremism and terrorism in other countries in the world?
    Admiral Keating. I would, sir.
    Senator Lieberman. So if you would, and if you've done this 
before I was able to arrive you can make it short, but talk a 
little bit about what that task force does and how you see it 
as that model being applied to other areas of the world?
    Admiral Keating. Yes, sir, I'll try. Our Special Operations 
Forces are world-class counterterrorism experts. It is a 
different kind of expertise than many nations possess. So our 
ability to train the trainers and work through the host 
nation's armed services in preparing the host nation for the 
different aspects of intelligence gathering, of monitoring, of 
prosecuting attacks on a very small scale that are some urban, 
some suburban, and some jungle, it's a very diverse warfare 
set.
    Our Special Forces troops are the best in the world. So by 
training them to train their own personnel we can, one, reduce 
the demand signal for our forces; two, make them better to much 
better the armed forces of our host nations; and three, develop 
information-sharing and collaboration techniques that are at 
least uncommon, if not unprecedented, between those countries 
themselves, and encourage those other countries to share 
between themselves, and it gets to be a network that is very 
powerful and effective.
    Senator Lieberman. I think that's a very important 
statement, an important model. It makes the point that we have 
allies in this war against Islamist terrorism. They tend to be, 
fortunately, the local indigenous security forces, but they 
need help. It also makes the point that we don't have to, we 
can't really be on the front lines in that world war everywhere 
it's taking place. I appreciate that.
    Now, the other good news that you reported on is that we 
have very strong relationships throughout the region, and we 
have some very significant good allies, Australia of course, 
and South Korea. I want to ask you to focus a little bit on two 
others that maybe we don't focus on enough because they are 
such good allies. One is our long-time strong relationship with 
Japan and the second is very significant, improving relations 
with India.
    Give us your report on both the military-to-military and 
political relationships with those two great allies of ours, 
Japan and India.
    Admiral Keating. Yes, sir, thank you. Wandalee and I had 
the pleasure of living in Japan for a couple of years. As you 
say, we have no more steadfast or important ally in the world 
in my view than we do in Japan. I have been there seven times 
since assuming command of PACOM. In each case, though I will 
see sometimes a different minister of defense than I saw in the 
previous visit, the leadership remains constant. Admiral Saito, 
who is their chief of defense staff, is a good friend. They 
remain committed to improving, not just sustaining but 
improving, the military-to-military relationships that we 
enjoy.
    As an example, you know that we are swapping out the U.S.S. 
Kitty Hawk and the U.S.S. George Washington. The Kitty Hawk 
will retire this summer, the longest serving ship in the United 
States Navy inventory, to be replaced by the George Washington, 
a nuclear-powered aircraft carrier. While I lived in Japan and 
served on the Kitty Hawk, this would have been an unattainable 
goal, to put a nuclear aircraft carrier in Japan.
    Senator Lieberman. It's important. It's a mark.
    Admiral Keating. It's happening. The swap-out will take 
place this summer, and there is almost no commotion about it.
    They are committed to the same goals as us, Senator, and I 
am very confident that if we called upon them for support they 
would answer the bell. They have resumed their oiler operations 
in the Indian Ocean in support of Operation Enduring Freedom.
    Senator Lieberman. Yes.
    Admiral Keating. India; I have been there once. I mentioned 
a little bit ago I went through there in the mid-1980s carrying 
Admiral Crowe's bags. The relationship we enjoy with them is a 
much more open, a much more productive, and a much more 
energetic relationship on a military-to-military basis. Our 
visit there in August was very reassuring to me. We were 
conducting exercises with them. They are interested in 
personnel exchanges.
    They are at a critical strategic crossroads for all of us 
and they want to work with us in providing maritime and air 
security over the Indian Ocean and the Bay of Bengal. They're 
critical partners.
    Senator Lieberman. Those are encouraging reports. I thank 
you for them.
    I know that a while back there was a joint exercise carried 
out among some of our most significant allies in the Pacific. 
Tell us what happened and how it went?
    Admiral Keating. Exercise Malabar I think, Senator, is that 
to which you refer?
    Senator Lieberman. Correct.
    Admiral Keating. I've been doing this for many years and I 
would not have conceived of anything this ambitious, this 
sophisticated, or this successful. Aircraft carriers, two 
carrier battle groups of the United States, one from India, an 
Indian aircraft carrier, and ships from Japan, Singapore, and 
Australia all participated, tens of thousands of servicemen and 
servicewomen, in a Bay of Bengal-located high-end technological 
and military tactics, techniques, and procedures exercise.
    It went very well. It was conducted in August. There were 
search and rescue challenges posed by operations and everybody 
pitched in. Of note, it doesn't get headlines, but each of the 
vessels and command centers involved in the exercise were able 
to communicate real-time on a secure channel. So that is a 
dramatic change and a significant step forward in our ability 
to communicate with our allies and partners. It was a very 
successful exercise.
    Senator Lieberman. My time is up. Thank you. Those are very 
significant reports. Obviously, we're a global power with 
global interests and global responsibilities. But the 
encouraging news here in the Pacific is that we have 
increasingly significant assistance from a range of very 
important allies who have a shared interest, obviously, in the 
security and stability of the Pacific. I thank you for the job 
you're doing.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Martinez?
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, good morning and thank you both for being here 
and for your service to the Nation.
    Admiral, I think I'll begin with you and just talk about 
Chinese military expenditures. This may have been covered 
before I came and if it was I apologize. But I realize that 
they're on an upward trend that is rather significant, and I 
was wondering if you could describe for us how significant it 
is, whether it is escalating or in any way tapering off. Also, 
I would like for you to comment on the merger of civilian and 
military efforts, which would mask true military spending 
because of whatever participation the civilian sector may have 
into that as well.
    Admiral Keating. Senator, thank you. The shortest way to 
say this is, the defense budget is going up, it's going way up. 
I don't know how much it's going up, but it's going up. I don't 
know how much it is. Estimates in a recently released report 
have it around 50 billion U.S. dollars. The Chinese will not 
discuss this with me when I'm there. We don't even bring it up 
any more.
    In my first visit, when we did bring it up, they said: 
``Well, you don't understand; it's all going to personnel and 
quality of life accounts,'' which is true enough. The Chinese 
are learning the lesson that we could have and do instruct them 
upon: It costs a lot of money to recruit, train, and equip a 
modest, much less high end, military like we enjoy. They are 
finding out how expensive it is to provide a senior 
noncommissioned officer corps, to provide health care, to 
provide cost of living allowances for folks who get orders from 
the western part of the country to, let's say, the Shanghai 
Naval District. It is a very expensive proposition to recruit 
and train and equip a navy, an army, an air force, and marine 
corps.
    That said, there is no question that they are putting 
significant amounts of money into research, technology, and 
development. The higher end weapons capabilities they're 
developing are of concern to us: area denial weapons, ASAT 
technology, submarines. They have 65 submarines. They're 
building more. That's nearly two and a half times the number of 
submarines we have in the Pacific.
    So long answer to a short question. Their developments are 
of concern to us. It is an increased budget that they enjoy and 
I don't believe all of their increased budget is going into 
personnel costs.
    Senator Martinez. Speaking of the submarines, 65 is a 
substantial number, is it not?
    Admiral Keating. It is.
    Senator Martinez. What does that tell us, those two 
elements, about their intentions or their goals?
    Admiral Keating. When I ask them that question, they choose 
not to answer, Senator, which is in a way an answer in my view. 
They do not share with us their intentions beyond the 
overarching: ``We seek to defend those things that are ours, we 
seek a harmonious integration into civilization, and we're 
pursuing a peaceful rise.'' We get the same response to almost 
every question we direct to them as to intentions.
    It would seem to us at the United States PACOM that the 
development of a blue water navy capability, a significant 
subset of which is their submarine force, which is quiet and 
getting quieter, and capable of going further and further to 
sea, the development of the blue water navy capability and 
these area denial weapons go beyond that which would be 
normally expected of a country who only wanted to protect their 
littoral region.
    Senator Martinez. General, I was interested also in talking 
a little bit with you about the quality of life issues. I was 
interested in your testimony about the deterioration of 
facilities, the fact that apparently your budgets for housing 
and things of this nature have deteriorated over time and a lot 
of the housing is quite aged.
    I was just wondering if you could dwell on that a little 
bit and explain to us your concerns there and what might be 
necessary in order for us to improve the situation.
    General Bell. Thank you for letting me address it. To be 
honest with you, two-thirds of our facilities are either 
temporary or they are between 25 and 50 years old even if 
they're not temporary. So only a third of the facilities that 
we enjoy in Korea are the kinds that we would be proud of, say, 
if that force was in the United States.
    I can only attribute this to a 1-year-at-a-time mentality 
over the years and, instead of improving our facilities, we've 
worked hard on our combat readiness, but we've not really put 
the resources into the facilities that we should have.
    We have a strategic window now. We're moving the Second 
Infantry Division from its location north of Seoul to south of 
Seoul, to a garrison that we call Humphreys. The area at 
Humphreys that we're expanding into, much of the construction 
costs down there are being borne by our Republic of Korea 
allies. These are brand new facilities being built to our 
specifications, but with their money.
    But at the same time, we have to maintain the stuff that we 
do have in other locations, and the amount of money that I've 
been given to do the maintenance and sustainment on those 
standing facilities is inadequate. The best I've done in any 
given year is about 25 percent of what I believe is necessary 
to give full readiness to those kind of facilities.
    So while we have this strategic window to see an 
improvement, I do believe that if we're going to change the 
paradigm in Korea, particularly if we're going to adopt, and I 
hope that we will, a more normal approach to stationing in an 
area that's of vital interest to the United States, we're going 
to have to make the investment. It's not a big investment. We 
don't have a large force there. I don't see this as being a 
major fiscal challenge for the United States. I think it's a 
matter of priorities.
    I am making this a major area of interest for myself and 
the DOD, and I am hopeful that we will continue to see it 
rising. It has gotten better, Senator, in the last couple of 
years. But we are still a long way from the kind of sustainment 
operation for facilities that we see both in the United States 
and in Europe for our forces. I think that's in need of change.
    Senator Martinez. I commend you for your efforts in that 
regard because I think those are really important, both the 
effort to regularize by allowing family tours as well as the 
improvement in the facilities. I think those are very, very 
important to our future in the area.
    Admiral, I was really pleased to hear your answer, in 
response to Senator Lieberman's questions about the Islamic 
extremists in the region. I think one of the great surprises to 
me and perhaps to many others was the growth of Islamic 
extremism in your region, which became apparent immediately 
after September 11, when it was obvious that we had problems in 
those parts of the world.
    Can you give us a comparison as to what the situation that 
you found or we found immediately after September 11, 2001, 
when we became aware of the fact that we were in a global war 
on terror, and where we are today?
    Admiral Keating. Yes, sir. You and all the members will 
recall that many of those extremists who were in the attack 
against us on September 11 were trained or moved through South 
Asia during their training track, if that's the right term to 
use. So it was our area of the world that movement was 
uncontested and financial and logistical support was 
unfettered. It was a much more open area for the movement and 
lodging of terrorists.
    Today that is a much different situation. It started with 
intelligence, information-sharing, intelligence-gathering, and 
intelligence-sharing, in my opinion. Not just military, but all 
manner of agencies, Federal, State, local, and private 
personnel became aware of the challenge. They knew what to do 
with the information that they gathered. Remember, these are 
some of the largest Muslim populations in the world. Indonesia, 
210 million; Malaysia, almost 100 million; India, tens of 
millions. India is the largest democratic country in the world 
with a significant Muslim population.
    All that said, it is a much tougher area of the world for 
radical extremists to navigate around. The flow of money to 
support them is being very, very closely monitored and 
curtailed in a very quick fashion, and all of this below the 
radar. So those who would pursue violent extremist tactics are 
finding it much tougher to live and to operate in the southern 
part of our AOR.
    It's not just a military effort. It is civilian, law 
enforcement, State and local governments, and the private 
population, all combining to make it a very inhospitable 
atmosphere for them.
    Senator Martinez. I commend you for the success and thank 
you both for your service.
    Admiral Keating. Thank you, sir.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Nelson.
    Senator Bill Nelson. Good morning, gentlemen, and thank you 
for your service to our country.
    As a matter of fact, the largest Muslim population country 
in the world is Indonesia. This surprises people. The second 
largest Muslim population country is India, more than Pakistan.
    Gentlemen, I have the privilege of chairing the Strategic 
Forces Subcommittee for the leadership of our Armed Services 
Committee and I want to ask you about the Theater High Altitude 
Area Defense (THAAD), the Aegis ballistic missile systems, 
designed to go after short- and medium-range ballistic 
missiles. Now, the testimony we received in our committee is 
that we've only got about half of what we need or what we 
project to need. This came out of a study called the Joint 
Capability Mix Study.
    I'm curious. In your theater were you consulted on your 
needs to come out with the result of this study?
    General Bell. Senator, I am consulted and I lay my 
requirements out with great clarity for the DOD. What I can 
tell you is that, while the majority of what I do on the Korean 
peninsula is protected with Patriots and so that's the weapon 
of choice, I still have a significant requirement, particularly 
for Aegis cruisers. What they can do for me off the southern 
coast of Korea is protect my port facilities, and instead of 
having to use Patriots for those, having this picket line of 
Aegis cruisers protecting those ports is of vital interest to 
me. I'm encouraging the South Koreans to purchase this system 
and, of course, we have our own significant capability.
    My biggest issue is getting the most modern Patriot system 
in Korea, which I do not have sufficient numbers of now, the 
PAC-3 missile. Why the PAC-3? It engages at a higher altitude 
and prevents the kind of fallout of chemical munitions or 
whatever on the local population. So I have a shortage of PAC-
3s. I have plenty of missiles of older varieties. They are 
effective, but they are not as effective as the PAC-3, and I am 
fairly vocal about my requirement for additional PAC-3s.
    So from my foxhole I'm a PAC-3 man. I'll pass over to my 
good friend Tim Keating because I think he has a lot more to 
say about THAAD than I do. But I would sure like more PAC-3s.
    Admiral Keating. Senator, we were consulted and B.B.'s 
perspective is understandable since he would have a somewhat 
more land-centric focus. We are more interested in the system 
of systems and the connectivity between those systems whether 
it's afloat, land-based in the United States, or mobile but 
still land-based in South Korea or in many of our allies' and 
partners' countries.
    It's the integration of the system of systems in which 
we're principally interested, successes realized by our Navy in 
the maritime portions, and successes realized by our allies at 
hand, and, not insignificantly, the U.S.S. Lake Erie's launch 
of this one-time shot. To be sure, it was a maritime capability 
that we witnessed as we brought down our defunct intelligence 
satellite.
    All of these support our increased emphasis that we're 
recommending for the development of an integrated system of 
systems that includes THAAD, Patriot, and land-based mid-course 
interceptors.
    Senator Bill Nelson. So the conclusion of this Capability 
Mix Study is that we need to buy about twice of both THAAD and 
Aegis systems. You have stated here that you were consulted. 
Should we rely on this Capability Study?
    Admiral Keating. Let me take that for the record, Senator, 
if I could.
    Senator Bill Nelson. Both of you have testified that you 
need more. In your case, General Bell, you need more Patriots, 
but you could sure use more Aegis. You're saying that you could 
use more of both THAAD and Aegis.
    General Bell. I need the right model of the Patriot.
    Senator Bill Nelson. Right.
    Now, Mr. Chairman, this thing's coming up as an issue 
because the administration has requested less than what we put 
in last year's authorization bill as report language on where 
we should be going with these two systems. So as we get ready 
for this authorization bill for this year, this is going to be 
something. I wanted to hear directly from the theater 
commanders.
    These are two effective systems and when you add Patriot to 
it you have multiple layers of protection that any theater 
commander would certainly like to have on incoming warheads, 
trying to knock them down.
    Chairman Levin. Anything additional that they want to 
supply for the record we ought to tell them would be welcome.
    Admiral Keating. I will, sir. Thank you.
    [The information referred to follows:]

    While not OSD-approved, the Joint Capabilities Mix II study is 
helpful in identifying the significant ballistic missile threat we face 
in the Pacific. The study is also correct in recognizing an existing 
shortfall in U.S. active defense interceptor inventories to address 
this threat.
    From USPACOM perspective, we are making improvements in our missile 
defenses at a satisfactory pace, particularly given the worldwide 
demand on defense resources.

    Chairman Levin. We'll try a short second round, perhaps 
maybe 3 to 4 minutes. General Bell, in your written testimony 
you say that, ``We remain concerned about North Korea's 
proliferation of military equipment and ballistic missiles, 
along with missile-related technologies.'' Security Council 
Resolution 1718 bans imports and exports from North Korea and 
to North Korea of military items, including missiles or missile 
systems. Are they complying with 1718?
    General Bell. Senator, they're complying, but I'm not sure 
it's because of 1718, to be honest with you. The last 
significant sale that I've seen, and this is in the public 
record, of missiles by North Korea to anybody was in 2005. That 
doesn't mean for a second that they wouldn't like to, but the 
atmosphere today is not conducive to North Korea proliferating. 
There's a huge amount of pressure from the Six-Party Talk 
process. Certainly these Security Council resolutions put 
enormous pressure on them, and right now their proliferation, 
which they have such a history of, is at a near-zero balance.
    I believe they would certainly want to proliferate. It's a 
source of income for them and I think it's something of great 
concern for us. Nonetheless, today this Security Council 
resolution on balance is being complied with.
    Chairman Levin. What about other conventional military 
equipment?
    General Bell. Sir, they get very little equipment in from 
other countries, almost none. In terms of proliferation 
outbound, we're not seeing that either right now. I would just 
say that North Korea is behaving to a level that is consistent 
with progress in the Six-Party Talks and I think that's 
encouraging.
    Chairman Levin. Have you seen any other rhetoric or do you 
have any other information coming from North Korea that would 
indicate a potential shift of North Korean resources from the 
military to other government sectors? Is there any sign of 
that?
    General Bell. No, sir. I read about that, but I have not 
seen any shift at all.
    Chairman Levin. Do you anticipate that the new 
administration in South Korea will be making any changes in 
policy towards the north?
    General Bell. Yes, sir, I do.
    Chairman Levin. Would you describe them?
    General Bell. I will. This president has a policy that he 
will require reciprocity with North Korea. By that, he 
articulates that if something is given to North Korea by the 
South, economic aid or agreements with the Six-Party Talks 
process, that North Korea must return the favor.
    We've not necessarily seen that with the previous 
government. There were a lot of steps going to the north, 
economic aid, et cetera, but not much reciprocity. Lee Myong-
bak has been very clear in his short time as president that 
whenever the Republic of Korea offers assistance to the North, 
reciprocity will be required.
    I really haven't seen that play out yet because he's such a 
new president but he's very firm about it. He is on public 
record, and we will see how the next months go.
    Chairman Levin. Does that include food aid?
    General Bell. Sir, it does.
    Chairman Levin. Does it include visits from South Koreans 
to the North, which give them some currency? Is he going to cut 
off the South Korean visits, for instance, to the Kumgang 
Mountain? Is that included?
    General Bell. I don't believe that that is going to be cut 
off. Both the tourist trade in the eastern corridor, as it's 
called, and the Kaesong Industrial Complex in the west, there's 
no indication that that process is going to stop. So I would 
say that flow of income to the North is not part of this policy 
at this point.
    Chairman Levin. May I just ask one final question for this 
round? That's the North Korean position relative to nuclear 
matters. According to your written statement, it says that, 
``The leadership of North Korea spent decades developing a 
nuclear deterrent and this will not be relinquished without an 
explicit security guarantee from the United States that 
includes in practice a declaration of permanent peace on the 
Korean peninsula.''
    Can you just state that or expand on that a bit?
    General Bell. Yes, sir. That's what the North Koreans want, 
Senator, very clearly.
    Chairman Levin. Do you believe that they mean it?
    General Bell. I believe that they will not give up their 
nuclear weapons unless they are convinced that they are going 
to be allowed to live with their current governmental system 
into the future and that it will not be subjected to any kind 
of offensive maneuvers.
    Of course, we wouldn't do that anyway, but that is their 
stated policy, and I believe they will hold to that as we go 
through these negotiations.
    Chairman Levin. Senator Warner?
    Senator Warner. I was going to ask you two gentlemen to 
describe for the committee the current maritime protection that 
we have in place against North Korea exporting what we have 
reason to believe are WMD and the respective responsibilities 
in that area. General?
    General Bell. Sir, there are two things, of course. The 
United States has been the leader in both. First is the 
Proliferation Security Initiative (PSI), which the United 
States pursues and retains the right to board ships, and mostly 
it's ships that are leaving North Korean waters, heading into 
international seas, if we choose to.
    Senator Warner. Now, where do we do that interdiction? In 
international water or territorial water?
    General Bell. First, Senator, I'm not aware of any actual 
execution of the PSI authorities in the recent term. But the 
United States reserves the right to do that and it would be in 
international waters, yes, sir.
    So if there was a ship that was suspected to contain some 
kind of missile capability and it was on the high seas, through 
this PSI mechanism the United States has the right to board, or 
with our allies if they would assist us. So Admiral Keating is 
very aware of this procedure.
    Senator Warner. Do you have the command and control of 
those ships within your AOR?
    Admiral Keating. I do, sir.
    Senator Warner. Under what authority does the United States 
exercise this right to board ships in international water which 
embark from North Korea?
    Admiral Keating. It is that PSI, Senator.
    Senator Warner. Clear authority there.
    Admiral Keating. Yes, sir.
    Senator Warner. International authority.
    Admiral Keating. Correct.
    Senator Warner. We do maintain a ship on station for that 
purpose?
    Admiral Keating. We don't maintain it for that express 
purpose. There's a ship on station, Senator.
    Senator Warner. Do you have assets you can call on in short 
order to get up there?
    Admiral Keating. Can and have.
    Senator Warner. General, it's important that we cover the 
issue of family housing, given that the military in your 
command are relocating. This is one that I have followed with 
great interest. I observe in the hearing room today your able 
staff assistant, Kathy Abell.
    General Bell. Yes, sir.
    Senator Warner. Who has been working on this for many 
years.
    What's the status of that now?
    General Bell. Sir, we are dead in the water at this moment 
on the family housing that we agreed to provide in a 2004 
agreement with the Republic of Korea. Fundamentally, they 
agreed to build almost all the facilities that we would need in 
the vicinity of Camp Humphreys. We call it now Garrison 
Humphreys. We agreed to provide the majority of the family and 
senior leader quarters for those who are there on 1-year tours.
    Our approach to that was the build-to-lease mechanism. We 
also have the potential for a military construction approach. 
Neither of those have been considered favorably here in 
Congress.
    I will tell you the Army this year is pursuing yet a third 
option, and that is a full privatization approach without any 
lease guarantees with South Korea or, frankly, to companies.
    Senator Warner. Right. But do you find that the dead in the 
water situation is largely owed to congressional inaction or 
executive branch decisionmaking?
    General Bell. Sir, over the period of 2004 to 2008, in my 
view, it has been a shortcoming in three areas. First, we did 
not properly articulate the requirement at U.S. Forces Korea.
    Senator Warner. Was it articulated to Congress?
    General Bell. Back in 2004 and 2005, I see no history of 
effectively articulating it in a way that you could deal with 
it.
    In 2006 we began to properly articulate the requirement 
that we had signed up for. We had a lot of resistance in the 
administration, a lot, both in the building, in the Pentagon, 
and also in the Office of Management and Budget. When we 
finally worked our way through that in 2006 and did submit a 
proposal that was in the National Defense Authorization Bill, 
it was taken out last year.
    Senator Warner. Here in Congress?
    General Bell. Yes, sir, it was.
    Senator Warner. So again, it looks like the burden is on 
Congress if this thing is to be straightened out.
    General Bell. We're going to try a different approach, not 
just with Congress, but to see if we can get a privatization 
effort going. That may work for us.
    Senator Warner. My last question, Mr. Chairman, relates to 
Australia. It's interesting that Australia is a nation that has 
participated with U.S. forces in every single international 
combat situation we've had since World War I. Am I correct on 
that, Admiral?
    Admiral Keating. I believe you are, sir, yes.
    Senator Warner. Give us your own view now. You have a new 
Labour government in Australia that has decided with respect to 
its continued participation in the coalition of operations in 
Iraq. Similarly, did the Australians indicate there would be 
any changes in the level and character of the Australian 
contribution to the NATO International Security Assistance 
Force mission in Afghanistan? Bring us up to date on those?
    Admiral Keating. We were in Australia 3 weeks ago, Senator, 
for what's called the Australian ministerials. Their minister 
of defense, their chief of defense staff, our Secretary of 
Defense, our Secretary of State, it was in this case Secretary 
Negroponte, Admiral Mike Mullen, and I representing the United 
States.
    During the course of 2 days of discussions on a wide 
variety of topics, the Australians expressed their continued 
support for Operation Enduring Freedom, and their drawdown of 
forces deployed, though not complete withdrawal of forces, in 
support of Operation Iraqi Freedom in Iraq. The theme that was 
unmistakable from our allies was a continued emphasis from them 
on fighting and winning the global war on terror by working 
carefully with us at PACOM on those countries that are closer 
to them that are less solid and very fragile. Timor, Papua New 
Guinea, Fiji, and the Solomon Islands foremost among them. They 
are working carefully in collaboration with us on their 
relations with Indonesia.
    So I came away from that day and a half session reassured 
that the new government and the new policies were largely 
consistent with those of their predecessors and were in support 
of in particular PACOM's strategy and goals.
    Senator Warner. Thank you very much.
    Mr. Chairman, my time is up, but I may want to submit for 
the record a question on India. I'm not sure our record today 
has your full dissertation on the Indian-U.S. military-to-
military cooperation.
    Admiral Keating. I'd be happy to take it. Thank you very 
much.
    [The information referred to follows:]

    U.S. Pacific Command (PACOM) military-to-military interaction with 
Indian Armed Forces is positive and steadily improving. Initial 
cooperative efforts in the areas of counterterrorism, maritime 
security, and disaster relief have been effective and successful in 
increasing trust between our militaries. For the future, we are 
developing a military-to-military program that includes progressively 
more complex exercises. This is best exemplified by the recent U.S.-
Indian Naval Exercise Malabar 07, which involved two U.S. and one 
Indian aircraft carrier as well as participants from Japan, Singapore, 
and Australia. Similarly, completed and potential defense sales to 
India have increased levels of cooperation and interoperability.
    From discussion with Indian leaders, it is clear we share many of 
the same security concerns in South Asia and the broader Asia-Pacific-
Indian Ocean region. PACOM will continue to be a key contributor in the 
important U.S.-India strategic partnership.

    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I take the opportunity on the second round, General, to do 
what I should have done on the first, which is to thank you for 
your service, not just in the time you've been in Korea, but 
over a distinguished career in the national interest, and I 
wish you the best in the next chapter.
    Admiral Keating, as I hear you talk it strikes me, and I 
think we appreciate it enough here, that those of you who are 
regional commanders have a critically important diplomatic role 
as well as a military role, and that in many ways in an area as 
farflung and diverse as the Pacific the Commander of PACOM is 
really the face of America, with all the credibility of the 
American military behind them. So I thank you for all that 
you've done and all that those who serve with you have done.
    I wanted to come back on this round just to ask you if you 
would comment on the current status of what has looked like a 
real breakthrough agreement with India. That is, the U.S.-India 
civil nuclear agreement.
    Admiral Keating. I'll try, Senator.
    Senator Lieberman. Yes. I set you up as a diplomatic 
authority before asking you the question. I want to establish 
your credibility. But I actually meant what I said. It wasn't 
just for the purpose of asking this question.
    Admiral Keating. I'll give it my best shot, sir. While 
there in August, those folks with whom I met expressed concern 
that they weren't able to get this over the goal line, the 
nuclear agreement.
    Senator Lieberman. Meaning within their political system?
    Admiral Keating. Yes, sir. Some in sidebar conversations 
weren't just concerned, they were frustrated. They think that 
this is very much to India's benefit as well as ours. They see 
a program of significant strategic benefit to them being all 
balled up in pure local politics. I don't think much has 
changed. I was in the State Department yesterday, Senator, and 
a relatively brief discussion indicated to me that this program 
is still wrapped up in local politics. The folks with whom I 
discussed this at State are cautiously optimistic that there 
may be light at the end of the tunnel, if that's the right 
metaphor, but it is not yet a done deal. It is something that 
would indicate to us at PACOM passage of this bill would be a 
significant step forward in even better relations we enjoy with 
India. So we'd be anxious to see it improved.
    Senator Lieberman. Yes, I agree. I think it's a significant 
development in our bilateral relationship.
    If I'm correct, in the last few weeks Secretary Nicholas 
Burns made a statement to a newspaper in India that he thought 
that China would accept, if not endorse, the U.S.-India nuclear 
agreement. I wonder if you could comment, if you have any 
knowledge, on not just China, but what the reaction in the 
region has been thus far to the proposed nuclear agreement with 
India?
    Admiral Keating. There has been almost no discussion with 
me in any country, including China, Senator. I'm sure they're 
watching it, but there's been no demonstration.
    Senator Lieberman. So that's important. In other words, 
nobody in your various travels around the region has raised the 
question with you?
    Admiral Keating. Zero.
    Senator Lieberman. Needless to say, they're not objecting.
    Thank you very much. Thanks to both of you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    What is the status of the Six-Party Talks, General?
    General Bell. The Six-Party Talks are still ongoing and 
there is still optimism. Physically, what's happened is that we 
expected a declaration by the North Koreans by December 31 of 
their full nuclear program laydown, including anything about 
their highly enriched uranium (HEU) program. That was not 
forthcoming on time with our negotiators.
    It's being led by our State Department. What we're doing 
now is attempting to get the North Koreans to fully comply with 
their agreement, and that was during phase 2 to provide us with 
a complete list of their nuclear programs, including HEU 
programs. I'm still optimistic. I watch the North Koreans 
closely. They are still disabling the Yongbyon reactor. There 
are somewhere in the vicinity of 8,000 uranium rods in that 
reactor and they are extracting about 30 a day from the reactor 
and moving them to a cooling tank, and they've not stopped 
doing that.
    Chairman Levin. What percentage of the rods have been 
moved?
    General Bell. About 25 percent, Senator, around 2,000 of 
the 8,000.
    Chairman Levin. At the rate they're doing it, when would 
that be completed?
    General Bell. About August, which is a lot later than we 
had hoped for. But they're still doing it. It's actually 
happening.
    Chairman Levin. What happens if at the end of the day they 
just simply say they don't have and never did have an HEU 
program?
    General Bell. I'm not certain that they will say that, but 
they may. We have a lot of evidence. You can go back to 2005 
when the president of Pakistan in a news conference articulated 
that A.Q. Khan had passed on to the North Koreans 12 
centrifuges. There is some other classified evidence perhaps 
that our community is concerned about, that I have not been 
privy to.
    But we want a clear declaration. I think, based on what 
they say, if they'll just provide it to us, we can make a 
judgment about whether to accept that or whether to draw a hard 
line.
    Chairman Levin. General, you made reference to the South 
Koreans contributing resources to our presence in South Korea.
    General Bell. Yes, sir.
    Chairman Levin. Give us some idea of the cost to South 
Korea each year of that contribution to our presence, if you 
have a number?
    General Bell. They pay about a third of our operations and 
maintenance costs. We call them bureaucratically non-personnel 
stationing costs. In other words, all the sustainment money. 
Our sustainment requirements are in excess of $2 billion a 
year. They paid this year $787 million in cash to us to assist 
in sustainment, payment of local national labor, and a 
percentage towards military construction.
    Frankly, the majority, a significant majority, of the 
military construction I do in the Republic of Korea is through 
this burdensharing account that we have. So it's not where I 
want it. I believe that they could contribute more and I've 
been relatively vocal about that. But they are contributing 
significantly and I think it's very positive.
    Chairman Levin. By the way, I want to share Senator 
Warner's thoughts in terms of their taking command. It has been 
delayed. You say that 63 percent of the people in South Korea 
want us to stay even after that command is shifted? I believe 
that was the statistic.
    General Bell. I think it's 68.
    Chairman Levin. Sixty-eight percent.
    General Bell. Sir, that's even if the North Korea problem 
is solved.
    Chairman Levin. Even if that problem is solved.
    General Bell. Seventy-five percent want us to stay even if 
that command shift happens.
    Chairman Levin. Thank you for that clarification.
    What that means is that they're happy with us to basically 
not only stay, but to continue in our present situation. They 
are not pressing us for a shift in command, apparently; we're 
pressing them; is that true?
    General Bell. Senator, I don't think that's true.
    Chairman Levin. Then why hasn't it been shifted?
    General Bell. We do have a plan that we both signed up to. 
It's very detailed. It's called a Strategic Transition Plan. I 
do believe we got to that plan later in our evolution with the 
Republic of Korea than we should have. But when we signed that 
plan last year it was a firm commitment by both nations for 
them to take operational control of their military in wartime 
in 2012.
    So I believe we could have done this earlier effectively. 
I've said that many times, sir, even on the record here. But we 
do have a good plan now. Both nations are signed up for it, and 
the South Koreans are very much working hard. They're spending 
money. They're producing enormous energy. They're exercising 
with us now.
    I will just conclude by telling you that in August of this 
year we will conduct an exercise where we attempt to separate 
the commands into a leading South Korean command, we're calling 
it Joint Forces Command, with the United States in a supporting 
role, and we'll try that out for the first time. Then we'll 
take the lessons learned and we'll try it again later. So this 
is making substantial progress.
    Chairman Levin. Had there been a firm commitment to do this 
by 2009?
    General Bell. There was never a commitment to do it by 
2009, no, sir, there was not.
    Chairman Levin. Just a discussion to do that?
    General Bell. I was proposing that, yes, sir.
    Chairman Levin. We want to again thank you both. 
Particularly we'll single you out, General Bell, because of 
your shift.
    General Bell. Thank you.
    Chairman Levin. Do you know what you're going to be doing 
after the change of command?
    General Bell. Yes, sir.
    Chairman Levin. I don't want to pry into your personal 
plans.
    General Bell. I'd like to put it on the record. I have an 
appointment with a trout in the Smokey Mountains, and he or she 
and I have an arrangement to work out.
    Chairman Levin. Can you tell us the approximate length of 
that trout? My hunch is it's probably that big [indicating].
    General Bell. It doesn't matter, and I will return that 
trout alive to those waters. I don't kill trout.
    Chairman Levin. You've been a terrific asset to our country 
and to our Nation.
    Admiral, we feel the same about you, but you've still got a 
little longer tour of duty ahead of you.
    Admiral Keating. My hair is not quite white enough yet, 
sir.
    Chairman Levin. We are grateful to both of you for your 
service. Thank you. This hearing is adjourned.
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
           additional ground-based midcourse defense testing
    1. Senator Levin. Admiral Keating, with respect to flight testing 
of the Ground-based Midcourse Defense (GMD) ballistic missile defense 
system, the Pentagon's independent Director of Operational Test and 
Evaluation reported in December that ``GMD flight testing to date is 
not sufficient to provide a high level of statistical confidence in its 
limited capabilities.'' On March 6, 2008, General Renuart, Commander of 
U.S. Northern Command, testified that he agrees that we need to conduct 
robust and operationally realistic testing of the GMD system, in other 
words, testing the system the way it is intended to be used in an 
operational mission, to demonstrate its operational capabilities. He 
also agreed that such testing should include salvo launches and 
multiple target tests, as well as tests with countermeasures. Do you 
agree with General Renuart that we need such additional testing of the 
GMD system?
    Admiral Keating. I agree with General Renuart's assessment.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                                 china
    2. Senator Bill Nelson. Admiral Keating, how would you characterize 
the relationship that exists between the U.S. military and China's 
military?
    Admiral Keating. The military-to-military relationship is 
constructive and cordial. The People's Liberation Army (PLA) recognizes 
the value in working with us to reduce potential for miscalculation. In 
this regard, U.S. Pacific Command (PACOM) continues to advocate for 
pragmatic engagement with the PLA. We are encouraging a more mature, 
constructive, and potentially cooperative relationship. At the same 
time, PACOM will retain the capability to credibly maintain a secure 
and stable Asia-Pacific.

                        shoot down of satellite
    3. Senator Bill Nelson. Admiral Keating, what has the reaction been 
in the region to the shoot down of the National Reconnaissance Office 
(NRO) satellite?
    Admiral Keating. Regional reactions to the U.S. shoot down of the 
NRO satellite were largely muted. The Governments of Australia and 
Japan publicly supported the shoot down. China, Russia, and North Korea 
denounced our actions.

    4. Senator Bill Nelson. Admiral Keating, planning for the shoot 
down effort actually began in December of last year. Generally, what 
was involved in reconfiguring the Aegis missile defense system to 
conduct the shoot down and how long did it take?
    Admiral Keating. Modifications were made to the software of the 
shipboard Aegis Weapon System and the Standard Missile-3 (SM-3). I 
would defer to the Missile Defense Agency for specifics on the length 
of time to implement those modifications and the exact nature of the 
changes.

          impacts of transformational communications satellite
    5. Senator Bill Nelson. Admiral Keating, in your various planning 
activities, what do you see as the growing demand for satellite-based 
communications including the bandwidth needed to fly unmanned aerial 
vehicles?
    Admiral Keating. PACOM requires medium and high data rates capacity 
to enable real-time and persistent worldwide connectivity. For the 
future, the requirement to bring voice, data, and imagery to our 
tactical users for communications-on-the-move will demand increased 
bandwidth. In addition, the requirement is expanding for wideband 
protected communications such as unmanned airborne vehicles and 
airborne and space, intelligence, surveillance, and reconnaissance 
assets.

    6. Senator Bill Nelson. Admiral Keating, would the Transformational 
Communications Satellite (TSAT) meet some of those requirements?
    Admiral Keating. Yes, the TSAT System would provide tremendous 
capacity to meet PACOM requirements. TSAT will support both wideband 
and protected requirements, and ensure uninterrupted communications for 
command and control and intelligence missions. Also, TSAT will employ 
crosslinks between satellites which will reduce the satellite 
vulnerability footprint.

    7. Senator Bill Nelson. Admiral Keating, is there some general 
percentage of your communications requirement that you plan to be 
commercially provided, and if so, what is the percentage now and the 
percentage expected in the future?
    Admiral Keating. PACOM use of commercial satellites is driven by 
demand. Currently, our communications modeling shows 73 percent of our 
requirements filled by commercial satellites.
    Because commercial satellite communications resources are scarce in 
the PACOM area of responsibility and we face stiff competition for 
access to them, we advocate for alternatives to commercial assets. 
Timely deployment of the Wideband Global Satellite Communications 
System, Advanced Extremely High Frequency Satellite Communications 
System, and TSAT System are necessary to reduce our reliance on 
commercial satellites in the future.

    8. Senator Bill Nelson. Admiral Keating, in your various war games 
and scenarios, do you exercise losses or decreases in availability of 
various satellite services, such as communications, intelligence, 
surveillance, reconnaissance or the navigation and timing provided by 
the Global Positioning System, and if so, what are those results?
    Admiral Keating. Yes, we regularly train to scenarios in which 
satellite communications are degraded or denied for various reasons. In 
these simulations, we have achieved satisfactory results by realigning 
priorities and offloading mission to other space or alternate ground 
assets.

    [Whereupon, at 11:41 a.m., the committee adjourned.]

                                 <all>

</pre></body></html>
